<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-241]
[From the U.S. Government Printing Office]


                                                 S. Hrg. 108-241, Pt. 1

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1050

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2004 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 1

                            MILITARY POSTURE
                             SERVICE CHIEFS
                          SERVICE SECRETARIES
                    UNIFIED AND REGIONAL COMMANDERS
                       BALLISTIC MISSILE DEFENSE
      ATOMIC ENERGY DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY
                            HOMELAND DEFENSE

                               ----------                              

          FEBRUARY 13, 25; MARCH 6, 13, 18, 20; APRIL 8, 2003




         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                              2004--Part 1

  MILITARY POSTURE  b   SERVICE CHIEFS  b   SERVICE SECRETARIES  b   
  UNIFIED AND REGIONAL COMMANDERS  b   BALLISTIC MISSILE DEFENSE  b   
   ATOMIC ENERGY DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY  b   
                            HOMELAND DEFENSE

                                                 S. Hrg. 108-241, Pt. 1

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1050

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2004 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 1

                            MILITARY POSTURE
                             SERVICE CHIEFS
                          SERVICE SECRETARIES
                    UNIFIED AND REGIONAL COMMANDERS
                       BALLISTIC MISSILE DEFENSE
      ATOMIC ENERGY DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY
                            HOMELAND DEFENSE

                               __________

          FEBRUARY 13, 25; MARCH 6, 13, 18, 20; APRIL 8, 2003


         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
87-323 PDF                 WASHINGTON DC:  2004
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  


                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                            Military Posture
                           february 13, 2003

                                                                   Page

Rumsfeld, Hon. Donald H., Secretary of Defense...................    10
Myers, Gen. Richard B., USAF, Chairman, Joint Chiefs of Staff....    25

                             Service Chiefs
                           february 25, 2003

Shinseki, Gen. Eric K., USA, Chief of Staff, United States Army..   115
Clark, Adm. Vernon E., USN, Chief of Naval Operations............   184
Hagee, Gen. Michael W., USMC, Commandant of the Marine Corps.....   203
Jumper, Gen. John P., USAF, Chief of Staff, United States Air 
  Force..........................................................   217

                          Service Secretaries
                             march 6, 2003

White, Hon. Thomas E., Secretary of the Army.....................   336
Johnson, Hon. Hansford T., Acting Secretary of the Navy..........   361
Roche, Hon. James G., Secretary of the Air Force.................   375

    Unified and Regional Commanders on Their Military Strategy and 
                        Operational Requirements
                             march 13, 2003

Fargo, Adm. Thomas B., USN, Commander in Chief, United States 
  Pacific Command................................................   495
LaPorte, Gen. Leon J., USA, Commander in Chief, United Nations 
  Command, U.S. Forces Korea, Combined Forces Command Korea......   519
Hill, Gen. James T., USA, Commander in Chief, United States 
  Southern Command...............................................   533

                       Ballistic Missile Defense
                             march 18, 2003

Aldridge, Hon. Edward C. ``Pete,'' Jr., Under Secretary of 
  Defense for Acquisition, Technology, and Logistics.............   588
Christie, Hon. Thomas P., Director of Operational Test and 
  Evaluation, Department of Defense..............................   593
Crouch, Hon. J.D., II, Assistant Secretary of Defense for 
  International Security Policy..................................   598
Kadish, Lt. Gen. Ronald T., USAF, Director, Missile Defense 
  Agency.........................................................   605

      Atomic Energy Defense Activities of the Department of Energy
                             march 20, 2003

Abraham, Hon. Spencer, Secretary of Energy.......................   677

                            Homeland Defense
                             april 8, 2003

McHale, Hon. Paul, Assistant Secretary of Defense for Homeland 
  Defense........................................................   751
Eberhart, Gen. Ralph E., USAF, Commander, United States Northern 
  Command........................................................   758
Ellis, Adm. James O., Jr., USN, Commander, United States 
  Strategic Command..............................................   764


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

                              ----------                              


                      THURSDAY, FEBRUARY 13, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                            MILITARY POSTURE

    The committee met, pursuant to notice, at 9:34 a.m., in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Inhofe, Allard, 
Sessions, Collins, Ensign, Talent, Chambliss, Dole, Cornyn, 
Levin, Kennedy, Byrd, Reed, Akaka, Bill Nelson, Ben Nelson, 
Dayton, Bayh, Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Marie Fabrizio Dickinson, chief clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; L. David Cherington, counsel; Brian 
R. Green, professional staff member; William C. Greenwalt, 
professional staff member; Carolyn M. Hanna, professional staff 
member; Mary Alice A. Hayward, professional staff member; 
Ambrose R. Hock, professional staff member; Gregory T. Kiley, 
professional staff member; Patricia L. Lewis, professional 
staff member; Thomas L. MacKenzie, professional staff member; 
Ann M. Mittermeyer, counsel; Lucian L. Niemeyer, professional 
staff member; Lynn F. Rusten, professional staff member; Scott 
W. Stucky, general counsel; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Madelyn R. Creedon, minority counsel; Kenneth M. 
Crosswait, professional staff member; Evelyn N. Farkas, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; Creighton Greene, professional staff member; 
Maren R. Leed, professional staff member; Gerald J. Leeling, 
minority counsel; Peter K. Levine, minority counsel; Christina 
D. Still, professional staff member; and Bridget M. Whalan, 
special assistant.
    Staff assistants present: Michael N. Berger, Leah C. 
Brewer, Sara R. Mareno, and Nicholas W. West.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; Christopher J. Paul, assistant to 
Senator McCain; John A. Bonsell, assistant to Senator Inhofe; 
James Beauchamp, assistant to Senator Roberts; Jayson Roehl, 
assistant to Senator Allard; Arch Galloway II and Rick 
Dearborn, assistants to Senator Sessions; James P. Dohoney, 
Jr., assistant to Senator Collins; Lindsey R. Neas, assistant 
to Senator Talent; James W. Irwin, assistant to Senator 
Chambliss; Aleix Jarvis, assistant to Senator Graham; Henry J. 
Steenstra, assistant to Senator Dole; Sharon L. Waxman and 
Mieke Y. Eoyang, assistants to Senator Kennedy; Christina Evans 
and Erik Raven, assistants to Senator Byrd; Aaron Scholer, 
assistant to Senator Lieberman; Elizabeth King, assistant to 
Senator Reed; Davelyn Noelani Kalipi, assistant to Senator 
Akaka; William K. Sutey and Douglas Bush, assistants to Senator 
Bill Nelson; Eric Pierce, assistant to Senator Ben Nelson; 
William Todd Houchins, assistant to Senator Dayton; Todd 
Rosenblum and Rashid Hallaway, assistants to Senator Bayh; 
Andrew Shapiro, assistant to Senator Clinton; and Terri Glaze, 
assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets today to receive 
testimony from Secretary of Defense Donald Rumsfeld and 
Chairman of the Joint Chiefs of Staff General Richard Myers on 
the posture of the U.S. Armed Forces as it affects the budget 
for fiscal year 2004 and in the future.
    Secretary Rumsfeld and General Myers, we welcome you back 
before the committee and commend you once again for the 
outstanding service you both continue to provide to our Nation 
and to our men and women in uniform. I observe, as one who has 
been in that building, a very close and trusting working 
partnership between the two of you, and that's for the best 
interests of the men and women in the Armed Forces and indeed, 
the country. Our Nation could not have a better team guiding 
our military during these challenging times.
    As we meet this morning, tens of thousands of our service 
members have departed their families, their homes, their jobs, 
and are engaged around the world in the global war on 
terrorism. Indeed, many of them have taken up posts here at 
home in defense of our own Nation. Many thousands more are 
preparing for possible conflict in Iraq and the Persian Gulf 
region. These very men and women in uniform deserve our 
strongest support, and their families here at home. They will 
get it.
    President Bush stated in the new national security strategy 
for the United States, ``Defending our Nation against these 
enemies is the first fundamental commitment for the Federal 
Government.'' Today, that task has changed dramatically. 
Enemies in the past needed great armies and great industrial 
capabilities to endanger America. Now shadowy networks have 
demonstrated the ability to inflict great chaos or suffering on 
our shores for less than it costs to produce a single tank or 
airplane. To defeat this threat, we must make use of every tool 
in our arsenal.
    Clearly, homeland security is now our Nation's most urgent 
priority. The active involvement of our Armed Forces in 
defending America, supporting the Nation's homeland security 
infrastructure is essential. This committee's most urgent duty 
in the 108th Congress must be to insure that the land, sea, 
air, space, and cyberspace closest to our shores are defended, 
and to be prepared, if necessary, to defeat those who would 
bring harm to our shores.
    At the same time, however, we must remember, the defense of 
our homeland begins in the distant battlefields of the world. 
Our forward deployed forces are and will remain our first line 
of defense and deterrence. The morale and readiness of these 
forces are fundamental to the security of our Nation. It's 
critical that we fully honor the services of our men and women 
in uniform and that we keep faith in their dedication to duty 
through the timely modernization of their equipment and 
facilities, and sustain investment in those programs that 
enhance the quality of life for our service personnel and their 
families.
    That message was reinforced as I visited each of our 
service secretaries, our service chiefs, and their staffs 
during December, preparing once again to assume the 
chairmanship of this distinguished committee. I'd like to thank 
you, Mr. Secretary and General Myers, for affording me the 
complete and open access to each of the services on the Office 
of the Secretary of Defense (OSD) staff. The briefings were of 
great benefit to me and my staff as we now assume our duties.
    I am encouraged by my initial review of the President's 
defense budget request. The fiscal year 2004 request of $379.9 
billion represents a $15.3 billion increase over the fiscal 
year 2003 level. This is a modest real increase in defense 
spending, 2.5 percent, but the 2004 budget request is almost 
$52 billion above the fiscal year 2002 enacted level, a 
significant increase by any measure.
    The sustained increases in defense spending we have made 
over the past 3 or 4 years are, I think, making real strong 
progress to shore up the needs of this country to protect 
itself both here at home and abroad. We will begin fielding 
components of a national missile defense this year, filling a 
key role of President Bush and indeed preceding Presidents and 
many Members of Congress have been in strong support through 
these years.
    The increased use of unmanned systems, a key initiative of 
this committee when I was first its chairman, has become a 
reality and a substantial funding for these systems in the 
budget will build on the initial successes we have seen so 
vividly thus far in the global war on terrorism.
    Funding for Navy shipbuilding is increasing, not as much as 
we wish, but clearly the curve is headed up with construction 
of seven new ships in the budget before us.
    I am encouraged by what I have seen so far, but I must add 
a note of caution. This budget proposes only a modest increase 
in defense spending at a time when our military is engaged in 
one war, the global war on terrorism; another war could be 
lurking; indeed, a third in the Pacific, the Korean Peninsula 
poses another growing threat. We are putting extraordinary 
demands on our forces around the world. We are blessed with a 
military that has responded to these demands with extraordinary 
success, and that military is composed not only of the regular 
forces, but the National Guard and the Reserves.
    Even the best military in the history of the world has its 
limits. People, facilities, equipment, and families can only do 
so much with limited resources. As we review the budget request 
over the next few years and months, we need to carefully 
analyze the effect of this long-term stress on our men and 
women in uniform and their families, and consider the 
investments needed to ensure we have the people and the 
capabilities to carry on the objectives that have been laid 
down by our courageous President.
    Again, gentlemen, thank you for your service, and your 
continued commitment to the uniformed and civilian personnel of 
your department. All you've given in protecting our homeland 
and your focus on preparing our Armed Forces to meet the 
expected and unexpected stress of the future have greatly 
enhanced our national security.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. Let me first join 
you in thanking our witnesses today, thanking you for your 
service, and thanking you for coming to share with us your 
thoughts on the issues which face our Nation and the world.
    Our Armed Forces stand on the brink of possible military 
action in the next few weeks. As many as 250,000 of our 
soldiers, sailors, airmen, and marines will be in the Persian 
Gulf region preparing for a possible war against Iraq. Almost 
40,000 more stand on the front lines in Korea, within range of 
North Korean artillery and rockets. Thousands of additional 
American troops are risking their lives every day in continued 
operations in the global war on terrorism in Afghanistan and 
other hot spots around the world. Of course, many more continue 
to work to keep the peace and work to build a more stable 
future in the Balkans and elsewhere. To support these efforts, 
the President has already called up more than 100,000 members 
of the Reserve component to active duty.
    Many questions have been raised in recent months about our 
policy moves on Iraq, Korea, and elsewhere. Concerns have been 
raised about our proclivity to proceed unilaterally; about a 
rising tide of anti-Americanism overseas; about the risk that 
the focus on Iraq has reduced our focus on the war against 
terrorism, which has to be fought and won here at home as well 
as overseas; about whether our refusal to talk directly with 
the North Korean regime as urged by our South Korean allies may 
be undermining our interests in that area of the world; and 
about the degree of our commitment to rebuilding Afghanistan 
and the possible consequences of a similar lack of follow-
through in Iraq.
    I share many of those concerns. I believe that America is 
at its strongest and at its best when we make common cause with 
other nations in pursuit of common goals. I believe that the 
path to a safer world and a more secure America rarely comes 
from a go-it-alone approach. Specifically, I believe that in 
the absence of an imminent threat, it is in our interest to 
have a U.N. resolution authorizing member states to take 
military action before initiating a preemptive attack against 
Iraq.
    If there is any chance of disarming Saddam Hussein without 
war, it is for the United Nations to speak with one voice. If 
military force is used, the best way of reducing both short-
term risks, including the risks to the U.S. and the Coalition 
Forces, and the long-term risks, including the risk of 
terrorist attacks on our people throughout the world, is also a 
U.N. resolution authorizing the use of force.
    Supporting U.N. inspections is an essential step if we're 
going to keep the Security Council together. We can show 
support for those U.N. inspections by sharing with the U.N. 
inspectors the balance of our significant intelligence 
information about suspect sites, by quickly getting U-2 
aircraft in the air over Iraq without condition, with or 
without Saddam Hussein's approval, and by giving the inspectors 
the time they need to finish their work, as long as the 
inspections are unimpeded.
    Yesterday I talked about statements by the administration 
that all useful intelligence information in our possession has 
now been shared with the U.N. inspectors. Condoleezza Rice told 
us exactly that at the White House 10 days ago. George Tenet 
told us at an open Intelligence Committee hearing 2 days ago 
exactly that. They were in error. Director Tenet acknowledged 
yesterday right here that we still have information and we will 
be sharing it.
    The premature declaration that we've already shared all 
useful intelligence makes us seem excessively eager to bring 
inspections to a close. Top administration officials from the 
beginning said inspections were useless and that inspectors 
couldn't find anything without Saddam showing them where it 
was.
    That's what he's supposed to do, but there is at least a 
chance inspections will prove useful even without his 
cooperation. Inspectors caught him in lies about his biological 
weapons programs in the 1990s, and in this morning's papers it 
appears they're catching him in lies about the range of 
missiles that he is currently developing.
    Another way to support the inspectors is to back up their 
request for U-2 surveillance planes with a U.N. resolution that 
says that any interference with those planes by Saddam Hussein 
will be considered an act of war against the United Nations. 
During the State of the Union speech President Bush noted that, 
``Iraq is blocking U-2 surveillance flights requested by the 
United Nations.'' Secretary Powell, during his address to the 
U.N. Security Council a week ago, noted that ``Iraq has also 
refused to permit any U-2 reconnaissance flights that would 
give the inspectors a better sense of what's being moved 
before, during, and after inspections.''
    In The New York Times on January 30, a senior White House 
official is quoted as describing Iraq's refusal to allow the U-
2 surveillance flights, ``the biggest material breach of all, 
so far.''
    I met with Dr. Blix and his staff on January 31 in New 
York. They told me that U-2 flights would be very useful 
because of their ability to observe large areas of Iraq over 
extended periods of time. U-2 flights would be particularly 
helpful to track trucks that appear to be moving items from one 
suspicious place to another and to track mobile labs. 
Satellites can't track suspicious vehicles; U-2s can.
    For this reason, I was astonished to read on Tuesday that 
State Department spokesman Richard Boucher characterized what 
appeared to be an agreement to implement U-2 flights as, 
``nothing worth getting excited about.'' If Iraq's refusal to 
allow U-2 surveillance is cited by the President, characterized 
by the White House as a big material breach, if Secretary 
Powell is right when he says that U-2 surveillance flights 
would give the inspectors a better sense of what's being moved 
before, during, and after inspections, then minimizing their 
usefulness at this point can only be explained as further 
disdain for the inspection's effort.
    It may be unlikely that inspectors will catch Saddam with 
the goods without his cooperation. It's at least possible, 
however, and we should increase that possibility by sharing all 
our useful intelligence and using the U-2.
    Supporting the inspectors in these and other ways is not 
inconsistent with the position that the administration has 
correctly taken that the burden is on Saddam Hussein to show 
where the prohibited material is or what he's done with it. The 
fact that he hasn't carried his burden is undeniable but how 
best to deal with his deceit and deception is still ours and 
the world's challenge.
    At the same time that our Nation faces these vital issues 
of war and peace, our committee will be asked to address a wide 
range of other issues affecting the Department of Defense over 
the next year, including many of the budget issues which the 
chairman has just gone through. But we're also told that the 
administration is considering a wide array of far reaching 
proposals that would change the way the Department of Defense 
operates and the role of Congress in overseeing these 
operations.
    For example, we're told that the administration is 
considering a proposal--I emphasize the word considering--that 
would:
    One, alter congressional oversight and control over defense 
expenditures by putting the Department on a 2-year budget cycle 
or raising the threshold for reprogramming funds without 
congressional approval.
    Two, that they are considering a proposal to change the 
role played by the Joint Chiefs of Staff by replacing the 
current 4-year term served by the service chiefs with 2-year 
terms renewable at the discretion of the Secretary; requiring 
the Joint Staff to report to the Secretary of Defense, rather 
than to the Chairman of the Joint Chiefs; and requiring 
secretarial approval of all appointments to the Joint Staff and 
by striking the statutory requirement that the Joint Staff be 
``independently organized and operated.''
    Three, that's apparently under consideration, we're told, 
is to change the role played by the Reserves in our Armed 
Forces by, for instance, making it easier to shift money from 
Reserve Forces to Active-Duty Forces without the need for 
congressional approval, and eliminating the Assistant Secretary 
of Defense for Reserve Affairs, the highest ranking advocate 
for the interests of the Reserve Forces in the Department.
    Four, we're told that under consideration is altering the 
treatment of the Department's civilian employees by denying 
them the right to union representation, eliminating grievance 
procedures, making it easier to fire them, and making it easier 
to transfer work currently performed by civilian employees to 
the private sector without allowing them to compete for their 
jobs.
    Finally, we're told that under consideration is a proposal 
to give the administration the authority to reorganize the 
Department without regard to legislative requirements and to 
abolish a significant number of positions, including the 
Assistant Secretary of Defense for Special Operations and Low 
Intensity Conflict, the DOD official responsible for 
coordinating the Department's efforts to combat terrorism.
    Mr. Chairman, I emphasize that these proposals are 
apparently only under consideration. Many of them may never 
become formal legislative proposals submitted to Congress. But 
in view of the far-reaching impact that they could have if 
enacted, our members should be aware that we may have to 
address some of them in the coming year.
    Finally, Mr. Chairman, I want to utilize the presence of 
Secretary Rumsfeld and General Myers to extend our gratitude to 
the men and women of the Department of Defense, military and 
civilian alike, for the extraordinary work that they do for us 
every hour of every day to ensure our Nation's security.
    There may not be unanimity around here on a number of 
issues, but there is unanimity around here on at least one 
thing. All of us and the American people will stand behind our 
uniformed forces if they are engaged in military conflict. 
Should they be so engaged, we will provide our men and women in 
uniform with everything that they need to ensure that they 
prevail promptly and with minimal casualties.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin.
    During the course of the hearing this morning, I will 
introduce into the record a letter from the Director of the 
Central Intelligence Agency (CIA) with regard to his 
perspectives on the very important matter that my colleague has 
raised concerning the flow of intelligence information from our 
Government to the Security Council and to Hans Blix' 
organization.
    I have been present at I think most of the meetings that my 
distinguished colleague has had with the director and/or his 
staff. I have views somewhat different on the same facts; I 
basically believe there has been a very orderly and carefully 
prepared flow of information from our Government. That flow is 
controlled only in a manner to enhance and to support the work 
by Blix and his team.
    But nevertheless, I felt it important and I asked the 
director to prepare a letter, which he ensured me about 20 
minutes ago would be forthcoming, and I will share it with you 
and we may have further comments on this important subject as 
the day goes on. But I just wanted to tell Secretary Rumsfeld, 
this is a matter which is being addressed by Director Tenet and 
his staff.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Gentlemen and ladies of the committee, we now have a quorum 
present. We have a very important piece of business, and I ask 
your support, Mr. Secretary and General, for a minute while we 
attend to the following.
    I ask the committee now to consider a resolution for the 
committee funding and committee rules for the 108th Congress. 
Senator Levin and I have worked together on both of these 
items. Under Senate rules, each committee of the Senate is 
required to report out a resolution at the beginning of each 
Congress authorizing that committee to make expenditures out of 
the contingent funds of the Senate to defray its expenses, 
including staff salaries and administrative expenses for a 2-
year period.
    The committee staff has worked together to prepare this 
resolution on the committee budget and it is before us today. 
You and I, Senator Levin, have reviewed that and have 
authenticated this work. The proposed budget is in line with 
the funding guidelines provided by the Rules Committee. If 
there are no questions before the committee, I proceed to seek 
a vote.
    Senator Levin. Mr. Chairman, I support this and thank you 
for you and your staff's great work on it.
    Chairman Warner. Would you then, Senator Levin, make the 
motion to report out the committee's funding resolution?
    Senator Levin. So moved.
    Senator Inhofe. Second.
    Chairman Warner. The motion is agreed to.
    In addition, the committee must adopt its rules for the 
108th Congress. Senator Levin and I have reviewed the rules and 
have agreed that no changes from the previous Congress are 
required. Therefore, I recommend that the committee adopt the 
rules that were followed by the 107th Congress. A copy of the 
rules has been provided to each member. Any questions? Hearing 
none, I turn to Senator Levin.
    Senator Levin. I move the adoption of the rules.
    Senator Allard. Second.
    Chairman Warner. All in favor, say aye. [Chorus of ayes.]
    Both motions are voted in block. Thank you very much.
    Senator Byrd. The chair didn't ask for the negatives.
    Chairman Warner. Very well, I will repeat that again. Is 
there any objection? Hearing none, the rules are adopted in 
block, the budget is adopted in block, and I thank our 
distinguished former president pro tempore, who is always 
correct.
    Senator Levin. Even when he's not correct, he's always 
correct, which is rarely. [Laughter.]
    Chairman Warner. Now, Mr. Secretary, we anxiously await the 
message by yourself and your distinguished Chairman of the 
Joint Chiefs of Staff. My understanding, as we discussed this 
morning, is that you have a very lengthy statement, which you 
have now condensed, and you will give us the condensed version, 
but we accept into the record the full statements by all 
witnesses present today.

   STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF DEFENSE

    Secretary Rumsfeld. Thank you, Mr. Chairman, members of the 
committee. I appreciate this opportunity to update the 
committee on our progress in transforming the Department of 
Defense and to discuss the President's budget for fiscal years 
2004 to 2009.
    We are, of course, engaged in a war on terror in an effort 
to protect America and our allies in a time when terrorist 
networks and terrorist states are trying to get weapons of mass 
destruction. Our Nation is fortunate to have so many brave men 
and women who voluntarily risk their lives to defend our 
country. Sixty-three American service members have died since 
the global war on terror began. Already this year, six have 
given their lives. We are grateful to all who serve and to 
their families who worry about them understandably, and endure 
the separations from them. The families also serve our country. 
We have a responsibility to give them the resources they need 
to defend the country in this new century.
    We have entered what may very well prove to be the most 
dangerous security environment the world has known, and the 
more we learn, the more we realize how large and demanding 
these new challenges are proving to be.
    The 2004 numbers represented our best estimate at the time 
the budget was developed. It may well change over the coming 
period as we learn more about the demands of safety on a 
worldwide basis. There is no doubt in my mind, for example, 
that we will be back with a supplemental, and reasonably soon, 
to fund the global war on terrorism as well as the cost of 
flowing forces in connection with support to the diplomacy in 
Iraq.
    We also have intense efforts underway to transform the 
Department and streamline and modernize to save the taxpayers 
money. As those efforts succeed, we ought to be able to shift 
some of those resources towards more urgent and more productive 
uses. President Bush vowed that on taking office he would order 
an immediate comprehensive review of our military. He said he 
would give his team at the Department a broad mandate to 
challenge the status quo and envision a new architecture of 
American defense for the decades to come.
    Mr. Chairman, for the past 2 years we have pursued the 
goals he set out. We have fashioned a new defense strategy, a 
new approach to sizing our forces, a new approach to balancing 
risks. We have reorganized the Department to better focus on 
space activities. We've adopted a new unified command plan 
which establishes a new Northern Command to better defend the 
homeland, a Joint Forces Command that focuses on 
transformation, and a new Strategic Command (STRATCOM) 
responsible for early warning of and defense against missile 
attack and the conduct of long range attack.
    We have expanded the mission of the Special Operations 
Command (SOCOM) so that it can not only support missions 
directed by regional combatant commanders, but also plan and 
execute its own missions in the global war on terror.
    We have reorganized and revitalized the missile defense 
research, development, and testing program, freed from the 
constraints the Antiballistic Missile (ABM) Treaty. We have 
completed a nuclear posture review with a new approach to 
deterrence that will enhance our security while permitting 
historic deep reductions in offensive nuclear weapons.
    We have moved from a threat-based to a capability-based 
approach to defense planning, focusing not only on who might 
threaten us or where we might be threatened, or even when, but 
more on how we might be threatened and what portfolio of 
capabilities we will need to deter and defend against these new 
threats. These are critically important accomplishments. They 
will benefit our national security for many years to come.
    But as important as these changes are, they must be only 
the beginning. To win the global war on terror, our Armed 
Forces need to be flexible, light, and agile so that they can 
respond quickly to sudden changes. The same is true of the men 
and women who support them in the Department. They also need to 
be flexible, light, and agile so we can move money and shift 
people, and design and buy new weapons more quickly and respond 
to the frequent sudden changes in our security environment.
    Today we simply do not have that kind of agility. In an age 
when terrorists move information with the speed of an e-mail, 
money at the speed of a wire transfer, and people at the speed 
of a commercial jetliner, the Defense Department is still 
bogged down in micromanagement and bureaucratic processes of 
the industrial age, not the information age. Some of these 
difficulties are self imposed to be sure, some of them are the 
result of law and regulation, but together they have created a 
culture that too often stifles innovation.
    Consider just a few of the obstacles that we are faced with 
every day. Think of this 2004 budget that we consider today. It 
was developed by the Department from March to December of last 
year, the year 2002. This is for the 2004 budget. The Office of 
Management and Budget (OMB) considered it from December to 
February of this year when the President presented it to 
Congress this month. Congress will be likely considering it 
from now until October or November of this year, and if as in 
the past, changing 10 or 20 percent of what the President 
proposed. DOD will then live with what's left during the period 
from October of this year to September 2004. That means that at 
any given time during the fiscal year of that budget, that 
plan, it will be between 14 and 30 months old while we're 
trying to implement what Congress provides.
    We will be doing this in a world that's changing more 
rapidly than that. At a minimum, the budget will be something 
like a year to 2\1/2\ years out of date at any given time. The 
Department spends an average of about $42 million an hour. If 
we are permitted to move $15 million from one account to 
another, nothing more than that without getting permission from 
between four and six different congressional committees, a 
process that can take several months to complete.
    Today we estimate we have some 300,000 uniformed people 
doing non-military jobs. Yet, we're calling up Reserves to 
fight the global war on terror. We need to prepare and submit 
some 26,000 pages of justification and over 800 required 
reports to Congress each year. Many have, I believe, value at 
the outset but have only limited value years later. These 
reports consume many thousands of hours on the part of the 
Department personnel. These problems make it increasingly 
difficult to balance risks.
    Consider these facts. I am told that the last time I was 
Secretary of Defense, the 1977 Defense Authorization Bill was 
16 pages long. In 2001, it has grown to 534 pages. In 1977, 
Congress made a total of 46 changes to the Army and Defense 
Agency research, development, test, and evaluation (RDT&E) 
programs. In 2001, that number had grown from 46 to 450 
individual changes made by Congress. Every change that Congress 
makes in a program to increase something, there is a cost 
elsewhere in the budget that has to be subtracted. For example, 
we add something one place, we may have to reduce funding for 
housing, spare parts, or transformation. Of course it makes it 
very difficult to balance risks.
    But the point is this: We're fighting the first wars of the 
21st century with a Department that was really fashioned to 
meet the challenges of the mid-20th century, and we need 
together to find ways that we can fix that.
    Last year Congress enacted historic legislation to create a 
new Department of Homeland Security and rearrange the 
Government to be better prepared for attacks against our homes, 
schools, and places of work. I hope we can now address the 
Department of Defense. We're already working with a number of 
you on the committee, through your staffs, to fashion 
legislation to present to you to bring the Defense Department 
into the 21st century, and to transform how it moves money, how 
it manages people, and how it buys weapons.
    I must say, at this point, that I listened to Senator Levin 
and I have not heard of many, if not most, of the things that 
were being cited by the Senator, and I wouldn't want any 
impression to be left that that litany of items are things that 
we've concluded, because we haven't. Indeed, we decided to work 
with your staffs and work with the members in this body and the 
other body so that we can fashion some sort of an omnibus bill 
that has a reasonable chance of being approved.
    We're looking at, among other things, proposals to 
establish a national security personnel system that could give 
us somewhat greater flexibility as to how we handle and manage 
our civilian personnel. A nonintuitive effect is the difficulty 
in managing wonderful people on the civilian side. It's a 
difficult element of the Department to manage, and as a result, 
we find that people are constantly using people in uniform 
instead of civilians, which wasn't the intention at all. 
They're using them because they can move them in and move them 
out and direct them better than they can the civilian force.
    We find that people are also using contractors much more 
than probably makes sense to avoid the difficulties in having a 
civilian population that the Department really doesn't manage. 
They are more managed by the Office of Personnel Management.
    We are talking about the possibility with your staffs and 
members about a one-time reorganization with fast track 
approval procedures.
    We think we need to establish more flexible rules for the 
flow of money through the Department. We're talking about the 
possibility of establishing a 2-year budget cycle, so that the 
hundreds of people who invest time and energy to review each 
major program each year can be freed up to consider in 1 year 
the tasks of implementation and performance and methods.
    We're trying to figure out ways that we can eliminate some 
of the regulations that make it difficult for many small 
enterprises to do business with the Department. We think it's 
important that they have the opportunity to do business with 
the Department.
    We're looking at ways to expand our authority for 
competitive outsourcing so that we can get military personnel 
out of non-military tasks and back into the field. We are also 
trying to establish more flexible military retirement rules so 
those who want to serve longer may have the option to do so.
    We're consulting with all of you as I said, and I hope we 
can find some approach that will help us achieve those goals.
    Where we have authority to fix problems, we're working hard 
to do so, but to get the kind of flexibility that we're 
required to have in this new security environment, I believe 
we're going to end up needing legislative relief and we will 
need your help in working with us on that.
    As to the defense budget, last year's budget, the fiscal 
year 2003 request, was finalized just as our review process was 
nearing completion. We were able to begin funding some 
transforming initiatives as the new defense strategy came into 
focus. But it is this year's budget, the fiscal year 2004 
budget request before you, that is really the first to reflect 
the new defense strategies and policies.
    Balancing risks between near- and long-term challenges is 
difficult. It's difficult in peacetime, but today to best serve 
our country we need to accomplish three challenges at once. To 
successfully fight the global war on terror, prepare for near-
term threats by making long delayed investments in readiness, 
people, and modernization, and also preparing for the future by 
continuing the process of transforming.
    The fiscal year 2004 budget request before you is designed 
to help do all three. Our defense review identified six goals 
that drive our efforts.
    First, we have to be able to defend the homeland and bases 
of operation overseas.
    Second, we have to project and sustain forces in distant 
theaters.
    Third, we have to be able to deny enemy sanctuary.
    Fourth, we have to improve our space capabilities and 
maintain unhindered access to space.
    Fifth, we must harness our country's advantages in 
information technology to link up different kinds of U.S. 
forces so they can truly fight jointly.
    Sixth, we have to be able to protect U.S. information 
networks from attack and to be able to disable the information 
networks of our adversaries.
    The fiscal year 2004 budget request has funds to support 
each of these important tasks. Over the next 6 years, we have 
proposed a 30-percent increase in procurement funding and a 65-
percent increase in funding for research, development, testing, 
and evaluation, above the fiscal year 2002 baseline budget, a 
total investment of about $150 billion.
    The total investment in transforming military capabilities 
in the fiscal year 2004 budget request is estimated at $24.3 
billion, and about $240 billion over the next 6 years.
    To prepare for the threats we will face later in this 
decade, the fiscal year 2004 budget request increased 
investments in a number of areas. Over the next 6 years, the 
President has requested a 15-percent increase in military 
personnel accounts above the 2002 baseline budget, and an 
increase in funding for family housing by 10 percent over that 
period. Over the next 6 years, we have requested a 20-percent 
increase for operations and maintenance accounts above the 2002 
baseline budget. We've added $40 billion for maintenance for 
all services and $6 billion for facility sustainment over that 
period.
    These investments should help to put a stop to the past 
practice of raiding the investment accounts to pay for the 
immediate operation and maintenance needs.
    The fiscal year 2004 budget does not, I repeat, does not 
include funds for operations for the global war on terror. Last 
year we requested, but Congress did not provide, the $10 
billion that we knew we would need for the first few months to 
conduct the global war on terror, including the combat air 
patrols over the United States, the force protection in the 
United States, and the other aspects of it. Because we're still 
without those funds, every month since October 2002--October, 
November, December 2002, January, and now February 2003, we've 
had to borrow from other programs to pay for the cost of war, 
robbing Peter to pay Paul. That does not include the cost of 
preparations for a possible contingency in Iraq and the cost of 
the flow of forces that has taken place thus far in support of 
the diplomacy.
    Indeed, shifting money around in this way is we believe 
inefficient and ultimately the most expensive method possible 
for funding. We will be coming to you later this year for a 
2003 war supplemental to get the money we had wanted a year ago 
and we knew would be necessary. In the end, to make up for the 
cost of having to shift funds, we will probably need somewhat 
more money than would otherwise have been the case. This 
pattern has been fundamentally harmful to our ability to manage 
the Department and show respect for taxpayers' money.
    In the fiscal year 2004 request, we've increased the 
shipbuilding budget by $2.7 billion, making good on our hope 
expressed last year that we could increase shipbuilding from 
five to seven ships per year. We increased the special 
operations budget by $1.5 billion to pay for equipment that was 
lost in the global war on terror, particularly in Afghanistan 
and Pakistan, and an additional 1,890 people.
    We increased military and civilian pay by $3.7 billion.
    We increased missile defense by $1.5 billion, including 
increased funds for research and development (R&D) of promising 
new technologies and to deploy a small number of interceptors 
beginning in 2004.
    The President asked Congress for a total of $379.9 billion 
for fiscal year 2004. That's a $15.3 billion increase over last 
year's budget. That's a large amount of the taxpayers' money 
but even with that increase as large as it is, we still have to 
make some tough choices between competing demands.
    Let me state it straight out. Despite the significant 
increase in shipbuilding, we did not get the shipbuilding rate 
up to the desired rate of close to 10 ships per year. Because 
of planned retirements of other ships, we will drop below a 300 
ship fleet during the course of the Future Years Defense Plan 
(FYDP).
    The Navy is in the process of transforming and we have had 
increased shipbuilding in 2004, but we do not want to lock 
ourselves into a shipbuilding program until we know more 
precisely which ships we will want to build in the outyears.
    We have not been able to modernize our tactical air forces 
fast enough to reduce the average age of the Defense 
Department's aircraft fleet. We have not fully resolved our so-
called high demand low density problems, systems like Joint 
Surveillance Target Attack Radar System (JSTARS), which because 
they have been chronically underfunded in the past will still 
be in short supply in this budget.
    We opted not to modernize a number of legacy programs, 
taking on some near-term risks to transforming capabilities 
that we will need in this fast moving world.
    We did not achieve the level of growth in science and 
technology (S&T) accounts that we had hoped for. Our request is 
$10.2 billion, or 2.69 percent of the 2004 budget. That's below 
the goal of 3 percent, although because the budget is up, the 
actual amount is rising.
    Now that's the bad news, but there's good news as well. In 
making difficult choices between competing priorities, we made 
better choices because we followed the new approach to try to 
balance risks that we developed in last year's defense review, 
an approach that tries to take into account not just the risks 
in operations and in contingency plans but also the risks to 
people, modernization, and to the future. The result is a more 
balanced approach and we hope a more coherent program. As such, 
it's a program that can be adversely unbalanced unintentionally 
unless we are careful and work together as you and the 
Appropriations Committee in the other chamber of Congress 
complete your work.
    While we're requesting increased funds, the services have 
stepped up to the plate and will be cancelling, slowing, or 
restructuring a number of programs. In all, the Army, Navy, and 
Air Force have achieved savings of some $80 billion over the 
FYDP, money that will be reinvested by the Services in 
capabilities they believe are important for this new security 
environment.
    As a result of these strategic investments and decisions, 
we can now see the effects of transforming beginning to unfold. 
Consider some of the changes that are taking place.
    Today the missile defense research, development, and 
testing program has been revitalized and we are on track for a 
limited land-sea deployment in 2004 and 2005.
    Today we're converting four Trident submarines into 
conventional nuclear-powered cruise missile attack submarines 
(SSGNs) capable of delivering special forces and cruise 
missiles, a part of the nuclear posture review.
    Today we're proposing to build the nuclear-powered aircraft 
carrier CVN 21 in 2007, which will include many, if not all, of 
the new capabilities that were previously scheduled to be 
introduced only in 2011.
    Today we have seen targeted pay raises and other reforms 
help retain mid-career officers and non-commissioned officers 
(NCOs) so that fewer of them leave the Service while still in 
their prime, and so the country can continue to benefit from 
their enormous talents and skills.
    These are positive changes that will ensure that future 
administrations will have the capabilities they need to defend 
the country.
    Finally, I believe that the transparency of the process 
that we've used to develop this budget has been unprecedented. 
For several months now we have been providing detailed 
briefings to those interested in defense here on Capitol Hill 
so that Congress is not simply being presented with the 
President's budget today but has been kept in the loop as 
decisions have been made. Our goal was to ensure that Members 
and staff had every opportunity to better understand the 
thinking that lies behind these proposals. I'm told that the 
extent of consultation from the Department to Congress this 
year has been unprecedented.
    We hope that this spirit of openness and cooperation can 
continue in the period ahead. We need to work together to bring 
DOD out of the industrial age and help get in range for the 
fast paced security environment we live in.
    I close by saying that transformation is not an event, 
there is not a point at which the Defense Department will move 
from being untransformed to transformed. Our goal is to set in 
motion a process of continuing transformation in a culture that 
will keep the United States several steps ahead of potential 
adversaries. To do that, we need not only resources but equally 
we need the ability to use them with speed and agility, so that 
we can respond quickly to the new threats we will face as the 
century unfolds.
    I feel deeply about the urgency of seeing that we transform 
the Department and enable it to serve the American people and 
our friends and allies in a responsible way in the 21st 
century. We will have to work together if we are to best serve 
the country.
    [The prepared statement of Secretary Rumsfeld follows:]

             Prepared Statement by Hon. Donald H. Rumsfeld

                              INTRODUCTION

    Mr. Chairman and members of the committee, thank you for this 
opportunity to update the committee on our progress in transforming the 
Department of Defense for the 21st century and to discuss the 
President's budget for fiscal year 2004-2009.
    President Bush vowed that, on taking office, he would order ``an 
immediate, comprehensive review of our military--the structure of its 
forces, the state of its strategy, the priorities of its procurement.'' 
He warned of new dangers--of ``barbarism emboldened by technology,'' 
the proliferation of ``weapons of mass destruction . . . car bombers 
and plutonium merchants give his team at the Department of Defense ``a 
broad mandate to challenge the status quo and envision a new 
architecture of American defense for decades to come.''
    The goal, he said, would be ``to move beyond marginal 
improvements--to replace existing programs with new technologies and 
strategies.'' Doing this, he said, ``will require spending more--and 
spending more wisely.''
    Mr. Chairman, for the past 2 years, we have pursued the goals he 
set out. We have:

        <bullet> Fashioned a new defense strategy.
        <bullet> Replaced the decade-old two Major Theater War approach 
        with a new approach to sizing our forces that allows us to 
        provide for homeland defense, undertake a major regional 
        conflict and win decisively, including occupying a country and 
        changing the regime if necessary, simultaneously swiftly defeat 
        another aggressor in another theater, and in addition have the 
        capability of conducting a number of lesser contingencies.
        <bullet> Developed a new approach to balancing risks that takes 
        into account not just the risks to immediate war plans, but 
        also the risks to people and transformation.
        <bullet> Reorganized the Department to better focus our space 
        activities.
        <bullet> Adopted a new Unified Command Plan, which establishes 
        the new Northern Command to better defend the homeland; a Joint 
        Forces Command that focuses on transformation; and a new 
        Strategic Command responsible for early warning of, and defense 
        against, missile attack and the conduct of long-range attacks.
        <bullet> Expanded the mission of the Special Operations 
        Command, so that it can not only support missions directed by 
        the regional combatant commanders, but also plan and execute 
        its own missions in the global war on terror, supported by 
        other combatant commands.
        <bullet> Initiated work with Allies to develop a new North 
        Atlantic Treaty Organization (NATO) command structure and begin 
        work on a new NATO Response Force.
        <bullet> Took steps to attract and retain talent in our Armed 
        Forces, with targeted pay raises and quality of life 
        improvements.
        <bullet> Made a number of tough program decisions, including 
        replacement of the Crusader, B-1 modernization, and the Navy 
        ``area-wide'' restructuring.
        <bullet> Instituted ``realistic budgeting,'' giving Congress 
        more realistic estimates of what programs can be expected to 
        cost, rather than coming back for annual non-emergency 
        supplementals.
        <bullet> Reorganized and revitalized the missile defense 
        research, development and testing program, freed from the 
        constraints of the ABM Treaty.
        <bullet> Completed the Nuclear Posture Review, with a new 
        ``approach to deterrence that will enhance our security, while 
        permitting historic deep reductions in offensive nuclear 
        weapons.
        <bullet> Moved from a ``threat-based'' to a ``capabilities-
        based'' approach to defense planning, focusing not only on who 
        might threaten us, or where, or when--and more on how we might 
        be threatened, and what portfolio of capabilities we will need 
        to deter and defend against those new threats.

    These are important accomplishments. They represent some of the 
most significant changes in the strategy and structure of our Armed 
Forces in at least a generation.
    But as important as these changes are, they must be only the 
beginning. Because transforming is about more than developing new 
strategies and structures--it is about changing culture, about 
encouraging new ways of thinking, so we can develop new ways of 
fighting and provide our Armed Forces the tools they need to defend our 
way of life in the 21st century.
    We are working to promote a culture in the Defense Department that 
rewards unconventional thinking--a climate where people have freedom 
and flexibility to take risks and try new things. We are working to 
instill a more entrepreneurial approach to developing military 
capabilities, one that encourages people to behave less like 
bureaucrats; one that does not wait for threats to emerge and be 
``validated,'' but rather anticipates them before they emerge--and 
develops and deploys new capabilities quickly, to dissuade and deter 
those threats.
    Most agree that to win the global war on terror, our Armed Forces 
need to be flexible, light, and agile--so they can respond quickly to 
sudden changes. Well, the same is true of the men and women who support 
them in the Department of Defense. They also need to be flexible, 
light, and agile--so they can move money, shift people, and design and 
buy new weapons quickly, and respond to sudden changes in our security 
environment.
    Today, we do not have that kind of agility. In an age when 
terrorists move information at the speed of an email, money at the 
speed of a wire transfer, and people at the speed of a commercial 
jetliner, the Defense Department is bogged down in the micromanagement 
and bureaucratic processes of the industrial age--not the information 
age. Some of our difficulties are self-imposed, to be sure. Some are 
the result of law and regulation. Together they have created a culture 
that too often stifles innovation. Consider just a few of the obstacles 
we face each day:

        <bullet> Think of this fiscal year 2004 budget--it was 
        developed by the Department of Defense from March 2002 to 
        December 2002. OMB considered it from December 2002 to February 
        2003 when the President presented it to Congress. Congress will 
        be considering it from February 2003 to probably October or 
        November 2003 and, as in the past, making 10-20 percent changes 
        in what he proposed. DOD will then try to live with what's left 
        during the period October 2003 to September 2004. That means 
        that at any given time during the fiscal year of that budget, 
        it will be 14 months to 30 months old while we are trying to 
        implement what Congress gives us. All this in a world that is 
        changing monthly before our eyes.
        <bullet> The Department of Defense spends an average of $42 
        million an hour--yet we are not allowed to move $15 million 
        from one account to another without getting permission from 4-6 
        different congressional committees, a process that can take 
        several months to complete.
        <bullet> Today, we estimate we have some 320,000 uniformed 
        people doing non-military jobs, yet we are calling up Reserves 
        to fight the global war on terror.
        <bullet> We must prepare and submit 26,000 pages of 
        justification and over 800 required reports to Congress each 
        year--many of marginal value and most probably never read--
        consuming hundreds of thousands of manhours.
        <bullet> Despite 128 acquisition reform studies, we have a 
        system in the Defense Department that since 1975 has doubled 
        the time it takes to produce a new weapons system--in an era 
        when technology moves so fast that new technologies often 
        become obsolete in months and years, not decades.
        <bullet> Since September 11, our force protection costs have 
        gone up by some $5 billion annually. But because we are 
        required to keep some 20 percent plus more facilities capacity 
        than are needed to support the force, we are effectively 
        wasting something like $1 billion every year on force 
        protection alone for bases and facilities we do not need. We 
        need to follow through with the base closure process that 
        Congress authorized last year without changes.
        <bullet> We have to contend with growing micromanagement of the 
        Defense budget, making it increasingly difficult to balance 
        risks. Consider these facts:

                <bullet> The last time I was Secretary of Defense, the 
                1977 defense authorization bill was 16-pages long--in 
                the year 2001 it had grown to 534 pages.
                <bullet> In 1977, Congress made a total of 46 changes 
                to Army and Defense Agency research, development, 
                testing, and evaluation (RDT&E) programs; by 2001 that 
                number had grown to 450 individual changes. For every 
                change Congress makes in a program, there is a cost 
                elsewhere in the budget--every plus-up in one place 
                means we must reduce funds for something else, be it 
                housing, or spare parts or transformation--making it 
                exceedingly difficult to balance risks.

        <bullet> We spend millions of taxpayer dollars training top-
        notch officers and senior enlisted, giving them experience--and 
        then we shove them out the door in their 40s and early 50s, 
        when they are at the top of their game--and we will be paying 
        60 percent of their base pay and providing them with 
        comprehensive healthcare for the rest of their lives. The loss 
        in talent and experience to the Department and the country is 
        sizable.
        <bullet> We bounce officers around from assignment to 
        assignment every 16, 18, 22 months, so many end up skipping 
        across the tops of the waves so fast they don't have time to 
        learn from their own mistakes.
        <bullet> We rely on almost 1,800 antiquated legacy information 
        systems to run the Defense finance end accounting systems--
        ensuring we cannot produce timely and accurate management 
        information.
        <bullet> We have the equivalent of an Army heavy division's 
        worth of auditors, inspectors, and investigators.
        <bullet> We have thousands of people focused on developing and 
        justifying budgets, and a fraction of those focused on ensuring 
        effective implementation and desired outcomes.

    The point is this, we are fighting the first wars of the 21st 
century with a Defense Department that was fashioned to meet the 
challenges of the mid-20th century. We have an industrial age 
organization, yet we are living in an information age world, where new 
threats emerge suddenly, often without warning, to surprise us. We 
cannot afford not to change and rapidly, if we hope to live in that 
world.
    Some of the fault for this lies with the executive branch; some 
lies with the legislative branch, and some is simply due to the fast 
pace of events. But the American people do not care about blame--for 
their sake we need to get to work fixing the problems.
    Last year, Congress and the administration did just that, when we 
faced up to the fact that our Government was not organized to deal with 
the new threats to the American homeland. You enacted historic 
legislation to create a new Department of Homeland Security and 
rearrange our Government to be better prepared for potential attacks 
against our homes and schools and places of work.
    We must now address the Department of Defense. We are already 
working with a number of you to fashion legislation to bring the 
Defense Department into the 21st century--to transform how it moves 
money, manages people, and buys weapons. We are looking at, among other 
things, proposals to:

        <bullet> Establish a National Security Personnel System that 
        will give the Department of Defense greater flexibility in how 
        it handles and manages its civilian personnel--so we can 
        attract and retain and improve the performance of our 700,000-
        plus civilian work force. Today it is managed outside the 
        Department. The unintentional effect has been that the 
        Department uses military personnel and contractors rather than 
        civilians, since they can be more easily managed.
        <bullet> A one-time reorganization of the Department, with 
        ``fast track'' approval procedures.
        <bullet> Move a number of the non-military functions that have 
        been thrust on DOD over the years to other Departments that can 
        provide similar or better services, so DOD can focus on the 
        tasks where it must excel: defending our country in a dangerous 
        new century.
        <bullet> Transfer some 1,800 personnel who conduct background 
        investigations to the Office of Personnel Management. Since the 
        President has no authority to transfer functions across the 
        executive branch, we will urge that he be given that authority.
        <bullet> Establish more flexible rules for the flow of money 
        through the Department, giving us the ability to move larger 
        sums between programs and priorities, so we can respond quickly 
        to urgent needs.
        <bullet> Streamline acquisition rules and procedures, to give 
        the Department greater speed and flexibility in the development 
        and deployment of new capabilities.
        <bullet> Establish a 2-year budget cycle so that the hundreds 
        who invest time and energy to rebuild major programs every year 
        can be freed up and not be required to do so on an annual 
        basis.
        <bullet> Eliminate some of the onerous regulations that make it 
        impossible or unattractive for many small enterprises to do 
        business with the Department.
        <bullet> Expand authority for competitive outsourcing, so we 
        can get military personnel out of non-military tasks and back 
        into the field. There is no reason, for example, that the 
        Defense Department should be in the business of making 
        eyeglasses, when the private sector makes them better, faster, 
        and cheaper. But we are. That needs to change.
        <bullet> Clarify environmental statutes which restrict access 
        to, and sustainment of, training and test ranges essential for 
        the readiness of our troops and the effectiveness of our 
        weapons systems in the global war on terror.
        <bullet> Expand our flexibility to extend tour lengths for 
        military leaders, and fully credit them for joint duty 
        assignments.
        <bullet> Establish more flexible military retirement rules, so 
        that those who want to serve longer have the option of doing 
        so--so we can retain talent instead of automatically pushing it 
        out the door.
        <bullet> Establish sunset procedures for the hundreds of 
        required reports so that we can discontinue those that have 
        outlived their usefulness. We simply must find better ways to 
        exchange data between DOD and Congress, so that you get the 
        information you need to assess performance and we do not have 
        to employ armies of personnel and consultants preparing 
        information you no longer need.

    Let there be no doubt, some of the obstacles we face today are 
self-imposed. Where we have authority to fix those problems, we are 
working hard to do so. For example, we are modernizing our financial 
management structures, to replace some 1,800 information systems so we 
can produce timely and accurate management information. We are reducing 
staffing layers to increase speed and efficiency. We are modernizing 
our acquisition structures to reduce the length of time it takes to 
field new systems and drive innovation. We are working to push joint 
operational concepts throughout the Department, so we train and prepare 
for war the way we will fight it--jointly. We are taking steps to 
better measure and track performance.
    We are doing all these things, and more. But to get the kind of 
agility and flexibility that are required in the 21st century security 
environment, we must have legislative relief. We must work together--
Congress and the administration--to transform not only the U.S. Armed 
Forces, but the Defense Department that serves them and prepares them 
for battle. The lives of the service men and women in the field--and of 
our friends and families here at home--depend on our ability to do so.
2004 Defense Budget
    At the same time, we are taking steps to implement the changes 
agreed upon in the defense review. Last year's budget--the fiscal year 
2003 request--was finalized just as that review process was nearing 
completion. It included a top-line increase, and made important, and 
long-delayed investments in readiness, people, maintenance, and 
replacement of aging systems and facilities. We were able to begin 
funding some transforming initiatives as the new defense strategy came 
into focus.
    But it is really this year's budget--the fiscal year 2004 request 
before you today--that is the first to fully reflect the new defense 
strategies and policies.
    We submit this budget to you at a time of war. Our experience in 
the global war on terror has validated the strategic decisions that 
were made.
    When our Nation was attacked, there was a great deal of pressure to 
put off transformation--people cautioned, you can't fight the global 
war on terrorism and simultaneously transform this institution. The 
opposite is the case. The global war on terror has made transforming an 
even more urgent priority. Our experience on September 11 made clear, 
our adversaries are transforming the ways in which they will threaten 
our people. We cannot stand still.
    The reality is that while the global war on terror is an impetus 
for change, it also complicates our task. Balancing risk between near- 
and long-term challenges is difficult even in peacetime. But today, we 
must accomplish three difficult challenges at once:

        (1) successfully fight the global war on terror;
        (2) prepare for near-term threats by making long delayed 
        investments in readiness, people, and modernization; and
        (3) prepare for the future by transforming for the 21st 
        century.

    The 2004 budget request before you today is designed to help us do 
all three.
    Our defense review identified six goals that drive our 
transformation efforts:

        <bullet> First, we must be able to defend the U.S. homeland and 
        bases of operation overseas;
        <bullet> Second, we must be able to project and sustain forces 
        in distant theaters;
        <bullet> Third, we must be able to deny enemies sanctuary;
        <bullet> Fourth, we must improve our space capabilities and 
        maintain unhindered access to space;
        <bullet> Fifth, we must harness our advantages in information 
        technology to link up different kinds of U.S. forces, so they 
        can fight jointly; and
        <bullet> Sixth, we must be able to protect U.S. information 
        networks from attack--and to disable the information networks 
        of our adversaries.

    The President's 2004 budget requests funds for investments that 
will support each of these. For example:

        <bullet> For programs to help defend the U.S. homeland and 
        bases of operation overseas--such as missile defense--we are 
        requesting $7.9 billion in the 2004 budget, and $55 billion 
        over the Future Years Defense Program (FYDP).
        <bullet> For programs to project and sustain forces in distant 
        theaters--such as new unmanned underwater vehicle program and 
        the Future Combat Systems--we are requesting $8 billion in 
        2004, and $96 billion over the FYDP.
        <bullet> For programs to deny enemies sanctuary--such as 
        unmanned combat aerial vehicles, and the conversion of SSBN to 
        SSGN submarines--we are requesting $5.2 billion in 2004 and $49 
        billion over the FYDP.
        <bullet> For programs to enhance U.S. space capabilities--such 
        as Space Control Systems--we are requesting $300 million in 
        2004 and $5 billion over the FYDP.
        <bullet> For programs to harness our advantages in information 
        technology--such as laser satellite communications, Joint 
        Tactical Radio, and the Deployable Joint Command and Control 
        System--we are requesting $2.7 billion in 2004 and $28 billion 
        over the FYDP.
        <bullet> For programs to protect U.S. information networks and 
        attack those of our adversaries--such as the Air and Space 
        Operations Center--we are requesting $200 million in 2004 and 
        $6 billion over the FYDP.

    Over the next 6 years, we have proposed a 30-percent increase in 
procurement funding and a 65-percent increase in funding for RDT&E 
above the 2002 baseline budget--a total investment of around $150 
billion annually.
    In addition to these increases, RDT&E spending will rise from 36 
percent to 42 percent of the overall investment budget. This shift 
reflects a decision to accelerate the development of needed next 
generation systems, and by accepting some near-term risk.
    Among the more important transformational investments we propose is 
our request for funds to establish a new joint national training 
capability. In the 21st century, we will fight wars jointly. Yet our 
forces still too often train and prepare for war as individual 
services. That needs to change. To ensure that U.S. forces train like 
they fight and fight like they train, we have budgeted $1.8 billion 
over the next 6 years to fund range improvements and permit more of 
both live and virtual joint training--an annual investment of $300 
million.
    The total investment in transforming military capabilities in the 
2004 request is $24.3 billion, and about $240 billion over the FYDP.
    But even as we continue to transform for the future, we must also 
recognize that new and unexpected dangers are waiting for us over the 
horizon. To prepare for the threats we will face later in this decade, 
the 2004 budget requests increased investments in a number of critical 
areas: readiness, quality of life improvements for the men and women in 
uniform, and increased investments to make certain existing 
capabilities are properly maintained and replenished.
    Over the next 6 years, the President has requested a 15-percent 
increase for military personnel accounts, above the 2002 baseline 
budget, and an increase in funding for family housing by 10 percent 
over the same period. The 2004 budget includes $1 billion for targeted 
military pay raises, ranging from 2 percent to 6.25 percent. Out of 
pocket expenses for those living in private housing drop from 7.5 
percent to 3.5 percent in 2004, and are on target for total elimination 
by 2005.
    Over the next 6 years, we have requested a 20-percent increase for 
operation and maintenance accounts above the 2002 baseline budget. We 
have added $40 billion for readiness of all the services and $6 billion 
for facilities sustainment over the same period. These investments 
should stabilize funding for training, spares, and tempo of operations 
(OPTEMPO), and put a stop to the past practice of raiding the 
investment accounts to pay for the immediate operation and maintenance 
needs, so we stop robbing the future to pay today's urgent bills.
    This 2004 budget does not include funds for operations in the 
global war on terror. Last year, we requested, but Congress did not 
provide, the $10 billion we knew we would need for the first few months 
of the global war on terror. Because of that, every month since October 
2002--October, November, December in 2002 and January and now February 
in 2003--we have had to borrow from other programs to pay for the costs 
of the war--robbing Peter to pay Paul. That does not include the costs 
of preparations for a possible contingency in Iraq. This pattern is 
fundamentally harmful to our ability to manage the Department. It 
causes waste and harmful management practices which consume management 
time that we cannot afford in a time of war and which are unfair to the 
taxpayers.
    In our 2004 request:

        <bullet> We increased the shipbuilding budget by $2.7 billion 
        making good on our hope last year that we could increase 
        shipbuilding from five to seven ships.
        <bullet> We increased the Special Operations budget by $1.5 
        billion, to pay for equipment lost in the global war on terror 
        and an additional 1,890 personnel.
        <bullet> We increased military and civilian pay by $3.7 
        billion.
        <bullet> We increased missile defense by $1.5 billion, 
        including increased funds for research and development of 
        promising new technologies, and to deploy a small number of 
        interceptors beginning in 2004.

    The President has asked Congress for a total of $379.9 billion for 
fiscal year 2004--a $15.3 billion increase over last year's budget.
    That is a large amount of the taxpayer's hard-earned money. To put 
it in context, when I was in Congress in the 1960s, the United States 
had the first $100 billion budget for the entire U.S. Government. 
Nonetheless, for 2004, the DOD budget will amount to roughly 3.4 
percent of Gross Domestic Products (GDP)--still historically low. In 
the mid-1980s, for example, the U.S. was dedicating around 6 percent of 
GDP to defense.
    Nonetheless, it is a significant investment. But compared with the 
costs in lives and treasure of another attack like the one we 
experienced on September 11--or a nuclear, chemical, or biological 
attack that would be vastly worse--less than 3\1/2\ cents on the dollar 
is a prudent investment in security and stability.
    But even that increase, as large as it is, only gets us part of the 
way. Our challenge is to do three difficult things at once:

        <bullet> Win the global war on terror;
        <bullet> Prepared for the threats we will face later this 
        decade; and
        <bullet> Continue transforming for the threats we will face in 
        2010 and beyond.

    Any one of those challenges is difficult--and expensive. Taking on 
all three, as we must, required us to make tough choices between 
competing demands. Which meant that, inevitably, some desirable 
capabilities did not get funded.
    So let me state it straight out:

        <bullet> Despite the significant increase in shipbuilding, we 
        did not get the shipbuilding rate up to the desired steady 
        state of 10 ships per year. Because of planned retirements of 
        other ships, we will drop below a 300-ship fleet during the 
        course of the FYDP. The Navy is in the process of transforming, 
        and has two studies underway for amphibious ships and for 
        submarines--we have increased shipbuilding in 2004, but we do 
        not want to lock ourselves into a shipbuilding program now 
        until we know precisely which ships we will want to build in 
        the outyears.
        <bullet> We have not been able to modernize our tactical air 
        forces fast enough to reduce the average age of our aircraft 
        fleet.
        <bullet> We have had to delay completing replenishment of all 
        inadequate family housing by 2007--though we got close!
        <bullet> We have not fully resolved our so-called ``high-
        demand/low-density'' problems--systems like JSTARS, which, 
        because they have been chronically underfunded in the past, 
        will still be in short supply in this budget.
        <bullet> We opted not to modernize a number of legacy 
        programs--taking on some near-term risks to fund transforming 
        capabilities we will need in this fast moving world.
        <bullet> We did not achieve the level of growth in the science 
        and technology (S&T) accounts we had hoped for. Our request is 
        $10.2 billion, or 2.69 percent of the 2004 budget. That is 
        below the goal of 3 percent.
        <bullet> We have delayed investments to completely fix the 
        recapitalization rate for DOD infrastructure. We are reviewing 
        out worldwide base structure, and starting the basic steps to 
        prepare for the 2005 BRAC. We want to think carefully about how 
        best to match our base structure and force structure. We still 
        intend to get the rate down from 148 years to 67 years by 2008, 
        and we expect to accelerate facilities investments in 2006 
        after we have made the needed decisions with respect to our 
        base structure at home and abroad.

    That's the bad news. But there is the good news as well: in making 
difficult choices between competing priorities, we made better choices 
this year because we followed the new approach to balancing risks that 
we developed in last year's defense review--an approach that takes into 
account not just the risks in operations and contingency plans, but 
also the risks to people, modernization, and the future--risks that, in 
the past, had been crowded out by more immediate pressing demands. The 
result is a more balanced approach and a more coherent program.
    While we are requesting increased funds, the Services have stepped 
up to the plate and will be canceling, slowing, or restructuring a 
number of programs--to invest the savings in transforming capabilities. 
For example:

        <bullet> The Army came up with savings of some $22 billion over 
        the 6-year FYDP, by terminating 24 systems, including Crusader, 
        the Bradley A3, and Abrams upgrades and reducing or 
        restructuring another 24 including medium tactical vehicles. 
        The Army used these savings to help pay for new 
        transformational capabilities, such as the Future Combat 
        Systems.
        <bullet> The Navy reallocated nearly $39 billion over the FYDP, 
        by retiring 26 ships and 259 aircraft, and merging the Navy and 
        Marine air forces. They invested these savings in new ship 
        designs and aircraft.
        <bullet> The Air Force shifted funds and changed its business 
        practices to account for nearly $21 billion over the FYDP. It 
        will retire 114 fighter and 115 mobility/tanker aircraft. The 
        savings will be invested in readiness, people, modernization 
        and new system starts and cutting edge systems like unmanned 
        aerial vehicles (UAVs) and unmanned combat aerial vehicles 
        (UCAVs).

    In all, by retiring or restructuring less urgent programs, we have 
achieved savings of some $80 billion over the FYDP--money that will be 
reinvested by the Services in capabilities necessary for the 21st 
century.
    Finding those savings is important, both in terms of freeing up 
resources for more urgent priorities, and because it is respectful of 
the taxpayers' hard-earned money. We feel a deep obligation to not 
waste the taxpayers' dollars. We need to show the taxpayers that we are 
willing to stop doing things that we know we don't need to be doing, 
and take that money and put it into investments we need.
    Some critics may argue we cut too deeply. We did cancel a number of 
programs that were troubled, to be sure, but also others that were not 
troubled--but which simply did not fit with our new defense strategy. 
In a world of unlimited resources, they would have been nice to have. 
But in a world where needs outstrip available funds, we cannot do 
everything. Something has to give.
    Still others argue from the opposite direction--saying that we did 
not cut deeply enough. They ask: what happened to your hit list? The 
answer is: we never had a ``hit list.'' What we had was a new defense 
strategy, and we reviewed all the programs in the pipeline to see if 
they fit into that defense strategy and the new security environment we 
face.
    Some were eliminated. In other cases, it made more sense to scale 
them back or change them. For example, the Comanche helicopter program 
was born in the 1980s, and the Army planned to buy around 1,200 of 
them. But in the interim, the Army decided to change its structure. In 
the way the Army plans to fight in the decades ahead, the role of the 
helicopter changes--it will be used more for reconnaissance and light 
attack. For that mission 1,200 helicopters weren't needed--so we 
brought the number down to about 650.
    In still other areas, we set up competition for future missions. 
For example, in tactical aircraft, by 2010 the F-22 will be nearing the 
end of its planned production run, the Joint Strike Fighter (JSF) will 
be coming on line, a number of UCAVs will be ready, and hypersonic 
systems could be within reach. As a result, future Presidents will have 
a rich menu of choices for strike operations we don't now have.
    We are transforming the way we develop new systems. The old way was 
to develop a picture of the perfect system, and then build the system 
to meet that vision of perfection, however long it took or cost. The 
result was that, as technology advanced, and with it dreams of what a 
perfect system could do, capabilities were taking longer and longer to 
develop and the cost of systems increased again and again--time is 
money.
    Our approach is to start with the basics, simpler items, and 
rollout early models faster--and then add capabilities to the basic 
system as they become available. This is what the private sector does--
companies bring a new car or aircraft on line, for example, and then 
update it over a period of years with new designs and technologies. We 
intend to do the same.
    Take, for example, our approach to ballistic missile defense. 
Instead of taking a decade or more to develop someone's vision of a 
``perfect'' shield, we have instead decided to develop and put in place 
a rudimentary system by 2004--one which should make us somewhat safer 
than we are now--and then build on that foundation with increasingly 
effective capabilities as the technologies mature.
    We intend to apply this ``spiral development'' approach to a number 
of systems, restructured programs, and new starts alike over the course 
of the FYDP. The result should be that new capabilities will be 
available faster, so we can better respond to fast moving adversaries 
and newly emerging threats.
    As a result of all these strategic investments and decisions, we 
can now see the effects of transforming begin to unfold. Consider just 
some of the changes that are taking place:

        <bullet> Today, the missile defense research, development, and 
        testing program has been revitalized and we are on track for 
        limited land/sea deployment in 2004-2005.
        <bullet> Today, the Space Based Radar, which will help provide 
        near-persistent 24/7/365 coverage of the globe, is scheduled to 
        be ready in 2012.
        <bullet> In this budget, we believe SBIRS-High is properly 
        funded.
        <bullet> Today, we are converting four Trident SSBN subs into 
        conventional SSGNs, capable of delivering special forces and 
        cruise missiles to denied areas. Today, we are proposing to 
        build the CVN-21 aircraft carrier in 2007, which will include 
        many new capabilities that were previously scheduled to be 
        introduced only in 2011.
        <bullet> Today, instead of one UCAV program in development, the 
        X-45, which was designed for a limited mission: suppression of 
        enemy air defense, we have set up competition among a number of 
        programs that will produce UCAVs able to conduct a broad range 
        of missions.
        <bullet> Today, we are revitalizing the B-1 fleet by reducing 
        its size and using savings to modernize remaining aircraft with 
        precision weapons, self-protection systems, and reliability 
        upgrades--and thanks to these efforts, I am told the B-1 now 
        has the highest mission capable rates in the history of the 
        program.
        <bullet> Today, in place of the Crusader, the Army is building 
        a new family of precision artillery--including precisions 
        munitions and Non-Line-of-Sight Cannon for the Future Combat 
        Systems.
        <bullet> Today, we have seen targeted pay-raises and other 
        reforms help retain mid-career officers and NCOs, so that fewer 
        of them leave the Service while still in their prime, so the 
        country can continue to benefit from their talent and 
        experience.

    These are positive changes that will ensure that future 
administrations will have the capabilities they need to defend the 
country, as well as a menu of choices which they can then select from 
to shape the direction of the Department a decade from now, as the 21st 
century security environment continues to change and evolve.

                               CONCLUSION

    Finally, I believe that the transparency of the process we have 
used to develop this budget has been unprecedented. For several months 
now, we have been providing detailed briefings to those interested in 
defense here on Capitol Hill, so that Congress is not simply being 
presented with the President's budget today, but has been kept in the 
loop as decisions were being made. Our goal was to ensure that Members 
and staff have had every opportunity to better understand the thinking 
that lies behind these proposals. I am told that the extent of 
consultation from the Defense Department to Congress this year has been 
unprecedented.
    I hope you will take this as evidence of the fact that we are 
serious about our commitment to transform not only our Armed Forces, 
but to transform DOD's relationship with Congress as well. Whether each 
Member will agree with each of the individual decisions and 
recommendations that have been made in this budget, the fact is that it 
has been developed in an unprecedented spirit of openness and 
cooperation.
    We hope that this spirit of openness and cooperation can continue 
as Congress deliberates this year both the President's budget and the 
legislation we are now discussing with you and will be sending to 
transform the way the Defense Department operates. We must work 
together to bring DOD out of the industrial age, and help get it 
arranged for the fast-paced security environment of the 21st century.
    I close by saying that transformation is not an event--it is a 
process. There is no point at which the Defense Department will move 
from being ``untransformed'' to ``transformed.'' Our goal is to set in 
motion a process of continuing transformation, and a culture that will 
keep the United States several steps ahead of any potential 
adversaries.
    To do that we need not only resources, but equally, we need the 
freedom to use them with speed and agility, so we can respond quickly 
to the new threats we will face as this century unfolds.
    Thank you Mr. Chairman.

    Chairman Warner. Before I go on to General Myers, you said 
the level of consultation was unprecedented, and that was in a 
positive vein. I assure you that we have achieved a high water 
mark of any President and his team of trying to keep Congress 
informed. Thank you.
    General Myers.

   STATEMENT OF GEN. RICHARD B. MYERS, USAF, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Myers. Chairman Warner, Senator Levin, 
distinguished members of the committee, I thank you for the 
opportunity to appear before you today and to report on the 
state of the United States Armed Forces. Mr. Chairman, you have 
already said that my prepared remarks will be entered in the 
record and I thank you for that. I will just make a few short 
introductory remarks and we'll get on to questions.
    Today around the world our soldiers, sailors, airmen, 
marines, and coastguardsmen remain engaged in a wide variety of 
missions. Many of these missions are done far from the public 
eye. Yet, there is no more important task before them than to 
bring the fight to the terrorists. Active duty, Reserve, and 
DOD civilians, together with members of the interagency and 
coalition partners, form one team in this effort.
    Our service men and women remain a highly effective 
instrument of national power. Every day this team helps disrupt 
and capture terrorist cells around the world. In addition, our 
combined efforts in Afghanistan have accomplished a great deal 
over the past year. We have restored hope to the people of 
Afghanistan and that nation is on the way to recovery. Clearly, 
there is still much work to be done in Afghanistan, as there is 
on the war on terrorism.
    As the President and Secretary of Defense have said, this 
war will last a long time. But let there be no doubt, we will 
win this conflict. No matter what task we in the Armed Forces 
confront, I am convinced that improving our joint warfighting 
capability will be central to our future success.
    So let me take a minute to share with you what we are doing 
in that area. As you look at joint warfighting today and 
tomorrow, improving our command and control capabilities is the 
single most essential investment we can make, in my view. 
Enhanced command and control combined with intelligence that is 
rapidly shared among the warfighters will allow our joint 
commanders to integrate and unite separate service capabilities 
in a single operation or across the campaign. In my view that 
translates directly to increased efficiencies but more 
importantly to increased effectiveness.
    To reinforce this potential, the President directed Joint 
Forces Command to focus on transforming our joint team to meet 
the challenges of this new century. As a result, this command's 
efforts included the first major joint field experiment, 
Millennium Challenge 02. This experiment demonstrated a variety 
of new concepts and systems that enable critical command and 
control, collaborative information sharing and time sensitive 
targeting capabilities. Investment in these capabilities is 
essential to winning in combat today and particularly in the 
future.
    In fact, General Franks and Central Command are using 
concepts, technologies, and capabilities from Millennium 
Challenge 02 in their current operational planning for Iraq.
    One of the positive results from Millennium Challenge 02 is 
the potential for a joint commander to communicate with his or 
her forces while en route to a crisis area. Near-term technical 
solutions will allow the joint team to keep situational 
awareness of the battlefield while converging from dispersed 
areas. Most importantly, they will allow a commander to employ 
forces without sectors or deconfliction matrices we've used in 
the past, making us much more efficient and effective on the 
battlefield.
    Joint Forces Command's efforts in these areas will help us 
ensure that operational concepts and technical command and 
control solutions that we develop in the future are in effect 
born joint.
    Our emerging command and control, intelligence, 
surveillance, and reconnaissance capabilities must allow the 
Services to rapid and repeatedly plug into each other's 
information and then play or operate as one joint team. As 
such, future weapons systems and delivery platforms must be 
weighted towards what they bring to the joint warfighting team. 
Our approach to improving command and control networks reflects 
our larger approach to upgrading our forces in general.
    Clearly, we must balance near-term recapitalization and 
modernization with long-term investments to transform the force 
for the future. In the first case, we are ensuring our joint 
team is as capable as possible for today's missions, and in the 
second case, we are ensuring we are relevant to dominate a 
range of military operations for tomorrow.
    With your support, we can ensure our men and women in 
uniform have the best tools and technologies possible.
    Investments in hardware are only part of the task to keep 
our force ready. To meet these challenges, we must continue to 
invest in our people and their skills. Your commitment to 
improving joint professional military education will be one way 
to ensure our warfighters have the intellectual foundation to 
meet the unknown challenges they will face, and your support to 
fund the training and to equip our troops with the most capable 
systems sends a very powerful message of support.
    You also demonstrated your commitment by ensuring they have 
the quality of life they deserve, in terms of pay, housing, and 
medical care. This committee, along with the rest of Congress 
and administration, has made quality of life improvements a top 
priority.
    Our world class troops and their families deserve first 
class support and you have always been there for them, and on 
their behalf I thank you for your continued support.
    [The prepared statement of General Myers follows:]
           Prepared Statement by Gen. Richard B. Myers, USAF
    It is an honor to report to Congress on the state of the U.S. Armed 
Forces.
    Today, our Nation's soldiers, sailors, airmen, marines, and 
coastguardsmen operate in an environment characterized by opportunity 
and danger. In the wake of September 11, U.S. forces are now deployed 
to an unprecedented number of locations. Our forces also operate with a 
wider array of coalition partners to accomplish more diverse missions.
    These operations are required, as the world remains a dangerous 
place. In recent months, terrorists have successfully conducted 
numerous attacks--in the Middle East, Africa, and Southeast Asia. The 
loss of innocent lives serves as a poignant reminder that terrorists' 
evil has no moral or territorial limits. Coalition discoveries in 
Afghanistan and other places confirm that al Qaeda actively seeks 
weapons of mass destruction. This network remains active and determined 
to conduct more attacks against the U.S. and our allies.
    At the same time, other threats to U.S. interests have not abated. 
U.S. Armed Forces remain focused on preparing for potential regional 
conflict. The proliferation of advanced technology, weapons, and 
associated expertise has increased the probability that our adversaries 
will be capable in the future of fielding significantly more robust and 
lethal means to attack the U.S. and our interests. In December 2002, 
North Korea announced that it would resume its nuclear program. Iraq 
has used chemical and biological weapons in the past and would likely 
use them again in the future. Iraq is also aggressively seeking nuclear 
weapons. These facts create imperatives for our Nation's Armed Forces. 
All the while, U.S. forces remain prepared to confront the consequences 
of factional strife in distant lands and respond to humanitarian 
disasters.
    The President's National Security Strategy provides a new focus for 
our Nation's Armed Forces. Based on detailed analysis in the most 
recent 2001 Quadrennial Defense Review, the Defense Department adopted 
a new defense strategy. Today, we must be ready to assure our allies, 
while we dissuade, deter, and defeat any adversary. We possess the 
forces necessary to defend the United States homeland and deter forward 
in four critical regions. If required, we will swiftly defeat the 
efforts of two adversaries in an overlapping timeframe, while having 
the ability to ``win decisively'' in one theater. In addition, our 
forces are able to conduct a limited number of lesser contingencies, 
maintain a sufficient force generation capability, and support a 
strategic Reserve.
    At home, the establishment of the United States Northern Command 
(NORTHCOM) has significantly improved the preparedness, responsiveness, 
and integration between the U.S. military and other Federal agencies 
defending our homeland. NORTHCOM is an integral part of the rapidly 
expanding interagency network supporting homeland defense.
    Our Nation's entire Armed Forces remain as engaged today as at any 
time since the Second World War. The war on terrorism remains our 
primary focus. In concert with other instruments of national power, our 
Armed Forces are tracking down al Qaeda in Afghanistan and around the 
world. Simultaneously, we are operating in the No-Fly Zones over Iraq, 
enforcing U.N. sanctions in the Arabian Gulf, facilitating 
reconstruction in Afghanistan, conducting peacekeeping operations in 
the Balkans, supporting our partners in South America against narcotics 
trafficking and terrorist cells, preserving stability in the Korean 
Peninsula, and defending the American homeland. Clearly, the American 
people should know that their Armed Forces are operating at a high 
tempo.
    As a result of this unprecedented strategic environment, I have 
established three priorities as Chairman of the Joint Chiefs of Staff: 
To win the war on terrorism, to improve joint warfighting, and to 
transform our Nation's military to face the dangers of the 21st 
century. These priorities also reflect the priorities of the Secretary 
of Defense. Combined with the President's vision, the Secretary's 
leadership, the support of Congress and the selfless service of our 
Nation's soldiers, sailors, airmen, marines, coastguardsmen, and 
civilian workforce--our Nation's Armed Forces are making progress in 
each of these areas.
    Al Qaeda was not created in a single day. It formed over the course 
of a decade or more prior to September 11, 2001. It cannot be destroyed 
in a day or a year--it will require a commitment of many years. We 
recognize that dangerous and difficult work remains. The following 
highlights recent successes and describes what additional actions are 
required to protect our Nation in our dynamic security environment.

                            WAR ON TERRORISM

    For the past 16 months, the U.S. Armed Forces, in concert with 
other Federal agencies and our coalition partners, have conducted a 
determined campaign to defeat the most potent threat to our way of 
life--global terrorist organizations. Operation Enduring Freedom has 
dealt a severe blow to the al Qaeda transnational network. About 50 key 
al Qaeda officials, operatives, and logisticians have been killed or 
captured. Numerous other operatives have also been removed; however, al 
Qaeda remains a formidable and adaptive peril to our Nation and our 
partners.
    Our successes reflect the careful integration of all instruments of 
national power. This war against terrorists requires the inclusive 
commitment of the military, financial, economic, law enforcement, and 
intelligence resources of our Nation. On the international level, the 
military support and cooperation has been remarkable. Until August of 
last year, when we determined it was no longer required, NATO provided 
Airborne Early Warning Aircraft to supplement our E-3 aircraft 
patrolling over American cities. NATO allies remain with us in 
Afghanistan and patrolling the oceans to interdict terrorists and their 
weapons or resources. More than 90 nations share our resolve and 
contribute daily to the goal of destroying al Qaeda. As part of this 
effort, numerous bilateral counterterrorist exercises and exchanges 
have been conducted around the world.
    At the national level, the Defense Department has made numerous 
adjustments. The creation of the Joint Interagency Task Force for 
Counterterrorism enables the rapid flow of information and analysis 
from national resources to the battlefield. Likewise, Combatant 
Commanders established Joint Interagency Coordination Groups to share 
information, coordinate actions, and streamline operations among 
military, intelligence and law enforcement agencies. At U.S. Special 
Operations Command, the Counterterrorism Campaign Support Group 
combines the expertise and resources of the Departments of State, 
Treasury, and Justice and the CIA with our Special Operations warriors 
at the operational level. The Counterterrorism Campaign Support Group 
fuses intelligence, interagency, and military activities in a seamless 
organization.

                      CURRENT OVERSEAS OPERATIONS

    In Afghanistan, our greatest success has been to deny al Qaeda an 
operating haven. Today, Afghanistan has the first true chance for peace 
in 23 years. More than 2 million Afghan people have returned home. We 
are in the final stages of Phase III (Decisive Operations). Phase III 
has severely degraded al Qaeda's operational capabilities and their 
ability to train new members. Their support continues to decline among 
the Afghan people. Pockets of Taliban and al Qaeda resistance remain 
within Afghanistan primarily along the Pakistani border. Nonetheless, 
overall conditions may permit us to soon shift to Phase IV (Stability 
Operations). Once the President decides to move into Phase IV, we will 
increase the civil and reconstruction assistance to the Afghan 
government. Stability operations will require a great deal of support 
from the international community to be successful.
    This past year, a key task to promote stability began with training 
of the Afghan National Army. The U.S. spearheaded the development of 
this force with training, equipment, and force structure requirements. 
The Afghan National Army's first five battalions have completed basic 
training at the Kabul Military Training Center. More than 1,300 troops 
began advanced training as of December. The sixth battalion is 
currently in basic training and soon we will begin select officer 
training. The French have funded the initial salaries for the recruits 
for all six battalions and provided half of the training. Recently 
trained forces are integrating with our forces throughout the 
countryside. To date, the international community has donated $40 
million worth of equipment. Our military forces will be part of an 
ongoing commitment to provide equipment and expertise.
    The International Security Assistance Force in Afghanistan 
continues its role mandated by the Bonn Agreement and U.N. Security 
Council resolutions. Today, Germany and the Netherlands are preparing 
to share leadership responsibilities of the International Security 
Assistance Force as they take over in February 2003. They follow the 
example set by the United Kingdom and Turkey. Twenty-two nations 
contribute more than 4,500 troops to this vital mission.
    In January 2002, United States Central Command (CENTCOM) proposed a 
concept of operations to disrupt terrorist operations in and around 
Yemen. Central to this plan, CENTCOM proposed to strengthen Yemeni 
Special Forces, capability for counterterrorism operations and expand 
intelligence, surveillance, and reconnaissance operations. Yemeni 
Special Forces have been trained on counterterrorism tactics and 
procedures and are currently receiving maritime counterterrorism 
training. The working relationship between the U.S. and Yemeni 
Government has greatly improved as a result of this training program.
    CENTCOM also established Joint Task Force Horn of Africa (JTF-HOA) 
as part of its Theater Counterterrorism Campaign. In December 2002, 
JTF-HOA stood up while embarked on U.S.S. Mount Whitney. JTF-HOA 
provides CENTCOM a regional counterterrorism focus in East Africa and 
Yemen. It exercises command and control of counterterrorism operations 
for this area. The JTF-HOA staff will remain embarked on U.S.S. Mount 
Whitney for 4 to 6 months until the infrastructure is in place ashore 
at Camp Lemonier, Djibouti.
    Meanwhile, CENTCOM and Allied Forces continue Maritime Interception 
Operations in the Arabian Gulf to enforce U.N. sanctions against Iraq. 
In 2002, Coalition Forces diverted over 800 vessels suspected of 
carrying illegal Iraqi oil. This reflects a significant increase over 
the 115 vessels diverted in 2001.
    United States European Command (EUCOM), through its Special 
Operations Command, Europe, began the Georgia Train and Equip Program 
to build a Georgian capability to deal with the terrorist presence in 
the Pankisi Gorge. EUCOM developed a plan to train three staffs, four 
battalions and one Mechanized/Armor company team. EUCOM has completed 
training the Georgian Ministry of Defense staff, the Land Forces 
Command staff and the first battalion. In December, Commander, EUCOM 
directed Marine Forces Europe to assume the Georgia Train and Equip 
Program mission, which will resume training in February. Six other 
allies contributed nearly $2 million in materiel reflecting the 
international nature of this program.
    In July, the President approved Expanded Maritime Interception 
Operations to interdict terrorists and their resources. With this 
order, the President authorized commanders to stop, board, and search 
merchant ships identified to be transporting terrorists and/or 
terrorist-related materiel. Expanded Maritime Interception Operations 
are focused on EUCOM and CENTCOM's Areas of Responsibility (AORs) while 
PACOM and the other Combatant Commanders are developing Expanded 
Maritime Interception Operations plans. Eleven nations provide forces 
for Maritime Interception Operations within the CENTCOM AOR. German and 
Spanish senior officers command parts of these operations--reflecting 
the coalition commitment to the war on terrorism. So far, EUCOM's 
Maritime Interception Operations have stopped 14 ships. NATO maritime 
and air forces support the Maritime Interception Operations within 
EUCOM's AOR.
    In Europe, we support NATO's plan to transition Stabilization 
Forces in Bosnia-Herzegovina to a minimal presence and Kosovo forces to 
a reduced presence by the end of 2004. In the spring of 2003, the NATO 
Military Committee will review the proposed force structure reductions 
and restructuring for Bosnia and Kosovo. Our presence in the Balkans 
has not only promoted peace in the region, it has also enhanced our 
ability to conduct counterterrorism operations.
    During this past year in support of Operation Enduring Freedom--
Philippines, U.S. Pacific Command (PACOM) has provided the Armed Forces 
of the Philippines military advice and assistance in targeting Abu 
Sayyaf Group terrorist activities in the Philippines. U.S. forces could 
be available to provide follow-on advice and assistance if requested by 
the Government of Philippines, and approved by the President and the 
Secretary of Defense. In concert with these efforts supporting 
Operation Enduring Freedom, Congress has approved the Security 
Assistance Funding necessary to provide counterterrorism training for 
the armed forces of the Philippines. Training will begin in the 
February/March timeframe.
    United States Southern Command (SOUTHCOM) continues to support 
counter-narcotics trafficking and counterterrorism efforts in South 
America. In accordance with new Presidential policy and expanded 
legislative authority, we are assisting the Colombian military in its 
fight against designated terrorist organizations by providing advice, 
training, and equipment. Our current operations are built on 
preexisting counter-narcotics missions. U.S. troops are currently 
training the Colombian military to protect critical infrastructures, 
such as the Cano Limon Pipeline. In addition personnel will deploy in 
fiscal year 2003 to serve as Operations and Intelligence Planning 
Assistance Teams at selected units to assist the Colombian military in 
its fight against terrorism. This assistance will continue over the 
next several years. The U.S. military presence in Colombia is limited 
to the troop caps established by Congress, in terms of uniformed and 
contract personnel.
    The Tri-Border Area of Argentina, Brazil, and Paraguay is a focal 
point of increased drug and arms trafficking, money laundering, 
document fraud, and Islamic terrorist-supported activities. U.S. and 
Brazilian officials estimate that between $10-$12 billion USD/year 
flows through the Tri-Border Area, some of which is diverted to known 
terrorist groups such as Hizballah and Hamas.
    Commander, SOUTHCOM continues detainee operations (detention and 
intelligence collection missions) at Guantanamo Bay, Cuba. While the 
detainees are not entitled to the status of Enemy Prisoners of War, the 
President and the Secretary of Defense have directed that the U.S. 
Armed Forces treat them humanely and to the extent appropriate and 
consistent with military necessity, consistent with the principles of 
the Geneva Conventions. SOUTHCOM has constructed an additional 190 
medium security units to augment the 816 holding units and fortified 
billeting structures for U.S. military personnel assigned. Almost 2,000 
U.S. military personnel are deployed to Guantanamo Bay in support of 
detainee operations. The President issued an order on November 13, 
2001, authorizing use of military commissions to prosecute individuals 
subject to the order for offenses against the laws of war and other 
applicable laws. To date, no one has been made specifically subject to 
the order, and therefore, no one has been prosecuted by military 
commission. The Secretary of Defense appointed the Secretary of the 
Army to lead war crimes investigations. A few of those detained at 
Guantanamo determined to be of no intelligence or law enforcement value 
or threat to the U.S. or its interests, have been released and returned 
to their countries of origin.
    We view Guantanamo Bay as a national asset that supports our work 
in securing intelligence vital to success in the war on terrorism and 
protection of our homeland. It also supports interagency and 
international intelligence and law enforcement efforts. Interrogations 
at Guantanamo Bay have resulted in intelligence of high value. 
Information gathered from known terrorists held at Guantanamo Bay has 
helped us to define and disrupt the global terrorist threat.

                       UNIFIED COMMAND PLAN 2002

    On 1 October 2002, we implemented the 2002 Unified Command Plan, as 
directed by the President. The 2002 Unified Command Plan, and its 
subsequent Change 1, created United States Northern Command (NORTHCOM), 
disestablished United States Space Command (SPACECOM) and combined 
SPACECOM's missions and forces with United States Strategic Command 
(STRATCOM), thereby establishing a ``new'' STRATCOM.

          UNITED STATES NORTHERN COMMAND AND HOMELAND SECURITY

    NORTHCOM's mission is to deter, prevent, and defeat threats and 
aggression aimed at the U.S. and its territories. When directed, 
NORTHCOM provides military assistance to civil authorities, including 
consequence management. Commander, NORTHCOM is dual-hatted as 
Commander, North American Aerospace Defense Command (NORAD). NORAD has 
control of the air defense of CONUS. Land and Maritime operations are 
controlled by NORTHCOM.
    NORTHCOM stood up its combatant command staff and accepted Homeland 
Defense missions and tasks from United States Joint Forces Command 
(JFCOM) and other combatant commands. It has also developed a plan to 
reach its full operational capability. Currently, NORTHCOM is engaged 
with Federal and State agencies, the National Guard and NORAD to plan 
and exercise a variety of homeland defense and civil support tasks. 
Simultaneously, NORTHCOM is cultivating closer relationships with our 
North American neighbors.
    As part of this effort, NORTHCOM's Standing Joint Task Force Civil 
Support provides command and control for DOD forces supporting the lead 
Federal agency managing the consequences of chemical, biological, 
radiological, nuclear, or high-yield explosive incidents in addition to 
natural disasters. As such, Joint Task Force Civil Support provides a 
sustained planning staff that has formed a habitual relationship with 
key Federal and State agencies plus communities nationwide.
    NORAD's responsibilities for air and ground early warning systems 
and alert fighter support in defense of CONUS, Canada and Alaska remain 
unchanged. In addition, NORAD is identifying the infrastructure needed 
for the defense of the National Capital Region.
    On December 9, 2002, the U.S. and Canada agreed to create a new bi-
national land, maritime, and civil support military planning group at 
NORAD to help examine potential responses to threats and attacks on the 
U.S. or Canada. This initiative will advance our ability to defend our 
Nation.
    Last year Operation Noble Eagle flew over 14,000 sorties even while 
our current operations overseas required key resources. These sorties 
represent NORAD's contributions to Operation Noble Eagle and defense of 
the American homeland.

                    UNITED STATES STRATEGIC COMMAND

    United States STRATCOM's mission is to establish and provide full-
spectrum global strike, coordinate space and information operations 
capabilities to meet both deterrent and decisive national security 
objectives. STRATCOM retains its nuclear triad of submarine, bomber, 
and missile forces.
    On 10 January 2003, the President signed Change 2 to the Unified 
Command Plan. This latest change assigned four emergent missions to 
STRATCOM and reflects the U.S. military's increased emphasis on a 
global view. These new missions include missile defense, global strike, 
DOD information operations and global command, control, communications, 
computers, intelligence, surveillance, and reconnaissance. Missile 
defense is an inherently multi-command and multi-regional task. 
STRATCOM will serve as the primary advocate in the development of 
missile defense operational architecture. With its global strike 
responsibilities, the Command will provide a core cadre to plan and 
execute nuclear, conventional, and information operations anywhere in 
the world. STRATCOM serves as the DOD advocate for integrating the 
desired military effects of information operations. These initiatives 
represent a major step in transforming our military and in implementing 
the new strategic triad envisioned in the 2001 Nuclear Posture Review.
    STRATCOM will also continue the former U.S. Space Command's legacy 
of providing space support for our joint team. The Global Positioning 
System (GPS) offers an excellent example of how space systems enhance 
our Joint Warfighting Team. The GPS's worldwide position, navigation, 
and timing information give U.S. forces an all-weather, precision 
engagement capability. As an example of one application, the U.S. Army 
fielded a blue force tracking system--a space-based tool that gives 
commanders awareness of their units' locations.
    U.S. military space superiority requires continued advances in 
space control and access along with the cooperation of our allies. The 
European Union, for example, is developing Galileo, a civil satellite 
navigation system that risks our enhancement to military GPS. As 
currently designed, the Galileo signal will operate in the same 
bandwidth as our GPS system's civil and military signals. When Galileo 
begins operating, its signals will directly overlay the spectrum 
associated with our new GPS military code. Continued negotiations to 
resolve this political issue with the European Union is essential to 
ensuring our joint team maintains the advantages of GPS in combat.
    Concurrent with these ongoing operations, the Services, Joint 
Staff, and Combatant Commands have pursued a 15-percent major 
headquarters reduction. To date, DOD headquarters personnel have been 
reduced by more than 11 percent. Given commitments around the world 
today, any further reductions beyond those already taken could 
adversely impact our ability to meet the demands of the war on 
terrorism, Homeland Security, global military presence and respond to 
any new threats. Nonetheless, the Service Chiefs, Combatant Commanders, 
and I continue to explore ways to reduce and streamline headquarters 
functions.

                     ANTITERRORISM/FORCE PROTECTION

    Antiterrorism/Force Protection remains a top priority for all 
commanders. Our adversaries--unable to confront or compete with the 
United States militarily--have and will continue to use terrorist acts 
to attack U.S. citizens, property, and interests--to include military 
bases and personnel. In the fiscal year 2003 budget, the Antiterrorism/
Force Protection portion of the Combating Terrorism budget totaled $9.3 
billion. The terrorist threat environment has forced us to maintain a 
higher worldwide Force Protection Condition for longer periods of time. 
In the short term, this task is being met with an increase in manpower.
    For example, EUCOM is currently at Force Protection Condition 
Bravo. In the short-term, additional troops are required to guard U.S. 
military bases throughout EUCOM's theater. In the long-term, the 
Secretary of Defense directed us to pursue new technologies that will 
reduce the manpower footprint while improving force protection, as well 
as seeking host nation support for the force protection mission.
    The Combating Terrorism Readiness Initiative Fund helped provide 
immediate Antiterrorism/Force Protection off-the-shelf technology to 
Combatant Commanders to satisfy emergent requirements that could not 
wait for the normal budget process or long-term technical solutions. 
Last year's funded systems included explosive detection systems that 
enhanced access control, intrusion detection systems that provided 
broader perimeter security while reducing manpower requirements and 
chemical/biological (Chem/Bio) detection systems to improve 
installation defense capabilities. The Department authorized $47 
million this past year for the Combating Terrorism Readiness Initiative 
Fund, nearly twice the fiscal year 2000 expenditure.
    To support the Combatant Commanders' Antiterrorism/Force Protection 
efforts, the Joint Staff Integrated Vulnerability Assessment Teams will 
visit 95 military installations worldwide this year. Joint Staff 
Integrated Vulnerability Assessment Teams assess physical security 
measures, infrastructure support and structural vulnerabilities, 
intelligence collection and dissemination capabilities and the 
installation's ability to respond to terrorist incidents. Over 500,000 
personnel received ``General Antiterrorism Awareness'' training last 
year. This on-line training is now also available to DOD family 
members.
    The Defense Department also finalized prescriptive antiterrorism 
engineering and construction standards to improve survivability of our 
personnel from the effects of an explosive device. In large part 
because the Pentagon renovation project followed design strategies 
based on these new antiterrorism construction standards, the damage and 
loss of life from the Pentagon attack was significantly reduced.
    U.S. forces' antiterrorism capabilities are seen as a standard 
worldwide. NATO sought U.S. military expertise to improve antiterrorism 
training for all NATO forces. As a result, last summer, NATO approved 
policy guidance that clarified antiterrorism responsibilities for non-
Article 5 operations, delineated minimum unit antiterrorism plan 
requirements and increased emphasis on weapons of mass destruction 
defense and consequence management planning. The U.S. will assist NATO 
to implement this important guidance.
    We are working hard to expand and improve our capabilities to 
protect our personnel against chem/bio agents. DOD initiated 
vaccinating select segments of the force against anthrax and smallpox. 
Our medical treatment capabilities must expand to include improved 
treatment against weapons of mass destruction while providing 
additional medical countermeasures, surveillance systems and response 
teams.
    We improved overall joint force readiness by our recent procurement 
of improved chem/bio defensive protective clothing, masks, and 
detection systems. This equipment is significantly more reliable, 
better at agent detection and further enhances our forces' overall 
capability to operate in the chem/bio environment.
    In the area of installation protection, we have improved detection 
systems plus consequence management assessment and training 
capabilities at 23 of our overseas bases. In addition, we performed a 
thorough assessment of our detection and first responder capabilities 
at nine key CONUS installations. These lessons learned will guide 
development of a comprehensive plan to improve chem/bio defense at more 
than 200 bases over the next 6 years. Although we improved our chem/bio 
capabilities, fighting a war in this environment remains a serious 
challenge. Therefore, we must continue to fund research, development, 
and acquisition projects that ensure our forces can operate 
successfully in this adverse environment.

                    READINESS FOR FUTURE OPERATIONS

    The readiness of our general-purpose forces, whether forward 
deployed, operating in support of contingency operations or in Homeland 
Defense, continues to be solid. U.S. forces are well trained and in 
general, possess the personnel, equipment, and resources needed to 
accomplish the military objectives outlined in the Defense Strategy.
    In light of the current pace of operations, it is notable that 
active U.S. Army divisions maintain high readiness levels. U.S. Air 
Force aircraft mission capable rates improved over the past 6 months. 
U.S. Navy forces continue to meet readiness goals for both the deployed 
and non-deployed segments of the force. The U.S. Marine Corps is ready 
to meet the demands of current and potential operations. While ongoing 
global operations increased the workload on the Nation's military 
focus, these forces remain prepared to accomplish their wartime tasks.
    Material readiness has improved substantially in part, due to the 
tremendous support of Congress. One example is munitions, where recent 
supplemental measures have allowed Combatant Commanders to increase 
stockpiles of key all-weather and advanced precision-guided munitions. 
These munitions enable the joint team to place at risk a wide array of 
enemy targets. Funding increases this past year dramatically increased 
precision-guided munitions production rates, and selected production 
rates should be near maximum capacity by August 2003. Continued 
congressional support is critical to build munitions and materiel 
inventories to levels that meet warfighting requirements.
    While the force is ready, this past year significantly stressed the 
readiness of several critical enablers. Our intelligence forces operate 
under increased pressure as a result of the war on terrorism. Key skill 
sets (like targeteers, linguists, and police-like investigative skills) 
are in short supply. Recognizing this fact, our intelligence, 
surveillance and reconnaissance forces must mature into a more 
adaptable and flexible contingency collection capability. Many systems 
were developed to meet a cold war threat and provide excellent force-
on-force collection capability. The ingenuity of our soldiers, sailors, 
airmen, marines, and coastguardsmen has allowed many systems to perform 
a valuable role in the war on terrorism.
    The present posture of the military intelligence forces, for the 
long-term war on terrorism is improving, but many challenges remain. 
This global war clearly demonstrates the need for persistent long-
loiter intelligence, surveillance, and reconnaissance platforms. 
Military intelligence also requires low observable unmanned aerial 
vehicle systems, close-access sensors, and a greater emphasis on human 
intelligence collection. In addition, all intelligence communities must 
provide an information architecture that provides a ``push and pull'' 
capability for the joint warfighter, law enforcement and counter-
intelligence personnel. We must shift our attitudes away from the 
mindset of a ``need to know'' to one of ``need to share.''
    Our strategic mobility triad (airlift, sealift, and prepositioned 
materiel) provides us the capability to swiftly move forces around the 
world. The U.S. remains the only nation who can routinely move units 
and materiel globally with confidence and speed. While our airlift and 
air refueling assets performed magnificently in support of the war on 
terrorism, this high operational demand is accelerating the aging of C-
5 and tanker aircraft and created unanticipated wear and tear on our C-
17 fleet. As a result, strategic airlift remains one of our top 
priorities. The C-17 multi-year procurement plus the C-5 Re-engining 
and Reliability Enhancement Programs are major steps to meet the 
minimum wartime airlift capacity of 54.5 million ton miles/day. The 
follow-on multi-year procurement with Boeing for 60+ C-17s will bring 
the total C-17 fleet to 180 aircraft in 2007. As a corollary priority, 
replacing the 40-year-old KC-135 air refueling fleet is an essential 
joint warfighting requirement.
    With congressional support, our strategic sealift achieved the 
Mobility Requirements Study-05 goals for surge and prepositioned fleet 
sealift requirements. The maintenance of our organic sealift fleet 
remains a high priority to ensure we can deploy sufficient force to 
support routine and contingency operations. To support greater levels 
of mobilization, DOD can also access additional U.S. commercial 
shipping through the Voluntary Intermodal Sealift Agreement. This 
agreement is critical to ensure that adequate sealift capacity (and 
associated mariners) is available to support DOD requirements during 
wartime. We are working closely with the Department of Transportation 
to ensure these requirements can be met.
    Our prepositioned material reduced response time in key theaters. 
This critical readiness program enables our success in the war on 
terrorism and other contingency operations.
    For intratheater mobility, the Department recognizes the Joint 
Venture, High-Speed Vessel as a promising delivery platform. This 
vessel employs off-the-shelf technology and can operate in austere 
locations where mature seaports do not exist. Combatant Commanders 
praise this vessel for rapidly and efficiently moving personnel and 
equipment. Future operations will also rely on strong enroute 
infrastructures that support strategic mobility requirements. The 
dynamic nature of the war on terrorism and other potential 
contingencies dictates that we be prepared to establish new enroute 
bases to support deployments to austere locations. In addition, we must 
fully fund the existing enroute infrastructure to sustain its 
capability. Future success in operations depends upon effective 
training today and tomorrow.
    Last May, I wrote Congress about my grave concern over the adverse 
impacts and unforeseen consequences that the application of various 
environmental laws are having on military training and testing 
activities and consequentially on the readiness of our Armed Forces. 
Last year, Congress provided temporary relief, but only for one 
statute. While measuring the impact of inflexible or overbroad 
environmental requirements is difficult, my professional assessment is 
that the impacts and consequently the challenge we face in providing 
the most effective training weapons and sensors, has grown. Enough is 
known right now to convince me that we need relief. We are not 
abandoning our outstanding stewardship over the lands entrusted to us 
or retreating from environmental protection requirements. We are trying 
to restore balance when environmental requirements adversely affect 
uniquely military activities necessary to prepare for combat. I ask 
that you carefully consider the proposed changes that the DOD brings 
forward and provide the tailored relief we seek.
    The current pace of operations and future potential operations 
continues to require the Services and Combatant Commanders to carefully 
manage assets and units that are in high demand, but in small numbers. 
The demand for critical capabilities (such as manned and unmanned 
intelligence, surveillance, and reconnaissance assets, special 
operations forces, intelligence analysts and linguists and command and 
control assets) increased significantly as a result of multiple 
contingencies. We will continue to prioritize the tasks given these 
critical units to preserve our surge capability for future operations.
    Our number one asset remains the men and women serving in the Armed 
Forces. They have the educational depth, the innovative spirit and 
mental agility that transforms technology into an effective military 
force. Their service and dedication deserve our full support to seek 
ways to improve their quality of life. The administration, Congress, 
and DOD made raising their standard of living a top priority. This 
year's legislation provided an across-the-board military pay raise of 
4.1 percent and targeted increases of up to 6.5 percent for junior 
personnel. This year's out-of-pocket housing expense reduction from 
11.3 percent to 7.5 percent is a sound investment, as are future 
targeted pay increases based on the Employment Cost Index plus one half 
percent. Our troops and their families greatly appreciate continued 
congressional support for these initiatives, plus efforts to improve 
family and unaccompanied housing. Such congressional action directly 
impacts recruitment, retention, and family welfare. I view these all as 
inseparable from operational combat readiness.
    No discussion of those who serve is complete without mentioning the 
exceptional service of our guardsmen and reservists. In the first 15 
months of Operation Enduring Freedom (OEF), nearly 85,000 of them 
served on active duty. Like their active duty counterparts, their 
service balances their duty to the Nation and their commitment to their 
families. These citizen-warriors, however, must also balance an 
obligation to their civilian employers. These past few months 
demonstrated our increased reliance on our Reserve components to defend 
the Nation's coastlines, skies, and heartland, as well as protect our 
interests worldwide. We also gained a deeper appreciation that today's 
Reserve personnel have the competence, dedication, and leadership that 
make them indistinguishable from their active-duty counterparts.

                IMPROVING JOINT WARFIGHTING CAPABILITIES

    The U.S. Armed Forces' ability to conduct joint warfare is better 
today than anytime in our history, due in part to the tremendous 
support of Congress. Nonetheless, many challenges remain. Our joint 
team is comprised of the individual warfighting capabilities of the 
services. To improve our joint warfighting capability, we must maximize 
the capabilities and effects of the separate units and weapons systems 
to accomplish the mission at hand--without regard to the color of the 
uniforms of those who employ them. This challenge demands that we 
integrate service core competencies together in such a way that makes 
the whole greater than the sum of its parts. Our operational 
architectures must be inclusive and not exclusive in terms of 
capabilities and desired effects. We must integrate--not deconflict--
our operations.
    To support these efforts, on 1 October 2002, we changed the mission 
and focus of JFCOM. Today, the men and women of JFCOM concentrate on 
improving our Joint Warfighting capability as we transform to meet the 
challenges of the 21st century. In the future, they will be converting 
strategy and policy guidance into fielded capabilities at the 
operational level through the development of joint concepts and 
integrated architectures.
    JFCOM is contributing to the efforts that develop and define the 
Joint Operations Concept, and the related operational concepts, that 
will link our defense strategy and our emerging Joint Vision with 
service operational concepts. It will help senior military and civilian 
leaders synchronize service modernization, guide experimentation and 
inform acquisition strategies that will guide materiel and non-material 
improvements for the joint force. In support of this effort, JFCOM 
conducts joint experimentation to validate the operational utility of 
joint concepts. The results will drive changes across all areas of 
doctrine, organizations, training, material, leadership and education, 
personnel and facilities.
    To improve joint warfare, we must focus on improving the accuracy 
and timeliness of the Combatant Commanders information used to command 
and control the joint force. With shared information, commanders can 
integrate discrete capabilities; without it, they must segregate 
operations into time and space. For these reasons, we must emphasize 
the Joint Operations Concept to solve the interoperability challenges 
of our legacy command and control, communication, and computer systems 
and ensure future systems are ``born joint.''
    JFCOM is working aggressively towards our goal of seamless C\4\ISR 
interoperability by fiscal year 2008. To achieve that goal, JFCOM will 
set the operational requirements and prioritize the integrated 
architectures under development for future battle management command 
and control systems. In addition, JFCOM will exercise oversight and 
directive authority of three major interoperability efforts: the 
Deployable Joint Command and Control system, Single Integrated Air 
Picture, and Family of Interoperable Operational Pictures. The Services 
and Defense agencies, in coordination with JFCOM, will retain 
acquisition authority for these and all other battle management command 
and control programs and initiatives.
    We are convinced that the Deployable Joint Command and Control 
system under development by the Navy is the materiel and technological 
solution to provide intelligence processing, mission planning, and 
control of combat operations for the standing joint force headquarters. 
The first Deployable Joint Command and Control suite is scheduled for 
delivery in fiscal year 2005. Together with the Air Force's Family of 
Interoperable Operational Pictures, the Army's Single Integrated Air 
Picture, and JFCOM's Joint Interoperability and Integration programs, 
this effort will allow the joint force to truly transform the way it 
plans, coordinates, and executes joint operations. We need continued 
congressional support for these critical battle management command and 
control programs.
    Our experiences in Afghanistan illustrated how important timely and 
responsive command and control was to control sea, land, and air forces 
in areas with primitive or nonexistent communications infrastructures. 
To meet this challenge in the Arabian Gulf area of operations, CENTCOM 
deployed a prototype battle management command and control system to 
support its Internal Look exercise in Qatar and for potential future 
operations. DOD will leverage the lessons learned from this prototype 
to help guide the development of future battle management command and 
control systems.
    We must also develop command and control systems that can rapidly 
deploy anywhere in the world, to support joint and coalition forces 
with ``plug and play'' ease and that are also scalable to respond to 
changing circumstances. Programs such as the Joint Tactical Radio 
System, Mobile User Objective System, and the Joint Command and Control 
capability (the follow-on to Global Command and Control System) are 
systems that were truly ``born joint.'' We also must ensure that we 
have the necessary military satellite communications systems that can 
provide the high bandwidth required to support our forces in austere 
environments such as Afghanistan.
    The role of command, control, communications, computers, 
intelligence, surveillance, and reconnaissance underscores the 
importance of managing and developing the radio frequency spectrum. 
Highly mobile, widely dispersed forces require significant radio 
frequency spectrum to operate effectively and efficiently. This 
military requirement is increasing at the same time that the private 
sector's demand for spectrum is growing. While it is important to 
provide additional spectrum to meet growing industry requirements, we 
must ensure the availability of spectrum to provide future military 
requirements.
    In today's dynamic strategic environment, events in one area may 
quickly affect events in another. This reality requires a more 
responsive planning process to capitalize on the improved C\4\ networks 
and where deliberate- and crisis-action planning complement each other. 
Improvements in war planning are required to close the time gap between 
deliberate- and crisis-action planning. These initiatives range from 
changing doctrine to developing new automated planning tools for Time-
Phased Force Deployment Data (TPFDD) development. The Joint Staff, in 
collaboration with the Combatant Commanders' staff, is developing a 
single shared planning process for deliberate and crisis planning. This 
initiative will develop tools and processes to reduce the deliberate 
planning cycle, facilitate the transition to crisis planning, and 
exploit new technology to respond to evolving world affairs. The end 
results will be greatly improved flexibility for the President and the 
Secretary of Defense.
    Improving Joint Warfighting requires more than technical solutions. 
My exercise program supports the Combatant Commanders' ability to 
sharpen our soldier, sailor, airmen, marines, and coastguardsmen's 
warfighting edge. It enables operational commanders to better train 
their battle staffs and forces in joint and combined operations while 
evaluating their war plans. It also allows DOD to enhance and evaluate 
interoperability among the Services. Exercises focusing on strategic, 
national, and theater-level joint tasks consistently challenge leaders 
throughout DOD, interagency and allies with timely and relevant 
scenarios--including terrorism, cyber attack, continuity of government, 
and operations. Routinely, these exercises provide access to critical 
bases of operation around the world as venues for practicing impending 
joint/combined operations. These exercises also allow the opportunity 
to enhance the capabilities of the military forces of allied nations 
and ensure their continued support in the war on terrorism. The U.S. 
military is advancing and transforming at a rate that greatly outpaces 
our allies. We must work hard to help them close that gap.
    Since fiscal year 1996, the number of joint exercises decreased 
from 277 to 191. This resulted from the reduction of joint exercise 
transportation funds to $319 million. In order to balance operational 
and exercise requirements, DOD limits C-17 support to 34,000 equivalent 
flying hours and roll-on/roll-off ships to 1,100 steaming days. Any 
further decrease in funding will force major reductions or 
cancellations of high-priority joint/combined exercises and have a 
detrimental impact on our joint warfighting capability.
    The Defense Department will establish a Joint National Training 
Capability to support joint operations by leveraging live, virtual, and 
constructive technologies. As a first step, the Under Secretary of 
Defense for Personnel and Readiness and I will identify specific 
capabilities for the establishment of the Joint National Training 
Capability by 1 October 2004. The Joint National Training Capability 
will then exercise DOD's ability to execute key joint training tasks 
through several scheduled annual events.
    We must improve our joint warfighting capabilities by learning from 
previous operations. The Combatant Commands, Services, and Joint Staff 
continue to capture and apply lessons learned from Operation Enduring 
Freedom. One of the key lessons learned was the positive impact Theater 
Security Cooperation had on our operations in Afghanistan. It helped 
create the foundation that allowed our air, naval, and ground forces to 
gain access to the region's airspace and basing. Another valuable 
lesson was the tremendous force multiplier of merging Special 
Operations Forces on the ground with space forces' communications and 
navigation capabilities to the air and naval forces' precision attack 
capabilities.
    In addition to meeting other objectives, Joint Professional 
Military Education is one means to ensure that future warfighters 
capitalize on the lessons of the past to improve joint warfighting. 
Joint Professional Military Education develops U.S. military leaders 
capable of executing the war on terrorism, improving joint warfighting, 
and transforming the force. Currently there is an ongoing 
congressionally-mandated independent study of Joint Officer Management 
and Joint Professional Military Education. This study will provide 
valuable insights on ways to improve and expand joint officer 
development. We anticipate completion of this study in early 2003.
    In concert with the independent study, the Joint Staff is also 
exploring ways to improve Joint Officer Management and Joint 
Professional Military Education. We identified requirements to provide 
joint distance-learning programs to our Reserve components and to 
active duty Non-Commissioned Officers to improve their expertise in 
joint operations. In a similar fashion, I directed the National Defense 
University to revise the CAPSTONE curriculum for newly selected Flag 
and General Officers. My goal is to ensure our new Flag and General 
Officers gain a better foundation of joint, interagency, and multi-
national operations at the operational level.
    I charged the Joint Staff with developing recommendations for 
several areas of Joint Officer Management and Joint Professional 
Military Education that I believe need to be revised. We need one set 
of effective and enforceable rules for how the Services assign and 
manage joint billets. We must also bring the tour length requirements 
and recognition of joint credit in line with current operations. The 
Combatant Commanders and I should be the driving force in the 
production of Joint Specialty Officers. Finally, my goal is to make the 
annual report to Congress a more meaningful set of metrics that more 
accurately reports each Service's support of the joint community. We 
look forward to working with you and your staffs this year, to 
incorporate these changes along with those of the independent study.
    In addition, joint doctrine provides the foundation for joint 
education, training, and exercises. We are developing joint doctrine 
for Homeland Security, Civil Support, Joint Close Air Support, Joint 
Planning, Chemical, Biological, Radiological, Nuclear and High Yield 
Explosives Consequence Management; and Intelligence Support to 
Targeting. The new Joint Doctrine Electronic Information System ensures 
the warfighters have the most current joint doctrine. This system also 
provides joint doctrine to education and training audiences. Joint 
doctrine continues to improve the readiness of the joint warfighter to 
operate effectively and efficiently in a complex operational 
environment.

                TRANSFORMATION OF THE U.S. ARMED FORCES

    As the U.S. military meets the challenges of the 21st century, we 
must transform how we organize, support, and fight as joint 
warfighters. Transforming the joint force requires embracing 
intellectual, cultural, as well as technological, change. We are in the 
process of revising our Joint Vision. This new vision will provide a 
broad description of what our Armed Forces must and can become. From 
our Joint Vision and the Defense Strategy, we are crafting a Joint 
Operations Concept. It will link the tasks given our Armed Forces to 
the Joint Vision, joint operating concepts, and Joint Warfighter 
architectures. These joint concepts and architectures will provide 
further guidance to each Service.
    In its broadest sense, the Joint Operations Concept will describe 
how the joint force will operate, while helping transform the U.S. 
Armed Forces to a capabilities-based force.
    The Joint Operations Concept cannot shape the future joint force 
alone. It requires experimentation and assessment to determine the 
value of the Service and joint warfighting concepts in the context of 
future joint operations and the future environment. From these efforts, 
we will identify the doctrine, organization, training, materiel, 
leadership, and education, personnel, and facilities changes needed to 
create the future joint force. In this manner, we can scrutinize 
current capabilities and proposed systems to highlight gaps and 
identify overlapping capabilities.
    Using these architectures, the Joint Requirements Oversight Council 
will implement methodologies to assess both legacy and proposed systems 
in the aggregate. As a result, the Joint Requirements Oversight Council 
will define and validate desired joint capabilities and derive mission 
area requirements. The Joint Requirements Oversight Council shall 
consider the full range of doctrine, organizations, training, materiel, 
leadership and education, personnel, and facilities solutions to 
advance joint warfighting. In this manner, the Joint Requirements 
Oversight Council will further reorient our force planning to a 
capabilities-based framework. The Joint Operations Concept will allow 
the Joint Requirements Oversight Council to adopt a synchronized, 
collaborative, and integrated systems engineering approach to sizing 
and shaping our forces.
    In support of our transformation efforts, JFCOM spearheaded the 
Nation's first major joint field experiment with Millennium Challenge 
02. Millennium Challenge 02 demonstrated a variety of new concepts and 
systems that enabled critical command and control, collaborative 
information sharing, and time-sensitive targeting capabilities. These 
systems are essential to the fielding of the Standing Joint Force 
Headquarters. While Millennium Challenge 02 focused on materiel 
capabilities, it yielded insights critical for non-materiel changes in 
doctrine, organizations, training, materiel, leadership and education, 
personnel, and facilities.
    One example was the Joint Fires Initiative, which offered an 
interim automated capability to manage time-sensitive target 
engagement. The Joint Fires Initiative enabled the Joint Task Force, 
Component Commanders and their staffs to use available information 
technology, web-based collaborative tools to accelerate the joint 
force's ability to identify, attack, and assess priority targets. It 
blended intelligence, surveillance, and reconnaissance resources, 
combat units and Commanders' decision processes to permit real-time 
execution.
    A second initiative in Millennium Challenge 02 was Joint Enroute 
Mission Planning and Rehearsal System--Near Term. This system enables 
Theater and Joint Task Force Commanders to remain connected with their 
forward and rear headquarters when enroute to or from contingency 
locations. It permits a wide scale of communications and collaborative 
tools to prevent a ``leadership blackout'' during a commander's travel.
    The Joint Fires Initiative and Joint Enroute Mission Planning and 
Rehearsal System--Near Term are part of fielding a broader 
Collaborative Information Environment. Today's Collaborative 
Information Environment is powered by high-speed connectivity and real-
time collaborative tools to share information in an unprecedented 
manner. This environment will permit commanders to receive more 
accurate information faster. As such, it will be critical part for U.S. 
forces to operate faster than our adversaries.
    To meet this challenge, the joint force must have access to 
superior information. This requires long-term investment to meet the 
demands of responsive, targeted, intrusive, and persistent collection. 
Our current operational environment and the nature of these dynamic 
threats demand that our joint force have the real-time ability to 
monitor, track, characterize, and report on moving objects and events. 
We must capitalize on emerging technology such as small, expendable 
satellites, and long-dwell UAVs. These promising platforms will enable 
the joint force to gain persistent surveillance. The information gained 
from these platforms must not flow into stovepipes, but must be part of 
a ``system of systems'' that blends with human and technical data from 
strategic, theater, tactical, and commercial programs.
    With this improved and more complete data, the Intelligence 
Community must develop tools to assist in information management that 
can accommodate ``analytic discovery'' and data visualization 
techniques. Our military intelligence community requires a highly 
skilled work force trained to mine, manipulate, integrate, and display 
relevant information. To effectively employ these collection 
opportunities, new techniques and tools must be developed.
    While we are expending considerable effort to make sure we procure 
systems that are interoperable across the Services, we must continue 
placing emphasis on systems that allow interoperability with our 
allies. A way to do this is to allow allies to participate in many of 
our procurement projects. This will have the dual advantage of helping 
to lower project cost to the American taxpayer and increasing 
interoperability with those allied forces that will accompany us into 
the breach. The Joint Strike Fighter reflects one success story of 
allied and U.S. combined procurement. The Joint Strike Fighter set the 
standard for how we should approach new procurements, welcoming key 
allied participation in the development and production of future 
systems. Such an acquisition strategy will increase interoperability, 
help allied transformation, and reduce direct U.S. development costs.
    Transforming military forces to meet a dynamic 21st century 
security environment is not a unique American task. At the Prague 
summit, NATO leaders agreed to establish an allied command for 
transformation in Norfolk, Virginia. The proposed NATO Command will 
work with JFCOM. This close and cooperative relationship will allow the 
U.S. and our NATO allies to keep abreast of advances in contemporary 
warfare.
    Our efforts to improve our allies' warfighting capabilities reach 
far beyond NATO. The Combatant Commanders and I share the Secretary of 
Defense's vision of a long-term plan to balance burden sharing, 
leverage U.S. technological superiority and use a proactive Theater 
Security Cooperation strategy to transform allied forces into lethal, 
offensive-minded, combined-arms forces. This initiative is as much 
about doctrine, warfighting mindset and organizational structure as it 
is about platforms and weapon systems. Theater Security Cooperation 
will allow the U.S. to modify force structure and posture to optimize 
the mobility, lethality, and interoperability of our forward forces.

                               CONCLUSION

    With Congress' support, this past year we have made progress in the 
war on terrorism, specifically, and overall capabilities. Al Qaeda and 
their global network were not created in a single day, but over a 
decade. At the same time, the Nation's Armed Forces must be prepared 
for other threats to our interests. Confronting them will require 
determined and disciplined use of all instruments of American power. 
Congressional support ensures that our military forces are the most 
competent and capable military tools possible.
    The men and women of our Armed Forces have performed in a 
magnificent manner this past year. They stand ready for the challenges 
ahead. They deserve our best efforts in training, equipping, and caring 
for them and their families. Thank you for the opportunity to provide 
my report on our Nation's finest--our soldiers, sailors, airmen, 
marines, and coastguardsmen.

    Chairman Warner. General, let me initiate the first 
questions here for a 6-minute round. We have excellent 
attendance by our committee.
    So I start with you, General, and I ask for just a short 
answer to this question, which is important to this record. Is 
it your professional judgment that the Armed Forces which are 
under your supervision are prepared to meet any contingency for 
the use of force that may be required in Iraq and/or Korea, and 
hopefully will not be required in either Iraq and/or Korea, and 
to continue the high level of activity against worldwide 
terrorism?
    General Myers. I will give you a real short answer. 
Absolutely.
    Chairman Warner. Now Mr. Secretary, it was reported in the 
press this morning that Secretary Powell appeared before 
committees of Congress yesterday and said that an Army general 
would be the person that would be placed in charge should we 
have to use force in the Iraqi situation and in the aftermath 
of what we all anticipate would be a successful military 
operation.
    The distinguished chairman of the Senate Foreign Relations 
Committee, Senator Lugar, is reported to say we are way behind 
here, between the administration and Congress, in understanding 
what would take place in the aftermath of such use of force.
    Now in my judgment, our President has in a very courageous 
and proper manner pursued the diplomatic route to resolve this 
problem in Iraq. He is continuing to do that with the 
leadership of the Prime Minister of Great Britain and other 
world leaders. I think progress is being made. We will know 
more after tomorrow's report by Hans Blix. But it is clear that 
we have forward deployed our forces first and foremost to 
support the diplomatic efforts. Diplomacy will not succeed 
unless it is clearly perceived by the enemy that frankly we 
mean business if diplomacy fails. So I commend the President 
and others.
    But I think given that we are about to go out for a recess 
here in a week or so amidst a rapid progression of events, that 
should force be used to bring a conclusion to that conflict, 
what is the likely scenario involving your Department? Will 
other militaries of the world be involved and is it just a role 
of security or will the U.S. military be placed in a position 
of a high commissioner and/or governor of some type of the 
territory of Iraq in order to keep the integrity of that 
territory as it exists now?
    Secretary Rumsfeld. Mr. Chairman, let me take a few moments 
to try to respond to that. The Government has spent a good deal 
of time over many months thinking these various elements 
through. The answer to your question depends to some extent on 
what takes place. Your question suggested no decision has been 
made to use force but in the event force were used, it could 
happen in several ways.
    For example, Saddam Hussein could leave today, and the 
question would be how does the United States then act to see 
that the principal goals of the United States are achieved, 
namely that the weapons of mass destruction are found and 
destroyed, that they're disarmed. That whatever government 
takes over is a government that does not develop weapons of 
mass destruction, the government does not help terrorists, does 
not threaten its neighbors, and puts the country on a path 
towards appropriate representation and protection for the 
various religious and minority elements in the country. Those 
are the principal goals.
    So that is one way it could happen, he could leave. Another 
way is that he could leave and turn it over to somebody else 
who is equally unacceptable. Another way would be that someone 
could help him leave and take over control. A third is that 
force would have to be used. Depending on what happened and the 
circumstance in the country, we would determine how long and in 
what role the military would have to play.
    Clearly, the goal would be to go in and see that what 
resulted was better than what was there beforehand. That means 
that the United States simply has to be willing to stay there 
as long as is necessary to see that that is done, but not one 
day longer. We have no interest in other people's land or 
territory. We have no interest in other people's oil, as some 
articles seem to suggest. So exactly how long it would be and 
what it would look like would vary.
    The principles that would pertain insofar as the Department 
of Defense is concerned: First, we would have military 
capability in there sufficient to find and destroy the weapons 
of mass destruction and to find and deal with any terrorist 
networks that exist in the country, which we know is the case. 
It would be my goal to internationalize it as rapidly as 
possible, to have other countries participate. Very likely the 
participation would be in the humanitarian, civil, and 
reconstruction areas earliest, as opposed to finding the 
weapons of mass destruction, for example. There just are not a 
lot of countries that really would be involved in that that I 
can think of, although we would welcome help from a number that 
have already offered assistance.
    The next task would be to put the country on a transition 
so that the outsiders are not running it. That means you would 
have to find a way to see that the Iraqi opposition from the 
outside, the Iraqis from the inside who had not been a party to 
the repressiveness of this regime, and the weapons of mass 
destruction programs of this regime would in a different way 
have an Iraqi solution, just as Afghanistan had an Afghanistan 
solution. So the goal would be to get them on a path so that 
increasingly more and more was handled and managed by the Iraqi 
people themselves and that less and less was managed by the 
international community.
    Chairman Warner. I think your response reflects that we 
have given this a good deal of consideration and that we have 
clear plans in place and are ready to proceed.
    Quickly to a second question, and that involves the very 
disturbing news with regard to the North Atlantic Treaty 
Organization (NATO) thus far being unable to reconcile 
differences among the member nations as to NATO's ability to 
provide such security as the government of Turkey feels is 
essential, given the fluidity of this situation. I commend you 
for stepping up to say if NATO doesn't, the U.S. will. That's 
proper.
    But does not this action thus far violate the time tested 
fundamental belief of NATO of over a half century, that an 
attack on one is an attack on all, and could not a persistence 
of this type of policy by member nations begin to erode NATO so 
it becomes a less effective organization?
    Lastly, the United States is the major financial 
contributor to NATO, the major troop contributor, and the major 
technical contributor--particularly the Airborne Warning and 
Control System (AWACS)--and now the American taxpayers will be 
required to foot an additional bill of the costs associated 
with our proper decision to place such forces in the position 
of Turkey to protect their interests. So we're getting hit 
twice as a consequence of the inability of NATO to reconcile 
this issue. Do you have some views?
    Secretary Rumsfeld. Well, I do and I expressed them in a 
recent meeting and I might add that a member of the committee, 
Senator McCain, also expressed some opinions over there that 
were very much on the mark, in my view.
    The situation is that the vote was 16 to 3 in favor of 
initiating planning to send defensive capabilities to Turkey so 
that they would be protected. You can't do anything at the last 
minute in life. You have to plan it, you have to get things 
moving, things moved by ship. The position of the three 
countries that it was premature to plan, it seems to me, was 
unfortunate.
    We did say that the United States and the other 16 
countries would step forward and see that Turkey, in fact, had 
AWACS, chem-bio detection, and Patriot batteries. It would not 
be simply the United States that would provide that. We decided 
immediately that Turkey must have those capabilities and we 
must begin the planning. My feeling is that it's unfortunate 
that the three countries have delayed us this long.
    There's no question, as you suggest, that to the extent we 
do not interest ourselves in every 1 of the 19 members, but 
goodness, Turkey is a moderate Muslim country, the only country 
in NATO that borders Iraq. To not behave in a way that 
recognized that and allowed for that planning, I think was most 
unfortunate.
    Chairman Warner. Thank you, Mr. Secretary.
    Senator Levin.
    Secretary Rumsfeld. Senator, General Myers has some news 
that I didn't have time to read and I will let him comment on 
it.
    General Myers. As we're speaking, I think NATO is also 
looking at ways to deploy the help that Turkey needs, at least 
part of AWACS and the missile defense assets in a way that 
would not require political approval. They think they may have 
that legal authority without going through the political 
process. They are looking at that. There may be an announcement 
here at about 11:00 on those issues.
    Chairman Warner. Thank you very much.
    Senator Levin.
    Senator Levin. Thank you. Mr. Secretary, the 
administration's Nuclear Posture Review called for improving 
our nuclear weapons capability, and the administration 
requested funds in fiscal year 2003 and fiscal year 2004 to 
study a so-called nuclear penetrator.
    If the United States sends signals that we're considering 
new uses for nuclear weapons, isn't it more likely that other 
nations will also want to explore greater use or new uses for 
nuclear weapons, and that other nations won't listen to our 
pleas to stay non-nuclear or to stay in the nonproliferation 
treaty, but rather would say you're even relying on them more, 
you're looking at new ways to use nuclear weapons, so why 
shouldn't we?
    Secretary Rumsfeld. Senator, I think that the first thing 
we have to say is that the task of the Department of Defense, 
indeed the first responsibility of a President of the United 
States, is to provide for the security of the country. The 
Department of Defense assists the President in developing 
contingency plans and studying a variety of things on a 
continuing basis. To not do so, it seems to me, is to misserve 
the country.
    The world is experiencing an enormous amount of underground 
tunneling and activities, activities underground that are for 
production, for manufacturing, they are for development, for 
storage. The problem of not having visibility into them and 
when one has visibility, not having the ability to penetrate 
and reach them creates a very serious obstacle to U.S. national 
security.
    To the extent that we say to ourselves, that this is going 
to be the ultimate solution, we're unwilling to even study the 
idea of penetrating capability and therefore we make it 
advantageous for people to engage in that type of tunneling, I 
think that it would create an incentive rather than a 
disincentive.
    Senator Levin. Mr. Secretary, Title 10 requires the 
Department of Defense's Director of Operational Test and 
Evaluation, which is our independent test authority at the 
Pentagon, to certify that appropriate operational testing has 
been completed prior to putting weapon systems into production. 
That law exists to prevent the production and fielding of a 
weapon system that doesn't work right.
    Your budget request seeks a waiver of the operational 
testing requirements to enable you to implement your plans to 
deploy a national missile defense system in 2004. How do you 
justify bypassing operational testing requirements?
    Secretary Rumsfeld. I guess I would justify it very easily 
in this sense. If you think about it, it is a perfectly 
rational thing to have a testing requirement. So if you take 
the Predator unmanned aerial vehicle, for example, and it is 
moving along the track and it has not been fully tested and 
it's not ready for deployment, and you start using it because 
you're in a conflict, you find that it's advantageous to use 
it. In the process of using it you find things that could be 
changed and improved on it. Now it has never been fully 
completed through the process with the stamp of approval of the 
testing organization.
    The same thing happened during Operation Desert Storm as I 
recall, or Kosovo, with JSTAR.
    General Myers. Joint Stars.
    Secretary Rumsfeld. Joint Stars, the exact same thing.
    So on the one hand, it makes sense to have the requirement. 
On the other hand, it makes sense to waive it when reasonable 
people look at the situation and say that it's time to do that.
    Now, why do it with respect to missile defense? Well, I 
happen to think that thinking we cannot deploy something until 
you have everything perfect, every I dotted and every T 
crossed, is probably not a good idea. In the case of missile 
defense, I think we need to get something out there in the 
ground, at sea, and in a way that we can test it, we can look 
at it, we can develop it, we can evolve it, and learn from the 
experimentation with it. It happens that it also provides a 
minimal missile defense capability.
    Senator Levin. If it works.
    Secretary Rumsfeld. If it works, of course. The same thing 
with Predator. I mean, Predator--things do not tend to work or 
not work; they tend to work either as well as you hoped or 
somewhere less well than you hoped. In the case of Predator, it 
didn't work or not work, it did an awful lot that was very 
valuable in Afghanistan and is still doing it today, but it 
didn't do a lot of things that it might have done, because 
people didn't ever have that experience in using it, and the 
same thing would be true with missile defense.
    Senator Levin. Thank you. General Myers, we have a copy of 
a draft legislative proposal that has been circulating inside 
the Department of Defense. If this legislation were passed, the 
Joint Staff would report to the Secretary instead of to the 
Chairman, and the Secretary would have to approve all 
appointments to the Joint Staff. The draft amendment would 
strike the statutory requirement that the Joint Staff be 
``independently organized and operated.'' Then we also have the 
memorandum signed by David Chu requesting a legislative 
proposal be drafted that would reduce the term served by the 
service chiefs from 4 years to 2-year renewable terms.
    It seems to me that these proposals taken together or 
separately would lessen the ability of the uniformed military 
to provide independent military advice to the civilian 
leadership in the executive branch and Congress. That's my 
view, but what is your view of these proposals?
    General Myers. Senator Levin, I'm at a little bit of a 
disadvantage because I haven't seen the drafts yet, and I don't 
know if we will, because the Secretary and I have talked in 
general about how better to arrange ourselves, if there are 
ways to make ourselves more efficient and effective. As far as 
I know, we have just had some preliminary discussions, we've 
talked about maybe having somebody look at this from the 
outside that might be able to provide some help in that area.
    Senator Levin. Would you be supporting these proposals?
    General Myers. Well, I would have to look at them. I have 
not seen the draft proposals. I think the way we're arranged 
today is fundamentally sound, so I'd have to look and see how 
they want to change that.
    Senator Levin. My time is up. Thank you, Mr. Chairman.
    Chairman Warner. Mr. Secretary, do you have a comment on 
that important question?
    Secretary Rumsfeld. Well, I haven't seen the draft either, 
and therefore I don't know really how I could comment because I 
am not familiar with it. General Myers and I have talked about 
the way the Joint Staff and the Office of the Secretary of 
Defense (OSD) function, and in some cases it's my personal view 
that it looks like it duplicates things and requires things to 
go through double chops. At least the thought has been 
expressed to me by a number of people who have looked from the 
outside as to whether there might be a way to merge some of 
those pieces in a way that did not in any way inhibit the 
Chairman's responsibility under the law to be able to provide 
military advice to the President, the National Security 
Council, and the Secretary of Defense. We talked about getting 
together some folks to look at this and examine it.
    Chairman Warner. So you promise to keep Congress and this 
committee fully informed, should this thing begin to take on a 
life of its own?
    Secretary Rumsfeld. Indeed. I take it somebody was up 
talking about it already.
    Chairman Warner. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I have to say this 
about the comments by the distinguished Senator from Michigan. 
Every time I hear the argument that we don't want to enhance 
our nuclear capability because they will do the same thing, if 
you carry that to its logical conclusion, if we just disarmed, 
then everyone else would disarm too and we wouldn't have these 
problems.
    I'm very proud of you, Mr. Secretary, for using the words 
that you used. I wrote them down. You said we are in the most 
dangerous security environment the world has ever known, and I 
agree with that. Just yesterday, when Director Tenet called to 
our attention the capabilities of what the North Koreans have 
right now, a missile that could reach the United States of 
America, and we know that they are trading systems and 
technology with countries like Iraq, Iran, Syria, Libya, and 
Pakistan. It's a very frightening thing.
    I carry with me a veto message by former President Clinton 
of our 1996 Defense Authorization Bill wherein he states his 
justification for vetoing it: ``First, the bill requires 
deployment by 2003 of a costly missile defense system able to 
defend all 50 States from a long-range missile threat that our 
intelligence committee does not think exists.'' I wish that 
veto had not taken place.
    I would single out this one thing in here as the most 
significant thing, and I say that not so much as a Senator, but 
my wife and I have 19 kids and grandkids, and I am deeply, 
gravely concerned. Do you feel that this budget give you all 
the money necessary for you to get something deployed against a 
missile attack, at least a partial missile attack, or do you 
need something more in there? Can you share with us what you 
have?
    Secretary Rumsfeld. Senator, we spent a good deal of time 
looking at the issues of missile defense of various ranges: 
short, medium, and ICBM range. We ended up creating a budget 
that we believe at this state of our knowledge is appropriate. 
It will do what I said. It will give us something in the ground 
that will serve as a test bed so we can evolve it. It will give 
us the capability to look at the sea based option, which I 
believe is important. It will also give us as a result of that 
test bed some minimal capability. To have gone further at this 
stage, we felt would have been invalid. So I'm comfortable with 
this level of funding in this particular instance.
    Senator Inhofe. Thank you very much, Mr. Secretary. General 
Myers, I chair the Environment and Public Works Committee and 
there's an issue that will come before it and this committee 
and that is encroachment on our ranges. I guess going a little 
overboard on my concern on our ability to train our kids, I was 
deeply concerned when you took away the live-fire training 
capability at Vieques. At the UDARI range in Kuwait, we lost 
five lives, four of whom were Americans, and the accident 
report said that they did not have that live-fire training. I 
look at what the environmental encroachment is doing to our 
different ranges.
    Just a few minutes ago, I had General Kelley from the 
Marines talking about Camp Lejeune and Pendleton. Right now, 
only 30 percent of Camp Pendleton can be used for training. At 
Camp Lejeune, the red cockaded woodpecker is using up so much 
of the range.
    You are such good stewards of the environment that you're 
your own worst enemy because the better job you do, the more 
endangered species there are out there. I am very much 
concerned about it and I would like to have you share with us 
very briefly your concern. I do have one quote that you made 
which is rather lengthy, so I know what your concern is. Would 
you do that briefly?
    General Myers. Senator Inhofe, I will try to do it as 
briefly as I can. I don't think you can be too concerned about 
this subject. I think the best quality of life you can provide 
for our Armed Forces is proper training so if they are used in 
combat or peacekeeping or whatever, they are prepared for that 
task. Some of the uses of the environmental laws that we see 
today, where groups will now bring the Department of Defense 
into court, were never intended, I don't think, by the folks 
who drafted the environmental protection statutes. They can 
bring us into court and can stop training, whether it's 
aircraft or land or on the sea for that matter, and it can be 
very detrimental to our effectiveness and in the end will put 
our men and women in harm's way simply because they haven't 
been properly trained.
    Senator Inhofe. I appreciate that. I know before this 
committee a couple years ago, they testified that we were 
spending more money in Camp Lejeune to protect the species than 
we were on ammunition. It has to be addressed and I'm hoping 
that we will be doing that.
    Lastly, Secretary Rumsfeld, when you go back, and I'm going 
from memory now, but as I recall in terms of percentage of GDP, 
during the entire 20th century, during each year at peace, 
defense spending represented 5.7 percent of GDP. We went down 
to an all time low during the Clinton administration of about 
2.8 percent. Even with this enhanced budget it's only 3.3 
percent. When you look at the proliferation that's out there 
and the fact that maybe we should relook at our strategy, maybe 
we should be able to defend America on three regional fronts. 
But as you have looked at this and look into the future in 
terms of a percentage of GDP, what do you see in the future, 
number one? Number two, in spite of all the problems you have 
right now, will you be considering that?
    Secretary Rumsfeld. Senator, it's something that someone in 
our position has to consider. It is hard to fully appreciate 
the magnitude of the change that's taken place in terms of our 
security and the difficulty. If one just takes the intelligence 
task, we had the luxury, it sounds funny to use the word 
luxury, of watching the Soviet Union, a closed society, and not 
having to worry about very many other things. We could learn 
about it, know about it, and over time we found it quite 
predictable.
    Today we're dealing with not one target for intelligence, 
but dozens. We're looking at ungoverned areas all across the 
globe where the governments simply do not control their own 
real estate. We're dealing with countries that are every bit as 
closed or more closed than the Soviet Union was. We're getting 
information on North Korea, for example, that is just 
enormously difficult.
    So instead of at the end of the Cold War dropping the intel 
budgets down and changing the projection by some $35 billion 
over that period, I'm told, from what the pre-Cold War budgets 
had been directed or projected to be for intelligence, it's 
something like $35 billion less, while the task has gotten much 
greater. So the question is, how do we adjust our thinking in 
that regard and how do we see that we gain the kinds of 
knowledge and information and have the kinds of not just 
technological but human intelligence capabilities? That's true 
in other areas as well. I just take that one example since it's 
such an important one.
    Senator Inhofe. I thank both of you for your courageous 
answers. My time has expired. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Inhofe. We 
are of course proceeding under the early bird rule, and the 
first early bird to arrive this morning was our distinguished 
Senator from Massachusetts.
    Senator Kennedy. Thank you very much, Mr. Chairman, and I 
join as I am sure all of us do with the words of Senator Levin 
in commending you, Mr. Secretary and General Myers, for all 
that you're doing for the service men and women of this 
country. It is enormously impressive.
    Let me move to the issue I mentioned prior to the start of 
these hearings, Mr. Secretary, and that is the Nuclear Posture 
Review. Many of us are concerned about the position of the 
administration on nuclear weapons. Over the last half century 
we have made great strides on arms control. We signed the 
Nuclear Nonproliferation Treaty (NPT), the ABM Treaty, the 
START-I Treaty, and the START-II Treaty, creating an arms 
control regime that has successfully prevented the use of 
nuclear weapons for more than half a century.
    Despite this progress, the Bush administration seems to be 
taking us in a new direction. The administration has presented 
a Nuclear Posture Review that suggests grave changes in our 
policy on the use of nuclear weapons and the dangers that this 
administration may well be igniting a new arms race.
    Under the Nuclear Posture Review as reported in The Los 
Angeles Times January 25, Strategic Command is developing plans 
for the use of nuclear weapons against nations like Iraq that 
do not have nuclear weapons. They mention other countries as 
well, such as Syria, Libya, and Iran.
    As you well understand, a nuclear weapon is not just 
another weapon in an arsenal. Until now we have always kept 
them in a class of their own for good reasons, because of their 
enormous destructive power and our profound commitment to do 
all we can to see that they are never used again. So wouldn't 
the action in the Nuclear Posture Review violate a long-held 
commitment under the nuclear nonproliferation treaty to not 
attacking non-nuclear states that are not aligned with nuclear 
states?
    Secretary Rumsfeld. Senator, I have no idea what you're 
reading from, but I----
    Senator Kennedy. Well, the Nuclear Posture Review----
    Secretary Rumsfeld. No, no, the news article.
    Senator Kennedy. That's what I'm referring to, a very well 
publicized article titled: ``U.S. Weighs Tactical Nuclear 
Strike in Iraq.'' There have been exchanges on it.
    Secretary Rumsfeld. Exchanges between who and whom? I never 
heard of this article.
    Senator Kennedy. All right. But you're familiar with the 
Nuclear Posture Review?
    Secretary Rumsfeld. You bet. We spent 18 months developing 
it.
    Senator Kennedy. Did they also consider in the 
administration's classified Nuclear Posture Review that said 
nuclear weapons should be considered against targets able to 
withstand conventional attack, in retaliation for an attack, in 
retaliation for attacks with nuclear, chemical, or biological 
weapons, or in the event of surprising military developments? 
It identified seven countries--China, Russia, Iraq, North 
Korea, Iran, Libya, and Syria as possible targets. That's in 
it. If you're not familiar with it, I will move on.
    Secretary Rumsfeld. Let me just make a quick comment.
    Senator Kennedy. Okay.
    Secretary Rumsfeld. Our policy historically has been 
generally that we will not foreclose the possible use of 
nuclear weapons if attacked. If you think back to Europe, we 
always said we would not agree to a ``no first use policy'' 
because we would have to defend against overwhelming 
conventional capability.
    The second thing we've had as a general policy of our 
country is not to rule out various options.
    The third thing we have as a record is that those weapons, 
as you said, have not been fired in anger since 1945.
    Does the Department have an obligation and have they in 
successive administrations of both political parties had 
procedures whereby we would conceivably use nuclear weapons? 
Yes.
    Senator Kennedy. Well, I thought also there were assurances 
about non-first use against countries that didn't have nuclear 
weapons, that that was included as well.
    Secretary Rumsfeld. I'm familiar with that.
    Senator Kennedy. All right. There have been such countries 
included, as I understand it, in the Nuclear Posture Review. 
That's a change, and that's what I'm asking about.
    But let me just go on. Is the United States seriously 
considering using any nuclear weapons against Iraq?
    Secretary Rumsfeld. The United States has historically had 
strategic offensive nuclear weapons and theater nuclear 
weapons. As a part of contingency planning, the United States 
has in my adult lifetime always had contingency plans to do a 
variety of things. The question you asked was not that. The 
question you asked was are we seriously considering something. 
The only person in the United States who has the power to use 
weapons of that nature is the President of the United States. 
It seems to me that if one looks at our record, we went through 
the Korean War, we went through the Vietnam War, we've gone 
through the war on terror and we have not used nuclear weapons. 
That ought to say something about the threshold with respect to 
nuclear weapons.
    Senator Kennedy. On February 4, Richard Pearl, Chairman of 
the Defense Policy Board, stated that he believed the military 
can win in Iraq with precision bombs, that is his position 
about it.
    Secretary Rumsfeld. That's my position.
    Senator Kennedy. In the House of Commons, Prime Minister 
Blair said, ``the notion that we have plans to use nuclear 
weapons in Iraq is completely false.'' Would you agree with 
that statement?
    Secretary Rumsfeld. Senator, I agree with the statement 
made that we have every confidence that in the event force is 
to be used in Iraq, that we could do what needs to be done 
using conventional capabilities.
    Senator Kennedy. Well, just to finish, Mr. Chairman, I'm 
concerned that the use of nuclear weapons in Iraq in the 
absence of an imminent overwhelming threat to our national 
security would bring a near total breakdown in our relations 
with the rest of the world, particularly in regards to the Arab 
world.
    Secretary Rumsfeld. Well, Senator, I'd like to just make 
sure the record is very clear here. You have raised a very 
sensitive subject and the implication of it from the article is 
that there is a likelihood that nuclear weapons would be used. 
I think that implication is an unfortunate one.
    Senator Kennedy. Okay. Well, last year the Republicans 
attempted to repeal the restrictions on nuclear weapons with a 
yield of five kilotons or less, the so-called ``mini-nukes.'' 
Now what is your position on that? Are you for continuing the 
Spratt amendment or are you for repealing it? That is the one 
that has had the prohibition about research and development 
below the five kilotons. That's a fairly good indication as 
well as to where the administration is thinking.
    Secretary Rumsfeld. I don't think it is.
    Senator Kennedy. It may not for you but it certainly is for 
many of us, if you're thinking of repealing what has been now 
for a number of years the restrictions for no testing below 
certain kinds of kilotons because of the increased possible use 
of them and the dangers of the proliferation of small weapons 
like this, getting into the hands of terrorists. Those are 
serious policy issues and questions. We were going to continue 
the Spratt moratorium, that would certainly send a signal. If 
you are for changing or altering that, that would certainly be 
an indicator of a changed position of the administration.
    Chairman Warner. Senator, your question is important but we 
are way over time. I wonder if the Secretary could answer that 
for the record.
    Secretary Rumsfeld. I would be happy to. I think it's 
terribly important to distinguish between the process of 
research and development and analysis, as opposed to the 
process of development and deployment, let alone use of a 
weapon. Those distinctions, it seems to me, get blurred in a 
discussion like this, and I think they need to be in very 
separate boxes.
    [The information referred to follows:]

    The law that the administration has asked Congress to repeal is the 
so-called Precision Low-Yield Weapon Development (PLYWD) law 
(Sec. 3136, PL 103-160). The PLYWD law prohibits research that could 
lead to the development or production of a new low-yield warhead with a 
yield at or below 5 Kt. This law is a serious impediment to 
intellectual and technical research to explore and understand the 
capability of low-yield options in conjunction with advanced technology 
to place existing or emerging WMD facilities at risk with relatively 
low-levels of collateral damage. Conducting research on potential new 
weapons utilizing new technologies will enhance deterrence, not lower 
the nuclear threshold.
    Repealing the law does not reflect a change in policy; low-yield 
nuclear weapons are not new. The U.S. has had low-yield nuclear weapons 
for decades. Repeal of the so-called PLYWD law falls far short of 
committing the United States to developing, producing, and deploying 
new, low-yield warheads. Such warhead concepts could not proceed to 
full-scale development, much less production and deployment, unless 
Congress authorizes and appropriates the substantial funds required to 
do this.
    Conducting research and development to hold at risk facilities 
associated with weapons of mass destruction will not undermine our 
efforts to limit proliferation internationally. Nations seek and 
develop nuclear capabilities to address their regional security 
concerns, not because the U.S. has low-yield nuclear weapons. Quite the 
opposite is true. An effective U.S. deterrent would help deter 
potential aggressors from trying to acquire WMD or threatening its use 
against U.S. territory, troops, allies, and friends.
    Today, as well as in the future, the U.S. cannot predict with 
confidence what nations or non-state actors may pose a threat to our 
vital interests or those of our allies. The U.S. must possess forces 
sufficient to dissuade and deter any potential adversary armed with WMD 
and to assure our allies and friends of our commitment to their 
security. Research and development aimed at finding ways to place 
threatening facilities such as those associated with WMD at risk are 
fully consistent with maintaining an effective deterrent. Just because 
a nuclear weapon has a relatively low yield, compared to the so-called 
``hard target killers'' from the Cold War, does not make them any 
easier to use. During the height of the Cold War, the U.S. possessed 
many types of low yield weapons. Deterrence worked; none were used. As 
with all nuclear weapons, the President is the sole authority for 
employment. A president would consider use of any nuclear weapon only 
in the most grave situations.

    Chairman Warner. The Senator from Maine.
    Senator Collins. Thank you, Mr. Chairman. Mr. Secretary, at 
the same time that we are deploying troops around the globe for 
the war against terrorism, as well as to prepare for a 
potential war in Iraq, we have a number of existing deployments 
that continue to require extensive resources to maintain. We 
have, for example, some 37,000 troops in Korea and more than 
70,000 troops in Germany. With the increasing demands on our 
military, I believe that it is time for us to reevaluate the 
need for those existing deployments.
    For instance, our large presence in Germany is largely a 
legacy of the Cold War, and arguably, that threat no longer 
exists. Is the Department reexamining the need for large 
deployments in Germany and Korea?
    Secretary Rumsfeld. Senator, the President asked me, when 
he asked me to serve as Secretary of Defense, to review our 
defense posture and our circumstance around the world. We have 
been doing that. There is no question but that the arrangements 
of our current force deployments have an advantage in that they 
are forward deployed and they serve to reassure the world and 
the nations that we have the ability to deter and defend 
against various types of threats.
    It is quite clear to me that you're correct, that the 
deployments we have, for example, in Korea, which is one of the 
places you mentioned, can be reviewed in cooperation with the 
South Korean government and, as a matter of fact, the new 
President of South Korea has suggested that we look at our 
relationship and see that we rebalance it in some way, and I 
have accepted that invitation. We had previously been looking 
at it on a private basis, a unilateral basis, and General 
LaPorte has been working on it now for many months and we will 
very soon, as soon as the new government is in place, begin 
somewhat more formal discussions about how we can ensure the 
defense of the peninsula and still have--for one thing, I would 
like to see a number of our forces moved away from the Seoul 
area and from the area near the de-militarized zone (DMZ), and 
be more oriented towards an air hub and a sea hub, with the 
ability to reinforce so that there is still a strong deterrent. 
Possibly with our improved capabilities of moving people, some 
of those forces come back home. We'll see.
    Now General Jones in Europe is doing the same thing. There 
is no question but that right now, for example, we're trying to 
move some forces from Germany down to Italy, and Austria is 
causing a difficulty with respect to moving the forces through 
Austria by rail, which means we may have to go up to Rotterdam 
or possibly by train through two or three or four countries 
instead of directly.
    Therefore, it's clear that it's better for us probably not 
to have such a heavy concentration. I think it would, however, 
be a mistake to suggest that if we do end up reducing some of 
those forces or moving them to other countries, that it had 
anything to do with our relationships with those countries, 
because it simply doesn't. It is something that we have been 
involved in over many months now and are in the process of 
working with other countries on.
    Senator Collins. I would now like to turn to the 
shipbuilding budget, which will probably come as no surprise to 
you. I'm pleased that the fiscal year 2004 budget submission 
appears to turn the corner on shipbuilding and it is a marked 
improvement over last year. However, even with budgeting for 7 
ships, the Navy's fleet is still going to drop, as you 
indicated, below 300 ships in the coming years. The Chief of 
Naval Operations (CNO) has repeatedly testified, and I talked 
to him just recently, that our Nation requires a fleet of 375 
ships in order to fulfill all of the Navy's mission 
requirements.
    Now I appreciate your testimony that you don't want to lock 
the Department into a shipbuilding program until you're certain 
what kinds of ships you need and what the mix should be. But 
how are you going to remedy the deficit we have in coming years 
if we don't start making more of that investment now? Again, I 
applaud you for putting 7 ships in, that's a big improvement 
over 5 of last year, but it still is not at the rate we need, 
which is more like 10 or 11 ships a year.
    Secretary Rumsfeld. Senator, this is a tough area and we 
are pleased that the numbers are coming up but we're 
disappointed that the total number of ships are going to drop 
below 300 for a period, and then be back up by the end of the 
forward year of the defense plan.
    The CNO is an enormously able man who is doing a superb job 
for the country, Adm. Vernon Clark. I know he has testified to 
the number 375 for a number of years, if I'm not mistaken. We 
have a group of people that are looking at doing a shipbuilding 
study and analyzing not just numbers but, more importantly, 
types of ships and capabilities of ships: lethality, what they 
bring. That study, I don't know when it will be through. You're 
involved in it, Dov.
    Dr. Zakheim. Senator, we're looking specifically at issues 
like amphibious shipping, forcible entry, and also underwater 
requirements. Senator, we have research and development money 
for a new Littoral combat ship. That's why we have some 
confidence that as the numbers begin to really go up in the 
outyears, like 2009, that those are real numbers because those 
ships are going to be much less expensive.
    Senator Collins. Thank you, Mr. Secretary.
    Chairman Warner. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. First, Mr. 
Secretary, let me commend you for your representation of our 
country. You had not only remarkable eloquence but remarkable 
restraint, and both were noted.
    Secretary Rumsfeld. I'm not noted for restraint.
    Senator Reed. I agree. [Laughter.]
    As we all understand, the American public is terribly 
concerned about developments around the globe and even within 
the United States with the heightened alerts, with conflicts 
potentially in the Persian Gulf, and with the war on terror. 
They're also a bit confused. As I go back to my home State of 
Rhode Island, one of the confusing elements is the apparent 
disparate treatment between the threat posed by Iraq and the 
threat posed by North Korea. North Korea has a military force 
capable of a surprise attack, clearly Iraq does not. North 
Korea has ejected U.N. inspectors, Iraq grudgingly, 
reluctantly, and noncooperatively has allowed them into their 
country. Our response to the North Korean situation has been to 
refer it to the United Nations, our response to the Iraq 
situation has been to, we hope, encourage the United Nations 
enforcement but prepare to go it alone.
    I wonder, Mr. Secretary, since you are responsible for 
military planning, are we discounting a more serious threat 
posed by North Korea, the threat that they will within weeks 
have nuclear weapons or marketable plutonium because of our 
concentration or preoccupation with Iraq?
    Second, what can we do right now with respect to North 
Korea to try to moderate their behavior?
    Secretary Rumsfeld. Senator, let me try and again 
demonstrate restraint, since this is a matter that the 
President and Secretary Powell are wrestling with extensively. 
My impression of these two very different situations, each 
dangerous to be sure, is that the U.S. policy over a period of 
time has been to some extent the same. Both have gone to the 
United Nations.
    The difference is in the case of Iraq, it's been 12 years. 
They have tried political and diplomatic efforts through the 
United Nations, now up to some 17 resolutions. They have tried 
economic sanctions and they haven't worked. Iraq over a period 
of time has used chemical weapons against its own people and 
its neighbors. They have fired Scud missiles at three or four 
of their neighbors. They invaded Kuwait. They threatened to 
destabilize some of their neighbors. They struck with, as a 
terrorist state, and are developing weapons of mass 
destruction. It seems to me that that one is at the end of the 
cycle.
    Conversely, one had hoped that North Korea, as a result of 
the Agreed Framework, was at a stop with respect to nuclear 
weapons. The public assessment is that they have one or two 
weapons. The public assessment is that if they restart the 
reprocessing plant, they can have six to eight additional, or 
they could have material for six to eight additional weapons 
but not have weaponized them immediately. I see North Korea as 
a threat as a proliferator more than I see them as a nuclear 
threat on the peninsula.
    Now, I could be wrong, but they sell almost anything. They 
are the world's greatest proliferator of missile technology, 
and what concerns me is that risk. I think that the decision by 
the President and the Secretary of State to have that problem 
seen as a world problem is correct, that it is a problem for 
the world, that proliferation represents a terribly dangerous 
thing. There are a lot of countries sitting around waiting to 
buy that type of material.
    We can't unilaterally as a country win things politically 
or economically; it takes enormous cooperation from other 
nations. It's pretty clear that the proliferation regimes that 
exist in the world worked pretty well before, but they're not 
working very well right now. For example, we stopped that ship 
going towards Yemen, and we had no legal authority to stop it, 
so we had to let it go. It was more missile technology coming 
from North Korea, and the same thing is going to be true. 
Unless the world wakes up and says this is a dangerous thing, 
and creates a set of regimes that will in fact get cooperation 
to stop those weapons, we are going to be facing a very serious 
situation in the next 5 years.
    Senator Reed. Thank you, Mr. Secretary. Let me raise 
another issue which is related to North Korea, because reports 
today indicate that they have the missile capability to reach 
the west coast of the United States, which underscores the 
importance of developing and deploying an effective missile 
defense system.
    You have indicated in your budget that you are proposing a 
limited deployment, and I think in response to Senator Levin 
you said that this will be done without operational testing. 
The first question I have is, can I assume that you will 
conduct operational testing even though it will come after the 
deployment?
    Secretary Rumsfeld. Of course. I don't even know that it's 
correct to say it will be deployed without operational testing. 
I think this is an unusual situation and I would characterize 
what we have proposed as simultaneously a test bed as well as a 
minimal deployment. It is both things, and the words are hot 
button words because the testing is required before deployment, 
but not before a test bed. Yet, the reality is the test bed 
offers a deployable minimal capability.
    Senator Reed. I agree with you, Mr. Secretary, in terms of 
these are hot button words and that's why I think it's very 
important to pick words carefully, because the last missile 
test was a failure; they've had great successes and some 
failures, it's still a very primitive system.
    Secretary Rumsfeld. Exactly.
    Senator Reed. We need a booster rocket that has not yet 
been integrated into the system. My suggestion was that using 
the word deployment gives it a little more credibility, the 
system that we use today, than in fact it has.
    Secretary Rumsfeld. I guess beauty is in the eye of the 
beholder, but let me tell you the dilemma I went through. On 
the one hand if you call it a deployment, it has a greater 
deterrent effect. If you call it a deployment when in fact it 
is very minimal and would, it is what it is, then it's 
overstating it. If you call it a test bed, someone who's 
against deployment is going to call it a deployment, because 
the reality is it has a minimal capability. Then they're going 
to say you deployed it before you tested it. So no matter which 
way we went, someone wasn't going to like it.
    My attitude is, we have an obligation. It is a fact, George 
Tenet declassified it yesterday as I understand it, that the 
North Koreans very likely do have a two-stage with a kick motor 
capability, which could reach the United States. We also 
assessed that they have a limited number of nuclear weapons. 
Now, that's not a happy combination. Having that test bed, that 
minimally deployed system, is not a bad thing, I'd say.
    Senator Reed. Thank you for your responses and your 
restraint.
    Chairman Warner. Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman. I'd like to make 
just a couple of brief comments and then get into a little 
questioning.
    I have read through your statement and there are a couple 
of things I was very pleased about. I think you're right on 
target with the idea--and this doesn't just apply to missile 
defense, I think it applies to many other weapon systems--the 
idea of not waiting until you have a perfect system before 
deploying it. I think that our experience is showing us that 
weapons systems are taking far too long to develop.
    I don't know if it was in your testimony from today or some 
of the previous things that I've read from you, but I remember 
reading that the length of time today required to bring new 
weapons systems on line is two or three times longer than it 
was 20 years ago. Yet, technology is advancing the speed with 
which new things should be happening and instead, we're going 
the other way. So taking a whole new look at the way the 
Department of Defense does things is absolutely critical at 
this point.
    I've said for a long time that the Department of Defense 
probably has enough money right now if you were able to do 
things the right way. In other words, if you didn't have all 
the rules and regulations that you had to do things, and you 
could actually get the money to the things that the money needs 
to be gotten to, and didn't have all the bureaucratic 
procedures and have to spend all of that money doing all the 
bureaucratic things that you have to do, you probably--I don't 
know that that number is accurate, but you would certainly have 
a lot more money to put to weapons systems and quality of life 
issues, and taking care of the military the way that it needs 
to be taken care of.
    So I'm very excited about the new direction, and as the new 
chairman for the Readiness and Management Support Subcommittee, 
I'm committing to work with you on some of these issues. We 
have a role. We have to hold you accountable. But at the same 
time, we have to recognize that you have a lot more expertise 
in these areas and we have to able to take your direction and 
empower you to do the things that are going to be necessary to 
transform, or at least begin a major transformation of, our 
Department of Defense.
    Now to get to my first question, do you have any idea how 
much money you could save in some of the reparations? I 
understand we're probably not going to cut the defense budget, 
but how much money from the proposals that you put together, 
have you put a number together, or maybe Dr. Zakheim, you can 
tell us if there's a total amount estimate of savings if all of 
the reforms that you wanted were put through.
    Secretary Rumsfeld. No, Senator. First of all, thank you 
for your encouragement on the kinds of changes that we really 
believe we need, and we look forward to working with you on 
that. We have not put together a number. I have kind of off the 
top of my head said that in organizations that I have run, I 
have generally been able to save something around 5 percent if 
you get at it and work at it hard. Now that doesn't sound like 
a big percentage, but when you've got a $380 billion budget, 
it's a pile of money. I'm just guessing.
    But there is no question that we're required to do so many 
things we ought not have to do, and people are wasting so much 
time doing things they don't have to do, that we could do an 
awful lot better job for the country.
    Senator Ensign. On the idea of using our resources better, 
one concern I have is that, we are taking the bulk of the 
responsibility in an area that I consider to be primarily a 
European problem. We have been a great friend to the Europeans 
in the Balkans. We handled the situation for them and continue 
to handle a great deal of that over there, and it seems to have 
been taken off the table when we were trying to solve this 
situation with NATO and Turkey, the idea of taking our 
peacekeepers away from there and allowing the Europeans to 
handle the peacekeeping operation. Can you make some comments 
on your feelings about that?
    Secretary Rumsfeld. Sure. I think what happened in the 
Balkans, Europe seemed to need our involvement, to put it 
graciously. Fair enough. We decided to get involved, which in 
my view was the right decision. We underestimated--as I recall, 
in Bosnia they said we'd be out by Christmas. Not so. I think 
it's important to be realistic about things, and it takes time.
    What you have to do if you put troops in is build up the 
civil side, the rule of law, the courts, the police, the border 
patrol, they have to have that capability. The U.N. and the 
European Union (EU) and the people charged with that 
responsibility did not move as aggressively, in my view, as 
they might have. Joe Ralston, our European commander during 
that period, has done a great job in beginning to pull our 
troops--not our troops but all NATO troops that are in there--
down in a measured way. There is a better effort now going on 
getting that civil side working.
    Now, it's still a dangerous part of the world and we have 
to be aware of that. There are countries that have offered to 
help back fill some of that, Senator, for us because of our 
involvement in the global war on terrorism, and we have looked 
at that.
    Senator Ensign. Mr. Chairman, my time has expired. Just one 
quick comment not requiring a response and that is, I 
appreciate you not taking any of our options off the table. I 
consider us the good guys, and I would rather have the good 
guys having all of their weapon systems and all of their 
capabilities far superior to the bad guys in the world. So, I 
applaud your efforts and say keep going.
    Chairman Warner. Thank you.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman. Mr. Secretary, I 
want to thank you and your colleagues for being with us today. 
We know you're busy, and we appreciate your enabling us to do 
our constitutional responsibilities here.
    General and Doctor, I hope you won't take personal offense 
if my inquiries are directed to the Secretary, and Mr. 
Secretary, I hope you won't take personal offense at that 
either.
    Secretary Rumsfeld. I will have to hear the question before 
I will answer that. [Laughter.]
    Senator Bayh. Fair enough. Mr. Secretary, the Cold War 
ended 14 years ago and the shifting of the geopolitical, for 
lack of a better term, tectonic plates that began at that time 
has begun to reveal some fissures that only now are coming to 
full relief. That said, I want to follow up on a question that 
the chairman asked you about NATO. Simply put, what do you view 
as the future mission or role of NATO? Let me follow up on that 
just with one other comment that the chairman also alluded to. 
We now have an alliance that has a couple major countries in it 
that are unwilling to support us in our effort to enforce 
United Nations resolutions. Those same countries are apparently 
unwilling to take steps to defend another member of the 
alliance. What good is an alliance that is willing to take 
neither proactive steps nor defensive measures?
    Secretary Rumsfeld. I have a feeling you're trying to put 
me in a position of defending Germany and France.
    Senator Bayh. It's hard to defend the indefensible.
    Secretary Rumsfeld. But first let me say, if one looked 
down from Mars on the globe, we'd find there are several 
handfuls of countries that believe in free political 
institutions and free economic institutions, and most of them 
are in NATO, a large fraction of them in the whole word are in 
NATO. Like minded countries working together in a world that's 
dangerous and untidy is a good thing. I may as a former 
ambassador to NATO, having lived it, have a bit of a bias on 
the subject, but I believe that NATO, since the Cold War ended 
and NATO has migrated into understanding the importance of 
doing things outside of the NATO treaty area, has the potential 
to bring a multinational approach to some problems in the world 
that can be enormously beneficial.
    To get something accomplished it is frequently vastly 
better to work with other countries, because things don't fit 
solely as political, economic, or military. They tend to be a 
blend. Again, we need the political and the economic support as 
well as the military support. So I'm disappointed at the 
situation in NATO where they have refused to assist Turkey with 
planning.
    On the other hand, I have been around so long that I have 
seen many times in our alliance where we've had bumps. We had 
the natural gas pipeline during the Reagan administration, we 
had the Mansfield amendment back then, and Senator Warner will 
remember back in the 1970s. It's never been perfect, it's 
always been a little bumpy. This one is interesting because the 
division is not between the United States and Europe, the 
division is within Europe.
    Senator Bayh. Correct. So your response is that although 
occasionally aggravating and not perfect, it's better than the 
alternative, particularly when we look at the breadth of 
challenges that we face. I think Director Tenet mentioned that 
yesterday, that the cooperation continues to be excellent in 
the intelligence community. But I thought it was important to 
raise this subject. It's something that I think we have to give 
some thought to going forward.
    General Myers. Senator, can I just--let me----
    Senator Bayh. If you can be brief, General, because the 
clock is running on me.
    General Myers. I will try to do that, Senator. You asked 
about the future role and the Secretary covered a part of that. 
The other part is that at the time we are discussing this issue 
in NATO right now about Article IV and support for Turkey, 
we're also redoing the command and control structure that has 
to be done to get out of the Cold War model that we've had. The 
NATO response force is an idea that we took into NATO that's 
being implemented.
    I will keep it short, but there are probably 9 or 10 good 
things that NATO has done really well lately, to include their 
support in Afghanistan.
    Senator Bayh. It's important to emphasize this organization 
is going to retain its vitality and its mission going forward, 
I think is a thought that's in order here.
    If I could just move on, Mr. Secretary, I want to second 
what Senator Collins said with regard to the role of our forces 
in South Korea. I'm delighted to hear that you're giving some 
thought to possibly repositioning them. It seems to me right 
now that they are insufficient to either fight or deter 
successfully. They are not uniformly popular in the country, 
and so some rethinking of the presence there is in order.
    Just one other question and a couple of quick comments, 
because 6 minutes runs by very quickly. Mr. Secretary, we live 
in a world unfortunately of multiple threats these days, as you 
know better than any of the rest of us. We hope that it doesn't 
come to fighting in any of them but we have to be prepared to 
take force, if necessary, in more than one place. Specifically 
I'd like to ask you, and I know it's not our policy and we've 
said repeatedly we don't intend to use force, but I want to ask 
you about North Korea in the context of Iraq. If it came to 
that, and I know we don't intend to, and I don't want to try 
and bait you over that line here, but if we decided that we had 
no choice except to take military action against the 
reprocessing facility and their launch sites, could we do that 
while fully engaged in Iraq? Do we have the capability?
    Secretary Rumsfeld. Senator, if I answer that, the 
newspapers throughout Asia are going to say that the Secretary 
of Defense rattled the sabers, and the President is on a 
diplomatic track.
    Senator Bayh. Let me step back from the question, but I 
think you can understand where we sit. It's important to look 
at the potentialities that are out there and be reassured.
    Secretary Rumsfeld. Absolutely.
    Senator Bayh. So let me step back from that specific 
question and just say, do we have the ability to act both in 
Iraq and in other potential hot spots around the world in a way 
that would defend America's security?
    Secretary Rumsfeld. Senator, we have a defense strategy and 
a force sizing construct that says we can win decisively and 
conquer a country in one theater, and near simultaneously 
swiftly defeat an adversary in another theater, and at the same 
time successfully pursue a number of lesser contingencies, for 
example, Bosnia or Kosovo, or what we're doing in Afghanistan.
    Senator Bayh. I would trust in your budget that you're 
embedding additional capabilities to address multiple 
situations simultaneously.
    Secretary Rumsfeld. Well, as I indicated, our budget does 
not include money for the global war on terror. Nor does it 
include money for the force flows in support of Iraq. We're 
going to have to have a supplemental for that, which I'm told 
is traditional.
    Senator Bayh. Mr. Chairman, my time has expired. If I could 
just make two comments without requesting any response. I know 
this is a recurring source of aggravation for you, Mr. 
Chairman. I couldn't help but notice in The Washington Post 
today a front page story saying special operations units are 
already in Iraq. It cites sources or experts familiar with 
Pentagon planning, and then two military officials with direct 
knowledge of their activities, etcetera, etcetera. This subject 
of leaks, there was a great deal of hue and cry about a leak 
from Congress a while back with regard to a single somewhat 
innocuous intercept in Afghanistan.
    I know you're doing your best on this, but if this kind of 
leaking takes place, it's hard to--I would request that you do 
all you can because we are going to try and do all we can from 
our end.
    Finally, regarding the Revolutionary Armed Forces of 
Colombia (FARC), I mentioned yesterday to Director Tenet that 
there is a potential there, with our growing military 
involvement, for that not only to bite our personnel there but 
possibly here domestically as well, if you think about this 
incident where they had a bombing of a fairly large, a hardened 
target in Bogota a few days ago. There is a great deal of 
travel back and forth between Colombia and the U.S., and it's 
not beyond the realm of possibility that they may decide to 
take that conflict at some future date to U.S. soil. Thank you, 
Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Secretary Rumsfeld. Mr. Chairman, might I just comment on 
that?
    Chairman Warner. The Senator's time has almost been double 
now.
    I want to encourage General Myers to respond to the 
important questions about NATO. I do believe you had testified 
about nine points. Not now, but in the record.
    [The information referred to follows:]

    1. Every nation that has led ISAF in Afghanistan has been a NATO 
Ally. Beginning with ISAF III in January, NATO, as an Alliance, began 
supporting the German/Dutch command of the ISAF mission. NATO is 
exploring providing increased support, including possibly taking 
command.
    2. Prague Capabilities Commitment. Heads of state and government 
made political commitments to focused, achievable improvements in 
military capabilities.
    3. NATO Response Force. This will be a driver for force 
modernization and will give NATO a credible 21st century military 
force.
    4. Command Structure Review. Allies made a commitment to joint 
operations and a considerably leaner structure that includes an Allied 
Command Transformation.
    5. NATO Enlargement. We are on the road to successful accession of 
seven nations into NATO.
    6. NATO-Russia Council. We have seen the development of a 
significant relationship between Russia and NATO.
    7. Balkans Transition to EU command/control. NATO is developing a 
good working relationship with the EU Security apparatus, resulting in 
actual military capabilities and EU assumption of the NATO mission in 
Macedonia.
    8. Political guidance for defense against terrorism. The Alliance 
is committed to acting against terrorists, as well as those who harbor 
them.
    9. European sealift and airlift clearinghouse organizations. These 
are nascent means of improving the deployability of European forces.

    Chairman Warner. Do you wish to say something, Mr. 
Secretary?
    Secretary Rumsfeld. I do. I think the Senator is exactly 
correct about leaks. I think they are just dangerous. They put 
people's lives at risk, and I think people have a duty to 
manage their mouths and not put people's lives at risk. I would 
also add that I think it's the obligation of people who find 
people leaking to tell responsible authorities because folks 
that do it and put people's lives at risk ought to be in jail.
    General Myers. Mr. Chairman, I'd just like to make sure the 
record is clear. I thought I heard Senator Bayh say that we 
were not able to fight successfully in Korea. You said we were 
not positioned to.
    Senator Bayh. No, no, I didn't, and I don't want to take 
any more time. With 37,000 troops, it seemed to me that they 
were unlikely to be essential to fighting a successful war 
there.
    Chairman Warner. We must turn now to Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. I want to pursue 
your comment about the capability of Korea to reach the 
mainland with a missile strike. We had testimony from Director 
Tenet yesterday, and he did make the statement that they have 
missile capability to reach the west coast and that's the first 
time I'd ever heard that statement. So, you made a statement 
here and the nature of your statement that you made, it wasn't 
clear to me whether you were just stating a fact that he had 
made that statement or whether you have evidence that makes you 
believe that Korea can reach the west coast with a missile.
    Secretary Rumsfeld. Senator, I chaired the Ballistic 
Missile Commission back in 1998, I guess it was, or 1997, and 
there is no question but that North Korea launched a type of 
Dong II, a two-stage ballistic missile with a kick motor on it, 
and the kick motor did not work. It apparently did not put it 
into orbit or give it the sufficient distance that they needed. 
But that was years ago, and they are clearly capable in missile 
technology, they sell it all the over the world, and there 
isn't a doubt in my mind but that by now they have a capability 
to reach portions of the United States.
    Senator Allard. In my view, and it must be your view too, 
that makes our missile defense system even more critical. As 
one American who wants to make sure we protect the borders of 
this country, I am very appreciative of you and this 
administration for pushing forward on missile defense. If we 
had taken the advice of those who opposed missile defense, I 
think we'd have a vulnerability today that would have to be of 
concern to this country, and I think it still exists, but at 
least we have somewhat of a leg up when the administration is 
talking about deploying a missile defense system, and I just 
want to thank you and the administration for that forward 
thinking type of effort on the part of this country. It's that 
type of effort that's going to make sure we remain a free 
country.
    I also would like to compliment you on being willing to 
look at many new programs in the Pentagon. I've always viewed 
you as somebody who is willing to shake the tree a little bit 
and I appreciate that in you. It doesn't hurt programs that 
have been around a long time to go back and reevaluate them and 
make them rejustify why they have to be there. If we want our 
taxpayer dollars to do the most for the American people towards 
defending this country, I think that has to happen. Even in an 
institution that you and I strongly support, which is the 
Department of Defense, we need to look hard to make sure that 
we are doing everything we can to do the best in trying to 
protect the country with as few tax dollars as we possibly can, 
and I commend you for that.
    Also, one other thing I wanted to bring up was the Air 
Force's evolve expendable launch vehicle (EELV). The market on 
launch vehicles and the industrial base associated with that 
has really changed dramatically in the last year or 2 and I 
have been one that always pushed that we needed to have 
competition, because I think it brings the best out and gives 
you some choice and some duplication that perhaps maybe we 
need. There are some areas in defense where duplication makes 
sense and some where it doesn't. This is one of those areas 
where I always thought it made a lot of sense. Can you talk a 
little bit about what you think might be our capability in 
maintaining that competitive system in the expendable launch 
vehicle area?
    Secretary Rumsfeld. The guy sitting next to me is an expert 
on the subject, the former commander of the Space Command, and 
I think I will let Dick Myers comment on it.
    Senator Allard. General Myers.
    General Myers. Senator Allard, I think I can go a little 
way towards addressing your question. I don't know if I can go 
all the way. Obviously the business case has changed 
dramatically since the idea that we would have competition for 
our new expendable launch vehicles, and I think both of the 
industrial competitors in that program have developed very good 
launch systems. They're developing capability on both the east 
and west coasts for those systems.
    My understanding is given this change in the business case 
that was present just 3 or 4 years ago in contrast with today, 
the Air Force along with the folks up in the Secretary's office 
in acquisition, technology, and logistics are looking at the 
way ahead for this program. To my knowledge, they have not made 
a judgment in terms of how to handle the competitive piece of 
this, but I think that's under a serious discussion right now.
    Senator Allard. I understand that in the President's budget 
there have been some dollars put in there to try to sustain 
this competitive environment, and I would urge you to try to do 
that, because I think it's vital that we have some launch 
capability out there and if one system goes bad, it's always 
nice to have a little bit of redundancy.
    General Myers. Well, the EELV, make no mistake about it, is 
absolutely essential to our space capability because they are 
the launch vehicles for the future. I think we have a handful 
of Titan IVs left and a few other kind of rockets, but we're 
going to go to the EELV, that's a given. The question is, do we 
have enough launches in the cue to sustain the two competitors. 
I have to tell you, I'm not totally up to speed on that issue 
other than I understand it was being looked at in a very 
serious way by the Air Force and by Pete Aldridge.
    Dr. Zakheim. Just to be specific, Senator, we have in the 
2004 budget funds for four launches, and that's in addition to 
the launch that's taking place this month.
    Senator Allard. I see, thank you.
    Back to missile defense, you've expressed a willingness in 
the past to sort of bring in other countries in the missile 
defense area, get them involved to a certain degree. Do you 
have plans to bring in our closest allies in this effort, for 
example, Britain or maybe Canada? Is there any hope at all that 
we could get Russia involved in a partnership that wouldn't put 
us at increased risk on our technology?
    Secretary Rumsfeld. Senator, you're correct, we are engaged 
in discussions with a number of countries, including the United 
Kingdom (U.K.). In fact, the U.K. made an announcement within 
the last week or 2 about their upgrade and their interest in 
cooperating with us in improving their security situation as a 
result. But there are any number of countries that come in and 
we do discuss these things. With respect to Russia, the answer 
is yes, there is a possibility we could cooperate. There are a 
number of things we could do with Russia on missile defense. 
Indeed, my recollection is there was a working group that was 
going back in the 1990s but for some reason it was discontinued 
in the late 1990s, and I have had discussions with Minister of 
Defense Ivanov on this subject and I suspect we will continue.
    Senator Allard. Thank you. My time has expired.
    Chairman Warner. Thank you very much.
    Senator Akaka.
    Before, Senator, you address the witnesses, could I put 
into the record following the important questions from our 
colleague from Colorado, the communication that I, Senator 
Levin, Senator Roberts, and Senator Rockefeller received. I 
asked the Director of Central Intelligence to elaborate on the 
comments he made about the Korean missile yesterday.
    The essence of it is, the testimony is consistent with 
previously unclassified judgments, the capability of the Taepo 
Dong-2 to reach the United States is not a new judgment, and he 
elaborates on that. Without objection, it will go into today's 
record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Warner. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I welcome 
the Secretary and the Chief here to this hearing.
    Mr. Secretary, as mentioned in your answer to Senator Reed, 
the Director of the CIA, George Tenet, testified before this 
committee yesterday that North Korea has a missile capable of 
reaching the west coast of the United States, which means that 
obviously they have the capacity to hit Hawaii. It is my 
understanding that the current Cobra Dane Radar that is to be 
part of the ground based missile defense test bed in Alaska 
cannot discriminate warheads on missiles launched from North 
Korea. Considering that North Korea is the stated reason for 
the deployment of a ballistic missile defense system, are you 
requesting money in this budget to build a dedicated 
operational and X-band radar, which the Department has said is 
required for warhead discrimination?
    Secretary Rumsfeld. Senator, first let me make a comment 
and then I would like to get the rest of the question answered 
for the record. North Korea is, I don't believe, the stated 
single reason for deploying a missile defense capability or a 
test bed, depending on which one someone likes to call it. It 
is to develop a capability, a missile defense capability more 
broadly and to test capabilities, and it would not simply be 
the Alaska interceptors or that radar. It would be multiple 
radars and multiple interceptors if, in fact, decisions are 
made to go forward with a fuller deployment, and it would 
require upgrading radars. But we will get you a precise answer.
    General Myers. The only thing I would add to it is when we 
think about missile defense, the Secretary took the labels off 
of national missile defense. Now we have missile defense. 
Whether it's strategic or tactical or national or local depends 
on where you are and where the missile is coming from. I think 
that's very helpful to the folks who we have fielded around the 
world and to our allies and our partners as well. So it is 
missile defense, it's more than just the pieces we've talked 
about.
    Senator Akaka. Mr. Secretary, we will be looking forward to 
hearing more about that.
    [The information referred to follows:]

    At the direction of the Secretary of Defense, we have developed a 
research, development, and test program that focuses on missile defense 
as a single integrated ballistic missile defense (BMD) system, no 
longer differentiating between theater and national missile defense. In 
programmatic terms, we no longer speak of national or theater missile 
defense. Operationally, the terms can take on different meanings 
depending on where you live. The distinction between them made sense a 
decade ago, when we faced the stark difference between a Soviet ICBM 
threat and an Iraqi Scud. Now it no longer does. The same North Korean 
missile aimed at Japan could be a national threat to our ally, but a 
theater threat to us--unless it were retargeted toward the United 
States, in which case it would become national again. Furthermore, at 
some point in time, a short-range missile could threaten our homeland 
just as well as an ICBM could, if, say, it were launched from the sea 
off our coast.

    Senator Akaka. General Myers, in your posture statement, 
you mention the 2002 Unified Command Plan, the plan which 
created the United States Northern Command (NORTHCOM) and 
determined how it will provide military assistance to the 
Homeland Security Department. Given the fact that Hawaii does 
not fall within the jurisdiction of NORTHCOM, how will the 
Department ensure that there is appropriate coordination 
between NORTHCOM and U.S. Pacific Command (PACOM) regarding 
homeland security for Hawaii and the Pacific Island 
territories?
    General Myers. Senator, I can answer the military part of 
that. The responsibility that NORTHCOM has is for the 
continental 48 States and Alaska, and PACOM has responsibility 
for Hawaii. So for the military part of that, PACOM and Admiral 
Tom Fargo will handle that portion.
    In terms of the relationship between the Homeland Security 
Department and Hawaii and those functions, you're going to have 
to ask Secretary Ridge. I'm not familiar with how he is going 
to work that with your State.
    Senator Akaka. Thank you. General Myers, your response to 
Senator Warner's question on the readiness of troops was that 
our troops are ``absolutely ready.'' You also mentioned the 
negative effects of environmental loss on military readiness. 
Can you reconcile these two statements? What exactly is the 
impact of environmental encroachment on the readiness of our 
troops?
    General Myers. One of the cases that I think is probably 
right before our eyes is the one in Guam where the Navy is 
prohibited from flying because of the Migratory Bird Act, and 
the case that is being talked about in the sense of a court 
case is the chance that an aircraft might hit a bird and that 
would be in violation of the act. If that court case shuts down 
a training range in Guam, then we're going to have to look for 
work-arounds. You might be able to do it in one location, but 
as you have to do that in other locations--I mean, I have been 
flying for 37 years and we have many bird strikes. It's nothing 
against the bird or against the species. [Laughter.]
    So we have to find a way to address this in a more rational 
way so that an act like the Migratory Bird Act, which is an 
important environmental act, does not limit our training. 
That's one example. There are some other ones as well, but I 
think we need to find some ways to work around it so we can 
conduct our military training in harmony with the need to 
protect the environment.
    I think Senator Inhofe said it well, and I didn't have to 
repeat it, but the Department of Defense spends enormous 
amounts of money in complying with environmental law. When I 
was Commander of the U.S. Air Force Space Command, Vandenberg 
Air Force Base sits in a State that is very environmentally 
conscious. I think the State of California will tell you that 
we were great stewards of the land at Vandenberg. We handle 
some very dangerous stuff out there in terms of rockets and the 
fuels and the things we do. So, I would just say we go to 
enormous effort to try to do this right, but in a few cases 
it's inhibiting our training.
    Senator Akaka. Thank you for your responses. Mr. Chairman, 
my time has expired.
    Chairman Warner. We wish to clarify, the ranking member and 
myself, this very important exchange on the environment. I hope 
you will elaborate in the record as to other problems, but I 
believe this committee, under the leadership of our 
distinguished ranking member, cured one problem last year.
    Senator Levin. That was the Migratory Bird Act.
    General Myers. I think that one was----
    Senator Levin. Well, the one example you used this morning 
is the one we've taken care of, we legislated that issue so 
that the Migratory Bird Act no longer applies to military 
readiness activities, including training. Not saying there 
aren't other problems, but we did at least cure that one.
    General Myers. We appreciate that very much. We did make 
some headway.
    Chairman Warner. More work remains to be done by Congress, 
working with the environmental community to try and resolve 
other problems, and I think it will be important and 
responsive.
    General Myers. I will get you a statement for the record of 
those other issues that are still outstanding.
    Chairman Warner. Thank you very much.
    [The information referred to follows:]

    In February, I expressed my concern over the adverse impacts and 
unforeseen consequences the application of various environmental laws 
are having on military training and testing activities, and, 
consequently, on the readiness of our Armed Forces. These are not novel 
concerns. The Vice Chiefs of the Army, Navy, Marine Corps, and Air 
Force testified about these issues before the Senate Environment and 
Public Works Committee in July 2002. Various senior military officers 
and political appointees of the military departments and DOD have 
testified before the respective Armed Services Committees on these same 
concerns over the past 2 years. Although Congress began consideration 
of these important issues last year, it was only able to provide 
temporary relief with respect to one statute, the Migratory Bird Treaty 
Act. While grateful for this support, we believe more needs to be done.
    Although measuring the full impact of environmental requirements on 
readiness is difficult, my professional assessment is that the impacts, 
and consequently the challenges, we face in providing the most 
effective training and equipment have grown rather than diminished. For 
example, the deployment of a critical new defensive sensor to deal with 
the threat of quiet diesel submarines deployed by North Korea, Iran, 
and other potential adversaries was recently restricted by court order 
despite an unprecedented research program by the Navy to ensure that 
marine mammals would not be injured. Diverse examples of encroachment 
abound, ranging from our inability to train with smoke on military 
ranges to limitations on stationing and use of high performance fighter 
aircraft such as the F-22 due to the Noise Control Act.
    I assure you, we are working on better ways to quantify how 
encroachment affects our ability to train and equip our forces; however 
enough is known right now to convince me that we need legislative 
relief.
    This year, the Services are seeking legislative clarification where 
laws are being applied beyond their original legislative intent, 
creating a vast amount of unnecessary litigation. Our proposal would 
confirm--not change--two Clinton administration environmental policies 
that support military readiness, but are threatened by lawsuits.
    First, it would confirm the military bases' ``Integrated Natural 
Resources Management Plans'' may, if sufficiently protective, 
substitute for Endangered Species Act ``critical habitat'' on military 
bases. These plans, developed in cooperation with State and Federal 
regulators, have made Department of Defense one of the best stewards of 
endangered species in the world. Unlike our plans, critical habitat 
designation can impose rigid limitations on military use of our bases, 
denying Commanders the flexibility to manage their lands for the 
benefit of both readiness and endangered species.
    The Department of Defense bill would also codify Clinton 
administration policies under the Marine Mammal Protection Act that 
support vital antisubmarine warfare (ASW) programs. The prior 
administration adopted science-based policies under this act that 
focused regulation on biologically significant impacts on animals. 
Under this policy, the Navy was able to work with regulators to get 
permits for ASW technologies needed to protect our carrier battle 
groups. But litigants have succeeded in overturning these policies, and 
have obtained an injunction limiting testing of this vital ASW 
technology.
    Our mission is to be prepared to defend the country wherever and 
whenever necessary. Readiness requires anticipating conflicts and 
developing weapons, sensors, and tactics necessary to prevail. It is 
vitally important that we are not constrained in fully training our 
Service men and women as we innovate to meet tomorrow's conflicts. 
Modern warfare is a ``come as you are'' affair. The soldiers, sailors, 
airmen, and marines who saw action in Afghanistan in the fall of 2001 
used the weapons, sensors, and tactics that they trained with the 
previous summer. We have learned that a host of factors and decisions, 
including urban sprawl, regulations, litigation, and accommodations, 
although reasonable when viewed in isolation, have cumulatively 
diminished the military departments' ability to train and test 
effectively. Our troops are ``ready'' when they deploy, but it is 
becoming more and more difficult to ensure this status because we 
cannot use the military test and training ranges and at-sea operating 
areas for the purposes for which they are dedicated. We have to resort 
to ``workarounds'' that are increasingly burdensome.
    An equally important encroachment concern is transporting units 
away from their home installations for months at a time for necessary 
training prior to deployment overseas. This workaround imposes a 
particular burden on our military families, not just the troops. 
Workarounds also segment training so that we can't ``train as we 
fight.'' This makes effective training more difficult and less 
realistic. In a world where any country with money can buy the best 
weapons, training is critical to victory. We owe this critical edge, 
the winning edge, to the young men and women we send in harm's way.
    We are not abandoning our outstanding stewardship over the lands 
entrusted to us or shrinking from environmental protection 
requirements. We are trying to restore balance where environmental 
requirements adversely affect uniquely military activities necessary to 
prepare for combat. We ask that you carefully consider the proposed 
changes that the Department of Defense brings forward and provide the 
tailored but effective relief we seek.

    Chairman Warner. Senator Sessions, before you begin, the 
Secretary must be back at the Pentagon to receive a foreign 
minister of defense. I want to conduct this in such a way that 
everyone gets one round, so I shall have to be somewhat abrupt 
on the 6 minutes.
    Senator Sessions. Thank you, Mr. Chairman, you can hold me 
to my time.
    Mr. Secretary, I think it is past time that we evaluate our 
force structure and deployment situation, particularly in 
Europe. The situation is greatly changed today. We don't have 
the same threats, they don't come from the same areas of the 
world, and your comments today that Austria is blocking or 
refusing to allow the transport of military equipment is just a 
stunning development. It must be extremely frustrating for you 
and the Department of Defense leadership.
    I talked with a number of Senators just briefly yesterday 
and will submit a letter to you today that calls on the 
Department of Defense to conduct a study of where we are in 
Europe, to reevaluate how we should deploy our resources there 
to consider first of all our national defense, and second 
consider the tempo of deployment of our personnel and 
separation from families and that sort of thing.
    I guess my question to you would be, would you conduct such 
a study? If one is already in the works, would you share it 
with us? I would just say that virtually every Senator I've 
talked to shared that view strongly. Senator Collins and 
Senator Bayh mentioned it, and I think 15 Senators that signed 
this letter indicate that we think it's past due. We are doing 
that in the United States, let's do it around the world also.
    Secretary Rumsfeld. Exactly. We have to look at our base 
structure across the globe. We're already conducting the study, 
it's well underway. We have not only one going on in the Office 
of the Secretary of Defense, we have one going on with the area 
of responsibility from commanders in each case, and it requires 
a good deal of sensitivity because it just has--a base in the 
United States has to be coordinated with the Congressmen, 
Senators, and the local people, and so too with our allies 
around the world. We have to make sure we all work off the same 
sheet of music and that we bring them along in terms of those 
discussions. So we will be happy to have a hearing or share 
that, and we don't need to do anything separate because it's 
well underway.
    Senator Sessions. Mr. Secretary, you served in Europe in 
NATO, and you served as Secretary of Defense previously and 
have observed this whole situation for many years. It's odd to 
me and I would like to ask you if you agree, that we talk about 
multi-lateralism and unilateralism, whereas at this point it 
appears that 16 nations in Europe support our position and only 
three oppose our position.
    What do you do in circumstances like that? Aren't we 
getting to a point in history where we simply have to make sure 
we have broad support among nations of goodwill and try to make 
sure with that support we defend our just national interests?
    Secretary Rumsfeld. We do indeed. I was hoping to come back 
to Senator Levin. He kept talking about us proceeding 
unilaterally and going it alone in the opening statement. I 
didn't have a chance to comment, but you're quite right. We 
have today 90 nations in the global war on terrorism. We don't 
have a single coalition, we have multiple coalitions. The 
mission determines which countries feel they want to 
participate in that coalition. We ought not have a situation 
where the coalition determines the mission, because then it 
stops everything, because there's always somebody who's not 
going to like it.
    Now, it is of value to have countries. In the case of Iraq, 
we have dozens of countries participating already in a variety 
of different ways in terms of basing and overflight and what 
have you, offering forces, and it seems to me that you're 
correct. We do have to think through what we believe is in our 
country's best interests and in the world's best interests. 
Then what we have to do is go out and persuade other countries 
that that is something that needs to be done and then we have 
to work with those like-thinking countries to get it done.
    In the case of military activity, we can do that without 
unanimity. For example, on the Turkey thing, we can go ahead 
and help Turkey using the 16 countries and not the 3 that are 
blocking it in NATO. Who loses in that case? NATO loses. 
Turkey's not going to lose. We're going to see that they get 
what they need, the 16 countries are. So it seems to me that 
your point is a valid one.
    Senator Sessions. As NATO has expanded the consensus or 
unanimity rule answers itself. It's very unlikely, it seems to 
me, that everyone is going to agree on even important policies. 
Of course, in the United Nations, we have the permanent 
Security Council veto so one nation there, China or Russia, has 
an absolute veto on U.N. military action, so it's just plainly 
obvious to me that we need to be respectful of those 
organizations, seek their support, confer with them, but 
ultimately we're going to have to do what the consensus of the 
world believes is good for the world, and our country in 
defending our own interests.
    Secretary Rumsfeld. That certainly is the obligation of 
this body and the President of the United States, to do that. I 
will say this. The expansion of NATO has had an interesting 
effect. The newer countries coming in are countries that have 
lived under dictatorships and under communism, and they tend to 
bring an energy and an awareness and a sensitivity to those 
dangers that's fresh and helpful to the institution.
    Chairman Warner. Thank you, Mr. Secretary. Senator Pryor, 
to be followed by Senator Ben Nelson and Senator Bill Nelson, 
and then I will move down the order from there.
    Senator Pryor. Thank you, Mr. Chairman. First I have a 
couple of very quick questions from Senator Robert Byrd, who 
could not be here at this moment. Mr. Secretary, what are your 
estimates of how much a war with Iraq might cost?
    Secretary Rumsfeld. That is an answer that unfortunately I 
believe is not knowable. I am told there are people at the OMB 
that have estimated it at something between $50 and $60 
billion. The one thing I do know is it would cost, if the 
President decided that it was necessary and force had to be 
used--a heck of a lot less than September 11 cost, and 
September 11 would cost a heck of a lot less than a chemical or 
biological September 11.
    Senator Pryor. Thank you for that answer. You have said 
that you expect to send a supplemental appropriations request 
to Congress soon. How much will the Pentagon request in that 
supplemental and are there two variations of that, one in the 
event that we continue with weapons inspections and the other 
in the event we're at war, or will it just be one supplemental 
request?
    Secretary Rumsfeld. I don't know. It's a matter that the 
OMB and the White House are working on. We do know certain 
facts. One fact is that we're spending about $1.5 or $6 billion 
a month since October 1 for the global war on terror. So we've 
already spent October, November, December, January, 4 months, 
which is $6 billion, and a portion of February, and that does 
not count the cost of the force flow for Iraq, which is 
probably in the neighborhood of $2 billion-plus.
    So for the year, if the global war on terror went on at a 
billion-five and you had to add some additional force flow, 
it's pretty clear that even without a conflict in Iraq, we 
would be well short and need a supplemental of roughly that 
magnitude, but that's something that depends on what takes 
place and we will know more about that as we go forward.
    Senator Pryor. Secretary Rumsfeld, I want to talk about the 
C-130J program, which I know General Myers is very familiar 
with. As we continue this war on terrorism, the C-130J seems to 
me to be a very important part of that effort as well as all 
the efforts that the military is involved with. Something that 
my staff has talked to me about--and again, I'm new here--but 
we talked about the C-130J multiyear proposals and as I 
understand it, are you making that proposal because it may help 
you plan and even may help you save money on the program?
    Dr. Zakheim. Well, we are certainly looking at that. As I 
understand it, the current estimate is that it will save some 
money. We're refining that as we speak and I have every 
certainty that we will be finalizing that very soon.
    Senator Pryor. It just so happens that the Little Rock Air 
Force Base is the premier training facility for C-130Js, not 
just for our forces but for anybody in the world. Do you see 
that changing any time in the future? General Myers, you may 
want to take a crack at that one.
    Secretary Rumsfeld. Let me make a comment. Congress passed 
a proposal for base closings and what we decided to do is to 
try to proceed in an orderly way and not comment on individual 
bases prospectively. It just seems to me that the process has 
to be an open one, it has to be one that is done in a serious 
and nonpartisan way. One of the reasons that they didn't have a 
base realignment and closure (BRAC) for several years was the 
accusations that they were not looked at in a fair and open and 
balanced way, and I want to see that this is done that way. 
Therefore, I'm not inclined to speculate about the future.
    Senator Pryor. General Myers.
    General Myers. I think it would be speculation on my part. 
I sit here with a blue uniform, but I am not that familiar with 
Air Force plans.
    Senator Pryor. Another facility that I just want you all to 
be sensitized to and know about and be aware of is the Pine 
Bluff Arsenal in Arkansas. Right now it is in the process of 
disposing of chemical weapons. It's the only active chemical 
defense arsenal in the Department of Defense, and it also has a 
joint venture with the American Red Cross where they do 
readiness training for first responders. It seems to have a 
very varied and important mission in today's world. Just as you 
all are considering your plans in the future, I just want you 
to again be reminded of the asset that you have currently in 
the Department of Defense and be mindful that it's there and 
actually has enough real estate to expand. For example, I think 
the DOD made a determination in the late 1990s that if you do a 
vaccine program that would be the best facility that you 
currently have. So, I just wanted to remind you to be aware of 
that.
    Chairman Warner. Thank you, Senator.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. Mr. Secretary, 
General Myers, I appreciate very much your being here again 
today to help us understand some of the difficulties in the 
world today that certainly you face each and every day.
    Mr. Secretary, you made a prediction this past weekend that 
within a year or 2 or 3, North Korea would become the leading 
example of why in your view international agreements designed 
to stop the spread of nuclear weapons are failing, and today 
you elaborated a bit on your thoughts about cooperation, that 
it isn't necessarily working in the world the way that we would 
like to see it.
    Do you believe that, in many respects, North Korea's 
proliferation and supply of weapons and other armaments and 
related materials might expand to a more aggressive program 
that would ultimately lead to an arms race in Asia, which is 
obviously something that we don't want? Do you have any 
thoughts about that that you might share? I have a couple of 
related questions, but that's my first question.
    Secretary Rumsfeld. I look at the situation with North 
Korea in this way. They will sell anything they have to anyone 
who wants it. They have been demonstrating that for years. 
You're correct. An announced or demonstrated nuclear capability 
and obviously relatively sophisticated ballistic missile 
capability on the part of North Korea is something that the 
neighbors have to be attentive to. The neighbors to the south, 
the neighbors to the north, and to the west, and to the east.
    Now, there are a number of states in that neighborhood who 
have the ability to have nuclear weapons in relatively short 
periods if they wish to have them. That is not a good thing for 
the world. I also look at North Korea as a danger, not simply 
in Northeast Asia but a danger to the world. I mean, this is 
clearly a world problem. If you have a country that is capable 
of producing nuclear material sufficient to fashion six to 
eight nuclear weapons in a relatively short of period of months 
and is known to be selling them, it's a terrorist state, and 
that's a problem. It's not a problem to the United States, it's 
a problem to the world.
    It seems to me that this is the reason I feel that the 
President is correct in attempting to see, which is now 
successful, in getting that problem put into the United 
Nations. Because the solution to proliferation can't be 
unilateral, it has to be a strong, fully enforced, agreed upon 
set of restrictions so that those kinds of weapons can be 
stopped and interdicted.
    Senator Ben Nelson. In that regard, obviously the Nuclear 
Nonproliferation Treaty that North Korea was the first to 
withdraw from is not working today. Do you have any thoughts 
about what we might do to bring the rest of the world together 
where we could do something to deal with nonproliferation and 
nonsupplying of material and materiel to the rest of the world, 
particularly to those states and groups that would do harm to 
our neighbors and clearly do us harm as well?
    Secretary Rumsfeld. I do have some ideas. They're not well 
developed, but we would not be facing the problem in Iraq today 
if the technologically advanced countries of the world had seen 
the danger and strictly enforced economic sanctions against 
Iraq sufficient that it would cause them to discontinue their 
weapons of mass destruction programs. We would not have this 
problem today.
    Now, how do you get countries to step up and do something 
that is against their immediate self-interests in exchange for 
something that's in favor of their self-interest over the 
longer period? That is to say, stop commercial sales, stop 
pretending that dual use things are going to be used for good 
things and not bad things, and strictly enforce and prevent a 
country that's clearly in violation and clearly engaged in 
trafficking in these capabilities in a way that puts the world 
at risk.
    I think the only way you do that is to go to their publics. 
I think the people of those countries have to be sufficiently 
concerned that they require their governments to behave in a 
rational way and not just a rational way for an immediate self 
gratification of some commercial license, but in a rational way 
that looks down 5 or 10 years and sees, for example, in the 
Middle East the possibility of four, five, or six countries 
having nuclear weapons, which is not a pretty picture.
    Senator Ben Nelson. It's predictable with the direction 
things are going today. Let me commend you for, if not being 
patient, acquiring the appearance of patience, and I thank you 
for your answers today.
    Chairman Warner. We thank you, Senator.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman. We are in the 
midst of enormous change and enormous challenge. Thank you for 
trying to get your arms around this problem and steering us in 
a direction that best protects our country.
    On this debate about missile testing, why don't we just 
call it what it is instead of getting hung up on the labels? 
Say that we're going to deploy while we are still in the 
testing phase.
    Secretary Rumsfeld. That's what I tried to do.
    Senator Bill Nelson. I think it speaks for itself. One of 
the policy questions that I think you're going to have to 
answer, particularly since it looks like we're going to have 
the needs of our United States military overseas for the 
foreseeable future in nation building, and if you don't like 
that term, then use the term establishing political and 
economic stability. We're trying to do that in Afghanistan. We 
thought that it might only take us a year in Bosnia and we're 
in the seventh year, and clearly that will be the situation in 
Iraq as well.
    The policy question is, are we going to continue to do that 
with other than the active duty military? My wife and I went on 
Thanksgiving to have Thanksgiving dinner with our troops in 
Bosnia and what I found was a Pennsylvania National Guard unit. 
They were pumped, they knew they were there for 6 months and 
they were going to rotate back.
    I have been going to a lot of our National Guard ceremonies 
all over Florida, telling them that I'm there on behalf of a 
grateful nation for their service. But they went into the 
Guard--as did the Reserves--thinking that when their country 
called, that they were ready to respond and they are well 
prepared by the way, there is no question about their 
professionalism, but there is a question about their obligation 
and the length of time. Would you briefly comment and then we 
can carry on this dialogue for some period of time, because 
this is a policy question we have to ask. Do we up the active 
duty troops in order to keep the Guard and the Reserves as what 
they were intended to be?
    Secretary Rumsfeld. Senator, first, thank you for visiting 
the troops. They appreciate it and we all appreciate it.
    Second, I do worry a bit about the phrase ``nation 
building.'' I take it as a little bit arrogant that we think we 
might know how to build a nation for somebody else. I like to 
think of it as our responsibility. For example, in Afghanistan 
we are trying to create a security environment that is 
hospitable to their rebuilding their own nation, and do that 
with the cooperation of other nations. I think that's what 
we're trying to do there, and clearly that's what one would 
have to do in Iraq if it came to that.
    With respect to the end strength issue, there are so many 
things we can do to make better use of the current end strength 
we have in uniform. We can pull down in places where they have 
been for too long. In the Sinai, we're pulling out about half 
of those. There are four other places where we're in the 
process of doing the same thing. We're looking at the bigger 
chunks in Asia and in Europe, and we're going to do that.
    There's also a way that General Myers and I are working 
hard on trying to figure out a better way to alert, mobilize, 
and deploy Guard and Reserve Forces so that they continue to 
feel what they feel now. They're proud to be called, they're 
proud to serve, but they want to serve in something that's real 
and they don't want to get called up four or five or six times 
in a short period of time because it's very difficult for their 
families, it's difficult for their employers. But they are 
pumped and doing a terrific job.
    What we have to do is get a more nuanced system. At the 
present time, our deployment system is basically one big switch 
over here, peace, and the other is World War III over there, 
and you pull it and everything happens. We're trying to figure 
out how to disaggregate this thing in a way that's respectful 
of the Guard and Reserve and their employers and their 
families. If we need additional end strength we will be up to 
ask for it, but at the moment I don't think we do. If we can 
get the people in uniform that are doing jobs that are not 
military jobs, that will save some people right there.
    Senator Bill Nelson. If they know they are there for 6 
months, they're ready and they're pumped. But if suddenly 
that's a year, and then they're coming home after that year and 
they suddenly get diverted someplace else, then you have 
another whole situation with regard to our promise to them and 
our promise to their employers.
    Secretary Rumsfeld. Senator, you're exactly right. The 
other thing I didn't mention, which I should have, is that back 
in the 1970s after Vietnam, the Department of Defense took 
certain skills and put them in the Reserves, 100 percent in the 
Reserves. They did it so that if they were ever to go to war 
again, there would have to be a major call-up. That's not a 
good idea, because we're going to have a series of these things 
just as sure as we're sitting here, and what we have to do is 
make sure we have people on active duty to do all the skills so 
that we do not have to keep calling those same people up four 
or five times.
    Senator Bill Nelson. Mr. Chairman, assured access to space 
is another issue, not only what was brought up here earlier on 
the EELVs, but the technologies that you all clearly have an 
interest in at DOD and other agencies in developing as a 
follow-on to the space shuttle. We are at a point that 
decisions are going to have to be made over the next several 
months on that, and you all at DOD have to weigh in on that, 
because it's going to be extremely important to you. You have 
to have a backup system other than these two EELVs, and right 
now the only capability other than that, once all the EELVs are 
gone, is the space shuttle.
    Chairman Warner. Senator, thank you. The Senate, indeed 
Congress is fortunate to have your services, having given much 
of your life and career to this subject. You're following in 
the shoes of your distinguished predecessor who was on this 
committee, Senator Graham.
    Senator Bill Nelson. Well, bless you. Mr. Chairman, I would 
just conclude by saying two names, Scott Speicher, let's not 
forget him.
    Chairman Warner. That's an important message and I share 
with you that message.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman, Mr. Secretary. It 
is a perilous irony, the fact that we're talking here about a 
$400 billion expenditure for the most overwhelming military 
force the world has ever known, and at the same time we're 
telling our citizens to go get out and get duct tape and 
plastic wrap and water. You said yourself, sir, today, that 
this is the most dangerous security environment the world has 
ever known.
    It reminded me of the ominous forewarnings of condition 
orange, what Robert Kennedy said after the Cuban missile 
crisis: ``No action is taken against an adversary in a vacuum. 
Escalation on one side brings a counter-response. A government 
or people will fail to understand this only at their great 
peril.''
    It seems to me that for the last 55 years our leaders have 
understood that. Both Republican and Democratic Presidents also 
faced dangerous dictators who had weapons of mass destruction, 
the heads of countries that were hostile to the United States, 
the former Soviet Union, China, North Korea, but none of those 
Presidents attacked those countries to eliminate that threat, 
and the threat was ongoing, it was dealt with and contained 
diplomatically, and the peace and security of this Nation were 
preserved.
    The principal reason I believe that they didn't do so was 
because of mutual assured destruction, because we knew that 
their country could inflict destruction on our citizens, our 
countryside, our cities, that was intolerable to us, just as we 
could annihilate them.
    I guess my question, sir, is why would we expect that Iraq 
will be any different? If the United States invades that 
country, is destroying their cities, their citizens, causing 
casualties among their citizens, why won't we expect that they 
will retaliate within the United States with every destructive 
force that they could marshall, and why wouldn't we expect that 
Osama bin Laden would do his utmost to exploit that situation 
and to twist it in the eyes of the world to be seen as 
something different from what it is? How do you assess our 
ability to protect our citizens in their cities and their 
schools and their homes from retaliation if we invade Iraq?
    Secretary Rumsfeld. Senator, let me say several things 
about that statement. First, if one goes back to the Soviet 
Union and mutually assured destruction, one thing we know is 
that time was on our side. If we could contain the Soviet 
Union, which had massive nuclear capability and was attempting 
to expand its interests throughout the world, in Africa, Latin 
American and Europe, and was a serious conventional as well as 
unconventional military threat, we felt if we could contain it 
for a long enough period, that their economic situation would 
change because it was a rotten system. We were right.
    With terrorist states that have demonstrated their 
willingness to use weapons of mass destruction on their own 
people, that fire ballistic missiles into their neighboring 
countries, that invade their neighboring countries, time is not 
on our side. These weapons that they have are such enormous 
power and they are not constrained. These are single dictators. 
These are not--I'm not going to start naming names again, I 
just make more news that I don't need to make.
    Let me start that sentence over by saying that these are 
not democratic systems, they aren't even systems like the old 
Soviet Union that had a Politburo where all power was not 
concentrated in a single person. They discussed things. You can 
go back and read the history books. These people, the dictators 
in the terrorist states today, don't have to discuss things 
with anybody. They can furthermore act in a way that masks what 
they have done. They can use a terrorist network to disseminate 
a weapon of mass destruction.
    It seems to me that what we need to remember is the last 
phrase I believe you used was something to the effect that 
Osama bin Laden would conduct a retaliatory attack or 
something.
    Senator Dayton. I said take advantage of the situation or 
exploit the situation.
    Secretary Rumsfeld. Right. What situation was he taking 
advantage of on September 11? I mean my goodness, they don't 
need excuses, they just do it. We see threat reports every day, 
dozens and dozens of them. In the last 6 months there have been 
terrorist attacks probably in what, 8, 10, 12 countries?
    Senator Dayton. I would move to my next question. If you 
conclude Iraq as synonymous with al Qaeda as an ongoing 
terrorist threat, I guess I would make a distinction between 
them and just point out--and I don't disagree with your 
assessment of the dictator there or the single control that he 
apparently has--the actions that you and others have described 
essentially took place 12 years ago. I don't think containment 
has been the complete failure that you've described it to be 
with Iraq, and I would just say that we didn't know time was on 
our side when we were dealing with the Soviet Union.
    What we did know was that if we went in there militarily, 
we were going to experience what Winston Churchill said of 
World War I, ``the price of victory is so great as to be 
indistinguishable from the cost of defeat.'' We're going to, I 
fear, inflict serious damage on this country, and that was my 
question. What is our ability to defend this country, protect 
our citizens if we go in in the next 2 weeks or 2 months into 
that country militarily and start inflicting destruction on 
them?
    Secretary Rumsfeld. I'd like to make two points on it. 
Number one. Let's go back in time to September 2000, 1 year 
before September 11, 2001. What if we had scraps of 
information, a telephone call, a credit card, a person learning 
how to fly and didn't care about landing, 5 or 8 or 10 of them, 
and we started connecting the dots. What would have been 
sufficient to cause us to take a preemptive act to stop that 
act? This is a society that for decades has thought of itself 
as being willing to absorb an attack and not do anything until 
after we've taken that attack, then marshall our resources and 
go out and do something about it. That's been our way.
    I think today, post-September 11, an awful lot of people in 
our country properly would say well, by golly, if we had scraps 
of information and we could put it together, we should have 
preempted that attack. That's my guess.
    Senator Dayton. If you could have found al Qaeda and 
prevented it, absolutely. My time is up.
    Chairman Warner. Thank you very much, Senator Dayton.
    Senator Clinton.
    Senator Clinton. Thank you very much, Mr. Chairman. Mr. 
Secretary, I want to follow up along the lines of what Senator 
Bill Nelson was asking and also Senator Dayton, because I think 
that in connected ways, they are focusing on the same issues 
with respect to how we are going to defend ourselves at home. 
As I understand it, in response to the threat level being 
raised to orange, the Pentagon has deployed heat seeking 
stinger anti-aircraft missiles at strategic locations around 
Washington, DC, and F-16s have been put on 24-hour alert in 
Washington, as well as deploying additional detection radars. 
Can you tell me whether similar steps have been taken in New 
York?
    Secretary Rumsfeld. Senator, we don't talk about 
deployments and I would like to take a minute to explain why. 
We change how we're arranged in a defensive and deterrent 
standpoint from time to time with respect to combat air 
patrols, and I know you're familiar with how we're doing that 
with respect to the east coast and other portions of the 
country. To the extent we announce them, it demystifies the 
problems for others, the people who would attack. To the extent 
we regularize them, we demystify them.
    So what we do is we do things on an irregular basis. It's 
not thoughtless and random, but it is in fact irregular, and 
it's designed to do that to maximize the deterrent effect and 
to maximize our ability to defend at times when we believe the 
threat level requires it.
    Senator Clinton. I certainly understand and appreciate that 
and would not want to have any specific information, but 
clearly some of what has been deployed around Washington is 
visible to the naked eye and, therefore, we know it. There have 
been no similar reports of anything visible to the naked eye 
with respect to New York. Since we also have reason to believe 
that New York and Washington remain at the top of the 
terrorists' lists of targets, perhaps in another setting, I 
could at least be advised as to what if any actions, 
irregularly or regularly, are occurring with respect to New 
York.
    Let me just move on, because I think that it ties into an 
ongoing concern of mine which is the readiness of our first 
responders here at home, whether they are dealing with an al 
Qaeda attack such as we saw on September 11, or a retaliatory 
attack in the wake of military action in Iraq. One of the 
problems that we are seeing surface that I talked to now 
Assistant Secretary McHale about during his confirmation 
hearings, is that many of the people who are being called up, 
who are pumped, who are ready to go, are first responders. 
They're police officers, they're fire fighters, they're EMTs, 
they are others who provide the first line of defense here at 
home.
    Today I sent a letter to you, Mr. Secretary, and I'd like, 
Mr. Chairman, to make it part of the record.
    Chairman Warner. Without objection.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Clinton. That letter requests information as to the 
extent to which Reserve call-ups are impacting on our first 
responders. Because as we go forward with the planning that I 
understand you're doing with respect to how we deal with Guard 
and Reserve Forces, whether we confront redeployments of our 
end forces abroad, I think we have to recognize that if we're 
fighting a multifront war, which we may very well be, we know 
we're fighting one here at home already as well as against al 
Qaeda, and there may be others to come, we have to be sure that 
our first responder front line defenders have adequate force 
strength.
    There are a number of reports that have surfaced in the 
press about what local officials are confronting. A number of 
mayors and county executives have said that as many as 10 
percent of first responders are also in the Reserves. I know in 
New York City, 300 of our fire fighters are in the Reserves.
    We also know that the cost to our communities at a time of 
decreased budgets, and I would argue inadequate Federal 
resources for our first responders, means that the police 
department in New York City spends more than $200,000 a week to 
cover their reservists, and the fire department spends more 
than $100,000 a week. A small community like the Niagara Falls 
Police Department spent $350,000 last year.
    Nobody begrudges that. We want to continue to support our 
first responders. But I think as you look at the connections 
between what we have to be ready to do here at home as well as 
our force abroad, I hope that you will take that into account. 
It's not only at the local level; clearly it affects Customs 
officials, FEMA officials, Secret Service and others. I will 
look forward to having a response to this letter, because I 
know this is an issue that you will have to look into, but I 
hope that it is part of what we go forward in planning.
    Finally, General Myers, I am concerned, as I was when I was 
First Lady, about the unexplained illnesses that many of our 
men and women return from the Persian Gulf suffering from. I 
was asked by the President to look into this during the last 
part of the 1990s and we came up with an independent blue 
ribbon commission to investigate the issues raised by these 
undiagnosed illnesses and the treatment that many of our 
veterans received, and there was a final report submitted to 
the President in January 1997, including a slate of 
recommendations to ensure that Gulf War veterans received all 
the care that they needed.
    With U.S. troops once again being deployed to the Persian 
Gulf, and without us really knowing what caused a lot of the 
problems, we look at a number of sources, and I have to say, 
Mr. Chairman, I think this is an area that we want to go into 
in some depth in this committee, because we're seeing the same 
thing with respect to the first responders who responded to 
Ground Zero. The combination of whatever was in the air when 
those buildings were attacked and collapsed has caused 
extraordinary respiratory, pulmonary dysfunction and distress, 
and we're only beginning to try to understand it. Similarly 
when we saw our men and women coming back from the Gulf, we 
know that similar kinds of issues occurred, and now we have an 
added challenge of biological, chemical, and radiological 
potential attacks as well.
    Now a year ago, in February 2002, a General Accounting 
Office (GAO) official testified before the House Veterans 
Affairs Committee that while military medical surveillance 
policies had been established, much still needed to be done to 
implement the system, and I would hope that we could get a 
report, General Myers or Mr. Secretary, about what we are doing 
to ensure proper implementation. Once somebody is a veteran it 
may be too late, so I would like to make sure that our Active-
Duty Forces are getting the surveillance that they need for 
medical monitoring and health tracking before being deployed to 
the Gulf so that we can know and have a better research base to 
understand what they have been and might be exposed to, and I 
look forward to getting that information.
    [The information referred to follows:]

    The DOD has applied medical lessons learned from the Gulf War to 
help protect the health of military personnel before, during, and 
following deployments.
    Subsequent to the publication of the final report of the 
Presidential Advisory Committee on Gulf War Veterans' Illnesses on 
December 31, 1996, DOD published the following policy: Department of 
Defense Directive (DODD) 6490.2, ``Joint Medical Surveillance,'' and 
Department of Defense Instruction (DODI) 6490.3, ``Implementation and 
Application of Joint Medical Surveillance for Deployments.'' On 
December 4, 1998, the Office of the Chairman of the Joint Chiefs of 
Staff (OCJCS) issued a memorandum on ``Deployment Health Surveillance 
and Readiness'' that supported implementation of the DODD and DODI. On 
February 1, 2002, the OCJCS updated the memorandum for health 
surveillance and readiness during all deployments. The memorandum 
provides standardized procedures, including occupational and 
environmental health surveillance procedures, for assessing health 
readiness and conducting health surveillance in support of all military 
deployments.
    The DOD has developed and implemented a Force Health Protection 
(FHP) strategy that promotes and sustains the health of service members 
during their entire length of service. This adds an additional level of 
confidence to the specific programs for promoting and sustaining the 
health of military personnel prior to, during, and after deployments. 
Programs are in place to promote the fitness and health of personnel 
before they deploy, to protect them from disease and injury during 
deployment, and to provide comprehensive treatment for deployment-
related health conditions. The DOD has appointed a Deputy Assistant 
Secretary of Defense for Force Health Protection and Readiness to 
assure sustained focus on this strategy.
    The DOD has implemented a Defense Medical Surveillance System 
(DMSS), which integrates numerous health, personnel, and deployment 
data sources. The DMSS database contains longitudinal health data on 
Service members (e.g., hospitalizations, ambulatory visits, reportable 
diseases), as well as integrated personnel and deployment data. The DOD 
has established a Serum Repository to archive periodic serum samples 
for all service members.
    The DOD has instituted a deployment health surveillance program, 
which validates individuals' medical readiness to deploy. It includes 
pre-deployment and post-deployment health assessments (with copies 
archived in DMSS), complete immunizations, and other protective 
measures, and addresses health concerns upon return from deployments. 
This is another step in providing periodic longitudinal health 
monitoring of service members from the time they enter military service 
and includes periodic medical, dental, and readiness assessments; 
physical fitness testing; and comprehensive health care through the 
military health system.
    Improved deployment health protection countermeasures are being 
designed to protect our Service members against an increasingly broad 
range of threats. Such countermeasures include the fielding of new 
biological and chemical warfare agent detection and alarm systems; the 
operational testing of integrated electronic medical surveillance and 
emergency response networks; current vaccines and anti-malarial drugs; 
and research on the next generation of vaccines and pharmaceuticals.
    The Department has been conducting ongoing monitoring and weekly 
reporting of disease and non-battle injuries (DNBI) during deployments. 
We have enabled daily DNBI monitoring in order to increase the 
sensitivity of this capability to detect the earliest occurrence of a 
natural, chemical, or biological agent exposure. In addition, all 
deployed medical units report through command channels at least daily 
on their current situation enabling immediate notification of any 
potential disease outbreak.
    The DOD has implemented improved occupational and environmental 
health surveillance programs for protecting Service members' health 
during deployment. The DOD has implemented operational risk management 
programs throughout the services that provide focus for all commanders 
to effectively manage both safety and environmental health risks and to 
mitigate the impact on our Service members.
    The DOD has implemented improved environmental and clinical 
laboratory capabilities in theater. The DOD now routinely deploys 
preventive medicine, environmental health, theater medical 
surveillance, and forward laboratory teams in support of worldwide 
operations.
    The Armed Forces Medical Intelligence Center develops products that 
assist our understanding of endemic diseases, vectors, and industrial 
hazards worldwide. All Services utilize these products to increase 
their knowledge of areas of operations and develop an initial 
assessment strategy during bed down operations and incrementally 
throughout the deployment. Preplanning and on-site environmental 
assessments of staging areas and base sites have been critical to 
protecting our Service members and documenting any potential ambient 
exposures. The integration of operational risk management provides 
field commanders the necessary information upon which they can act.
    The DOD has improved health risk communication through the 
provision of regionally-specific medical intelligence, environmental 
risk assessments, medical threat briefings, pocket-sized health guides, 
and deployment-focused web sites. 
    The DOD has established three deployment health centers for health 
surveillance, clinical care, and health research that focus on the 
prevention, treatment, and understanding of deployment-related health 
concerns.
    The DOD has coordinated with the VA to address deployment-related 
health concerns of Service members and veterans by jointly developing a 
Post-Deployment Health Evaluation and Management Clinical Practice 
Guideline (CPG), and by electronically sharing medical information 
through the Federal Health Information Exchange.
    The DOD has taken steps to improve deployment-related medical 
record keeping by developing the Composite Health Care System II (CHCS 
II), the Theater Medical Information Program (TMIP), medical evacuation 
automated patient tracking and by expanding the electronic tracking and 
centralized collection of immunization data.
    The DOD is working to improve tracking of individual and unit 
locations during deployment and development of a comprehensive Defense 
Integrated Military Human Resources System.
    The joint force is superbly trained and comprised of dedicated men 
and women who represent DOD's most vital resource. Implementation of 
DOD's Force Health Protection Strategy is a critical component of our 
overall Force Protection strategy and is essential to maintaining the 
health and fitness of servicemembers during their entire career. Force 
Health Protection programs have important life-long implications for 
health. The DOD has made tremendous strides since the Gulf War in 
monitoring and tracking the health of our personnel prior to, during, 
and following deployments. We will continually seek to improve these 
programs because Force Health Protection directly improves our 
readiness posture and the capability of our servicemembers.

    Secretary Rumsfeld. Thank you.
    Senator Clinton. Thank you.
    Chairman Warner. Thank you, Senator, and I can speak from 
firsthand experience, having gone with you out to Walter Reed 
to visit the veterans who returned from Afghanistan, of the 
depth of your sincerity with regard to the subjects of which 
you speak. We thank you, and I do hope that you spearhead on 
this committee those efforts.
    Senator Levin, I think we have conducted a very successful 
hearing. If you have no further comments, we thank you, Mr. 
Secretary. We thank you, General, and we thank you, Dr. 
Zakheim.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Elizabeth Dole

                      FAMILY HOUSING PRIVATIZATION

    1. Senator Dole. Secretary Rumsfeld and General Myers, included in 
the $4.0 billion request for family housing for fiscal year 2004 is 
$346 million for family housing privatization of 36,262 units. This 
seems to me to be one of those truly transformational programs that 
goes directly to improving morale and helping the troops and their 
families make a positive decision about making the military a career. 
Inadequate, unattractive housing like the infamous Tarawa Terrace 
housing area at Camp Lejeune, North Carolina is simply unacceptable 
when we ask so much of our military personnel and their families. Is 
this privatization program the quickest, most cost effective way to 
replace the inadequate housing which exists all across the military?
    Secretary Rumsfeld and General Myers. Yes, housing privatization is 
the quickest and most cost-effective approach to addressing DOD's 
inadequate housing. Housing privatization is transforming and 
revitalizing military family housing at an accelerated pace. 
    In January 2001, the Department had about 180,000 inadequate family 
housing units. Today, primarily through housing privatization and our 
military construction program, we have reduced that number to roughly 
163,000. This number will continue to come down as we pursue the goal 
to eliminate inadequate housing by 2007. As of March 2003, we have 
awarded 18 projects totaling 27,884 family housing units. Additionally, 
we project that the services will privatize over 38,000 family housing 
units during fiscal year 2003, and over 36,000 family housing units 
during fiscal year 2004. The Department's fiscal year 2004 budget 
includes our plan to privatize about 102,000 family housing units by 
the end of fiscal year 2004.
    Housing privatization is cost-effective and allows DOD to tap the 
expertise of the private sector to address a large problem. Our policy 
requires that privatization yield at least three times the amount of 
housing that would be provided using traditional military construction. 
The projects awarded thus far leverage upfront appropriations by a 
ratio of 10:1. This means that DOD has invested $290 million, to obtain 
about $2.9 billion worth of equivalent MILCON housing improvements. 
Finally, our economic analyses indicate that when we look at long-term 
costs over the 50-year term of most of our deals, privatization is 
about 10 percent less costly.

    2. Senator Dole. Secretary Rumsfeld and General Myers, what has 
been our experience thus far with this housing in terms of quality of 
construction and the ongoing maintenance by the contractor?
    Secretary Rumsfeld and General Myers. Surveys of military tenants 
living in new and renovated privatized housing have given high marks to 
quality of construction and housing maintenance. Privatized housing 
must comply with local and State construction codes and standards, as 
well as DOD project specifications. In fact, in many of our early 
projects, the immediate improvement in housing maintenance won over 
residents to privatization well before any new units were constructed.

    3. Senator Dole. Secretary Rumsfeld and General Myers, are we 
devoting enough resources to family housing privatization?
    Secretary Rumsfeld and General Myers. Yes, we are devoting enough 
resources to housing privatization. We believe the current number of 
privatization projects in the pipeline and our fiscal year 2004 funding 
request is sufficient to keep us on track to eliminate our remaining 
inadequate family housing.

             REFORMING THE WAY THE DEPARTMENT DOES BUSINESS

    4. Senator Dole. Secretary Rumsfeld, regarding that aspect of 
transformation which involves reforming the way in which the Department 
of Defense (DOD) does business, I understand there is a long history of 
disagreements and mistrust between Congress and the Pentagon that 
apparently led to all the strings now attached to or perhaps strangling 
DOD.
    In part based on my own experience running the Departments of 
Transportation and Labor, and the American Red Cross, I want to support 
you in your desire for a more free hand to make sensible, cost-
effective decisions. However, looking at it from this side of the 
table, what your request seems to me to be saying is: ``Trust me.'' How 
can we strike the balance that gives you the help you need in your 
commendable desire to operate in a more business-like way while not 
abdicating our proper congressional oversight role?
    Secretary Rumsfeld. We developed the system we live under today 
over the last 100 years--it is an industrial age system trying to meet 
the needs of an information age security environment.
    Times have changed and we need change in order to meet the new 
threats we face today and will face in the future. It is imperative 
that we move away from industrial age policies to those that would 
allow us to face asymmetric threats of today's world. We don't have the 
luxury of knowing when and where he will strike next. Common sense 
dictates that we be lighter and quicker if we are going to protect the 
United States from the cold-blooded killers we face today.
    I'm not asking you to ``trust me,'' but instead I'm saying look at 
our track record. Our personnel system is based on the performance of 
20 years of demonstration projects with over 30,000 employees currently 
working in those programs--working in an environment that promotes and 
rewards initiative and hard work instead longevity. Our record on the 
environment is a strong one. Over the past decade, the department has 
spent $48 billion to clean up sites from past activities and invested 
in new technology and programs to improve pollution prevention and 
ensure compliance with environmental laws. The Department manages 25 
million acres of the Nation's land that includes over 300 threatened 
and endangered species that are protected on our ranges and 
installations. In many cases populations are maintained and restored 
under our stewardship. For example, on San Clemente Island in 
California's Channel Islands, islands often referred to as America's 
Galapagos Islands, the Navy has brought the island's endangered 
loggerhead shrike back from the brink of extinction. In the mid-1990s 
the population of these birds had declined to 13, making it one of the 
Nation's most endangered species. I challenge anyone to compare our 
environmental record. No, I'm not asking you to ``trust me'', just 
judge us on our record.
    We do not challenge or seek to weaken Congress's oversight role. We 
welcome your reviews of our programs, understanding it is your 
constitutional responsibility. But together we share a common 
responsibility to provide the finest defense for the citizens of the 
United States. To do that we must shed the policies that have 
accumulated in the past and handicap us today.

    5. Senator Dole. Secretary Rumsfeld, among the proposals you have 
discussed, could you prioritize them in terms of their importance to 
the Department? Which gives the greatest leverage in savings to the 
Department?
    Secretary Rumsfeld. To completely answer this question, I need to 
provide some background on how we got to where we are today. Over a 
year ago I challenged my staff to provide me with proposals that would 
make the Department more suited to face the challenges we would face in 
the 21st century. They did an excellent job. As we gathered all the 
inputs, we took a hard look at each proposal to make sure it would have 
the desired effect. We thinned the list down to what we considered our 
top priorities and worked with the administration to review them.
    We worked closely with OMB, OPM, EPA, and other agencies and what 
came out of this process were the top priorities for the Department. So 
to answer your question, I have to tell you what you have in front of 
you are the Department's top priorities.
    As far as the greatest leverage in savings, I don't think you can 
look at them in that manner. How do you put a dollar figure on a more 
motivated employee? How do you measure the life of a soldier, whose 
life is saved because of the realistic training he had before going to 
war? And finally, what price do you assign the ability to detect the 
advanced submarines of today so that a carrier battle group can carry 
out its duties in battle? The savings to the Department are real and 
tangible, but you cannot assign a dollar amount to them.

                          JUNIOR ROTC PROGRAM

    6. Senator Dole. General Myers, I've long been concerned about the 
fact that our young people seemed to have been turning away from public 
service in recent years. There's so much cynicism and doubt. I want to 
help inspire them to realize that public service, service to their 
country, is a noble thing to do and a great way to give back for all 
the blessings of this great country.
    I have heard many good things about the Junior ROTC program and how 
well it has worked, particularly in many challenging inner city 
schools. Could you comment on the experience the military services have 
had with Junior ROTC?
    General Myers. The Services like the Junior ROTC program, and the 
program is extremely popular with educators and community leaders. 
Junior ROTC was originally an Army program; however, since 1964 all the 
Services offer the program and benefit from its instruction designed to 
teach citizenship and leadership, while instilling self-esteem, 
teamwork, and self-discipline. Although Junior ROTC is not a recruiting 
tool, traditionally about 45 percent of high school graduates with more 
than 2 years participation in the program end up with some military 
affiliation. Recent surveys reveal that youth who have been exposed to 
people with military experience enjoy a far greater understanding of 
the nature of military life than those who had no such exposure. A 
challenge confronted by recruiter's centers on the fact that a smaller 
military generates fewer veterans in communities and schools around the 
Nation. The Junior ROTC program represents an excellent means to 
address that problem. Moreover, the program builds better citizens, 
which strengthens the Nation and generates military awareness among 
youth and those who influence their career decisions.

    7. Senator Dole. General Myers, are we doing enough to make the 
Junior ROTC program more widely available, particularly to urban and 
inner city schools?
    General Myers. All interested schools are urged to apply to the 
Department of Defense for this program. Currently 450,000 students in 
2,900 secondary schools participate. Additionally, there are more than 
750 secondary schools on Service waiting lists with more applying. We 
will achieve the previously funded goal of 3,500 units by fiscal year 
2006; however, funding for expansion beyond this is not programmed at 
this time.

    8. Senator Dole. General Myers, is this very cost-effective program 
adequately funded?
    General Myers. Yes. The Department recognizes the strength of this 
program and continues its growth to meet our needs. In fiscal year 
2003, the Department budgeted over $252 million in JROTC, a 5-percent 
increase from fiscal year 2002.

                            FORCE READINESS

    9. Senator Dole. General Myers, in your prepared testimony you 
describe in some detail that U.S. forces are widely deployed and that 
threats to U.S. interests have not abated. You add that we have the 
capability to be militarily successful across a broad range of 
contingencies. As I look at the immense task facing our Armed Forces, I 
have some concerns about our ability to maintain the high combat-ready 
status of our forces. To consider the possibility of war in Iraq, while 
facing the reality of the ongoing war against terrorism focused in 
Afghanistan and the possibility of conflict on the Korean Peninsula, it 
really is daunting. What I want to ask you about is readiness. I know 
that you understand the importance of and want to sustain proper levels 
of training, ensure adequate supplies of equipment and spares, and 
perform needed equipment maintenance. How long can we sustain this 
deployment pace? If another deployment is required within the next 6 
months, will we be able to support it with trained and ready forces?
    General Myers. Our forces are postured and ready to conduct 
operations as directed by the President. We can maintain and sustain 
this posture for the foreseeable future by maintaining readiness levels 
through a variety of measures to include in-theater training and select 
unit rotations. However, the current pace of operations and future 
potential operations is not cost-free, and requires the services and 
Combatant Commanders to carefully manage assets and units that are in 
high demand, but in small numbers. The demand for critical capabilities 
(such as manned and unmanned intelligence, surveillance and 
reconnaissance assets, Special Operations Forces, intelligence analysts 
and linguists and command/control assets) has increased significantly 
with multiple contingencies. We will continue to prioritize the use of 
these critical units to preserve our surge capability to support future 
operations with trained and ready forces.

    10. Senator Dole. General Myers, are we getting stretched too thin? 
Can we feel confident that the safety of the equipment and of our men 
and women is not being compromised?
    General Myers. While our current posture of engagement is 
demanding, we are not stretched too thin. We possess the forces 
necessary to meet the demands of the Defense Strategy. Certainly our 
soldiers, sailors, airmen, and marines are working at an increased 
operational pace; a pace we would not want to sustain indefinitely, but 
when vital U.S. interests are at risk, our Armed Forces are eager to 
meet these challenges. Furthermore, the safety of our Armed Forces 
remains a top priority of mine and it is shared by the Joint Chiefs of 
Staff. Our forces have the best training and equipment available to 
ensure their safety is not compromised. Finally, we must continue to 
fund our forces' training and associated operations and maintenance 
accounts, to ensure their continued readiness and safety is sustained.

    11. Senator Dole. General Myers, are you seeing an impact on morale 
of the troops? How about the families?
    General Myers. The morale of troops is high. Service members are 
reporting a great deal of satisfaction with military life. Thanks to 
the help of Congress, several years of steady improvements in pay, 
benefits, and attention to quality of life issues have all contributed 
to high morale.
    We are aggressively working to ensure families have the support 
they need during these stressful times and that the families have been 
contacted or receive information as quickly as possible to help them 
prepare for mobilization and deployment. Further, the family support 
professional and volunteer staffs are making every effort to reach out 
to the spouses, children, and parents of our Service members. Military 
families come together in times like these. This is part of the 
military's true strength.

    12. Senator Dole. General Myers, are there lessons that have been 
learned from the tragedies which occurred at Fort Bragg? Are the 
military services doing enough to ensure family readiness in this time 
of rapidly repeated deployments?
    General Myers. The Services already have plans to assist Service 
members and families with reunion once this contingency is complete. 
Helping families reunite is part of our family support tradition. In 
the process, if our professionals identify Service members and families 
in stress during reunion, we will provide additional professional 
resources to assist them.
    All the Services have programs in place or have redirected 
resources to expand current capabilities to meet a wide variety of 
family needs during sustainment and post-operational phases. They are 
also using traditional media and technology to reach out to the Total 
Force, including those off the installations and Guard and Reserves to 
help keep family members connected.

    13. Senator Dole. General Myers, how can we in Congress help you?
    General Myers. With Congress' strong support, we have made 
significant progress in the war on terrorism and our overall military 
capabilities. However, maintaining readiness to meet the threats is a 
long-term commitment requiring critical congressional support. Timely 
approval of Defense budget supplemental funding is essential to 
maintaining current operations without negatively impacting readiness, 
training, and re-setting the force. With Congress' continued unwavering 
support, we will sustain our Armed Forces most decisive element--the 
individual soldier, sailor, airman, and marine . . . and will ensure we 
are prepared to meet all the threats to our national interests.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                       FORCE REQUIREMENTS IN IRAQ

    14. Senator Bill Nelson. Secretary Rumsfeld, any invasion of Iraq 
will likely require a large number of U.S. troops to serve in an 
occupation/stabilization force after the fighting stops. The size of 
this force will be larger if the United States attacks Iraq without 
U.N. sanction or NATO cooperation. If a war with Iraq takes place and 
substantial U.S. military forces are required to occupy Iraq in its 
aftermath, how would providing a large occupation force impact other 
operations in the global war on terrorism?
    Secretary Rumsfeld. We cannot provide an exact answer to your 
question until more is known about the nature of the post-conflict 
environment. However, the U.S. Government will continue to pursue the 
various elements of this global war on terror simultaneously with any 
post-war operations in Iraq. The conflict with Iraq is an integral part 
of the larger global war on terrorism. Preventing regimes that support 
terror from acquiring weapons of mass destruction is a key objective in 
this war. The ``Coalition of the Willing'' supporting the war in Iraq 
continues to build. We expect both the U.N. and NATO to contribute to 
the post-war effort. This participation will relieve many U.S. troops 
who participated in the war effort, allowing us to remain prepared for 
other contingencies, including other aspects of the war on terrorism.

    15. Senator Bill Nelson. Secretary Rumsfeld, will the United States 
need to mobilize additional Reserve Forces to carry out this occupation 
and stabilization mission?
    Secretary Rumsfeld. The U.S. should not need to mobilize additional 
forces to maintain post-war stability in Iraq. We have mobilized 
sufficient forces to continue our ongoing operations, meet our 
international commitments, and continue to protect the American 
homeland. After we have liberated Iraq, we expect a ``Coalition of the 
Willing'' will aid the U.S. in maintaining stability in Iraq as a 
representative Iraqi government is formed. We expect many nations that 
are not currently participating in military operations will support 
post-war stability operations in Iraq. Consequently, the U.S. will have 
the opportunity to reduce the number of troops committed to Iraq after 
liberation is complete.

                       OPERATIONS IN AFGHANISTAN

    16. Senator Bill Nelson. Secretary Rumsfeld, forces in Afghanistan 
continue to conduct dangerous combat operations. In recent weeks, U.S. 
forces completed the largest ground battle with al Qaeda and Taliban 
elements since Operation Anaconda. Are U.S. operations being hampered 
by the ``safe haven'' in the ungoverned areas of western Pakistan that 
al Qaeda and Taliban forces are using?
    Secretary Rumsfeld. Pursuing the Taliban and al Qaeda elements in 
the Afghan-Pakistan border area is an important mission. The U.S. will 
not allow elements of the Taliban and al Qaeda operating in this area 
to succeed in destabilizing the newly formed Afghan government. U.S. 
and Coalition Forces, in close coordination with Pakistani military 
forces operating in western Pakistan, will continue to target those 
border areas harboring remnants of al Qaeda and Taliban forces. We will 
work closely with the Pakistani government to target and destroy the 
remnants of al Qaeda and Taliban forces in those areas.

    17. Senator Bill Nelson. Secretary Rumsfeld, how do you see U.S. 
combat operations in Afghanistan evolving over the next year and do you 
feel the combatant commander has sufficient forces to accomplish the 
missions laid out by the President?
    Secretary Rumsfeld. U.S. combat operations will continue to focus 
on targeting and destroying the remnants of terrorist forces in 
Afghanistan. We are also in the initial stages of increased stability 
operations with the deployment of Provincial Reconstruction Teams. The 
Commanding General of Combined Joint Task Force 180 in Bagram has 
sufficient forces in Afghanistan to successfully accomplish the 
missions laid out by the President.

                       SPECIAL OPERATIONS FORCES

    18. Senator Bill Nelson. Secretary Rumsfeld, the President's budget 
includes a significant increase in funding for Special Operations 
Forces (SOFs). SOFs are busier than ever, but there are real limits to 
how big these forces can be without compromising their quality. In 
future years, how do you see the Department managing the challenge of 
ever-increasing operational tempo for these forces with the inherently 
limited size of Special Operations units?
    Secretary Rumsfeld. I agree with the basic thrust of this question. 
SOF can not be mass-produced. It is the human dimension of Special 
Operations Forces, not necessarily the hardware, which makes U.S. 
Special Operations Command (USSOCOM) such a capable command. We are 
therefore looking at several ways to mitigate the OPTEMPO impacts the 
war on terrorism has on SOF units.
    The worldwide operational tempo for SOF has been significant over 
recent years. However, the quality of SOF personnel has remained high 
and the retention of seasoned professionals has consistently met 
readiness requirements, though its something we monitor very carefully. 
One reason that SOF personnel growth must be limited is that gaining 
the required proficiency and specialization in key SOF capabilities 
takes time. This limits how rapidly the force can grow.
    Over the past year, we conducted a comprehensive study to review 
the alignment of SOFs with the defense strategy. The study underscored 
the need to increase the size of our SOFs in a prudent, measured 
fashion. The President's budget request for fiscal year 2004 includes 
more than 1,890 new SOF personnel, an increase of approximately 4 
percent. These new personnel will be spread among the USSOCOM 
headquarters, its component commands, and the regional special 
operations commands.
    We are also conducting an assessment of both SOF core and 
collateral missions and capabilities required for the global war on 
terrorism. As we transform the services, it is likely that some 
conventional forces could perform missions now commonly associated with 
SOF. If other forces become able to perform certain collateral 
missions, it should be possible for our SOFs to concentrate more fully 
on the core missions needed to win the war on terrorism.
    For example, the USSOCOM and the U.S. Marine Corps are examining 
how SOF and U.S. Marine forces can operate together to undertake a 
range of contingencies that might have been done exclusively by SOF in 
the past. Likewise, certain ``train and equip'' missions combined with 
a more effective phasing of operations may allow SOFs to be employed 
earlier in an operation to set the parameters of the effort, and then 
be replaced by conventional forces.

    19. Senator Bill Nelson. Secretary Rumsfeld, how will managing this 
challenge affect the global war on terrorism in the long term?
    Secretary Rumsfeld. Our strategic focus initially is on disrupting, 
defeating, and destroying al Qaeda, with a particular emphasis on its 
leadership and operational planning and coordination structure. The 
USSOCOM is playing a key role in this effort. As the lead command for 
the Department's global war on terror, USSOCOM will plan and 
selectively execute combat missions against terrorists and terrorist 
organizations around the world.
    This expanded operational role is in addition to the traditional 
role that the USSOCOM plays (i.e. providing SOFs and materiel to the 
various regional Combatant Commanders, who then plan and direct 
missions that fall within their purview).
    The war against terrorism requires seamless cooperation and 
collaboration by the Department of Defense with many Federal agencies 
and departments, ranging from the Department of State and our 
Ambassadors overseas to the Intelligence Community, the Departments of 
Justice and Treasury, and others. USSOCOM has recognized this need for 
cross-functional coordination, and has established a planning 
capability that is augmented by interagency liaisons. Contingency 
planning will be done more rapidly than is traditionally the case since 
we often are dealing with fleeting targets and fragmentary 
intelligence. Of course, SOFs are not always the best option, or the 
only option. Cooperative host nation security forces, other allies, or 
other arms of the U.S. Government may prove better positioned to 
undertake key missions successfully.
    Since the global war on terrorism began, we have pointed out that 
it is a war unlike any other war that our country has ever fought. 
Victory requires new ways of thinking, new ways of fighting, and a good 
deal of patience and fortitude. As we move forward in transforming the 
Department, the role of our SOFs--their missions required capabilities, 
and organizational structures and manning--will be a core element of 
attention. Their effectiveness and the retention and recruitment of 
others to join the ranks of our SOFs will not be jeopardized.

                             RESERVE FORCES

    20. Senator Bill Nelson. Secretary Rumsfeld, current and future 
operations in the global war on terrorism are increasingly requiring 
mobilization of large numbers of Reserve component forces. Mobilization 
of these patriotic citizen-soldiers is, of course, a burden on 
thousands of families and communities nationwide. Looking into the 
future, what do you think the long-term impact of extended and frequent 
Reserve mobilizations will be on the strength and vitality of the 
Reserve Forces?
    Secretary Rumsfeld. Reserve Forces are and will continue to be an 
indispensable part of the total military posture of the department. One 
of the most immediate factors affecting the long-term impact on Reserve 
Forces is how well mobilization and demobilization are managed. In an 
effort to limit disruption for reservists, their employers, families, 
and communities, DOD policy directed that initial orders to active duty 
not exceed 12 months. DOD policy also has stressed the principles of 
using Reserve components judiciously, considering the expectations of 
individual members, relying on volunteers to the maximum extent 
feasible, ensuring guardsmen and reservists are brought on active duty 
only to perform meaningful tasks and retaining them on active duty only 
as long as absolutely necessary. If history is a predictor of future 
success, the steps we have taken should mitigate any adverse impact on 
recruiting and retention. In fact, when reservists feel that their 
service is meaningful, they are more likely to remain with us.
    The frequency and duration of Reserve mobilizations can be reduced 
through rebalancing Active and Reserve Force mix and reassigning 
missions to take advantage of Active and Reserve core competencies. 
Rebalancing the existing force mix can expand and enhance Total Force 
capabilities within current end strength. Changes are being considered 
across the full spectrum of capabilities in each component, to increase 
force agility, enable better management of operational tempo, and to 
foster closer integration between Active and Reserve components. These 
changes will allow the Services to lessen stress and enhance the 
strength and vitality of the Reserve Force.
    In addition, current force management policies and systems are not 
as efficient or consistent with the way the force is used. Personnel 
management practices are being streamlined to achieve greater 
flexibility in accessing and managing personnel throughout a military 
career that may span both Active and Reserve service--or across a 
``continuum of service.'' Creating the conditions for ``seamless'' flow 
between regular and Reserve service, and providing for varying levels 
of part-time participation will improve efficiency of force management 
and provide more flexibility for recruiting and retaining a quality 
force.
    Financial incentives, meaningful training, and proper use of our 
Reserve Force are required to ensure retention of trained human 
resources, but, first and foremost, is the need to attract quality 
individuals into Reserve military service. Strengthening recruiting 
efforts in the college market bolsters the Reserve Force through 
improved quality and service, given that there is a direct correlation 
between education levels and retention beyond the initial military 
enlistment.
    In the future, we see the Reserves as a terrific way to bring 
diverse skills and experience to the military from the civil sector, 
that is hard to grow, train, and maintain in the regular forces. These 
may include medical, language, information technology and other 
technical skills. This will necessitate innovative affiliation programs 
and alternatives for accessing and retaining individuals into the 
Reserve components. The result can be a more cost-effective way to 
provide the military with cutting-edge technology and exposure to the 
new and innovative practices and approaches employed by industry and 
the private sector.
    The Reserve components will continue to be a significant and cost-
effective part of the Total Force, and force rebalancing and creative 
force management can only enhance the strength and vitality of this 
essential element of the military and the American society.

    21. Senator Bill Nelson. Secretary Rumsfeld, in addition, is the 
current mobilization causing you to re-think both the size and 
structure of the Reserve Forces?
    Secretary Rumsfeld. The current mobilization by itself does not 
cause the Department to re-think the size and structure of the Reserve 
Forces. What it does do is confirm that the strategic landscape and 
evolving geo-political environment, as described in many of our 
national security documents, requires that the U.S. possess 
capabilities that are responsive, agile, and able to meet these 
emerging challenges of the 21st century. The current mobilization also 
helps in gaining insight on whether the force size, structure, and mix 
are optimized to execute the U.S. Defense Strategy in support of the 
National Security Strategy.
    The Department has embarked on an ambitious transformation to meet 
these challenges. As we continue to progress in our transformation, we 
are examining ways to significantly increase the value of each element 
of our military, to include exploration of opportunities to restructure 
and reorganize our force appropriately. This includes the Reserve 
component. In order to ensure that we progress on this path of 
transformation smartly, we initiated a series of analytical studies to 
determine what is the best force structure to support our strategy for 
the 21st century and what is the appropriate mix of the force in our 
Active and Reserve components.
    The first study, which resulted from the Quadrennial Defense 
Review, was the ``Review of Reserve Component Contributions to National 
Defense.'' This study focused on how we could best utilize our Reserve 
component forces in a more efficient and effective manner. Some 
innovative concepts derived from this study include: the establishment 
of what we call a ``continuum of service,'' a personnel management 
process to better integrate the Active and Reserve Forces by making it 
easier for personnel to move back and forth between Active and Reserve 
service several times during a career, potentially increasing their 
level of participation and resulting in more engaged and longer service 
to the Department; increased use of volunteerism for select individuals 
and units to expedite the mobilization process making Reserve call-ups 
more responsive; and creating Reserve capabilities stateside that 
Combatant Commanders can utilize with reach back techniques that reduce 
theater footprint, deployment costs, and relieve deployment 
requirements and stress in some of our Reserve component forces.
    The second study is the ``Operational Availability Study.'' 
Directed in Defense Planning Guidance 2004, this study assesses how 
best to utilize future joint military capabilities and force employment 
timelines to execute the Defense Strategy. Emerging insights evolving 
from this study include recommendations of future force size, 
structure, and mix required to support the Defense Strategy in the 21st 
century.
    The third study, ``AC/RC Mix and Strategic Surprise'' examines 
innovative management techniques and force structure adjustments that 
improve the agility and responsiveness of the Reserve components.

    22. Senator Bill Nelson. Secretary Rumsfeld, are the kinds of units 
that are in the various Reserve components the right ones?
    Secretary Rumsfeld. The demands on the Department of Defense have 
evolved since the end of the Cold War and appear to be increasing 
exponentially in the 21st century as we continue the global war on 
terrorism. Both Active and Reserve components are being used more 
frequently and in a wider variety of missions.
    In the past, the Reserve components were structured as a repository 
for capabilities needed to meet the later phases of major theater wars. 
Due in a large part to the changing strategic landscape and 
geopolitical environment over the past years, reliance on Reserve 
capabilities has increased dramatically and migrated into every 
deployment across the spectrum of conflict. As a result, capabilities 
that reside predominantly in the Reserves today, such as civil affairs, 
port opening, Air Naval Gunfire Liaison Companies, and Combat Search 
and Rescue, are needed early and often, and must be mobilized quickly 
in a deployment. This reliance in every operation degrades the 
military's responsiveness, flexibility, and agility needed to support 
the Defense Strategy and meet the emerging challenges of the 21st 
century.
    In that regard, the Department is finalizing two major studies that 
address this very issue of rebalancing the force to meet the National 
Security Strategy. The ``Review of Reserve Component Contributions to 
National Defense'' and the ``Operational Availability Study'' will 
recommend ways to rebalance the Total Force within current end-strength 
to make a more effective and judicious use of all components, not just 
for today but also as we transform to the future force.

                              SPACE ASSETS

    23. Senator Bill Nelson. Secretary Rumsfeld, the recent Space 
Shuttle Columbia tragedy has the Nation reassessing the value of space 
exploration, experimentation, and operations. Many of us understand the 
inherent and essential military value of space as an operational 
medium. The President's budget for fiscal year 2004 demonstrates a 
significant commitment to upgrading and expanding U.S. military space 
assets. Could you expand on the role of space in defense transformation 
and how transformation in military space assets will evolve in the 
coming years?
    Secretary Rumsfeld. It would be difficult to achieve our national 
security objectives without the capabilities provided by our national 
security space systems. For example: communications, reconnaissance, 
surveillance, and precision navigation are all integral to our 
peacetime and crisis responsibilities and the effectiveness of our 
military forces. We are looking at entirely new areas and technologies 
that could transform our military strategies. The modernization 
investments we are making are to provide highly advanced space system 
capabilities and the science and technology investments are to provide 
the technologies that would allow entirely new capabilities to be 
developed transforming how we use space to meet our mission needs. We 
will be demonstrating, acquiring, and fielding these capabilities over 
the years to come. Some examples, not in priority order or inclusive 
are:

        <bullet> Developing persistent intelligence, surveillance, and 
        reconnaissance (ISR), including moving target tracking and 
        maintaining a common operating picture of the battlefield. 
        Space-based radar (SBR) is a key element and will provide the 
        capability to look deeply and persistently into areas that are 
        inaccessible to current platforms due to political 
        restrictions, geographical constraints, or the technological 
        limitations of legacy systems
        <bullet> Developing an advanced space delivery vehicle, the 
        Common Aero Vehicle (CAV), capable of delivering and dispensing 
        conventional payloads worldwide from and through space within 
        minutes of tasking with precision accuracy and an array of 
        conventional payloads to include effectively attacking soft and 
        hardened fixed targets, and mobile targets.
        <bullet> Developing a reusable, quick-reaction launch 
        capability to deploy small satellites required to fill short-
        term, focused warfighter needs in ISR and communications. 
        Developing the capability to perform on-orbit servicing of 
        satellites (refueling and component change out) to extend 
        lifetimes and upgrade/fix components.
        <bullet> Providing total space awareness and the ability to 
        control all areas of space whenever necessary, including 
        protection of vital space assets and space denial to 
        adversaries.
        <bullet> Transformational Military Satellite Communications 
        with laser-com in conjunction with the advanced extremely high 
        frequency (AEHF) satellites to provide greatly expanded 
        capacity for survivable and jam-resistant communications and 
        data throughput for global transmission to tactical joint 
        warfighters.
        <bullet> Deployment of the Space-based Infrared Satellite 
        (SBIRS)-High is key to enabling the transformational ability to 
        defend the United States against ballistic missile attack and 
        significantly improve our capabilities in the four mission 
        areas: missile warning, missile defense, technical 
        intelligence, and battle space characterization.

    24. Senator Bill Nelson. Secretary Rumsfeld, I have long argued 
that a national space policy that limits DOD's role in reusable launch 
vehicle development may need to be revisited to allow significant DOD 
contribution to the Space Launch Initiative. What is your position on 
the future of cooperation with NASA for critical common space functions 
such as space lift, both expendable and reusable?
    Secretary Rumsfeld. The current national space policy does not 
preclude or limit DOD investment in reuseable launch vehicle (RLV) 
development--it assigns lead responsibility for expendable launch 
vehicle (ELV) development to DOD and lead responsibility for RLV 
development to NASA. I believe it is vital for DOD and NASA to 
coordinate research and development efforts in areas of common need.
    The Department of Defense and NASA are collaborating on 
technologies supporting the National Aerospace Initiative (NAI) 
designed to overcome the barriers of high speed/hypersonic flight, 
space access, and space technology. NAI coordinates ongoing and new DOD 
investments proposed in the fiscal year 2004 President's budget request 
with those of NASA under the Space Launch Initiative/Next Generation 
Launch Technology (SLI-NGLT) program. This initiative will develop and 
demonstrate a portfolio of critical technologies that will enable the 
achievement of many common aerospace goals--such as supersonic/
hypersonic capabilities; safe, affordable, launch-on-demand space 
access; and responsive payloads for quick deployment and employment of 
space capabilities--and help to ensure continued American aerospace 
leadership in the 21st century.

    25. Senator Bill Nelson. Secretary Rumsfeld, do you anticipate 
using the shuttle to meet DOD and Air Force space delivery requirements 
in the future?
    Secretary Rumsfeld. At this time, DOD and the Air Force have no 
plans to use the space shuttle to satisfy DOD space delivery 
requirements. We plan on meeting our assured access to space needs with 
the new EELV systems. EELV will satisfy all planned and programmed 
spacelift requirements, and has the flexibility and redundancy to 
eliminate the need for DOD to maintain the shuttle as a back up 
capability. The EELV is less expensive than the shuttle and eliminates 
the extensive lead time for payload integration on the shuttle. The 
shuttle Columbia was the only orbiter capable of carrying large DOD 
payloads; the modifications of the other shuttles to service the 
International Space Station limit their payload capacity.
    DOD will continue to fly small Space Test Program (STP) experiments 
on the shuttle as a means of getting science and technology payloads 
into orbit. Flying STP on the shuttle makes use of available cargo 
space on the shuttle at a minimal cost to DOD (approximately $3 million 
a year for six payloads).

                            NUCLEAR TESTING

    26. Senator Bill Nelson. Secretary Rumsfeld, currently, the United 
States can perform a nuclear test within 24-36 months of receiving the 
applicable Presidential Decision Directive. Do you believe that 
nuclear-test-readiness should be shortened? What do you think is the 
appropriate time frame: 3 months, 6 months, a year?
    Secretary Rumsfeld. Yes. Following the 1992 moratorium on 
underground nuclear testing, the Stockpile Stewardship Program (SSP) 
has dealt successfully with problems that were discovered in the 
stockpile. There are, however, no guarantees that it can continue to do 
so indefinitely. As the stockpile ages, the accumulation of 
modifications or the discovery of other latent problems may exceed 
SSP's capabilities. Should this situation arise, it may become 
necessary to conduct underground nuclear tests to confirm the safety or 
reliability of the warhead in question.
    Should nuclear testing be required, we must be prepared to conduct 
the necessary tests in a timely fashion so that the Department of 
Energy's weapon laboratories can resolve a question about stockpile 
safety and reliability. We believe that the current 24-36 month test 
readiness posture is too long and must be shortened. The Department is 
working with the Department of Energy on an initiative directed by 
Congress (Fiscal Year 2003 National Defense Authorization Act, PL 107-
314, Sec. 3142) to develop plans for moving to higher levels of test 
readiness.

    27. Senator Bill Nelson. Secretary Rumsfeld, the chairman of the 
Nuclear Weapons Council has established a panel to examine ``the risks 
associated with not testing our nuclear weapons.'' Do you believe that 
there is currently a reason to be concerned with the long-term 
capability of stockpile stewardship? What, in particular, is the cause 
for concern?
    Secretary Rumsfeld. To date, the experts have not raised any safety 
or reliability concerns that would lead me to make a recommendation to 
the President that the U.S. should resume testing. Since the United 
States conducted its last nuclear test more than 10 years ago, 
scientists have relied on a combination of non-nuclear experiments and 
computer simulations as part of the SSP to attest to the safety, 
security, and reliability of our nuclear weapons. There are no 
guarantees, however, that the Department of Energy's scientists and 
engineers will be able to depend on SSP indefinitely. It is prudent to 
be prepared and thoroughly examine the basis for confidence in the 
stockpile and the Nation's ability to continue to certify weapons as 
safe and reliable. The purpose of this panel established by the Nuclear 
Weapons Council is to conduct a thorough review of all aspects of our 
nuclear program, including test readiness.

                             SCOTT SPEICHER

    28. Senator Bill Nelson. Secretary Rumsfeld, I'm sure you are 
familiar with the case of Captain Scott Speicher, who was lost over 
Iraq in the opening hours of the Gulf War. Is there new information on 
the status of Captain Scott Speicher?
    Secretary Rumsfeld. We continue to receive new reporting on Captain 
Speicher. We thoroughly analyze and review every report for relevancy 
to his case.

    29. Senator Bill Nelson. Secretary Rumsfeld, to your knowledge, are 
regional intelligence agencies in the Middle East cooperating with U.S. 
efforts to resolve his status?
    Secretary Rumsfeld. The Intelligence Community requested 
intelligence information and assistance on the Captain Speicher case 
from numerous countries, including those in the Middle East.

               TESTING OF CHEMICAL AND BIOLOGICAL WEAPONS

    30. Senator Bill Nelson. Secretary Rumsfeld, I appreciate the 
Department of Defense's efforts to date to investigate and declassify 
information on the Shipboard Hazard and Defense (SHAD) and Project 112 
chemical and biological testing. It is critical that the United States 
come clean on this issue and that our veterans who may have been 
exposed to dangerous chemicals in these tests are notified so that they 
can seek treatment. While the full information on the location, nature, 
and military personnel involved in these tests has yet to come out, I 
believe we are making progress on this issue and I thank you for your 
efforts. In the coming year and in the future, when do you expect full 
disclosure of the SHAD/Project 112 testing programs will be complete?
    Secretary Rumsfeld. The Department of Defense is committed to 
completing its investigation of Project 112/SHAD and releasing all 
medically relevant information by June 2003.

    31. Senator Bill Nelson. Secretary Rumsfeld, beyond the SHAD/
Project 112 disclosure program, do you support expansion of these 
efforts into ALL Cold War-era chemical and biological weapons testing?
    Secretary Rumsfeld. If the Department of Veterans Affairs requests 
information from DOD necessary for adjudication of veterans' benefits 
claims, DOD would attempt to be responsive, to the extent feasible and 
consistent with continuing national security classification 
requirements.

    32. Senator Bill Nelson. Secretary Rumsfeld, what can Congress do 
to assist the DOD with these efforts?
    Secretary Rumsfeld. The Departments of Defense and Veterans Affairs 
have all the authority necessary to address these issues.

                        JOINT SIMULATION PROGRAM

    33. Senator Bill Nelson. Secretary Rumsfeld, I have been made aware 
of a DOD Program Decision Memorandum (PDM) directing the cancellation 
of the Joint Simulation System (JSIMS) program in fiscal year 2004 and 
through the FYDP. I and other members on the Armed Services Committee 
who care deeply about the pace and scope of efforts to increase joint 
experimentation, joint training, creation of a standing joint 
operational headquarters, and joint requirements and acquisition 
validation, are troubled by this development.
    The program is intended to provide a joint simulation capability to 
``integrate'' service simulations allowing for joint training and 
experimentation at strategic, operational, and tactical levels. This 
kind of tool is essential to any effort to move the military 
establishment to greater joint training, doctrine, and experimentation.
    This program has received significant congressional attention and 
support over the years, despite its ups and downs. There is great 
concern that we have abandoned the single tool essential to successful 
joint training and experimentation. What analysis (program management, 
operational requirements, etc.) informs this decision and provides the 
compelling justification for so dramatic and comprehensive a reduction?
    Secretary Rumsfeld. The Department added significant resources on 
three occasions to provide full funding for the JSIMS program and keep 
it on schedule. In August 1999, $7.9 million was reprogrammed to ensure 
an Initial Operational Capability (IOC) of April 2001. In August 2000, 
an additional $265.5 million was allocated for fiscal year 2002-2007 to 
support a rescheduled IOC of March 2002. Several months later, during 
the budget review, a further $7.4 million increase was approved for 
fiscal year 2001-2002, to address shortfalls identified late in the 
process by the program office.
    Several changes also were made to the management structure in an 
attempt to improve program performance and keep development on track. 
In December 1999, the program was given an ACAT-1D (Acquisition 
Category 1D) designation to increase management oversight. In January 
2000, the Army was directed to appoint a full-time program manager. At 
the same time, the program office was instructed to produce a cost 
estimate, split JSIMS development into blocks, and develop appropriate 
acquisition documents. Although some of these measures were adopted, 
problems persisted. By December 2002, the official IOC date had slid to 
March 2005.
    In addition to standard ACAT-1D oversight, there were at least four 
other reviews to assist program management, two of which were led by 
former Directors of Defense Research and Engineering. In December 1999, 
the Senior Review Board directed the program office to reconfigure its 
development plan around the Department's High-Level Architecture 
standard. Then, in 2001, an independent panel led by Dr. Anita Jones 
concluded that JSIMS needed to establish sound performance-prediction 
capabilities and improve its integration with its major partners, like 
the Army's Warfighter Simulation program. That same year, an audit 
conducted by the Army Materiel Command concluded that current 
engineering practices would not resolve performance issues within cost 
and schedule constraints. Finally, in December 2002, another 
independent review team, this time headed by Dr. Dolores Etter, 
recommended looking externally for commercial technologies and 
strategies that support scalability in order to facilitate spiral 
development for future JSIMS blocks. Dr. Etter's team also recommended 
an independent outside assessment of the JSIMS architecture. All of 
these reviews, in addition to numerous ACAT-1D assessments, highlighted 
serious concerns about the technical and performance standards for 
JSIMS. The decision to conduct an Analysis of Alternatives (AoA) before 
proceeding with further JSIMS development is consistent with the 
results of these reviews.

    34. Senator Bill Nelson. Secretary Rumsfeld, what alternatives are 
DOD/JFCOM considering to meet the requirement for a simulation tool 
that supports joint training, joint experimentation, and joint program 
evaluation?
    Secretary Rumsfeld. This question will be addressed by the AoA and 
cannot be definitively answered before the study is complete. Final 
guidance is now being developed, but the AoA will likely consider the 
following alternatives: (1) continuing the JSIMS program, (2) 
separating the joint and service JSIMS elements and pursuing them as 
independent programs, (3) modifying existing simulations, and (4) 
commercial sources.

    35. Senator Bill Nelson. Secretary Rumsfeld, how will DOD/JFCOM 
support, and who will be responsible for a new joint simulation program 
in the fiscal year 2004 request?
    Secretary Rumsfeld. A new joint simulation is not funded in the 
fiscal year 2004 budget. The Department has initiated an AoA to 
identify the most cost-effective approach for meeting joint and service 
training requirements. Until the AoA is complete, we cannot say whether 
a new program ultimately might be needed.

    36. Senator Bill Nelson. Secretary Rumsfeld, Congress appropriated 
millions of dollars for JSIMS and its related Service programs in 
fiscal year 2003, how does DOD/JFCOM propose to use that funding now 
that they are all (with one exception) zeroed in the fiscal year 2004 
request and FYDP?
    Secretary Rumsfeld. All fiscal year 2003 funds remained with the 
program to ensure delivery of Block I software in accordance with 
program office estimates. The JSIMS Software Support Facility was 
funded at $14 million in fiscal year 2004, using monies originally 
planned for the JSIMS Program Office. The remaining $168.6 million in 
fiscal year 2004 funding proposed in the fiscal year 2003 President's 
budget was allocated to other priorities.

    37. Senator Bill Nelson. Secretary Rumsfeld, what is the current 
state of analysis and planning leading to creation of a Joint National 
Training Capability (JNTC)? What are the overarching challenges 
identified at this point to creation of a JNTC? How does cancellation 
of the JSIMS and related Service simulation programs contribute to the 
challenge or facilitate the creation of a JNTC?
    Secretary Rumsfeld. The JNTC program has an approved budget, and 
Joint Forces Command (JFCOM) is setting up a Joint Management Office. 
The implementation plan, now being drafted, will define what will be 
required to support JNTC certification and accreditation. Fiscal year 
2003 activities will include establishing and testing technical support 
requirements, determining opposing force capabilities, developing and 
testing data collection methods, and establishing and testing the 
exercise-control architecture. JFCOM is leading the planning for JNTC 
events in fiscal year 2004 and beyond.
    The overarching challenge for the program is to create a solution 
within a high-level architecture that provides for rapid integration of 
live, virtual, and constructive components so that trainees are 
immersed in a seamless, combat-like environment, without realizing that 
some aspects are virtual or constructive.
    JSIMS and JNTC are independent of each other, although JSIMS could 
be used by JNTC if it met JNTC requirements. Without JSIMS, JNTC will 
use legacy systems, complemented if necessary by new systems, to meet 
its objectives.

                           THE NATIONAL GUARD

    38. Senator Bill Nelson. Secretary Rumsfeld, as major contributors 
to the force structure and capability of the U.S. Army and U.S. Air 
Force, the National Guard must be a part of the plan to transform our 
military services and the command and control of the Department of 
Defense. While holding the National Guard forces in strategic reserve 
for the Active components may have successfully maintained a force for 
strategic reserve, the National Guard no longer operates only as a 
strategic reserve. Now, more than ever, the Army and Air National Guard 
are critical components of the Total Force and used in a much different 
manner than just 15 years ago. Such ``increased reliance'' upon our 
National Guard forces emphasizes that DOD should expand the authority 
of the National Guard Bureau within the Department of Defense to that 
of a separate entity. What is DOD doing to elevate the status of the 
National Guard Bureau to an independent agency status within DOD?
    Secretary Rumsfeld. The Department has no plans to elevate the 
status of the National Guard Bureau to an independent agency. The 
Department of Defense has sought and continues to stress full 
integration of the Reserve components, with each component making up an 
integral piece of the parent service. Both the Army and Air National 
Guard are essential parts of our seven Reserve components and account 
for approximately 33.8 percent and 19.7 percent of their parent service 
respectively (combined, 36.2 percent of the two services). We will 
continue to work closely with the National Guard Bureau to focus our 
efforts on the objective of complete integration of all of our Reserve 
components into the Total Force.
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh

                     NEWPORT CHEMICAL WEAPONS DEPOT

    39. Senator Bayh. Secretary Rumsfeld, I am pleased to see the 
accelerated neutralization initiative at the Newport Chemical Weapons 
Depot is on schedule to be completed as early as April 2004. What 
specifically does the Department of Defense intend to do with the 
facility once demilitarization is completed?
    Secretary Rumsfeld. The Army is conducting a study to ascertain 
reusability of the facilities. We will report our findings to Congress 
no later than March 31, 2003 as requested in the Senate Report 107-202 
(page 20).
    Note: A report was provided to Congress by the Army on March 31, 
2003, and a summary of the answer to Senator Bayh's questions from that 
report is as follows:
    All of the buildings involved with the neutralization process fall 
within the RCRA permit area. The chemical defense building (CDB) at 
Newport can not easily be fenced off from the rest of the site and 
excluded from this permit. As a result, the CDB is not compatible for 
any uses other than the demilitarization process.
    A portion of the partially completed CDB structure has been 
enclosed from the elements, and is now being used by the 
demilitarization contractor to support the construction activities 
associated with the chemical neutralization process. Once the 
neutralization process starts, it is anticipated the building will be 
used to support the chemical demilitarization effort.
    There are no current or potential Army requirements identified for 
any of the facilities at Newport Chemical Depot, IN, including the 
Chemical Demilitarization Building. The neutralization process is to 
run from September 2003 to May 2004. Until completion, the Army will 
not be able to give a full evaluation for other uses of the facilities. 
If any facilities remain after the decontamination/clean-up process, 
potential reuse by the Army or other entities will be reevaluated.

    40. Senator Bayh. Secretary Rumsfeld and General Myers, I wrote to 
you in November 2002 seeking your assistance in strengthening temporary 
flight restrictions currently in place over the Nation's eight chemical 
weapons depots. Unfortunately, it appears as though nothing has been 
done to deter pilots from violating the airspace over these facilities. 
In the last year alone, there have been almost 50 incursions of the 
airspace above Newport in my home state. I would like to know what 
specific steps you have taken to deter such incursions? In addition, I 
would like to know what the Pentagon has done to coordinate efforts 
with the Federal Aviation Administration to enforce the flight 
restrictions, and to report those who violate them?
    Secretary Rumsfeld. Senator Bayh, the Department of Defense shares 
your concern about violations of temporary flight restrictions over 
chemical weapons depot sites. However, DOD is not the lead Federal 
agency for either the establishment or the enforcement of temporary 
flight restrictions. If a violation occurs while we are flying a combat 
air patrol, DOD aircraft can intercept the offending aircraft and force 
it to change direction, or, in dire circumstances, shoot it down. 
Currently, the only option short of this is the imposition of 
administrative sanctions by the Federal Aviation Administration. We 
believe that there should be penalty options between these two 
extremes, and are working with other interagency members to define what 
these might be and how they might be implemented, using the National 
Capital Region as a guide.
    While DOD's actions are limited during periods of airspace 
violations over chemical weapons depots, the Department of Defense has 
taken significant steps to accelerate the chemical weapons destruction 
process at three of the remaining eight chemical stockpile sites. 
Accelerated destruction of these weapons equates to an accelerated 
reduction of risk to the public. The Army is implementing accelerated 
destruction of bulk chemical agent at the Aberdeen, Maryland and 
Newport, Indiana stockpiles. The Assembled Chemical Weapons Assessment 
(ACWA) program, under the direction of Under Secretary Aldridge, is 
accelerating destruction of the chemical weapons stockpile at Pueblo, 
Colorado. 
    General Myers. The DOD shares your concern about violations of 
temporary flight restrictions over chemical weapons depot sites. 
However, DOD is not the lead Federal agency for either the 
establishment or the enforcement of restricted airspace. If a 
restricted airspace is violated, DOD can scramble alert fighter 
aircraft or divert fighters flying combat air patrol to intercept the 
offending aircraft and attempt to force it to vacate the area. If the 
aircraft fails to respond to direction from DOD fighter aircraft and 
remains a threat to the protected asset, the DOD fighters could shoot 
down the threat as a last resort.
    The best way to keep aircraft from violating restricted airspace is 
through a thorough education program from the FAA, and establishment of 
significant penalties for violators by the FAA and law enforcement 
agencies. DOD continues to work with the Interagency, especially the 
new Department of Homeland Security, to establish security requirements 
and procedures to strengthen these temporary flight restrictions over 
sensitive areas.

                             BASE CLOSURES

    41. Senator Bayh. Secretary Rumsfeld, I have supported your goal 
for a new round of base closures in 2005 and applaud your efforts to 
bring our military force in line with our infrastructure. Looking ahead 
to the base closure and realignment process, and recognizing the 
Department's emphasis on joint service training and response, I would 
think that multiple service support in our shore establishment is 
critical from both a capability as well as an efficiency standpoint. Do 
you plan to include base closure criteria in the process that considers 
joint service support, and rewards those activities? In addition, as we 
examine the vital role that DOD plays in securing the homeland, will 
homeland defense capability be included in the base closure and 
realignment criteria?
    Secretary Rumsfeld. Section 2913(b) of the BRAC statute requires me 
to ensure that military value is the primary consideration in the 
making of closure and realignment recommendations. The statute further 
provides that military value shall include at a minimum the 
preservation of military installations in the United States as staging 
areas for the use of the Armed Forces in homeland defense missions. 
Consistent with these statutory requirements, I will make specific 
recommendations for military value selection criteria when I publish 
the selection criteria for public comment, no later than December 31, 
2003.

    42. Senator Bayh. Secretary Rumsfeld, I would like to know how, or 
if, September 11 has changed your thinking about the location and 
distribution of our military bases and installations in the United 
States?
    Secretary Rumsfeld. The events of September 11, 2001, have 
confirmed in my mind that the Department must act now to review our 
basing requirements. We are looking at and experiencing different 
threats than we were a decade ago, and our forces must be stationed 
appropriately to respond to contingencies and support the global war on 
terrorism.

                             TRANSFORMATION

    43. Senator Bayh. Secretary Rumsfeld, it is my understanding that 
you are proposing to terminate the M1A1 Abrams main battle tank and the 
M-113 family of armored vehicles. I am concerned about this decision 
and believe these time proven and effective systems have a critical 
role in the transformed Armed Forces. Of particular concern to me is 
how you will maintain these systems in outyears. Specifically, can you 
tell in detail how you will provide for transmission replacement and 
maintenance of these vehicles?
    Secretary Rumsfeld. The program the Department plans to terminate 
is the M1A2 System Enhancement Program (SEP) Retrofit Program. The M1A1 
Abrams Integrated Maintenance (AIM) program continues. This program 
remains effectively the same as planned in the Army's original 
recapitalization of the legacy force and modernization strategy. The 
AIM program will refurbish 790 M1A1 tanks at a planned rate of 135 
tanks per year from fiscal year 2002 through fiscal year 2006 and 115 
tanks in fiscal year 2007. Anniston Army Depot in Alabama, Lima Army 
Tank Plant in Ohio, and General Dynamics Land Systems Division, will 
perform the work. The M1A1 incorporates rebuilt, service life extension 
AGT 1500 engines, and selected subsystem improvements. To control 
costs, the AIM program plans to provide the transmission replacement 
and maintenance on these vehicles using existing stocks, to develop 
innovative repair and rebuild programs, to use excess vehicle line 
replaceable units, and to re-engineer components that are no longer 
procurable.
    The M113 Family of Vehicles system upgrade program is effectively 
terminated in fiscal year 2004. The remaining M113 work is the 
conversion of 77 M577A2s to M1068A3s (a conversion from an older to the 
new command post carrier variant of the M113), the incorporation of 
government-furnished equipment transmissions, and 476 sets of track for 
1st Cavalry Division M113s.

    [Whereupon, at 12:28 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

                              ----------                              


                       TUESDAY, FEBRUARY 25, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                             SERVICE CHIEFS

    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Roberts, Allard, Sessions, Collins, Ensign, Talent, Chambliss, 
Dole, Cornyn, Levin, Kennedy, Reed, Bill Nelson, Dayton, 
Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; Marie Fabrizio Dickinson, chief clerk; and Gabriella 
Eisen, nominations clerk.
    Majority staff members present: Brian R. Green, 
professional staff member; William C. Greenwalt, professional 
staff member; Mary Alice A. Hayward, professional staff member; 
Ambrose R. Hock, professional staff member; Gregory T. Kiley, 
professional staff member; Patricia L. Lewis, professional 
staff member; Thomas L. MacKenzie, professional staff member; 
Ann M. Mittermeyer, counsel; Lucian L. Niemeyer, professional 
staff member; Lynn F. Rusten, professional staff member; Joseph 
T. Sixeas, professional staff member; Scott W. Stucky, general 
counsel; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Kenneth M. Crosswait, professional staff member; 
Richard W. Fieldhouse, professional staff member; Creighton 
Greene, professional staff member; Maren R. Leed, professional 
staff member; Gerald J. Leeling, minority counsel; Peter K. 
Levine, minority counsel; and Bridget M. Whalan, special 
assistant.
    Staff assistants present: Andrew Kent, Sara R. Mareno, and 
Nicholas W. West.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; Dan Twining, assistant to Senator 
McCain; James Beauchamp, assistant to Senator Roberts; Jayson 
Roehl, assistant to Senator Allard; Arch Galloway II, assistant 
to Senator Sessions; James P. Dohoney, Jr., assistant to 
Senator Collins; James W. Irwin, assistant to Senator 
Chambliss; Henry J. Steenstra, assistant to Senator Dole; Mieke 
Y. Eoyang, assistant to Senator Kennedy; Terrence E. Sauvain 
and Erik Raven, assistants to Senator Byrd; Elizabeth King, 
assistant to Senator Reed; William K. Sutey and Peter A. 
Contostavlos, assistants to Senator Bill Nelson; Andrew 
Shapiro, assistant to Senator Clinton; and Randy Massanelli, 
assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone. The committee 
meets this morning to receive testimony from the chiefs of the 
military services in their annual posture statement on behalf 
of their respective branches to our committee. This is in 
regard to the President's fiscal year 2004 defense budget.
    Each of you bring great distinction to your Services and we 
are proud to have you here today. Last week, Senator Levin, 
Senator Roberts, Senator Rockefeller, and I had the privilege 
of visiting with U.S. military personnel in the Persian Gulf 
region, Afghanistan, and Pakistan. I say to you most 
respectfully and humbly, you have rightful pride in your men 
and women in the Armed Forces.
    We met with them at each stop last week, and they are the 
best, well-trained force to be found anywhere in the world 
today.
    We arose this morning to hear about the diplomatic efforts 
which are properly being pursued by our President and other 
world leaders in this problem with regard to Iraq. But that 
diplomacy begins with the men and women in uniform of the 
United States and other nations that are trying to secure peace 
in that part of the world and the elimination of weapons of 
mass destruction from Saddam Hussein and his regime.
    We would not see the diplomacy working at its hopefully 
best, be it in the Security Council or in the capitals of the 
world, had it not been for the foresight of our President and 
other world leaders to move in position their best and finest 
of the Armed Forces to make possible such progress that we all 
hope and pray for in diplomacy.
    That reflects directly upon each of you individually and 
those of you in your respective branches who made possible 
these fine, trained soldiers, sailors, airmen, and marines.
    Each year we have this hearing, but today it is a most 
important one. The honest and forthright observations of the 
Service Chiefs, professional as well as personal, are 
absolutely essential for the continuing work of this committee 
and the work of the Senate as a body at such times as we bring 
forth the bill and, indeed, the nominations that are frequently 
before the Senate with regard to the men and women of the Armed 
Forces.
    Time and time again, you and your predecessors have 
summoned the courage to point out the challenges to current and 
future readiness. Those of us who have been on this committee 
for many years, as Senator Levin and I have, can recall 
predecessors who have been in your positions whose forthright 
testimony has enabled this committee to give greater support to 
the men and women of the Armed Forces, and we are respectful of 
what you do to make that possible.
    Together you represent more than 120 years of military 
experience and distinguished service to the Nation. 
Individually, your understanding of what is required to 
organize, equip, train, and sustain your service in peacetime 
and in wartime is second to none.
    When General Myers testified before the committee 2 weeks 
ago, I asked him this question. I asked him whether he believed 
the Armed Forces were prepared to meet any contingency of the 
use of force as may be required in Iraq and continue their high 
level of activity against worldwide terrorism. His response was 
unhesitating. His response was succinct, one word: 
``Absolutely.''
    I and many others who have pondered the question over the 
past several months were assured by his confidence and his 
certainty. Clearly, much of your work and opinions contributed 
to the conclusion of the Chairman of the Joint Chiefs of Staff.
    Today, homeland security is our Nation's foremost urgent 
priority. As Senator Levin and I met with the troops in these 
far-most regions, we said to them that homeland defense begins 
right where they are, because to the extent they can deter, 
interdict, or if necessary, crush terrorists is the extent to 
which there is less chance that that terrorism is brought to 
the shores of our country against their families, against all 
of us here at home. Homeland defense begins beyond the shores 
of this Nation.
    As we meet this morning, our Armed Forces are fighting the 
war with terror with over 40 coalition partners from 
Afghanistan to the Philippines. In the case of Iraq, our 
President has quite properly, together with other world 
leaders, chosen the diplomatic path, working through the United 
Nations and the Security Council. But as I said earlier, we 
must ever be mindful that diplomacy can only be as effective as 
there is a clear and present credible military threat to use 
force to back up that diplomacy. Your troops are doing exactly 
that.
    The President's fiscal year 2004 defense budget request of 
$379.9 billion continues to increase in real terms the amount 
of funding available for each of the Services in total. This 
budget continues the President's considerable progress to date 
and continues his ongoing commitment to safeguard America, our 
allies, and our friends. It is increasingly clear, however, 
that today's global challenges are requiring much more of the 
Armed Forces.
    It is our responsibility on this committee, and Congress as 
a whole, to carefully monitor the degree to which these 
increase demands stress the overall readiness of the forces, 
the readiness of the individual service person, and the 
readiness of their families. We encountered on this trip some 
areas that we will bring to your attention this morning, areas 
in which we have concern, in all probability you have concern, 
and we need to know your recommendations how we can jointly 
work with you to correct it.
    As we discuss and debate this budget request in the days 
and weeks ahead, as is the duty of this committee and Congress, 
on one thing we can all agree: the commitment, the dedication, 
and performance of the soldiers, sailors, airmen, and marines 
in service to their Nation and that of their families in 
homeland defense is truly a remarkable blessing on this Nation. 
I thank you.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. I thank you, Mr. Chairman.
    As we meet and as our troops continue to flow towards the 
Iraq region, there are many issues relative to Iraq that are 
being debated here at home, around the world, and at the United 
Nations. It is appropriate that those issues be debated, 
including the question of whether or not it would be wise to 
initiate an attack against Iraq without the support of the 
world community acting through the United Nations, the fallout 
of such an attack long-term and short-term, what the 
alternatives are in terms of disarming or containing Saddam 
Hussein, and whether the world will be more or less secure if 
such an attack takes place without a unified world community 
speaking through the United Nations.
    There are many issues that are worthy of debate. But one 
thing is clear to me, that if in fact such an attack occurs, 
the short-term military outcome is not in doubt. I also believe 
very firmly that the Iraqi leaders should not infer from these 
debates that America will not be united in support of its 
forces in the field. Regardless of where we stand on the issues 
being debated, this country will be united if and when the time 
comes. We will provide our men and women in uniform with 
everything that they need to ensure that they prevail.
    As Senator Warner has mentioned, Senator Roberts, Senator 
Rockefeller, the chairman, and I just returned from the region. 
There was no doubt in our mind before we left that our military 
is by far the best-trained, best-equipped, and most capable 
fighting force in the world today, and nothing that we saw on 
our trip in any way raises any uncertainty about that 
conclusion.
    But our visit reassured us that there is a uniformly high 
state of morale among our forces and a willingness to implement 
orders from the Commander in Chief, whatever those orders may 
be. Their readiness can be attributed in significant measure to 
the hard work that the Service Chiefs and their staffs have put 
forward in support of their responsibilities, and we give to 
our Service Chiefs for that our heartfelt thanks for your 
efforts.
    But I think you would be the first to join us and all the 
members of this committee in saying that the real gratitude is 
owing to the men and women who serve in the Armed Forces.
    I want to join our chairman in welcoming our witnesses here 
today. First, I want to extend a special thanks to General 
Shinseki, who is making his final appearance before the 
committee at a posture hearing. I do not think we can give you 
any assurance it will be your last appearance before the 
committee, however, so do not relax too much.
    Let me put this simply, though. Today our tribute will come 
more fully at a later time, but let me just simply say that 
you, sir, are the embodiment of service to our Nation and a 
commitment to the men and women whom you command. You have been 
truly a role model and we salute you for it.
    I also want to give a special welcome to General Hagee, who 
is making, I believe, his first appearance at a posture 
hearing, and we welcome you as well as our other witnesses who 
have been here before and will be here again. All of you are 
very much in our thoughts these days. We are grateful to you 
for what you have done to prepare our troops should war come, 
and that service will indeed serve them and our Nation well 
should in fact that moment arrive.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin.
    We will have 6-minute rounds. But before I proceed, I join 
Senator Levin in acknowledging your service, General Shinseki. 
There are moments in one's life that you never forget, and I 
recall Senator Inouye introducing you to this committee and I 
never have heard a more eloquent, more heartfelt introduction 
than that given by our distinguished senior colleague. You have 
lived up in every way to what he said. Thank you, sir.
    All right, I will start off, ladies and gentlemen, just as 
soon as we get organized up here. But we will start with the 
opening statements. We will start with you, General.

STATEMENT OF GEN. ERIC K. SHINSEKI, USA, CHIEF OF STAFF, UNITED 
                          STATES ARMY

    General Shinseki. Thank you, Mr. Chairman, both you and 
Senator Levin, for the kind comments. That moment that you 
recollect was a high point as well, as has been the last 3\1/2\ 
years of my opportunity to work with the members of the 
committee. I will always consider that a high point.
    Mr. Chairman, Senator Levin, other distinguished members of 
the committee: I am honored to be here this morning with the 
Service Chiefs and reporting to you on the posture of the Army 
and its readiness. Today, as both the chairman and the ranking 
member have indicated, across the joint force, soldiers are 
serving magnificently alongside their joint brethren, defending 
our freedom in this world against terrorism and preparing for 
other contingencies. In the Army alone, nearly 220,000 soldiers 
are forward stationed overseas and more than 124,000 of our 
Reserve component have been mobilized to this point.
    In the past 6 months, I have visited a good many of them. I 
have stood on the ground with them on their operational 
deployments. I have talked with them where they worked, where 
they played, and where they ate. I have even visited them here 
at Walter Reed Army Medical Center. We have had candid and 
frank discussions about your Army's readiness to respond to the 
Nation's calls.
    The Army is ready. We have the best Army in the world, not 
the largest but the best-led, best-trained, and best-equipped. 
It is about more than just equipment. We have the best soldiers 
on top of everything. Their determination and commitment are as 
firm as I have seen in my years of service and they are 
immensely proud to serve this Nation. They will take any 
objective, and they will accomplish any mission that we send 
them on.
    I am proud of what I have seen and I am daily reassured of 
my assessment. Soldiers are standing by for orders in 100 camps 
and stations and they will fight and win decisively this war on 
terrorism or any other war we might be sent to fight.
    We want to project that degree of readiness that is 
reflected today, project that readiness into the future, and to 
do so we long decided we must have a more responsive, a more 
deployable, more agile and versatile, as equally lethal and 
survivable a force as we have today. We began that work about 
3\1/2\ years ago.
    We knew then that there was a war in our future. We just 
did not know when, where, or against whom. The relative 
predictability all of us had gotten used to during the Cold War 
had given way to a continuing chaos of unpredictability. Voices 
inside and outside the Army suggested change.
    With the unwavering support of the administration and this 
Congress, we are transforming rapidly to be more capable of 
dominating future crises. To mitigate the risk that is always 
inherent any time an institution undertakes comprehensive and 
fundamental change, we structured that transformation along 
three broad, mutually supporting vectors.
    On the near-term axis, we committed to keeping the 
readiness of today's legacy combat formations at the 
appropriate level. Then, to fix longstanding operational gaps 
we have had between our heavy and light components of that 
legacy force, we are fielding six Stryker Brigade Combat Teams 
to give us added capabilities in that midterm axis, even as we 
are designing our future force capabilities.
    Then finally, it is on that third and final axis that we 
are readying the Army for its long-term responsibilities. We 
are developing future concepts and technologies that will 
provide consistent capability overmatch through the middle of 
the century. Our Milestone B Defense Acquisition Board decision 
that is coming up in May of this year is the next major 
milestone and we intend to begin fielding this Objective Force 
by 2008.
    Balancing these requirements over time dictates difficult 
but prudent funding decisions and the Army's fiscal year 2004 
budget strikes that essential balance to maintain readiness 
throughout the Program Objective Memorandum (POM) period and 
beyond, and your support remains essential.
    We are already seeing dividends from our investments in 
future readiness: technologies that are coming on line early, 
superior body armor today, robots in caves, antitank warheads 
on unmanned aerial vehicles today, and unprecedented Blue Force 
tracking capabilities today. During the largest joint exercise 
in our history, Millennium Challenge 2002, with the help of the 
Air Force we air-delivered a Stryker platoon onto a dirt strip 
out at the National Training Center, Fort Irwin, California.
    Just 3 years after the Army described its requirement for 
this interim force, we are demonstrating the increased 
strategic, operational, and tactical capabilities the Stryker 
Brigade Combat Teams will provide to combatant commanders. This 
summer the first Stryker Brigade Combat Team will join us in 
the war on terrorism.
    So it is not just about capabilities in 2008 and beyond. It 
is enabling soldiers today.
    People remain the engine behind all of our magnificent 
moments as an Army and their well-being is inextricably linked 
to our readiness as we describe it today. My thanks to the 
members of this committee for your help with pay raises, health 
care, retirement benefits, housing, and other well-being 
programs that have taken better care of our people than I can 
remember. Our soldiers, civilians, retirees, and veterans and 
their families appreciate it in more ways than I can describe.
    Mr. Chairman, we are grateful for your unwavering support, 
unwavering bipartisan support of this committee, and the 
leadership of this committee and its devotion to our soldiers. 
You keep us the most respected land force in the world. Mr. 
Chairman, thank you, and I look forward to your questions and 
the questions of the committee.
    [The prepared statement of General Shinseki and the Army 

Posture Statement follow:]

            Prepared Statement by Gen. Eric K. Shinseki, USA

    Mr. Chairman and distinguished members of the committee, thank you 
for this opportunity to report to you today on the posture of the 
United States Army.
    America's Armed Forces are the most powerful in the world. 
America's Army remains the most respected landpower to our friends and 
allies and the most feared ground force to those who would threaten the 
interests of the United States.
    Since before the birth of the Nation, American soldiers have 
instilled hope in a noble dream of liberty. They have remained on point 
for the Nation through nine wars, and the intervals of peace in the 
years between--defending the Constitution and preserving freedom. 
Magnificent in their selfless service, long in their sense of duty, and 
deep in their commitment to honor, soldiers have kept the United States 
the land of the free and the home of the brave. This is our legacy. Our 
soldiers who serve today preserve it.
    In October 1999, we unveiled our vision for the future--``Soldiers, 
on point for the Nation, transforming this, the most respected army in 
the world, into a strategically responsive force that is dominant 
across the full spectrum of operations.'' The attacks against our 
Nation on September 11, 2001, and the ensuing war on terrorism validate 
the Army's vision--people, readiness, transformation--and our efforts 
to change quickly into a more responsive, deployable, agile, versatile, 
lethal, survivable, and sustainable force.
    While helping to fight the global war on terrorism, the Army is in 
the midst of a profound transformation. Readiness remains our constant 
imperative--today, tomorrow, and the day after. Transformation, 
therefore, advances on three broad axes: perpetuating the Army's legacy 
by maintaining today's readiness and dominance; bridging the 
operational gap with an Interim Force of Stryker Brigade Combat Teams; 
and fielding the Objective Force to fight and win conflicts in the 
years beyond this decade.
    As they have throughout the Army's 227-year history, soldiers 
remain the centerpiece of our formations. Versatile and decisive across 
the full spectrum of joint missions, land forces have demonstrated time 
and again the quality of their precision in joint operations. Our 
responsibility is to provide soldiers with the critical capabilities 
needed for the tough missions we send them on.
    After 3\1/2\ years of undiminished support from the administration 
and Congress, and the incredible dedication of soldiers and Department 
of the Army civilians, we have begun to deliver the Army vision. With 
continued strong support, we will win the war against global terrorism, 
meet our obligations to our friends and allies, remain ready to prevail 
over the unpredictable, and transform ourselves for decisive victories 
on future battlefields.
    We have achieved sustainable momentum in Army transformation; the 
framework is in place to see the Objective Force fielded, this decade.

                   THE ARMY--AT WAR AND TRANSFORMING

    The United States is at war, and the Army serves the Nation by 
defending the Constitution and our way of life. It is our nonnegotiable 
contract with the American people--to fight and win our Nation's wars, 
decisively.
    In the weeks immediately following the attacks of September 11, 
2001, Special Operations Forces (SOF) infiltrated Afghanistan, 
penetrated al Qaida and Taliban strongholds, and leveraged all 
available long-range, joint fires, enabling the Northern Alliance to 
begin dismantling the Taliban. By January 2002, U.S. and Allied 
conventional force reinforcements began to set the stage for Operation 
Anaconda, where soldiers, demonstrating courage and determination under 
the most challenging conditions, defeated al Qaida at altitude on the 
escarpments overlooking the Shah-e-kot Valley.
    Today, more than 198,000 soldiers remain deployed and forward 
stationed in 120 countries around the globe, conducting operations and 
training with our friends and allies. Decisively engaged in the joint 
and combined fight against global terrorism, soldiers are serving with 
distinction--at home and abroad. Soldiers from both the active and the 
Reserve component have remained ``on point'' for the Nation in the 
Balkans for 7 years, in Saudi Arabia and Kuwait for 12 years, in the 
Sinai for 21 years, and in Korea and Europe for over 50 years. At the 
publication of the Army Posture Statement, there were more than 110,000 
Reserve component soldiers mobilized for active Federal service in 
support of Operation Noble Eagle and Operation Enduring Freedom. Even 
as we transform, soldiers will remain ready to answer the calls of the 
Nation to defeat well-trained, determined, and dangerous adversaries 
who miscalculate in taking on the best-led, the best-equipped, and the 
best-trained Army in the world.
    At war and transforming, the Army is accelerating change to harness 
the power of new technologies, different organizations, and revitalized 
leader development initiatives to remain at the head of the line. To 
accomplish this, Army transformation advances along three major axes 
towards attainment of the Objective Force. We selectively recapitalize 
and modernize today's capabilities to extend our overmatch in staying 
ready to defend our homeland, keep the peace in areas important to the 
Nation, and win the war against global terrorism. Stryker Brigade 
Combat Teams--our Interim Force--will bridge the current operational 
gap between our rapidly-deployable light forces and our later-arriving 
heavy forces, paving the way for the arrival of the Objective Force. By 
2010, the Army's Objective Force--organized, equipped, and trained for 
ground dominance, cyber-warfare, and space exploitation--will provide 
the Nation the capabilities it must have to remain the global leader, 
the strongest economy in the world, and the most respected and feared 
military force, by our friends and allies and our enemies, 
respectively.
    The surprise attacks against our Nation and Operation Enduring 
Freedom, in response to those attacks, validated the Army vision and 
provided momentum to our efforts to transform ourselves into an 
instrument of national power that provides full spectrum operational 
capabilities that are strategically responsive and capable of decisive 
victory. In a little over 3 years, we have begun to realize the Army 
vision--people, readiness, and transformation.
    The transforming Army is enriching as a profession and nurturing to 
families whose sacrifice has borne the readiness of the force for the 
past 10 years. Our well-being initiatives are our commitment to reverse 
this trend by giving our people the opportunity to become self-reliant; 
setting them up for personal growth and success; aggressively investing 
in family housing; and revitalizing single-soldier living space in our 
barracks. Our manning initiatives have filled our line divisions and 
other early deploying units to dampen the internal turbulence of 
partially filled formations and help put a measure of predictability 
back into the lives of our families.
    The Army has carefully balanced the risk between remaining ready 
for today's challenges and preparing for future crises. With unwavering 
support from the administration, Congress, our soldiers, and Department 
of the Army civilians, the Army has made unprecedented progress in its 
efforts to transform.
    We will achieve Initial Operating Capability (IOC) for the first 
Stryker Brigade Combat Team (SBCT) this summer and demonstrate the 
increased responsiveness, deployability, agility, verastility, 
lethality, survivability, and sustainability that SBCTs provide to 
combatant commanders. In a little over 3 years from initial concept to 
fielded capability, the SBCTs will allow us to glimpse the potential 
for acquisition reform in paving the way for delivery of the Objective 
Force.
    We have constructed the framework for achieving the Objective Force 
this decade: a Transformation Campaign Plan with Roadmap; the Objective 
Force White Paper; the Operational and Organizational plans for the 
Objective Force Unit of Action; and the Operational Requirements 
Document for the Future Combat System of Systems.
    Additionally, the Army is poised to fill ground maneuver's most 
critical battlefield deficiency--armed aerial reconnaissance--with 
Comanche, a capable, survivable, and sustainable aircraft that is a 
cornerstone of the Objective Force.
    All along the way, we have tested our concepts in wargames and 
experiments, checked and rechecked our azimuth to the Objective Force 
weekly and monthly, and look forward to a successful Future Combat 
System Milestone B Defense Acquisition Board decision in May of this 
year.
    However, we cannot accelerate Army transformation without 
transforming the way the Army does business--from transformation of 
logistics and acquisition to personnel and installation transformation. 
Revolutionizing Army business management practices achieves the best 
value for taxpayers' dollars; conserves limited resources for 
investment in people, readiness, and transformation; enhances 
management of personnel systems, installations, and contracting; and 
augments our potential to accelerate arrival of the Objective Force. 
Changing the Army is first about changing the way we think, and better 
business practices represent practical application of common sense 
initiatives that best serve the Army and our Nation.
    We are proud of our progress. We are grateful for the strong 
congressional support that has helped put the Army on its approach 
march to the Objective Force. The Army 2003 Posture Statement describes 
our tremendous progress in transformation--an orchestrated campaign, 
synchronized with OSD and joint transformation, to achieve the 
Objective Force and keep America's Army the dominant landpower in the 
world.

        THE STRATEGIC ENVIRONMENT--THE REQUIREMENT TO TRANSFORM

    During the last two decades of the 20th century, information-age 
technologies dramatically changed the political, economic, and military 
landscapes. Operation Desert Shield, Operation Desert Storm, and 
operations in Kuwait, Bosnia, and Kosovo illustrated the requirement 
for transforming our forces to meet the evolving, strategic 
requirements of our Nation. Survivable and extremely lethal, our heavy 
forces effectively met the requirements for which they were designed; 
yet, they were slow to deploy and difficult to sustain. Conversely, our 
light forces were rapidly deployable, but they lacked the protection, 
lethality, and tactical mobility that we seek across the spectrum of 
military operations. We were successful in winning the Cold War and, as 
a result, smaller than we had been in 40 years. The Army no longer had 
the luxury of specialized forces built to confront a single and 
narrowly defined threat like the Warsaw Pact countries.
    Today's challenges are more complex; threats are elusive and 
unpredictable. The fight against international terrorism has 
overshadowed, but not eliminated, other potential crises. Tension 
between India and Pakistan persists; stability between China and Taiwan 
is tenuous; and concern over North Korea escalates. Threats of 
transnational terrorism and the proliferation of weapons of mass 
destruction (WMD)--often financed by organized crime, illicit drug 
transactions, trafficking in women and children, and the sale of arms--
further complicate the security environment. Geopolitical trends such 
as scarce resources, youth population-spike in underdeveloped 
countries, aging populations in developed countries, and the growth of 
mega-cities, among others, presage a future strategic environment of 
diverse and widely distributed threats.
    Fully appreciating the internal and external difficulties that 
profound change engenders, we assessed the operational challenges of 
the new century against the capabilities of our Cold War Army, 
recognized the opportunity to leverage the inherent combat power of the 
technological revolution, and set a clear path ahead--the Army vision.
    The 2002 National Security Strategy (NSS) reaffirms our military's 
highest priority--defending the United States. To do this effectively, 
we assure our allies and friends; dissuade future military competition; 
deter threats against U.S. interests, allies, and friends; and 
decisively defeat any adversary, if deterrence fails. The NSS directs 
the military to transform to a capabilities-based force ready to 
respond to unpredictable adversaries and security crises. The Objective 
Force meets these NSS requirements, and Army transformation will 
enhance our ability to conduct rapid and precise operations, achieve 
decisive results at the time and place of our choosing, and safeguard 
the Nation's ability to exercise our right of self-defense through 
preemption, when required.
    The 2001 Quadrennial Defense Review describes a capabilities-based 
approach to defense planning that provides broader military options 
across the operational spectrum, from pre- to post-conflict operations. 
The force-sizing construct--1-4-2-1--takes into account the number, 
scope, and simultaneity of tasks assigned the military: it sizes the 
force for defense of the U.S. homeland (1), forward deterrence in four 
critical regions (4), the conduct of simultaneous warfighting missions 
in two regions (2)--while preserving the President's option to call for 
decisive victory in one of those conflicts (1)--and participation in 
multiple, smaller contingency operations.
    the army--serving today, balancing risk, managing transformation
    Soldiers are the most precise and responsive means to strike and 
then control enemy centers of gravity on the ground--where people live, 
work, and govern. American soldiers are disciplined, professional, and 
trained for success in diverse missions; they are the foundation of a 
flexible force that accomplishes its missions in the non-linear 
battlespace by integrating new, innovative technologies and techniques 
with current systems and doctrine. Our people adapt under the harshest 
conditions, whether in the deserts of Kuwait and the Sinai, the 
mountains and rice paddies of Korea, or the tropics of the Democratic 
Republic of Timor-Leste.
    These demanding commitments mean we must nurture a balance between 
current and near-term readiness and our transformation to meet future 
challenges. The Army has accepted reasonable operational risk in the 
mid-term in order to fund our transformation to the Objective Force. To 
avoid unacceptable risk, we are monitoring closely the current 
operational situation as we support the combatant commanders in the war 
against terror, conduct homeland defense, and prosecute the long-term 
effort to defeat transnational threats. We have designed and 
implemented the Strategic Readiness System (SRS) to provide a 
precision, predictive tool with which to monitor the Army and make 
appropriate adjustments to preserve current readiness. Our surge 
capacity in the industrial base further reduces current risk by keeping 
production lines warm and responsive. Our first Stryker Brigade Combat 
Team will provide the combatant commanders with a new capability to 
further mitigate operational risk--even as we transform to the 
Objective Force.

    REALIZING THE ARMY VISION--PEOPLE, READINESS, AND TRANSFORMATION

    In 1999, the Army announced its vision to transform into a more 
strategically responsive force, dominant across the full spectrum of 
military operations. The Army vision addresses three essential 
components: people, readiness, and transformation. Soldiers are the 
heart of the Army, the centerpiece of our formations, and the 
foundation of our combat power. Readiness remains our overarching 
imperative; it is the means by which we execute our nonnegotiable 
contract with the American people--to fight and win our Nation's wars, 
decisively. To preserve readiness while rapidly changing, 
transformation advances on three major axes: preserving our Army legacy 
by maintaining readiness and dominance today; bridging the operational 
gap with Stryker Brigades, the Interim Force; and fielding the 
Objective Force this decade to keep the Army dominant in the years 
beyond this decade.
    Realizing the Army vision requires the concerted effort of the 
entire Army, across all components--from warfighting to institutional 
support organizations. The Army published its Transformation Campaign 
Plan in April 2001 to synchronize and guide this complex undertaking. 
The November 2001 Objective Force White Paper describes the advanced 
capabilities and core technologies needed to build the Objective Force. 
The Army's June 2002 Army transformation Roadmap defines transformation 
as a continuous process--with specific waypoints--that increases our 
contributions to the Joint Force while achieving the six Department of 
Defense (DOD) critical operational goals. The result will be a more 
strategically responsive and full spectrum dominant force capable of 
prompt and sustained land combat operations as a member of the Joint 
Force.
    In support of the emerging joint operational concepts and 
architectures, the Army--as the major landpower component--continues to 
develop ground concepts for a full spectrum and multidimensional force. 
These concepts are producing a Joint Force that presents potential 
enemies with multiple dilemmas across the operational dimensions--
complicating their plans, dividing their focus, and increasing their 
chances of miscalculation.
    In future joint operations, Objective Force units will be capable 
of directing major operations and decisive land campaigns with Army 
headquarters. Objective Force headquarters at all levels will provide 
the Joint Force Commander (JFC) with seamless, joint battle command and 
decision superiority. The modularity and scalability of our Objective 
Force formations will provide an unprecedented degree of flexibility 
and adaptability to the combatant commander--providing the right force 
at the right time for decisive outcomes.

                   PEOPLE--OUR MOST VALUABLE RESOURCE

    The Army vision begins and ends talking about people. People are 
central to everything else we do in the Army. Platforms and 
organizations do not defend this Nation; people do. Units do not train, 
stay ready, grow and develop leadership--they do not sacrifice and take 
risks on behalf of the Nation. People do. Institutions do not 
transform; people do. People remain the engine behind all of our 
magnificent moments as an Army, and the well-being of our people--the 
human dimension of our transformation--is inextricably linked to Army 
readiness.
    In our vision, we recommitted ourselves to doing two things well 
each and every day--training soldiers and civilians and growing them 
into competent, confident, disciplined, and adaptive leaders who 
succeed in situations of great uncertainty. We are dedicated to 
preparing our soldiers to lead joint formations, to enabling our 
headquarters to command and control joint forces, and to providing to 
those joint formations the capabilities only the Army can bring to the 
fight: the ability to control terrain and populations.
Manning the Force
    The objective of our manning strategy is to ensure we have the 
right people in the right places to fully capitalize on their 
warfighting expertise--this is the Army's commitment to the Nation, 
Army leaders, soldiers, and our families. Correctly manning our units 
is vital to assuring that we fulfill our missions as a strategic 
element of national policy; it enhances predictability for our people; 
and it ensures that leaders have the people necessary to perform their 
assigned tasks. In fiscal year 2000, we implemented a strategy to man 
our forces to 100 percent of authorized strength, starting with 
divisional combat units. The program expanded in fiscal year 2001 and 
fiscal year 2002 to include early deploying units. In fiscal year 2002, 
we maintained our manning goals and continued to fill our divisions, 
Armored Cavalry Regiments, and selected early deploying units to 100 
percent in the aggregate, with a 93 to 95 percent skill and grade-band 
match. We remain on target to accomplish our long-term goal of filling 
all Army units to 100 percent of authorized strength.

                   RECRUITING AND RETAINING THE FORCE

    In 1999, the Army missed its recruiting goals for the active 
component (AC) by about 6,300 inductees, and for the Reserve component 
by some 10,000. Our recruiting situation was simply unacceptable, and 
we committed ourselves to decisive steps and reversed that trend.
    In fiscal year 2002, the AC achieved 100 percent of its goal in 
recruiting and retention for the third consecutive year. The Army 
exceeded its AC 79,500 enlisted accession target in fiscal year 2002 
and exceeded our aggregate fiscal year 2002 retention objective of 
56,800 soldiers in all three categories by 1,437. We are poised to make 
the fiscal year 2003 accession target of 73,800, and we expect to meet 
our active component fiscal year 2003 retention target of 57,000. The 
fiscal year 2004 accession target is set at 71,500.
    The Army Reserve has met mission for the last 2 years, and its 
recruiting force is well structured to meet fiscal year 2004 
challenges. The Army Reserve continues to maintain a strong selected 
Reserve strength posture at 205,484 as of January 17, 2003--over 100.2 
percent of the fiscal year 2003 End Strength Objective. Overcoming many 
recruiting and retention challenges in fiscal year 2002, the Army 
National Guard (ARNG) exceeded end strength mission, accessions were 
104.5 percent of goal, and we exceeded reenlistment objectives.
    To ensure that we continue to recruit and retain sufficient 
numbers, we are monitoring the current environment--the global war on 
terrorism (GWOT) and frequent deployments--to determine impact on 
morale, unit cohesiveness, combat effectiveness, and support of well-
being programs that draw quality people to the Army. We continue to 
examine innovative recruiting and retention initiatives. The challenges 
we face in fiscal year 2003 and 2004 are two-fold: increase recruiter 
productivity and recruiting resources necessary to maintain recruiting 
momentum when the economy becomes more robust. Resourcing recruiting 
pays dividends well beyond accessions in the year of execution. For 
example, Army advertising in fiscal year 2002 influenced not only 
fiscal year 2002 accessions, but also potential recruits who will be 
faced with enlistment decisions in fiscal year 2003 and beyond.

               RESERVE COMPONENT FULL-TIME SUPPORT (FTS)

    Today, more than 50 percent of our soldiers are in the Reserve 
component (RC). The GWOT and homeland defense are significant 
undertakings that demand a high level of resourcing. The RC has been 
key to our success in these operations. To ensure the Army's RC 
continues to meet ever-increasing demands with trained and ready units, 
the Army plans to increase full-time support authorizations 2 percent 
each year through fiscal year 2012, increasing the FTS from the current 
level of 69,915 to a level of 83,046. The Army recognizes additional 
full-time support authorizations as the number one priority of the Army 
National Guard and Army Reserve leadership.

                           CIVILIAN COMPONENT

    As a comprehensive effort to consolidate, streamline, and more 
effectively manage the force, the Army has begun an initiative to 
transform our civilian personnel system. High quality, well-trained 
civilians are absolutely essential to the readiness of our force and 
our ability to sustain operations today and in the future. Recruiting, 
training, and retaining a highly-skilled, dedicated civilian workforce 
is critical in meeting our obligations to the combatant commanders and 
the Nation. Aggressive transformation of our civilian force--in which 
projections through fiscal year 2005 indicate a 16-percent annual 
turnover due to retirements and other losses--will ensure we continue 
to meet those obligations.
    As of fiscal year 2002, the Army employed 277,786 civilian 
personnel. To forecast future civilian workforce needs with precision, 
we developed the Civilian Forecasting System, a sophisticated 
projection model that predicts future civilian personnel requirements 
under various scenarios. The Army is working closely with the Office of 
the Secretary of Defense (OSD) and other Federal agencies to 
demonstrate the power of this system so they can fully leverage its 
capabilities, as well.
    The Civilian Personnel Management System XXI (CPMS XXI) has 
identified the reforms necessary to hire, train, and grow a civilian 
component that supports the transforming Army. To achieve this, we have 
redefined the way civilians are hired, retained, and managed. Mandatory 
experiential assignments will become the vehicle by which we develop 
future leaders. CPMS XXI fully responds to current mandates in the 
President's Management Agenda and incorporates the results of the Army 
Training and Leader Development Panels. For example, two initiatives 
for recruiting well-trained civilians are:

        <bullet> The Army Civilian Training, Education, and Development 
        System--a centrally managed program that accesses and trains 
        civilian interns and grows a resource pool of personnel who can 
        accede to senior professional positions.
        <bullet> The DOD Appropriations Act for fiscal year 2002 and 
        fiscal year 2003 provided direct hire authority for critical, 
        hard-to-fill medical health care occupations and enabled the 
        reduction in average fill-time for these positions to 29 days.
Army Well-Being
    The readiness of the Army is inextricably linked to the well-being 
of our people, and Army well-being is the human dimension of our 
transformation. Well-being responds to the physical, material, mental, 
and spiritual needs of all Army people--soldiers, civilians, retirees, 
veterans, and their families. We recognize the fundamental relationship 
between well-being programs and institutional outcomes such as 
readiness, retention, and recruiting. To support mission preparedness 
as well as individual aspirations, well-being integrates policies, 
programs, and human resource issues into a holistic, systematic 
framework that provides a path to personal growth and success and gives 
our people the opportunity to become self-reliant. We recruit soldiers, 
but we retain families. Well-being programs help make the Army the 
right place to raise a family. When our families are cared for, 
soldiers can better focus on their mission--training, fighting, and 
winning our Nation's wars, decisively.
    Soldiers appreciate the Nation's devotion to them, and they are 
grateful for the country's recognition of their service and sacrifices. 
Recent improvements to the Montgomery GI Bill, Tricare for Life, 
Tricare Reform, Retired Pay Reform, the 4.1 percent general pay 
increase, and additional pay increases in 2003, are all important to 
soldiers and their families. These initiatives have helped the Army 
respond to the well-being needs of our people. Army voluntary education 
programs improve our combat readiness by expanding soldier skills, 
knowledge, and aptitudes to produce confident, competent leaders. Other 
well-being initiatives include:

        <bullet> Spouse Employment Summit. The Army is developing 
        partnerships with the private sector to enhance employment 
        opportunities for Army spouses and provide improved job 
        portability for them.
        <bullet> Spouse Orientation and Leader Development (SOLD). SOLD 
        connects Army spouses and enhances their opportunity to serve 
        as valued leaders who contribute to the readiness and future of 
        the Army and our Nation.
        <bullet> Army University Access Online. eArmyU offers soldiers 
        access to a variety of on-line, post-secondary programs and 
        related educational services. www.eArmyU.com is a comprehensive 
        web-portal widely accessible to soldiers, including those in 
        Afghanistan, Bosnia, and Kuwait.
        <bullet> In-State Tuition. To level the playing field for 
        access to education opportunities, the Army is working to 
        encourage States to grant in-State status for military 
        personnel and families at public colleges and universities in 
        their soldier's state of legal residence and state of 
        assignment.
        <bullet> High School Senior Stabilization. This policy enhances 
        predictability by allowing families to request stabilization at 
        their sponsor's current duty location if they have a child who 
        will graduate from high school during that year.
        <bullet> Secondary Education Transition Study (SETS) Memorandum 
        of Agreement (MOA). Facilitated by the Army, this agreement 
        among participating school superintendents is their commitment 
        to partner and improve high school transitions for DOD 
        children. Currently, over 110 school superintendents have 
        signed the SETS MOA.

Leader Development--Training Soldiers and Civilians, Our Growing 
        Leaders
    The Army is a profession--the Profession of Arms. Conducting 
decisive ground combat operations in defense of the United States and 
its interests is a core competency of this profession. The development 
of each member of the Army is the foundation of lifelong devotion to 
duty--while in uniform and upon returning to the civilian sector.
    By its nature, our profession is extraordinarily complex and 
dangerous. The American people entrust the Army with the sacred 
responsibility to apply lethal force in defense of U.S. interests. As 
such, the Profession of Arms must remain firmly grounded in 
constitutional values and must constantly change and grow to preserve 
its competitive advantage in an evolving strategic environment. At all 
levels, our leaders--military and civilian--must apply their 
professional knowledge in increasingly varied and unique situations 
that are characteristic of today's strategic environment. Ultimately, 
we must grow professional Army leaders who provide wise and discerning 
military judgments founded on long experience and proven professional 
expertise. This capacity is developed only through a lifetime of 
education and dedicated service--in peace and in war.
    Soldiers serve the Nation with the full realization that their duty 
may require them to make the supreme sacrifice for others among their 
ranks. Soldiers fighting the war on terrorism today, those who will 
fight our future wars, and those who have fought in our past wars are 
professional warfighters and a precious national asset. To ensure we 
remain the greatest landpower in the world defending the greatest 
country in the world, the Army and the Nation rely upon their unique 
and hard-earned experiences and skills. To develop the operational 
skills required to defend the Nation, training must remain our number 
one priority.
    The evolving strategic environment, the gravity of our 
responsibilities, and the broad range of tasks the Army performs 
require us to review and periodically update the way we educate, train, 
and grow professional warfighters. The Army's strategic 
responsibilities to the Nation and combatant commanders now embrace a 
wider range of missions. Those missions present our leaders with even 
greater challenges than previously experienced. Therefore, leader 
development is the lifeblood of the profession. It is the deliberate, 
progressive, and continuous process that trains and grows soldiers and 
civilians into competent, confident, self-aware, and decisive leaders 
prepared for the challenges of the 21st century in combined arms, 
joint, multinational, and interagency operations.
    In June 2000, we convened the Army Training and Leader Development 
Panel (ATLDP). The ATLDP's purpose is to identify skill sets required 
of Objective Force soldier and civilian leaders. Further, ATLDP 
assesses the ability of current training and leader development systems 
and policies to enhance these required skills. In May 2001, the Army 
Training and Leader Development Panel Phase I (Officer Study) 
identified 7 strategic imperatives and generated 89 recommendations. 
With those, we validated the requirement to transform our Officer 
Education System (OES)--from the Officer Basic Course through the 
Command and General Staff Officer Course. Additionally, the panel 
reconfirmed the value of Joint Professional Military Education II (JPME 
II) in preparing our leaders for joint assignments. The most 
significant product of the officer ATLDP is our OES transformation.
    ATLDP Phase I (Officer Study) identified three high-payoff 
institutional training and education initiatives for lieutenants, 
captains, and majors. The first of these is the Basic Officer Leader 
Course (BOLC). BOLC will provide a tough, standardized, graduate-level, 
small-unit leadership experience for newly commissioned officers. The 
second of these initiatives is the Combined Arms Staff Course for staff 
officers, and the Combined Arms Battle Command Course for company 
commanders. Both courses will capitalize on advanced distributed 
learning and intensive resident training methods. The third initiative, 
Intermediate Level Education (ILE), will provide all majors with the 
same common core of operational instruction, and it will provide 
additional educational opportunities that are tailored to the officer's 
specific career field, branch, or functional area. Beyond ILE, Army 
officers continue to attend Joint or Senior Service Colleges to develop 
leader skills and knowledge appropriate to the operational and 
strategic levels of the profession.
    Completed in May 2002, the ATLDP Phase II (noncommissioned officer 
(NCO) Study) resulted in 78 findings and recommendations extending 
across 6 imperatives--Army culture, NCO Education Systems (NCOES), 
training, systems approach to training, training and leader development 
model, and lifelong learning. Among others, the ATLDP Phase II 
recommended building new training and leader development tools for NCOs 
to replace current methods, as required. The ATLDP Phase III (Warrant 
Officer Study) culminated with 63 recommendations extending across 4 
crucial imperatives. Recommendations included clarifying the warrant 
officer's unique role in the Army and improving the Warrant Officer 
Education System to ensure timely training and promotion. The Civilian 
Training and Leader Development Panel (Phase IV) study results are 
complete, and we are forming the Implementation Process Action Team (I-
PAT). I-PAT will identify actions the Army must take to increase the 
professional development of our civilian workforce. At the senior 
leader level, the Army initiated the Army Strategic Leadership Course 
(ASLC). The program is aimed at teaching principles of strategic 
leadership, with emphasis on visioning, campaign planning, leading 
change, and transformation. To date, we have completed 12 of the 
foundation courses and 3 alumni courses, training the majority of the 
Army's general officers.

                  READINESS--WINNING OUR NATION'S WARS

Homeland Security (HLS)
    Defending our Nation--abroad and at home--against foreign and 
domestic threats is fundamental to the Army's legacy, and our 
warfighting focus provides capabilities relevant to HLS requirements. 
HLS missions range from traditional warfighting competencies that 
defeat external threats to the non-combat tasks associated with 
supporting civil authorities in domestic contingencies. Operation Noble 
Eagle mobilized over 16,000 Army National Guard soldiers to protect 
critical infrastructure. These soldiers assisted the Department of 
Transportation in securing our Nation's airports while also playing a 
vital role in securing our Nation's borders. The Army is moving forward 
to provide one Civil Support Team to each State, as required by the 
National Defense Authorization Act for Fiscal Year 2003. The Civil 
Support Teams support Incident Commanders and identify chemical, 
biological, radiological, nuclear, and explosive (CBRNE) agents and 
substances, assess current and projected consequences, advise on 
response measures, and assist with appropriate requests for additional 
support. To date, OSD has certified 30 of 32 teams, and the Army is 
working to establish additional teams. Collectively, the certified 
teams have performed 890 operational missions since September 11, 2001. 
The Army remains committed to HLS, dedicating AC and RC staffs to focus 
on training, doctrine, planning, and execution of DOD missions in 
support of civil authorities.

                            MISSILE DEFENSE

    Robust Missile Defense is a vital warfighting requirement that 
protects both our homeland and our deployed forces. Missile Defense 
includes far more than a reactive capability to shoot down missiles in 
their reentry phase. Missile Defense requires a coherent system of 
sensors; battle command; weapons systems; and active, passive, 
proactive, and reactive operational concepts, all aimed at destroying 
enemy missiles--not only during their reentry phases. Missile Defense 
must also be able to destroy enemy missiles on the ground, before they 
launch or during their boost phase once launched. Missile Defense is 
inherently a joint capability to which the Army is a major contributor.
    The Army is deploying and employing Ground Mobile Defense assets to 
contribute to this warfighting capability, accelerating the fielding of 
the Patriot Advanced Capability 3 (PAC3) system, and developing 
directed energy weapons that will bring new defense measures to the 
Army and the Nation. We are postured to assume control of the Medium 
Extended Air Defense System (MEADS) program in fiscal year 2003 and 
intend to begin fielding by fiscal year 2012.
    MEADS is a transformational program of Objective Force quality and 
a significant improvement on Patriot's capabilities. It will be more 
mobile and more deployable (C-130 capable) than Patriot and cover a 
360-degree radius to Patriot's 120 degrees. It will be effective 
against low radar, cross section cruise missile targets; and require 
only 30 percent of Patriot's manpower. MEADS will be more accurate and 
more sustainable than Patriot.

                       CHEMICAL DEMILITARIZATION

    In Section 1412 of Public Law 99-145, Congress directed the DOD to 
destroy the United States' chemical weapons stockpile. In turn, the 
Secretary of Defense delegated management of all chemical munitions 
disposal to the Department of the Army. On November 29, 2000, the 
Johnston Atoll Chemical Agent Disposal System, using incineration-based 
technology, completely destroyed the last stockpiles stored at the 
Atoll, and closure operations began in January 2001. The Tooele 
Chemical Agent Disposal Facility has incinerated 44 percent of the 
chemical agents and 81 percent of the munitions stored there. Disposal 
operations at these two sites destroyed 30 percent of the total U.S. 
chemical weapons stockpiles. Construction of incineration facilities at 
Anniston, Alabama; Umatilla, Oregon; and Pine Bluff, Arkansas, is 
complete. Systemization activities are ongoing at Aberdeen, Anniston, 
Umatilla, and Pine Bluff. The plan to accelerate the disposal of bulk 
agents using a neutralization process at Aberdeen, Maryland, and 
Newport, Indiana, has been approved. Anniston and Aberdeen are 
scheduled to start destruction in second quarter fiscal year 2003, and 
Newport is scheduled to begin in first quarter fiscal year 2004.
    To comply with treaty agreements and the congressional mandate, we 
must complete the destruction of these weapons by 2007. The treaty 
allows for a one time, 5-year extension to this deadline. With 
continued funding and minimal schedule changes, we will safely destroy 
the U.S. stockpile of lethal chemical agents and munitions at eight 
existing CONUS sites.
Training the Force
    In October 2002, the Army released Field Manual (FM) 7-0, Training 
the Force. Synchronized with other field manuals and publications being 
updated to respond to changes in Army, joint, multinational, and 
interagency operations, FM 7-0 is the capstone doctrinal manual for 
Army training and leader development. It provides the developmental 
methodology for training and growing competent, confident soldiers, and 
it addresses both current and future Objective Force training 
requirements.
    We are transforming the way we fight future wars, and the Army is 
participating fully in a DOD-sponsored program to transform how forces 
train to fight. This effort involves four major initiatives: building 
upon existing service interoperability training; linking component and 
joint command staff planning and execution; enhancing existing joint 
training exercises to address joint interoperability; and studying the 
requirement for dedicated joint training environments for functional 
warfighting and complex joint tasks. The Army is scheduled to host the 
first joint National Training Center (NTC) event at Fort Irwin, 
California, in May 2003. During June 2003, the U.S. Army Forces Command 
will execute the second joint NTC event--JCS exercise Roving Sands.
    During the late 1990s, funding for the recapitalization and 
modernization of the Army's Combat Training Centers was reduced, 
eroding their capability to support their critical missions. 
Additionally, the Multiple Integrated Laser Engagement System equipment 
and current force instrumentation systems have become difficult to 
maintain. The Army's Combat Training Center modernization program will 
ensure that our premier training areas (NTC at Fort Irwin, Combat 
Maneuver Training Center in Germany, the Joint Readiness Training 
Center (JRTC) at Fort Polk, and the Deep Attack Center of Excellence 
near Gila Bend, Arizona) are modernized to provide high quality, 
realistic, full-spectrum joint training. To address these problems, the 
Army will invest nearly $700 million over the next 6 years to modernize 
these training centers.

                                OPTEMPO

    In accordance with congressional directives, the Army developed a 
new methodology to prepare budget requests that accurately reflect 
operations and maintenance requirements. In the report submitted in 
July 2002, the Army outlined updated processes that ensure consistency 
in reporting of tank miles and reflect requirements and execution with 
more precision. Management controls initiated in fiscal year 2001 to 
prevent migration of tempo of operations (OPTEMPO) funds to other areas 
were highly successful and remain in effect.
    The Army's combined arms training strategy determines the 
resourcing requirements to maintain the combat readiness of our forces. 
For the AC, the Army requires 800 ground OPTEMPO miles per year for the 
M1 Abrams tank and corresponding training support; the AC flying hour 
program requires an average of 14.5 live flying hours per aircrew each 
month. Both Army National Guard and the Army Reserve aircrew training 
strategies require 9.0 hours per crew each month. The ARNG ground 
OPTEMPO requirement is a composite average of 174 miles in fiscal year 
2004, and the Army Reserve (USAR) ground OPTEMPO requirement is 200 
tank-equivalent miles in fiscal year 2004.
    While this describes the Army's training strategy, actual execution 
levels from unit to unit have varied depending upon factors such as 
ongoing operations, safety of flight messages, and adequate manning of 
combat formations. To this end, the Army has fully funded its AC ground 
OPTEMPO requirement, while its AC flying program is funded to its 
historical execution level of 13.1 flying hours. The RC air and ground 
OPTEMPO are similarly funded to their execution levels, rather than 
their requirement. Although the Army has not always been able to 
execute the training strategy, we have taken steps to have all units 
execute the prescribed training strategy in fiscal year 2003, fiscal 
year 2004, and beyond.
Force Protection and Antiterrorism
    Force protection consists of those actions to prevent or mitigate 
hostile actions against Department of Defense personnel and includes 
family members, resources, facilities, and critical information. In the 
war on terrorism, the area of operations extends from Afghanistan to 
the east coast and across the United States. Naturally, force 
protection and antiterrorism measures have increased across Army 
installations in the Continental United States (CONUS) and overseas.
    Findings from the Cole Commission, the Downing Report on the Khobar 
Towers bombing, and Army directives to restrict access to installations 
have all led to thorough assessments by the Department of the Army 
Inspector General, the Deputy Chief of Staff for Operations, and 
commanders. Our efforts focus on improved force protection policy and 
doctrine; more rigorous training and exercises; improved threat 
reporting and coordination with national intelligence and law 
enforcement agencies; enhanced detection and deterrence capabilities 
for CBRNE threats; increased capabilities and protection for access 
control; and expanded assessments of Major Commands (MACOM) and 
installation force protection programs. Both operational and 
installation environments rely upon secure, networked information 
infrastructure to execute daily enterprise-wide processes and 
decisionmaking, so the parameters of force protection include 
contemporary and evolving cyber threats, as well.
    The Army's Information Systems Security Program (ISSP) secures the 
Army's portion of the Global Information Grid, secures the digitized 
force, and supports information superiority and network security 
defense-in-depth initiatives. ISSP provides the capability to detect 
system intrusions and alterations and react to information warfare 
attacks in a measured and coordinated manner. To the greatest extent 
possible, it protects warfighters' secure communications--from the 
sustaining base to the foxhole.
    Soldiers, active and Reserve, are heavily engaged in force 
protection and antiterrorism missions. Soldiers guard military 
installations, nuclear power plants, dams and power generation 
facilities, tunnels, bridges, rail stations, and emergency operations 
centers. During the 2002 Winter Olympics in Salt Lake City, Utah, 
nearly 1,500 ARNG soldiers provided security, and soldiers guarded key 
infrastructure sites during Super Bowl XXXVII in January 2003. Over 
12,500 RC soldiers are currently mobilized for Operation Noble Eagle to 
fulfill force protection requirements, and in February 2003, over 8,000 
Army National Guard soldiers will support Air Force security 
requirements--a requirement that could reach 9,500 soldiers. Security 
of detention facilities and detainees at Guantanamo Bay Detention--a 
long-term detainee mission--requires approximately 1,500 Army 
personnel, 50 percent of whom are military police. Army Reserve 
Internment and Resettlement battalions on 6-month rotations impact 
military police availability to CONUS force protection requirements.
Sustainment
    The Army is revolutionizing its logistics process. One initiative, 
the Single Stock Fund (SSF), redirected more than $540 million worth of 
secondary items from stocks to satisfy customer demands between May 
2000--SSF inception--and November 2002. During that same period, we 
redistributed more than $218 million worth of secondary items from the 
authorized stockage levels to meet higher priority readiness 
requirements. By extending--national visibility of stockage locations--
and capitalizing inventories into the Army Working Capital Fund--we 
reduced customer wait time by an average of 18.5 percent. The SSF will 
continue to reduce inventory requirements and generate even more 
savings for the Army by creating greater flexibility for the management 
of inventories.
    Another initiative, the National Maintenance Program (NMP), 
enhances weapon system readiness, reliability, and availability rates 
by bringing Army Class IX repair parts to a single national standard. 
Ultimately, increased reliability will reduce overall weapon system 
operating and support cost. Additionally, the NMP centralizes the 
management and control of Army maintenance activities for components 
and end items. NMP will produce appropriately sized Army maintenance 
capacity that still meets total maintenance requirements.
Strategic Readiness Reporting
    The National Defense Authorization Act for Fiscal Year 1999 
requires the Secretary of Defense to implement a comprehensive 
readiness reporting system that objectively measures readiness to 
support the NSS. The Army's Strategic Readiness System (SRS) responds 
to and provides a baseline in achieving this critical initiative.
    SRS is a precision readiness measurement tool that provides Army 
leadership with accurate, objective, predictive, and actionable 
readiness information to dramatically enhance resource management 
toward one end--strategic readiness to defend the United States. The 
Army Scorecard--a product of SRS--will integrate readiness data from 
the business arena and the operating, generating, and sustaining forces 
of both the active and Reserve component. Army Scorecard methodology 
focuses on four critical areas: People--investing in soldiers and their 
families; Readiness--maintaining the support capability to the 
combatant commanders' operational requirements; Transformation--
transforming the Army into the Objective Force; and application of 
sound business practices.
    SRS markedly improves how we measure readiness. It gathers timely 
information with precision and expands the scope of the data 
considered. We are further developing this system to leverage leading 
indicators and predict trends--solving problems that affect readiness 
before they become problems, from well-being to weapons platforms. SRS 
will help enable the Army preserve readiness to support combatant 
commanders, invest in soldiers and their families, identify and adopt 
sound business practices, and transform the Army to the Objective 
Force.
Installations
    Army installations are our Nation's power projection platforms, and 
they provide critical training support to the Army and other members of 
the joint team. Additionally, soldiers, families, and civilians live 
and work on Army installations. The quality of our infrastructure 
directly affects the readiness of the Army and the well-being of our 
soldiers, families, and civilians.
    The Army has traditionally accepted substantial risk in 
infrastructure to maintain its current warfighting readiness. However, 
a decade of chronic under funding has led to a condition in which over 
50 percent of our facilities and infrastructure are in such poor 
condition that commanders rated them as ``adversely affecting mission 
requirements.'' Our facilities maintenance must improve. Over the past 
2 years, with the help of the administration and Congress, the Army has 
begun to rectify this situation with significant increases in funding 
and innovative business practices. These efforts have been dramatically 
successful as we continue to correct a problem that was 10 years in the 
making. Thus, in an effort to prevent future degradation of our 
facilities, the Army has increased its funding for facilities 
sustainment to 93 percent of requirement beginning in fiscal year 2004.

            TRANSFORMATION OF INSTALLATION MANAGEMENT (TIM)

    Recognizing the requirement to enhance support to commanders, the 
Secretary of the Army directed the reorganization of the Army's 
management structure. On October 1, 2002, the Army placed the 
management of Army installations under the Installation Management 
Agency (IMA). IMA is a new field-operating agency of the Assistant 
Chief of Staff for Installation Management (ACSIM). Its mission is to 
provide equitable, efficient, and effective management of Army 
installations worldwide to support readiness; enable the well-being of 
soldiers, civilians, and family members; improve infrastructure; and 
preserve the environment. This new management approach eliminates the 
migration of base operations funds to other operational accounts below 
the HQDA level. It also enables the development of multi-functional 
installations to support evolving force structure and Army 
transformation needs. The Army is poised to capitalize on opportunities 
TIM gives us to provide excellence in installations.
    Two programs that significantly increase the well-being of our 
soldiers and their families are the Barracks and the Family Housing 
programs. The Army established the Barracks Upgrade Program (BUP) in 
the late 1990s to improve single soldiers' housing conditions. Through 
2002, we have upgraded or funded-for-upgrade 70 percent of our 
permanent party barracks to soldier suites that consist of two single 
bedrooms with a shared bath and common area. The Army will continue the 
BUP until all permanent party barracks achieve this standard.
    With the strong support of Congress, the Army established the 
Residential Communities Initiative (RCI) for our families. This program 
capitalizes on commercial expertise and private capital to perform a 
non-core function for the Army--family housing management. The program 
provides greater value to the Army by eliminating the housing deficit 
at our first 11 sites, while leveraging a $209 million Army investment 
into $4.1 billion of initial private development. The Army's 
privatization program began with 4 pilot projects and will expand to 18 
active projects by the end of fiscal year 2003. Pending OSD and 
congressional approval, 28 projects are planned through 2006 that will 
impact over 72,000 housing units or 80 percent of Army Family Housing 
in the United States. By the end of 2007, we will have the programs and 
projects in place to meet the OSD goal of eliminating inadequate family 
housing. We will accomplish this goal through RCI and increased Army 
investment in family housing Military Construction (MILCON) at non-
privatized installations. The RC enhances RCI through real property 
exchange authority that is only available to the RC. This legislative 
authority allows the exchange of RC owned property with public or 
private entities and has a tremendous potential to improve future 
Reserve component infrastructure at no governmental cost.
    The Army has also aggressively reduced its financial burden and 
physical footprint by disposing of 34 percent of its facilities from a 
1990 high of 116 billion square feet. The Army anticipates that the 
congressional fiscal year 2005 Base Realignment and Closure (BRAC) 
authority will permit additional appropriate reductions. BRAC will 
enable the Army to dispose of excess infrastructure and realign the 
remaining facilities with the requirements of the transforming Army and 
the Objective Force. BRAC will also allow the Army to re-allocate 
resources from closed or realigned installations to other high priority 
requirements.
    The Army continues to improve its utilities infrastructure by 
divesting itself of non-core utility systems' operation and maintenance 
through privatization. As of December 2002, we had privatized 64 of the 
351 systems in the program, and we have an additional 104 presently 
under negotiation.
    As part of our Army Knowledge Management (AKM)--described later in 
more detail--we are modernizing our Installation Information 
Infrastructure--info-structure--to support a network centric, 
knowledge-based Army. The Installation Information Infrastructure 
Modernization Program (I3MP) executes a multi-year, $3.2 billion 
program for upgrades to optical fiber and copper cable, installation of 
advanced digital equipment, and upgrades to Defense Global Information 
Grid gateways. This program will ensure worldwide, high-speed data 
connectivity at Army installations. To date, we have completed 22 of 95 
CONUS installations and initiated upgrades at four installations 
outside of the CONUS. We plan to complete I3MP in 2009.

               TRANSFORMATION--CHANGING THE WAY WE FIGHT

    The Army is fundamentally changing the way we fight and creating a 
force more responsive to the strategic requirements of the Nation. We 
are building a joint precision maneuver capability that can enter a 
theater at the time and place of our choosing, maneuver at will to gain 
positional advantage, deliver precise joint fires and, if necessary, 
close with and destroy the enemy.
    The Objective Force is an army designed from the bottom up around a 
single, networked, integrated C\4\ISR architecture that will link us to 
joint, interagency, and multi-national forces. It will be a rapidly 
deployable, mounted formation, seamlessly integrated into the joint 
force and capable of delivering decisive victory across the spectrum of 
military operations. Consolidated, streamlined branches and military 
operational specialties comprised of professional warfighters will be 
poised to transition rapidly from disaster relief to high-end 
warfighting operations.
    The Objective Force and its Future Combat System of Systems will 
leverage and deliver with precision the combat power of joint and 
strategic assets. It is a capabilities-based force that rapidly 
responds to the requirements of the strategic environment in which our 
soldiers will be the most strategically relevant and decisively capable 
landpower--no matter the mission, no matter the threats, no matter the 
risks.
    In the final analysis, the Army's combat power does not wear tracks 
or wheels--it wears boots. No platform or weapon system can match a 
soldier's situational curiosity and awareness. It is the soldiers' 
ability to discern and to think, their ingenuity and resourcefulness, 
their endurance and perseverance, and their plain grit that make them 
the most reliable precision weapon in our inventory. Soldiers remain 
the centerpiece of our formations.
    To help guide our transformation efforts, the Army leverages 
lessons-learned from extensive experimentation and wargaming. We are 
working to harness the power of knowledge, the benefits of science and 
technology, and innovative business solutions to transform both the 
Operational and Institutional Army into the Objective Force. The Army's 
annual Title 10 Wargames provide critical insights for developing the 
Objective Force. Likewise, results from joint experiments--Millennium 
Challenge 2002 and other service Title 10 Wargames like Global 
Engagement, Navy Global, and Expeditionary Warrior, to name a few--also 
inform these efforts.
    The Army is fully committed to joint experimentation as a means to 
examine and assess Objective Force contributions to the strategic, 
operational, and tactical levels of joint warfare. The Army has 
established a joint/Army Concept Development and Experimentation (CD&E) 
Task Force to ensure that Army CD&E efforts are synchronized with joint 
CD&E. This task force makes certain that joint experiment lessons-
learned inform the design and development of the Objective Force. This 
year, the Army's Title 10 Wargame--co-hosted by Commander, Joint Forces 
Command--will focus on the Joint Force that will fight the next battle. 
Linked to Joint Forces Command's Pinnacle Impact 03 experiment, it will 
be conducted within the context of a future 1-4-2-1 global scenario and 
the emerging Joint Operations Concept. The Army is committed to these 
efforts, and in this budget we have nearly doubled last year's funding 
of these exercises.
    Joint, interagency, multinational, and Army warfighting experiments 
provide invaluable opportunities for the Army to experiment with 
innovative approaches to warfighting and to test new tactics, 
techniques, procedures, organizations, processes, and technology. In 
Millennium Challenge 2002, the largest joint experiment in U.S. 
history, the Army demonstrated four vital capabilities it brings to the 
joint fight:

        <bullet> the ability to attain and maintain information 
        superiority (knowledge);
        <bullet> the ability to conduct decisive maneuver to enable 
        dominant joint maneuver;
        <bullet> the ability to defeat the opposition in an anti-access 
        environment through rapid entry and employment capabilities; 
        and
        <bullet> the ability to support and sustain rapid combat power 
        efficiently by reducing the operational and tactical logistics 
        footprint.

    To evaluate the effectiveness of the Stryker Brigade Combat Team 
(SBCT) concepts for battalion and company operations in a Joint Force, 
the Army employed a SBCT unit during Millennium Challenge. Less than 4 
weeks after Stryker vehicles were delivered to the first unit at Fort 
Lewis, the unit demonstrated rapid air and sealift deployability and--
integrated into the exercise well. Additionally, when given a mission 
on short notice to support a Marine Corps unit in ground operations, 
the SBCT unit demonstrated its agility and versatility.
Balancing Risk As We Manage Change
    Balancing risk is integral to Army transformation. To maintain 
current readiness while we transform, we are managing operational risk: 
risk in current readiness for near-term conflicts with future risk--the 
ability to develop new capabilities and operational concepts that will 
dissuade or defeat mid- to long-term military challenges. The Army has 
accepted risk in selective modernization and recapitalization, and we 
continue to assess these risks as we balance current readiness, the 
well-being of our people, transformation, the war on terrorism, and new 
operational commitments. Since 1999, the Army has terminated 29 
programs and restructured 20 others for a total savings of $12.8 
billion. These funds were reallocated to resource the Stryker Brigades 
and essential Objective Force research and development.
    In Program Budget 2004 and its associated Five-Year Defense Plan 
(FYDP), the Army has generated an additional $22 billion of savings by 
terminating 24 additional systems and reducing or restructuring 24 
other systems. To accelerate achieving the Objective Force capabilities 
and mitigating operational risk, the Army reinvested these savings in 
the development of transformational capabilities in these and other 
programs:

        <bullet> Future Combat System--$13.5 billion
        <bullet> Precision Munitions--$3.2 billion
        <bullet> Sensors and Communications--$2.3 billion
        <bullet> Science and Technology--$1.1 billion
        <bullet> Missile and Air Defense--$1.1 billion

    The operational risk associated with the decreased funding for 
certain current programs is acceptable as long as we field Stryker 
Brigades on schedule and accelerate the fielding of the Objective Force 
for arrival this decade. We will continue to reassess the risk 
associated with system reductions and related organizational changes 
against operational requirements and the strategic environment.
An Information Enabled Army
    Achieving the full spectrum dominance of the Objective Force 
requires changing the way we fight. Changing the way we fight requires 
a holistic transformation of Logistics, Personnel, Installation 
Management, Acquisition, Aviation, business practices--every aspect of 
the Army must transform. The Objective Force requires innovative 
changes and out-of-the-box ingenuity in the way we take care of our 
people and manage the information and material that enhances their 
readiness and answers their needs--both personal and professional, at 
home and in the short sword warfight at foxhole level. Simply put, we 
cannot achieve the Objective Force capabilities without leveraging the 
full potential of the technological advances that our Nation's 
industrial base and science and technology communities are developing. 
The Army has consolidated management of Information Technologies (IT) 
into a single effort--Army Knowledge Management (AKM). AKM capitalizes 
on IT resources unique to our Nation and harnesses them for 
transformation, for the Army, and for the combatant commanders.
    Information management is critical to achieving the Army vision, 
and AKM supports transformation through the development and 
implementation of a network-centric, knowledge-based Army architecture 
interoperable with the joint system. AKM will accelerate the detect-
decide-deliver planning processes and enable warfighters to see the 
adversary first--before our forces are detected; understand the Common 
Relevant Operating Picture first; act against adversaries first; and 
finish the warfight with decisive victories--see first, understand 
first, act first, finish decisively. AKM will provide knowledge at the 
point of decision for all leaders--from the factory to the foxhole.
    Enabling collaborative mission planning and execution among widely 
dispersed locations around the globe, AKM will provide a rapid and 
seamless flow and exchange of actionable information and knowledge. The 
network-centric operations that AKM enables will decrease our logistic 
footprint and enhance sustainability of the Objective Force through 
multi-nodal distribution networks--reaching forward to the theater and 
back to installations. Advanced information technologies will 
dramatically enhance Battle Command. Command, Control, Communications, 
and Computer (C\4\) decision tools seamlessly linked to Intelligence, 
Surveillance, and Reconnaissance (ISR) assets produce a radically 
improved Common Relevant Operating Picture (CROP) and enable battle 
command.
    AKM will dramatically enhance the warfighter's ability to 
distribute, process, fuse, and correlate unprecedented amounts of 
actionable data into information--securely, reliably, and quickly 
enough to enable leaders to synchronize and mass effects for decisive 
results. Network-centric operations enable information awareness, 
information access, and information delivery.
    The Army Knowledge Enterprise (AKE) construct describes the Army's 
process to enable improved strategic and tactical information 
distribution and collaboration. In short, AKE leverages the ingenuity 
and resourcefulness of our people in shaping the environment to achieve 
dominance and helps leaders achieve decision superiority and mission 
efficiencies.
    Integration and refinement of existing Army networks is the first 
step in achieving a network-centric, information-enabled force that 
creates efficiencies and provides secure, reliable, actionable 
information communications. To this end, the Army activated the Network 
Enterprise Technology Command (NETCOM). NETCOM is the Army's single 
authority assigned to operate, manage, and defend the Army's 
information infrastructure. NETCOM has assumed technical control of all 
Army networks--active, Guard, and Reserve. This new policy allows 
NETCOM to evaluate any system, application, or piece of equipment that 
touches the Army Networks. NETCOM will improve the capacity, 
performance, and security of our networks at every level.
    Among others, one tangible product of NETCOM is the consolidation 
and removal of redundant servers across the Army. This example of 
better business practice will harvest significant savings in 
resources--both dollars and managers--while increasing the 
effectiveness of the network. Since the first quarter fiscal year 2002, 
we have reduced the number of servers Army-wide by 16 percent--311 in 
the National Capitol Region alone.
    Army Knowledge Online (AKO) begins to allow the Army to 
decentralize the management of information. AKO is the Army's secure, 
web-based, internet service that leverages the Army's intellectual 
capital to better organize, train, equip, and maintain our force. It 
gives our people a means to collaborate, to improve their situational 
awareness, and to access their personnel data. Already, hard-copy 
processes that formerly took days and weeks can now be accomplished 
almost instantly--from pay to personnel actions to assignments, to name 
a few. AKO is just an early glimpse of the potential capabilities of a 
network-centric, knowledge-based organization that harnesses the 
potential of the global infostructure.

                 OPERATIONAL ARMY--THE OBJECTIVE FORCE

    The Army is actively engaged in global operations supporting 
combatant commanders today, but it is our obligation to prepare for the 
future, as well. The Objective Force is the Army's future full-spectrum 
force that will be organized, manned, equipped and trained to be more 
strategically responsive, deployable, agile, versatile, lethal, 
survivable, and sustainable than we are today--across the full spectrum 
of military operations as an integral member of a cohesive joint team.
    The Nation will continue to face adaptive, asymmetric threats that 
capitalize on the power of information. To dominate and maintain 
superiority over these emerging challenges, the Army is changing the 
way we fight--a paradigm shift more significant than the 20th century's 
introduction of the tank and the helicopter. The Army is changing from 
sequential and linear operations to distributed and simultaneous 
operations. The Objective Force--characterized by networks of people 
enabled with systems that provide actionable information and decision 
superiority--will dissuade, deter, or decisively defeat our adversaries 
anytime, anyplace, and anywhere.
    The Objective Force will consist of command structures scaled to 
meet Joint Force Commander requirements and modular combined-arms units 
tailored according to each situation. Objective Force integrated, 
mobile, air-ground teams will conduct mounted and dismounted operations 
and employ both manned and unmanned platforms to achieve decisive 
victories. Capable of forcible entry and operations in austere 
environments to address the spectrum of military operations--from 
humanitarian assistance to warfighting--the Objective Force will 
conduct simultaneous combat and stability operations and master 
transitions between phases of operations. It will be an offensively 
oriented, multi-dimensional force enabled by advanced information 
technologies that give soldiers real-time intelligence and actionable 
information.
    The Objective Force will arrive in theater combat capable--
deployment will be synonymous with employment. The Objective Force will 
be strategically responsive and rapidly deployable on the U.S. Air 
Force family of inter-theater and intra-theater aircraft. An Objective 
Force Unit of Action (UA) will deploy on approximately one-third the 
number of aircraft required to deploy a heavy brigade combat team 
today. It will be operationally deployable and capable of operational 
maneuver over strategic distances by air, land, or sea. Soldiers will 
overcome anti-access and area denial strategies and environments 
through precision maneuver and decision superiority.
    Equipped with new systems designed to meet the needs of the Army's 
future fighting formations, the Objective Force will be a networked 
system of systems. This system of systems includes soldiers equipped 
with the Land Warrior system; a family of 18 integrated, synchronized, 
manned, and unmanned Future Combat Systems (FCS); and critical 
complementary systems such as the Comanche and the Future Tactical 
Truck System. The components of the FCS are being synchronously 
developed and fielded as a complete family to achieve the warfighting 
capabilities the Nation requires to defeat adaptive, asymmetric 
conventional and unconventional adversaries.
    Soldiers are the centerpiece of the Army's formation--not 
equipment. Soldiers of the Objective Force will leverage dominant 
knowledge to gain decision superiority over any adversary. They will 
seamlessly integrate Objective Force capabilities with the capabilities 
of Joint Forces, Special Operations Forces, other Federal agencies, and 
multinational forces. The Objective Force soldiers will enable the 
United States to achieve its national security goals in a crisis, 
rather than simply inflict punitive strikes on an adversary. Employing 
FCS capabilities in formations called Units of Action (UA) and Units of 
Employment (UE), Objective Force soldiers will provide campaign quality 
staying power--that means precision fire and maneuver to control 
terrain, people, and resources, without having to resort to 
indiscriminate collateral damage. The Land Warrior system will 
integrate individual soldiers in the network while providing them 
increased protection and lethality. FCS will give soldiers the 
capability to destroy any adversary in any weather and environment with 
smaller calibers, greater precision, more devastating target effects, 
and at longer-ranges than available today.
    Joint C\4\ISR--a network-centric information architecture nested 
within the Global Information Grid--will connect the Objective Force's 
system of systems. Capitalizing on the synergistic power of the 
information network enterprise, every Objective Force soldier and 
platform will be capable of sensing and engaging the enemy while 
maintaining situational awareness of friendly forces. Advanced 
information technologies and C\4\ISR decision tools and assets will 
enhance the Common Relevant Operating Picture (CROP). The Objective 
Force will identify, locate, and engage critical targets with lethal or 
non-lethal affects and assess battle damage on those targets. The joint 
C\4\ISR linkages will enable the attack of targets with whatever joint 
or Army assets are available for immediate employment, whether the 
force is in contact or out of contact. Similarly, enhanced situational 
awareness will facilitate multi-layered active and passive defense 
measures--including both offensive and defensive counter air against 
air and non-air breathing, manned, and unmanned aerial vehicles.
    The CROP and network-centric operations will enhance sustainability 
of the Objective Force through multi-nodal distribution networks that 
reach forward to the area of operations or reach back to the Home 
Station Operations Center. Increased reliability through equipment 
design and commonality among the FCS family of systems will enhance 
sustainability while reducing logistics demands. Advanced technologies 
will enable robust Objective Force operations while shrinking the 
logistics footprint and lift requirements of deployed forces.
    The FCS is a transformational approach to meeting this Nation's 
requirements for the Objective Force. We designed and will field the 
FCS family in a carefully balanced manner to avoid optimizing a 
component at the expense of sub-optimizing the overarching capabilities 
of Objective and Joint Forces. The acquisition and requirements 
development processes are being updated to accommodate the Department 
of Defense's (DOD) direction to field a networked system of systems 
rapidly through spiral development and an open architecture that allows 
maturing technological insertions as they occur.
    The Army embraces the ongoing DOD and Joint Staff Capabilities and 
Acquisition processes reform efforts to achieve revolutionary 
capabilities in the fielding of a new generation of equipment. This 
collaborative DOD and JCS effort enables the Army to design new 
information-age capable organizations holistically, use evolutionary 
acquisition strategies to equip those organizations, and see the 
Objective Force fielded before the end of this decade.

       SCIENCE AND TECHNOLOGY--MOVING TOWARD THE TRANSFORMED ARMY

    Preempting our adversaries' technological surprises over the past 3 
years, Army science and technology (S&T) investments are already 
providing America's Army with sustained overmatch in all materiel 
systems. The Army has increased and focused its S&T investments. We are 
demonstrating the enabling joint interoperable technologies essential 
for Objective Force capabilities and accelerating their arrival. Our 
S&T program is pursuing a wide spectrum of technologies for unmanned 
air and ground systems that will expand the range of joint warfighting 
capabilities, reduce risk to soldiers, and reduce the logistics 
footprint of the force. Realizing the full potential of unmanned 
systems requires technological development in sensors that improve 
navigation and mission performance, in intelligent systems for semi-
autonomous or autonomous operation, in networked communications for 
manned-unmanned teaming, and in human-robotic interfaces, among many 
others.
    The Defense Advanced Research Projects Agency (DARPA) and Army 
partnership contracted for a Lead Systems Integrator (LSI) to 
accelerate the transition of FCS to the System Development and 
Demonstration (SDD) Phase, with a Milestone B decision in May 2003. The 
Army is on track to achieve first unit equipped in 2008 and an initial 
operating capability of one Objective Force Unit of Action (UA) in 
2010. To accelerate development and in partnership DARPA, the focus on 
key transformation technologies for the FCS has been narrowed to the 
systems with the most promise. Our highest priority S&T efforts remain 
technological advances for FCS.
    The Army will field FCS as a family of systems built on information 
age technologies embedded in manned and unmanned air and ground 
platforms. Integral to joint fires, the family of systems will 
integrate long-range air- and ground-based sensors with long-range 
cannon and missile precision munitions. The family of systems will also 
provide increased joint capabilities to conduct battle command, 
reconnaissance, mounted combat operations, dismounted combat 
operations, medical treatment and evacuation, and maintenance and 
recovery. To provide decisive lethality, FCS will employ networked, 
precision, and loitering attack munitions fired from modular, easily 
transportable containers. Finally, FCS will leverage embedded, real-
time interactive, virtual, distributed, collaborative, joint 
simulations for training and mission rehearsal.

                  ENABLING THE OBJECTIVE FORCE SOLDIER

    Eighteen systems, both manned and unmanned, the Objective Force 
soldier, and C\4\ISR, together, comprise the FCS. Manned and unmanned 
reconnaissance capabilities are part of the FCS family of systems' 
interdependent networked air- and ground-based maneuver, maneuver 
support, and sustainment systems.
    There are 10 Unmanned Systems: Unmanned Aerial Vehicles (UAV) 
Classes 1, 2, 3, and 4; Unmanned Ground Vehicles (UGV)--the 
Multifunction Utility/Logistics and Equipment (MULE), the Armed Robotic 
Vehicle (ARV), and the Small (manpackable) Unmanned Ground Vehicle 
(MUGV); Unattended Ground Sensors (UGS); and Unattended Munitions--the 
Non-Line-of-Sight (NLOS) Launch System (LS) and Intelligent Munitions 
Systems (IMS).
    There are eight manned systems: the Infantry Carrier Vehicle (ICV); 
Command and Control Vehicle (C2V); Reconnaissance and Surveillance 
Vehicle (RSV); Line-of-Sight, Beyond-Line-of-Sight Mounted Combat 
System (LOS/BLOS MCS); NLOS-Mortar; Medical Vehicle (MV); the FCS 
Recovery and Maintenance Vehicle (FRMV); and the Non-Line-of-Sight 
(NLOS) Cannon.
    Decisive warfighting is about fires and maneuver: fires enable 
maneuver, and maneuver enables fires. Joint and organic close, 
supporting, indirect fires destroy the enemy, suppress the enemy's 
capabilities, protect our forces, and enable ground units to maneuver. 
The ICV, the Unattended Munitions NLOS-LS, IMS, C2V, MCS, NLOS-Mortar, 
and NLOS Cannon are important elements of the FCS that will enable the 
Objective Force to conduct distributed and simultaneous joint combat 
operations. With joint fires, the NLOS cannon is critical to support 
and protect our land forces in hostile environments. NLOS-LS NetFires 
is a platform-independent family of missiles with precision attack and 
loitering capability. Both Precision Guided Mortar Munitions and 
Excalibur precision cannon munitions will enhance organic maneuver 
fires. A new, joint fire support, battle command, and fire support 
architecture will allow rapid engagement of targets by any Army or 
joint asset.
    For over 227 years, soldiers have remained the centerpiece of our 
formations. The Land Warrior program--another key S&T initiative--
responds to this legacy and enhances our soldiers combat power 
generation capability. The Land Warrior program will develop a 
lightweight, low observable, enhanced-armor protection, fighting 
ensemble for the individual Objective Force soldier. Through networked 
connectivity to the FCS-equipped, maneuver Unit of Action, Land Warrior 
soldiers will enable revolutionary lethality, mobility, survivability, 
and sustainability for the individual warfighter while reducing 
logistics demands.
    Future Combat Systems are networked in the joint C\4\ISR 
architecture--including networked communications, networked options, 
sensors, battle command systems, training, and both manned and unmanned 
reconnaissance and surveillance capabilities. These networked systems 
will dramatically enhance situational awareness and understanding and 
operational level synchronization well beyond today's standards. 
Improved C\4\ISR capabilities will enable network-centric Objective 
Force operations. The results of the investments will allow leaders to 
capitalize on sensor and processing technology to see, understand, and 
shape the battlespace before the enemy can react--increasing combat 
force effectiveness and survivability. The S&T program will develop and 
demonstrate real-time, continuous situational understanding by 
integrating data from manned and unmanned air- and ground-based 
sensors.
    S&T investments in military logistics are an important enabler for 
the Objective Force. We are placing our emphasis on sustainment's big 
drivers--fuel, ammunition, maintenance, and water--to dramatically 
reduce our logistics footprint and lift requirements in these areas. 
Key technologies include on-board water generation, real-time logistics 
command and control processes and distribution management, enhanced 
multi-purpose munitions and packaging, efficient propulsion and power 
technologies, real-time diagnostics and prognostics, and Micro-Electro 
Mechanical Systems (MEMS).

                        TRANSFORMATIONAL SYSTEMS

    Several transformational systems were under development prior to 
announcement of the Army vision in October 1999. The Army has completed 
an extensive analysis to identify those systems that complement FCS and 
the Objective Force system of systems.
    The Comanche Helicopter is the centerpiece of the Aviation 
Modernization Plan (AMP) and represents the first new system to reach 
Initial Operational Capability (IOC) within the Army's Objective Force. 
Comanche is our armed reconnaissance platform with attack capabilities. 
It will leverage the situational awareness and situational curiosity of 
a scout augmented with revolutionary, state-of-the-art ISR 
technologies. Comanche supports vertical and horizontal maneuver as an 
integral part of network-centric operations and extends human eyes and 
decisionmaking beyond the ground maneuver force. Utilizing stealth 
technologies, it will network with all joint C\4\ISR and joint weapons 
systems. Comanche will leverage maximum effect of future standoff 
precision weapon systems such as the Common Missile and allow us to 
maneuver ground formations based upon full knowledge of the situation. 
Augmented with armed or unarmed UAVs, Comanche will fill ground 
maneuver's most critical battlefield deficiency--armed aerial 
reconnaissance--with a capable, survivable, and sustainable aircraft. 
The Comanche program is already well on its way to giving the Army a 
capability pivotal to transforming the way we will fight.
    Several other transformational systems will empower the Objective 
Force with the knowledge dominance and battle command to provide 
decision superiority across the spectrum of operations. The Warfighter 
Information Network-Tactical (WIN-T) System, Medium Extended Air 
Defense System (MEADS), the Joint Tactical Radio System (JTRS), and the 
Army Airborne Command and Control System (A2C2S) will enable Objective 
Force joint C\4\ISR capabilities. These programs will provide the 
tactical enterprise level networks that will ensure seamless, secure, 
digital connectivity between the Objective, Interim, and today's 
forces. The Distributed Common Ground System--Army (DCGS-A) 
architecture provides Army network-centric ISR connectivity from 
national agencies to joint systems to Objective Force Units of Action 
as part of the integrated Department of Defense DCGS architecture. 
DCGS-A will enable interoperable tasking, processing, and exploitation 
capabilities. The Aerial Common Sensor brings improved signal 
intelligence collection and precision geolocation capabilities, as well 
as imagery intelligence (IMINT) and measurement and signals (MASINT) 
sensor packages. Another system, Prophet, uses communications 
intelligence to depict the battlespace and further enhance situational 
awareness. These C\4\ISR systems greatly enhance the Objective Force's 
ability to gain actionable information superiority and decision 
dominance over all adversaries and expand the range of options for the 
Joint Force combatant commanders.
    Transformational systems will provide the Objective Force with 
strategic and tactical maneuver capabilities. The Theater Support 
Vessel will support rapid intra-theater lift requirements, provide the 
capability to conduct operational maneuver and repositioning, and 
enable units to conduct enroute mission planning and rehearsal. The 
Future Tactical Truck System will have commonality with FCS and will 
support the Objective Force by enabling command, control, and 
transportation of cargo, equipment, and personnel. The Tactical 
Electric Power (TEP) generators will provide power to Objective Force 
units where fixed power grids are not available.
    Transformational systems provide the Objective Force with other 
important capabilities, as well. CBRNE effects systems support the 
Objective Force across the spectrum of military operations and improve 
capabilities to conduct homeland security activities. Engineer, civil 
affairs, and psychological operations vehicles will enable mobility and 
enhance civil affairs and PSYOPs capabilities. The Up-Armored High 
Mobility Multi-purpose Wheeled Vehicle (HMMWV) will improve Objective 
Force soldier survivability and lethality. The Multi-Mission Radar will 
provide the capability to detect and track aircraft, artillery, and 
other projectiles, then queue appropriate weapons systems and airspace 
synchronization systems. The High Mobility Artillery Rocket System 
(HIMARS) is a lighter weight, more deployable multiple rocket launcher 
capability that will integrate into the joint fires network.
Bridging the Capabilities Gap--Stryker Brigade Combat Teams
    Announcing our intent to field an Interim Force in October 1999, 
the Army responded to a capabilities gap between its lethal, 
survivable, but slow-to-deploy heavy forces and its rapidly deployable 
light forces that lack the protection, lethality, and tactical mobility 
that we seek. Just 2\1/2\ years later in 2002, the Army began fielding 
the first Stryker Brigade Combat Team to bridge that gap. In 2003--less 
than 4 years after the announcement--we are on track to achieve IOC 
with the first SBCT at Fort Lewis, Washington. Stryker Brigades will 
provide the combatant commander vastly increased operational and 
tactical flexibility to execute fast-paced, distributed, non-contiguous 
operations.
    Stryker Brigade Combat Teams respond to combatant commander 
requirements across the spectrum of military operations. Optimized for 
combat in complex and urban terrain, the Stryker Brigades will be 
decisive in other major combat operations, as well. The SBCT 
Reconnaissance, Surveillance, and Target Acquisition (RSTA) Squadron 
provides both organic human intelligence capabilities and UAVs embedded 
at the brigade level. Its military intelligence and signal companies--
working through a digitally enabled battle command bridge--leverage 
theater and national assets to create an information-enabled force. 
SBCTs will use this enhanced joint C\4\ISR capability to revolutionize 
combat paradigms from ``make contact, develop the situation, maneuver 
the forces'' to ``understand the situation, maneuver the forces, make 
contact at the time and place of your own choosing, and finish 
decisively.''
    Moreover, leveraging platform commonality, enhancing logistics 
practices and enablers, and reorganizing logistics formations, the SBCT 
is vastly more deployable and sustainable than our heavy forces, while 
significantly increasing combat power generating capabilities. 
Augmented for sustained operations, the SBCT requires 37 percent fewer 
CSS personnel than a digitized heavy brigade. While capitalizing on 
these advantages, developing and available technologies allow us to 
mass effects--rather than massing formations--and create a robust, 
reliable capability to conduct operational maneuver over strategic 
distances.
    Finally, SBCTs provide an invaluable means of spearheading 
transformation. The SBCT trains junior officers and noncommissioned 
officers--tomorrow's commanders and command sergeants major--in the 
tactics, techniques, and procedures that will inform employment of the 
Objective Force.
    The Army has resourced six Stryker Brigade Combat Teams to 
contribute to fulfilling the 1-4-2-1 defense construct and national 
security requirements; however, at this time, the Secretary of Defense 
has only authorized the procurement of the first four brigades. The 
Army will provide the Secretary of Defense with a plan for Stryker 
Brigades 5 and 6.
    Fielding of the SBCTs affects the entire Army: active and Reserve 
components; heavy and light forces; CONUS and OCONUS. Current fielding 
timelines will enhance the Nation's ability to fight and win the GWOT 
and conduct major combat operations. The transformation of four active 
component brigades to SBCTs provides a rotational base with three of 
the SBCTs focused on the Pacific theater. One of the two SBCTs fielded 
at Fort Lewis will be forward-based in Europe not later than 2007. The 
Stryker Cavalry Regiment will support the XVIII Airborne Corps' 
critical need for robust, armed reconnaissance. The conversion of a 
Reserve component brigade to an SBCT will enhance our strategic Reserve 
and support the GWOT, smaller scale contingencies, and homeland defense 
missions. Additionally, SBCT stationing provides rapid, strategic 
responsiveness through power projection platforms capable of supporting 
four critical regions described in the 1-4-2-1 defense construct. The 
first SBCT will attain Initial Operational Capability in the summer of 
2003.
Preserving the Army's Legacy
    Today's force guarantees the Army's near-term warfighting readiness 
to fight and win our Nation's wars, decisively. Because the Army 
bypassed a procurement generation, the Army's Combat Support and Combat 
Service Support systems now exceed their 20-year expected life cycle, 
and 75 percent of our critical combat systems exceed their expected 
half-life cycle. To maintain operational readiness while preserving 
resources for transformation, the Army is recapitalizing and 
selectively modernizing a portion of the current force. The 
modernization program addresses the critical issue of AC and RC 
interoperability and serves as a bridge to mesh these two components 
seamlessly. In general, the Army increased funding for programs that 
are clearly transformational and support the Defense transformation 
goals, sustained funding for high priority systems that will transition 
to the Objective Force, and reduced funding for systems not essential 
to Army transformation. The Army remains committed to its 17-system 
recapitalization program, but we have reduced the prioritized 
recapitalization program from three-and-one-third divisions to two 
divisions.
    Army Special Operations Forces are an indispensable part of the 
Army and will continue to provide unique capabilities to the Joint 
Force and Land Component Commanders. In response to the increasing 
requirement for Special Operations Forces in support of joint campaign 
plans, the Army has validated and resourced growth in its SOF 
structure. The recent initiatives will transfer 1,788 manpower spaces 
to Major Force Program-11 beginning in fiscal year 2003. Since the 
commencement of Army Special Operations Forces operations in support of 
the GWOT, the U.S. Army has provided over $1.4 billion in new equipment 
to enhance Special Operations Forces firepower, communications, and 
ground and air mobility.
    The Army will remain the largest user of space-based capabilities 
among the Services. Army space assets are providing tangible support to 
the war on terrorism and Operation Enduring Freedom--they ensure Army 
and Joint Force Commanders optimize communications, satellite 
intelligence, global positioning system, imagery, weather, missile 
warning, and other space-based capabilities in every aspect of planning 
and operations. We are working diligently with the joint and 
interagency space community to ensure that Army and joint space systems 
continue to provide their essential capabilities now and for the 
Objective Force.

               AVIATION TRANSFORMATION AND RESTRUCTURING

    Aviation transformation further demonstrates the Army's hard 
choices in balancing risk to resource transformation. Our interim 
plan--now in progress--lowers operating and sustainment costs while 
posturing aviation for arrival of the Objective Force by 2010. Apache 
modernization is an integral part of the Army Aviation Transformation 
Plan. The AH-64D Longbow heavy attack team will enhance domination of 
the maneuver battlespace and provide the ground commander with a 
versatile, long-range weapon system against a range of fixed and moving 
targets. The UH-60 Blackhawk continues to be the assault workhorse of 
Army Aviation, executing over 40 percent of the Army's annual flying 
hours. We are extending the life of the UH-60 while providing it with 
capabilities required of the future battlespace. Similarly, the Army is 
fully committed to the CH-47F Chinook program. Its heavy-lift 
capability is invaluable to transforming the Army. As we restructure 
and standardize attack and lift formations across the force, we will 
also adjust the stationing and alignment of Reserve component aviation 
units to mitigate the near-term risk.
    Army National Guard Aviation comprises almost 50 percent of the 
Army's aviation force and is one of the Nation's most valuable assets 
both for wartime and for peacetime missions. Essential for successful 
execution of the Nation's military strategy, the ARNG currently has 
aviation units deployed in Afghanistan, Kuwait, Bosnia, Europe, and 
Saudi Arabia, as well as Central and South America.

         ARMY NATIONAL GUARD RESTRUCTURING INITIATIVE (ARNGRI)

    ARNGRI seeks to transform a sizeable portion of ARNG combat 
structure into more deployable, flexible fighting forces to support 
Army requirements at home and abroad. ARNGRI will introduce two new 
organizations into the force structure: Mobile Light Brigades and 
Multi-Functional Divisions. These organizations will provide full 
spectrum capabilities in support of combatant commanders. The Mobile 
Light Brigades will operate as a subordinate unit to the multi-
functional divisions, which will also contain two combat support/combat 
service support brigades and be capable of supporting either major 
combat or homeland security operations.

                ARMY RESERVE TRANSFORMATION INITIATIVES

    By providing responsive force generating capability and technically 
trained individuals, the USAR facilitates our capability to conduct 
extended campaigns in multiple theaters and to sustain joint 
operations. Army Reserve initiatives ensure the USAR is missioned, 
organized, and equipped to provide interoperability across the full 
spectrum of military operations. Transformational organizations include 
experimentation forces and information operations, joint augmentation, 
network security, and interagency units.
    The Readiness Command Restructuring initiative and Federal Reserve 
Restructuring Initiative will help the USAR fulfill these new mission 
requirements. These initiatives lend greater flexibility to efforts 
that enhance responsiveness to America's foreign and domestic 
protection needs. Regional Readiness Commands will focus on individual 
and unit readiness, leader development, training, and growth which will 
demand a new personnel system that achieves holistic life-cycle 
management for Army Reserve soldiers.

        INSTITUTIONAL ARMY--TRANSFORMING THE WAY WE DO BUSINESS

    We have made great strides in revolutionizing our business 
management practices by starting at the very top. Last year, we 
realigned our headquarters by reorganizing and realigning 
responsibilities of the Secretariat and the Army Staff--streamlining 
coordination, tasking, and decisionmaking--resulting in a more 
responsive and efficient organization. This initiative allowed us to 
eliminate unnecessary functions and redistribute 585 manpower spaces to 
accomplish core competencies.
    As previously discussed, the Army has addressed the management of 
its installations, personnel systems, and contracting in its 
Transformation of Installation Management (TIM). We are aggressively 
pursuing efforts to outsource non-core functions. The Army will reap 
substantial dividends in efficiency and effectiveness through these 
strategic realignments of human and physical capital.

                        PERSONNEL TRANSFORMATION

    The Secretary of the Army's key management initiative is personnel 
transformation. Its goal is to modernize and integrate human resource 
programs, policies, processes, and systems into a multi-component force 
that includes civilians and contractors. We will evaluate our processes 
and implement the most efficient program, policies, and organizations 
to support the Objective Force.
    The centerpiece of personnel transformation is a comprehensive 
effort focused on a potential Army-wide implementation of unit manning 
and unit rotation. We are aggressively examining the feasibility of a 
unit manning and rotation system that would better support the new 
national defense strategy, improve cohesion and combat readiness within 
the operational Army, provide highly cohesive well-trained units to 
combatant commanders, and improve well-being for families by providing 
greater stability and predictability in assignments. The Army currently 
uses unit rotations in support of operational missions in the Balkans, 
Sinai, and Afghanistan. The Army is studying the use of unit rotations 
for other locations and in the war on terrorism. Units would know of 
these rotations well in advance, providing families with greater 
predictability and enabling focused preparation, both of which 
contribute to increased combat readiness of the unit.
    Unit manning seeks to synchronize the life cycle of a unit with the 
life cycle of the soldier within that unit. All soldiers and leaders 
would be stabilized, resulting in a significant increase in cohesion 
and combat readiness over our present individual replacement system. 
Such a system has significant second and third order effects across the 
force--training and leader development, recruiting and retention, unit 
readiness levels, and total Army end strength, among others. All of 
these are being studied intensively, and we anticipate senior Army 
leadership decisions on unit manning and unit rotation in July 2003.

                               THIRD WAVE

    Because we operate in an environment in which there are increasing 
demands for military capabilities--the Secretary of the Army's Third 
Wave initiative seeks to ensure that we are achieving the best value 
possible for our taxpayers' dollars.
    There are three phases to the Third Wave process. First, we 
determined what activities were core or non-core to the Army's mission. 
In the second phase, we are validating the breakout between core and 
non-core functions by determining if any non-core functions should be 
exempted. This phase has an anticipated completion date of mid- to 
late-February 2003. Upon completion, the Army leadership will notify 
Congress of the results of this phase. In the third phase, key Army 
leaders will assess appropriate plans to execute non-core functions, 
select the best means to proceed, and develop implementation plans. At 
this time, we do not know how many of the 214,000 jobs identified as 
potentially non-core functions in Phase I will be included in 
implementation plans. Although implementation plans will target 
execution in fiscal years 2005-2009, some implementation plans may be 
delayed beyond that period.
    The implementation of competitive sourcing of non-core functions 
will adhere to OMB Circular A-76 and related statutory provisions. 
Exceptions to the requirement for public-private competition are 
limited, such as where 10 or fewer civilian employees perform the 
function or where legal restrictions against using the A-76 process 
apply to the function. To lower costs for taxpayers and improve program 
performance to citizens, OMB has undertaken major revisions to the 
processes and practices in OMB Circular A-76 to improve the public-
private competition process.

                       ACQUISITION TRANSFORMATION

    The Army is leading the way in acquisition reform within DOD's 
broad transformation of defense acquisition policies and procedures. 
The Army's FCS program may prove to be the largest DOD acquisition 
effort that fully embraces the concepts of evolutionary acquisition and 
spiral development--leveraging the potential of rapid advancement 
within individual technologies by allowing for changes within programs 
as technologies mature.
    The FCS program is evolutionary in its design and incorporates 
periodic blocked improvements within its 19 systems--the Objective 
Force soldier and 18 manned and unmanned systems. Within these 19 
systems are 540 spirally developing technologies. The Army's use of a 
Lead System Integrator (LSI) enables a ``best of the best'' approach to 
selection from competing industry efforts. Our unprecedented 
partnership with DARPA ensures the FCS effort leverages that agency's 
DOD-wide perspective and resources to produce the best capability and 
value for the Joint Force.
    The Army continues to revise its acquisition policies and 
applicable regulatory guidance. On October 3, 2001, the Army approved 
an acquisition reorganization that transferred control of all 
acquisition program management to the Army Acquisition Executive (AAE) 
and eliminated duplication of effort in two major Army commands. 
Effective October 2002, 12 Program Executive Officers (PEO) report to 
the AAE, and their subordinate PEOs assumed management of all Army 
acquisition programs, regardless of acquisition category. The plan 
ensures that there is only one chain of authority for acquisition 
programs within the Army. In addition, the plan clearly holds program 
managers responsible and accountable for the life cycle management of 
their assigned programs.
    We have also transformed the way we conduct business through the 
organization of the Army Contracting Agency (ACA) that realigns our 
previously decentralized installation and information technology 
contracting processes into one organization. Responsible for all 
contracts over $500,000 and tasked to eliminate redundant contracts, 
ACA leverages Army-wide requirements to achieve economies of scale. ACA 
supports Army transformation efforts by aligning all base support 
contracting into a single organization that best supports installation 
management transformation. All of these initiatives use information 
technology to leverage enterprise-wide buying capabilities. 
Additionally, ACA will act as the single coordinating element and form 
the base from which to deploy contingency-contracting, operational 
support to the warfighting commands. The ACA and other contracting 
activities will continue to support small business awards in the 
outstanding manner it did in fiscal year 2002.

                        LOGISTICS TRANSFORMATION

    We cannot transform the Army without a transformation in logistics. 
We must incorporate the logistician's view into the design of our 
systems even before we begin to build platforms. Collaboration between 
the acquisition and logistics communities will give the Objective Force 
the rapid deployability and sustainability we demand--by design--
without compromising warfighting capability.
    Designing the right logistics architecture--systems, business 
processes, enterprise, for example--is fundamental to success. The 
Army's logistics transformation will focus on creating an overarching 
corporate logistics enterprise that employs industries' best business 
practices. Within this enterprise, the Army established three principal 
goals for logistics transformation: enhance strategic mobility and 
deployability; optimize the logistics footprint; and reduce the cost of 
logistics support without reducing readiness or warfighting capability.
    The Army's mobility and deployability goals for the Objective Force 
are to deploy a combat brigade within 96 hours after lift off, a 
division on the ground in 120 hours, and a five-division corps in 
theater in 30 days. To achieve this strategic responsiveness, the Army 
Strategic Mobility Program (ASMP) serves as a catalyst to bring about 
force projection changes both in the Army's and in our sister Services' 
lift programs.
    Platforms like the Intra-Theater Support Vessel (TSV) and Inter-
Theater Shallow Draft High Speed Sealift (SDHSS) provide 
transformational capabilities for operational and strategic maneuver 
and sustainment of Army formations.
    Because strategic air and sealift cannot meet deployment 
requirements, Army Prepositioned Stocks (APS) ashore and afloat 
continue to be a critical component of Army power projection. The Army 
is currently participating in a joint-led Worldwide Prepositioning 
Study to determine if location, mix, and capabilities in existing 
stocks of combat, combat support, and combat service support require 
adjustments to meet the defense strategy more effectively.
    The Objective Force requires the Army to optimize its logistics 
footprint to produce a smaller, more agile, responsive, and flexible 
sustainment organization. To achieve this goal, we will leverage 
technology and innovative sustainment concepts. The Army is already 
developing and integrating key enablers to provide a transformed, 
corporate logistics enterprise. Some of these enablers include embedded 
diagnostics and prognostics, tactical logistics data digitization 
(TLDD), serial number tracking, and the Global Combat Service Support-
Army (GCSS-A) system that utilizes a commercial Enterprise Resource 
Planning (ERP) solution. The ERP approach changes the Army's logistics 
automation systems strategy from one of custom code development for 
unique Army requirements to adoption of a commercial off-the-shelf 
(COTS) product.
    The selective use of the Logistics Civil Augmentation Program 
(LOGCAP) to augment military logistics force structure provides 
commanders with the flexibility to reallocate manpower, resources, and 
materiel by adding contractors to the equation of logistics support. In 
addition to providing services and some supply support, these 
contractors can quickly deploy to establish base camps, receive and 
process soldiers as they begin arriving in theater, and reverse the 
process when soldiers go home.
    Current initiatives that help reduce costs without reducing 
readiness or warfighting capability include the National Maintenance 
Program and the Single Stock Fund (SSF). As previously discussed, 
programs provide two basic building blocks for a revolutionary change 
in logistics business practices.

                      ADVANCED MEDICAL TECHNOLOGY

    Congress designated the Army as the lead agent for DOD vaccine, 
drug, and development programs for medical countermeasures to 
battlefield threats. This includes vaccines against naturally occurring 
infectious diseases of military significance, combat casualty care, 
military operational medicine, and telemedicine research. The program 
also funds Food and Drug Administration requirements for technology 
transition to advanced development.
    The medical force provides the requisite medical intervention and 
care for the Joint Force deployed around the globe. With its Medical 
Reengineering Initiative (MRI), the Army Medical Department has 
transformed 28 percent of its Corps, and echelon above Corps, force 
structure to an organizational structure that promotes scalability 
through easily tailored, capabilities-based packages. These packages 
result in improved tactical mobility, reduced footprint, and increased 
modularity for flexible task organization. MRI supports both the 
current forces and the Stryker Brigades, and is the bridge to the 
Objective Medical Force. We have implemented innovative strategies to 
make the most efficient use of our budget. Medical modernization, which 
includes the acquisition of current medical equipment and technology, 
is partially funded within MRI units.

                      BUSINESS INITIATIVES COUNCIL

    In June 2001, the Secretary of Defense established the Department 
of Defense Business Initiatives Council (DOD BIC). The DOD BIC's goal 
is to improve business operations and processes by identifying and 
implementing initiatives that expand capabilities, improve efficiency 
and effectiveness, and create resource savings in time, money, or 
manpower.
    The Army has aggressively explored ways to improve its internal 
business practices, and has established the Army BIC, under the 
leadership of the Secretary and the G-8. Effective November 13, 2002, 
the Secretary of the Army has approved a total of 35 initiatives under 
the Army BIC. Subsequently, the Army submitted a number of the 
initiatives through the formal DOD BIC process for implementation 
across the Services and other DOD activities. The BIC process has 
helped to create a culture of innovation and inter-service cooperation. 
The superb level of cooperation across the military departments, the 
Joint Staff, and OSD has made this possible.

                       A COMMITMENT TO THE FUTURE

    With the continued strong support of the administration, Congress, 
our soldiers, and our Department of the Army civilians, and the 
greatest industrial base and science and technology communities in the 
world, the Army will field the Objective Force--this decade.
    By 2010, we will have fielded the first operationally capable 
Objective Force unit equipped with the Future Combat Systems. Our 
Stryker Brigade Combat Teams will be providing to combatant commanders 
capabilities not currently available--enhanced strategic responsiveness 
and the ability to operate in a distributed, non-linear battlespace. 
Through selective recapitalization and modernization of systems that 
enable our soldiers to preserve our legacy today, we will have 
sustained a decisive-win capability at a high state of readiness as an 
integral part of the Joint Force. We will have significantly improved 
the well-being of our people and sustainment of Army infrastructure.
    We remain committed to our legacy--preserving America's freedoms. 
In peace and in war, the Army's soldiers serve the Nation with 
unmatched courage, indomitable will, pride, and plain grit--as they 
have for over 227 years. Soldiers will continue to fight and win the 
Nation's wars, decisively--it is our sacred duty and our non-negotiable 
contract with the American people.

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Warner. Thank you, General.
    Admiral.

    STATEMENT OF ADM. VERNON E. CLARK, USN, CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Clark. Thank you, Mr. Chairman, Senator Levin, and 
members of the committee: Good morning and thank you for the 
opportunity to be with you here this morning to talk about our 
Navy and the challenges that we are facing today in the world.
    Mr. Chairman, I submitted a statement and if we could make 
that full statement a part of the record.
    Chairman Warner. The full statements of all witnesses will 
be included in the record.
    Admiral Clark. We are facing a period of great challenge 
and a period of great accomplishment. I am proud of what our 
people are doing on the point. I could not in fact be prouder 
of what our sailors are doing today in the world, involved in 
the global war on terrorism. It is hard work. We have great 
young men and women who are working the challenge and the task. 
They are innovators. They have great ideas. They are making our 
Navy better every day, and that is their task.
    I also want to make sure that I express my appreciation to 
this committee and to Congress at large for the help that you 
have played in your support in making our Navy stronger. I am 
grateful for the support of this body in the progress that we 
have made in improving our Navy. I will tell you that we are 
enjoying the best retention that we have ever experienced in my 
entire career, and frankly, in our Navy's history. The pay, the 
allowances, housing, the readiness that Congress has provided 
for our force is making a real difference.
    I want to also thank my partners here at the table, my 
Service Chief partners. These guys are committed to jointness 
and I will tell you, it is a pleasure to serve with them. In my 
estimation, our military is more joint than it has ever been 
before and I say without hesitation that all of the Services 
are needed equally to accomplish the task and the mission that 
is before us, and this group of people is working effectively 
together to get the job done.
    Last year when I appeared before this committee, I talked 
about current readiness and manpower as my highest priorities. 
I believe those decisions were right. I believe it postured us 
for the global war on terrorism. Our recommendations and the 
President's submission of the budget and the congressional 
affirmation has made a great difference in the readiness of 
your Navy.
    We have reduced near-term operational risks, we have 
deepened the growth and the development of our sailors, and we 
are seeing the results in our deployments and in our people 
today. Those investments have made today possible. This 
morning, 51 percent of my ships are deployed overseas. Of my 
306 ships, 195 of them are under way this morning, 6 of the 12 
carrier battle groups and two-thirds of the amphibious force 
carrying the marines.
    They are under way in support of the Nation's interests, 
leading the defense of the United States of America away from 
our shores, sending, I like to say, the sovereignty of the 
United States of America anywhere we have to take it--capable, 
persistent, joint, ready forces. They are demonstrating on an 
hourly basis the return on investment that this body has made 
in our Navy.
    I am proud of the budget submission this year. It is not 
without debate, to be sure, and I look forward to the 
discussion today. This year we seek to sustain the advances 
made in current readiness and in manpower and to focus on 
future readiness and transformation.
    Seapower 21, which is our vision for the future and 
detailed in my full statement, is about a dispersed, network-
centric, joint, sea-based force, a force capable of projecting 
offensive power, a force capable of projecting defensive 
power--I call that Sea Strike and Sea Shield. I talk about that 
in terms of being a sea-based force, exploiting our operational 
advantage, the largest maneuver space on the planet, the 
world's oceans.
    In our investment strategy this year, we have assessed the 
risks between current readiness and future readiness, and I 
believe that it is appropriately balanced. We invest today to 
support the global war on terrorism and win today's fight, and 
we must invest in the capabilities to win tomorrow's fight as 
well. That involves tough decisions, to be sure, and I am 
looking forward to talking about them today.
    The threat assessment is straightforward. I think we all 
understand it. But in my judgment this has allowed us to take 
some steps to better prepare for the future. You all know that 
my focus in the previous 2 years has been on making sure that 
we won the battle for people, making sure that our current 
force was really ready to go. I think we have made great 
progress in those areas, and I do believe it is time to shine 
the spotlight on the future.
    The proposals before Congress allow us to divest of older, 
less capable equipment and to move toward that future. 
Certainly numbers are important and I have talked about them in 
my previous 2 years coming before this body to testify. Numbers 
have a quality all of their own. We have to buy capability and 
lethality into the systems that we field and put to sea.
    So, as I understand it, we are going to have a closed 
session today. I look forward to discussing the future threat 
and our readiness to deal with the future threat.
    Last year, our challenge was to find the money to 
recapitalize our Navy. I believe that we are on the way and the 
budget that is sent before you today increases the number of 
ships that we are buying and the number of aircraft that we are 
procuring for the future. We are bringing very important 
capability into the force like: the heart of our family of 
ships for the future, CVN-21, the first new carrier design in 
over 40 years; the Littoral Combat Ship, a revolutionary part 
of the family of ships, built with plug and play technology, a 
ship that will enable us to move rapidly into the 21st century, 
conceived with unmanned vehicles in mind.
    This budget will continue F/A-18E/Fs, which are deployed 
now, Mr. Chairman, for the first time. This budget introduces a 
new airplane, the EA-18G, to replace the jammer of old.
    LPD-17 is maturing, with multiple ships under construction. 
Joint Strike Fighter is in the budget. New helicopters, new 
support ships, and major investments in the new Hawkeye will 
provide the eyes and ears of the fleet.
    With the President's commitment to missile defense, this 
budget moves us towards sea-based missile defense in the year 
2004. Unmanned vehicles are on the horizon in partnership with 
my friend, General John Jumper, sitting at the end of the 
table.
    In short, this budget continues the commitment to build the 
culture of readiness in our Navy. It focuses on people, our 
capital asset. It sustains our commitment to the growth and 
development of our sailors. It moves us to the future built 
upon the principles of Seapower 21, our vision for the future, 
with a new focus on future readiness.
    This morning, 151 of my 306 ships are deployed. There are 
another 170 ships under way as part of the Military Sealift 
Command supporting the rest of the military structure: the 
Army, the Air Force, and the Marine Corps. This force is ready 
and it is the most ready it has been in my entire military 
life. I am proud of the accomplishments and the gains that we 
have made.
    We add to all of that and we look at the challenges that 
are ahead of us. Mr. Chairman, I believe that this budget 
proposes the right balance as we move to the future engaging in 
the global war on terrorism, and I look forward to your 
questions as we move forward in the hearing.
    Thank you.
    [The prepared statement of Admiral Clark follows:]

            Prepared Statement by Adm. Vernon E. Clark, USN

    Mr. Chairman and members of the committee, I appreciate the 
opportunity to appear today. The investment you've made in America's 
Navy has been vital to the Nation's security and your Navy's ability to 
project more power, more protection, and more freedom to the far 
corners of the Earth. I speak for the entire fleet in thanking you for 
your exceptional and continuous support.

     I: YOUR NAVY TODAY--ENHANCED CAPABILITIES FOR THE JOINT FORCE

    This is a time of tremendous challenge and accomplishment for our 
Navy. Our men and women operating in the air, on and under the sea, and 
on the ground are at the leading edge of the global war on terrorism.
    Today, there are 151 ships on deployment, fully half of the Navy; 
this includes 6 of 12 aircraft carriers, and 8 of our 12 big deck 
amphibious ships (LHA/LHD). They are deployed in support of the 
Nation's interests in the Persian Gulf, the Mediterranean, the Indian 
Ocean, and the Western Pacific. Still others are preparing for 
deployment or continuing operations like strategic deterrent and 
counter-drug patrols in support of other national imperatives.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Navy's Military Sealift Command (MSC) is also actively engaged 
in supporting the war on terrorism; today, almost 75 percent of MSC's 
total force is carrying combat equipment for land-based forces and 
logistics support for Navy carrier battle group and amphibious ready 
groups. Nineteen of our 20 large, medium-speed roll-on/roll-off ships 
(LMSRs), all 8 fast sealift ships, and half of our 72 ship Ready 
Reserve Fleet are actively supporting the Joint Force.
    These forces are operating with purpose, leading the defense of the 
United States away from our own shores and our own homes. After all, 
this new century is fraught with profound dangers: rogue nations in 
possession of weapons of mass destruction, potential conflict between 
regional competitors, widely dispersed and well-funded terrorist 
organizations, and failed states that deliver only tyranny and despair 
to their people.
    We frequently talk about the asymmetric challenges such enemies 
might present, assuming these advantages belong only to potential 
adversaries. Your Navy possesses asymmetric strengths all its own: its 
persistence, precision, independence, and agility are but a few.
    More importantly, our naval strengths are critical to our joint 
combat effectiveness. Our forward deployed, combat ready naval forces--
sustained by naval and civilian shipmates around the world--are proving 
every day the unique and lasting value of sovereign, lethal forces 
projecting offensive and defensive power from the sea.
    There are numerous recent examples of the enhanced capability our 
Navy brings to the Joint Force.

        <bullet> In Operation Enduring Freedom, Navy aircraft carrier-
        based tactical aircraft and long range, land-based Air Force 
        tankers and bombers combined with Navy SEALs on the ground and 
        Army Special Forces on horseback to deliver devastating strikes 
        on Taliban and al Qaeda targets in Afghanistan. Since then, our 
        newest combat aircraft, the F/A-18E/F Super Hornet, has been 
        flying combat sorties from the U.S.S. Abraham Lincoln in 
        Operation Southern Watch, demonstrating its increased range and 
        payload capability. In combination with Tomahawk missiles from 
        widely dispersed ships and submarines, this joint power 
        projection force gives the Nation the ability to reach across 
        the globe with precise, persistent striking power.
        <bullet> The Peleliu and Bataan Amphibious Ready Groups, 
        operating in the Arabian Sea, launched and sustained marines 
        from the 15th and 26th Marine Expeditionary Units more than 450 
        miles inland at ``Camp Rhino,'' to support the initial forward 
        operating base in Afghanistan. This was the longest-range 
        expeditionary airfield seizure operation ever launched from 
        amphibious ships at sea. During the same timeframe, the carrier 
        Kitty Hawk also provided an agile, sovereign Afloat Forward 
        Staging Base (AFSB) for joint Special Operations Forces and 
        their lift, attack, and command and control assets. Permanently 
        installed command, control, communications, computers, 
        intelligence, surveillance, and reconnaissance (C\4\ISR) suites 
        and information technologies on all these ships enhanced the 
        entire joint team's knowledge superiority picture and connected 
        these Joint Forces with other forces and commands in the 
        theater and around the world, all from the security our ships 
        enjoy in the maritime domain.
        <bullet> The Aegis cruiser U.S.S. Lake Erie (CG 70) completed 
        three medium range ballistic missile defense tests last year, 
        successfully acquiring, tracking, and hitting target ballistic 
        missiles in the mid-course or ascent phases with a Standard 
        Missile 3 (SM-3) in all three tests. Lake Erie and the Aegis 
        destroyer U.S.S. John Paul Jones also supported three 
        successive Missile Defense Agency intercontinental class 
        ballistic missile tests; the Aegis system performed exactly as 
        predicted in each of these tests, acquiring the targets 
        immediately and passing high fidelity digital track data to 
        national nodes ashore. These cruisers' and destroyers' organic 
        Aegis Weapons System and their SPY-1 multi-function, phased 
        array radars, demonstrate the capability and capacity to 
        conduct a sea-based missile defense against those ballistic 
        missiles that can target our homeland, allies, forward 
        operating bases, and Joint Forces ashore. They could also 
        provide important surveillance and cueing of intercontinental 
        class weapons directed at our homeland.
        <bullet> The Navy's Military Sealift Command is actively 
        providing combat logistics support to U.S. Navy ships, is 
        prepositioning joint military supplies and equipment at sea, 
        and is providing sealift and ocean transportation of defense 
        cargo. MSC's high quality shipping, augmented by charters, 
        continues its sealift of the Army's 3rd and 4th Infantry 
        Divisions, the 82nd and 101st Airborne Divisions, and V Corps. 
        Fifteen of our deployed Maritime Prepositioning Ships (MPS) 
        provide the majority of combat supplies and equipment for our 
        Marine force, and 11 of these have already offloaded equipment 
        in support of contingency operations. MSC is also delivering 
        fuel and aviation support equipment and supplies to deployed 
        Air Forces. In short, 95 percent of all equipment and supplies 
        needed by U.S. forces in time of crisis moves by sea on MSC-
        controlled ships.
        <bullet> The U.S.S. Florida (SSBN-728), an Ohio-class fleet 
        ballistic missile submarine, successfully launched two Tomahawk 
        missiles, confirming the ability to launch a Tomahawk from a 
        configuration similar to the tightly packed cluster of Tomahawk 
        All-Up-Rounds (AUR) we will use in the SSGN. This experiment 
        was conducted in support of the SSGN program's Sea Trial 
        experiment, Giant Shadow, which also explored how a network of 
        forces, including special warfare forces, and various unmanned 
        aerial, underwater, and ground vehicles and sensors could be 
        used to provide surveillance, collect real-time intelligence, 
        and develop and launch a time critical strike in support of the 
        Joint Force Commander. This included the first vertical launch 
        of a UUV, testing of nuclear-biological-chemical sensors, and 
        the insertion of SEALs from one of the submarines we will 
        convert to an SSGN.

    These examples represent the return on investment the American 
people have made in our Navy: an agile, connected fleet that enhances 
deterrence, sustains our access, conducts precision strikes, exercises 
joint command and control, enhances knowledge superiority, responds to 
crisis, projects, sustains and operates with the Joint Force ashore, 
and leverages the priceless advantage of our command of the seas. It is 
why we are a critical component of the Nation's joint defenses in 
peace, in crisis, and in conflict.
    None of the foregoing would be possible without the energy, 
expertise, and enthusiasm of our active and Reserve sailors, and our 
marine and civilian shipmates in the Department of the Navy. After all, 
it is people that put capability to practice, and it is their dedicated 
service that makes these capabilities ready--around the world and 
around the clock.

       II: A CULTURE OF READINESS--A COMMITMENT TO TRANSFORMATION

    This century's dangerous and uncertain strategic environment places 
a premium on credible combat forces that possess speed of response, 
immediate employability, and the flexible force packaging that brings 
the right capability to bear at the right time. It demands forces that 
can pair this capability with readiness, both today and in the future.
    Readiness is the Navy's watchword. Readiness is the catalyst that 
brings combat power, speed of response, and the ability to disrupt an 
enemy's intentions in both crisis and conflict. Readiness brings 
capability to bear wherever and whenever it is needed. We are making 
readiness a key element of our Navy's culture.
    The forces we've placed forward today--the 6 carrier battle 
groups--the 3 Amphibious Ready Groups, the Amphibious Task Forces 
comprised of 14 additional amphibious ships, and the 11 offloaded 
Maritime Preposition Ships all supporting a Marine Expeditionary Force 
of 50,000 marines--our multi-mission surface ships and submarines--the 
dozens of Military Sealift Command ships transporting the rest of the 
Joint Force--are the most ready force in our history, properly manned, 
superbly trained, and well provisioned with ordnance, repair parts, and 
supplies so they can provide both rotational deployment and surge 
capability. Our operational forces are ready earlier and are deploying 
at a higher state of readiness than ever before.
    A greater percentage of our ships are underway today than at any 
time in the last dozen years. Our ability to do so is the direct result 
of two things: the investment of the American people and the 
extraordinary commitment and accomplishment of our men and women in the 
Navy this past year. We made a concerted effort in last year's budget 
request to improve our current readiness and reduce our immediate 
operational risk and I am proud to report to you today that this force 
is ready to fight and win!
    At the same time, it is apparent that the 21st century sets the 
stage for tremendous increases in precision, reach, and connectivity, 
ushering in a new era of joint operational effectiveness. We clearly 
will be able to integrate sea, land, air, and space through enhanced 
network technology to a greater extent than ever before. In this new, 
unified battlespace, the sea will provide the vast maneuver area from 
which to project direct and decisive power.
    To navigate the challenges ahead and realize the opportunities, we 
developed this past year a clear, concise vision--Sea Power 21--for 
projecting decisive joint capabilities from the sea. It is a vision 
that stresses our asymmetric strengths of information dominance, 
advanced technology, and highly skilled and motivated professionals.
    Sea Power 21 advances American naval power to a broadened strategy 
in which naval forces are fully integrated into global joint operations 
across this unified battlespace and against both regional and 
transnational aggressors. It provides the transformational framework 
for how we will organize, align, integrate, and transform our Navy to 
meet the challenges that lie ahead.
    It also includes the transformed organizational processes that will 
accelerate operational concepts and technologies to the fleet; shape 
and educate the workforce needed to operate tomorrow's fleet; and 
harvest the efficiencies needed to invest in the Navy of the future.
    The capabilities needed to fulfill this broadened strategy are 
grouped into three core operational concepts: Sea Strike, Sea Shield, 
and Sea Basing, which are enabled by FORCEnet. The triad of transformed 
organizational processes that supports these concepts is: Sea Warrior, 
Sea Trial, and Sea Enterprise.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Together, these concepts will provide increased power, protection, 
and freedom for America.

        <bullet> Sea Strike is the projection of precise and persistent 
        offensive power. Sea Strike operations are how the 21st century 
        Navy will exert direct, decisive, and sustained influence in 
        joint campaigns. Sea Strike capabilities will provide the Joint 
        Force Commander with a potent mix of weapons, ranging from 
        long-range precision strike, to clandestine land-attack in 
        anti-access environments, to the swift insertion of ground 
        forces.
        <bullet> Sea Shield is the projection of layered, global 
        defensive assurance. It is about extending our defenses beyond 
        naval forces, to the Joint Force and allies and providing a 
        defensive umbrella deep inland. Sea Shield takes us beyond 
        unit, fleet, and task force defense to provide the Nation with 
        sea-based theater and strategic defense.
        <bullet> Sea Basing is the projection of operational 
        independence. Sea Basing will use the fleet's extended reach of 
        modern, networked weapons and sensors to maximize the vast 
        maneuver space of the world's oceans. It is about extending 
        traditional naval advantages to the Joint Force with more 
        security, connectivity, and mobility from netted forces at sea.
        <bullet> FORCEnet is the enabler of our knowledge supremacy and 
        hence, Sea Strike, Sea Shield, and Sea Basing. It is the total 
        systems approach and architectural framework that will 
        integrate warriors, sensors, networks, command and control, 
        weapons, and platforms into a networked, distributed force and 
        provide greater situational awareness, accelerated speed of 
        decision, and greatly distributed combat power.

    Our transformed organizational processes are:

        <bullet> Sea Warrior is our commitment to the growth and 
        development of our sailors. It serves as the foundation of 
        warfighting effectiveness by ensuring the right skills are in 
        the right place at the right time.
        <bullet> Sea Trial is a continual process of rapid concept and 
        technology development that will deliver enhanced capabilities 
        to our sailors as swiftly as possible. The Commander, U.S. 
        Fleet Forces Command is leading this effort and developing new 
        concepts and technologies, such as the Joint Fires Network and 
        High Speed Vessels.
        <bullet> Sea Enterprise is our process to improve 
        organizational alignment, refine requirements, and reinvest the 
        savings to buy the platforms and systems needed to transform 
        our Navy. It is the means by which we will capture efficiencies 
        and prioritize investments.

    Sea Power 21 is dedicated to a process of continual innovation and 
is committed to total jointness. It extends American naval superiority 
from the high seas, throughout the littorals, and beyond the sea. It 
both enhances and leverages persistent intelligence, surveillance, and 
reconnaissance capabilities and precision weaponry to amplify the 
Nation's striking power, elevate our capability to project both defense 
and offense, and open the door to the afloat positioning of additional 
joint capabilities, assets, and forces.
    Sea Power 21 will extend the advantages of naval forces--speed of 
response, agility, immediate employability, and security--to the 
unified, joint warfighting team. It will increase our deterrence, 
crisis control, and warfighting power. It will ensure our naval forces 
are fully integrated into global joint operations to bring more power, 
more protection, and more freedom to America.
    We will put our Sea Power 21 vision into practice through a new 
Global Concept of Operations (CONOPs) to distribute our combat striking 
power to a dispersed, networked fleet. This will optimize our flexible 
force structure and create additional, scaleable, independent operating 
groups capable of responding simultaneously around the world. This 
distribution of assets will take us from 19 strike capable groups to 37 
strike capable groups with the full implementation of the Global 
CONOPs.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
        <bullet> Carrier Strike Groups will remain the core of our 
        Navy's warfighting strength. No other force package matches 
        their sustained power projection ability, extended situational 
        awareness, and survivability.
        <bullet> Expeditionary Strike Groups will augment our 
        traditional Amphibious Ready Group/Marine Expeditionary Unit 
        team with strike-capable surface combatants and submarines to 
        prosecute Sea Strike missions in lesser-threat environments. 
        When combined with a Carrier Strike Group, the resulting 
        Expeditionary Strike Force will possess the full range of our 
        netted, offensive, and defensive power. We will deploy at least 
        one pilot ESG this year.
        <bullet> Missile Defense Surface Action Groups will increase 
        international stability by providing security to allies and 
        Joint Forces ashore from short- and medium-range ballistic 
        missile threats.
        <bullet> Our future SSGN forces--specially modified Trident 
        submarines--will provide large volume clandestine strike with 
        cruise missiles and the capability to support and insert 
        Special Operations Forces.
        <bullet> An enhanced-capability Combat Logistics Force and 
        Maritime Prepositioned Force will sustain a more widely 
        dispersed and capable Navy/Marine Corps team.

    It is our intention to continue to nurture this culture of 
readiness and invest in this vision in the years ahead.

                III. OUR FISCAL YEAR 2004 BUDGET REQUEST

    This past year, the Navy improved its current readiness by properly 
funding our current readiness accounts, deepening the growth and 
development of our people, and developing innovative operational 
concepts and capabilities.
    This year, we intend to:

        <bullet> Sustain our current readiness gains to support the war 
        on terror;
        <bullet> Deepen the growth and development of our people into 
        the 21st century, high-technology personnel force that is our 
        future; and
        <bullet> Invest in our bold new Navy vision--Sea Power 21--to 
        recapitalize and transform our force and improve its ability to 
        operate as an agile, lethal, and effective member of our joint, 
        networked warfighting team.

    At the same time, we will continue to actively harvest the 
efficiencies needed to fund and support these priorities in both fiscal 
year 2004 and beyond. Our Navy budget request for fiscal year 2004 
supports this intent and includes:

        <bullet> Seven new construction ships, 2 more SSBN-to-SSGN 
        conversions, 1 cruiser conversion, and 100 new aircraft;
        <bullet> Investment in accelerated transformational 
        capabilities, including the next-generation aircraft carrier 
        (CVN-21), the transformational destroyer (DD(X)), and Littoral 
        Combat Ship (LCS), the Joint Strike Fighter, the Advanced 
        Hawkeye (E-2C RMP) Upgrade Program, and the EA-18G Electronic 
        Attack aircraft;
        <bullet> A 4.1 percent average pay increase in targeted and 
        basic pay raises, and a reduction in average out-of-pocket 
        housing costs from 7.5 percent to 3.5 percent;
        <bullet> Investment in housing and Public Private Venture that 
        will help eliminate inadequate family housing by fiscal year 
        2007 and enable us to house shipboard sailors ashore when their 
        vessel is in homeport by fiscal year 2008;
        <bullet> Continued investment in key operational readiness 
        accounts that includes an increase in aviation depot 
        maintenance funding; improvement in our annual deferred 
        maintenance backlog for our ships, submarines, and aircraft 
        carriers; and sustained funding for our ordnance, ship 
        operations, and flying hours accounts;
        <bullet> Navy-Marine Corps Tactical Aviation Integration, a 
        process that will maximize our forward-deployed combat power, 
        optimize the core capability of naval aviation forces, 
        introduce 200 modern aircraft across the fiscal year 2004 to 
        fiscal year 2009 program and save billions of dollars;
        <bullet> Divestiture of aging, legacy ships, systems and 
        aircraft, producing nearly $1.9 billion in fiscal year 2004 for 
        reinvestment in recapitalization;
        <bullet> Improvements in the quality of our operational 
        training through a Training Resource Strategy; and
        <bullet> Investment in transformational unmanned underwater 
        vehicles (UUV), unmanned aviation vehicles (UAV), experimental 
        hull forms, and other technologies.
A. Sustaining our Current Readiness
    Your investment last year produced the most ready force in our 
history! Training, maintenance, spare parts, ordnance, and fuel 
accounts enabled our fleet to be ready earlier, deploy at a higher 
state of readiness, and as we are witnessing today, build a more 
responsive surge capability. These investments were vital to sustaining 
the war on terrorism, assuring friends and allies and leading the 
Nation's global response to crisis.

        <bullet> Ship operations and flying hours requests funds for 
        ship operations OPTEMPO of 54.0 days per quarter for our 
        deployed forces and 28 days per quarter for our non-deployed 
        forces. The flying hours request receives an additional $137 
        million this year to sustain the investment level we 
        established in support of last year's budget. This level of 
        steaming and flying hours will enable our ships and airwings to 
        achieve required readiness 6 months prior to deployment, 
        sustain readiness during deployment, and increase our ability 
        to surge in crisis. However, sustained OPTEMPO at levels above 
        this force-wide target, as is beginning to occur during fiscal 
        year 2003's time of accelerated and extended deployments, will 
        cause our current year execution to run both ahead and in 
        excess of the existing plan.
        <bullet> Ship and Aviation Maintenance. Last year, we reduced 
        our major ship depot maintenance backlog by 27 percent and 
        aircraft depot level repair back orders by 17 percent; provided 
        32 additional ships with depot availabilities; ramped up 
        ordnance and spare parts production; maintained a steady 
        ``mission capable'' rate in deployed aircraft; and fully funded 
        aviation initial outfitting. Our request for fiscal year 2004 
        aviation maintenance funding adds over $210 million to fiscal 
        year 2003's investment and will increase the number of engine 
        spares, improve the availability of non-deployed aircraft, and 
        meet our 100 percent deployed airframe goals.
          Our ship maintenance request continues to `buy-down' the 
        annual deferred maintenance backlog and sustains our overall 
        ship maintenance requirement. The aggregate level of funding 
        for ship maintenance actually declines from fiscal year 2003 to 
        fiscal year 2004, due in part to the positive effects of the 
        additional maintenance funding provided in supplemental 
        appropriations in the previous year, in part to the accelerated 
        retirement of the oldest and most maintenance-intensive surface 
        ships, and as a result of scheduling and timing.
        <bullet> Shore Installations. The fiscal year 2004 request 
        provides 93 percent of the modeled sustainment cost for 
        facilities, an increase from fiscal year 2003's 84 percent. 
        Although the overall investment in facility recapitalization 
        has reduced from last year, slowing the replacement rate of 
        facilities, our increased investment in sustainment will better 
        maintain existing facilities as we continue to pursue 
        innovations to improve our base infrastructure. Our Base 
        Operations Support funding request is based on sustaining the 
        current level of common installation and important community 
        and personnel support functions; we have factored in management 
        and business efficiencies to reduce the cost of providing these 
        services. We continue to support a Base Realignment and Closure 
        effort in fiscal year 2005 to focus our future investment and 
        improve our recapitalization rate in the years ahead.
        <bullet> Precision-guided munitions receive continued 
        investment in our fiscal year 2004 request with emphasis on 
        increasing inventory levels for the Joint Stand-Off Weapon 
        (JSOW), optimizing the Navy's Joint Direct Attack Munition 
        (JDAM) production rate and commencing full rate production 
        under multi-year procurement for the Tactical Tomahawk 
        (TACTOM). Our partnership with the Air Force in several of our 
        munitions programs will continue to help us optimize both our 
        inventories and our research and development investment.
        <bullet> Training readiness. The Training Resource Strategy 
        (TRS) has been developed to provide for more complex threat 
        scenarios, improve the training of our deploying ships, 
        aircraft, sailors, and marines, and support the range and 
        training technology improvements necessary to ensure the long-
        term combat readiness of deploying naval forces. The TRS has 
        identified the training facilities necessary to provide this 
        superior level of training as well. Their dispersed character 
        is more like the battlefield environment our forces will face 
        today and tomorrow and will better challenge our deploying 
        forces--before they are challenged in combat. Our fiscal year 
        2004 request includes $61 million to support the TRS.
          At the same time, encroachment and environmental issues 
        continue to impact our ability to maintain an acceptable level 
        of access to our valuable testing and training ranges and 
        operating areas. As a result, we are looking for a balanced 
        approach that would protect our environmental obligations and 
        our ability to both train in realistic scenarios and develop 
        transformational systems for our future. Our approach would be 
        limited to only the most critical issues, such as the 
        designation of critical habitat on military lands designated 
        for military training, and the scientific measurements that 
        achieve an appropriate balance between our environmental 
        concerns and our obligation to ensure our sailors are properly 
        trained and our transformational systems are properly tested. 
        We will focus the use of our ranges for these purposes while 
        continuing to be an excellent steward of these environmental 
        resources. We look forward to working with Congress and the 
        American people on this important and urgent issue impacting 
        our sailors and marines.
B. Deepening the Growth and Development of our People
    We are winning the battle for people. Thanks to superb leadership 
in the fleet and the full support of the American people and Congress, 
we are making solid progress in addressing long-standing manpower and 
quality of service issues vital to having what it takes to win the 
competition for talent today and tomorrow.
    We are enjoying now the best manning I have witnessed in my career. 
With few exceptions, we achieved C-2 manning status for all deploying 
battle group units at least 6 months prior to deployment. These 
accomplishments enabled our Navy to develop a more responsive force, 
one that surged forward with the right people, at the right time, to 
fulfill our national security requirements.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Retention is at record levels and recruiting has never been better. 
We achieved a 58.7 percent Zone A (<6 years of service (YOS)) 
reenlistment rate, 74.5 percent Zone B reenlistment rate (6-10 YOS), 
and a Zone C (10-14 YOS) reenlistment rate of 87.4 percent in 2002. 
While we are also off to a great start in fiscal year 2003, we are 
instituting measures to ensure our annualized reenlistment rate meets 
our established goals (Zone A--56 percent, B--73 percent, C--86 
percent).
    Additionally, attrition for first term sailors was reduced by 23 
percent from fiscal year 2001 levels. Ninety two percent of our 
recruits are high school graduates and 6 percent of them have some 
college education.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    These tremendous accomplishments allowed us to reduce at-sea 
manning shortfalls last year and reduce our recruiting goals. We were 
also able to increase the overall number of E-4 to E-9s in the Navy by 
1.3 percent to 71.5 percent working toward a goal of 75.5 percent by 
fiscal year 2007. This healthy trend allows us to retain more of our 
experienced leaders to manage and operate the increasingly technical 
21st century Navy.
    Targeted pay raises, reenlistment bonuses, improved allowances, 
enhanced educational benefits, retirement reforms, support for improved 
family services, and better medical benefits are making a difference 
and can be directly attributed to congressional support and the 
outstanding work of our Navy leaders in our ships, squadrons, bases, 
and stations.
    Our fiscal year 2004 request capitalizes on last year's 
accomplishments and provides the opportunity to align our manpower and 
skills mix to balance our end strength and shape our 21st century 
workforce. As part of Sea Power 21's transformed organizational process 
improvements we will begin our Sea Warrior process.
    Our goal is to create a Navy in which all sailors are optimally 
assessed, trained, and assigned so that they can contribute their 
fullest to mission accomplishment. It is important that we sustain our 
manpower progress by furthering our supporting initiatives to include:

        <bullet> Perform to serve will align our Navy personnel 
        inventory and skill sets through a centrally managed 
        reenlistment program. This initiative makes Commander, Navy 
        Personnel Command the final authority for first term 
        reenlistments and extensions and will steer sailors in over-
        manned ratings into skill areas where they are most needed. It 
        provides the training necessary to ensure these sailors will 
        succeed in their new rating. Most importantly, it will help us 
        manage our skills profile.
        <bullet> Navy Knowledge Online introduces our integrated web-
        based lifelong learning initiative for personnel development 
        and learning management. It connects sailors to the right 
        information in a collaborative learning environment, tracks 
        their individual skills and training requirements, and provides 
        lifelong support between our rating, leadership, and personal 
        development learning centers and our sailors.
        <bullet> Task Force EXCEL (Excellence through our Commitment to 
        Education and Learning) is transforming the way we train and 
        educate our people. A more responsive organizational structure 
        has been established to include the Navy Chief Learning 
        Officer, Naval Personnel Development Command, and Human 
        Performance Center. We also partnered with fleet, industry, and 
        academia to improve individual training and education as well 
        as with colleges, through the Commissioned Navy College 
        Program, to provide rating-related Associate and Bachelor 
        degrees.
        <bullet> Project SAIL (Sailor Advocacy through Interactive 
        Leadership) will web-base and revolutionize the personnel 
        assignment process by putting more choice in the process for 
        both gaining commands and sailors. It will empower our people 
        to make more informed career decisions and for the first time, 
        create a more competitive, market-oriented process.

    Our Sea Swap initiative is underway now, with the first crew-change 
on U.S.S. Fletcher taking place in the Western Australia port of 
Fremantle last month. We will continue this pilot with another crew 
change this summer and we intend to continue to examine pilot programs 
in optimal manning, rotational crewing, assignment incentive pay, 
rating identification tools, and rate training.
    Your support of our fiscal year 2004 request for a targeted pay 
raise that recognizes and reaffirms the value of our career force and 
acts as an incentive to junior personnel to stay Navy is critical to 
staying the course. So, too, is continuing the reduction of average 
out-of-pocket housing expenses and the extension and enhancement of 
essential special pay and bonus authorities. All these efforts enable 
our Navy to sustain our forces in the war on terrorism, continue the 
increase in our Top 6 (E4 to E9), and develop the 21st century, high-
technology personnel force that is our future.
C. Investing in Sea Power 21
    Our 21st century Navy will be a joint, netted, dispersed power 
projection force and Sea Power 21 is the framework for how our Navy 
will organize, integrate, and transform. It prescribes a strategy-to-
concepts-to-capabilities continuum by which current and future naval 
forces will exploit the opportunity that information dominance and 
rapid, highly accurate power projection and defensive protection 
capabilities bring to us.
    Together, these concepts will compress our speed of response and 
provide the Nation with immediately employable, secure and sovereign 
forward ``capability sets'' from which to project firepower, forces, 
command and control, and logistics ashore.
    The following describes the core capabilities, and our initial 
investments in our highest priority programs that support this vision.
    Sea Strike is the projection of precise and persistent offensive 
power. The core capabilities include: Time Sensitive Strike; 
Intelligence, Surveillance, and Reconnaissance; Ship to Objective 
Maneuver; and Electronic Warfare and Information Operations. We are 
already investing in impressive programs that will provide the 
capabilities necessary to support Sea Strike; these include the 
following fiscal year 2004 priorities:
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
        <bullet> F/A-18E/F Super Hornet. The F/A-18E/F is in full rate 
        production and when combined with this year's request for the 
        EA-18G, will be the backbone of Navy sea-based precision and 
        time-critical strike, electronic attack and airborne tactical 
        reconnaissance. It is in the fifth of a 5-year multi-year 
        procurement (MYP) contract (fiscal years 2000-2004) that will 
        yield $700 million in total savings. The second multi-year 
        contract for 210 aircraft will yield approximately $1 billion 
        in savings as compared to the single-year price. The Super 
        Hornet employs new knowledge dominance technologies, such as 
        the Joint Helmet Mounted Cueing System, Advanced Tactical 
        Forward Looking Infrared System, Shared Reconnaissance System, 
        and Multi-Informational Display System data link. It provides a 
        40-percent increase in combat radius, a 50-percent increase in 
        endurance, 25 percent greater weapons payload, 3 times the 
        ordnance bring back, and is more survivable than our older 
        Hornets; most importantly, it has the growth capacity to remain 
        a mainstay of our tactical aviation for years to come. Three of 
        these squadrons are already deployed today at one-third the 
        operational cost of our legacy F-14 aircraft. Fiscal year 2004 
        budgets for 42 E/F aircraft; this program maximizes the return 
        on our procurement dollars through a multi-year procurement 
        contract and a minimum economic order quantity buy.
        <bullet> EA-18G. The EA-18G will replace the aging EA-6B 
        Prowler for Joint Force electronic attack. Using the 
        demonstrated growth capacity of the F/A-18E/F, the EA-18G 
        Growler will quickly recapitalize our electronic attack 
        capability at lower procurement cost with significant savings 
        in operating and support costs and 3 years earlier than 
        previously planned, all while providing the growth potential 
        for future electronic warfare (EW) system improvements. It will 
        use the Improved Capability Three (ICAP III) receiver suite and 
        provide selective reactive jamming capability to the 
        warfighter. This will both improve the lethality of the air 
        wing and enhance the commonality of aircraft on the carrier 
        deck. It will dramatically accelerate the replacement of our 
        aging Airborne Electronic Attack capability. Engineering and 
        developmental efforts commence with our fiscal year 2004 budget 
        request.
        <bullet> JSF. The Joint Strike Fighter will enhance our Navy 
        precision with unprecedented stealth and range as part of the 
        family of tri-service, next-generation strike aircraft. It will 
        maximize commonality and technological superiority while 
        minimizing life cycle cost. The fiscal year 2004 budget 
        requests $2.2 billion in accelerated development funds; initial 
        production is planned for fiscal year 2006.
        <bullet> MV-22. The Joint Service MV-22 Osprey tilt-rotor, 
        Vertical/Short Take-Off or Landing (V/STOL) aircraft represents 
        a revolutionary change in aircraft capability. It will project 
        marines and equipment ashore from our amphibious shipping, 
        operationalizing Ship to Objective Maneuver from the Sea Base 
        and improving our expeditionary mobility and force entry needs 
        for the 21st century. The MV-22 program has been restructured, 
        redesigned, rebuilt, and is undergoing testing to deliver an 
        operationally deployable aircraft on the restructured schedule. 
        The MV-22 will replace the Vietnam-era CH-46E and CH-53D 
        helicopters, delivering improved readiness, upgraded 
        capability, and significantly enhanced survivability. It is 
        overwhelmingly superior to our legacy CH-46E providing twice 
        the speed, five times the range, and three times the payload 
        capacity.
        <bullet> Unmanned Air Vehicles (UAV). We increased our 
        commitment to a focused array of unmanned air vehicles that 
        will support and enhance both Sea Shield and Sea Strike 
        missions with persistent, distributed, netted sensors. We are 
        initiating the Broad Area Maritime Surveillance (BAMS) UAV this 
        year to develop a persistent, multi-mission platform capable of 
        both Sea Shield and Sea Strike surveillance and reconnaissance 
        of maritime and land targets, communications relay, and some 
        intelligence collection. We have provided funding for testing, 
        experimentation, and/or demonstration of the Fire Scout 
        Demonstration Systems, Global Hawk Maritime demonstration and 
        the Unmanned Combat Aerial Vehicle-Navy (UCAV-N) demonstration 
        vehicle as well.

    Sea Shield is the projection of layered, global defensive power. It 
will soon enhance deterrence and warfighting power by way of real-time 
integration with joint and coalition forces, high speed littoral attack 
platforms setting and exploiting widely distributed sensors, and the 
direct projection of defensive powers in the littoral and deep inland. 
It will enhance homeland defense, assure, and eventually sustain our 
access in the littorals and across the globe. Sea Shield capabilities 
include Homeland Defense, Sea and Littoral Control, and Theater Air and 
Missile Defense.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Our highest priority Sea Shield programs this year include:

        <bullet> Missile Defense. Our Navy is poised to contribute 
        significantly in fielding initial sea-based missile defense 
        capabilities to meet the near-term ballistic missile threat to 
        our homeland, our deployed forces, and our friends and allies 
        and we are working closely with the Missile Defense Agency 
        (MDA) to that end. As partners, U.S.S. Lake Erie will be 
        transferred to MDA to facilitate a more robust testing program 
        for missile defense. In turn, MDA is requesting funds to 
        upgrade three Aegis guided missile destroyers (DDG) for ICBM 
        surveillance and tracking duties and procurement of up to 20 
        standard missile interceptors to help us provide a limited at 
        sea capability to intercept short- and medium-range ballistic 
        missiles in the boost and ascent phases of flight. Our sea-
        based missile defense programs experienced tremendous success 
        on the test range during 2002, and we look forward to building 
        on these successes and developing a vital capability for our 
        Nation.
        <bullet> CG Conversion. The first Cruiser Conversion begins in 
        fiscal year 2004. The Cruiser Conversion Program is a mid-life 
        upgrade for our existing Aegis cruisers that will ensure 
        modern, relevant combat capability well into this century and 
        against evolving threats. These warships will provide enhanced 
        land attack and area air defense to the Joint Force Commander. 
        Core to these conversions is installation of the Cooperative 
        Engagement Capability, which enhances and leverages the air 
        defense capability of these ships, and the 5/62 caliber Gun 
        System with Extended Range Guided Munitions to be used in 
        support of the Marine Corps Ship-to-Objective-Maneuver 
        doctrine. These converted cruisers could also be available for 
        integration into ballistic missile defense missions when that 
        capability matures.
        <bullet> Unmanned Underwater Vehicles (UUV). We will continue 
        development of UUVs for minefield reconnaissance in the 
        littoral and other surveillance missions, including funding 
        that will result in initial operating capability for the Long-
        term Mine Reconnaissance System (LMRS) in fiscal year 2005.

    Sea Basing is the projection of operational independence. Our 
future investments will exploit the largest maneuver areas on the face 
of the Earth: the sea. Sea Basing serves as the foundation from which 
offensive and defensive fires are projected--making Sea Strike and Sea 
Shield a reality. Sea Basing capabilities include: Joint Command and 
Control, Afloat Power Projection, and Integrated Joint Logistics. Our 
intent is to minimize as much as possible, our reliance on shore-based 
support nodes.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Our highest priority investments include:

        <bullet> Littoral Combat Ship (LCS). Our most transformational 
        effort and number one budget priority, the Littoral Combat Ship 
        will be the first Navy ship to separate capability from hull 
        form and provide a robust, affordable, focused-mission ship to 
        enhance our ability to establish sea superiority not just for 
        our Carrier Strike Groups and Expeditionary Strike Groups, but 
        for future joint logistics, command and control, and pre-
        positioned ships moving to support forces ashore. They will be 
        dispersed and netted, both leveraging and enhancing the 
        knowledge superiority and defense of the theater Joint Force. 
        We will separate capability from hull form by developing 
        `tailorable' mission modules that we can use to ``forward fit 
        and fight'' these small, minimally manned, persistent, high-
        speed vessels across the globe. They will counter anti-access 
        threats, namely small, fast surface craft carrying anti-ship 
        missiles, torpedo-armed ultra-quiet diesel submarines, and 
        large numbers of inexpensive mines. They will be the backbone 
        of our carrier and expeditionary strike group organic mine 
        warfare capability. By employing networked sensors, modular 
        mission payloads, a variety of manned and unmanned vehicles, 
        and an innovative hull design, they will have the inherent 
        capacity for further transformation by developing future 
        modules for other missions. We will capitalize on DOD 
        initiatives, spiral development, and new acquisition methods to 
        streamline the acquisition process, and begin construction of 
        the first LCS by 2005. The fiscal year 2004 budget accelerates 
        development and construction of nine LCS in the FYDP, key to 
        ramping surface force structure to Global CONOPs levels outside 
        the FYDP.
        <bullet> DD(X). The DD(X) advanced multi-mission destroyer will 
        bring revolutionary improvements to precision strike and joint 
        fires. Transformational and leap ahead technologies include: an 
        integrated power system and electric drive; the Advanced Gun 
        System with high rate of fire and magazine capability; the new 
        Multi-Function Radar/Volume Search Radar suite; optimal manning 
        through advanced system automation, stealth through reduced 
        acoustic, magnetic, IR, and radar cross-section signature; and 
        enhanced survivability through automated damage control and 
        fire protection systems. Armed with an array of land attack 
        weapons it will provide persistent, distributed offensive fires 
        in support of Joint Forces ashore. The capacity in both hull 
        form and integrated electric power system will allow us to 
        spiral its development to CG(X) and other transformational 
        systems, like the electro-magnetic rail gun, in the years 
        ahead.
        <bullet> CVN-21. We have accelerated transformational 
        technologies from the CVNX development plan into CVN-21 while 
        sustaining the CVNX-1 development schedule submitted last year. 
        This is the first new carrier design since 1967. The fiscal 
        year 2004 budget request provides $1.5 billion in RDT&E and 
        advanced procurement for the first CVN-21 and programs for 
        split-funded construction beginning in fiscal year 2007. The 
        transformational technologies include a new electrical 
        generation and distribution system, improved flight deck design 
        with Electromagnetic Aircraft Launching System, improved sortie 
        generation, enhanced survivability, reduced manning, and 
        incorporation of a flexible infrastructure that will allow the 
        insertion of new capabilities as they evolve. CVN-21 will be 
        the centerpiece of our Carrier Strike Groups in the future and 
        will replace U.S.S. Enterprise in fiscal year 2014.
        <bullet> Virginia-class submarine (SSN-774). The first four 
        ships of this class are under construction: Virginia will 
        commission in 2004; the keel was laid for Texas (SSN-775) in 
        July 2002; Hawaii (SSN-776) was begun in 2001; and North 
        Carolina (SSN-777) in 2002. This class will replace Los 
        Angeles-class (SSN-688) attack submarines and will incorporate 
        new capabilities, including an array of unmanned vehicles, and 
        the ability to support Special Warfare forces. It will be an 
        integral part of the joint, networked, dispersed fleet of the 
        21st century.
        <bullet> SSGN Conversions. We have requested two additional 
        conversions in fiscal year 2004; these ships will be configured 
        to carry more than 150 Tomahawk missiles, enabling covert, 
        large-volume strike. The SSGN will also have the capability to 
        support Special Operations Forces for an extended period, 
        providing clandestine insertion and retrieval by lockout 
        chamber, dry deck shelters or the Advanced Seal Delivery 
        System, and they will be arrayed with a variety of unmanned 
        systems to enhance the Joint Force Commander's knowledge of the 
        battlespace. We will leverage the existing Trident submarine 
        infrastructure to optimize their on-station time. The first two 
        ships, the U.S.S. Ohio and U.S.S. Florida, enter the shipyard 
        in fiscal year 2003 to begin their refueling and conversion. 
        U.S.S. Michigan and U.S.S. Georgia will begin their conversion 
        in fiscal year 2004. We expect this capability to be 
        operational for the first SSGN in fiscal year 2007.
        <bullet> Maritime Prepositioning Force Future (MPF(F)). MPF(F) 
        ships will serve a broader operational function than current 
        prepositioned ships, creating greatly expanded operational 
        flexibility and effectiveness. We envision a force of ships 
        that will enhance the responsiveness of the joint team by the 
        at-sea assembly of a Marine Expeditionary Brigade that arrives 
        by high-speed airlift or sealift from the United States or 
        forward operating locations or bases. These ships will off-load 
        forces, weapons, and supplies selectively while remaining far 
        over the horizon, and they will reconstitute ground maneuver 
        forces aboard ship after completing assaults deep inland. They 
        will sustain in-theater logistics, communications, and medical 
        capabilities for the Joint Force for extended periods as well.

    Other advances in sea basing could enable the flow of Marine and 
Army forces at multiple and probably austere points of entry as a 
coherent, integrated combined arms team capable of concentrating lethal 
combat power rapidly and engaging an adversary upon arrival. The 
ability of the Naval Services to promote the successful transformation 
of deployment practices of the other Services will dramatically improve 
the overall ability of the Joint Force to counter our adversaries' 
strategies of area-denial and/or anti-access. We are programming RDTE 
funds to develop the future MPF and examine alternative sea-basing 
concepts in fiscal year 2008.
    FORCEnet is the enabler of the foregoing capabilities, and the 
operational construct and architectural framework for naval warfare in 
the joint, information age. It will allow systems, functions, and 
missions to be aligned to transform situational awareness, accelerate 
speed of decisions, and allow naval forces to greatly distribute its 
combat power in the unified, joint battlespace. It puts the theory of 
network-centric warfare into practice. We are just beginning this 
effort and we have requested $15 million in funds to administer the 
development of FORCEnet, the cornerstone of our future C\4\I 
architecture that will integrate sensors, networks, decision aids, 
warriors, and weapons. Programs that will enable the future force to be 
more networked, highly adaptive, human-centric, integrated, and enhance 
speed of command include:

        <bullet> E-2C Advanced Hawkeye Radar Modernization Program. E-2 
        Advanced Hawkeye (AHE) program will modernize the E-2 weapons 
        system by replacing the current radar and other aircraft system 
        components to improve nearly every facet of tactical air 
        operations. The modernized weapons system will be designed to 
        maintain open ocean capability while adding transformational 
        surveillance and Theater Air and Missile Defense capabilities 
        against emerging air threats in the high clutter and jamming 
        environment. The advanced Hawkeye will be a critical 
        contributor to Naval Integrated Fire Control-Counter Air, and 
        to Sea Strike and Shield. The fiscal year 2004 budgets over 
        $350 million for continued development with first production 
        planned for fiscal year 2008.
        <bullet> Navy and Marine Corps Intranet (NMCI). NMCI continues 
        to bring together Navy personnel, government civilians, and 
        contractors into a single computing environment. This program 
        is fostering fundamental changes in the way we support critical 
        warfighting functions, conduct Navy business, and train and 
        advance sailors. Fiscal year 2004 funding of $1.6 billion 
        continues user seat rollout and cutover to the NMCI 
        architecture, progressing toward a target end-state of 365,000 
        seats. Although NMCI seat cutover was slowed initially by the 
        need to resolve the challenges of numerous, disparate legacy 
        applications, the transition to NMCI has succeeded in 
        eliminating more than 70,000 legacy IT applications and we are 
        on track for the future.

    Sea Trial. Commander, U.S. Fleet Forces Command (CFFC) is now in 
charge of our Navy's revitalized process of experimentation, and is 
rapidly developing emergent concepts and experimenting with new 
technologies to speed delivery of innovation to the fleet. CFFC will 
reach throughout the military and beyond to coordinate concept and 
technology development in support of future warfighting effectiveness. 
Embracing spiral development, the right technologies and concepts will 
then be matured through targeted investment and rapid prototyping.
    CFFC is working in concert with the U.S. Joint Forces Command to 
refine the Sea Trial process and integrate select wargames, 
experimentation, and exercises. We are already testing new operational 
concepts and technologies like the Collaborative Information 
Environment, Joint Fires Initiative, and the Navy Joint Semi-Automated 
Force Simulation in operations and exercises. We will continue to 
pursue evaluation of multiple platforms and systems, including 
experimental hull forms and electromagnetic rail guns, among others.
    The Systems Commands and Program Executive Offices will be integral 
partners in this effort, bringing concepts to reality through 
technology innovation and application of sound business practices.

             IV. HARVESTING EFFICIENCIES FOR TRANSFORMATION

    We are working hard to identify and harvest the efficiencies needed 
to balance competing priorities and invest in our Sea Power 21 vision. 
Called Sea Enterprise, this process is intended to ensure our 
warfighting capability both now and in the future. It will help 
identify and produce those initiatives that both optimize our 
warfighting capability and streamline our organization and processes; 
to make it operate more efficiently, to reduce our overhead and to 
produce the savings needed for investment in recapitalization and our 
future. We have already identified several initiatives that have 
produced over $40 billion in savings and cost avoidance across the 
defense program--and many more billions outside the FYDP--to help fund 
our future. A few of the highlights include:

        <bullet> USN-USMC Tactical Aviation (TACAIR) Integration plan 
        shows the promise of cross-service partnerships. It will 
        maximize forward deployed combat power, enhance our 
        interoperability, more fully integrate our services, and save 
        $975 million across the FYDP. This aggressive effort introduces 
        200 modern aircraft in the next 6 years while retiring legacy 
        F-14, F/A-18A/B, S-3, and EA-6B airframes, and it reduces our 
        F/A-18E/F and JSF total buy requirements by 497 aircraft while 
        enhancing our warfighting capability. There is more than $30 
        billion in projected cost avoidance outside the FYDP as well.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
        <bullet> Partnerships. We are pursuing other promising 
        partnerships to include new munitions with the U.S. Air Force, 
        common communications and weapons systems with the U.S. Coast 
        Guard's Deepwater Integrated Systems program, and joint 
        experiments with high-speed vessels with the U.S. Army. We will 
        continue to leverage the gains made in programs like joint 
        weapons development (JDAM, JSOW, AMRAAM) as well.
        <bullet> Identifying savings within the force for 
        recapitalization. Last year, we promised we would sharpen our 
        focus on our force structure in the years ahead--to buy the 
        ships, aircraft, and the capabilities needed for tomorrow's 
        Navy. At the same time, we cannot overlook the important gains 
        our focus on current readiness made these last few years; it 
        produced the more responsive force on deployment today. As a 
        result, we are obligated to look hard at the ways we could 
        balance these priorities and our discretionary investments to 
        both satisfy the near term operational risks and prepare for 
        the long-term risks of an uncertain future. This year, we made 
        some hard choices across the fleet to do more to address our 
        future risk, sustain our current readiness gains, and strike 
        this balance. We identified several aging, legacy systems with 
        limited growth potential and high operating and support costs, 
        and ultimately, we accelerated the retirement of 11 ships and 
        70 aircraft, divested more than 50 systems, and eliminated 
        70,000 legacy IT applications. We are using the savings to 
        recapitalize, modernize other legacy platforms, and invest in 
        Sea Power 21. These initiatives result in an acceptable 
        operational risk in the near term because of our emphasis on 
        sustaining our current readiness gains. Equally important, 
        these difficult decisions yielded $1.9 billion for reinvestment 
        and will do much to help reduce our future risk.
        <bullet> Improved business operations and processes. We are 
        improving both the way we run the fleet and our ability to 
        control costs. The LPD-DDG swap produced savings sufficient to 
        purchase a third guided missile destroyer in fiscal year 2004. 
        We are using multi-year procurement contacts and focusing where 
        possible on economic order quantity purchase practices to 
        optimize our investments. We conducted the Workload Validation 
        Review, and made Performance Based Logistics improvements. 
        Other initiatives like piloting mission funding for two of our 
        public shipyards, Enterprise Resource Planning, strategic 
        sourcing, NMCI, and eBusiness are helping us find the funds 
        necessary to emerge with the optimal force structure, a healthy 
        industrial base and an efficient and appropriately sized 
        infrastructure.
        <bullet> Installation Claimant Consolidation. In October 2003 
        we will establish a single shore installation organization, 
        Commander, Navy Installations Command (CNIC), to globally 
        manage all shore installations, promote ``best practices'' 
        development in the regions, and provide economies of scale, 
        increased efficiency, standardization of policies where 
        practicable and improved budgeting and funding execution. This 
        initiative has the potential to save approximately $1.6 billion 
        in the next 6 years.

    We will continue to pursue the efficiencies that improve our 
warfighting capability. We are committed to producing the level 
investment stream that will help implement our bold new Navy vision and 
produce the number of future ships, aircraft, and systems we need to 
counter the 21st century threat. Harvesting savings for reinvestment is 
an important part of that effort, and we will continue to examine the 
potential efficiencies while weighing the operational risks, both now 
and in the future.

                             V. CONCLUSION

    We are affecting positive change in our Navy. We will continue our 
culture of readiness and our commitment to transformation while 
pursuing those efficiencies that both make us good stewards of the 
public's funds, and improve our warfighting capability. I have made it 
plain to our men and women in the Navy that mission accomplishment 
means both warfighting effectiveness and resourcefulness.
    At the same time, our people remain at the heart of all we do; they 
are the real capital assets in our Navy. We have invested heavily to do 
what is right for the people who are investing themselves in our Navy. 
``Growth and development'' is our byline. As we look to the future, we 
will build on the impressive progress we have made in recruiting, 
assigning, and retaining our military and civilian professionals. 
Active leadership is making it happen today and will do so in the years 
to come.
    There are still more challenges and opportunities in the year 
ahead. We will continue prosecuting the global war on terrorism. This 
entails being ready to respond--to surge and sustain warfighting 
capabilities--in support of the war, as well as preparing our force for 
the battles of tomorrow.
    But by implementing our bold new Navy vision, harvesting 
efficiencies for reinvestment, adding potent new platforms to the 
fleet, and launching an integrated Navy-wide experimentation plan, we 
are creating the future capabilities and force structure required to 
counter these 21st century threats.
    I thank the committee for your continued strong support of our 
Navy, our sailors, and our civilian shipmates. Working together, I am 
confident we will make our great Navy even better and provide our 
Nation with more power, more protection, and more freedom in the years 
ahead.

    Chairman Warner. Thank you very much, Admiral.
    General Hagee.

  STATEMENT OF GEN. MICHAEL W. HAGEE, USMC, COMMANDANT OF THE 
                          MARINE CORPS

    General Hagee. Mr. Chairman, Senator Levin, ladies and 
gentlemen of the committee: It is an honor for me to be here 
this morning. Mr. Chairman and Senator Levin, on behalf of 
those marines over in the Gulf, I would like to thank you very 
much for you and your delegation's recent visit over there. It 
meant a great deal to them to see you there and I thank you for 
that.
    Chairman Warner. We thank you.
    General Hagee. Sir, along with our sister services, the 
Navy-Marine Corps team continues to play a key role in the 
global war on terrorism and in the establishment of stability 
and security in many of the world's trouble spots. Marines, 
both active and Reserve, are operating side by side with 
soldiers, sailors, airmen, NGOs, diplomats, and many others in 
diverse locations around the globe from Afghanistan to the 
Arabian Gulf, the Horn of Africa, Turkey, the Georgian 
Republic, Colombia, Guantanamo Bay, and the Philippines.
    Today marines are flying from Bagram Air Base in 
Afghanistan, from Navy carriers at sea, and from bases around 
the Arabian Gulf. In fact, 63 percent of the Marine Corps 
operating forces are currently deployed and almost 90 percent 
are either deployed, forward stationed, or forward based.
    Marine Corps operations throughout the past year have 
highlighted the versatility and utility of our expeditionary 
forces. Although we have had one of our busiest years in terms 
of operational deployments, participation in realistic 
worldwide exercises remain critical to supporting the theater 
security cooperation plans and ensuring that we maintained a 
ready and capable force.
    Sir, your marines are ready. Along with the Navy, we are 
moving out with new organizational concepts, as mentioned by 
the CNO, including TACAIR integration and carrier and 
expeditionary strike groups that will make us more responsive 
and more flexible.
    The fiscal year 2004 budget continues our effort to 
modernize and transform the force. Support that you in Congress 
have provided over the last 2 years has helped us make real 
progress in our modernization, transformation, personnel, and 
readiness accounts. Marines and their families have benefited 
from targeted pay raises and improved family housing and 
barracks. Increases in the basic allowance for housing have 
significantly reduced out-of-pocket cost of living expenses for 
our marines.
    Regarding modernization and transformation, our top ten 
Marine Corps ground programs are adequately founded over the 
near-term. Among these are the Advanced Amphibious Assault 
Vehicle, the High Mobility Artillery Rocket System, and the 
Lightweight 155-Howitzer. On the aviation side, we are on track 
for funding for the V-22, the Joint Strike Fighter, and the 
Four-Bladed Cobra and Huey upgrades. Finally, we continue to 
make needed progress in readiness.
    Having recently come from the operating forces, I can tell 
you there is a marked positive improvement in the way we have 
funded for readiness now compared to just a few years ago.
    My main concern today echoes one of the concerns of the 
Secretary of Defense, in that without supplemental funding, we 
are spending tomorrow's dollars today. We are very grateful for 
the additional funding provided last week in the fiscal year 
2003 omnibus appropriations bill. This funding provides a 
measure of relief to those programs that were bearing the costs 
of the global war on terrorism. Thank you for your timely 
action.
    That said, our contingency requirements are significant and 
they greatly exceed the funding provided. We ask for your 
support and timely passage of the administration's upcoming 
supplemental request.
    That concern notwithstanding, we are currently doing what 
we are trained to do. We are ready to support the Nation 
through whatever challenges may lie ahead. We are on solid 
ground regarding our mission and our direction. We will remain 
your only sea-based, rotational, truly expeditionary combined 
arms force ready to answer the call as part of an integrated 
Joint Force.
    Sir, I would like to thank this committee on behalf of all 
the marines for your continued support, and I look forward to 
your questions.
    [The prepared statement of General Hagee follows:]

           Prepared Statement by Gen. Michael W. Hagee, USMC

    Chairman Warner, Senator Levin, distinguished members of the 
committee; it is my honor to report to you on the state of your United 
States Marine Corps. First, on behalf of all marines, I want to thank 
the committee for your continued support. Your sustained commitment to 
improving the warfighting capabilities of our Nation's Armed Forces and 
to improving the quality of life of our Service men and women and their 
families is vital to the security of our Nation, especially now, at 
this time of impending crisis.

                            I. INTRODUCTION

    The Navy-Marine Corps team continues to play a key role in the 
global war on terrorism and in the establishment of stability and 
security in many of the world's trouble spots. Marines, both active and 
Reserve, are operating side-by-side in diverse locations, from 
Afghanistan, to the Arabian Gulf, the Horn of Africa, Turkey, the 
Georgian Republic, Colombia, Guantanamo Bay, and the Philippines. At 
the same time, the Corps maintains a host of other commitments around 
the world that support U.S. national security, military, and foreign 
cooperation and security strategies. The powerful capability that the 
naval services bring to our Joint Forces is a central element of our 
Nation's military power.
    Marine Corps' operations throughout the past year have highlighted 
the versatility and expeditionary nature of our forces. Missions in 
support of Operations Enduring Freedom and Noble Eagle marked the most 
visible accomplishments of our forward-deployed forces. Marine Air 
Control Squadrons continue to provide air control, surveillance, and 
air traffic control support to Operation Enduring Freedom during their 
deployments to the Central Command area of responsibility. Elsewhere, 
the Marine Corps continues to support Operation Joint Forge in the 
Balkans by sending civil affairs teams to Bosnia.
    Even as the Marine Corps saw one of our busiest years in terms of 
operational deployments, participation in realistic, worldwide 
exercises remained critical to supporting the Combatant Commander's 
Theater Security Cooperation Plans and ensuring that we maintained a 
ready and capable force. Over the last year, marines participated in 
more than 200 service, joint, and combined exercises. These included 
live-fire, field training, command post, and computer-assisted 
exercises. Participants varied in size from small units to Marine 
Expeditionary Forces. Overseas, Marine Expeditionary Units (Special 
Operations Capable) conducted exercises in Jordan, Italy, Croatia, 
Tunisia, the Philippines, Australia, Thailand, and Kuwait.
    At home, Marine Reserve units were designated as ``on call'' forces 
to support the Federal Emergency Management Agency's role in homeland 
security. In addition, the Marine Corps also conducted numerous 
training operations and internal exercises. This important training 
helps develop individual and unit proficiency and competency. It also 
allows the Marine Corps to examine unit operational skills and ensures 
that each unit has the capabilities required to execute our full range 
of missions.
    The Marine Corps continues to contribute to the Nation's 
counterdrug effort, participating in numerous counterdrug operations in 
support of Joint Task Force Six, Joint Interagency Task Force-East, and 
Joint Interagency Task Force-West. These missions are conducted in the 
Andean region of South America, along the U.S. Southwest border, and in 
several domestic ``hot spots'' that have been designated as High 
Intensity Drug Trafficking Areas. Individual marines and task-organized 
units are assigned to these missions in order to provide support for 
domestic drug-law enforcement throughout the United States, and to 
provide conventional training to military forces in South America that 
execute counternarcotics missions. Marine operational and intelligence 
teams also support Colombian military efforts to combat narco-
terrorism. Marines of our Reserve Forces have executed the majority of 
these missions.
    Our successes in these global operations and exercises have not 
been achieved alone. We have worked closely alongside the Navy, our 
sister Services, and Federal agencies to realize the true potential of 
joint, interoperable forces in the new environment of 21st century 
warfare. The superior operational and personnel readiness levels we 
have been able to maintain directly reflect the strong, sustained 
support of Congress in last year's National Defense Authorization and 
Appropriations Acts. In fiscal year 2004, we seek your continued 
support for the President's budget so we can consolidate the gains made 
to date, improve those areas where shortfalls remain, and continue 
transforming the way the Navy-Marine Corps team will fight in the 21st 
century.

                        II. BUILDING ON SUCCESS

    The President's fiscal year 2004 budget, together with your 
support, will provide a strong foundation on which we can continue 
building on our successes. Our focus is on improving our ability to 
operate as an agile, lethal, ready, and effective member of a broader 
Joint Force that takes the complementary capabilities provided by each 
Service, and blends them into an integrated and effective force for 
meeting future challenges.
    Increases in our Military Personnel accounts have a positive effect 
on the retention of our most valued assets--our marines. Given the 
increasing pressure to modernize and transform the force, the Marine 
Corps is constantly working to identify and assess program tradeoffs to 
enable the most effectively balanced approach between competing demands 
and programs. These tradeoffs occur within a larger context of the 
Department's overall program tradeoff decisions, which is driving the 
Navy and Marine Corps to work more closely than ever before in our 
planning, budgeting, and decisionmaking. An additional concern that 
complicates this process is the sizeable unfunded cost of the ongoing 
global war on terrorism.
    Challenges also arise from the changing realities of our national 
security environment. The Marine Corps is committed to the idea that we 
will fight as an integral part of a joint team. We continue to place 
high priority on interoperability, shared concept development, and 
participation in joint exercises with our sister Services. 
Additionally, the security environment now demands that we pay more 
attention to our role in homeland defense, our critical infrastructure, 
and force protection--even as we deploy more forces overseas. These 
challenges demand that we balance competing priorities while remaining 
focused on maintaining excellence in warfighting.
Adapting to a Changing, Dynamic World
    While we adapt the advantages of technology to meet the changing 
face of warfare, we draw strength from the unique culture and core 
values that make us `marines.' We look for innovation in four broad 
areas to address future challenges:

        <bullet> Transformational technology
        <bullet> New operational concepts
        <bullet> Refined organizations
        <bullet> Better business practices

    Innovative approaches culled from these efforts should provide 
insight into new capabilities that we can adapt for future warfighting. 
In this regard, we are currently engaged in an immediate and critical 
tasking to define how we, along with our partners in the Navy, intend 
to project naval power ashore in the 2015-2025 timeframe. This effort 
requires the intellectual rigor and participation of all the elements 
of our Marine Air-Ground Task Forces and is influencing the entire 
Marine Corps--from our structure and training to the way we will fight 
on future battlefields as an integral component of a Joint Force.
Technology and Experimentation
    The plan for realizing future joint concepts consists of three 
closely related processes: (1) Joint Concept Development, (2) Joint 
Experimentation and Assessment, and (3) Joint Integration & 
Implementation. The overall process is more commonly known as Joint 
Concept Development and Experimentation. In order to ensure support and 
engagement throughout this process, the Marine Corps reorganized to 
establish three Joint Concept Development and Experimentation divisions 
under the cognizance of the Commanding General, Marine Corps Combat 
Development Command. These three organizations are key elements of 
Marine Corps transformation and enable full Marine Corps involvement in 
joint experimentation and transformation as well as the Navy's Sea 
Trial process for naval experimentation and transformation.
    The Marine Corps Warfighting Laboratory maintains cognizance over 
Marine Corps-specific experimentation--with a focus on the tactical 
level--to develop enhanced warfighting capabilities for the future. 
Technologies and procedures are field tested in experiments conducted 
with the operating forces. In addition, the lab coordinates closely 
with the Office of Naval Research to identify promising technologies 
that support the next generation of warfighting capabilities.
New Concepts and Organizations
    The Marine Corps is streamlining force development from concept to 
acquisition under the Deputy Commandant for Combat Development. Our 
Expeditionary Force Development System is a single system of dynamic 
functions integrated into a process that produces and sustains 
capabilities to meet the needs of the Marine Corps and the combatant 
commanders. The Marine Corps advocates for ground combat, aviation 
combat, command and control, and combat service support, as well as the 
Marine Requirements Oversight Council, are key participants in the 
process. The Expeditionary Force Development System continuously 
examines and evaluates current and emerging concepts and capabilities 
to improve and sustain a modern Marine Corps. The system is compatible 
with and supports naval and joint transformation efforts and integrates 
transformational, modernization, and legacy capabilities and processes. 
This integrated, concept-based driver for transformation is currently 
working on several ideas that will influence the future Marine Corps.
    Expeditionary Strike Groups. The Marine Corps and Navy are engaged 
in a series of experiments that will explore the Expeditionary Strike 
Group concept. This concept will combine the capabilities of surface 
action groups, submarines, and maritime patrol aircraft with those of 
Amphibious Ready Groups and Marine Expeditionary Units (Special 
Operations Capable), to provide greater combat capabilities to regional 
combatant commanders. In the near future, the Navy-Marine Corps team 
will conduct a pilot deployment on the west coast to test the 
Expeditionary Strike Group concept. Navy combatants have already been 
incorporated within the existing training and deployment cycle of the 
Amphibious Ready Group. This experiment will also allow us to test 
command-and-control arrangements for the Expeditionary Strike Group. It 
will provide critical information to support the future implementation 
of the concept and highlight any needed changes in service doctrine, 
organization, training, materiel, leadership and education, personnel, 
and facilities.
    Tactical Aviation Integration. The Navy and Marine Corps team has 
embarked on a Tactical Aircraft (Strike-fighter) Integration plan that 
will enhance core combat capabilities and provide a more potent, 
cohesive, and affordable fighting force. This integration is the 
culmination of a long-term effort to generate greater combat capability 
from naval fixed-wing strike and fighter aircraft, and represents a 
shared commitment to employ the Department of the Navy's resources as 
judiciously as possible. This integration has been ongoing for several 
years, with four Marine Corps F/A-18 Hornet squadrons operating as part 
of embarked carrier air wings. This Navy-Marine Corps effort will 
guarantee that naval aviation will be integrated as never before, and 
will effectively support the Marine Air-Ground Task Force and the joint 
warfighter. Specifically, the integration plan:

        <bullet> Reinforces our expeditionary ethos
        <bullet> Provides a smaller, more capable, more affordable 
        force for the Department of the Navy
        <bullet> Integrates Marine strike fighters in 10 Navy Carrier 
        Air Wings
        <bullet> Integrates three Navy strike fighter squadrons into 
        the Marine Unit Deployment Program
        <bullet> Includes the global sourcing of all DON strike fighter 
        assets and ensures their support to Marine Air-Ground Task 
        Forces and regional combatant commanders
        <bullet> Provides increased combat capability forward
        <bullet> Complements the enhanced seabasing concept

    A cornerstone of this plan is Department of the Navy funding and 
maintenance of legacy aircraft at the highest levels of readiness until 
the Joint Strike Fighter and F/A-18E/F replace them. This requires an 
unwavering commitment to level funding of strike fighter readiness 
across the Department of the Navy. These integration-driven readiness 
levels will allow the Navy-Marine Corps team to surge more aircraft 
than what is possible today.
    Enhanced Networked Seabasing. Fully networked, forward-deployed 
naval forces and platforms that are integrated into our seabasing 
capability will provide naval power projection for Joint Force 
Commanders. These forces will use the sea as a means of maneuver, 
enabling a broad range of joint campaign operations. Sea-based 
operations incorporate, integrate, protect, and sustain all aspects of 
naval power projection, from space to the ocean floor, from blue water 
to the littorals and inland--without dependence on land bases within 
the Joint Operating Area. Seabasing will provide enhanced capabilities 
to the naval force, such as rapid force closure, phased arrival and 
assembly at sea, selective offload of equipment tailored for individual 
missions, and force reconstitution for follow-on employment. The 
traditional naval qualities of persistence and sustainment--enhanced by 
advanced force-wide networks--underpin the staying power and 
flexibility of the sea base. Naval platforms can stay on-station, where 
they are needed, for extended periods of time. The at-sea 
maneuverability of the seabase, coupled with advanced underway 
replenishment technologies and techniques, will ensure force readiness 
over time.
    Integrated Logistics Capabilities. The Integrated Logistics 
Capabilities effort began as a unique collection of military, industry, 
and academic organizations collaborating to develop a future vision of 
Marine Corps logistics processes. The product is a set of 
transformational initiatives that will provide better support to the 
warfighter. The purpose of the Integrated Logistics Capabilities 
concept and process is to implement a transformation strategy, based on 
best practices, that provides the framework for the execution of agile, 
effective logistics support to the Marine Air-Ground Task Force, with 
the focus of streamlining the logistics chain.
    Capabilities are being conceptually refined and incrementally 
validated in the operating forces as they are identified and 
recommended. An assessment of the Proof-of-Concept, published in 
November 2002 by the Center for Naval Analysis, reflected improved 
supply response time (68 percent reduction in time) and overall repair 
cycle time (33 percent reduction).
    Over both the mid- and long-term, improved combat effectiveness and 
efficiencies in the logistics chain are expected. However, efficiencies 
cannot be fully realized until the people, process, and technology 
changes are applied across the entire operating force. The logistics 
transformation and process modernization, together with the cutting 
edge suite of technologies provided by the Global Combat Support 
System, will greatly enhance the combat capabilities of Marine forces.
    Reestablishment of Air-Naval Gunfire Liaison Companies. We have 
validated the requirement to reestablish our Air-Naval Gunfire Liaison 
Companies (ANGLICO). These companies will provide our commanders a 
liaison capability with foreign area expertise to plan, coordinate, and 
employ terminal control of fires in support of joint, allied, and 
coalition forces. ANGLICO will be reestablished with a company on each 
coast and a separate brigade platoon in Okinawa. Each company will have 
a habitual relationship with the Reserves. Full operational capability 
is expected by late summer 2004.
    Marine Corps-U.S. Special Operations Command Initiatives. Today, 
105 marines are filling Special Forces billets around the world. In 
addition to providing the current Chief of Staff to U.S. Special 
Operations Command (USSOCOM), the Marine Corps provides support to and 
ensures interoperability with Special Forces through the actions of the 
SOCOM-Marine Corps Board. That board met twice in 2002 and developed 
initiatives in the areas of Operations, Training and Education, 
Communications/C\4\, Information Operations, Psychological Operations, 
Civil Affairs, Intelligence, Aviation, Future Concepts, and Equipment 
and Technology. One of the initiatives, pursued in coordination with 
the Naval Special Warfare Command, is the Marine Corps' first sizeable 
contribution of forces to the Special Operations Command. Consisting of 
81 marines and 5 sailors, a detachment has been organized, trained, and 
equipped to conduct special reconnaissance, direct action, coalition 
support, foreign internal defense, and other special operations 
missions, and will begin training at Camp Pendleton, California, in 
June 2003. They will subsequently transfer to the operational control 
of USSOCOM during October 2003 and deploy in April 2004 as augmentation 
to a Naval Special Warfare Squadron supporting both U.S. Pacific 
Command and U.S. Central Command.
Better Business Practices
    We continue to seek out and use better business practices to 
achieve greater cost-effectiveness, improve performance, and sharpen 
our focus on our warfighting core competencies. In line with the 
competitive sourcing initiatives in the President's Management Agenda, 
we are increasing emphasis across our supporting establishment on 
competing our commercial activities with the private sector. We are 
complementing this initiative with continued development of an 
effective activity-based costing and management initiative across our 
installations. This allows us to focus on the true cost of various 
functions and services and to develop benchmarks that enable us to 
improve performance and to focus analyses on cost-saving initiatives. 
This will occur both in commercial areas that we compete, and in non-
commercial areas that cannot be competed. Competitions completed to 
date have resulted in saving millions of dollars annually and returning 
almost 900 marines to the operating forces. We will continue to seek 
additional competition candidates. Activity-Based Costing and 
Management initiatives provided our installation commanders with cost 
and performance information that enabled them to save over $37 million 
last year. As we refine our databases, we expect continuing increases 
both in performance and cost effectiveness.
    Through all of the efforts outlined above, the Marine Corps is 
building on today's success. As we build on our current capabilities, 
embrace innovation, and transform to meet the daunting conventional and 
asymmetric threats to U.S. security in the 21st century, we will 
continue to be the Nation's Total Force in Readiness, fielding warriors 
whose unique seabased expeditionary and combined-arms capabilities will 
be critical to success in crisis and conflict. In the process of 
balancing our programs to meet these goals, we will focus on two 
primary objectives: (1) our main effort--maintaining excellence in 
warfighting, and (2) taking care of our marines and families.

                      III. TAKING CARE OF OUR OWN

    Providing for the needs of our marines, their families, and our 
civilian marines remain among our top priorities. The most advanced 
aircraft, ship, or weapons system is of no value without highly-
motivated and well-trained people. People and leadership remain the 
real foundations of the Corps' capabilities. It is important to note 
that the Marine Corps operates as a Total Force, including elements of 
both active and Reserve components. We continue to strengthen the 
exceptional bonds within our Total Force by further integrating the 
Marine Corps Reserve into ongoing operations and training.
Human Resources
    End Strength. The congressionally-authorized increase in Marine 
Corps end strength to 175,000 in response to the global war on 
terrorism is very much appreciated. This increase of 2,400 marines 
allows us to sustain the increased missions associated with the 
activation of the 4th Marine Expeditionary Brigade (antiterrorism), 
enabling us to replace marines in the active units that we ``borrowed'' 
in standing up the brigade, and continue to provide the Nation with a 
robust, scalable force option specifically dedicated to antiterrorism.
    Recruiting. Sustaining our ranks with the highest quality young men 
and women is the mission of the Marine Corps Recruiting Command. 
Recruiting Command has consistently accomplished this mission for more 
than the past 7 years for enlisted recruiting and 12 years for officer 
recruiting. These achievements provide the momentum fueling the 
continuous pursuit to improve the recruiting process and enhance the 
quality of life for our recruiters. To continue to attract America's 
finest youth, Recruiting Command has provided recruiters with the best 
tools available to accomplish their mission. The Marine Corps supports 
the National Call to Service Act and continues to work closely with DOD 
in developing an implementation policy. We expect to commence enlisting 
individuals under this program commencing October 1, 2003. The Marine 
Corps Reserve achieved its fiscal year 2002 recruiting goals, 
accessioning 5,904 non-prior service marines and 4,213 prior service 
marines. With regard to our Reserve component, our most challenging 
recruiting and retention issue is the ability to fill out our Selected 
Marine Corps Reserve units with qualified officers. The Marine Corps 
recruits Reserve officers almost exclusively from the ranks of those 
who have first served a tour as an active duty Marine officer.
    While this practice ensures our Selected Marine Corps Reserve unit 
officers have the proven experience, knowledge, and leadership 
abilities when we need it the most--during mobilization--it limits the 
recruiting pool that we can draw from to staff our units. As a result, 
the Selected Reserve currently has a shortage of company grade (second 
lieutenant to captain) officers. We are exploring methods to increase 
the Reserve participation of company grade officers through increased 
recruiting efforts, increased command focus on emphasizing Reserve 
participation upon leaving active duty, and Reserve officer programs 
for qualified enlisted marines. We are also pursuing the legislative 
authority to provide an affiliation bonus to Reserve officers as an 
additional incentive for participation in the Selected Marine Corps 
Reserve.
    Retention. Retaining the best and the brightest marines has always 
been a major goal of the Marine Corps. The Marine Corps is by design a 
youthful service, however, it is of paramount importance to retain the 
highest quality marines to lead our young force. History has proven 
that leadership in the Staff Noncommissioned Officer ranks has been the 
major contributor to the combat effectiveness of the Marine Corps. The 
Marine Corps has two retention standards. Our First Term Alignment Plan 
has consistently achieved its reenlistment requirements over the past 8 
years. With one-third of the current fiscal year completed, we have 
achieved 87 percent of our first-term retention goal. A look at our 
Subsequent Term Alignment Plan (second tour and beyond) demonstrates 
that we have already retained 51 percent of our goal for this fiscal 
year. Both of these trends indicate healthy continuation rates in our 
career force.
    Current officer retention is at an 18-year high, continuing the 
strong performance of the last 2 years. Despite this positive trend, we 
cannot become complacent. As a Corps, we will continue to target 
specific qualifications and skills through continuation pay. Military 
compensation that is competitive with the private sector provides the 
flexibility required to meet the challenge of maintaining stability in 
manpower planning.
    Marine Corps Reserve--Partners in the Total Force. It is important 
to note that the Marine Corps operates as a Total Force, including 
elements of both active and Reserve components. We continue to 
strengthen the exceptional bonds within our Total Force by further 
integrating the Marine Corps Reserve into ongoing training and 
operations. Concurrent with the various initiatives underway to improve 
integration and update capabilities, the Marine Corps Reserve continues 
to support its primary mission of augmentation and reinforcement. 
Reserve units and marines provided over 1.8 million man-days in fiscal 
year 2002. Reserves provided support at all levels within the Marine 
Corps and at combatant commands and high-level staffs.
    As we enter the 21st century, the overall structure of Marine 
Forces Reserve will retain the current basic structure. However, Marine 
Forces Reserve is currently working to create new capabilities 
identified as part of its comprehensive review. Both as a structural 
and an operational change, Marine Forces Reserve is increasing its 
operational ties with the Warfighting Commanders by improving lines of 
communication with our operating forces. These increased operational 
ties will improve interoperability, increase training opportunities, 
and enhance the warfighting capabilities of the Total Force.
    Mobilization. Since the events of September 11, the Marine Corps 
judiciously activated Individual Ready Reserve (IRR) marines in 
response to both internal and joint operational requirements. The 
Marine Corps has maximized the use of individual volunteers to meet 
these requirements primarily in the areas of staff augmentation and 
force protection. In addition, Selected Marine Corps Units (SMCR) were 
activated for force protection requirements in support of homeland 
security. Because of emerging requirements associated with war on 
terrorism, we began involuntary recall of some of our IRRs on January 
17, 2003.
    Stop Loss. On January 15, 2003, the Marine Corps instituted Stop 
Loss across the Marine Corps to meet the emerging requirements 
associated with the expanding war on terrorism. Stop Loss was initiated 
to provide unit stability/cohesion, maintain unit readiness, meet 
expanded force protection requirements, and to reduce the requirement 
to active IRR personnel. We will continue to make judicious use of this 
authority and continue to discharge marines for humanitarian, physical 
disability, administrative, and disciplinary reasons. We have 
instructed our general officers to continue to use a common sense 
approach and have authorized them to release marines from active duty 
if it is in the best interest of the Marine Corps and the marine.
Education
    Our leaders--especially our noncommissioned officers--throughout 
the entire chain of command have kept the Corps successful and 
victorious. Their sense of responsibility is the cornerstone of our 
hard-earned successes. We will continue to develop leaders who can 
think on their feet, act independently, and succeed. In the future, as 
today, leaders will continue to instill stamina and toughness in each 
individual while simultaneously reinforcing character that values 
honor, integrity, and taking care of our fellow marines--including 
treating each other with dignity and respect. Aggressive and informed 
leadership demands education, training, and mentoring. The importance 
of these key elements cannot be over-emphasized, and we must attend to 
each at every opportunity.
    Marine Corps University has responsibility and authority for the 
planning, coordinating, and overseeing all education for our marines. 
The university is accredited by the Southern Association of Colleges 
and Schools to confer Masters degrees and currently offers a Masters of 
Strategic Studies at the Marine Corps War College, and a Masters of 
Military Studies at the Command and Staff College. The Chairman of the 
Joint Chiefs of Staff currently accredits the War College, Command and 
Staff College, and the College of Continuing Education for Phase I 
Joint Education. The President of the University also exercises command 
authority over the Expeditionary Warfare School and the Staff 
Noncommissioned Officer Academies worldwide. Notable accomplishments 
include Department of Education approval of a Masters of Operational 
Studies at the School of Advanced Warfighting, which is the first step 
toward our third Master's degree program.
    Plans for the future include providing coordination and continuity 
through a coherent education plan for all marines. Our goal is to 
develop better warfighting leaders at all levels through an increased 
emphasis on relevant, structured education--at the graduate and 
undergraduate level--through both resident programs and distance 
education. Our intent is to greatly expand beyond the current emphasis 
on field-grade officers to support leadership development throughout 
the training and education continuum from marine private through 
general officer and to specifically bring senior noncommissioned 
officers further along the education continuum.
    Our lifelong learning mission is to establish an integrated 
approach to learning; providing marines with one destination for 
enrollment in a college program, access to research tools such as 
books, periodicals, and the Internet, basic skills enhancement, and 
nonresident courses. In the face of a requirement to increase tuition 
assistance from 75 percent to 100 percent of tuition costs, and the 
rate from $187.50 per semester hour to $250 per semester hour, the 
Marine Corps added the necessary funds to expand the tuition assistance 
program in the fiscal year 2004 POM, which provides sustainment until 
fiscal year 2009.
Quality of Life/Quality of Service
    Congressional support for increases in the Basic Allowance for 
Housing, as well as the aggressive Marine Corps use of the Public 
Private Venture (PPV) authority provided by Congress 5 years ago, are 
resulting in dramatic improvements to the housing of our marines and 
their families. Your continued support of our budget to help us achieve 
zero out-of-pocket expenses by fiscal year 2005 is greatly appreciated. 
The condition of other infrastructure, such as our barracks, 
workspaces, and training ranges, are also key factors in overall 
quality of life. While our infrastructure budgets reflect only the 
minimal essential military construction and re-capitalization 
necessary, they will allow us to achieve a re-capitalization rate of 67 
years within the FYDP (down from 100 years in fiscal year 1999) and an 
improvement of our facilities readiness by fiscal year 2013.
    We have been aggressively working to reduce the number of marines 
and civilian marines in non-core business areas, reapplying the marines 
to other operational requirements, and looking to optimize the use of 
civil service/contractor support where appropriate. Our track record is 
good. By example, we have reapplied marines in the garrison food 
service and mobile equipment areas back to the operating forces and 
competed a significant number of civilian positions. We will continue 
this process in line with the President's Management Agenda to review 
50 percent of our positions by fiscal year 2008. By ensuring that 
quality of service remains high, we will help maintain our successful 
record of recruitment and retention.
Families
    The Marine Corps is an expeditionary force prepared to deploy on 
short notice to accomplish assigned missions. While we may recruit 
marines, we almost always retain families--it becomes a family decision 
for a marine to stay for an entire career. Because of our expeditionary 
culture, deployment support is provided to marines and their families 
as part of our normal operations, largely through the efforts of Marine 
Corps Community Services. In addition to concerted efforts to improve 
housing and family services, security and support is offered during 
pre-deployment, deployment, and post-deployment phases of our 
operations. The Marine Corps also offers numerous programs focused on 
new parent support and the prevention of domestic violence, as well as 
services and programs for infants, toddlers, children, and teens. The 
Exceptional Family Member Program focuses on assistance to service 
personnel who have a family member with special needs before, during, 
and after Permanent Change of Station Orders.
Safety
    Ensuring a safe command climate and working environment remains a 
critical concern for the Marine Corps. Often, the settings and the work 
our marines do are dangerous, but effective command climates 
continually mitigate those dangers through planning and leadership. Our 
safety programs are integral to force protection and operational 
readiness. Leadership and programming in safety awareness and standards 
are vital to providing marines and their families with a meaningful 
quality of life and service. On the heels of a very successful year 
prior, fiscal year 2002 was a disappointing year for safety in the 
Corps, as we lost more marines to mishaps in fiscal year 2002 than we 
had in any single year for the preceding decade. Our aviation mishap 
rate increased as well (from 1.40 to 3.9 class A mishaps per 100,000 
flight hours).
    These results do not indicate a lack of desire to safeguard 
marines. Rather, several factors were involved that made it 
particularly difficult to prevent mishaps through normal operational 
risk management efforts. Demographically, the Marine Corps is a younger 
force than the other Services (by an average 6 to 8 years), with 
maturity being a contributing factor in many mishaps; however, none of 
these factors are excuses for any failure to avoid preventable mishaps. 
Our leadership at all levels is deeply concerned about the negative 
trend and we are actively involved in multiple efforts to improve 
readiness and save our most precious marines and valuable equipment.

             IV. OUR MAIN EFFORT--EXCELLENCE IN WARFIGHTING

    Marines have a vision for the future, and we are moving forward 
with the modernization and transformation efforts needed to make this 
vision a reality. We fully understand that our vision cannot be 
achieved independent of our sister Services. Each of the Services has 
its own critical role to play in providing for our Nation's collective 
security; however, it is important that each of our contributions be, 
simultaneously, both unique and complementary. In particular, the Corps 
stresses the importance of our key partnership with the Navy. The Navy-
Marine Corps team has never been stronger, or more necessary for our 
Nation.
    We have stated that our first concern is with the care and 
stewardship of our people. This philosophy extends to the rest of our 
programming in that we focus on procuring the programs and equipment 
that will maximize the abilities of our marines to perform effectively 
in combat. With the foundation of requirements drawn from our emerging 
concepts, the Marine Corps is transforming its warfighting systems and 
assets throughout the elements of our Marine forces. The following 
examples reflect but a few of our transformation and modernization 
efforts. A more comprehensive description of the Marine Corps' entire 
acquisition program can be found in the publication entitled Marine 
Corps Concepts & Programs 2003.
Training
    We believe the enduring wisdom, ``you train the way you fight.'' 
Because of this, our training exercises are becoming ever more joint 
and combined to provide our marines with the experience they will need 
when called upon to respond to crises--because there is no doubt that 
we will work alongside our sister Services and coalition partners from 
other nations in such circumstances. The Marine Corps Combat Training 
Center at Twentynine Palms, California, focuses on integrated live fire 
and maneuver, as well as combined arms training, and will continue to 
play a central role as our foremost training and testing site for 
Expeditionary Maneuver Warfare. Ongoing initiatives will expand the 
role of the Combat Training Center and transform it into a ``Center of 
Excellence'' that will focus the training efforts across our operating 
forces. The Combat Training Center facilitates and supports the 
development of new concepts and capabilities, thereby reinforcing our 
combat effectiveness, enhancing joint interoperability, and supporting 
Dodd transformation efforts.
    The future role of the Combat Training Center will grow beyond its 
current emphasis on battalion-level integrated live fire, combined arms 
training to support expanded training opportunities for all elements 
(ground, air, combat service support, and command) of Marine Air-Ground 
Task Forces up to and including a Marine Expeditionary Brigade. This 
will include enabling multi-site, distributed training evolutions that 
tie together units from various bases; and investing in technology that 
simultaneously links live, virtual, and constructive training. 
Additionally, improvements to the existing Expeditionary Air Field and 
construction of a large-scale urban training facility are being studied 
as possible ways to enhance training opportunities at Twentynine Palms. 
All of these efforts have the potential to increase the capability of 
our training center to support evolving training requirements, enabling 
the Corps to maintain its focus on uniquely marine training skills, 
while providing a vehicle to further integrate Marine Corps 
capabilities into those of the Joint Force.
Infrastructure
    Marine Corps infrastructure consists of 15 major bases and stations 
and 185 Reserve facilities in the United States and Japan. In keeping 
with the Corps' expeditionary nature, these installations are 
strategically located near air and seaports of embarkation, and are 
serviced by major truck routes and railheads to allow for the rapid and 
efficient movement of marines and materiel. Recognized as the ``fifth 
element'' of the Marine Air-Ground Task Force because of the close link 
to the operating forces and their operational readiness, the condition 
of the Corps' bases and stations is of vital importance. With the 
ability to train as an integrated force being a fundamental requirement 
of the Corps, infrastructure development planning is designed to 
provide the facilities, training areas, and ranges (both air and 
ground) to accomplish this requirement while minimizing excess and 
redundant capacities. With increasing encroachment pressures and 
constrained fiscal resources, the Marine Corps face significant 
challenges to provide and maintain a lean and efficient infrastructure 
that fully meets changing mission demands.
    Blount Island Acquisition. We are committed to undertake the wisest 
possible course to conserve our real property and, when necessary, to 
acquire any additional property that is mission critical. The Blount 
Island facility in Jacksonville, Florida, is a national asset that must 
be acquired to ensure its availability for long-term use. Blount 
Island's peacetime mission of supporting the Maritime Pre-positioning 
Force is vitally important, while its wartime capability of supporting 
large-scale logistics sustainment from the continental United States 
gives it strategic significance. The facility will play a vital role in 
the national military strategy as the site for maintenance operations 
of the Maritime Pre-positioning Force for years to come. The Marine 
Corps plans to acquire the Blount Island facility in two phases. Phase 
1, funded in fiscal year 2000 and fiscal year 2001, is currently in 
progress and will acquire interests in approximately 311 acres of land 
for the primary purpose of ensuring public safety on parcels adjacent 
to the leased central management operational area. Phase 2, planned for 
fiscal year 2004, involves acquisition of the central maintenance 
operational area, consisting of over 1,000 acres.
    Training at Eglin Air Force Base. With cessation of training at 
Vieques, Puerto Rico, the established training ranges, quality of 
training support, and proximity to the ocean available at Eglin Air 
Force Base, Florida, can provide Naval Expeditionary Forces with an 
alternative training capability. Eglin's capabilities, location, and 
tenant commands provide the opportunity to facilitate joint training 
between Air Force, Navy, Marine Corps, Army and Special Operations 
Forces. Development of an expeditionary force training capability at 
Eglin can support the Secretary of Defense's vision and direction for 
training transformation and the development of a Joint National 
Training Capability. This type of training will be critical to naval 
expeditionary combat-readiness.
    The Marine Corps proposes to execute two 10-day training exercises 
with a Marine Expeditionary Unit at Eglin each year. These exercises 
include a variety of scenarios such as amphibious landings, raids, 
mechanized operations, helicopter operations, and live fire and 
maneuver exercises. No final decision on training activities will be 
made until an environmental assessment currently underway is completed. 
The Navy and Marine Corps are actively working to develop and sustain 
cooperative relationships with the local community and the State of 
Florida.
    Encroachment and Environmental Issues. Encroachment--defined as any 
deliberative action that can cause the loss of, or restrict, the use of 
land, airspace, frequency, or sea maneuver areas--is a serious threat 
to the operational readiness of the Corps. Urban and residential areas 
now surround many Marine installations that were originally remotely 
situated. This growth is often accompanied by pressure for access to 
Marine Corps resources, or demands to curtail Marine Corps operations 
to make them more compatible with surrounding land uses. The Corps' 
training lands often provide excellent habitat for threatened and 
endangered species, serving as islands of biodiversity amid the crush 
of densely populated urban areas that surround many of our 
installations. The Marine Corps is proactively engaged with Federal, 
State, and local agencies and governments, as well as nongovernmental 
organizations, to provide win-win solutions to these encroachment 
pressures, and ensure compatible land usage and environmental security 
without degrading training and mission readiness. Unimpeded access to 
our installations and ranges is critical to the Marine Corps remaining 
America's ``Force in Readiness.''
    Our Nation has crafted a strong environmental code of conduct 
structured on a wide range of Federal, State, and local laws and 
regulations. Vague or inflexible environmental requirements, however, 
can present significant challenges for marines performing their primary 
mission. We support ongoing efforts to seek clarity and limited 
flexibility in certain environmental laws, so that we may more 
effectively balance our training requirements with our long-term 
environmental stewardship responsibilities. Our ultimate goal is to 
``train the way we fight,'' while preserving the natural environment. 
Today, marines at all levels perform their jobs with an increased 
awareness of potential environmental impacts. All of our bases and 
stations, for example, have implemented Integrated Natural Resource 
Management Plans and aggressive pollution prevention programs. The hard 
work does not end with these initiatives. The impact of encroachment on 
the Corps' ability to fully utilize its installations are varied and 
require constant vigilance and attention to ensure that operational 
readiness is not diminished.
Command and Control
    Interoperability is the key to improving naval expeditionary 
command and control effectiveness, especially as we begin to integrate 
battlespace sensors residing in our manned and unmanned aerial, space, 
and ground vehicles. This is particularly true as the Marine Corps 
continues to work routinely with a range of government, non-government, 
and international agencies. The command, control, communication, and 
computer (C\4\) end-to-end interoperability of the Global Information 
Grid will serve to enhance our ability to conduct joint, multi-
department, and multi-agency operations through the use of technology, 
standards, architectures, and tools.
    The Marine Corps works closely with the Joint Staff, combatant 
commanders, operating forces, and other Services to ensure that, where 
possible, joint concepts of operations are developed for common 
capabilities. An example of this process is occurring with the 
development of the Joint Tactical Radio System, which combines numerous 
single function programs of current inventories into a single, 
interoperable, joint radio program that will provide secure digital 
communications while enhancing wideband tactical networking.
Intelligence
    Our fiscal year 1996-2003 enhancements to Marine Intelligence 
Support are paying off during Operation Enduring Freedom and the global 
war on terrorism. Intelligence Support organic to Marine Forces 
combined with capabilities from our Marine Corps Intelligence Activity 
in Quantico, Virginia, to provide federated production (reachback) 
support has been validated through current operations. Marine 
Expeditionary Unit's forward deployed with organic all-source 
intelligence collection and production capabilities provide current 
intelligence support to Marine and Special Operations units. Our 
deployed signals intelligence, human intelligence, ground sensor, and 
reconnaissance teams provide the commander current situational 
awareness. All-source intelligence marines have the systems and 
training to integrate organic collection, network with the Joint Force 
on the ground, and effectively reach back to the Marine Corps 
Intelligence Activity and joint centers at secure locations.
Mobility
    While the global war on terrorism has demonstrated the current 
capabilities of the Navy-Marine Corps team, our continuous 
transformation and modernization efforts hold even greater potential 
for increasing naval power projection capabilities in the future. Many 
of these efforts focus on increased speed, range, payload, and 
flexibility of maneuver units--mobility. This concept includes a vision 
of an all-vertical lift Air Combat Element, with the introduction of 
tiltrotor and short-take-off/vertical-landing (STOVL) aircraft. The 
following initiatives are some of the keys to the achievement of Marine 
Corps operational mobility objectives:
    MV-22 Osprey. The MV-22 remains the Marine Corps' number one 
aviation acquisition priority. While fulfilling the critical Marine 
Corps medium lift requirement, the MV-22's increased capabilities of 
range, speed, payload, and survivability will generate truly 
transformational tactical and operational opportunities. With the 
Osprey, Marine forces operating from the sea base will be able to take 
the best of long-range maneuver and strategic surprise, and join it 
with the best of the sustainable forcible-entry capability. Ospreys 
will replace our aging fleets of CH-46E Sea Knight and CH-53D Sea 
Stallion helicopters.
    KC-130J. The KC-130J will bring increased capability and mission 
flexibility to the planning table with its satellite communications 
system, survivability, and enhancements in aircraft systems, night 
systems, and rapid ground refueling. The KC-130J is procured as a 
commercial off-the-shelf aircraft that is currently in production. We 
are pursuing a multi-year program for purchase with the U.S. Air Force.
    Advanced Amphibious Assault Vehicle. The Advanced Amphibious 
Assault Vehicle (AAAV) is the Marine Corps' only Acquisition Category 
1D program and will be one of the principal enablers of the 
Expeditionary Maneuver Warfare concept. AAAV will provide never before 
realized high-speed land and water maneuver, a highly lethal day/night 
fighting ability, and advanced armor and nuclear-biological-chemical 
protection. This--coupled with a systematic integration into emerging 
service and Joint Command and Control networked information, 
communications, and intelligence architectures--will provide the Marine 
Corps with increased operational tempo, survivability, and lethality 
across the spectrum of operations.
    Maritime Pre-positioning Force. The Maritime Pre-positioning Force 
(Future) will be the true enabler of primarily sea-based operations. 
When it becomes operational, the future Maritime Pre-positioning Force 
role will expand beyond that of today, and will provide a true 
seabasing capability. In this regard, it will serve four functions that 
the current capability cannot: (1) Phased at-sea arrival and assembly 
of units; (2) Selective offload of equipment and cargo; (3) Long-term, 
sea-based sustainment of the landing force; and (4) At-sea 
reconstitution and redeployment of the force. The naval services are 
exploring several new technology areas during the development of 
Maritime Pre-positioning Force (Future). Currently, the Maritime Pre-
positioning Force (Future) program is conducting an analysis of 
alternatives to inform an acquisition decision by the Office of the 
Secretary of Defense.
    High-Speed Vessel (HSV). High-speed vessels will enhance the Marine 
Corps' capability to perform a wide range of missions, from providing 
support to a theater security cooperation plan to sustaining long-term 
operations ashore. High-speed vessels can enhance our ability to 
conduct sea-based operations and use the sea as maneuver space. HSVs do 
not have the loitering and forcible entry capabilities of amphibious 
ships or the pre-positioning capacity of our Maritime Prepositioned 
Force Squadrons. However, their shallow draft, high speed, 
maneuverability, and open architecture make them a valuable link in a 
seamless logistics system that extends from source of supply to the sea 
base and the Joint Force, enabling a faster, more responsive, and 
capable deployment of a range of force modules from forward-based 
``hubs'' such as Okinawa, or from the United States. The Marine Corps 
is currently testing and validating these concepts by employing a high-
speed vessel in the Pacific theater as a form of strategic lift.
    Power Projection Platforms. Combined with embarked marines, naval 
expeditionary warships provide the Nation with forward-presence and 
flexible crisis response forces. They also provide a truly unparalleled 
expeditionary forcible-entry capability. As part of a joint effort, the 
Marine Corps will remain capable of getting to the fight rapidly in 
order to decisively deter or defeat adversaries who try to impose their 
will on our country or its allies. A fiscally constrained programmatic 
goal of 12 Amphibious Ready Groups--one that deliberately accepts 
increased operational risk by attempting to balance force structure 
with available resources--does not change the warfighting requirement 
to lift the Assault Echelons of three Marine Expeditionary Brigades via 
future platforms for amphibious shipping. The Marine Corps supports the 
LPD-17 and a modified LHD-8 (``Plug Plus'') ship design in fiscal year 
2007 and will evaluate the adequacy of the R&D and SCN funding for the 
development of future LHA(R) ships for the remainder of the class.
    Mine Countermeasure Capabilities. Naval expeditionary forces 
require an effective countermine warfare capability to open and 
maintain sea lines of communication and to operate within the littoral 
battle space. This is probably our greatest concern when it comes to 
projecting power in an anti-access environment. With respect to mine 
countermeasures, we require a family of capabilities that encompasses 
mine detection, location, neutralization, marking, and data 
dissemination. Designed to provide an organic mine countermeasures 
capability within operationally acceptable timelines and with 
acceptable levels of operational risk, this next generation of systems 
includes the Advanced Mine Detector, the Assault Breacher Vehicle, the 
Remote Minehunting System, and the Long-term Mine Reconnaissance 
System. Our most critical mine countermeasures deficiencies exist in 
the area near the shoreline through the high water mark and beyond, 
where detection and neutralization capabilities are extremely limited. 
Given the broad proliferation of known and unknown mined areas 
throughout the world, we must improve our ability to operate in this 
exceptionally lethal environment. Our intent is to leverage America's 
strength in technology to dramatically improve our ability to locate 
and avoid or neutralize mines and obstacles as necessary, and 
eventually remove the man from the minefield.
Fires and Effects
    With the increased range and speed of expeditionary mobility 
assets, the landward area of influence of naval forces has increased by 
an order of magnitude. Consequently, the Nation requires weapon systems 
with correspondingly greater range, lethality, flexibility, and 
tactical mobility. A range of lethal and non-lethal fire-support 
programs is moving the Corps in that direction. The development and 
acquisition of non-lethal weapons systems will expand the number of 
options available to commanders confronted with situations in which the 
use of deadly force is inappropriate. The Marine Corps is developing a 
robust non-lethal capability that will address the non-lethal core 
requirements of clearing facilities, crowd control, and area denial. 
Additionally, we are enhancing the capabilities with which we can 
affect our adversaries that defy the traditional concept of weapons and 
fire-support means. Technical advances in directed-energy weapons hold 
much promise for future capabilities in this area.
    Joint Strike Fighter. The Joint Strike Fighter is the next-
generation strikefighter for the Marine Corps, Air Force, and Navy and 
will replace the Marine Corps' AV-8B and F/A-18A/C/Ds. The JSF family 
of aircraft will include a STOVL variant, a conventional take-off and 
landing (CTOL) variant, and an aircraft carrier-capable variant. 
Commonality between the variants will reduce both development and life-
cycle costs and will result in significant savings when compared to the 
development of three separate aircraft. The Marine Corps requires that 
its STOVL variant be able to operate from large-deck amphibious ships, 
austere sites, and forward operating bases. The STOVL Joint Strike 
Fighter version can use from three to five times more airfields around 
the world than our existing conventional take-off and landing aircraft. 
Moreover, because the STOVL variant can operate from both conventional 
carriers and amphibious assault ship decks, it thereby effectively 
doubles the number of platforms available for seabased operations. The 
advantages of a stealthy STOVL strike fighter--capable of taking off 
from an expeditionary base on land or at sea, flying at supersonic 
cruise, accomplishing its mission with advanced sensors and weapons, 
and then returning to its expeditionary site--are dramatic. The STOVL 
Joint Strike Fighter will provide the reliability, survivability, and 
lethality that marines will need in the years ahead, and transform the 
very foundations of naval tactical air power for the 21st century.
    Naval Surface Fire Support. Our ability to provide fires in support 
of expeditionary forces operations beyond the beach has not kept pace 
with the dramatic increases in mobility. Critical deficiencies 
currently exist in the capability of the Navy to provide all-weather, 
accurate, lethal, and responsive fire support throughout the depth of 
the littoral in support of expeditionary operations. The Marine Corps 
supports the Navy's near-term efforts to develop an enhanced naval 
surface fire support capability with the fielding of the 5-inch/62-
caliber naval gun and the development of extended-range munitions. In 
the far-term, the Marine Corps supports the development and fielding of 
the Advanced Destroyer [DD(X)], armed with 155 mm Advanced Gun Systems 
and Land Attack Missiles, to fully meet our naval surface fire support 
requirements. Our Nation's expeditionary forces ashore will remain at 
considerable risk for want of suitable sea-based fire support until 
DD(X) joins the fleet in significant numbers.
    Indirect Fire-Support. A triad of indirect fire-support programs 
will provide needed firepower enhancements for marines in the near- to 
mid-term. The first element of the triad is the Lightweight-155 mm (LW-
155) towed howitzer needed to replace our current M-198 howitzer, which 
is at the end of its service life. The LW-155 is a joint Marine Corps-
Army effort that will meet or exceed all the requirements of the 
current system while significantly reducing its weight.
    The second element, the High Mobility Artillery Rocket System 
(HIMARS), will deliver very high volumes of rocket artillery in support 
of the ground scheme of maneuver. The HIMARS will provide accurate, 
responsive general support and general support reinforcing indirect 
fires at long range, under all weather conditions, and throughout all 
phases of combat operations ashore. It will fire both precision and 
area munitions to a maximum range of 36 miles.
    The Expeditionary Fire Support System, the third system of the 
land-based fire support triad, will accompany marines in any 
expeditionary mode of operation. It will be the primary indirect fire-
support system for the vertical assault element of the ship-to-
objective maneuver force. The Expeditionary Fire Support System, as a 
system, will be internally transportable by helicopter or tiltrotor 
aircraft to allow the greatest range and flexibility of employment for 
our future operations.
    Information Operations. Defense planners are engaged in studies 
exploring Information Operations as a core military competency, fully 
integrated into both deliberate and crisis action planning. The Marine 
Corps intends to enhance our operational capability in both offensive 
and defensive Information Operations. Marine Corps doctrine and 
warfighting publications are being reviewed and revised to acknowledge 
Information Operations as a core warfighting capability fundamental to 
all operations spanning the spectrum of conflict with equal 
significance during non-combatant and humanitarian operations. We 
recognize a requirement to develop and train an Information Operations 
career force of trained professionals from the ground up in support of 
joint and interagency efforts.
    New Weapons Technologies. The Corps is particularly interested in 
adapting truly transformational weapon technologies. We have forged 
partnerships throughout the Department of Defense, other agencies, and 
with industry over the past several years in an effort to develop and 
adapt the most hopeful areas of science and technology. Several notable 
programs with promising technologies include: (1) advanced tactical 
lasers, (2) high-power microwave, non-lethal active denial systems, (3) 
free electron lasers, (4) electromagnetic guns (rail guns), and (5) 
common modular missiles for aircraft.
Logistics and Combat Service Support
    The Marine Corps logistics' vision is to significantly enhance the 
expeditionary and joint warfighting capabilities of our operating 
forces. Key warfighting capabilities encompassed in our future 
concepts--Enhanced Networked Seabasing and Ship-To-Objective-Maneuver--
will be defined by our logistic capabilities and limitations. Hence, we 
are committed to exploring and implementing actions to increase combat 
power, operational versatility, and deployability. The concept of 
focused logistics in Joint Vision 2020 is guiding the Marine Corps as 
we strive to increase the sustained forward-deployed capability of our 
forces. Future force combat service support--and the Marine Corps 
logistics that enables it--will be changing as we shift more of our 
operations to the sea base. At the forefront of this effort is the 
Marine Corps Logistics Campaign Plan that outlines essential objectives 
and tasks based upon overarching Marine Corps, naval, joint, and DOD 
concepts and guidance. Our strategy encompasses four pillars:
    Logistics Information Fusion and C2. A key to current and emerging 
warfighting capabilities is a robust and responsive logistics 
information technology capability--one that is integrated with our 
command-and-control architecture and interoperable with naval and joint 
systems. The Global Combat Support System-Marine Corps (GCSS-MC) and 
shared data environment, along with the Common Logistics Command and 
Control System, provide logisticians across the Marine Corps with a set 
of common logistics assessment, planning, and execution tools that are 
interoperable with the common operating picture.
    Seamless Distribution. The single capability that defines Marine 
forces in a joint environment is its ability to sustain itself over an 
extended period of time. The principal goal is to move from defining 
sustainment in terms of deployable ``days of supply'' to a continuous 
uninterrupted sustainment capability for the force. A key element in 
achieving this is integrating current distribution processes and 
systems into broader naval and joint distribution processes. Achieving 
this capability will not only greatly enhance naval operations, but 
will be transferable to the task of sustaining Joint Forces and 
operations.
    Enhanced Equipment Readiness. The bulk of our logistics effort and 
associated ``footprint'' is driven by its equipment-support activities. 
The Marine Corps seeks to reduce the required level of support for 
equipment by greatly improving the reliability, availability, and 
maintainability of ground tactical equipment.
    Enterprise Integration. Achieving the emerging warfighting 
capabilities envisioned by future concepts require dynamic shifts in 
our logistics processes and organizations. Leading this effort toward 
logistics modernization is true enterprise integration consisting of 
GCSS-MC, process reengineering, and organizational reform.

                             V. CONCLUSION

    The major challenges confronting the Marine Corps today center on 
organizing, training, and equipping our force to better support Joint 
Force Commanders, now and in the future. The modernization programs and 
the transformational systems that we are pursuing are key to our 
ability to meet the Nation's wartime, crisis, and peacetime 
requirements. We have put into place well-conceived programs addressing 
the needs of our marines and their families, the requirement to enhance 
the current readiness of legacy systems, the critical role 
infrastructure plays in present and future readiness, and the balance 
between modernization and transformation.
    Our capabilities, combined with those of our sister Services and 
Special Operations Forces, form the integrated array of military 
capabilities America needs to confront an increasingly varied and 
threatening national security landscape. You can remain justifiably 
proud of what your Marine Corps contributes as America's forward 
engagement and expeditionary combined-arms force. We are grateful for 
the unwavering support you provide in this vitally important work.

    Chairman Warner. Thank you very much.
    General Jumper.

STATEMENT OF GEN. JOHN P. JUMPER, USAF, CHIEF OF STAFF, UNITED 
                        STATES AIR FORCE

    General Jumper. Mr. Chairman, Senator Levin, distinguished 
members of the committee: Thank you for the opportunity to 
appear before you here today. I am proud to represent the 
airmen of our United States Air Force who serve proudly beside 
the soldiers, sailors, and marines represented at the table 
here today.
    I would like to echo my support and my thanks for what this 
committee has done to improve the readiness of our forces 
around the world. There is nothing that contributes more to 
retention than to give that crew chief on the flight line the 
part he needs to fix his airplane. I share Vern Clark's 
sentiment; it has never been better in our United States Air 
Force, but it is due to the support that is felt from this 
committee, and we thank you for that.
    This year we celebrate 100 years of powered flight. Many of 
those celebrations will go on in Senator Dole's State and 
around the United States. We have come a long way since those 
days. We find ourselves in a much different world than we 
expected as we face a variety of threats from the linear 
battlefields of Iraq to the cave environments of Afghanistan.
    But these challenges have been and will continue to be met 
through a force of dedicated airmen from the active duty, the 
Guard, and the Reserve. We have all had a busy year and our 
tempo continues unchecked. Over the skies of our own United 
States, we have flown more than 25,000 fighter sorties. Today, 
the 390th Fighter Squadron from Mountain Home, Idaho, is 
overhead the Capitol even as we sit here today. They have been 
joined by tanker, airlift, and surveillance sorties 75 percent 
of which have been flown by our National Guard and Reserve over 
the United States.
    We have 14,000 airmen in and around Afghanistan today and 
have contributed to the joint effort nearly 70,000 sorties, 
including 8,000 tanker sorties, which are the heart and soul of 
our global strike effort.
    All of these things are joined by efforts in Operations 
Northern and Southern Watch, where we have had 9,000 airmen 
deployed, have flown over 14,000 sorties in this past year, and 
along with our Marine and Navy colleagues have gotten shot at 
from the ground in Iraq virtually every day of the year.
    We have also been engaged in significant humanitarian 
efforts around the world. We are all familiar with the 
disasters in Guam and, closer to home, the firefighting efforts 
that we have all been a part of.
    All this to say that our tempo is high and our people have 
been sprinting for a long time, but they never fail to answer 
the call, as you saw during your visit to overseas, Mr. 
Chairman.
    To deal with the tempo problems that have emerged since the 
demise of the Soviet Union and the demise of the Cold War, we 
have organized ourselves into air expeditionary forces, 
borrowing a chapter from the book of the Navy and the Marine 
Corps, trying to get ourselves into a deployable rotational 
scheme that puts predictability into the lives of our people. 
Again, this is a total force effort and includes our National 
Guard and Reserve.
    This scheme has served to graphically point out many of our 
shortages in our personnel, manning, and critical skills. We 
are having to pull 23,000 of our airmen forward from future 
rotation force packages to deal with the current situation as 
we get ready for what the President might ask us to do in 
Southwest Asia. These shortages in combat engineers, medical, 
combat communications, and security forces are but a few 
examples of what we are trying to deal with.
    Another point of stress is our aging aircraft. Along with 
our colleagues in the Navy, our average aircraft age is now 
about 23 years of age. It is the oldest we have ever had to 
deal with, and corrosion and fatigue problems that we have 
never seen before are emerging. We are looking at costs of 
repairing these aircraft rising at more than 10 percent a year.
    Engines are another problem. We have had to add inspections 
that have increased our manhours by about 200,000 manhours just 
to inspect engines in the field to catch problems before they 
happen.
    Our space systems are little different. We have done a 
great job, with the help of this committee, to replace our 
aging launch fleet with the Atlas IV with the Atlas V and the 
Delta IV rockets as well as the EELV launch systems that are 
coming into service. It is hard to believe that our defense 
satellite program is now 32 years old and our Minuteman III 
systems are 30 years old, but it is true.
    What are we doing to deal with these issues? You have seen 
the people. We have all seen the people. They will not quit. 
They will do whatever we ask them to do. Like Vern, our 
recruiting and our retention is better than it has ever been.
    One of the things that we have been asked to do by our 
Secretary of Defense as a part of his personnel transformation 
initiative is to make sure that we are making the best use of 
our people. One of the initiatives we have had at Robins Air 
Force Base in Georgia is to blend a wing of National Guard and 
active and bring them together under the leadership of a 
National Guard wing commander to make best use of the great 
experience in that Guard unit and the ready response of our 
active personnel.
    This, along with other initiatives, has been approved by 
our Secretary of Defense, and this includes educational 
opportunities. Our Secretary of the Air Force has gone with the 
Secretary of the Navy and blended the postgraduate education of 
the Naval Postgraduate School with the Air Force Institute of 
Technology so that we are not double-teaching and we share the 
same professors and the same curricula. We have even opened 
some postgraduate education opportunities to our enlisted 
force. Today at Wright-Patterson Air Force Base at the Air 
Force Institute of Technology, you will find seven Marine Corps 
enlisted along with eight U.S. Air Force enlisted enrolled 
getting master's degrees.
    All these people, Mr. Chairman, are marvelous. I had the 
opportunity this year to go give Air Force crosses to the 
widows of two of our airmen who died in Afghanistan, Senior 
Airman Jason Cunningham and Tech Sergeant John Chapman. We have 
another of those heroes with us here today. I would like to 
introduce Staff Sergeant Allen Yoshida, who is seated behind me 
here tonight. Allen was badly wounded in Afghanistan and we 
have asked him as he recovers to be a part of our effort, 
another one of the Secretary of Defense's efforts, to 
streamline our acquisition process.
    It is Sergeant Yoshida, with his direct operational 
experience, who is working directly with our acquisition 
community to get the pieces of equipment rapidly fielded that 
will make the job of the combat controller on the ground that 
much easier. We salute his service, Mr. Chairman.
    All of these acquisition initiatives are not just with what 
we do on the ground, but we have seen similar acquisition 
initiatives streamlines into our remotely piloted aircraft as 
well. As Vern Clark pointed out, we have efforts with the 
United States Navy to put ourselves together where we can in 
the remotely piloted vehicle and the conventionally armed 
unmanned vehicle programs as well.
    We have continued our development of the F/A-22. This 
airplane will give us 24-hour stealth capability for the first 
time. It has already got the qualities of the best air-to-air 
fighter in the world, but its main focus will be on what it can 
do air-to-ground, and as it moves into the future, to add the 
ability to hit moving targets in and under the weather with the 
F-22.
    Blending with the United States Army's concept of 
operations, which calls for brigade combat teams behind enemy 
lines, the F/A-22 will be able to reach the sergeants on the 
ground and put ordnance on the ground in support of them in a 
rapid way.
    We are also working toward the notion of integrating, as 
Vern Clark said, and networking along with the other Services, 
and we have asked for the Multi-Sensor Command and Control 
Aircraft to be a part of this transformation. It will 
horizontally integrate at the machine level manned, unmanned, 
and space platforms. It will allow us to coordinate our defense 
to things like cruise missiles, to which we think we are very 
vulnerable today, and it will be able to join in quickly with 
naval and land forces to do rapid targeting.
    Vern Clark likes to say that his favorite word for the 
decade is ``persistence,'' and I could not agree with him more. 
As we do remotely piloted aircraft into the future, such as 
Predator and Global Hawk, and we bring the Predator B on line 
with its six weapon stations and the ability to loiter for more 
than 30 hours, we will see great leverage come to those on the 
battlefield.
    Sir, I can tell you that one of the great improvements we 
have seen is in readiness and one of the great worries that I 
have is to make sure that we keep our training ranges available 
for all of our air, land, and sea forces. We have seen much 
about encroachment issues. Another one of Secretary Rumsfeld's 
initiatives is to maintain the edge we have in our training 
with his range readiness and preservation initiatives, which we 
ask for our support, Mr. Chairman.
    Sir, there are many other initiatives under way, not only 
in the Air Force but in the Department of Defense, that have to 
do with streamlining processes and unloading administrative 
burdens. I think we are going to see great improvements in all 
these in the future.
    Once again, let me thank all of the members of the 
committee for their support. Sir, your Air Force has never been 
more ready, and we are ready to do anything the President asks.
    Thank you very much, sir.
    [The prepared statement of General Jumper follows:]

            Prepared Statement by Gen. John P. Jumper, USAF

    Mr. Chairman and members of the committee, the Air Force has an 
unlimited horizon for air and space capabilities. Our Service was borne 
of innovation, and we remain focused on identifying and developing the 
concepts of operations, advanced technologies, and integrated 
operations required to provide the Joint Force with unprecedented 
capabilities and to remain the world's dominant air and space force.
    The Wright brothers' historic flight in 1903 ushered in the dawn of 
a dramatic era of scientific, cultural, and technological advances. As 
the Air Force celebrates this centennial of powered flight, we do so 
with the recognition that, despite the daunting challenges of a more 
dynamic security environment, the next hundred years will witness 
equally fantastic achievements. The 2003 Air Force Posture Statement 
reflects this optimism. In this report, we relate some of our 
accomplishments of 2002 as well as our vision of an innovative and 
adaptive force capable of guaranteeing American air and space dominance 
for the decades to come. Our successes are America's successes; they 
are the direct result of the selfless and unconditional service by men 
and women of the total Air Force and their families.
    During the past year, and in the midst of combat and a variety of 
contingency operations, we evaluated, implemented, and validated a host 
of technological advances, organizational changes, and concepts of 
operation. These enabled us to deliver desired effects faster and with 
greater precision than at any time in the history of warfare. Such 
adaptation is characteristic of our Service, as airmen continually 
strive to push innovation ever forward en route to unprecedented air 
and space capabilities for combatant commanders, the Joint Force, and 
our Nation. In the year ahead, we will move our expeditionary Air Force 
closer to realizing the transformational imperatives of this new era, 
machine-to-machine digital integration of manned, unmanned and space 
assets, and joint command and control. Our concepts of operations 
leverage this integration, and expand our asymmetric advantages in air 
and space--advantages that are fundamental to defending America's 
interests, assuring our allies and coalition partners, and winning the 
Nation's wars.
    We recognize the responsibility for America's security is not one 
we shoulder alone. We work tirelessly toward developing and training 
professional airmen, transitioning new technologies into warfighting, 
and integrating the capabilities of our sister Services, other 
government agencies, and those of our friends abroad to act in the most 
efficient and effective manner across all operations--from humanitarian 
to combat missions. At the same time, we pay special attention to the 
consolidating aerospace industry, our acquisition processes, and our 
critical modernization challenges, to ensure we will be able to draw 
upon our core competencies for decades to come.
    Blessed with full endorsement from the American people, Congress, 
and the President, we will remain the world's dominant Air Force. We 
are honored to serve with America's airmen, and we sincerely appreciate 
the confidence in our commitment and capability to provide our great 
Nation with superiority in air and space.

                              INTRODUCTION

    As America approaches the 100th anniversary of powered flight, the 
Air Force realizes that the Nation is only in the adolescence of air 
and space capabilities. Yet we envision a future that will manifest 
dramatic advances in propulsion, operational employment, weapons 
systems, information technology, education, and training for our air 
and space forces. It is a future of unprecedented, seamless integration 
of air and space capabilities with joint command and control at the 
operational level of war, and machine-to-machine integration at the 
tactical level. We are pursuing these changes--some elementary, others 
revolutionary--which will dramatically escalate the capabilities 
available to the Joint Forces of the United States, perpetuate American 
air and space dominance, and redefine the nature of warfare.
    If there was any ambiguity about the nature of the security 
environment in this new century, the attacks of September 11, 2001 
crystallized the setting. Just as the turmoil of the previous decade 
eluded prediction, the dynamic setting of the decades ahead poses even 
greater predictive challenges as centers of power and sources of 
conflict migrate from traditional origins. No longer will it suffice to 
prepare for real and perceived threats from nation-states. Instead, 
America must apply the sum of our operational experiences and 
experimentation to develop dynamic, flexible, and adaptable forces, 
capable of dissuading, deterring, and defeating a much wider range of 
potential adversaries, while still assuring our friends and allies.
    This fluid setting underscores the need for doctrinal agility, and 
expeditious and responsive acquisition, planning, and execution across 
the spectrum of capabilities in support of homeland security--from the 
most difficult anti-access scenario to humanitarian relief. As new 
generations of technology proliferate among potential adversaries, we 
also are reminded of the need to keep pushing technology forward. In 
less than 100 years, we elevated from a Kitty Hawk biplane flying 100 
feet on a 12-second flight, to a host of sophisticated, stealthy aerial 
vehicles capable of reaching any place in the world, and an array of 
satellites that circle the globe continuously. We do not rest on these 
achievements, but instead engage a new generation of innovation. 
Therefore, our mission is to make calculated research, development, and 
procurement decisions with the resolve to integrate all of our combat, 
information, and support systems into an enterprise architecture that 
contributes joint air and space capabilities to help win the Nation's 
wars.
    Meeting these requirements also warrants our continued 
transformation into an expeditionary force with the culture, 
composition, and capabilities to fulfill our evolving operational 
tasks. As the scope of global contingencies requiring American 
involvement has multiplied, we have witnessed the substantial value of 
agility, rapid response, and integration. Thus, we are becoming ever 
more responsive in time, technology, and training, and in the process, 
we are elevating Air Force contributions to joint capabilities, while 
developing our airmen as joint warfighters.
    A year ago, Secretary Rumsfeld laid out a number of key priorities 
for the Department of Defense (DOD). All of these--from pursuing the 
global war on terrorism and strengthening joint warfighting 
capabilities, to streamlining the DOD processes and improving 
interagency integration--demand across-the-board changes in the way the 
Defense Department operates. The Air Force has taken advantage of this 
opportunity to evaluate and strengthen our capabilities, and to 
fundamentally drive our investment strategy.
    As we contemplate more than a decade of unprecedented success using 
air and space power, we recognize that we never fight alone. The 
emerging interdependence of joint, coalition, and alliance partnerships 
throughout a decade of contingency warfare has been a profound lesson 
learned. Through cooperative planning, we will realize the full 
potential of our Service--bringing to bear fully integrated air and 
space capabilities.
    It is our imperative to approach this planning and integration with 
innovation and vision, fundamentally focused on capabilities. All of 
the Armed Forces are focusing on meeting the Quadrennial Defense 
Review's ``1-4-2-1'' force-shaping construct, by defining the 
fundamental capabilities required to meet the challenges of a changing 
world. These are: to defend the United States through homeland 
security; to deter aggression and coercion in the four critical regions 
of Europe, Northeast Asia, Southwest Asia, and the Asian littorals; to 
swiftly defeat aggression in overlapping major conflicts while being 
capable of decisive victory in one of those conflicts; and to conduct a 
number of smaller scale contingencies. A revitalized, capabilities-
focused approach to operational military requirements will allow us to 
meet these missions.
    Our focus on capabilities for an uncertain future has inspired us 
to adapt anew the way we organize, train, and equip our forces. We have 
begun by developing Task Force Concepts of Operations (TF CONOPs), 
which will define how we will fight and integrate our air and space 
capabilities with joint, coalition, and alliance forces. The 
requirements that emerge from these operational concepts will guide a 
reformed acquisition process that will include more active, continuous 
partnerships among requirement, development, operational, test, and 
industry communities working side-by-side at the program level.
    This process can only be successful with the help of a vibrant 
defense industry. Yet today the aerospace industry is consolidating to 
a point that threatens to diminish the advantages of competition. This, 
in turn, can lead to loss of innovation, diminished technical skill 
base, lower cost efficiencies, and other challenges. We must foster 
increased competition to ensure the long-term health of an industrial 
sector critical to our national security. While the Air Force will 
continue to advance the vision and associated capabilities for air and 
space, we also must challenge industry in order for it to stay on the 
cutting edge of technology and efficient management practices.
    Finally, transforming our force will not be possible without a 
process to educate, train, and offer experience to the right mix of 
Active Duty, Air National Guard, Air Force Reserve, and civilian airmen 
who understand the nature of our changing security environment. To 
achieve this, we will evolve what we have traditionally called the 
``personnel'' function in new ways so as to blend Professional Military 
Education, advanced academic degrees, and assignment policies under the 
auspices of ``Force Development.''
    This is the United States Air Force in 2003--inherently innovative, 
tirelessly dedicated, and comprised of the very best airmen and 
capabilities in the world to ensure American security and defend her 
interests. This is what our Nation expects, and we will continually 
meet that expectation.

                               WHAT WE DO

    The United States Armed Forces exist to fight and win our Nation's 
wars, which no service can accomplish alone. The Air Force's pivotal 
role is to deliver fully capable and integrated air and space power to 
the Joint Force Commander (JFC). By dominating the media of elevation, 
the Air Force offers unique warfighting capabilities that leverage the 
strengths of surface forces and expand the range of potential effects.
    Air and space are realms with unlimited horizons for discovery and 
development. While the Air Force has made tremendous strides in 
realizing the visions of early airmen and exploiting the operational 
potential in each medium, we know there is an array of capabilities as 
yet undiscovered. As the Air Force strives to realize these 
possibilities, we deliver a multitude of air and space achievements for 
joint warfighting.
    Although relatively short, Air Force history reveals fundamental 
competencies that are core to developing and delivering air and space 
power--those unique institutional qualities that set the Air Force 
apart from the other Services and any other military force in the 
world. By identifying and keeping these competencies foremost in our 
vision, we are able to more effectively advance the unique 
capabilities, as well as the ultimate effects, the Air Force provides 
to the Joint Force and the Nation.
    The Air Force continually develops areas of expertise that make us 
the preeminent air and space force in the world. Previously, we 
distilled these into six distinctive capabilities which we referred to 
as our ``core competencies''--Air and Space Superiority, Global Attack, 
Rapid Global Mobility, Precision Engagement, Information Superiority, 
and Agile Combat Support. However, just as our concepts of operations 
and capabilities continuously evolve, so also does the way in which we 
articulate Air Force competencies. With deeper refinement, we learned 
there are more fundamental elements to what we are as an Air Force and 
how we develop our capabilities for joint warfighting. These are our 
underlying institutional air and space core competencies, those that, 
in fact, make the six distinctive capabilities possible: Developing 
Airmen, Technology-to-Warfighting, and Integrating Operations. These 
three air and space core competencies form the basis through which we 
organize, train, and equip and from which we derive our strengths as a 
service.

    (1) Developing Airmen: The heart of combat capability

    The ultimate source of air and space combat capability resides in 
the men and women of the Air Force. The potential of technology, 
organization, and strategy are diminished without professional airmen 
to leverage their value. Our Total Force of active duty, Guard, 
Reserve, and civilian personnel are our largest investment and most 
critical asset. They are airmen, steeped in our expeditionary Service 
ethos. Therefore, from the moment they step into the Air Force through 
their last day of service, we are dedicated to ensuring they receive 
the precise education, training, and professional development necessary 
to provide a quality edge second to none. The full spectrum 
capabilities of our Air Force stem from the collective abilities of our 
personnel; and the abilities of our people stem from career-long 
development of professional airmen.

    (2) Technology-to-Warfighting: The tools of combat capability

    The vision of airmen in employing air and space power fundamentally 
altered how we address conflict. As the leader in military application 
of air and space technology, the Air Force is committed to innovation 
and possesses a vision to guide research, development, and fielding of 
unsurpassed capabilities. Just as the advent of aircraft revolutionized 
joint warfighting, recent advances in low observable technologies, 
space-based systems, manipulation of information, precision, and small, 
smart weapons offer no less dramatic advantages for combatant 
commanders. The Air Force nurtures and promotes its ability to 
translate vision into operational capability in order to produce 
desired effects. Our innovative operational concepts illuminate the 
capabilities we need, allowing us to develop unsurpassed capabilities 
to prevail in conflict and avert technological surprise.
    The F/A-22 is demonstrative of this ability to adapt technology to 
warfighting capabilities. Originally envisioned as an air superiority 
fighter, it has been transformed into a multi-role system. The F/A-22 
not only brings to bear warfighting capabilities without equal for 
decades to come, but also includes those we did not foresee at its 
inception. Collectively, the platform's supercruise, stealth, 
maneuverability, and novel avionics will deliver the ability to create 
crucial battlefield effects to the hands of the warfighter, and allow 
access to revolutionary concepts of operations.

    (3) Integrating Operations: Maximizing combat capabilities

    Effectively integrating the diverse capabilities found in all four 
Services remains pivotal to successful joint warfighting. The Air Force 
contributes to this enduring objective as each element of air and space 
power brings unique and essential capabilities to the Joint Force. Our 
inherent ability to envision, experiment, and ultimately execute the 
union of a myriad of platforms and people into a greater synergistic 
whole is the key to maximizing these capabilities. In so doing, we are 
able to focus acquisition and force planning on systems that enable 
specific, effects-based capabilities, rather than on individual 
platforms.
    Embedded in our exploration of innovative operational concepts is 
the efficient integration of all military systems--air, land, maritime, 
space, and information--to ensure maximum flexibility in the joint 
delivery of desired effects across the spectrum of conflict, from war 
to operations short of war. However, effective integration involves 
more than smart technology investment--it also requires investigation 
of efficient joint and service organization and innovative operational 
thinking. Thus, investments in our people to foster intellectual 
flexibility and critical analysis are equally as important as our 
technology investments.
    Collectively, our air and space core competencies reflect the 
visions of the earliest airmen and serve to realize the potential of 
air and space forces. We foster ingenuity and adventure in the 
development of the world's most professional airmen. We seek to 
translate new technologies into practical systems while we encourage 
intellectual innovation at every level of war. We drive relentlessly 
toward integration in order to realize the potential and maturation of 
air and space capabilities.
    Our proficiency in the three institutional air and space core 
competencies underpins our ability to deliver the Air Force's six 
distinctive capabilities in joint warfighting. In turn, our 
capabilities enable desired effects across the spectrum of joint 
operations through our task forces drawn from our air and space 
expeditionary forces. The results of this relationship between core 
competencies, distinctive capabilities, and operational effects are 
manifest in the array of successful missions the Air Force accomplished 
in the past year and those we continue to execute.
Expeditionary Construct
    Our core competencies reflect a legacy of innovation and adaptation 
to accomplish our mission. This point is underscored by the fact that, 
in spite of over a 30-percent reduction in manpower in the past 12 
years, we have faced an exponential increase in worldwide taskings. 
Intensifying operations tempo (OPTEMPO) requires significant changes in 
the way our force trains, organizes, and deploys to support JFC 
requirements. We are a truly expeditionary force--the nature off our 
``business'' is deployed operations.
    The Air Force meets JFC requirements by presenting forces and 
capabilities through our Air and Space Expeditionary Force (AEF) 
construct. This divides our combat forces into 10 equivalent AEFs, each 
possessing air and space warfighting and associated mobility and 
support capabilities. A key element of our ability to deliver these 
tailored and ready expeditionary forces is our development of Task 
Force Concepts of Operations. Our TF CONOPs describe how we fight and 
how we integrate with out sister services and outside agencies. They 
are the fundamental blueprints for how we go to war. Combined with our 
AEF construct--the principal tool we use to present expeditionary 
wings, groups, and squadrons--TF CONOPs will guide our decisions in 
operational planning, enable us to provide scalable, quick-reacting, 
tasked-organized units from the 10 standing AEFs, and sustain our 
ability to ensure trained and ready forces are available to satisfy 
operational plans and contingency requirements.
    The AEF construct incorporates a 15-month cycle during which two 
AEFs are designated as lead for a 90-day ``eligibility'' period. During 
this period, the two are either deployed or on alert for daily, 
worldwide expeditionary taskings, for which they are tailored and 
presented to the JFC as expeditionary squadrons, groups, and wings 
(depending on the specific requirement). Meanwhile, the remaining eight 
AEFs are in various stages of reconstituting, training, or preparatory 
spin-up. It is during this preparatory time (approximately 2 months) 
that we integrate the training-to-task of AEF squadrons immediately 
prior to their on-call window.
    Yet, it is important to note that while our combat forces cycle 
through deployment vulnerability periods, they sustain wartime 
readiness throughout the 15-month training and preparation cycle--a 
critical drive of our 90-day eligibility window. Our AEF cycle thus 
precludes the need for ``tiered'' readiness by allowing our combat 
forces to remain current and capable for any contingency or operational 
plan.
    While ensuring necessary capabilities for the JFC, AEF cycles allow 
us to provide our airmen with a more stable and predictable environment 
in which to train, re-fit, and equip. In addition, AEF scheduling makes 
it easier and more practicable for the Air Reserve Component (ARC) 
forces--Air Force Reserve Command (AFRC) and Air National Guard (ANG)--
to bring their essential contributions to bear by allowing them to plan 
definitive absences from their civilian employment. This is a critical 
advantage of the AEF construct, as ARC forces comprise nearly half of 
the forces assigned to AEFs and contribute the majority of forces for 
some mission areas.
Operations in 2002
    Confident in our air and space capabilities, and committed to 
meeting any mission tasked, the Air Force completed an unprecedented 
array of operations and exercises in 2002. From the mountain ranges in 
Afghanistan and the jungles of the Philippines to the deserts of the 
Middle East, and across every continent and body of water, the Air 
Force joined with land and naval forces to secure America's national 
objectives. With each mission, the Joint Force grows more capable as it 
applies vision, experimentation, and integration to every undertaking. 
We do not act as individual services, but in concert as joint 
warfighters, as we prevail in the war on terrorism and in all 
undertakings.
    Assuring our Nation's citizens, the Air Force conducts a range of 
alert postures involving more than 200 military aircraft at over 20 
airbases for Operation Noble Eagle (ONE). In conjunction with 
unprecedented NATO airborne warning support and other U.S. assets, we 
have provided continuous combat air patrols over sensitive/high risk 
areas, and random patrols over other metropolitan areas and key 
infrastructure. Last year, we flew over 25,000 ONE fighter, tanker, 
airlift, and airborne warning sorties, made possible only through the 
mobilization of over 30,000 Reserve component airmen. In fact, the ANG 
and AFRC have effected over 75 percent of the total ONE missions. We 
will continue this critical mission, as we execute our most fundamental 
responsibility--homeland defense.
    Throughout Operation Enduring Freedom (OEF), the USAF has 
maintained a continuous, steady-force presence in Afghanistan and the 
rest of the area of responsibility with more than 14,000 airmen. Air 
Force assets provide crucial intelligence and situation awareness, 
combat power, and support capabilities for the combatant commander. A 
key reason for American military success in the region is the 
performance of Air Force special operations airmen. Working in teams 
with other special forces, ground units, and coalition elements, airmen 
special operators heroically bring to bear the full weight of air and 
space capabilities--from the ground. They introduce our adversaries to 
the full lethality of our airmen, fully integrated on the ground, in 
the air, and from space.
    Fully engaged in all aspects of the war on terrorism, from mobility 
to close air support, our aircraft and crews flew more than 40,000 OEF 
sorties in 2002--over 70 percent of all coalition sorties. Over 8,000 
refueling missions marked the linchpin capability for the joint fight--
the tanker force--while the magnificent achievements of airlift assets 
rounded out overwhelming mobility efforts. Simply put, Air Force 
mobility forces made operations in a distant, land-locked nation 
possible.
    Beyond air operations, we operated and maintained several 
constellations of earth-orbiting satellites. In 2002, we launched 18 
missions with a 100-percent success rate--including the first space 
launches using Evolved Expendable Launch Vehicles. These activities 
bolstered America's assured access to space and ensured vigorous, 
global intelligence, surveillance and reconnaissance (ISR), missile 
warning, precision navigation and timing, communications, and weather 
systems. In addition, manned, unmanned, and space ISR assets not only 
delivered unprecedented battlefield awareness, but with the Predator 
unmanned aerial vehicle (UAV), also introduced transformational combat 
capabilities.
    ONE and OEF levied particularly heavy demands on our security 
forces. In CONUS and forward locations, increased alert postures 
warranted significant increases in security personnel who constitute a 
critical element of our force protection capabilities. These demands 
have raised our force protection posture worldwide and have forced us 
to adjust to a new ``steady state'' condition. Security forces bear the 
brunt of the adjustment effort despite a resultant baseline shortfall 
of approximately 8,000 personnel to meet the alert postures. In the 
near term, we involuntarily extended for a second year nearly 9,500 ARC 
security forces. However, in order to relieve these ARC forces, we 
concluded a 2-year agreement with the Army for short-term support, and 
initiated several ongoing efforts to combine technology, new processes, 
and some manpower shifts to achieve a long-term adjustment to this new 
era.
    As we adjust, we continue to deliver force protection through the 
integrated application of counter and antiterrorism operations, and 
preparedness for chemical, biological, radiological, nuclear, and 
explosive (CBRNE) incidents. We employ a tailored selection and 
application of multi-layered active and passive, offensive and 
defensive measures. Intelligence and counterintelligence programs 
support this integrated effort and remain critical to our success. In 
this regard, we continued to develop and employ all-source intelligence 
systems, cross-functional intelligence analysis procedures, and an 
operational planning process to implement force protection operations 
that deter, detect, deny, and destroy threats. Our goal is to see 
first, understand first, and act first.
    Though engaged in these security enhancements and the global war on 
terrorism, our combat operations were not limited to OEF in 2002. Iraqi 
forces fired on coalition aircraft over 400 times during 14,000 sorties 
supporting Operations Northern Watch (ONW) and Southern Watch (OSW). 
The Air Force maintained a continuous, regional presence of more than 
9,000 airmen, while air and space assets provided vital intelligence, 
situation awareness, and indications and warning to monitor Iraq's 
compliance with United Nations' directives.
    Whether on the ground or in the skies, our airmen also conducted a 
host of other missions above-and-beyond standing security requirements 
around the globe. Even though the war on terrorism is our national 
military focus, airmen joined soldiers, sailors, and marines in the 
Balkans, South America, Europe, Asia, and around the world to assure 
our friends and allies, while deterring and dissuading our adversaries.
    Worldwide humanitarian and non-combat evacuation operations 
missions remain other key tasks for Air Force personnel. In 2002, for 
example, airlift crews exceeded 2.4 million airdropped daily ration 
deliveries in Afghanistan, evacuated allied personnel at threatened 
locations around the world, and flew typhoon relief missions to Guam, 
while our explosive ordnance specialists removed unexploded munitions 
in Africa. Yet, while conducting unprecedented food, medical, civil 
engineering, and evacuation relief efforts in warring regions, we were 
also on call to perform critical, quick-response missions during 
natural or man-made crises at home. Through explosive ordnance 
disposal, firefighting, law enforcement support, and rapid medical 
response expertise, we conducted daily operations in support of local, 
State, and Federal agencies. During the wildfire season, ANG and AFRC 
C-130s equipped with modular airborne fire fighting systems flew nearly 
200 sorties while assisting U.S. Forest Service firefighting efforts in 
numerous States. In addition, when Hurricane Lili endangered Louisiana, 
Air Force aeromedical and critical care forces rolled in with C-9 
aircraft to transport and safeguard 40 patients from threatened 
hospitals.
Training Transformation
    Training is a unique American military strength. As potential 
adversaries work to overcome our technological superiority, it is 
imperative we enhance this strength through improved proficiency at the 
tactical level and integration at the joint level. Training is integral 
to our core competencies and the critical enabler for military 
capabilities, so we are engaged with the other services, unified 
commands, and the Office of the Secretary of Defense (OSD) in 
developing and implementing a training transformation plan. Our 
objective is to train as we will fight and increase the joint context 
of our exercises through live, virtual, distributed, and constructive 
environments. It is the realism of this training that gives us the edge 
in combat. This involves not only modernizing the integration of space 
and information operations on our ranges, but also planning for their 
sustainment to meet future test and training missions while 
implementing environmentally sound use and management to ensure long-
term availability. Additionally, to expand range support for current 
and emerging missions, we are embarking on a new effort to identify and 
procure environmental, airspace, and spectrum resources at home and 
abroad. Balancing competing economic and environmental needs for these 
resources is a growing challenge we face with our regulatory and 
community partners. To support this effort, DOD developed the Range and 
Readiness Preservation Initiative. This legislation recommends 
clarification to environmental laws that, as currently written and 
interpreted, can adversely affect resources available to support 
training activities at ranges.
Joint Chiefs of Staff (JCS) Exercises, Interoperability Training, and 
        Experimentation
    We advanced joint and combined interoperability skills with our 
sister services and those of 104 nations throughout 111 JCS exercises 
and Joint Task Force (JTF) experimentation, conducted in 40 foreign 
countries. Exercises ranged from large field training such as Bright 
Star, to command post exercises like Positive Response, to smaller, but 
equally valuable, humanitarian exercises, as in the school 
construction, well drilling, and medical clinic visits of New Horizons-
Jamaica. These activities provided realistic training and enhanced the 
effectiveness of all participating nations' forces.
Task Force Enduring Look
    Success in future operations hinges upon our ability to learn from 
previous operations and exercises. To ensure we learn from ongoing 
operations and adapt accordingly, we established Task Force Enduring 
Look (TFEL). TFEL is responsible for Air Force-wide data collection, 
exploitation, documentation, and reporting for our efforts in ONE/OEF. 
The objective for TFEL is clear--provide superior support to the 
warfighter and properly recognize and apply lessons learned during 
rather than only at the conclusion of these operations.
    Through extensive investigation and analysis, TFEL examines joint 
warfighting effectiveness, determines implications, and shapes future 
Air Force transformation of expeditionary air and space power. The task 
force documents lessons learned in a variety of products that cover 
every conceivable subject matter. As derivative campaigns unfold, TFEL 
will broaden its assessments in follow-on reports. Applying the lessons 
in these reports and adapting from our past experiences will help 
ensure we prevail in future operations.
    We are able to accomplish the full spectrum of air and space 
missions and improve our capabilities through lessons learned, by 
focusing on the best way to organize, train, and equip. Creativity, 
ingenuity, and innovation are the hallmarks of all that we do, all of 
which begins with our people.
                               who we are
        ``No arsenal and no weapon in the arsenals of the world is so 
        formidable as the will and moral courage of free men and women. 
        It is a weapon our adversaries in today's world do not have. It 
        is a weapon that we as Americans do have.'' President Ronald 
        Reagan, 20 January 1981

    America is blessed with vast resources, and chief among these is 
her people. In the same way, the Air Force relies on the officers, 
enlisted, civilians, and contractors that comprise our Total Force--
active duty, Guard, and Reserve--for cultural strength and unbridled 
skill. Air Force strength will never reside in systems alone, but in 
the airmen operating them. Nor will our capabilities improve solely 
through technology, but instead through the adaptive insight of our 
creative and selfless professionals.
    Therefore, we recruit and retain a remarkably diverse group to 
ensure we reach the fullest potential of air and space forces. Their 
backgrounds reflect the cross-section of American culture--all races, 
religions, economic and educational backgrounds, skill and management 
levels, men and women--and make this Air Force the tremendous 
organization it is today. Just as diverse individual citizens find 
unity in the term American, our personnel embrace an identity and 
fundamental perspective as airmen.
    The underlying qualities found in all airmen emanate from our core 
values--integrity first, service before self, and excellence in all 
that we do. Embedded in these core values are the inherent 
characteristics of our confident, capable airmen--courage, tenacity, 
professionalism, vision, pride, and, when faced with seemingly 
insurmountable obstacles, heroism. Indeed, today's airmen carry on the 
traditions and visions of the earliest generation of airmen while 
preparing for the challenges of the future.
    The diversity of our airmen energizes the advancement of America's 
air and space power. Airmen embrace transformational ideas and seek to 
apply them to every aspect of the Air Force, from organizational 
constructs to concepts of operations and employment. They are able 
stewards of the Nation's space programs, advancing ideas and 
technologies for national security, as well as for the environmental 
and economic benefit of our Nation and the world. Yet, ultimately our 
standout advantage is our warrior airmen themselves, who demonstrate 
skills and dedication in combat unsurpassed by any in history. Whether 
maintaining safe skies across the United Nations' sanctioned no-fly one 
in Iraq, hunting down terrorists in the jungles of the Philippines, or 
paying the ultimate price while rescuing fellow Americans in a battle 
on an Afghan ridge, our airmen are proven combat veterans. Their 
selflessness resonates the very best of our Service.
    Airmen are expeditionary--our natural state of operations is not 
``home station,'' but rather, deployed. After two successful cycles, 
our AEF construct has been validated as an effective means of meeting 
our Nation's expeditionary requirements. Yet we continue to enhance the 
construct by initiating significant organizational change to ensure 
nearly every airman belongs to 1 of the 10 AEFs. The effect has been a 
change to our airmen's mindset and culture, where an individual's AEF 
association cultivates an expeditionary perspective and a clearer 
appreciation for joint warfighting requirements and capabilities.
Force Development--A New Leadership Development Paradigm
    In the past, we addressed aspects of career development, education, 
and assignments individually, but not necessarily in a coordinated, 
connected approach. Recognizing this, and to prepare for the future 
more ably, we introduced a systemic, deliberate force development 
construct that evolves professional airmen into Joint Force warriors. 
This construct coordinates doctrine and policies, concentrated to 
provide the right level, timing, and focus of education, training, and 
experience for all airmen, while encompassing personal, team, and 
institutional leadership skills across tactical, operational, and 
strategic levels.
    In the 21st century, we need air and space warriors with mastery of 
their primary skills and others who possess competency beyond their own 
specialty. However, this diversity must be deliberate to ensure the 
correct skills are paired according to institutional requirements. 
Force development encourages many to obtain a deep perspective in their 
functional area, but at the same time offers the broader perspective we 
need to complement our leadership team. We begin this transformation 
with the active duty officer corps and will eventually encompass the 
civilian, enlisted, and Reserve component to better meet the expanding 
challenges of tomorrow.
Education and Technical Training--Emphasis on Joint Leadership/Warfare
    As opportunities resident in advancing technologies unfold, it is 
imperative that the Air Force be able to draw upon a vibrant collection 
of educated, technically skilled, and technologically savvy airmen--
both uniformed and civilian alike. We are answering this fundamental 
need in fiscal year 2003 with aggressive and innovative initiatives to 
enhance the abilities and breadth of our force. Agile, flexible 
training is an essential investment in human capital, and our 
initiatives will ensure our investment delivers the right training to 
the right people at the right time.
    In August 2002, we began our groundbreaking Enlisted-to-Air Force 
Institute of Technology (AFIT) program. An initial cadre of senior NCOs 
began receiving world-class, graduate education to optimize them for 
greater responsibilities and challenging follow-on assignments. We will 
also provide a major influx of officers into AFIT, Naval Postgraduate 
School (NPS), and civilian institutions. In addition, because more than 
42 percent of our civilian force will be eligible for retirement in the 
next 5 years, we are committing significant resources to pay for 
advanced education as well as cross-functional career broadening.
    Future military missions and contingencies will require greater 
sophistication and understanding of the security environment, and our 
expeditionary force requires airmen with international insight, foreign 
language proficiency, and cultural understanding. We are working 
diligently to expand the cadre of professionals with such skill sets 
and experiences. Our education initiatives will contribute to a major 
corporate culture shift that fosters appropriate development throughout 
our airmen's careers to meet evolving force requirements.
Diversity
    Foremost among our efforts to enhance the capabilities of our 
airmen is a passionate drive for diversity. Diversity is a warfighting 
issue; it is a readiness issue. We must attract people from all 
segments of American society and tap into the limitless talents and 
advantages resident in our diverse population if we hope to reach our 
fullest potential as a fighting force. Nurturing rich representation 
from all demographics opens the door to creativity and ingenuity, 
offering an unparalleled competitive edge for air and space 
development. Today's multi-threat world also mandates that we 
invigorate in our airmen the ability to effectively think across 
cultural boundaries and functional paradigms (or stovepipes). We will 
thus recruit, train, and retain airmen without intellectual boundaries, 
uniquely capable of integrating people, weapons, ideas, and systems to 
achieve air and space dominance.
Recruiting
    It takes tremendous effort to identify and develop such airmen, yet 
the return for the Nation is immeasurable. Increased advertising, an 
expanded recruiting force with broader access to secondary school 
students, and competitive compensation prepare us to meet recruiting 
goals. Despite the challenge of mustering such a diverse and skilled 
collection of Americans, we exceeded our fiscal year 2002 enlisted 
recruiting goals and expect to surpass fiscal year 2003 objectives. We 
will adapt our goals to meet new force objectives; however, the 
capacity limitations of Basic Military Training and Technical Training 
School quotas will continue to challenge Total Force recruiting 
efforts.
    Officer recruitment presents similar challenges, yet we continue to 
attract America's best and brightest. However, we are particularly 
concerned with military and civilian scientists and engineers. We fell 
short of our accession goal for this group and have begun all-out 
recruitment and retention efforts for these critical specialties. For 
example, in fiscal year 2003 we plan to begin a college sponsorship 
program to attract scientists and engineers from universities lacking 
Reserve Officer Training Corps (ROTC) programs. In addition, we 
continue to find recruiting health care professionals especially 
difficult, so we are making adjustments to ensure improvement.
    We will also closely monitor ARC recruitment. Historically, the ANG 
and AFRC access close to 25 percent of eligible, separating active duty 
Air Force members (i.e. no break in service.) Continued high OPTEMPO 
may negatively impact our efforts in attracting Air National guardsmen, 
as well as drawing separating active duty airmen to the Air Force 
Reserve. As a result, recruiting will have to ``make up'' a substantial 
portion of accessions from that market by developing alternatives.
Retention
    The Air Force is a retention-based force. The critical skill sets 
we develop in our airmen are not easily replaced, so we expend every 
effort to retain our people--the impetus for our ``re-recruiting'' 
efforts. Overall retention plans include robust compensation packages 
that reward service, provide for a suitable standard of living, ensure 
a high quality of life, and retain the caliber of professionals we need 
to decisively win America's wars.
    For fiscal year 2002, it was difficult to calculate accurate 
retention results due to Air Force implementation of Stop Loss. 
Nonetheless, we continue to reap the benefits of an aggressive 
retention program, aided by bonuses, targeted pay raises, and quality 
of life improvements. Introducing the Critical Skills Retention Bonus 
for select office; specialties reinforces our commitment to target 
specific skill suffering significant retention challenges. However, 
many airmen retained under Stop Loss will separate throughout fiscal 
year 2003--a fact of particular concern for our rated force.
    Bonuses and special pay programs continue to be effective tools in 
retaining our members. The ANG has placed particular emphasis on 
aircraft maintenance fields, security forces, and communication and 
intelligence specialists, among others, by offering enlistment and 
reenlistment bonuses, Student Loan Repayment program, and the 
Montgomery GI Bill Kicker program. Another example is the flexible 
Aviation Continuation Pay (ACP) program--an important part of our 
multi-faceted plan to retain pilots. In conjunction with our rated 
recall program, our fiscal year 2002 plan resulted in a substantial 
increase in committed personnel. We have a similarly designed ACP 
program in fiscal year 2003, and developed extensions to include 
navigators and air battle managers.
Summary
    Regardless of AEF deployment or home station missions, our airmen 
accomplish their duties with firm commitment and resolute action. It's 
what we do. It's who we are: a practical, technically sound, ingenious 
force of uniformed and civilian airmen derived from this richly diverse 
nation to create the world's premier air and space power.

                           WHERE WE'RE GOING

    The first hundred years of powered flight witnessed tremendous and 
enduring innovation. We commemorate this centennial during 2003 with 
the theme, Born of Dreams, Inspired by Freedom, which recognizes the 
remarkable accomplishments of generations of airmen. Today's airmen are 
equally impassioned to bring dreams to reality as we pursue our vision 
of tomorrow's Air Force, Unlimited Horizon. Through this vision, we 
build a bridge from today's existing capabilities to those required to 
win tomorrow's wars.
    Ultimately, our success will be measured by our ability to provide 
our forces with assured freedom to attack and freedom from attack. 
Achieving such victory in tomorrow's battlespace will demand our full 
integration with fellow services, allies, and coalition partners--an 
essential part of the expeditionary construct. Through our security 
cooperation efforts, we build these international defense relationships 
and allied capabilities to ensure we have the access, interoperability, 
and international support for our worldwide commitments. Toward this 
requirement, we are working with our sister services to develop truly 
joint concepts of operations that integrate the full spectrum of land, 
sea, air, space, and information warfighting capabilities. When America 
places its men and women in uniform into harm's way, we owe them 
preeminent resources, planning, and organization to achieve victory 
over any adversary.
Capabilities-Based CONOPs
    While adapting to the new strategic environment, our principal 
focus has been transitioning from a platform-based garrison force to a 
capabilities-based expeditionary force. No longer platform-centric, we 
are committed to making warfighting effects, and the capabilities we 
need to achieve them, the driving force behind our ongoing 
transformation. From this point forward, all of our operational, 
programming, and budget decisions will be supported by a predefined 
capability.
    Our emerging TF CONOPs will help make this essential shift by 
providing solutions to a variety of problems warfighters can expect to 
encounter in the future. Whether detailing our plans for operating in 
an anti-access environment or identifying how to deliver humanitarian 
rations to refugees, TF CONOPs lend focus on the essential elements 
required to accomplish the mission. They cover the complete spectrum of 
warfighting capabilities (deep strike, information, urban, 
psychological operations, etc.) and enable us to tailor forces 
(expeditionary wings, groups, or squadrons) from existing AEFs to meet 
JFC's requirements. Responsibility for CONOPs development falls to the 
major commands, with a senior officer on the HQ USAF air staff assigned 
to each CONOPs to serve as their ``Champion,'' facilitating the 
process.
    TF CONOPs directly support Secretary Rumsfeld's efforts to free 
scarce resources trapped in bureaucracy and push them to the 
warfighter. They will also be the focal point for a capabilities-based 
Program Objective Memorandum (POM). In support of this effort, our 
Capabilities Review and Risk Assessment analyzes and assesses 
shortfalls, health, risks, and opportunities, while prioritizing 
required future capabilities. This helps CONOPs developers articulate 
any disconnects between required capabilities and developing programs, 
while providing senior Air Force leadership an operational, 
capabilities-based focus for acquisition program decisionmaking. TF 
CONOPs include:

        <bullet> Global Strike Task Force (GSTF) employs joint power-
        projection capabilities to engage anti-access and high-value 
        targets, gain access to denied battlespace, and maintain 
        battlespace access for all required joint/coalition follow-on 
        operations.
        <bullet> Global Response Task Force (GRTF) combines 
        intelligence and strike systems to attack fleeting or emergent, 
        high-value, or high-risk targets by surgically applying air and 
        space power in a narrow window of opportunity, anywhere on the 
        globe, within hours.
        <bullet> Homeland Security Task Force (HLSTF) leverages Air 
        Force capabilities with joint and interagency efforts to 
        prevent, protect, and respond to threats against our homeland--
        whether within or beyond U.S. territories.
        <bullet> Space and Command, Control, Communications, Computers, 
        Intelligence Surveillance, and Reconnaissance (Space & C\4\ISR) 
        Task Force harnesses horizontal integration of manned, 
        unmanned, and space systems to provide persistent situation 
        awareness and executable decision-quality information to the 
        JFC.
        <bullet> Global Mobility Task Force (GMTF) provides regional 
        combatant commanders with the planning, command and control 
        (C\2\), and operations capabilities to enable rapid, timely, 
        and effective projection, employment, and sustainment of U.S. 
        power in support of U.S. global interests--precision delivery 
        for operational effects.
        <bullet> Nuclear Response Task Force (NRTF) provides the 
        deterrent ``umbrella'' under which conventional forces operate, 
        and, if deterrence fails, avails a rapid scalable response.
        <bullet> Air and Space Expeditionary CONOPs is the overarching 
        context, which identifies and sequences distinctive 
        capabilities and broad-based functions that air and space power 
        provide the JFC to generate desired effects for national 
        military objectives.

    The Air Force is transforming around these Task Force Concepts of 
Operations. In addition to serving as a roadmap for operators, the TF 
construct will form the basis for resource allocation, future system 
acquisitions, and POM submissions in order to find capabilities-based 
solutions to warfighter problems.
Science and Technology (S&T)--Wellspring of Air and Space Capabilities
    Reaching these warfighter solutions rests in large measure with 
research and development. Through robust investment and deliberate 
focus in science and technology, the Air Force invigorates our core 
competency of technology-to-warfighting. Combined with innovative 
vision, S&T opens the direct route towards transforming air and space 
capabilities. Therefore, we continue long-term, stable investment in 
S&T to ensure we realize future capabilities, as well as those that may 
immediately affect existing systems.
    We are improving our S&T planning and collaboration with other 
services and agencies to ensure; we: 1) encourage an operational pull 
that conveys to the S&T community a clear vision of the capabilities we 
need for the future; 2) address the full spectrum of future needs in a 
balanced and well-thought out manner; and 3) enhance our ability to 
demonstrate and integrate promising technologies. Some of these new 
technologies--UAV systems, laser-based communications, space-based 
radar, and others--show clear promise for near-term, joint warfighting 
applications. Others present opportunities we can only begin to 
imagine. We are exploring each of these technologies, and our 
investment will deliver the required capabilities of our CONOPs.
Executive Agent for Space
    Embedded in all of our TF ONOPs, and indeed within most military 
operations, is an extensive reliance on systems resident in space. The 
Air Force proudly fulfills the role of the Department of Defense 
Executive Agent for Space with confidence and enthusiasm. Our ability 
to execute this tremendous responsibility stems from a natural outflow 
of our core competencies and distinctive capabilities. Accordingly, and 
in conjunction with the other Services and agencies, we are shaping a 
new and comprehensive approach to national security space management 
and organization.
    Our capstone objective is to realize the enormous potential in the 
high ground of space, and to employ the full spectrum of space-based 
capabilities to enable joint warfighting and to protect our national 
security. The key to achieving this end is wholesale integration: 
through air, land, space, and sea; across legacy and future systems; 
among existing and evolving concepts of operations; and between 
organizations across all sectors of government. We will continue to 
deliver unity of vision, effort, and execution to fulfill our mission 
of delivering the most advanced space capabilities for America.
Drawing Effects from Space
    Our horizon is truly unlimited, extending beyond the atmospheric 
environs of airpower to the reaches of outer space. Our proud Air Force 
tradition of airpower is joined by an equally proud and continually 
developing tradition of space power.
    In the early days of the space age, only those at the strategic 
level received and exploited the benefits of space capabilities. The 
current state of affairs, however, is decidedly different. The former 
distinctions between classified and unclassified programs among 
military, civil, and commercial applications are growing increasingly 
blurred--in some cases, they are virtually seamless. In short, space 
capabilities now are woven deeply into the fabric of modern society, 
and they have altered forever the way we fight wars, defend our 
homeland, and live our lives.
    It is in this context and this understanding of the widespread and 
increasing importance of space systems that we strive to meet present 
and future national security challenges by providing dominant space 
capabilities that will:

        <bullet> Exploit Space for Joint Warfighting. Space 
        capabilities are integral to modern warfighting forces, 
        providing critical surveillance and reconnaissance information, 
        especially over areas of high risk or denied access for 
        airborne platforms. They provide weather and other earth-
        observation data, global communications, precision navigation, 
        and guidance to troops on the ground, ships at sea, aircraft in 
        flight, and weapons en route to targets. All of these 
        capabilities, and more, make possible the tremendous success 
        our joint warfighters achieve during combat operations.
          We will enhance these existing capabilities and, where it 
        makes sense, pursue new ones such as the Transformational 
        Communications System (TCS), which will strive to dramatically 
        increase bandwidth and access for warfighters, and Space Based 
        Radar, which will complement the airborne Joint Surveillance 
        Target and Attack Radar System (JSTARS) while migrating Ground 
        Moving Target Indicators (GMTI) into space. We will also 
        develop methods and technologies to enhance our Nation's 
        ability to conduct rapid and accurate global strike operations 
        anywhere in pursuit of U.S. interests.
        <bullet> Pursue Assured Access to Space. We cannot effectively 
        exploit space for joint warfighting if we do not have 
        responsive, reliable, and assured access to space. In August 
        2002, the new Evolved Expendable Launch Vehicle got off to a 
        strong start with the successful launch of Lockheed Martin's 
        Atlas V booster. Boeing's Delta IV program added to the 
        Nation's quiver of modern launch vehicles with liftoff in 
        November 2002. We will also pursue advanced and highly 
        versatile reusable launchers and small expendables with 
        extremely short response times to achieve long-term assured 
        access, while taking the necessary steps to maintain and 
        improve our space launch infrastructure.
        <bullet> Preserve our Freedom to Act in Space. We must be able 
        to act freely in space, or risk losing those capabilities 
        essential to joint warfighting. We initiated efforts to 
        increase our space situation awareness, beginning with the new 
        Space Situation Awareness Integration Office at Air Force Space 
        Command, and a similar program at the Space and Missile Systems 
        Center. Future efforts are planned to develop strategy, 
        doctrine, and programs to improve the protection of our own 
        space capabilities while denying the benefits of joint space 
        capabilities to our adversaries.

    As it is with all Air Force capabilities, the most important 
resource for national space capabilities is neither technological nor 
fiscal--it is human. Our Space Professional Strategy fulfills a Space 
Commission recommendation to develop space professionals and nurture a 
cadre to lead our national security space endeavors at all levels in 
the decades ahead. These space-expert airmen will be the core stewards 
of space operations, and shoulder the responsibility for aggressively 
advancing joint warfighting capabilities into the high ground frontier.
Horizontal Integration of Manned, Unmanned, and Space Assets
    The essence of transformation is found in leveraging the Nation's 
technological dominance to create maximum asymmetrical advantage. 
Airmen seek unrestricted boundaries when looking at war planning from a 
theater-wide perspective, or talking about national elements of power. 
Simply stated, it is in the way we think--we must take advantage of it.
    Our foremost objective is to develop the capability to conduct 
rapid and precise operations to achieve desired effects and shape the 
battlespace for the Joint Force. This requires interfacing numerous DOD 
and national assets--the seamless, horizontal integration of manned, 
unmanned, and space-based systems. An essential element is designing 
systems that use digital-level, machine-to-machine conversations to 
expedite data flow and ensure the JFC receives timely, decision-quality 
information. Such integration will dramatically shorten the find, fix, 
track, target, engage, and assess (F2T2EA) cycle. In the end, we know 
that neither JFC's guiding operations, nor special operators putting 
iron on targets, care what source provides the target data. It is an 
effect they seek, and what we will provide.
    Key to the warfighter's success is Predictive Battlespace Awareness 
(PBA). PBA requires in-depth study of an adversary well before 
hostilities begin. Ultimately, we want to be able to anticipate his 
actions to the maximum extent possible. PBA-derived insights allow us 
to utilize critical ISR assets for confirmation rather than pure 
discovery once hostilities begin. We are then able to analyze 
information to assess current conditions, exploit emerging 
opportunities, anticipate future actions, and act with a degree of 
speed and certainty unmatched by our adversaries.
    Along this path, we are transitioning from collecting data through 
a myriad of independent systems (Rivet Joint, AWACS, JSTARS, space-
based assets, etc) to a Multi-sensor Command and Control Constellation 
(MC2C) capable of providing the JFC with real-time, enhanced 
battlespace awareness. Today, this transition is restricted by the 
necessity to rely on low density/high demand (LD/HD) C\4\ISR assets. 
The limitation inherent in LD/HD platforms forces us to shift their 
exploitation capabilities between theaters to cover emerging global 
threats and events. This suboptimizes overall battlespace awareness and 
limits our efforts at predictive analysis. In the interim, responsive 
space-based ISR assets will help mitigate our over-stressed LD/HD 
systems. Yet ultimately, we need a synergistic combination of military 
and commercial assets, advanced data processing capabilities, and 
assured reachback to achieve true battlespace awareness.
    In the future, a single widebody platform employing tunable 
antennas and sensors--Multi-sensor Command and Control Aircraft 
(MC2A)--will replace many of the C\4\ISR functions of today's 
specialized, but independent assets. Air, ground, and space assets will 
comprise the MC2C, which will elevate Joint Forces Air Component 
Commanders' ability to command and control air assets. Additionally, 
every platform will be a sensor on the integrated network. Regardless 
of mission function (C2, ISR, shooters, tankers, etc), any data 
collected by a sensor will be passed to all network recipients. This 
requires networking all air, space, ground, and sea-based ISR systems, 
command and control (C2) nodes, and strike platforms to achieve shared 
battlespace awareness and a synergy to maximize our ability to achieve 
the JFC's desired effects.
    Uniting joint and coalition information presents the most difficult 
challenge in providing one common operational picture for key 
decisionmakers. We are working closely with our sister services to 
eliminate the seams between existing systems and taking the necessary 
steps to ensure all future acquisitions are planned and funded to meet 
the interoperability requirements of future joint CONOPs.
    A critical element of successful information merging is 
communications, as bandwidth is finite and requires careful management. 
Long-range or penetrating systems must communicate beyond the horizon 
despite adversaries' attempts to exploit or interrupt these links. To 
counter disruption, all systems must be reliable, secure, and 
bandwidth-efficient. The PBA construct facilitates this objective by 
eliminating constrictive, stove-piped communications systems while 
emphasizing networked operations.
    We will realize the vision of horizontal integration in our TF 
CONOPs. GSTF, for example, will deliver the right-sized mix of assets 
with appropriate sensors capable of penetrating into enemy airspace. 
Such sensors may be low observable and/or expendable, mounted on either 
ISR platforms or imbedded into strike platforms. Sensors may consist of 
Special Operations Forces, inserted before the commencement of 
hostilities, who communicate with attack platforms during combat via 
secure electronic writing tablets, annotating targets, and threats on 
the imagery display with a stylus. As technology progresses, and where 
it makes sense, a significant portion of ISR functionality will likely 
migrate to space, affording 24/7 persistence and penetration. Likewise, 
advanced defensive counterspace capabilities will afford these systems 
protection from enemy actions.
    Combining manned, unmanned, and space-based assets with dynamic C2 
and PBA transforms disparate collection and analysis activities into a 
coherent process, allowing the warfighter to make timely, confident, 
and capable combat decisions. This is what the Air Force brings to the 
joint fight. It is what air and space warriors are all about. We unlock 
the intellectual potential of airmen who think across the dimensions of 
mediums and systems capabilities for the joint warfighter.
Addressing the Recapitalization Challenges
    Despite new CONOPs and visions for future capabilities, we cannot 
rely on intellectual flexibility to eradicate the challenge of old 
systems and technologies. Though creativity may temporarily reduce the 
negative impacts of aging systems on our operational options, 
ultimately there are impassable limits created by air and space system 
hardware issues.
    We have made tremendous strides in modernizing and improving 
maintenance plans for our aircraft; however, the tyranny of age has 
introduced new problems for old aircraft. Reality dictates that if we 
completely enhance the avionics and add new engines to 40-year-old 
tankers and bombers, they are still 40-year-old aircraft, and subject 
to fleet-threatening problems such as corrosion and structural failure.
    This is equally true for our tighter aircraft, where once cutting-
edge F-117s now average over 15 years of age, and mainstay air-
dominance F-15Cs are averaging nearly 20 years of service. With double-
digit surface-to-air missile systems, next-generation aircraft, and 
advanced cruise missile threats proliferating, merely maintaining our 
aging fighter and attack aircraft will be insufficient. In fact, the 
dramatic advances offered in many of our TF CONOPs cannot be realized 
without the addition of the unique capabilities incorporated in the F/
A-22. Simply stated, our legacy systems cannot ensure air dominance in 
future engagements--the fundamental element for Joint Force access and 
operations. We will thus continue executive oversight of F/A-22 
acquisition in order to ensure program success. While keeping our 
funding promises, we will procure the only system in this decide that 
puts munitions on targets, and which is unequally capable of detecting 
and intercepting aircraft and cruise missiles.
    Although ultimately solving these recapitalization challenges 
requires acquisition of new systems, we will continue to find 
innovative means to keep current systems operationally effective in the 
near term. We know that just as new problems develop with old systems, 
so too do new opportunities for employment, such as our employment of 
B-1s and B-52s in a close air support role during OEF. We will also 
pursue new options for these long-range strike assets in a standoff 
attack role for future operations.
    Unlike with the aforementioned air-breathing assets, we cannot make 
service life extensions or other modifications to our orbiting space 
systems. Satellites must be replaced regularly to account for hardware 
failures, upgrade their capabilities, and avoid significant coverage 
gaps. Additionally, we must improve outmoded ground control stations, 
enhance protective measures, continue to address new space launch 
avenues, and address bandwidth limitations in order to continue 
leveraging space capabilities for the joint warfighter. We are 
exploring alternatives for assuring access to space, and a key aspect 
of this effort will be invigorating the space industrial base.
    Finally, it is imperative that we address the growing deficiencies 
in our infrastructure. Any improvements we may secure for our air and 
space systems will be limited without a commensurate address of 
essential support systems. Deteriorated roofs, waterlines, electrical 
networks, and airfields are just some of the infrastructure elements 
warranting immediate attention. Our ability to generate air and space 
capabilities preeminently rests with the ingenuity of visionary ideas, 
yet intellectual versatility must be supported by viable systems and 
structures to realize our Service potential.
Organizational Adaptations
    Commensurate with our drive to enhance air and space capabilities 
is our identification and development of organizational structures to 
aid these advances. In 2002, we initiated numerous adaptations to more 
efficiently and effectively exploit Air Force advantages for the joint 
warfighter.
Warfighting Integration Deputate
    Comprehensive integration of the Air Force's extensive C\4\ISR 
systems is paramount for our future capabilities. This requires an 
enterprise approach of total information-cycle activities including 
people, processes, and technology. To achieve this, we created a new 
Deputy Chief of Staff for Warfighting Integration (AF/XI), which brings 
together the operational experience and the technical expertise of 
diverse elements (C\4\ISR, systems integration, modeling and 
simulation, and enterprise architecture specialties.)
    This new directorate will close the seams in the F2T2EA kill chain 
by guiding the integration of manned, unmanned, and space C\4\ISR 
systems. AF/XI's leadership, policy, and resource prioritization will 
capitalize on the technologies, concepts of operations, and 
organizational changes necessary to achieve horizontal integration and 
interoperability.
    Success has been immediate. AF/XI worked with the Deputy Chief of 
Staff for Air and Space Operations to champion increased Air Operations 
Center weapon system funding in the fiscal year 2004 POM, which 
accelerated the stabilization and standardization of the weapon system. 
Subsequently, the base-lined weapon system now has a modernization 
plan, which is both viable and affordable. AF/XI also led analysis that 
highlighted imbalances among collection and exploitation capabilities. 
As a result, we plan to accelerate ground processing and exploitation 
capabilities within the future years defense program to close the gap. 
Major contributions in management of the complex information 
environment will continue, as AF/XI makes better use of scarce 
resources, allowing the Air Force to provide the joint warfighter the 
capabilities to dominate the battlespace.
Chief Information Officer (AF/CIO)
    Partnered with AF/XI, the AF/CIO shares responsibility to spearhead 
the transformation to an information-driven, network-centric Air Force. 
These two organizations orchestrate the integration within our 
information enterprise, and establish processes and standards to 
accelerate funding and ensure priorities match our integrated 
information vision.
    The AF/CIO's specific mission is to promote the most effective and 
efficient application, acquisition, and management of information 
technology resources under an enterprise architecture. The goal is to 
provide the roadmap for innovation and to function as a blueprint for 
the overall leverage of valuable information technology. Enterprise 
architecture will use models and processes to capture the complex 
interrelationships between the Air Force's systems and platforms. A 
resultant example is basing Information Technology (IT) investment 
decisions on sound business cases, approved Air Force standards, and, 
ultimately, how a particular technology contributes to specific 
capabilities. Additionally, we are institutionalizing enterprise 
architecting as a key construct in defining mission information 
requirements and promoting interoperability.
    Currently, the wide variety of IT standards limits C2 processes and 
information and decision support to our warfighters. The AF/CIO-AF/XI 
team is tackling this and all other integration challenges as they 
develop an enterprise architecture that spans the entire Air Force, 
while also staying in harmony with other services' efforts.
Blended Wing
    We do nothing in today's Air Force without Guard, Reserve, and 
civilian personnel working alongside active duty airmen. A fundamental 
initiative of Air Force transformation is formalizing this integration 
under the Future Total Force (FTF). As part of the FTF, we are pursuing 
innovative organizational constructs and personnel policies to meld the 
components into a single, more homogenous force. FTF integration will 
create efficiencies, cut costs, ensure stability, retain invaluable 
human capital, and, above all, increase our combat capabilities.
    A key effort is to ``blend,'' where sensible, units from two or 
more components into a single wing with a single commander. This level 
of integration is unprecedented in any of the Services, where active 
duty, Guard, and Reserve personnel share the same facilities and 
equipment, and together, execute the same mission. In essence, blending 
provides two resource pools within a single wing--one, a highly 
experienced, semi-permanent Reserve component workforce, offering 
stability and continuity; the other, a force of primarily active duty 
personnel able to rotate to other locations as needs dictate.
    The first blended wing opportunity arose with the consolidation of 
the B1-B fleet. The move left behind an experienced but underutilized 
pool of Guard personnel at Robins AFB, GA. Meanwhile, the collocated 
93rd Air Control Wing (ACW) (active duty E-8 Joint STARS), suffered 
from high tempo and low retention. Hence, Secretary Roche directed that 
the two units merge, and on 1 October 2002, the blended wing concept 
became a reality with the activation of the 116th ACW.
    The 116th ACW tackled many pioneering challenges: from legal 
questions surrounding the command of combined active-Reserve component 
units, to programmatic issues with funding the program from two 
separate accounts, to integrating different personnel systems used by 
each component. Airmen from both components are working through these 
issues successfully, making the 116th an example for future FTF 
blending. Yet, some additional Title 10 and Title 32 provisions still 
need to be changed to make the FTF a reality. Meanwhile, parallel 
efforts, such as placing Reserve pilots and maintenance personnel 
directly into active duty flying organizations under the Fighter 
Associate Program, add to this leveraging of highly experienced 
reservists to promote a more stable, experienced workforce.
    As organizational constructs, blending and associate programs lay 
an important foundation for a capabilities-based, expeditionary air and 
space force, which are inherently flexible and ideal to meet rotational 
AEF requirements. In a resource-constrained environment, blending 
promotes efficiencies and synergies by leveraging each component's 
comparative strengths, freeing funds for modernization while sustaining 
combat effectiveness, and effecting warfighting capabilities greater 
than the sum of its parts.
Combat Wing
    The comprehensive evaluations in our ongoing transformation include 
examining our wing structure. Given all of the lessons gleaned from 
expeditionary operations over the past decades, we asked, ``Could we 
derive advantages in revised wing organization for both force 
development and combat capability'' The answer was ``Yes,'' and we 
enacted changes to create the Combat Wing Organization (CWO).
    The central aspect of the CWO is the new Mission Support Group. 
This will merge former support and logistics readiness groups, and 
contracting and aerial port squadrons, as applicable. Within this 
group, we will hone expeditionary skills from crisis action planning, 
personnel readiness, and working with the joint system for load 
planning and deployment, to communications, contingency bed down, and 
force protection. Currently, all of these aspects exist in skill sets 
that none of our officers have in total. But the new expeditionary 
support discipline will address this and provide our officers the 
expertise in all aspects of commanding expeditionary operations. With 
this reorganization, each wing will now have one individual responsible 
for the full range of deployment and employment tasks--the Mission 
Support Group Commander.
    The restructuring will retain the operations group; however, group 
commanders will become more active in the operational level of war. 
Squadron commanders will be role models for operators in the wings, 
ready to lead the first exercise and combat missions. Similarly, we 
will establish a maintenance group responsible for base-level weapons 
system maintenance and sortie production rates. Like their operator 
counterparts, maintenance squadron and group commanders will be role 
models for all wing maintainers. Meanwhile, medical groups will retain 
their current organization, although we are working changes to home and 
deployed medical operations for future implementation.
    Flying and fixing our weapons systems, as well as mission support, 
are essential skill sets. Each requires the highest expertise, 
proficiency, and leadership. The new wing organization allows 
commanders to fully develop within specific functional areas to plan 
and execute air and space power as part of expeditionary units, while 
also giving maintenance and support personnel focused career 
progression. This re-organization does not fix something that is 
broken--it makes a great structure exceptional.
Acquisition and Business Transformation
    To achieve our vision of an agile, flexible, responsive, and 
capabilities-based air and space force, we must transform the processes 
that provide combatant commanders with air and space capabilities. An 
example of this in action is the Air Force's efforts to carry out the 
responsibilities of DOD Space Milestone Decision Authority (MDA). The 
Secretary of the Air Force delegated those responsibilities to the 
Under Secretary of the Air Force, under whose leadership immediate 
benefit was realized. Adapting an effective process already in use at 
the National Reconnaissance Office (NRO), the Under Secretary 
instituted a new streamlined space acquisition program review and 
milestone decisionmaking process. This new process was used for the 
first time in August 2002 in developing a contract for the National 
Polar-orbiting Operational Environmental Satellite System. This effort 
creates an opportunity for the Air Force to apply performance and cost 
accountability to defense industrial firms through their chief 
financial officers and board of directors by linking executive 
compensation to contract performance.
    In addition to the major process changes for DOD space, the Air 
Force's Business Transformation Task Force directs and integrates 
further process improvement and adaptation. Core business and 
operations support processes--such as acquisition, logistics, 
maintenance, training, medical and dental, among others--are crucial, 
as they ultimately determine our overall enterprise effectiveness and 
directly sustain combat capabilities. An additional category of 
processes called ``enablers'' completes the Air Force enterprise. 
Examples of ``enablers'' include management of human resources, 
finances, contracts, property plant and equipment, and information. The 
enablers are important as they facilitate our core capabilities and 
determine the overall efficiency of our enterprise.
    The Air Force will enact business transformation from an integrated 
enterprise perspective, examining every process and associated link. 
Accordingly, we will employ industry best practices and identify 
management metrics to improve process efficiency without degrading our 
enterprise effectiveness, expand our customer's self-service management 
capability and free up needed resources for the operational 
communities, and provide real-time, accurate financial data for better 
decisionmaking. Already, acquisition reform has effected notable 
improvements, including:

    (1) Streamlined our acquisition and contracting regulations, 
replacing lengthy prescriptive sets of rules with brief documents that 
emphasize speed, innovation, sensible risk management, and elimination 
of time-consuming process steps that have little value. As previously 
mentioned, our new National Security Space acquisition process is an 
example of progress in this area.
    (2) Created a Program Executive Office for Services to bring new 
efficiency to the growing area of services contracts. This key area, 
which accounts for nearly half of our procurement budget, had no prior 
centralized coordination and oversight.
    (3) Developed and initiated System Metric and Reporting Tool 
(SMART), putting real-time program status information on everyone's 
desktop. This web-based application pulls data from dozens of legacy 
reporting systems to give everyone from program managers up to senior 
leadership direct visibility into the ``health'' of hundreds of 
acquisition and modernization programs. When fully deployed in fiscal 
year 2003, it will automate the tedious and laborious process of 
creating Monthly Acquisition Reports and possibly Defense Acquisition 
Executive Summary reporting to OSD.
    (4) Empowered ``high powered teams'' of requirements and 
acquisition professionals to create spiral development plans to deliver 
initial capability to warfighters more quickly, and add capability 
increments in future spirals.
    (5) Designed a Reformed Supply Support Program to improve the 
spares acquisition process by integrating the support contractor into 
the government supply system. Contractors now have the same capability 
as government inventory control points to manage parts, respond to base 
level requisitions, track spares levels, and monitor asset movement.
    (6) Continued, with OSD support, expansion of the Reduction in 
Total Ownership Cost (R-TOC) program, to identify critical cost 
drivers, fund investments to address them, and generate cost savings 
and cost avoidance. We also created standard processes and a business 
case analysis model to use for initiatives within R-TOC. In fiscal year 
2003, OSD allocated $24.9 million no-offset investments to R-TOC that 
will return $53.2 million through fiscal year 2008. A planned $37.1 
million investment across the FYDP will save a projected $331 million 
in operations and maintenance through fiscal year 2009.

    These initiatives are only the beginning of a comprehensive and 
aggressive approach to reforming business practices. Our efforts today 
will have a direct effect on efficient and effective air and space 
capability acquisition, both immediately and in the future.
Ensuring Readiness
    Integrating systems and expanding business practices will not only 
have dramatic effects on air and space capabilities, but also reduce 
readiness challenges. However, we still face daunting, but 
surmountable, obstacles. We must overcome a multitude of installations 
and logistical issues to secure flexible and timely execution of 
expeditionary requirements for joint warfighting.
    Reconstituting and reconfiguring our expeditionary basing systems 
and wartime stocks is a critical element of our force projection 
planning. While we made significant strides in funding, we require 
additional investments in bare base systems, vehicles, spares, 
munitions, and prepositioning assets. Our infrastructure investment 
strategy focuses on three simultaneous steps. First, we must dispose of 
excess facilities. Second, we must fully sustain our facilities and 
systems so they remain combat effective throughout their expected life. 
Third, we must establish a steady investment program to restore and 
modernize our facilities and systems, while advancing our ability to 
protect our people and resources from the growing threat of terrorism 
at current, planned, and future operating locations--at home or abroad.
    We are making progress. Improved vehicle fleet funding allowed us 
to replace some aging vehicles with more reliable assets, including 
alternative fuel versions to help meet Federal fuel reduction mandates. 
Targeted efficiencies in spares management and new fuels mobility 
support equipment will improve supply readiness. In addition, our 
spares campaign restructured Readiness Spares Packages and repositioned 
assets to contingency sites. Moreover, to increase munitions readiness, 
we expanded our Afloat Prepositioning Fleet capabilities, and continue 
acquiring a broad mix of effects-based munitions in line with the 
requirements of all TF CONOPs.
    Finally, our ``Depot Maintenance Strategy and Master Plan'' calls 
for major transformation in financial and infrastructure capitalization 
to ensure Air Force hardware is safe and ready to operate across the 
threat spectrum. To support this plan, we increased funding in fiscal 
year 2004 for depot facilities and equipment modernization. We also 
began a significant push to require weapon systems managers to 
establish their product support and depot maintenance programs early in 
the acquisition cycle and to plan and program the necessary investment 
dollars required for capacity and capability. Additionally, we are 
partnering with private industry to adopt technologies to meet 
capability requirements. The results from these efforts will be 
enhanced, more agile warfighter support through the critical enabler of 
infrastructure.
Expanding AEF Personnel
    The attacks of September 11 significantly increased workload and 
stress in a number of mission areas for our expeditionary forces. 
Manning for these operations is drawn from our existing AEF packages. 
In order to accommodate increased contingency requirements, we are 
exploring options to augment the existing AF construct. Recent and 
ongoing efforts to maximize the identification of deployable forces and 
align them with AEF cycle, assisted in meeting immediate critical 
warfighting requirements. However, some career fields remain seriously 
stressed by the war on terrorism. Accordingly, our efforts focus on 
changing processes that drive requirements not tuned to our AEF rhythm. 
We developed formulas to measure, and gathered quantitative data to 
evaluate, the relative stress amongst career fields to redirect 
resources to the most critical areas. We also began a critical review 
of blue-suit utilization, to ensure uniform airmen are used only where 
absolutely necessary, and maximize the use of the civilian and contract 
workforce for best service contribution and military essentiality.
    We are refocusing uniformed manpower allocation on our distinctive 
capabilities to reduce the stress on our active force. Additionally, we 
are carefully considering technologies to relieve the increased 
workload. These efforts exist within our longer-term work to 
reengineer, transform, and streamline Air Force operations and 
organizations, and have allowed us already to realign some new recruits 
into our most stressed career fields.
Summary
    As the two mediums with the most undeveloped potential, air and 
space represent the largest growth areas for national security and the 
greatest frontiers for joint warfighting. As such, air and space 
operations will play an ever-increasing role in the security of America 
and her allies. The Air Force will exploit technology, innovative 
concepts of operations, organizational change, and our ability to 
embrace creative ideas and new ways of thinking. We will bring to bear 
the full suite of air and space capabilities for tomorrow's Joint Force 
Commander--drawing from every resource, integrating closely with all 
Services, and overcoming any obstacle to succeed.

                              NEXT HORIZON

    The events of the last year have emphasized the dynamics of a new 
international security era. The decade of new states following the Cold 
War has been followed by the rise of non-state actors, many following a 
path of aggression and destruction. Yet, just as America adapted to new 
global dynamics in the past, we will again confront emerging challenges 
with confidence and faith in our ability to meet the demands of 
assuring freedom.
    The Air Force remains dedicated to drawing on its innovation, 
ingenuity, and resolve to develop far-reaching capabilities. The 
ability to deliver effects across the spectrum of national security 
requirements is the cornerstone of the vision and strategy of Air Force 
planning and programming. In conjunction, and increasingly in 
integration with ground, naval, marine, and other national agency 
systems, the Air Force will play a central role in elevating joint 
operations. We recognize the greatest potential for dominant American 
military capabilities lies in the integration of our air and space 
systems with those of other services and agencies, and our success in 
this objective will be evident in every mission to deter, dissuade, or 
decisively defeat any adversary.

    Chairman Warner. Thank you, General.
    Those were excellent statements. Now we will proceed to 
questions. Let us start off with the question of the readiness 
of our troops. It seems to me there are two areas of readiness. 
The overall readiness I think you have addressed, but three of 
us on this committee who went overseas observed the readiness 
of those forward-deployed troops in Pakistan, Afghanistan, and 
the Gulf region.
    There were areas which concerned us, like the Joint Special 
Operations Center (JSOC), Special Operations SEAL teams, and 
things like that. Some of those individuals have been on a 
rotation cycle to where they were back again many times. I 
wonder if you all could just touch on that readiness situation. 
Since you brought fortunately the sergeant, why do we not start 
with the Air Force on that question.
    Are you concerned about the ability to maintain that 
OPTEMPO of those critical skills I mentioned as well as others?
    General Jumper. Yes, sir. Secretary Rumsfeld and I are 
concerned. Secretary Rumsfeld has rightfully asked us to go 
forward and to make sure that everything that we are doing with 
our people in uniform are things that need to be done by people 
in uniform, and to take those things that do not need to be 
done by people in uniform and shift those slots back over to 
uniformed slots so that we can relieve the tension on our 
deployed forces.
    In the Air Force alone, we found 12,000 people doing what 
we think does not have to be done by people in uniform. That 
would go a long way to relieving some of the pressure that we 
feel on those slots. So it is not just a matter of adding end 
strength. It is a matter of making efficiencies out of what you 
have and making sure you police up the battlefield, sir, and go 
out and find where bodies have migrated off to and make sure 
they get them back to military business. That is part of the 
solution that we are working on.
    Chairman Warner. My question was more narrowly directed to 
those members of the Air Force who are participating on combat 
teams in those regions right now.
    General Jumper. Yes, sir. Especially in the Special 
Operations Forces, they have not been sized for long-term 
sustained operations.
    Chairman Warner. Do you see a window which is a matter of 
constraint?
    General Jumper. Not a particular window, Mr. Chairman. I do 
see a need to bolster up, especially in our combat search and 
rescue forces, which is the Air Force portion of this, and our 
combat controllers, of which Sergeant Yoshida is a part. We 
need to take a look at bolstering up those career fields to be 
able to sustain, especially in this war against terrorism, and 
that kind of activity.
    Chairman Warner. General Shinseki, we will shift to you 
because you have the majority of those people.
    General Shinseki. I do, Mr. Chairman. They are stressed and 
we are using them on multiple missions that a few years ago 
were not anticipated. The first step has been for Special 
Operations Command, and then my Army commander who is part of 
that, to look hard at the missions they are performing today. 
The ones that can be returned to conventional forces, we are 
taking that under our decisions now, so that we husband our 
Special Operating Forces for the key missions that they need to 
focus on.
    Many more missions today than back in 1996, 1997, when we 
saw these requirements expanding. Another thing, the Secretary 
of Defense has asked the commander of Special Operations 
Command to look at his capabilities and see what additional 
requirements he might have. That analysis has been provided and 
is being staffed.
    In advance of that, the Army has in next year's budget 
already added something of the order of 1,800 or 1,900 
additional Special Operations authorizations and about a 
billion dollars to give Special Operations Command added 
capabilities.
    Chairman Warner. Do you see any constraints on the time in 
those regions that we visited, the ability to maintain that 
high OPTEMPO of those particular skills, say in the next 60 to 
90 days?
    General Shinseki. There is stress today and, as I say, the 
decision to pull some of our very best special operators off 
missions that they can be relieved of will give us a bigger 
inventory to deal with that rotation cycle.
    Chairman Warner. Admiral Clark.
    Admiral Clark. Mr. Chairman, it is well documented, and I 
talked about the number of ships that I had deployed, 51 
percent of my great Navy. I talked about 170 additional ships. 
That is the Military Sealift Command. That is pressed forward. 
A lot of those are civilian manned.
    But I look back over the course of time since September 11 
and the start of this process, we have had 9 of our 12 carrier 
battle groups deployed. We are watching the tempo very 
carefully. I feel good about our readiness. But that does not 
mean that there are not areas where you have real challenges, 
and the Special Forces teams are one of those areas that you 
have identified.
    So today I have six carriers over there. Am I concerned 
over the next 60 to 90 days? No, I am very confident. But you 
will recall that the previous two times I have come before you 
I have said that at the top of my list was the current 
readiness challenge, and we have invested significantly in 
that. There are always areas where there will be pockets that 
we have to manage and watch carefully, and we are doing it.
    Chairman Warner. General Hagee.
    General Hagee. Sir, as I mentioned in my opening statement, 
we have 63 percent of the Marine Corps forward deployed. I 
would associate myself with what the Chief of Naval Operations 
said. For the near term, we can maintain that. We will continue 
to watch that to see if we need to do any rotation.
    We do not have any Special Operating Forces per se, but we 
are working with Special Operations Command to see if there are 
some of the capabilities that we have currently in theater that 
can help relieve some of their pressure.
    Chairman Warner. Gentlemen, as we visited with the troops 
there is no question about their having been well trained and 
their commitment and their morale is high. But there is not a 
one of us that did not look into their faces and share with 
them the thoughts that they shared with us about, if force is 
required to remove Saddam Hussein and to dismantle the weapons 
of mass destruction, we could be confronted with in the early 
stages of that combat weapons of mass destruction inflicted 
upon our own forces.
    I think each of you this morning should touch on the 
training and your level of confidence in that training and our 
ability of the troops to carry out their missions. General 
Shinseki, we will start with you.
    General Shinseki. This is the toughest part of our training 
requirement. It is the part of the operation that has the 
greatest risk and also the greatest constraints on physical 
performance applied to it. Being inside of our overgarments, 
masks, and gloves we restrict our senses, and it is the part 
that deserves a considerable amount of training effort.
    That training does go on, whether it is at home station in 
the middle of winter at Fort Stewart, Georgia, or out at the 
National Training Center in California in August. You can 
expect in your training cycle to be put into full mission 
oriented protective posture (MOPP-4) protective environment and 
be required to operate.
    So in terms of discipline, in terms of stamina, in terms of 
the confidence that our equipment is functional at the 
individual level, all of that is there. I think our commanders 
have good visibility along with the responsibility to make sure 
that that piece of their training is addressed in concert with 
all the other training they have to go and get accomplished to 
maintain the highest readiness standards.
    But training in our nuclear/biological/chemical (NBC) 
equipment is part of that, individually and as well as units. 
Units that operate in that environment, if they're 
contaminated, can be expected to operate for an extended period 
in the environment. Units that have an opportunity to 
decontaminate their own equipment and themselves individually 
rehearse this as part of their responsibilities.
    The training level is there. I say again, this is the 
toughest part of our operation, but the requirement to meet the 
training standard is there and commanders execute this.
    Chairman Warner. But in your personal judgment, do you have 
a high degree of confidence in their ability to endure and 
carry out the mission?
    General Shinseki. I do.
    Chairman Warner. Admiral.
    Admiral Clark. I second that completely. My conviction is 
that we have made great investments in the current readiness 
part of our budget. In previous testimony before this 
committee, I have talked about that as a priority issue. I will 
tell you that my manning is better in my battle group and 
amphibious forces than it has ever been since I have been in 
the Navy. It is that way because we have invested in it. We 
have invested in the training cycle and are constantly 
improving it so that we know we have it right.
    Now, does that mean that there is no reason for concern? Of 
course that would be a foolish thing to say when you talk about 
potential conflict. But Mr. Chairman, I am very confident in 
the readiness of our force.
    Chairman Warner. The ability to cope with that contingency?
    Admiral Clark. Yes, sir.
    Chairman Warner. Thank you.
    General.
    General Hagee. Senator, I am absolutely confident in our 
ability to operate in that environment. As the chairman knows, 
just a few months ago I was in command of the unit that is over 
in Kuwait right now. In the 2 years I was in command, there was 
nothing more important than the NBC readiness. To give you some 
statistics, we have enough Saratoga suits to give three to each 
individual. We have filters for the gas masks, enough for three 
for each individual. We have 14 so-called Fox vehicles. These 
are specially equipped vehicles to detect chemicals in the 
atmosphere or in the ground. We have seven biological detection 
units from the Army with the marines that are there, 
specifically put together to detect biological agents.
    Right now, 94 percent of our marines have had their 
smallpox vaccination. If you include the ones that we exempted, 
they are at 99 percent. We have 85 percent of the marines who 
have had three or more anthrax vaccinations. If you look at the 
ones that have had one or more, we are in the low 90 percent.
    Sir, we are ready and we can operate in that environment.
    Chairman Warner. Thank you, General.
    General Jumper.
    General Jumper. Mr. Chairman, we train, as the other 
Services do, every day in this environment. I have every 
confidence that we can sustain operations in this environment. 
We are under way fully with our anthrax and smallpox 
vaccination program. We have the detectors around the 
perimeters of our air bases and we practice in this environment 
as part of our normal readiness training. Sir, we are ready.
    Chairman Warner. Thank you very much.
    [Whereupon, at 10:28 a.m., the hearing was recessed, the 
committee proceeded to other business, and the hearing was 
reconvened at 10:29 a.m.]
    Chairman Warner. Senator Levin.
    Senator Levin. Thank you very much.
    General Shinseki, could you give us some idea as to the 
Army's force requirement for an occupation of Iraq following a 
successful completion of the war?
    General Shinseki. In specific numbers, I would have to rely 
on combatant commanders' exact requirements.
    Senator Levin. How about a range?
    General Shinseki. I would say that what has been mobilized 
to this point, something on the order of several hundred 
thousand soldiers, is probably a figure that would be required. 
We are talking about post-hostilities control over a piece of 
geography that is fairly significant with the ethnic tensions 
that could lead to other problems. It takes a significant 
ground force presence to maintain a safe and secure environment 
to make sure that people are fed, that water is distributed--
all the normal responsibilities that go along with 
administering a situation like this.
    Senator Levin. What effect would that type of an occupation 
to that extent have on two things: one is our OPTEMPO, which 
you have talked about, already stressed; two is the ability of 
the Army to fulfill the other missions that we have?
    General Shinseki. Well, if it were an extended requirement 
for presence of U.S.-only Army forces, it would have 
significant long-term effect and, therefore, the assistance 
from friends and allies would be helpful.
    Senator Levin. Some of the service personnel with whom we 
chatted on our trip indicated a belief that there may be some 
equipment that they needed but did not have, equipment which 
might be, they thought was, in the hands of non-deployed units. 
I'm just wondering whether any of you are aware of any such 
equipment and whether you would just double-check it. We were 
given one example particularly, something called a Laser Viper. 
But are any of you aware of that situation, where we have the 
most advanced equipment not in the hands of the deployed 
forces, but in the hands of nondeployed forces?
    General Shinseki. I am not aware of any specifics, but I 
would not doubt that there is possibly an opportunity to 
discover something.
    Senator Levin. If you would just all check that issue out, 
because that is obviously something relevant.
    General Shinseki. I will find that information, sir.
    [The information referred to follows:]

    I am not aware of any specific instance of the above situation in 
today's deployed forces. Given the cycle in which Navy ships and 
aircraft deploy (known as the Inter-Deployment Training Cycle (IDTC)), 
and the program manager methodology utilized by NAVSEA, NAVAIR, and 
SPAWAR to introduce new technology into the operating fleet, the most 
modern equipment approved for in-service use would have been installed 
during the unit's last extended maintenance availability prior to the 
commencement of training operations.
    However, the situation of the ``most advanced equipment, not 
(being) in the hands of the deployed forces'' is indeed possible, given 
that, (a) many ships are currently deployed outside of their scheduled 
deployment in support of overseas operations and hence may have missed 
some equipment modernization opportunities and, (b) the ease of 
installation and ready availability of commercial off-the-shelf (COTS) 
equipment allows for these systems to be directly procured and 
installed by non-deployed ships crews, outside of the above IDTC and 
program management scenarios (in the past, this has typically been in 
the areas of shipboard navigation aids, computer peripherals, and 
similar technology).

    Senator Levin. On the end strength issue, last year our 
Services indicated they needed additional end strength. Only 
the Marines have received additional end strength in this 
budget request. Admiral Clark, your number one unfunded 
priority was for 4,400 additional active duty personnel. That 
was unfunded last year. Your budget proposal for this year has 
an end strength reduction of 1,900 active duty personnel, along 
with a reduction of 2,000 Reserve component personnel. The Navy 
is busier than it was last year. How do you square that?
    Admiral Clark. Well, I square it like this. My proposal 
also reduces the total number of ships that we will have in the 
Navy as we seek to move toward a modernized and redesigned 
Navy. My recommendation to the Secretary and him to the 
President was that there were ships that we needed to 
decommission and move on, and that is why the numbers are 
smaller.
    I will say this, Congress has given us authority to be in 
an over-end strength posture. So in terms of the number of 
people, I have shortfalls in the existing execution year in 
people.
    One of the reasons is that we have had the success that we 
are realizing tremendous success in the battle for people. 
Young people today want to serve, but I do have shortfalls 
there that need to be addressed with supplemental 
appropriations.
    Senator Levin. General Jumper, your predecessor said the 
Air Force needed an increase in end strength of 10,000 airmen. 
The pace of operations has picked up considerably since then 
and yet the Air Force did not get an increase in authorized end 
strength last year and it did not, apparently, ask for an 
increase this year.
    Do you have the personnel you need and how do you square 
those facts?
    General Jumper. Sir, we are in fact stressed, as I stated 
before. One of the things the Secretary of Defense has asked us 
to do, and we are doing, is finding those airmen out there that 
are not doing things that uniformed people need to be doing and 
to police those up and move those slots into slots that do 
require uniformed people.
    We have another issue in that we have previous year 
commitments of almost 4,500 slots that were taken as a result 
of privatization actions that were actually not taken off the 
books. We are having to reduce those as well as part of this 
budget activity.
    So we continue to look for these efficiencies. We will 
continue to apply them where we can. If they do not do the job, 
I will be the first to go back to the Secretary of Defense and 
ask for the relief that we need to get that job done.
    Senator Levin. Thank you.
    I would ask all of you this. I have a copy of the draft 
legislative proposal which has been circulating inside the 
Department of Defense. Under that draft, the Joint Staff would 
report to the Secretary instead of to the Chairman. The 
Secretary would have to approve all appointments to the Joint 
Staff. The draft amendment would strike the statutory 
requirement that the Joint Staff be ``independently organized 
and operated.'' We also have a copy of a memorandum signed by 
David Chu requesting a legislative proposal that would reduce 
the terms served by the service chiefs from 4 years to 2-year 
renewable terms.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    I think these proposals, taken together or separately, 
would undermine the ability of the uniformed military to 
provide independent military advice to the civilian leadership, 
to the executive branch, and to Congress. That is my view.
    More importantly, would you tell us quickly whether you 
support those proposals, General Shinseki?
    General Shinseki. Senator Levin, I have not seen the exact 
language here, but I have heard that there have been 
discussions. This is a chief at the end of a 4-year service and 
I think that the 4-year term, at least for me, has been helpful 
in continuity. I am looking at the fact that, 4 years here, I 
am about to field the first Stryker Brigade. At the end of 4 
years here, the Army is about to have its first major 
acquisition milestone decision in May of this year for the 
Future Combat System. It has taken considerable effort, 4 
years, to put these programs together.
    I think it is helpful to have a long-term perspective. I 
know there are others who have responsibility in this area, 
whether it is here in Congress or over in Defense, combatant 
commanders and service chiefs. All of us have responsibilities. 
But for a service chief a longer term perspective is helpful.
    I think that some of the early inertia that the Army had to 
overcome in order to get its transformation legs moving and 
develop some momentum would have been different had it been 
just a 2-year term of service. I believe that the Joint Staff 
as it exists today serves both the Chairman and the Joint 
Chiefs. I look to them as part of keeping my role as a member 
of the Joint Chiefs, keeping me abreast of those issues. I look 
for them to continue to do that.
    Senator Levin. To maintain that independence?
    General Shinseki. That is correct, for the Joint Chiefs.
    Senator Levin. Do you want to give us quick answers? My 
time is up. Do you agree with these proposals?
    Admiral Clark. First of all, I had not heard of the first 
part of your proposal. This is the first I have heard of it.
    Senator Levin. What was the first you heard of?
    Admiral Clark. The proposal for the Joint Staff, the chain 
of command and the way you lashed it up; I had not heard that.
    Senator Levin. Okay. We will send you all a copy, by the 
way. We would not want you to be in the dark about what is 
floating around the Pentagon.
    Admiral Clark. My sense is that I serve at the pleasure of 
the President, and it seems to me that the experience you glean 
in 2-year assignments is not the best way to go. Again, I am 
not sure the status of that proposal and I have not been asked 
to comment on it.
    I know that there is a tenure issue here, and how long it 
takes and the nature of your contribution. For me, it is a 
pleasure to serve in a position like this, and if the President 
makes a judgment that there are going to be 2-year tours 
instead of 4-year tours, obviously that is the way we are going 
to go.
    The experience related to it is, I find myself now at a 
point where there is a great learning curve in these 
assignments. I would also say that 4 years that we currently 
have is a considerable period to serve. What I believe is 
required is that we need a construct that serves the President 
and serves the Service and provides for independent assessment 
by the Chiefs.
    Senator Levin. General?
    General Hagee. Sir, I had not seen the proposal either and, 
in the interest of time, I would agree with Admiral Clark.
    General Jumper. Sir, we have not been briefed on the 
details of such a proposal nor have we had a chance to discuss 
this with the Secretary of Defense. I will say that I would 
think the Secretary would want his service chiefs in position 
long enough to be able to make a difference and to establish a 
rapport with one another, to be able to deal with the joint 
issues that we deal with every day.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman. Thank you.
    Chairman Warner. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I will address this first question to you, General 
Shinseki, because Admiral Clark and General Jumper have already 
responded to the end strength question that Senator Levin had 
posed.
    Since the early 1990s, the Army has been cut by more than 
34 percent and undergoing a 300-percent increase in mission 
rates. The average frequency of Army contingency deployments 
has increased from 1 every 4 years to 1 every 14 weeks. During 
the same period of time, the Army lost a third of its force 
structure, 21 percent of its infrastructure and 37 percent of 
its budget authority.
    Now, all of this is before September 11 and then the 
potential problems that we are gearing up for right now. To put 
it in perspective, in fiscal year 1989, the Operation Desert 
Storm-size deployment of 261,000 active troops would require 53 
percent of the Army's deployable end strength and only a sixth 
of its forward-staging troops. Today that same deployment would 
require 86 percent of deployable end strength.
    Now, that gets into the problem that we are having, of 
course, with our Reserve component. They are doing a great job, 
but we all know that we are having problems with certain 
critical MOSs and there is not a person at this table up here 
that does not have a lot of deployments in his or her State. I 
know you all answer the question, yes, we are ready and all 
that, but how long can you sustain this? Then specifically on 
end strength, General Shinseki, where are you? What are your 
feelings?
    General Shinseki. Senator, I think the last 3 years that I 
have appeared before this committee, I have indicated that the 
mission profile that the Army has been asked to address is 
bigger than the size of the active component formations that we 
had and that end strength was an issue.
    But if you recall 3 years ago, recruiting was a challenge 
and we had to go take care of that. In the last 3 years, 
recruiting and retention is no longer the issue. So we are able 
to fill our ranks. Prior to this mobilization expansion for a 
potential Southwest Asia scenario, I think you would have found 
something on the order of 25,000 to 30,000 Reserve component 
soldiers mobilized each and every day routinely for the Sinai, 
Bosnia, and Kosovo. I think this is an indication that our 
reliance on the Reserves. Their response has been fantastic, 
but the fact that we are relying on them so heavily for those 
routine day-to-day missions suggests that there is an end 
strength issue here.
    Those numbers are constantly reviewed. We have made the 
case that end strength is an issue for the Army, and we will 
continue to do that.
    Senator Inhofe. Thank you, General.
    Now, for all of you, I want to first thank you because you 
have each had someone come into my office. We have had 
briefings on this next issue that concern me. It concerns me, 
not just because it has been of concern to this committee for a 
long time, but I also chair the Environment and Public Works 
Committee.
    That is, environmental encroachment. We have had briefings 
from each one of the four Services. General Hagee, we know what 
is happening out at Camp Pendleton. We know that we will be 
able to use about 30 percent of the land area there. General 
Shinseki, we have the same problem at Fort Bragg and other 
places. Of course, we know what has happened by losing the 
Vieques Range. That puts more burdens on the ranges that we 
have here in CONUS.
    So I would like to have each one of you just very briefly 
talk about how serious of a problem this is. Then for the 
record, I would like to have you inform this committee as to 
the monetary costs, as near as you can determine them, of 
complying with these environmental regulations.
    [The information referred to follows:]

                       ENVIRONMENTAL ENCROACHMENT

    General Shinseki. Encroachment on training and testing ranges is a 
significant issue for the Army. Our soldiers must train as they intend 
to fight because they will surely fight as they have been trained. 
Environmentally based restrictions on training add artificiality into 
training. Compliance with environmental laws can also restrict access 
to land needed for maneuver and live-fire and restrict the available 
times and durations of training activities.
    The Army has spent more than $74 million over the past 5 years for 
compliance with the Endangered Species Act. Given the significantly 
increasing requirements brought about by pending critical habitat 
designations, we anticipate significant increases in cost both to 
maintain compliance and find training alternatives.
    In addition, there are indirect costs associated with deploying 
units to alternative training sites when their home station does not 
support all necessary training requirements. For example, the 25th 
Infantry Division (Light) in Hawaii cannot conduct all of the 18 
required combined arms live-fire exercises at their home station range, 
Makua Military Range, due to a NEPA-based lawsuit settlement. Rather, 
they must conduct a number of these exercises while deployed to the 
continental U.S. or overseas. In addition, other units in Hawaii 
(National Guard and Marines) that would also train at Makua are unable 
to do so and must deploy or develop alternatives (suboptimal training 
methods) for their displaced live-fire training.
    At Fort Richardson, Alaska, the Army is currently engaged in a 
lawsuit where the plaintiffs allege that live-fire training violates 
the Resource Conservation and Recovery Act (RCRA) and the Comprehensive 
Environmental Response Compensation and Liability Act (CERCLA). They 
are seeking to shut down training at the Eagle River Flats (ERF) range. 
The RCRA allegation argues that munitions fired into or onto ERF fall 
within the definition of RCRA statutory solid waste. If munitions used 
for their intended purpose are considered to be statutory solid waste, 
the Army could be forced to perform corrective action or remediation of 
ERF. Live-fire training during the remediation would be impossible and 
the only mortar and artillery impact area at Fort Richardson would be 
lost for training. The CERCLA allegations are that the act of firing 
munitions onto an operational range constitutes a release of hazardous 
substances requiring reporting, characterization, and remediation. If 
the court agrees with the plaintiff, then live-fire training and 
testing operation at every Army range could be subject to CERCLA 
response requirements. These findings would not only dramatically 
impact the readiness of the 172nd Infantry Brigade in Alaska, the 
largest infantry brigade in the Army, but the entire Department of 
Defense (DOD).
    Further lawsuits could compel the Environmental Protection Agency 
and State regulators in all U.S. regions to enforce the same standards 
on other military ranges. Live-fire training would be severely 
constrained and military readiness would decrease dramatically. The 
requirement to conduct RCRA corrective action or CERCLA response 
actions on operational ranges would constitute a huge financial burden. 
The Army estimates that the cost to conduct RCRA or CERCLA-type clean 
up on Army operational ranges would range from $14 billion to $140 
billion. This does not include money that would be required to move 
displaced training to another location during the cleanup. Moreover, if 
these standards are applied across the DOD, it is unlikely that 
alternative live-fire training sites would even be available.
    Admiral Clark. While the fiscal year 2003 Department of the Navy 
(DON) environmental compliance budget is approximately $1 billion, no 
specific lines are tied directly or exclusively to encroachment 
mitigation. DON budgets the funding required to comply with existing 
environmental laws applicable to installations, ships, and aircraft. 
These laws and regulations in turn have encroachment impacts if they 
alter training time or space available while we maintain the property 
the taxpayers have entrusted in us.
    The effects of encroachment go beyond the environmental programs 
due to the fact that when encroachment occurs there are potential costs 
associated with delays, cancellations, modifications, and movement of 
training to different locations. Operational costs may increase in the 
form of more steaming days and/or flying hours required to complete an 
exercise, and personnel costs may rise from paying travel per diem over 
a longer time period.
    The final cost has no fiscal figure but carries the most weight and 
burden of encroachment on our troops. Should an exercise move to an 
alternate location because of encroachment concerns, it means the 
sailor could incur a longer time away from home due to transit time to 
the training site. During this higher state of operational tempo as we 
prosecute the global war on terror, all possible options are used to 
ensure the sailor maximum time with family while home. It is also why 
Navy strives to accomplish most unit level training near the home base, 
but unfortunately there are times when this goal cannot be achieved due 
to encroachment.
    General Hagee. For fiscal year 2004, the Marine Corps has budgeted 
the following to meet environmental compliance, pollution prevention, 
and conservation requirements:
                                                       [In thousands    
                                                         of dollars]    

    Operations and Maintenance, Marine Corps                 121,975    
    Military Construction                                     31,200    
    Operations and Maintenance, Marine Corps Reserve           9,245    
    Defense Working Capital Fund                               2,966    

    General Jumper did not respond in time for printing. When received, 
answer will be retained in committee files.

    General Shinseki. I would tell you the Army must train. 
Otherwise, our presence on a piece of ground is not useful to 
us. So we have made the importance of meeting our training 
requirements a high priority, and where we have forces located 
we have had to work with folks responsible for the environment 
and find ways to continue to train. I think we have done that 
by demonstrating we are good stewards.
    But this is an issue that we continue to work, whether it 
is in the National Training Center where you have the Desert 
Tortoise or Fort Bragg, Fort Polk, Fort Benning, where the Red-
Cockaded Woodpecker exists.
    Senator Inhofe. General, I know you have been good 
stewards, all of you have, and that is the problem. You are 
such good stewards, you are getting more and more of the 
critters coming in and more and more of the problems. For 
example, look at Fort Bragg. Camp Lejeune is a good example, 
General Hagee, where I have been down there at 2-year intervals 
and I see more and more of these areas where they are not able 
to train.
    So I am concerned about this, and again for the sake of 
time I will just go ahead and ask you for the record if you 
would submit that.
    General Shinseki, one other question for you is. First of 
all, I thank you for all the effort that you made in coming up 
with an NLOS cannon compromise that gets into our Future Combat 
System. I think it is good. I would ask you, does the budget 
adequately fund that program to meet the congressionally-
mandated time line, that is fielding this by 2008?
    General Shinseki. It does, Senator.
    Senator Inhofe. Okay, good.
    General Jumper, I know one of the big controversial things 
in the costs would be, what are you going to use for tankers? 
There are several proposals out there. The KC-135 Es and Rs--I 
think now four-fifths of them are converted to Romeos--but also 
the proposal for the leasing of 100 767s, which I think people 
have to understand is the first step. If that were to happen, I 
would assume we would end up with 400 or 500 of these things.
    My concern is this. You are going to have to come to this 
committee for ratification of that lease agreement, is that 
correct?
    General Jumper. That is correct.
    Senator Inhofe. When you do come to this committee for 
ratification, will you come in with an established training, 
basing, and maintenance plan for that equipment?
    General Jumper. Sir, the plan that we have for training is 
not established yet. What the initial plan would be, to start 
off, as we did with the C-17, and that would be that as a few 
airplanes become available then that training would probably be 
done on a contract.
    As you reach a certain level of aircraft--in the C-17 
example it was 20 aircraft--then you make a decision on 
centralizing the training. So at that time, we would come 
forward with a plan on how and when that would be done sir.
    Senator Inhofe. Yes, I remember the C-17. We went through 
that for a number of years.
    General Jumper. Yes, sir.
    Senator Inhofe. It is a successful program. However, it is 
a little bit different than this because you are talking about 
a leasing operation where you are going to have these 
conversions and then a major training effort. I would just say 
this: if you are not in a position to come before this 
committee with the training and the basing and maintenance, I 
am probably going to oppose the lease altogether, because there 
are some alternatives out there and I think we really need to 
see how this overall program is going to work before we get 
into something as far-reaching as this program you are 
contemplating right now.
    General Jumper. I understand, Senator.
    Senator Inhofe. My time has expired. Thank you, Mr. 
Chairman.
    Chairman Warner. Thank you very much.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    First let me begin by thanking and commending General 
Shinseki for his great service to the Army and the Nation, and 
also Patty Shinseki, who has served with equal distinction at 
least. Thank you.
    There is a recurrent theme in today's questioning about 
manpower and end strength and I think that emanates from the 
common sense view that it is very difficult to interject 
military forces into a region and it is sometimes more 
difficult to get them out. So I think we all are anticipating 
not only successful military operations, but long-term 
operations.
    I know you have responded, but could you particularly 
respond to the issue of Reserve and National Guard, because 
what I have seen, as Senator Inhofe has suggested, in my home 
State we have mobilized practically all the Guard and Reserve 
Forces we have for 1 year. A more specific question is, what do 
we have to do now to ensure that we do not run into a wall a 
year from now and there are not any willing able National 
Guard, Reserves, to fulfil critical missions, many of which 
might be particularly germane to the Reserves and the Guards 
since civil affairs, distribution of water, distribution of 
food, as General Shinseki suggested there is a lot more of 
those qualified individuals in the Reserves than the Active 
Forces.
    Could you comment, and I will ask all of you gentlemen to 
do so.
    General Shinseki. Certainly, Senator. I think this is part 
of that larger discussion about right-sizing the force, the end 
strength issue that I addressed earlier. Then once that issue 
is addressed, then it is the appropriate mix between active and 
Reserve components.
    Day to day, we should be able to handle that out of the 
available inventory of our active component formations, and 
then have on those unusual circumstances when you have to surge 
for a large operation a requirement to go to our Reserve 
components. That is not what is happening right now. So it is a 
right-sizing of the force and a decision on how to best achieve 
the right mix and balance here.
    Having said that, our Reserve component soldiers have been 
absolutely fantastic in their response to these call-ups, many 
of them, on very short notice. They have done what we have 
asked them to do in days when we would have normally wanted to 
give them weeks to respond.
    Senator Reed. Admiral Clark, from your perspective?
    Admiral Clark. I do not have the same circumstances the 
General does, but I do have the issue for us and where we are 
in the manning circumstances about force protection. We have 
used a number of these individuals in the force protection 
role. I have about 5,000 people called up today, so my numbers 
are dramatically different than the other Services.
    We will be able to sustain this where we are. The challenge 
is: how do you get the right mix so that you are not constantly 
calling on the Reserve structure to now handle what is in 
effect from where I sit a new requirement for security? We are 
moving and will in this budget this year bring more active duty 
people into the structure to take care of basic force 
protection challenges that we face.
    Senator Reed. Thank you.
    General Hagee.
    General Hagee. Yes, sir. The Marine Reserve is pretty much 
a mirror image of our Active-Duty Force, except for certain 
functions like PSYOPS and civil affairs. We have approximately 
14,000 Reserves on active duty right now and that is a result 
of our prep for what action we might have to take in Southwest 
Asia. We can maintain that in the near term.
    Senator Reed. General Jumper.
    General Jumper. Sir, I think one of the challenges we all 
have is to try to determine the new background level baseline 
activity that is going to be required of all of our Services as 
we go through the dynamics that we are going through now. 
Certainly with the addition of Afghanistan, the aftermath of 
Kosovo, all of us have had to rise to a new, higher level of 
basic activity in all of our Services.
    This also dictates how the mix has to go between the active 
and the Reserve. We have done some minor adjustments in the Air 
Force with combat search and rescue forces, substituting one 
capability in the Reserve Forces for active duty combat search 
and rescue.
    So I think this is going to be an iterative process. I do 
not think we are going to be able to answer the question of the 
right mix or even the right tempo of activity for some time 
until we see how we baseline out again.
    Senator Reed. Thank you.
    Admiral Clark, I noticed that the budget proposal cuts over 
$400 million in submarine research and development, but my 
hunch is that a lot of our research and development funds, not 
just within the Navy but throughout the Services, are being 
cut. What is the impact in terms of future technology from 
these cuts in research and development?
    Admiral Clark. I do not know exactly which budget line you 
are referring to, but obviously research and development is the 
lifeblood for future development. So we have a strong R&D 
budget in this submit. But obviously, your question, what is 
the role, is the lifeblood, so it has to be right.
    I would be happy to address the specific if you have it. In 
terms of the total macro numbers by community, I really do not 
do it that way.
    Senator Reed. We will specifically get you some 
information, then.
    My time has expired. Thank you.
    Senator McCain [presiding]. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    General Jumper, we have the Air Force Academy in the State 
of Colorado. We have a number of allegations that are surfacing 
now about women who have been raped at the Academy. There was a 
problem in the early 1990s with some sexual harassment cases, 
and I know that the Academy tried to deal with the problem by 
putting in place some procedures to allow women to go ahead and 
report a rape case or sexual harassment. Then, there was a GAO 
report in 1994 that had some recommendations on what could be 
done as far as the procedures concerned.
    Since the investigative reporters have brought up this 
situation and consequently we have had a number of women who 
have contacted my office. I think we are up to about 16 now. 
There is one common thread. I mean, there is a number of common 
threads that run through with these cases, but there is one 
common thread and that is that they are working under an honor 
system in the Academy. They are encouraged to step forward and 
they are given an amnesty opportunity. Then, they are brought 
in and the case is investigated. They are put in a position 
where if they want to stay in, continue to be in the Air Force 
as a career, they have to lie.
    So this really puts them in a box, and I hope you will take 
a close look at what is happening at the Academy. I was hoping 
maybe you might have a comment or two.
    General Jumper. Senator, I could take up the rest of your 
day with my comments on this subject. First of all, let me 
assure you and other members of the committee that there is no 
place in the United States Air Force for any potential officer 
who would treat any other potential officer in the way that has 
been alleged.
    Secretary of the Air Force Jim Roche and I are the personal 
action officers on this particular issue. Before this came to 
light in the press, we had other indications that some of the 
processes by which these infractions are reported were not as 
they should be. There have also been suggestions that women who 
surface these are encouraged not to press charges because the 
circumstances they found themselves in leading up to the crime 
may have compromised their situation.
    Let there be no doubt that assault and rape are crimes of 
violence, and crimes of violence will be treated separately 
from the circumstances that one might find themselves in 
leading up to that crime of violence.
    We have a team out there right now looking at the very 
processes you mentioned, Senator, to make sure that anyone at 
the Academy has a clear channel to report these criminal 
activities and that we have the means to deal with them 
appropriately.
    Senator Allard. I appreciate your comments, General Jumper. 
I think there are two problems there. Number one, maybe some of 
these cases in the past need to be reviewed a little closer. 
Number two, I think most of the women that are contacting my 
office are concerned about the future. I see that you are too 
in the comments that you just made before this committee. It is 
important to make sure this process is corrected so that we 
have a team--we do not have a victim within the team that 
somehow or other gets themselves in an untenable situation.
    I appreciate your comment.
    General Jumper. Senator, if I could just add one comment. I 
have two daughters in the Air Force, and I have a third one who 
will start ROTC next year. So you are looking at a dad who has 
little tolerance for this stuff.
    Senator Allard. General, I understand. Very good. Thank you 
for your comments.
    I would like to move on to another issue within my 6 minute 
period here, and that is missile defense. I am very interested 
developing and getting our missile defense system deployed out 
there. I think it is a high priority for the President also.
    The Missile Defense Agency is developing these systems, but 
I think ultimately you are going to be the users of that 
system. So my question is, are you all prepared to make the 
ballistic missile system a core mission for each of your 
branches of the Services? I am talking Navy, Air Force, and 
Army. I am assuming it may already be becoming a part of your 
core mission.
    So I would like to have each one of you comment on that if 
you would, please. We will start with General Shinseki and we 
will just move on down the table, Admiral Clark and then 
General Jumper if you would, please.
    General Shinseki. Senator, the Army has had a long 
tradition of association with missiles and, yes, we are part of 
this National Missile Defense Program. Our contributions 
currently have to do with, even as the National Missile Defense 
Program is being stood up, our capabilities are in the terminal 
attack business with our Patriots and our THAAD missiles. Right 
now they represent about the only point to point attack, 
missile to missile attack capability. Even as other 
capabilities are being stood up, we are already part of this 
effort.
    Senator Allard. As a part of your core mission now; is that 
where we are?
    General Shinseki. We have been part of missile defense as 
part of this.
    Senator Allard. Core mission?
    General Shinseki. Yes.
    Senator Allard. Admiral Clark.
    Admiral Clark. We have had an incredibly successful testing 
year the last 12 months, six for six and three direct hits. 
Three were tracking exercises. We absolutely are prepared to 
move into the future on this.
    Now, as to whether it is core or not, missile defense has 
been a core, but different kinds, near as opposed to ballistic 
missile, long-range capabilities. The proposal put forward 
would have us moving to an interim capability in 2004. We 
anxiously are pursuing that. In fact, the Director of the 
Missile Defense Agency was coming forward with a proposal to 
build a test platform and I came forward with a counterproposal 
that I commit a ship now to that program so we do not lose time 
in that effort. We are on board and moving forward.
    Senator Allard. I think a big part of that is this concept 
of the spiral development.
    Admiral Clark. Correct.
    Senator Allard. I think you can play a key role in getting 
it started there.
    Admiral Clark. Yes, sir.
    Senator Allard. Thank you.
    General Jumper.
    General Jumper. Sir, we will certainly consider it core to 
the Air Force, whatever our role emerges in the future. We know 
that we have a significant program with the Airborne Laser 
already under way. It will blend in with this program, and we 
will be working with STRATCOM and Northern Command as their 
roles work out, and our components will then be a part of the 
implementation, however it is designated.
    Senator Allard. Thank you all.
    My time has expired, Mr. Chairman.
    Senator McCain. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    General Shinseki, I want to thank you also for your 
distinguished service and recall that when I attended this 
hearing 2 years ago and each of you--and this was my first 
time--expressed your own views directly to this committee, 
regardless of other considerations and pressures as others did 
as well. I certainly in subsequent years, especially last year, 
had the chance to see how vital that is and how courageous at 
times it requires someone to be. I want to thank you 
specifically for that.
    I want to follow up on Senator Inhofe's question a little 
more regarding the NLOS cannon system. What specifically is in 
the fiscal year 2004 request for that, what components of that 
development? Are those locked into fiscal year 2004? Then are 
we set up now step by step? You said fiscal year 2008 is the 
expected deployment.
    General Shinseki. Well Senator, we took the moneys that 
were available coming out of the Crusader program, focused it 
into the Non-Line of Sight Cannon. This Congress added 
additional moneys to ensure that the development would be 
visible and continue, and that is all on track.
    This year in the fiscal year 2004 budget, we have taken 
that Non-Line of Sight Cannon program element, which was a 
separate element, put it together with Future Combat System 
overall, those vehicles, because it is thought that this Non-
Line of Sight Cannon will provide us the common chassis on 
which all the other systems would ride. We watch that very 
closely, and that is addressed in the budget.
    Senator Dayton. Thank you.
    One question I will ask each of you, and again I will start 
with General Shinseki again. On the budget proposal for the 5 
out years, it is basically in the DOD component for this coming 
fiscal year $379.9 billion and then for the next 5 years it is 
approximately $20 billion. Actually, it is a 5-percent increase 
initially, but 4 percent at the end. So my thought was, if you 
spend that increment of funding over the course of the plan you 
have laid out here, what in fiscal year 2009 will be the major 
developments or improvements or next steps forward, 
irrespective of service areas? Does that progression reflect 
your own priorities, your own view of what we most importantly 
need to do to be ready to fight whatever we have to fight in 
2009?
    General Shinseki. If you look out, the Army is extending 
from the fiscal year 2004 budget, but from fiscal year 2004 to 
fiscal year 2009 you will see that on the moneys generated, 
Future Combat System, that new capability that we are looking 
at in 2010, that we will begin to field that in 2008 in small 
increments, and the first brigade-sized element in 2010. So the 
Future Combat System, precision munitions, sensors and 
communications, what lashes this together is the C\4\ISR, if 
you will, the ability to link all these capabilities. 
Additionally, missile defense technology, a significant 
investment of about a billion dollars; about a billion dollars 
in science and technology as well. So these are the major 
categories that we will see accomplished in 2010.
    Senator Dayton. Admiral?
    Admiral Clark. Senator, the major issues are the 
recapitalization of the existing force and then moving forward 
with transformation. I have testified before this committee in 
previous years over the challenges that I face in that 
recapitalization issue and that I need $12 billion a year in my 
SCN account, for example, and have not had it.
    As I move toward the out years and will we be doing 
everything we need to do, the out years, we are doing 
everything we can to turn dollars into investment in the future 
for recapitalization, modernization, and transformation. I am 
encouraged by the out years. It is easy to see the improvement 
in the out years, but we have moved the budget in a way that 
puts the resources in the ship construction account, that puts 
the resources into the transformation we need in the aviation 
side of the house.
    For example, General Jumper and I are working--this will be 
reflected in future budgets--on how we can team to make the 
unmanned combat air vehicles and how we can get there quicker. 
I absolutely see the kind of transformational things that we 
need in the future as well as the number of ships that we need 
to build so that we can recapitalize for the first half of the 
20th century.
    Senator Dayton. Thank you.
    General?
    General Hagee. Some of those transformation items that we 
have talked about as far as the Marine Corps would be the 
Advanced Assault Amphibious Vehicle. In fiscal year 2009 we are 
going to start seeing, I believe, the Joint Strike Fighter 
coming off; tiltrotor technology, which right now is doing very 
well in the testing, will be available. We will be in the 
middle of our upgrade of our Huey and Cobra to a four-rotor 
blade on each one of those helicopters.
    We will have a replacement for the LHA. We will also have a 
way ahead for the replacement for our Maritime Prepositioned 
Force.
    Senator Dayton. Thank you.
    General Jumper. Sir, I think we will begin to see some of 
Secretary Rumsfeld's initiatives in transformation starting to 
come to fruition, where we streamline processes; we get the 
operational community, and the acquisition community, the 
scientific community together during the development of 
programs, and we start to get things out much quicker to the 
field.
    As far as the Air Force is concerned, I think we are going 
to see an increase in our ability to talk directly between 
space, air, land, and sea platforms, so that we can get the 
machine-to-machine interfaces that right now go through travel 
communities and analog eyeballs in order to interpret results.
    I think we will see a great uptick in our ability to 
network. I call it the cursor over the target. The sum of the 
wisdom of all of our systems talking to one another equals a 
cursor over the target that we can act on immediately. I think 
that we will see great improvements in our ability to deal with 
future threats such as cruise missiles, which is a big worry of 
mine, and mobile targets in and under the weather, in and under 
the camouflage, being able to work with General Shinseki's 
concept of operations to help our folks on the ground, all 
these things.
    The next generation of strike technology, whether it is a 
bomber, whether it is in orbit, from orbit, or through orbit, 
are going to be questions we are going to be asking in the 
coming months to prepare for future threats.
    Senator Dayton. Thank you.
    Although my time has expired, you say you have the 
resources you need, so I would say that anything that is not in 
this, especially in these out years, that you think is either 
not in that should be or that you think is underfunded, I would 
appreciate having that in writing in the next month or so. But 
I thank you all.
    Mr. Chairman, my time has expired.
    Senator Inhofe [presiding]. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I thank each of you for the tremendous service you have 
rendered. You have led in changing our military establishment 
and transforming it to a more lethal and mobile force that we 
respect, that leaves us with the capability of affecting world 
events in a positive way. We really appreciate that, all of 
you.
    I know there are things that remain to be done. There will 
be challenges you need to face, and whenever you make a change 
someone is not going to be happy. But I think the change is 
going in the right direction and I salute you for that.
    I know that some may want to continue to discuss and debate 
the niceties of the situation in Iraq, but I would just recall 
that we have voted 77 Senators and overwhelmingly in the House 
to authorize the President to take the action he believes is 
necessary without a UN vote, without a NATO vote, and I expect 
that the President will do that. It strikes me as really 
ludicrous or really worse, pernicious that France and Germany 
would suggest that we need to give at least 4 more months to 
the inspectors when Saddam Hussein could, within a few hours, 
disclose his weapons of mass destruction and the matter would 
be settled and we would not have a problem.
    So we need to give him more time to do something he could 
do in one day is beyond me. So I hope the President will 
continue to press on the United Nations the need for them to be 
responsible, be relevant, and to honor the resolutions that 
they have previously issued.
    Gentlemen, on the Guard and Reserve, there is some concern 
about whether we have them configured properly and whether or 
not we are able to call them up in a timely fashion and we have 
the right forces to call up. They are prepared to serve. 
Alabama has the highest per capita National Guard service in 
activation of any State in the country, and we are proud of 
that and willing to serve on that.
    I visited Opelika and Brundage and my old Army Reserve unit 
that I spent 10 years in has been activated for the second 
time. They are in Kuwait. They were there 11 years ago.
    I would just ask, are you satisfied where we are with the 
Reserves in terms of training? First, I would like to say the 
training and their capability and their equipment are maybe not 
perfect, but is so far superior to what it used to be. It is so 
close to active duty in most instances.
    But are you satisfied we are configured correctly and that 
we are using them as wisely as we can? General Shinseki, I 
guess you have the most. Maybe you can give your thoughts.
    General Shinseki. Senator, as I said, we have used them a 
lot more than I would have expected. I have watched this now 
for a number of years and I have talked about the end strength 
of the Army and the fact that we have gone to the Reserve 
component for many of those routine missions. I mean, they are 
in the Sinai today, they are in Bosnia, they are about to go to 
Kosovo; this suggests that for these ongoing operations that we 
are going to them far more frequently than I think any of us 
expected.
    I do know that there is stress on them. For these missions, 
we have the time to bring them up to the mission standard and 
they deploy and do a fantastic job. For a large-scale expansion 
on short notice, which is really what the members of the Guard 
and the Reserve have their focus on, this adds to the 
challenge. When they are being used for those routine day-to-
day missions, it adds to the stress.
    Are they able to do it? Yes. Are they better today than 
they were 5 or 10 years ago today? Much, much better. A lot of 
effort on their part and ours to get them resources and 
training to the standard. But there is stress on their 
formations and following this set of mobilizations we are going 
to have to take a good hard look at right-sizing the force and 
getting to the right mix. Those studies are under way.
    Senator Sessions. So those studies are under way?
    General Shinseki. Yes.
    Senator Sessions. Any of you want to comment further on 
that? [No response.]
    One of the things that we need to continue to strive for in 
our transformation are new methods of warfare: Special Forces, 
which I hear you say are most stressed; precision-guided 
munitions that we need enough of; and unmanned aerial vehicles 
and maybe unmanned ground vehicles. Those are transformational 
matters of great importance and it seems that we are somewhat 
stressed in each one of those areas and we could perhaps be 
further along in each one of those areas than we are today.
    It strikes me that in any likely conflict in the next 
decade these fores are going to be key to our success.
    I will start with General Shinseki again. Do you have any 
comments or are we where we need to be with regard to these 
type forces and should we strive to do more?
    General Shinseki. Special Operations Forces?
    Senator Sessions. The Special Operations Forces, the 
unmanned aerial vehicles, the precision-guided munitions, and 
things of that nature that represent modern warfare.
    General Shinseki. Special Operations Forces, you have 
already begun to see some adjustments on the part of the Army. 
Even before this latest expanded call-up or requirement for 
Special Operations Forces, in this next budget we have added 
something on the order of 1,800, perhaps 1,900, additional 
people that come from the Army, and it takes us a certain 
amount of time to grow that capability and then transition them 
to the Special Operations Forces.
    We are even recruiting directly off the street for 
youngsters with particular skills and capabilities that may go 
directly into that kind of unit. So we are looking at that. We 
have added to their budget in fiscal year 2004. So those things 
are under way.
    As I indicated earlier, we are investing in precision 
munitions. In some ways if you look at the efforts of the Army 
to digitize in the 1990s, it was the term that was used to 
describe what we were doing to create better situational 
awareness for our units and our formations so we could more 
precisely target those things we wanted to bring our fires 
against. Much of that investment is being realized today.
    For the ground combat formations, it is distinguishing 
between ourselves, our friends, and those adversaries who we 
want to target. Much of that is going on, a complement of now 
precision fires being able to link into that. Those investments 
are being made.
    Senator Sessions. Admiral, a comment?
    Admiral Clark. If I could. We have made a lot of progress 
in the PGM world. I feel real good about where we are. We are 
on a curve. We have not flattened out. This is a good news 
story. General Jumper and I are working together to make sure 
that we have the right mix of weapons and we have a great 
partnering relationship going on with the Air Force.
    I am really excited about what is happening in unmanned 
vehicles. I absolutely believe this is one of the most 
important technologies for us to pursue. We had a successful 
flight of one of the unmanned prototypes this last week, a 
combat vehicle, and this is all headed in the right direction. 
Again, this is an area where the Air Force and the Navy are 
working hand in glove, seeking to chart a path together so that 
we can optimize and get the most bang for the buck for the 
taxpayers' resources.
    The area where I am a little more concerned is the SOF 
question you raise. We have to look at this carefully. By the 
way, with the command relationship that exists, some of these 
forces work directly for Special Operations Command and not for 
the Navy per se. But we know that they are turning this force 
tightly.
    The demand on this resource is significant and I would 
expect that we are going to see a requirement to increase this 
force structure.
    Senator Sessions. General Hagee?
    General Hagee. Sir, I would strongly agree about the use of 
unmanned aerial vehicles.
    Senator Sessions. Could I just interrupt. I notice that the 
Navy sent out a memo, according to The Washington Times 
article, that a capability gap exists and that a sense of 
urgency needs to be placed on unmanned aerial vehicles. Would 
you agree with that, Admiral Clark?
    Admiral Clark. I do agree with it and that is why I am so 
excited to report to you that we had a very successful flight 
last week. We have unmanned vehicles. Now, I am talking about 
the next generation. General Jumper and I are working on 
unmanned combat vehicles that will be carrier-capable. If you 
look at the nature of our operations cyclic off the carrier 
or--we need more dwell time.
    My favorite new word in the last year is ``persistence''-- 
persistent combat capability. We need that capability, and I 
believe that the unmanned regime is going to give us great 
capability. It is coming. There are investments for it in this 
budget and there will be, and we are working on additional 
things now for the future.
    General Hagee. Sir, we are also working with the Navy and 
the Air Force in the unmanned aerial vehicle area, both with 
sensors and the combat unmanned aerial vehicles. We are also 
working on the ground unmanned vehicles, too, mostly in the 
sensor area.
    As I mentioned before, we are working with Special 
Operations Command. In fact this afternoon, I am meeting with 
General Holland trying to identify those areas where Marine 
forces that are already forward deployed might be able to 
relieve some of the stress on his forces.
    Senator Sessions. Thank you.
    General Jumper. Sir, I am very proud of how we are getting 
this stuff out in the field in efforts like we described with 
Sergeant Yoshida, who is working directly with commercial 
industry, with our acquisition community, to take off-the-shelf 
technology, get them into the hands of our combat controllers, 
and do it now. I think that is a good model for the future.
    On things like the unmanned air vehicle, we are making the 
Predator UAV as quickly as we can. We are making two a month. 
One of the problems that we have is we have to balance the 
things we are trying to do with that vehicle with our ability 
to have a stable production line, because since 1999, we have 
added the laser designation capability to the Predator, we have 
added the Hellfire missile to the Predator, and other special 
capabilities that we keep going back then and trying to refit 
into the ones that are being manufactured now.
    We have a Predator B on the way that is going to have six 
weapons stations on it and it will improve that capability 
significantly.
    Then with the precision-guided munitions, if you recall, 
Senator, back as recent as the Kosovo war we did not have the 
Joint Direct Attack Munition (JDAM). The JDAM, which is GPS-
guided, is on everybody's tongue now. We did not even have it 
in Kosovo. We were dropping prototypes out of the B-2.
    Since then we have tens of thousands of these things that 
Admiral Clark and I are out procuring at a rate of about 2,500 
a month by July of this year, as quickly as we can make them. 
So I think the emphasis is there. I could go on and on, but I 
think the emphasis is there and we have a deep appreciation for 
what you are talking about, sir.
    Senator Sessions. Well, we do not want to run short.
    Thank you, Mr. Chairman.
    Chairman Warner [presiding]. Thank you very much, Senator.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    I join with all the members of the committee in commending 
all of you for the job that you have done preparing our Armed 
Forces to deal with the eventualities that we are going to be 
facing, appear to be facing very soon in terms of Iraq. At the 
time when these servicemen are called to perform, all of us are 
going to be strongly behind them.
    I am glad we talked earlier, in response to questions, 
about the preparedness of the servicemen and women. I do not 
believe that this conflict in Iraq is going to last a very long 
time. I myself am most concerned about Osama bin Laden and al 
Qaeda, the security issues that are presented by them still, 
and those issues that are presented by them in terms of terror 
here at home and around the world.
    I am very concerned about North Korea and the dangers that 
they have in terms of production of nuclear weapons grade 
plutonium.
    I am glad that General Shinseki and others talked about the 
training of our troops to deal with chemical and biological 
weapons. I am sure that the real challenge that we are going to 
face, I think, eventually is whether as a result of this 
conflict, with the inspections if they fail and they are not 
followed through or cannot be completed, is the danger of a 
recruiting ground for al Qaeda in Iraq and among the Arab 
world.
    General Shinseki, we talked about feeding the people in 
Iraq, 24 million Iraqis, 60 percent of them being fed and 
probably food being stored in barns. It is not difficult to 
assume that those barns are going to be burned down. So you end 
up with individuals that after 3 days may not be looking at 
American servicemen and women as liberators.
    Setting up the local police, when you have these 
bloodletting feuds that have lasted over a lifetime, a judicial 
system in a country that has never known a judicial system. How 
is that going to be developed? What is going to happen in terms 
of American servicemen if the Kurds start going over and 
reclaiming their old lands? Are we going to become involved and 
embroiled in that? What are going to be the orders to our 
servicemen?
    We read in this morning's papers we are 2 to 3 weeks away 
from moving, so there must be some instructions. What is going 
to happen when the Shi'a move into the southern part of Iran to 
reclaim their religious cities? Where are American servicemen 
going to be over there?
    So these are some of the concerns. At the same time, we are 
seeing the North Koreans moving ahead in terms of their 
production of weapons-grade plutonium. It appears to me that we 
have developed and sustained a two-war military to only have it 
run by an administration with a one-war attention span. Will we 
resolve the crisis before or after in terms of, in Iraq, before 
or after the North Koreans produce a few more bombs?
    What is your thinking today in looking at the danger that 
that poses to the security in the Pacific, the dangers of an 
arms race there, of real conflict? What are your plans in terms 
of telling this committee how we ought to be considering the 
issues of using whatever is going to be necessary in terms of 
force in order to protect our interests there?
    What is the timing going to be? What should we know, given 
those realities today and given the challenges that are 
presented?
    I do not think anyone is doubting that these men and women 
are going to be able to get into Baghdad. That is, at least for 
some of us, just going to be the beginning. I want to bring up 
the whole questions about the Reserve and the Guard. In my 
State, Massachusetts, we are proud of the ones that have served 
well, the highest activation since World War II, with all the 
implications that has in terms of primary responders that you 
have talked about.
    At a time that we see additional troops going to the 
Philippines, additional troops going to Colombia. Primarily my 
focus of the question is on North Korea, your statement of 
whether we are going to have enough time in North Korea, and 
then I am going to run out of time.
    But I want to hear from General Shinseki about the 
administration's cut on Impact Aid for schools, $130 million, 
cutting back on school budgets in districts where servicemen 
are going over to Iraq and these Impact Aid funds are 30, 40, 
or 50 percent of school budgets. It is beyond belief to me on 
this matter.
    If someone could make a comment, just if they would on that 
and the other issue about how they see this unfolding 
responsibility on the military and how that fits into the 
timing for our security interests in North Korea, with its 
imminency of developing the weapons-grade plutonium.
    General Shinseki. Senator, I think you have described quite 
well this challenging and complex environment we find ourselves 
in today. Had we sat back 3 years ago and described it, it 
would not have been exactly as we see it. Maybe it is a good 
caution to us that in this business of trying to anticipate it 
is not precise and sometimes you have to have a little of added 
capability to be able to adjust to these unanticipated 
surprises.
    I think in our discussions of two major combat operations, 
one a decisive defeat and the other a significant, swiftly 
defeat the efforts, you can add a third major contingency here 
and that is the global war on terrorism. Several years ago that 
was not seen as a requirement. So the stress on the 
requirements has certainly spread, at least in the case of the 
Army, our ground forces cover more missions than we would have 
anticipated.
    We are concerned about what appears to be happening in 
North Korea, but we also know that there are actions under way 
to deal with that. For the present, we look at our people on 
the ground there and look at what requirements we may be asked 
to provide to the combatant commander should tensions go any 
higher. We are in the process of doing that and, as I indicated 
earlier, to meet his requirements it would probably involve 
additional mobilization of our Reserve components.
    But I think your questions are appropriate. I would say 
that in the aftermath of this series of crises, as we think 
about where we position U.S. military presence for the future, 
these are issues that ought to impact the strategy that 
outlines where those capabilities ought to be positioned.
    Senator Kennedy. If any of the others want to add to that?
    General Jumper. Sir, could I comment on the Impact Aid?
    Senator Kennedy. Sure.
    General Jumper. I just learned about this yesterday, as a 
matter of fact. I am not sure exactly what happened, but it is 
certainly of concern to the Air Force and, as the father of a 
child who goes to a school that benefits from this sort of aid, 
it is something that we will go back and look into. It was not 
something that was recommended by my service, I can tell you.
    Senator Kennedy. It is a $115 million cutback. Thank you.
    I know my time is up. The policy decisions are not made by 
you. They are made by the administration and obviously to the 
extent Congress does. So everyone has a high regard for all of 
you, and I think it is almost because of the extraordinary high 
regard that we have for all of you we want to make sure that 
you have what you need to do the job and not being asked to do 
things which put you at undue risk.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General Shinseki, I want to join my colleagues in thanking 
you for your extraordinary service.
    I also want to pursue the issue of the readiness of our 
troops to face a biological or chemical attack. Last July, the 
Army Audit Agency submitted a report that was critical of the 
Army's preparedness to deal with such an attack, and the 
results of the audit were very troubling. Of 25 units reviewed 
at Fort Hood and Fort Lewis, 18 of them were found not to be 
proficient in operating chemical and biological defensive 
equipment. Inspectors also found that many units were not 
performing adequate maintenance on their chem-bio equipment.
    There have been other reports, recently by ``60 Minutes'' 
and others, that have also raised very troubling questions 
about whether our troops would be adequately prepared and 
protected if they face chemical or biological weapons.
    First, could you tell me how the Army has responded to 
these audits and reports? Second, are you personally confident 
that our troops are adequately trained, equipped, and prepared 
to face a chemical or biological attack?
    General Shinseki. Senator, just a point of clarification. 
Was that report a year ago or 2 years ago that you are 
referring to?
    Senator Collins. I believe it was last July, just this past 
year.
    General Shinseki. Last July. Okay, there have been several 
of these surveys. In some cases, we have asked these agencies 
to go out and take a look because of things we have heard. The 
one I am most familiar with was several years ago. I would have 
to go back and take a look at this report.
    I will tell you when we looked several years ago, when we 
talk about a battalion sized unit, 2 years ago our problem 
areas were with the two soldiers who were on the battalion 
level staff that had responsibilities for certain select pieces 
of equipment. So in a 500 to 800 person organization, the focus 
of that investigation was we found some shortcomings in 
training and maintenance at that level, and we have gone to 
work and corrected those things.
    I will have to look and see specifically what this last 
July report was about. But whenever we discover there is some 
concern, we go back out there and ensure that the commanders 
are doing, and are resourced to do, what it is we expect of 
them. The training that goes along with operating in this 
environment is part of our mission set that we train to.
    As I say, whether you are at garrison at Fort Stewart in 
the wintertime or August in the National Training Center, you 
can expect that these tasks are part of that set of skills that 
individuals have to train to.
    The answer to your question: I am confident we are training 
and that standards are significant. This is the toughest part 
of our training mission. For those units that are currently on 
the ground in the forward areas, I can tell you they are 
dealing with this requirement on a daily basis.
    Senator Collins. Thank you.
    Admiral Clark, I am pleased that the budget this year turns 
the corner on shipbuilding and provides for funding for 12 
ships. But nevertheless, the Navy is still dealing with a 
legacy of underfunding year after year and the result of that 
with the planned retirement of the Spruance class destroyers is 
that the fleet is projected to fall under 300 ships in coming 
years, bottoming out at, I think, 291 ships in the year 2006.
    You have testified in the past that ideally to meet mission 
requirements you would need a fleet of approximately 375 ships. 
Is that still your judgment, that a fleet ideally would be 
about that size?
    Admiral Clark. Yes, Senator, it is.
    Senator Collins. I would like to talk to you about how we 
can recapitalize our fleet, not only through new construction 
but also modernization of the Arleigh Burke class of 
destroyers. It seems to me that one way that we can reduce 
total life-cycle costs is by reducing the crew size on our DDGs 
using the technological breakthroughs and designs that we have 
learned in designing the DD(X).
    What are your thoughts on modernization of the DDGs to make 
sure we are maximizing their useful life and also reducing 
overall costs by reducing the size of the crew?
    Admiral Clark. I think that is absolutely the right 
direction to go. We have been doing some experimenting with 
Smartship for the last several years. We see a lot of that 
manifested in the design of DD(X). While we do not know exactly 
how many people DD(X) is going to have on it, we know it is 
going to be dramatically less than what we have on our main 
line ships of the line today.
    When DDG comes up for its midlife--and we must begin to 
project toward that midlife upgrade--we are going to need to 
apply the improvements that technology will allow us to bring 
to bear.
    Senator, when we talk about the total number of ships and 
we talk about capability like DDG, the Burke class is a great 
ship. It is a terrific ship. Still building them. But one of 
the things that I do not believe that we have always done as 
well as we should have done in our Navy is start thinking right 
up front, where is the midlife improvement on this platform?
    Because if we do not do that, looking back over time, you 
lose the ship early. The taxpayer does not get the return on 
investment that it laid out when it invested in the platform. 
So we clearly, we are not there yet on DDG. We are still 
building them. But we have to be moving toward that with the 
things that we have discovered in some of our Smartship 
experimentation.
    Senator Collins. Thank you.
    General Jumper, my time has expired, but I just want to 
associate myself with the concerns expressed by Senator Allard 
on the allegations involving rape and other sexual assault at 
the Air Force Academy. One of my proudest responsibilities is 
to recommend young men and women to attend our Service 
academies, and the idea that I am recommending young women who 
then may be at risk of sexual assault is just appalling to me. 
I know that it is to you as well.
    I just want to let you know that in my capacity as chairman 
of the Governmental Affairs Committee, I, along with Senator 
Lieberman, have asked the Inspector General of the Department 
of Defense to investigate these allegations. I am pleased to 
hear your comments as well this morning.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator Collins, I assure you that when I 
first learned of this problem several weeks ago, in 
consultation with our colleague the Senator from Colorado, we 
have taken those steps to posture this committee so that we can 
review the findings. We urged the appropriate Air Force 
officials, including our witness today, to initiate these 
steps.
    I thank the Senator for her concern because I likewise, 
along with every member of this committee, take such pride. As 
a matter of fact, my Academy Day is coming up soon, when some 
400 or 500 nominees or applicants and their families gather 
here at the Senate to review those options.
    I thank the Senator.
    Senator Pryor, would you indulge me? I just wish to make an 
announcement to the committee. Senator Levin and I have 
arranged for tomorrow morning a classified briefing for the 
entire committee on the efforts to date by the administration 
with regard to the planning for the post-Saddam Hussein Iraq. 
This is an interagency effort. We will have briefers from the 
various departments and agencies of the Federal Government 
initially tasked with this. I hope Senators can schedule their 
time to be available for this briefing.
    Thank you, Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    I, too, want to concur with Senator Collins' statements a 
few moments ago about the academies, and I know that you are 
going to do everything in your power to do what we need to do 
to make that situation right.
    Also, I want to just thank you all for being here today, 
thank you for your service to this great country. I think the 
war on terrorism has touched every person in our Nation in 
various ways and certainly everyone in this room is touched by 
it in some way. I know that you cannot pick up the paper in 
Little Rock without reading about the Little Rock Air Force 
Base or the fact that many of our National Guard units have 
been called up, including our Air National Guard unit there in 
Fort Smith, and what is going on at the Army's Pine Bluff 
Arsenal as part of the war on terrorism.
    It has touched many lives, not just in my State, but all 
over this great country.
    Also, I must say on a personal note, Senator Warner, that 
when I was the Attorney General of Arkansas, my director of 
operations was a one-star general in the Arkansas National 
Guard, and he has been called up now for I think over 6 months 
now. Part of his responsibility is to assess readiness of 
various National Guard units around the country and to call 
them up as need be. He is now in Georgia doing that.
    I know that preparedness is something that you are very 
focused on. I appreciate your comments about preparedness today 
and the lessons learned in this environment we find ourselves 
in today. I can assure you, and I think I can speak for the 
committee, that we are going to do everything in our power to 
make sure that our men and women are the best-trained and best-
equipped in the world. We are just going to do our part on this 
committee to continue to make sure that you can complete your 
mission and the mission of the United States of America.
    I really only have one question today, Mr. Chairman, and 
that is about retention. Some of you mentioned that in your 
opening statements. I know it is something in the last several 
years that has received a lot of publicity and attention, as it 
should. It is an important part of our military picture and an 
important part of our preparedness. I would like to hear from 
each one of you today, if possible, about how you feel we are 
doing and your particular branch is doing on the issue of 
retention and what we need to do to get you to the level where 
you are very satisfied with retention.
    General Shinseki. Senator, up until this point, retention 
has not been an issue for us. In fact, if there was a challenge 
it was recruiting 3 years ago. We fixed that. The last 3 years 
we have met our recruiting targets. But at the same time, our 
retention requirements we exceeded each year in each of our 
components.
    The stress on the force right now may affect decisions 
after this mobilization period is over about primarily Reserve 
component soldiers, whether they stay in their formations or 
not, and I think that is something we have to pay attention to. 
I think whatever we can do to work with employers of those 
soldiers is also important, and we do. We go out and through 
our contacts engage those employers, thank them for what they 
do, and explain how important this is.
    But there is stress out there. I think we are all aware of 
it.
    Admiral Clark. Senator, I always love this question because 
we are doing better than we ever have in our history. We are 
going through a period for the last 2 years we have had the 
highest retention we have ever had in the history of the 
institution. Part of this reason is because young men and women 
want to be part of the solution. Young Americans want to be 
there, and that is what we are seeing.
    With regard to recruiting, last year we took 7,500 out of 
the plan because we had more people than end strength would 
allow us to have. So I would just sum it up like this: our 
young people are responding to the challenge.
    Now, make no mistake. They are responding to a whole series 
of signals. One is the global war on terrorism. But they are 
responding to signals that they have received from the American 
people and from Congress as well. There have been major things 
done to help us win this battle for people.
    I would tell you that at this stage of the year I am 
running about 20 points over my annual targets. But I will tell 
you why this is; there are reenlistment incentives for people 
to stay. When those reenlistment incentives run out, well, we 
will see a change in the way that they respond.
    So very much what has become evident to me in my 2\1/2\ 
years in this post is that they are looking for signals from 
the American people and they like the signals that they are 
getting from the American people and from Congress. Congress 
has helped us put together financial incentive packages and the 
things that they are responding to.
    But more than anything else, my summation of what is going 
on with our young people is they want to make a difference. I 
would ask you to continue to support us on the issues that 
allow us to create and shape the force the way we need to shape 
it for the 21st century. There are financial tools that are 
involved there and the help of Congress is critical.
    Thank you.
    General Hagee. Senator, I could not agree more with the 
Chief of Naval Operations. I would like to thank this committee 
and Congress for the support that you have given us and our 
young men and women in uniform. Quality of life makes a 
difference. Selective reenlistment bonus makes a difference. 
Those are some of the things that the Admiral was talking 
about. Obviously they want to serve.
    As far as the Marine Corps specifically is concerned, we 
have had the best year in retention in our officer corps this 
year over the last 18 years. This year on our retention of our 
first term enlistees, in January we had already retained 80 
percent of what we wanted to retain for the entire year. So 
like the Navy, we are doing very well in retention both on the 
enlisted and the officer side.
    General Jumper. Senator, in the Air Force we are 
experiencing similar results. Our recruiting for last year was 
finished by the end of April. Our retention numbers are higher 
than they have been in years, and we set very high retention 
standards because we spend so much money training many of our 
technical people. We have experienced up to 20 points better 
than the goals that we have set.
    I think I agree completely with Admiral Clark. Once you 
expose the youngsters out there today, who many think do not 
have the capacity to be dedicated, patriotic, or committed, 
once you expose them to success in military life, then they 
cannot turn back. They are proud of what they do. They are 
proud to serve.
    The incentives that have been supported by this committee 
have been a great help. As a result, we are experiencing the 
highest pilot retention we have had in quite a few years.
    So we thank the committee, Mr. Chairman and Senators, for 
all you have done, and we need to continue to do this to keep 
the quality of our force as high as it is.
    Senator Pryor. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Senator Dole.
    Senator Dole. Thank you, Mr. Chairman.
    An important aspect of overall readiness is certainly 
family readiness, and I would like to pursue a couple of 
questions in this area. Having just been at Fort Bragg this 
past week as well as Marine Air Station Cherry Point and 
Seymour Johnson Air Force Base, as I talked with commanders, 
with enlisted personnel, with the spouses--many of the spouses, 
their partners had been deployed; others were about to be 
deployed. An issue that came up time and again was one that 
Senator Kennedy brought up on Impact Aid and the fact that the 
children of these men and women who are being repeatedly 
deployed deserve to have a quality education in a well-funded 
school.
    General Jumper, I appreciate your responding to the 
question, but I would like to ask the rest of the panel if you 
would also speak to Impact Aid and how you see this in terms of 
the importance to your people and your families. I am concerned 
about this issue, and I would like to hear each of you respond 
to that issue as well.
    General Shinseki. Senator, the Army has been interested in 
working a wide range of education issues because they have been 
important to our service members, the education of their family 
members. Impact Aid is a piece of that and it is important to 
our service members, seeing the education of their children.
    Admiral Clark. I align myself with the General's comments. 
We have a saying, we recruit individuals, we retain families.
    Senator Dole. Yes.
    Admiral Clark. We believe that. Clearly one of the major 
issues for a service member is making sure that their children, 
that they have the kind of opportunity that they dream of for 
them. So every one of these programs are critical.
    I would say that one of the challenges for us--and this is 
an issue for the committee and as we look at what it takes to 
compete in the marketplace--is what kind of tools do the 
Services need and what kind of issues are the service members 
looking at when they make decisions about whether they are 
going to serve or not.
    We know that, first and foremost, it has to be an 
attractive, appealing lifestyle. But I will tell you, Senator, 
one of the things that has been real clear to me. The men and 
women who are serving today, they are not missing the signal 
that is coming from the citizens of the United States of 
America, and that citizenry is saying to our people today: we 
appreciate your service. Everything we can do to send that 
signal will benefit our institutions greatly.
    General Hagee. Senator, I would also like to associate 
myself with General Shinseki and Admiral Clark's comments. When 
the marine out in the field knows that his family is taken care 
of, he can better focus on his or her job than if he is worried 
about what is going on back on the home front. Our young men 
and women today are highly educated and they want their 
families to be educated.
    Senator Dole. Let me raise another issue in this area. The 
budget includes a $4 billion request for family housing for 
fiscal year 2004 and about $346 million of that is for family 
housing privatization. I am very interested in this. It is a 
truly transformational program that seems to me to go directly 
to the issue of morale of our troops and also to the fact that 
if a young couple has attractive housing they are more likely 
to make a decision to stay in the military, to make it a 
career.
    I would like to have each of you comment on this, whether 
or not this privatization as a way to move in the future might 
be the most cost-effective and the quickest way to eliminate 
alot of this substandard housing which of course exists across 
all branches of the Services.
    I was particularly interested in the planned community 
concept at Fort Bragg. But if you could talk with me a bit, 
just respond briefly now and maybe more for the record, about 
how you see privatization, for example the quality of 
construction, how cost-efficient is it, and long-term plans for 
maintenance. I think this could be a great asset and I would be 
very interested in how each of you see privatization.
    General Shinseki. Senator, it is an important initiative. 
We started this about 2 years ago. Fort Bragg is in the second 
tranche of posts. We started with Fort Sill, Fort Lewis, and a 
number of others. For us, this was the only solution because to 
generate the kinds of resources to do this on our own was not 
possible. So this Residential Communities Initiative, in which 
we get assistance from outside, has been a significant 
momentum-builder in addressing our housing needs. It is 
important. We think it works and we are expanding the 
experiment to multiple locations.
    Senator Dole. Are we devoting enough resources for this 
family housing in this budget?
    General Shinseki. In terms of privatization, we are.
    Admiral Clark. We are moving forward and we got permission 
from Congress last year to start a privatization public-private 
venture in the area of bachelor quarters as opposed to the 
house itself. Frankly, Senator, that is the area where we are 
more behind.
    But here is what I have to say. I do not really want to 
build more military housing if I do not have to. When I talk to 
our people, I ask them: How many of you have your own place? I 
want them to have a stake in America. I want them to have their 
own place, not a military place, especially when we get to 
career people. That is what I tell them.
    What has happened over the course of the last 4 years as we 
have sought to buy down the out-of-pocket costs--we make 
another big step in it in this budget--is that we are seeing 
our service members get to a position that they can compete in 
the market.
    Now, in the area of bachelor quarters, that is a different 
story. We are very much, again, experimenting with solutions 
here and we want to move toward that as rapidly as possible. We 
will have our substandard housing off the record by the end of 
this FYDP. It will be gone. That has been the objective.
    But the most exciting thing for me is to see a young 
service member who owns their home for the first time. That is 
what I want for them. What is being done for them now is making 
that more of a possibility.
    General Hagee. Senator, we strongly support the public-
private venture. We started several years ago in Hawaii. It has 
been a great success. In fact, just last year the residents 
threw a party for all the maintenance people. That is the 
response that they had to public-private venture. We opened up 
a series of houses in Camp Pendleton last year and without 
public-private venture we would not be able to reduce the 
number of inadequate houses that we have.
    We are joining with the Navy on the experiment on PPV in 
the BEQ area and I am quite excited about that.
    Senator Dole. Great. Thank you.
    General Jumper. Senator, we have quite a few bases that are 
in fairly remote locations and we have about 38 projects 
planned that will address about 40,000 family housing units. I 
believe we are the only Service that does not get finished by 
the Secretary of Defense's goal of 2007, but that mostly has to 
do with northern tier bases where we would have to displace 
people. We just cannot do the shell game fast enough to fulfill 
the requirement. But we are pushing full speed ahead as quickly 
as we can.
    Senator Dole. Thank you.
    Thank you, Mr. Chairman. I see my time has expired.
    Chairman Warner. Thank you very much, Senator.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    General Jumper, is the Air Force committed to extend both 
contractors on the EELV over the next 5 years?
    General Jumper. Sir, there is no reason that I know of to 
deviate from that path. I know there are some studies underway 
and we have not seen the results of those studies, but the 
current program is to stick with both the Atlas and the Delta 
programs.
    Senator Bill Nelson. According to that answer then, is 
there money in the fiscal year 2004 budget that will enable 
that to occur?
    General Jumper. As far as I know, we are adequately funded, 
sir. I will get back if there is any doubt, but nothing has 
been brought to my attention that would argue otherwise.
    Senator Bill Nelson. If there is any doubt, please get 
back.
    General Jumper. Yes, sir.
    Senator Bill Nelson. Needless to say, it is important that 
we have assured access to space.
    Now, I just found this out and this alarms me, because 20 
years ago, as the Congressman representing Orlando, we started 
the simulation center there, for the Navy, and pretty soon all 
of the Services came together and that became a simulation 
center. For obvious reasons, this was cost effective on our 
training and so forth.
    I have just been told that that is being zeroed out in the 
fiscal year 2004 budget, which is hard for me to even imagine. 
I would like each of your comments?
    General Shinseki. Senator, I am not specifically sure what 
is being zeroed out. But the Army's simulations efforts are in 
Orlando, as you describe, and we continue to operate there. 
What you would have known as Simulation, Training, and 
Instrumentation Command (STRICOM) is there.
    Admiral Clark. I am unaware of any move to zero out 
Orlando. Orlando has been a key part in helping us put forth a 
transformational approach to training. In fact, key members of 
that organization have been on my task force who work toward 
the revolution in training in the Navy.
    I will look into it, Senator, and see if there is anything. 
If there are any cuts there, I am unaware.
    [The information referred to follows:]

    The Navy contribution to the Joint Simulation Center in Orlando, 
Florida is the Naval Air Warfare Center Training Systems Division 
(NAWCTSD). There are no cuts of any kind scheduled for NAWCTSD in 
fiscal year 2004 or the Future Years Defense Program.

    Senator Bill Nelson. General Hagee.
    General Hagee. Sir, I am also unaware of any cuts there.
    Senator Bill Nelson. General Jumper.
    General Jumper. Sir, we have our modeling and simulation 
center there and I am unaware of this. We do a lot of work down 
there.
    Senator Bill Nelson. Okay. Well, if you would check, 
because there is a DOD program decision memorandum, PDM, 
directing the cancellation of the joint simulation system 
program in the fiscal year 2004 budget, and that just seems to 
me about as contrary as we can be as to what we need to be 
doing.
    General Shinseki.
    General Shinseki. Senator, that is a project and an effort 
all of us participated in. It is one that was not delivering 
and I believe that is correct, that joint simulation system was 
having difficulty meeting its contract. I believe that is the 
reason it was scrutinized and decided to be lined through.
    I will provide more information for the record.
    [The information referred to follows:]
              Joint Simulation System (JSIMS) Termination
    The JSIMS program was terminated in the Program Decision Memorandum 
1 (PDM 1) decrement. While it did not cite a specific rationale for the 
termination, the program has been under close scrutiny the past year 
because of significant delays in achieving critical milestones, 
increasing costs, and little to show for the large investment. However, 
the PDM directed completion of JSIMS Block 1 by June 2003, which should 
provide the Joint Warfighting Training Center a Joint Task Force 
component-level training capability. The PDM also directed completion 
of an analysis of alternatives to identify a cost-effective method of 
meeting future Joint and Service training requirements. In subsequent 
guidance to the Army, the Office of the Secretary of Defense also 
recognized the Army's significant investment in the Warfighter 
Simulation program and provided guidance to continue that effort. With 
the requisite resources, we can meet our Title X training and have the 
capability to link with any future joint training solution.

    Senator Bill Nelson. I think we all ought to be aware, 
because your colleagues do not seem to be aware of that. I 
would like a justification as to how that is in the best 
interests of the defense of the country as we train our troops 
and try to be cost effective with simulators.
    Let me ask you again, General. There are rumors that we are 
going to have some amassing of opponents, the enemy, in the 
area of northeast Afghanistan for some kind of spring 
offensive. It could be in Afghanistan, it could be right across 
the line in very forbidding territory where there is a bunch of 
tribals.
    I would like your comment on how we are going to meet that 
kind of resistance, that kind of attempt to blunt some of the 
success that we have had in Afghanistan from a military 
standpoint.
    General Shinseki. I am not specifically sure on exactly 
this tip, but all along that border between Afghanistan and 
Pakistan, there are operations ongoing and we do from time to 
time see a buildup of capabilities. The combatant commander 
there, Lieutenant General Dan McNeil, working for General Tom 
Franks, focuses on those day-to-day operations. We provide him 
the capabilities to conduct those day-to-day operations.
    This specific buildup for a springtime offensive, all of us 
anticipate when the weather gets better activity goes up. But 
the specific area you are referring to I probably want to take 
a look at and give you a better answer.

    [The information referred to follows:]

                       Operation Enduring Freedom

    The Central Command Combatant Commander is better prepared to 
answer operational questions such as this. As a force provider for this 
operation, the Army's responsibility is to provide trained and ready 
forces to the combatant commander. The Army has provided all forces 
that the combatant commander has requested and is prepared to provide 
additional forces if required.

    Senator Bill Nelson. Does your commander have sufficient 
forces to repel such an offensive?
    General Shinseki. I believe he does. I will be certain to 
ask that very question just because you have asked it.
    Senator Bill Nelson. I ask it for obvious reasons, because 
we are going to have our attention diverted to another part of 
the world and we sure do not want to be losing ground. I mean, 
it is irritating enough that there seems to be a lessening 
cooperation from President Musharraf in Pakistan. But sooner or 
later, if that is where the al Qaeda leadership is, we are 
going to have to go in there and root them out, and not the 
least of which we are going to have to be prepared in case 
there is a counteroffensive from them on us.
    So in whatever kind of setting you want to discuss this or 
your designee, I would be most appreciative.
    General Shinseki. Senator, I would be happy to do that. 
There is coordination that goes on between our people and folks 
on the other side to ensure coordinated activities.
    Senator Bill Nelson. Thank you, General.
    Mr. Chairman, as I conclude, I would like at an appropriate 
setting, perhaps a closed setting, for us also to talk about 
the new military role that is apparently occurring in the 
Philippines, which I do not necessarily disagree with, but I 
would like to know how we think that that is going to be able 
to help us stamp out the terrorist activity in that part of the 
world.
    It is going to be there. It is going to be in other 
countries, and as a member of your committee, I want to have 
some assurance that we are doing what we should. Is the new 
role symbolized by the more combat-capable, combat-ready, 
combat-insertive position that we are talking about in the 
Philippines?
    Chairman Warner. Senator, the question of the Philippines 
will be a part of our briefing tomorrow morning, and I wish to 
say to the committee that we have a closed session scheduled 
immediately at the conclusion of this round of questions, at 
which time the Senator may pose that question. So there is the 
first opportunity you would have to raise that question with 
regard to the Philippines.
    Like you, I would like to know exactly the circumstances 
under which this decision was made and what the expectations 
are with regard to those deployments.
    I thank the Senator.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    Gentlemen, let me just say that this Senator has a great 
appreciation for the job each of you do, for your great 
leadership you are providing, and for those men and women that 
serve under you, and to each of you, I say thank you for that.
    I also have a great appreciation for the job that the 
administration is doing and the leadership that this 
administration is providing with respect to winning the war on 
terrorism, and thank goodness we have people who are willing to 
make a tough and hard decision, knowing that they have under 
them leadership like you and the men and women that serve under 
you to carry out the jobs assigned to each of them that will 
ensure that my children and my grandchildren are going to live 
in the same safe, free, and open America that my generation has 
enjoyed.
    So for that I say thank you, and I hope you will express 
that to each of the men and women that serve under you at every 
opportunity.
    General Jumper, you know my fondness for Robins Air Force 
Base and the great job that the men and women, civilian and 
military, do there, and I appreciate your comments regarding 
the 116th. That decision was just a great vision on the part of 
Secretary Roche, you, and the folks like Paul Weaver over on 
the Guard side, any number of folks who participated in that. 
It is going to be a model for where the future of the armed 
services are going to go, irrespective of what branch we are 
looking at.
    I am very proud of those folks.
    General Jumper. Thank you, sir.
    Senator Chambliss. I have had the opportunity to visit 
Robins Air Force Base many times, particularly recently. 
General Shinseki, I will tell you that recently I was at Fort 
McPherson, Fort Gillem, and Fort Stewart, and you all are 
correct that the quality of the force out there today is second 
to none. It is well-prepared, well-trained, and the men and 
women that are being called on to defend freedom are in my 
opinion the best-trained, best-service organization that the 
world has ever seen. That is thanks in large part to your 
leadership.
    General Jumper, four weapons systems that I have a keen 
interest in are C-17, C-130, F-22, and Joint Surveillance and 
Target Attack Radar System (JSTARS). From a budgetary 
standpoint, I think the C-17 is moving forward in a very good 
manner. The decision on the multi-year several years ago, I 
think, was one of the best business decisions that any branch 
has ever made, particularly the Air Force.
    I would like for you to give us just a quick budget update 
on the other three weapons systems, if you will, as it is 
reflected in this current budget.
    General Jumper. Yes, sir. Well, starting with the F/A-22, 
we have the production cap of $43 billion. We are sticking 
within that cap. We are on track to begin our operational tests 
later in this year as we finish up our developmental testing. 
The airplane is achieving astonishing results when you talk to 
the people that fly it.
    We continue to have some problems with software stability 
that we are working very hard, and, of course, we are at the 
critical part of the airplane's development now where it 
continues to go from the development phase into the production 
phase and the ensuing production problems that you get when you 
start up production.
    So we are working our way through those, but we have not 
come back to ask for any more money, nor do we intend to. We 
intend to live within that cap.
    The JSTARS, of course, is a magnificent sensing device that 
we join with the ground forces to give them targets, moving 
target indications on the ground. The mission of the 116th is 
to train their people up to speed and get the backenders up to 
speed. We had a few slowdowns in the training for the 
backenders that we are working our way through as we get that 
first surge of people who have transitioned from other systems 
in the National Guard through that training. We are working our 
way through that now.
    Then the C-130, I believe is the other one you mentioned. 
All of the problems we had with the C-130J I think have been 
reconciled and that is going forward now for OMB consideration. 
So I think everything is on track, not without challenges, but 
working our way through all of it.
    Senator Chambliss. Are we going to be able to provide the 
service to the customer out there with respect to JSTARS by 
stopping at 17 instead of going to the full complement of 19 
and moving on to the 767, where we are going to have that gap? 
Are you comfortable with that?
    General Jumper. Sir, we are working hard to make sure that 
we do not have any more of a gap than we can stand. We are 
proposing a transition into the Boeing 767 with the next 
generation of JSTARS improvements and this will be the baseline 
aircraft for our multi-sensor command and control aircraft that 
will do the sort of integration with space, unmanned, and 
manned platforms that we think will take us into the future--
talking directly to satellites, controlling UAVs, being able to 
join with the other Services to provide command and control 
depending on who is first on the scene, being able to 
distribute signals around the battle space, and being able to 
deal with things like cruise missiles.
    We use the next generation of the JSTARS platform in a 
Boeing 767 as our baseline for that activity. We took some 
decreases in funding, but we think we can work our way through 
that and we look forward to keeping this program vital and 
pressing on with it. I think it is going to be very vital for 
all the Services.
    Senator Chambliss. Thank you. All of you, thanks again.
    Chairman Warner. Thank you very much, Senator.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman. I listened 
carefully to Senator Nelson's questions about the Philippines. 
Will there also be additional information available about 
current involvement in Colombia that the committee could be 
advised of?
    Chairman Warner. I will advise the Senator that there is no 
reason why that question could not be asked if you are able 
schedule-wise to join us at the closed session.
    Senator Clinton. Thank you very much, Mr. Chairman.
    I want to start by thanking General Shinseki for his 
incredible work. General Shinseki has done a tremendous job on 
behalf of the Army, and I am very grateful to his lifetime of 
service and look forward to your continuing service in whatever 
form that takes.
    Admiral Clark, in late January, the Pentagon announced that 
it was sending eight Coast Guard cutters and several port 
security units to the Persian Gulf. As I understand it, this is 
the first deployment of Coast Guard patrol boats overseas since 
the Vietnam War. Is that correct as far as you know?
    Admiral Clark. Actually, Senator, the cutters have been 
deploying with us periodically and working up with us. Part of 
our agreement is that in time of crisis they will come work for 
us. The only way to make that work is to periodically do it. So 
they periodically are deploying with our carrier battle groups.
    Senator Clinton. What are the numbers that are currently 
deployed? Do you have that?
    Admiral Clark. I am sorry, I do not. We would be happy to 
get that for you.
    [The information referred to follows:]

    The number of Coast Guard cutters deploying to the Persian Gulf 
are:

    378-foot high endurance cutters

        USCGC Boutwell (WHEC 719)--homeport: Alameda, CA
        USCGC Dallas (WHEC 716)--homeport: North Charleston, SC

    225-foot seagoing buoy tender

        USCGC Walnut (WLB 205)--homeport: Honolulu, HI

    110-foot patrol boats

        USCGC Wrangell (WPB 1332)--homeport: South Portland, ME
        USCGC Adak (WPB 1333)--homeport: Sandy Hook, NJ
        USCGC Aquidneck (WPB 1309)--homeport: Atlantic Beach, NC
        USCGC Baranof (WPB 1318)--homeport: Miami, FL
        USCGC Grand Isle (WPB 1338)--homeport: Gloucester, MA
        USCGC Bainbridge Island (WPB 1343)--homeport: Sandy Hook, NJ
        USCGC Pea Island (WPB 1347)--homeport: St. Petersburg, FL
        USCGC Knight Island (WPB 1348)--homeport: St. Petersburg, FL

    Senator Clinton. Thank you very much, Admiral. Because in 
New York, as well as many other coastal States and cities, we 
count on the Coast Guard to guard our ports against terrorist 
threats and other emergencies like the one we just had the 
other day with the explosion at Staten Island. The Coast Guard 
was the first responder. We could not have responded without 
their lead and assistance.
    So I would like some additional information that I will 
submit to you in writing, so that I have a better idea of the 
criteria that are used to deploy the cutters, how long they are 
expected to be deployed, what are the missions that they 
perform, and how we anticipate replacing those functions that 
are going to be left behind as they deploy with you.
    I want to ask each of the chiefs a question that has been a 
concern of mine for many years, ever since President Clinton 
asked me to look into the Gulf War, the Gulf War Syndrome, and 
I went out to Bethesda to Walter Reed and met with a number of 
veterans who returned from the gulf suffering from unknown 
symptoms.
    I became convinced in my own mind and based on the research 
that we were doing that this was real, this was something that 
had to be addressed. The President appointed a commission to do 
so.
    Now, with U.S. troops being deployed again to the Persian 
Gulf, I know that you are spending a lot of time and attention 
trying to make sure that we do not send young men and women to 
war where they are out of harm's way in a conventional and 
traditional sense, but they return home debilitated and have to 
be separated from the Service and have ongoing chronic health 
conditions.
    So I would appreciate each of the Services giving me a 
brief overview and then I would like to arrange a briefing that 
my staff is currently working on to get more indepth 
information, because clearly the February 2002 GAO report 
before the House Veterans Affairs Committee seemed to conclude 
that, while military medical surveillance policies had been 
established, still a lot needed to be done to implement the 
system. I think we want to do everything possible to protect 
our troops this time around.
    If I could just have a brief overview comment from each of 
the Service Chiefs about that and then, as I say, I look 
forward to a more indepth briefing. General Shinseki.
    General Shinseki. Senator, I would say, first of all, we 
all share the concern coming out of the last gulf operation, 
and the conclusions were less conclusive than we would like. 
There was a variety of issues that continue today to be 
studied.
    I think since that last operation, however, we have 
expanded our detection and sensing capabilities in some rather 
significant ways, not just in chemical, but also biological 
threats. I think we are concerned. We have gone back to look at 
what the conditions might have been then. We pay attention to 
it, better detection, better training. But still there are a 
host of unknowns here, exactly what the causes were of that 
gulf illness.
    Senator Clinton. Thank you.
    Admiral Clark?
    Admiral Clark. My problem is a little different than 
General Shinseki's. Our issue is providing fundamentally 
protective gear for attack at sea, and we have some built-in 
systems to protect our people inside the ships. I would just 
tell you that we have made significant investments. In an open 
forum I would put it this way: we have made significant 
investments and we are ready.
    Senator Clinton. General Hagee?
    General Hagee. We share your concern, Senator. As General 
Shinseki mentioned, we have vehicles, platforms out there that 
did not exist 10 years ago during Operation Desert Storm, 
platforms that can identify and detect chemical and biological 
agents that are in the air and in the ground. We have also 
collected information on every single one of our marines so 
that we have good medical data baseline to try to, if anything 
happens, to try to determine what change has occurred.
    Senator Clinton. I really applaud you for that and I hope 
that every Service can move toward that. We have found post-
September 11 in New York the fire department had baseline 
screenings, the police department did not. It is much more 
difficult to figure out what the exposures led to when you do 
not know what the starting point was. So I very much appreciate 
what the Marine Corps has done on that.
    General Jumper. Senator, I agree with General Hagee. I 
think the baselining activity plus the steps that have been set 
up to gather data around the locations is much more 
sophisticated than we saw last time, and hopefully the root 
causes of these things can be determined in time to be of help.
    Senator Clinton. I thank you.
    Mr. Chairman, I think this has not only implications for 
our men and women in uniform, but rather significant civilian 
ramifications as well. I greatly appreciate the chiefs taking 
this on as an issue and I look forward to following with great 
concern what we learn and how we respond.
    Chairman Warner. Senator, I know firsthand of your deep 
concern about the veterans who have returned from Afghanistan 
and other far-flung parts of the globe as to their health, and 
I commend you for those initiatives that you have undertaken.
    Senator Roberts.
    Senator Roberts. Thank you.
    Gentlemen, thank you for your leadership and what has been 
referred to doubtless all at the table as your favorite word, 
for persevering in your command and, quite frankly, here at the 
hearing.
    General Shinseki, well done, sir.
    General Shinseki. Thank you, sir.
    Senator Roberts. You have provided outstanding leadership 
and I think your legacy is going to be better transformation of 
the legacy weaponry, and so you have achieved a great deal and 
we thank you for that.
    General Shinseki. Thank you, sir.
    Senator Roberts. Thank you for working with our former 
Commandant, General Jim Jones, who is the SACEUR. I think 
before a hearing some time ago, I said we did not need two tips 
and two spears; we needed one tip and one spear. We have done 
that in regards to working with the Marine Corps and the Marine 
Corps working with you, sir. So we thank you for your 
innovative leadership.
    General Shinseki. Thank you, sir.
    Senator Roberts. As a survivor along with Senator Levin of 
Senator Warner's forced march, which was disguised as a CODEL, 
to possible war zone countries where we are fighting and in my 
opinion winning the war on terrorism, I want to say that we 
have an obligation to meet with a number of men and women in 
uniform on the front lines. As chairman of the Intelligence 
Committee, I want to go out and check the intelligence to our 
warfighters. We went to Kuwait, Afghanistan, and Qatar as well 
as other locations, and we survived. I think we did, Carl. I am 
not quite sure.
    But at any rate, I can report that the cooperation between 
our intelligence and our military personnel is as close as it 
has ever been. We now have in place information systems that 
will allow rapid access to current intelligence from the 
commander all the way down to the marine or soldier in the 
field.
    It is my judgment that we are really learning the lessons 
of Operation Desert Storm and September 11.
    Mr. Chairman, I hope we would not spend too much time 
arguing about who constitutes the greatest threat to us right 
this second. Is it Saddam Hussein, Kim Jong Il, Supreme Leader 
Ali Khamani in Iran, or Osama bin Laden? They are all major 
threats, all challenges to U.S. security here at home. They get 
worse with time if not acted upon. They all represent very 
unique geopolitical circumstances. They demand very tailored 
situations or solutions, and they all demand action now, but 
different kinds of action.
    I have more or less a speech on this and I would ask 
permission that my full statement be inserted in the record at 
this point.
    Chairman Warner. Without objection.
    [The prepared statement of Senator Roberts follows:]

               Prepared Statement by Senator Pat Roberts

    Thank you Mr. Chairman. Gentlemen, thank you for your leadership. I 
want to thank Admiral Clark and General Jumper for their perseverance 
not only in service to our Nation but also in communicating with this 
committee. General Shinseki, well done, sir. Thank you for your 
leadership as Chief of Staff of the Army. Your legacy will be 
transformation, the shift from the systems of the past to the platforms 
and capabilities of the future.
    Last week, along with Senator Levin, I survived Senator Warner's 
forced march to possible war zone countries in which we are fighting 
and, in my opinion, winning the war on terrorism. I had the pleasure of 
visiting our men and women in uniform on the front lines.
    As chairmen and ranking members of the Intelligence Committee and 
Armed Services Committee, we were able to talk directly to the folks 
getting the job done for America's security from their stations in 
Kuwait, Afghanistan, Qatar, and other locations.
    I can report that the cooperation between our intelligence and 
military personnel is as close as it has ever been. We now have in 
place information systems that will allow rapid access to current 
intelligence from the combatant commander all the way down to the 
marine or soldier in the field.
    I also observed a keen appreciation for the need to fully share 
intelligence information. It is my judgment that we are learning the 
lessons of Operation Desert Storm and September 11 well.

                                THREATS

    I hope we do not spend too much time today arguing about who 
constitutes the greatest threat to us right this second. Is it Saddam 
Hussein, Kim Jong Il, Supreme Leader Ali Khamenei in Iran, or Osama bin 
Laden? They are all major threats, challenges to U.S. security here at 
home that get worse with time if not acted upon.
    They all represent unique geopolitical circumstances demanding 
tailored solutions. Indeed, they all demand action now but different 
kinds of action. Just because the military instrument of power is the 
choice for responding to Osama bin Laden and may become the choice for 
responding to Iraq, it by no means suggests force is appropriate right 
now for North Korea or ever in the case of Iran.
    It's not that simple and we ought not to mistake complexities in 
the threat picture for contradictions in policy. For example, North 
Korea, as dangerous and unstable as it is, has not invaded its neighbor 
to the south since 1953.
    We cannot say the same for Saddam Hussein who invaded Kuwait in 
1990 with what looked at the time like intentions for Saudi Arabia as 
well. Not to mention the fact that, to my knowledge, North Korea is not 
currently harboring senior members of a terror network led by a close 
associate of Osama bin Laden, Mr. Abu Musab al-Zarqawi.

                                  IRAQ

    But this is really beside the point. In passing H.J. Res 114, 
Congress specifically authorized the President to ``use the Armed 
Forces of the United States in order to: (1) defend the national 
security of the United States against the continuing threat posed by 
Iraq; and (2) enforce all relevant United Nations Security Council 
resolutions regarding Iraq.'' Colleagues, that resolution passed the 
Senate 77 to 23 on October 11, 2002.
    This action was, of course, in addition to the Iraq Liberation Act, 
which Congress passed and President Clinton signed in to law October 
31, 1998. That act clearly states the U.S. should foster regime change 
in Iraq.
    Lastly, on November 8, 2002, the U.N. Security Council passed 
Resolution 1441 which gave Iraq one last opportunity to comply with its 
disarmament obligations.
    Now, months later, the Director of Central Intelligence (DCI) has 
told us unequivocally that ``Iraq has in place an active effort to 
deceive the U.N. inspectors and deny them access. This effort is 
directed by the highest levels of the Iraqi regime. Baghdad has given 
clear directions to its operational forces to hide banned materials in 
their possession.''
    Further, the DCI stated ``Iraq's biological weapons program 
includes mobile research and production facilities that will be 
difficult, if not impossible, for the inspectors to find. Baghdad began 
this program in the mid-1990s--during a time when inspectors were in 
the country.''
    Even the latest U.N. assessments directed by Dr. Blix indicate 
Saddam Hussein is still not complying. Colleagues, let us be candid. No 
amount of U-2 surveillance flights nor increase in the number of 
inspectors will solve this problem, at the very least with respect to 
biological weapons. Let's be honest. The U.S. Government has bent over 
backwards to manage the threat from Saddam Hussein without further 
military action.
    I thank the chair.

    Senator Roberts. I want to go first of all to the 
commandant and ask him a question in regards to SOCOM, and I 
know that they have a lot of operations. Everybody has 
operation stress. But I understand we have 81 marines, 5 
sailors organized, trained, and equipped for special 
reconnaissance and direct action and other special operations 
missions, who will be under the SOCOM operational control by 
October of this year. I understand the answer is yes; is that 
correct?
    General Hagee. That is correct, sir.
    Senator Roberts. All right. I hope we can continue that 
partnership.
    I am going to get down to your warfighting lab in Quantico, 
VA, as soon as I can. I apologize for not coming sooner. One of 
the questions I had as we were out to Camp Commando and Camp 
Coyote out there in Kuwait; I was so proud of our marines, who 
are operating basically in a sand trap and still performing and 
training their mission, and I am not surprised. You already 
answered this question in splendid fashion about our WMD 
capability and I thank you for that answer.
    I have a question for General Jumper. Do you remember the 
old baseball combination--you and I are not too far off in age 
difference--of Tinkers to Evers to Chance?
    General Jumper. I am afraid not, sir.
    Senator Roberts. You do not? Well, anybody else? Somebody 
say they remember that. Will you, please?
    Senator Clinton. Over here, Pat. I remember.
    Senator Roberts. Admiral Clark?
    Okay, thank you. I thank Senator Clinton.
    Well, Senator Inhofe talked about Tinkers to Evers to 
Chance when he mentioned the KC-135s and the lease agreement 
that we are now working with under the national security 
requirements. So General Jumper, I am not opposed to Tinker, 
but I do not want to take a chance.
    General Jumper. Yes, sir.
    Senator Roberts. So consequently I would like to ask, if 
the lease proposal under review is not approved, how will 
procurement of replacement tankers be accelerated? I do not see 
any plans down the road to do that other than to retire the 68, 
who really should be retired. I do not think we have any other 
alternative than to go to the lease agreement. Now, that is a 
tough thing. I do not want to get you in between Jim and 
myself, but that is where you are.
    General Jumper. Sir, it is a tough decision we have to 
make. As a matter of fact, the plan to accelerate the 
procurement plan which we already had on the books was the 
lease, and we put this lease agreement on the table for 
everyone to take a look at. It has been thoroughly scrutinized 
and the Secretary of Defense is looking at it now along with 
his lease committee there in the building and we are awaiting 
the decision.
    Senator Roberts. I hope the decision comes soon, and I 
would point out that the distinguished chairman and ranking 
member are on record as supporting this. I do not have to say 
that; they will, but I thought I would anyway.
    General Shinseki, recent reports indicate the Secretary of 
Defense is considering realignment of our force structure in 
Europe. I know that our new SACEUR thinks the same way. As part 
of this review, let me ask you, is the Army considering 
bringing any force structure from Europe back to the United 
States?
    General Shinseki. Senator, we await the analysis that 
General Jones is undertaking at this point. What we have always 
said is a clear strategy is the best route to that long-term 
stationing set of decisions, and we think General Jones's 
insights will be helpful here. If the answer is to bring forces 
home, we will do that. If it is to keep what we have there, 
albeit in different configurations and locations, we are 
prepared to support that as well.
    Senator Roberts. I thank you very much.
    My time has expired, Mr. Chairman.
    Senator Levin. Mr. Chairman, could I just have 10 seconds 
for the record there. Just so that I do not mislead anybody, my 
statement has been consistently that whether or not I would 
support that lease will depend upon the numbers and the facts 
as provided to us. I have been one that is more than willing to 
look at that as an option, but I just do not want to mislead my 
good friend from Kansas by my silence.
    Senator Roberts. If the Senator would yield, I will be 
happy to be a blocking back for him any time on this decision, 
and we will just let you carry the ball, sir.
    Senator Levin. Thank you.
    Chairman Warner. Members of the committee, it is now the 
completion of the first round. We have had an excellent hearing 
this morning and the attendance has been at an all-time high, 
showing the concern of our members.
    It is the intention of the chair, in consultation with my 
ranking member, to go into a closed session now. But the 
ranking member does have a prior commitment which requires his 
asking one or two questions now before the closed session, and 
I am happy to accommodate him.
    Senator Levin. Thank you very much, Mr. Chairman.
    I want to just ask General Shinseki about his reference to 
the missile defense system. I believe Senator Allard raised 
this issue. On January 2, Secretary Rumsfeld established some 
new procedures for the development and oversight of missile 
defense programs. This is what the memo said, ``The Secretary 
of Defense will decide whether to use test assets for emergency 
or contingency deployment based on an assessment of military 
utility, progress in development, and recommendation by the 
Director of MDA and military Services.''
    The President has now decided to deploy a national missile 
defense system in 2004 and the Department of Defense has asked 
to waive the legal requirement for independent operational 
testing of this system prior to deployment. I understand, 
General Shinseki, that the Army is going to be asked to operate 
this national missile defense system starting in 2004.
    Here is my question: have you provided an assessment of the 
military utility of the national missile defense system to be 
deployed in 2004?
    General Shinseki. I do not recall providing personally a 
specific recommendation of that sort.
    Senator Levin. All right. Will you check your records and 
if there has been such an assessment, would you share that with 
this committee?
    General Shinseki. I will do that, Senator.
    Senator Levin. Prior to the decision to deploy, did 
Secretary Rumsfeld ask you for advice regarding the military 
utility of the national missile defense system as it would 
exist in 2004?
    General Shinseki. I am not aware of that request.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. That concludes your questions?
    Senator Levin. May I just have one question of General 
Jumper? It has to get to this issue of the Predators. We were 
out there. We have seen the value of the Predators just in so 
many places now, most recently where we visited in the last 
week. Is there any way of increasing the production from over 
three a month?
    The demand on these assets is huge. Their value is extreme. 
They can make a huge difference. Everybody wants them, but we 
need them in that theater I guess as much as anyplace. What 
efforts have been made to increase, get a new production line 
going somewhere else, get a license agreement going out?
    General Jumper. Sir, there are several mitigating features 
of the Predator. First, it was an advanced concept technology 
demonstration (ACTD), that is, that was handed to the Service. 
In that technology demonstration it took one ground station to 
fly one Predator. One of the things we are trying to do in the 
development is figure out how to fly several airplanes from one 
ground station. Until we get that problem solved, there is 
really no use in upping the numbers of productions because we 
are ground station-limited in the number of airplanes that we 
can put up at any one time.
    We are working hard to solve this problem and once we do 
and once we get the Predator B model under contract, then we 
are going to have to decide if we want to shift all to B models 
or have a mix of As and Bs. We have decided already we are 
going to buy 128 of these things, if that is the force 
structure that we need, and I think the program we are in right 
now will answer a bunch of very important questions before we 
make a decision about whether to open another production line 
or not.
    But we will keep you close to that, Senator, because it is 
a concern of ours as well.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. I join my colleague's view about that. We 
went to certain sites on our trip. I think we are going to have 
to revisit your current objectives and perhaps have Congress 
inject itself in that decisionmaking, because the dependence on 
this system, not only by the military--you know of other 
segments of our Government that are drawing down those assets, 
and the remarkable performance to date and the versatility of 
this system, it just extrapolates into saving lives of the men 
and women of the Armed Forces and others involved in this 
system. So shall we conclude saying that the attention of 
Congress is at full span on this.
    General Jumper. Absolutely, sir.
    Chairman Warner. We are there to support you.
    General Jumper. I understand and I appreciate that very 
much, Mr. Chairman.
    Chairman Warner. Thank you.
    Yes, go ahead.
    Senator Levin. Mr. Chairman, you very kindly have requested 
certain information from the CIA at our last meeting relative 
to suspect site numbers. There was a very strong disagreement 
here between myself and Mr. Tenet relative to what had been 
supplied to the U.N. and the chairman was very much involved in 
a number of conversations in this regard, as were Senator 
Roberts and others.
    The record is clear that this is a significant issue about 
which some of the statements made by the CIA in letters to me 
were in my judgment significantly different from some of the 
statements that Director Tenet made before this committee and 
the Intelligence Committee. In an effort to amplify or clarify 
that issue, I believe that the chairman had indicated that he 
had requested the CIA for a letter at our last meeting, which I 
believe was the 13th of February.
    But I just wanted for the record to determine whether or 
not such a letter has been received?
    Chairman Warner. I wish to advise my colleague and other 
members of the committee that that letter has not been 
received. But in the context of my requesting in an open 
hearing of the Director of the CIA for such letter, I indicated 
my own judgment, having reviewed I think almost all the facts 
that you had before you with the exception of your important 
visit to meet with Hans Blix. It was my judgment that the 
administration had in good faith provided on a real-time basis 
as much information as it possessed that was relevant to the 
inspections.
    But you are correct, the letter which I requested has not 
yet been received.
    Senator Levin. I had set forth on the record the 
discrepancies, not in numbers but in terms of overall rank of 
percentage that was very significantly different in terms of 
what the classified information was supplied to me and the 
representations of the Director at the Intelligence Committee 
and before this committee.
    It is a very important issue. I think it is very important 
that the CIA carry out not just its commitment to the chairman 
that they supply a letter in this regard, but, frankly, a 
number of commitments that it has made to me that it has not 
carried out in terms of written updates, and a letter to Mr. 
Tenet will be going from me relative to those commitments this 
afternoon.
    But I want to thank the chair for this bringing us up-to-
date on that letter, which was not yet forthcoming from the CIA 
to him. Thank you, Mr. Chairman.
    Chairman Warner. At this time the open portion of this 
hearing is concluded. But again, I wish to commend our four 
distinguished witnesses for an excellent hearing, and I thank 
my colleagues who turned out in strong numbers to receive this 
important testimony today and ask questions.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John Warner

                   SHIPBUILDING FUNDING ALTERNATIVES

    1. Senator Warner. Admiral Clark, in reviewing the budget request, 
it appears that the first ship for two classes of ships, the Littoral 
Combat Ship (LCS) and the DD(X) destroyer, will be funded with 
research, development, test, and evaluation (RDT&E) funds. However the 
first aircraft carrier of a new class, the CVN-21, is to be funded from 
the shipbuilding account, split over fiscal years 2007 and 2008. Why is 
it that the first ships of two classes were funded with RDT&E funds, 
but the CVN-21 was not?
    Admiral Clark. In the case of LCS and DD(X), both new hull designs 
with multiple transformational technologies, the use of RDT&E for the 
lead ships will aid in stabilizing these new construction programs 
through better management of the inherently higher risks. Furthermore, 
yearly review of RDT&E budgets will improve the fidelity in the 
execution year budget requirement and allow flexibility to adjust out 
year budgets if critical technologies are delayed or require additional 
maturation. While CVN-21 will also incorporate transformational 
technologies, the hull form will be similar to current proven carrier 
designs, thus incurring less risk in ship construction than LCS and 
DD(X). As such, funding CVN-21 in SCN is appropriate.

                          LITTORAL COMBAT SHIP

    2. Senator Warner. Admiral Clark, last month the Naval Warfare 
Development Command published the Concept of Operations for the LCS, in 
which it stated: the LCS will contribute to Sea Shield through its 
unique capability to respond quickly, to operate in the littoral 
environment, and to conduct focused missions with a variety of 
networked off board systems. The budget request calls for the first of 
these ships to be purchased with RDT&E funds in fiscal year 2005, even 
though it appears the requirement has not yet been finalized. What is 
your vision for the LCS? How will it contribute to the overall 
effectiveness of the fleet?
    Admiral Clark. My vision for the LCS is a networked, fast, 
stealthy, shallow draft vessel designed to gain and sustain our access 
to the littoral to enable the flow of Joint Forces ashore. LCS will use 
a system of systems approach, employing networked sensors, modular 
mission payloads, and a variety of unmanned vehicles. It will have 
robust self-defense capability at its core and an open computing 
architecture that will enable the modularity we seek.
    Key to LCS's capability will be the use of mission modules which 
will allow LCS to perform a specific mission such as anti-submarine 
warfare, mine warfare, or anti-surface warfare. Furthermore, these 
modules will be forward staged and capable of being rapidly installed, 
enabling LCS to be quickly modified to change missions as operational 
priority dictates.
    LCS will assure the Joint Forces access to contested littorals, and 
will defeat the anti-access strategies any potential adversary may 
employ. Equally important, the mission-tailored LCS permits our large, 
multi-mission combatant ships to conduct those missions for which they 
were optimally designed, such as ballistic missile defense, area air 
defense, and naval surface fire support to our marines and other Joint 
Forces ashore.

    3. Senator Warner. Admiral Clark, how much additional funding would 
be required in fiscal year 2004 to accelerate the development of this 
ship?
    Admiral Clark. An additional $35 million in fiscal year 2004 would 
reduce risk in development of anti-submarine, anti-surface, and mine 
hunting mission modules for Flight 0 of the LCS.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                           RESERVE COMPONENT

    4. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, I continue to be impressed with the greater role 
that our Reserve component service members play in our National 
Military Strategy. For example, General Shinseki's statement that 
``today, more than 50 percent of our soldiers are in the Reserve 
component.'' General Jumper's statement that ``Air Reserve Component 
Forces comprise nearly half of the forces assigned to the Air and Space 
Expeditionary Force squadrons, groups, wings, and contribute the 
majority of forces for some mission areas.'' Even the Navy, which 
traditionally has a much smaller Reserve Force, is making history. 
According to press accounts, ``A group of naval reservists from Texas 
and Arizona are making history on the deck of the U.S.S. Theodore 
Roosevelt (CVN-71). For the first time since the Korean War, an entire 
Naval Air Reserve Squadron has been deployed aboard an aircraft 
carrier, Strike Fighter Squadron (VFA) 201 flying F/A-18s.'' Admiral 
Clark, I am sure you are receiving the same reports I am. VFA-201 has 
the best sortie completion rate--100 percent, best carrier landing 
boarding rate, day/night landing grades and readiness, and during 
COMPUTEX scored 100 percent on missile and bomb drops.
    Please explain how the fiscal year 2004 Defense budget provides 
adequate training and modernization funds for Reserves so you can 
continue to rely on them over a sustained period of time, in modern 
equipment like VFA-201 has?
    General Shinseki. The fiscal year 2004 Defense budget provides 
adequate training dollars; however, the Army lacks adequate 
modernization/equipment funding for the Reserve components. With 
support from Congress, we have made great strides in improving the 
training dollars for the Army National Guard and Army Reserve.
    Admiral Clark. Navy formally reviews Naval Reserve modernization 
requirements as a part of its resource allocation process. As a result 
of that assessment, the validity and priority of those requirements are 
judged in the context of all other Navy and Naval Reserve modernization 
requirements.
    I am pleased to report that the fiscal year 2004 Defense budget 
funded Naval Reserve modernization accounts at a higher level than 
Defense budgets of the past 3 years (fiscal year 2004 is approximately 
$32 million higher than fiscal year 2003). The fiscal year 2004 budget 
continues modernization of the Naval Reserve Air Fleet by providing 
funds to procure an additional C-40A ``Clipper'' aircraft. The C-40 is 
a derivative of the Boeing 727 and is replacing the aging fleet of C-9 
logistics aircraft. Additionally, the Flying Hour Program is funded to 
meet 100 percent of the notional training requirement for Reserve 
pilots. The increased operating and modernization funds have been 
targeted to sustain a level of Reserve participation in Navy operations 
that are essential for us to continue to project influence throughout 
the globe.
    As always, there have been some reductions and some increases in 
the individual procurement accounts that reflect the changing 
priorities of a transforming Navy undergoing recapitalization. A good 
example of this is the integration of Navy and Marine Corps tactical 
aviation forces that tailors future force structure in recognition of 
increased capability of the airframes and munitions. One outgrowth of 
this restructuring was the disestablishment of a Naval Reserve and a 
Marine Corps Reserve Fighter/Attack squadron in the fiscal year 2004 
Defense budget request.
    The decisions reflected in the budget demonstrate Navy's intent to 
invest in those priorities, to the extent it is affordable. 
Unfortunately, there are also always high-priority requirements that 
could not be funded. Within constrained top-lines, lower priority 
requirements--both active and Reserve--will not be funded. Those that 
cannot be funded are considered for inclusion in Navy's list of high-
priority unfunded programs, a copy of which is made available to 
Congress. Historically, Congress has aided Reserve Modernization 
through the National Guard and Reserve Equipment Appropriation (NGREA). 
Dramatic decreases in NGREA have had an impact on Reserve 
modernization.
    General Hagee. The Marine Corps has built an efficient and 
effective Total Force. Maintaining our expeditionary readiness depends 
upon high-quality Marine reservists as a key part of our Total Force. 
Their training, leadership, quality of life, and equipment 
modernization will continue to be of the utmost importance.
    The fiscal year 2004 Defense budget request provides funding in the 
Operations and Maintenance, Marine Corps Reserve (O&MMCR) and Reserve 
Personnel Marine Corps (RPMC) appropriations that will adequately 
support the training requirements of Marine Forces Reserve (MARFORRES) 
units and personnel. In fiscal year 2004, MARFORRES units are scheduled 
to conduct live-fire exercises and participate in amphibious, desert, 
jungle, mountain, and cold weather training. Fiscal year 2004 funding 
will support individual and unit participation in Total Force exercises 
such as: Combined Arms Exercise and Desert Scimitar in Twentynine 
Palms, CA; Weapons and Tactics Instructor course in Yuma, AZ; Ulchi 
Focus Lens in Korea; Cobra Gold in Thailand; Kernal Blitz in CA; 
Rolling Thunder in Fort Bragg, NC; and UNITAS in South American 
countries. These exercises provide operational tempo (OPTEMPO) relief 
to the active component and provide increased opportunities for 
reservists to support the Total Force effort throughout the world. 
However, the execution of these exercises, rely heavily on robust OMMCR 
appropriations and RPMC Active Duty Special Work (ADSW) budgets.
    One of the Marine Corps pillars of readiness focuses on ongoing 
modernization initiatives. The Marine Corps makes every effort to 
resource the Reserve component at levels similar to the active 
component. This effort gives the Reserve Forces the ability to fully 
integrate into the Total Force, especially during periods of 
mobilization when augmenting and reinforcing the active component in 
sustained combat operations. The fiscal year 2004 Defense budget 
provides funding for a series of incremental and affordable 
modernization efforts for our legacy systems including: upgrades to 
aviation systems (CH-46E, CH-53E, C-130T, and F/A-18A) and ground 
systems such as the Amphibious Assault Vehicle Product. Improvement 
Program; and new procurements of ground systems (Thermal Weapons Site, 
the Lightweight 155 Towed Howitzer, and the High Mobility Artillery 
Rocket System (HIMARS)).
    General Jumper. The President's budget request for fiscal year 2004 
and the out years provide the resources for the Air Force Reserve 
Command to undertake one of the biggest aircraft modernizations in the 
past 2 decades, after the procurement hiatus in the 1990s. Force 
structure associated with the C-141 will be realigned to support newly 
built C-17 Globemaster IIIs, C-5As, and KC-135s. C-5 B-models will be 
added to the AFRC fleet. The upgraded KC-135R air refueling tanker will 
replace the last of AFRC's KC-135 E-models. The oldest C-130Es in the 
fleet will be replaced by newer more capable H-model C-130s and newly 
built C-130J aircraft. The fiscal year 2004 President's budget provides 
a much needed jumpstart to the Air Force Reserve equipment 
modernization program, ensuring that the Air Force Reserve remains a 
robust and capable partner in the Total Force team.
    Additionally, the budget covers the cost of training Air Force 
Reserve personnel that have been called on in great numbers to 
participate in Operation Enduring Freedom, Operation Noble Eagle, and 
Operation Iraqi Freedom. Participation levels have risen sharply since 
September 11, 2001, further increasing pressure on  available training 
dollars. The Air Force Reserve continues to make great strides in 
efficient resource management by outsourcing support jobs and 
partnering with the active component to maximize long-term combat 
capability through the rebalancing of the Active/Reserve Force mix.

    5. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, what antiquated Reserve policies still exist in 
statute that you would like us to change that negatively affect the way 
you do business today? By incorporating Reserves in an even greater 
effort into the Total Force?
    General Shinseki. There are several ongoing studies by the General 
Accounting Office, the Wexford Group, the Army Staff, and others that 
are looking into issues like active component/Reserve component 
program, compensation reform, duty statuses, etc. The Army and the 
Department of Defense will be studying the recommendations with great 
interest and will alert Congress to any recommended policy changes that 
require legislative action.
    Admiral Clark. It would be premature to request a statutory change 
prior to completion of the Department's studies on Total Force 
integration and the mobilization/force deployment process.
    That said, we have made modifications to our internal policies and 
coordinated changes to Department of Defense policies to improve 
Reserve integration. These changes include the minimization of second-
year involuntary recalls, implementation of a narrowly focused active 
and Reserve stop-loss policy (in effect for 5 weeks, affecting fewer 
than 100 sailors), and implementation of the Navy-Marine Corps 
Mobilization Processing System (NMCMPS), which provides web-based 
requirements, sourcing, and processing.
    General Hagee. First, the Marine Corps Reserve is an integral part 
of the Marine Corps Total Force concept. Our Selective Marine Corps 
Reserve Units are a mirror image of our active component units allowing 
them to quickly integrate into our active component fulfilling their 
traditional roles of augmenting and reinforcing Marine Expeditionary 
Forces. Second, there are currently no statutory restrictions that 
negatively impact the Marine Corps Reserve's ability to support the 
total force. However, legislative assistance in the following areas 
will allow the Marine Corps to provide a greater level of continuous 
support to the Total Force.

        <bullet> Montgomery GI Bill (MGIB-SR)--Selected Reserve 
        Benefits Obligation Period Reduction. This would modify the 
        eligibility criteria to ``not less than 4 years'' in order to 
        allow the Services the option of offering MGIB-SR benefits to 
        recruits incurring a 4x4 contractual obligation in addition to 
        the obligation period of ``not less than 6 years'' required for 
        MGIB-SR benefits. This would increase the potential pool of 
        SMCR recruits.
        <bullet> Consistency in Reserve Strength Accounting and 
        Management. This proposal would revise Title 10, U.S.C. Section 
        115 exempting Reserve personnel serving on active duty for 180 
        days or more from counting against active duty end strength. 
        Approval of this change would ensure that a Reserve member who 
        is exempt from counting against active duty end strength would 
        also be exempt from counting against active duty grade strength 
        and would be exempt from inclusion on the active duty list. 
        This revision would likely remove barriers to Reserve component 
        participation and greatly enhance our flexibility in employing 
        reservists in support of operational requirements.
        <bullet> Limitation of Initial Payment of Enlistment and 
        Reenlistment Bonuses for the Selected Reserve. Currently, Title 
        37 limits the initial payment of these bonuses to one-half of 
        the total value. By increasing the initial payment amounts, the 
        recruiting and retention value of these bonuses would be 
        greatly enhanced and increase SMCR recruiting and retention 
        efforts.

    General Jumper. A number of proposals have been included in the DOD 
Omnibus submission to Congress, or are being submitted through the 
fiscal year 2005 Unified Legislation and Budgeting cycle, to align 
Reserve policies with the new steady state. We have always worked as a 
team in the Air Force and will continue to set the standards for Total 
Force commitment through discussion of these current initiatives and 
those that may arise at a future date, to include the following:

        <bullet> Extending Hostile Fire and Imminent Danger Pay to 
        Reserve component Members on Inactive Duty
        <bullet> Position Vacancy (Below the Zone) Promotion 
        Consideration in Time of War or National Emergency
        <bullet> Military Leave for Mobilized Federal Civilian 
        Employees
        <bullet> Streamline the process to continue Officers on the 
        Reserve Active Status List

                                  PAY

    6. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, I am looking at the pay tables here. In 2000, the 
law prescribed military pay raises to be ECI plus 0.5 percent. 
According to the tables, E-1s to E-3s will receive a 2-percent pay 
raise. Is that enough?
    General Shinseki. Since fiscal year 2000, military pay has improved 
substantially relative to the 70th percentile benchmarks recommended by 
the 9th Quadrennial Review of Military Compensation for junior officers 
and junior enlisted personnel. Only the most junior enlisted personnel 
and officers would receive less than 3.7 percent or Employment Cost 
Index (ECI) plus 0.5 percent. E-1s would receive 2 percent while E-2s 
would receive 3.2 percent. It should be noted, however, that these pay 
grades are transitional-members are in them for a short time. Their pay 
is now close to the 90th percentile while pay for mid-grade and senior 
noncommissioned officers is still below our target. We continue to 
support military pay raises of ECI +0.5 percent; however, we believe it 
is appropriate to redistribute the pay raise--putting more pay where it 
is needed while being assured that entry-level pay is very competitive.
    Admiral Clark. I believe that it is enough for E-1s. We have 
proposed a 3.2-percent raise for E-2s and E-3s. That said, when we 
request targeted pay raises, we do so with one principal objective in 
mind: provide incentive in a competitive work force. We expect our E-1 
to E-3 personnel to move quickly through those pay grades and on to 
positions of leadership at the petty officer level. I remain convinced 
that targeted pay raises in these leadership pay grades are a valuable 
motivator of performance in our most junior personnel.
    General Hagee. The 2 percent pay raise is focused on E-1s only. E-
1s are automatically promoted to E-2 after 6 months of service, which 
is normally about the time they complete their MOS training and go to 
their first duty station. E-2s are scheduled for a 3.2-percent raise 
and E-3s are scheduled for a 3.7-percent raise. Congress instituted the 
ECI +0.5 percent to close the gap between military and comparable 
private sector pay and currently E-1s are at or near the 90th 
percentile.
    General Jumper. The proposed pay raise, if approved, will increase 
E-1 pay by 2 percent. This is approximate to the increase in inflation. 
Personnel in grades of E-2 will receive a pay raise equal to the ECI 
(3.2 percent) and E-3s will receive a 3.7-percent raise.
    Our junior enlisted personnel entering the Service in the grades of 
E-1/E-2 are in the transition phase of their career. An E-1 will 
advance to the grade of E-2 once they reach 6 months time-in-grade 
(TIG). An E-2 will advance to E-3 when reaching 10 months TIG. Upon 
completion of basic training and tech school, most airmen will already 
have advanced to the grade of E-3.
    The proposed raise continues our efforts of previous years to 
reduce the disparity between military pay and private sector, which 
contributes to quality force retention. Additional targeting will also 
result from a redistribution of the pay raises. Our most junior 
members' compensation is now close to the 90th percentile of comparable 
civilians while pay for Senior NCOs is still below the 70th percentile 
target. We believe it is appropriate to redistribute the pay raise--
putting more pay where it is needed while ensuring the entry-level pay 
remains very competitive.

    7. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, what is the projected pay raise for general and 
flag officers?
    General Shinseki. The projected pay raise for general officers for 
2004 is 3.7 percent, ECI plus 0.5 percent; however, general officer pay 
is capped at Executive Schedule Level III, which is currently $142,500.
    Admiral Clark. The projected 2004 pay raise for flag officers in 
the pay grades of O-7 through O-9 is 3.7 percent, which equates to the 
by law increase of ECI plus 0.5 percent. The statutory requirement that 
caps flag officer pay at the equivalent rate for level III of the 
Executive Schedule is expected to result in no increase in basic pay 
for officers in the pay grade of O-10.
    General Hagee. The projected pay raise for O-7 through O-10 general 
and flag officers is 3.7 percent (ECI0 +0.5 percent).
    General Jumper. Their projected fiscal year 2004 pay raise is 3.7 
percent. Unless overt action is taken, the four-star pay will remain 
capped, which may create a situation in which there is virtually no 
difference in three- and four-star pay.
Currently:
        - 3-star base pay: $11,319.60
        - 4-star base pay: $11,874.90 (capped)

Projected:
        - 3-star base pay with 3.7 percent increase: $11,738.40
        - 4-star base pay: $11,874.90 (capped)

    8. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, if it is enough for E-1s, then is it enough for 
generals and admirals?
    General Shinseki. The projected pay raise for all our career 
noncommissioned officers and commissioned officers is 3.7 percent, ECI 
+0.5 percent, in recognition of their commitment to service and 
associated responsibilities commensurate with their grade. E-1 pay is 
now close to the 90th percentile relative to their civilian 
counterparts based on experience and education. Additionally, E-1s are 
only in this pay grade for a very short period of time.
    Admiral Clark. We are trying to retain the best people in the Navy, 
from E-1 to O-10. To do that, my folks need to have not only superior 
job content and quality of service, but they need a pay system that 
produces powerful incentives for promotion and retention.
    Right now, Navy flag officers are paid at or near the 70th 
percentile of comparably educated civilians, a level determined by the 
9th Quadrennial Review of Military Compensation (QRMC) as necessary to 
enable the military to recruit and retain the quantity and quality of 
personnel it requires. By contrast, personnel in pay grade E-1 are 
currently at the 90th percentile. Accordingly, I believe that the 3.7-
percent pay raise (Employment Cost Index +0.5 percent), provided for in 
37 U.S.C. Sec. 1009, is appropriate to maintain flag and general 
officer pay at a level consistent with their responsibilities, while a 
2 percent raise for E-1s will help maintain their purchasing power, 
similar to or above that of their civilian counterparts.
    General Hagee. Congress instituted the ECI +0.5 pay raise to close 
the gap between military pay and comparable private sector pay. After 
considering the relative value of military compensation against the 
private sector wages by age, education level, and experience, DOD 
targeted the pay raise to more aggressively close the gap between NCOs/
SNCOs and their private sector counterparts. All enlisted personnel E-3 
and above will receive a 3.7-percent pay raise or more, consistent with 
properly targeting the pay raise to bring them closer to the 
recommended 70th percentile of their civilian counterparts. Similarly, 
all officers, except second and first lieutenants with no prior 
enlisted service, to include general officers, will receive a 3.7-
percent pay raise consistent with the 9th QRMC review. These officers 
will receive a 3.2-percent pay raise keeping them above the 70th 
percentile.
    General Jumper. In line with the 9th QRMC, DOD is targeting pay 
increases for our mid-level to senior enlisted personnel ranging from 
4.6 percent to 6.25 percent. Pay for E-1s will increase 2 percent, 
approximately equal to the increase in inflation. A 2-percent pay raise 
will maintain the purchasing power of E-1 pay and will maintain their 
compensation close to the 90th percentile of comparable civilians 
(recent high school/college graduates). E-2s and O-1/O-2s will receive 
a 3.2-percent pay raise, which is equal to the ECI. All others will 
receive 3.7 percent to include generals and admirals. A 3.7-percent 
increase for general officers will slightly improve their purchasing 
power and maintain their compensation close to that of CEOs leading 
small companies (revenue under $2 million/year).*
---------------------------------------------------------------------------
    * Source: Executive Compensation, June 2001

    9. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, what effect will this have on those E-1s on the 
lower end of the pay scale with respect to getting the last of our 
military personnel off of food stamps, or will we backslide and be 
putting personnel back on food stamps?
    General Shinseki. There has been a steady and noteworthy decline in 
the number of members on food stamps since the first survey of 
participants in 1991. In 1991, there were 19,400 members on food stamps 
among all Services. Today, the Department of Defense estimates that 
there are 2,000 members on food stamps--we estimate that 1,155 are 
soldiers. The decrease in food stamp participation is primarily due to 
increases in military base pay, basic allowance for housing and 
subsistence, and implementation of the Family Subsistence Supplemental 
Allowance (FSSA). Eligibility for FSSA is based on USDA criteria for 
food stamps, except income for FSSA purposes, includes the value of 
government quarters. The USDA does not count the value of government 
quarters in determining eligibility. We know the majority of soldiers 
on food stamps live on-base, approximately 60 percent. However, since 
the FSSA requires the soldiers to count their housing as income, these 
soldiers are not eligible for FSSA and continue to receive food stamps. 
The majority of FSSA participants for the Army range from E-3s to E-5s. 
The proposed pay raise provides a raise equivalent to the employment 
cost index to E-2s and the employment cost index plus 0.5 percent to E-
3s and E-4s. We do not believe the proposed 2 percent pay raise for E-
1s will impact food stamp usage.
    Admiral Clark. As of the end of fiscal year 2002, there were 23 
Navy E-1s on food stamps, or 0.03 percent of the Navy E-1 population. 
While that is still 23 too many, we expect that the proposed 2 percent 
basic pay raise for E-1s in 2004, as well as the increases in basic 
allowance for housing (BAH) associated with the continued buy down of 
out-of-pocket expenses, will continue to drive that number down.
    General Hagee. The food stamp program is administered by the States 
and, therefore, the USMC does not have access to this data. The NDAA 00 
established a family subsistence allowance to help military families. 
The maximum amount of FSSA is $500/month and is paid based on family 
size and household income based guidelines as determined by the 
Department of Agriculture. During 2002, we paid out $78,000 in FSSA to 
48 marines. Only one was an E-1, with the majority of the recipients 
being E-3 and above with large families. We believe that the continuing 
raises in basic pay and reduction of BAH out-of-pocket expenses will 
reduce the number of marines participating in FSSA.
    General Jumper. Military pay for our airmen in the grades of E-1/E-
2 attending basic training and technical school is relatively high 
compared to their private sector counterparts so we do not consider the 
projected pay raise for E-1/E-2s to be a problem. In fact, airmen enter 
the Air Force earning basic pay already close to 90 percent of their 
civilian counterparts with the same education and experience 
background. Additionally, airmen, depending on their specialty skill, 
may be eligible for a variety of separate pays, allowances, and bonuses 
in addition to the tax advantages they receive for nontaxable income.
    Since the Services implemented the FSSA program in 2001, only 15 AF 
active duty personnel are currently certified to receive FSSA. To 
qualify for FSSA, an airmen's household income level must be less than 
the USDA Food Stamp Program (130th of poverty level). FSSA is a 
voluntary monthly tax-free cash allowance (up to $500/month) paid to a 
member and must be reported as income to all federally-funded income 
assistance programs (School Lunch Program; Women, Infant, and Children 
(WIC); and Food Stamps: Earned Income Tax Credit). In February each 
year, members must recertify for FSSA to show that their income is 
below the USDA Food Stamp Program eligibility level. In 2002, 27 
members qualified for FSSA. FSSA eligibility will fluctuate throughout 
the year as a result of changes in the member's income level 
(promotions, annual pay raises, special/incentive pays and bonuses, or 
other household income). While it is difficult to determine exactly how 
the number of personnel certified/qualified for FSSA will increase or 
decrease, the pay raises proposed will certainly be a step in the right 
direction toward reducing such numbers.
    Of the 15 families currently receiving FSSA, there are 7 E-3s with 
5-6 members in household, 2 E-4s with 6-7 members in household, and 6 
in the grades of E-5 and E-6 with 8-11 members in household. Average 
FSSA amount paid to eligible members is $308 per month. There are no 
members below the grade of E-3 currently receiving FSSA.

                              END STRENGTH

    10. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, last year, I supported a legislative proposal with 
my friend Senator Max Cleland, which called for an increase in end 
strength based on your personnel requirements. The Army reported to the 
committee that they may need 42,000 to 43,000 additional soldiers, the 
Air Force 22,000 to 30,000 additional airmen, the Navy 10,000 
additional sailors, and the Marine Corps an additional 5,000 marines.
    You and your personnel chiefs were quite clear that the requirement 
was driven by the war on terrorism and operations after September 11. 
The first 100,000 Reserve and national guardsmen that you called up for 
Operations Noble Eagle and Enduring Freedom have just returned home. We 
are engaged all over the world. Our men and women in uniform may be 
asked to do more this year than last.
    How do you propose to manage an even lower military end strength 
with increased requirements for more personnel in even more places 
(i.e., homeland security, Afghanistan, Iraq, Korea, etc.)?
    General Shinseki. While the congressionally-mandated fiscal year 
2002 active Army end strength was 480,000, the Army exceeded this end 
strength target, as well as the budgeted average strength of 474,000 
man-years. The Army finished fiscal year 2002 with an end strength of 
486,543 (78,158 officers, 404,305 enlisted, and 4,080 cadets). The Army 
was allowed to exceed the end strength targets only because of the 2-
percent flex authorized by Congress. The Army will continue to utilize 
this flex and continue to use Reserve component (RC) forces to meet 
current and emerging requirements for the global war on terrorism and 
the new strategic environment.
    This is a complex question that has no simple answer. Looking at 
our history since September 11, we have had a 480,000 Active-Duty Force 
and a sustained force of 30,000 mobilized RC soldiers on active duty 
status. The Army views these requirements as a new operational plateau 
and not as a spike. The recent increase in mobilization of the RC is a 
spike for the potential war against Iraq and increased threat levels. 
But even after the immediate spike subsides, we see the Army's 
operational requirements maintaining a new plateau. This coming June, 
both the Stabilization Force (SFOR) in Bosnia and the Kosovo Force 
(KFOR) will become RC operations to mitigate active component (AC) 
tempo. This will require the mobilization of portions of an RC division 
for SFOR and portions of another RC division for KFOR to sustain the 
operations. During this period of mobilization, RC soldiers will be in 
an active duty status. These requirements are additive to the support 
the RC is already providing to Operation Enduring Freedom and Operation 
Noble Eagle to support homeland defense and the global war on 
terrorism. Any increase in end strength will be tied to how long we 
expect the RC to maintain that operations tempo. The Army continues to 
look at whether or not the 480,000 Active-Duty Force is right and 
whether we have the right AC/RC mix in our combat, combat support, and 
combat service support formations, as well as addressing our current 
high demand/low density units.
    Admiral Clark. Embedded in our military end strength projections 
are various platform decommissionings offset by increases in 
Antiterrorism/Force Protection manning. Accelerating the retirement of 
our oldest, least capable, and most maintenance-intensive platforms was 
one of the most difficult decisions the Navy made this year. While 
aggregate warfighting capability is a better metric than the number of 
ships and aircraft in our inventory, we recognize that below a certain 
threshold numbers do matter. However, all of our analyses suggest that 
the near-term inactivations we are proposing do not compromise our 
ability to accomplish our mission, and that the fastest and most 
efficient way to recapitalize and transform the fleet is to pursue 
vertical cuts in our least capable type-model series, both in ships and 
in aircraft, and apply those savings toward procuring new ships and 
aircraft.
    In summary, Navy end strength is based on requirements that are 
largely force structure based. As older, more manpower intensive 
platforms are taken off line and replaced by more efficient ships and 
aircraft the requisite end strength decreases in concert.
    General Hagee. The Marine Corps asked for and was granted an end 
strength increase of 2,400 marines for fiscal year 2003. This increase 
was greatly appreciated and came at the right time. The 2,400 marines 
were used to replenish units depleted by standing up the 4th MEB (MEB 
Hqtrs/ AT Battalion/Chemical Biological Incident Response Force/
Security Force Company). Coinciding with the end strength increase to 
175,000, the USMC continues to look at ways to return marines to the 
operating forces. Military-civilian conversions, A-76, and outsourcing 
efforts have allowed us to return approximately 900 marines to the 
operating forces. We believe that 175,000 active component end strength 
is sufficient to meet our current mission requirements.
    General Jumper. We are examining opportunities to optimize use of 
the current end strength. We continue to look for those airmen doing 
things that uniformed people should not be doing, or those who are 
supporting agencies outside the Air Force that do not necessarily have 
to be military or Air Force resources. I would characterize this 
portion as a force and skills ``mix'' issue. Over the past year, we 
have been reviewing our core competencies--those things that we as an 
Air Force do better than anyone else, or things that we do that are 
very difficult for others to duplicate, as part of an ongoing effort to 
find areas where we can realign our military personnel from ``non-
military'' jobs into those that must be military. These core 
competencies will be implemented in a program we call the Human Capital 
Task Force, which will ensure our military force structure is placed in 
those functional areas with the highest demand and appropriateness for 
uniformed airmen. The remaining areas we've determined to not be core 
competencies, although essential, but not necessarily required to be 
performed by military members--will be studied as to whether this work 
can best be accomplished by our outstanding Federal civilian workforce 
or by outside contractors through competitive sourcing studies or an 
alternative to competitive sourcing. In addition, part of our long-term 
strategy is to overhaul our entire requirements determination process 
to better focus on core competencies.
    Though we cannot definitively tell you we will not need additional 
end strength until we are confident we have our skills mix issue 
resolved, there is no doubt ``solving'' this issue will be very 
expensive. We are looking for creative ways to pay for the increase in 
contractor costs or an increase in civilian pay dollars to pay for the 
non-``blue-suit'' work that is currently being performed by the 
military we will reassign.

                     NATIONAL CALL TO SERVICE PLAN

    11. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, my staff was recently briefed on the implementation 
of the Call to Service Plan, which Senator Bayh and I were successful 
in including in the National Defense Authorization Act for Fiscal Year 
2003. I thank the Marine Corps in particular for embracing the program 
in the commandant's statement. While I am encouraged by the new 
enthusiasm shown by the Department of Defense, compared to last year, I 
would like you to discuss how you plan to maintain this new level of 
effort to ensure this program is fully utilized. How do you intend to 
implement the 18-18-18 enlistment option approved last year?
    General Shinseki. We are not participating in the 18-18-18 since it 
was replaced by the National Call to Service Enlistment Option. 
Participants in the National Service enlistment option, upon completion 
of initial entry training, will serve in the AC for a period of 15 
months. They may then stay in the AC or choose to serve 24 months in 
the Selected Reserve. Upon completion, they may continue in the 
Selected Reserve, serve in the Individual Ready Reserve, or serve in a 
National Service Program, or any combination of the above. The Army 
will offer the incentives specified for the National Service option 
which includes the choice of one of the following: (1) payment of a 
bonus in the amount of $5,000; (2) up to $18,000 repayment on 
qualifying student loans; (3) entitlement to an allowance for 
educational assistance at the monthly rate payable for basic 
educational assistance allowances for a total of 12 months (now at $900 
per month); or (4) entitlement to an allowance for educational 
assistance at 50 percent of the monthly rate payable for basic 
educational assistance allowances for a total of 36 months (now at $366 
per month). Twenty-four military occupation specialties have been 
identified for participation in this program.
    Admiral Clark. Navy, in coordination with DOD and the other 
Services, is in the process of developing an implementation plan, which 
will take effect 01 October 2003 (fiscal year 2004). The overarching 
theme for Navy's implementation of the National Call to Service (NCS) 
enlistment option is to utilize the program to bolster our Selected 
Reserve (SELRES) force readiness. NCS candidates will be afforded the 
full range of active duty training, given fleet experience and then, if 
they choose not to reenlist in the Active Force, they will be 
transferred to our Selective Reserve Force as a readiness multiplier. 
Our plan for fiscal year 2004 will goal NCS accessions at 1 percent of 
total non-prior service accessions ( cents450). Future annual accession 
goals, as well as the accession skill mix, will be directly tied to 
projected SELRES manning shortfalls.
    General Hagee. Marine Corps, in coordination with DOD and the other 
Services, is in the process of developing an implementation plan which 
will take effect 01 Oct 03 (fiscal year 2004). The overarching theme 
for USMC's implementation of the NCS enlistment option is to utilize 
the program to ultimately bolster our SELRES force readiness. NCS 
candidates will be afforded entry-level recruit and MOS training, given 
operating force experience and then, if they choose not to reenlist in 
the Active Force, they will be transferred to our Selective Reserve 
Force as a readiness multiplier. Our plans for fiscal year 2004 will 
set the goal for NCS accessions at approximately 0.5 percent of total 
non-prior service accessions (175) ramping up to 1 percent by fiscal 
year 2006.
    General Jumper. Senator we also have embraced this program. Our 
strategy is to use this program to reach out to the market that may 
find this type of enlistment more attractive than traditional 
enlistments. We plan to reach out to individuals currently in college 
or those completing it in the near future. Additionally, efforts are 
underway to ensure we maximize the output of this program to help 
improve the staffing in our Air Reserve components. Currently, we have 
identified at least 29 different skills across the Total Air Force that 
will be staffed with people that enter through the NCS program. These 
29 skills were selected in large part because they are also utilized in 
the Reserve component and will allow members to transfer easily. These 
include security force positions, flight line positions, medical 
positions, and numerous others.

    12. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, what percentage of your total force will be made up 
of personnel under this type of contract?
    General Shinseki. We will begin with an initial cap of 2 percent of 
the annual accession mission. The percentage of the total force will 
initially be significantly less than 1 percent.
    Admiral Clark. Due to the short-term nature of the NCS contract 
(average length of time on active duty projected to be 20 months), and 
the Navy's vision of setting accession goals based on SELRES manning 
shortfall requirements, it is anticipated that the first cut will 
produce a steady state average of NCS contracts in the total enlisted 
force will be approximately 1 percent (3,000-3,500 NCS contracts on 
active duty at any given time). We will evaluate progress in the 
future.
    General Hagee. Present plans call for USMC to access 0.5 percent 
(175) in fiscal year 2004 and ramp up to 1 percent (350) of our annual 
enlisted accessions by fiscal year 2006.
    General Jumper. Senator our current plan is to enlist 1 percent 
(approximately 370 people), of our total non-prior service accessions 
in fiscal year 2004. We have identified at least 29 different skills 
across the Total Air Force that will be staffed with people that enter 
through the National Call to Service Program. The 1 percent will be 
divided across the 29 skills.

    13. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, what role would the National Service Plan member 
fill in your Service? I would like to encourage you to come back to the 
committee and myself for further help in using this program to increase 
end strength.
    General Shinseki. Participants who enlist for the 15-month term of 
service will attend the same training as those who enlist for a longer 
term of service in the same specialty. Specialties with a total 
training time of less than 16 weeks and facilitate Reserve duty or 
National Service will be open to this option. This enlistment option 
will be open to 24 military occupation specialties including combat, 
combat support, and combat service support. After training, 
participants in this option are subject to both overseas assignments, 
except Germany and Hawaii, and stateside assignments.
    Admiral Clark. While on active duty, NCS recruits will be utilized 
in the Navy to fulfill the same functions as recruits coming in under 
longer-term contracts. All NCS recruits will attend boot camp, a Navy 
``A'' school, and will be worldwide assignable to sea and shore 
billets. At the completion of their active duty contract, they will be 
afforded the opportunity to either reenlist in the Active Force or 
transfer to the SELRES. While attached to the SELRES, NCS members will 
fill manning gaps in targeted ratings. The skill mix for NCS accessions 
will be directly linked to projected SELRES manning shortfalls.
    General Hagee. The ultimate goal for our NCS marines is to support 
the Selected Marine Corps Reserve (SMCR) in meeting manning shortfalls 
and support their emerging homeland security missions. A majority of 
the NCS marines would be tied to ATIFP missions and would be trained in 
infantry, NBC, and MP MOSs. Active duty would be spent serving with the 
4th MEB (AT), Chemical Biological Incident Response Force (CBIRF), 
Marine Security Forces, and Base/Station MPs. Assignments in the SMCR 
would be tied to Security Battalions, CBIRF, and other units assigned 
to homeland security missions. We are also planning on offering a 
limited number of NCS marines extended training in critical skill areas 
in short MOSs (i.e. intelligence, linguists, aerial navigators, etc.) 
so that we can assign these NCS marines directly into these critically 
short billets within the SMCR.
    General Jumper. Senator, we have identified many different skills 
in which these members will be utilized. These skills stretch across 
the Air Force and can also be utilized in one of our Air Reserve 
components. Members enlisted under the National Service Plan are not in 
addition to, but will count against our current authorized end 
strength.

    14. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, if you were authorized the increase in end strength 
required to meet your commitments, how quickly would you be able to 
fill out the ranks of currently undermanned units?
    General Shinseki. Any increase in end strength will be tied to how 
long we expect the Reserve components to maintain their current 
operations tempo. The Army continues to look at whether or not the 
480,000 Active-Duty Force is right and whether we have the right active 
component/Reserve component mix in our combat, combat support, and 
combat service support formations, as well as addressing our current 
high-demand/low-density units. Additionally, the Army derives end 
strength requirements from the Total Army Analysis (TAA) process, which 
currently is ongoing. The TAA and other efforts to move soldiers from 
supporting roles to units will affect the increase in end strength 
requirements.
    Given current recruiting and retention resources, and current 
retention rates, the Army has the ability to increase end strength by 
approximately 7,700 in fiscal year 2004. An increase in resources or 
efficiencies will have a commensurate increase in the ability to 
increase the Army's end strength.
    Admiral Clark. As a result of congressional authority to operate 
above strength controls, yet within the NDAA authorization of +2 
percent, Navy active-duty end strength levels are already sufficient.
    General Hagee. The Marine Corps is very satisfied with the NDAA for 
fiscal year 2003 increase of 2,400 marines. The Marine Corps believes 
that 175,000 active marines are sufficient to meet our traditional 
mission requirements. We are currently not experiencing any problems in 
recruiting, training, and retaining marines to meet this increase.
    General Jumper. It is difficult to provide a definitive answer, as 
there are several issues involved including the recruiting and training 
pipelines. In the ideal environment, it takes between 12 and 18 months 
to recruit and train additional personnel.

    15. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, would you need to reactivate units and squadrons 
that were decommissioned during the down-sizing of the 1990s?
    General Shinseki. No. Soldiers who enter the Army under this plan 
would be integrated into existing units.
    Admiral Clark. I foresee no need to re-commission units at this 
time. We are using the National Call to Service Plan to complement our 
Reserve Force and to meet Reserve requirements for trained junior 
personnel.
    General Hagee. A. Marine Corps force structure is based on the 
minimum manpower and equipment needed to provide required combat 
capabilities. Since the end of the Cold War, our requirements have 
increased while end strength has decreased. Specifically, since a 
recent high of over 191,000 in 1991, we now stand at 175,000 active 
duty marines. This is at a time when we find ourselves engaged in a 
major theater war as well as numerous other vital missions.
    B. In recent years, with the help of a modest end strength 
increase, we have reactivated selective units in order to meet emergent 
threats and provide our regional combatant commanders with the 
capabilities they require. Our reactivation of the 4th Marine 
Expeditionary Brigade (Anti-Terrorism) and our active component Air 
Naval Gunfire Liaison Companies (ANGLICO) are examples.
    C. Through a combination of specific force structure realignments 
and institutional process improvements, the Corps has enjoyed 
unprecedented efficiencies in manpower allocation. In spite of this, we 
currently are able to man our Active-Duty Forces at only 94 percent of 
their validated requirement. Given this shortage of manpower to meet 
our current requirements, and without presupposing another end strength 
increase, I do not believe it is prudent for us to seek reactivation of 
previously decommissioned units.
    General Jumper. At this time there are no plans to reactivate any 
units or squadrons inactivated during the downsizing of the 1990s. New 
squadrons would only be required if additional force structure or 
mission changes were directed. Additionally, end strength increases do 
not generate the need for additional squadrons. We are analyzing our 
force requirements to determine if there are opportunities to realign 
military manpower from non-military essential functions into high-
stress, high-PERSTEMPO career fields within existing units. We would 
then backfill the losing functions with civilian manpower or contract 
support, depending on the availability of resources.

    16. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, what increases in procurement would be required to 
ensure that these service members are properly equipped?
    General Shinseki. None. Soldiers who enter the Army under this plan 
would be integrated into existing units, assigned to authorized unit 
positions, and utilize equipment authorized by the units. However, 
there may be some additional cost associated with the procurement of 
personal items such as initial uniform issue items that would be based 
upon the number of soldiers entering the Army under this program.
    Admiral Clark. Thus far, we have identified no additional 
procurement needs to facilitate implementation of Navy's NCS program, 
largely because the program will be operated within our existing 
strength authorization and NCS members will perform duties associated 
with existing requirements.
    If, however, at some point, Navy leadership deems it necessary to 
activate previously decommissioned activities (ships, squadrons, bases, 
etc.), part of the consideration of such a decision will involve a 
detailed evaluation of the mission and structure of commands identified 
for reactivation, in order to determine procurement needs associated 
with their activation/reestablishment.
    General Hagee. This question is a follow-on to QFR #15 which asked, 
``Would you need to reactivate units and squadrons that were 
decommissioned during the down-sizing of the 1990s?'' The Marine Corps' 
response indicated that there was no need to reactivate any units or 
squadrons.
    In light of the Marine Corps' response to QFR #15, this question is 
not applicable.
    General Jumper. We plan to enlist 1 percent (approximately 370) of 
our total non-prior service accessions in fiscal year 2004 through the 
NCS plan. As there is currently no increase in end strength associated 
with the NCS plan, the cost to equip these members is included in the 
budget.

                           CONCURRENT RECEIPT

    17. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, I am on record as a strong supporter of concurrent 
receipt since 1991. I believe military retirement pay is pay for 
services rendered to a serviceman or woman after 20 years of dedicated 
military service. Disability pay is pay to a serviceman or woman 
because of physical or mental pain or suffering caused by their years 
of service in the military. The pays are different. The pays are 
separate. Military retirement pay should not be offset by disability 
pay. The Fiscal Year 2003 National Defense Authorization Act on 
``Special Compensation for Combat-Related Disabled Uniformed Services 
Retirees'' addressed only a small portion of retired service members 
not being fairly compensated for their service to this country and 
disabilities acquired during that service. Senator Harry Reid and I 
have re-introduced legislation to ensure that all service members are 
fairly compensated. What are your views on this legislation and this 
issue?
    General Shinseki. Of course, the Army is most grateful to our 
veterans, especially those who have served long and faithful careers. 
We realize that there is no payment that can ever fully repay these 
brave soldiers for the sacrifices they have made. However, we must 
temper this emotionally charged issue with the position of the Office 
of the Secretary of Defense, which the Army supports. We cannot pay 
anyone twice--that is, both retired pay and disability pay--for the 
same service. Further, we must keep in mind our obligation to those who 
are serving now and may be putting their lives on the line in combat in 
the weeks and months ahead. Would we be able to support these troops 
after paying the $45 billion, 10-year cost for concurrent receipt that 
DOD estimates?
    The Army is grateful to the President for signing ``Combat Related 
Special Compensation'' into law. This new law will compensate military 
retirees who served 20 years and were wounded in combat or combat-
related training. The Army is part of a DOD committee working together 
to develop guidelines for executing this compensation program by June.
    Admiral Clark. Like all Americans, I believe we owe our veterans a 
great debt of gratitude, particularly those serving long and faithful 
careers. We must always remember that our Nation has remained strong 
because of the brave men and women who were willing to fight and risk 
their lives to protect their fellow citizens. However, we must also 
recognize the significant obligation this bill will place on the 
Military Retirement Fund without identifying appropriations.
    I cannot support concurrent receipt of retired pay and disability 
compensation that goes into effect prior to appropriation of funds to 
cover the cost to the Military Retirement Fund and manpower and 
personnel accounts. To do otherwise would put other critical programs 
at risk.
    General Hagee. The Marine Corps has always supported fair and 
equitable treatment of retired marines and acknowledges that the issue 
of concurrent receipt needs to be fully addressed. The NDAA fiscal year 
2003 provides special compensation for military retirees with combat-
related disabilities (CRSC). Though this is not concurrent receipt, we 
believe that this is an important first step. The Marine Corps' major 
concern lies with the appropriation of additional funding to support 
any legislative change concerning concurrent receipt. Compelling the 
Services to pay the bill out of existing funds would result in serious 
cuts in modernization and readiness, as well as potential cuts in 
current programs to our active and Reserve marines.
    General Jumper. Senator McCain, the Department has traditionally 
opposed legislative attempts to repeal the ban on concurrent receipt of 
full retired pay and VA disability compensation. This opposition is 
based on 100+ years of historical precedent, and a longstanding 
administration belief against ``duplicate payments'' for same period of 
service. However, we recognize the importance of properly compensating 
veterans for service injuries, and that there are two competing 
viewpoints on whether concurrent receipt is justified.
    Proponents of retaining the ban argue that offsets are common to 
other Federal payments (for example, Dependency and Indemnity 
Compensation offsets the Survivor Benefit Plan annuity). Ending this 
offset would set an expensive precedent for reduction/elimination of 
similar offsets among Federal programs. OSD reports a rough cost 
estimate of $41 billion in increased direct spending for the first 10-
year period if the ban on concurrent receipt were lifted ($3 billion in 
the first year alone, and $14 billion in increased accrual payments by 
DOD to the military retirement trust fund for the same 10-year period). 
Also, retired or ``retainer pay'' implies possible future service, and 
since a disabled retiree is not fit for recall, offset is appropriate.
    Proponents of repealing the ban argue the offset is unfair. Civil 
service retirees and prior service retirees typically are able to 
receive disability compensation from VA with no corresponding offset 
(though no other agency provides for disability and retirement pay from 
that agency). Another argument is that VA disability recipients are 
entitled to other Federal benefits, so why not military retired pay? As 
an alternative to ``full'' concurrent receipt, OSD estimates the ban 
could be lifted for 100 percent disabled retirees at a much-reduced 
cost of $50 million/year. The Air Force has not budgeted for this item 
in the fiscal year 2004 President's budget and cannot absorb or support 
the significant costs without additional funding. If additional funding 
were provided by Congress to cover the cost of lifting the ban, we 
would support such legislation.

                              ENCROACHMENT

    18. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, the loss of Vieques, and the increasing impact of 
encroachment on operations and training at bases and ranges, concern me 
greatly. We passed legislation last year that will help to reduce some 
encroachment concerns at Nellis Air Force Base (AFB) and to a smaller 
degree at Luke AFB, but there is much more to be done. Please discuss 
what actions your Services are taking to protect the viability of 
military ranges and bases, especially against encroachment.
    General Shinseki. The Army is working internally and with other 
agencies to mitigate the effects that encroachment has on our training 
and readiness. Our principal internal effort is the Sustainable Range 
Program (SRP). The objective of SRP is to maximize the capability, 
availability, and accessibility of ranges and training land to support 
doctrinal training and testing requirements. SRP is based on three 
tenets:

    (1) Scientifically Defensible Information. The Army is developing 
and maintaining complete data on all aspects of ranges--operational 
characteristics of training facilities, physical characteristics of 
real property, and data on the range as part of the natural and 
cultural environment.
    (2) Integrated Management. We are integrating the management of 
ranges across the four disciplines that directly affect them: range 
operations and modernization; facilities and installation management; 
munitions management and safety; and environmental management.
    (3) Outreach. The Army is working to inform political leadership, 
regulators, and communities to improve understanding of the Army's need 
for training and testing and the Army's more sophisticated range 
management approach.

    The Army is developing both an overarching Army regulation and 
detailed implementing guidance to the field on the SRP. Specific 
programs that will support sustainment of ranges and minimize the 
impacts of encroachment include: implementation of the Army Range and 
Training Land Strategy, quantification of encroachment impacts in the 
Army Installation Status Report, implementation of Army Compatible Use 
Buffers (utilizing authorities granted by Congress in Section 2811 in 
the National Defense Authorization Act for Fiscal Year 2003), and the 
implementation of mission-focused environmental management systems on 
all Army installations.
    I would like to comment specifically on the Army's efforts to 
implement the authority Congress granted the military departments 
earlier this year to acquire buffer zones around our installations. 
Fort Bragg pioneered this type of agreement, and now, Fort Carson, 
Colorado, has moved out and implemented one of our first agreements 
under the new legislation. Under a cooperative agreement between The 
Nature Conservancy and Fort Carson, The Nature Conservancy has 
negotiated a renewable lease with a private landowner that establishes 
a conservation easement and precludes development on about 30,000 acres 
and 14 linear miles of perimeter on the Fort Carson's southern 
boundary. We are excited about the prospects this new authority 
presents and will be working hard to identify suitable properties and 
resources to implement the program fully.
    The Office of the Secretary of Defense is working with the Services 
to develop overarching Department policy for sustainment of ranges and 
operating areas. This policy will support the long-term planning and 
programming necessary to ensure our ranges and training areas meet 
mission needs now and in the future.
    Admiral Clark. Beginning on the east coast, Navy is implementing 
the Training Resource Strategy (TRS), which ties together multiple 
ranges for fleet training. This plan distributes our training across 
all ranges instead of relying on a single site as we did at Vieques and 
consequently lessens the impact of short-term or seasonal encroachment 
at anyone range on our overall training program. TRS also supports a 
more realistic training scenario for our forces by providing larger, 
multi-dimensional training areas that were not available at Vieques.
    Taking advantage of legislation passed last year, Navy is 
developing an ``Encroachment Partnering'' (EP) program. This program 
allows acquisition of real estate interests on lands in the vicinity of 
military properties to reduce incompatible land uses that impact 
mission capabilities. As described below, funded programs are in place 
to conduct long-term sustainable planning for Navy ranges, to include 
identifying locations where EP projects can reduce the impacts 
associated with urban encroachment. For example, EP projects may 
support preservation of off-base habitat for species as cities expand, 
reducing species reliance on military lands. EP projects can also be 
used to reduce commercial and residential development in areas subject 
to noise or other indirect effects from training or testing. EP extends 
the options available for installations to conduct compatible land use 
planning with States and local governments, and can support positive 
partnerships with conservation groups and local stakeholders.
    In fiscal year 2004, the Navy has budgeted approximately $800 
million for compliance, pollution prevention, and conservation to meet 
our environmental obligations and manage natural resources. 
Additionally, the President's budget for fiscal year 2004 provides 
approximately $98 million across the FYDP to support a range 
sustainment program that will include development of management plans 
for each of our training range complexes, based upon current and 
anticipated operational requirements, and including detailed 
environmental and land-use planning.
    An important component of the range sustainability program is 
ensuring an ongoing dialogue occurs with all stakeholders, including 
local citizens and community planning organizations, as well as 
national and State resource agencies. Since encroachment impacts are 
often manifested via inappropriate regulatory restrictions or citizen 
lawsuits, this coordinated planning and outreach effort is critical to 
controlling the adverse impacts of encroachment. 
    General Hagee. The Marine Corps is engaged in many ways to protect 
the viability of our military ranges and bases, especially against 
encroachment. The Operations and Maintenance Marine Corps (OMMC) budget 
for environmental compliance and protection has held steady over the 
last several years at approximately $120 million per year. Our budgets 
are requirements based and our steady funding is attributable to the 
fact that environmental legislation has remained consistent since 1996. 
Previous investments to improve environmental compliance have also 
resulted in associated cost decreases. Additionally, the conservation 
portion of our budget has increased from about $1 million OMMC in 
fiscal year 1992 to about $15 million in fiscal year 2003.
    Every Marine Corps base, station, or range with natural resource 
responsibilities has in place an Integrated Natural Resource Management 
Plan (INRMP) which provides for the conservation and rehabilitation of 
natural resources. These plans are prepared in cooperation with 
regulatory agencies. Fish and Wildlife Service (FWS) policy 
acknowledges that INRMPs can be acceptable substitutes for critical 
habitat designation. It is this policy we seek to have Congress codify.
    Critical habitat designation under the Endangered Species Act 
presents the single greatest encroachment concern for the Marine Corps. 
The standard under the Endangered Species Act is that critical habitat 
cannot be adversely modified. Currently, we do not train on lands 
subject to critical habitat designation to ensure no adverse 
modification. The Marine Corps' ultimate concern is that once land is 
designated as critical habitat, land management authority transfers 
from the commanding general of the installation to the regulatory 
agencies and, via the courts, special interest groups. The Marine Corps 
has worked with FWS to develop a scientifically and legally based 
policy that precludes the need to designate critical habitat. The 
Readiness and Range Preservation Initiative (RRPI) has within it a 
provision that would codify current FWS practice. Absent legislation, 
environmental litigation may still cause 57 percent of the 125,000 acre 
Marine Corps Base (MCB) Camp Pendleton, California and 65 percent of 
the 23,000 acre Marine Corps Air Station (MCAS) Miramar, California to 
be designated critical habitat.
    The Marine Corps is pursuing Encroachment Partnering opportunities 
per the National Defense Authorization Act for Fiscal Year 2003 (10 USC 
2684A, Sec 2811a) as another tool for addressing encroachment. This 
legislation allows entry into an agreement with an eligible entity such 
as a private conservation organization or State, to address the use or 
development of real property in the vicinity of a military 
installation. The purpose of Encroachment Partnering agreements are 
twofold: limit development or use of property that would be 
incompatible with the mission of the installation and/or preserve 
habitat on the property that would relieve current or anticipated 
environmental restrictions for the installation.
    MCB Camp Pendleton is participating in the South Coast Conservation 
Forum, a group whose goal is to acquire lands that will be set aside to 
protect as many of the 50 listed species in the local Southern 
California area as possible. MCB Camp Lejeune, North Carolina is a 
member of the Onslow Bight Forum, a group dedicated to sharing 
information and discussing potential buffer land partnering 
opportunities in coastal North Carolina.
    The Marine Corps recognized that evidence of negative encroachment 
impacts, though persuasive, were largely anecdotal. Consequently, the 
Marine Corps set out to establish quantitative data regarding this 
issue. Selecting MCB Camp Pendleton as the subject of the study, we 
examined encroachment impacts on the capability of the installation to 
support unit operational readiness requirements for a Marine Air Ground 
Task Force. Study results found that combat arms elements were able to 
accomplish only 69 percent of established standards for non-firing 
field training while conducting an amphibious operation at Camp 
Pendleton. A second phase of this study is on the verge of completion. 
A final report of some 760 tasks is due to the Commanding General, MCB 
Camp Pendleton this month. Initial results from the final report's 
findings are consistent with those of the preliminary assessment. On 
average, the units evaluated were able to complete their required tasks 
to just below 70 percent of the established standard, while conducting 
an amphibious operation at Camp Pendleton. Endangered species were the 
largest contributing encroachment factor in this study. These findings 
reinforce that for the Marine Corps, endangered species issues are at 
the forefront of the Service encroachment debate.
    As a necessary follow-on effort to the Camp Pendleton study, a 
Headquarters Marine Corps Range Management System (RMS) has been 
funded, including monies programmed through fiscal year 2004, to build 
a Corps-wide ability to relate training standards to ranges. Intent is 
to have the RMS in place within the next 18 months. RMS will have broad 
utilization from the unit through institutional level. This system is 
envisioned to be able to plan and develop training, schedule ranges and 
training areas, perform training cost/benefit analysis, and very 
importantly, measure the effects of encroachment on our installations 
ability to support unit operational readiness requirements.
    To conclude, the Marine Corps needs solutions as outlined in the 
RRPI, embedded in law, that requires consideration, accommodation, and 
protection of lands used for military training and operations. RRPI 
passage, including the provision that addresses critical habitat 
designation, has direct national security implications, and is a Marine 
Corps priority.
    General Jumper. The Air Force is also greatly concerned with the 
increasing impact encroachment is having on our operations and 
training. The Air Force has made it a priority to define and quantify 
the resources needed to support our mission requirements and to measure 
and communicate the impacts of encroachment on mission readiness. The 
Air Force has a four-prong strategy to address encroachment issues:

    (1) Identify and quantify the resource base needed to perform the 
AF mission, and quantify the readiness impairments resulting from 
resource denial (encroachment). To accomplish this, the Air Force is 
developing the Resource Capability Model (RCM) that will more precisely 
identify natural, physical, and statutorily controlled resources needed 
to conduct readiness activities to better inform decisionmakers both 
within the Air Force and among our community and regulatory partners.
    (2) Continue to institute dialogue with other Federal resource 
management agencies (such as the Department of the Interior, 
Environmental Protection Agency, Department of Commerce) to develop 
regulatory or administrative improvements that can relieve military 
resource encroachment.
    (3) Enhance outreach and communications with States, local 
governments, and interested organizations regarding how unintended 
consequences of resource management programs can impair military 
readiness.
    (4) Explore the possible need for statutory modifications to 
prevent unintended impacts to military readiness from resource denial 
or degradation. One such effort to obtain statutory modifications is to 
support the RRPI. It is a legislative proposal that will provide the 
needed clarification to specific environmental statutes in order to 
protect access to our training resources while continuing to protect 
the environment. Those specific statutes include the Endangered Species 
Act, the Clean Air Act, the Resource Conservation Recovery Act, the 
Comprehensive Environmental Response, the Compensation and Liability 
Act, and the Marine Mammal Protection Act. 
    More specifically, the Air Force is conducting mitigation measures 
to address encroachment issues that impact our operations. For example, 
at the Barry M. Goldwater Range, the Air Force routinely monitors 
target areas for Sonoran Pronghorn movements and will divert or cancel 
live missions projected near Pronghorn areas. At Eglin AFB, we 
electronically tag and track endangered Gulf Sturgeon to ensure they 
are not impacted by our operations. At Nellis AFB, the Air Force is 
acquiring 417 acres on the north departure zone due to urban 
encroachment off of the southern departure zone.
    Through the application of mitigation measures, together with our 
strategic four-prong approach which includes the provisions of the 
RRPI, the Air Force will continue to fulfill its dual mission of 
protecting the lives and well-being of our citizens and to protect the 
environment.

                             TRANSFORMATION

    19. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, when transformation was first discussed, we talked 
about a revolution in military affairs, and ``skipping a generation of 
technology.'' We talked about taking advantage of emerging technology 
to decrease the size of our military forces while increasing their 
mobility and lethality. Kenneth J. Krieg, Special Assistant to the 
Secretary and Deputy Secretary of Defense, recently came over to brief 
our staffs on the current status of transformation. His briefing had 
little to do with warfighting. I would characterize his briefing as 
more of a major reform of DOD bureaucracy. When Dov Zakheim, Under 
Secretary of Defense (Comptroller) came to the Hill and briefed this 
year's budget, he talked at length about what a transformational budget 
this is. Yet it is very telling that in your R&D budget, while there is 
$870 million for the development of Unmanned Aerial Vehicles (UAVs), 
there is $5.5 billion for continued development for three short range 
fighter programs, all three of which were considered to be candidates 
for the chopping block 2 years ago to provide money for 
transformational programs and technologies. What has happened to 
transformation?
    General Shinseki. The Army is firmly committed to its 
transformation efforts. In this President's budget and its associated 
Future Year Defense Plan, the Army has generated approximately $22 
billion of savings by terminating 24 systems ($13.9 billion) and 
reducing or restructuring an additional 24 ($8.6 billion) in order to 
fund transformation and other higher priority programs. The Army 
reinvested these savings into: Future Combat System ($13.5 billion), 
Precision Munitions ($3.2 billion), Sensor and Communications ($2.3 
billion), Science & Technology ($1.1 billion), Missile and Air Defense 
($1.1 billion), and other smaller high priority systems.
    Admiral Clark. Transformation remains embedded in everything we do, 
and the Navy is committed to what we see as joint transformation at the 
Service level. To this end, transformation is about more than investing 
in new technologies, although that is certainly an important part of 
it. It is also about developing new operational concepts such as the 
Global Concepts of Operations; new processes such as Sea Warrior, Sea 
Trial and Sea Enterprise; and new organizations such as Navy-Marine 
Corp Tactical Aviation Integration, all of which I described in my 
testimony. These initiatives are in important ways about maximizing the 
effectiveness of the capital assets in which we have already invested.
    Transformation is also about investing in programs that will result 
in major increases in warfighting effectiveness, including the next-
generation aircraft carrier (CVN-21), the transformational destroyer 
(DD(X)) and LCS, the SSGN, the Joint Strike Fighter, and the Advanced 
Hawkeye (E-2C RMP) Upgrade Program. At the same time, not all of our 
investments are for new things. Service life extensions, product 
improvements, and modifications to current equipment may offer 
significant future returns on investment, such as the cruiser 
conversion plan. Other modernization programs are not transformational 
by themselves, but are necessary to provide the supporting structure to 
deliver new transformational initiatives.
    General Hagee. Transformation is not merely about ``skipping a 
generation of technology'' or developing Unmanned Aerial Vehicles and 
other future technologies. Transformation is also about developing new 
operational concepts, organizational constructs, and business reforms 
that will enable us to realize our vision of future warfighting. While 
future technologies play some part in achieving these transformational 
capabilities, many of the currently existing or planned programs and 
technologies also support the transformation of the Marine Corps. 
Indeed, if we can achieve a transformational capability through changes 
in our organizations or operating concepts, then we may be able to 
reallocate some of those savings to develop capabilities that can only 
be realized through future technologies. Many of the existing or 
planned programs are not, of themselves, transformational. But, 
enhancements in their reliability, availability, and maintainability 
over previous systems will allow us to pursue that next generation of 
technology without sacrificing the warfighting capabilities of today. 
Regardless, transformation should only be judged by the improvements in 
the overall capabilities of the Nation's warfighters.
    General Jumper. Senator, transformation is alive and well in the 
Air Force. We are investing more than $95 billion over the FYDP in 
transformational capabilities. These capabilities are provided by a 
variety of programs and initiatives, including the F/A-22 Raptor and F-
35 Joint Strike Fighter programs you referred to, but not limited to 
them. Transformation as we see it is not just about new programs, but 
about exploiting new approaches to the operational concepts and 
organizational structures we develop for the employment of both new and 
existing technologies. Further, the AF is not transforming in a 
vacuum--the unique air and space capabilities we provide are just one 
part of an integrated joint, interagency, and coalition team. Ensuring 
that the entire team is equipped with complementary and synergistic 
capabilities and platforms is important as we transform the Air Force.
    It is easy to fall into the trap of focusing on a particular system 
when discussing transformation. Truth is that the transformed Joint 
Forces will be composed of a ``system of systems'' connected through 
operating concepts and organizational constructs. Those forces will be 
more network-centric, less platform-centric, and able to better conduct 
effects-based operations by increasing information sharing.
    They will have C\4\ISR capabilities that provide a joint common 
relevant operational situational awareness of the battlespace, rapid 
and robust sensor-to-shooter  targeting, reachback and other necessary 
prerequisites for network-centric warfare. They will do it with 
integrated Air Force capabilities and systems we are developing and 
investing in now--including the Space Based Radar, the Advanced 
Extremely High Frequency satellite constellation, laser-based 
communications, the Distributed Common Ground System, and Global 
Positioning System Blocks IIF & III. They will do it by bringing 
together these capabilities, along with the F/A-22 and F-35, to provide 
an overwhelming ability to see, reach out, and touch any possible 
adversary with the right tool to achieve the intended effect.
    To more directly address your comments about the short-range 
fighter programs we're pursuing, I'd like to expand on some of the 
transformational capabilities the F/A-22 will bring to the United 
States. The Raptor combines air dominance, SEAD/DEAD (suppression/
destruction of enemy air defenses), and precision attack capabilities 
in one platform. Its stealth, supercruise, maneuverability, and 
integrated avionics will allow us to overcome night-operating 
limitations in heavily defended areas, and bring persistent stealth to 
the battlespace. Our warfighting commanders will have a greatly 
enhanced ability to overcome anti-access environments, to ``kick down 
the door'' to clear the way for follow-on forces and missions.
    Complementing the F/A-22's superior air dominance and ground attack 
``kick down the door'' capability, the F-35 provides persistent, 
follow-on ground attack. It will give our joint and allied air forces a 
greatly improved stealth platform with enhanced strike capabilities at 
a lower cost by capitalizing on joint investments by the Air Force, 
Navy, Marine Corps, and allies. In addition to reduced procurement 
costs, the F-35 will also be cheaper to maintain and operate. The F-35 
Joint Strike Fighter is the ideal weapons platform to replace our aging 
strike fighters.
    Finally, the Air Force is fully committed to capitalizing on the 
warfighting capabilities inherent with UAVs. From a historical 
perspective, we are in a ``Billy Mitchell era'' with regard to UAV 
development. The recently completed Defense Science Board study of UAVs 
noted that the loss rates of existing UAVs are over 50 times higher 
than for existing manned platforms. They also reported that these UAVs 
can cost over $40 million each. Our R&D investment of $870 million for 
UAVs is thus sizeable given the maturity of their development. They, 
therefore, require a more substantial investment to successfully 
transition these programs to production and deployment. The differences 
you see in our R&D investment is more a factor of the development 
maturity of the programs than any lack of commitment for UAVs. As the 
development of UAVs matures, our investment will increase accordingly.

    20. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, why are we now allowing evolutionary, traditional 
platforms to be labeled transformational?
    General Shinseki. Army transformation consists of three primary 
vectors--the current Legacy Force, the Stryker Brigades, and the 
Objective Force. Over the last 3 years, the Army has undertaken 
transforming itself into a force that is more strategically responsive 
and dominant at every point on the spectrum of military operations. 
While Army transformation encompasses these three vectors, the Army has 
worked in concert with the Office of the Secretary of Defense as to 
which systems are considered transformational. The Army has 19 systems 
recognized by the Department as transformational, and they include the 
Future Combat Systems, the Warfighter Information Network Tactical, 
Comanche, and the Joint Tactical Radio System. Current Army platforms 
such as the Apache, Abrams, and Bradley while crucial to the Army's 
transformation efforts, have not been classified as transformational.
    Admiral Clark. The President's stated goal is to `skip a 
generation' of technology and accelerate transformational technologies. 
For example, aircraft carriers are indeed a `traditional platform,' 
however, in CVN-21 we have leapt from the CVN(X) development plan into 
CVN-21 within about the same timeline. The transformational 
technologies include a new electrical generation and distribution 
system, improved flight deck design with Electromagnetic Aircraft 
Launching System, Advanced Arresting Gear, improved sortie generation, 
enhanced survivability, reduced manning, and incorporation of a 
flexible infrastructure that will allow the insertion of new 
capabilities as they evolve.
    General Hagee. Platforms themselves should not be viewed as 
traditional or transformational. Instead, the innovative and relevant 
capabilities that these platforms help support better demonstrate the 
transformation of our force. The new operational concepts we develop 
first describe our vision of future warfighting, and indicate the 
capabilities that will be required to achieve this vision. Some of 
these capabilities can then be achieved only through the employment of 
leap-ahead technologies and with the development of new platforms, such 
as the V-22 Osprey. Often, however, these capabilities will rely 
equally on platforms already on hand--for mobility, fire support, 
combat service, or communications, for example. In fact, we 
intentionally leverage these investments, in both dollars and training, 
whenever possible to achieve new capabilities as efficiently as 
possible. I think it is more useful to evaluate our transformation 
based on the new or dramatically improved capabilities we provide to 
joint warfighters, rather than upon an appraisal of any individual 
platform.
    General Jumper. We primarily judge the transformational qualities 
of our platforms based on whether the platform provides a significant 
improvement to our joint warfighting capabilities that enable new 
concepts for military operations. For instances that allow the 
measurement of warfighting capability, ``significant improvement'' is 
usually interpreted to mean a near order of magnitude improvement in 
our warfighting capability. Another factor that contributes to our 
assessment is the contribution of our platforms to Secretary Rumsfeld's 
``Critical Operational Goals of Transformation.'' If our platforms 
provide a substantial contribution towards the satisfaction of these 
goals, it may be labeled transformational.
    Not all of our platforms contribute to our transformation through 
the implementation of new technologies. Some platforms become 
transformational through use of existing technologies in new innovative 
ways to significantly improve our warfighting capabilities. There is no 
time element associated with our criteria. We judge our platforms based 
on their contribution to our warfighting capabilities. Consequently, it 
is entirely consistent with our viewpoint to have platforms that 
preceded ``transformation'' as a DOD initiative to be labeled 
transformational.

    21. Senator McCain. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, what time line are we looking at for OSD's desired 
bureaucratic reforms to actually have an impact on the battlefield for 
our warfighters?
    General Shinseki. On the DOD level, it is my understanding that 
many of the proposed bureaucratic reforms require congressional action 
and assistance in order to begin implementation, and will be forwarded 
to Congress as part of a comprehensive transformation package.
    Speaking from the Army's perspective, we have ongoing and emerging 
efforts to identify and institute changes to our internal business 
processes. The primary focus of our business process reforms has been 
two-fold: free up resources available for higher priority programs, and 
streamline processes and procedures to use our soldiers' and civilians' 
time more efficiently. A few of these reforms will have near-term 
impacts (within 1 year) in terms of freeing up personnel resources for 
other activities or streamlining processes, but the majority take a 
longer time to implement.
    The Army's current internal business reform process, known as the 
Army Business Initiative Council (Army BIC), has focused the majority 
of its efforts on identifying and implementing mid-level improvements 
intended to produce near-term savings and efficiencies. To date, 
Secretary White, as part of the Army BIC process, has approved 53 
initiatives. Some of those initiatives can be implemented simply by 
changing old and outdated regulations and policies. Others require the 
assistance of Congress to change statutory law.
    One example of an initiative that has been approved by the BIC for 
action, and championed by the Army, was recently forwarded to this 
committee as part of the proposed National Defense Authorization Act 
for Fiscal Year 2004. The initiative will allow the Army and the other 
Services to get out of the business of purchasing, administering, and 
paying for government cellular phones and is intended to save funding 
and free up manpower for other, more important tasks. Instead, for 
those with a validated government need for cellular phone use, we would 
instead use the authority being sought from your committee to provide 
them with a flat-rate stipend to use their personal phone for 
government business.
    Another initiative approved for implementation within the Army is 
to update the Common Tables of Allowance, which will help ensure 
equipment authorizations for our combat units and more accurately 
reflect their current requirements, and thus make them better prepared 
to carry out their combat mission when called upon to do so.
    The above initiative is more representative of the type of 
initiatives approved by the Army BIC; less than 20 percent of all 
approved Army BIC initiatives require congressional action for 
implementation. However, we do look forward to working with your 
committee on those Army BIC initiatives which require congressional 
assistance in the near future.
    Admiral Clark. Secretary Rumsfeld is pursuing a number of 
initiatives. I believe some of them will have immediate impact and some 
will take longer to mature, but in the end we will be a more 
streamlined, agile Department.
    General Hagee. The Secretary of Defense's Transformation Planning 
Guidance provides a strategy and timeline for the development and 
fielding of new capabilities for our joint warfighters. Within the next 
2-3 years, we can expect to see transformational changes to the 
interoperability of our forces, especially in terms of joint planning 
and communications, by taking into account lessons learned from joint 
training and ongoing operations, as well as the results from advanced 
technology demonstrations and experimentation. During the next decade, 
our ongoing efforts to develop new joint operational concepts will 
begin to promote the true integration of the various capabilities the 
Services provide as we work to meet the six operational goals 
established in the 2001 Quadrennial Defense Review. Finally, the 
Chairman's Joint Vision articulates our far-term view of future 
operations and describes the capabilities that will reach the field in 
15 to 20 years. I believe that this consistent emphasis on developing 
capabilities that are ``born-joint'' for the near-, mid-, and far-term 
will fundamentally change our acquisition, training, and planning 
processes, and truly transform the way the way we operate on tomorrow's 
battlefield.
    General Jumper. Our new mind set for capabilities development, 
which we call ``Agile Acquisition,'' is beginning to take hold and pay 
dividends. Over the past 18 months we have proven to ourselves that we 
can, in fact, reform our processes and deliver new capabilities to the 
warfighter faster. For wartime specific requirements we use the Rapid 
Response Process (RRP). RRP delivers approval to proceed with material 
solutions submitted by MAJCOM combatant commanders to CSAF within 19 
days. Success to date--the acquisition and fielding of 33 urgent Combat 
Mission Need Statements valued in excess of $308 million across 12 
platforms. Outside of wartime specific requirements, we have also 
accelerated some warfighter acquisition initiatives from 3 years to 
less than 1 year for contract award. One such example is the Joint 
Warning and Reporting Network for detecting, analyzing, and warning of 
potential chemical, biological, radiological, and nuclear (CBRN) 
hazards.
    The challenge now is to take these successes and institutionalize 
them so that they become the way we do business. The AF is working with 
OSD to ensure that all policies (both OSD and AF) foster collaboration, 
initiative, trust, and partnering. All of this is fixed on the twin 
goals of Agile Acquisition: reduced cycle time and increased 
credibility. Additionally, we are aggressively developing training 
programs to not only teach people new processes, but also to change the 
work culture to one that accepts the urgency of Agile Acquisition.

                              ``GO PILLS''

    22. Senator McCain. General Jumper, there have been reports in the 
press regarding an Air Force policy which authorizes Air Force pilots 
to take amphetamines called ``go pills'' as a ``fatigue-management 
tool''. The reports I saw described that Air Force tactical aviation 
pilots, not just bomber crews, use the ``go pills'' during combat air 
patrol (CAP) missions.
    Can you describe to me why does the Air Force finds it necessary to 
use amphetamines as a fatigue-management tool and Navy and Marine Corps 
pilots do not use it, but are subjected to similar combat air patrol 
missions? I believe some of our citizens may find it disconcerting to 
learn that Air Force combat air patrols over cities since September 11 
were flown by Air Force pilots using amphetamines.
    General Jumper. I can't speak for the Navy or Marine Corps, but 
I'll be happy to answer your concerns about the Air Force's policy for 
use of ``go pills'' as a fatigue-management tool. It is part of a 
comprehensive program that includes strict usage control and prefers 
fatigue management over pharmacological use. The policy grew out of a 
need to be able to sustain operations on long-duration missions, often 
at night. From 1972 to 1995 the Air Force sustained 96 serious mishaps 
in which fatigue was cited as a factor; there were no mishaps in which 
the use of stimulants was a factor.
    The Air Force conducted a comprehensive 18-month review on the 
effects of the medication and concluded that the pills provide an extra 
margin of safety by helping aircrews counter fatigue. Use of the pills 
is completely voluntary at the discretion of the aircrew, and use is 
approved in each case in writing by commanders, normally for missions 
over 8 hours for fighter aircraft or 12 hours for bombers. Individuals 
are informed that ``go pills should only be used in conjunction with 
fatigue-management tools or after all fatigue-management tools have 
been exhausted.''

                           RESERVE COMPONENT

    23. Senator McCain. General Shinseki, in your statement you talk 
about the importance of the Reserve component in supporting defense 
requirements. The significant number of Reserve personnel activated 
since September 11 clearly validates your comments. As you stated, 
today more than 50 percent of our soldiers are in the Reserve component 
(RC). The Secretary of Defense has commented that there are functions 
and capabilities now residing only in the RC that need to exist in our 
Active-Duty Forces. I see this as another indication of the need to 
increase your end strength. Please explain how you intend to migrate 
capabilities back in to the active component (AC) under current end 
strength limitations.
    General Shinseki. While the congressionally-mandated fiscal year 
2002 active Army end strength was 480,000, the Army exceeded this end 
strength target, as well as the budgeted average strength of 474,000 
man-years. The Army finished fiscal year 2002 with an end strength of 
486,543 (78,158 officers, 404,305 enlisted, and 4,080 cadets). The Army 
was allowed to exceed the end strength targets only because of the 2 
percent flex authorized by Congress. The Army will continue to utilize 
this flex and continue to use RC forces to meet current and emerging 
requirements for the global war on terrorism and the new strategic 
environment.
    The Army's AC and RC force mix is the result of deliberate actions 
to balance risks and priorities in light of operational requirements as 
well as resource constraints. The Army continues to adjust its force 
structure based on the ``1-4-2-1'' force-sizing construct. The Army's 
force mix is designed to support the geographic combatant commander's 
requirements and is determined using the Total Army Analysis (TAA) 
process. To stay within constant end strength levels, adding 
capabilities to the Active Force will require the transfer of some 
mission capabilities between the Active and Reserve Force. A number of 
options exist to reduce risk including the conversion of lower demand 
structure inside the Active Force; converting key capabilities held in 
the RC, but needed intermittently; and changes in Reserve personnel 
management to increase access by enhancing volunteerism and diminishing 
involuntary mobilization.
    Additionally, for the Program Objective Memorandum 2004-2009, over 
19,500 spaces were programmed for change within the Active, Guard, and 
Reserve Force structure. Since fiscal year 2001, the Army has activated 
or has programmed to activate through fiscal year 2009, a total of 68 
active, 102 National Guard, and 85 Reserve units that fall into these 
high-demand categories: aviation, chemical, civil affairs/psychological 
operations, and military police. The enhanced force capabilities 
address the most urgent needs.
    Currently, the Office of the Secretary of Defense, in conjunction 
with the Joint Staff has undertaken a study to improve operational 
availability of all military forces. As part of this study, the AC/RC 
mix is being studied in the context of short-notice, short-duration 
major combat operations. This study is incomplete and will be continued 
as part of Defense planning for fiscal year 2005 to determine any 
recommended force structure changes.

    24. Senator McCain. General Shinseki, I noted that the Army intends 
to invest nearly $700 million over the next 6 years to modernize key 
training ranges, such as the National Training Center at Fort Irwin, 
the Joint Readiness Training Center at Fort Polk, and the Deep Attack 
Center near Gila Bend. What improvements will these funds be directed 
towards?
    General Shinseki. The Combat Training Center (CTC) modernization 
program modernizes the maneuver CTCs, the National Training Center 
(NTC), the Joint Readiness Training Center, the Combat Maneuver 
Training Center, and establishes the Deep Attack Center of Excellence. 
This allows the CTC program to develop its leaders, keep pace with Army 
transformation, provide high-quality, full-spectrum training 
operations, and realistic joint and combined arms training. During the 
next 6 years, the Army will invest nearly $700 million to modernize and 
establish these training centers. The $700 million provides for 
opposing forces surrogate vehicles, surrogate tank vehicles, common 
training instrumentation architecture, objective instrumentation 
systems, and NTC military operations on urbanized terrain.
    The Deep Attack Center of Excellence is designed for corps level 
attack aviation training with Air Force integration. It will provide a 
rigorous, integrated, live CTC-type collective training experience for 
corps and divisional attack battalions, other service attack systems, 
and respective enabling command, control, and intelligence, 
surveillance, and reconnaissance elements along with other combined 
arms systems in a joint environment.

                            SHIP RETIREMENTS

    25. Senator McCain. Admiral Clark, the President's budget includes 
the retirement of the Spruance-class destroyers. I have two concerns 
here. First, today's Navy routinely operates in littoral waters 
increasingly populated by a very capable diesel submarine threat, yet 
we are doing away with a class of ships designed to counter that 
threat. Second, these destroyers have been equipped, at significant 
cost, to be able to carry Tomahawk missiles. What is the Navy doing to 
manage the loss of both a key antisubmarine warfare (ASW) asset and a 
capable strike platform?
    Admiral Clark. The Spruance-class was designed to counter the 
Soviet Navy's blue water nuclear submarine threat, which we no longer 
face. Current Navy warfighting analysis indicates decommissioning this 
class of ship does not affect our ability to prosecute diesel 
submarines in the littoral. Our development of LCS and its capabilities 
inherent in the antisubmarine warfare mission module will provide us a 
new and better capability to prosecute diesel submarines at a lower 
cost.
    A key issue for littoral ASW is the ability to operate a 
helicopter. The number of available helo spots exceeds the inventory of 
helicopters available in the fleet, even with the accelerated 
decommissioning of the Spruance-class.
    Available verticle launch system (VLS) cells lost by the 
decommissioning of the Spruance-class are gained back by the 
commissionings of DDG-51 Flight IIA destroyers. These ships will 
provide substantially more combat capability in every warfare area and 
96 VLS cells compared to the 61 on Spruance-class ships. The number of 
VLS cells in the fleet by fiscal year 2004 is greater than in fiscal 
year 2003 even with the decommissionings, and rises steadily 
thereafter.

----------------------------------------------------------------------------------------------------------------
                                                                   Fiscal Year
         Weapon Systems         --------------------------------------------------------------------------------
                                   2001     2002     2003     2004     2005     2006     2007     2008     2009
----------------------------------------------------------------------------------------------------------------
Total VLS Cells................    6,869    7,131    6,870    6,949    6,993    7,316  \1\ 7,8    8,316    8,508
                                                                                            16
Total Helo Spots \2\...........      164      166      152      153      152      158      166      170     174
----------------------------------------------------------------------------------------------------------------
\1\ SSGN IOC
\2\ Helo Spots exceed LAMPS inventory


    26. Senator McCain. Admiral Clark, you state that we currently have 
151 ships deployed. How can you maintain that OPTEMPO, and stay within 
PERSTEMPO while retiring these ships? Would it not make more sense to 
hold off retiring these ships until after world wide requirements have 
dropped off? Perhaps sometime after the Iraq situation has been 
resolved?
    Admiral Clark. Our Navy is at the highest state of readiness that 
I've ever witnessed in my career. This is duel in no small part, to the 
tradeoffs we have made between quantity and capability--including the 
accelerated retirement of some of our ships. Last year, I promised we 
would sharpen our focus on our force structure in the years ahead--to 
buy the ships, aircraft, and the capabilities needed for tomorrow's 
Navy while at the same time, maintaining our ability to meet 
operational requirements. As a result, we took a hard look at the ways 
we could balance these priorities and our discretionary investments to 
both satisfy the near-term operational risks and prepare for the long-
term risks of an uncertain future. We identified several aging, legacy 
systems with limited growth potential and high operating and support 
costs, and ultimately, accelerated the retirement of 11 ships and 70 
aircraft, divested more than 50 systems and eliminated thousands of 
legacy IT applications. These initiatives result in an acceptable 
operational risk in the near term because of our emphasis on sustaining 
our current readiness gains. Equally important these difficult 
decisions yielded $1.9 billion for reinvestment and will do much to 
help reduce our future risk.

                              ENVIRONMENT

    27. Senator McCain. Admiral Clark, I am aware of a number of 
environmental issues that are in the works on the Commerce Committee 
that have military implications. Would you elaborate on some of the 
specific issues surrounding the Marine Mammal Protection Act and how 
they are impacting naval readiness?
    Admiral Clark. The definition of the term ``harassment'' of marine 
mammals in the Marine Mammal Protection Act (MMPA) is a source of 
confusion because the definition is tied to vague and ambiguous terms 
such as ``annoyance'' and ``potential to disturb.'' These terms apply 
to even the slightest changes in marine mammal behavior and are ripe 
for litigation that leads to increased restrictions on training and 
testing.
    In November 2002, a Federal District Court judge in San Francisco 
presiding over a case brought by special interest groups alleging 
violation of the MMPA, National Environmental Policy Act (NEPA), and 
the Endangered Species Act (ESA) issued a court order that strictly 
limits employment of the Surveillance Towed Array Sensor System Low 
Frequency Active (SURTASS LFA) sonar system. This advanced system is 
designed to detect and track the growing number of quiet diesel 
submarines possessed by nations which could threaten our vital national 
security. After highlighting what the court viewed as flaws in 
regulatory agency implementation of the MMPA and ESA, and despite the 
Navy's unprecedented efforts to comply with NEPA, the court issued a 
preliminary injunction restricting Navy's deployment of SURTASS LFA to 
only a small area in the Western Pacific. As a result of the inherent 
structural flaws in the laws themselves as applied to worldwide 
military readiness activities, the Navy now finds the deployment and 
operation of one of our most important national security assets 
constrained by a Federal Court as a result of litigation brought by 
special interest groups that is specifically designed to deny the Navy 
use of the system. Future testing and employment of SURTASS LFA (and 
potentially other Navy training and testing programs) are in jeopardy 
because of flaws in the MMPA, which was originally enacted to protect 
whales from commercial exploitation and to prevent dolphins and other 
marine mammals from accidental death or injury during commercial 
fishing operations.
    The submarine threat today is real and in some ways has become more 
challenging than during the Cold War. Many nations are capable of 
employing quiet-diesel submarines to deny access or significantly delay 
execution of joint and coalition operations in support of our vital 
interests. Of the approximately 500 non-U.S. submarines in the world, 
almost half that number are operated by non-allied nations. Of greatest 
concern are the new ultra-quiet diesel-electric submarines armed with 
deadly torpedoes and cruise missiles being produced or acquired by the 
People's Republic of China, Iran, and North Korea. These diesel 
submarines are very difficult to detect outside the range at which they 
can launch attacks against U.S. and allied ships using passive sonar 
systems. Active systems like SURTASS LFA, when used in conjunction with 
other antisubmarine sensor and weapons systems, are necessary to 
detect, locate, and destroy or avoid hostile submarines before they 
close within range of our forces.
    While recognizing the national security need for SURTASS LFA, 
nevertheless, the Federal District Court judge deciding the LFA lawsuit 
was constrained by the broad language of the MMPA, which was not 
drafted with application to military readiness activities in mind. 
Notwithstanding the plaintiffs' failure to produce scientific evidence 
contradicting the independent scientific research sponsored by the Navy 
in coordination with numerous outside experts that the system could be 
operated with negligible harm to marine mammals, the court opined that 
Navy training must be restricted. In reaching this conclusion, the 
court noted that under the definition of harassment, the phrase 
``potential to disturb'' hinged on the word ``potential'' and extended 
to individual animals. Quoting from the opinion, the judge said, ``In 
fact, by focusing on potential harassment, the statute appears to 
consider all the animals in a population to be harassed if there is the 
potential for the act to disturb the behavior patterns of the most 
sensitive individual in the group.'' (Emphasis added.) Interpreting the 
law this broadly would require authorization (permits) for harassment 
of potentially hundreds, if not thousands, of marine mammals based on 
the benign behavioral responses of one or two of the most sensitive 
animals.
    Highlighting how difficult it would be to apply the MMPA to 
worldwide military readiness activities under such a broad 
interpretation of harassment, the court also pointed out that a 
separate structural flaw in the MMPA limits permits for harassment to 
no more than a ``small number'' of marine mammals. Overturning the 
regulatory agency's decades-old interpretation of the MMPA, the court 
also said that the ``small number'' of animals affected cannot be 
defined in terms of whether there would be negligible impact on the 
species, but rather is an absolute number that must be determined to be 
``small.'' The court's far-reaching opinion underscores shortcomings in 
the MMPA, which apply to any worldwide military readiness activity, or 
any grouping of military training activities that might be submitted 
for an overall review of impact on the environment.
    Other examples of how the MMPA affects testing and training follow:

        Navy Research: During the last 6 years of Navy research on how 
        to counter mines and detect submarines in shallow water, over 
        78 percent of the tests have been delayed, scaled back, or 
        cancelled due to the impact of environmental regulations.
        Shallow Water Training Range: Lack of clarity in the definition 
        of ``harassment'' is delaying the establishment of shallow 
        water training ranges to prepare sailors for the Navy's most 
        difficult battlefield--shallow water antisubmarine warfare.

                <bullet> Navy's fleet exercises face severe limitations 
                to avoid potential ``harassment'' of marine mammals.
                <bullet> Exercises to protect ships from submarines and 
                mines in narrow, shallow straits, such as the Strait of 
                Hormuz in the Persian Gulf, have been moved to less 
                realistic conditions in deep water.
                <bullet> Some exercises forced to adopt aerial and 
                other visual surveys for sea turtles and marine mammals 
                can only be done in daylight. The mitigation denies the 
                ability to train at night.

    To address these issues, I ask for your consideration of the 
narrowly focused amendments to the MMPA proposed by DOD in the National 
Defense Authorization Act for Fiscal Year 2004, which has now been 
transmitted by the President to Congress. Our proposal to clarify the 
definition of ``harassment'' and allow authorization of activities 
under the MMPA that would have a ``negligible'' impact on a stock or 
species, and follow recommendations made in a report to Congress by the 
National Research Council (NRC) of the National Academy of Sciences in 
2000. According to the NRC, if the current definition of Level B 
harassment (detectable changes in behavior) were applied to commercial 
shipping and recreational boating as strenuously as it is applied to 
scientific and naval activities, the result would be crippling 
regulation of nearly every motorized vessel operating in U.S. waters.
    The DOD proposed amendment to the MMPA will ensure protection of 
marine mammals while allowing sufficient flexibility to conduct 
training and other operations essential to national security. Left 
unchanged, the MMPA will continue to be the subject of litigation 
brought by special interest groups and could lead to restrictions on 
other sonar systems in use by the fleet for over 30 years.

                            AVIATION SAFETY

    28. Senator McCain. Admiral Clark, an article in the November 4, 
2002 Defense News delineated a key and expanding roll for rotary wind 
aircraft in battle group operations as you invest in MH-60R and MH-60S 
helicopters. I was surprised to learn that the Navy has elected not to 
include the Cockpit Air Bag System (CABS) crash-activated, inflatable 
protection system in these new airframes.  Analysis of crash date shows 
that airbags will save one aviator of every three that is killed in 
what are considered survivable crash sequences. The Army is currently 
equipping its rotary fleet with CABS, why has the Navy elected to 
forego this readily available means of protecting the aircraft's most 
valuable asset?
    Admiral Clark. The U.S. Navy, through Naval Air Systems Command 
engineering processes, has a hazard analysis and risk management 
program, which it applies to all type/model/series of Navy and Marine 
Corps aircraft. The Navy recognizes the benefits of CABS and has 
included it in both the MH-60S and MH-60R Operational Requirements 
Documents (ORD) as elements of the block upgrade program. Through the 
evolutionary acquisition process, these block upgrades will improve 
aircrew survivability and protect our most valuable assets.

                LITTORAL COMBAT SHIP (LCS) PROCUREMENT 

    29. Senator McCain. Admiral Clark and General Jumper, last year the 
Littoral Combat Ship (LCS) was not in the fiscal year 2003 proposed 
budget. I am impressed that you have been able to accelerate 
development and construction of Littoral Combat Ships in this year's 
budget, and your 6-year funding plan, including beginning construction 
next year. How have you been able to do this without leasing? As I 
understand it, the basis for why the Air Force needs to lease KC-767 
tankers is because our acquisition process is too slow and laborious. 
General Jumper, perhaps your acquisition people need to speak with 
Admiral Clark's. Please comment.
    Admiral Clark. LCS brings a new approach to ship development. The 
LCS acquisition, a streamlined derivative of the traditional approach, 
focuses principally on developing a ship to accommodate modular combat 
systems. These combat systems modules will be developed separately from 
ship construction. In line with recent DOD initiatives to streamline 
and tailor the acquisition process, the Navy has planned for LCS to 
begin construction no later than fiscal year 2005. LCS program 
initiation in fiscal year 2003 affords an opportunity to employ 
innovative spiral development and acquisition methods from the keel up. 
Lessons learned from Navy experimentation with small high-speed ships 
and innovative hull forms such as Hybrid Deep Vee Demonstrator (HDV(D)-
100), High Speed Vessel (HSV), Coastal Waters Interdiction Platform 
(CWIP), TRITON, and SLICE has proven invaluable in reducing program 
risk. Collaboration between the Navy and the U.S. Coast Guard Deepwater 
program and with allied nations facilitates cost effective development 
and procurement of the LCS and its associated mission capability 
modules.
    Early LCS flights will heavily leverage existing technologies and 
ship designs, thereby accelerating the timeline for requirements 
development and acquisition, which will keep delivery times for LCS 
significantly shorter than traditional ship programs.
    General Jumper. Sir, the Littoral Combat Ship will be a great asset 
to the Navy once it has been designed, built, tested, then inserted 
into the fleet. With this year's proposed budget, the Navy has funded 
their program earlier in the FYDP just as the USAF has accelerated our 
KC-135 Replacement Tanker Program into the FYDP. Both programs should 
deliver their first new systems to the warfighter toward the end of the 
FYDP. Both programs rely upon industry to design and provide suitable 
platforms for the missions. So, in essence, both the Air Force and the 
Navy used similar methods to accelerate both programs a similar amount 
of time.
    However, while the Navy must wait on industry to design and develop 
their new Littoral Combat Ship, the Air Force can immediately leverage 
the commercial 767 Tanker Transport design and development work 
performed by Boeing for the Italian and Japanese Air Forces. Just as 
the Navy has leased ships in the past to deploy combat support quickly, 
the USAF believes that leasing air-refueling tankers is a good approach 
to quickly replace our 43-plus-year-old KC-135E aircraft.
    The KC-767 leasing proposal, if approved by DOD and Congress, will 
have lower upfront costs than a traditional procurement and will field 
67 new KC-767 tankers within the FYDP, compared to one aircraft via 
traditional procurement. In addition, the leased KC-767 program could 
provide the taxpayers with the benefits of immediate high rate 
production, at a lower cost than achievable through a traditional 
approach. These innovations in the acquisition process support our 
Nation's security needs significantly faster, while providing 
responsible stewardship of our taxpayers' dollars.

                      BOEING AND DELTA IV ROCKETS

    30. Senator McCain. General Jumper, an article in the Wall Street 
Journal on February 12, 2003 reported the Air Force will pay the Boeing 
Company and Lockheed Martin Corporation $538 million to keep both 
companies in the rocket-launch business because of the continuing 
downturn in the commercial-satellite market. Is this a Department of 
Defense policy or is Secretary Roche proposing this policy on his own?
    General Jumper. The Air Force and DOD together are committed to 
providing the capability to launch our Nation's national security 
payloads required by today's warfighters. The fiscal year 2004 
President's budget provides funding for assured access initiatives to 
provide that capability.

    31. Senator McCain. General Jumper, attempts in the past to 
artificially keep two defense companies in a particular sector of the 
defense market for the sake of competition has not produced competition 
at all. In fact, there have been many independent reports that no 
efficiencies were ever realized. Does it make sense to try and keep two 
defense companies in the rocket-launch business when there may only be 
enough business for one corporation?
    General Jumper. Although competition is one of the benefits of this 
approach, the overarching need is to assure access to space for 
national security, and to do that we need to have two launch providers 
that can back each other up. When compared to heritage launch systems, 
Air Force estimates show that the EELV program still meets and exceeds 
the 25-percent cost saving goal even after the assured access 
initiatives are considered.

    32. Senator McCain. General Jumper, what other options are you 
examining with regard to this rather questionable policy on the Air 
Force's rocket-launch program?
    General Jumper. We have examined several options for providing 
assured access to space, such as foreign launch providers and greater 
utilization of the space shuttle, and have determined that maintaining 
two competing contractors to provide assured access is the best 
approach to meet the growing warfighter demands of our space assets now 
and in the future.

                           F-15 CLS CONTRACT

    33. Senator McCain. General Jumper, it has recently been brought to 
our attention that the contract for F-15 Contractor Logistic Support 
was awarded to a company whose bid was nearly 50 percent higher than 
the company that currently holds the contract. Rather than stay with 
the L-3 Corporation that has been performing this task in a fully 
satisfactory manner for $68.8 million, the Air Force chose to go with a 
bid by Boeing of $100.2 million. In fact, a recent decision to move the 
facility to St. Louis vice Seymour Johnson AFB will make the price 
difference between the two contract bids greater than $32 million due 
to much higher work rates. Are you aware of this issue? If not, will 
you please look into it and get back to this committee.
    General Jumper. This refers to a contract award that includes the 
acquisition of new F-15 training devices as well as upgrades and 
contractor logistics support for some older devices. The requirement 
under the solicitation was not the same as the previous contract. The 
request for proposal (RFP) was not asking for business as usual; 
therefore, minimally addressing the requirements would likely increase 
perceived risk for implementation of future aircraft modifications and 
upgrades. The RFP clearly stated that award would be made on a best 
value basis, with the combination of evaluation factors other than 
price (technical/management and past performance) being significantly 
more important than cost or price. Boeing's technical proposal received 
high ratings, while the technical proposal of L-3 Communications was 
marginal and had several significant weaknesses. It was the 
determination of the Order Award Authority that the technical 
advantages of Boeing's proposal outweighed the increased cost. This 
decision is consistent with Section M, of the RFP which states that the 
best value decision, ``. . . may result in an award to a higher-rated, 
higher-priced offeror, where the decision is consistent with the 
evaluation factors and the Order Award Authority reasonably determines 
that the technical superiority and/or overall business approach of the 
higher priced offeror outweighs the cost difference.''
    Location of the training system support center (TSSC) at the Boeing 
facility in St. Louis did not increase cost differences between the L-3 
and Boeing offers. The Boeing order includes fixed prices for operation 
of the TSSC.

                      BOEING KC-767 AERIAL TANKER

    34. Senator McCain. General Jumper, I continue to be troubled by 
your Service's push to lease 100 KC-767 tankers under terms that are 
clearly a disservice to the taxpayers of this country. In the context 
of your Service's desire for this lease at any cost, the retirement of 
KC-135s with relatively few flight hours concerns me.
    Just last April at a press briefing with Secretary of Defense 
Rumsfeld, the Chairman of the Joint Chiefs, General Myers, stated the 
following about the Air Force KC-135 aerial tanker fleet: ``the fleet 
is relatively healthy. These are older aircraft, but have lots of 
flying hours left on them. They've been re-engined. We are putting new 
avionics in the cockpit. There's been a lot of work done on those 
particular aircraft to keep them modern. . .''
    Let me review some of the highlights of the information that has 
been provided to Congress by independent export, the Office of 
Management and Budget, the General Accounting Office, the Department of 
Defense Inspector General, and the Congressional Budget Office. These 
are not my facts, these are facts reported by these agencies.

    GAO (2002):

        <bullet> ``The current fleet of KC-135s have between 12,000 to 
        14,000 flying hours on them--only 33 percent of the lifetime 
        flying hour limit and no KC-135s will meet the limit until 
        2040.''
        <bullet> ``While the KC-135 is an average of 41 years old, its 
        airframe hours and cycles are relatively low. With proper 
        maintenance and upgrades, we believe the aircraft may be 
        sustainable for another 41 years.''
        <bullet> ``The Boeing Company, manufacturer of the KC-135, 
        projected that the aircraft could fly for many years beyond the 
        turn of the century, based on average hours flown, and a 
        projected utilization of about 300 hours a year per aircraft.''
        <bullet> ``In fact, when I inquired about the average hours per 
        year for KC-135s, GAO said the Air Force reported, ``the KC-135 
        fleet is averaging about 300 hours per year,'' including 
        Operations Enduring Freedom and Noble Eagle data.
        <bullet> ``The Air Force Mobility Command has higher priorities 
        like replacing the C-5A, there is no requirement to begin 
        replacing KC-135s before fiscal year 2013.''

    OMB (2002):
        <bullet> Director Mitch Daniels: ``The current fleet of KC-135s 
        is in good condition; there are higher priorities in terms of 
        modernization for the Department of Defense''.

    Air Force (2002):
        <bullet> In the February 2003 issue of Military Magazine, you 
        reported that the mission capable rate for KC-135 tankers 
        improved 3.7 percent, up to 79.5 percent last year the second 
        highest in the Air Force inventory. The B-2 bomber mission 
        capable rate by comparison is only 42.1 percent, and that is up 
        10.6 percent over the previous year.
        <bullet> According to the Air Force ``Tanker Requirement Study 
        05'', replacing the KC-135 fleet with leased Boeing 767 tankers 
        would not solve, and could exacerbate, the shortfalls 
        identified in the TRS-05.

    I believe the above information clearly shows that we are 
prematurely retiring flight hour young KC-135s. The fact is there are 
aircraft in the DOD inventory as old as the KC-135s with as much as 
five times the number of flight hours that are still in service and 
will be for some time.
    I would like you to explain why you believe that the KC-135s need 
to be replaced 10 years earlier than the Air Force's most recent study, 
in spite of several independent assessments that we do not need to 
begin replacing the aircraft until 2013, and in fact, the airframes 
will not reach their flight hour limits until after 2040.
    General Jumper. The Air Force has an obligation to spend the 
taxpayer's money wisely, while providing a robust, reliable, and 
flexible air refueling force. Studies, such as the one referenced, are 
intended to provide planning information to senior leaders to allow 
them to make informed decisions rather than dictate a specific way 
ahead. Competing priorities and limited budget demand our leaders make 
choices based on risk. Today, our most pressing tanker risk is a delay 
in the recapitalization process. With over 90 percent of our air 
refueling capability resting on our venerable KC-135 fleet, replacement 
needs to begin as soon as possible. The Air Force simply cannot accept 
the risk of unknown systemic failures that could ground the fleet and 
cripple the global reach of U.S. and coalition forces.
    Every weapons system is unique and comparisons to the KC-135 should 
be taken in proper context. The KC-135 is the oldest combat weapon 
system in the Air Force inventory and particularly susceptible to 
corrosion due to its design and basing history. An abundance of hidden 
joints and layered body skins on the KC-135 provide ample opportunity 
for moisture to accumulate, which has only been exacerbated by extended 
operation in damp and coastal climates.
    Subsequent to April 2002, more about the effects of corrosion were 
learned. We  have also gained an appreciation for how much the 
projected operations and support (O&S) costs for the KC-135 fleet have 
grown since the completion of the Economic Service Life Study (ESLS). 
Originally, the ESLS estimated annual cost would escalate from $2.1 
billion per year to $3.0 billion by 2040. However, 18 months after the 
ESLS completion, we determined the average annual O&S cost estimate 
increased by $250 million over study projections. This equates to an 
11.9 percent annum increase in O&S, the equivalent of the operations 
and maintenance requirements for 62 KC-135s. The updated ESLS data now 
reflects that the annual cost would escalate from $2.2 billion to $3.4 
billion by 2040. While it is true that KC-135s are young in hours 
compared to structural design life, this fact does nothing to protect 
the airframes from the corrosive effects of years of exposure to the 
elements.
    With an average of about 17,000 flight hours versus a design limit 
of about 36,000 hours, you would not expect to see stress-induced metal 
fatigue on KC-135s. In general, that is the case. Instead, we are 
seeing age induced corrosion similar to rust, and cracked hoses and 
wiring, just as you would on a low mileage, 43-year old automobile. 
Repairing and preventing this type of corrosion is both difficult and 
expensive. The Air Force is now in the process of incrementally 
replacing the entire aircraft structure over the next 40 years.
    The combined effects of aging, the surge in demand due to the 
global war on terrorism, and the heightened steady-state stress of a 
post-September 11 world have compelled the Air Force to accelerate 
plans to replace the KC-135. Increasing costs and decreasing 
reliability and maintainability, in light of our future expectations, 
have reached the point where it no longer makes sense to continue 
investing limited resources to keep our oldest and least capable 
tankers flying.
    In summary, the Air Force simply cannot accept the risk of unknown 
systemic failures that could ground the fleet and cripple the global 
reach of U.S. and coalition forces. Today, our most pressing tanker 
risk is a delay in the recapitalization process.

    35. Senator McCain. General Jumper, what programs do you intend to 
shift funds from to enable you to pay for a lease of Boeing 767s in the 
near-term and in the long-term?
    General Jumper. The Air Force is working to identify sources to pay 
for a potential lease. If DOD approves the lease, we will submit the 
sources with reprogramming actions, budget submissions, and budget 
amendments as required.

                       NAVAL SURFACE FIRE SUPPORT

    36. Senator McCain. General Hagee, the retirement of 19 Spruance-
class destroyers reduces the number of 5-inch guns available for fire 
support missions by 38. This is an area where the Navy has had a 
chronic shortfall in capability since the battleships were retired in 
the early 1990s. What impact on the Marine Corps' ability to conduct 
amphibious operations will this additional reduction in naval guns 
have?
    General Hagee. The Navy's current Naval Surface Fire Support (NSFS) 
capability lacks sufficient range and lethality to adequately support 
the Marine Corps' concept of Ship-to-Objective Maneuver (STOM). Also, 
the fire support system on the Spruance-class destroyers is not capable 
of receiving calls-for-fire via data transmission from the Advanced 
Field Artillery Tactical Data System (AFATDS). While the Marine Corps 
is at significant risk today in terms of NSFS support for expeditionary 
operations, the retirement of these ships, to be completed by fiscal 
year 2006, will not significantly increase this risk.
    The Navy has already started fielding the 5-inch/62-caliber naval 
gun on newly built Arleigh Burke-class destroyers. The Navy is 
scheduled to field the Naval Fires Control System (NFCS) in fiscal year 
2004 to provide the capability to receive and process digital data 
calls for fire, and the 5-inch Extended Range Guided Munition (ERGM) 
will be fielded in fiscal year 2006. The introduction of these systems 
will provide an enhanced capability to provide NSFS support to 
expeditionary forces that does not reside in the current fleet of 
surface combatants.
    The Navy plans to fully meet the Marine Corps' NSFS requirements in 
the far term with the fielding of DD(X). The Marine Corps requires that 
each DD(X) be fielded with two 155-mm Advanced Gun Systems (AGS) and a 
total magazine capacity of at least 900 extended-range munitions. This 
configuration for DD(X) will be sufficient to meet minimum Marine Corps 
NSFS requirements for gun-launched munitions, assuming a total of 24 
DD(X) will be built.

                                AIRCRAFT

    37. Senator McCain. General Hagee, the V-22 is rapidly approaching 
what is theoretically a final key decision point. The Marine Corps 
demonstrated unprecedented flexibility last year in moving off of ships 
in the Indian Ocean to a base of operations hundreds of miles inland in 
Afghanistan. A force deployment of this type was thought to be beyond 
your current air fleet. Does the success of your operations in 
Afghanistan mitigate the requirement for the V-22?
    General Hagee. The MV-22 remains our number one aviation 
acquisition priority.
    We remain proud of the Marine Corps' contributions in Operation 
Enduring Freedom (OEF) and our current operations today. These 
successes highlight the Marine Corps' role in national security as a 
truly expeditionary force in readiness.
    These successes were not without risk and limitations. Issues of 
force protection, establishment, and maintaining intermediate support 
bases, limitation in total number of personnel allowed in country, 
fuel, and range limitations, long range MEDEV AC, and our ability to 
conduct ``Be Prepared To'' (BPT) missions highlighted the need to field 
improved systems like the MV-22 to our Fleet Marine Forces.
    The V-22's speed, range, payload, survivability, and self-
deployability attributes have implications on the strategic, 
operational, and tactical levels. Its use in OEF would have given the 
Joint Task Force commander an increased operational flexibility that 
would have spanned across all warfighting functions. Specifically in 
OEF the MV-22 would have:

        - Minimized risk
        - Increased operational flexibility
        - Provided a responsive sustainment capability
        - Decreased survivability concerns
        - Increased mission success for BPT

    38. Senator McCain. General Hagee, why does the Marine Corps 
continue to invest in its aging Huey fleet instead of upgrading to an 
H-60 variant that would align the Marine Corps with the future Navy 
rotary wing force? This would dramatically streamline training and 
logistical support, and provide commonality of parts support between 
Battle Groups and Amphibious Ready Groups.
    General Hagee. The Marine Corps has chosen to remanufacture both 
legacy H-1, the AH-1W, and UH-1N airframes with a focus on commonality 
as a way of reducing the logistical and manpower demands. This decision 
was controversial at Milestone II and remains a point of discussion 
because some feel that a combination of AH-64D Apaches and a variant of 
the H-60 Blackhawk (MH-60S Seahawk Combat Search and Rescue variant) 
with over 1,500 operated by the Army, Navy, Air Force, Coast Guard, and 
several other nations, would save money for the government through 
economies of scale in procurement, and shared maintenance and support 
burdens.
    However, repeated independent analysis has revealed that intra-
service commonality between the Huey and Cobra would yield greater 
benefits in areas of personnel manning requirements and logistics. Most 
recently, an analysis of alternatives for the H-1 upgrades program was 
reviewed and updated by OSD. The conclusion, once again, was that the 
AH-1Z/UH-1Y combination is the most cost effective option that meets 
the Marine Corps recapitalization and warfighting requirements. The 
commonality of 84 percent between the AH-1Z and UH-1Y results in 
significant cost savings, logistics and deployability advantages for 
the Y/Z fleet over the life cycle. All other alternatives considered 
for our attack and utility requirements would adversely impact our 
current manpower force structure and would be cost prohibited in 
procurement and life-cycle support. In order to meet USMC Utility 
Helicopter ORD Thresholds, the MH-60S would require the many additions 
and modifications to include: Digital moving map system, Helmet mounted 
display system, Aircraft Survivability suite (radar and laser 
detection, IR/RF countermeasures), crew served gun system, forward 
firing ordnance (2.75,, rocket) system with pilot sight, UHF DAMA 
SATCOM, FLIR with LDRS, Modifications for ballistic tolerances 
(OBIGGS), cockpit software, and ergonomic fixes.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn

                                  B-1

    39. Senator Cornyn. General Jumper, there is little doubt that the 
B-1 has played an important role in Operation Enduring Freedom. I would 
like to get your thoughts on how the B-1 has performed and how you 
envision the B-1s role in the future?
    General Jumper. The B-1 performed magnificently during Operation 
Enduring Freedom, delivering 39 percent of all total tonnage and 67 
percent of all JDAM dropped in Afghanistan while flying only 35 percent 
of bomber strike sorties and 12 percent of all Air Force sorties. 
Moreover, the B-1 maintained a 78-percent Mission Capable rate while 
deployed. The B-1 will continue to function as the backbone of the 
bomber fleet in direct attack operations conducted in permissive and 
semi-permissive threat environments. A non-permissive threat 
environment will necessitate the use of standoff munitions to ensure 
survivability. Armed with a full complement of 24 long-range, 
precision, stealthy JASSM-ERs, the B-1 provides critical capabilities 
to the Global Strike (GS) CONOPs while providing enhanced key 
capabilities to the Global Response (GR) CONOPs.

                                  V-22

    40. Senator Cornyn. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, I understand that Under Secretary of Defense Pete 
Aldridge was ``encouraged'' after being briefed recently on the V-22 
flight test program and that he believes he should have enough 
information by May whether to continue the V-22's production schedule. 
From an operational perspective, how would an aircraft with 
capabilities such as the V-22s help you in the global war on terrorism?
    General Shinseki. The Army does not have an operational requirement 
for an aircraft with the capabilities such as the V-22.
    Admiral Clark. The V-22 will save American lives in all military 
operations, including the global war on terrorism. With twice the speed 
of CH-46, the V-22 will deliver combat forces to the objective area 
sooner, with less exposure time spent en route. The range of the V-22, 
five times that of the CH-46, will increase our reach from forward 
bases and amphibious shipping, allowing us to influence much more of 
the battlespace simultaneously. The payload capacity of the V-22, three 
times that of the CH-46, will enable the swift delivery and rapid re-
supply of combat forces deep within enemy territory, vastly 
complicating the enemy's attempts to attack us. With aerial refueling 
support, the V-22 is capable of self-deploying worldwide. The self-
deploying capability combined with the increased speed of the V-22 will 
allow an initial response to threats much more rapidly than with our 
current helicopters. The V-22 gives our Marines and Special Forces the 
capability to strike the terrorists at any time, in any place, with 
devastating effect and with reduced risk. The V-22 will be a force 
multiplier that translates into shorter conflicts and reduced friendly 
casualties.
    General Hagee. The speed, range, payload, survivability, and self-
deployment attributes of the V-22 will provide the Joint Force 
commander with unprecedented operational reach, expanded area of 
influence, and the ability to leverage netted forces to deter or defeat 
adversaries. The MV-22 will help meet the requirements for increased 
flexibility and adaptiveness while overcoming the physical and 
political challenges of access denial.

        <bullet> Global self-deployability will enable combatant 
        commanders to reduce their strategic airlift requirements while 
        expediting warfighting capabilities from inside or outside 
        their theater.
        <bullet> The unparallel survivability of the MV-22 is a salient 
        feature that ensures that the MV-22 not only gets to the fight 
        first but returns.
        <bullet> The increased operational reach, provided by the MV-
        22, will allow the Joint Force Commander to conduct operations 
        from deep in the sea-based to deep in the landmass. The 
        combinations of a forward presence force with the capability to 
        be augmented by global self-deployable MV-22s will enhance at-
        sea-arrival and assembly operations or expeditionary land-based 
        operations. Eliminating the breakdown and build up period 
        associated with rotorcraft, the MV-22 will be able to support 
        operations on arrival in theater. The increases in speed and 
        range will allow the Joint Force Commander to leverage off of 
        the MV-22's sortie cycle efficiency to increase the tempo of 
        operations. The increases in sortie cycle efficiency will 
        permit expeditious movement of troops and supplies while always 
        retaining the ability to mass forces from a distributed and 
        dispersed environment.
        <bullet> The combinations of the V-22's attributes 
        exponentially increase the Joint Force commander's possibility 
        of options in the planning and execution phases. The 
        sanctuaries of time, space, and the tyranny of distance that 
        protects terrorist operations and cells will be reduced. The 
        MV-22 will reduce the execution timelines and increase the 
        amount of intelligence that we can act on.
        <bullet> The introduction of the V-22 will help shape the 
        operational environment and underwrite general deterrence 
        thereby assuring allies and dissuading aggression among other 
        things. Fielding the MV-22 will contribute to general 
        deterrence by conveying the impression that U.S. forces are not 
        only the most powerful forces in the world today, but are 
        likely to stay that way.

    General Jumper. The CV-22 would give the USAF a transformational 
leap forward in our ability to infiltrate and resupply Special 
Operations Forces. This platform will meet the long-standing 
requirement for long-range, night/adverse weather clandestine 
penetration of politically and/or militarily denied areas, in order to 
support special operations missions, most within one period of 
darkness. Additionally, the CV-22 has twice the combat radius of the 
MH-53, can fly 1.9 times as fast, and can carry 10,000 lbs. more 
payload.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                     SCIENCE AND TECHNOLOGY FUNDING

    41. Senator Reed. Admiral Clark, for the second consecutive year, 
the Navy is requesting a real decrease in its S&T budget. After 
removing ``pass through'' and ``devolved'' programs that are managed by 
Navy for Joint Forces Command and OSD, the Navy S&T fiscal year 2004 
request is down 3.6 percent from fiscal year 2003 requested levels in 
constant dollars.
    How are declining S&T budgets that are projected out through the 
years of the FYDP consistent with efforts of transformation? Is this a 
reflection that the value of your S&T activities in the past have had 
in supporting your warfighters?
    Admiral Clark. The Navy's fiscal year 2004 President's budget 
request for science and technology shows an increase from the fiscal 
year 2003 budget request as shown in the table below.

                            NAVAL S&T BUDGET
                        [In millions of dollars]
------------------------------------------------------------------------
                                         President's Budget Request
          Budget Activity          -------------------------------------
                                     Fiscal Year 2003   Fiscal Year 2004
------------------------------------------------------------------------
Basic Research (6.1)..............                410                457
Applied Research (6.2)............                580                536
Advanced Technology Development                   617                721
 (6.3)............................
                                   -------------------------------------
  Total Naval Science & Technology              1,607              1,714
------------------------------------------------------------------------

Pass-through
    The Department of Defense appointed U.S. Joint Forces Command 
(JFCOM) as the ``transformation laboratory'' of the United States 
military. JFCOM develops future concepts for joint warfighting. All of 
the Services help fund the unified commands. The U.S. Joint Forces 
Command is one of the nine unified commands and is budgeted in the 6.3 
portion of the naval science technology request.
    Given the expanded mission of JFCOM, it may be more appropriate to 
place JFCOM funding in a defense wide budget activity. Pending a 
defense wide line, it may be appropriate to move the funding (which is 
for prototypes, demonstrations, and concept development) up to the 
higher Navy R&D budget activities (i.e. 6.4-6.7).
    The JFCOM programs elements are listed below.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                        Fiscal year 2004
             PE Title                   PE Number         President's
                                                         Budget Request
------------------------------------------------------------------------
Navy Technical Information                  0603727N                 151
 Presentation System.............
Joint Warfare Experiments........           0603757N                13.7
                                                      ------------------
  JFCOM Total....................                                  164.7
------------------------------------------------------------------------

Devolvement
    Although several programs devolved from OSD to Navy, the largest 
devolved program, the University Research Initiative (URI) program, 
will now be managed by Navy in support of naval needs and technologies. 
$71 million is being requested for URI in fiscal year 2004. Navy will 
now be in charge of URI funding, topics, and the programs executed 
therein. In the past, Navy competed through OSD for these funds 
annually and could not incorporate these efforts into our long-term S&T 
planning. This provides an opportunity to enhance Navy's world class 
basic research program, which is the cornerstone for future 
transformational opportunities. Factoring in the URI program, Navy 
actually has real growth of 1.0 percent over the fiscal year 2003 
President's budget request. Beyond fiscal year 2004, there is real 
growth in fiscal year 2005 as well.
    While Basic Research (6.1) has benefited from the devolvement of 
the URI program to Navy, there remain difficult choices in 6.2 and 6.3 
funding to maintain the best possible portfolio in the face of the 
significantly constrained budgetary environment. This environment has 
necessitated significant cuts in the Future Naval Capabilities--
designed to deliver new capabilities to the warfighter--in order to 
focus only on the highest priority projects within the 6.2 and 6.3 
portfolio.
Transformation
    As for transformation, Navy S&T programs directly support and 
enable transformation. The fiscal year 2004 budget request contains 
several transformational initiatives, reflecting OSD and Navy 
leadership priorities. Examples of new initiatives and ongoing programs 
include the following:

        - Unmanned Combat Air Vehicle-Navy (UCAV-N)
        - Electric Power Technologies such as the Free Electron Laser 
        and High Temperature Superconducting Motor
        - Advanced Multi-function RF System (AMRFS)
        - Wideband Gap Power Devices
        - Functional Materials-Hypersonic Weapons
        - Virtual At-Sea Training (VAST)

    Recent experience in Operation Enduring Freedom, where thermobaric 
weapons and a knowledge web system were among several programs that 
transitioned directly from S&T to the fleet, demonstrates the current 
value Navy places in its S&T programs. The investment transformation 
described above will provide continued support to the warfighter.

    42. Senator Reed. Admiral Clark, are we sacrificing the next wave 
of transformation (15-20 years out) that will be driven by today's 
scientific advances by underinvesting in S&T? What programs were cut in 
order to achieve the 3.6 percent savings?
    Admiral Clark. The next wave of naval transformation (15-20 years 
out) requires a robust and strategically balanced investment in Navy's 
basic research (6.1) account which funds the Department's science 
requirements. The fiscal year 2004 6.1 budget request ($456.6 million) 
shows significant growth compared to the fiscal year 2003 request 
($409.9 million), due to the devolvement of the URI program. This is a 
real increase to the Navy 6.1 program and increases the core funding 
available for Navy discovery and invention, the bedrock of future naval 
transformation.
    While the overall portfolio for S&T increased, there have been both 
increases and decreases to specific programs, mostly in response to 
Navy and OSD leadership priorities focused on naval transformation. For 
example, increases can be found in the UCAV-N program, the Supersonic 
Cruise Missile program, and the High Altitude Auroral Research Program 
(HAARP).
    Though Core National Naval Responsibilities initiatives were 
protected from reductions, there remain difficult choices in 6.2 and 
6.3 funding to maintain the best possible portfolio in the face of a 
significantly constrained budgetary environment. This environment has 
necessitated significant cuts in the Future Naval Capabilities--
designed to deliver new capabilities to the warfighter--in order to 
focus only on the highest priority projects within the 6.2 and 6.3 
portfolio.

                       NAVAL RESEARCH LABORATORY 

    43. Senator Reed. Admiral Clark, a recent article in Defense 
Horizons titled ``The Silence of the Labs'' described the ongoing 
deterioration of the Navy's S&T capability, especially at the Naval 
Research Laboratory (NRL). What role does NRL play in achieving the 
vision of Sea Power 21? What steps are being taken to ensure that this 
organization's important capabilities are not degraded as we seek to 
transform the Navy?
    Admiral Clark. The Naval Transformational Roadmap supports 
transformation through the components which comprise Sea Power 21: Sea 
Strike, Sea Shield, Sea Basing, and ForceNet. Each of these components 
is enabled by naval science. The Office of Naval Research (ONR) has 
aligned its science and technology (S&T) investment with Naval Strategy 
with the strategic goal of naval science being to provide the 
foundation for overwhelming and enduring technological superiority for 
American naval forces. The NRL is the Navy's corporate laboratory. As 
such, it is responsible for execution of much of ONR's S&T investment 
in support of Sea Power 21.
    The role of supporting transformation is not a new one for NRL. 
Since 1923, the lab has been the source of numerous technological 
innovations that have made significant contributions to transforming 
the fleet and creating modern naval warfare. A few of these include: 
developing the first U.S. radar; inventing the key concepts leading to 
the Global Positioning System (GPS); and developing, in partnership 
with industry, GPS's four prototypes and first operational satellite. 
More recent achievements include an electronic warfare decoy, the ALE-
50, which protected combat aircraft over Kosovo, a decoy so effective 
it earned the nickname ``Little Buddy'' from U.S. pilots. Another 
innovation seeing action in Kosovo was Specific Emitter Identification 
technology, which identifies any radar by its unique characteristics 
with such accuracy as to ``fingerprint'' it. In fact, it can 
distinguish between identical models produced off the same assembly 
line. Selected by the National Security Agency as the national 
standard, Coast Guard vessels, naval warships, and aircraft use it to 
support drug interdiction, enforce treaties, and monitor the movement 
of materials used in weapons of mass destruction.
    NRL's capabilities are, therefore, very important to achieving the 
vision of Sea Power 21, which seeks to leverage innovative 
organizations, concepts, and technologies with the stated aim of 
achieving order of magnitude increases in warfighting effectiveness. 
For example, among other things, the vision calls for the use of 
unmanned platforms and an improved intelligence, surveillance, and 
reconnaissance capability. NRL has world-class expertise in both these 
areas, and in numerous others of importance.
    The problems discussed in ``The Silence of the Labs'' are not new 
and, in fact, were validated in a recently-released tri-Service lab 
study conducted under the auspices of the Naval Research Advisory 
Committee (NRAC). The study, chartered by the Director, Defense 
Research and Engineering, produced a report called ``Science and 
Technology Community in Crisis,'' which argued that the future 
viability of the Defense Department's S&T capability is threatened by 
increasing losses of key technical personnel, insufficient levels of 
funding for facility and equipment modernization, and bureaucratic 
impediments that often produce counter-productive results in the 
research environment.
    The NRAC panel emphasized, in particular, the serious demographic 
challenge the labs face over the next several years, when retirements 
are expected to claim much of their experienced scientific and 
engineering talent. Because replacing that talent is a top priority, we 
are already taking steps to improve the labs' ability to recruit, hire, 
and retain the best technical personnel. For example, we are supporting 
lab efforts to utilize, to the fullest extent, the personnel 
demonstration pilots established at a number of labs including the NRL. 
These pilots, which Congress authorized in Section 342 of the Fiscal 
Year 1995 National Defense Authorization Act, encourage participating 
labs to experiment with a variety of innovative personnel practices, 
each adapted to the many unique lab environments found within and 
across the Services. While they do not completely solve the personnel 
problems, these demonstrations have improved our ability to recruit and 
retain some of the best and brightest technical talent on the market. 
Another example is an initiative by the Chief of Naval Research 
specifically aimed at revitalizing the S&T workforce in our labs and 
centers. This collaborative effort, which also includes academic 
partners, has a number of components. For example, it provides 
scholarships at participating universities in return for obligated 
service in our labs. It also envisions retraining retired military 
technology officers and bringing them back into the labs where their 
valuable experience as warfighters can be infused into our research 
efforts. We are also supporting other congressionally authorized lab 
reform efforts including utilization of the experimental authority to 
hire scientific and  technical personnel which you authorized in 
Section 1113 of the Fiscal Year 2001 National Defense Authorization 
Act.

             SCIENCE AND TECHNOLOGY UNFUNDED PRIORITY LIST

    44. Senator Reed. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, please provide a detailed list of high priority 
science and technology (S&T) projects which are supportive of your 
efforts to transform your Services that you were not able to adequately 
invest in with the fiscal year 2004 budget request.
    General Shinseki. The Army's unfunded priorities provided to 
Congress included two S&T efforts that we were unable to fully fund in 
the fiscal year 2004 budget: $28 million for Future Combat Systems 
manufacturing technology (Man Tech) and $12 million for the Future 
Tactical Truck System (FTTS). The Man Tech funding would provide 
technology solutions to avoid costs in developing munitions and sensors 
critical to FCS. These include micro electro-mechanical systems for 
safe and arm functionality, reducing the size and increasing 
performance of inertial measurement units in munitions, and uncooled 
infrared sensors for target detection and identification. The FTTS S&T 
program is a new effort pursuing technologies for next generation 
medium and heavy tactical cargo vehicles. The primary goals of the FTTS 
program are to determine the tactical efficiencies of a hybrid-electric 
vehicle to reduce logistics demands and increase mobility and 
survivability by adding technologies such as enhanced situational 
awareness and add-on armors. The FTTS funding would provide embedded 
prognostics and intelligent load handling, a vehicle/load alignment 
system, and a smart load conforming tie-down system.
    Admiral Clark.

------------------------------------------------------------------------
                                        Fiscal
                Title                    Year           Comments
                                         2004
------------------------------------------------------------------------
Electric Based Weapons...............    61.00  Accelerated research and
                                                 development of the
                                                 electrical components,
                                                 electrical control
                                                 systems, and material
                                                 technologies needed to
                                                 support electric
                                                 weapons deployment is a
                                                 very high risk,
                                                 extremely high payoff
                                                 investment area.
                                                 However, significant
                                                 investments in these
                                                 areas will provide a
                                                 revolution in Naval
                                                 Fires, Time Critical
                                                 Strike, and Platform
                                                 Self-Defense while
                                                 significantly reducing
                                                 the logistics'
                                                 footprint required to
                                                 support this mission
                                                 area. Products include
                                                 Electromagnetic Gun
                                                 Naval Fires, advanced
                                                 directed energy self-
                                                 defense weapons, and
                                                 Free Electron Laser
                                                 100KW demonstration.
CVN-21/Advanced Capability Ship......    49.00  Accelerated research and
                                                 development of the
                                                 electrical components,
                                                 electrical control
                                                 systems, and material
                                                 technologies needed to
                                                 support significant
                                                 expansion of electric
                                                 power systems and
                                                 reduction of high
                                                 maintenance fluid
                                                 systems is a complex
                                                 high risk, high payoff
                                                 investment area.
                                                 However, significant
                                                 investments in these
                                                 areas will ``unlock''
                                                 the significant amount
                                                 of propulsion power for
                                                 enhanced warfighting
                                                 capability, such as
                                                 higher sortie rates,
                                                 increased striking
                                                 capability, and
                                                 improved self-defense
                                                 while significantly
                                                 reducing system
                                                 maintenance and
                                                 logistics footprint
                                                 required to support
                                                 these platforms.
FORCENET.............................    45.00  Develop and demonstrate
                                                 a shipboard ADM of an
                                                 Advanced Multifunction
                                                 RF System (AMRF-C) that
                                                 will encompass current,
                                                 planned, and future-
                                                 growth comms, EW, and
                                                 LPI radar functions in
                                                 C, X, and Ku Bands for
                                                 LCS, DD(X) subs, and
                                                 CVN-21. Demonstrate
                                                 wide- and narrow-band
                                                 anti-jam (AJ)
                                                 waveforms, a wideband
                                                 AJ high altitude UAV
                                                 comms and network
                                                 package, and a
                                                 narrowband AJ/LPI/LPD
                                                 comms and network
                                                 package (JTRS)
                                                 necessary for planned
                                                 and future FORCENET
                                                 use. Develop
                                                 technologies and
                                                 architectures to
                                                 support high data rate,
                                                 uninterruptible network
                                                 to deployed sea base
                                                 and forces projected
                                                 ashore.
Space S&T............................    17.10  Provide the next
                                                 generation of
                                                 technologies to enhance
                                                 and transform both
                                                 naval and joint
                                                 warfighting
                                                 capabilities. The
                                                 enhancement of space-
                                                 based communications,
                                                 navigation, ISR, METOC,
                                                 and space control all
                                                 hinge on the
                                                 development of
                                                 spacecraft, payloads,
                                                 and components which
                                                 are more robust,
                                                 responsive, covert, and
                                                 economical. Examples of
                                                 target technologies are
                                                 micro-satellites, MEMS,
                                                 high bandwidth encoding
                                                 techniques, autonomous
                                                 operations, etc.
Precision Strike/Solutions to GPS        60.10  Provide jam-resistant
 Jamming.                                        missile guidance by
                                                 ultra-tightly-coupled
                                                 GPS/INS system  when
                                                 stand alone GPS
                                                 receiver is jammed,
                                                 thereby, circumventing
                                                 jammer threats. The
                                                 ultra-tightly-coupled
                                                 GPS/INS will increase
                                                 precision flight time
                                                 of weapon to target and
                                                 hands off to inertial
                                                 navigation to guide the
                                                 weapon when jammed for
                                                 the last few minutes of
                                                 flight. Precision
                                                 navigation, guidance,
                                                 and control in a GPS
                                                 denied environment; Nav
                                                 by imagery, low cost
                                                 MEMS and laser IMUs and
                                                 weapon integrated
                                                 precision timekeeping.
                                                 Precision target
                                                 location sensors across
                                                 EM/optical spectrum and
                                                 signal/image track
                                                 processors both on and
                                                 off-board surface, air,
                                                 and gun launched
                                                 weapons. Network,
                                                 computational, and
                                                 mission planning
                                                 technology for
                                                 precision targeting.
                                                 Aircraft and weapon
                                                 airframe and propulsion
                                                 technologies to counter
                                                 emerging threat
                                                 spectrum.
Littoral ASW (LASW)..................    50.00  Significantly increase
                                                 ASW applied research to
                                                 provide technology to
                                                 meet the 2015 threat.
                                                 Develop components of
                                                 advanced off-board
                                                 distributed systems.
                                                 Develop technology for
                                                 cross platform sensor
                                                 level fusion and
                                                 estimating performance
                                                 of advanced sensors.
                                                 Demonstrate airborne
                                                 electromagnetic
                                                 detection system for
                                                 Multi-Mode Aircraft and
                                                 Unmanned Air Vehicles
                                                 (UAVs). Demonstrate
                                                 wide area cueing using
                                                 advanced electro-optic/
                                                 infrared systems and
                                                 high altitude long
                                                 endurance UAVs.
                                                 Demonstrate components
                                                 for transition to light
                                                 weight torpedo plan
                                                 product improvement
                                                 program.
MANTECH..............................     5.50  Although Navy previously
                                                 committed to Congress
                                                 to funding the program
                                                 at $60 million per
                                                 year, PB04 (fiscal year
                                                 2004) request is only
                                                 $54.5 million.
Academic Research Fleet Renewal--        80.00  There is a pressing need
 UNOLS.                                          to modernize the
                                                 country's aging
                                                 Academic Oceanographic
                                                 Research Fleet through
                                                 an orderly, phased
                                                 renewal plan with
                                                 construction of 4 new
                                                 Ocean Class ships and 3
                                                 new Regional Class
                                                 ships over the next 10
                                                 years.
Seabasing/STOM.......................    24.00  Logistics planning and
                                                 execution from CONUS to
                                                 Seabase and Objective.
                                                 Develop capabilities to
                                                 support command and
                                                 control on the move
                                                 from the Seabase to the
                                                 Objective. Naval
                                                 Surface Fire Support
                                                 improvements in range,
                                                 projectiles/fusing,
                                                 precision, and volume
                                                 of fire. Ammunition
                                                 resupply of surface
                                                 combatants.
Organic MCM..........................     6.00  Protective Mining--
                                                 Protect sea basing.
                                                 Integrated joint
                                                 command and control for
                                                 multiple, cooperating
                                                 unmanned systems.
Mine Countermeasures Reconnaissance..    30.00  Develop clandestine
                                                 approaches to
                                                 countermeasures
                                                 networked minehunting
                                                 using fully
                                                 reconnaissance
                                                 autonomous, cooperative
                                                 vehicles with
                                                 classification sensors
                                                 reporting tactical
                                                 control ID indicators.
                                                 Develop and demonstrate
                                                 mission capability
                                                 package for LCS using
                                                 coordinated swarms of
                                                 autonomous,
                                                 interactive, underwater
                                                 vehicles engaged in
                                                 networked minehunting.
  Total..............................   427.70
------------------------------------------------------------------------

    General Hagee. The Marine Corps looks for innovation in four broad 
areas to address future challenges, e.g., transformational 
technologies. Our commitment to S&T, rooted in the axiom that forward 
thinking now equates to tangible transformation today, manifests as 
programmed growth in fiscal year 2004. Promising projects such as the 
Expeditionary Tactical Communications System, the Joint High Speed 
Vessel, and the Target Handoff System (experimental) support, on the 
move command and control, Sea-Basing and Sea Strike respectively. We 
are also transforming the way we do business through proactive joint 
experimentation. To support this effort, three Joint Concept 
Development and Experimentation (JCDE) divisions were established and 
have already leveraged concepts amongst the Services. While JCDE is 
adequately funded, have noted the benefits to be achieved by increasing 
the funding for this effort and the Center for Emerging Threats and 
Opportunities.
    Attached you will find a detailed listing of unfunded fiscal year 
2004 Department of the Navy S&T programs. (See Admiral Clark's response 
to same question.) These programs support our transformational efforts.
    General Jumper. One of the most important efforts currently ongoing 
within our S&T program is the work we're doing to enhance the 
Battlefield Air Operations (BAO) kit equipment carried by the Air Force 
Special Tactics Controllers who perform operations deep in enemy 
territory to help identify who the terrorists are, where their weapons 
are located, and who the innocent civilians are. Using very rapid 
spirals to speed development, prototyping, testing, production, and 
fielding, the Air Force is working to realize significant enhancements 
to these kits, while reducing weight and size. The following list is a 
representative summary of high priority S&T efforts, including 
enhancements to the BAO kit, for which the Air Force could use 
additional funding in fiscal year 2004. A more detailed, comprehensive 
list will be provided to the Senate Armed Services Professional Staff 
as requested.

------------------------------------------------------------------------
                                                                 [In
                           Effort                            millions of
                                                               dollars]
------------------------------------------------------------------------
BAO Kit Enhancements.......................................       13.000
Basic Research for Nanosatellites, Space Control, Command          8.000
 and Control, and Super Energetic Propellants..............
Intelligence, Surveillance, and Reconnaissance (lSR)              11.800
 Automation for Time-Critical Targeting....................
Joint Battlespace Infosphere...............................       13.900
Electronically Steerable Array and Space-Based Radar On-          10.000
 Board Processing..........................................
Advanced Payload--Hard and Deeply Buried Targets...........        3.000
Commanders' Decision Aids for Predictive Battlespace               3.500
 Awareness.................................................
Laser Infrared Flyout Experiment Advanced Technology               7.400
 Demonstration.............................................
Denied Area Surveillance...................................        1.000
Airborne Active Denial System Integrated Concept...........       35.860
Force Protection...........................................        3.000
Human Systems Countermeasures to Future Laser Threats......        3.100
Targets Under Trees........................................        3.800
Effects-Based Operations...................................        4.000
------------------------------------------------------------------------

                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                            OVERSEAS BASING

    45. Senator Akaka. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, what level of involvement have each of you had with 
the series of Overseas Basing Studies currently being conducted 
regarding our overseas presence?
    General Shinseki. The Secretary of the Army has directed the Army 
staff to conduct an extensive review of Army Strategic Posture looking 
out over the next 10 years. The intent is to ensure that the Army is 
able to meet all the requirements of the combatant commanders and is 
well positioned to seamlessly transform to the Objective Force. 
Concurrently, the Secretary of Defense has directed that his staff, the 
Joint Staff, and the combatant commanders review future posture and 
overseas basing. The Army is working in coordination with these efforts 
to ensure the synchronization necessary to meet the Army's 
responsibilities for flexible power projection and sustained land 
dominance as part of the joint force. The Army will continue to work 
closely with the combatant commanders, the Joint Staff, and the Office 
of the Secretary of Defense to ensure we have the appropriate posture 
and force structure to meet both the current strategic requirements and 
the many future challenges to our national security.
    Admiral Clark. I have been briefed on these studies throughout 
their development. In the specific instance of the SECDEF Overseas 
Basing Requirements Study completed in December 2002, the Navy assisted 
in shaping the effort through a Flag/General Officer Steering Committee 
and through a staff-level working group.
    I have also been briefed on the findings of the Integrated Global 
Presence and Basing study initiated in March 2003 by the Secretary of 
Defense. I expect the results of this study to be published in October 
2003.
    General Hagee. The Secretary of Defense has requested the 
examination of global positioning of forces, capabilities, and 
supporting infrastructure be accelerated. He has tasked the Under 
Secretary of Defense for Policy, the Chairman of the Joint Chiefs of 
Staff, and the combatant commanders with developing, by July 1, 2003, a 
comprehensive and integrated presence and basing strategy looking out 
10 years.
    The United States Marine corps is participating in this 
examination, providing input at both the Service level to the Joint 
staff and at the component level to the combatant commanders. This work 
is being coordinated with other ongoing efforts within the Department 
of defense including the directed study on Oversees Basing Requirements 
(OBRS, 2002), the ongoing JROC directed Overseas Presence Study (OPS,) 
the ongoing Joint Staff Operational Availability Study (OA), and the 
ongoing Deputy Assistant Secretary of Defense (Policy) analysis of 
overseas presence requirements.
    General Jumper. We have been engaged with OSD, the Joint Staff, the 
Combatant Commands, and other Services over the past 1\1/2\ years with 
these basing studies. We will continue to stay engaged as basing 
options are further developed and will work with the Combatant Commands 
to implement the options the Secretary of Defense decides upon.

    46. Senator Akaka. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, in evaluating our overseas force structure in both 
Europe and Asia, what options are being considered if we should choose 
to change our current structure? What would each of these options 
require from a facilities and infrastructure standpoint?
    General Shinseki. The Army and its regional Army Service Component 
Commanders are working with the Office of the Secretary of Defense, the 
Joint Staff, and each of the geographic combatant commanders and staffs 
to determine the global posture of engagement which best supports our 
national security strategy. The Army will work to determine the cost or 
need for additional facilities in the continental United States once 
these discussions yield greater fidelity for the potential courses of 
action. We do know that the United States and the Republic of Korea 
have agreed to a number of changes under the March 25, 2002, Land 
Partnership Program (LPP). This plan reduces the number of major 
installations from 41 to 23, but does not change the number of Army 
forces based on the peninsula. However, this action could facilitate 
the reduction of forces on the peninsula as the LPP takes effect 
between now and 2011.
    Admiral Clark. In August 2001, the Secretary of Defense directed 
all combatant commanders to review overseas basing requirements and to 
examine opportunities for joint use of facilities and land by the 
Services, consolidate infrastructure, and enhance training. The 
Department of Defense continues to examine these opportunities within 
the context of a global strategy. This will include an assessment of 
facilities and infrastructure needs, and should be completed by October 
2003.
    General Hagee. We are not planning any significant force structure 
changes in Europe or Asia. Our intent is, and always has been, to 
continue to support the regional combatant commanders in accordance 
with our Title 10 responsibilities.
    General Jumper. We have infrastructure--enduring in value and 
strategically located--that we would like to maintain in both Europe 
and Asia. We are pursuing a network of Main Operating Bases (MOB), 
Forward Operating Bases (FOB), and Forward Operating Locations (FOL) to 
support our expeditionary air force. This architecture will enhance our 
access to areas adversaries seek to deny, distribute our forward 
presence, and increase airbase availability by using bases in receptive 
host nations.
    In a few cases we may move some of our forces to new MOB; this will 
likely require extensive infrastructure improvements. In contrast to 
our MOBs, we plan to develop more FOBs, bases with a few, but adequate 
number of permanently stationed personnel to keep them ``warm.'' 
Accordingly, we will improve or develop only a limited amount of 
infrastructure at such bases. Using a rotational force, we would then 
periodically deploy to these FOBs, using such opportunities to 
familiarize our forces with the FOBs and exercise with our friends and 
allies. Complementing our MOBs and FOBs, we will have designated FOLs 
with minimal infrastructure and no permanently stationed active duty 
personnel. These FOLs are designed for contingency use. As such, 
incoming units will bring their own support equipment.

    47. Senator Akaka. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, could each of you please discuss the increasing 
strategic role that both Hawaii and Guam play in maintaining our 
forward presence in the Pacific? What additional requirements might we 
see for Hawaii and Guam in support of future operations?
    General Shinseki. East Asia will continue to be a region of 
strategic importance. Given the vast expanse of the Pacific Ocean and 
the great distances between the continental United States (CONUS) and 
East Asia, stationing Army forces forward is absolutely critical to 
reducing response time for potential contingency operations in the 
region and conducting operations in support of Pacific Command's 
(PACOM) theater security cooperation plans. Hawaii remains critical to 
supporting potential operations in Korea and Southeast Asia. 
Maintaining combat ready forces in Hawaii, such as the 25th Infantry 
Division, reduces the deployment time to each of these regions by more 
than 20 percent compared to CONUS-based forces. Additionally, the 
shorter deployment legs help us conduct sustained operations throughout 
the Pacific.
    There are approximately 28,000 soldiers stationed in Hawaii, about 
one-third of whom are Reserve component personnel. Headquarters, U.S. 
Army Pacific, co-located with Headquarters, PACOM, provides Title X 
support to PACOM and manages Army operations throughout the Pacific 
region outside of Korea. The 25th Infantry Division runs a Division 
Ready Brigade cycle to provide PACOM with a ground force ready and 
deployable for any contingency. The 25th Infantry Division participates 
in numerous training activities throughout the region to enhance 
military cooperation with important allies such as Japan, Australia, 
the Philippines, and Thailand. The 45th Corps Support Group provides 
continuous support for units and personnel performing critical 
missions, whether they are major operations such as Operation Enduring 
Freedom-Philippines, exercises such as Cobra Gold (Thailand), or small 
unit deployments.
    In the future, Hawaii will continue to play a critical role in 
support of U.S. military objectives in the Pacific. As proposed for 
congressional funding in the fiscal year 2004 Army budget submission, 
we plan to transform one brigade of the 25th Infantry Division into a 
Stryker Brigade Combat Team (SBCT) beginning in fiscal year 2005. This 
transformed SBCT will provide PACOM with a more lethal and survivable 
force, deployable from a forward base.
    Guam's location provides the Army with a key support base for 
operations in the East Asian littoral. While there are no active Army 
combat forces stationed on Guam, the Guam Army National Guard supports 
PACOM's missions by providing critical enabler units for deployments 
throughout his area of responsibility. Guam also provides important 
logistical and maintenance support for the Army vessels that make up 
the Army prepositioned stocks afloat fleet.
    In the future, we anticipate that Guam will continue to play a key 
role in support of Army forces deployed throughout the Western Pacific. 
With its airfield, seaport, and strategic location, Guam can serve as 
an intermediate staging base to support contingencies in the East Asian 
littoral, as well as in Northeast Asia.
    As a State and territory of the United States, Hawaii and Guam, 
respectively, provide secure locations to support Army forces operating 
in the Western Pacific. Together with the other armed services, the 
Army continues to provide critical land component capabilities for use 
in PACOM's Joint Mission Force concept.
    Admiral Clark. The Navy has long recognized the strategic value 
played by both Guam and Hawaii in support of the joint force. Both are 
essential to maintaining the U.S. forward naval presence within the 
Asia Pacific Rim and significantly improve the operational flexibility 
and efficiency of naval forces.
    Together with the Office of the Secretary of Defense and the Marine 
Corps, we are studying various options for both Guam and Hawaii as we 
move forward with the Navy's new Global Concept of Operations (CONOPs). 
Under the Global CONOPs, today's carrier battle groups (CVBGs) and 
amphibious ready groups (ARGs) will be re-configured into carrier 
strike groups (CSGs) and expeditionary strike groups (ESGs). In 
addition, the CONOPs also envisions surface action groups (SAGs) 
devoted to theater ballistic missile defense. I can assure you that 
both Guam and Hawaii are being reviewed in various contexts to 
ascertain the best way of maximizing the forward deterrent value of 
these forces.
    The Navy has already taken steps to improve its forward deployed 
posture by implementing a plan to homeport three fast attack submarines 
(SSNs) in Guam. Submarine Squadron 15 was established in Guam in fiscal 
year 2002, the U.S.S. City of Corpus Christi arrived in October 2002, 
the U.S.S. San Francisco arrived in December 2002, and the U.S.S. 
Houston is to arrive in 2004. Forward basing SSNs in Guam reduces 
transit time to/from station, equating to greater time ``in theater'' 
and additional mission days to fulfill national and fleet requirements. 
Guam is 2,100 nautical miles (7 full steaming days) closer to the 
Arabian Gulf than is Norfolk and Pearl Harbor, as such, it is uniquely 
positioned to support continued naval forward presence in the Pacific 
in the future. Additionally, its status as a U.S. territory allows 
storage and loading of prepositioned war munitions without the consent 
of a foreign government. Moreover, Guam can be used as an intermediate 
staging base and safe haven for potential non-combatant evacuation 
operations within the Pacific theater.
    Finally, both Guam and Hawaii do not have any political-military or 
diplomatic issues to address. Guam, as a U.S. territory, is the only 
guaranteed failsafe against the loss of basing rights in East Asia.
    Hawaii is home to the Commander, U.S. Pacific Fleet, U.S. Submarine 
Force, three submarine squadrons and their 25 submarines assigned to 
Pearl Harbor. COMNAVMIDPAC headquarters and numerous surface warships 
are homeported in Pearl Harbor, Hawaii. The Pacific Fleet's Maritime 
Surveillance and Reconnaissance Commander's headquarters (with four VP 
and VPU (P-3) squadrons) are located at MCB Kaneohe Bay. These forces 
are approximately 1 week closer to the Asia Pacific region than are 
West Coast forces, and thus, add flexibility/quicker response times to 
mission essential tasking. Pearl Harbor is the largest U.S. naval base 
outside of the continental United States. Consideration is being given 
to a proposal to relocate additional warships from the West Coast to 
Pearl Harbor to take advantage of Hawaii's proximity to the WESTPAC 
theater of operations. However, considerable infrastructure would be 
required to make such a move. Lastly, NCTAMS PAC is the main hub for 
Pacific Command (Joint) communications and is slated to be a teleport.
    General Hagee. The threat to peace and security within the Pacific 
region has fundamentally changed. While we still must deal with the 
traditional forces of potentially aggressive nations, we now must also 
deal with terrorism, rogue states employing asymmetric tactics, and 
weapons of mass destruction. We must be capable of dealing with all of 
these dangers. We must be able to assure our allies and friends; 
dissuade military competition; deter threats against U.S. interests and 
the interests of our friends; and decisively defeat any adversary who 
is not or cannot be deterred.
    To be more adaptable and responsive to these emerging threats and 
challenges, our Pacific Marine forces are now working with the 
Commander of the Pacific Command in examining new ways of organizing, 
employing, and supporting our forces. While this project is still in 
its initial stages, there are several key emergent Marine Corps 
concepts that highlight the importance of Hawaii and Guam within our 
future Pacific security structure.
    Our forward-deployed Marine forces will be truly expeditionary. 
They will be potent, agile, and mobile forces that can gain and 
maintain strategic access, rely on advanced sea basing, and conduct 
effective Theater Security Cooperation. These forces will require a few 
major bases, or hubs, to support their forward presence. Extending from 
these hubs, we envision smaller forward operating bases to support our 
amphibious forces with a rotational force presence. Ideally, extending 
even further throughout the region would be minimally manned training 
areas capable of providing up to battalion-sized combined training. To 
support these forward-based and forward-deployed naval forces, we will 
require in-theater logistics distribution centers. Lastly, we will 
continue to require sites for the Pacific-based future Maritime Pre-
positioned Force (MPF(F)) squadron. It is also clearly evident that 
this basing concept will require adequate strategic airlift and sealift 
to deploy and sustain our forces, and adequate intratheater mobility 
assets to move forces and supplies within theater.
    Even in this early stage of concept development, it is clear that 
both Hawaii and Guam, strategically positioned and having vital 
infrastructure, will play key roles potentially augmenting our existing 
facilities in Japan in supporting the basing, sustaining, and training 
of our forces deployed across the Pacific.
    General Jumper. We continue to value Hawaii's strategic roll in the 
Pacific. There is approximately $60 million in the fiscal year 2004 
President's budget for new military construction to support the eight 
C-17s that we will station at Hickam AFB in fiscal year 2006.
    Guam's strategic importance is becoming evident as we increase our 
focus on the global war on terrorism and other instability in the East 
Asian Littoral \1\ (EAL). We expect to develop it into the power 
projection and logistics hub for the region with permanently based and 
rotational forces.
---------------------------------------------------------------------------
    \1\ East Asian Littoral is defined as the region stretching from 
south of Japan though Australia and into the Bay of Bengal.

    48. Senator Akaka. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, could each of you please detail the support the 
U.S. receives through the host nation funded construction programs such 
as the Japanese Facilities Improvement Project program in Japan and the 
Funded Construction Program and Land Partnership Plan in Korea? What is 
the status of each of these programs and how do we currently benefit 
from these partnerships?
    General Shinseki. The Host Nation Funded Construction Program 
(HNFCP) consists of the Facilities Improvement Program (FIP) in Japan, 
the Payment-in-Kind (PIK) program in Germany, the Combined Defense 
Improvement Program (CDIP) in Korea, and the Republic of Korea Funded 
Construction (ROKFC) program in Korea.
    The primary HNFCP is the FIP, which has provided about $700 million 
of construction per year. The program was implemented in 1979 and over 
the past 20 years, the Government of Japan has built $19 billion of new 
quality of life and operational facilities for our U.S. service 
members.
    The PIK program awarded $202 million in construction projects from 
fiscal year 1994 through 2001. There is an additional $33 million 
planned for award in fiscal year 2003 and 2004.
    In Korea, the CDIP was initiated in 1982 by the Republic of Korea 
(ROK) to share the financial burden of maintaining U.S. forces in 
Korea. The CDIP funds projects that support only warfighting and 
operational facilities and total about $50+ million of construction per 
year.
    The ROKFC program was established in 1991 it provides well-being 
facilities, infrastructure, as well as warfighting projects. The ROKFC 
program funds about $135+ million of construction per year. In 2002, 
the U.S. forces Korea (USFK) and the Republic of Korea Minister of 
National Defense signed an agreement for a Land Partnership Plan (LPP). 
The LPP is a comprehensive plan for more efficient and effective 
stationing of U.S. forces in Korea. The LPP increases readiness and 
force protection; gains efficiencies; improves quality of life for U.S. 
forces in Korea; resolves civil petitions; facilitates regional 
development; and strengthens the ROK-U.S. alliance. The LPP will cost 
approximately $2.4 billion over the next 10 years. It allows USFK to 
close and consolidate some major installations by the end of 2011. The 
ROK will fund an estimated $1.3 billion to construct replacement 
facilities; purchase more than 1,200 acres for new grants; expand ROK 
military training area for U.S. use; and purchase safety easements with 
USFK exclusive grants. The U.S. will return 33,000 acres of land to the 
ROK government and is expected to fund about $1.1 billion to build 
replacement facilities for the installations it plans to relocate or 
close. The LPP allows the U.S. forces to train more efficiently 
alongside ROK forces. It will optimize land use in one of the world's 
most densely populated and congested countries and station U.S. forces 
where they can best accomplish their assigned mission.
    Admiral Clark. The Navy receives Host Nation Funded Construction 
(Burden Sharing) support from both Japan and Korea. The Japanese 
Facilities Improvement Program is funded by the Japanese Defense Agency 
and currently supports four categories of projects: force structure or 
mission increases, family housing and community support, Japanese 
initiatives including environmental and safety issues, and service 
initiatives. In Korea, two cost sharing programs are in use including 
the Combined Defense Improvement Program (CDIP) and the ROKCF. The CDIP 
supports construction of facilities related to improved combat 
operations, war reserves, and combined U.S./Korea operations. The ROKFC 
supports quality of life and sole U.S. use projects.
    All of these programs are active and help share the financial 
burden of a forward deployed posture. In fiscal year 2002 we received 
$199 million in support from the JFIP program to include $80 million 
for improvements to the Yokosuka Carrier Pier, and $4.5 million from 
ROKCF to include a $3.8 million medical clinic in Chinhae.
    General Hagee. The Marine Corps portion of the 2003 Japanese FIP is 
$142.1 million. Generally, the FIP provides housing, community support, 
environmental and safety deficiency abatement, and other non-
warfighting (i.e., other than weapons, ammunition and fuel storage) 
facilities. FIP has been very successful in supporting improved quality 
of life/quality of workplace infrastructure since the program's 
inception in 1979.
    General Jumper. The Air Force receives support, in the form of 
host-nation funded construction, from NATO, Japan, and Korea. In recent 
years, that support has averaged roughly $300 million per year. The 
funds provided by these countries are used to construct facilities that 
directly support Air Force missions, as well as facilities that support 
quality of life for Service members and their families stationed 
overseas.
    For example, the NATO contribution helps offset construction 
supporting the Air Force's roles in the NATO mission. The Japan 
Facilities Improvement Program (JFIP) supports ``defensive'' 
warfighting capabilities, such as aircraft shelters, and may be used to 
replace ``offensive'' capability facilities that predate 1979. The 
Korean CDIP funds combined Republic of Korea-United States warfighting 
requirements; while the ROKCF program funds mission support and 
quality-of-life requirements.
    In addition, under the Rhein Main transfer program, Germany is 
helping to pay for facility construction at Ramstein and Spangdahlem 
Air Bases necessary to relocate the missions currently at Rhein Main 
Air Base. In total, Germany is investing nearly $400 million to help 
pay for construction associated with this relocation. The majority of 
this construction will occur in 2004 and 2005.
    Korea's LPP is an initiative supporting the consolidation of U.S. 
installations in the Republic of Korea. USFK will vacate land no longer 
needed, due to force realignment on the Korean peninsula. At the same 
time, the Korean government will give USFK additional land around 
military installations receiving realigned forces. The U.S. Army is the 
major player in LPP. However, the Air Force is benefiting from LPP at 
Osan Air Base, where we are adding acreage to the installation to 
support housing construction.

    49. Senator Akaka. General Shinseki, Admiral Clark, General Hagee, 
and General Jumper, please provide cost estimates for the additional 
resources that would be required, on a continuing basis, to construct 
and maintain facilities in the continental United States that would be 
lost if we eliminated a permanent force structure in Europe and Japan.
    General Shinseki. The Army and its regional Army Service Component 
Commanders are working with the Office of the Secretary of Defense, the 
Joint Staff, and each of the geographic combatant commanders and staffs 
to determine the global posture of engagement which best supports our 
national security strategy. The Army will work to determine the cost or 
need for additional facilities in the continental United States once 
these discussions yield greater fidelity for the potential courses of 
action.
    Admiral Clark. The Department of Defense is developing a 
comprehensive basing strategy, including an assessment of the 
implications for facilities and infrastructure needs, that should be 
completed by October 2003. Until the results of this study are known, 
it would be premature to speculate on which commands or individual 
units, if any, should be relocated to the continental United States, 
where they might be based, or what the associated costs would be.
    General Hagee. The plant replacement value of Marine Corps 
facilities in Japan in fiscal year 2001 is $8.7 billion. In the absence 
of a force reduction and since the Marine Corps has limited 
underutilized space in the United States we expect an initial 
investment of $8.7 billion would be required to replace the plant 
provided by the Japanese in the United States. In addition, we would 
also need to increase our sustainment by at least $40 million each year 
to replace the labor provided by the Japanese government in order to 
maintain the new facilities in the United States. The Marine Corps has 
no permanent force structure in Europe.
    General Jumper. We feel that maintaining our presence in Europe and 
Japan is crucial to the United States' national security and stability 
in both regions, therefore, we have not considered completely 
withdrawing U.S. Air Forces from these regions nor studied how much it 
would cost to do so.

                   BASE OPERATIONS FUNDING SHORTFALL

    50. Senator Akaka. General Shinseki, Admiral Clark, and General 
Hagee, I am concerned about the reductions in base operations funds in 
each of your Service's budgets. Can you please comment on what you feel 
the impact of these reductions will be from a broader readiness and a 
morale perspective?
    General Shinseki. Base operations support funding for fiscal year 
2004 is $5.8 billion and represents only 65 percent of our 
requirements. The Army took some risk by funding higher priorities in 
force protection and replenishing depleted peacetime spares inventories 
to eliminate a significant readiness issue. We will continue to provide 
quality services to our soldiers and their families but in some 
instances the quantity of services will be reduced.
    Admiral Clark. I expect no impact on shore installation readiness, 
nor do I anticipate any impact on morale. The fiscal year 2004 budget 
is aligned with previous years in terms of producing a constant level 
of capability. In our effort to find efficiencies, we are making 
organizational and process changes in the management and delivery of 
installation support. Key to this effort is the establishment of a 
single consolidated organization, Commander, Navy Installations (CNI), 
whose core mission is management and operation of shore installations. 
Our fiscal year 2004 budget reflects those anticipated efficiencies.
    General Hagee. The Marine Corps strives to preserve program 
stability while balancing competing requirements of modernization, 
investment, and infrastructure. Given these competing requirements in a 
fiscally constrained environment, our base operations account has been 
funded to the optimum level without any near-term degradation to 
readiness or morale.

                      STRYKER BRIGADE COMBAT TEAM

    51. Senator Akaka. General Shinseki, could you outline the current 
plans for the 5th Stryker Brigade Combat Team (SBCT) planned for 
Hawaii?
    General Shinseki. The Army intends to field an SBCT in Hawaii. We 
have resourced all six SBCTs to contribute to fulfilling the ``1-4-2-
1'' defense construct and national security requirements; however, at 
this time, the Secretary of Defense has only authorized the procurement 
of the first four brigades. As directed by the Office of the Secretary 
of Defense, the Army will provide the Secretary of Defense with an 
analysis of potential enhancements for Stryker Brigades five and six.
    Pending Secretary of Defense approval, fielding for the 2nd 
Brigade, 25th Infantry Division, in Hawaii begins in October 2005 with 
the unit achieving initial operational capability in the summer of 
2007.

    52. Senator Akaka. General Shinseki, what are the military 
construction requirements needed to support the expected fiscal year 
2005 implementation of the SBCT?
    General Shinseki. Based on current planning, the Hawaii SBCT 
reaches initial operational capability in fiscal year 2007. Currently 
known fiscal year 2005 to fiscal year 2009 Army Military Construction 
requirements that support the Hawaii transformation and combat systems 
total about $517 million. Additionally, the Army's fiscal year 2004 
budget includes $71 million for military construction in Hawaii that is 
required to support both Legacy Force requirements that are currently 
not being met and transformation.

                       NAVY INSTALLATION COMMAND

    53. Senator Akaka. Admiral Clark, in your written testimony you 
discuss the stand up of the Navy Installation Command planned for 
October 2003 with an estimated cost savings to the Navy of $1.6 billion 
over the next 6 years. Can you detail how these savings are expected to 
be achieved?
    Admiral Clark. We anticipate savings in personnel, facilities, and 
base-operational costs due to:

        <bullet> Streamlining of shore installation management 
        procedures and policies.
        <bullet> Elimination of redundant HQ management functions and 
        cost.
        <bullet> Greater competition for contract work from aggregating 
        functions.
        <bullet> Simplification of the budgeting and funding process.
        <bullet> Increased consistency in standards and levels of 
        performance for base operations across Navy installations.
        <bullet> More focused support from contractors and support 
        organizations.
        <bullet> Expansion of regional management concept in providing 
        installation support.
        <bullet> Greater use of Information Technology tools to 
        increase efficiency.

    54. Senator Akaka. Admiral Clark, as you are aware, the Army 
undertook a similar initiative, the Installation Management Agency 
(IMA), which stood up in October 2002. What lessons have you drawn from 
and do you expect to draw from the Army's experiences with the IMA? 
What similarities and differences are there across the two Services 
that might point either to similar practices or the need for different 
approaches?
    Admiral Clark. We have been in regular dialogue with Army over the 
past year including four face-to-face meetings with senior IMA 
leadership, and have drawn the following lessons:
    First, it is essential to separate installation funding from 
mission funding. This eliminates the problem of installation funding 
migrating to mission requirements for contingency or other emergent 
actions, and thereby, adversely impacting installation support services 
to the fleet.
    Second, reducing the number of major commanders involved in running 
shore installations can generate efficiencies.
    Third, a single installation commander affords Navy the opportunity 
to consolidate the best in installation management expertise.
    Fourth, a single installation command allows major commanders to 
focus on primary missions rather than the means.
    We have several similarities between our Services in this area as 
installations in both Services generally perform similar functions. In 
the past, we both had multiple major commanders doing installation 
management functions while mission and BOS funding were programmed, 
budgeted, and allocated as a single operating budget.
    Our differences will not affect our approach. Navy moved toward 
claimant consolidation and regionalization in 1997/1998 by reducing the 
number of installation claimants from 18 to 8. Army has an additional 
layer (for policy and resourcing) between the IMA (for execution) and 
Army Chief of Staff. Navy CNI combines policy, resourcing, and 
execution and will report directly to the CNO. Navy has identified 28 
installation management functions while the Army has 95.
    Based upon these considerations, we have adopted a similar approach 
to installation management by standing up CNI on 1 October 2003.

  READINESS IMPACT OF ACCEPTING SHORT-TERM RISKS TO FUND MODERNIZATION

    55. Senator Akaka. General Shinseki, as both Secretary of Defense 
Rumsfeld and you have acknowledged, the fiscal year 2004 budget accepts 
short-term risks in order to more fully fund modernization efforts. In 
your view, what are the immediate readiness impacts of this strategy, 
especially with the high tempo our military forces are currently 
experiencing?
    General Shinseki. The Army continues to make difficult choices and 
implement changes in its investment plans and resourcing efforts. 
During the fiscal year 2004-2009 program/budget process, the Army 
modified its overall transformation plan by further reducing near-term 
efforts to support achievement of longer-term goals. These reductions 
are made in the context of a careful and prudent balance between 
immediate operational needs, e.g., the demands of homeland security and 
the global war on terrorism and the imperatives of Army transformation. 
In general, funding is increased for programs that are ``clearly 
transformational'' and support Defense transformation goals. The Army 
has chosen to manage risk in the modernization of its current force and 
the associated mid-term warfighting readiness. This risk takes the form 
of more selective modernization and recapitalization efforts for the 
current force, while still retaining sufficient efforts to ensure 
essential readiness requirements.
    The immediate readiness impacts of this strategy are minimal. 
Another metric for current readiness is the amount of funding provided 
to ground and air operational tempo (OPTEMPO). For fiscal year 2004, 
ground and air OPTEMPO are funded to provide the resources to sustain 
Army readiness for peacetime operations. The potential war in Iraq and 
the ongoing global war on terrorism have created additional 
requirements that will require passage of a 2004 supplemental to ensure 
the continued readiness of our forces.

                           COMBAT AIR PATROLS

    56. Senator Akaka. General Jumper, The Washington Post has been 
reporting that the U.S. Customs Service has begun to assist the Air 
Force in conducting combat air patrol, or CAP missions. I understand, 
however, that this support is fairly limited. Can you give us a broad 
sense of the percentage of forces engaged on an ongoing basis in 
conducting CAP missions, and how much that might increase if we were to 
go to war in Iraq?
    General Jumper. The Air Force and the U.S. Customs Service have a 
long history of working closely together, but there are important 
distinctions between our respective missions and capabilities. We 
expect Custom's role will evolve as part of their transition into the 
Department of Homeland Security, but we expect their focus will remain 
primarily law enforcement. They are well equipped to respond to general 
aviation aircraft that violate temporary flight restrictions without 
additional indications of hostile intentions. However, they have no 
capability to defend against a commandeered airliner like we 
experienced on September 11. Air defense forces, in contrast, are there 
to provide a last-ditch defensive capability against any type of 
airborne threat, but are neither equipped nor authorized to enforce 
laws. Today, both Customs and the Air Force have personnel sitting 
side-by-side 24 hours a day in the National Capitol Region Coordination 
Center, sharing data and coordinating their combined response.
    Prior to operations beginning in Iraq, approximately 0.7 percent of 
our active duty USAF personnel (2,810) were required to support air 
defense operations, including the CAP. Today that number has grown to 
just over 0.8 percent (3,000) with the addition of four alert sites. 
Should conditions indicate, the number could rapidly grow to over 1.5 
percent (6,000) to support the maximum planned defensive posture.

    57. Senator Akaka. General Jumper, is the Air Force exploring other 
options, such as expanding our cooperation with Customs, to help reduce 
the burden over the long term?
    General Jumper. The Air Force is working directly with Customs, the 
Secret Service, the Transportation Security Administration, Federal 
Agency Administration, and others in establishing the Interagency 
Homeland Air Security Coordination Center. As better aviation security 
procedures are implemented and intelligence information shared and 
fused between agencies, we expect the requirements for CAP will be 
reduced. However, we also believe it unlikely that the threat of an 
asymmetric air attack will be eliminated in the immediate future. In 
light of that, we are working to put the Noble Eagle Level 5 forces 
into a sustainable posture that will eliminate the need for continued 
mobilization of the Reserve component.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

           END STRENGTH AND MOBILIZATION OF GUARD AND RESERVE

    58. Senator Bill Nelson. General Shinseki, Admiral Clark, General 
Hagee, and General Jumper, each of the armed services is feeling 
significant pressure from the pace of current operations and the 
ongoing requirements of forward presence, peace operations, and 
training requirements. The Services do not have the numbers of 
personnel they need in the skills required to sustain the force for 
worldwide commitments--and I expect commitments to increase as the war 
on terror expands. This is a high-risk strategy--pushing end strength 
problems onto the back of the Guard and Reserve could unhinge the 
entire ``reserve system.'' Does the Nation have the Active Forces 
necessary for what we are doing now and what we are expected to do over 
the next 10 to 20 years to secure the Nation?
    General Shinseki. This question addresses a particularly vexing 
challenge for the Army, requiring a multi-faceted analysis. As I have 
previously testified, we have an Army that is too small for its mission 
profile. Emerging requirements in support of the global war on 
terrorism, uncertainties regarding long-term operational requirements, 
and the requirement to sustain existing ongoing small-scale 
contingencies while simultaneously transforming the Army certainly 
warrant a review of our entire force structure. The Army is 
particularly sensitive to the tremendous demands currently being placed 
on our Reserve component soldiers in their selfless service to the 
Nation.
    The post-September 11 environment has seen a tremendous increase in 
the number of Reserve component soldiers mobilized in support of 
ongoing operations--current steady state is approximately 30,000. As 
part of Total Army Analysis 2011 (TAA-11), the Army is reviewing its 
existing force structure, specifically focused toward facilitating 
transformation to an Objective Force capability. A critical charter of 
TAA-11 is to review the existing force structure, both active and 
Reserve, to determine the correct allocation of forces in support of 
the National Security Strategy and Defense and Transformation guidance. 
Paramount to this review will be studies focused on determining the 
correct balance of Active and Reserve Forces to ensure the Army is 
capable of meeting its responsibility to the Nation.
    Admiral Clark. The Navy has sufficient Active-Duty Forces. In fact, 
we are seeking to reduce the number of Active-Duty Forces in the coming 
years. That said, we have always relied upon Reserves to complement the 
Active Force in times of conflict, and the global war on terror is no 
exception. Reserves have filled--and are continuing to fill--positions 
requiring specific skill sets that may not reside in the Active Force. 
We will continue to take the steps needed to ensure we have the right 
balance of skill sets in both the active and Reserve components to 
complete all missions.
    General Hagee. The Marine Corps asked for and was granted an end 
strength increase of 2,400 marines for fiscal year 2003. This increase 
was greatly appreciated and came at the right time. The 2,400 marines 
were used to replenish units depleted by standing up the 4th MEB (MEB 
Hqtrs/ AT Battalion/Chemical Biological Incident Response Force/
Security Force Company). Coinciding with the end strength increase to 
175,000, the USMC continues to look at ways to return marines to the 
operating forces. Military-civilian conversions, A-76, and outsourcing 
efforts have allowed us to return approximately 900 marines to the 
operating forces. We believe that 175,000 active component end strength 
is sufficient to meet our mission requirements.
    General Jumper. This is specifically one of the questions we are 
trying to answer with a study led by our Air Force Plans and Programs, 
Directorate of Strategic Planning, Strategy and Defense Integration 
Division (AF/XPXS) called Operational Assessment. It looks at the 
suitability of the current active duty and Reserve component mix to 
meet future operations. The results of the initial study will be 
briefed to the Office of the Secretary of Defense (OSD) on 31 March 03.
    The Air Force's active duty and Reserve component mix is 
fundamentally sound, both for current and future operations. The Air 
Force Reserve component (ARC) is different than the other services. 
Several points illustrate this contention. On any given day, 35 percent 
of our Reserve component, or over 66,000 airmen, are on active duty. 
Our tanker and airlift professionals are now predominately from the 
Reserve component with approximately 61 percent of our airlift crews 
and 51 percent of our tanker personnel from the ARC. To meet Combatant 
Command requirements, our Air Expeditionary Forces use significant ARC 
forces -25 percent of our aircrews and about 14 percent of 
expeditionary combat support are from the ARC. Volunteerism is 
exceptionally high for the initial part of any contingency. For most 
operations we can meet all requirements with volunteers given 
sufficient mandays and a clear utilization plan. Additionally, our 
Reserve component maintains high readiness and ramps up quickly, 
normally within 72 hours and frequently sooner.
    The Operational Availability study validates that the Air Force has 
very few issues with ARC contribution, even when their capability is 
required with minimal warning. We clearly have some areas that require 
further examination to see if adjustments are required. However, the 
current defense strategy does not invalidate our active duty and 
Reserve mix. As long as the strategy does not change substantially, we 
are confident the Air Force will meet its requirements. A fully 
stressed defense strategy necessitates acceptance of risk in some areas 
but the Air Force's active duty and Reserve mix is not a primary 
factor.

    59. Senator Bill Nelson. General Shinseki, current and future 
operations in the global war on terrorism are increasingly requiring 
mobilization of large numbers of Reserve component forces. Mobilization 
of these patriotic citizen-soldiers is, of course, a burden on 
thousands of families and communities nationwide. The Guard and Reserve 
system is a volunteer system. Looking into the future, what do you 
think the long-term impact of extended and frequent reserve 
mobilizations will be on the strength and vitality of the Reserve 
Forces?
    General Shinseki. The Army Reserve has been in a continuous state 
of mobilization since December 1995. Rotations in Bosnia, Kosovo, 
Kuwait, and mobilizations and deployments are part of Operation Noble 
Eagle and the war on terrorism have all become part of what it means to 
serve in the Reserve components today. These recurring deployments have 
given our units a great deal of experience in being able to mobilize 
quickly and effectively.
    We are sensitive to the stresses of frequent mobilizations and the 
impacts on retention and recruiting of quality soldiers. Soldiers are 
committed to their duty and we do not anticipate any long-term impacts 
on the readiness of the force resultant from the ongoing mobilizations. 
The concerns of most soldiers, families, and employers are that the 
mobilizations are as predictable as possible and the duty is directly 
related to the defense mission of the Nation.
    Additionally, the Army Reserve is executing a Federal Reserve 
Restructuring Initiative that will, among other things, mitigate 
potential negative effects caused by increased small-scale contingency 
mobilizations and establish a goal to limit the total time mobilized 
for individual Army Reserve soldiers to 270 days over any 5-year 
period.

    60. Senator Bill Nelson. General Shinseki, what are the risks to 
the Guard and Reserve ``system'' posed by the current pace and scope of 
mobilizations--what happens if members vote with their feet and leave 
the Reserves upon release from active duty?
    General Shinseki. There is a risk of losing highly trained and 
qualified Reserve component soldiers due to these numerous mobilization 
requirements. Currently, there are over 65,000 Selected Reserve and 
94,000 Army National Guard soldiers mobilized in support of Operation 
Noble Eagle and the global war on terrorism. This represents close to 
one-third of our current Selected Reserve strength and 27 percent of 
Army National Guard strength. If upon demobilization, these individuals 
decided to leave the Reserve components, it would take several years 
for the Reserve components to reach its mandated end strength 
objective, and duty military occupational specialty qualification 
objectives. However, based on past studies, we are estimating that the 
Reserve components will lose between 20 and 30 percent of these 
soldiers. In recognition of this, the Army Reserve is executing a 
Federal Reserve Restructuring Initiative that will, among other things, 
establish human resources life-cycle management practices aimed at 
providing trained and ready units and individuals while mitigating the 
affects of multiple mobilizations.

    61. Senator Bill Nelson. General Shinseki, what about employer 
backlash?
    General Shinseki. To date, there is no data or trend to demonstrate 
that employer backlash will come as a result of the present 
mobilization. In many discussions with employers concerning employee 
mobilizations, the employers generally agree that Guard and Reserve 
employees are loyal to their companies and will be returned to their 
previous positions without difficulty. Of note is that employers want 
planning time both mobilize and demobilize. Also, there is no trend to 
indicate that multiple mobilizations have a negative impact on 
employment.

    62. Senator Bill Nelson. General Shinseki and General Jumper, the 
National Guard opposes any relegation of its structure to less than 
high-end combat capability consistent with Active Forces and essential 
to a globally relevant strategic Reserve. How will the Army and Air 
Force preserve and promote this capability within the National Guard?
    General Shinseki. The Army's transformation process includes the 
Army National Guard (ARNG). Changes to the ARNG began in 1996 with the 
ARNG Division Redesign Study (ADRS), a four-phased plan that converts 
up to 12 ARNG combat brigades-worth of structure into required combat 
support and combat service support structure. Phase 1 and 2 (fiscal 
year 1999 to 2007) conversions are ongoing or currently programmed to 
convert. Phase 3 and 4 requirements will be determined at the 
conclusion of Total Army Analysis 2011.
    In January 2002, the Army began developing a new plan, the Army 
National Guard Restructuring Initiative (AGRI), in anticipation of 
publication of the new Defense Strategy. In concert with ADRS, AGRI 
continues to reshape the ARNG; however, the AGRI concept focuses on 
converting heavy combat structure to lighter, mobile combat structure 
that is more relevant to the new defense strategy. AGRI restructures 
the Army National Guard to meet emerging requirements from homeland 
security to small-scale contingencies and major combat operations.
    AGRI reshapes selected ARNG divisions from a heavy configuration to 
a more versatile design called the Multi-Functional Division (MFD). 
Embedded within the MFD is the Mobile Light Brigade (MLB), an infantry-
centric organization enhanced with systems that provide commanders with 
more versatile capabilities over present ARNG divisional brigades. We 
envision using MLBs in a variety of mission sets to include homeland 
security, small-scale contingencies, and generating force operations. 
Additionally, we will begin funding AGRI in this Program Objective 
Memorandum.
    Through the MFD and MLB, AGRI is the Army National Guard's 
organizational bridge to the Objective Force. With initiatives like 
this, the ARNG will continue to improve its readiness and maintain a 
relevant combat force to meet the Nation's requirements.
    General Jumper. The National Guard's quest for continued relevance 
in the Expeditionary Air Force and in the arena of homeland security is 
well founded and supported by both the Secretary and myself. The Air 
National Guard specifically, as a Total Force Partner, continues to 
provide large portions of the Air Force's combat, combat support, and 
humanitarian capacity. Their aircraft, aviators, and support teams are 
second to none and we intend to continue to lean on them as we have in 
the past. The Air National Guard will remain in the forefront as the 
Department's capability-based planning construct evolves. Rest assured, 
that as we organize, train, and equip the Total Air Force for the 
future, the Air National Guard will be involved in every step of the 
process.

                       OPERATION ENDURING FREEDOM

    63. Senator Bill Nelson. General Shinseki, U.S. forces in 
Afghanistan continue to conduct dangerous combat operations. In recent 
weeks, U.S. forces completed the largest ground battle with al Qaeda 
and Taliban elements since Operation Anaconda. Are U.S. operations 
being hampered by the ``safe haven'' in the ungoverned areas of western 
Pakistan that al Qaeda and Taliban forces are using?
    General Shinseki. I believe an operational question such as this is 
best answered by the Central Command Combatant Commander. As the Chief 
of Staff of the Army, my responsibility is to provide trained and ready 
forces to the combatant commander. Afghanistan is still a dangerous 
place. The Army staff here in the Pentagon carefully monitor the 
situation there, and maintain good communications with Central Command 
so we remain ready to provide any support General Franks requests.

    64. Senator Bill Nelson. General Shinseki, how do you see U.S. 
combat operations in Afghanistan evolving over the next year and do you 
feel the combatant commander has sufficient forces to accomplish the 
missions laid out by the President?
    General Shinseki. I believe operational questions such as these are 
best answered by the Central Command Combatant Commander. The Army has 
provided all forces that the combatant commander has requested and is 
prepared to provide additional forces if required.
    The Army currently has 11,600 soldiers conducting operations in 
Afghanistan, Pakistan, and Uzbekistan. Over the next year the Army's 
numbers are expected to increase as we send in a team of soldiers to 
assist in training the Afghanistan National Army. Our goal is to have 
an Afghanistan National Army capable of providing security and able to 
defeat any threats to the legitimate government anywhere within the 
borders of Afghanistan. We will also work with the Afghanistan Minister 
of Defense and General Staff, which will control Afghanistan National 
Army operations and activities according to the directives and policies 
of the Central Government's civilian authorities. We anticipate this 
training to last 36 months.

                            SPACE CAPABILITY

    65. Senator Bill Nelson. General Jumper, space superiority ranks 
with air superiority as a top priority. The ability to exploit and 
assure U.S. access to space assets while denying the same to our 
adversaries is of great importance. As the ultimate high ground, space 
provides America with military advantages that cannot be duplicated. 
With determined exploration and exploitation of space capabilities, we 
will widen our advantages and set the bar beyond reach of any 
adversary. How important is assured access to space to our current and 
future military capability?
    General Jumper. Assured access to space and the space control 
mission are high priorities as they are critical to success in modern 
warfare. We must maintain the capability to support the current needs 
of our warfighters and be in a position to provide for future 
requirements as our Nation's dependency on space-based assets continues 
to increase. Not only do our forces need unhampered access to space-
based services, but they must be protected from the space-based 
capabilities of future adversaries. Thus, we must be prepared to 
deprive an adversary of the benefits of space capabilities when 
American interests and lives are at stake.

                          BOMBER FLYING HOURS

    66. Senator Bill Nelson. General Jumper, the Air Force has been 
putting many more flying hours on bombers particularly the B-2 and B-52 
than had been contemplated in the bomber study, that study anticipated 
the B-52 would be available through 2040. Do you see the bomber study 
conclusions as still being valid?
    General Jumper. The bomber study conclusion is still valid: 
aggressive modernization of the existing bomber force will provide an 
equivalent capability to that of a B-2C force at a significantly lower 
cost.

    67. Senator Bill Nelson. General Jumper, do you see a need to look 
at the possibility of a replacement bomber program that would be in 
place before 2040?
    General Jumper. No, not at this time, the Air Force does not see 
the need to accelerate the bomber replacement program. The Long Range 
Strike Platform (LRSP) study is progressing well and will be completed 
in early 2004. The objective of the study is to identify the most 
promising concepts and the required technology investments needed to 
support a 2012-2015 start of an acquisition program.

                        JOINT SIMULATION SYSTEM

    68. Senator Bill Nelson. General Shinseki, Admiral Clark, General 
Hagee, and General Jumper, I have been made aware of a Department of 
Defense (DOD) Program Decision Memorandum (PDM) directing the 
cancellation of the Joint Simulation System (JSIMS) program in fiscal 
year 2004 and through the Future Years Defense Program (FYDP). The PDM 
also directed the cancellation of your related Service simulations, 
although I understand now that some funding may have been restored in 
the actual fiscal year 2004 budget request that has arrived in 
Congress.
    I and other members on the Armed Services Committee who care deeply 
about the pace and scope of efforts to increase joint experimentation, 
joint training, creation of a standing joint operational headquarters, 
and joint requirements and acquisition validation, are troubled by this 
development. The program is intended to provide a joint simulation 
capability to ``integrate'' Service simulations allowing for joint 
training and experimentation at strategic, operational, and tactical 
levels. This kind of tool is essential to any effort to move the 
Military Establishment to greater joint training, doctrine and 
experimentation. What is your position on the cancellation of this 
program and the impact on your related Service simulation programs?
    General Shinseki. I do not believe the cancellation of the program 
will have an impact on joint training. The fiscal year 2003 funding was 
retained so the program manager could deliver the Block 1 software to 
the Joint Warfighting Training Center (JWFC) for their use to conduct 
Joint Task Force (JTF) component level training. This will enable the 
JWFC to continue further development to support joint training, 
doctrine, and experimentation. Moreover, the PDM directed an analysis 
of alternatives (AoA) to identify a cost-effective method of meeting 
future joint and service training requirements. The impact on the Army 
simulation is greater, however, because the Block 1 software provides 
little utility for service use. To this end, I believe it is better for 
the Army to pursue its own Title X solution with a capability to link 
with a joint simulation when it has matured.
    Admiral Clark. Navy supports the decision to cancel the Joint 
Simulation System (JSIMS) for Service use. JSIMS was over budget ($12 
million in fiscal year 2003), behind schedule (over 1 year for Block 1 
and estimates as much as 5 years for Block 2), and delivering a product 
that does not meet all of the requirements in the Operational 
Requirements Document. The impact to the Navy is that funding to 
support wargaming development has been zeroed. However, unlike the 
other Services, Navy training requirements for wargaming are directed 
at a small audience (Battle Group/Amphibious Ready Group Staff only) 
and therefore do not require the extensive hardware and manpower to run 
a JSIMS scenario. Navy will reprogram existing funds to upgrade the 
Enhanced Naval Wargaming System (ENWGS) to meet emerging training 
requirements. Because the reprogramming is minimal, Navy chose not to 
reclama the JSIMS portion of the PDM to DOD.
    General Hagee. The Marine Corps continues to support the 
requirement for an effective joint simulation capability. We concur 
with the PDM guidance to perform a near-term joint service validation 
and test of the JSIMS system and support the decision to concurrently 
perform a formal AOA to the current JSIMS program. However, we are 
concerned with the adverse impact that the PDM guidance will have on 
our ability to support, and ultimately replace, our service-specific 
legacy simulation programs. The version of JSIMS that will be delivered 
this summer will not meet the Marine Corps Title X training 
requirements. The elimination of all subsequent JSIMS funding precludes 
our ability to upgrade the JSIMS to meet these Title X mandated service 
training requirements. Therefore, we will have to continue to rely upon 
our aging legacy simulation systems. Since JSIMS was intended to 
replace our legacy systems the USMC JSIMS funding line had displaced 
the funding for those legacy systems. The elimination of the Marine 
Corps JSIMS funding line by the PDM did not include a concomitant 
provision to provide the funding required to effectively maintain and 
upgrade our existing training simulation systems and associated 
infrastructure.
    General Jumper. The Air Force accepts the fiscal trade-offs that 
led to the OSD PDM decision on the JSIMS program. Impacts to related 
Air Force simulation programs will require funding adjustments to 
maintain and improve legacy systems in current use for service and 
joint training, doctrine and experimentation.

    69. Senator Bill Nelson. General Shinseki, Admiral Clark, General 
Hagee, and General Jumper, are you satisfied that DOD directed the 
cancellation with a clear understanding of the risks and costs 
associated with closing the existing program, delaying establishment of 
a replacement program, and the potential loss of time and skilled 
modeling and simulation development personnel?
    General Shinseki. I can only assume that DOD had a clear 
understanding of the risks and cost for terminating this program. The 
Army worked very closely with them while they were drafting the PDM. We 
recommended completing Block 1, assessing the software, and then 
complete an AoA before deciding on termination. We also strongly 
recommended the service program funding be retained regardless of the 
JSIMS decision so that the Services could progress on their own toward 
their own Title X capability with the intent to link to JSIMS at a 
later date.
    Admiral Clark. I am satisfied that DOD made a good faith decision 
on the JSIMS based on management structure, overhead, and nature of the 
separate development environments. JSIMS has not adhered to basic 
acquisition principles and shows no potential to deliver a usable 
product for service use within the Acquisition Program Baseline 
timeframe. However, the PDM does allow for completion of Block I to 
address near-term joint training requirements. The PDM-directed AOA 
should recommend a follow-on program that has the ability to ``learn'' 
from JSIMS mistakes and possibly deliver a better product in less time 
than JSIMS had projected for Block 2.
    General Hagee. We are concerned with the unintended adverse impacts 
of the guidance embodied by the PDM. As I mentioned earlier, the PDM 
did not address the funding resources required to sustain our legacy 
systems in the absence of a near-term replacement joint simulation 
system that meets the Marine Corps Title X training requirements. The 
PDM zeroed out the funding that was designated to support the 
replacement of our legacy systems and the upgrade of the associated 
infrastructure. We currently have no future year funding available to 
support our legacy system sustainment and upgrade requirements.
    We are also concerned with the adverse impact on the JSIMS 
workforce as significant numbers of well-trained and experienced 
personnel abruptly depart the program. The departure of these 
critically skilled personnel is negatively impacting the Orlando-based 
modeling and simulation industry and will delay our ability to 
reestablish the cohesive joint program team required to assume 
management of a follow-on joint simulation training system acquisition 
effort.
    General Jumper. We are satisfied that OSD principals understood the 
risks and costs implied and that the final decision reflects the 
difficult fiscal trade-off's often required among competing OSD 
priorities and the mandate to remain within DOD total obligation 
authority.

    70. Senator Bill Nelson. General Shinseki, Admiral Clark, General 
Hagee, and General Jumper, are you satisfied that cancellation of the 
JSIMS program is necessary to accelerate establishment of a Joint 
National Training Capability or does it complicate achieving such an 
objective?
    General Shinseki. Cancellation of the JSIMS program should not 
complicate achieving a Joint National Training Center (JNTC) 
capability. Constructive simulations are only a small piece to JNTC 
effort and current simulations should support near term JNTC 
requirements until JSIMS is built to meet that requirement.
    Admiral Clark. The cancellation of JSIMS will help accelerate the 
establishment of a viable joint simulation training capability in the 
long-term. The program was over budget, overdue, and did not meet the 
requirements as set forth in the Operational Requirements Document.
    General Hagee. The Marine Corps continues to support the 
requirement for an effective Joint Simulation Capability as well as the 
requirement for a Joint National Training Capability. The respective 
programmatic funding decisions should take into account the 
complementary nature of these respective capabilities and should not be 
viewed as an either/or resolution. These capabilities should be 
developed concurrently while ensuring the maximum effective amount of 
interoperability.
    General Jumper. The OSD Program Decision Memorandum in question 
covered a range of resource decisions, including the cancellation of 
JSIMS and the establishment of JNTC. I would defer to OSD to comment on 
whether the two decisions were related.
    The JSIMS decisions does include provisions for an AOA to determine 
a way ahead for joint simulation, so it is clear that joint simulation 
remains a departmental goal.

    71. Senator Bill Nelson. General Shinseki, Admiral Clark, General 
Hagee, and General Jumper, what are your views on the importance of 
quality modeling and simulation to joint experimentation, joint 
training, joint doctrine, joint requirements development, and joint 
acquisition?
    General Shinseki. Modeling and simulations are absolutely essential 
to support joint and service training, experimentation, doctrine, 
requirements development, and acquisition. The Army transformation 
effort depends on the use of models and simulations to develop emerging 
systems, assess advance concepts and test doctrine, and provide a 
greater capability to train commanders and staffs in their warfighting 
task through constructive simulations.
    Admiral Clark. We must be more efficient in the manner in which we 
organize, train, and equip our forces. Modeling and simulation will 
help us to do that by providing a virtual venue for the types of joint 
training and experimentation required to develop joint requirements and 
sound doctrine.
    That said, JSIMS was not moving effectively toward a solution. It 
was over budget ($12 million in fiscal year 2003), behind schedule 
(more than 1 year for Block 1 and as much as 5 years for Block 2), and 
it would have delivered a product that fails to meet the requirements 
set forth in the Operational Requirements Document.
    General Hagee. Quality modeling and simulation provide critical 
enabling capabilities required to effectively achieve the desired goals 
of joint experimentation, joint training, joint doctrine development, 
joint requirements development, and joint acquisition. Modeling and 
simulation tools have proven their efficacy across a variety of 
applications and functions.
    These powerful tools alleviate the limitations associated with 
physical processes and entities. Simulation-based systems have been 
proven to reduce costs, increase safety, improve the effectiveness, and 
accelerate the timeframes required to perform joint training and 
experimentation. These tools have been used to facilitate doctrine 
development and identify weaknesses on which to focus the requirements 
development process. Joint acquisition programs have repeatedly 
leveraged the benefits of simulation to achieve reduced procurement 
costs, reduced live testing requirements, and reduced design cycle 
times.
    Modeling and simulation are core capabilities that will increase in 
scope and utility in support of our ongoing national training 
transformation initiatives.
    General Jumper. Quality modeling and simulation continues to be 
critical to achieving the Revolution in Military Affairs currently in 
progress and is therefore essential to joint experimentation, training, 
doctrine development, requirements definition, and acquisition.

    72. Senator Bill Nelson. General Shinseki, Admiral Clark, General 
Hagee, and General Jumper, in your view, what DOD agency should be 
responsible for the definition of requirements, research, development, 
testing, evaluation, and procurement of a joint simulation system?
    General Shinseki. The Joint Forces Command is responsible for the 
definition of requirements for a joint simulation system. Those 
requirements are then vetted through the Joint Requirements Oversight 
Committee for validation.
    Admiral Clark. In my view, operationally focused systems, 
supporting training, and experimentation activities should be the 
responsibility of the Chairman of the Joint Chiefs of Staff and of the 
Commander, Joint Forces Command. They should meet the needs of the 
Services and the functional and geographic combatant commanders to the 
maximum extent possible. Systems supporting acquisition, test and 
evaluation, and research and development should be the responsibility 
of the applicable DOD office.
    General Hagee. We have learned from our JSIMS experience that the 
degree of success of a joint acquisition program is dependent upon the 
authority provided to the central joint program management office over 
the personnel, material, and funding resources designated in support of 
that program.
    The Joint Forces Command is well positioned to lead a coordinated 
joint service effort to complete the definition of requirements, 
research, development, testing, evaluation, and procurement of a joint 
simulation system. Their personnel resources could be augmented with 
the requisite level of functional experts and acquisition professionals 
from the respective services and agencies, to include technical support 
from the Defense Modeling and Simulation Office.
    General Jumper. Joint Forces Command should be, and is, responsible 
for compiling and defining the operational requirements of all 
Warfighting Commands and their Component/Supporting Commands that will 
use any joint simulation system. The RDT&E and procurement of any 
potential joint simulation system should be under the direction of 
OSD(AT&L) and assigned service acquisition executives, or as assigned 
by OSD to the authority of an established Joint Program Office.

    [Whereupon, at 12:38 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

                              ----------                              


                        THURSDAY, MARCH 6, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                          SERVICE SECRETARIES

    The committee met, pursuant to notice, at 9:34 a.m., in 
room SD-106, Dirksen Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, Inhofe, 
Roberts, Allard, Collins, Ensign, Talent, Chambliss, Dole, 
Levin, Reed, Akaka, Bill Nelson, E. Benjamin Nelson, and 
Clinton.
    Committee staff members present: Judith A. Ansley, staff 
director; Gabriella Eisen, nominations clerk.
    Majority staff members present: Brian R. Green, 
professional staff member; William C. Greenwalt, professional 
staff member; Carolyn M. Hanna, professional staff member; 
Ambrose R. Hock, professional staff member; Gregory T. Kiley, 
professional staff member; Patricia L. Lewis, professional 
staff member; Thomas L. MacKenzie, professional staff member; 
Lucian L. Niemeyer, professional staff member; Joseph T. 
Sixeas, professional staff member; Scott W. Stucky, general 
counsel; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Madelyn R. Creedon, minority counsel; Creighton 
Greene, professional staff member; Maren R. Leed, professional 
staff member; Gerald J. Leeling, minority counsel; and Peter K. 
Levine, minority counsel.
    Staff assistants present: Michael N. Berger, Andrew Kent, 
and Sara R. Mareno.
    Committee members' assistants present: Dan Twining, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; Darren Dick, assistant to Senator Roberts; 
Douglas Flanders and Jayson Roehl, assistants to Senator 
Allard; Arch Galloway II, assistant to Senator Sessions; James 
P. Dohoney, Jr., assistant to Senator Collins; D'Arcy Grisier, 
assistant to Senator Ensign; Lindsey R. Neas, assistant to 
Senator Talent; Aleix Jarvis, assistant to Senator Graham; 
Henry J. Steenstra, assistant to Senator Dole; Russell J. 
Thomasson, assistant to Senator Cornyn; Barry Gene (B.G.) 
Wright, assistant to Senator Byrd; Elizabeth King, assistant to 
Senator Reed; Davelyn Noelani Kalipi, assistant to Senator 
Akaka; William K. Sutey and Peter A. Contostavlos, assistants 
to Senator Bill Nelson; Eric Pierce, assistant to Senator Ben 
Nelson; William Todd Houchins, assistant to Senator Dayton; 
Andrew Shapiro, assistant to Senator Clinton; and Terri Glaze, 
assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning. The committee meets today to 
receive testimony of the Secretaries on the respective posture 
of the military Services and President Bush's budget request 
for fiscal year 2004 and the future years defense program. I 
was thinking of the gravity of the times that we face today and 
how Senator Levin and I will have our 25th annual hearing with 
Service Secretaries this morning. I cannot recall in years past 
when there has been a more important time to have each of you 
address the readiness of your forces as they are poised to 
respond to such orders as the Commander in Chief may direct.
    Secretary White, Secretary Roche, we welcome you back 
before the committee. Secretary Johnson, congratulations on 
your recognition to become the Acting Secretary of the Navy. We 
have a great respect for Secretary England for his service to 
the Department of Defense and, in particular, to the Department 
of the Navy. We miss him, but he will do well in his 
challenging assignment of homeland defense.
    We look forward to this annual hearing, your personal and 
professional views on how the budget sets forth the 
requirements of your respective Services to accomplish their 
current missions, as well as the requirements to modernize and 
recapitalize for future missions of this committee's oversight 
responsibilities and decision-making functions. Indeed, you all 
deserve a tremendous amount of credit for the service you have 
provided to our Nation, and most particularly to our men and 
women in uniform and their families.
    Two weeks ago, Senators Levin, Roberts, Rockefeller, and I 
had the pleasure of visiting our U.S. military personnel in the 
Persian Gulf region, as well as in Afghanistan and Pakistan. I 
can assure you that we found our forces ready, focused, well-
equipped, and committed to respond to any orders that they may 
receive. Our forces are poised in support of our diplomatic 
efforts, and I wish to stress that over and over again, to the 
extent diplomacy may work. I think all of us still have a 
glimmer of hope that it could succeed, brought about simply by 
the forces under your respective departments, together with 
those of Great Britain and other nations of the coalition of 
the willing.
    That is the backbone of the diplomacy. As we prepare for a 
possible confrontation with Iraq, if diplomacy fails, our 
forces continue to fight the global war on terrorism elsewhere. 
The capture in Pakistan this week of Khalid Sheik Mohammed, the 
mastermind of the September 11 attack, is another significant 
blow to the al Qaeda leadership and a reminder that we have not 
been distracted by events in Iraq and, indeed, our President 
and the Department of Defense have kept up the high tempo 
worldwide on terrorism.
    North Korea poses a problem, and we note with interest the 
response that our President has directed there in his efforts 
again to have a multilateral resolution of that problem between 
Russia, China, South Korea, and the United States. As we focus 
on these important threats, we must not forget our deployed 
forces in Europe or Asia, as well as those operations deployed 
in the Balkans, Philippines, Colombia, and elsewhere, but that 
our military personnel are able to successfully conduct such 
wide-ranging missions is a tribute to their ability, their 
training, their dedication, and the support they receive from 
their families. They truly are the best, most capable military 
force in modern history, so I urge you to sustain and approve 
that action.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. We join in 
welcoming our Service Secretaries. Congratulations, Secretary 
Johnson, on your appointment. You have been here before, but in 
a different capacity. Secretary Roche, Secretary White, it is 
always good to have you two in front of us.
    At this momentous time, first and foremost on our mind is 
whether our forces have everything they need to succeed in 
their missions, should they be called upon to go to war. That 
is obviously something which every member of this committee, 
every Member of Congress, every American, wants to be assured 
about. As the Chairman mentioned, Senator Rockefeller, Senator 
Roberts, the Chairman, and I paid a visit to those troops and 
found them to be of high morale, well-motivated, and well-
trained. They feel that they are ready.
    We know that the debate about whether to go to war and if 
so, whether we should go with or without authorization of the 
United Nations, is part of a debate in a democratic society. 
They are there to protect a democratic society. All of the 
debate and discussions are part of that society, I have found 
them not to be dismayed by the kind of discussion, debate, on 
the demonstrations that have occurred. They are focused on 
their duty and their mission, and that they are aware of the 
fact that should they be called upon to go to war, that they 
will have the 100 percent support of the American people. 
Regardless of what the positions are that Americans take and 
under what conditions we should initiate an attack, there is 
going to be total unity in this country. Our troops feel it 
relative to the support for them, should, in fact, they be 
called upon.
    We also meet at a time when we have a budget which we must 
deal with. This year again, we have authorized significant 
increases in our defense budget over the last 5 years, where 
there have been sustained budget increases for the Department 
of Defense. They have been appropriate. We have been able to 
protect our readiness and our modernization at the same time we 
have provided for significant pay increases and benefit 
improvements for our forces. The men and women of the military 
deserve no less.
    What is left out of this budget, however, are the estimated 
costs of going to war, war itself, the post-Saddam period, as 
well as the additional costs of maintaining waging a war on 
terrorism. The estimates, even with ranges, have not been 
provided to us, despite many requests, and these costs are 
real. They are going to be significant, but they are not 
included in the budget request.
    Some of us feel as a matter of fact that it is 
irresponsible for us to adopt a budget resolution without 
knowing what these ranges are. The best case and worst case 
scenario estimates that will make such a big difference to the 
budgets this year and in the future are not available to us. At 
the same time, a budget request is before us which has 
significant tax cuts, for instance, which will cause a 
reduction in revenues to the Government at the same time we are 
on the verge of going to war and having extensive costs in a 
postwar period.
    There will be more on that in the next few days as to 
whether or not it is wise to proceed with adoption of a budget 
resolution in the absence of those estimates. At least as 
important is how much money we spend on national defense and 
the question of how those dollars should be spent; and that, of 
course, is the annual quest of this committee. We have to go 
through the budget request to determine what is the best way to 
spend the resources which are allocated and dedicated to the 
defense of this Nation.
    Each of our military departments has been undergoing a 
change since the end of the Cold War. The efforts of the 
Services to reshape themselves, to respond to the emerging 
security environment, will succeed if we have strong 
leadership, and the leadership of the witnesses that we have 
before us today.
    The task of charting a vision and getting the men and women 
of the Services to accept that vision will strongly depend upon 
the efforts of the three witnesses before us. I applaud them 
for their efforts to date and encourage them, as all of us 
would, to continue to exert that strong leadership to make 
these reformation efforts a reality.
    So, Mr. Chairman, we have some tough choices. There's an 
increase to the size of the budget. We nonetheless have some 
major decisions that we must make, and we look forward to 
hearing from our witnesses today to help us with that process.
    Chairman Warner. Thank you, Senator Levin. The full 
statement of each witness will be placed into the record. To 
the extent you wish in your opening remarks, if you would 
abbreviate, thank you very much. We will start with the senior 
Service, the United States Army, and Secretary of the Army 
White.

    STATEMENT OF HON. THOMAS E. WHITE, SECRETARY OF THE ARMY

    Secretary White. Thank you. Mr. Chairman, Senator Levin, 
distinguished members of the committee, I am grateful for this 
opportunity to speak with you today about the Army. Our 
priorities remain the same: win the global war on terrorism and 
transformation.
    First and foremost, I wish to thank this committee for your 
continued support of the Army. The fiscal year 2003 budget has 
allowed us to make significant improvements in many key areas. 
We have structured our budget request for fiscal year 2004 in 
the same fashion as fiscal year 2003 based on our top 
priorities of people, readiness, and transformation.
    Thanks to your support, we are making significant strides 
in the personnel area: the fully funded pay raise for all 
soldiers, targeted pay raises in selective grades, 
significantly reducing soldier out-of-pocket expenses for 
housing, and an accelerated Residential Communities Initiative 
to improve on-post quarters for our families, to name just a 
few initiatives to support our soldiers.
    To shift away from our individual replacement system, we 
are examining options for unit-manning initiatives that will 
enhance the cohesion of combat readiness of our formations 
while improving the predictability of assignment patterns for 
Army families.
    We have had since September 11 over 30,000 National Guard 
and Reserve soldiers on active duty consistently for the past 
18 months. As of today, we have activated over 128,000 of these 
reservists for current potential future operations. These 
Reserve component soldiers are performing magnificently, and we 
appreciate the tremendous support that they have received from 
their employers, as well as the American public. We recognize 
the unique sacrifices made by these citizen soldiers as they 
step up to do their duty as citizens and patriots.
    From a readiness perspective, the Army is ready for any 
additional operations we are ordered to perform in the future, 
and our great soldiers are successfully meeting our many 
current obligations around the world. With your help in fiscal 
year 2003 and again in our fiscal year 2004 budget request, we 
fully funded training requirements for the force, significantly 
improved our spare parts availability, and accelerated fielding 
of soldier support items and unit communications equipment to 
make our unit as ready as possible.
    Having said that, our operations tempo (OPTEMPO) has never 
been higher in my nearly 40 years of experience with the Army. 
While we have fully funded normal OPTEMPO and training, 
including the full complement of pre-September 11 missions such 
as Bosnia, Kosovo, the Sinai, and Korea, we have many other 
obligations as we pursue the global war on terrorism as part of 
the joint force. Post-September 11 missions of the past 18 
months include Operation Noble Eagle, here at home, Operation 
Enduring Freedom in Afghanistan, as well as operations in the 
Philippines and elsewhere. Finally, we have a significant flow 
of Army forces into the Persian Gulf in support of the 
diplomatic efforts to ensure the disarmament of Iraq. Given 
this level of activity, it should come as no surprise that 
supplemental funding will be required in 2003.
    We are working hard to balance our readiness imperative 
with realistic training with our obligations as good stewards 
of the environment with our range preservation initiative that 
you are considering. It is essential for us to restore the 
balance between the use of military lands for their uniquely 
military purposes and the need for environmental protection and 
species preservation. The readiness of our soldiers going into 
harm's way depends upon that, so we ask for your help with this 
important initiative.
    From a transformation perspective, we are transforming our 
Army even while we execute combat operations and prepare for 
future contingencies, which is an absolute necessity. There 
will be no operational problems. We are transforming the 
business side of the Army as well as the operational forces, 
and we are transforming within the joint context, not 
necessarily in a service-centered manner. We have held steady 
on the azimuth established by our Chief of Staff, General Eric 
Shinseki, in 1999, almost 4 years ago. In fiscal year 2004 we 
fund a fourth of our six Stryker brigades in the field at Fort 
Polk, Louisiana, with the Second Armed Cavalry regiment.
    We remain focused on the Objective Force for the 
restructured Comanche armed reconnaissance helicopter program. 
We are postured to successfully meet acquisition Milestone B in 
May for the Future Combat System (FCS). FCS includes the Non-
Line-of-Sight (NLOS) variant and the initial fielding 
increment, which will meet the cannon requirement previously 
addressed by the Crusader program. We remain on a glide path to 
field the first Objective Force unit in 2008 with an initial 
operational capability some 2 years later.
    On the business side of the Army, we fully solicit your 
support for the Department of Defense (DOD) transformation 
package which will greatly streamline our operations and give 
us flexibility to manage the Department in the most efficient 
manner. In the same vein, our business transformation 
initiatives are designed to achieve greater value for the 
taxpayer dollar. Our Residential Communities Initiative (RCI) 
to privatize family housing continues to be an enormous 
success, and we deeply appreciate your support. Every set of 
family quarters in the United States Army will be up to 
standard by 2007, and I can't think of any better initiative to 
support families in an Army that is a married Army than RCI. 
Furthermore, we continue to privatize on-base utilities, 
centralize Army-wide contracting, and consolidate installation 
management activities into a new agency.
    Finally, we are conducting what we call our ``Third Wave 
Initiative,'' which seeks to eliminate all non-core functions 
currently consuming Army people and dollars and find some other 
way to accomplish those tasks. Rest assured, we will pursue 
these business initiatives in full consultation with Congress.
    From a risk perspective, balancing the risk associated with 
near-term modernization and mid-term transformation has 
required us to make some very tough choices. We have had to 
terminate or restructure numerous modernization programs for 
the current force to generate the capital to fund the 
transformation. In a nutshell, our 2004 budget supplement funds 
people, readiness, and transformation at the expense of some of 
our infrastructure accounts and current force modernization. We 
made these judgments only after a careful balancing of 
operational risk, and the risk of not transforming, to provide 
the capabilities the Army needs to meet the obligations of mid- 
and long-term joint operational concepts.
    In conclusion, I wish to return to those who I mentioned 
first in my remarks and those that are most important in the 
Army, our soldiers. Their performance in Afghanistan speaks 
volumes. In the dead of winter in a landlocked country in the 
toughest terrain imaginable, they collapsed the Taliban regime 
and put al Qaeda on the run. It's been my privilege as it has 
been your privilege to visit them in Afghanistan, Kuwait, 
Bosnia, Kosovo, and all around this country.
    You could not meet a finer group of young Americans. They 
are, flat-out in my 40 years experience, the best soldiers I 
have ever seen, and we all ought to be very proud of them. Let 
me assure you they are ready for whatever contingencies and 
operations the President sees fit to order. Thank you for this 
opportunity to discuss the 2004 budget submission of the Army. 
I look forward to your questions.
    [The prepared statement of Secretary White follows:]
               Prepared Statement by Hon. Thomas E. White
    Mr. Chairman and distinguished members of the committee, thank you 
for this opportunity to report to you today on the posture of the 
United States Army.
    America's Armed Forces are the most powerful in the world. 
America's Army remains the most respected landpower to our friends and 
allies and the most feared ground force to those who would threaten the 
interests of the United States.
    Since before the birth of the Nation, American soldiers have 
instilled hope in a noble dream of liberty. They have remained on point 
for the Nation through nine wars, and the intervals of peace in the 
years between--defending the Constitution and preserving freedom. 
Magnificent in their selfless service, long in their sense of duty, and 
deep in their commitment to honor, soldiers have kept the United States 
the land of the free and the home of the brave. This is our legacy. Our 
soldiers who serve today preserve it.
    In October 1999, we unveiled our vision for the future--``Soldiers, 
on point for the Nation, transforming this, the most respected army in 
the world, into a strategically responsive force that is dominant 
across the full spectrum of operations.'' The attacks against our 
Nation on September 11, 2001, and the ensuing war on terrorism validate 
the Army's vision--people, readiness, transformation--and our efforts 
to change quickly into a more responsive, deployable, agile, versatile, 
lethal, survivable, and sustainable force.
    While helping to fight the global war on terrorism, the Army is in 
the midst of a profound transformation. Readiness remains our constant 
imperative--today, tomorrow, and the day after. Transformation, 
therefore, advances on three broad axes: perpetuating the Army's legacy 
by maintaining today's readiness and dominance; bridging the 
operational gap with an Interim Force of Stryker Brigade Combat Teams; 
and fielding the Objective Force to fight and win conflicts in the 
years beyond this decade.
    As they have throughout the Army's 227-year history, soldiers 
remain the centerpiece of our formations. Versatile and decisive across 
the full spectrum of joint missions, land forces have demonstrated time 
and again the quality of their precision in joint operations. Our 
responsibility is to provide soldiers with the critical capabilities 
needed for the tough missions we send them on.
    After 3\1/2\ years of undiminished support from the administration 
and Congress, and the incredible dedication of soldiers and Department 
of the Army civilians, we have begun to deliver the Army Vision. With 
continued strong support, we will win the war against global terrorism, 
meet our obligations to our friends and allies, remain ready to prevail 
over the unpredictable, and transform ourselves for decisive victories 
on future battlefields.
    We have achieved sustainable momentum in Army transformation; the 
framework is in place to see the Objective Force fielded this decade.

                   THE ARMY--AT WAR AND TRANSFORMING

    The United States is at war, and the Army serves the Nation by 
defending the Constitution and our way of life. It is our nonnegotiable 
contract with the American people--to fight and win our Nation's wars, 
decisively.
    In the weeks immediately following the attacks of September 11, 
2001, Special Operations Forces (SOF) infiltrated Afghanistan, 
penetrated al Qaeda and Taliban strongholds, and leveraged all 
available long-range, joint fires, enabling the Northern Alliance to 
begin dismantling the Taliban. By January 2002, U.S. and Allied 
conventional force reinforcements began to set the stage for Operation 
Anaconda, where soldiers, demonstrating courage and determination under 
the most challenging conditions, defeated al Qaeda at altitude on the 
escarpments overlooking the Shah-e-kot Valley.
    Today, more than 198,000 soldiers remain deployed and forward 
stationed in 120 countries around the globe, conducting operations and 
training with our friends and allies. Decisively engaged in the joint 
and combined fight against global terrorism, soldiers are serving with 
distinction--at home and abroad. Soldiers from both the active and the 
Reserve component have remained ``on point'' for the Nation in the 
Balkans for 7 years, in Saudi Arabia and Kuwait for 12 years, in the 
Sinai for 21 years, and in Korea and Europe for over 50 years. At the 
publication of the Army Posture Statement, there were more than 110,000 
Reserve component soldiers mobilized for active Federal service in 
support of Operation Noble Eagle and Operation Enduring Freedom. Even 
as we transform, soldiers will remain ready to answer the calls of the 
Nation to defeat well-trained, determined, and dangerous adversaries 
who miscalculate in taking on the best led, the best-equipped, and the 
best-trained army in the world.
    At war and transforming, the Army is accelerating change to harness 
the power of new technologies, different organizations, and revitalized 
leader development initiatives to remain at the head of the line. To 
accomplish this, Army transformation advances along three major axes 
towards attainment of the Objective Force. We selectively recapitalize 
and modernize today's capabilities to extend our overmatch in staying 
ready to defend our homeland, keep the peace in areas important to the 
Nation, and win the war against global terrorism. Stryker Brigade 
Combat Teams--our Interim Force--will bridge the current operational 
gap between our rapidly-deployable light forces and our later-arriving 
heavy forces, paving the way for the arrival of the Objective Force. By 
2010, the Army's Objective Force--organized, equipped, and trained for 
ground dominance, cyber-warfare, and space exploitation--will provide 
the Nation the capabilities it must have to remain the global leader, 
the strongest economy in the world, and the most respected and feared 
military force, by our friends and allies and our enemies, 
respectively.
    The surprise attacks against our Nation and Operation Enduring 
Freedom, in response to those attacks, validated the Army Vision and 
provided momentum to our efforts to transform ourselves into an 
instrument of national power that provides full spectrum operational 
capabilities that are strategically responsive and capable of decisive 
victory. In a little over 3 years, we have begun to realize the Army 
Vision--People, Readiness, and Transformation.
    The transforming Army is enriching as a profession and nurturing to 
families whose sacrifice has borne the readiness of the force for the 
past 10 years. Our well-being initiatives are our commitment to reverse 
this trend by giving our people the opportunity to become self-reliant, 
setting them up for personal growth and success, aggressively investing 
in family housing, and revitalizing single-soldier living space in our 
barracks. Our manning initiatives have filled our line divisions and 
other early deploying units to dampen the internal turbulence of 
partially filled formations and help put a measure of predictability 
back into the lives of our families.
    The Army has carefully balanced the risk between remaining ready 
for today's challenges and preparing for future crises. With unwavering 
support from the administration, Congress, our soldiers, and Department 
of the Army civilians, the Army has made unprecedented progress in its 
efforts to transform.
    We will achieve Initial Operating Capability (IOC) for the first 
Stryker Brigade Combat Team (SBCT) this summer and demonstrate the 
increased responsiveness, deployability, agility, verastility, 
lethality, survivability, and sustainability that SBCTs provide to 
combatant commanders. In a little over 3 years from initial concept to 
fielded capability, the SBCTs will allow us to glimpse the potential 
for acquisition reform in paving the way for delivery of the Objective 
Force.
    We have constructed the framework for achieving the Objective Force 
this decade: a Transformation Campaign Plan with Roadmap, the Objective 
Force White Paper, the Operational and Organizational plans for the 
Objective Force Unit of Action, and the Operational Requirements 
Document for the Future Combat System of Systems.
    Additionally, the Army is poised to fill ground maneuver's most 
critical battlefield deficiency--armed aerial reconnaissance--with 
Comanche, a capable, survivable, and sustainable aircraft that is a 
cornerstone of the Objective Force.
    All along the way, we have tested our concepts in wargames and 
experiments, checked and rechecked our azimuth to the Objective Force 
weekly and monthly, and look forward to a successful Future Combat 
System Milestone B Defense Acquisition Board decision in May of this 
year.
    However, we cannot accelerate Army Transformation without 
transforming the way the Army does business--from transformation of 
logistics and acquisition to personnel and installation transformation. 
Revolutionizing Army business management practices achieves the best 
value for taxpayers' dollars; conserves limited resources for 
investment in people, readiness, and transformation; enhances 
management of personnel systems, installations and contracting; and 
augments our potential to accelerate arrival of the Objective Force. 
Changing the Army is first about changing the way we think, and better 
business practices represent practical application of common sense 
initiatives that best serve the Army and our Nation.
    We are proud of our progress. We are grateful for the strong 
congressional support that has helped put the Army on its approach 
march to the Objective Force. The Army 2003 Posture Statement describes 
our tremendous progress in transformation--an orchestrated campaign, 
synchronized with OSD and joint transformation, to achieve the 
Objective Force and keep America's Army the dominant landpower in the 
world.

        THE STRATEGIC ENVIRONMENT--THE REQUIREMENT TO TRANSFORM

    During the last two decades of the 20th century, information-age 
technologies dramatically changed the political, economic, and military 
landscapes. Operation Desert Shield, Operation Desert Storm, and 
operations in Kuwait, Bosnia, and Kosovo illustrated the requirement 
for transforming our forces to meet the evolving, strategic 
requirements of our Nation. Survivable and extremely lethal, our heavy 
forces effectively met the requirements for which they were designed; 
yet, they were slow to deploy and difficult to sustain. Conversely, our 
light forces were rapidly deployable, but they lacked the protection, 
lethality, and tactical mobility that we seek across the spectrum of 
military operations. We were successful in winning the Cold War and, as 
a result, smaller than we had been in 40 years. The Army no longer had 
the luxury of specialized forces built to confront a single and 
narrowly defined threat like the Warsaw Pact countries.
    Today's challenges are more complex; threats are elusive and 
unpredictable. The fight against international terrorism has 
overshadowed, but not eliminated, other potential crises. Tension 
between India and Pakistan persists; stability between China and Taiwan 
is tenuous; and concern over North Korea escalates. Threats of 
transnational terrorism and the proliferation of weapons of mass 
destruction (WMD)--often financed by organized crime, illicit drug 
transactions, trafficking in women and children, and the sale of arms--
further complicate the security environment. Geopolitical trends such 
as scarce resources, youth population-spike in underdeveloped 
countries, aging populations in developed countries, and the growth of 
mega-cities, among others, presage a future strategic environment of 
diverse and widely distributed threats.
    Fully appreciating the internal and external difficulties that 
profound change engenders, we assessed the operational challenges of 
the new century against the capabilities of our Cold War Army, 
recognized the opportunity to leverage the inherent combat power of the 
technological revolution, and set a clear path ahead--the Army Vision.
    The 2002 National Security Strategy (NSS) reaffirms our military's 
highest priority--defending the United States. To do this effectively, 
we assure our allies and friends; dissuade future military competition; 
deter threats against U.S. interests, allies, and friends; and 
decisively defeat any adversary, if deterrence fails. The NSS directs 
the military to transform to a capabilities-based force ready to 
respond to unpredictable adversaries and security crises. The Objective 
Force meets these NSS requirements, and Army transformation will 
enhance our ability to conduct rapid and precise operations, achieve 
decisive results at the time and place of our choosing, and safeguard 
the Nation's ability to exercise our right of self-defense through 
preemption, when required.
    The 2001 Quadrennial Defense Review describes a capabilities-based 
approach to defense planning that provides broader military options 
across the operational spectrum, from pre- to post-conflict operations. 
The force-sizing construct--1-4-2-1--takes into account the number, 
scope, and simultaneity of tasks assigned the military: it sizes the 
force for defense of the U.S. homeland (1), forward deterrence in four 
critical regions (4), the conduct of simultaneous warfighting missions 
in two regions (2)--while preserving the President's option to call for 
decisive victory in one of those conflicts (1)--and participation in 
multiple, smaller contingency operations.

    THE ARMY--SERVING TODAY, BALANCING RISK, MANAGING TRANSFORMATION

    Soldiers are the most precise and responsive means to strike and 
then control enemy centers of gravity on the ground--where people live, 
work, and govern. American soldiers are disciplined, professional, and 
trained for success in diverse missions; they are the foundation of a 
flexible force that accomplishes its missions in the non-linear 
battlespace by integrating new, innovative technologies and techniques 
with current systems and doctrine. Our people adapt under the harshest 
conditions, whether in the deserts of Kuwait and the Sinai, the 
mountains and rice paddies of Korea, or the tropics of the Democratic 
Republic of Timor-Leste.
    These demanding commitments mean we must nurture a balance between 
current and near-term readiness and our transformation to meet future 
challenges. The Army has accepted reasonable operational risk in the 
mid-term in order to fund our transformation to the Objective Force. To 
avoid unacceptable risk, we are monitoring closely the current 
operational situation as we support the combatant commanders in the war 
against terror, conduct homeland defense, and prosecute the long-term 
effort to defeat transnational threats. We have designed and 
implemented the Strategic Readiness System (SRS) to provide a 
precision, predictive tool with which to monitor the Army and make 
appropriate adjustments to preserve current readiness. Our surge 
capacity in the industrial base further reduces current risk by keeping 
production lines warm and responsive. Our first Stryker Brigade Combat 
Team will provide the combatant commanders with a new capability to 
further mitigate operational risk--even as we transform to the 
Objective Force.

    REALIZING THE ARMY VISION--PEOPLE, READINESS, AND TRANSFORMATION

    In 1999, the Army announced its vision to transform into a more 
strategically responsive force, dominant across the full spectrum of 
military operations. The Army vision addresses three essential 
components: people, readiness, and transformation. Soldiers are the 
heart of the Army, the centerpiece of our formations, and the 
foundation of our combat power. Readiness remains our overarching 
imperative; it is the means by which we execute our nonnegotiable 
contract with the American people--to fight and win our Nation's wars, 
decisively. To preserve readiness while rapidly changing, 
transformation advances on three major axes: preserving our Army legacy 
by maintaining readiness and dominance today; bridging the operational 
gap with Stryker Brigades--the Interim Force; and fielding the 
Objective Force this decade to keep the Army dominant in the years 
beyond this decade.
    Realizing the Army vision requires the concerted effort of the 
entire Army, across all components--from warfighting to institutional 
support organizations. The Army published its Transformation Campaign 
Plan in April 2001 to synchronize and guide this complex undertaking. 
The November 2001 Objective Force White Paper describes the advanced 
capabilities and core technologies needed to build the Objective Force. 
The Army's June 2002 Army transformation Roadmap defines transformation 
as a continuous process--with specific waypoints--that increases our 
contributions to the joint force while achieving the six DOD critical 
operational goals. The result will be a more strategically responsive 
and full spectrum dominant force capable of prompt and sustained land 
combat operations as a member of the joint force.
    In support of the emerging joint operational concepts and 
architectures, the Army--as the major landpower component--continues to 
develop ground concepts for a full spectrum, and multidimensional 
force. These concepts are producing a joint force that presents 
potential enemies with multiple dilemmas across the operational 
dimensions--complicating their plans, dividing their focus, and 
increasing their chances of miscalculation.
    In future joint operations, Objective Force units will be capable 
of directing major operations and decisive land campaigns with Army 
headquarters. Objective Force headquarters at all levels will provide 
the Joint Force Commander (JFC) with seamless, joint battle command and 
decision superiority. The modularity and scalability of our Objective 
Force formations will provide an unprecedented degree of flexibility 
and adaptability to the combatant commander--providing the right force 
at the right time for decisive outcomes.

                   PEOPLE--OUR MOST VALUABLE RESOURCE

    The Army Vision begins and ends talking about people. People are 
central to everything else we do in the Army. Platforms and 
organizations do not defend this Nation; people do. Units do not train, 
stay ready, grow and develop leadership--they do not sacrifice and take 
risks on behalf of the Nation. People do. Institutions do not 
transform; people do. People remain the engine behind all of our 
magnificent moments as an Army, and the well-being of our people--the 
human dimension of our transformation--is inextricably linked to Army 
readiness.
    In our vision, we recommitted ourselves to doing two things well 
each and every day--training soldiers and civilians and growing them 
into competent, confident, disciplined, and adaptive leaders who 
succeed in situations of great uncertainty. We are dedicated to 
preparing our soldiers to lead joint formations, to enabling our 
headquarters to command and control joint forces, and to providing to 
those joint formations the capabilities only the Army can bring to the 
fight: the ability to control terrain and populations.

                           MANNING THE FORCE

    The objective of our manning strategy is to ensure we have the 
right people in the right places to fully capitalize on their 
warfighting expertise--this is the Army's commitment to the Nation, 
Army leaders, soldiers, and our families. Correctly manning our units 
is vital to assuring that we fulfill our missions as a strategic 
element of national policy; it enhances predictability for our people; 
and it ensures that leaders have the people necessary to perform their 
assigned tasks. In fiscal year 2000, we implemented a strategy to man 
our forces to 100 percent of authorized strength, starting with 
divisional combat units. The program expanded in fiscal year 2001 and 
fiscal year 2002 to include early deploying units. In fiscal year 2002, 
we maintained our manning goals and continued to fill our Divisions, 
Armored Cavalry Regiments, and selected Early Deploying Units to 100 
percent in the aggregate, with a 93 to 95 percent skill and grade-band 
match. We remain on target to accomplish our long-term goal of filling 
all Army units to 100 percent of authorized strength.

                   RECRUITING AND RETAINING THE FORCE

    In 1999, the Army missed its recruiting goals for the active 
component (AC) by about 6,300 inductees, and for the Reserve component 
by some 10,000. Our recruiting situation was simply unacceptable, and 
we committed ourselves to decisive steps and reversed that trend.
    In fiscal year 2002, the active component achieved 100 percent of 
its goal in recruiting and retention--for the third consecutive year. 
The Army exceeded its AC 79,500 enlisted accession target in fiscal 
year 2002 and exceeded our aggregate fiscal year 2002 retention 
objective of 56,800 soldiers in all three categories by 1,437. We are 
poised to make the fiscal year 2003 accession target of 73,800, and we 
expect to meet our active component fiscal year 2003 retention target 
of 57,000. The fiscal year 2004 accession target is set at 71,500.
    The Army Reserve has met mission for the last 2 years, and its 
recruiting force is well structured to meet fiscal year 2004 
challenges. The Army Reserve continues to maintain a strong Selected 
Reserve strength posture at 205,484 as of January 17, 2003,--over 100.2 
percent of the fiscal year 2003 end strength objective. Overcoming many 
recruiting and retention challenges in fiscal year 2002, the Army 
National Guard (ARNG) exceeded end strength mission, accessions were 
104.5 percent of goal, and we exceeded reenlistment objectives.
    To ensure that we continue to recruit and retain sufficient 
numbers, we are monitoring the current environment--the global war on 
terrorism (GWOT) and frequent deployments--to determine impact on 
morale, unit cohesiveness, combat effectiveness, and support of well-
being programs that draw quality people to the Army. We continue to 
examine innovative recruiting and retention initiatives. The challenges 
we face in fiscal year 2003 and 2004 are two-fold: increase recruiter 
productivity and recruiting resources necessary to maintain recruiting 
momentum when the economy becomes more robust. Resourcing recruiting 
pays dividends well beyond accessions in the year of execution. For 
example, Army advertising in fiscal year 2002 influenced not only 
fiscal year 2002 accessions, but also potential recruits who will be 
faced with enlistment decisions in fiscal year 2003 and beyond.

               RESERVE COMPONENT FULL-TIME SUPPORT (FTS)

    Today, more than 50 percent of our soldiers are in the Reserve 
component (RC). The GWOT and homeland defense are significant 
undertakings that demand a high level of resourcing. The RC has been 
key to our success in these operations. To ensure the Army's RC 
continues to meet ever-increasing demands with trained and ready units, 
the Army plans to increase full-time support authorizations 2 percent 
each year through fiscal year 2012, increasing the FTS from the current 
level of 69,915 to a level of 83,046. The Army recognizes additional 
full-time support authorizations as the number one priority of the Army 
National Guard and Army Reserve leadership.

                           CIVILIAN COMPONENT

    As a comprehensive effort to consolidate, streamline, and more 
effectively manage the force, the Army has begun an initiative to 
transform our civilian personnel system. High quality, well-trained 
civilians are absolutely essential to the readiness of our force and 
our ability to sustain operations today and in the future. Recruiting, 
training, and retaining a highly skilled, dedicated civilian workforce 
is critical in meeting our obligations to the combatant commanders and 
the Nation. Aggressive transformation of our civilian force--in which 
projections through fiscal year 2005 indicate a 16 percent annual 
turnover due to retirements and other losses--will ensure we continue 
to meet those obligations.
    As of fiscal year 2002, the Army employed 277,786 civilian 
personnel. To forecast future civilian workforce needs with precision, 
we developed the Civilian Forecasting System, a sophisticated 
projection model that predicts future civilian personnel requirements 
under various scenarios. The Army is working closely with the Office of 
the Secretary of Defense (OSD) and other Federal agencies to 
demonstrate the power of this system so they can fully leverage its 
capabilities, as well.
    The Civilian Personnel Management System XXI (CPMS XXI) has 
identified the reforms necessary to hire, train, and grow a civilian 
component that supports the transforming Army. To achieve this, we have 
redefined the way civilians are hired, retained, and managed. Mandatory 
experiential assignments will become the vehicle by which we develop 
future leaders. CPMS XXI fully responds to current mandates in the 
President's Management Agenda and incorporates the results of the Army 
Training and Leader Development Panels. For example, two initiatives 
for recruiting well-trained civilians are:

        <bullet> The Army Civilian Training, Education, and Development 
        System--a centrally managed program that accesses and trains 
        civilian interns and grows a resource pool of personnel who can 
        accede to senior professional positions.
        <bullet> The DOD Appropriations Act for Fiscal Year 2002 and 
        Fiscal Year 2003 provided direct hire authority for critical, 
        hard-to-fill medical health care occupations and enabled the 
        reduction in average fill-time for these positions to 29 days.

                            ARMY WELL-BEING

    The readiness of the Army is inextricably linked to the well-being 
of our people, and Army well-being is the human dimension of our 
transformation. Well-being responds to the physical, material, mental, 
and spiritual needs of all Army people--soldiers, civilians, retirees, 
veterans, and their families. We recognize the fundamental relationship 
between well-being programs and institutional outcomes such as 
readiness, retention, and recruiting. To support mission preparedness 
as well as individual aspirations, well-being integrates policies, 
programs, and human resource issues into a holistic, systematic 
framework that provides a path to personal growth and success and gives 
our people the opportunity to become self-reliant. We recruit soldiers, 
but we retain families--well-being programs help make the Army the 
right place to raise a family. When our families are cared for, 
soldiers can better focus on their mission--training, fighting, and 
winning our Nation's wars, decisively.
    Soldiers appreciate the Nation's devotion to them, and they are 
grateful for the country's recognition of their service and sacrifices. 
Recent improvements to the Montgomery GI Bill, Tricare for Life, 
Tricare Reform, Retired Pay Reform, the 4.1 percent general pay 
increase, and additional pay increases in 2003, are all important to 
soldiers and their families. These initiatives have helped the Army 
respond to the well-being needs of our people. Army voluntary education 
programs improve our combat readiness by expanding soldier skills, 
knowledge, and aptitudes to produce confident, competent leaders. Other 
well-being initiatives include:

        <bullet> Spouse Employment Summit. The Army is developing 
        partnerships with the private sector to enhance employment 
        opportunities for Army spouses and provide improved job 
        portability for them.
        <bullet> Spouse Orientation and Leader Development (SOLD). SOLD 
        connects Army spouses and enhances their opportunity to serve 
        as valued leaders who contribute to the readiness and future of 
        the Army and our Nation.
        <bullet> Army University Access Online. eArmyU offers soldiers 
        access to a variety of online, post-secondary programs and 
        related educational services. www.eArmyU.com is a comprehensive 
        web-portal widely accessible to soldiers, including those in 
        Afghanistan, Bosnia, and Kuwait.
        <bullet> In-State Tuition. To level the playing field for 
        access to education opportunities, the Army is working to 
        encourage States to grant in-State status for military 
        personnel and families at public colleges and universities in 
        their soldier's State of legal residence and State of 
        assignment.
        <bullet> High School Senior Stabilization. This policy enhances 
        predictability by allowing families to request stabilization at 
        their sponsor's current duty location if they have a child who 
        will graduate from high school during that year.
        <bullet> Secondary Education Transition Study (SETS) Memorandum 
        of Agreement (MOA). Facilitated by the Army, this agreement 
        among participating school superintendents is their commitment 
        to partner and improve high school transitions for DOD 
        children. Currently, over 110 school superintendents have 
        signed the SETS MOA.

   LEADER DEVELOPMENT--TRAINING SOLDIERS AND CIVILIANS, AND GROWING 
                                LEADERS

    The Army is a profession--the Profession of Arms. Conducting 
decisive ground combat operations in defense of the United States and 
its interests is a core competency of this profession. The development 
of each member of the Army is the foundation of lifelong devotion to 
duty--while in uniform and upon returning to the civilian sector.
    By its nature, our profession is extraordinarily complex and 
dangerous. The American people entrust the Army with the sacred 
responsibility to apply lethal force in defense of U.S interests. As 
such, the Profession of Arms must remain firmly grounded in 
constitutional values and must constantly change and grow to preserve 
its competitive advantage in an evolving strategic environment. At all 
levels, our leaders--military and civilian--must apply their 
professional knowledge in increasingly varied and unique situations 
that are characteristic of today's strategic environment. Ultimately, 
we must grow professional Army leaders who provide wise and discerning 
military judgments founded on long experience and proven professional 
expertise. This capacity is developed only through a lifetime of 
education and dedicated service--in peace and in war.
    Soldiers serve the Nation with the full realization that their duty 
may require them to make the supreme sacrifice for others among their 
ranks. Soldiers fighting the war on terrorism today, those who will 
fight our future wars, and those who have fought in our past wars are 
professional warfighters and a precious national asset. To ensure we 
remain the greatest landpower in the world defending the greatest 
country in the world, the Army and the Nation rely upon their unique 
and hard-earned experiences and skills. To develop the operational 
skills required to defend the Nation, training must remain our number 
one priority.
    The evolving strategic environment, the gravity of our 
responsibilities, and the broad range of tasks the Army performs 
require us to review and periodically update the way we educate, train, 
and grow professional warfighters. The Army's strategic 
responsibilities to the Nation and combatant commanders now embrace a 
wider range of missions. Those missions present our leaders with even 
greater challenges than previously experienced. Therefore, leader 
development is the lifeblood of the profession. It is the deliberate, 
progressive, and continuous process that trains and grows soldiers and 
civilians into competent, confident, self-aware, and decisive leaders 
prepared for the challenges of the 21st century in combined arms, 
joint, multinational, and interagency operations.
    In June 2000, we convened the Army Training and Leader Development 
Panel (ATLDP). The ATLDP's purpose is to identify skill sets required 
of Objective Force soldier and civilian leaders. Further, ATLDP 
assesses the ability of current training and leader development systems 
and policies to enhance these required skills. In May 2001, the Army 
Training and Leader Development Panel Phase I (Officer Study) 
identified 7 strategic imperatives and generated 89 recommendations. 
With those, we validated the requirement to transform our Officer 
Education System (OES)--from the Officer Basic Course through the 
Command and General Staff Officer Course. Additionally, the panel 
reconfirmed the value of Joint Professional Military Education II (JPME 
II) in preparing our leaders for joint assignments. The most 
significant product of the officer ATLDP is our OES transformation.
    ATLDP Phase I (Officer Study) identified three high-payoff 
institutional training and education initiatives for lieutenants, 
captains, and majors. The first of these is the Basic Officer Leader 
Course (BOLC). BOLC will provide a tough, standardized, graduate-level, 
small-unit leadership experience for newly commissioned officers. The 
second of these initiatives is the Combined Arms Staff Course for staff 
officers, and the Combined Arms Battle Command Course for company 
commanders. Both courses will capitalize on advanced distributed 
learning and intensive resident training methods. The third initiative, 
Intermediate Level Education (ILE), will provide all majors with the 
same common core of operational instruction, and it will provide 
additional educational opportunities that are tailored to the officer's 
specific career field, branch, or functional area. Beyond ILE, Army 
officers continue to attend Joint or Senior Service Colleges to develop 
leader skills and knowledge appropriate to the operational and 
strategic levels of the profession.
    Completed in May 2002, the ATLDP Phase II (NCO Study) resulted in 
78 findings and recommendations extending across 6 imperatives--Army 
culture, NCO Education Systems (NCOES), training, systems approach to 
training, training and leader development model, and lifelong learning. 
Among others, the ATLDP Phase II recommended building new training and 
leader development tools for NCOs to replace current methods, as 
required. The ATLDP Phase III (Warrant Officer Study) culminated with 
63 recommendations extending across 4 crucial imperatives. 
Recommendations included clarifying the warrant officer's unique role 
in the Army and improving the Warrant Officer Education System to 
ensure timely training and promotion. The Civilian Training and Leader 
Development Panel (Phase IV) study results are complete, and we are 
forming the Implementation Process Action Team (I-PAT). I-PAT will 
identify actions the Army must take to increase the professional 
development of our civilian workforce. At the senior leader level, the 
Army initiated the Army Strategic Leadership Course (ASLC). The program 
is aimed at teaching principles of strategic leadership, with emphasis 
on visioning, campaign planning, leading change, and transformation. To 
date, we have completed 12 of the foundation courses and 3 alumni 
courses, training the majority of the Army's general officers.

                  READINESS--WINNING OUR NATION'S WARS

Homeland Security (HLS)
    Defending our Nation--abroad and at home--against foreign and 
domestic threats is fundamental to the Army's legacy, and our 
warfighting focus provides capabilities relevant to HLS requirements. 
HLS missions range from traditional warfighting competencies that 
defeat external threats to the non-combat tasks associated with 
supporting civil authorities in domestic contingencies. Operation Noble 
Eagle mobilized over 16,000 Army National Guard soldiers to protect 
critical infrastructure. These soldiers assisted the Department of 
Transportation in securing our Nation's airports while also playing a 
vital role in securing our Nation's borders. The Army is moving forward 
to provide one Civil Support Team to each State, as required by the 
National Defense Authorization Act for Fiscal Year 2003. The Civil 
Support Teams support incident commanders and identify chemical, 
biological, radiological, nuclear, and explosive (CBRNE) agents and 
substances, assess current and projected consequences, advise on 
response measures, and assist with appropriate requests for additional 
support. To date, OSD has certified 30 of 32 teams, and the Army is 
working to establish additional teams. Collectively, the certified 
teams have performed 890 operational missions since September 11, 2001. 
The Army remains committed to HLS, dedicating AC and RC staffs to focus 
on training, doctrine, planning, and execution of DOD missions in 
support of civil authorities.
Missile Defense
    Robust missile defense is a vital warfighting requirement that 
protects both our homeland and our deployed forces. Missile defense 
includes far more than a reactive capability to shoot down missiles in 
their reentry phase. Missile defense requires a coherent system of 
sensors; battle command; weapons systems; and active, passive, 
proactive, and reactive operational concepts, all aimed at destroying 
enemy missiles--not only during their reentry phases. Missile defense 
must also be able to destroy enemy missiles on the ground, before they 
launch or during their boost phase once launched. Missile defense is 
inherently a joint capability to which the Army is a major contributor.
    The Army is deploying and employing ground mobile defense assets to 
contribute to this warfighting capability, accelerating the fielding of 
the Patriot Advanced Capability 3 (PAC 3) system, and developing 
directed energy weapons that will bring new defense measures to the 
Army and the Nation. We are postured to assume control of the Medium 
Extended Air Defense System (MEADS) program in fiscal year 2003 and 
intend to begin fielding by fiscal year 2012.
    MEADS is a transformational program of Objective Force quality and 
a significant improvement on Patriot's capabilities. It will be more 
mobile and more deployable (C-130 capable) than Patriot and cover a 
360-degree radius to Patriot's 120 degrees. It will be effective 
against low radar, cross section cruise missile targets, and require 
only 30 percent of Patriot's manpower. MEADS will be more accurate and 
more sustainable than Patriot.
Chemical Demilitarization
    In Section 1412 of Public Law 99-145, Congress directed the DOD to 
destroy the United States' chemical weapons stockpile. In turn, the 
Secretary of Defense delegated management of all chemical munitions 
disposal to the Department of the Army. On November 29, 2000, the 
Johnston Atoll Chemical Agent Disposal System, using incineration-based 
technology, completely destroyed the last stockpiles stored at the 
Atoll, and closure operations began in January 2001. The Tooele 
Chemical Agent Disposal Facility has incinerated 44 percent of the 
chemical agents and 81 percent of the munitions stored there. Disposal 
operations at these two sites destroyed 30 percent of the total U.S. 
chemical weapons stockpiles. Construction of incineration facilities at 
Anniston, Alabama; Umatilla, Oregon; and Pine Bluff, Arkansas, is 
complete. Systemization activities are on-going at Aberdeen, Anniston, 
Umatilla, and Pine Bluff. The plan to accelerate the disposal of bulk 
agents using a neutralization process at Aberdeen, Maryland, and 
Newport, Indiana, has been approved. Anniston and Aberdeen are 
scheduled to start destruction in second quarter fiscal year 2003, and 
Newport is scheduled to begin in first quarter fiscal year 2004.
    To comply with treaty agreements and the congressional mandate, we 
must complete the destruction of these weapons by 2007. The treaty 
allows for a one time, 5-year extension to this deadline. With 
continued funding and minimal schedule changes, we will safely destroy 
the U.S. stockpile of lethal chemical agents and munitions at eight 
existing CONUS sites.
Training the Force
    In October 2002, the Army released Field Manual (FM) 7-0, Training 
the Force. Synchronized with other field manuals and publications being 
updated to respond to changes in Army, joint, multinational, and 
interagency operations, FM 7-0 is the capstone doctrinal manual for 
Army training and leader development. It provides the developmental 
methodology for training and growing competent, confident soldiers, and 
it addresses both current and future Objective Force training 
requirements.
    We are transforming the way we fight future wars, and the Army is 
participating fully in a DOD-sponsored program to transform how forces 
train to fight. This effort involves four major initiatives: building 
upon existing service interoperability training; linking component and 
joint command staff planning and execution; enhancing existing joint 
training exercises to address joint interoperability; and studying the 
requirement for dedicated joint training environments for functional 
warfighting and complex joint tasks. The Army is scheduled to host the 
first joint National Training Center (NTC) event at Fort Irwin, 
California, in May 2003. During June 2003, the U.S. Army Forces Command 
will execute the second joint NTC event--JCS exercise Roving Sands.
    During the late 1990s, funding for the recapitalization and 
modernization of the Army's Combat Training Centers was reduced, 
eroding their capability to support their critical missions. 
Additionally, the Multiple Integrated Laser Engagement System equipment 
and current force instrumentation systems have become difficult to 
maintain. The Army's Combat Training Center modernization program will 
ensure that our premier training areas (NTC at Fort Irwin, Combat 
Maneuver Training Center in Germany, the Joint Readiness Training 
Center (JRTC) at Fort Polk, and the Deep Attack Center of Excellence 
near Gila Bend, Arizona) are modernized to provide high quality, 
realistic, full-spectrum joint training. To address these problems, the 
Army will invest nearly $700 million over the next 6 years to modernize 
these training centers.
OPTEMPO
    In accordance with congressional directives, the Army developed a 
new methodology to prepare budget requests that accurately reflect 
operations and maintenance requirements. In the report submitted in 
July 2002, the Army outlined updated processes that ensure consistency 
in reporting of tank miles and reflect requirements and execution with 
more precision. Management controls initiated in fiscal year 2001 to 
prevent migration of OPTEMPO funds to other areas were highly 
successful and remain in effect.
    The Army's combined arms training strategy determines the 
resourcing requirements to maintain the combat readiness of our forces. 
For the active component, the Army requires 800 ground OPTEMPO miles 
per year for the M1 Abrams tank and corresponding training support; the 
active component flying hour program requires an average of 14.5 live 
flying hours per aircrew each month. Both Army National Guard and the 
Army Reserve aircrew training strategies require 9.0 hours per crew 
each month. The ARNG ground OPTEMPO requirement is a composite average 
of 174 miles in fiscal year 2004, and the Army Reserve (USAR) ground 
OPTEMPO requirement is 200 tank-equivalent miles in fiscal year 2004.
    While this describes the Army's training strategy, actual execution 
levels from unit to unit have varied depending upon factors such as on-
going operations, safety of flight messages, and adequate manning of 
combat formations. To this end, the Army has fully funded its AC ground 
OPTEMPO requirement, while its AC flying program is funded to its 
historical execution level of 13.1 flying hours. The RC air and ground 
OPTEMPO are similarly funded to their execution levels, rather than 
their requirement. Although the Army has not always been able to 
execute the training strategy, we have taken steps to have all units 
execute the prescribed training strategy in fiscal year 2003, fiscal 
year 2004, and beyond.
Force Protection and Antiterrorism
    Force protection consists of those actions to prevent or mitigate 
hostile actions against Department of Defense personnel and includes 
family members, resources, facilities, and critical information. In the 
war on terrorism, the area of operations extends from Afghanistan to 
the East Coast and across the United States. Naturally, force 
protection and antiterrorism measures have increased across Army 
installations in the continental United States (CONUS) and overseas.
    Findings from the Cole Commission, the Downing Report on the Khobar 
Towers bombing, and Army directives to restrict access to installations 
have all led to thorough assessments by the Department of the Army 
Inspector General, the Deputy Chief of Staff for Operations, and 
commanders. Our efforts focus on improved force protection policy and 
doctrine; more rigorous training and exercises; improved threat 
reporting and coordination with national intelligence and law 
enforcement agencies; enhanced detection and deterrence capabilities 
for CBRNE threats; increased capabilities and protection for access 
control; and expanded assessments of Major Commands (MACOM) and 
installation force protection programs. Both operational and 
installation environments rely upon secure, networked information 
infrastructure to execute daily enterprise-wide processes and decision-
making, so the parameters of force protection include contemporary and 
evolving cyber threats, as well.
    The Army's Information Systems Security Program (ISSP) secures the 
Army's portion of the Global Information Grid, secures the digitized 
force, and supports information superiority and network security 
defense-in-depth initiatives. ISSP provides the capability to detect 
system intrusions and alterations and react to information warfare 
attacks in a measured and coordinated manner. To the greatest extent 
possible, it protects warfighters' secure communications--from the 
sustaining base to the foxhole.
    Soldiers, active and Reserve, are heavily engaged in force 
protection and antiterrorism missions. Soldiers guard military 
installations, nuclear power plants, dams and power generation 
facilities; tunnels, bridges, and rail stations; and emergency 
operations centers. During the 2002 Winter Olympics in Salt Lake City, 
Utah, nearly 1,500 ARNG soldiers provided security, and soldiers 
guarded key infrastructure sites during Super Bowl XXXVII in January 
2003. Over 12,500 Reserve component soldiers are currently mobilized 
for Operation Noble Eagle to fulfill force protection requirements, and 
in February 2003, over 8,000 Army National Guard soldiers will support 
Air Force security requirements--a requirement that could reach 9,500 
soldiers. Security of detention facilities and detainees at Guantanamo 
Bay Detention--a long-term detainee mission--requires approximately 
1,500 Army personnel, 50 percent of whom are military police. Army 
Reserve Internment and Resettlement battalions on 6-month rotations 
impact military police availability to CONUS force protection 
requirements.
Sustainment
    The Army is revolutionizing its logistics process. One initiative, 
the Single Stock Fund (SSF), redirected more than $540 million worth of 
secondary items from stocks to satisfy customer demands between May 
2000--SSF inception--and November 2002. During that same period, we 
redistributed more than $218 million worth of secondary items from the 
authorized stockage levels to meet higher priority readiness 
requirements. By extending national visibility of stockage locations 
and capitalizing inventories into the Army Working Capital Fund, we 
reduced customer wait time by an average of 18.5 percent. The SSF will 
continue to reduce inventory requirements and generate even more 
savings for the Army by creating greater flexibility for the management 
of inventories.
    Another initiative, the National Maintenance Program (NMP), 
enhances weapon system readiness, reliability, and availability rates 
by bringing Army Class IX repair parts to a single national standard. 
Ultimately, increased reliability will reduce overall weapon system 
operating and support cost. Additionally, the NMP centralizes the 
management and control of Army maintenance activities for components 
and end items. NMP will produce appropriately sized Army maintenance 
capacity that still meets total maintenance requirements.
Strategic Readiness Reporting
    The National Defense Authorization Act for Fiscal Year 1999 
requires the Secretary of Defense to implement a comprehensive 
readiness reporting system that objectively measures readiness to 
support the NSS. The Army's Strategic Readiness System (SRS) responds 
to and provides a baseline in achieving this critical initiative.
    SRS is a precision readiness measurement tool that provides Army 
leadership with accurate, objective, predictive, and actionable 
readiness information to dramatically enhance resource management 
toward one end--strategic readiness to defend the United States. The 
Army Scorecard--a product of SRS--will integrate readiness data from 
the business arena and the operating, generating, and sustaining forces 
of both the active and Reserve component. Army Scorecard methodology 
focuses on four critical areas: People--investing in soldiers and their 
families; Readiness--maintaining the support capability to the 
combatant commanders' operational requirements; transformation--
transforming the Army into the Objective Force; and application of 
sound business practices.
    SRS markedly improves how we measure readiness. It gathers timely 
information with precision and expands the scope of the data 
considered. We are further developing this system to leverage leading 
indicators and predict trends--solving problems that affect readiness 
before they become problems, from well-being to weapons platforms. SRS 
will help enable the Army preserve readiness to support combatant 
commanders, invest in soldiers and their families, identify and adopt 
sound business practices, and transform the Army to the Objective 
Force.
Installations
    Army installations are our Nation's power projection platforms, and 
they provide critical training support to the Army and other members of 
the joint team. Additionally, soldiers, families, and civilians live 
and work on Army installations. The quality of our infrastructure 
directly affects the readiness of the Army and the well-being of our 
soldiers, families, and civilians.
    The Army has traditionally accepted substantial risk in 
infrastructure to maintain its current warfighting readiness. However, 
a decade of chronic under funding has led to a condition in which over 
50 percent of our facilities and infrastructure are in such poor 
condition that commanders rated them as ``adversely affecting mission 
requirements.'' Our facilities maintenance must improve. Over the past 
2 years, with the help of the administration and Congress, the Army has 
begun to rectify this situation with significant increases in funding 
and innovative business practices. These efforts have been dramatically 
successful as we continue to correct a problem that was 10 years in the 
making. Thus, in an effort to prevent future degradation of our 
facilities, the Army has increased its funding for facilities 
sustainment to 93 percent of requirement beginning in fiscal year 2004.

            TRANSFORMATION OF INSTALLATION MANAGEMENT (TIM)

    Recognizing the requirement to enhance support to commanders, the 
Secretary of the Army directed the reorganization of the Army's 
management structure. On October 1, 2002, the Army placed the 
management of Army installations under the Installation Management 
Agency (IMA). IMA is a new field-operating agency of the Assistant 
Chief of Staff for Installation Management (ACSIM). Its mission is to 
provide equitable, efficient, and effective management of Army 
installations worldwide to support readiness; enable the well-being of 
soldiers, civilians, and family members; improve infrastructure; and 
preserve the environment. This new management approach eliminates the 
migration of base operations funds to other operational accounts below 
the HQDA level. It also enables the development of multi-functional 
installations to support evolving force structure and Army 
transformation needs. The Army is poised to capitalize on opportunities 
TIM gives us to provide excellence in installations.
    Two programs that significantly increase the well-being of our 
soldiers and their families are the Barracks and the Family Housing 
programs. The Army established the Barracks Upgrade Program (BUP) in 
the late 1990s to improve single soldiers' housing conditions. Through 
2002, we have upgraded or funded-for-upgrade 70 percent of our 
permanent party barracks to soldier suites that consist of two single 
bedrooms with a shared bath and common area. The Army will continue the 
BUP until all permanent party barracks achieve this standard.
    With the strong support of Congress, the Army established the 
Residential Communities Initiative (RCI) for our families. This program 
capitalizes on commercial expertise and private capital to perform a 
non-core function for the Army family housing management. The program 
provides greater value to the Army by eliminating the housing deficit 
at our first 11 sites, while leveraging a $209 million Army investment 
into $4.1 billion of initial private development. The Army's 
privatization program began with 4 pilot projects and will expand to 18 
active projects by the end of fiscal year 2003. Pending OSD and 
congressional approval, 28 projects are planned through 2006 that will 
impact over 72,000 housing units or 80 percent of Army family housing 
in the United States. By the end of 2007, we will have the programs and 
projects in place to meet the OSD goal of eliminating inadequate family 
housing. We will accomplish this goal through RCI and increased Army 
investment in family housing military construction (MILCON) at non-
privatized installations. The Reserve component (RC) enhances RCI 
through real property exchange authority that is only available to the 
RC. This legislative authority allows the exchange of RC owned property 
with public or private entities and has a tremendous potential to 
improve future Reserve component infrastructure at no governmental 
cost.
    The Army has also aggressively reduced its financial burden and 
physical footprint by disposing of 34 percent of its facilities from a 
1990 high of 116 billion square feet. The Army anticipates that the 
congressional fiscal year 2005 Base Realignment and Closure (BRAC) 
authority will permit additional appropriate reductions. BRAC will 
enable the Army to dispose of excess infrastructure and realign the 
remaining facilities with the requirements of the transforming Army and 
the Objective Force. BRAC will also allow the Army to re-allocate 
resources from closed or realigned installations to other high priority 
requirements.
    The Army continues to improve its utilities infrastructure by 
divesting itself of non-core utility systems' operation and maintenance 
through privatization. As of December 2002, we had privatized 64 of the 
351 systems in the program, and we have an additional 104 presently 
under negotiation.
    As part of our Army Knowledge Management (AKM)--described later in 
more detail--we are modernizing our Installation Information 
Infrastructure--infostructure--to support a network-centric, knowledge-
based Army. The Installation Information Infrastructure Modernization 
Program (I\3\MP) executes a multi-year, $3.2 billion program for 
upgrades to optical fiber and copper cable, installation of advanced 
digital equipment, and upgrades to Defense Global Information Grid 
gateways. This program will ensure worldwide, high-speed data 
connectivity at Army installations. To date, we have completed 22 of 95 
CONUS installations and initiated upgrades at 4 installations outside 
of the continental United States (OCONUS). We plan to complete I\3\MP 
in 2009.

               TRANSFORMATION--CHANGING THE WAY WE FIGHT

    The Army is fundamentally changing the way we fight and creating a 
force more responsive to the strategic requirements of the Nation. We 
are building a joint precision maneuver capability that can enter a 
theater at the time and place of our choosing, maneuver at will to gain 
positional advantage, deliver precise joint fires and, if necessary, 
close with and destroy the enemy.
    The Objective Force is an army designed from the bottom up around a 
single, networked, integrated C\4\ISR architecture that will link us to 
joint, interagency, and multi-national forces. It will be a rapidly 
deployable, mounted formation, seamlessly integrated into the joint 
force and capable of delivering decisive victory across the spectrum of 
military operations. Consolidated, streamlined branches and military 
operational specialties comprised of professional warfighters will be 
poised to transition rapidly from disaster relief to high-end 
warfighting operations.
    The Objective Force and its Future Combat System of Systems will 
leverage and deliver with precision the combat power of joint and 
strategic assets. It is a capabilities-based force that rapidly 
responds to the requirements of the strategic environment in which our 
soldiers will be the most strategically relevant and decisively capable 
landpower--no matter the mission, no matter the threats, no matter the 
risks.
    In the final analysis, the Army's combat power does not wear tracks 
or wheels--it wears boots. No platform or weapon system can match a 
soldier's situational curiosity and awareness. It is the soldiers' 
ability to discern and to think, their ingenuity and resourcefulness, 
their endurance and perseverance, and their plain grit that make them 
the most reliable precision weapon in our inventory. Soldiers remain 
the centerpiece of our formations.
    To help guide our transformation efforts, the Army leverages 
lessons-learned from extensive experimentation and wargaming. We are 
working to harness the power of knowledge, the benefits of science and 
technology, and innovative business solutions to transform both the 
operational and institutional Army into the Objective Force. The Army's 
annual Title 10 Wargames provide critical insights for developing the 
Objective Force. Likewise, results from joint experiments--Millennium 
Challenge 2002 and other Service Title 10 Wargames like Global 
Engagement, Navy Global, and Expeditionary Warrior, to name a few--also 
inform these efforts.
    The Army is fully committed to joint experimentation as a means to 
examine and assess Objective Force contributions to the strategic, 
operational, and tactical levels of joint warfare. The Army has 
established a joint/Army Concept Development and Experimentation (CD&E) 
Task Force to ensure that Army CD&E efforts are synchronized with joint 
CD&E. This task force makes certain that joint experiment lessons-
learned inform the design and development of the Objective Force. This 
year, the Army's Title 10 Wargame--co-hosted by Commander, Joint Forces 
Command--will focus on the joint force that will fight the next battle. 
Linked to Joint Forces Command's Pinnacle Impact 03 experiment, it will 
be conducted within the context of a future 1-4-2-1 global scenario and 
the emerging Joint Operations Concept. The Army is committed to these 
efforts, and in this budget we have nearly doubled last year's funding 
of these exercises.
    Joint, interagency, multinational, and Army warfighting experiments 
provide invaluable opportunities for the Army to experiment with 
innovative approaches to warfighting and to test new tactics, 
techniques, procedures, organizations, processes, and technology. In 
Millennium Challenge 2002, the largest joint experiment in U.S. 
history, the Army demonstrated four vital capabilities it brings to the 
joint fight:

        <bullet> the ability to attain and maintain information 
        superiority (knowledge);
        <bullet> the ability to conduct decisive maneuver to enable 
        dominant joint maneuver;
        <bullet> the ability to defeat the opposition in an anti-access 
        environment through rapid entry and employment capabilities; 
        and
        <bullet> the ability to support and sustain rapid combat power 
        efficiently by reducing the operational and tactical logistics 
        footprint.

    To evaluate the effectiveness of the Stryker Brigade Combat Team 
(SBCT) concepts for battalion and company operations in a joint force, 
the Army employed a SBCT unit during Millennium Challenge. Less than 4 
weeks after Stryker vehicles were delivered to the first unit at Fort 
Lewis, the unit demonstrated rapid air and sealift deployability and 
integrated into the exercise well. Additionally, when given a mission 
on short notice to support a Marine Corps unit in ground operations, 
the SBCT unit demonstrated its agility and versatility.
Balancing Risk as We Manage Change
    Balancing risk is integral to Army transformation. To maintain 
current readiness while we transform, we are managing operational risk: 
risk in current readiness for near-term conflicts with future risk--the 
ability to develop new capabilities and operational concepts that will 
dissuade or defeat mid- to long-term military challenges. The Army has 
accepted risk in selective modernization and recapitalization, and we 
continue to assess these risks as we balance current readiness, the 
well-being of our people, transformation, the war on terrorism, and new 
operational commitments. Since 1999, the Army has terminated 29 
programs and restructured 20 others for a total savings of $12.8 
billion. These funds were reallocated to resource the Stryker Brigades 
and essential Objective Force research and development.
    In Program Budget 2004 and its associated Five-Year Defense Plan 
(FYDP), the Army has generated an additional $22 billion of savings by 
terminating 24 additional systems and reducing or restructuring 24 
other systems. To accelerate achieving the Objective Force capabilities 
and mitigating operational risk, the Army reinvested these savings in 
the development of transformational capabilities in these and other 
programs:

        <bullet> Future Combat System--$13.5 billion
        <bullet> Precision Munitions--$3.2 billion
        <bullet> Sensors and Communications--$2.3 billion
        <bullet> Science and Technology--$1.1 billion
        <bullet> Missile and Air Defense--$1.1 billion

    The operational risk associated with the decreased funding for 
certain current programs is acceptable as long as we field Stryker 
Brigades on schedule and accelerate the fielding of the Objective Force 
for arrival this decade. We will continue to reassess the risk 
associated with system reductions and related organizational changes 
against operational requirements and the strategic environment.
An Information Enabled Army
    Achieving the full spectrum dominance of the Objective Force 
requires changing the way we fight. Changing the way we fight requires 
a holistic transformation of logistics, personnel, installation 
management, acquisition, aviation, business practices--every aspect of 
the Army must transform. The Objective Force requires innovative 
changes and out-of-the-box ingenuity in the way we take care of our 
people and manage the information and material that enhances their 
readiness and answers their needs--both personal and professional, at 
home and in the short sword warfight at foxhole level. Simply put, we 
cannot achieve the Objective Force capabilities without leveraging the 
full potential of the technological advances that our Nation's 
industrial base and science and technology (S&T) communities are 
developing. The Army has consolidated management of information 
technologies (IT) into a single effort--Army Knowledge Management 
(AKM). AKM capitalizes on IT resources unique to our Nation and 
harnesses them for transformation, for the Army, and for the combatant 
commanders.
    Information management is critical to achieving the Army Vision, 
and Army Knowledge Management supports transformation through the 
development and implementation of a network-centric, knowledge-based 
Army architecture interoperable with the joint system. AKM will 
accelerate the detect-decide-deliver planning processes and enable 
warfighters to see the adversary first--before our forces are detected; 
understand the common relevant operating picture first; act against 
adversaries first; and finish the warfight with decisive victories--see 
first, understand first, act first, finish decisively. AKM will provide 
knowledge at the point of decision for all leaders--from the factory to 
the foxhole.
    Enabling collaborative mission planning and execution among widely 
dispersed locations around the globe, AKM will provide a rapid and 
seamless flow and exchange of actionable information and knowledge. The 
network-centric operations that AKM enables will decrease our logistic 
footprint and enhance sustainability of the Objective Force through 
multi-nodal distribution networks--reaching forward to the theater and 
back to installations. Advanced information technologies will 
dramatically enhance battle command. Command, control, communications, 
and computer (C\4\) decision tools seamlessly linked to intelligence, 
surveillance, and reconnaissance (ISR) assets produce a radically 
improved common relevant operating picture (CROP) and enable battle 
command.
    AKM will dramatically enhance the warfighter's ability to 
distribute, process, fuse, and correlate unprecedented amounts of 
actionable data into information--securely, reliably, and quickly 
enough to enable leaders to synchronize and mass effects for decisive 
results. Network-centric operations enable information awareness, 
information access, and information delivery.
    The Army Knowledge Enterprise (AKE) construct describes the Army's 
process to enable improved strategic and tactical information 
distribution and collaboration. In short, AKE leverages the ingenuity 
and resourcefulness of our people in shaping the environment to achieve 
dominance and helps leaders achieve decision superiority and mission 
efficiencies.
    Integration and refinement of existing Army networks is the first 
step in achieving a network-centric, information-enabled force that 
creates efficiencies and provides secure, reliable, actionable 
information communications. To this end, the Army activated the Network 
Enterprise Technology Command (NETCOM). NETCOM is the Army's single 
authority assigned to operate, manage, and defend the Army's 
information infrastructure. NETCOM has assumed technical control of all 
Army networks--active, Guard, and Reserve. This new policy allows 
NETCOM to evaluate any system, application, or piece of equipment that 
touches the Army networks. NETCOM will improve the capacity, 
performance, and security of our networks at every level.
    Among others, one tangible product of NETCOM is the consolidation 
and removal of redundant servers across the Army. This example of 
better business practice will harvest significant savings in 
resources--both dollars and managers--while increasing the 
effectiveness of the network. Since the first quarter fiscal year 2002, 
we have reduced the number of servers Army-wide by 16 percent--311 in 
the National Capital Region alone.
    Army Knowledge Online (AKO) begins to allow the Army to 
decentralize the management of information. AKO is the Army's secure, 
web-based, internet service that leverages the Army's intellectual 
capital to better organize, train, equip, and maintain our force. It 
gives our people a means to collaborate, to improve their situational 
awareness, and to access their personnel data. Already, hard-copy 
processes that formerly took days and weeks can now be accomplished 
almost instantly--from pay to personnel actions to assignments, to name 
a few. AKO is just an early glimpse of the potential capabilities of a 
network-centric, knowledge based organization that harnesses the 
potential of the global infostructure.

                            OPERATIONAL ARMY

The Objective Force
    The Army is actively engaged in global operations supporting 
combatant commanders today, but it is our obligation to prepare for the 
future, as well. The Objective Force is the Army's future full-spectrum 
force that will be organized, manned, equipped and trained to be more 
strategically responsive, deployable, agile, versatile, lethal, 
survivable, and sustainable than we are today--across the full spectrum 
of military operations as an integral member of a cohesive joint team.
    The Nation will continue to face adaptive, asymmetric threats that 
capitalize on the power of information. To dominate and maintain 
superiority over these emerging challenges, the Army is changing the 
way we fight--a paradigm shift more significant than the 20th century's 
introduction of the tank and the helicopter. The Army is changing from 
sequential and linear operations to distributed and simultaneous 
operations. The Objective Force--characterized by networks of people 
enabled with systems that provide actionable information and decision 
superiority--will dissuade, deter, or decisively defeat our adversaries 
anytime, anyplace, and anywhere.
    The Objective Force will consist of command structures scaled to 
meet Joint Force Commander requirements and modular combined-arms units 
tailored according to each situation. Objective Force integrated, 
mobile, air-ground teams will conduct mounted and dismounted operations 
and employ both manned and unmanned platforms to achieve decisive 
victories. Capable of forcible entry and operations in austere 
environments to address the spectrum of military operations--from 
humanitarian assistance to warfighting--the Objective Force will 
conduct simultaneous combat and stability operations and master 
transitions between phases of operations. It will be an offensively 
oriented, multi-dimensional force enabled by advanced information 
technologies that give soldiers real-time intelligence and actionable 
information.
    The Objective Force will arrive in theater combat-capable; 
deployment will be synonymous with employment. The Objective Force will 
be strategically responsive and rapidly deployable on the U.S Air Force 
family of inter-theater and intra-theater aircraft. An Objective Force 
Unit of Action (UA) will deploy on approximately one-third the number 
of aircraft required to deploy a heavy brigade combat team today. It 
will be operationally deployable and capable of operational maneuver 
over strategic distances by air, land, or sea. Soldiers will overcome 
anti-access and area denial strategies and environments through 
precision maneuver and decision superiority.
    Equipped with new systems designed to meet the needs of the Army's 
future fighting formations, the Objective Force will be a networked 
system-of-systems. This system-of-systems includes soldiers equipped 
with the Land Warrior system; a family of 18 integrated, synchronized, 
manned and unmanned FCS; and critical complementary systems such as the 
Comanche and the Future Tactical Truck System. The components of the 
FCS are being synchronously developed and fielded as a complete family 
to achieve the warfighting capabilities the Nation requires to defeat 
adaptive, asymmetric conventional and unconventional adversaries.
    Soldiers are the centerpiece of the Army's formation--not 
equipment. Soldiers of the Objective Force will leverage dominant 
knowledge to gain decision superiority over any adversary. They will 
seamlessly integrate Objective Force capabilities with the capabilities 
of joint forces, Special Operations Forces, other Federal agencies, and 
multinational forces. The Objective Force soldiers will enable the 
United States to achieve its national security goals in a crisis, 
rather than simply inflict punitive strikes on an adversary. Employing 
FCS capabilities in formations called Units of Action (UA) and Units of 
Employment (UE), Objective Force soldiers will provide campaign quality 
staying power--that means precision fire and maneuver to control 
terrain, people, and resources, without having to resort to 
indiscriminate collateral damage. The Land Warrior system will 
integrate individual soldiers in the network while providing them 
increased protection and lethality. FCS will give soldiers the 
capability to destroy any adversary in any weather and environment with 
smaller calibers, greater precision, more devastating target effects, 
and at longer-ranges than available today.
    Joint C\4\ISR--a network-centric information architecture nested 
within the Global Information Grid--will connect the Objective Force's 
system-of-systems. Capitalizing on the synergistic power of the 
information network enterprise, every Objective Force soldier and 
platform will be capable of sensing and engaging the enemy while 
maintaining situational awareness of friendly forces. Advanced 
information technologies and C\4\ISR decision tools and assets will 
enhance the Common Relevant Operating Picture (CROP). The Objective 
Force will identify, locate, and engage critical targets with lethal or 
non-lethal affects and assess battle damage on those targets. The joint 
C\4\ISR linkages will enable the attack of targets with whatever joint 
or Army assets are available for immediate employment, whether the 
force is in contact or out of contact. Similarly, enhanced situational 
awareness will facilitate multi-layered active and passive defense 
measures--including both offensive and defensive counter air against 
air and non-air breathing, manned and unmanned aerial vehicles.
    The CROP and network-centric operations will enhance sustainability 
of the Objective Force through multi-nodal distribution networks that 
reach forward to the area of operations or reach back to the Home 
Station Operations Center. Increased reliability through equipment 
design and commonality among the FCS family of systems will enhance 
sustainability while reducing logistics demands. Advanced technologies 
will enable robust Objective Force operations while shrinking the 
logistics footprint and lift requirements of deployed forces.
    The FCS is a transformational approach to meeting this Nation's 
requirements for the Objective Force. We designed and will field the 
FCS family in a carefully balanced manner to avoid optimizing a 
component at the expense of sub-optimizing the overarching capabilities 
of Objective and Joint Forces. The acquisition and requirements 
development processes are being updated to accommodate the DOD's 
direction to field a networked system of systems rapidly through spiral 
development and an open architecture that allows maturing technological 
insertions as they occur.
    The Army embraces the ongoing DOD and Joint Staff capabilities and 
acquisition processes reform efforts to achieve revolutionary 
capabilities in the fielding of a new generation of equipment. This 
collaborative DOD and JCS effort enables the Army to design new 
information-age capable organizations holistically, use evolutionary 
acquisition strategies to equip those organizations, and see the 
Objective Force fielded before the end of this decade.
Science and Technology (S&T)--Moving Toward the Transformed Army
    Preempting our adversaries' technological surprises over the past 3 
years, Army S&T investments are already providing America's Army with 
sustained overmatch in all materiel systems. The Army has increased and 
focused its S&T investments. We are demonstrating the enabling joint 
interoperable technologies essential for Objective Force capabilities 
and accelerating their arrival. Our S&T program is pursuing a wide 
spectrum of technologies for unmanned air and ground systems that will 
expand the range of joint warfighting capabilities, reduce risk to 
soldiers, and reduce the logistics footprint of the force. Realizing 
the full potential of unmanned systems requires technological 
development in sensors that improve navigation and mission performance, 
in intelligent systems for semi-autonomous or autonomous operation, in 
networked communications for manned-unmanned teaming, and in human-
robotic interfaces, among many others.
    The Defense Advanced Research Projects Agency (DARPA) and Army 
partnership contracted for a Lead Systems Integrator (LSI) to 
accelerate the transition of FCS to the System Development and 
Demonstration (SDD) Phase, with a Milestone B decision in May 2003. The 
Army is on track to achieve first unit equipped in 2008 and an initial 
operating capability of one Objective Force Unit of Action (UA) in 
2010. To accelerate development and in partnership DARPA, the focus on 
key transformation technologies for the FCS has been narrowed to the 
systems with the most promise. Our highest priority S&T efforts remain 
technological advances for the FCS.
    The Army will field FCS as a family of systems built on information 
age technologies embedded in manned and unmanned air and ground 
platforms. Integral to joint fires, the family of systems will 
integrate long-range air- and ground-based sensors with long-range 
cannon and missile precision munitions. The family of systems will also 
provide increased joint capabilities to conduct battle command, 
reconnaissance, mounted combat operations, dismounted combat 
operations, medical treatment and evacuation, and maintenance and 
recovery. To provide decisive lethality, FCS will employ networked, 
precision and loitering attack munitions fired from modular, easily 
transportable containers. Finally, FCS will leverage embedded, real-
time interactive, virtual, distributed, collaborative, joint 
simulations for training and mission rehearsal.
Enabling the Objective Force Soldier
    Eighteen systems, both manned and unmanned; the Objective Force 
soldier; and C\4\ISR, together, comprise the Future Combat System. 
Manned and unmanned reconnaissance capabilities are part of the FCS 
Family of Systems' interdependent networked air- and ground-based 
maneuver, maneuver support, and sustainment systems.
    There are 10 unmanned systems: Unmanned Aerial Vehicles (UAV) 
Classes 1, 2, 3, and 4; Unmanned Ground Vehicles (UGV)--the 
Multifunction Utility/Logistics and Equipment (MULE), the Armed Robotic 
Vehicle (ARV), and the Small (manpackable) Unmanned Ground Vehicle 
(MUGV); Unattended Ground Sensors (UGS); and Unattended Munitions--the 
Non-Line-of-Sight (NLOS) Launch System (LS) and Intelligent Munitions 
Systems (IMS).
    There are eight manned systems: the Infantry Carrier Vehicle (ICV); 
Command and Control Vehicle (C\2\V); Reconnaissance and Surveillance 
Vehicle (RSV); Line-of-Sight, Beyond-Line-of-Sight Mounted Combat 
System (LOS/BLOS MCS); NLOS-Mortar; Medical Vehicle (MV); the FCS 
Recovery and Maintenance Vehicle (FRMV); and the Non-Line-of-Sight 
(NLOS) Cannon.
    Decisive warfighting is about fires and maneuver: fires enable 
maneuver, and maneuver enables fires. Joint and organic close, 
supporting, indirect fires destroy the enemy, suppress the enemy's 
capabilities, protect our forces and enable ground units to maneuver. 
The ICV, the Unattended Munitions NLOS-LS, IMS, C\2\V, MCS, NLOS-
Mortar, and NLOS Cannon are important elements of the FCS that will 
enable the Objective Force to conduct distributed and simultaneous 
joint combat operations. With joint fires, the NLOS cannon is critical 
to support and protect our land forces in hostile environments. NLOS-LS 
NetFires is a platform-independent family of missiles with precision 
attack and loitering capability. Both Precision-Guided Mortar Munitions 
and Excalibur precision cannon munitions will enhance organic maneuver 
fires. A new, joint fire support, battle command and fire support 
architecture will allow rapid engagement of targets by any Army or 
joint asset.
    For over 227 years, soldiers have remained the centerpiece of our 
formations. The Land Warrior program--another key S&T initiative--
responds to this legacy and enhances our soldiers combat power 
generation capability. The Land Warrior program will develop a 
lightweight, low observable, enhanced-armor protection, fighting 
ensemble for the individual Objective Force soldier. Through networked 
connectivity to the FCS-equipped, maneuver Unit of Action, Land Warrior 
soldiers will enable revolutionary lethality, mobility, survivability, 
and sustainability for the individual warfighter while reducing 
logistics demands.
    Future Combat Systems are networked in the joint C\4\ISR 
architecture--including networked communications, networked options, 
sensors, battle command systems, training, and both manned and unmanned 
reconnaissance and surveillance capabilities. These networked systems 
will dramatically enhance situational awareness and understanding and 
operational level synchronization well beyond today's standards. 
Improved C\4\ISR capabilities will enable network-centric Objective 
Force operations. The results of the investments will allow leaders to 
capitalize on sensor and processing technology to see, understand, and 
shape the battlespace before the enemy can react--increasing combat 
force effectiveness and survivability. The S&T program will develop and 
demonstrate real-time, continuous situational understanding by 
integrating data from manned and unmanned air- and ground-based 
sensors.
    S&T investments in military logistics are an important enabler for 
the Objective Force. We are placing our emphasis on sustainment's big 
drivers--fuel, ammunition, maintenance, and water--to dramatically 
reduce our logistics footprint and lift requirements in these areas. 
Key technologies include on-board water generation, real-time logistics 
command and control processes and distribution management, enhanced 
multi-purpose munitions and packaging, efficient propulsion and power 
technologies, real-time diagnostics and prognostics, and Micro-Electro 
Mechanical Systems (MEMS).

                        TRANSFORMATIONAL SYSTEMS

    Several transformational systems were under development prior to 
announcement of the Army Vision in October 1999. The Army has completed 
an extensive analysis to identify those systems that complement FCS and 
the Objective Force system of systems.
    The Comanche helicopter is the centerpiece of the Aviation 
Modernization Plan (AMP) and represents the first new system to reach 
Initial Operational Capability (IOC) within the Army's Objective Force. 
Comanche is our armed reconnaissance platform with attack capabilities. 
It will leverage the situational awareness and situational curiosity of 
a scout augmented with revolutionary, state-of-the-art intelligence, 
surveillance, and reconnaissance (ISR) technologies. Comanche supports 
vertical and horizontal maneuver as an integral part of network-centric 
operations and extends human eyes and decisionmaking beyond the ground 
maneuver force. Utilizing stealth technologies, it will network with 
all joint C\4\ISR and joint weapons systems. Comanche will leverage 
maximum effect of future standoff precision weapon systems such as the 
Common Missile and allow us to maneuver ground formations based upon 
full knowledge of the situation. Augmented with armed or unarmed UAVs, 
Comanche will fill ground maneuver's most critical battlefield 
deficiency--armed aerial reconnaissance--with a capable, survivable, 
and sustainable aircraft. The Comanche program is already well on its 
way to giving the Army a capability pivotal to transforming the way we 
will fight.
    Several other transformational systems will empower the Objective 
Force with the knowledge dominance and battle command to provide 
decision superiority across the spectrum of operations. The Warfighter 
Information Network-Tactical (WIN-T) System, Medium Extended Air 
Defense System (MEADS), the Joint Tactical Radio System (JTRS), and the 
Army Airborne Command and Control System (A2C2S) will enable Objective 
Force joint C\4\ISR capabilities. These programs will provide the 
tactical enterprise-level networks that will ensure seamless, secure, 
digital connectivity between the Objective, Interim, and today's 
forces. The Distributed Common Ground System--Army (DCGS-A) 
architecture provides Army network-centric ISR connectivity from 
national agencies to joint systems to Objective Force Units of Action 
as part of the integrated Department of Defense DCGS architecture. 
DCGS-A will enable interoperable tasking, processing, and exploitation 
capabilities. The Aerial Common Sensor brings improved signal 
intelligence collection and precision geolocation capabilities, as well 
as imagery intelligence (IMINT) and measurement and signals (MASINT) 
sensor packages. Another system, Prophet, uses communications 
intelligence to depict the battlespace and further enhance situational 
awareness. These C\4\ISR systems greatly enhance the Objective Force's 
ability to gain actionable information superiority and decision 
dominance over all adversaries and expand the range of options for the 
joint force combatant commanders.
    Transformational systems will provide the Objective Force with 
strategic and tactical maneuver capabilities. The Theater Support 
Vessel will support rapid intra-theater lift requirements, provide the 
capability to conduct operational maneuver and repositioning, and 
enable units to conduct enroute mission planning and rehearsal. The 
Future Tactical Truck System will have commonality with FCS and will 
support the Objective Force by enabling command, control, and 
transportation of cargo, equipment, and personnel. The Tactical 
Electric Power (TEP) generators will provide power to Objective Force 
units where fixed power grids are not available.
    Transformational systems provide the Objective Force with other 
important capabilities, as well. Chemical, biological, radiological, 
nuclear, and explosive (CBRNE) effects systems support the Objective 
Force across the spectrum of military operations and improve 
capabilities to conduct homeland security activities. Engineer, civil 
affairs, and psychological operations vehicles will enable mobility and 
enhance civil affairs and PSYOPs capabilities. The Up-Armored High 
Mobility Multi-purpose Wheeled Vehicle (HMMWV) will improve Objective 
Force soldier survivability and lethality. The Multi-Mission Radar will 
provide the capability to detect and track aircraft, artillery, and 
other projectiles, then queue appropriate weapons systems and airspace 
synchronization systems. The High Mobility Artillery Rocket System 
(HIMARS) is a lighter weight, more deployable multiple rocket launcher 
capability that will integrate into the joint fires network.
Bridging the Capabilities Gap--Stryker Brigade Combat Teams
    Announcing our intent to field an Interim Force in October 1999, 
the Army responded to a capabilities gap between its lethal, 
survivable, but slow-to-deploy heavy forces and its rapidly deployable 
light forces that lack the protection, lethality, and tactical mobility 
that we seek. Just 2\1/2\ years later in 2002, the Army began fielding 
the first Stryker Brigade Combat Team to bridge that gap. In 2003--less 
than 4 years after the announcement--we are on track to achieve IOC 
with the first SBCT at Fort Lewis, Washington. Stryker Brigades will 
provide the combatant commander vastly increased operational and 
tactical flexibility to execute fast-paced, distributed, non-contiguous 
operations.
    Stryker Brigade Combat Teams respond to combatant commander 
requirements across the spectrum of military operations. Optimized for 
combat in complex and urban terrain, the Stryker Brigades will be 
decisive in other major combat operations, as well. The SBCT 
Reconnaissance, Surveillance, and Target Acquisition (RSTA) Squadron 
provides both organic human intelligence capabilities and UAVs embedded 
at the brigade level. Its military intelligence and signal companies--
working through a digitally enabled battle command bridge--leverage 
theater and national assets to create an information-enabled force. 
SBCTs will use this enhanced joint C\4\ISR capability to revolutionize 
combat paradigms from ``make contact, develop the situation, maneuver 
the forces'' to ``understand the situation, maneuver the forces, make 
contact at the time and place of your own choosing, and finish 
decisively.''
    Moreover, leveraging platform commonality, enhancing logistics 
practices and enablers, and reorganizing logistics formations, the SBCT 
is vastly more deployable and sustainable than our heavy forces, while 
significantly increasing combat power generating capabilities. 
Augmented for sustained operations, the SBCT requires 37 percent fewer 
CSS personnel than a digitized heavy brigade. While capitalizing on 
these advantages, developing and available technologies allow us to 
mass effects--rather than massing formations--and create a robust, 
reliable capability to conduct operational maneuver over strategic 
distances.
    Finally, SBCTs provide an invaluable means of spearheading 
transformation. The SBCT trains junior officers and noncommissioned 
officers--tomorrow's commanders and command sergeants major--in the 
tactics, techniques, and procedures that will inform employment of the 
Objective Force.
    The Army has resourced six Stryker Brigade Combat Teams to 
contribute to fulfilling the 1-4-2-1 defense construct and national 
security requirements; however, at this time, the Secretary of Defense 
has only authorized the procurement of the first four brigades. The 
Army will provide the Secretary of Defense with a plan for Stryker 
Brigades 5 and 6.
    Fielding of the SBCTs affects the entire Army: active and Reserve 
components; heavy and light forces; CONUS and OCONUS. Current fielding 
timelines will enhance the Nation's ability to fight and win the GWOT 
and conduct major combat operations. The transformation of four active 
component brigades to SBCTs provides a rotational base with three of 
the SBCTs focused on the Pacific theater. One of the two SBCTs fielded 
at Fort Lewis will be forward-based in Europe not later than 2007. The 
Stryker Cavalry Regiment will support the XVIII Airborne Corps' 
critical need for robust, armed reconnaissance. The conversion of a 
Reserve component brigade to an SBCT will enhance our strategic Reserve 
and support the GWOT, smaller scale contingencies, and homeland defense 
missions. Additionally, SBCT stationing provides rapid, strategic 
responsiveness through power projection platforms capable of supporting 
four critical regions described in the 1-4-2-1 defense construct. The 
first SBCT will attain Initial Operational Capability in the summer of 
2003.
Preserving the Army's Legacy
    Today's force guarantees the Army's near-term warfighting readiness 
to fight and win our Nation's wars decisively. Because the Army 
bypassed a procurement generation, the Army's Combat Support and Combat 
Service Support systems now exceed their 20-year expected life cycle, 
and 75 percent of our critical combat systems exceed their expected 
half-life cycle. To maintain operational readiness while preserving 
resources for transformation, the Army is recapitalizing and 
selectively modernizing a portion of the current force. The 
modernization program addresses the critical issue of AC and RC 
interoperability and serves as a bridge to mesh these two components 
seamlessly. In general, the Army increased funding for programs that 
are clearly transformational and support the defense transformation 
goals, sustained funding for high priority systems that will transition 
to the Objective Force, and reduced funding for systems not essential 
to Army transformation. The Army remains committed to its 17-system 
recapitalization program, but we have reduced the prioritized 
recapitalization program from three-and-one-third divisions to two 
divisions.
    Army Special Operations Forces are an indispensable part of the 
Army and will continue to provide unique capabilities to the Joint 
Force and Land Component Commanders. In response to the increasing 
requirement for Special Operations Forces in support of joint campaign 
plans, the Army has validated and resourced growth in its SOF 
structure. The recent initiatives will transfer 1,788 manpower spaces 
to Major Force Program-11 beginning in fiscal year 2003. Since the 
commencement of Army Special Operations Forces operations in support of 
the GWOT, the U.S. Army has provided over $1.4 billion in new equipment 
to enhance Special Operations Forces firepower, communications, and 
ground and air mobility.
    The Army will remain the largest user of space-based capabilities 
among the Services. Army space assets are providing tangible support to 
the war on terrorism and Operation Enduring Freedom--they ensure Army 
and Joint Force Commanders optimize communications, satellite 
intelligence, global positioning system, imagery, weather, missile 
warning, and other space-based capabilities in every aspect of planning 
and operations. We are working diligently with the joint and 
interagency space community to ensure that Army and joint space systems 
continue to provide their essential capabilities now and for the 
Objective Force.
Aviation Transformation and Restructuring
    Aviation transformation further demonstrates the Army's hard 
choices in balancing risk to resource transformation. Our interim 
plan--now in progress--lowers operating and sustainment costs while 
posturing aviation for arrival of the Objective Force by 2010. Apache 
modernization is an integral part of the Army Aviation Transformation 
Plan. The AH-64D Longbow heavy attack team will enhance domination of 
the maneuver battlespace and provide the ground commander with a 
versatile, long-range weapon system against a range of fixed and moving 
targets. The UH-60 Blackhawk continues to be the assault workhorse of 
Army aviation, executing over 40 percent of the Army's annual flying 
hours. We are extending the life of the UH-60 while providing it with 
capabilities required of the future battlespace. Similarly, the Army is 
fully committed to the CH-47F Chinook program. Its heavy-lift 
capability is invaluable to transforming the Army. As we restructure 
and standardize attack and lift formations across the force, we will 
also adjust the stationing and alignment of Reserve component aviation 
units to mitigate the near-term risk.
    Army National Guard Aviation comprises almost 50 percent of the 
Army's aviation force and is one of the Nation's most valuable assets 
both for wartime and for peacetime missions. Essential for successful 
execution of the Nation's military strategy, the ARNG currently has 
aviation units deployed in Afghanistan, Kuwait, Bosnia, Europe, and 
Saudi Arabia, as well as Central and South America.
Army National Guard Restructuring Initiative (ARNGRI)
    ARNGRI seeks to transform a sizeable portion of ARNG combat 
structure into more deployable, flexible fighting forces to support 
Army requirements at home and abroad. ARNGRI will introduce two new 
organizations into the force structure: Mobile Light Brigades and 
Multi-Functional Divisions. These organizations will provide full 
spectrum capabilities in support of combatant commanders. The Mobile 
Light Brigades will operate as a subordinate unit to the Multi-
Functional Divisions, which will also contain two combat support/combat 
service support brigades and be capable of supporting either major 
combat or homeland security operations.
Army Reserve Transformation Initiatives
    By providing responsive force generating capability and technically 
trained individuals, the USAR facilitates our capability to conduct 
extended campaigns in multiple theaters and to sustain joint 
operations. Army Reserve initiatives ensure the USAR is missioned, 
organized, and equipped to provide interoperability across the full 
spectrum of military operations. Transformational organizations include 
experimentation forces and information operations, joint augmentation, 
network security, and interagency units.
    The Readiness Command Restructuring Initiative and Federal Reserve 
Restructuring Initiative will help the USAR fulfill these new mission 
requirements. These initiatives lend greater flexibility to efforts 
that enhance responsiveness to America's foreign and domestic 
protection needs. Regional Readiness Commands will focus on individual 
and unit readiness, leader development, training and growth which will 
demand a new personnel system that achieves holistic life-cycle 
management for Army Reserve soldiers.

                           INSTITUTIONAL ARMY

Transforming the Way we do Business
    We have made great strides in revolutionizing our business 
management practices by starting at the very top. Last year, we 
realigned our headquarters by reorganizing and realigning 
responsibilities of the Secretariat and the Army Staff--streamlining 
coordination, tasking, and decision-making--resulting in a more 
responsive and efficient organization. This initiative allowed us to 
eliminate unnecessary functions and redistribute 585 manpower spaces to 
accomplish core competencies.
    As previously discussed, the Army has addressed the management of 
its installations, personnel systems, and contracting in its 
Transformation of Installation Management (TIM). We are aggressively 
pursuing efforts to outsource non-core functions. The Army will reap 
substantial dividends in efficiency and effectiveness through these 
strategic realignments of human and physical capital.

                        PERSONNEL TRANSFORMATION

    The Secretary of the Army's key management initiative is personnel 
transformation. Its goal is to modernize and integrate human resource 
programs, policies, processes, and systems into a multi-component force 
that includes civilians and contractors. We will evaluate our processes 
and implement the most efficient program, policies, and organizations 
to support the Objective Force.
    The centerpiece of personnel transformation is a comprehensive 
effort focused on a potential Army-wide implementation of unit manning 
and unit rotation. We are aggressively examining the feasibility of a 
unit manning and rotation system that would better support the new 
national defense strategy, improve cohesion and combat readiness within 
the operational Army, provide highly cohesive well-trained units to 
combatant commanders, and improve well-being for families by providing 
greater stability and predictability in assignments. The Army currently 
uses unit rotations in support of operational missions in the Balkans, 
Sinai, and Afghanistan. The Army is studying the use of unit rotations 
for other locations and in the war on terrorism. Units would know of 
these rotations well in advance, providing families with greater 
predictability and enabling focused preparation, both of which 
contribute to increased combat readiness of the unit.
    Unit manning seeks to synchronize the life cycle of a unit with the 
life cycle of the soldier within that unit. All soldiers and leaders 
would be stabilized, resulting in a significant increase in cohesion 
and combat readiness over our present individual replacement system. 
Such a system has significant second and third order effects across the 
force--training and leader development, recruiting and retention, unit 
readiness levels, and total Army end strength among others. All of 
these are being studied intensively, and we anticipate senior Army 
leadership decisions on unit manning and unit rotation in July 2003.
Third Wave
    Because we operate in an environment in which there are increasing 
demands for military capabilities--the Secretary of the Army's Third 
Wave initiative seeks to ensure that we are achieving the best value 
possible for our taxpayers' dollars.
    There are three phases to the Third Wave process. First, we 
determined what activities were core or non-core to the Army's mission. 
In the second phase, we are validating the breakout between core and 
non-core functions by determining if any non-core functions should be 
exempted. This phase has an anticipated completion date of mid- to 
late-February 2003. Upon completion, the Army leadership will notify 
Congress of the results of this phase. In the third phase, key Army 
leaders will assess appropriate plans to execute non-core functions, 
select the best means to proceed, and develop implementation plans. At 
this time, we do not know how many of the 214,000 jobs identified as 
potentially non-core functions in Phase I will be included in 
implementation plans. Although implementation plans will target 
execution in fiscal years 2005-2009, some implementation plans may be 
delayed beyond that period.
    The implementation of competitive sourcing of non-core functions 
will adhere to OMB Circular A-76 and related statutory provisions. 
Exceptions to the requirement for public-private competition are 
limited, such as where 10 or fewer civilian employees perform the 
function or where legal restrictions against using the A-76 process 
apply to the function. To lower costs for taxpayers and improve program 
performance to citizens, OMB has undertaken major revisions to the 
processes and practices in OMB Circular A-76 to improve the public-
private competition process.
Acquisition Transformation
    The Army is leading the way in acquisition reform within DOD's 
broad transformation of defense acquisition policies and procedures. 
The Army's FCS program may prove to be the largest DOD acquisition 
effort that fully embraces the concepts of evolutionary acquisition and 
spiral development--leveraging the potential of rapid advancement 
within individual technologies by allowing for changes within programs 
as technologies mature.
    The FCS program is evolutionary in its design and incorporates 
periodic blocked improvements within its 19 systems--the Objective 
Force soldier and 18 manned and unmanned systems. Within these 19 
systems are 540 spirally developing technologies. The Army's use of a 
Lead System Integrator (LSI) enables a ``best of the best'' approach to 
selection from competing industry efforts. Our unprecedented 
partnership with DARPA ensures the FCS effort leverages that agency's 
DOD-wide perspective and resources to produce the best capability and 
value for the joint force.
    The Army continues to revise its acquisition policies and 
applicable regulatory guidance. On October 3, 2001, the Army approved 
an acquisition reorganization that transferred control of all 
acquisition program management to the Army Acquisition Executive (AAE) 
and eliminated duplication of effort in two major Army commands. 
Effective October 2002, 12 Program Executive Officers (PEO) report to 
the AAE, and their subordinate PEOs assumed management of all Army 
acquisition programs, regardless of acquisition category. The plan 
ensures that there is only one chain of authority for acquisition 
programs within the Army. In addition, the plan clearly holds Program 
Managers responsible and accountable for the life cycle management of 
their assigned programs.
    We have also transformed the way we conduct business through the 
organization of the Army Contracting Agency (ACA) that realigns our 
previously decentralized installation and information technology 
contracting processes into one organization. Responsible for all 
contracts over $500,000 and tasked to eliminate redundant contracts, 
ACA leverages Army-wide requirements to achieve economies of scale. ACA 
supports Army transformation efforts by aligning all base support 
contracting into a single organization that best supports installation 
management transformation. All of these initiatives use information 
technology to leverage enterprise-wide buying capabilities. 
Additionally, ACA will act as the single coordinating element and form 
the base from which to deploy contingency-contracting, operational 
support to the warfighting commands. The Army Contracting Agency and 
other contracting activities will continue to support small business 
awards in the outstanding manner it did in fiscal year 2002.
Logistics Transformation
    We cannot transform the Army without a transformation in logistics. 
We must incorporate the logistician's view into the design of our 
systems even before we begin to build platforms. Collaboration between 
the acquisition and logistics communities will give the Objective Force 
the rapid deployability and sustainability we demand--by design--
without compromising warfighting capability.
    Designing the right logistics architecture--systems, business 
processes, enterprise, for example--is fundamental to success. The 
Army's logistics transformation will focus on creating an overarching 
corporate logistics enterprise that employs industries' best business 
practices. Within this enterprise, the Army established three principal 
goals for logistics transformation: enhance strategic mobility and 
deployability, optimize the logistics footprint, and reduce the cost of 
logistics support without reducing readiness or warfighting capability.
    The Army's mobility and deployability goals for the Objective Force 
are to deploy a combat brigade within 96 hours after lift off, a 
division on the ground in 120 hours, and a five-division corps in 
theater in 30 days. To achieve this strategic responsiveness, the Army 
Strategic Mobility Program (ASMP) serves as a catalyst to bring about 
force projection changes both in the Army's and in our sister Services' 
lift programs.
    Platforms like the Intra-Theater Support Vessel (TSV) and Inter-
Theater Shallow Draft High Speed Sealift (SDHSS) provide 
transformational capabilities for operational and strategic maneuver 
and sustainment of Army formations.
    Because strategic air and sealift cannot meet deployment 
requirements, Army prepositioned stocks (APS) ashore and afloat 
continue to be a critical component of Army power projection. The Army 
is currently participating in a joint-led worldwide prepositioning 
study to determine if location, mix, and capabilities in existing 
stocks of combat, combat support, and combat service support require 
adjustments to meet the defense strategy more effectively.
    The Objective Force requires the Army to optimize its logistics 
footprint to produce a smaller, more agile, responsive, and flexible 
sustainment organization. To achieve this goal, we will leverage 
technology and innovative sustainment concepts. The Army is already 
developing and integrating key enablers to provide a transformed, 
corporate logistics enterprise. Some of these enablers include embedded 
diagnostics and prognostics, tactical logistics data digitization 
(TLDD), serial number tracking, and the Global Combat Service Support--
Army (GCSS-A) system that utilizes a commercial Enterprise Resource 
Planning (ERP) solution. The ERP approach changes the Army's logistics 
automation systems strategy from one of custom code development for 
unique Army requirements to adoption of a commercial off-the-shelf 
(COTS) product.
    The selective use of the Logistics Civil Augmentation Program 
(LOGCAP) to augment military logistics force structure provides 
commanders with the flexibility to reallocate manpower, resources, and 
materiel by adding contractors to the equation of logistics support. In 
addition to providing services and some supply support, these 
contractors can quickly deploy to establish base camps, receive and 
process soldiers as they begin arriving in theater, and reverse the 
process when soldiers go home.
    Current initiatives that help reduce costs without reducing 
readiness or warfighting capability include the National Maintenance 
Program and the Single Stock Fund (SSF). As previously discussed, 
programs provide two basic building blocks for a revolutionary change 
in logistics business practices.
Advanced Medical Technology
    Congress designated the Army as the lead agent for DOD vaccine, 
drug, and development programs for medical countermeasures to 
battlefield threats. This includes vaccines against naturally occurring 
infectious diseases of military significance, combat casualty care, 
military operational medicine, and telemedicine research. The program 
also funds Food and Drug Administration requirements for technology 
transition to advanced development.
    The medical force provides the requisite medical intervention and 
care for the joint force deployed around the globe. With its Medical 
Reengineering Initiative (MRI), the Army Medical Department has 
transformed 28 percent of its Corps, and echelon above Corps, force 
structure to an organizational structure that promotes scalability 
through easily tailored, capabilities-based packages. These packages 
result in improved tactical mobility, reduced footprint, and increased 
modularity for flexible task organization. MRI supports both the 
current forces and the Stryker Brigades, and is the bridge to the 
Objective Medical Force. We have implemented innovative strategies that 
make the most efficient use of our budget. Medical modernization, which 
includes the acquisition of current medical equipment and technology, 
is partially funded within MRI units.
Business Initiatives Council
    In June 2001, the Secretary of Defense established the Department 
of Defense Business Initiatives Council (DOD BIC). The DOD BIC's goal 
is to improve business operations and processes by identifying and 
implementing initiatives that expand capabilities, improve efficiency 
and effectiveness, and create resource savings in time, money, or 
manpower.
    The Army has aggressively explored ways to improve its internal 
business practices, and has established the Army BIC, under the 
leadership of the Secretary and the G-8. Effective November 13, 2002, 
the Secretary of the Army has approved a total of 35 initiatives under 
the Army BIC. Subsequently, the Army submitted a number of the 
initiatives through the formal DOD BIC process for implementation 
across the Services and other DOD activities. The BIC process has 
helped to create a culture of innovation and inter-Service cooperation. 
The superb level of cooperation across the military departments, the 
Joint Staff, and OSD has made this possible.

                       A COMMITMENT TO THE FUTURE

    With the continued strong support of the administration, Congress, 
our soldiers, our Department of the Army civilians, and the greatest 
industrial base and S&T communities in the world, the Army will field 
the Objective Force--this decade.
    By 2010, we will have fielded the first operationally capable 
Objective Force unit equipped with the Future Combat Systems. Our 
Stryker Brigade Combat Teams will be providing to combatant commanders 
capabilities not currently available--enhanced strategic responsiveness 
and the ability to operate in a distributed, non-linear battlespace. 
Through selective recapitalization and modernization of systems that 
enable our soldiers to preserve our legacy today, we will have 
sustained a decisive-win capability at a high state of readiness as an 
integral part of the Joint Force. We will have significantly improved 
the well-being of our people and sustainment of Army infrastructure.
    We remain committed to our legacy--preserving America's freedoms. 
In peace and in war, the Army's soldiers serve the Nation with 
unmatched courage, indomitable will, pride, and plain grit--as they 
have for over 227 years. Soldiers will continue to fight and win the 
Nation's wars, decisively--it is our sacred duty and our non-negotiable 
contract with the American people.

    Chairman Warner. Thank you very much, Secretary White. For 
the Department of the Navy, Secretary Johnson.

STATEMENT OF HON. HANSFORD T. JOHNSON, ACTING SECRETARY OF THE 
                              NAVY

    Secretary Johnson. Mr. Chairman, Senator Levin, 
distinguished members of this committee, it is an honor to 
appear before you today and talk about the Department of the 
Navy and also the fiscal year 2004 budget. Our Nation is served 
by the most professional and capable naval force in the world. 
The Navy-Marine Corps forces alongside the Army, Air Force, and 
Coast Guard partners are on station in every part of the world 
that you saw in your trip, taking the fight on global terrorism 
to our enemies, deterring aggression against our Nation and our 
allies, and as you so eloquently mentioned, representing U.S. 
interests, diplomatic and military, around the world.
    Today, more than 60 percent of our ships are underway, 
including seven deployed carrier battle groups, and 63 percent 
of our Marine operating forces are deployed. The Navy-Marine 
Corps team successes are reflective of the strong and sustained 
support of this committee and Congress and the Department of 
Defense, as well as, as you mentioned, our dedicated civilian 
and contractor employees and most importantly, the great 
American moms, dads, wives, husbands, and children who support 
these forward-deployed defenders of freedom.
    Our people remain our most precious resource. The fiscal 
year 2004 budget sustains the tremendous progress we made in 
readiness accounts by requesting targeted pay raises and 
further reduction of the out-of-pocket expenses for housing. 
Our recruiting goals are being met. Our retention remains very 
strong. With respect to personnel management transformation, 
the 21st century security environment demands flexibility. We 
are working with the Office of the Secretary of Defense to 
explore ways to provide greater flexibility and modernize our 
personnel systems.
    We must now turn to the challenges, as you mentioned, of 
recapitalization and modernization. Two-thirds of our top-line 
increases for fiscal year 2004 are dedicated to increased 
procurement. $11.4 billion is dedicated to shipbuilding 
providing for the construction of seven new ships, two SSBN 
conversions to the SSGN, and the first ship in the cruiser 
conversion program. This represents a significant increase, and 
is a step in the right direction.
    I am also pleased to report that the budget funds 100 new 
aircraft, sustains the MV-22 Osprey program, continues 
development of the Joint Strike Fighter, and continues the 
procurement of the Advanced Amphibious Assault Vehicle.
    Moreover, we are pressing ahead with innovative ways to 
ensure that we are not locked into purchasing platforms whose 
electronics, sensors, and systems are obsolete upon delivery. 
We are moving forward on procuring ships not as a total 
package, but in a phased approach to acquire the systems in the 
right way, insert them at the right time, in a structured 
process.
    As you are well aware, the acquisition process sometimes 
forces us to act in ways that no business would ever consider. 
Under the leadership of the Secretary of Defense, we are 
exploring opportunities to transform the process, increase 
flexibility and efficiency, foster creativity and innovation, 
streamline processes, and create savings.
    We look forward to working with you on these proposals as 
they mature. The budget reflects a careful balancing of 
competing demands and risks. Most evident is our decision to 
accelerate the retirement of our older, most maintenance-
intensive ships. We are convinced that selected near-term 
divestment of platforms that are least relevant to our future 
is the best and the most efficient way to recapitalize, 
modernize, and transform without compromising our ability to 
accomplish our mission.
    In total, the retirement of legacy systems and application 
of transformational business practices will result in a savings 
of $1.9 billion. More importantly, the budget builds on the 
concept of transformation into our recapitalization and 
modernization efforts. This commitment to transformational 
platforms includes the next generation aircraft carrier, the 
CVN-21, which makes tremendous steps in aircraft carrier 
design, the DD(X), which is the centerpiece of the Navy's 
future family of ships, and the Littoral Combat Ship (LCS), 
which will be designed from the outset as a focused mission 
ship that will use reconfigurable mission modules to counter 
the most challenging threats in the littorals.
    In aviation, we continue to move forward with the Joint 
Strike Fighter, the advanced Hawkeye upgrade program, and this 
year, we introduce EA-18G, which will replace the EA-6B 
Prowler, our most maintenance-intensive aircraft in the 
Department of Navy.
    FORCEnet is the architecture that will enable network-
centric warfare to begin now. We made difficult choices in the 
fiscal year 2004 budget request, but we have been careful to 
craft it to sustain the advances made in personnel, quality of 
service, and readiness to balance risk while divesting legacy 
systems and concepts, and to invest in shipbuilding, aircraft 
procurement, transformational technologies, all to achieve the 
combined joint total force that the future demands.
    I must also tell you, Secretary White mentioned that the 
cost of operations in support of the global war on terrorism 
and preparation for any contingencies in Iraq are not reflected 
in the budget request. A supplemental request will be 
necessary. I look forward to working with you and all the 
members of the committee in your continued strong support for 
our entire Armed Forces. Thank you, sir.
    [The prepared statement of Secretary Johnson follows:]

             Prepared Statement by Hon. Hansford T. Johnson

   NAVY-MARINE CORPS TEAM: NATIONAL SEAPOWER . . . AROUND THE WORLD, 
                            AROUND THE CLOCK

                            I. INTRODUCTION

    The Navy--Marine Corps Team continues to provide extraordinary 
service and value to our Nation. Throughout the past year our Naval 
Forces have distinguished themselves around the globe, and our sailors 
and marines operating in the air, on and under the sea, and on the 
ground--including our space cadre--remain at the leading edge of the 
global war on terrorism. They have demonstrated the full effect of 
their lethal power, from the blue water to the littorals and well 
beyond, engaging and destroying the enemy in areas that previously 
would have been considered sanctuaries from sea-based forces. At a time 
of great consequence for our Nation, our Navy and Marine Corps not only 
have ``answered the call,'' but have done so while improving our combat 
readiness and retaining our sailors and marines at historic rates.
    Our successes in the global war on terrorism, while significant, 
have not been achieved in isolation. We have worked alongside, in 
partnership, with our sister Services to realize the true potential of 
joint, interoperable forces in the new environment of 21st century 
warfare. The superior operational and personnel readiness levels we 
have been able to sustain are directly reflective of the strong, 
sustained support of Congress. In fiscal year 2004, we seek your 
support for the President's budget request to sustain the gains made to 
date, improve those areas where shortfalls remain, and continue 
transforming the Navy and Marine Corps for the 21st century.
    In the balance of this statement we will describe the significant 
accomplishments the Navy and Marine Corps have realized during the past 
year, the improvements in our warfighting readiness and capabilities 
that are supported by the President's fiscal year 2004 budget request, 
and some details of our plans to transform and prepare for the 
challenges of the future. In assessing our request, it is important to 
note that our focus is on improving our ability to operate as an agile, 
lethal and effective member of a broader, networked joint warfighting 
force. To that end, we have given priority to the following overarching 
goals:

        <bullet> Successfully prosecuting the global war on terrorism 
        while sustaining our current readiness;
        <bullet> Recapitalizing, modernizing, and transforming our Navy 
        and Marine Corps to meet the challenges of the future;
        <bullet> Fully networking our forces at sea and ashore to 
        operate seamlessly in a joint and coalition environment;
        <bullet> Continuing to invest in our sailors and marines; and
        <bullet> Sustaining the quality of our operational training.

    In pursuing these principal objectives, we had to make some 
difficult tradeoffs within our proposed program. However, our fiscal 
year 2004 budget request is the best balance possible among important, 
but often competing priorities.

 II. CONTEXT FOR THE FISCAL YEAR 2004 BUDGET REQUEST: SUCCEEDING IN A 
                       TIME OF GREAT CONSEQUENCE

    Last year, our Navy and Marine Corps forces built on the historic 
response of our sailors and marines following the September 11, 2001 
attacks on our Nation. Today, our forces continue leading the way on 
the front lines of the global war on terrorism. More than half of our 
Navy operating forces and over 60 percent of the Marine Corps operating 
forces are currently deployed around the globe. Since the beginning of 
Operation Enduring Freedom more than 90,000 sailors and marines and 100 
Navy ships have deployed in support of ongoing operations. Nine of our 
12 aircraft carriers and half of our 12 Amphibious Ready Groups have 
seen action in this worldwide conflict. Additionally, over 5,000 
members of the Naval Reserve and 15,000 members of the Marine Corps 
Reserve have been activated in support of these operations.
    Even after the effective defeat of the Taliban and the liberation 
of Afghanistan, our Naval Forces, whether sea-based or on the ground, 
continue their missions. For example, marines from the 4th Marine 
Expeditionary Brigade (Antiterrorism) provide support and security for 
the U.S. State Department and the U.S. Embassy in Kabul, while others 
serve in Tactical Air Operations Detachments in support of air and 
Naval Special Warfare operations in Afghanistan.
    While the global war on terrorism remains our principal focus, the 
Navy-Marine Corps team still operates extensively, as in the past, 
representing U.S. interests throughout the world. In Southwest Asia, we 
maintained continuous carrier presence, conducting combat operations 
over Iraq in support of Operation Southern Watch. At the same time, 
naval task forces continued Maritime and Leadership Interdiction 
Operations supporting United Nations economic sanctions against Iraq 
for the eleventh straight year. In addition to these operational 
commitments, over 2,000 marines participated in Eager Mace 2002, an 
amphibious assault exercise in Kuwait in late September 2002.
    During May through August 2002, over 1,400 sailors, marines, and 
coast guardsmen participated in the eighth annual Cooperation Afloat 
Readiness and Training (CARAT) exercise with countries including the 
Philippines, Thailand, Singapore, Indonesia, Malaysia, and Brunei. 
Marines from the Third Marine Expeditionary Force participated with all 
CARAT nations in landing force operations as well as providing a Marine 
Security Element to advise and assist the armed forces of the 
Philippines in their efforts against global terrorism.
    In the Mediterranean, Navy ships, including surface combatants, 
submarines, and patrol craft, operated with friends and allies in over 
60 exercises with NATO and Western European nations to enforce United 
Nations sanctions in the Federal Republic of Yugoslavia. Marines from 
the 24th Marine Expeditionary Unit (Special Operations Capable) 
demonstrated their capability to offload and move inland to reinforce 
Kosovo Forces' security requirements.
    Our ability to sustain the preceding breadth of capabilities, from 
combat operations to peacetime coalition-building exercises, came as a 
result of difficult choices we made--choices that have proven wise by 
the manner in which history unfolded last year. As you recall, in last 
year's budget we placed great emphasis on fixing some of the chronic 
problems that had been threatening our long-term ability to man, 
operate, and sustain the fleet we have today. We made a conscious 
decision to give the highest priority to our personnel and current 
readiness accounts. Within our critical procurement accounts we 
undertook a major effort to make the foundations for our shipbuilding 
programs healthy, even at the expense of being able to procure only 
five new ships in fiscal year 2003. While congressional support for 
supplemental appropriations did much to decrease our maintenance 
backlog and fill our spare parts bins, we fully recognize our fiscal 
year 2003 plan devoted fewer resources toward recapitalization than 
either the Department or Congress would have wished. Having made that 
difficult prioritization we committed to translating a healthy 
procurement base in fiscal year 2003 into earnest recapitalization in 
fiscal year 2004. We have kept that promise.

   III. THE FISCAL YEAR 2004 BUDGET: BUILDING FROM A SOLID FOUNDATION

    The Department's fiscal year 2004 budget request reflects an 
increase of $3.5 billion above the amount provided in the Fiscal Year 
2003 Defense Appropriations Act. It also reflects the Department's 
commitment to get the most out of every dollar provided by the American 
taxpayers. We do not come to Congress with ``hat in hand,'' but rather 
with a responsible request, optimally balanced across an entire 
department of competing priorities. In this budget request we have 
proposed an additional $1.9 billion for our priority programs with 
funds identified through our own rigorous cost savings and divestiture 
initiatives.
    Together, these sources of additional funds have enabled us to 
``turn the corner'' in our most pressing recapitalization efforts. Two 
thirds of our top line increase is dedicated toward increased 
procurement. This budget request reflects two more new construction 
ships and five more aircraft than appropriated by Congress last year. 
It increases our funding for transformational research and development 
(R&D) initiatives by a half billion dollars while consolidating the 
critical gains in personnel and current readiness achieved in last 
year's budget. The following represents the priority funding in fiscal 
year 2004 for the Department of the Navy:

        <bullet> We propose 7 new construction ships and 100 new 
        aircraft;
        <bullet> We propose significant transformational capabilities, 
        including the next-generation aircraft carrier (CVN-21), the 
        next-generation destroyer (DD(X)), the LCS, two more SSBN-to-
        SSGN conversions, the Joint Strike Fighter (JSF), the V-22 
        Osprey, the Advanced Amphibious Assault Vehicle (AAAV), and the 
        Advanced Hawkeye (E-2C) Program;
        <bullet> The administration proposes a range of military pay 
        increases from 2.0 percent up to 6.25 percent, targeted by rank 
        and years of service, and additional reductions in out-of-
        pocket housing costs from 7.5 percent to 3.5 percent;
        <bullet> We propose sustained funding for our key operational 
        readiness accounts, including an increase by over $200 million 
        for aviation depot maintenance;
        <bullet> We implement Navy-Marine Corps Tactical Aviation 
        Integration, a process that will maximize our combat power, 
        optimize the core capability of naval aviation forces, and 
        introduce 200 modern aircraft across the fiscal year 2004-
        fiscal year 2009 program; and
        <bullet> We improve the quality of our operational training 
        through our Training Resource Strategy, and provide $61 million 
        in fiscal year 2004 toward this end.

    Highlights of our fiscal year 2004 budget request are provided in 
the sections below.
A. Current Readiness
    The fiscal year 2004 budget request builds upon the best successive 
2 years in readiness budgets in more than a decade. It funds an OPTEMPO 
of 54.0 days per quarter for our deployed forces. This level supports 
the Global Naval Forces Presence Policy in terms of Carrier Battle 
Group (CVBG) and Amphibious Ready Group (ARG) availability as required 
by national security policy. However, accelerated deployment timelines 
and increased OPTEMPO will cause current year execution to run ahead of 
the existing plan.
    Funding for ship maintenance will achieve more than 96 percent of 
the fiscal year 2004 notional goal. This reflects a virtually identical 
posture as compared to last year, both in terms of percent 
accomplishment and quantity of backlog remaining. The aggregate level 
of funding for ship maintenance declines from fiscal year 2003 to 
fiscal year 2004, due in part to the positive effects of the additional 
maintenance funding provided in supplemental appropriations in the 
previous year, and in part to the accelerated retirement of our oldest, 
least capable, and most maintenance-intensive ships.
    Accelerating the retirement of these ships was one of the most 
difficult decisions we made in building this year's budget. While 
aggregate warfighting capability is a better metric than the number of 
ships in our inventory, we recognize that below a certain threshold 
numbers do matter. However, our analyses indicate that the near-term 
inactivations we are proposing provide an acceptable level of risk 
without compromising our ability to accomplish our mission, and that 
the fastest and most efficient way to recapitalize and transform the 
Fleet is to pursue vertical cuts in our least capable type-model 
series, both in ships and in aircraft, and apply those savings toward 
procuring new ships and aircraft.
    The growing sophistication of potential threats, increasing 
complexity of modern warfare, advances in training technology, and the 
development of new weapons and tactics require more capable training 
facilities and methodologies. Under the leadership of Fleet Forces 
Command, the Department has produced the Training Resource Strategy 
(TRS), a multi-year plan to improve inter-deployment training for 
CVBGs, ARGs, and Marine Expeditionary Units (MEUs). The Department is 
committed to implementing and fully funding these improvements.
    The training technology, range, and facility improvements 
programmed via the TRS will ensure the long-term combat readiness and 
effectiveness of our deploying forces and produce a training capability 
superior to that existing today. The fiscal year 2004 budget will 
ensure deploying forces are fully prepared for the challenges of armed 
conflict in the 21st century.
    Military lands and training ranges--including land, sea, and air 
training and operating areas (OPAREAs)--are necessary to ensure that 
realistic training opportunities exist to prepare our sailors and 
marines. Population growth, economic development, expansion of 
conservation and recreational areas, and urban and suburban sprawl, 
along with State and Federal environmental laws and regulations, have 
significantly restricted the military's access to and use of military 
lands, training ranges, and at-sea OPAREAs. This ``encroachment'' has 
markedly restricted our ability to train realistically and, unless 
checked, promises to produce further restrictions.
    Our goal is not to roll back environmental protection, but to 
ensure that our sailors and marines are properly trained. We owe these 
young people realistic, quality training before we send them in harm's 
way. We are not looking for an exemption for everything the military 
does, but rather for a scientific approach that achieves an appropriate 
balance between environmental concerns and unique military readiness 
needs. We remain committed to our long tradition of excellent 
environmental stewardship, and our fiscal year 2004 budget will ensure 
our deploying forces are fully prepared for every challenge they may 
encounter.
B. Personnel Readiness
    Our ships, submarines, and aircraft have no ``asset value'' to the 
Nation until manned by trained, educated, and motivated people. Sailors 
and marines--along with our civilian workforce--remain the strong and 
steady foundation of our naval capabilities. The families of our 
service members also are vital to our readiness. It is a fact that we 
recruit sailors and marines, but we retain families, and we recognize 
that the effectiveness of our forces is dependent in large measure on 
the support they receive from their loved ones.
    Over the past 2 years we realized significant gains in the manpower 
arena that translated directly into increased personnel readiness. In 
the process of maintaining an increased readiness posture while 
transforming antiterrorism/force protection positions, Navy operated 
just below the congressionally-allowed maximum end strength flexibility 
in fiscal year 2002. Doing so permitted us to sustain CVBG and ARG 
manning readiness near 100 percent. Our ability to surge deploy forces 
around the globe in response to recent events is testimony to the 
success of our personnel readiness posture. Over the course of fiscal 
years 2003 and 2004, we anticipate end strength will decrease slightly 
to reflect force structure changes.
    Active Duty
    The Navy and Marine Corps met recruiting and accession goals in 
2002, and continue to attract America's finest young men and women to 
national service. The Marine Corps notched its seventh year of meeting 
monthly and annual recruiting goals. Navy achieved its recruiting goals 
for a fourth consecutive year. Both Services are well-positioned for 
success in meeting 2003 officer accession requirements. The sailors and 
marines entering active duty truly represent our country's best and 
brightest. In 2002, 92 percent of Navy's enlisted accessions were high 
school graduates (up from 90 percent in 2001), while the Marine Corps 
accessions of high school graduates rose 1.3 percent to 97.5 percent.
    Retention rates in 2002 remained at record levels, with 58 percent 
of eligible first-term sailors deciding to ``stay Navy.'' The Marine 
Corps met retention goals in 2002 in record time, achieving its highest 
occupational specialty match to date while also experiencing its 
highest officer retention rate in 18 years. Sailors and marines have a 
sense of purpose and the desire to serve during this critical juncture 
in our Nation's history. We provide them unique opportunities to grow 
professionally and personally, to achieve and be recognized, and to 
lead. They see improvements to their quality of service, and they 
appreciate the outstanding compensation and benefits provided to them 
and to their families. Our recruiting and retention success is 
reflected in the fully manned and operationally capable CVBGs and ARGs 
currently on station around the globe.
    We are fully committed to providing the finest education and 
training for these bright young minds, as befits their place as future 
leaders of the Navy and Marine Corps. Graduation from ``Battle 
Stations'' or the ``Crucible'' is but the first step toward achieving 
the technologically advanced force required to conduct naval warfare in 
the 21st century. Our ``Revolution in Training'' is establishing a 
career-long learning continuum, ensuring the continuous personal and 
professional development of every service member.
    Successful as we are in attracting and retaining the best, we must 
not lose focus on people programs. Our immediate goals include:

        <bullet> Increase Navy recruit high school graduation rates 
        from 92 percent to 94 percent. Marine Corps recruit high school 
        graduation rates are currently between 97 percent and 98 
        percent;
        <bullet> Increase the percentage of enlisted Navy recruits with 
        previous college experience or technical/vocational training;
        <bullet> Continue the Training Transformation started by Navy 
        Task Force EXCEL (Excellence through Commitment to Education 
        and Learning), and Marine Corps training continuum 
        synchronization, including partnering with industry and 
        academia to impart individual training and education;
        <bullet> Continue to develop a live, virtual, and constructive 
        training environment both within the Department and for use in 
        conjunction with the Joint National Training Capability; and
        <bullet> Explore innovative manning initiatives such as the 
        Optimum Manning program, which relies on new technologies and 
        creative leadership to reduce ship manning.

    Congressional support for a targeted pay raise in fiscal year 2004, 
which recognizes and reaffirms the value of our career force, is 
critical to staying the course. So, too, is continuing the reduction of 
out-of-pocket housing expenses and the extension and enhancement of 
essential special pay and bonus authorities. The Selective Reenlistment 
Bonus remains an important tool for retaining our critical skill 
personnel.
    Reserves
    Our Reserve community remains an integral part of our Navy and 
Marine Corps team, with 88,000 naval reservists and 40,000 Selected 
Marine Corps reservists serving today. The seamless integration of the 
Reserve and active components as a total force in the global war on 
terrorism has been a resounding success. The dedicated service, 
invaluable resources, and selfless sacrifices to duty each of these 
``citizen sailors and marines'' provides on a daily basis are integral 
to operational success. We have recalled over 15,000 Navy and Marine 
Corps reservists as of mid-January 2003. These patriots have provided 
force protection, staff augmentation, intelligence, and warfighting 
skills to the Nation's war efforts.
    The Naval Reserve constitutes 19 percent of the Navy's total force, 
with an additional 69,000 sailors serving as Individual Ready 
Reservists (IRRs). In 2002 the Naval Reserve met both its officer and 
enlisted recruiting goals, the result of significant recruiting program 
efforts. These Reserve Forces provide our inter-theater airlift, harbor 
defense, naval embarked advisory teams, and Naval Coastal Warfare 
capabilities. In addition, a large portion of the Navy's port cargo 
handling support, Mobile Construction Battalions, intelligence, and 
medical capabilities are resident in the Reserves.
    The Selected Marine Corps Reserve comprises nearly 25 percent of 
the Marine Corps' warfighting capability, with an additional 58,000 
marines serving as Individual Ready Reservists (IRRs). The Marine Corps 
Reserve's contribution to the global war on terrorism continues with 
individuals and units mobilized to provide a wide variety of support. 
The additional mobilization of hundreds of Individual Mobilizations 
Augmentees and IRRs provided a critical surge of ready expertise and 
staff augmentation to warfighting commands, both Joint and Marine.
    Civilian Personnel
    The civilian workforce, currently totaling approximately 186,000, 
forms an essential role as part of our total force. Hard-working and 
dedicated civilian employees can be found in every major command, 
working alongside our sailors and marines, performing the vital work of 
the Department. We continually refine and shape this vital work force 
for current and future missions. Twenty-one civilian occupational 
groups are targeted specifically for intensive active management. These 
include science and engineering, logistics, contracting, human 
resources, and financial management. Just as it is essential to recruit 
and retain the very best sailors and marines, it also is essential to 
recruit and retain the best and brightest civilians. We are in a 
competition for talent, and your support for a flexible set of civilian 
human resource management tools will enhance our efforts to hire, 
develop, and retain this quality work force.
C. Shipbuilding
    The fiscal year 2004 budget request provides funding for seven new 
construction ships, the final two of four planned SSBN-to-SSGN 
conversions, and the first ship in our Cruiser Conversion program. In 
all, our shipbuilding program includes $11.4 billion, a significant 
increase above last year. Additionally, we invest more than $1.5 
billion for R&D in transformational shipbuilding programs such as CVN-
21, DD(X), LCS, and SSGN (discussed later in this statement). The seven 
new ships include:

        <bullet> Three Arleigh Burke class (DDG-51) destroyers. These 
        ships are being procured as part of a multi-year procurement 
        (MYP) of 10 DDG-51 ships over the period fiscal year 2002 
        through fiscal year 2005. In addition to the cost savings from 
        this MYP, the Navy and its two principal DDG builders 
        successfully negotiated a workload swap arrangement in June 
        2002 in which General Dynamics' Bath Iron Works will transfer 
        LPD-17 ship construction work to Northrop Grumman Ship Systems 
        in exchange for additional DDG-51 work. This arrangement will 
        optimize production efficiencies and stabilize workload at all 
        shipyards building DDG-51 and LPD-17 class ships.
        <bullet> One Virginia class (SSN-774) fast attack submarine. 
        The fiscal year 2004 ship marks the initial year of a seven-
        ship, 5-year MYP that will achieve significant savings while 
        increasing submarine procurement to two per year starting in 
        fiscal year 2007. The first Virginia class submarine (SSN-774) 
        will deliver in June 2004.
        <bullet> One San Antonio class (LPD-17) amphibious transport 
        dock. The fiscal year 2004 budget provides full funding to 
        procure the sixth ship of this class. The program is on track, 
        and represents an urgently needed contribution to the Marine 
        Corps' amphibious lift requirements.
        <bullet> Two Lewis and Clark class (T-AKE) auxiliary cargo and 
        ammunition ships. Fiscal year 2004 funding procures the fifth 
        and sixth ships of this class to continue recapitalization of 
        our support fleet. Delivery of the lead ship is expected in 
        fiscal year 2005.

    Beginning in fiscal year 2004, the Cruiser Conversion Program will 
provide selected Ticonderoga class Aegis-equipped cruisers with 
essential land attack, force protection, and Area Air Defense Commander 
capabilities, extending their mission-relevant service life to 35-plus 
years.
    Beyond the new construction ships and conversions, the fiscal year 
2004 budget request provides additional incremental funding for LHD-8, 
service life extension for three Landing Craft Air Cushioned, and 
initial R&D efforts on the LHA Replacement (LHA(R)), scheduled for 
procurement in fiscal year 2007. In LHA(R) the Department is pursuing a 
far more capable replacement for aging amphibious ships such as the 
LHA. While the initial stages of design move forward, LHA(R) will offer 
many improvements over the LHA it will replace, and will set the stage 
for further development toward a new design that could offer 
capabilities such as concurrent flight operations of helicopters and 
fixed wing aircraft.
D. Aircraft
    The Department's fiscal year 2004 budget maximizes the return on 
aviation investment, primarily through the use of MYP arrangements for 
the F/A-18E/F (both airframe and engine), the E-2C, and the MH-60S. We 
also have agreed to enter a joint MYP contract with the Air Force to 
procure KC-130Js to replace the Marine Corps' fleet of KC-130F/Rs. In 
all, the fiscal year 2004 budget procures 100 new aircraft, including:

        <bullet> 53 tactical, fixed wing aircraft (42 F/A-18E/F, 2 E-2C 
        and 9 MV-22);
        <bullet> 28 helicopters (13 MH-60S, 6 MH-60R and 9 UH-1Y/AH-
        1Z);
        <bullet> 16 trainer aircraft (15 T-45 and 1 T-39); and
        <bullet> 3 support aircraft (2 UC-35 and 1 C-40A)

    The F/A-18E/F Super Hornet is the Navy's principal tactical 
aviation recapitalization program until we get to the JSF. The fiscal 
year 2004 budget includes $3.0 billion for 42 planes, which constitutes 
the final installment of a fiscal year 2000--fiscal year 2004 MYP 
contract. Deliveries remain ahead of schedule, and the first squadron 
of F/A-18E/F recently conducted combat operations aboard U.S.S. Abraham 
Lincoln (CVN-72). Of note, a variant of the F/A-18 airframe, the EA-18G 
Growler, has been selected as the Navy platform to replace the aging 
EA-6B Prowler. By using a common airframe, the EA-6B follow-on will 
deliver at lower cost while providing growth potential for improved 
future electronic warfare systems. The Marine Corps expects to fly the 
EA-6B (ICAP III) until approximately 2014 to 2015 before transitioning 
to a new Electronic Attack aircraft.
    Based on successful flight testing results, the Department felt 
confident to continue the minimum sustaining rate for the V-22 Osprey 
program and has requested nine MV-22s along with two CV-22s requested 
by the Air Force. Additionally, fiscal year 2004 funding supports key 
elements of the Department's helicopter master plan. We have requested 
procurement of 13 MH-60S platforms (organic mine countermeasures, 
combat search and rescue, special operations and logistics missions) 
and 6 MH-60R platforms (tactical support missions for surface 
combatants and aircraft carriers). Together, these will continue 
replacing the Department's aging fleet of H-46, SH-3, SH-60B, and SH-
60F helicopters. Fiscal year 2004 will mark the first year of 
procurement in the AH-1Z/UH-1Y program. These aircraft improve many 
capabilities for the Marine Corps, including increased payload, range 
and time on station, improved sensors and lethality, and 85 percent 
component commonality.
E. Weapons
    The fiscal year 2004 budget request supports the Department's 
objective to develop, upgrade, and replace weapons and weapon systems 
to ensure we maintain our warfighting edge.
    Our precision-guided munitions inventory will continue to improve 
in fiscal year 2004 as the Tactical Tomahawk (TACTOM) system ramps up 
to full rate production. TACTOM will accelerate the transition of our 
land attack missile inventory from the older Tomahawk Land Attack 
Missile to the newer, more capable, less costly TACTOM. The budget 
request sustains the maximum Department of the Navy production rate for 
the Joint Direct Attack Munition of 1,000 units per month while 
procuring over 5,000 Laser Guided Bomb kits. Production of the Joint 
Standoff Weapon (JSOW) baseline variant (dispenser) increases in fiscal 
year 2004, and the JSOW unitary variant (penetrator) enters full rate 
production.
    Several land attack R&D efforts central to future littoral warfare 
continue in fiscal year 2004. Advanced naval gun technologies will 
enhance fire support to marines operating ashore. Evolving toward a 
fiscal year 2005 ``shoot-off,'' either the Extended Range Guided 
Munition or the Autonomous Naval Support Round will enhance the range 
and accuracy of Navy 5-inch guns. The Advanced Gun System will provide 
the next generation of surface combatants with a modular, large caliber 
gun system including an automated magazine handling system.
F. Key Warfighting ``Core Competencies''
    While the fiscal year 2004 budget request devotes a significant 
amount of resources toward recapitalizing and transforming to meet 
future requirements, it also provides solid support for our 
longstanding naval ``core competencies'' of Anti-Submarine Warfare 
(ASW), Mine Warfare (MIW), Ship Self Defense (SSD), and Air Defense 
(AD).
    ASW
    ASW remains a challenging mission area, particularly in the shallow 
water littoral regions populated by modern, quiet submarines. The 
fiscal year 2004 budget request supports numerous improvements in ASW. 
The Improved Extended Echo-Ranging is incorporated into the USQ-78B 
Acoustic Processor, which will improve large area acoustic search 
capability on our Maritime Patrol Aircraft. Further enhancements to our 
capability for large area search will be provided by acquiring the 
Automatic Periscope Detection and Discrimination system. Additionally, 
the capability for our surface combatants to survive attacks from 
threat torpedoes will be enhanced through the Surface Ship Torpedo 
Defense effort. The success of the Acoustic Rapid COTS Insertion (A-
RCI) program in providing significant improvement in ASW sensor 
processing for our submarine force has spawned similar efforts in 
submarine combat control, communications, and upgrades to the surface 
fleet's SQQ-89 combat suite. These programs validate the Navy's 
decision to use commercially available technology to deliver superior 
performance at less cost.
    MIW
    The Navy continues to make advances in MIW capabilities, and our 
emphasis on organic capabilities to counter the growing mine threat is 
enhancing our ability to ``get to the fight.'' The fiscal year 2004 
budget continues the development and acquisition of the Long-Term Mine 
Reconnaissance System (LMRS), which is on track for a fiscal year 2005 
IOC on Los Angeles class submarines. LMRS will provide a clandestine 
reconnaissance capability for mines and mine-like objects. The fiscal 
year 2004 budget also includes funding for the development and 
acquisition of the Remote Mine-hunting System (RMS), a surface ship--
launched and recovered semi-submersible vehicle. RMS has a fiscal year 
2005 IOC with near-term fielding planned for DDGs 91-96. RMS also is a 
strong candidate for future deployment on the LCS. To meet the 
Department's goal of an organic mine warfare capability by fiscal year 
2005, the fiscal year 2004 budget continues the development and 
integration of five Organic Mine Subsystems into the MH-60S platform.
    SSD
    We continue to invest in upgrading our Ship Self Defense programs. 
Fiscal year 2004 funding covers the spectrum from electronic 
countermeasures to missiles to guns. The Surface Electronic Warfare 
Improvement Program (SEWIP) is a spiral development effort initiated to 
provide a robust, full spectrum electronic warfare system following 
cancellation of the Advanced Integrated Electronic Warfare System in 
fiscal year 2002. SEWIP will build on the legacy SLQ-32 system to field 
capabilities against next-generation threats. The current budget 
expands procurement of the Close-in Weapons System, Block 1B. The 
internationally-procured Rolling Air Frame Missile will provide ship 
self-defense against missiles as part of a layered defense. 
Additionally, we are pursuing installation of minor caliber guns on our 
deploying ships to improve our ability to counteract a small boat 
threat in the 0 to 8,000 yards range. We soon will install stabilized 
minor caliber guns on two DDGs.
    AD
    The fiscal year 2004 budget requests funds to develop the Extended 
Range Active Missile (ERAM). ERAM will enable over-the-horizon 
engagements against the most advanced anti-ship and land attack cruise 
missiles, and represents an important step in projecting area defense 
landward from the sea.
G. Maneuver Warfare
    The fiscal year 2004 budget supports the continued development and 
fielding of all equipment used by the Marine Corps' maneuver forces. 
This year, we identify approximately $340 million for R&D and 
procurement of the Advanced Amphibious Assault Vehicle (AAAV). Last 
year we procured the first AAAV, which will serve as a full-up system, 
live-fire test vehicle. We will procure 186 systems over the remainder 
of the fiscal year 2004-fiscal year 2009 program. Scheduled for IOC in 
fiscal year 2008, the AAAV will provide a unique combination of 
offensive firepower, nuclear-chemical-biological protection, and high 
speed mobility on land and on sea.
    The fiscal year 2004 budget will fund the next 60 Lightweight 155-
mm (LW155) Howitzers. These units will provide significant improvements 
in Marine Corps fire support over the current M198 system. Compatible 
with all U.S. and NATO 155mm rounds, the smaller footprint of the LW155 
will reduce strategic sealift requirements while providing improved 
accuracy and greater lethality.
H. C\4\I, Space and Network Initiatives
    The Department's Command, Control, Communication, Computers, and 
Intelligence (C\4\I) and Space programs are an integral part of 
network-centric operations, enhancing the combat capability of our 
Naval Forces and serving as critical enablers of a transforming Navy 
and Marine Corps. Our concept of Information Technology for the 21st 
century (IT-21) is providing a common backbone for C\4\I systems to be 
linked afloat, ashore, and to the Internet. IT-21 combines satellite 
and line-of-sight communication paths with commercial IT hardware and 
software to establish secure and unclassified Internet Protocol network 
connectivity for ashore and mobile Naval Forces. This is a critical 
first step toward transformational network-centric operations.
    Our next major objective is to integrate the successes of IT-21 and 
incorporate them across the full spectrum of naval operations to 
achieve significant improvement in knowledge management and operational 
performance. This full dimensional approach, called FORCEnet, will 
provide the operational construct and architectural framework for naval 
warfare in the information age. We will address FORCEnet in greater 
detail later in this statement.
    Support from space is essential to many Navy and Marine Corps 
operations today, and grows increasingly important as the force becomes 
more network-centric. The fiscal year 2004 budget supports the 
Department's expanding efforts in space, including assured, high data 
rate satellite communications, precision navigation and targeting, 
intelligence, surveillance and reconnaissance systems and environmental 
support.
    The fiscal year 2004 budget continues critical enhancements that 
will provide our forces with a common tactical picture. Cooperative 
Engagement Capability (CEC) will provide real time exchange of fire 
control quality data between battle force units and will permit a 
single, identical tactical picture. The Block 2 version will reduce 
cost, size, and weight, with procurement beginning in fiscal year 2006. 
The Naval Fires Control System and Joint Fires Network will use 
existing fire control infrastructure to serve as the nerve center for 
surface land attack by automating shipboard land attack battle 
management duties, incorporating improved land attack weapons systems, 
and utilizing battlefield digitization.
    The Navy/Marine Corps Intranet (NMCI) serves as the principal 
element of the IT-21 effort ashore and is a key enabler of IT 
transformation. Business Case Analyses conducted over the last 2 years 
have demonstrated that the NMCI strategy, characterized by having a 
single private sector entity provide IT services under a long-term 
commercial seat management contract is, in fact, a sound business 
decision compared to the way IT requirements previously were satisfied. 
Last year, Congress approved a 2-year extension to the base performance 
period of the original NMCI contract, extending coverage through fiscal 
year 2007. Fiscal year 2004 funding of $1.6 billion continues user seat 
roll-out and cutover to the NMCI architecture, progressing toward a 
target end-state of 365,700 seats.
I. Missile Defense Initiatives
    The Department of the Navy is poised to contribute significantly in 
fielding initial sea-based missile defense capabilities to meet the 
near-term ballistic missile threat to our homeland, our deployed 
forces, and our friends and allies. We are working closely with the 
Missile Defense Agency (MDA) to upgrade six DDGs in calendar year 2004 
and another six in calendar year 2005 for ICBM surveillance and 
tracking duties. We also are supporting MDA's procurement of up to 20 
Standard Missile interceptors to provide a limited at-sea capability to 
intercept ballistic missiles in the ascent and mid-course phases of 
flight. Finally, U.S.S. Lake Erie (CG-70) will be assigned to MDA to 
facilitate a more robust testing program for missile defense. Our sea-
based missile defense programs experienced tremendous success on the 
test range during 2002, and we look forward to building on these 
successes to accelerate development of this vital capability for our 
Nation.
J. Shore Infrastructure
    The Department remains dedicated to maintaining and improving the 
quality of our support to sailors and marines. Maintaining and 
improving an aging infrastructure, while recapitalizing our operating 
forces, requires disciplined choices and innovative approaches.
    The fiscal year 2004 housing program continues the Department's 
course toward the goal of eliminating inadequate family housing by 
2007. The Navy's three-pronged strategy of improving allowances to 
service members, privatizing, and continuing traditional military 
construction is proving very successful. Increased Basic Allowance for 
Housing (BAH) is spurring local communities to provide necessary 
housing on the open market. Recent analysis shows we have reduced the 
total requirement for Government-furnished housing by over 9,500 units.
    Public/private housing ventures are allowing us to achieve more 
with less commitment of resources. In fiscal year 2003, we will 
privatize over 10,400 homes in five locations; in fiscal year 2004, we 
are increasing this by another 7,000 units. Where BAH and privatizing 
do not apply we are renovating or replacing our inventory.
    We are building on our successes in family housing to help achieve 
our Homeport Ashore Program. Three bachelor housing Public-Private 
Venture (PPV) projects are being developed that could triple the number 
of spaces we would have been able to provide in San Diego, Norfolk, and 
Camp Pendleton under traditional military construction.
    The fiscal year 2004 Military Construction and Sustainment program 
reflects difficult but necessary trade-offs between shore 
infrastructure and fleet recapitalization. The Department remains 
committed to achieving a 67-year recapitalization rate by fiscal year 
2008. In pursuing that goal, we will explore innovative solutions to 
provide safe, efficient installations for our service members, 
including design-build improvements, more efficient facilities, and 
BRAC land sales via the GSA Internet.
K. Business Practices
    We have embarked on a mission to improve the business practices of 
the Department. Every dollar saved by working smarter or by ending 
outdated methods of operations is another dollar that can be used for 
our sailors and marines to equip, train, or fight.
    Information is key to improving the way we do business. Better 
information makes for better decisionmaking, both on the battlefield 
and at the budget table. We have four pilot programs in place utilizing 
enterprise resource planning (ERP), which aim to improve the quality of 
information available to our decisionmakers. These pilot projects will 
eliminate dozens of incompatible computer databases and the business 
processes that once supported those databases. Even more importantly, 
ERP should produce financial and managerial information that is more 
complete, more accurate, and more timely. Our focus now is on 
converging these pilots to achieve even greater synergy of management 
information across a broader spectrum of the Department, and working 
with the Department of Defense Comptroller to ensure these efforts are 
advancing the uniform business management architecture under 
development.
    In addition to better information, we need flexible and innovative 
tools to help manage the Department. Some of these tools, like 
strategic sourcing, are being used already. Competition helps achieve 
the best quality support to the sailor and marine at the lowest 
possible cost by introducing the discipline of the marketplace. The 
acquisition process still needs considerable reform. We owe it to every 
sailor and marine to ensure that today's technology arrives in their 
hands today, not tomorrow. It still takes too long from lab to live 
fire. Finally, the Navy and Marine Corps need better tools to recruit 
and manage the civilians who support our warfighter.
   iv. naval power 21: a transformational vision for the 21st century
    Fundamentally, our Navy and Marine Corps exist to control the seas, 
assure access, and project power beyond the sea. Our vision, Naval 
Power 21, is built upon three pillars:

        <bullet> We assure access. We assure sea-based access worldwide 
        for military operations, diplomatic interaction, and 
        humanitarian relief efforts.
        <bullet> We fight and win. We project power to influence events 
        at sea and ashore both at home and overseas.
        <bullet> We are transforming continually to improve. We are 
        transforming concepts, organizations, doctrine, technology, 
        networks, sensors, platforms, weapon systems, training, 
        education, and our approach to people.

    Although the Navy and Marine Corps team remains the greatest 
maritime force in the world, the emerging challenges of the 21st 
century demand a joint, netted, power projection force that offers 
modern and ever-evolving combat capability. Together, under the 
supporting service visions of Seapower 21 and Marine Corps Strategy 21, 
we will provide funding for a full array of transformational 
initiatives in our R&D, investment, and operational programs. Evidence 
of the scope and magnitude of these changes is highlighted by our 
transformation:

        <bullet> from a single new class of destroyer to a family of 
        surface combatants tailored for the full range of 21st century 
        missions;
        <bullet> from a Cold War force of 18 SSBNs to a 21st century 
        force of 14 SSBNs and 4 SSGNs;
        <bullet> from evolutionary aircraft carrier improvements to the 
        revolutionary promise of CVN-21;
        <bullet> from no ballistic missile defense (BMD) capability to 
        limited sea-based BMD capability; and
        <bullet> from competing Navy and Marine Corps tactical aviation 
        to an integrated naval tactical aviation.
A. Transformational Capabilities to Assure Access and Project Power
    The Navy and Marine Corps continue to meet the imperative of 
transformation. Our ``way ahead'' for the future capitalizes on 
transformational ideas that facilitate our recapitalization goals. The 
fiscal year 2004 budget request includes funding for initiatives in 
shipbuilding, aviation, and C\4\I that promise dramatic improvements in 
assuring access and projecting power.
    In shipbuilding, we are fulfilling the President's stated goal to 
``skip a generation'' of technology by restructuring our previous two-
step (CVNX-1 and CVNX-2) evolutionary acquisition approach into a 
single transformational ship design that accommodates continuous 
evolution through the life of the class. The new design, named CVN-21, 
sustains the original development and construction schedule from CVNX-
1, but accelerates many critical technologies previously planned for 
the second step ship, CVNX-2. CVN-21 will feature a new propulsion 
plant, a greatly expanded electrical generation and distribution 
system, a new/enlarged flight deck, an improved sortie rate generation 
over CVNX-1, an electro-magnetic aircraft launching system (EMALS), a 
new advanced arresting gear, improved weapons and material handling 
systems, and improved survivability features--all with 800 fewer crew 
members. In support of this technology acceleration we have added 
significant funding across the fiscal year 2004 to fiscal year 2009 
program while providing $1.5 billion in fiscal year 2004 alone.
    The centerpiece warship of our future surface combatant ``family of 
ships,'' the DD(X), is on track to move to an initial construction 
contract award in fiscal year 2005. Fiscal year 2004 funding of $1.05 
billion will enable further development of key electric drive, power 
grid, and combat system components. Through a spiral development 
acquisition process, DD(X) will be the principal technology engine that 
will feed the entire family of ships.
    The fiscal year 2004 budget requests approximately $160 million in 
R&D to begin moving out with the next member of our future surface 
combatant ``family of ships,'' the LCS. A networked, lethal, small, 
fast, stealthy, and highly maneuverable ship, LCS will be designed from 
the keel up as a focused mission ship capable of employing manned and 
unmanned mission modules to counter some of the most challenging anti-
access threats our Naval Forces may encounter close to shore--mines, 
quiet diesel submarines, and swarming small boats. Last year, we 
continued experimenting with a range of innovative hull forms, and 
Congress supported us so we could get the program moving this year, 
avoiding a critical 1-year delay. The fiscal year 2004 effort will be 
aimed at defining requirements, improving our knowledge base for 
selecting an LCS design, and beginning mission module development.
    The fiscal year 2004 budget request contains nearly $1.2 billion 
for SSBN-to-SSGN conversion. This effort will provide a near-term 
transformational capability to the Nation by removing four Ohio class 
submarines from their strategic mission, refueling their reactors to 
permit an additional 20 years of operation, and converting them into 
conventional strike platforms capable of carrying more than 150 
Tomahawk missiles and deploying over 60 Special Operations Forces. 
Funding to commence the first two conversions was provided in fiscal 
year 2003; this year's request supports beginning the final two 
conversions.
    The fiscal year 2004 budget provides $2.2 billion to continue 
development of the Joint Strike Fighter (JSF), a stealthy, multi-role 
fighter aircraft designed to be an enabler for Naval Power 21. JSF 
replaces the Navy's F-18A/C Hornet variants and the Marine Corps' AV-8B 
Harrier and F/A-18C/D Hornet while complementing the Navy's F/A-18E/F 
Super Hornet. JSF offers dramatic improvements in affordability and 
supportability. It has completed all major milestones to date on time, 
and remains on track to IOC for the Marine Corps in 2010 and for the 
Navy in fiscal year 2012.
    A critical enabler of transformational intelligence, surveillance, 
and reconnaissance, the E-2C Advanced Hawkeye Program will provide a 
robust overland capability against current and future cruise missile-
type targets. The fiscal year 2004 budget invests over $350 million for 
continued development. IOC is planned for fiscal year 2008 with a total 
procurement of 66 systems.
    As the global war on terrorism has demonstrated, unmanned 
technology will play an ever-increasing role in the battleground of the 
21st century. The Department's fiscal year 2004 budget invests more 
than $300 million across a series of UAV programs, including Tactical 
UAVs, Maritime Surveillance UAVs, and an Unmanned Combat Air Vehicle 
(UCAV) initiative, developed in partnership with the U.S. Air Force. 
Beneath the sea, we will invest more than $80 million in Unmanned 
Undersea Vehicles (UUVs) that are being developed to enhance 
capabilities in minefield reconnaissance and other submarine missions.
B. Transformational Organizations and Operational Concepts
    Beyond pure technology, transformation also includes revolutionary 
methods for achieving dramatically greater utility out of our existing 
assets. The Department's initiative to integrate its tactical aviation 
capabilities is one such transformational story. Navy and Marine Corps 
tactical air integration will maximize forward deployed combat power 
and optimize the core capability of naval aviation forces. Its positive 
impact will be felt across the Department's entire tactical aviation 
enterprise, from leaner, more capable fighting formations to 
streamlined procurement requirements (tactical and training) to 
manpower savings. In total, this innovative program promises to save 
$975 million over the fiscal year 2004 to fiscal year 2009 program and 
provide approximately $19 billion in cost avoidance from fiscal year 
2007 to fiscal year 2012.
    To support the ability of forward-based Naval Forces to respond to 
a host of scenarios, the Navy and Marine Corps are exploring more 
robust strike capabilities for the ARG/MEU team. The Expeditionary 
Strike Group pairs the traditional ARG with surface combatants and an 
SSN so the force has greater capability to conduct independent 
operations in the ``deter'' and ``swiftly defeat'' scenarios outlined 
in our defense strategy.
    FORCEnet is the Department of the Navy's catalyst for operational 
transformation. In the realm of network-centric warfare and operations, 
it will enable orders of magnitude increases in combat power to ensure 
decisive influence and warfighting success across the full spectrum of 
military operations in the information age. FORCEnet is not a system. 
It is the architecture by which we will integrate our sensors, 
networks, decision aids, weapons, and warfighters into a networked, 
distributed combat system, scalable across the entire range of conflict 
from seabed to space and sea to land. Leveraging powerful network 
infrastructure ashore, including NMCI and the various constituents of 
IT-21, with legacy and developing tactical networks at sea, including 
those as diverse as CEC, Joint Fires Network and the E-2C Advanced 
Hawkeye Program, FORCEnet will bring a dramatically expanded 
``toolbox'' of capabilities to the joint warfare commander. Through 
FORCEnet the Navy and Marine Corps will transform to a joint, netted, 
distributed, and forward stationed force.
C. Transformational Initiatives for our People
    Sea Warrior is the process of developing 21st century sailors. 
Curriculum Mapping is the Marine Corps equivalent. These initiatives 
identify the knowledge, skills, and abilities needed for mission 
accomplishment; apply a career-long training and education continuum; 
and employ a responsive, interactive career management system to ensure 
the right skills are in the right place at the right time.
    Modern Naval Forces are manned by streamlined teams of sailors and 
marines who fight and manage some of the most complex systems in the 
world. We need sailors and marines who are highly educated and expertly 
trained. They must be creative thinkers and life-long learners, and it 
is for them that we undertook the Revolution in Training. They also 
deserve a human resource management and detailing system that provides 
information and choice, both to the sailor and gaining commands, so 
that informed career decisions can be made. To this end, we are moving 
toward an interactive and incentivized distribution system that 
includes team detailing, web job listings, an information call center, 
and comprehensive and extensive engagement of our detailers with 
individual sailors to help shape their careers.
    At sea, we are exploring two initiatives that promise a revolution 
in the way we man our ships. First, we have begun an ``Optimal Manning 
Experiment'' on board U.S.S. Milius (DDG-69) and U.S.S. Mobile Bay (CG-
53) to develop a more efficient model for the shipboard manning 
requirements of the 21st century. Also, we have begun a crewing 
experiment titled ``Sea Swap,'' in which we will deploy two destroyers 
for 18 months consecutively, rotating the entire crews at 6-month 
intervals. This initiative will realize significant operational savings 
by avoiding multiple 6-week transits to and from the deployed operating 
areas.
D. Transformational Initiatives for Doing Business
    Our ability to recapitalize and transform stems in large measure 
from a vigorous divestiture program that forced us to make hard choices 
across every facet of the Department's operations. We looked hard at 
older systems with their limited capabilities and high infrastructure 
costs (maintenance, parts, training, etc.) and ultimately decided to 
accelerate retirement of 11 ships and 70 aircraft. We reorganized and 
then reduced the Secretary of the Navy Headquarters Staff by 25 
percent. We divested ourselves from more than 50 systems and eliminated 
70,000 legacy IT applications from an original baseline of 103,000. In 
the aggregate, these difficult decisions yielded $1.9 billion for 
reinvestment in higher priorities.
    In addition to divestiture initiatives, we are transforming the way 
we manage the entire Department's internal affairs. Perhaps nowhere is 
this more evident than in our shipbuilding programs. Instead of locking 
ourselves into ``pre-ordained obsolescence'' through rigid designs for 
hull, combat, and information systems that take years to execute, we 
are capitalizing on computer-aided, design-build strategies in which we 
harvest commercial, ``state-of-the-art'' technologies and insert them 
at the optimum time as the construction process moves from hull to 
combat system suite to information systems. We have undertaken some 
remarkable initiatives within our acquisition community that have 
stabilized key industrial bases, expanded our ability to capitalize on 
the best commercial practices, and laid a strong foundation for 
controlling the costs of our major acquisition programs.
    We are working with industry as partners across the full breadth of 
our shipbuilding programs. The tri-partite agreement between Navy, 
General Dynamics, and Northrop Grumman stabilized both our DDG-51 and 
LPD-17 programs, avoided a ``second lead ship'' challenge for the LPD 
program, and produced savings sufficient to purchase a third DDG in 
fiscal year 2004 and fiscal year 2005. We are working with the software 
industry to open all Navy architectures. These efforts are intended to 
lead to the development of a truly open architecture that can be shared 
between all of our current and future combatant ships. Finally, we have 
imposed a discipline on ourselves that severely limits change during 
the critical phases of our major shipbuilding programs. This discipline 
also has been implemented in the JSF program through a configuration 
steering board. By controlling the scope and timing of change, we hope 
to implement necessary changes in our programs in a planned fashion 
where we know what it will cost and how we will install it in the most 
economical manner.
    Through these transformational business initiatives and others, our 
Department will emerge with an optimal force structure; a healthy 
industrial base and an efficient and appropriately sized 
infrastructure.

    V. THE WAY AHEAD: POSITIONING TODAY'S NAVY AND MARINE CORPS FOR 
                         TOMORROW'S CHALLENGES

    Although the global war on terrorism is closer to the beginning 
than the end, our Navy and Marine Corps, as members our Nation's joint 
battle force, have disrupted terrorist networks and freed the people of 
Afghanistan. Our Nation can take pride that, in 2002, the Navy-Marine 
Corps Team continued its record of combat excellence, improved 
operational readiness, and retained our magnificent people at historic 
rates.
    Much has been accomplished, but much remains to be done. The 
Department's fiscal year 2004 budget request positions today's Navy and 
Marine Corps to support tomorrow's joint warfighting environment by 
sustaining hard-fought advances in personnel and operational readiness, 
investing in critical shipbuilding and aircraft programs, fueling 
transformational capabilities, and building a global, agile, and fully 
networked force. As our Navy and Marine Corps Team confronts a future 
with challenges already visible on the horizon, we thank you for your 
terrific support of our Naval Forces, and urge your continued support 
for the course upon which we have embarked to fight and win our 
Nation's wars while preparing to meet the demands of an uncertain 
tomorrow.

    Chairman Warner. Thank you, Mr. Secretary. For the 
Department of the Air Force, Secretary Roche.

  STATEMENT OF HON. JAMES G. ROCHE, SECRETARY OF THE AIR FORCE

    Secretary Roche. Thank you, Mr. Chairman, Senator Levin, 
members of the committee. It is my great honor to join my 
fellow Service Secretaries today and to represent some hundred 
thousand active, Guard, Reserve, and civilian airmen who are 
engaged in defending our Nation and serving our interests 
around the globe. I am very proud of their achievements this 
year, from combat operation to homeland defense, to their daily 
efforts that guarantee the readiness, health, security, and 
morale of our forces.
    It has also been my distinct pleasure to serve for another 
year with a wonderful general officer named John Jumper. I 
enjoyed working with him; I enjoyed his background. We note in 
our travels around the Air Force, we have been impressed and 
humbled by the creativity, commitment, and professionalism of 
our airmen.
    Mr. Chairman, Senator Levin, if the President decides that 
we should go into conflict, I want you to know we are ready. We 
have looked at all of the aspects. As some of you know, I carry 
each day the current list of preferred precision munitions and 
where we are in production. We review all that will be asked of 
us. We are ready; we want you to know this.
    As we prepare for the future, we fully support the 
Department's continuing efforts to balance near-term readiness 
and operational requirements with long-term transformation of 
the Armed Forces. Our challenge is to fight the global war on 
terrorism while simultaneously transforming. We must do both. 
Although we face near-term budget pressures, we nevertheless 
must invest in the future. Otherwise, we may be forced to pay 
more later in dollars and perhaps even lives.
    A year of challenging operations, readiness improvements, 
and investments in our people provide us with many good news 
stories. In defense of the homeland, we flew over 25,000 
Operation Noble Eagle fighter, tanker, and airborne warning 
sorties, made possible only through the mobilization of over 
30,000 airmen from the Air Force Reserves and Air National 
Guard. They have conducted over 75 percent of all Operation 
Noble Eagle missions.
    In Operation Enduring Freedom, we flew more than 40,000 
sorties in 2002, over 70 percent of all coalition sorties. We 
did over 8,000 refueling missions, 55 percent of which were for 
Navy and Marine Corps aircraft, which really made this a joint 
operation in a distant landlocked nation that we never thought 
possible that we would have to fight a long time ago.
    In Afghanistan, our special operation teams developed new 
ways to bring air and space power to bear in a variety of 
engagements. Notably, our combat controllers integrated new 
technologies and precision weapons into close air support from 
39,000 feet using the B-2 bomber; and Curtis Lemay probably is 
turning in his grave. We are now developing better processes to 
target and engage time-critical and moving targets, and the 
same combat controllers are working on the next generation of 
systems.
    We have sustained a forward presence around the globe 
protecting our Nation's interests and assuring our allies. We 
now have over 35,000 deployed airmen serving in some 50 
expeditionary bases in over 35 countries plus over 50,000 
airmen permanently assigned overseas, not including Hawaii and 
Alaska.
    In space, we continued the operation of a variety of 
satellite constellations that provided essential capabilities 
to warfighters and civil consumers. Last year, we launched 18 
missions with a 100 percent success rate, including the first 
space launch using an expendable launch vehicle. But we are now 
facing some interesting challenges. For instance, we now note 
with undeniable reality that other nations are investing in 
American advanced military technologies, and fielding the best 
our aerospace industry has to offer in their air forces. This 
is unique in our history.
    While investment of our good friends and allies is a great 
value for our alliance's industrial base, superior capabilities 
are now sure to be present in American-produced airplanes that 
do not fly the American flag. While other nations are 
modernizing, we continue to employ aging systems that are 
becoming more difficult to operate and more expensive to 
maintain. The average age of the operational Air Force fleet is 
22 years old this day. Even with our planned aircraft 
procurements, the total average age is expected to increase to 
27 years by the year 2020.
    While our 2004 budget addresses a number of these 
challenges and supports the Department's priorities, it 
accelerates our modernization of joint capabilities, and 
maintains the gains of readiness and people programming 
achieved last year. Most important it gets money into our 
procurement programs and funds essential capabilities our 
warfighters need. I strongly request that you support stability 
in all of these programs.
    Mr. Chairman, we are also working with Secretary Rumsfeld 
and our colleagues to assess, advocate, and implement a range 
of sensible management practices that we believe will help 
minimize bureaucratic obstacles in the path that affect the 
future administration of the Department. In particular, we are 
looking at measures to transform our personnel, acquisition, 
administrative, and range management practices and we have 
asked for your help.
    In order to be brief, Mr. Chairman, let me conclude there 
and thank you and your colleagues for investments you have made 
in our future and for the trust you have placed in our 
concerted effort to provide America with air and space 
dominance.
    [The prepared statement of Secretary Roche follows:]

               Prepared Statement by Hon. James G. Roche

    Mr. Chairman and members of the committee, the Air Force has an 
unlimited horizon for air and space capabilities. Our Service was borne 
of innovation, and we remain focused on identifying and developing the 
concepts of operations, advanced technologies, and integrated 
operations required to provide the joint force with unprecedented 
capabilities and to remain the world's dominant air and space force.
    The Wright brothers' historic flight in 1903 ushered in the dawn of 
a dramatic era of scientific, cultural, and technological advances. As 
the Air Force celebrates this centennial of powered flight, we do so 
with the recognition that, despite the daunting challenges of a more 
dynamic security environment, the next hundred years will witness 
equally fantastic achievements. The 2003 Air Force Posture Statement 
reflects this optimism. In this report, we relate some of our 
accomplishments of 2002 as well as our vision of an innovative and 
adaptive force capable of guaranteeing American air and space dominance 
for the decades to come. Our successes are America's successes; they 
are the direct result of the selfless and unconditional service by men 
and women of the Total Air Force and their families.
    During the past year, and in the midst of combat and a variety of 
contingency operations, we evaluated, implemented, and validated a host 
of technological advances, organizational changes, and concepts of 
operation. These enabled us to deliver desired effects faster and with 
greater precision than at any time in the history of warfare. Such 
adaptation is characteristic of our Service, as airmen continually 
strive to push innovation ever forward en route to unprecedented air 
and space capabilities for combatant commanders, the joint force, and 
our Nation. In the year ahead, we will move our expeditionary Air Force 
closer to realizing the transformational imperatives of this new era, 
machine-to-machine digital integration of manned, unmanned, and space 
assets, and joint command and control. Our concepts of operation 
leverage this integration, and expand our asymmetric advantages in air 
and space--advantages that are fundamental to defending America's 
interests, assuring our allies and coalition partners, and winning the 
Nation's wars.
    We recognize the responsibility for America's security is not one 
we shoulder alone. We work tirelessly toward developing and training 
professional airmen, transitioning new technologies into warfighting, 
and integrating the capabilities of our sister Services, other 
government agencies, and those of our friends abroad to act in the most 
efficient and effective manner across all operations--from humanitarian 
to combat missions. At the same time, we pay special attention to the 
consolidating aerospace industry, our acquisition processes, and our 
critical modernization challenges, to ensure we will be able to draw 
upon our core competencies for decades to come.
    Blessed with full endorsement from the American people, Congress, 
and the President, we will remain the world's dominant Air Force. We 
are honored to serve with America's airmen, and we sincerely appreciate 
the confidence in our commitment and capability to provide our great 
Nation with superiority in air and space.

                              INTRODUCTION

    As America approaches the 100th anniversary of powered flight, the 
Air Force realizes that the Nation is only in the adolescence of air 
and space capabilities. Yet we envision a future that will manifest 
dramatic advances in propulsion, operational employment, weapon 
systems, information technology, education, and training for our air 
and space forces. It is a future of unprecedented, seamless integration 
of air and space capabilities with joint command and control at the 
operational level of war, and machine-to-machine integration at the 
tactical level. We are pursuing these changes--some elementary, others 
revolutionary--which will dramatically escalate the capabilities 
available to the joint forces of the United States; perpetuate American 
air and space dominance; and redefine the nature of warfare.
    If there was any ambiguity about the nature of the security 
environment in this new century, the attacks of September 11, 2001, 
crystallized the setting. Just as the turmoil of the previous decade 
eluded prediction, the dynamic setting of the decades ahead poses even 
greater predictive challenges as centers of power and sources of 
conflict migrate from traditional origins. No longer will it suffice to 
prepare for real and perceived threats from nation-states. Instead, we 
must apply the sum of our operational experiences and experimentation 
to develop dynamic, flexible, and adaptable forces, capable of 
dissuading, deterring, and defeating a much wider range of potential 
adversaries, while still assuring her friends and allies.
    This fluid setting underscores the need for doctrinal agility, and 
expeditious and responsive acquisition, planning, and execution across 
the spectrum of capabilities in support of homeland security--from the 
most difficult anti-access scenario to humanitarian relief. As new 
generations of technology proliferate among potential adversaries, we 
also are reminded of the need to keep pushing technology forward. In 
less than 100 years, we elevated from a Kitty Hawk biplane flying 100 
feet on a 12-second flight, to a host of sophisticated, stealthy aerial 
vehicles capable of reaching any place in the world, and an array of 
satellites that circle the globe continuously. We do not rest on these 
achievements, but instead engage a new generation of innovation. 
Therefore, our mission is to make calculated research, development, and 
procurement decisions with the resolve to integrate all of our combat, 
information, and support systems into an enterprise architecture that 
contributes joint air and space capabilities to help win the Nation's 
wars.
    Meeting these requirements also warrants our continued 
transformation into an expeditionary force with the culture, 
composition, and capabilities to fulfill our evolving operational 
tasks. As the scope of global contingencies requiring American 
involvement has multiplied, we have witnessed the substantial value of 
agility, rapid response, and integration. Thus, we are becoming ever 
more responsive in time, technology, and training, and in the process, 
we are elevating Air Force contributions to joint capabilities, while 
developing our airmen as joint warfighters.
    A year ago, Secretary Rumsfeld laid out a number of key priorities 
for the DOD. All of these--from pursuing the global war on terrorism 
and strengthening joint warfighting capabilities, to streamlining the 
DOD processes and improving interagency integration--demand across-the-
board changes in the way the Defense Department operates. The Air Force 
has taken advantage of this opportunity to evaluate and strengthen our 
capabilities, and to fundamentally drive our investment strategy.
    As we contemplate more than a decade of unprecedented success using 
air and space power, we recognize that we never fight alone. The 
emerging interdependence of joint, coalition, and alliance partnerships 
throughout a decade of contingency warfare has been a profound lesson 
learned. Through cooperative planning, we will realize the full 
potential of our Service--bringing to bear fully integrated air and 
space capabilities.
    It is our imperative to approach this planning and integration with 
innovation and vision, fundamentally focused on capabilities. All of 
the Armed Forces are focusing on meeting the Quadrennial Defense 
Review's ``1-4-2-1'' force-shaping construct, by defining the 
fundamental capabilities required to meet the challenges of a changing 
world. These are: to defend the United States through homeland 
security; to deter aggression and coercion in the four critical regions 
of Europe, Northeast Asia, Southwest Asia, and the Asian littorals; to 
swiftly defeat aggression in overlapping major conflicts while being 
capable of decisive victory in one of those conflicts; and to conduct a 
number of smaller scale contingencies. A revitalized, capabilities-
focused approach to operational military requirements will allow us to 
meet these missions.
    Our focus on capabilities for an uncertain future has inspired us 
to adapt anew the way we organize, train, and equip our forces. We have 
begun by developing Task Force Concepts of Operation (TF CONOPS), which 
will define how we will fight and integrate our air and space 
capabilities with joint, coalition, and alliance forces. The 
requirements that emerge from these operational concepts will guide a 
reformed acquisition process that will include more active, continuous 
partnerships among requirement, development, operational, test, and 
industry communities working side-by-side at the program level.
    This process can only be successful with the help of a vibrant 
defense industry. Yet today the aerospace industry is consolidating to 
a point that threatens to diminish the advantages of competition. This, 
in turn, can lead to loss of innovation, diminished technical skill 
base, lower cost efficiencies, and other challenges. We must foster 
increased competition to ensure the long-term health of an industrial 
sector critical to our national security. While the Air Force will 
continue to advance the vision and associated capabilities for air and 
space, we also must challenge industry in order for it to stay on the 
cutting edge of technology and efficient management practices.
    Finally, transforming our force will not be possible without a 
process to educate, train, and offer experience to the right mix of 
active duty, Air National Guard, Air Force Reserve, and civilian airmen 
who understand the nature of our changing security environment. To 
achieve this, we will evolve what we have traditionally called the 
``personnel'' function in new ways so as to blend professional military 
education, advanced academic degrees, and assignment policies under the 
auspices of ``Force Development.''
    This is the United States Air Force in 2003--inherently innovative, 
tirelessly dedicated, and comprised of the very best airmen and 
capabilities in the world to ensure American security and defend her 
interests. This is what our Nation expects, and we will continually 
meet that expectation.

                               WHAT WE DO

    The United States Armed Forces exist to fight and win our Nation's 
wars, which no Service can accomplish alone. The Air Force's pivotal 
role is to deliver fully capable and integrated air and space power to 
the Joint Force Commander (JFC). By dominating the media of elevation, 
the Air Force offers unique warfighting capabilities that leverage the 
strengths of surface forces and expand the range of potential effects.
    Air and space are realms with unlimited horizons for discovery and 
development. While the Air Force has made tremendous strides in 
realizing the visions of early airmen and exploiting the operational 
potential in each medium, we know there is an array of capabilities as 
yet undiscovered. As the Air Force strives to realize these 
possibilities, we deliver a multitude of air and space achievements for 
joint warfighting.
    Although relatively short, Air Force history reveals fundamental 
competencies that are core to developing and delivering air and space 
power--those unique institutional qualities that set the Air Force 
apart from the other Services and any other military force in the 
world. By identifying and keeping these competencies foremost in our 
vision, we are able to more effectively advance the unique 
capabilities, as well as the ultimate effects, the Air Force provides 
to the joint force and the Nation.
    The Air Force continually develops areas of expertise that make us 
the preeminent air and space force in the world. Previously, we 
distilled these into six distinctive capabilities which we referred to 
as our ``core competencies''--Air and Space Superiority, Global Attack, 
Rapid Global Mobility, Precision Engagement, Information Superiority, 
and Agile Combat Support. However, just as our concepts of operations 
and capabilities continuously evolve, so also does the way in which we 
articulate Air Force competencies. With deeper refinement, we learned 
there are more fundamental elements to what we are as an Air Force and 
how we develop our capabilities for joint warfighting. These are our 
underlying institutional air and space core competencies--those that, 
in fact, make the six distinctive capabilities possible: Developing 
Airmen, Technology-to-Warfighting, and Integrating Operations. These 
three air and space core competencies form the basis through which we 
organize, train, and equip and from which we derive our strengths as a 
Service.

    (1) Developing Airmen: The heart of combat capability

    The ultimate source of air and space combat capability resides in 
the men and women of the Air Force. The value of technology, 
organization, and strategy are diminished without professional airmen 
to leverage their value. Our total force of active, Guard, Reserve, and 
civilian personnel are our largest investment and most critical asset. 
They are airmen: steeped in our expeditionary Service ethos. Therefore, 
from the moment they step into the Air Force through to their last day 
in service, we are dedicated to ensuring they receive the precise 
education, training, and professional development necessary to provide 
a quality edge second to none. The full spectrum capabilities of our 
Air Force stem from the collective abilities of our personnel, and the 
abilities of our people stem from career-long development of 
professional airmen.

    (2) Technology-to-warfighting: The tools of combat capability

    The vision of airmen in employing air and space power fundamentally 
altered how we address conflict. As the leader in military application 
of air and space technology, the Air Force is committed to innovation 
and possesses a vision to guide research, development, and fielding of 
unsurpassed capabilities. Just as the advent of aircraft revolutionized 
joint warfighting, recent advances in low observable technologies, 
space-based systems, manipulation of information, precision, and small, 
smart weapons offer no less dramatic advantages for combatant 
commanders. The Air Force nurtures and promotes its ability to 
translate vision into operational capability in order to produce 
desired effects. Our innovative operational concepts illuminate the 
capabilities we need, allowing us to develop unsurpassed capabilities 
to prevail in conflict and avert technological surprise.
    The F/A-22 is demonstrative of this ability to adapt technology to 
warfighting capabilities. Originally envisioned as an air superiority 
fighter, it has been transformed into a multi-role system. The F/A-22 
not only brings to bear warfighting capabilities without equal for 
decades to come, but also includes those we did not foresee at its 
inception. Collectively, the platform's supercruise, stealth, 
maneuverability, and novel avionics will deliver the ability to create 
crucial battlefield effects to the hands of the warfighter, and allow 
access to revolutionary concepts of operation.

    (3) Integrating Operations: Maximizing combat capabilities

    Effectively integrating the diverse capabilities found in all four 
Services remains pivotal to successful joint warfighting. The Air Force 
contributes to this enduring objective as each element of air and space 
power brings unique and essential capabilities to the joint force. Our 
inherent ability to envision, experiment, and ultimately execute the 
union of a myriad of platforms and people into a greater, synergistic 
whole is the key to maximizing these capabilities. In so doing, we are 
able to focus acquisition and force planning on systems that enable 
specific, effects-based capabilities, rather than on individual 
platforms.
    Embedded in our exploration of innovative operational concepts is 
the efficient integration of all military systems--air, land, maritime, 
space, and information--to ensure maximum flexibility in the joint 
delivery of desired effects across the spectrum of conflict, from war 
to operations short of war. However, effective integration involves 
more than smart technology investment--it also requires investigation 
of efficient joint and Service organization and innovative operational 
thinking. Thus, investments in our people to foster intellectual 
flexibility and critical analysis are equally as important as our 
technology investments.
    Collectively, our air and space core competencies reflect the 
visions of the earliest airmen and serve to realize the potential of 
air and space forces. We foster ingenuity and adventure in the 
development of the world's most professional airmen. We seek to 
translate new technologies into practical systems while we encourage 
intellectual innovation at every level of war. We drive relentlessly 
toward integration in order to realize the potential and maturation of 
air and space capabilities.
    Our proficiency in the three institutional air and space core 
competencies underpins our ability to deliver the Air Force's six 
distinctive capabilities in joint warfighting. In turn, our 
capabilities enable desired effects across the spectrum of joint 
operations through our task forces drawn from our air and space 
expeditionary forces. The results of this relationship between core 
competencies, distinctive capabilities, and operational effects are 
manifest in the array of successful missions the Air Force accomplished 
in the past year and those we continue to execute.
Expeditionary Construct
    Our core competencies reflect a legacy of innovation and adaptation 
to accomplish our mission. This point is underscored by the fact that, 
in spite of over a 30-percent reduction in manpower in the past 12 
years, we have faced an exponential increase in worldwide taskings. 
Intensifying operations tempo (OPSTEMPO) requires significant changes 
in the way our force trains, organizes, and deploys to support JFC 
requirements. We are a truly expeditionary force--the nature of our 
``business'' is deployed operations.
    The Air Force meets JFC requirements by presenting forces and 
capabilities through our Air and Space Expeditionary Force (AEF) 
construct. This divides our combat forces into 10 equivalent AEFs, each 
possessing air and space warfighting and associated mobility and 
support capabilities. A key element of our ability to deliver these 
tailored and ready expeditionary forces is our development of Task 
Force Concepts of Operation. Our TF CONOPS describe how we fight and 
how we integrate with our sister Services and outside agencies. They 
are the fundamental blueprints for how we go to war. Combined with our 
AEF construct--the principle tool we use to present expeditionary 
wings, groups, and squadrons--TF CONOPS will guide our decisions in 
operational planning, enable us to provide scaleable, quick-reacting, 
tasked-organized units from the 10 standing AEFs, and sustain our 
ability to ensure trained and ready forces are available to satisfy 
operational plans and contingency requirements.
    The AEF construct incorporates a 15-month cycle during which two 
AEFs are designated as lead for a 90-day ``eligibility'' period. During 
this period, the two are either deployed or on alert for daily, 
worldwide expeditionary taskings, for which they are tailored and 
presented to the JFC as expeditionary squadrons, groups, and wings 
(depending on the specific requirement). Meanwhile, the remaining eight 
AEFs are in various stages of reconstituting, training, or preparatory 
spin-up for their lead period over the course of 12 months. It is 
during this preparatory time (approximately 2 months) that we integrate 
the training-to-task of AEF squadrons immediately prior to their on-
call window.
    Yet, it is important to note that while our combat forces cycle 
through deployment vulnerability periods, they sustain wartime 
readiness throughout the 15-month training and preparation cycle--a 
critical driver of our 90-day eligibility window. Our AEF cycle thus 
precludes the need for ``tiered'' readiness by allowing our combat 
forces to remain current and capable for any contingency or operational 
plan.
    While ensuring necessary capabilities for the JFC, AEF cycles allow 
us to provide our airmen with a more stable and predictable environment 
in which to train, re-fit, and equip. In addition, AEF scheduling makes 
it easier and more practicable for the Air Reserve Component (ARC) 
forces--Air Force Reserve Command (AFRC) and Air National Guard (ANG)--
to bring their essential contributions to bear by allowing them to plan 
definitive absences from their civilian employment. This is a critical 
advantage of the AEF construct, as ARC forces comprise nearly half of 
the forces assigned to AEFs and contribute the majority of forces for 
some mission areas.
Operations in 2002
    Confident in our air and space capabilities, and committed to 
meeting any mission tasked, the Air Force completed an unprecedented 
array of operations and exercises in 2002. From the mountain ranges in 
Afghanistan and the jungles of the Philippines to the deserts of the 
Middle East, and across every continent and body of water, the Air 
Force joined with land and Naval Forces to secure America's national 
objectives. With each mission, the joint force grows more capable as it 
applies vision, experimentation, and integration to every undertaking. 
We do not act as individual Services, but in concert as joint 
warfighters, as we prevail in the war on terrorism and in all 
undertakings.
    Assuring our Nation's citizens, the Air Force conducts a range of 
alert postures involving more than 200 military aircraft at over 20 
airbases for Operation Noble Eagle (ONE). In conjunction with 
unprecedented NATO airborne warning support and other U.S. Services' 
assets, we have provided continuous combat air patrols over sensitive/
high risk areas, and random patrols over other metropolitan areas and 
key infrastructure. Last year, we flew over 25,000 ONE fighter, tanker, 
airlift, and airborne warning sorties, made possible only through the 
mobilization of over 30,000 Reserve component airmen. In fact, the ANG 
and AFRC have effected over 75 percent of the total ONE missions. We 
will continue this critical mission, as we execute our most fundamental 
responsibility--homeland defense.
    Throughout Operation Enduring Freedom (OEF), the USAF has 
maintained a continuous, steady-force presence in Afghanistan and the 
rest of the area of responsibility of more than 14,000 airmen. Air 
Force assets provide crucial intelligence and situation awareness, 
combat power and support capabilities for the combatant commander. A 
key reason for American military success in the region is the 
performance of Air Force special operations airmen. Working in teams 
with other special forces, ground units, and coalition elements, airmen 
special operators heroically bring to bear the full weight of air and 
space capabilities--from the ground. They introduce our adversaries to 
the full lethality of our airmen, fully integrated on the ground, in 
the air, and from space.
    Fully engaged in all aspects of the war on terrorism, from mobility 
to close air support, our aircraft and crews flew more than 40,000 OEF 
sorties in 2002--over 70 percent of all coalition sorties. Over 8,000 
refueling missions marked the linchpin capability for the joint fight--
the tanker force--while the magnificent achievements of airlift assets 
rounded out overwhelming mobility efforts. Simply put, Air Force 
mobility forces made operations in a distant, land-locked nation 
possible.
    Beyond air operations, we operated and maintained several 
constellations of earth-orbiting satellites, and in 2002 we launched 18 
missions with a 100-percent success rate--including the first space 
launches using Evolved Expendable Launch Vehicles. These activities 
bolstered America's assured access to space and ensured vigorous, 
global ISR, missile warning, precision navigation and timing, 
communications, and weather systems. In addition, manned, unmanned, and 
space intelligence, surveillance and reconnaissance (ISR) assets, not 
only delivered unprecedented battlefield awareness, but with the 
Predator UAV, also introduced transformational combat capabilities.
    ONE and OEF levied particularly heavy demands on our security 
forces. In CONUS and forward locations, increased alert postures 
warranted significant increases in security personnel who constitute a 
critical element of our force protection capabilities. These demands 
have raised our force protection posture worldwide and have forced us 
to adjust to a new ``steady state'' condition. Security forces bear the 
brunt of the adjustment effort despite a resultant baseline shortfall 
of approximately 8,000 personnel to meet the alert postures. In the 
near term, we involuntarily extended for a second year nearly 9,500 ARC 
security forces. However, in order to relieve these ARC forces, we 
concluded a 2-year agreement with the Army for short-term support, and 
initiated several ongoing efforts to combine technology, new processes, 
and some manpower shifts to achieve a long-term adjustment to this new 
era.
    As we adjust, we continue to deliver force protection through the 
integrated application of counter and antiterrorism operations, and 
preparedness for chemical, biological, radiological, nuclear, and 
explosive (CBRNE) incidents. We employ a tailored selection and 
application of multi-layered active and passive, offensive and 
defensive measures. Intelligence and counterintelligence programs 
support this integrated effort and remain critical to our success. In 
this regard, we continued to develop and employ all-source intelligence 
systems; cross-functional intelligence analysis procedures; and an 
operational planning process to implement force protection operations 
that deter, detect, deny, and destroy threats. Our goal is to see 
first, understand first, and act first.
    Though engaged in these security enhancements and the GWOT, our 
combat operations were not limited to OEF in 2002. Iraqi forces fired 
on coalition aircraft over 400 times during 14,000 sorties supporting 
Operations Northern Watch (ONW) and Southern Watch (OSW). The Air Force 
maintained a continuous, regional presence of more than 9,000 airmen, 
while air and space assets provided vital intelligence, situation 
awareness, and indications and warning to monitor Iraq's compliance 
with United Nations' directives.
    Whether on the ground or in the skies, our airmen also conducted a 
host of other missions above-and-beyond standing security requirements 
around the globe. Even though the war on terrorism is our national 
military focus, airmen joined soldiers, sailors, and marines in the 
Balkans, South America, Europe, Asia, and around the world to assure 
our friends and allies, while deterring and dissuading our adversaries.
    Worldwide humanitarian and non-combat evacuation operations 
missions remain other key tasks for Air Force personnel. In 2002, for 
example, airlift crews exceeded 2.4 million airdropped daily ration 
deliveries in Afghanistan, evacuated allied personnel at threatened 
locations around the world, and flew typhoon relief missions to Guam, 
while our explosive ordnance specialists removed unexploded munitions 
in Africa. Yet, while conducting unprecedented food, medical, and civil 
engineering and evacuation relief efforts in warring regions, we were 
also on call to perform critical, quick-response missions during 
natural or man-made crises at home. Through explosive ordnance 
disposal, fire fighting, law enforcement support, and rapid medical 
response expertise, we conducted daily operations in support of local, 
State, and Federal agencies. During the wildfire season, ANG and AFRC 
C-130s equipped with modular airborne fire fighting systems flew nearly 
200 sorties while assisting U.S. Forest Service firefighting efforts in 
numerous States. In addition, when Hurricane Lili endangered Louisiana, 
Air Force aeromedical and critical care forces rolled in with C-9 
aircraft to transport and safeguard 40 patients from threatened 
hospitals.
Training Transformation
    Training is a uniquely American military strength. As potential 
adversaries work to overcome our technological superiority, it is 
imperative we enhance this strength through improved proficiency at the 
tactical level and integration at the joint level. Training is integral 
to our core competencies and the critical enabler for military 
capabilities, so we are engaged with the other Services, unified 
commands, and OSD in developing and implementing a training 
transformation plan. Our objective is to train as we will fight and 
increase the joint context of our exercises through live, virtual, 
distributed, and constructive environments. It is the realism of this 
training that gives us the edge in combat. This involves not only 
modernizing the integration of space and information operations on our 
ranges, but also planning for their sustainment to meet future test and 
training missions while implementing environmentally sound use and 
management to ensure long-term availability. Additionally, to expand 
range support for current and emerging missions, we are embarking on a 
new effort to identify and procure environmental, airspace, and 
spectrum resources at home and abroad.
Joint Chiefs of Staff (JCS) Exercises, Interoperability Training, and 
        Experimentation
    We advanced joint and combined interoperability skills with our 
sister Services and those of 104 nations throughout 111 JCS exercises 
and Joint Task Force (JTF) experimentation, conducted in 40 foreign 
countries. Exercises ranged from large field training such as Bright 
Star, to command post exercises like Positive Response, to smaller, but 
equally valuable humanitarian exercises, as in the school construction, 
well drilling, and medical clinic visits of New Horizons-Jamaica. These 
activities provided realistic training and enhanced the effectiveness 
of all participating nations' forces.
Task Force Enduring Look
    Success in future operations hinges upon our ability to learn from 
previous operations and exercises. To ensure we learn from ongoing 
operations and adapt accordingly, we established Task Force Enduring 
Look (TFEL). TFEL is responsible for Air Force-wide data collection, 
exploitation, documentation, and reporting for our efforts in ONE/OEF. 
The objective for TFEL is clear--provide superior support to the 
warfighter, and properly recognize and apply lessons learned during 
rather than only at the conclusion of these operations.
    Through extensive investigation and analysis, TFEL examines joint 
warfighting effectiveness, determines implications, and shapes future 
Air Force transformation of expeditionary air and space power. The task 
force documents lessons learned in a variety of products that cover 
every conceivable subject matter. As derivative campaigns unfold, TFEL 
will broaden its assessments in follow-on reports. Applying the lessons 
in these reports and adapting from our past experiences will help 
ensure we prevail in future operations.
    We are able to accomplish the full spectrum of air and space 
missions, and improve our capabilities through lessons learned, by 
focusing on the best way to organize, train, and equip. Creativity, 
ingenuity, and innovation are the hallmarks of all that we do, all of 
which begins with our people.

                               WHO WE ARE

        ``No arsenal and no weapon in the arsenals of the world is so 
        formidable as the will and moral courage of free men and women. 
        It is a weapon our adversaries in today's world do not have. It 
        is a weapon that we as Americans do have. President Ronald 
        Reagan, 20 January 1981

    America is blessed with vast resources, and chief among these is 
her people. In the same way, the Air Force relies on the officers, 
enlisted, civilians, and contractors that comprise our total force--
active, Guard, and Reserve--for cultural strength and unbridled skill. 
Air Force strength will never reside in systems alone, but in the 
airmen operating them. Nor will our capabilities improve solely through 
technology, but instead through the adaptive insight of our creative 
and selfless professionals.
    Therefore, we recruit and retain a remarkably diverse group to 
ensure we reach the fullest potential of air and space forces. Their 
backgrounds reflect the cross-section of American culture--all races, 
religions, economic and educational backgrounds, skill and management 
levels, men and women--and make this Air Force the tremendous 
organization it is today. Just as diverse individual citizens find 
unity in the term American, our personnel embrace an identity and 
fundamental perspective as Airmen.
    The underlying qualities found in all airmen emanate from our core 
values--integrity first, service before self, and excellence in all 
that we do. Embedded in these core values are the inherent 
characteristics of our confident, capable airmen--courage, tenacity, 
professionalism, vision, pride, and, when faced with seemingly 
insurmountable obstacles, heroism. Indeed, today's airmen carry on the 
traditions and visions of the earliest generation of airmen while 
preparing for the challenges of the future.
    The diversity of our airmen energizes the advancement of America's 
air and space power. Airmen embrace transformational ideas and seek to 
apply them to every aspect of the Air Force, from organizational 
constructs to concepts of operation and employment. They are able 
stewards of the Nation's space programs, advancing ideas and 
technologies for national security, as well as for the environmental 
and economic benefit of our Nation and the world. Yet, ultimately our 
standout advantage is our warrior airmen themselves, who demonstrate 
skills and dedication in combat unsurpassed by any in history. Whether 
maintaining safe skies across the United Nations' sanctioned no-fly 
zone in Iraq, hunting down terrorists in the jungles of the 
Philippines, or paying the ultimate price while rescuing fellow 
Americans in a battle on an Afghan ridge, our airmen are proven combat 
veterans. Their selflessness resonates the very best of our Service.
    Airmen are expeditionary--our natural state of operations is not 
``home station,'' but rather, deployed. After two successful cycles, 
our AEF construct has been validated as an effective means of meeting 
our Nation's expeditionary requirements. Yet we continue to enhance the 
construct, by initiating significant organizational change to ensure 
nearly every airman belongs to one of the 10 AEFs. The effect has been 
a change to our airmen's mindset and culture, where an individual's AEF 
association cultivates an expeditionary perspective and a clearer 
appreciation for joint warfighting requirements and capabilities.
Force Development--A New Leadership Development Paradigm
    In the past, we addressed aspects of career development, education, 
and assignments individually, but not necessarily in a coordinated, 
connected approach. Recognizing this, and to prepare for the future 
more ably, we introduced a systemic, deliberate force development 
construct that evolves professional airmen into joint force warriors. 
This construct coordinates doctrine and policies, concentrated to 
provide the right level, timing, and focus of education, training, and 
experience for all airmen, while encompassing personal, team, and 
institutional leadership skills across tactical, operational, and 
strategic levels.
    In the 21st century, we need air and space warriors with mastery of 
their primary skills and others who possess competency beyond their own 
specialty. However, this diversity must be deliberate to ensure the 
correct skills are paired according to institutional requirements. 
Force development encourages many to obtain a deep perspective in their 
functional area, but at the same time offers the broader perspective we 
need to complement our leadership team. We begin this transformation 
with the active officer corps and will eventually encompass the 
civilian, enlisted, and Reserve components to better meet the expanding 
challenges of tomorrow.
Education and Technical Training--Emphasis on Joint Leadership/Warfare
    As opportunities resident in advancing technologies unfold, it is 
imperative that the Air Force be able to draw upon a vibrant collection 
of educated, technically skilled, and technologically savvy airmen--
both uniformed and civilian alike. We are answering this fundamental 
need in fiscal year 2003 with aggressive and innovative initiatives to 
enhance the abilities and breadth of our force. Agile, flexible 
training is an essential investment in human capital, and our 
initiatives will ensure our investment delivers the right training to 
the right people at the right time.
    In August 2002, we began our groundbreaking Enlisted-to-Air Force 
Institute of Technology (AFIT) Program. An initial cadre of senior NCOs 
began receiving world-class, graduate education to optimize them for 
greater responsibilities and challenging follow-on assignments. We will 
also provide a major influx of officers into AFIT, Naval Postgraduate 
School (NPS), and civilian institutions. In addition, because more than 
42 percent of our civilian force will be eligible for retirement in the 
next 5 years, we are committing significant resources to pay for 
advanced education as well as cross-functional career broadening.
    Future military missions and contingencies will require greater 
sophistication and understanding of the security environment, and our 
expeditionary force requires airmen with international insight, foreign 
language proficiency, and cultural understanding. We are working 
diligently to expand the cadre of professionals with such skill sets 
and experiences. Our education initiatives will contribute to a major 
corporate culture shift that fosters appropriate development throughout 
our airmen's careers to meet evolving force requirements.
Diversity
    Foremost among our efforts to enhance the capabilities of our 
airmen is a passionate drive for diversity. Diversity is a warfighting 
issue; it is a readiness issue. We must attract people from all 
segments of American society and tap into the limitless talents and 
advantages resident in our diverse population if we hope to reach our 
fullest potential as a fighting force. Nurturing rich representation 
from all demographics opens the door to creativity and ingenuity, 
offering an unparalleled competitive edge for air and space 
development. Today's multi-threat world also mandates that we 
invigorate in our airmen the ability to effectively think across 
cultural boundaries and functional paradigms (or stovepipes). We will 
thus recruit, train, and retain airmen without intellectual boundaries, 
uniquely capable of integrating people, weapons, ideas, and systems to 
achieve air and space dominance.
Recruiting
    It takes tremendous effort to identify and develop such airmen, yet 
the return for the Nation is immeasurable. Increased advertising, an 
expanded recruiting force with broader access to secondary school 
students, and competitive compensation prepare us to meet recruiting 
goals. Despite the challenge of mustering such a diverse and skilled 
collection of Americans, we exceeded our fiscal year 2002 enlisted 
recruiting goals and expect to surpass fiscal year 2003 objectives. We 
will adapt our goals to meet new force objectives, however the capacity 
limitations of basic military training and technical training school 
quotas will continue to challenge total force recruiting efforts.
    Officer recruitment presents similar challenges, yet we continue to 
attract America's best and brightest. However, we are particularly 
concerned with military and civilian scientists and engineers. We fell 
short of our accession goal for this group and have begun all-out 
recruitment and retention efforts for these critical specialties. For 
example, in fiscal year 2003 we plan to begin a college sponsorship 
program to attract scientists and engineers from universities lacking 
ROTC programs. In addition, we continue to find recruiting health care 
professionals especially difficult, so we are making adjustments to 
ensure improvement.
    We will also closely monitor ARC recruitment. Historically, the ANG 
and AFRC access close to 25 percent of eligible, separating active Air 
Force members (i.e. no break in service). Continued high OPTEMPO may 
negatively impact our efforts in attracting Air National Guardsmen, as 
well as drawing separating active airmen to the Air Force Reserve. As a 
result, recruiting will have to ``make up'' a substantial portion of 
accessions from that market by developing alternatives.
Retention
    The Air Force is a retention-based force. The critical skill sets 
we develop in our airmen are not easily replaced, so we expend every 
effort to retain our people--the impetus for our ``re-recruiting'' 
efforts. Overall retention plans include robust compensation packages 
that reward service, provide for a suitable standard of living, ensure 
a high quality-of-life, and retain the caliber of professionals we need 
to decisively win America's wars.
    For fiscal year 2002, it was difficult to calculate accurate 
retention results due to Air Force implementation of Stop Loss. 
Nonetheless, we continue to reap the benefits of an aggressive 
retention program, aided by bonuses, targeted pay raises, and quality-
of-life improvements. Introducing the Critical Skills Retention Bonus 
for select officer specialties reinforces our commitment to target 
specific skills suffering significant retention challenges. However, 
many airmen retained under Stop Loss will separate throughout fiscal 
year 2003--a fact of particular concern for our rated force.
    Bonuses and special pay programs continue to be effective tools in 
retaining our members. The ANG has placed particular emphasis on 
aircraft maintenance fields, security forces, and communication and 
intelligence specialists, among others, by offering enlistment and 
reenlistment bonuses, Student Loan Repayment Program, and the 
Montgomery GI Bill Kicker Program. Another example is the flexible 
Aviation Continuation Pay (ACP) program--an important part of our 
multi-faceted plan to retain pilots. In conjunction with our rated 
recall program, our fiscal year 2002 plan resulted in a substantial 
increase in committed personnel. We have a similarly designed ACP 
program in fiscal year 2003, and plan future extensions to include 
navigators and air battle managers.
Summary
    Regardless of AEF deployment or home station missions, our airmen 
accomplish their duties with firm commitment and resolute action. It's 
what we do. It's who we are: a practical, technically sound, ingenious 
force of uniformed and civilian airmen derived from this richly diverse 
Nation to create the world's premier air and space power.

                           WHERE WE'RE GOING

    The first hundred years of powered flight witnessed tremendous and 
enduring innovation. We commemorate this centennial during 2003 with 
the theme, Born of Dreams, Inspired by Freedom, which recognizes the 
remarkable accomplishments of generations of airmen. Today's airmen are 
equally impassioned to bring dreams to reality as we pursue our vision 
of tomorrow's Air Force, Unlimited Horizon. Through this vision, we 
build a bridge from today's existing capabilities to those required to 
win tomorrow's wars.
    Ultimately our success will be measured by our ability to provide 
our forces with assured freedom to attack and freedom from attack. 
Achieving such victory in tomorrow's battlespace will demand our full 
integration with fellow Services, allies, and coalition partners--an 
essential part of the expeditionary construct. Through our security 
cooperation efforts, we build these foreign defense relationships and 
allied capabilities to ensure we have the access, interoperability, and 
international support for our worldwide commitments. Toward this 
requirement, we are working with our sister Services to develop truly 
joint concepts of operation that integrate the full spectrum of land, 
sea, air, space, and information warfighting capabilities. When America 
places its men and women in uniform into harms way, we owe them 
preeminent resources, planning, and organization to achieve victory 
over any adversary.
Capabilities-Based CONOPS
    While adapting to the new strategic environment, our principal 
focus has been transitioning from a platform-based garrison force to a 
capabilities-based expeditionary force. No longer platform-centric, we 
are committed to making warfighting effects, and the capabilities we 
need to achieve them, the driving force behind our ongoing 
transformation. From this point forward, all of our operational, 
programming, and budget decisions will be supported by a predefined 
capability.
    Our emerging TF CONOPS will help make this essential shift by 
providing solutions to a variety of problems warfighters can expect to 
encounter in the future. Whether detailing our plans for operating in 
an anti-access environment or identifying how to deliver humanitarian 
rations to refugees, TF CONOPS lend focus on the essential elements 
required to accomplish the mission. They cover the complete spectrum of 
warfighting capabilities (deep strike, information, urban, and 
psychological operations, etc.) and enable us to tailor forces 
(expeditionary wings, groups, or squadrons) from existing AEFs to meet 
JFC's requirements. Responsibility for CONOPS development falls to the 
Major Commands, with a senior officer on the HQ/USAF Air Staff assigned 
to each CONOP to serve as their ``Champion,'' facilitating the process.
    TF CONOPS directly support Secretary Rumsfeld's efforts to free 
scarce resources trapped in bureaucracy and push them to the 
warfighter. They will also be the focal point for a capabilities-based 
Program Objective Memorandum (POM). In support of this effort, our 
Capabilities Review and Risk Assessment analyzes and assesses 
shortfalls, health, risks, and opportunities, while prioritizing 
required future capabilities. This helps CONOPS developers articulate 
any disconnects between required capabilities and developing programs, 
while providing senior Air Force leadership an operational, 
capabilities-based focus for acquisition program decision-making. TF 
CONOPS include the following:

        <bullet> Global Strike Task Force (GSTF) employs joint power-
        projection capabilities to engage anti-access and high-value 
        targets, gain access to denied battlespace, and maintain 
        battlespace access for all required joint/coalition follow-on 
        operations.
        <bullet> Global Response Task Force (GRTF) combines 
        intelligence and strike systems to attack fleeting or emergent, 
        high-value or high-risk targets by surgically applying air and 
        space power in a narrow window of opportunity, anywhere on the 
        globe, within hours.
        <bullet> Homeland Security Task Force (HLSTF) leverages Air 
        Force capabilities with joint and interagency efforts to 
        prevent, protect, and respond to threats against our homeland--
        whether within or beyond U.S. territories.
        <bullet> Space and Command, Control, Communications, Computers, 
        Intelligence Surveillance, and Reconnaissance (Space and 
        C\4\ISR) Task Force harnesses horizontal integration of manned, 
        unmanned, and space systems to provide persistent situation 
        awareness and executable decision-quality information to the 
        JFC.
        <bullet> Global Mobility Task Force (GMTF) provides regional 
        combatant commanders with the planning, C\2\, and operations 
        capabilities to enable rapid, timely, and effective projection, 
        employment, and sustainment of U.S. power in support of U.S. 
        global interests--precision delivery for operational effects.
        <bullet> Nuclear Response Task Force (NRTF) provides the 
        deterrent ``umbrella'' under which conventional forces operate, 
        and, if deterrence fails, it avails a rapid scalable response.

    Air and Space Expeditionary CONOPS is the overarching context, 
which identifies and sequences distinctive capabilities and broad-based 
functions that air and space power provide the JFC to generate desired 
effects for national military objectives.
    The Air Force is transforming around these Task Force Concepts of 
Operation. In addition to serving as a roadmap for operators, the TF 
construct will form the basis for resource allocation, future system 
acquisitions, and POM submissions in order to find capabilities-based 
solutions to warfighter problems.
Science and Technology (S&T)--Wellspring of Air and Space Capabilities
    Reaching these warfighter solutions rests in large measure with 
R&D. Through robust investment and deliberate focus in S&T, the Air 
Force invigorates our core competency of technology-to-warfighting. 
Combined with innovative vision, S&T opens the direct route towards 
transforming air and space capabilities. Therefore, we continue long-
term, stable investment in S&T to ensure we realize future 
capabilities, as well as those that may immediately affect existing 
systems.
    We are improving our S&T planning and collaboration with other 
Services and agencies to ensure we: (1) encourage an operational pull 
that conveys to the S&T community a clear vision of the capabilities we 
need for the future; (2) address the full spectrum of future needs in a 
balanced and well-thought out manner; and (3) enhance our ability to 
demonstrate and integrate promising technologies. Some of these new 
technologies--UAV systems, laser-based communications, space-based 
radar, and others--show clear promise for near-term, joint warfighting 
applications. Others present opportunities we can only begin to 
imagine. We are exploring each of these technologies, and our 
investment will deliver the required capabilities of our CONOPS.
Executive Agent for Space
    Embedded in all of our TF CONOPS, and indeed within most military 
operations, is an extensive reliance on systems resident in space. The 
Air Force proudly fulfills the role of Department of Defense Executive 
Agent for Space with confidence and enthusiasm. Our ability to execute 
this tremendous responsibility stems from a natural outflow of our core 
competencies and distinctive capabilities. Accordingly, and in 
conjunction with the other Services and agencies, we are shaping a new 
and comprehensive approach to national security space management and 
organization.
    Our capstone objective is to realize the enormous potential in the 
high ground of space, and to employ the full spectrum of space-based 
capabilities to enable joint warfighting and to protect our national 
security. The key to achieving this end is wholesale integration: 
through air, land, space, and sea; across legacy and future systems; 
among existing and evolving concepts of operation; and between 
organizations across all sectors of government. We will continue to 
deliver unity of vision, effort, and execution to fulfill our mission 
of delivering the most advanced space capabilities for America.
Drawing Effects from Space
    Our horizon is truly unlimited, extending beyond the atmospheric 
environs of airpower to the reaches of outer space. Our proud Air Force 
tradition of airpower is joined by an equally proud and continually 
developing tradition of space power.
    In the early days of the space age, only those at the strategic 
level received and exploited the benefits of space capabilities. The 
current state of affairs, however, is decidedly different. The former 
distinctions between ``black'' programs, ``white'' space, military, 
civil, and commercial applications are growing increasingly blurred--in 
some cases, they are virtually seamless. In short, space capabilities 
now are woven deeply into the fabric of modern society, and they have 
altered forever the way we fight wars, defend our homeland, and live 
our lives.
    It is in this context, and this understanding of the widespread and 
increasing importance of space systems, that we strive to meet present 
and future national security challenges by providing dominant space 
capabilities that will:

        <bullet> Exploit Space for Joint Warfighting: Space 
        capabilities are integral to modern warfighting forces, 
        providing critical surveillance and reconnaissance information, 
        especially over areas of high risk or denied access for 
        airborne platforms. They provide weather and other earth-
        observation data, global communications, precision navigation 
        and guidance to troops on the ground, ships at sea, aircraft in 
        flight, and weapons enroute to targets. All of these 
        capabilities, and more, make possible the tremendous success 
        our joint warfighters achieve during combat operations.
          We will enhance these existing capabilities and, where it 
        makes sense, pursue new ones such as the Transformational 
        Communications System (TCS), which will strive to dramatically 
        increase bandwidth and access for warfighters; and Space Based 
        Radar, which will complement the airborne Joint Surveillance 
        Target and Attack Radar System (JSTARS) while migrating Ground 
        Moving Target Indicators (GMTI) into space. We will also 
        develop methods and technologies to enhance our Nation's 
        ability to conduct rapid and accurate global strike operations 
        anywhere in pursuit of U.S. interests.
        <bullet> Pursue Assured Access to Space: We cannot effectively 
        exploit space for joint warfighting if we do not have 
        responsive, reliable, and assured access to space. In August 
        2002, the new Evolved Expendable Launch Vehicle got off to a 
        strong start with the successful launch of Lockheed Martin's 
        Atlas V booster. Boeing's Delta IV program added to the 
        Nation's quiver of modern launch vehicles with liftoff in 
        November. We will also pursue advanced and highly versatile 
        reusable launchers and small expendables with extremely short 
        response times to achieve long-term assured access, while 
        taking the necessary steps to maintain and improve our space 
        launch infrastructure.
        <bullet> Preserve our Freedom to Act in Space: We must be able 
        to act freely in space, or risk losing those capabilities 
        essential to joint warfighting. We initiated efforts to 
        increase our space situation awareness, beginning with the new 
        Space Situation Awareness Integration Office at Air Force Space 
        Command, and a similar program at the Space and Missile Systems 
        Center. Future efforts are planned to develop strategy, 
        doctrine, and programs to improve the protection of our own 
        space capabilities while denying the benefits of joint space 
        capabilities to our adversaries.

    As it is with all Air Force capabilities, the most important 
resource for national space capabilities is neither technological nor 
fiscal--it is human. Our Space Professional Strategy fulfills a Space 
Commission recommendation to develop space professionals and nurture a 
cadre to lead our national security space endeavors at all levels in 
the decades ahead. These space-expert airmen will be the core stewards 
of space operations, and shoulder the responsibility for aggressively 
advancing joint warfighting capabilities into the high ground frontier.
Horizontal Integration of Manned, Unmanned, and Space Assets
    The essence of transformation is found in leveraging the Nation's 
technological dominance to create maximum asymmetrical advantage. 
Airmen seek unrestricted boundaries when looking at war planning from a 
theater-wide perspective, or talking about national elements of power. 
Simply stated, it is in the way we think--we must take advantage of it.
    Our foremost objective is to develop the capability to conduct 
rapid and precise operations to achieve desired effects and shape the 
battlespace for the joint force. This requires interfacing numerous DOD 
and national assets--the seamless, horizontal integration of manned, 
unmanned, and space-based systems. An essential element is designing 
systems that use digital-level, machine-to-machine conversations to 
expedite data flow and ensure the JFC receives timely, decision-quality 
information. Such integration will dramatically shorten the find, fix, 
track, target, engage, and assess (F2T2EA) cycle. In the end, we know 
that neither JFCs guiding operations, nor special operators putting 
lead on targets care what source provides data. It is an effect they 
seek, and what we will provide.
    Key to the warfighter's success is Predictive Battlespace Awareness 
(PBA). PBA requires in-depth study of an adversary well before 
hostilities begin. Ultimately, we want to be able to anticipate his 
actions to the maximum extent possible. PBA-derived insights allow us 
to utilize critical ISR assets for confirmation rather than pure 
discovery once hostilities begin. We are then able to analyze 
information to assess current conditions, exploit emerging 
opportunities, anticipate future actions, and act with a degree of 
speed and certainty unmatched by our adversaries.
    Along this path, we are transitioning from collecting data through 
a myriad of independent systems (Rivet Joint, AWACS, JSTARS, space-
based assets, etc.) to a Multi-sensor Command and Control Constellation 
(MC\2\C) capable of providing the JFC with real-time, enhanced 
battlespace awareness. Today, this transition is restricted by the 
necessity to rely on Low Density/High Demand (LD/HD) C\4\ISR assets. 
The limitation inherent in LD/HD platforms, forces us to shift their 
exploitation capabilities between theaters to cover emerging global 
threats and events. This sub-optimizes overall battlespace awareness 
and limits our efforts at predictive analysis. In the interim, 
responsive space-based ISR assets will help mitigate our over-stressed 
LD/HD systems. Yet ultimately, we need a synergistic combination of 
military and commercial assets, advanced data processing capabilities, 
and assured reachback to achieve true battlespace awareness.
    In the future, a single wide-body platform employing tunable 
antennas and sensors--Multi-sensor Command and Control Aircraft 
(MC\2\A)--will replace many of the C\4\ISR functions of many of today's 
specialized, but independent assets. Air, ground, and space assets will 
comprise the MC\2\C, which will elevate Joint Forces Air Component 
Commanders' ability to command and control air assets. Additionally, 
every platform will be a sensor on the integrated network. Regardless 
of mission function (C\2\, ISR, shooters, tankers, etc.), any data 
collected by a sensor will be passed to all network recipients. This 
requires networking all air, space, ground, and sea-based ISR systems, 
command and control (C\2\) nodes, and strike platforms, to achieve 
shared battlespace awareness and a synergy to maximize our ability to 
achieve the JFC's desired effects.
    Uniting joint and coalition information presents the most difficult 
challenge in providing one common operational picture for key 
decisionmakers. We are working closely with our sister Services to 
eliminate the seams between existing systems and taking the necessary 
steps to ensure all future acquisitions are planned and funded to meet 
the interoperability requirements of future joint CONOPS.
    A critical element of successful information merging is 
communications, as bandwidth is finite and requires careful management. 
Long-range or penetrating systems must communicate beyond the horizon 
despite adversaries' attempts to exploit or interrupt these links. To 
counter disruption, all systems must be reliable, secure, and 
bandwidth-efficient. The PBA construct facilitates this objective by 
eliminating constrictive, stove-piped communications systems while 
emphasizing networked operations.
    We will realize the vision of horizontal integration in our TF 
CONOPS. GSTF, for example, will deliver the right-sized mix of assets 
with appropriate sensors capable of penetrating into enemy airspace. 
Such sensors may be low observable and/or expendable, mounted on either 
ISR platforms or imbedded into strike platforms. Sensors may consist of 
Special Operations Forces, inserted before the commencement of 
hostilities, who communicate with attack platforms during combat via 
secure electronic writing tablets, annotating targets and threats on 
the imagery display with a stylus. As technology progresses, and where 
it makes sense, a significant portion of ISR functionality will likely 
migrate to space, affording 24/7 persistence and penetration. Likewise, 
advanced defensive counterspace capabilities will afford these systems 
protection from enemy actions.
    Combining manned, unmanned, and space-based assets with dynamic 
C\2\ and PBA transforms disparate collection and analysis activities 
into a coherent process, allowing the warfighter to make timely, 
confident, and capable combat decisions. This is what the Air Force 
brings to the joint fight. It is what air and space warriors are all 
about. We unlock the intellectual potential of airmen who think across 
the dimensions of mediums and systems capabilities, for the joint 
warfighter.
Addressing the Recapitalization Challenges
    Despite new CONOPS and visions for future capabilities, we cannot 
rely on intellectual flexibility to eradicate the challenge of old 
systems and technologies. Though creativity may temporarily reduce the 
negative impacts of aging systems on our operational options, 
ultimately there are impassable limits created by air and space system 
hardware issues.
    We have made tremendous strides in modernizing and improving 
maintenance plans for our aircraft, however the tyranny of age has 
introduced new problems for old aircraft. Reality dictates that if we 
completely enhance the avionics and add new engines to 40-year-old 
tankers and bombers, they are still 40-year-old aircraft, and subject 
to fleet-threatening problems such as corrosion and structural failure.
    This is equally true for our fighter aircraft, where once cutting-
edge F-117s average over 15 years old, and mainstay air dominance F-
15Cs are approaching 20 years old. With double-digit surface-to-air 
missile system, next-generation aircraft, and advanced cruise missile 
threats proliferating, merely maintaining our aging fighter and attack 
aircraft will be insufficient. In fact, the dramatic advances offered 
in many of our TF CONOPs cannot be realized without the addition of the 
unique capabilities incorporated in the F/A-22. Simply stated, our 
legacy systems cannot ensure air dominance in future engagements--the 
fundamental element for joint force access and operations. We will thus 
continue executive oversight of F/A-22 acquisition in order to ensure 
program success. While keeping our funding promises, we will procure 
the only system in this decade that puts munitions on targets, and 
which is unequally capable of detecting and intercepting aircraft and 
cruise missiles.
    Although ultimately solving these recapitalization challenges 
requires acquisition of new systems, we will continue to find 
innovative means to keep current systems operationally effective in the 
near term. We know that just as new problems develop with old systems, 
so too do new opportunities for employment, such as our employment of 
B-1s and B-52s in a close air support role during OEF. We will also 
pursue new options for these long-range strike assets in a standoff 
attack role for future operations.
    Unlike with the aforementioned air-breathing assets, we cannot make 
service life extensions or other modifications to our orbiting space 
systems. Satellites must be replaced regularly to account for hardware 
failures, upgrade their capabilities, and avoid significant coverage 
gaps. Additionally, we must improve outmoded ground control stations, 
enhance protective measures, continue to address new space launch 
avenues, and address bandwidth limitations in order to continue 
leveraging space capabilities for the joint warfighter. We are 
exploring alternatives for assuring access to space, and a key aspect 
of this effort will be invigorating the space industrial base.
    Finally, it is imperative that we address the growing deficiencies 
in our infrastructure. Any improvements we may secure for our air and 
space systems will be limited without a commensurate address of 
essential support systems. Deteriorated roofs, waterlines, electrical 
networks, and airfields are just some of the infrastructure elements 
warranting immediate attention. Our ability to generate air and space 
capabilities preeminently rests with the ingenuity of visionary ideas, 
yet intellectual versatility must be supported by viable systems and 
structures to realize our Service potential.
Organizational Adaptations
    Commensurate with our drive to enhance air and space capabilities 
is our identification and development of organizational structures to 
aid these advances. In 2002, we initiated numerous adaptations to more 
efficiently and effectively exploit Air Force advantages for the joint 
warfighter.
Warfighting Integration Deputy Chief of Staff
    Comprehensive integration of the Air Force's extensive C\4\ISR 
systems is paramount for our future capabilities. This requires an 
enterprise approach of total information-cycle activities including 
people, processes, and technology. To achieve this, we created a new 
Deputy Chief of Staff for Warfighting Integration (AF/XI), which brings 
together the operational experience and the technical expertise of 
diverse elements (C\4\ISR, systems integration, modeling and 
simulation, and enterprise architecture specialties).
    This new directorate will close the seams in the F2T2EA kill chain 
by guiding the integration of manned, unmanned, and space C\4\ISR 
systems. AF/XI's leadership, policy, and resource prioritization will 
capitalize on the technologies, concepts of operations, and 
organizational changes necessary to achieve horizontal integration and 
interoperability.
    Success has been immediate. AF/XI worked with the Deputy Chief of 
Staff for Operations to champion increased Air Operations Center 
funding in the fiscal year 2004 POM, which accelerated the 
stabilization and standardization of the weapon system. Subsequently, 
the base-lined weapon system now has a modernization plan, which is 
both viable and affordable. AF/XI also led analysis that highlighted 
imbalances among collection and exploitation capabilities. As a result, 
we plan to accelerate ground processing and exploitation capabilities 
within the Future Years Defense Program to close the gap. Major 
contributions in management of the complex information environment will 
continue, as AF/XI makes better use of scarce resources, allowing the 
Air Force to provide the joint warfighter the capabilities to dominate 
the battlespace.
Chief Information Officer (AF/CIO)
    Partnered with AF/XI, the AF/CIO shares responsibility to spearhead 
the transformation to an information-driven, network-centric Air Force. 
These two organizations orchestrate the integration within our 
information enterprise, and establish processes and standards to 
accelerate funding and ensure priorities match our integrated 
information vision.
    The AF/CIO's specific mission is to promote the most effective and 
efficient application, acquisition, and management of information 
technology resources under an enterprise architecture. The goal is to 
provide the roadmap for innovation and to function as a blueprint for 
the overall leverage of valuable information technology. Enterprise 
architecture will use models and processes to capture the complex 
interrelationships between the Air Force's systems and platforms. A 
resultant example is basing information technology (IT) investment 
decisions on sound business cases, approved Air Force standards, and, 
ultimately, how a particular technology contributes to specific 
capabilities. Additionally, we are institutionalizing enterprise 
architecting as a key construct in defining mission information 
requirements and promoting interoperability.
    Currently, the wide variety of IT standards limits C\2\ processes 
and information and decision support to our warfighters. The AF/CIO-AF/
XI team is tackling this and all other integration challenges as they 
develop an enterprise architecture that spans the entire Air Force, 
while also staying in harmony with other Services' efforts.
Blended Wing
    We do nothing in today's Air Force without Guard, Reserve, and 
civilian personnel working alongside active airmen. A fundamental 
initiative of Air Force transformation is formalizing this integration 
under the Future Total Force (FTF). As part of FTF, we are pursuing 
innovative organizational constructs and personnel policies to meld the 
components into a single, more homogenous force. FTF integration will 
create efficiencies, cut costs, ensure stability, retain invaluable 
human capital, and, above all, increase our combat capabilities.
    A key effort is to ``blend,'' where sensible, units from two or 
more components into a single wing with a single commander. This level 
of integration is unprecedented in any of the Services, where active, 
Guard, and Reserve personnel share the same facilities and equipment, 
and together, execute the same mission. In essence, blending provides 
two resource pools within a single wing--one, a highly experienced, 
semi-permanent Reserve component workforce, offering stability and 
continuity; the other, a force of primarily active personnel able to 
rotate to other locations as needs dictate.
    The first blended wing opportunity arose with the consolidation of 
the B1-B fleet. The move left behind an experienced but underutilized 
pool of Guard personnel at Robins AFB, GA. Meanwhile, the collocated 
93rd Air Control Wing (ACW) (active E-8 Joint STARS), suffered from 
high tempo and low retention. Hence, Secretary Roche directed that the 
two units merge, and on 1 October 2002, the blended wing concept became 
a reality with the activation of the 116th ACW.
    Over the course of calendar year 2002, the 116th ACW tackled many 
pioneering challenges: from legal questions surrounding the command of 
combined active-Reserve component units, to programmatic issues with 
funding the program from two separate accounts, to integrating 
different personnel systems used by each component. Airmen from both 
components are working through these issues successfully, making the 
116th an example for future FTF blending. Yet, some additional Title 10 
and Title 32 provisions still need to be changed to make the FTF a 
reality. Meanwhile, parallel efforts, such as placing Reserve pilots 
and maintenance personnel directly into active duty flying 
organizations under the Fighter Associate Program, add to this 
leveraging of highly experienced reservists to promote a more stable, 
experienced workforce.
    As organizational constructs, blending and associate programs lay 
an important foundation for a capabilities-based, expeditionary air and 
space force, which are inherently flexible and ideal to meet rotational 
AEF requirements. In a resource-constrained environment, blending 
promotes efficiencies and synergies by leveraging each component's 
comparative strengths, freeing funds for modernization while sustaining 
combat effectiveness, and effecting warfighting capabilities greater 
than the sum of its parts.
Combat Wing
    The comprehensive evaluations in our ongoing transformation include 
examining our wing structure. Given all of the lessons gleaned from 
expeditionary operations over the past decades, we asked, ``Could we 
derive advantages in revised wing organization for both force 
development and combat capability?'' The answer was ``Yes,'' and we 
enacted changes to create the Combat Wing Organization (CWO).
    The central aspect of the CWO is the new Mission Support Group. 
This will merge former support and logistics readiness groups, 
contracting, and aerial port squadrons, as applicable. Within this 
group, we will hone expeditionary skills from crisis action planning, 
personnel readiness, and working with the joint system for load 
planning and deployment, to communications, contingency bed down, and 
force protection. Currently, all of these aspects exist in skill sets 
that none of our officers have in total. But the new expeditionary 
support discipline will address this, and provide our officers the 
expertise in all aspects of commanding a forward base system. With this 
reorganization, each wing will now have one individual responsible for 
the full range of deployment and employment tasks--the Mission Support 
Group Commander.
    The restructuring will retain the Operations Group; however, group 
commanders will become more active in the operational level of war. 
Group and squadron commanders will be role models for operators in the 
wings, ready to lead the first exercise and combat missions. Similarly, 
we will establish a maintenance group responsible for base-level 
weapons system maintenance and sortie production rates. Like their 
operator counterparts, maintenance squadron and group commanders will 
be role models for all wing maintainers. Meanwhile, medical groups will 
retain their current organization, although we are working changes to 
home and deployed medical operations for future implementation.
    Flying and fixing our weapons systems, as well as mission support, 
are essential skill sets. Each requires the highest expertise, 
proficiency, and leadership. The new wing organization allows 
commanders to fully develop within specific functional areas to plan 
and execute air and space power as part of expeditionary units, while 
also giving maintenance and support personnel focused career 
progression. This reorganization does not fix something that is 
broken--it makes a great structure exceptional.
Acquisition and Business Transformation
    To achieve our vision of an agile, flexible, responsive, and 
capabilities-based air and space force, we must transform the processes 
that provide combatant commanders with air and space capabilities. An 
example of this in action is the Air Force's effort to carry out the 
responsibilities of DOD Space Milestone Decision Authority (MDA). The 
Secretary of the Air Force delegated those responsibilities to the 
Under Secretary of the Air Force, under whose leadership immediate 
benefit was realized. Adapting an effective process already in use at 
the National Reconnaissance Office (NRO), the Under Secretary 
instituted a new streamlined space acquisition program review and 
milestone decision-making process. This new process was used for the 
first time in August 2002 in developing a contract for the National 
Polar-orbiting Operational Environmental Satellite System. This effort 
creates an opportunity for the Air Force to apply performance and cost 
pressure on defense industrial firms through their chief financial 
officers and board of directors by linking executive compensation to 
contract performance.
    In addition to the major process changes for DOD space, the Air 
Force's Business Transformation Task Force directs and integrates 
further process improvement and adaptation. Core business and 
operations support processes--such as acquisition, logistics, 
maintenance, training, medical, and dental, among others--are crucial, 
as they ultimately determine our overall enterprise effectiveness and 
directly sustain combat capabilities. An additional category of 
processes called ``enablers'' completes the Air Force enterprise. 
Examples of ``enablers'' include: management of human resources, 
finances, contracts, property plant and equipment, and information. The 
enablers are important as they facilitate our core capabilities and 
determine the overall efficiency of our enterprise.
    The Air Force will enact business transformation from an integrated 
enterprise perspective, examining every process and process link. 
Accordingly, we will employ industry best practices and identify 
management metrics to improve process efficiency without degrading our 
enterprise effectiveness; expand our customer's self-service management 
capability and free up needed resources for the operational 
communities; and provide real-time, accurate financial data for better 
decisionmaking. Already, acquisition reform has effected notable 
improvements, including:

    (1) Streamlined our acquisition and contracting regulations, 
replacing lengthy prescriptive sets of rules with brief documents that 
emphasize speed, innovation, sensible risk management, and elimination 
of time-consuming process steps that have little value. As previously 
mentioned, our new National Security Space acquisition process is an 
example of progress in this area.
    (2) Created a Program Executive Office for services to bring new 
efficiency to the growing area of services contracts. This key area, 
which accounts for nearly half of our procurement budget, had no prior 
centralized coordination and oversight.
    (3) Developed and initiated System Metric and Reporting Tool 
(SMART), putting real-time program status information on everyone's 
desktop. This web-based application pulls data from dozens of legacy 
reporting systems to give everyone from program managers up to senior 
leadership direct visibility into the ``health'' of hundreds of 
acquisition and modernization programs. When fully deployed in fiscal 
year 2003, it will automate the tedious and laborious process of 
creating Monthly Acquisition Reports and possibly Defense Acquisition 
Executive Summary reporting to OSD.
    (4) Empowered ``High Powered Teams'' of requirements and 
acquisition professionals to create spiral development plans to deliver 
initial capability to warfighters more quickly, and add capability 
increments in future spirals.
    (5) Designed a Reformed Supply Support Program to improve the 
spares acquisition process by integrating the support contractor into 
the government supply system. Contractors now have the same capability 
as government inventory control points to manage parts, respond to base 
level requisitions, track spares levels, and monitor asset movement.
    (6) Continued, with OSD support, expansion of the Reduction in 
Total Ownership Cost (R-TOC) program, to identify critical cost 
drivers, fund investments to address them, and generate cost saving and 
cost avoidance. We also created standard processes and a business case 
analysis model to use for initiatives within R-TOC. In fiscal year 
2003, OSD allocated $24.9 million no-offset investments to R-TOC that 
will return $53.2 million through fiscal year 2008. A planned $37.1 
million investment across the FYDP will save a projected $331 million 
in operations and maintenance through fiscal year 2009.

    These initiatives are only the beginning of a comprehensive and 
aggressive approach to reforming business practices. Our efforts today 
will have a direct effect on efficient and effective air and space 
capability acquisition both immediately and in the future.
Ensuring Readiness
    Integrating systems and expanding business practices will not only 
have dramatic effects on air and space capabilities, but also reduce 
readiness challenges. However, we still face daunting, but 
surmountable, obstacles. We must overcome a multitude of installations 
and logistical issues to secure flexible and timely execution of 
expeditionary requirements for joint warfighting.
    Reconstituting and reconfiguring our expeditionary basing systems 
and wartime stocks is a critical element of our force projection 
planning. While we made significant strides in funding, we require 
additional investments in bare base systems, vehicles, spares, 
munitions, and pre-positioning assets. Our infrastructure investment 
strategy focuses on three simultaneous steps. First, we must dispose of 
excess facilities. Second, we must fully sustain our facilities and 
systems so they remain combat effective throughout their expected life. 
Third, we must establish a steady investment program to restore and 
modernize our facilities and systems, while advancing our ability to 
protect our people and resources from the growing threat of terrorism 
at current, planned, and future operating locations--at home or abroad.
    We are making progress. Improved vehicle fleet funding allowed us 
to replace some aging vehicles with more reliable assets, including 
alternative fuel versions to help meet Federal fuel reduction mandates. 
Targeted efficiencies in spares management and new fuels mobility 
support equipment will improve supply readiness. In addition, our 
spares campaign restructured Readiness Spares Packages and repositioned 
assets to contingency sites. Moreover, to increase munitions readiness, 
we expanded our Afloat Prepositioning Fleet capabilities, and continue 
acquiring a broad mix of effects-based munitions in line with the 
requirements of all TF CONOPS.
    Finally, our ``Depot Maintenance Strategy and Master Plan'' calls 
for major transformation in financial and infrastructure capitalization 
to ensure Air Force hardware is safe and ready to operate across the 
threat spectrum. To support this plan, we increased funding in fiscal 
year 2004 for depot facilities and equipment modernization. We also 
began a significant push to require weapon systems managers to 
establish their product support and depot maintenance programs early in 
the acquisition cycle, and to plan and program the necessary investment 
dollars required for capacity and capability. Additionally, we also are 
partnering with private industry to adopt technologies to meet 
capability requirements. The results from these efforts will be 
enhanced, more agile warfighter support through the critical enabler of 
infrastructure.
Expanding AEF Personnel
    The attacks of September 11 significantly increased workload and 
stress in a number of mission areas for our expeditionary forces. Since 
our day-to-day operation is absolutely set to the rhythm of the 
deploying AEF packages, we must make appropriate adjustments. Recent 
and ongoing efforts to maximize the identification of deployable forces 
and align them with AEF cycles, assisted in meeting immediate critical 
warfighting requirements. However, some career fields remain seriously 
stressed by the war on terrorism. Accordingly, our efforts focus on 
changing processes that drive requirements not tuned to our AEF rhythm. 
We developed formulas to measure, and gathered quantitative data to 
evaluate, the relative stress amongst career fields to redirect 
resources to the most critical areas. We also began a critical review 
of blue-suit utilization to ensure airmen are used only where 
absolutely necessary and maximize the use of the civilian and contract 
workforce for best service contribution and military essentiality.
    We are refocusing uniformed manpower allocation on our distinctive 
capabilities to reduce stress on our active force. Additionally, we are 
carefully considering technologies to relieve the increased workload. 
These efforts exist within our longer-term work to reengineer, 
transform, and streamline Air Force operations and organizations, and 
have allowed us already to realign some new recruits into our most 
stressed career fields.
Summary
    As the two mediums with the most undeveloped potential, air and 
space represent the largest growth areas for national security and the 
greatest frontiers for joint warfighting. As such, air and space 
operations will play an ever-increasing role in the security of America 
and her allies. The Air Force will exploit technology, innovative 
concepts of operations, organizational change, and our ability to 
embrace creative ideas and new ways of thinking. We will bring to bear 
the full suite of air and space capabilities for tomorrow's Joint Force 
Commander--drawing from every resource, developing closely with all 
Services, and overcoming any obstacle to succeed.

                              NEXT HORIZON

    The events of the last year have emphasized the dynamics of a new 
international security era. The decade of new states following the Cold 
War has been followed by the rise of non-state actors, many following a 
path of aggression and destruction. Yet, just as America adapted to new 
global dynamics in the past, we will again confront emerging challenges 
with confidence and faith in our ability to meet the demands of 
assuring freedom.
    The Air Force remains dedicated to drawing on its innovation, 
ingenuity, and resolve to develop far-reaching capabilities. The 
ability to deliver effects across the spectrum of national security 
requirements is the cornerstone of the vision and strategy of Air Force 
planning and programming. In conjunction, and increasingly in 
integration with ground, naval, marine, and other national agency 
systems, the Air Force will play a central role in elevating joint 
operations. We recognize the greatest potential for dominant American 
military capabilities lies in the integration of our air and space 
systems with those of other Services and agencies, and our success in 
this objective will be evident in every mission to deter, dissuade, or 
decisively defeat any adversary.

    Chairman Warner. Thank you very much, gentlemen. We will 
now proceed to a round of questions with 6 minutes each.
    First, an administrative announcement to the committee. The 
committee has presently before it a number of military and 
civilian nominations, including those for the Under Secretary 
of Defense for Intelligence, Assistant Secretary of the Army 
for Civil Works, and Administrator of the National Security 
Administration. These nominations have been before the 
committee for the requisite 7 days. It is the hope of myself 
and my colleague, Senator Levin, that we be able to convene our 
committee at some point today, possibly following a vote on the 
floor, for the purpose of voting on these nominations with the 
exception of one, and that is we will defer to the request of 
one of our members who desires to have a personal meeting with 
that individual. He has not been able as yet to schedule, so we 
will defer with regard to the Assistant Secretary of the Army 
for Civil Works until our colleague on the committee has had a 
chance to be here.
    Now, the questions each of us have. These are very somber 
moments, not just for those of us who have the responsibility 
to the men and women of the military and their families, but 
indeed for every American. We recognize that, as I said 
earlier, it is the presence of our troops with other troops 
throughout the world that is providing the measure of diplomacy 
that grinds on day after day, hour after hour. I commend all of 
those engaged in the diplomatic efforts, especially Secretary 
Powell, who has been exemplary in his performance, as well as 
the Prime Minister of Great Britain, and, indeed, our President 
have shown a measure of courage and judgment without parallel 
in contemporary history in trying to deal with this situation, 
which I personally characterize as the most complicated thing I 
have ever seen in my years of having the privilege of being 
here.
    But the question of the chem/bio is the great unknown. 
There is the potential for the use of these weapons, that 
category of weapons in this conflict should force be needed, 
and it would be the first time in the annals of U.S. military 
history since 1918. My father served as an Army doctor in the 
trenches during that period and I have read through his 
letters, a short biography he wrote of his experiences, and it 
was the most difficult situation to deal with, not only from 
the standpoint of his responsibilities of medical treatment, 
but for command and control.
    From my own assessment of the status of the military, I 
think the departments have done the best they can with the 
state-of-the-art technology. Also, this committee in the years 
that I have been on it made the tough decision, along with the 
whole Congress, that our military would not use these weapons. 
Such remaining weapons as we have in the possession of the 
United States are all carefully housed in places for 
demilitarization, so there are none in our inventory.
    For years, it was thought as a part of military doctrine 
that the best way to preclude the use of these weapons was to 
have an equal or greater capability to declare an end to them. 
That proved to be the case successfully during World War II, 
but I think it is important that each of you address the 
efforts of your departments to train and equip our forces, and 
then your own personal assessment of the level of that training 
and equipment to meet any possible use of those weapons in such 
force that may be ordered by the President and other heads of 
state and governments for the coalition for weapons. Mr. 
Secretary, what is your assessment of the caliber and quantity 
of the chembio defense equipment currently deployed with the 
Army forces in that region?
    Secretary White. In my view, Senator, the soldiers we have 
in CENTCOM area are well-equipped from a nuclear, biological, 
and chemical (NBC) perspective. The equipment that they have is 
significantly better in many cases than what we had in the 
Operation Desert Storm experience. NBC training is an integral 
part of all Army training activities--the donning of chemical 
suits, masks, and so forth.
    We have checked masks and individual sets of equipment 
before deployment to make sure they fit properly. We have 
adequate stocks in the theater of chemical suits, gloves, 
boots, and headgear for two complete sets for every soldier 
that is in the Gulf and contingency stocks. Naturally, when you 
talk to soldiers, there is an apprehension about the chemical 
environment because we are talking obviously about live agents. 
We practice against chemical agents, but I believe there is a 
confidence because of the training and because of the equipment 
that they will deal satisfactorily with the situation. I am 
confident they will.
    Chairman Warner. Secretary Johnson.
    Secretary Johnson. I agree with Secretary White. We have 
the very best equipment, and as Senator Levin, you, and I saw 
the marines in the desert donning this gear, they are very 
serious about it even when it is very hot and difficult to 
wear, but they understand the threat. The thing that concerns 
me most is the obvious anxiety that goes through their minds 
about what they know about, and even worse, what they do not 
know about, we are doing all we can, but this is of great 
concern to us.
    Chairman Warner. Secretary Roche.
    Secretary Roche. Mr. Chairman, the airmen also wear these 
suits. It is not fun to fly an F-16 in your chemical suit, but 
the aircraft tends to go low. We train them to fly in them. 
They are very uncomfortable, but they understand the reason and 
we are properly equipped for all of our deployed forces.
    Chairman Warner. The question of if force is utilized, and 
following the judgment of our military command of this 
situation at some point in time will be secure in terms of the 
cessation of combat activities, what level of forces do you 
anticipate each of your departments projecting that will have 
to remain in that area of responsibility (AOR) and for what 
period of time?
    I raise that question because General Shinseki appeared 
before this committee. He gave his views. Those views were 
subsequently commented upon by the Secretary of Defense, and I 
understand Secretary White this morning, you are prepared to 
give the statement on behalf of the Department of the Army.
    Secretary White. Senator, what General Shinseki said was in 
response to that question was, first, that it is up to the 
combatant commander to determine what the force level is and 
the duration of it, and, second, the combatant commander hasn't 
made that decision. General Shinseki has some experience in 
this, having run the stabilization force in Bosnia, and he is a 
very experienced officer and he expressed his own personal 
opinion that it could be several hundred thousand I believe is 
what he said.
    At the same time with the vagaries of this and the 
variables that are involved in it and the difficulty of 
predicting an exact number, there are others that would suggest 
maybe it is going to be significantly lower, and I think we 
will just have to wait and see as, if the President so orders 
the campaign, and if we become involved in the stability 
operation after that, we will have to wait and see how those 
variables work out, what the specifics are. You have two views 
on this right now and many theories in support of each view.
    Chairman Warner. Secretary Johnson.
    Secretary Johnson. Sir, I agree, and the great unknown is 
the participation of many people, other nations. I was in 
Bahrain just about the time that you were there to visit with 
the coalition representatives, and they had people from all 
over the world. They want to help us in every way possible, and 
I personally was impressed to see the Japanese, who had three 
warships in the area. They have an oiler that refuels our 
ships, 75,000 gallons of oil. But all of those people are eager 
to participate in any activity after the conflict is over, and 
I think you'll see a great coalition effort.
    Chairman Warner. Secretary Roche.
    Secretary Roche. Mr. Chairman, we could not have predicted 
how many aircraft we needed to keep behind for Afghanistan. It 
is a very uncertain thing as to how it would end. We had 7,500 
airmen in the region. Operation Southern Watch is now up to 
35,000, but a lot of what we do by air depends on what we are 
doing by truck or by ship. Certainly bomber aircraft we only 
use two of the three in Afghanistan, fighter bombers, we have 
used 117s. It is a combination of how fast it goes, to what 
degree can support come in by truck and ship, and to what 
degree it has to be funneled.
    Chairman Warner. I'd like to make a personal observation 
here and defer this question to another colleague. When I was 
privileged to be in the department many years ago during the 
war in Vietnam, we had a most unexpected and tragic series of 
scandals at the various academies. The Secretary of Defense 
constituted the three Service Secretaries as a committee to 
examine this and to determine how best we would address the 
problem. We did that.
    But I remember in the course of that responsibility of 
assessing the problem, how we correct it, listening to many 
very senior and retired officers and their reverence for the 
academy system and how it is to always represent a model 
institution of learning, discipline, and all the other 
attributes that we try to create in our educational system.
    Also, Members of Congress are intimately involved with 
these because we are privileged under the law to make 
nominations, and I don't think there is one of us in our 
travels that are not deeply moved when a young person comes up 
and says with great pride ``Senator, I attended the Academy 
because of your nomination.'' It is a very special feeling.
    So we were as a group on this committee very deeply moved 
when the allegations arose with respect to the most serious 
types of disciplinary breakdown and fracture in the Air Force 
Academy. I commend you, Mr. Secretary, for the swiftness with 
which you addressed this and I commend my colleague, the 
Senator from Colorado, Mr. Allard, who promptly in consultation 
with me and others proceeded to have this committee fully 
involved. But I think it is important, and Senator Allard and I 
incorporated this in our letter to the Department of Defense, 
that each of you look at your own institutions to make certain 
whether or not allegations are present of the kind involved in 
the Department of the Air Force.
    It has come to my attention that there are letters coming 
in with regard to a second inclusion. I will wait for the 
Department of Defense to address those. I brought those to the 
attention of the Department. Senator Ben Nighthorse Campbell 
likewise has worked on this, so I will defer the question to my 
colleague from Colorado when it comes his turn.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. For reasons that 
you have indicated the potential future costs of our actions in 
southwest Asia are difficult to assess, but I do understand 
that each of your departments has produced some cost estimates 
for supplemental funds that we would be required to spend 
through the end of the fiscal year under a number of different 
assumptions. One, that the current presence in the CENTCOM area 
is maintained without actually fighting a war; the other 
assumption is that we do fight a war and then engage in post 
conflict stability operations.
    Have your departments, in fact, generated cost estimates, 
Secretary White?
    Secretary White. Yes, we have. We have had detailed 
discussions with the Comptroller of the Department, Mr. 
Zakheim, and no final decisions have been made about how much 
of a supplemental fee will be requested or what the timing of 
it will be.
    Senator Levin. How many cost estimates have you submitted?
    Secretary White. We have been through a number of 
iterations to make sure that our cost estimates for the 
operations and maintenance, the estimates, how much money it 
will cost to reconstitute a force given that the President does 
direct an operation, all these types of details we have 
scrubbed through with the comptroller's office.
    Senator Levin. This would be the supplemental funds for 
this fiscal year?
    Secretary White. 2003.
    Senator Levin. What is the range, highest and lowest?
    Secretary White. Currently if you break this up into the 
piece that is required to support the non-Iraq buildup 
activities, the Operation Enduring Freedom and Operation Noble 
Eagle part of this, where we were on the 1st of October steady 
state since September 11, those cost about $6 billion 
additional from, assuming that we stay in Afghanistan and other 
places at about the same OPTEMPO that we have held there for 
the past year or so.
    Senator Levin. What about the post-conflict stability 
operations in Iraq? What is the range for that?
    Secretary White. We have not gotten into the details of 
that, in as much detail as we have buildup and the 
mobilization.
    Senator Levin. To the extent you have gotten into it, what 
is the range?
    Secretary White. I think looking at it from the Army's 
perspective, looking at the operation as it is currently set 
up, the Army's bill could be roughly somewhere between $20 
billion and $30 billion.
    Senator Levin. That is for the range of the cost of the 
post-conflict stability in 2003?
    Secretary White. That is the cost to mobilize the force 
above what we have for Operations Noble Eagle and Enduring 
Freedom to do the preparation tasks, to properly prepare that 
force for a potential operation, to transport it and get it in 
position, and then to bring it back at some point.
    Senator Levin. Does that include the cost of maintaining 
the force in Iraq after Saddam Hussein?
    Secretary White. Through the end of the year.
    Senator Levin. Through the end of the year. So that is the 
extra cost of the war?
    Secretary White. No. Because the details of how long the 
war would last and how it would play out, there are so many 
variables associated with that, I'd prefer not to get terribly 
specific.
    Senator Levin. That doesn't include the cost of the war?
    Secretary White. The cost of the war would be in addition 
to the base cost of $20 million.
    Senator Levin. Mr. Secretary, do you have that? The cost of 
maintaining the force?
    Secretary Johnson. I do not, sir. We are a fully deployed 
Navy and Marine Corps. That is a blessing and a curse. We will 
run out of the first area operations and maintenance funds by 
midsummer. Depending on how Secretary White has talked, the 
assumptions, the numbers vary widely. We are in discussions 
with the Secretary of Defense's office continually, and the 
assumptions in dollars change and I am not prepared to give a 
number.
    Senator Levin. You are not prepared to tell us what the 
range is, the high and low, for post-conflict stability 
operations?
    Secretary Johnson. Our ranges are for just what we are 
doing now in the $3 billion to $4 billion. If you go into 
higher ones, we are near what Secretary White talked about, but 
I do not have anything more specific.
    Senator Levin. What about the Air Force?
    Secretary Roche. The Air Force has a movable range 
depending on what you are talking about. It depends on the 
level of Operation Noble Eagle, which can go from $250 million 
in a peaceful state up to a billion a year if we have to 
maintain fighters over the U.S. We are able to do OEF because 
we are in a specific state in Afghanistan.
    We are more fungible in that we have done no work on the 
post. We tend to fly stuff back, and we have the mobility 
forces going, but we have a PACOM that is emerging. We have 
been ordered to put that aircraft in Guam. Guam is just coming 
through a typhoon, so there will be work done there in order to 
base more in Guam. That is uncertain. Put it all together, the 
part that is, has downward variance is OEF and Operation Noble 
Eagle is $7.5 billion, Iraq could be as much as $7 billion, but 
if it is earlier we will pull staff back and then PACOM is just 
emerging. We are not sure what that is.
    Senator Levin. My time has expired.
    Chairman Warner. Thank you very much, Senator Levin.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. Secretary White, I 
have taken a lot of interest in the ultimate solution of what I 
consider to be a real crisis in our capability. I don't think 
there has ever been a time the Service has been more 
cooperative in working together to a solution, the NLOS 
solution that will be compatible with our Future Combat System. 
But at the same time, I look at that as being one that would be 
a part of the FCS. It is something that is needed in addition 
to that, and that is to get us out of this old antiquated 
equipment that we are using right now. You would probably be 
surprised to find out there are four countries making an 
artillery piece that is better in range, accuracy, and rapid 
fire than ours, including South Africa.
    Now, my concern has been to get that online as quickly as 
possible. Our target date for rapid deployment would be 2008. 
My question would be in the event something happens that would 
delay the FCS, can we continue to keep that date an accurate 
deployment date?
    Secretary White. I think we can. The progress since we 
talked about this last year has been excellent. The use of 
funds to transfer the technology from the Crusader program, we 
put those funds to good use. It will be the future milestone 
coming up in May, and my view right now is not only will we 
hold the schedule and NLOS cannon, but there will be an 
implementation of FCS that will hit the 2008, 2010 time frame. 
I think it is possible.
    Senator Inhofe. Thank you very much. Closely related, there 
has been a lot of discussion about the fifth and the sixth 
Stryker Brigades. I have had an experience when we were 
mandating the competition and I conducted competition to M-113 
and Stryker. I came back without any question in my mind that 
it was necessary to do that. I see the Stryker Brigade as a 
bridge to FCS. I'd like to have you tell us a little bit about 
yours, an update as to the need for the fifth and the sixth 
Stryker Brigades and where we are right now.
    Secretary White. Certainly. The fifth brigade will go to 
Hawaii with the 25th Division and it will be in the 2005 
budget. The sixth brigade will go to the Pennsylvania Army 
National Guard, and that is in the 2006 program. We have had 
extensive discussions with the Secretary of Defense, with the 
staff of the Secretary of Defense about the composition of 
brigades 5 and 6. There are other things we can add to the 
brigades to make them more robust, make them more of a stepping 
stone to the Objective Force, as you said.
    We owe the Secretary a study on precisely how we should 
configure brigades 5 and 6. We will have that to him in the 
near future, and the money remains in the program for the 
fielding of those. From an Army's perspective, I think it is 
critical that we field brigades 5 and 6 on schedule. Brigade 1, 
by the way, that you saw at Fort Lewis will hit its initial 
operational capability (IOC) on time this summer.
    Senator Inhofe. How many are delivered right now?
    Secretary White. We are producing about 45 a month and the 
acquisition of it has been a very good story from an 
efficiency-of-acquisition perspective.
    Senator Inhofe. Secretary Roche, let me tell you how much I 
personally appreciate the time that you were confirmed. I think 
you and I took a trip, your first trip after confirmation, but 
we had a chance to talk about the dilemma we are facing right 
now with our depots, and the fact that it has been a long 
history in looking at this that it's answering actually a 
national security problem that we would have should we become 
dependent upon someone from the outside for core capability. 
You made it very clear on that trip--I remember a statement--
that the Air Force is not going to get in the real estate 
business, and everyone interpreting it is wrong. But right 
after that, we passed the largest bond issue by a 72 percent 
margin that's ever been passed in that part of my State of 
Oklahoma. Your initiatives are working when for the first time 
we are getting something in there where we can be competitive, 
where we can deal with something, with equipment that's newer 
than World War II technology. I appreciate that very much and 
your workforce-shaping initiatives that are working, now that 
we can turn out a KC-135 in 200 days.
    I ask you, first of all, about that. Second, is there any 
legislation that's needed to have you continue on this path 
that is in my opinion very successful?
    Secretary Roche. Thank you, Senator. One of the things that 
I would like to mention that the metrics Tinker displayed were 
for both Boeing and place in Alabama, the other ALCs, those 
people said none of those people are better than we are, and 
they got better. The place is dramatically cleaner. I think 
that you have noticed that our ability to get airplanes through 
the place is much faster. Our models are coming through faster. 
The E models are old. The partnering initiative that Tinker was 
one of the leaders on has really paid off, and we have now gone 
to all the companies who are producing or will produce aircraft 
for us in the future and said this model really works.
    I was personally involved with one. It's beneficial to the 
country and industry. Tinker has the lead on some of that, and 
in fact, we are asking that some of the larger companies 
producing aircraft start to work with the ALCs early on. So far 
it's not so much legislation that we need as to continue to try 
to get the change both in terms of the original manufacturers 
and at the ALCs, but it's been a tremendous progress in 
something like 20 months, tremendous progress.
    Senator Inhofe. Thank you very much. Mr. Chairman, my time 
has expired. Can I just ask a question of Secretary White? 
Secretary White, when we had the chiefs, we had the same 
question about the downsizing that has taken place. I'd like to 
have you give us an analysis not here, but for the record, 
where we are in end strength in the Army, including the Reserve 
components.
    Secretary White. I will do that.
    [The information referred to follows:]

    The congressionally-mandated fiscal year 2003 active Army end 
strength is 480,000; the Army National Guard is 350,000; and the Army 
Reserve is 205,000. The Army expects to exceed this end strength 
target, as well as the appropriated average strength of 480,000 
manyears.
    The active Army finished fiscal year 2002 with an end strength of 
486,543; the Army National Guard finished fiscal year 2002 with an end 
strength of 351,078; and the Army Reserve finished fiscal year 2002 
with an end strength of 206,682.
    The active Army's fiscal year 2002 average strength was 482,733, 
which was approximately 8,700 more than the budgeted level. The current 
projection for fiscal year 2003 active Army end strength is 490,300, 
which includes an estimated military occupational specialty stop-loss 
strength of 2,585. This estimate could increase by as much as 10,000 to 
15,000 with the implementation of unit stop-loss for units involved in 
operations in Iraq.
    The Army National Guard average strength for fiscal year 2002 was 
350,785. Current projection of National Guard end strength for fiscal 
year 2003 is 350,000. The Army National Guard expects to meet or exceed 
that goal.
    The Army Reserve fiscal year 2002 average strength was 207,396, 
which was approximately 4,731 more than the budgeted level. The current 
projection for fiscal year 2003 Army Reserve end strength is 211,817, 
which includes an estimated 70,000 mobilized Army Reserve soldiers. 
These soldiers are expected to remain mobilized into fiscal year 2004 
and are not subject to normal attrition. This will result in the Army 
Reserve exceeding its fiscal year 2003 end strength by 6,000 to 8,000.

    Chairman Warner. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Thank you 
for your testimony and your service. There was an article in 
the Kansas City Star, where the first line is troops heading to 
the Iraqi theater are not getting health screening, especially 
blood sampling mandated by a law enacted by Congress in 1987. 
Is the Army not screening?
    Secretary White. My information is that we are screening. I 
think it's imperative that we screen. We have DNA samples, 
blood samples from every soldier that deploys. I will check 
that information.
    Senator Reed. I understand that, and I am not the expert, 
but that the DNA samples are different than the blood screening 
mandated by this congressional act, but I am not certain of 
that.
    Secretary White. I will get you information for the record.
    [The information referred to follows:]

    DOD Directive 5154.24, dated October 3, 2001, requires the Armed 
Forces Institute of Pathology to maintain a repository of DNA samples 
from members of the Armed Forces. The DNA sample is a specimen 
collected by swabbing the inside of the service member's mouth, and is 
not a blood sample. The Army is currently at nearly 100 percent 
compliance for active component troops, and at nearly 90 percent 
compliance for Reserve components, and is currently working to correct 
the quality and technical errors in the collection process in order to 
reach the goal of 100 percent.
    Section 1074f of title 10, United States Code, enacted on November 
18, 1997, directs that the pre- and post-deployment screening of all 
service members include the drawing of blood samples. The Army is 
currently in compliance with the guidelines. The blood sample is drawn 
as an HIV test, with the remaining blood being stored. All soldiers 
will have current HIV tests and associated blood samples before 
deployment.

    Senator Reed. Secretary Johnson, is the Navy following this 
as well?
    Secretary Johnson. Yes, sir. We have had no challenges so 
far.
    Senator Reed. Secretary Roche?
    Secretary Roche. I have gone through the line to make sure 
we do it correctly. We do a baseline on someone, including 
blood, DNA, etc. We monitor conditions in a particular area. 
When they come back off the rotation, we do another medical 
review to compare it to the baseline and anything we may have 
learned overseas. I think we have this reasonably under 
control, sir.
    Senator Reed. Secretary White, many of the questions this 
morning focused on the forces that will be needed to not only 
decisively engage in defeat of Iraq if so ordered, but longer 
term occupational forces. That puts a particular burden on the 
Army, Navy, Air Force, expeditionary forces. Do they have the 
flexibility of reconstituting and falling back very quickly? If 
there is extended occupation, the Army will bear the brunt of 
it. I wonder at this point what percentage of our Army has been 
committed to the Iraqi theater operations roughly?
    Secretary White. Active component (AC) plus Reserve 
component (RC) probably a third. You are talking about Central 
Command (CENTCOM) in general, but all the deployments around 
CENTCOM, and it's working on AC and RC and those that have been 
alerted to deploy, maybe 30 percent.
    Senator Reed. What additional percentage has been allotted 
for possible deployments?
    Secretary White. That would be the top end figure.
    Senator Reed. Of course with this deployment forward, you 
have to have a rotational force upon it. Essentially, the 
deployed force together with their rotational force could be 60 
percent of the Army?
    Secretary White. If you look at Afghanistan, we have 
rotated three different divisions into Afghanistan to date--
82nd Airborne to 10th Mountain to 101st Airborne.
    Senator Reed. One of the reasons I am concerned about it is 
that, generally, these things usually take longer and more 
people than you expect even in your most realistic estimate. I 
recall last October when plans for the operation talked about a 
force of 75,000 Army ground personnel with air power. There are 
300,000 troops in the theater right now. I think we would be 
wise to assume the worst case which would drive numbers up, I 
know your discussion with Senator Levin suggested that you have 
a range, but my guess would be it would be the top end, not the 
bottom end?
    Secretary White. Our experience, we are in our eighth year. 
Kosovo, we are in our fifth year, I do believe although at much 
lower levels than we initially would suggest it's a one-term 
effort. The Secretary of Defense made the point that the hope 
would be that very soon it would be an international effort, 
and the others would contribute, which would lower the burden 
on us, as has been the case to a certain extent in Afghanistan.
    Senator Reed. Let me raise the pressure that we are seeing 
back home with the National Guard and Reserve. This falls most 
particularly in the Army National Guard and Reserve units, with 
the Air Force also. My troops have basically all been mobilized 
for a year. My suspicion, though, because of the expertise of 
these soldiers, military police officers, civil affairs people, 
information specialists, that those are precisely the people 
that you need not this year, but the following year. Where are 
you going to get them, because I can tell you the imposition, 
the disruption, these are patriots but they have to come back. 
You are going to have to replace them is my point.
    Secretary White. I think the long-term concern is if we 
stay at current levels of mobilization, eventually it's going 
to impact on Reserve component retention and recruiting as 
well. Now, in the first 18 months of the global war on 
terrorism, we have been very fortunate we have not seen that. 
But a year or 2 years from now, depending upon what level of 
mobilization of that, we are certainly concerned about that.
    Senator Reed. Again, this I think applies, but with most 
impact on the Army, Air Force, illustrative of the Navy, I 
would assume you are preparing plans right now to meet this 
very likely contingency and the sooner these plans are 
presented to us, the more opportunity we will have to look at 
your proposals, which I think would involve increasing end 
strength, incentivizing additional retention or Reserve or 
National Guard or resizing the force between Reserve component 
and active component, and all of these issues if they are 
delayed further will slow down I think your ability to respond.
    Secretary White. Senator, you know that's all under 
consideration. I think the Secretary talked about that while he 
was here. It is a matter of urgency for us.
    Senator Reed. I did not mean to pick on you, Mr. Secretary. 
But the Army is the lead, I think, in the forces that will 
occupy the country. Mr. Secretary, thank you. Thank you all.
    Chairman Warner. Ladies and gentlemen of the committee, 
there is now a vote. What I would suggest we do is that the 
next allocation of time be equally divided between Senator 
Dole, Senator Ensign, and we will take you and then we will 
adjourn for the vote until Senator Allard returns. I will see 
that the vote is held. Senator Dole?
    Senator Dole. Upon recent visits to military bases in North 
Carolina, they have given me initial insight into what our 
military personnel and families are facing as they go through 
repeated deployments. I would like to have each of you discuss 
family readiness and family morale. First, as you have had an 
opportunity to reflect on the tragedies that occurred at Fort 
Bragg, are there lessons that all of the Services have learned, 
and what are you doing to ensure that both military personnel 
and their families have appropriate counselling both 
predeployment and post deployment? This is of great interest 
and concern to me.
    As head of the Red Cross for many years, I put in place a 
program on mental health counseling for victims of disasters 
and for families. We streamlined our Armed Forces Emergency 
Services, which includes counseling, but I wonder if it's not 
the case that in some instances there is a reluctance to seek 
counseling because it might be viewed as hurting one's career.
    What do you do to anticipate problems where there may be 
special family stress where supervisors have reported this sort 
of situation? Also as I have toured our bases, I was very 
impressed with the support network that is there. I visited, in 
each instance with the military spouses, and they had an 
excellent support network. Are we ensuring that this sort of 
support network is available on all our bases and that it has 
strong command support?
    Secretary White. First of all, family issues are readiness 
issues. We spend an enormous amount of time on that. You raised 
a key point. We found when we examined the Fort Bragg situation 
in great detail that the tragic situation that occurred last 
summer, though not in all cases, we need to have ways for 
people on a confidential basis to deal with these problems and 
seek help and counseling and so forth without it becoming a 
chain of command issue, which of course stifles that. We have 
put in place changes to our family advocacy program to see to 
it that those avenues are open. We spent a great deal of time 
both pre- and post-deployment with spouses when they return and 
we consider the matter of utmost importance.
    Secretary Johnson. We have long had this challenge, of 
course, and we have a program we call return and reunion and we 
actually have an ops plan, if you will, to prepare the families 
and also the members when they return for reunion. We work with 
key volunteers--key spouses--and we have done well, but we 
always are trying to improve and we learn a lot from the Army 
difficulties. We are trying to move forward in a very positive 
way. I also visit with the families, and families are very 
important. I happen to have a son who is a reservist activated 
in Kuwait. I know from a personal standpoint about the 
importance of the families.
    Secretary Roche. Senator, we have had an expeditionary Air 
Force operation now for about 3 or 4 years, and in the process 
of that, we have had to go through this in the past with people 
deploying all of the time. Of our 360,000 active duty airmen, 
we have over 100,000 in this rotation; now it's up to 260,000, 
so from the very early days, we have had to worry about 
particular bases supporting those who were deployed. Because we 
flew people from so many bases, each base has a program to be 
available to the families, worry about them, making sure they 
don't have other issues, getting to the schools, make sure 
schools know deployments are happening. So this is not 
necessarily new.
    Senator Dole. I see my time has expired, but I would like 
to submit some questions for the record that you should answer 
with regard to impact aid and a couple of other questions, 
please.
    Senator Ensign [presiding]. Let us assume the President 
decided he was going to do as some had suggested and give the 
inspectors whatever period of time, whatever period that time 
was, you are building up in case we have to go to war. The 
costs that he was talking about, would there be any difference 
in those costs through 2003 if we just continued with the 
weapons inspectors and we built up because we have to be 
prepared for war? Is there any difference in the costs than 
what he was talking about?
    Secretary White. Senator, the costs I was talking about, 
most of them are already sunk.
    Senator Ensign. That was the point I was trying to make. If 
we go with just weapons inspectors, the costs that you all are 
talking about are pretty much there. The costs that you did not 
include would be the costs of ammunition, of operations within 
the war itself. Isn't that correct?
    Secretary White. That's right. Because we have paid to 
mobilize a force and a significant amount of Reserves. We paid 
to transport it.
    Senator Ensign. For the Army and Navy, that would be yes? 
The Air Force would be different?
    Secretary Roche. If we are at war, we will probably take 
Operation Noble Eagle and go up to a large aircraft going 
overhead which will have our costs go up somewhat 
exponentially. In terms of having the costs of having people 
deployed, we sacrificed some things like training, school 
housing. Flight training is not being done the way they want it 
to be. Those costs will start to accumulate. Our presumption is 
that we will be there as long as we have to be, but there is a 
price.
    Senator Ensign. The point is if you would just have the 
military there, those costs were being incurred?
    Secretary Roche. The cost of having that many of our people 
deployed, the incremental cost is high. So we pay a cost just 
to be deployed, which is something over and above what we 
normally would be paying.
    Senator Ensign. Just briefly, I do not know if you want to 
comment on this, that's the future we are looking at with bases 
in Europe. We are looking at another round of Base Realignment 
and Closure (BRAC) here, but there is also with General Jones 
what he has talked about as far as shifting the bases. Did any 
of you want to comment as far as what you see as the future of 
those bases and your general impressions of that?
    Secretary White. As the Secretary of Defense talked about 
in the hearing, the combatant commanders are taking a look at 
repositioning and the strategic requirements going forward. We 
actively support those reviews. General Jones, for example, 
combatant commander in Europe, is part and parcel with him and 
working with how we should be stationed and positioned in 
support of our naval applications. Korea was mentioned. We 
actively support them because it's enormously important to us, 
so we are studying where the force is going to be positioned 
and whether we rotate units in or whether they be permanently 
stationed there. There is a tremendous amount of work going on, 
and we are right in the middle of it.
    Senator Ensign. One other quick question, and then turn it 
over to Senator Allard, since the other senators have left. You 
can continue to chair and go on since the rest of the senators 
will be coming back.
    There was an article in yesterday's Early Bird that 
discussed what is called the Pentagon's private Army. The Army 
they described is comprised of individuals hired by private 
military companies to handle mostly noncombat jobs so our 
military forces can focus on their core mission. The article 
stated during the Gulf War, there was one contractor for every 
50 to 100 soldiers; that ratio is now one for every 10.
    First of all, are those figures correct? Do you see us 
continuing in that direction? What other types of functions 
currently performed by the military are we looking to contract 
out? Also in light of the recent incident in Colombia involving 
contractor civilians, what are the rules that apply to these 
individuals who happen to find themselves in harm's way? Can 
they carry weapons, are they considered prisoners of war if 
captured?
    Secretary White. For the Army's part, we extensively employ 
contractors for a wide variety of things. We are continuing to 
do that with this Third Wave initiative, as I mentioned, at the 
start and the numbers are bigger. I think the trend has been to 
do more and more of this because you can get a better value 
proposition than tying up uniformed people with these types of 
activities. I think it's a positive thing that we ought to be 
doing. I am not an expert on rules of engagement. I will 
provide that for the record.
    [The information referred to follows:]

    Employees of civilian contractors serving with U.S. Army units in 
contingency operations are in noncombat positions. Normally, employees 
of civilian contractors are not issued weapons, but instead rely upon 
soldiers responsible for rear area security. If circumstances warrant, 
a commander may issue a personal weapon, a pistol or rifle, to an 
employee of a civilian contractor, provided the employee has received 
firearms training and is determined to be competent in handling the 
weapon safely. The employee may use the weapon for personal self 
defense only.
    An employee of a civilian contractor is an individual accompanying 
the Armed Forces and, as such, is entitled to prisoner of war status if 
captured by the enemy.

    Senator Ensign. Any of you wish to comment on that?
    Secretary Johnson. We use contract labor when our ships go 
into port. When I was in Kuwait, I saw more and more contract 
activity moving things. I remember in Operation Desert Storm 
that most of the ground movement was done by contractors. We 
use them when we need them. We do not have as quite a 
regimented a program as the Air Force and Army do.
    Secretary Roche. The nature of air power, we do have 
contract labor. We probably have a ratio that's even higher. 
They are further back. They are not in an area where they are 
in combat. I know of no occasions where we actually have 
aircraft in harm's way, but certainly it would be involved in 
maintenance for software work, software support, and they 
perform functions well done by them and allow us to take 
uniform airmen and use uniform airmen.
    Senator Ensign. Thank you. I will turn it over to Senator 
Allard.
    Senator Allard [presiding]. Thank you, Senator Ensign. 
First of all, as Chairman, I am going to ask unanimous consent 
that I make my opening statement part of the record. Also I 
would like to enter into the record as well a letter to 
Secretary Roche of the Air Force concerning rapes and sexual 
assaults. Without objection, so ordered.
    [The prepared statement of Senator Allard and the 
information referred to follow:]

               Prepared Statement by Senator Wayne Allard

    Thank you, Mr. Chairman. I appreciate the willingness of the 
Service Secretaries to appear before us today. Our forces continue to 
fight in Afghanistan, assist forces in Yemen, Djibouti, and Georgia, 
and defend our homeland. Now, they are poised to take on a new mission: 
the invasion of Iraq. The mobilization of thousands of men and women in 
the Reserves and National Guard are indicative of the size and scope of 
our current military operations. Despite many hardships, our soldiers, 
sailors, airmen, marines, and coast guardmen have stepped forward and 
embraced their country's call to arms. We thank them for their service. 
We thank each of you for providing them with the leadership they need 
to defend our Nation.
    I would like to take a few moments to address a very serious 
concern of mine. Four months ago, a former cadet at the U.S. Air Force 
Academy approached me about her recent experiences at the Academy. She 
said that she was sexually assaulted, but was punished by the Academy 
for drinking and having sex in the dormitories. Since then, more than 
25 current and former cadets who were allegedly sexually assaulted or 
raped have approached me and my staff.
    Three weeks ago, I wrote a letter to Secretary of the Air Force 
James Roche requesting a full and complete investigation into these 
allegations. The Chairman of the Armed Services Committee, Senator John 
Warner, and I sent a second letter last week requesting that the 
Department of Defense Inspector General review the Air Force's 
investigation. I also gave Secretary Roche a letter following my 
meeting with him on February 25, which asked him to answer several 
important questions. I have yet to receive a response from the Air 
Force.
    The Air Force did send an investigative team to Colorado Springs. 
The team spent 10 days at the Academy and, from my understanding, was 
able to get an understanding for the school's current system for 
addressing sexual assault and rape cases. However, I also understand 
the investigative team did not interview any current or former cadets 
who have reported being sexually assaulted or raped.
    The Air Force tells me that the investigation is not over and that 
the investigative team may return to the Academy to meet with the 
victims. My office has been attempting to facilitate this process. I 
have also been told that the Air Force will be setting up a hot-line at 
the Department of Defense that will be available for cadets to call. I 
think these actions are a good start, but it is not enough.
    I am concerned that the Air Force has not offered confidentiality 
to the cadets. How can the Air Force expect cadets to come forward and 
not be given confidentiality, particularly after watching the Academy 
punish and ruin the careers of several of their classmates who made the 
mistake of reporting a sexual assault or rape? I am also waiting to see 
if the Air Force will work with the local rape counseling service in 
Colorado Springs, which reportedly assisted 28 cadets who were raped.
    Over the last couple of days, I have been asked several times if I 
thought this current crisis at the Air Force Academy resembled the 1991 
Navy Tailhook scandal. In many ways, I think this scandal is worse. It 
seems clear to me that the problems at the Air Force Academy go much 
deeper than those that became apparent during the Tailhook scandal. The 
entire support and legal system at the Academy appears to have failed. 
The Academy can't even tell us how many cadets reported a sexual 
assault or rape.
    These failures begin with leadership, but they do not end there. 
The system is broken and must be fixed if we are to ensure the safety 
of the cadets.
    Many of my colleagues here today have urged and in fact nominated 
high school students to attend the Air Force Academy. We stressed the 
honor and integrity of the institution. I still believe in the Air 
Force Academy, and I am interested in working with the Air Force to 
correct many of the problems at the school. But first, we need to have 
a full and complete investigation and that begins by working with the 
victims. So, I urge you, Secretary Roche, to consider all options that 
will encourage victims to come forward. I also encourage you to 
cooperate with the Defense Department's Inspector General when he 
begins his investigation.
    Thank you, Mr. Chairman, for the opportunity to address this 
important issue. I look forward to discussing it in more depth during 
the question and answer period.

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Allard. I want to say a few things about the Air 
Force situation and ask Secretary Roche a few questions. 
Several reporters over the last week have asked if I consider 
the current situation at the Academy to be worse than the 
Navy's 1991 Tailhook scandal. I told them that I think it's 
worse and here's why.
    We have a system breakdown at the Academy. Over 25 current 
and former cadets sexually assaulted or raped have contacted my 
office. Each one of these cadets provided information on how 
the Academy failed to adequately support them after the 
reported sexual assault or rape. Perception by some of these 
cadets was that they were actually punished for reporting. 
Clearly, Academy support and the legal system failed to assist 
these cadets.
    This problem begins as leadership, but it doesn't end 
there. I appreciate the comments by both Secretary Roche and 
General Jumper that this cannot be tolerated. Secretary Roche, 
I appreciate your personal involvement. I was pleased when you 
ordered an investigation into this matter. However, I believe 
more needs to be done. The victims need to feel good about the 
process. They need genuine action that seeks to solve the 
problem. Having just made this brief comment before the 
question, let me proceed on to the questions.
    The investigation, Secretary Roche, that you ordered has 
been proceeding now for over 2 weeks. Can you give this 
committee an update on the progress of the Air Force 
investigation?
    Secretary Roche. Yes, sir. We want everyone to know the 
degree to which you and I have worked closely on this matter 
and make sure we have a baseline on the record for the United 
States Air Force, and I speak for General Jumper as well as 
myself. This is a problem and that cadets are having. In fact, 
we have cadets who have misused power who have done things that 
we cannot tolerate, and we will not tolerate any cadet who 
sexually assaults another. We will not tolerate a cadet who 
harbors one who had or cadet who was present and allowed 
something like that to go on, and especially we will not 
tolerate cadets who harass or who shun that cadet who has the 
courage to come forward. That's a cadet problem.
    It's a climate problem. You are absolutely right. We have 
to deal with a climate that has allowed this to emerge 10 years 
ago. This is the second time the therapy actions taken 10 years 
ago were thought to be effective, but in fact we found that 
they are not. We are on a two-track path here.
    First track is to worry about the fact that come June, 
Senators, as you well know, we will have 714 American women at 
our Air Force Academy. 218 of those 714 will be brand-new 
arrivals. We have to ensure that their parents believe that 
those cadets are safe. We also have roughly 3,400 male cadets. 
We have to make sure their parents understand that an 
accusation is not a conviction.
    We will always retain due process. First thing we are doing 
is to get a larger sense of what is happening at the Academy. 
To this degree, we have talked to counselors there, we talked 
to professors, and we put out blanket calls for cadets to speak 
with us as well as any victim past or current, or past and not 
reported, to come. We have talked to victims.
    We are obligated to adhere to privacy standards just as 
your office is, so when you tell us about a cadet, you 
recognize we have to ask you, could you ask that cadet if she 
would speak to us, because we cannot violate the policy. We are 
learning enough to realize that the change must occur, change 
in the climate, how we manage the place, how we lead the place 
has to change. That's the first rule of business.
    The second is we have now reviewed on a cursory or in-depth 
level 54 cases. Of those 54 cases, we are trying to identify 
which of those that our inspector general will go into in-
depth, so some of the parties to a particular allegation will 
be contacted. The IG will start shortly. We will give them the 
initial list, give them the whole group, but say these 11 or 12 
that you see right now, or maybe more, may emerge. We want to 
make sure you go into it because they reflect situations where 
the person who placed the accusation felt that the system let 
her down.
    We want to have specific review of due process in those 
cases. There are other cases where the victim chooses not to 
deal with this again. The part that is the saddest thing--and 
this is comparable to what is occurring throughout universities 
in the United States--is that while we have seen whatever we 
see--whatever the number is, 25, 50--there are probably another 
100 more that we do not see. That's a smaller number than the 
national statistics say occur on universities. But this is not 
a university.
    Any woman going into the Air Force Academy should feel 
better protected than going to any other university. Therefore, 
what frightens me most is the climate is affecting so many 
others who have not come forward. In fact, I was introduced to 
one and all I could say was I am sorry. We have to get at that. 
So we will both make changes which will come out by the end of 
March.
    You are the Senator from Colorado. You have long-term 
interest as a member of the Academy advisory board and also 
because there are particular cadets who have approached you.
    I also would like you and everyone to know that the reason 
that General Jumper and I are so adamant about this is we 
cannot bear the thought of criminals being commissioned. We 
cannot bear the thought of a criminal flying around with a 
couple thousand pounds of bombs under his wings using his 
judgment instead of rules of engagement or deciding when he can 
do something, when he cannot do something, or possibly preying 
on other of our airmen.
    We cannot have that and, therefore, we need for the male 
cadets to take initiative. We will do whatever we have to do 
with regard to administration of the Academy. We also, and this 
is tough, need to ask for courage, ask for a number of the 
female cadets to come forward. We cannot have them know that 
there is a criminal who is making it through that place, 
because when she goes on we want her to worry about the Air 
Force, not that fear. I'm proud to say with cooperation of 
Secretary Johnson and Vernon Clark, I have just had an open 
door at the Naval Academy. Spent last night there benchmarking 
how we do things, how they do things--best practices.
    It's my intent to share everything that we come upon with 
both Secretary White and Secretary Johnson just in case there 
is a chance to stop something. The Naval Academy was open with 
all of the difficulties they are facing, with things that they 
deal with. The fact that we have this ability to quickly speak 
among ourselves I think is very important.
    I would expect by the end of March that we will have a 
number of initiatives that General Jumper and I will sign out, 
and they will affect the climate of that school. Meanwhile, the 
inspector general for the Department is participating more in 
an over-our-shoulders watching how we are doing the business, 
which is fine. As long as we are transparent, we should be 
fine. We will make the first moves by the end of March. 
Senator, we are between 60 and 90 days for 217 new recruits to 
show up.
    Senator Allard. I do appreciate your further elaborating on 
the progress of the investigation. You and the investigating 
team were there about 10 days?
    Secretary Roche. They were there Friday, and I started a 
week ago tomorrow. They begged to see their families and get 
clean laundry. They have certain approaches working with the 
downtown clinic, TESSA, where they have very strict privacy 
rules as well. We are trying to ask them and we need time for 
them to turn, with some of them go back 15 years, and ask those 
patients if they would be willing to come forward. That would 
be tough.
    We have some telephone appointments with some parents. We 
have male cadets who have come forward who want to contribute. 
We have faculty members, female, and others. We have had some 
of the victims come forward already. We keep trying to create 
an environment that says it's okay, but we cannot force any of 
them. Even in your case, you notice the same thing. Your office 
has been supportive. Some of the women do not want to go 
through it again, but they want someone to know that something 
has happened.
    When we get the inspector general tasks, they will go by 
the cases case-by-case to see whether or not there were any 
holes in due process, but we are discovering larger things, 
Senator. We are discovering different definitions of sexual 
assault used that the Academy has compared to at a typical Air 
Force base.
    Benchmark that with the Navy. Secretary of the Navy doesn't 
have that problem. It's exactly the same definition one place 
as the other. So uniform military justice can be applied 
properly and systematically. Because of budget reasons in the 
past and because of shortage of pilots, we have dropped the 
preparation programs that we had for naval company officers we 
called AOCs, commissioned officers who are with the squadrons, 
but that's a terrible thing to have done but the pressures 5, 6 
years ago caused that to happen.
    The Navy did not succumb to that. They maintained standards 
of training prior to becoming an officer. We failed. We failed 
to empower our senior enlisted at the Academy. The kind of 
resources that exist are not existent in the Air Force Academy, 
but they will be.
    Senator Allard. How many victims have you met with so far?
    Secretary Roche. We have met with at least six and there 
are two new cases that have come along.
    Senator Allard. You have another team?
    Secretary Roche. TESSA downtown. They have had a chance to 
contact people. It's starting to converge, climate, power 
imbalances, putting young women in difficult positions that we 
ought not to be doing. Come back to the fact that these are 
adults, they have to deal with these problems themselves. We 
have to help them, but we cannot have them preying on high 
school students that will be young officers come June. They 
must be protected.
    Senator Allard. We all struggle with this issue of 
confidentiality. I cannot even give you the names unless they 
agree to allow me to give them the names. The crisis center has 
the same problem. We need to get the victim to understand that 
we are going to treat their concerns seriously. As this 
confidential issue comes up, and I think there needs to be a 
frank discussion with the victim as to what is most important, 
the confidentiality aspect or whether this goes to court, a 
case, or somewhere or another that it may jeopardize that case 
somehow or another and sometimes they have to make that 
decision. But I guess the question I'm going to ask you is that 
many of the victims that have approached my office have refused 
to talk to your investigative team because they fear reprisals 
and do not want to jeopardize their careers. There are those 
that say that they would like to have their confidentiality 
protected. Are you willing to grant confidentiality to victims 
that might be willing to come forward?
    Secretary Roche. It's a legal term. It depends what 
confidentiality is. If a victim comes forward and says I would 
like my name not to be used, that we can absolutely do. We can 
be sure that publicly we can be led to that victim. If she 
reports a crime, we are obligated to go after that criminal and 
to that degree we have to tell her that if there is a crime 
involved, if in fact there is an assault, we have to 
investigate because there is a potential criminal who could be 
flying one of our aircraft.
    This is where confidentiality is the problem. First of all, 
I'm not empowered to give confidentiality. If I ask a question, 
the answer has to be something that can be used for official 
purposes only so we can protect someone's privacy rights. But 
if there is a crime, we are obligated to go after that 
criminal.
    Senator Allard. Many of the assailants have gotten off 
lightly. How many cadets have been court martialed for sexual 
assault or rape and can you share with this committee how many 
cadets have been court martialed at the Air Force Academy for 
sexual assault and rape for the last 10 years?
    Secretary Roche. I'm going to give you a preliminary 
number. It changed over the weekend. Recordkeeping is not all 
we had wanted it to be. There has been one formal court martial 
where the assailant was acquitted. However, there was another 
court martial where alleged assailant pled guilty and went off 
to jail for 7 months, so far I know of two. In many of the 
other cases, there has not been sufficient evidence to fit the 
element of the crime under the uniform code, but because we are 
finding out enough administrative wrongdoing by the individual, 
we have thrown the person out. That's different from being able 
to take them to trial. One of the things we know is that in the 
future if a young person has been assaulted, we can educate her 
on what is the difference between harassment and assault so she 
understands that. Then we want to put with her very quickly 
someone who can explain the law, explain the process, so she 
understands what is going to happen and that there are defense 
counsel, understand that the process of the crime has elements 
of the crime that must be approved.
    However, there are administrative things. When we have not 
been able to take someone to court martial, oftentimes we have 
been able to throw them out. We get to a point of a ``He said, 
She said'' situation which is difficult to take to court. The 
other Academies have that same problem.
    Senator Allard. I think we really need to instill 
confidence in the system so victims, when they report a rape, 
know that the rape itself won't put their military careers at 
risk. This is the problem that we are willing to take on.
    Secretary Roche. We are at a point now when we go to look 
for senior officer, for instance, the superintendent will be 
retiring this summer and we are looking for replacement, it's 
sad we have to go back to make sure no one ever accused the 
general officer of something even if it was unsubstantiated 
because it's such a delicate matter. We cannot start a 
discussion by saying, ``But in your past. . .'' So we are 
taking this very seriously, and we do not want a situation 
where a victim suffers through her career because of something 
that was not her fault in any way, shape, or form. There is 
nothing in the breaking of regs that justifies a sexual assault 
against any of these women. Nothing.
    Senator Allard. Just to wrap it up, Mr. Chairman, if I 
might. On February 25, you and I met in my office to discuss 
this issue. During that meeting, I gave you a detailed letter 
asking a number of questions pertaining to the investigation. I 
just ask that you put in the record your responses, what is the 
status of your response to that particular letter.
    Secretary Roche. We have a draft, but it's changing. I do 
not want to give you the draft, rather at least wait until the 
end of March and say, as of the end of March, here are the 
answers based on what we have found, but I have been given one 
draft already. Too much is changing. We want to go back and see 
if the folks at TESSA have some insights that are different 
than we obtained. We are going to fold those in. There is one 
in the GAO report that I want to spend more time on. They are 
all quite useful.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Allard. As was mentioned by the Chairman, who is 
now with the committee, and you know we all have something at 
stake here. Members of Congress do make nominations to the Air 
Force Academy, and we frequently promote the Academies in 
general as a good education and a wonderful opportunity for 
young people who measure up. It's vitally important we have a 
system in place where they are comfortable, and there will be 
some justice if there is a situation where a victim experiences 
rape or incest.
    The integrity of the system is at stake and I think this is 
a really important time in the life of the Academies, 
particularly the Air Force Academy. Thank you for your 
interest, and we will be continuing to be watching over these 
as you move forward in your investigation.
    Secretary Roche. Absolutely. We are totally transparent to 
you. I think you know General Jumper is en route flying out 
there now. He will be speaking to the cadets. He will also be 
speaking to some of our enlisted there. We have had one polling 
of the senior enlisted. We are trying to touch as many of those 
bases as we possibly can. A thing that's scary is that we are 
talking about young people who come 2 months from now, will 
graduate and some of them may face war within 12 months. I 
don't want them growing up in a war, Senator. I want them grown 
up when they go out of the Academy and I don't want them to 
think that they can get away with this, so there is something 
else they can get away with later on.
    These are aspiring officers in whom we all place special 
trust and confidence. Once upon a time, their commissioning 
certificates referred to them as officers and gentlemen. They 
have special obligations. They cannot escape now and all of a 
sudden become responsible in the future.
    Senator Allard. There is this loyalty to the squadron. The 
loyalty needs to start with the perpetrator of the act, and if 
he is going to be a loyal member of that squadron, he should 
not have done what he did and shouldn't come back later on in 
the squadron where he says you are the one that is the problem.
    Secretary Roche. These young people need to know their peer 
group is the men and women of the Armed Services. Right now 
some of them are shaming the Air Force, but they are also 
shaming any member of the Armed Forces.
    Senator Allard. Thank you, Mr. Chairman.
    Chairman Warner [presiding]. Thank you for an excellent 
line of questions, and again I commend you for your work on 
this issue. Also, another member of our committee who has been 
very active and that is our next questioner, Senator Nelson. I 
wonder if you would indulge the chair for one question as I 
have been involved in this. I think we better employ language 
that is clearly understandable by a generation, an age younger 
than we or maybe in my case a generation, but zero tolerance is 
understood. I think that the importance of each of the Service 
Secretaries indicate that in their analysis and factions that 
they take with respect to their Academies the policy of zero 
tolerance would be very much a part of the understanding. Is 
that correct?
    Secretary Roche. Senator, I dread ever to disagree with 
you. Zero tolerance to me I don't think captures the specifics 
that these young men especially need to know. Zero tolerance 
says you cannot perform, and we will not condone, a sexual 
assault on a victim, another cadet. We want to go further, 
Senator, and I think you agree.
    Not only is that not tolerated, if they know of one of 
their own in their group, they have an obligation to go after 
that person. They have an obligation to stop these things from 
happening, and especially they have an obligation never to 
harass or shun a cadet who had the courage to come forward.
    Chairman Warner. It can be broadened to that. But I think 
we have to employ standards that are understood by this 
generation. I think the zero tolerance does send some message. 
Secretary Johnson, your view?
    Secretary Johnson. Yes, sir. I certainly agree. The code 
says we will not tolerate them among us. That's certainly what 
we are talking about.
    Secretary White. We agree as well. We start the education 
process and understanding of that policy the day they come to 
the Academy.
    Chairman Warner. In the letter we specifically asked our 
former colleague on the committee who is now in charge of 
personnel in the Department of Defense that each of the 
Academies should review this situation, and the Air Force can 
ascertain to the extent that there is any presence of 
allegation within those Academies. I will close out on that and 
now turn to my colleague, who has raised that with the 
committee of the other Academies.
    Senator Bill Nelson. That's exactly right. I have had 
complaints from the Air Force Academy. One woman, who was raped 
at the Air Force Academy while she was a freshman, learned that 
another woman had been raped by the same man, a fellow cadet 2 
weeks earlier. They reported the crimes to the office of 
special investigations, but the male cadet was never charged. 
One woman left the Academy. The other is still a cadet.
    In another complaint, a Floridian, a woman at West Point 
assaulted in her dorm room by another cadet, was urged not to 
make an issue out of the attack and eventually, separated from 
the Academy. Now, given these complaints, and I certainly hope 
Secretary Johnson that this doesn't get to your Academy, but 
given these complaints and a number of others that have been 
reported in the media, I want to know how many complaints of 
sexual assault or rape have you received in the past 5 years 
and how many times have you pursued criminal charges against 
the alleged rapists?
    Secretary Roche. We are assembling those data for the Air 
Force at this time. We had a hotline that picked up 98 calls. 
We have had 54 major investigations. We have only had one, 
possibly two formal court martials. We have had a number of 
dismissals because while you cannot prove the elements of their 
defense, you have enough to say there is violation of the 
Academy regulations, and therefore dismissing the individual. I 
would encourage you Senator, if you could, if they would have 
the courage to contact us or contact your office and allow your 
office to tell us their names so we can contact them. The 
privacy rights are such that we cannot ask any of them unless 
they come forward to us.
    Senator Bill Nelson. If after investigation of the facts if 
you determine that a crime had been committed, would you turn 
that over to the appropriate criminal authorities?
    Secretary Roche. Absolutely. One of the things that the 
inspector general's work will do that Senator Warner was 
referring to is to look at these cases to see whether due 
process was followed. If not, or if it warranted reopening, 
then that was something we could do with uniform code. We 
would, just as we are now having some young women come forward 
who had previously not come forward. We will put that into the 
chain of command into the office of special investigations and 
follow through with it.
    We have done things for instance that I know won't surprise 
you. We have had an incident of a cadet in a community do 
something rather heinous. The district attorney decided that it 
wasn't a big enough deal to him, refused to prosecute it. We 
prosecuted it and he is in the slammer now.
    Senator Bill Nelson. Secretary White.
    Secretary White. We have prosecuted and taken cases to 
court martial in the past. We will provide details for the 5-
year period that you requested. It is a critical issue for us. 
It has been for a long time. Women have been at West Point 
since 1976. I think, as Secretary Roche has talked about here, 
the point is to establish a climate that makes people safe 
about reporting these things, and then take action appropriate 
with the offense. We will provide you that detail. We consider 
it very important. We are looking very closely at the situation 
at the Air Force Academy.
    [The information referred to follows:]

    The United States Military Academy (USMA) has had five allegations 
of rape: one in 1998; one in 1999; one in 2000; one in 2001; and one in 
2002. Charges were preferred in two of these cases. In the 1998 case, 
the investigation determined that the sex was consensual and both 
cadets graduated. In both the 1999 and 2000 cases, the accused cadets 
resigned in lieu of court-martial and received other than honorable 
discharges. In both cases, the victims recommended acceptance of the 
resignation in lieu of court-martial.
    It is important to note that the Department of the Army provides 
oversight for this. In the 2001 case, there was insufficient evidence 
to support the allegation to go to court-martial. However, the cadet 
was found to have violated other USMA regulations and resigned. In the 
2002 case, DNA evidence did not substantiate the allegation and both 
cadets graduated.

    Senator Bill Nelson. Of the victims who left, will you 
provide them with an opportunity to serve in the military?
    Secretary Roche. Depends on the circumstances, sir. I would 
not want to make a blanket statement there. I know that some of 
them, for instance, loved the Air Force enough, and I'm 
surprised at this level of courage that they left the Academy, 
gone to university, and joined the ROTC program. We have known 
that, and we have welcomed them.
    Secretary White. I would, too, on a case-by-case basis, 
certainly.
    Senator Bill Nelson. You have spoken earlier of a cadet 
problem. Is this an officer leadership problem?
    Secretary Roche. As I noted, it's always both. These are 
adults, and it is easy for those adults to try and put 
responsibility for their actions someplace else. They are the 
ones who committed it. There is a leadership problem. I believe 
we the corporate Air Force have failed the Academy. This is not 
an issue at the Academy. When we allowed budget reasons and 
shortages of officer reasons to not, for instance, at the Air 
Force Academy there are very few pilots for these squadron 
officers, battle managers, because they are so desperately 
needed in the field. We have to think was that really smart? We 
gave up 1 year of advanced education for counseling. That 
clearly was not smart.
    We did not make good use of our superlative noncommissioned 
officers and put them in the chain of command so that they 
could have helped this problem. That was not smart. That's not 
the fault of the people there. It's my predecessor and his 
predecessor as well as General Jumper's predecessor and his 
predecessor. It's a corporate responsibility for that.
    Senator Bill Nelson. At the end of the day, we want to make 
sure that both your investigations hold someone responsible and 
accountable, which is the appropriate way in the military. I 
have been burned a little bit recently on this. Senator Pat 
Roberts and I have been involved in the Scott Speicher case and 
we have seen how everything has been so mushy over the last 12 
years with mistakes being made and no one being held 
accountable. Now we have every reason. I personally think he is 
likely to be alive, that we have left a downed pilot for 12 
years, and that no one has had to step forward with 
accountability. I do not want to see that in this case as well.
    Secretary Roche. Senator, if I may, sir, where 
accountability is warranted, it will be there. I have had no 
problem removing general officers from jobs. I have had no 
problem holding people accountable, but when you really get 
into this particular case, the accountability goes broad. If it 
has to be somewhere, it's with General Jumper and me.
    Secretary White. The chain of command is responsible for 
this, and I as the Secretary am responsible for the department. 
West Point is a national treasure. We intend to keep it that 
way.
    Senator Bill Nelson. Thank you, Mr. Chairman. Thank you for 
your willingness to jump into this with all fours.
    Chairman Warner. I also wish to commend you for your work 
on Commander Speicher. I know that you had offered and wanted 
to accompany Senator Levin and I on our recent trip. That was 
not possible given the size of the aircraft. I know your desire 
to pursue that case. I think Senator Roberts at each stop was 
able to invoke not only your intense feelings on that case, but 
his. I thank you for bringing it up. I hope you continue to 
bring it up until we have some resolution of that tragic saga. 
We had excellent patience exercised by Senator Ben Nelson. 
Senator?
    Senator Ben Nelson. Thank you, Mr. Chairman. Over the last 
several weeks, there have been a number of news articles about 
the hardships that military personnel both active and Reserve 
are facing because of deployments to support several 
contingency operations and some of these hardships include 
possible bankruptcy, but also parenting issues when both 
parents or single parents are deployed, effects in income for 
reservists ordered to active duty where they are paid far less 
than they are paid and compensated in their civilian jobs, 
first responders ordered to active duty leaving their cities 
and neighborhoods without their services in the event of a 
terrorist attack on the homeland.
    As I ask each of you, I would like to have each of you 
respond. Does your Service have policies in place to prevent 
wherever possible, for example, both parents from being sent to 
a combat zone at the same time?
    Secretary White. I don't think we have a specific policy 
against that particular issue. We require single parents or 
families where both parents are in the military to provide a 
family care plan that's reviewed by the chain of command to 
make sure when they deploy that the children are adequately 
provided for. But I will have to get back to you for the record 
about the specifics of dual soldier families, and if there are 
any limitations on it or comments on it.
    [The information referred to follows:]

    There are no specific DOD policies that preclude the assignment or 
deployment of multiple family members to designated hostile-fire/
imminent-danger areas or combat zones at the same time. This includes 
both a single parent and members of a dual-military couple with family 
members. However, DOD policy does exist which speaks to the concurrent 
assignment of multiple family members to the same unit or ship. The 
policy provides for reassignment of all but one member to a different 
unit or ship. Approval of such requests will be based on military 
requirements. The Army defines a unit for this purpose as a battalion, 
squadron, or element with less than 500 authorized Army personnel. Army 
implements DOD policy without change.
    Understanding that plans must be made to ensure family members are 
properly and adequately cared for when the soldier is deployed or 
otherwise not available, current Army policy requires that dual-
military couples with family members have an approved Family Care Plan 
(FCP) on file. Soldiers unable or unwilling to provide an adequate FCP 
are ineligible for deployment. Soldiers without approved plans may be 
considered for separation.
    As a matter of policy, all similarly qualified service members must 
share assignments or deployments in hostile-fire/imminent-danger or 
combat zones equitably. However, provisions exist for consideration of 
combat deferment or exemption for service members or families 
experiencing severe humanitarian or compassionate problems. Our 
soldiers voluntarily entered the profession of arms with the 
understanding they would be subject to worldwide assignments to include 
being placed in harms way. On balance, they accept these policies and 
do not wish to be restricted from performing their duties along with 
their fellow soldiers.

    Secretary Johnson. We also have no policy that specifically 
prohibits it, but we do require, as Secretary White talked 
about, for them to have a plan.
    Senator Ben Nelson. In the event that they are both 
deployed?
    Secretary Johnson. That they are both deployed.
    Senator Ben Nelson. That works for deployment. But I think 
we are worried about losing the same parents in the same combat 
zone.
    Secretary Johnson. We understand that. Most often their 
larger family takes care of the children. On the other hand, it 
would be incorrect to say that an officer couldn't serve. We 
have to be careful to allow them to serve their country while 
serving their family also.
    Senator Ben Nelson. I understand. We are trying to narrow 
it down to a combat zone, as opposed to service.
    Secretary Roche. Again, I would have to support the 
Secretary of the Navy. We would not want to say that a 
condition of officership or enlistmentship is affected by 
result of your majority. Support groups are maintained. I do 
not know of any cases where we would have a married couple 
where we would have a same flight over a same combat zone at 
the same time.
    Senator Ben Nelson. Do you have any screening system that 
would identify firefighters, police officers, medical 
personnel, and other first responders to determine whether they 
may be needed more in their local community because of the 
interest in hometown security and the homeland security effort?
    Secretary Roche. I love this one, sir. We, in fact, look 
for those specific specialties because we are in such short 
demand of them, and we are in such short demand because we are 
protecting so many bases here plus new bases overseas that, 
thanks to my colleague, Secretary White, we are renting close 
to 8,000 Army guardsmen to protect Air Force bases because we 
do not have the force. We have exhausted the Reserve Force to 
be able to have the force protection at the bases here and 
overseas at the same time.
    The specialties you brought up we are very much in need of 
and, yes, every now and then it's a shock to realize how many 
members of police departments and fire departments of small 
American towns are now on active duty, but they have been part 
of our Reserve and we sure needed it.
    Secretary White. I would agree and say the same thing. If 
you look at Military Police (MP) units, most of them are in law 
enforcement in their private communities and we have activated 
just about every MP unit in the stretcher right now: both Guard 
and Reserve. The Reserve side of this is that in States where 
units have been activated that have specific capabilities that 
the State would like to use under State control for emergency 
purposes, the Adjutants General (AG) of the States have contact 
with the surrounding States and they swap out capabilities to 
cover when a unit is mobilized, but that doesn't get exactly 
what you asked.
    Senator Ben Nelson. Over the years, they have had 
relationships with employment groups. They work closely with 
employers and we have a good partnership. Local units look at 
the things we are talking about, but yet as the other two 
Secretaries have mentioned, we go after some of the people that 
are also needed in our great Nation at home.
    That's reminiscent changing the words to the song ``Over 
There.'' So I would hope that you might take a look at that. I 
understand the importance of having the reservists and the 
Guard serve and be available and be deployed. Also, I think we 
all are aware of the importance of what effect it has over here 
when they go over there.
    My final question is: what systems do you have in place to 
make sure that your mobilization is fair? For example, that 
some individuals are not ordered to active duty for a second 
time unless absolutely necessary or kept on active duty longer 
than they have been led to believe they would be on active 
duty, while others are not activated? I understand that there 
are different skills or different service requirements and 
therefore that will mitigate, but is there a system in place to 
apply fairness where possible?
    Secretary White. We work this very carefully. In 
conjunction, on the Guard side with the State adjutant general 
obviously, there have been cases, and we have not had to 
mobilize anyone for more than a 1-year period. That's one of 
the reasons we are helping out the Air Force on-base security 
is they would have had to go into a second year of 
mobilization. But even having said that, 18 months into the 
global war on terrorism, we are so short of MPs that we have 
had to remobilize a small group of people who in fact were 
mobilized September 11, 2001 to September 11, 2002. After the 
current situation we have remobilized, but we worked very hard 
in the Guard and Reserve oversight process to make sure it's 
fair and the burden is kept as reasonable as we can.
    Secretary Johnson. We work on the burden, but you would be 
proud of the number of volunteers who come forward and want to 
serve. I would be hard pressed to give a percent, but I suspect 
it's a majority.
    Senator Ben Nelson. I wouldn't in any way want to suggest 
that you wouldn't have the loyalty of these men and women. It's 
a matter of certain hardships and/or equity that plays a role 
and you never want to under sell the importance of those who 
volunteer because their particular circumstances may permit 
them to do that.
    Secretary Roche. Same thing. As of today, we have over 
1,700 volunteers. Easier for us depending on how the airlines 
are going. We mobilize by experiences, and I think quite 
frankly we mobilize for our needs in combat and expect that the 
Air National Guard and Reserves will try to handle this 
particular need of the individual. The Air National Guard has 
been in this business for a long time. They have been in 
Operation Northern Watch, Operation Southern Watch, and 
Operation Enduring Freedom. They have been part and parcel. You 
cannot tell that this is a guard craft or active craft unless 
you look at the tail number. They have a personnel system that 
gets what we need on the spot. We do not try to figure it out. 
It just works.
    Senator Ben Nelson. My time is up. Thank you very much. I 
appreciate it.
    Senator Warner. Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman. I want to thank 
you and Senator Allard for raising the issues of discipline and 
behavior at the Academies. I appreciate the addressing of this 
very crucial issue that concerns many of us, not only those of 
us here on the dais, but people around the country.
    Chairman Warner. Senator, you have spoken to me on several 
occasions about your concerns on this case.
    Senator Clinton. I know in the great scheme of things where 
we have 200,000 of our men and women on the knife's edge going 
into harm's way, some may wonder why we are raising this, but 
indeed I think it demonstrates the strength of our system and 
the commitment to our overriding values. I am very proud that 
it has been raised and followed through in such a professional 
manner.
    I also want to express my appreciation to the Secretaries 
for their response to the question that the chairman asked 
toward the beginning of the hearing concerning General 
Shinseki's testimony before us a week or so ago. I understand 
completely that we are talking unpredictable, in the words of 
Secretary Rumsfeld, unknowable factors perhaps. But I think 
that the manner in which you responded to that question and 
referred to General Shinseki's personal service with a 
comparable set of circumstances was very welcomed. I, for one, 
appreciate it and I think that the range that we are attempting 
to understand Senator Levin has consistently questioned every 
witness about is an important one for us to continue to probe. 
I thank you for the way you have responded to that inquiry.
    I have a series of questions. I will submit them to the 
record. With respect to a question, Secretary Johnson, about 
Coast Guard deployments, I will be submitting to the record, 
committing to the record a letter that I'm sending to you with 
respect to more information about the call up of Coast Guard 
ships.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Last week, Admiral Clark informed me that the Coast Guard 
cutters have been periodically deployed with Navy carrier 
groups to ensure their readiness to work with Navy ships in 
times of crisis. However, according to a Coast Guard spokesman, 
this is the first time that Coast Guard combatant ships have 
been deployed in support of a national contingency in 30 years.
    Indeed, one news report indicates that the Coast Guard has 
sent one fourth of its fleet to the Gulf. We, in New York and 
other coastal states, particularly along the east coast, count 
on the Coast Guard to be part of our homeland security to guard 
our ports against potential terrorist threats, as well as to 
provide assistance and leadership in responding to emergencies 
such as the recent barge explosion on Staten Island, where the 
Coast Guard was the first responder on the scene and helped to 
contain that accident. So I will be asking for additional 
information for how many additional Coast Guard cutters, 
including patrol boats, are currently deployed, the criteria 
that are used to determine deployment, how long we expect to 
see them deployed overseas, the missions that they are 
currently performing, and any provisions or planning with 
respect to replacing their necessary functions into the future. 
Obviously as we are looking at the multiple challenges that we 
are confronting, it's imperative that we think ahead, and I do 
not know that deploying Coast Guard cutters in times of 
heightened alert will always be a very good idea. It may be 
necessary now, but we may have to look for alternatives, so I 
will look forward to receiving those answers to those 
questions.
    Secretary Roche, I'm deeply interested in the work that is 
done at the Air Force research lab in Rome. Have you had a 
chance to visit the lab? I would love to, however, be there 
with you when and if you do?
    Secretary Roche. I'd be delighted. That's the sort of stuff 
if you know my past that turns me on. [Laughter.]
    Senator Clinton. I wasn't inviting you to be turned on. I'm 
only kidding. I couldn't resist. [Laughter.]
    Secretary Roche. I'm an electronics and research man.
    Senator Clinton. I know. Just kidding.
    Secretary Roche. It's a very interesting place, and it does 
great work.
    Senator Clinton. It would be a great pleasure. Obviously, 
the work being done to develop cyber security technologies are 
one of the most important investments we need to be making with 
respect to our cyber infrastructure and the protective 
technology that is required, so I hope that we will have a 
chance to do that sooner instead of later.
    Finally, I would just echo the questions and concerns of my 
colleague, Senator Ben Nelson, about first responders. This is 
another one of those issues that has to be taken into account 
as we plan for the future. I know Secretary Rumsfeld has 
apparently expressed concern about having reliance that our 
forces have on reservists and guardsmen for the kind of 
deployment that we are now experiencing. Of course in many 
communities in our country, we are deeply dependent upon them, 
our firehouses, police stations, and emergency rooms. So I 
think we are going to have to consider how to better deal with 
demands on both ends of our security spectrum, both here at 
home and overseas, when we look at the Reserve components.
    Mr. Chairman, the Secretaries have been very helpful in 
responding to concerns many of us have about the questions that 
Senator Nelson raised, possibly married couples with children 
both serving in the same combat area. If there is any kind of 
formal statement or policy that has been adopted on this, we 
might want to get that just so that we all know if there are 
individual service policies, we need them; but if there is 
something that is being developed across the board, it would be 
very useful because many of us are receiving a lot of questions 
from not only constituents but from mayors, county executives, 
and others who have been facing these tremendous fiscal crises 
that they are currently undergoing and have to pay their 
reservists costs. We are trying to get our arms around this. I 
would look forward to receiving that.
    [The information referred to follows:]

    Secretary Johnson. Spouse collocation is a key distribution goal. 
To the greatest extent possible, we assign one member to a shore 
billet, or otherwise non-deployable activity, while the spouse is 
fulfilling a sea-going or operational tour.
    Navy makes every effort to avoid concurrent assignment of dual Navy 
couples to deployable units. We also strive to avoid these operational 
assignment concerns for personnel married to other Service personnel or 
Reserve component members. However, given the expeditionary nature of 
naval service, there remains the potential for both members of a dual 
military couple to be simultaneously deployed.
    Dual Navy couples, and Navy members married to members of the other 
Services, are required to establish formal contingency arrangements to 
provide for the needs of children (and other dependent family members) 
in the event of conflicting operational demands. Commanding officers 
are responsible for ensuring compliance with program requirements and 
maintaining documentation of these plans at the local command.
    Requests to be excused from deployment are submitted to a member's 
immediate commander and forwarded for disposition through the 
operational chain of command. If requests cannot be resolved at the 
local level, the commander may, if deemed appropriate, refer the 
request to headquarters level as part of an administrative separation 
package.

    Chairman Warner. Thank you Senator. That will be done.
    Secretary Johnson. We will provide all the information you 
asked for. The partnership between the Navy and the Coast Guard 
has always been strong. It's even stronger now. There are some 
things that military people cannot do where Coast Guard members 
have that authority. We will provide information on the ships 
that go forward, but that partnership is tremendous forward and 
in the homeland. We are supporting the Coast Guard here very 
much and we will provide the information to you.
    [The information referred to follows:]

    The number of Coast Guard Cutters deploying to the Persian Gulf 
are:

        <bullet> 378-foot high endurance cutters

                <bullet> USCGC Boutwell (WHEC 719)--homeport: Alameda, 
                CA
                <bullet> USCGC Dallas (WHEC 716)--homeport: North 
                Charleston, SC

        <bullet> 225-foot seagoing buoy tender

                <bullet> USCGC Walnut (WLB 205)--homeport: Honolulu, HI

        <bullet> 110-foot patrol boats

                <bullet> USCGC Wrangell (WPB 1332)--home port: South 
                Portland, ME
                <bullet> USCGC Adak (WPB 1333)--homeport: Sandy Hook, 
                NJ
                <bullet> USCGC Aquidneck (WPB 1309)--home port: 
                Atlantic Beach, NC
                <bullet> USCGC Baranof (WPB 1318)--homeport: Miami, FL
                <bullet> USCGC Grand Isle (WPB 1338)--homeport: 
                Gloucester, MA
                <bullet> USCGC Bainbridge Island (WPB 1343)--home port: 
                Sandy Hook, NJ
                <bullet> USCGC Pea Island (WPB1347)--home port: St. 
                Petersburg, FL
                <bullet> USCGC Knight Island (WPB 1348)--homeport: St. 
                Petersburg, FL

    Chairman Warner. Secretary Johnson, you raised a very 
important point about the statutory provisions in laws that 
enable the Coast Guard to do certain actions in reference to 
boarding that is not available to our forces. Maybe it ties 
into the review the Secretary is undertaking. But I think in 
these times when we are stretched so thinly and if it impacts 
on the Coast Guard to cover so many areas, that you might 
revisit that legislation to determine whether or not some 
authority, albeit maybe temporary, would enable the forces to 
maintain this task.
    Secretary Johnson. In hostile situations, we do not have a 
problem. But in nonhostile situations, we do. But we will look 
at that.
    Chairman Warner. I do not want to have the Coast Guard 
impacted in the ability to carry out so many of its functions 
because of the necessity to have Coast Guard personnel or a 
ship, as the case may be, present. Thank you very much.
    The chair is going to remain here for a number of wrap-up 
questions, but Senator Levin has commitments. I will yield to 
him and Senator Allard, then do the wrap-up.
    Senator Levin. Thank you, Mr. Chairman, as always, for your 
courtesy. First on the end strength issue. You commented on 
this before, but when I asked the question in a little 
different way. Given the fact that our forces are so widely-
deployed in such great numbers, given the fact that we have 
such huge demand and stress on our Guard and Reserve Forces, do 
you believe it is likely that you will be asking for an 
increase in the end strength of your Army and your Navy? Is it 
likely you'll be asking for an increase?
    Secretary White. Senator, we have discussed this before. 
The Army has had an active duty end strength Guard plus Reserve 
of 510,000 for 18 months. While there are certainly 
efficiencies that we can make within the 480,000 end strength 
cap to get military people doing military jobs and freeing up 
those spaces, if the operational tempo stays where it is in 
Operations Noble Eagle and Enduring Freedom going forward, we 
are over strength right now. We have Stop-Lossed 3,000 people. 
Our retention numbers are better than we had expected so we are 
at about 489,000 as it is. I think it's going to be a prime 
topic of discussion.
    Senator Levin. Is it likely you, Secretary Johnson, will be 
asking for increase in end strength?
    Secretary Johnson. Not likely. We are 2 percent over 
strength now and Marine Corps has a Stop Loss which puts them 
over also.
    Secretary Roche. We are in a situation where we are over 
the 2 percent right now. We have found 2,000 airmen not working 
for the Air Force. We are trying to bring 6,000 of them back 
in. I agree with Secretary Rumsfeld. 600 some communicators in 
the Pentagon easily handled by a contract out, which we are 
doing. When we finish with that, we will come back. It's 
distorted now, Senator Levin, because pilot retention is way 
up. Recruiting--we have recruited this year--finished early. We 
see that happening and re-enlistments are happening as well. 
It's what's distorted. As of right now, we do not see asking 
for end strength increase.
    Senator Levin. Secretary White, are you aware of proposals 
to merge the staffs at the Office of the Secretary of Defense 
and the JCS?
    Secretary White. It was brought up in this hearing when you 
had the chiefs here. I had not seen the paper. I have heard 
because it has been discussed here in committee and discussed a 
little bit over in the department.
    Senator Levin. Have you been briefed on any such proposal?
    Secretary White. No.
    Secretary Johnson. I have read about it. I have not been 
briefed.
    Secretary Roche. No, sir.
    Chairman Warner. Senator, such an important question. Do 
you have any basis, in fact, to say there is any official 
circulation of a document and it leads to the question whether 
or not the Secretaries, who in my judgment are an integral part 
of any formal policy should be involved? I do not know of an 
official document and I do not know if the Secretary has 
omitted the process.
    Senator Levin. The question is whether there is a draft 
floating around which our Secretaries have been briefed about, 
or at least the idea has been briefed to them. The answer is 
no.
    Secretary Roche. I know of no draft and have not been 
briefed.
    Senator Levin. We have all kinds of reasons to believe 
there are proposals floating around for both areas of the 
length of service of the chiefs and in terms of merger of the 
staffs. I believe those proposals are floating around the 
building, but my question is whether they have been briefed on 
it. Their answer was no.
    Secretary Roche. Sir, you raised a new one, length of 
service of the chief. We have had a dialogue with our boss and 
he has listened to our views.
    Senator Levin. There has been dialogue?
    Secretary Roche. Length of service of chief, combatant 
commanders, Chairman and Joint Chairman.
    Secretary Johnson. Absolutely sir.
    Secretary White. Yes.
    Senator Levin. I did not mean to throw that curve ball. I 
appreciate your catching that. Two different subjects we are 
interested in. One of them you said there have been 
discussions, one of them there have not been, and that's 
acceptable to me.
    Secretary Roche, on the tanker issue, has the decision been 
made about tanker leasing?
    Secretary Roche. No, sir.
    Senator Levin. Is there anything in this budget, any item 
that presumes the outcome of such a decision?
    Secretary Roche. I'm keeping the word that I gave you last 
year. In the budget is plan A, which is that the lease will not 
occur and we have to continue to buy tankers later in the 
decade. So therefore we could not ask Secretary Rumsfeld to 
approve our budget if in fact that made conditions for him 
approving the lease.
    It assumes a negative outcome that says we will buy later 
in the decade because we could not ask him to make a decision 
on the budget without having made a decision on resources. The 
office of the Secretary of Defense has been working on this for 
some time. We are hoping it will happen shortly. I can't tell 
you, Senator. I know Secretary Rumsfeld is getting frustrated 
that gestation period for this is growing. We are about 
elephant size now.
    Senator Levin. He doesn't get easily frustrated so 
something must be going on. Thank you all.
    Chairman Warner. The chair observes the Senator from 
Georgia has arrived, if you would like to be recognized.
    Senator Chambliss. Sorry I'm running behind, gentlemen. 
It's one of those days full of hearings. I appreciate your 
conversation yesterday, Secretary Roche. We look forward to 
continuing to work on that issue and as Chairman of the 
Personnel Subcommittee, I look forward to working closely with 
you to make sure all of our men and women are well. I know 
that's your intention.
    Secretary Johnson, I have a question for you with respect 
to the C-130J multiyear program. We worked awfully hard last 
year to include the language in last year's Defense 
Authorization bill for multiyear procurement of the C-130J, 
both the Air Force and the Marine Corps. I know that work is 
being done to get the planes on contract, and most of the 
information is with the Comptroller's office. However, I 
understand the Navy has not provided all the paperwork that is 
needed and this is holding up the contract. Can you tell me 
when the Navy will finish submitting the paperwork so we can 
move that contract forward?
    Secretary Johnson. We are participating with the Air Force 
on the C-130J.
    Senator Chambliss. It's my understanding that paperwork has 
been there for sometime and hasn't come out of the Navy. It's 
been sitting there for several weeks. If you can follow up on 
that, I'd appreciate it.
    Secretary Johnson. I will follow up.
    [The information referred to follows:]

    The Navy completed the required paperwork for the C-130J Multi-Year 
Program and the contract was signed on March 14, 2003.

    Senator Chambliss. Thank you. That's all I have, Mr. 
Chairman.
    Senator Allard. Thank you, Mr. Chairman. I'm pleased with 
the way the missile defense program is moving along, and the 
question I have of the Secretaries is this. What are you doing 
to assure that missile defense is going to be a core competency 
in your Service?
    Secretary White. Senator, from the Army's perspective, it 
always has been and we will get back from the Missile Defense 
Agency control of the PAC-3 program which is critical to 
terminal phase defense. Our component command of STRATCOM is 
reestablishing Fort Greeley, where the test site will be, and 
of course, we also run the test range so we are very heavily 
involved in this. It's always been a core competency of the 
Army and I think will be an integral part of the defense.
    Secretary Johnson. We have given use of the U.S.S. Lake 
Erie to the Missile Defense Agency to do their work on 
experimentation and so forth. We have identified five other 
ships and missile defense systems on board. We are working with 
the Missile Defense Agency to develop better missiles. We have 
the capability on the launch end, and we would like to have 
longer capability to get in the mid range. We are leaning 
toward a good partnership from our perspective.
    Senator Allard. Secretary Johnson, I think in the test 
phase we have allocated money to the land-based and then also 
some to the Navy, too. I was thinking the number that we 
allocated to the Navy was more than what you just mentioned.
    Secretary Johnson. 20 missiles. But five ships we are 
talking about here. One has a tracking capability. The others 
have vertical launch system capability and we have the 20 
missiles allocated. We plan to develop better missiles.
    Secretary Roche. Senator, the United States Air Force is 
heavily involved in this defense, but certainly from space and 
things like high and low, those problems. We work closely with 
the Missile Defense Agency on the airborne laser, very delicate 
project at Edwards Air Force base. It would be infrastructure 
for missile defense.
    Senator Allard. Mr. Secretary, when I first came on to this 
committee, I had the opportunity to serve as Chairman of the 
Personnel Subcommittee. At that particular point in time, we 
were struggling with how it is we were going to retain our 
specialty areas. My question is right now how are we doing at 
retaining individuals in these specialty areas? We put some 
provisions in that legislation so that there could be salary 
adjustments for people in the private sector. I'd like to hear 
from all three of the Secretaries on how they view our ability 
to retain and recruit individuals into various specialty areas 
that we were having difficulty a number of years back.
    Secretary White. As it stands right now, retention across 
the board and paid incentives that support specialty areas are 
in good shape. The question is will we be able to sustain that 
going forward.
    Secretary Johnson. We in the Navy and Marine Corps are in 
outstanding shape. Marine Corps has always been able to retain 
as many as they wanted to. Now I have to worry about if there 
is a slot in the particular specialty the person wants to stay 
in. But we are able to do 90 percent of the ones who want to 
stay. We have to move a few to a different specialty.
    In the Navy, we have been focusing on a more mature, older 
force. We have some 71 percent that are past the initial part 
in the Navy; we expect to drive that to 75. With that, of 
course, comes a difference in cost because they are more 
senior, but when you look at the requirement to train new 
people and the cycle, the additional cost to keep the more 
senior, more capable people is well worth it.
    Secretary Roche. Senator, the help that Congress has given 
us is really a godsend. It's helped us to deal with navigators, 
battle managers, scientists, engineers that we are looking at 
so it has been really a help to us to be able to focus. There 
are still some specialties in demand. We are still behind in 
the pilots, but at least we are filling up the school.
    Some of our specialties are clearly things like security 
forces, which there is an unexpected demand for. Some unique 
ones, like specialties who know hot to handle fuels become very 
critical folks. Rehooks, civil engineers are in great demand 
elsewhere. Another thing we try is to make education part of 
why you want to be in the Armed Forces, not just things like 
the college.
    For the first time, we have had enlisted members at the Air 
Force Institute of Technology Air Force degrees, we have eight 
airmen and six marines. We have tailored the officer program 
much more with very good degrees that will help us and help 
them in later life, which gives them a reason to be part of us 
for a longer period of time.
    Senator Allard. Secretary Roche, I have a question on our 
access to space which is essential to our military operations. 
The EELV program has been critical for assuring that we do have 
that access. Is the Air Force willing to commit to in the long 
term to having two service providers for EELV programs? There 
are some programs where we did not have duplication of effort 
and we have gotten into trouble. I'm concerned that if we end 
up with sole source here that if we discover a problem with one 
of these vehicles, we do not have back-up. This is survival. 
I'd like to hear your comments on this.
    Secretary Roche. Sir, I had the pleasure of being on the 
staff of the Intelligence Committee. At the time, it was the 
sense of Congress that we should make sure we had a back-up. 
I'm very mindful of that. We are convinced we need two 
different launch vehicles. Right now that's two launch 
providers.
    Every now and then we think is there a sensible way we 
should reduce costs given that commercial demands do not 
appear. If you maintain two design teams and combine overhead 
functions, we are not there yet. It's clear we need two 
separate designs in case there is a class problem so we do not 
get caught.
    Senator Allard. Mr. Chairman, I have one more question. 
This has to do with what is the Air Force doing to protect our 
space assets? Perhaps this is a question that cannot be 
answered. There may be some things that you can answer in this 
setting and in relation to that I'm concerned about our 
security as far as cyberspace is concerned as well. During 
these times of conflicts, I know there is an unprecedented 
amount of hits coming in to the Pentagon and various computer 
systems. So I'm interested in how you are addressing this 
issue. If you could deal with the space aspect and maybe all of 
you would be willing to respond to the cyberspace issue, I 
would appreciate it.
    Secretary Roche. Senator, it would be very hard in open 
session to talk to you about the subject. I can say the 
following. I have been telling everyone that the space field is 
going to be something exciting in the future. People are going 
to start to play games. The game is going to be an interesting 
game, and they are going to start developing doctrine not 
unlike naval doctrine and air doctrine and the GPS jammer which 
we developed on our own, to see the fact that the jammer is on 
the market is really the first overt move for war and space.
    It's intended to deny us of the use of space. This kind of 
a game is going to go on. Understanding what we might be able 
to do in other circumstances is clearly something I would be 
delighted to talk to you about in an appropriate setting.
    Cyber is in many cases the same. We have been hit. Our tri-
defense industry cycle company by company and tries to overload 
that company and put it out. That continues. Making sure 
firewalls work must go on, but it's something that's also been 
looked at as it should.
    Secretary Johnson. We are working the second problem, all 
of us together.
    Secretary White. I would agree with that.
    Senator Allard. Not only the companies, but Congress here. 
We had a day this month where we were completely overloaded, 
and it was an intention to try and make it difficult for our 
offices.
    Secretary Roche. They smoked a server and put a server on 
fire when I got hit.
    Senator Allard. Thank you very much.
    Chairman Warner. Thank you, Senator, especially for your 
help with the Armed Services and the Academies.
    Chairman Warner. Gentlemen, with regard to the proposals 
forwarded by the Secretary of Defense to Congress earlier this 
week, and the article in The Washington Post today, those 
proposals in large measure track the ones that were brought up 
to Congress late in the session last year. We simply were not 
given time, I think, to adequately review them, and to secure 
the measure of relief that is necessary. But this engagement 
with the environmental community is something which frankly I 
regret.
    I think all of us, whether we are environmentalists or 
otherwise, are concerned about the readiness of the men and 
women of the Armed Forces and their ability to carry out their 
assigned missions and that directly relates to the training 
that they receive. So it seems to me it's an all America 
question to strike a balance here.
    I will read one quote of Michael Jansy, a senior policy 
analyst for the National Defense Council, charged that ``this 
bill is a rollback of almost every major environmental law on 
the books.'' I have been around now a very long time, and I can 
see what is going on here. But I'm going to continue to work on 
this issue as I have in the years past to see whether we cannot 
get a realistic balance between what is needed by the military 
and no damage to the framework and environmental laws which 
recognize a struggle in Congress over many years.
    My dearly departed friend, John Chafee, who I served with 
on the Environmental and Public Works Committee, who, as a 
matter of fact, recruited me to serve on that committee, and 
now I find myself as the senior Republican on that committee, 
with Senator Inhofe the current chairman of that committee. He 
is very active on that issue. Our distinguished colleague, 
Senator McCain, Chairman of the Commerce Committee, will have 
part of it, so the three committees that work together are 
trying to achieve a careful balance.
    It's very important, however, that this hearing today 
reflect the positions of the three military departments on the 
whole with reference to what hierarchy will you assign to this 
issue, and the need for Congress to provide some remedies that 
you are able to continue that level of training that you think 
is essential. So we will start with you, Secretary White.
    Secretary White. Mr. Chairman, I think it's imperative that 
we have the ability to balance environmental protection of the 
lands that we occupy and train on with the requirements to 
train and sustain a ready force. We have traditionally been 
very good stewards of the environment, and I think our track 
record is excellent. It's not an issue as you would suggest as 
the article suggested that we want to roll back this 
legislation.
    What we are seeking is the flexibility to be able to 
balance these requirements on a single piece of ground, and 
what we find is we are becoming more and more limited because 
the way the laws are interpreted in being able to strike that 
balance. So for us, it's tremendously important that this 
legislation be fast and that we have the opportunity to make 
that balance.
    Chairman Warner. The anecdotal story in this area, I 
remember 10 or 15 years ago that we had an issue before this 
committee that the Red-Cockaded Woodpecker was a magnificent 
bird and it was on an Army base. It was in the environmental 
community being challenged, and when we got into it we found 
that indeed the operation of the tanks and the artillery did 
take its toll on some of the birds, churned up the ground but 
finally, that case was resolved on the following: we found that 
the number of woodpeckers had tripled because that operation 
with the equipment and the training increased the food supply.
    Just a little quick note. I have a constant battle within 
my own family. I have three wonderful children who really spent 
a lot of time in a serious way on this subject, so I have 
accountability myself. I want to probe this fully and get some 
relief. Secretary Johnson.
    Secretary Johnson. Yes, sir. We work very hard in outreach. 
Last year, we brought the proposals to Congress at the last 
moment. This year, we have been able to continue the dialogue 
with the various committees and people who have answers. We 
have been able to work with the other agencies within 
government to gain support for the things we want to do and in 
some cases we want to do it for defense.
    They would like to do it for the entire Nation, but there 
are different issues with economic exploitation from the 
defense. We feel very strongly about the Marine Mammal 
Protection Act, and have agreement with NOAA on that and of 
course the Endangered Species Act, we would like to do the 
integrated natural resource management plans, and those are two 
big ones.
    Last year, you gave us the Migratory Bird Treaty Act that 
wasn't quite what we asked for, but we are going to try to work 
it in the context that you gave it to us working with the 
Department of the Interior before we come back and ask for help 
on that one.
    Secretary Roche. Mr. Chairman, this is very important. If 
you are an endangered species, come to one of our ranges and 
bring all your critter relatives with you. We care about the 
environment. They flourish very nicely. The major issue is as 
Secretary White stated, Mr. Chairman; there are interpretations 
going on that could be a problem. Much of this legislation 
before you is to ask that Congress resolve these so we do not 
wind up in court with every single one of our ranges tied up in 
court cases.
    We can get some resolution for those early. No one really 
wants to have any of our airplanes have to get a license for 
bird strikes, so many kills per day. That's sort of silly, but 
yet some could think of interpreting things that way. We do not 
mind when for instance one of our ranges has a certain type of 
antelope that's grazing. We just do not fly that day. We can 
live with the environment quite comfortably.
    Chairman Warner. Thank you. There is a quotation in The 
Washington Post article today attributed to the EPA, and it 
states as follows: ``I do not believe that there is a training 
mission anywhere in the country that is being held up or not 
taking place because of environmental protection regulations.'' 
I would appreciate if each of you would provide for the record 
such instances where it is the judgment of the military 
departments that there have been clearly documented areas where 
the training has been impaired as a consequence of these 
interpretations that the Secretary alluded to and, in your own 
professional judgment, how that degrades readiness.
    Secretary White. Be happy to.
    Secretary Roche. Delighted, sir.
    Secretary Johnson. Yes, sir.
    [The information referred to follows:]

    Secretary White. I believe Governor Whitman's comments were 
intended to address the Federal statutes under the Environmental 
Protection Agency's (EPA) purview, so I will focus my comments on those 
laws. Nonetheless, I would like to point out that many of the 
environmentally based constraints on Army training stem from 
requirements of laws outside of EPA's purview, i.e., the Endangered 
Species Act (ESA) and mitigation measures imposed as a result of the 
National Environmental Policy Act process.
    The Army's primary concern with statutes within the purview of the 
EPA are those of the expanding application of pollution control laws to 
live-fire training activities. The Army is currently litigating 
allegations that firing activities at Fort Richardson, Alaska, violate 
the Resource Conservation and Recovery Act (RCRA); the Comprehensive 
Environmental Response, Compensation, and Liability Act (CERCLA); and 
the Clean Water Act. Plaintiffs are seeking to halt live-fire training 
and require remediation of the Eagle River Flats impact area. This 
would dramatically impact the training of the 172nd Infantry Brigade, 
the largest infantry brigade in the Army. If the suit is successful, it 
would set a precedent that could subject live-fire training and testing 
at more than 400 Army operational ranges to permitting and remediation 
actions under these laws.
    It is interesting to note that the expanded application of 
environmental laws to military ranges is not coming from regulatory 
agencies, but from citizens' suits seeking novel interpretations of 
these laws. The DOD has worked closely with the EPA to develop tailored 
and narrowly drafted legislative proposals that will clarify the 
applicability of both RCRA and CERCLA to our operational ranges. These 
proposals seek to codify the long-standing EPA policy, established by 
the Clinton administration, that firing ammunition on an operational 
range is not a trigger for cleanup requirements.
    The EPA issued a series of administrative orders under the Safe 
Drinking Water Act that shut down artillery and mortar firing and 
pyrotechnics use at the Massachusetts Military Reservation (MMR). These 
actions significantly curtailed National Guard training at that 
installation. As a result, the Army has had to permanently displace 
this training to alternate locations. Units from the Massachusetts 
National Guard must travel over 400 miles to train at Fort Drum, New 
York. We continue to conduct some limited training at MMR under 
restrictions designed to protect the aquifer that underlies the 
installation. It is important to note that the legislative 
clarifications DOD is seeking would not have affected the outcome of 
this case or the authority of the EPA to take such an action under the 
Safe Drinking Water Act.
    Secretary Johnson. The following are examples of where 
environmental protection regulations are impacting readiness: 

        <bullet> Due to the complexity of applying environmental laws 
        to military activities, the Navy's premiere sonar system for 
        detecting diesel submarines, operated by countries like North 
        Korea, Iran, and China, currently operates under the 
        restrictions of a court order limiting where and when the 
        system can be used. This summer, the court will rule on future 
        use of the system. 
        <bullet> During the last 6 years of Navy research on how to 
        counter mines and detect submarines in shallow water, over 78 
        percent of the tests have been delayed, scaled back, or 
        canceled due to the impact of environmental regulations. 
        <bullet> Lack of clarity in the definition of ``harassment'' in 
        the Marine Mammal Protection Act is delaying the establishment 
        of shallow water training ranges to prepare sailors to fight 
        and win in the littorals, the Navy's most difficult 
        battlefield. 
        <bullet> Navy's fleet exercises face severe limitations to 
        avoid potential ``harassment'' of marine mammals.

                <bullet> Exercises to protect ships from submarines and 
                mines in narrow, shallow straits, such as the Strait of 
                Hormuz in the Persian Gulf, have been moved to less 
                realistic conditions in deep water.
                <bullet> Some exercises forced to adopt aerial and 
                other visual surveys for sea turtles and marine mammals 
                can only be done in daylight. The mitigation denies the 
                ability to train at night.
                <bullet> Environmental factors--including application 
                of the vague definition of harassment--often conflict 
                with the operational need for the training and increase 
                the time away from home for sailors. 

        <bullet> There are 17 miles of beach at Camp Pendleton, 
        California, but due to environmental restrictions and urban 
        encroachment, only 1,500 meters is available to practice 
        amphibious landings and movement from the beach using all 
        Marine Corps combat vehicles. Even within this 1,500-meter 
        beach, all military vehicles must stay on designated roads. 
        <bullet> Due to EPA-based restrictions in the Mariana Islands, 
        this year's multi-national exercise Tandem Thrust will not 
        include amphibious landings using air cushion landing craft--
        the best heavy-lift capability we have. 
        <bullet> Proposed critical habitat designation on military 
        lands in Guam--for species not currently present, but which the 
        Fish and Wildlife Service would like to introduce as a solution 
        to special interest lawsuits--threaten to shift the core 
        mission of these Government-owned lands from military readiness 
        to one of environmental protection.
    Secretary Roche. In terms of the affects to our readiness, 
realistic training is important to all Services and joint operations is 
and will continue to be a decisive advantage in future conflicts. 
Ensuring that the other Services have the resources necessary to train 
realistically is just as important to the Air Force as our own 
training.
    The Air Force and John Peter Suarez, Assistant Administrator, 
Office of Enforcement and Compliance Assurance, U.S. Environmental 
Protection Agency, are in agreement that in its history, there is only 
a single instance when the EPA took an enforcement action that halted 
live-fire training at a range. The installation that was affected was 
the Massachusetts Military Reservation (MMR) on Cape Cod, 
Massachusetts. Live-fire training had to be shifted to another facility 
but some training was able to be continued such as small arms training, 
as well as other training without using explosives, propellants, and 
pyrotechnics.
    Environmental plaintiffs have filed suit at Fort Richardson, 
Alaska, alleging violations of Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA) and Alaska antipollution law 
applicable under Resource Conservation and Recovery Act (RCRA). If 
successful, they could potentially force remediation of the Eagle River 
Flats impact area and preclude live-fire training at the only mortar 
and artillery impact area at Fort Richardson thereby dramatically 
degrading readiness of the 172nd Infantry Brigade, the largest infantry 
brigade in the Army. It could also set a precedent fundamentally 
affecting military training and testing at virtually every test and 
training range.
    The proposed Range Readiness Program Initiative (RRPI) legislation 
would codify and confirm the longstanding regulatory policy of EPA and 
every State concerning  regulation of munitions use on operational 
ranges under RCRA and CERCLA. It would confirm that military munitions 
are subject to EPA's 1997 Military Munitions Rule while on range, and 
that cleanup of operational ranges is not required so long as material 
stays on the range. If such material moves off-range, it still must be 
addressed promptly under existing environmental laws. Moreover, if 
munitions constituents cause an imminent and substantial endangerment 
on range, EPA will retain its current authority to address it on-range 
under CERCLA section 106 (our legislation explicitly reaffirms EPA's 
section 106 authority).
    The legislation similarly does not modify the overlapping 
protections of the Safe Drinking Water Act, NEPA, and the ESA against 
environmentally harmful activities at operational military bases. The 
legislation has no effect whatsoever on DOD's cleanup obligations under 
RCRA or CERCLA at Formerly Used Defense Sites, closed ranges, ranges 
that close in the future, or waste management practices involving 
munitions even on operational ranges (such as so-called Open Burning 
and Open Detonation (OB/OD) activities).
    The Endangered Species Act provision would confirm the prior 
Administration's decision that an Integrated Natural Resources 
Management Plan (INRMP) may in appropriate circumstances obviate the 
need to designate critical habitat on military installations. The prior 
administration's decision that INRMPs may adequately provide for 
appropriate endangered species habitat management is being challenged 
in court by environmental groups, who cite Ninth Circuit case law 
suggesting that other habitat management programs provided an 
insufficient basis for the U.S. Fish and Wildlife Service to avoid 
designating critical habitat. These groups claim that no INRMP, 
regardless of how protective, can ever substitute for critical habitat 
designation. This legislation would confirm and insulate the U.S. Fish 
and Wildlife Service's policy from such challenges.
    The Defense Department's proposal has vital implications for 
readiness. Absent this policy, courts, based on complaints filed by 
environmental litigants, compelled the U.S. Fish and Wildlife Service 
to re-evaluate ``not prudent'' findings for many critical habitat 
determinations, and as a result U.S. Fish and Wildlife Service proposed 
to designate over 50 percent of the 12,000-acre Marine Corps Air 
Station (MCAS) Miramar and over 56 percent of the 125,000-acre Marine 
Corps Base (MCB) Camp Pendleton as critical habitat. Without the 
legislation, the Air Force may face restrictions at Beale AFB, Travis 
AFB, and Andersen AFB as a result of proposals to designate critical 
habitat currently being evaluated. Unlike Sikes Act INRMPs, critical 
habitat designation can impose rigid limitations on military use of 
bases, denying commanders the flexibility to manage their lands for the 
benefit of both readiness and endangered species.
    The Clean Air Act's ``general conformity'' requirement, applicable 
only to Federal agencies, has repeatedly threatened deployment of new 
weapons systems and base closure/realignment despite the fact that 
relatively minor levels of emissions were involved.

        <bullet> The planned realignment of F-14s from NAS Miramar to 
        NAS Lemoore in California would only have been possible because 
        of the fortuity that neighboring Castle Air Force Base in the 
        same airshed had closed, thereby creating offsets.
        <bullet> The same fortuity enabled the homebasing of new F/A-18 
        E/Fs at NAS Lemoore.
        <bullet> The realignment of F/A-18 C/Ds from Cecil Field, 
        Florida, to NAS Oceana in Virginia was made possible only by 
        the fortuity that Virginia was in the midst of revising its 
        Implementation Plan and was able to accommodate the new 
        emissions. The Hampton Roads area in which Oceana is located 
        will likely impose more stringent limits on ozone in the 
        future, thus reducing the State's flexibility.

    As these near misses demonstrate, under the existing requirement, 
there is limited flexibility to accommodate readiness needs, and DOD is 
barred from even beginning to take readiness actions until the 
requirement is satisfied.

    Chairman Warner. Now, homeland defense. When I visited with 
our troops in the Gulf region here recently with my 
distinguished good friends and colleagues, Senators Levin, 
Roberts, and Rockefeller, everywhere we went, we talked about 
homeland defense and I explained to them that the military's 
mission for homeland defense begins right where they are in the 
far-flung outposts across the world where these individuals in 
many cases are taking a lot of risks to perform their missions 
because to the extent we can intercept, curtail, reduce, 
capture, crush, or otherwise stop individuals and 
organizations' participation in worldwide terrorism, this 
lessening of the chance that it will be brought to the shores 
of the United States.
    So I look at defense of homeland of the military as not 
just embracing our security here in the continental United 
States, but in every outpost throughout the world. I think it's 
important that this record reflect what each of your 
departments is doing in this area and the coordination efforts 
that are underway with the newly created Department of Homeland 
Defense. Start with you.
    Secretary White. Mr. Chairman, first of all, the homeland 
defense mission is always foremost for us. A lot of changes in 
the department, the standing up of a combatant commander, 
General Eberhart with NORTHCOM, we have headquarters in the 
Army that work directly with him as we do other combatant 
commanders around the world to ensure that we have force, 
responsive forces should the need arise to take care of that.
    Second, we have invested a lot of money in antiterrorism 
force protection initiatives to better protect our 
installations to protect our people.
    Third, we have done a lot of coordination with the National 
Guard so that if we take units that would be used in a first 
response and federalize them and deploy them someplace, the 
States have compacts in place with the surrounding States that 
can fill in those holes so that the local capability is not 
lost. So there are a whole series of initiatives ongoing within 
the overall envelope of homeland security. We are in much 
stronger position now than we were 18 months ago.
    Chairman Warner. Thank you, Mr. Secretary.
    Secretary Johnson.
    Secretary Johnson. My predecessor, Gordon England, put it 
very well when he talked about homeland defense. We want it to 
be an away game, as you were explaining, to the troops 
overseas. We want to take the actual battles to the source and 
we support Northern Command as well as Secretary White has 
described.
    We have a Marine and Navy component. The Marines stood up 
focused on these sort of activities, so we take it very 
seriously, our strong partnership not only with Northern 
Command, but homeland security and others associated.
    Secretary Roche. Mr. Chairman, this is a big thing for us. 
With NORTHCOM and NORAD associated, we have netted all the 
radars inside the United States as compared to the case where 
we only worried about the periphery, so if we have a track of 
interest, we need to put fighters on it.
    Depending on the threat level and where the President of 
the United States is, you know we have special things in place. 
We have AWACS, tankers, accounts for 20 bases, over 200 
aircraft every day are tied up in this, and prepositioned C-
130s to be able to move Marine and Army units. This is big to 
us. It's costly to us. It's wearing our planes out faster, but 
we have a very close relationship with NORTHCOM, and General 
Eberhard knows the demands he places on us.
    Chairman Warner. Secretary Roche, I have a very detailed 
and technical question regarding a program and I'm going to put 
it in the record.
    Secretary Roche. I'd be delighted to, sir.
    Chairman Warner. We monitor that program with care. Do we 
have concerns over these cost overruns and consequences of 
financial diminution and size of the force?
    Secretary Roche. Yes, sir.
    Chairman Warner. The subject of the Montgomery GI Bill 
benefits from taking these trips and getting down to these 
troops in the field. They are concerned about their families 
and different things but a number of them asked me and my 
colleagues about this program.
    Congress--I was very active in this--gave you authority 
with regard to transferability of benefits. For those who may 
be following and are not familiar with this, the service 
person, male or female, whatever the case may be, earns the GI 
Bill, and in some instances, they complete much of their 
education or they feel as a parent that they should give that 
very important asset that they earn through their service to 
their spouse or their children. Each of the departments has 
treated this in a different manner. Let us just start with the 
Secretary of the Air Force first.
    Secretary Roche. I'm not up on how we deal with it. I know 
I have talked with some of our senior-enlisted. They agree this 
is something that would be useful if it was given to the 
senior-enlisted because they made decisions to stay in the 
Service, as opposed to going outside. They are probably not 
going to go to college, and, therefore, they feel they are 
losing something. They would like to see a transfer, but with 
regard to exactly how we are handling it, I will have to get 
back to you.
    Chairman Warner. This is on the minds of these young 
people, I tell you, very much so. I'm hopeful that you will 
avail yourself of the authority. I have very modest, relatively 
insignificant, tours of duty in the Navy and Marines, but I'm 
here as a United States Senator solely because of the GI Bill.
    I received very generous treatment from two modest tours of 
active service, and I just feel that I want to participate with 
my colleagues on this committee and other members of the Senate 
in providing for the current generation of people in the 
service in a manner that's so generously given to me, to use 
it. If not, we will make it mandatory.
    Secretary Johnson. As I talk, as you do, to these people, 
this subject comes up. Our approach is to try to use it as a 
retention tool for senior NCOs. In particular, to have it more 
focused as opposed to having a situation where a person can 
come in to gain that benefit.
    Secretary White. I would agree with both of my colleagues. 
That would be the final approach. We need to get on with it and 
make some decisions.
    Chairman Warner. I thank you for that commitment because 
there is one thing we all know from our service time in 
uniform. Boy, the word goes through the ranks fast. The big 
boys at the top are going to make it work. I understand your 
retention is at an all-time high and that's magnificent.
    Your recruiting is at an all-time high, but I have been 
here long enough to see this drop off and have serious 
problems. I hope we do not see those stressful periods again. 
So let us strengthen everything we can for these people.
    Unmanned systems has been a favorite subject of mine in 
this committee for a long time. I'm very proud of the strides 
that this committee made when I was privileged to be chairman 
some years ago and Senator Levin has continued to join me in 
periods of his chairmanship. In fiscal year 2001, this 
committee set the ambiguous goal of getting the technologies 
that would lead to the development of the fielding of unmanned 
operational combat systems.
    This budget continues to build on that goal by increasing 
funding for unmanned systems by more than 25 percent over last 
year's funding. I commend the administration's commitment to 
this transformation. Could each of you tell us your view of the 
role of unmanned systems in ongoing and future operations and 
what technology in unmanned systems requires more 
investigation? Start with Secretary Roche because he knows 
about the Predator. I was astonished we could do two a month.
    Secretary Roche. It's up to three now, sir.
    Chairman Warner. It was magnificent, very small company 
that has the patents, and it's not easy to go to a second 
source. Also, the highly technical part of that, down in the 
guts of it, hard to mass produce it.
    Secretary Roche. It turns out we looked seriously at 
whether we should have more. I took the planes one and a half a 
month to three a month making each of them a common fire wing. 
It's not the limiting feature of the sensor systems that you 
could put on these. Three a month if everybody will steady out 
in time will give us a very good output on a continuing basis.
    One of the things that's been interesting since your 
original legislation is we have had a lot of learning. We may 
be able to use things in the Afghan war. General Franks was 
really terrific to General Jumper and me and allowed us to take 
systems that weren't ready for prime time and deploy them 
knowing full well we are going to have failures and a bunch of 
other things. We have learned so much of that that our views of 
unmanned aircraft, remotely piloted aircraft, and unattended 
aircraft have changed and we are getting quite excited, to the 
point where we are attempting to replicate what occurred in the 
Army Air Corps in the late 1930s where different types of 
systems were developed, airmen got together and used them from 
that developed doctrine.
    There is a point where Congress passed a law on the limit 
of the length that a bomber could fly, that we gave the planes 
to the Navy. Series of things that we have done and that were 
dramatic in World War II. Right now, we know certain systems 
require pilot in the loop.
    It's the instinct of that young officer who takes the plane 
and turns it in such a way that for most radars--it's called a 
zero doppler notch--there is not enough doppler. Therefore, the 
fighter plane cannot see it. We have been shot down once, but 
these tactics that they have learned as pilots become very 
handy.
    Also, since these things can be attack systems, we want the 
same officer responsibility that we have in all of our other 
systems. That can be done by keeping the pilot in the loop, 
remotely pilot the aircraft. Then there is Global Hawk. Where 
Global Hawk has long-term persistence, very high altitude and 
Global Hawk can give you a U-2 complement.
    We are thinking of taking things from space and linking 
down. For instance, we could in fact have reinforced GPS 
signals from Global Hawk orbits or provide a local area 
communication system without having to use all the bandwidths 
on a particular region. Working these through, we have tried to 
provide self defense on some of our drones.
    We have other families. Predator will go higher and faster. 
We consider it a hunter killer. The electronics and avionics 
are appropriate for a remotely unattended aircraft, just having 
a pilot, it's going to dance on its hind legs. But now that 
it's dancing, what do you do for it? If we can tailor it, they 
can make a contribution to war. Hunter killer would be designed 
to do automatic cueing.
    We are borrowing things we have learned from the Navy. This 
thing can hunt, hunt, hunt. Let us know when it all of a sudden 
sees a match; then we can put the pilot back into the loop and 
act like a typical attack officer who will take responsibility 
for the attack he conducted. We find this to be a very exciting 
thing. There are some that have been in the classified world. 
We will have multiple families and figure out where the 
comparative advantages are.
    We know some place where there is no comparative advantage. 
When it comes to judgment, you cannot beat the mind of a man or 
woman flying the plane. We take areas where there is 
comparative advantage and assign those increasingly to these 
unattended or remotely piloted aircraft.
    Chairman Warner. Do you feel that the program is at about 
the right pace?
    Secretary Roche. Yes, sir. We have debates with some of our 
colleagues as to design and comparative advantage. What we 
really notice is persistence is terribly important. Long stay. 
What we call digital acuity, which means that a digital system 
does not tire the way an operator tires.
    As any of the three of us know, if you put someone on a 
radar scope, there is only so much time. You do that in digital 
domain, that thing will be as good at 23 hours as it was at 2 
hours. We find it to be a very exciting area, and no fighter 
pilots are complaining because they understand this is a good 
contribution to war, and they do not want to just bore holes in 
the sky searching.
    They have been able to work with these systems beautifully. 
With Predators, pilots have done laser bombing from our own 
drones, and when they talk to the little thing, it answers 
right back.
    Chairman Warner. Good. That's quite encouraging. Do you see 
other nations moving along at any pace near what the United 
States would achieve?
    Secretary Roche. No. But we are starting to see other 
interests. Some of the exports of the Israelis may come back 
and haunt us some day. But other countries are starting to 
recognize that there is something here. Even some country in 
the Middle East that you would otherwise not expect recognize 
the great advantage of using these vehicles.
    Secretary Johnson. Admiral Clark is working very closely 
with General Jumper on our joint unmanned vehicle development. 
We in the Navy have additional activities in the Marine Corps. 
One we would like to do more in the maritime arena.
    Ultimately, we are interested in having unmanned vehicles 
to do undersea activity to destroy mines and operate them from 
on board ships. There is a lot of science that has to be done, 
but we have great cooperation with all the Services, and we all 
have the same interest in moving forward. The Marines would 
like to have an expendable and see what is there.
    Secretary Roche. Something that's very exciting we have 
been doing is that there are some of these that are only this 
big but if you are trying to do base security overseas whether 
we are trying to do it for our bases or working with the Army, 
the Army has the intellectual lead here, and they have 
developed some of these that are just fabulous. John and I 
united in the desert up in the mountains to watch how they 
could effectively use these very small systems with very light 
cameras and do a terrific job at surveillance. So the whole 
field is exploding in some very interesting ways.
    Secretary White. In the current time frame, as Secretary 
Roche just said, we have been using the small robotic vehicles 
in Afghanistan to clear caves and do things that would be 
potentially hazardous. We are also fielding right now shorter 
range UAVs that Jim is talking about for our brigade commanders 
who are buying eight Shadows this year which the brigade level 
went. We are buying 800 UAVs for corps commanders and fielding 
those right now. In the Objective Force in the Future Combat 
System, there is a family of unmanned ground vehicles and a new 
family of unmanned aerial vehicles to support the force. So we 
are investing heavily in this and we appreciate your support.
    Chairman Warner. I have taken an interest, of course, in 
the civilian applications, but I'm also finishing up here very 
shortly communication to the administration urging that this be 
studied very carefully because of the potential to invade 
privacy. As the private sector takes much of the technology 
which the military departments have done on this in R&D and 
otherwise, and puts it into the private sector, that's 
something our country has to monitor carefully.
    Pay equity for soldiers stationed in Korea. Last month, I 
met with the general commander of the U.S. Army forces in 
Korea. We discussed hardship assignment to Korea with living 
and working conditions, family separation, and pay disparity 
comparative to those serving in Japan. I understand that 
soldiers are continuing to turn in resignations for officers 
rather than facing another tour.
    This is a tough question, Mr. Secretary. I know you are 
doing your very best. If you could just bring us up-to-date 
because I'm going to continue to monitor this. I spent some 
time over there, a short tour. The weather was challenging, to 
say the least.
    Secretary White. It's a difficult place to serve. We have 
people in several locations. We are examining the whole posture 
there as Secretary Rumsfeld talked about, but there are 
financial disadvantages to serving in Korea as opposed to other 
parts of the world. Consequently, we have a very high turn-down 
rate of soldiers put on assignment there.
    We have talked about it with the previous commander there, 
General Schwartz brought this up. We have had extensive 
discussions with the Office of the Secretary of Defense but we 
have not resolved anything at this point, and I'm going to 
continue to push.
    Chairman Warner. I have to say, Mr. Secretary, that every 
problem has a solution. In the course of this current bill that 
is to be written by this committee, I want to include 
provisions in it that will correct this. I have great respect 
for Secretary Rumsfeld and his team, but I guess there are 
times when Congress has to step out. No criticisms of the other 
co-equal branch of the government, the administration, but we 
are going to solve this. We are going to make some progress in 
this legislation this year.
    Secretary White. Good, sir. Soldiers will be better off for 
it.
    Chairman Warner. I have a personal interest, and now, of 
course, the Korean peninsula poses a very serious threat 
situation which I think is being commendably addressed by our 
President and others in a diplomatic manner.
    Gentlemen, I thank you for an excellent hearing today, very 
thorough, and I wish you well. We are adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John Warner

                    PREDATOR UNMANNED AERIAL VEHICLE

    1. Senator Warner. Secretary Roche, the Predator Unmanned Aerial 
Vehicle has proven to have tremendous operational capability. How many 
of these vehicles are currently in service? What is the current 
Predator production rate? What, if any, are the limiting factors to the 
production rate?
    Secretary Roche. The Air Force has 46 Predator Unmanned Aerial 
Vehicles in service with an additional 42 that are funded through this 
year. In October 2001, I directed acceleration in production to two 
Predator aircraft per month. This acceleration will continue with 
deliveries through 2004. The primary limiting factor to increasing 
production is our current production facility capacity. Within our 
current facilities, up to four Predator aircraft can be produced per 
month. This will, however, require additional production line 
employees, and an investment in additional production tooling.

                         F/A-22 RAPTOR AIRCRAFT

    2. Senator Warner. Secretary Roche, this past year, the Air Force 
changed the designation of the F-22 Raptor to the F/A-22. I want to 
commend the Air Force for recognizing the importance of capitalizing on 
this aircraft by expanding its mission to include a ground attack role. 
I also understand, though, that delays in the development program have 
caused cost growth in excess of $800 million, which has to be made up 
out of available production funds for the aircraft. What is your 
assessment of the causes for the delay and the cost growth in the F/A-
22 program?
    Secretary Roche. As a result of resolving several development-
related issues--such as fin buffet, canopy howl, and avionics 
stability--we extended the Engineering and Manufacturing Development 
(EMD) schedule to allow proper completion of envelope expansion flight 
testing, and avionics development and avionics flight testing. This 
extension reflects the fact that the program is event-driven, not 
schedule driven. We will complete all EMD content required to deliver 
an ORD-compliant aircraft to the warfighter. The resultant impact of 
the schedule extension is an $876 million increase to the EMD estimate-
at-completion (EAC). Of note, this amount includes a risk factor to 
increase confidence in the estimate. We sourced this EMD EAC increase 
from within the F/A-22 program. It is important to also note that this 
EMD schedule extension, and corresponding EAC increase, does not 
indicate a concern regarding aircraft performance, nor does it 
represent an increased risk of production retrofit.

                  PRECISION-GUIDED WEAPON INVENTORIES

    3. Senator Warner. Secretary Johnson and Secretary Roche, while 
only 10 percent of the air-launched weapons used in Operation Desert 
Storm were precision-guided, a much higher percentage of precision 
weapons have been used in more recent conflicts, such as Operations 
Allied Force and Enduring Freedom. Do you believe that the current 
inventories of these weapons are sufficient to carry out possible 
conflict with Iraq?
    Secretary Johnson. Yes, I believe that the current inventories of 
precision-guided weapons are sufficient.
    Secretary Roche. CENTCOM's munitions requirements for operations 
are being met. As a result of supplemental funding, the Joint Direct 
Attack Munition (JDAM) procurement program has been energized to reach 
a production rate of 2,800 units per month by July 2003. We are 
currently at a rate of over 2,400 units per month, and have in excess 
of 18,000 JDAM in the Air Force inventory. Overall, procurement of JDAM 
for the Air Force will exceed 150,000.
    Supplemental funding and increased emphasis on collateral damage, 
the Air Force has committed to procuring additional Laser Guided Bombs 
(LGBs), specifically the GBU-12 which has a 500-pound blast/
fragmentation warhead. The Air Force qualified a second vendor, 
Lockheed Martin, in the summer of 2002. As a result, the Air Force is 
procuring over 40,000 GBU-12s through the Future years Defense Plan 
(FYDP). Current production rate is 1,650 LGBs per month (accelerating 
to 2,000 by summer 2003), and we have in excess of 11,000 GBU-12s in 
the Air Force inventory.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

                             ARMY EDUCATION

    4. Senator Sessions. Secretary White, the Army has enjoyed a great 
reputation with their eArmyU program. You currently have roughly 35,000 
soldiers enrolled with many more on waiting lists. What do you see as 
the future for eArmyU and is the Army committed to funding this program 
so our soldiers can continue to gain educational benefits?
    Secretary White. The Army is committed to funding eArmyU as it 
expands from its current 14 sites to Army-wide status in 2005, at which 
time enrollment will reach 80,000. eArmyU is successfully reaching a 
new generation of soldier-students and helping them to achieve their 
academic goals. The program offers unprecedented academic access, 
choice, and flexibility and continues to set the standard in today's 
online learning environment.
    Today, eArmyU enrolls over 33,400 students. This number is expected 
to reach 40,500 by September 2003. eArmyU soldiers have access to 115 
degree and certificate programs through 23 colleges and universities by 
logging in to the eArmyU.com portal. We are currently in the process of 
adding 12 new institutions this year, which will soon bring our total 
to more than 30. What's even more exciting for us is the scope of our 
program. eArmyU is fulfilling the promise of ``anytime-anywhere'' 
learning. Soldiers located in 50 countries, four U.S. territories, and 
49 States are taking classes through the eArmyU portal. More than 135 
soldier-students have graduated as of February 27, 2003.
    The Army's purpose in creating eArmyU was to enhance traditional 
learning programs and services by providing an anytime, anywhere 
distance learning program that ensures eligible enlisted soldiers have 
full access and scholastic support to achieve their educational goals. 
We know that continued support to the program benefits not only the 
soldier, but the Army as a whole.
    As a testament that eArmyU is a long-term investment for the Army, 
I am pleased to report that the program is being transitioned into 
standard Army operations. Efforts are underway to incorporate eArmyU 
into the Army Knowledge Management structure. Additionally, we are 
developing concepts such as an education shared data warehouse, in 
which eArmyU's data management capabilities will be the cornerstone 
that allows us to leverage all current and legacy Army education data.
    Online education continues to reach a new generation of learners. 
e-Learning will become a dominant approach to educating a broad cross-
section of the American population in coming years. Finding ways to 
build enhanced and specialized academic support for online learners 
will continue to play an important role in this revolution. eArmyU will 
lead the way in providing the most effective e-Learning tools in the 
most cost-efficient e-Learning environment. 

                 NATIONAL GUARD FAMILY ACTIVITY CENTER

    5. Senator Sessions. Secretary White, during Operation Desert 
Shield and Operation Desert Storm, once the number of mobilized 
National Guard troops reached a certain level, the National Guard 
received Temporary Tour on Active Duty (TTAD) funds to staff Family 
Activities Centers (FAC) in each State with retired military personnel. 
These centers supported the families of deployed National Guard 
soldiers. I have been told that, to date, no funds have been received 
to support any FACs. With the numbers of deployed guardsmen approaching 
the number activated during Operations Desert Shield/Storm, there is a 
pressing need to ensure that we are taking care of the families of our 
guardsmen. Can you provide an update on the status of plans, to include 
funds expended or planned for expenditure, that address the obligation 
that we have to provide support for these family members?
    Secretary White. We did not receive any funding for this critical 
requirement. The National Guard Bureau provided a baseline requirement 
of $60 million to support this mission. This unfunded requirement was 
submitted to us for the global war on terrorism supplement. The Army 
National Guard borrowed $13 million from other accounts to support 
initial manpower requirements to ensure immediate family assistance and 
services were accomplished.
    During large activations and deployments, the Army National Guard 
sets up and operates Family Assistance Centers throughout the Nation to 
serve families. These centers are usually staffed with between one to 
three paid personnel and are expected to provide 24/7 on-call contact 
availability. Based on increased mobilizations, we estimate an eventual 
requirement for approximately 400 FACs across America. Of these 400 
centers, approximately 275 are currently operational. We have a 
statutory and regulatory obligation, as well as a moral imperative, to 
assist and support our military families. Full funding of this 
requirement is critical to the success of the Reserve component's 
mission accomplishment.

              AIR FORCE TECHNICAL TRAINING SCHOOL SUPPORT

    6. Senator Sessions. Secretary Roche, I understand that training 
slots for many different technical specialty schools are in short 
supply, and that the technical training schools are having difficulty 
meeting the demands of the Reserve customer. In the past, most 
reservists were prior active duty members, and joined the Reserve 
component already trained. However, today the majority of the people 
joining the Reserve are non-prior service. This change has led to an 
increase in the Reserve's training needs. Further complicating the 
issue of training and scheduling school dates is the reality that 
reservists must attempt to schedule their training around the needs of 
their civilian employers. Therefore, the reservist often cannot fill 
training school vacancies on short notice.
    Today, my Reserve unit reports that 57 Air Force technical training 
schools are already closed for fiscal year 2003. As a result, a new 
recruit joining the Air Force/Air Force Reserve today will have to wait 
a significant amount of time before being inducted because of this 
shortage of school slots.
    Do you see a need for increased capacity in Air Force technical 
training schools, and does the Service have any plans or initiatives 
underway to increase the number of training slots to meet the increased 
and changing nature of the demand?
    Secretary Roche. The Air Force is in the process of reshaping the 
force in response to the current security environment. Some Air Force 
Specialty Code technical schools met past capacity requirements, but 
are now feeling stressed because of meeting new or expanded mission 
demands. As we work through this force reshaping, schoolhouse 
requirements will be adjusted. Active and Reserve component 
requirements will be re-evaluated and enough seats made available to 
meet new steady state current and future requirements.
    In the interim, the timing of course dates may not be as 
convenient; however, sufficient seats will be available to accomplish 
Total Force mission requirements. Our focus is on making force-shaping 
adjustments while maintaining the most effective and efficient Total 
Force training pipeline possible. We expect to sustain adequate 
capacity given the size of the force we have today.

                   ENVIRONMENTAL LEGISLATION CONCERNS

    7. Senator Sessions. Secretary Johnson, in testimony before this 
committee, the Secretary of Defense and the Chief of Naval Operations 
have said that environmental concerns are weighing heavily on your 
ability to train. This negative impact, in turn, has negatively 
affected readiness. So that the record on this subject is clear, could 
you offer some examples, some evidence of this problem, and how you 
believe legislative relief will re-strike the correct balance between 
training and readiness and environmental stewardship.
    Secretary Johnson. With regards to the Marine Mammal Protection Act 
and the Endangered Species Act, the following examples and requested 
relief are provided.
Examples of Impacts from the Marine Mammal Protection Act
    1. Operational training and deployment of the Navy's Surface Towed 
Array Sonar System Low Frequency Active (SURTASS LFA) sonar system has 
been delayed for 6 years, even after the Navy invested $10 million on 
independent scientific research that showed the system could be used 
with negligible impact on marine mammals.
    2. During the last 6 years of research on how to counter mines and 
detect submarines in shallow water, over 78 percent of the tests 
planned by the Navy's Office of Naval Research (ONR) have been delayed, 
scaled-back, or cancelled due to environmental regulations having to do 
with marine mammals under the Marine Mammal Protection and Endangered 
Species Acts.
    3. Navy's efforts to establish permanent at-sea shallow-water 
training ranges for both the East and West Coast are being delayed by 
environmental regulations and the potential for litigation, 
particularly over how to apply the definition of ``harassment'' in the 
Marine Mammal Protection Act to Navy training.
How Congress Can Help By Passing DOD's Proposed Legislation for MMPA
    Clarifying the definition of harassment could reduce special 
interest group lawsuits that challenge regulatory agency 
interpretations of ``harassment.'' Special interest groups can 
overstate the impact of Navy activities with arguments based on vague 
terms such as ``annoyance'' and ``potential to disturb.'' A clearer, 
science-based definition based on biologically significant behavior 
could show that Navy activities actually impact only a minimal number 
of marine mammals. Clarifying the definition could also reduce 
unnecessary modification (dumbing down), delays or cancellation of 
valuable Navy training and testing.
Examples of Impacts from the Endangered Species Act and Critical 
        Habitat Designation
    1. In 1996, when 40 percent of the Chocolate Mountain Aerial 
Gunnery Range was designated as ``critical habitat'' pursuant to the 
Endangered Species Act, Navy sea/air/land (SEAL) training was 
negatively impacted. Before the designation, Navy SEALs conducted 
realistic training with multiple avenues of approach. Navy SEALs using 
this important range are now restricted to firing their weapons in a 
narrow field of fire to avoid firing toward the critical habitat.
    2. Environmental-based restrictions on training at Southern 
California ranges normally used by SEALs, including Endangered Species 
Act restrictions for birds at Naval Amphibious Base Coronado, have 
caused the SEALs to relocate much of their training. Utilization of 
military lands to protect species without recognizing the comprehensive 
impacts to the military is a constant concern.
    3. Environmental restrictions for the protection of birds and 
lizards at San Clemente Island, another important SEAL training range, 
significantly impact the use of live ammunition. As a result, the SEALs 
resorted to using blanks, paint balls, laser tag, and other simulated 
ammunition.
    4. Due to similar ESA-based restrictions in the Marianas Islands 
intended to protect sea turtles, the Tinian Monarch (a bird), the 
Micronesian Megapod (a ground bird), and the Marianas Fruit Bat, as 
well as providing protection for near-shore coral reefs, the amphibious 
landing portion of this year's exercise Tandem Thrust will not include 
landings on the beach by air cushion landing craft. Tandem Thrust is a 
multi-national exercise involving the U.S. and other allied nations 
(Australia, New Zealand, Canada, and others) supporting Commander, U.S. 
Pacific Command's warfighting readiness.
    5. The U.S. Fish and Wildlife Service recently proposed designating 
critical habitat on two Navy installations on Guam and Hawaii where the 
relevant endangered species are not currently present on Navy lands. 
Both these installations have Integrated Natural Resource Management 
Plans (INRMPs) for managing the natural resources that currently exist 
within their boundaries. The U.S. Fish and Wildlife Service's goal is 
to introduce these species on Navy land now dedicated to training. 
How Congress Can Help By Passing DOD's Proposed Legislation for ESA
    Changing the ESA so that an approved INRMP removes the need for a 
critical habitat designation will protect endangered species under the 
overall management plan for all natural resources.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins

                  LITTORAL COMBAT SHIP (LCS) AND DD(X)

    8. Senator Collins. Secretary Johnson, in its fiscal year 2004 
budget submission, the Navy includes $160 million for the LCS. Admiral 
Clark, the Chief of Naval Operations, has indicated that this is a top 
priority of the Navy in this year's budget. Last week, the Navy issued 
a request for proposals to build the first LCS. This vessel is aimed at 
providing the Navy with better capability to operate closer to shore. 
However, these kinds of ships cannot serve as a substitute for major 
surface combatant vessels. The Navy's budget submission also includes 
$1.1 billion for development of the DD(X) destroyer. I would like to 
hear your insights into the different capabilities that the LCS and 
DD(X) destroyer will provide. Is the development of DD(X), along with 
the LCS, a top priority for the Navy?
    Secretary Johnson. Development of both our next generation 
destroyer, DD(X), and the LCS is critical to the future Navy. Future 
surface combatants are optimized to perform key functions: LCS to 
assure access to littoral regions in the face of asymmetric threats 
such as mines and submarines; DD(X) for delivery of precision strike 
and volume fires in support of forces ashore; and the next generation 
cruiser, CG(X), to create and maintain air superiority over joint 
forces at sea and on land, as well as defend the homeland against 
ballistic missile threats. As such, DD(X) and LCS will provide 
complementary capabilities, described below, to the Fleet.
    Armed with an array of land-attack weapons, such as Tactical 
Tomahawk and the Advanced Gun System (AGS), DD(X) will provide 
persistent, distributed, long-range, precision attack needed in support 
of our joint forces operating deep inland. It will combine this 
firepower with 21st century technologies such as stealth, integrated 
power systems, and electric drive propulsion. The added electrical 
power will allow DD(X) to spiral develop to hyper-velocity and laser 
weapons.
    LCS will capitalize on emerging unmanned vehicle technologies and 
perform the focused Sea Shield missions of MIW, Surface Warfare (SUW), 
and ASW. It will provide the fast, affordable, focused-mission 
capability that will sustain access and enhance the Navy's ability to 
establish sea superiority not just for our Carrier Strike Groups and 
Expeditionary Strike Groups, but for all the joint logistics, command 
and control, and prepositioned ships that must transit the critical 
littoral threat area to move and support forces ashore.

    9. Senator Collins. Secretary Johnson, it is critical that the Navy 
build on the momentum of the fiscal year 2004 budget submission in the 
coming years. According to documentation submitted by the Department of 
Defense, the Navy has budgeted $12 billion for shipbuilding in fiscal 
year 2005, including an additional three DDG-51 destroyers. However, as 
it currently stands, there is no funding for DDG-51s after fiscal year 
2005. The DD(X) destroyer program is scheduled to begin production at 
that time, but there only appears to be funding for one DD(X) in fiscal 
year 2006, and one in fiscal year 2007. The possibility of only two 
major surface combatant ship constructions in fiscal year 2006 and 
fiscal year 2007 would substantially damage the industrial base. Is the 
Navy committed to addressing this problem?
    Secretary Johnson. In order to transform to meet future threats, 
the Navy must move toward DD(X). The current plan is to complete 
procurement of 62 ships in the DDG-51 class in fiscal year 2005. A 
single DD(X) in fiscal year 2006 and fiscal year 2007 creates pressure 
on the surface combatant industrial base, but is mitigated by the 10 
ship DDG multi-year procurement and the workload swap between Bath Iron 
Works and Northrop Grumman that will optimize production efficiencies 
and stabilize workload at both shipyards. The Navy is committed to 
maintaining a robust and competitive shipbuilding industrial base. 
Industrial base concerns will be taken into consideration in the 
formulation of future budgets.

    10. Senator Collins. Secretary Johnson, DD(X) will allow the Navy 
to field a fleet of highly capable and affordable warships. It will 
accomplish this by leveraging R&D costs, resultant technologies, and 
efficient processes and benefits across multiple platforms. DD(X) is 
also central to improving quality-of-life for our sailors--even more 
important as we ask our Armed Forces to do more in the new security 
environment. Would you discuss the value that you believe DD(X) and its 
family of ships will provide the Navy team, and further could you speak 
to the $1.1 billion investment proposed in the fiscal year 2004 budget 
for this family-of-ships?
    Secretary Johnson. DD(X) will be armed with an array of land attack 
weapons, such as Tactical Tomahawk and the AGS to provide persistent, 
distributed, long-range, precision attack needed in support of our 
joint forces operating deep inland. Tactical Tomahawk will reach up to 
1,000 miles inland as a responsive call-for-fire weapon. AGS will 
provide fires to 100 miles, a seven-fold improvement on current 
capability.
    DD(X) will take advantage of advanced stealth technologies to be 
less detectable and more survivable to enemy attacks than the ships it 
will replace. An open architecture, distributed combat system will 
support a ``plug and play'' environment in which to operate AGS, an 
advanced vertical launching system and a Multi-Function Radar/Volume 
Search Radar suite. Other features on DD(X) will include an advanced 
hull form, integrated electric drive propulsion, optimized manning, and 
extensive automation.
    The DD(X) research and development effort will enable the Navy to 
keep pace with today's rapid technological advances, spiraling 
promising technologies to both CG(X) and LCS. It will also enable the 
Navy to upgrade in-service Aegis cruisers and destroyers with selected 
leading edge technologies to maintain operational effectiveness of the 
legacy, multi-mission fleet. The fiscal year 2004 President's budget 
requests $1.058 billion for DD(X) to fund continuation of the DD(X) 
design effort and continued design, development, and test of the 10 
DD(X) Engineering Development Models (EDMs) listed below: 

        Advanced Gun System (AGS) and Munitions
        Integrated Power System (IPS) *
---------------------------------------------------------------------------
    * EDM will be tested at-sea.
---------------------------------------------------------------------------
        Volume Search Radar (VSR)/Multi-Function Radar (MFR)
        Radar Suite *
        Total Ship Computing Environment (TSCE) *
        Peripheral Vertical Launch System (PVLS)
        Integrated Deckhouse and Apertures
        Autonomic Fire Suppression System (AFSS) *
        Infrared Mock-ups
        Hull Form Scale Model
        Integrated Undersea Warfare System (IUSW)

    The DD(X) lead ship contract award is scheduled for fiscal year 
2005.
    The LCS will use emerging unmanned vehicle technologies and deliver 
the focused Sea Shield missions of MIW, SUW, and ASW. It will provide 
the fast, affordable, focused-mission capability that will sustain 
access and enhance the ability to establish sea superiority not just 
for our Carrier Strike Groups and Expeditionary Strike Groups, but for 
all the joint logistics, command and control, and prepositioned ships 
that must transit the critical littoral threat area to move and support 
forces ashore.
    The fiscal year 2004 President's budget requests $158 million for 
LCS to support hull form development, mission module development and 
integration, and requirements analysis. The LCS Integrated Requirements 
Document has been completed and construction of the first LCS is 
expected to commence in 2005.

                           AIR FORCE ACADEMY

    11. Senator Collins. Secretary Roche, as I expressed last week to 
General Jumper, I am appalled by the allegations of sexual assaults at 
the Air Force Academy. Along with Senator Lieberman, I have asked the 
Department of Defense Inspector General to investigate this very 
disturbing situation. Your cooperation in looking into this matter has 
been appreciated. The perpetrators of these crimes are a discredit to 
the Academy, and a discredit to the Air Force. Since these crimes have 
come to light, what actions have you taken to ensure that the young 
women at the Academy receive the protection and attention that they 
require?
    Secretary Roche. We are conducting a comprehensive review of Air 
Force Academy programs and practices to deter and respond to sexual 
assaults. In connection with that review, we are looking closely at 
factors affecting both reporting and handling of alleged incidents of 
sexual assaults, including the cadet hierarchy and the relationships 
between the upper and freshman classes. We are also evaluating how the 
Academy administers cadet discipline in order to ensure there are no 
obstacles to the reporting of crimes. We are evaluating how we select, 
train, and organize the professional staff to ensure we provide the 
best available supervision and mentoring. We are also reviewing the 
process of investigating allegations of sexual assaults, as well as the 
awareness training, medical care, counseling services, legal 
consultation, victim advocacy, and spiritual support we provide to 
victims to ensure they receive the support that they need, and fair 
treatment throughout the investigative and judicial process. We are 
also clarifying the definition of sexual assault used at the Academy to 
include only conduct that constitutes a crime.
    While our review is continuing, General Jumper and I have made 
changes in Academy leadership in order to implement some significant 
changes to reinforce our goals to train and equip tomorrow's leaders at 
the Academy. We intend to ensure the safety and security of every cadet 
and to enhance the trust and confidence of the American people in the 
Air Force Academy. On March 26, 2003, we announced our Agenda for 
Change, which directs a variety of changes including among others those 
regarding cadet life, Academy leadership, officer and NCO selection and 
training, security for cadets, and the social climate at the Academy. 
The full Agenda for Change has been made available to the committee. 
These changes, which are to be implemented in time for the arrival of 
the entering Class of 2007 this fall, are intended to reinforce the 
values of character, leadership, integrity, and  honor that we must 
instill in every cadet and future Air Force officer.
    This job is not finished, but we think we've made a good start. Our 
bottom line is this: sexual assaults will not be tolerated at the Air 
Force Academy, and all who commit sexual assaults will be brought to 
justice. In addition, those who knowingly protect perpetrators, and 
those who would shun or harass anyone with the courage to come forward 
and report these crimes, will be held accountable.

               CHEMICAL AND BIOLOGICAL DEFENSE EQUIPMENT

    12. Senator Collins. Secretary White, during last week's hearing 
with the Service Chiefs, I asked General Shinseki about a July 2002 
Army Audit Agency report dealing with the Army's preparedness to deal 
with a chemical or biological attack. The results of this audit were 
very troubling. Of the 25 units reviewed at Fort Hood and Fort Lewis, 
18 of them were not judged to be proficient in operating chemical and 
biological defensive equipment. Also, inspectors found that many units 
were not performing adequate preventative maintenance on their chem-bio 
defense equipment. Given the possibility of war against Iraq, I am very 
concerned about these findings. ``60 Minutes'' recently did a story 
based in part on this audit. Can you assure not only me, but also the 
troops who are even as we speak being deployed to the Persian Gulf, 
that they have adequate training and equipment to deal with a chemical 
or biological attack?
    Secretary White. U.S. forces serving in Iraq and throughout the 
Gulf region are trained and prepared to operate in a contaminated 
environment. The threats and challenges presented by operating in a 
contaminated environment may increase the degree of difficulty, but are 
not insurmountable. Our forces are trained, and they have the equipment 
they need to survive and sustain operations in a nuclear, biological, 
and chemical environment.
    Army individual and collective training doctrine places great 
emphasis on sustaining a ``band of excellence'' across a range of tasks 
that specifically focus on the unit's mission essential tasks. In the 
last several months, these training programs received significantly 
greater attention and focus. Military commanders recognized the 
immediacy of the threat of weapons of mass destruction in Iraq and 
initiated training to improve their chemical-biological defense 
equipment readiness. Each unit mobilizing or deploying in support of 
current operations will conduct individual skill training validation 
before and after deployment to ensure they are fully capable of 
operating equipment in a chemical-biological environment.

                    MEDICAL CONDITIONS CAUSED BY WAR

    13. Senator Collins. Secretary White, Secretary Johnson, and 
Secretary Roche, a sad part of modern warfare is the illnesses that 
have cropped up after our Nation's last two major conventional 
conflicts. Many of the men and women who served during the Vietnam War 
were afflicted with Post-Traumatic Stress Syndrome. As we saw over the 
years, Agent Orange has had devastating long-term impacts on some 
veterans of that conflict. Following our last war against Iraq, some 
veterans suffered as a result of what we now call Gulf War Syndrome. 
There is still debate about its causes. As we stand potentially on the 
brink of another conflict in the Middle East, what steps are your 
Services taking to adequately track the health of those serving in the 
Persian Gulf? If there is a conflict, will we have an adequate 
foundation of data to ensure that if another illness should appear, 
like Gulf War Syndrome, that we will be able to adequately diagnose its 
causes?
    Secretary White. Numerous steps have been taken to track the health 
of soldiers serving in the Persian Gulf. These steps include measures 
that occur before, during, and after the deployment period. Before 
departure, all soldiers complete a pre-deployment health assessment to 
determine if individuals have pre-existing medical conditions that 
might affect their health while deployed. Evaluations by medical 
specialists are completed, when necessary, to assure that deploying 
personnel are fit for service in a combat zone. Copies of data from the 
health assessment are archived and reviewed periodically to assess the 
health of deployed service members. During deployment, a standardized 
health surveillance system is implemented to detect and mitigate any 
outbreaks of illness. Data from this system is captured electronically 
and can be monitored from any place in the world through secure 
Internet access. In addition, all soldiers deploy with a recently 
implemented deployment health record to assure that all medical 
encounters are recorded and archived for future review.
    In addition to these measures, an active environmental surveillance 
program is conducted by the combatant command to proactively identify 
and assess any potential threats that are recognized. A systematic 
information system assures that evaluations are completed on a timely 
basis, that results are communicated to appropriate authorities for 
action, and that all evaluations are permanently archived for later 
review.
    At the time of redeployment, numerous processes are in place to 
assess and assure the health of soldiers who are coming home. These 
include a medical debrief on the threats encountered while deployed and 
information on what to do if health problems occur at a later time. 
During the redeployment process, soldiers undergo an expanded health 
assessment to identify any physical or mental health issues that may 
have developed during the deployment. Any health issues identified 
during the post-deployment health assessment are referred to 
specialists for further evaluation using the Deployment Health Clinical 
Practice Guideline developed at Walter Reed Army Medical Center. This 
guideline requires that all deployment-related health visits be 
recorded using a special diagnostic code, so that such visits can be 
monitored electronically.
    In summary, an intense effort has been made to safeguard and 
monitor the health of soldiers deployed during Operation Enduring 
Freedom and to Iraq. Numerous data systems are in place to track health 
outcomes on an individual level, monitor environmental exposures in 
theater, record clinic visits occurring during or after deployment, and 
assure that appropriate health care is provided. These new efforts 
enhance abilities to rapidly detect any emerging health problems that 
occur as a result of the deployment, focus on groups of service members 
that may be affected, and identify potential exposures that may have 
been the cause of specific clusters of illness.
    Secretary Johnson. The Department of Defense is enhancing the post-
deployment health assessment process. The improvements include a more 
comprehensive health assessment and a blood sample taken within 30 days 
of leaving the theater. The more comprehensive assessment will provide 
individual information about events that occurred during a deployment 
and enable the DOD health care providers to more effectively assess 
health status as they interact with each service member. The blood 
samples will be forwarded to the DOD Serum Repository for archival 
purposes. These enhancements are just one piece of the total force 
health protection program that also includes increased environmental 
surveillance, electronic medical recordkeeping, and improved unit 
location data. Commanders are responsible for complete redeployment 
processing of their personnel and helping each individual to make a 
smooth, post-deployment transition, according to DOD guidelines. 
Because deployment health concerns often evolve over time, commanders 
also encourage their returning service members to re-visit with health 
care providers to address all deployment related health concerns. The 
complete force health protection program, including regular blood 
tests, regular physical examinations, annual dental examinations, 
annual medical record reviews and pre- and post-deployment health 
assessments, assists DOD in providing a world-class continuum of care 
from accession to separation. The health and safety of our people is 
our top concern. DOD will continue to improve the force health 
protection program based on medical lessons learned from deployments. 
DOD is committed to providing service members and the public access to 
accurate, consistent, and comprehensive information about post-
deployment force health protection policies and to instilling and 
maintaining public confidence in DOD's concern for the health of its 
personnel, its health care system, and its ability to respond to any 
health concern that may arise from a deployment.
    Secretary Roche. The men and women of the United States Air Force 
deserve our every effort to protect their health both at war and in 
peace. The pillars of force health protection are recruiting and 
maintaining a fit force, preventing disease and injury, and caring for 
those who are injured or become ill. The Air Force is committed to 
force health protection through the life cycle of their service. The 
cornerstone of our effort is rooted in the Deployment Health 
Surveillance program. Mandated by public law and implemented by 
Department of Defense Instructions, this program combines elements of 
preventive and supportive medicine to protect the health of our airmen.
    The program includes pre-deployment health assessments. These 
assessments provide baseline data--the ``foundation of data'' that you 
speak of--that can be used to compare against post-deployment 
assessments to determine the deployment's impact, if any, on the 
member's health. Our Deployment Health Surveillance program also 
includes immunizations, serum sampling, patient record maintenance, and 
centralized data storage for ongoing and future analysis.
    None of these individual tools will yield the total picture, but 
taken together they ensure we will have the information we need to 
monitor, investigate, improve, and protect our members' health.
    Our primary goal is the prevention of the conditions you rightfully 
address in your statement. Environmental surveillance at deployment 
sites initially includes sampling air, water, and soil, and continues 
with routine monitoring of food, water, and endemic disease vectors. 
Since the Gulf War, we have established many programs for deployment 
health surveillance. While these programs have greatly increased our 
ability to detect health hazards, reduce risks, and survey for health 
problems in personnel who have deployed, we are continuing to improve 
in a number of areas. Here are some of the concrete efforts and 
initiatives we are currently working:

        <bullet> Automation of the deployment health assessments, in 
        cooperation with the Assistant Secretary of Defense for Health 
        Affairs
        <bullet> Enhancement of the health assessments returning airmen 
        receive before leaving theater and within 30 days of returning 
        to home station
        <bullet> Automation of deployed health records and records of 
        medications taken while deployed
        <bullet> Electronic recording of environmental data
        <bullet> Mental health assessments and critical incident stress 
        support both in theater and at home
        <bullet> Agile medical support in theater to prevent casualties 
        and illness
        <bullet> Archiving of unit locations throughout a deployment 
        for possible future use

    We are continuing to enhance the care we provide when service 
members develop conditions possibly related to deployments. To this end 
we have implemented a program to screen personnel for deployment 
related health concerns and to use a clinical practice guideline, 
developed in cooperation with the Veterans Administration, to address 
those illnesses and conditions that could be associated with combat 
service. We have linked such care to our automated record of clinic 
visits to ensure we can track these patients and the care they receive.
    We maintain deployment related medical and environmental data in a 
variety of repositories. The main Department of Defense repository for 
health assessments and serum samples is the Army Medical Surveillance 
Activity. We have Air Force service specific repositories for 
environmental health data,  theater surveillance data, and patient 
records. The Air Force has physicians and epidemiologists to monitor 
deployment related illnesses and injuries, and to study the data for 
potential causes to any conditions that may arise. The men and women of 
the United States Air Force deserve nothing less.

                        RECRUITING AND RETENTION

    14. Senator Collins. Secretary White, Secretary Johnson, and 
Secretary Roche, waging the war against terrorism has required 
significant resources. The recent build-up in the Persian Gulf has also 
placed a strain on funding. It is my understanding that later this 
year, the Department of Defense will be submitting a supplemental 
appropriations request to cover some of these costs. However, I am 
becoming increasingly concerned about the toll being taken on the men 
and women serving today. Admiral Clark has indicated that half of our 
fleet is currently deployed, a significant jump from normal operations. 
I am sure that the other Services are in a similar situation. How long 
can we operate at this high rate before we start seeing negative 
impacts on our recruiting and retention? How are each of you managing 
military personnel to deal with this issue?
    Secretary White. Currently, the Army is having no problem meeting 
its annual accessions requirements and quality goals and anticipates no 
problems in the future, despite the current operational tempo and 
deployments. If we see a drop in enlistment, we will reassess our 
recruiting strategy and make appropriate adjustments.
    It is difficult for us to determine retention trends at this time; 
however, studies by RAND and the Army Research Institute show that 
first deployments have a positive impact on the soldier's desire to 
stay in the Army, but subsequent and repetitive deployments have a 
negative impact on the soldier's desire to stay in the Army. A fall 
2002 survey of military personnel shows that ``amount of time away from 
my family'' was one of the leading reasons given by soldiers who leave 
the Army.
    We are managing critical military personnel skills through our 
stop-loss and stop-move programs. We have implemented these programs 
through precision management and executed them incrementally based on 
the changing operational environment since September 11, 2001.
    Secretary Johnson. Despite long deployments and the extremely 
arduous duty required of sailors over this past year, we have not yet 
observed a negative effect on retention, and the retention successes we 
are enjoying have permitted us to continue reducing our accession 
goals. Should it become necessary for us to continue extending 
deployments, and should longer deployments become routine, we would 
expect this to have a negative effect on recruiting and retention.
    Studies following Operation Desert Storm suggested that deployments 
exceeding eight months resulted in significantly lower reenlistment 
rates, particularly for married sailors and those in relatively sea-
intensive occupations (2 percentage point drop for sailors overall, 7 
percent for married sailors, and 3.4 percent for those in sea-intensive 
occupations).
    However, those studies also showed that if long deployments were 
not routine, but were associated with ``morale boosting crises,'' such 
as the present situation we are facing, ``these challenging and 
exceptional deployments are likely to yield higher retention than 
routine long deployments.'' Recent statistics support this finding. 
However, it is difficult to predict for how much longer we can extend 
deployments without the practice being perceived as ``routine,'' 
thereby adversely impacting retention.
    Navy recognizes that to continue extending deployments for 
sustained periods of time, will likely begin to adversely impact the 
current recruiting and retention successes we are enjoying. While our 
active strength level, with selective-augmentation by naval reservists, 
is sufficient to support mission requirements and force structure, we 
continue to monitor the situation closely to evaluate the recruiting 
and retention impacts of the current operational tempo. As situations 
evolve both in Operations Enduring Freedom and Iraqi Freedom, we 
anticipate that extended deployments will remain the exception, vice 
the rule; thereby limiting the potential adverse impacts on our 
recruiting and retention efforts.
    Secretary Roche. The Air Force shares your concern about the 
current high tempo and the toll it is taking on our airmen. Our 
involvement in the numerous hot spots around the world has truly 
stretched our troops to the limit. We have tried to minimize that 
impact by employing our people in the most efficient manner possible 
for these contingencies. One of our greatest strengths continues to be 
the quality and dedication of our Air National Guard and Air Force 
Reserves troops. When combined with our active duty and civilian force, 
these troops help spread our commitments throughout the ``Total'' 
force. Our Expeditionary Air Force concept has also served us well 
during these times of high tempo. That is not to say that it has 
resolved the problems associated with our high tempo, but it has 
provided the foundation from which to build a model to minimize the 
impacts.
    Your question concerning how long will we be able to operate at 
this rate before we begin to feel an impact on recruiting and retention 
is a good one. While we cannot say definitively how long we can sustain 
this rate without an impact, current data indicates positive trends in 
both recruiting and retention. Exit surveys show that deployments alone 
do not play a major role in a member's decision to separate when 
compared to other factors such as compensation and the availability of 
civilian jobs. We have worked very hard with your support to ensure our 
airmen are duly compensated for the work they do for our great Nation. 
Our hope is that these trends continue and that we will be able to keep 
the best and brightest members of our Air Force in uniform. Recruiting 
efforts have also responded well to your committee's continued support. 
Our recent increases in recruiter strength and marketing efforts have 
had a significant impact. We continue to attract the finest of 
America's youth from all walks of life.
    While we are currently doing well in these areas, we do not want to 
build a false sense of security. Our assumption is that if these high 
tempo rates were to continue for an extended period of time, it would 
ultimately begin to have a negative impact on our troops and a 
detrimental impact on our ability to recruit and retain the forces 
needed to meet the many demands placed on our Air Force.

                              ``GO-PILLS''

    15. Senator Collins. Secretary White, Secretary Johnson, and 
Secretary Roche, I have some concerns about the usage of amphetamines 
by our military. As part of the proceedings regarding last year's 
friendly fire bombing of Canadian troops in Afghanistan, the use of 
these so-called ``go-pills'' has been spotlighted. It is my 
understanding that these drugs are administered directly by military 
physicians, and that pilots are monitored very closely during their 
use. Given the intense supervision given to pilots and their flying 
hours, I can understand how the Air Force can manage the use of these 
drugs. However, for military personnel operating on land or at sea, 
supervision becomes more of an issue. Are these drugs distributed to 
non-pilots? If so, what controls are in place to ensure that they are 
not abused? Are there adequate studies regarding their effects on 
performance?
    Secretary White. Dexedrine, commonly referred to as ``go-pills,'' 
is not used by anyone in the Army other than aviators. It has been a 
long-standing Army policy to maximize the use of non-pharmacological 
countermeasures to fatigue such as sleep/wake cycles in operational 
plans. A query of the Pharmacy Data Transaction Service database for 
prescriptions to active duty Army soldiers revealed an average of two 
Dexedrine prescriptions a month over the last 18-month period. Further 
investigation revealed that personnel at Fort Rucker used these 
prescriptions for flight training purposes.
    Army aviators will use pharmacological countermeasures only in 
extreme circumstances. The Army has long studied various stimulants and 
is most comfortable with the benefits and side-effect profile of 
Dexedrine for Army aviators. After other countermeasures have been 
exhausted, and the commander has decided conditions warrant its use, 
the flight surgeon may use 2.5, 5, or 10 milligrams of Dexedrine up to 
a maximum of 30 milligrams in a 24-hour period.
    The decision to use stimulants is the commander's, but is made in 
concert with appropriate medical and safety counsel. For example, 
within the U.S. Special Operations Command (USSOCOM), a policy letter 
signed by the commander directs that ``the utilization of drugs such as 
amphetamines, or the application of medical procedures, such as `blood 
doping,' to enhance or extend performance is strictly forbidden without 
the approval of the Commander, USSOCOM.'' To date only the 160th 
Special Operations Aviation Regiment has applied and received approval 
for a performance-enhancing drug protocol for pilots. In this protocol, 
the use of Dexedrine requires approval from the first general officer 
in the operational chain of command after a request from the battalion 
or air mission commander and the flight surgeon.
    Secretary Johnson. There is no authorized use of ``go pills'' for 
any non-pilots.
    Secretary Roche. While I cannot comment on Navy and Army policies, 
Air Force policies currently only permit the use of ``go-pills'' by one 
or two-seat fighter/bomber aircrew members and by U2 reconnaissance 
pilots. The policies would include a small group of F-15E Weapons 
Systems Officers, who are covered under the same controls as pilots. 
There are no USAF policies that permit the distribution of ``go-pills'' 
in ground personnel. In fact, the Air Force Special Operations Command 
restricts ``go-pill'' use outside of the policies I've previously 
mentioned. With respect to the use of Dexedrine by Air Force pilots, 
there is a considerable body of scientific literature over the last 60 
years, dating back to World War II, which supports the safety, 
efficacy, and performance benefits to be gained from the use of small 
doses of dextroamphetamine in extended duration air operations. I am 
confident that our fatigue management system, which includes such 
pharmaceuticals, is scientifically sound, voluntary, and very well 
controlled.
                                 ______
                                 
              Question Submitted by Senator Elizabeth Dole

                           CUTS IN IMPACT AID

    16. Senator Dole. Secretary White, Secretary Johnson, and Secretary 
Roche, during my visits recently to several North Carolina bases I 
listened to commanders, enlisted personnel, and military spouses. In 
addition to concerns about pay and quality housing, one of the themes I 
heard repeated had to do with making sure that the children of the men 
and women who are dealing with repeated deployments are getting a 
quality education in adequately funded schools. That brought the 
subject around to Impact Aid and the cuts that have been made in the 
fiscal year 2004 budget. If we ask the men and women of our armed 
services to go into harms way, they need to know that we are doing 
everything to make sure that we are taking care of their families. How 
can we possibly justify the cuts that have been made in Impact Aid 
funding?
    Secretary White. Impact Aid funds are an important source of 
Federal income for school districts that educate federally-connected 
children and help to ensure military children are provided quality 
education. The Impact Aid program is a U.S. Department of Education 
(DoED) function and responsibility. The Army supports the DOD position 
that Impact Aid funding and management is correctly positioned within 
DoED. The Army was not consulted by either DoED or the Office of 
Management and Budget in the formulation of this portion of the 
President's budget for fiscal year 2004. The Army strategy is to 
continue to work closely with DoED and DOD to find solutions to Impact 
Aid's persistent underfunding. Through our School Liaison Services 
program, we are keeping commanders and parents informed about the 
importance of completing the required Federal forms so school districts 
receive the Impact Aid allocation for each military-affiliated student.
    Secretary Johnson. Education issues for the children of our active 
duty personnel are important to the Navy and I recognize the 
significance of Impact Aid funds. They are an important source of 
Federal income for school districts that educate federally connected 
children and help to ensure military children are provided quality 
education. The Impact Aid program, however, is a DoED function and 
responsibility. The Navy plays no role in the development or 
determination of Impact Aid and was not consulted by either DoED or the 
Office of Management and Budget in the formulation of this portion of 
the President's budget for fiscal year 2004.
    Secretary Roche. We view adequate funding for schools as one of the 
most important quality-of-life issues for our families with school age 
children. We are very gratified that Congress has supported requested 
funding levels for the operation of our DOD dependent schools overseas 
and within the United States. Impact Aid is certainly an important 
ingredient in guaranteeing education quality for our children who 
attend schools within the United States. The Air Force has not 
recommended any changes to the Impact Aid program.
                                 ______
                                 

               Questions Submitted by Senator Carl Levin

                            SHIP RETIREMENTS

    17. Senator Levin. Secretary Johnson, this budget includes cutting 
the Navy fleet size below 300 ships in fiscal year 2004. At a time when 
we are deploying the fleet more and asking our people to spend greater 
periods of time away from home, this would appear to be moving in the 
wrong direction. Will the Navy be able to sustain its normal peacetime 
deployments at these lower fleet sizes without breaking the operating 
tempo goals that establish how frequently, and for how long, sailors 
will be expected to be absent from their families?
    Secretary Johnson. The Navy will be able to sustain its normal 
peacetime deployments without breaking operating tempo goals. The CNO 
is committed to his personnel tempo guidelines, and the Navy has 
sufficient ships to meet its commitments within these guidelines. The 
Navy has commenced a comprehensive review of our forward deployment 
responsibilities, and operational and personnel tempo guidelines are 
major factors in this review. Additionally, Navy initiatives such as 
Sea Swap and the Fleet Response Concept are projected to provide 
forward, ready, and employable forces where and when needed--both 
designed with personnel tempo goals in mind.

                          ARMY FORCE STRUCTURE

    18. Senator Levin. Secretary White, a recent press article quoted 
General Pace as saying that the Joint Requirements Oversight Council is 
reviewing a recommendation that would reshape the Army's force 
structure from 10 more specialized divisions to 10 identical divisions 
that could be deployed to contingencies on a rotating basis. What is 
your view of that concept?
    Secretary White. I do not think the Army will ever have 10 
identical divisions. There will always be a need to maintain some level 
of specialization that will not be required across the total force. 
However, the Army intends to field interchangeable, general-purpose 
forces with common core capabilities through the Objective Force, 
beginning with initial operating capability of the first brigade-sized 
unit of action by 2010. In the near- to mid-term, the Army will meet 
overseas presence and rotation requirements through tailoring current 
forces in accordance with combatant commander requirements.
    Today's Army comprises a robust mix of specialized divisions: 
airborne, air assault, light infantry, infantry, and armored/
mechanized. Each type of division is optimized to provide a unique 
combination of capabilities, but is also specifically designed for 
rapid reorganization to accomplish a specific task or mission referred 
to as ``task organizing.'' Task organization ensures the force contains 
the appropriate mix and quantity of combined arms to accomplish 
assigned overseas presence and rotational missions in accordance with 
the combatant commander's intent and concept of the operation.
    Reducing or eliminating the distinctions between heavy and light 
forces is a fundamental objective of Army transformation. Objective 
Force units are being designed to be strategically responsive and 
dominant at every point across the full spectrum of operations. In the 
future, the Objective Force will possess an organic capability to 
conduct vertical envelopment (airborne) and air assault in both 
independent actions or as complementary maneuver in support of 
committed forces. The Army continues to assess and adjust the 
configuration of the unit of action and unit of employment to best 
support the emerging needs of the combatant commanders. The first unit 
of action begins fielding in 2008 and will achieve its initial 
operating capability this decade.

    19. Senator Levin. Secretary White, is there no longer a role for 
specialized divisions such as the airborne and air assault divisions?
    Secretary White. Airborne and air assault operations are a relevant 
and necessary part of the mix of capabilities the Army provides to the 
geographic combatant commanders. Operations in Afghanistan and 
potential operations in Iraq require the unique skills and flexibility 
inherent in the airborne and air assault divisions. The capabilities 
necessary to conduct horizontal and vertical envelopment missions are 
valid requirements that support the full spectrum of joint military 
operations.
    Executed rapidly, airborne and air assault operations provide 
positional advantage, achieve surprise, overcome difficult terrain, 
expose enemy capabilities to destruction throughout the joint 
operational area, and block, isolate, or otherwise dislocate enemy 
forces.

                      ACTIVE/RESERVE COMPONENT MIX

    20. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, it is clear that many of our Reserve and National 
Guard units and individuals are being taxed by the current level of 
commitments. It may well be that the Department should adjust the roles 
and functions assigned to each component appropriate for this new 
strategic environment. Do you all believe that DOD should adjust the 
roles and functions assigned to each of the active, Reserve, and 
National Guard components? If so, what changes, if any, do you believe 
are necessary? What are your plans for dealing with this issue?
    Secretary White. The Army is aware that many of our soldiers, from 
both the active and Reserve components, are being taxed by our current 
level of commitments as we pursue our assigned missions in support of 
the defense strategy, which includes the war on terrorism and homeland 
defense. The current size, mix, and roles of the Army's components were 
established under a different set of conditions than what the force is 
now operating under and what we expected to operate under in the 
future. Our participation this past year in defense planning on 
operational availability has helped identify potential changes in the 
mix and role of our Reserve components. Our participation in the 
upcoming DOD study on active and Reserve component mix will assist the 
Army in the implementation of the changes necessary to meet the Army's 
requirements in the defense strategy while also reducing burden on all 
of our soldiers.
    Additionally, for the Program Objective Memorandum 2004-2009, over 
19,500 spaces were programmed for change within the Active, Guard, and 
Reserve Force structure. Since fiscal year 2001, the Army has activated 
or has programmed to activate through fiscal year 2009, a total of 68 
active, 102 National Guard, and 85 Reserve units that fall into these 
high demand categories: aviation, chemical, civil affairs/psychological 
operations, and military police. The enhanced force capabilities 
address the most urgent needs.
    Secretary Johnson. While the current level of commitment is 
certainly taxing both active and Reserve personnel of all Services, the 
Naval Reserve has not been overused.
    The roles and functions mismatches that burden some of the other 
Service Reserve components are not as prevalent in the Navy/Naval 
Reserve mix. The Navy has worked hard to integrate reservists into the 
daily business routine of the overall Navy and we need not activate 
large numbers of reservists to go to war.
    Lessons learned post-September 11 have suggested a need to adjust 
Navy force mix in the Naval Coastal Warfare (NCW) mission area. NCW is 
a mission that is currently resident only in the Naval Reserve. The 
commencement of the GWOT led us to the conclusion that we need to 
increase the size of our NCW forces. We have made a conscious effort to 
buy active duty NCW capabilities to meet the increased operational 
demand. These forces will not replace, but will reinforce the 
capability we already have in the Naval Reserve.
    In June 2002, ASN(M&RA) and VCNO chartered an effort to develop a 
21st century vision for a fully integrated Active and Reserve Naval 
Force. This effort is exploring Active/Reserve Force mix alternatives 
and is ongoing under the tutelage of Navy's Total Force Flag Steering 
Group. Active duty and Reserve officers are fully engaged in 
appropriately shaping the Navy of tomorrow and will continue working to 
bring this effort to completion. 
    Secretary Roche. The entire Department of Defense is currently 
looking at all the emerging requirements of the new National Military 
Strategy which have been given such great impetus by the events of 
September 11. In the Air Force, we have made and will continue to make 
changes to our force mix (the ratio of a mission in the active and 
Reserve components) and force structure (how those forces are based and 
organized) as new needs emerge to support that strategy. The Air 
Reserve Component (ARC), both Reserve and Guard, have made huge 
contributions to our successes in Operations Enduring Freedom and Noble 
Eagle. They have stepped up to the challenges just as our active 
component has. Though the active and Reserve components have both been 
stressed in these endeavors, our risk management has spread that stress 
fairly equitably.
    We do have several mission areas in which we are making adjustments 
to mitigate some of those stresses to the Reserve component. For 
example, the Air Force Reserve is transferring 15 combat search and 
rescue aircraft, a low-density/high-demand asset, to the active 
component. In turn the Reserve unit will convert to KC-135 R-model 
tankers, a mission that has proven very successful in the Reserve 
component. The ARC will also be transferring 14 C-130 R-models to our 
Air Force Special Operations Command to meet the post September 11 
requirements. These adjustments will allow the active and Reserve 
components to maintain the steady-state requirements without overusing 
our invaluable Reserve component.

                           ARMY MODERNIZATION

    21. Senator Levin. Secretary White, in this year's budget request 
the Army has made a clear statement as to acquisition priorities, 
shifting $2.3 billion in fiscal year 2004 and $22 billion across the 
fiscal year 2004-2009 FYDP from the procurement of existing legacy 
weapon systems to the R&D and procurement of Objective Force systems. 
This was done by canceling 24 programs and restructuring another 24 
more. This is on the heels of numerous such cancellations in prior 
years. While moving forward with transformation, until this year the 
Army had intended to balance the risks in the transformation plan by 
recapitalizing and selectively modernizing the three heavy Army 
divisions and the Armored Cavalry Regiment of the counter-attack 
corps--forces which will continue to be needed for the next two 
decades. Now only two divisions of that corps will be modernized. How 
should we assess the risks in that strategy?
    Secretary White. The Army has conducted continuous reassessment of 
the risk associated with transforming the force in anticipation of its 
Future Combat Systems. At this time, given current transformation 
timelines, the Army believes that the risk it has taken is prudent. The 
continuous assessment of risk includes all Quadrennial Defense Review-
defined risks, particularly the near-term operational, the future 
challenges, and the force management effects of programmatic offsets. 
We will continue to reevaluate these reductions each year and will 
readdress our risk as the situation warrants.

    22. Senator Levin. Secretary White, I note that news reports 
indicate that the Army plans to deploy four heavy divisions and a 
cavalry regiment for a possible war with Iraq. Does modernizing only 
two of those over the next 20 years make sense?
    Secretary White. The Army made a conscious decision to decrease the 
modernization of the Counterattack Corps from 3\1/3\ divisions to 2 
divisions. It was clearly the toughest decision in this budget. We were 
forced to terminate and curtail some modernization programs including 
the digitization of the Counterattack Corps in order to generate 
capital for Army transformation. The Army has accepted prudent 
operational risk in the mid-term to fund our transformation to the 
Objective Force. The Army has several means to mitigate the risk 
associated with this decision. We are on schedule to gain the initial 
operational capability of the first Stryker Brigade this year. The six 
Stryker Brigades, which we have planned, act as both a strategic hedge 
to allow transformation of our current forces and as a learning 
environment to train leaders and soldiers for our Objective Force 
formations. We have also accelerated the fielding of transformational 
technologies to enhance the warfighting capabilities of our deployed 
forces. We will be transforming units from our divisions into Objective 
Force formations by the end of this decade.
    We made the judgment to curtail the modernization of the 
Counterattack Corps at two divisions after a careful balancing of 
operational risk, and the risk of not transforming, to provide the 
capabilities that the Army needs to meet the obligations of mid-term 
and long-term joint operations concepts. We are closely monitoring the 
current operational situation as we support the combatant commanders in 
the global war on terrorism, conduct homeland defense, and prosecute 
the long-term effort to defeat transnational threats to ensure the risk 
remains prudent. As current operations unfold, we will reexamine our 
risk assessment each year.

    23. Senator Levin. Secretary White, how confident are you of 
meeting the 2010 initial operational capability date for the Future 
Combat Systems? Do you believe that the technologies will be mature 
enough to make a decision to go forward with system development and 
demonstration this spring?
    Secretary White. I am highly confident that we will meet the Future 
Combat System's initial operational capability in 2010. In the context 
of emerging changes to acquisition policy, we are working with DOD to 
develop an acquisition approach that supports our intent to provide an 
operationally effective initial capability to the Nation in 2010. To 
meet our timelines, we are adopting an approach that will enable the 
Army to adapt processes available in the commercial sector to 
accelerate maturation of technology and integration of systems. The use 
of the Lead Systems Integrator to assist the Army in the management and 
execution of this program has allowed us to leverage commercial 
practices to retain competition and integrate a broad range of 
solutions for the system of systems concept.
    The Army is finalizing its evaluation of the technology within FCS 
as required by the Defense Acquisition Executive. The chief scientist 
of the Army chartered reviews of the technology by both government and 
independent experts. These assessments have been reconciled and Army 
leadership is reviewing the consolidated product. Upon approval, the 
technology maturity assessment will be forwarded to the Office of the 
Secretary of Defense for final endorsement. The Army foresees no issue 
that would preclude an affirmative technology maturity assessment at 
the systems development and demonstration decision point in May 2003.

    24. Senator Levin. Secretary White, if you expect to begin fielding 
the Future Combat Systems in 2008 as planned, why do you believe it is 
so important to field the fifth and sixth interim Stryker Brigade 
Combat Teams in 2006 and 2007? Would you consider spending the $3 
billion intended for those brigades for modernizing the remainder of 
the heavy counter-attack corps instead?
    Secretary White. The Army has established the correct balance 
through continuous reassessment of the approximate mix of Legacy, 
Interim, and Objective Forces needed to accomplish various mission 
sets. In order to sustain the ability to support forward deployed 
rotations and meet multiple requirements of the defense strategy, the 
Army has developed the appropriate number of highly mobile forces.
    As the Army transitions to support the ``1-4-2-1'' defense 
construct, the Stryker Brigade is a force that fills critical gaps that 
enable combatant commanders to accomplish the defense strategy. Present 
Stryker Brigade fielding timelines will enhance the Nation's ability to 
fight and win the war on terrorism while deterring hostile nations with 
weapons of mass destruction and transforming. The transformation of 
four active component brigades to Stryker Brigades provides a 
rotational base with three of the brigades focused on the Pacific 
theater and one forward-based in Europe. The Stryker Cavalry Regiment 
will support the XVIII Airborne Corps' critical need for robust armed 
reconnaissance. The conversion of a Reserve component brigade to a 
Stryker Brigade is critical because it enhances the capabilities of the 
strategic Reserve, and homeland defense missions are better met. This 
will allow the Army to embed digital technology into the Reserve 
components that will facilitate future active and Reserve 
interoperability as part of the joint force.
    Additionally, the conversion to six brigades focuses on every part 
of the Army: active and Reserve components, heavy and light forces, and 
U.S. and overseas based. Then, the ability to rotate the Reserve 
component Stryker Brigade into small-scale contingencies or enduring 
support and stability operation deployments in support of the global 
war on terrorism, Balkans, etc., allows a manageable operational tempo 
and deployment tempo for these capable units.

    25. Senator Levin. Secretary White, do you intend to include any of 
the 48 canceled or restructured programs on any unfunded priorities 
list the Army would submit for congressional consideration this year?
    Secretary White. The fiscal year 2004 budget submission included 24 
systems that were terminated. Based on lessons learned from the global 
war on terrorism, the Army reviewed ongoing operations and revalidated 
limited numbers for four systems that had been terminated during the 
preparation of the budget submission: Tactical Exploitation System 
(TES), M919 25 millimeter ammunition, Stinger Missile, and the Joint 
Tactical Terminal. As part of the budget submission, the Army also 
generated a list of critical unfunded priorities. Three of the 
revalidated systems were placed on this list--TES, M919, and Stinger. 
In all cases, the unfunded priorities procure systems to meet an 
identified Army shortfall in the global war on terrorism.
    The budget submission also included 24 programs that were 
restructured. Of these 24 restructured programs, four programs include 
elements that appear on the unfunded priorities list (Family of Medium 
Tactical Vehicles (FMTV), Javelin missile, second generation forward-
looking infrared radar (FLIR), and Soldier Modernization Systems). The 
FMTV request would procure light medium tactical vehicles and medium 
tactical vehicles, the Javelin request would procure 720 command launch 
units for the Army National Guard, the second generation FLIR request 
would provide funds required to maintain the industrial base, while the 
Soldier Modernization Systems request would provide various soldier 
equipment to support the Army's Rapid Fielding Initiative for the 
global war on terrorism.
    The Army may propose further changes to fiscal year 2004 
investments pending lessons learned from current operations.

                     SCIENCE AND TECHNOLOGY FUNDING

    26. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, the fiscal year 2004 budget request reduces 
investments in critical S&T programs by more than $1 billion from 
fiscal year 2003 appropriated levels. It falls well short of the goal 
of investing 3 percent of the defense budget in S&T to support military 
transformation, despite the fact that the goal has been endorsed by the 
Defense Science Board, National Academy of Sciences, Quadrennial 
Defense Review, Congress, and even yourselves. In fact, by fiscal year 
2009 it is programmed to fall to 2.4 percent of DOD's topline, not even 
including supplemental appropriations. How is this limited investment 
supportive of your goal to transform our military capabilities?
    Secretary White. To accelerate Army transformation, the Army has 
grown the S&T budget request every year since the Army Vision was 
announced in 1999. This represents a total of 38 percent growth in Army 
S&T since the fiscal year 2001 budget request. We have done this 
because we recognize the key role of Army S&T in accelerating Future 
Combat Systems and other Objective Force capabilities. Over 98 percent 
of fiscal year 2004 S&T investments are focused on maturing and 
developing critical technologies to achieve Objective Force 
capabilities. S&T investments through fiscal year 2009 continue to 
increase, focused on transitioning technology to the warfighter faster.
    Secretary Johnson. The overall Navy S&T portfolio is closely 
monitored to ensure consistency with, and support for, the Navy's 
Transformation Roadmap Sea Power 21 pillars, including Sea Strike, Sea 
Shield, Sea Base, and FORCEnet. The fiscal year 2004 President's budget 
request contains several transformational initiatives, reflecting OSD 
and Navy leadership priorities. Examples of such transformational 
programs which are included in the Navy S&T budget request include:

        <bullet> Joint Forces Command's experimentation program
        <bullet> Unmanned Combat Air Vehicle
        <bullet> Electric Power Technologies including 100 kilowatt 
        free electron laser, and 36 megawatt superconducting motor
        <bullet> Advanced Amphibious Assault Vehicle S&T requirements 
        (Marine Corps)
        <bullet> Advanced Multi-function Radio Frequency System
        <bullet> Wide bandgap power devices
        <bullet> Functional materials
        <bullet> Hypersonic weapons
        <bullet> Virtual at-sea training
        <bullet> Project Morgan
        <bullet> DC homopolar motor
        <bullet> X-Craft
        <bullet> Lightweight electrical energy sources (Marine Corps)
        <bullet> Secure mobile wireless networking technology (Marine 
        Corps)
        <bullet> USMC Tactical Unmanned Ground Vehicle (TUGV)
        <bullet> USMC Electric Technologies for Advanced Ground 
        Vehicles
        <bullet> Marine Corps Warfighting Lab experimentation

    Navy understands the importance of identifying appropriate S&T 
projects and quickly delivering those new technologies to the 
warfighters. During Operation Enduring Freedom and Operation Iraqi 
Freedom, several S&T projects (thermobaric weapons, affordable weapons, 
and a knowledge web system) transitioned directly from S&T to the 
Fleet/Force, thereby demonstrating the current value of S&T programs.
    Secretary Roche. The fiscal year 2004 President's budget requested 
amount of $2.2 billion is actually higher than the fiscal year 2003 
appropriated amount of $1.8 billion for the Air Force S&T program and 
provides for the technology development essential for the Air Force 
vision of an Expeditionary Air and Space Force. We have taken the 
effects and capabilities required by the Air Force's Concepts of 
Operations and mapped them to the long-term challenges and short-term 
objectives identified in the congressionally-directed S&T Planning 
Review completed in February 2002. Our goal is to make the warfighting 
effects and the capabilities we need to achieve them the drivers for 
everything we do and this is especially true in our S&T program.

    27. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, what areas of research are you cutting back on?
    Secretary White. The Army regularly reviews S&T investments to 
ensure we maintain a balanced portfolio of basic and applied research 
and advanced technology development programs. We are not cutting back 
on research; we are increasing investments in those areas that will get 
us to the Future Combat Systems and the Objective Force sooner. 
Specifically, in basic research we have increased funding 18 percent 
compared with the fiscal year 2001 budget request for paradigm-shifting 
technologies such as nanoscience and biotechnology.
    Secretary Johnson. While Basic Research (6.1) has benefited from 
the devolvement of a portion of the University Research Initiative 
program to Navy, there remain difficult choices in Applied Research 
(6.2) and Advanced Technology Development (6.3) funding to maintain the 
best possible portfolio.
    In the face of the constrained budgetary environment, we made 
difficult choices in Applied Research (6.2) and Advanced Technology 
Development (6.3) funding to maintain a viable portfolio to fund 
transformational S&T at a rate we can afford.
    We reduced funding for the Future Naval Capabilities (FNC)--
designed to deliver new capabilities to the warfighter--in order to 
focus only on the highest priority projects within the 6.2 and 6.3 
portfolio.
    The following shows some of the primary FNC products that were 
reduced or not pursued in the fiscal year 2004 President's budget 
request:

        <bullet> Low observable integrated deckhouse,
        <bullet> Advanced estimate of sensor performance,
        <bullet> Mission responsive ordnance,
        <bullet> Limits of passive sonar, and
        <bullet> Underwater surveillance data link network.

    Secretary Roche. The fiscal year 2004 President's budget requested 
amount of $2.2 billion for the Air Force S&T program is actually higher 
than the fiscal year 2003 appropriated amount of $1.8 billion. This 
increase comes primarily as a result of In-House Laboratory Independent 
Research, High Energy Laser, and High Performance Computing 
Modernization programs that were devolved to the Air Force by the 
Office of the Secretary of Defense. We have worked hard to maintain a 
balanced S&T portfolio and, if you discount these programs and compare 
only traditional S&T funding, our fiscal year 2004 President's budget 
request sustains a level S&T investment from fiscal year 2003 to fiscal 
year 2004.

                               WORKFORCE

    28. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, it is clear that government labs, especially defense 
labs, are finding it difficult to attract and retain the finest 
scientific and engineering technical talent. Congress has attempted to 
provide the directors of your laboratories with the ability to 
establish demonstration programs to address workforce issues, and to 
``directly hire'' needed technical talent (avoiding standard civil 
service red tape) to be more competitive with the private sector, but 
these have not been aggressively utilized by the Services. How are you 
planning to address your science and engineering workforce crisis?
    Secretary White. The service laboratories are now facing other 
challenges from within the Department. A Federal Register announcement 
has been published which may have consequences for the laboratories, 
possibly compromising progress on the previous lab demonstrations and 
requiring the labs to adopt, with union concurrence, so-called ``best 
practices.'' These ``best practices'' were personnel rules adopted from 
all of the current personnel demonstrations, but which may not be 
tailored to the specific needs of the various labs. In addition, the 
Department is attempting to develop a ``one size fits all'' new 
personnel system based on these ``best practices,'' which will apply to 
all of its employees, but which may not address the specific needs of 
the labs. Until these OSD initiatives sort themselves out, it remains 
unclear how we will address the personnel requirements of the labs.
    Secretary Johnson. Civilian workforce issues are of great concern 
to the Department of the Navy, and have been the subject of several 
recent studies:

        <bullet> the August 2000 Civilian Workforce 2020: Strategies 
        for Modernizing Human Resources Management in the Department of 
        the Navy;
        <bullet> the July 2001 Vice Chief of Naval Operations (VCNO) 
        Task Force report on Civilian Manpower & Personnel Management; 
        and
        <bullet> the May 2002 tri-Service study carried out under the 
        auspices of the Naval Research Advisory Committee (NRAC) study 
        called Science and Technology Community in Crisis.

    All three of these produced recommendations for improving the 
Department of the Navy's civilian workforce, some of which have already 
been implemented.
    Your concerns about the crisis in our science and engineering task 
force were validated in the NRAC study which was chartered by the 
Director, Defense Research and Engineering. Its report emphasized that 
the viability of the Defense Department's S&T capability is threatened 
by increasing losses of key technical personnel, insufficient levels of 
funding for facility and equipment modernization, and bureaucratic 
impediments that often produce counter-productive results in the 
research environment.
    The NRAC report emphasized, in particular, the serious demographic 
challenge the labs face over the next several years, when retirements 
are expected to claim much of their experienced science and engineering 
talent. Replacing that talent is a top priority, we are already taking 
steps to improve the labs' ability to recruit, hire, and retain the 
best science and engineering personnel. The Navy has been working with 
the DOD in analyzing all human resources practices in the laboratory 
demonstration projects under DOD's Best Practices Initiative and we are 
working together to provide the results of this analysis as best 
practices across the entire laboratory community rather than just one 
lab experiencing independent success.
    Congressionally-authorized personnel demonstration projects have 
improved our ability to recruit and retain some of the best and 
brightest technical talent in the market, but they do not completely 
solve our lab personnel problems. For example, the pilot projects do 
not provide all the hiring flexibilities we need because we still 
cannot get the most innovative programs through each local union which 
we are required to do under the demonstration project authority.
    Building on the success of these congressionally-authorized 
personnel demonstration projects, the Administration recommended 
legislation for a DOD National Security Personnel System (NSPS) this 
year. We strongly support this legislation which the House-passed 
version in H.R. 1588 largely reflects. This legislation takes the labs 
out of a demonstration project status and allows permanent use of best 
practices flexibilities in the labs as well as the rest of the 
Department by providing among other things, the basis for a fair and 
flexible system of civilian personnel management with critical 
flexibilities in hiring, assignment, advancement, and reduction in 
force. In addition, it provides the opportunity for a new labor-
management relationship that is critical to implementing NSPS in a 
timely manner and a streamlined appellate system that is fundamental to 
implementing a workable pay for performance system. The legislation 
would also permit the temporary hiring of older Americans and remove 
the pay penalty for hiring annuitants that would allow us to retain the 
mentoring capability and institutional knowledge of our best talent. 
    Another example is an initiative by the Office of Naval Research 
specifically aimed at revitalizing the S&T workforce in our labs and 
centers. This collaborative effort, which also includes academic 
partners, has a number of components. For example, it provides 
scholarships at participating universities in return for obligated 
service in our labs. It also envisions retraining retired military 
technology officers and bringing them back into the labs where their 
valuable experience as warfighters can be infused into our research 
efforts.
    Secretary Roche. The Air Force Research Laboratory (AFRL) has 
implemented a successful personnel demonstration project, which is in 
its sixth year. It addresses many workforce issues, such as pay 
inequalities and workforce refreshment. As a direct result, we have 
seen great improvement in the laboratory workforce morale and 
retainment.
    With respect to Section 342 of the National Defense Authorization 
Act (NDAA) for Fiscal Year 1995 and Section 1114 of the NDAA for Fiscal 
Year 2001, additional initiatives have been implemented, while others, 
such as direct hire authority for college graduates, are still being 
evaluated by the Department of Defense. In the interim, AFRL and the 
Air Force Deputy Chief of Staff for Personnel worked together to allow 
AFRL to utilize the Federal Career Intern Program.
    To fully address the S&E workforce crisis, the Air Force has 
established the first-ever Scientist and Engineer Functional Manager 
within the office of the Deputy Assistant Secretary of the Air Force 
(Science, Technology, and Engineering) to oversee the health and 
development of the workforce. In addition, we have established several 
military and civilian recruitment, retention, and bonus programs to 
address critical career field needs. An example of one recent success 
story is that a large percentage of military scientists and engineers 
have accepted the Critical Skills Retention Bonus.
    In March 2002, the transformation of the entire DOD civilian 
personnel community was initiated as the Under Secretary of Defense 
(Personnel and Readiness) directed the establishment of the DOD Human 
Resources Best Practices Task Force. The Task Force, consisting of 
representatives from both the human resources community and the 
functional community, including Air Force and defense laboratory 
representatives, reviewed initiatives that had been subject to testing 
and evaluation in our personnel demonstration projects. After careful 
consideration of the ``best practices,'' they developed a personnel 
system to best meet the needs of the Department, the National Security 
Personnel System. 

    29. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, what new authorities, if any, do your lab directors 
need to face this crisis?
    Secretary White. The labs continue to require authorities to hire 
top talent at market rates, in some cases well above current Senior 
Executive Service pay scales. In addition, they also should have 
authorities to more easily remove employees at the bottom of the 
performance scale, allowing the labs to raise the ``quality bar.'' 
These two authorities are the most critical for improving the quality 
of the workforce. 
    Secretary Johnson. Enactment of the House-passed version of the 
National Security Personnel System in H.R. 1588 is critical to 
obtaining the widest possible flexibilities to enable the labs and 
centers to recruit and retain the best and brightest.
    Secretary Roche. For the Air Force to move forward in the coming 
century, we need the ability to use all the flexibilities proposed in 
the Best Practices demonstration project, not only for the laboratory 
workforce, but across all Air Force functions. In addition, The Air 
Force Research Laboratory Commander needs the authority to implement 
the flexibilities contained within Best Practices to meet mission and 
workforce demands and to adequately address the Air Force scientist and 
engineer workforce crisis.

               STANDOFF CONVENTIONAL EXPLOSIVE DETECTION

    30. Senator Levin. Secretary Johnson, the attack on the U.S.S. Cole 
demonstrated a significant force protection vulnerability. Since the 
October 2000 attack on the U.S.S. Cole, what technological advances 
have been made to help prevent a repeat of this tragic event?
    Secretary Johnson. The Office of Naval Research has developed 
several technologies to help provide force protection to U.S. ships 
including:

        <bullet> Flare launcher on a .50 Caliber machine gun mount to 
        send warning shots at small boats;
        <bullet> Running Gear Entanglement System to provide a 100m 
        perimeter around a ship at anchor;
        <bullet> Rapidly developed empirically validated models 
        demonstrate new solutions for ship survivability. Model shows 
        that use of stainless steel for hull material helps to reduce 
        blast penetration;
        <bullet> 360 degree periscope and related software;
        <bullet> Microwave powered warning system which deters 
        intruders by heating their skin; and
        <bullet> Nuclear Quadrapole Resonance System for the detection 
        of bulk explosives (RDX, PETN) in packages, mail pouches, or on 
        personnel (manual scanning).

    31. Senator Levin. Secretary Johnson, specifically, what 
investments has the Navy made to improve our ability to detect 
conventional explosives (not WMD) from standoff ranges?
    Secretary Johnson. This is a challenging problem for which no good 
technical solution has yet been identified. ONR hosted a conference on 
standoff detection of conventional explosives that concluded that no 
stand-off (defined as >1Km) off-the-shelf detection technologies could 
be exploited within the next 18 months.
    Planning for technology investment in this area is underway. ONR is 
collaborating with Air Force, Army, Navy Explosive Ordnance Disposal, 
and NAVSEA Indian Head experts (both government and contractor) to 
identify and exploit emerging technologies that may potentially be 
stand-off quality detectors. Additional proposals are being continually 
received and reviewed for merit. Much work is underway in detectors 
suitable for shorter range, including joint Navy/DARPA work in the 
nuclear quadruple resonance technology especially in combination with 
other standard techniques. 

          army research, development, and engineering command
    32. Senator Levin. Secretary White, the Army has begun to standup a 
Research, Development, and Engineering Command that will absorb the 
existing labs and research organizations (such as TARDEC) that 
currently are aligned with Army Major Commands (such as TACOM). How 
will this reorganization affect the reporting chains, mission, and 
funding levels at these organizations?
    Secretary White. Overall funding levels will not be affected by the 
reorganization. The Research, Development, and Engineering Command 
Center Directors will report to the Commander, Research, Development, 
and Engineering Command. The commanders of the Tank and Automotive 
Command, Communications and Electronics Command, and Aviation and 
Missile Command continue to report to the Commander, Army Materiel 
Command.

    33. Senator Levin. Secretary White, will there be any net loss of 
personnel from the affected organizations?
    Secretary White. The realignments within the affected organizations 
will be done without any net loss of personnel.

    34. Senator Levin. Secretary White, why is this reorganization a 
positive step, when it would seem to create a wider gulf between the 
technology developers and the organizations that typically make use of 
their innovations and products?
    Secretary White. Research, Development, and Engineering Command 
will establish synergy across the laboratories to speed technology 
transition to the developing and buying organizations--program 
executive offices. Each program executive office will have a senior 
official responsible to ensure the technologies developed in the labs 
are satisfying essential warfighting needs. The Research, Development, 
and Engineering Command Agile Development Center's scientists and 
engineers will work directly with the combatant commands to establish a 
``reach-back link'' to Army Materiel Command laboratory capabilities. 

                       HIGH ENERGY LASER PROGRAMS

    35. Senator Levin. Secretary Roche, the OSD has proposed devolving 
all high energy laser S&T programs to the Air Force. This program was 
established by statute as a joint program, with OSD management. There 
is great concern that the joint program that has been established will 
be subsumed by Air Force interests in high energy lasers. Will the Air 
Force be requesting a change in statute to support and legalize the 
devolvement?
    Secretary Roche. The devolvement of programs to the Air Force was 
initiated by the Office of the Secretary of Defense. The Air Force has 
no plans at this time to request a change in statute, but we are 
working to ensure that the programs transferred to the Air Force 
continue to advocate the broader multiple military objectives inherent 
in these programs. We are currently developing a Memorandum of 
Agreement between the Deputy Under Secretary of Defense (Science and 
Technology) (DUSD (S&T)) and the Deputy Assistant Secretary of the Air 
Force (Science, Technology, and Engineering) on management of the High 
Energy Laser Joint Technology Office. We plan to have DUSD (S&T) 
continue to function as the Senior Civilian Official and as Chair of 
the Technology Council in accordance with the current statute.

    36. Senator Levin. Secretary Roche, how will the Air Force retain 
the joint nature of the program as intended by Congress?
    Secretary Roche. The Air Force does not plan to make any changes to 
the High Energy Laser Joint Technology Office (JTO) process beyond that 
required by changes in the funding source. Representatives from the 
other Services and defense agencies will still participate in the JTO. 
Proposals will continue to be solicited from them, as well as from 
industry and academia as before, and these proposals will continue to 
be evaluated by the same joint structure. The Air Force will not 
increase its participation in the JTO or in the various working groups 
that support the JTO. The Technology Council, chaired by the Deputy 
Under Secretary of Defense (Science and Technology) and comprised of 
the Service and Defense Agency Science and Technology Executives, will 
continue to be the principal oversight body. The JTO will not be a part 
of the Directed Energy Directorate of the Air Force Research 
Laboratory, but will continue as a separate organization. The JTO 
Director will report to the Deputy Assistant Secretary of the Air Force 
(Science, Technology, and Engineering).

    37. Senator Levin. Secretary Roche, how will the Air Force ensure 
that the programs continue to be funded at a sufficient level in future 
years given growing budget constraints?
    Secretary Roche. The three High Energy Laser JTO program elements 
were devolved to the Air Force along with out-year funding. These 
programs will be protected as much as possible from future budget 
reductions. It is our plan at this time to use the Deputy Under 
Secretary of Defense (Science and Technology) Technology Council to 
address appropriate funding levels for this program.

    38. Senator Levin. Secretary Roche, is there any OSD guidance on 
the appropriate level of funding for these programs?
    Secretary Roche. The Air Force has not received any guidance from 
the Office of the Secretary of Defense with respect to the appropriate 
level of funding for these programs.

                              DEVOLVEMENT

    39. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, a number of S&T programs have been devolved to the 
Services from the OSD. There has been guidance from OSD regarding 
funding levels for these programs (including the JTO High Energy 
Lasers, High Performance Computing Modernization Program, and others) 
during the FYDP. There is concern that, if the Services are faced with 
resource shortfalls due to current operations or other expenses, these 
programs may become targets for reprogramming and could be used as 
sources of funding for other Service priorities. Is there any guidance 
from OSD on protecting devolved programs from reprogramming actions?
    Secretary White. The devolved OSD programs have been assigned new 
program elements, which allow OSD and Congress to track the funding 
levels of these efforts.
    Secretary Johnson. There is no such guidance. For the devolved 
programs, OSD guidance did note that consistent with oversight 
responsibilities, appropriate OSD staff will review execution plans and 
metrics prior to the start of each fiscal year, and at mid-year to 
determine future allocations.
    The following funded requirements were devolved from OSD to Navy 
S&T during the fiscal year 2004 budget development cycle:

                                                            [In millions
                                                             of dollars]

  University Research Initiatives                                   70.7
  In-House Laboratory Independent Research                           2.1

    Although special protection has not been assigned to these 
programs, Navy will execute these programs in accordance with R-2 
budget justification exhibits which support the fiscal year 2004 
President's budget request. These programs did receive proportionate 
reductions (approximately -2.0 percent) without prejudice during the 
Navy fiscal year 2004 budget development cycle; these cuts are 
reflected in the President's budget request.
    Secretary Roche. The Air Force has not received any guidance from 
the Office of the Secretary of Defense with respect to protecting 
devolved programs from reprogramming actions.

    40. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, will you ensure that these programs are protected to 
preserve OSD and congressional intent with regards to the investment 
levels in these critical research and technology areas?
    Secretary White. Yes. We have no plans to change either the intent 
or investment levels in these programs.
    Secretary Johnson. The following funded requirements were devolved 
from OSD to Navy S&T during the fiscal year 2004 budget development 
cycle:

                                                           [[In millions
                                                             of dollars]

University Research Initiatives                                     70.7
In-House Laboratory Independent Research                             2.1

    Although special protection has not been assigned to these 
programs, Navy will execute these programs in accordance with R-2 
budget justification exhibits, which support the fiscal year 2004 
President's budget request. These programs did receive proportionate 
reductions (approximately -2.0 percent) without prejudice during the 
Navy fiscal year 2004 budget development cycle; these cuts are 
reflected in the President's budget request.
    It is noted that OSD continues to maintain joint oversight for 
these programs, before and after the fiscal year 2004 devolvement.
    Secretary Roche. The In-House Laboratory Independent Research, High 
Energy Laser, and High Performance Computing Modernization programs 
devolved to the Air Force by the OSD were devolved along with out-year 
funding. These programs will be protected as much as possible from 
future budget reductions. It is our plan at this time to work with OSD 
to address appropriate funding levels for these programs.

                        COORDINATION WITH DARPA

    41. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, the DARPA now executes over 25 percent of the total 
DOD S&T budget. How do you work with DARPA to ensure that they support 
your mission areas and complement your S&T programs?
    Secretary White. The Army looks to DARPA to invest in high-risk, 
high-payoff technologies that might give us significant increases in 
future warfighting capabilities. Through the years, there have been 
many instances of the Army transitioning technologies, components, and 
systems from DARPA that support Army mission areas. Frequently, 
however, these transitions were not smooth.
    The FCS program was conceived with a number of important goals. One 
was to use DARPA's innovative thinking and procurement strategies to 
help the Army transform on a very rapid timeline. Another was to lay a 
foundation for achieving smoother, faster transitions of technologies 
from DARPA to the Army. We believe that the key to achieving both of 
these goals was establishing a partnership early in the research and 
development cycle.
    The Army/DARPA FCS memorandum of agreement (MOA) established a 
partnership that has served us well over the past 3 years. We have 
achieved the key program objectives in support of the FCS Milestone B 
decision and the products of this partnership will be seen in FCS 
Increment I. We are now in the process of negotiating a new FCS MOA 
with DARPA for fiscal year 2004 through fiscal year 2006, focusing on 
selected enabling technologies that will continue to increase the 
capabilities of FCS and the Objective Force through the spiral 
development process.
    The Army continues to cultivate its relationship with DARPA and 
partner with them to achieve unprecedented leaps in areas beyond ground 
combat. We are pursuing breakthroughs in unmanned aviation through an 
established partnership on the Unmanned Combat Armed Rotorcraft program 
and a proposed partnership on the A-160 Hummingbird. Based on our 
successes with FCS, I am confident we will continue using this approach 
for future programs that require risk-taking, innovative approaches.
    Secretary Johnson. Our investment portfolios are not built in 
isolation. The defense reliance process integrates the Services' S&T 
programs while preserving the healthy diversity of vision and approach 
that has given us the technical agility we enjoy today. Our relations 
with DARPA are excellent and productive. Much of the Office of Naval 
Research's basic and applied research investment is designed with a 
view to handing scientific advances over to DARPA for further 
development and exploitation. The Unmanned Combat Air Vehicle program 
is an excellent example of this kind of collaboration. We are working 
closely with DARPA on wide band gap semiconductors to support the 
radar, communications, and electronic warfare systems of the future, 
including the advanced multifunction radio frequency concept.
    Secretary Roche. The relationship between the Air Force and DARPA 
continues to be strong with the Air Force acting as agents for a number 
of DARPA technology programs. This relationship helps focus both the 
Air Force and DARPA on technologies that provide future capabilities 
that are relevant to the warfighter. In addition to executing DARPA 
technology programs, the Air Force participates in the defense reliance 
process to coordinate those programs that are of mutual interest, but 
not ones that we are executing for DARPA. DARPA technology investments 
are important to the Air Force and we strive to maintain cognizance of 
their research programs to harmonize efforts and eliminate duplication.

    42. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, are there specific technology development goals 
supporting mission areas in your Service in which DARPA could play a 
larger role?
    Secretary White. The new FCS MOA for future Army/DARPA 
collaboration will be finalized after the FCS Milestone B decision in 
May 2003. At that time, the Army and DARPA will assess capability gaps 
between FCS Increment I and objective capabilities where new 
technologies can offer a solution. From that set, we will determine the 
best mix of technology investments in which the Army should lead and 
those in which a partnership with DARPA makes the most business sense.
    In laying the groundwork for the new MOA, we already have 
identified three key areas where we believe DARPA can help the Army. 
They are (1) find the enemy, (2) autonomy with intent, and (3) 
affordable survivability.
    ``Find the Enemy'' seeks to provide technologies to defeat 
camouflage, concealment, and deception and to exploit situational 
awareness through improved sensors, assured communications, intelligent 
decision aids, and data fusion.
    ``Autonomy with Intent'' focuses on improving the ability of 
unmanned systems to function while minimizing soldier workload and 
required attention/interaction.
    ``Affordable Combat Identification'' aims to increase force 
survivability by improving identification of battlefield entities for 
intermingled forces in high OPTEMPO operations in complex terrains 
using cost-effective approaches.
    Each of these areas presents real technical challenges that will 
require extremely innovative thinking and the ability to invest 
significant resources to demonstrate viable solutions. All are 
important today and will be even more important in the future Objective 
Force.
    Secretary Johnson. The Navy has been working closely with DARPA to 
coordinate S&T efforts. There are numerous areas where S&T Program 
Officers wear both ONR and DARPA hats thus leading to highly leveraged 
cooperative efforts. Wide band gap semiconductor developments that 
enable the advanced multi-function radio frequency system for Navy 
ships is a good example.
    DARPA and ONR work together to identify DARPA programs and projects 
that have high applicability to naval requirements and utilize ONR's 
Future Naval Capabilities program to enable transition. Besides 
identifying DARPA programs with Navy interest, ONR technologies 
addressing DARPA development needs, such as small atomic clocks, make 
DARPA's efforts more likely to succeed. Recently, DARPA has initiated a 
Service Day activity, inviting S&T, requirements, and acquisition 
members of the Services to briefings on their programs in order to get 
better exposure of their efforts. The first Navy-DARPA Service Day will 
be conducted in early May 2003 in the areas of electronic warfare, 
communications, and information assurance.
    Secretary Roche. The most important area in which DARPA could 
increase their technology development efforts is in space access and 
other space-related efforts. We have seen indications that they are 
already planning for a larger space technology investment and we 
certainly encourage this. Another area of particular interest to the 
Air Force is information technology. DARPA already has a robust 
investment in this area, which the Air Force would like to see 
continued and, perhaps, even increased.

           FOREIGN STUDENT INVOLVEMENT IN DOD-FUNDED RESEARCH

    43. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, what policies and directives currently control the 
participation of foreign students in Service-funded research programs?
    Secretary White. The Army requires contractors performing basic 
research to abide by Title 8, United States Code, Section 1324a, which 
makes it unlawful to employ unauthorized aliens and sets forth the 
requirements for documenting and attesting that aliens are not 
unauthorized, as well as 8 Code of Federal Regulations 274a(2), which 
sets forth the process for the verification of employment eligibility 
of aliens. As long as the contractor or university complies with the 
United States Code and Code of Federal Regulations alien employment 
requirements, and the foreign student is eligible for employment, there 
are no restrictions on their working on unclassified basic research.
    Additionally, we comply with the Department of Defense grants and 
agreements regulations. All Army basic research is unclassified and is 
generally published in peer reviewed, open literature.
    Secretary Johnson. Generally, student participation in a Service-
funded research program occurs at an institution of higher education 
(IHE); the IHE receives an award from the Service to conduct research 
(typically a grant) and then chooses which students participate in the 
research. Student participation is generally not limited by citizenship 
unless a security clearance is required for the uncommon instance of a 
classified research program at an IHE.
    Some students participate in research at Service laboratories via 
various intern/summer programs. Security clearance requirements 
generally limit participation in these programs to citizens or, in some 
cases, permanent residents.
    Small Business Administration policy governs acceptance and 
prohibition on issues such as these. If the individual has a ``green 
card'' or is a legal resident, he/she is permitted to work on an Small 
Business Innovation Research project.
    Secretary Roche. The baseline document that the Air Force uses to 
provide policy and direction for foreign students in funded research 
programs is the National Security Decision Directive (NSDD)-189, 
entitled ``National Policy on the Transfer of Scientific, Technical and 
Engineering Information.'' This directive establishes national policy 
for controlling the flow of science, technology, and engineering 
information produced in conjunction with federally-funded fundamental 
research at colleges, universities, and laboratories. Basically, the 
NSDD-189 policy, to the maximum extent possible, is that the products 
of fundamental research remain unrestricted. If it is determined prior 
to conducting the research that there will likely be national security 
issues involved, the mechanism to control information will be by 
classification. Fundamentally, no restrictions may be placed upon the 
conduct or reporting of federally-funded fundamental research that has 
not received national security classification, except as provided in 
applicable U.S. statutes. It is important to point out that NSDD-189 
applies to all students, including foreign students, involved in 
federally-funded fundamental research.

    44. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, how do you work to ensure that these programs are 
consistently applied across your Service?
    Secretary White. There are no restrictions on foreign students 
working on unclassified basic research sponsored at universities.
    Secretary Johnson. Each Institution of Higher Education (IHE) that 
performs Service funded research is responsible for choosing the 
students that participate in said research under the award (i.e. 
grant), as long as the IHE meets all provisions of the award 
requirements. In most cases, student participation is not limited by 
citizenship, unless a security clearance is required; however, it is 
uncommon for an IHE to perform on a classified research program.
    Students also participate in research at Service laboratories via 
various intern/summer programs; however, security clearance 
requirements generally limit participation in these programs to 
citizens or, in some cases, permanent residents.
    In the case of work performed at IHEs, laboratories, etc., it is 
generally considered to be the purview of the performing organization 
to assure that its policies and practices comply with applicable laws 
and regulations (including those regarding intellectual property and 
export control).
    Secretary Roche. To ensure our foreign student involvement programs 
are consistent across our laboratory, the Air Force relies on our 
Scientific and Technical Information Program and on our classification 
program managers to determine if federally-funded work is sensitive and 
should be appropriately controlled by national security guidelines. If 
foreign students are involved in research programs, the baseline for 
determining if fundamental research needs to be controlled for national 
security reasons is the National Security Decision Directive (NSDD)-
189, entitled ``National Policy on the Transfer of Scientific, 
Technical and Engineering Information.'' This directive establishes 
national policy for controlling the flow of science, technology, and 
engineering information produced in conjunction with federally-funded 
fundamental research at colleges, universities, and laboratories.

         PUBLICATION AND CLASSIFICATION OF DOD-FUNDED RESEARCH

    45. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, what policies and directives currently control the 
classification, publication in literature, and presentation in 
scientific conferences of Service-funded research programs?
    Secretary White. National Security Decision Directive 189 defines 
policy for publication of federally-funded research results. Under this 
policy, no restrictions may be placed upon the conduct or reporting of 
federally-funded fundamental research that has been determined to be 
unclassified. The challenge is in maintaining a process that identifies 
when and if unclassified information becomes classified.
    National security statutes require periodic reviews throughout the 
research process to reaffirm the classification of ongoing research. 
The mechanism for safeguarding this information is through 
classification. Army Regulation 380-5 (Information Security) provides 
policies, procedures, and criteria for the security classification of 
Army information. Additionally, Army Regulation 380-381 (Special Access 
Programs) provides policies, procedures, and criteria for safeguarding 
and protecting Army Special Access Programs. Army Regulation 360-1 (The 
Army Public Affairs Program) provides similar policies, procedures, and 
criteria for the release of unclassified Army information to the 
public.
    Secretary Johnson. Executive Order (EO) 12958, April 17, 1995, 
Classified National Security, prescribes a uniform system for 
classifying, safeguarding, and declassifying national security 
information.

        <bullet> One of the classification categories is ``scientific, 
        technological, or economic matters relating to the national 
        security (SEC 1.5).
        <bullet> Basic scientific research information not clearly 
        related to the national security may not be classified (SEC 
        1.8b).

    National Security Decision Directive (NSDD) 189, September 21, 
1985, National Policy on the Transfer of Scientific, Technical, and 
Engineering Information with Office of the Under Secretary of Defense/
Research and Engineering (OUSD/R&E) Memo, October 1, 1984, Publication 
of the Results of DOD Sponsored Fundamental Research.

        <bullet> This directive establishes national policy for 
        controlling the flow of science, technology, and engineering 
        information produced in federally-funded fundamental research 
        at colleges, universities, and laboratories. Fundamental 
        research is defined as follows:

        ``Fundamental research'' means basic and applied research in 
        science and engineering, the results of which ordinarily are 
        published and shared broadly within the scientific community, 
        as distinguished from proprietary research and from industrial 
        development, design, production, and product utilization, the 
        results of which ordinarily are restricted for proprietary or 
        national security reasons.

        <bullet> To the maximum extent possible, the products of 
        fundamental research remain unrestricted. It is also the policy 
        of this administration that, where the national security 
        requires control, the mechanism for control of information 
        generated during federally-funded fundamental research in 
        science, technology, and engineering at colleges, universities, 
        and laboratories is classification. Each Federal Government 
        agency is responsible for: (a) determining whether 
        classification is appropriate prior to the award of a research 
        grant, contract, or cooperative agreement and, if so, 
        controlling the research results through standard 
        classification procedures; and (b) periodically reviewing all 
        research grants, contracts, or cooperative agreements for 
        potential classification. No restriction may be placed upon the 
        conduct or reporting of federally-funded fundament research 
        that has not received national security classification, except 
        as provided in applicable U.S. statutes.

Other Directives
    DOD 5200.1-R, Jan 1997, Information Security Program Regulation
    SECNAVINST 5510.36, 17 Mar 1999, Department of the Navy (DON) 
Information Security Program (ISP) Regulation
    DOD Instruction 5230.29, 6 May 1996, Security and Policy Review of 
DOD Information for Public Release
    DOD Instruction 3200.14, 13 May 1997, Principles and Operational 
Parameters of the DOD Scientific and Technical Information Program
    DOD Directive 3200.12, 15 Feb 1983, DOD Scientific and Technical 
Information Program
    SECNAVINST 3900.43A, 20 Jul 1994, Navy Scientific and Technical 
Information Program (STIP)
    DOD Directive 5230.24, 18 Mar 1987, Distribution Statements on 
Technical Documents
    ONRINST 5570.1, 1 Dec 1986, Distribution Statements on Technical 
Documents
    DOD Directive 5230.25, 6 Nov 1984, Withholding of Unclassified 
Technical Data From Public Disclosure [applies to all unclassified 
technical data with military or space applications which may not be 
exported limited to critical technology with military or space 
applications]
    OPNAVINST 5510.161, 29 Jul 1985, Withholding of Unclassified 
Technical Data from Public Disclosure
    ONRINST 5570.2, 1 Dec 1986, Processing of Unclassified Technical 
Information
    DOD Instruction 5230.27, 6 Oct 1987, Presentation of DOD-Related 
Scientific and Technical Papers at Meetings
    Militarily Critical Technologies List, June 1996, with updates
    EO 12829, 6 Jan 1993, National Industrial Security Program (NISP)
    Additional DOD/DON directives exist that contain restrictions on 
release of information relating to specific programs, such as Sensitive 
Compartmented Information and others, but these are usually classified 
programs not considered fundamental research.
    Other directives deal with specific procedures to accomplish 
review, if needed.
    Secretary Roche. I can only speak for Air Force research programs. 
Fundamental Executive Branch policy is documented in National Security 
Decision Directive 189, National Policy on the Transfer of Scientific, 
Technical, and Engineering Information, approved by President Reagan. 
This Directive states that, ``to the maximum extent possible, the 
products of fundamental research [are to] remain unrestricted.''
    Classification of all Air Force information is governed by 
Executive Order 12958, Classified National Security Information, as 
amended. This order specifies that information may only be classified 
if an original classification authority determines that its 
unauthorized disclosure would cause damage to the national security 
that the classification authority can identify or describe. Information 
properly classified may only be presented in forums where personnel 
present have a security clearance and a need-to-know. In addition, some 
scientific and technical information may be unclassified, but 
sensitive, and require controls under the Arms Export Control Act, the 
Export Administration Act, or other statutes. This information could 
not be presented in open forums, but could be presented in forums where 
personnel present have a need-to-know, but not necessarily a security 
clearance. Any scientific and technical information proposed for 
presentation in any open forum is required to undergo a security review 
in accordance with Air Force Instruction 35-101, Public Affairs 
Policies and Procedures.

    46. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, do these provide standard exceptions for fundamental 
research?
    Secretary White. Army activities, including the Army Research 
Laboratory, have incorporated clauses in the terms and conditions of 
research contracts when the area of research either may have potential 
defense applications or contain sensitive material. In these cases, the 
clause calls for review of the research results and papers prior to 
publication in the open literature. However, some universities have 
rejected contracts with prepublication review clauses.
    Secretary Johnson. Yes. Executive Order (EO) 12958 states that 
``Basic scientific research information not clearly related to the 
national security may not be classified.''
    National Security Decision Directive (NSDD) 189 establishes policy 
that products of fundamental research remain unrestricted, except where 
classification is warranted.
    DOD Instruction 5230.27 reiterates the policy in EO 12958 and NSDD 
189 and is carried down to various DON directives.
    Secretary Roche. Yes, basic research is normally conducted, 
presented, and published in the public domain. As research is focused 
on military or scientific applications, it increases in sensitivity and 
access becomes more restricted. The only situations where basic 
research might be restricted or classified are if they involved a 
scientific breakthrough that had national security implications.

    47. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, how do you work to ensure that these programs are 
consistently applied across your Service?
    Secretary White. By following the adequate and comprehensive 
National Security, DOD, and Army policies and procedures described 
above. 
    Secretary Johnson. The Navy follows Department of Defense and 
Department of the Navy directives. At the Office of Naval Research, 
program officers and program managers are responsible for determining 
that classified access is not required and that all information can be 
released to the public before awarding a grant as fundamental research.
    Secretary Roche. We have established formal review procedures 
through our Office of Public Affairs to review any data for release 
into the public domain. We also have formally designated those 
individuals having Original Classification Authority within the Air 
Force and require them to receive training prior to assuming those 
duties. We have formal mechanisms such as mandatory declassification 
reviews and annual security reviews to monitor our information security 
program to ensure information is properly classified and adequately 
protected. The Air Force Inspector General's office can review programs 
as needed.
    It is both prudent and cost effective to share data on basic 
research with the scientific community to globally conserve resources 
and cooperate in determining which approaches have promise and which 
have already proved worthless. There is no logic to restrict basic 
research. However, in transitioning from basic research to applied 
research, we must determine which basic research efforts have promising 
military applications that should be exploited. We rely on our 
technical directors in our laboratories to monitor their research 
programs and make informed judgments on when it is appropriate to begin 
to restrict access to information for national security reasons.

                PROGRAMMING AND BUDGETING FOR TRANSITION

    48. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, a major concern of DOD and Congress is the rapid and 
efficient transition of technologies from the S&T community to the 
warfighter. A common problem in this process is the reluctance of 
acquisition programs to commit out-year funding to transition or accept 
the anticipated products of current S&T programs, for fear of ``losing 
the money'' if the relatively high-risk S&T programs fail for technical 
reasons. This fear limits program managers' ability to take on risk in 
their program. How are you working to encourage program managers to 
take on more risk in their programs in order to accelerate Service 
transformation?
    Secretary White. The new DOD 5000 Defense Acquisition Framework 
provides Army program managers with a flexible process that encourages 
the insertion of new technologies at any point along the acquisition 
process to maintain technological superiority to the warfighter, while 
keeping program risk at an acceptable level. Key to this framework is 
the concept of evolutionary acquisition where capabilities are improved 
through time-phased requirements. The focus is on maturing and 
demonstrating technologies in a relevant environment before inserting 
the technology into actual systems to reduce life cycle cost and cycle 
time, while keeping overall risk to programs at a manageable level.
    The primary tool for communicating technology maturity to the 
program managers is through Technology Readiness Assessments (TRAs). 
TRAs are periodically conducted to measure the maturity of developing 
technologies to ensure they are sufficiently mature before being 
integrated into systems being developed by program managers. One of the 
end results of a TRA is the assignment of a Technology Readiness Level 
(TRL 1 through 9) for the technology being assessed. In general, the 
Army's position is that technologies are mature enough to transition 
once they have achieved TRL 6, or where systems have been demonstrated 
in a relevant environment. If a technology is rated less than a TRL 6, 
further development and risk reduction work is encouraged with a plan 
to include the new capability during the next increment or block 
upgrade of a weapons system.
    This new framework encourages the program managers to accept a 
manageable level of risk while attempting to transition ``high-risk'' 
S&T programs into weapon systems. The framework allows for technology 
insertion by a program manager at any point along a program's life 
cycle to take advantage of rapidly maturing technologies and ensures 
technological superiority to the warfighter is maintained.
    Secretary Johnson. The Navy research and development community is 
working together to speed the transition of science and technology into 
the acquisition community. There are two major initiatives underway to 
reduce the risk of technology transition: the FNC process and the 
Commercial Technology Transition Office (CTTO).
Future Naval Capabilities (FNC)
    FNCs are programs to shape the next Navy and Marine Corps. 
Developed and managed by integrated product teams with members of the 
acquisition, requirements, S&T, resource, and warfighter requirements 
communities, the FNC fill the gap that all too often opens between the 
S&T community and the acquisition commands.
    The FNC process delivers maturing technology to acquisition program 
managers for timely incorporation into platforms, weapons, sensors, and 
process improvements. With a total investment of $578 million in fiscal 
year 2002, over $640 million in fiscal year 2003 and $500 million 
planned for fiscal year 2004, FNCs support the Secretary of the Navy's 
goals to: (1) increase combat capability, (2) enhance personnel 
performance, (3) introduce advanced technology, and (4) improve 
business practices.
    The FNC process is already delivering products to the acquisition 
community. The Autonomous Operations FNC program is pursuing a dramatic 
increase in the performance and affordability of naval air, surface, 
ground, and underwater autonomous vehicles-unmanned systems able to 
operate with a minimum of human intervention and oversight. The 
Autonomous Operations FNC gives us a great potential to operate 
effectively in what would otherwise be denied areas and supports Sea 
Shield and Sea Strike.
    In fiscal year 2004, for example, we will transition the Gladiator 
Tactical Unmanned Ground Vehicle to the Marine Corps. Gladiator is 
intended to support dismounted infantry across the spectrum of conflict 
and throughout the range of military operations. It will enhance the 
tactical commanders' ability to detect, identify, locate, or neutralize 
a broad range of threats.
    A great deal of our transformational effort is lodged in the FNCs. 
The key to successful transformation is the strong business partnership 
among scientists, industry, requirements, acquisition, and warfighters.
Commercial Technology Transition Office (CTTO)
    To help enable the transition of technology into naval acquisition 
programs, the CTTO is staffed with personnel with business skills as 
well as technical expertise, who are able to communicate effectively 
with acquisition professionals and empowered to negotiate with them. 
For the Department of the Navy, this role will be filled by the 
Commercial Technology Transition Office at the Office of Naval 
Research, which is explicitly dedicated to transitioning technologies 
into acquisition programs, works under the aegis of the Assistant 
Secretary of the Navy (Research Development and Acquisition) 
(ASN(RD&A)) and coordinates closely with the newly-created Deputy 
Assistant Secretary of the Navy (Research, Development, Technology and 
Engineering) (DASN(RDT&E)). By carefully matching mature technologies 
to specific needs, the CTTO has already concluded 20 technology 
insertion agreements with senior acquisition managers and has earned 
their trust.
    Beginning in fiscal year 2004, the new Rapid Technology Transition 
Program Element, PE 0203761N, has been requested to fund the activities 
of the CTTO. This program element will provide the seed funding needed 
to get a fast start on technology insertion projects, including a 
number of candidates already in the pipeline. The CTTO plans to follow 
through on leads generated in the dialogue with venture capitalists to 
add to the pipeline of candidate insertion agreements.
    Secretary Roche. One way of rapidly transitioning technology to the 
warfighter and accelerating transformation is through the Air Force 
Applied Technology Councils (ATCs) and the Advanced Technology 
Demonstrations (ATDs). The councils are composed of two- and three-star 
generals from the Air Force Research Laboratory (AFRL), our logistic 
centers, our acquisition product centers, and our major user commands 
who formally prioritize ATD programs. We hold an ATC meeting with each 
Major Command twice a year and have commissioned 34 ATDs that have 
transition funding. The ATC process is extremely important in linking 
the S&T program to the system developers, the logisticians, and the 
operational users. This process facilitates technology transition to 
operational use and secures user commitment for resources to do systems 
design and development and fielding of the technology.

    49. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, how can you protect the funding of programs that are 
attempting to plan and program assuming the success of current S&T 
programs in the event of technical delays?
    Secretary White. Programs that are dependent on success of S&T 
programs ``protect'' their funding by minimizing the risk of the S&T 
program to their overall program. Risk is minimized a couple of 
different ways. Program managers utilize evolutionary or spiral 
development to allow open architecture within their hardware design so 
that if the S&T program is not successful, they can replace that 
component with proven technology. This still allows the program manager 
to integrate the new technology when it becomes mature.
    In addition, the TRAs are designed to minimize program risk of 
incorporating new technology, and the evolutionary/spiral development 
open architecture design process allows for programs to continue 
forward using proven technology in lieu of new technology that may have 
been delayed due to unsuccessful S&T efforts. Combined, these practices 
are designed to help protect funding of programs planning on the 
success of S&T programs.
    Secretary Johnson. The Navy S&T community is actively and 
cooperatively working with the acquisition community to speed and 
ensure the efficient transition of S&T products into the fleet. In 
order to reduce the inherent risks of any technology transition of S&T 
products to the acquisition community, the ONR, in 1999, implemented a 
new initiative called the FNC process.
    The FNC process delivers maturing technology to acquisition program 
managers for timely incorporation into platforms, weapons, sensors, and 
process improvements. With a total investment of $578 million in fiscal 
year 2002, over $640 million in fiscal year 2003 and $500 million 
planned for fiscal year 2004, FNCs support the Navy's goals to: (1) 
increase combat capability, (2) enhance personnel performance, (3) 
introduce advanced technology, and (4) improve business practices.
    The 12 FNCs concentrate scientific, technologic, and funding 
resources to deliver specific programs and products to the acquisition 
commands on mutually agreed upon schedules. Developed and managed by 
Integrated Product Teams (IPT), consisting of members of the 
acquisition, requirements, S&T, resource, and above all, warfighter 
communities, the FNCs bridge the technological gap that often develops 
between the S&T community and the acquisition commands. Through a 
consensus- based approach, the IPT provides critical transition-focused 
management oversight of all S&T products. Each S&T product is required 
to have a Technology Transition Agreement (TTA). The TTA serves as the 
contract between the S&T and acquisition communities and provides all 
product and transition-relevant information. This includes a 
description of the product to be delivered, the identification of exit 
criteria (key technical/performance parameters), target acquisition 
platform/program, requirements, resource, and demonstration information 
as well as an assessment of the Technology Readiness Level (TRL) of the 
product at the time of transition. The TTA are signed by the S&T, 
acquisition and resource/requirements sponsors, thus eliminating any 
potential ambiguity.
    Additionally, S&T managers sponsor product-specific ``industry 
days'' to solicit input from potential industrial performers regarding 
technological development strategies and associated manufacturing 
issues. This systematic approach of integrating key stakeholder 
opinions and perspectives serves to reduce the overall risk associated 
with the successful technological development and subsequent 
integration of an S&T product into an acquisition program.
    A key component of the IPT-led FNC process is the formal commitment 
of the acquisition community to accept the technologically-ready FNC 
products and commit funds to transition them. For example, the Organic 
Mine Countermeasures (OMCM) FNC is working to provide our forces with 
an organic--that is to say, an inherentability to detect, characterize, 
and neutralize mines, wherever they may be encountered. Closely aligned 
with the tenets of Sea Shield, the OMCM FNC has recently transitioned 
several important products. One of them, the REMUS autonomous 
underwater vehicle, is currently supporting our operating forces as 
they search for mines in Operation Iraqi Freedom. REMUS was also used 
in the weeks immediately following September 11 to help secure our 
domestic ports. REMUS has emerged from a basic oceanographic research 
program and successfully transitioned to our Special Operations Forces.
    The overall FNC process is managed through ONR and the Deputy 
Assistant Secretary of the Navy for RDT&E and is overseen by the 
Department of the Navy S&T Corporate Board, a four-star level group 
consisting of the Vice Chief of Naval Operations, the Assistant 
Commandant of the Marine Corps, and the Assistant Secretary of the Navy 
for Research Development and Acquisition. As the FNC approval 
authority, the Corporate Board serves to provide the macro-level 
investment balance of the Navy's S&T portfolio.
    Secretary Roche. Our ATC process facilitates technology transition 
to operational use and secures user commitment for resources to do 
systems design and development and fielding of the technology. In this 
way, we ``protect'' funding for our ATDs. In addition, we review these 
ATDs several times during their existence to ensure the technology is 
maturing as expected. If delays are encountered, all appropriate 
leadership is informed at that time during the ATC.

               UNFUNDED SCIENCE AND TECHNOLOGY PRIORITIES

    50. Senator Levin. Secretary White, Secretary Johnson, and 
Secretary Roche, please provide a prioritized list of unfunded S&T 
projects that the committee can utilize in its consideration of the 
fiscal year 2004 budget request.
    Secretary White. The Army's unfunded priorities provided to 
Congress included two S&T efforts that we were unable to fully fund in 
the fiscal year 2004 budget: $28 million for FCS Manufacturing 
Technology (ManTech) and $12 million for the Future Tactical Truck 
System (FTTS). The ManTech funding would provide technology solutions 
to avoid costs in developing munitions and sensors critical to FCS. 
These include micro electro-mechanical systems for safe and arm 
functionality, reducing the size and increasing performance of inertial 
measurement units in munitions, and uncooled infrared sensors for 
target detection and identification.
    The FTTS S&T program is a new effort pursuing technologies for next 
generation medium and heavy tactical cargo vehicles. The primary goals 
of the FTTS program are to determine the tactical efficiencies of a 
hybrid-electric vehicle to reduce logistics demands and increase 
mobility and survivability by adding technologies such as enhanced 
situational awareness and add-on armors. The FTTS funding would provide 
embedded prognostics and intelligent load handling, a vehicle/load 
alignment system, and a smart load conforming tie-down system.
    Secretary Johnson. In building the fiscal year 2004 President's 
budget request, the Department had many competing priorities. I feel 
that the request reflects the best balance of resources to accomplish 
the mission of the Department. While the list of efforts below would 
expand the scope of our S&T request, they need to be considered in the 
overall context of Navy and Marine Corps unfunded priorities. Unfunded 
priorities have been provided to various committees by way of a joint 
CNO/CMC letter.

------------------------------------------------------------------------
                                        Fiscal
                Title                    Year           Comments
                                        2004 $
------------------------------------------------------------------------
Electric Based Weapons...............    61.00  Accelerated research and
                                                 development of the
                                                 electrical components,
                                                 electrical control
                                                 systems and material
                                                 technologies needed to
                                                 support electric
                                                 weapons deployment is a
                                                 very high risk,
                                                 extremely high payoff
                                                 investment area.
                                                 However, significant
                                                 investments in these
                                                 areas will provide a
                                                 revolution in Naval
                                                 Fires, Time Critical
                                                 Strike, and Platform
                                                 Self-Defense while
                                                 significantly reducing
                                                 the logistics footprint
                                                 required to support
                                                 this mission area.
                                                 Products include
                                                 Electromagnetic Gun
                                                 Naval Fires, advanced
                                                 directed energy self-
                                                 defense weapons, and
                                                 Free Electron Laser
                                                 100KW demonstration.
CVN-21/Advanced                          49.00  Accelerated research and
Capability Ship......................            development of the
                                                 electrical components,
                                                 electrical control
                                                 systems and material
                                                 technologies needed to
                                                 support significant
                                                 expansion of electric
                                                 power systems and
                                                 reduction of high
                                                 maintenance fluid
                                                 systems is a complex
                                                 high risk, high payoff
                                                 investment area.
                                                 However, significant
                                                 investments in these
                                                 areas will ``unlock''
                                                 the significant amount
                                                 of propulsion power for
                                                 enhanced warfighting
                                                 capability, such as
                                                 higher sortie rates,
                                                 increased striking
                                                 capability, and
                                                 improved self-defense
                                                 while significantly
                                                 reducing system
                                                 maintenance and
                                                 logistics footprint
                                                 required to support
                                                 these platforms.
FORCENET.............................    45.00  Develop and demonstrate
                                                 a shipboard ADM of an
                                                 Advanced Multifunction
                                                 RF System (AMRF-C) that
                                                 will encompass current,
                                                 planned, and future-
                                                 growth comms, EW, and
                                                 LPI radar functions in
                                                 C, X, and Ku Bands for
                                                 LCS, DDX subs, and
                                                 CVN21. Demonstrate wide-
                                                  and narrow-band anti-
                                                 jam (AJ) waveforms, a
                                                 wideband AJ high
                                                 altitude UAV comms and
                                                 network package, and a
                                                 narrowband AJ/LPI/LPD
                                                 comms and network
                                                 package (JTRS)
                                                 necessary for planned
                                                 and future FORCENET
                                                 use. Develop
                                                 technologies and
                                                 architectures to
                                                 support high data rate,
                                                 uninterruptible network
                                                 to deployed sea base
                                                 and forces projected
                                                 ashore.
Space S&T............................    17.10  Provide the next
                                                 generation of
                                                 technologies to enhance
                                                 and transform both
                                                 naval and joint
                                                 warfighting
                                                 capabilities. The
                                                 enhancement of space-
                                                 based communications,
                                                 navigation, ISR, METOC,
                                                 and space control all
                                                 hinge on the
                                                 development of
                                                 spacecraft, payloads,
                                                 and components which
                                                 are more robust,
                                                 responsive, covert, and
                                                 economical. Examples of
                                                 target technologies are
                                                 micro-satellites, MEMS,
                                                 high bandwidth encoding
                                                 techniques, autonomous
                                                 operations, etc.
Precision Strike/Solutions               60.10  Provide jam-resistant
to GPS Jamming.......................            missile guidance by
                                                 ultra-tightly-coupled
                                                 GPS/INS system when
                                                 stand-alone GPS
                                                 receiver is jammed,
                                                 thereby circumventing
                                                 jammer threats. The
                                                 ultra-tightly-coupled
                                                 GPS/INS will increase
                                                 precision flight time
                                                 of weapon to target and
                                                 hands off to inertial
                                                 navigation to guide the
                                                 weapon when jammed for
                                                 the last few minutes of
                                                 flight. Precision
                                                 navigation, guidance,
                                                 and control in a GPS
                                                 denied environment; Nav
                                                 by imagery, low cost
                                                 MEMS and laser IMUs and
                                                 weapon integrated
                                                 precision timekeeping.
                                                 Precision target
                                                 location sensors across
                                                 EM/optical spectrum and
                                                 signal/image track
                                                 processors both on and
                                                 off-board surface, air,
                                                 and gun launched
                                                 weapons. Network,
                                                 computational, and
                                                 mission planning
                                                 technology for
                                                 precision targeting.
                                                 Aircraft and weapon
                                                 airframe and propulsion
                                                 technologies to counter
                                                 emerging threat
                                                 spectrum.
Littoral ASW (LASW)..................    50.00  Significantly increase
                                                 ASW applied research to
                                                 provide technology to
                                                 meet the 2015 threat.
                                                 Develop components of
                                                 advanced off-board
                                                 distributed systems.
                                                 Develop technology for
                                                 cross platform sensor
                                                 level fusion and
                                                 estimating performance
                                                 of advanced sensors.
                                                 Demonstrate airborne
                                                 electromagnetic
                                                 detection system for
                                                 Multi-Mode Aircraft and
                                                 UAVs. Demonstrate wide
                                                 area cueing using
                                                 advanced electro-optic/
                                                 infra-red systems and
                                                 high altitude long
                                                 endurance UAVs.
                                                 Demonstrate components
                                                 for transition to light
                                                 weight torpedo plan
                                                 product improvement
                                                 program.
MANTECH..............................     5.50  Although Navy previously
                                                 committed to Congress
                                                 to funding the program
                                                 at $60 million per
                                                 year, PB04 (fiscal year
                                                 2004) request is only
                                                 $54.5 million.
Academic Research Fleet                  80.00  There is a pressing need
Renewal-UNOLS........................            to modernize the
                                                 country's aging
                                                 Academic Oceanographic
                                                 Research Fleet through
                                                 an orderly, phased
                                                 renewal plan with
                                                 construction of four
                                                 new Ocean Class ships
                                                 and three new Regional
                                                 Class ships over the
                                                 next 10 years.
Seabasing/STOM.......................    24.00  Logistics planning and
                                                 execution from CONUS to
                                                 Seabase and Objective.
                                                 Develop capabilities to
                                                 support Command and
                                                 Control on the move
                                                 from the Seabase to the
                                                 Objective. Naval
                                                 Surface Fire Support
                                                 improvements in range,
                                                 projectiles/fusing,
                                                 precision, and volume
                                                 of fire. Ammunition
                                                 resupply of surface
                                                 combatants.
Organic MCM..........................     6.00  Protective Mining--
                                                 Protect sea basing.
                                                 Integrated joint
                                                 command and control for
                                                 multiple, cooperating
                                                 unmanned systems.
                                                 Provides residual for
                                                 LCS.
Mine Countermeasures                     30.00  Develop clandestine
Reconnaissance.......................            approaches to networked
                                                 minehunting using fully
                                                 autonomous, cooperative
                                                 vehicles with
                                                 classification sensors
                                                 reporting tactical
                                                 control ID indicators.
                                                 Develop and demonstrate
                                                 mission capability
                                                 package for LCS using
                                                 coordinated swarms of
                                                 autonomous,
                                                 interactive, underwater
                                                 vehicles engaged in
                                                 networked minehunting.
  TOTAL                                 427.70
------------------------------------------------------------------------

    Secretary Roche. One of the most important efforts currently 
ongoing within our S&T program is the work we're doing to enhance the 
Battlefield Air Operations (BAO) kit equipment carried by the Air Force 
Special Tactics Controllers who perform operations deep in enemy 
territory to help identify who the terrorists are, where their weapons 
are located, and who the innocent civilians are. Using very rapid 
spirals to speed development, prototyping, testing, production, and 
fielding, the Air Force is working to realize significant enhancements 
to these kits, while reducing weight and size. The following list is a 
representative summary of high priority S&T efforts, including 
enhancements to the BAO kit, for which the Air Force could use 
additional funding in fiscal year 2004. A more detailed, comprehensive 
list has been provided to the Senate Armed Services Professional Staff 
as requested.

                        [In millions of dollars]
------------------------------------------------------------------------
                           Effort                               Amount
------------------------------------------------------------------------
BAO Kit Enhancements........................................      13.000
Basic Research for Nanosatellites, Space Control, Command          8.000
 and Control, and Super Energetic Propellants...............
Intelligence, Surveillance, and Reconnaissance (ISR)              11.800
 Automation for Time-Critical Targeting.....................
Joint Battlespace Infosphere................................      13.900
Electronically Steerable Array and Space-Based Radar On-          10.000
 Board Processing...........................................
Advanced Payload--Hard and Deeply Buried Targets............       3.000
Commanders' Decision Aids for Predictive Battlespace               3.500
 Awareness..................................................
Laser Infrared Flyout Experiment Advanced Technology               7.400
 Demonstration..............................................
Denied Area Surveillance....................................       1.000
Airborne Active Denial System Integrated Concept............      35.860
Force Protection............................................       3.000
Human Systems Countermeasures to Future Laser Threats.......       3.100
Targets Under Trees.........................................       3.800
Effects-Based Operation.....................................       4.000
------------------------------------------------------------------------

                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                           DEPOT MAINTENANCE

    51. Senator Akaka. Secretary Roche, the Air Force's fiscal year 
2004 budget request for depot maintenance is at its lowest level in a 
decade. At the same time, the operational tempo of its aircraft is very 
high and it appears that it is likely to remain at high levels, if not 
grow higher, for the foreseeable future. Why did the Air Force choose 
to reduce maintenance funding under the current circumstance?
    Secretary Roche. We increased our funding by $226 million from 
fiscal year 2003 to fiscal year 2004 in the fiscal year 2004 
President's budget for depot maintenance. However, our requirements 
grew by $486 million for that same period. The increase in funding 
applied by the Air Force was quickly absorbed by aging aircraft issues 
that are increasing both material consumption and direct labor hours. 
For example, the depot work package for KC-135E aircraft has doubled in 
the last 10 years, primarily due to aging aircraft issues. One factor 
is the corrosion on the engine struts, the point at which the engines 
attach to the wing. This corrosion must be repaired now or it will 
continue to worsen, become more expensive to repair over time, and 
could impact the safety of flight/airworthiness of our KC-135E fleet. 
There are numerous examples like this across all our fleets. We faced 
tremendous pressure in this budget and took some risk within depot 
maintenance, knowing that we will have challenges to work in fiscal 
year 2004. We are committed to working those challenges.

    52. Senator Akaka. Secretary Roche, do you believe these reductions 
are consistent with maintaining ready forces in the near- and mid-term?
    Secretary Roche. Right now, the Air Force is experiencing its best 
readiness posture in years: Aircraft down for spare parts is less than 
11 percent--the best it has been since fiscal year 1996. 
Cannibalization rates have decreased 26 percent since fiscal year 1997. 
Engine readiness is at its highest level since fiscal year 1998. We 
have been able to do that with your help and with some help from the 
OSD. We know we have challenges in fiscal year 2004 as we try to 
maintain our forward progress in improving our readiness posture. 
Obviously, we have to look at trade-offs and make tough decisions, but 
the impact to readiness will be one of the first questions asked as we 
work through those decision sets. We are committed to working through 
those challenges and addressing any backlogs in fiscal year 2005.

                         BASE OPERATING SUPPORT

    53. Senator Akaka. Secretary White, Secretary Johnson, and 
Secretary Roche, the fiscal year 2004 budget request for each of your 
Services includes reductions in base operating support. These accounts 
fund critical aspects of keeping our military installations running 
safely and efficiently. In addition, they frequently serve as 
``flexible'' accounts from which money is drawn in the short-term for 
ongoing operational demands. Many times, these funds are not fully 
replaced by future supplemental allocations. Are you comfortable with 
these reductions?
    Secretary White. The Army took some risk by funding higher 
priorities in force protection and replenishing depleted peacetime 
spares inventories to eliminate a significant readiness issue. We will 
continue to provide quality services to our soldiers and their families 
but in some instances, the quantity of services will be reduced.
    Secretary Johnson. From a broad readiness perspective, I expect no 
negative impact on shore installation readiness as a result of the 
fiscal year 2004 budget request for base operating support. The fiscal 
year 2004 budget is aligned with previous years in terms of producing a 
constant level of capability. In our effort to reduce support costs, we 
are making organizational and process changes in the management and 
delivery of installation support. Key to this effort is the 
establishment of a single consolidated organization, Commander, Navy 
Installations (CNI), whose core mission is management and operation of 
shore installations. The fiscal year 2004 budget reflects anticipated 
efficiencies, which allow us to produce the same capability at a lower 
cost.
    Secretary Roche. The reduction in our fiscal year 2004 Base 
Operating Support account results from three factors:
    (1) A reduction in the Defense Finance and Accounting Service 
annual payment. This reduction is based on historical levels paid to 
the Defense Finance and Accounting Service for financial services.
    (2) Rate reductions from the Transportation Working Capital Fund. 
Because the Transportation Working Capital Fund posted higher earnings 
in fiscal year 2002 during Operation Enduring Freedom, the carryover 
results in reduced rates in fiscal year 2004.
    (3) Fiscal constraints and the realignment of funding to other Air 
Force priorities. While not completely comfortable with these 
reductions, the Air Force must balance funding across its full spectrum 
of requirements. We have included a $160 million request for base 
operating support on the fiscal year 2004 Unfunded Priority List.

    54. Senator Akaka. Secretary White, Secretary Johnson, and 
Secretary Roche, what are both the short- and long-term implications of 
these decreases, both for morale and for future funding requirements?
    Secretary White. The short-term implication will be reduced 
services. In the long-term, the Army will need to increase base 
operations support to ensure we meet soldiers' needs. Affordability 
limits the amount of funding that can be devoted to base operations 
support.
    Secretary Johnson. I anticipate no long- or short-term implications 
for these decreases. While projections of shore installation 
requirements show the submitted budget less than 3\1/2\ percent short 
of the requirement to sustain current levels of service through fiscal 
year 2004, these calculations include assumed efficiency savings which 
I believe to be conservative. However, as you know, one of my key 
issues is concern for the quality of service for our service men and 
women. Therefore, you will see included on CNO's Unfunded Programs 
List, an item for an additional $98 million for base operations, to 
reduce the risk of not maintaining a constant level of service in 
fiscal year 2004, which in turn may affect the quality of service 
experienced by our sailors.
    Secretary Roche. In the short-term, the fiscal year 2004 base 
operating support program decrease will lower the level of services 
provided at our installations. Commanders are aware of base operating 
support service level reductions and typically take measures to 
mitigate morale impacts by allocating available end-of-year funding for 
quality-of-life items.
    In the long-term, the Air Force will continue to strive to balance 
adequate base operating support funding with the need to fund other Air 
Force requirements.

                            EXECUTIVE AGENCY

    55. Senator Akaka. Secretary White, Secretary Johnson, and 
Secretary Roche, the Under Secretary of Defense (Comptroller) recently 
stated that his office is conducting a review of whether the Services 
should continue to have ``executive agent'' responsibilities for 
various DOD functions. What are your views on this subject? What 
alternatives to executive agency should be considered?
    Secretary White. While I have not seen the Under Secretary of 
Defense (Comptroller) review you mention, I believe the Services should 
continue to have executive agent responsibilities because this 
minimizes duplication of Service efforts and resources. I do, however, 
have several concerns about executive agent responsibilities. These 
responsibilities must be reviewed frequently by the OSD to ensure they 
are still appropriately assigned and the Services should be resourced 
to accomplish their assigned responsibilities.
    DOD is addressing these issues with DOD Directive 5100.88 (DOD 
Executive Agent) published on September 3, 2002. While this directive 
is still in the process of being fully implemented, it establishes 
procedures to address the Army's concern that Services are assigned 
executive agent responsibilities, yet not provided the resources to 
meet those responsibilities. DOD Directive 5100.88 specifies procedures 
to identify funding methods and resource requirements and include them 
in the planning, programming, budgeting, and execution process. In the 
future, Services will not have to take funds from Service specific 
programs to fund their executive agent responsibilities. DOD Directive 
5100.88 also instructs the OSD Director of Administration and 
Management to maintain, monitor, and revise the list of DOD Executive 
Agent designations and make it available to all DOD components.
    The Army is not aware of any better alternatives to executive agent 
responsibilities and believe that our efforts should focus on fully 
implementing Directive 5100.88 to identify executive agent 
responsibilities and ensure they are properly resourced.
    Secretary Johnson. Navy has Executive Agency of Joint Forces 
Command (JFCOM) and Pacific Command (PACOM). In light of the ongoing 
study underway by Office of the Under Secretary of Defense 
(Comptroller) and Joint Staff, the Navy is in a position to evaluate 
the alternatives as they are finalized. The current system affords the 
opportunity for the Navy and the Combatant Commands to actively engage 
in discussion and evaluation of issues in order to gain a general 
understanding of the requirements.
    Secretary Roche. A fiscal year 2004 Program Decision Memorandum 
gave the Under Secretary of Defense (Comptroller), in concert with the 
Under Secretary of Defense (Programs, Analysis, and Evaluations), and 
the Joint Staff, the responsibility for identifying alternatives to 
Executive Agency to the Senior Level Review Group (SLRG). The Air Force 
has been told the alternatives will range from keeping the current 
system to totally replacing it. The Office of the Secretary of Defense 
and Joint Staff internal review process is ongoing; the task force is 
preparing a briefing for the SLRG but the meeting has not yet been 
scheduled.

                           TRANSITION FUNDING

    56. Senator Akaka. Secretary White, Secretary Johnson, and 
Secretary Roche, as DOD places increasing emphasis on joint 
experimentation, some have suggested that Joint Forces Command (JFCOM) 
should be provided with its own funding in order to purchase promising 
items quickly and get them directly into the hands of the regional 
combatant commanders. In your view, does JFCOM need such an account?
    Secretary White. In meeting its responsibilities as the lead Joint 
Force Integrator and DOD's executive agent for Joint Warfighting 
Experimentation, JFCOM already performs a significant and valuable 
function. In this capacity, JFCOM develops future joint warfighting 
concepts and validates those with the most promise through joint 
experimentation. If the analysis indicates changes in doctrine, 
organizations, training, materiel, leadership and education, personnel, 
and facilities are warranted to enhance joint, multi-national, or 
interagency interoperability, JFCOM forwards these through the Joint 
Requirements Oversight Council (JROC) to the Chairman of the Joint 
Chiefs of Staff (CJCS) and Services for implementation.
    We have received and acted upon a number of recommendations since 
this process began last year, but JFCOM does not have the procurement 
processes or the expertise necessary to implement a rapid acquisition 
program that would flow from funding as you describe. The Army believes 
the Joint community is best served by JFCOM continuing to serve as the 
focal point for concept development and experimentation and providing 
specific change recommendations to the CJCS and Services through the 
JROC. The military departments and Defense agencies already have the 
acquisition mechanisms and expertise, with oversight provided by the 
JROC and OSD, to rapidly procure and distribute items to the regional 
forces assigned to combatant commanders. In addition to the normal 
acquisition process, which is currently undergoing significant 
improvements and streamlining, we have dramatically improved our rapid 
acquisition programs to quickly provide promising and ``off-the-shelf'' 
products and capabilities to Army forces and combatant commanders.
    Secretary Johnson. Draft Defense Planning Guidance for Fiscal Year 
2005 proposes the establishment of a Joint Rapid Acquisition Program 
(RAP) by USD(AT&L) in coordination with JFCOM to rapidly acquire joint 
capabilities for fielding. It further states that Joint RAP ``will 
accelerate acquisition by starting development in the fiscal year with 
bridge funds that tie the joint acquisition initiatives to the 
Planning, Programming and Budgeting System (PPBS) process.'' The 
program is intended to allow the rapid testing and evaluation of 
emerging technologies to facilitate transformational initiatives. Since 
the existing PPBS processes do not support rapid test, evaluation, and 
acquisition, some mechanism will need to be established, and Navy 
supports the development of Joint RAP.
    Secretary Roche. Joint Forces Command funding authority for rapid 
acquisitions carries risk. Experimentation results alone do not provide 
the total evaluation required to ensure future interoperability and 
sustainability. Title X provides the Secretary of the Air Force with 
the responsibility for equipping Air Forces for the combatant 
commanders. In close partnership with JFCOM, we can apply Service 
acquisition processes to rapidly deliver those capabilities to the 
regional combatant commanders and ensure corresponding programming 
strategies for sustainment and upgrades.

    57. Senator Akaka. Secretary White, Secretary Johnson, and 
Secretary Roche, what would the impact be on your Service and its 
support to the regional commanders?
    Secretary White. The most significant impact would be on the 
oversight provided by the JROC. This body oversees the development and 
implementation of warfighting solutions to ensure joint coherency. 
Elimination of JROC oversight will increase the challenges associated 
with program integration and synchronization of the capabilities 
provided to regional combatant commanders. As mission executers, 
combatant commanders rely on the military departments and Defense 
agencies to provide effective and interoperable forces and capabilities 
through their respective Service component commands, particularly 
important as forces are shifted between theaters for operational 
missions. Mature processes and procedures to accomplish this are in 
place and working. Providing JFCOM funding and acquisition authority 
would unnecessarily complicate the challenge of providing synchronized 
and integrated capabilities to combatant commanders.
    Secretary Johnson. Draft Defense Planning Guidance for Fiscal Year 
2005 states that start-up funding for the Joint Rapid Acquisition 
Program will be provided in fiscal year 2005 and out. The source of 
these resources has not been identified. Assuming that these resources 
are provided to the Navy, any long-term financial impact will be 
related to the technologies tested. Assuming positive testing and 
evaluation, the bridge funding proposed in the language will allow some 
transition period for the Services to identify appropriate funding 
alternatives.
    Secretary Roche. The Air Force believes we are currently on the 
right approach in teaming with JFCOM to identify transformation needs 
and capabilities and then applying Service acquisition processes to 
deliver these capabilities to the regional commanders. The addition of 
acquisition authority to JFCOM would only serve to complicate a teaming 
arrangement that we believe is working. There is no process to 
synchronize the timing between JFCOM rapidly purchasing a capability 
and the ability of the Service to program for training, fielding, and 
sustainment. Ultimately, the lack of a coherent implementation plan 
will impact support to the regional commander.

                          HOUSING INITIATIVES

    58. Senator Akaka. Secretary Johnson, in your written testimony you 
state that the Navy relies first on the local community to provide 
housing for our sailors, marines, and their families. Given today's 
threat environment how does the Navy propose to address force 
protection concerns for those sailors and marines living off base on 
the local economy?
    Secretary Johnson. The Navy's force protection plans for families 
living in the private sector are much the same as for civilians. 
Currently, about three out of every four Navy families live in the 
private sector, side by side with their civilian counterparts. Security 
and protection for these families are provided through the existing 
network of Federal, State, and local law enforcement authorities 
currently protecting all of our citizens. The dispersal of military 
personnel into the private sector reduces the exposure of military 
personnel to force protection threats. Additionally, the regular 
training and awareness provided to active duty members on the issue of 
antiterrorism and force protection contribute to the safety of military 
families regardless of where they live.

            ANTI-TERRORIST/FORCE PROTECTION (AT/FP) FUNDING

    59. Senator Akaka. Secretary White, Secretary Johnson, and 
Secretary Roche, according to the administration, homeland defense 
funding drops in the fiscal year 2004 request due to one-time force 
protection investments in 2003. Out of the approximate $2 billion 
decrease for the Department, homeland defense funding for MILCON, which 
represents AT/FP funding, drops from $733 million to $82 million. What 
progress have you made in the buy-out of AT/FP requirements for our 
installations? Are we almost finished fulfilling the requirements, or 
should we expect additional requirements in fiscal year 2005, fiscal 
year 2006, fiscal year 2007, and the future?
    Secretary White. The Army has significant requirements in MILCON, 
operations and maintenance, and procurement in fiscal year 2005 to 
fiscal year 2009.
    The Army has made significant progress in buying AT/FP requirements 
for our installations. In fiscal year 2003, approximately $211 million 
will be spent on AT/FP MILCON projects related to installation access 
control. Additionally, approximately $302.4 million of Other 
Procurement, Army will be spent on physical security equipment 
controlling access on installations.
    Secretary Johnson. Through Joint Service and Navy Integrated 
Vulnerability Assessments, critical facilities at each installation are 
regularly assessed. These assessments compare existing critical 
facilities against prevailing construction criteria. The Vulnerability 
Assessments are performed on a 3-year cycle for CONUS installations, 
and every 2 years for OCONUS installations. In addition, installations 
are required to perform self-vulnerability assessments annually. Based 
on the results of these assessments, the Navy continually looks at its 
Antiterrorism/Force Protection (AT/FP) requirements for our 
installations, and programs the most needed projects. As such, there 
could be additional requirements for AT/FP projects for fiscal year 
2005 and beyond as these assessments are completed. The fiscal year 
2004 President's budget future years defense program indicates that the 
total resource requirement to address the Navy's force protection needs 
with military construction is $542.3 million. It should be noted that 
each military construction project is designed to incorporate 
antiterrorism/force protection construction standards.
    Secretary Roche. With the fiscal year 2003 enacted budget, the Air 
Force is investing more than $450 million in antiterrorism/force 
protection facility requirements. Of this amount, more than $200 
million is being invested through our military construction program.
    For fiscal year 2004, we have requested nearly $20 million for 
antiterrorism/force protection-specific projects (e.g., perimeter 
fencing, entry access gates) and antiterrorism/force protection design 
requirements embedded into other construction projects. In addition to 
this investment, we still have antiterrorism/force protection 
requirements programmed in our future years defense plan. Specifically, 
the Air Force has identified approximately $100 million in requirements 
for fiscal years 2004-2009. These projects either enhance existing 
antiterrorism and force protection measures or eliminate inefficiencies 
caused by existing workarounds. They include, for example, fencing, 
entrance gates, and vehicle inspection stations.

                            OVERSEAS BASING

    60. Senator Akaka. Secretary White, Secretary Johnson, and 
Secretary Roche, could each of you please discuss the support you 
currently receive through host nation construction programs such as the 
Japanese Facilities Improvement Project in Japan and the Funded 
Construction Program in Korea as well as support in Europe?
    Secretary White. The host nation funded construction programs 
consist of the Facilities Improvement Program (FIP) in Japan, the 
Combined Defense Improvement Program (CDIP), and the Republic of Korea 
Funded Construction (RoKFC) program in Korea. In Europe, we also have a 
Payment-In-Kind (PIK) program in Germany under which we use residual 
value to build facilities.
    The primary host nation funded construction program is the FIP, 
which has provided about $700 million of construction per year. The 
program was implemented in 1979 and over the past 20 years, the 
Government of Japan has built $19 billion of new quality of life and 
operational facilities for our U.S. service members.
    In Korea, the CDIP was initiated in 1982 by the Republic of Korea 
to share the financial burden of maintaining U.S. Forces in Korea. The 
CDIP funds projects that support only warfighting and operational 
facilities, and total about $50+ million of construction per year. 
Residual value is a method for Germany to provide compensation for the 
Army's improvements to facilities on installations we return to 
Germany. PIK is residual value that comes in the form of construction 
credits. The PIK program awarded $244 million in construction projects 
through fiscal year 2002.
    Secretary Johnson. The Navy receives host nation funded 
construction (burden sharing) support from both Japan and Korea. The 
Japanese Facilities Improvement Program is funded by the Japanese 
Defense Agency and currently supports four categories of projects: 
force structure or mission increases, family housing (provision of 
housing only) and community support, Japanese initiatives including 
environmental and safety issues, and service initiatives. In Korea, two 
cost sharing programs are in use including the Combined Defense 
Improvement Fund (CDIP) and the Republic of Korea Construction Fund 
(ROKCF). The CDIP supports construction of facilities related to 
improved combat operations, war reserves, and combined U.S./Korea 
operations. The ROKFC supports quality-of-life and sole U.S. use 
projects. In Europe, we use every available funding source, including 
the NATO Security Investment Program (NSIP) for those eligible 
projects, residual value, and payment-in-kind in partnership with the 
host nations.
    Secretary Roche. The Air Force receives support, in the form of 
host-nation funded construction, from NATO, Japan, and Korea. In recent 
years, that support has averaged roughly $300 million per year. The 
funds provided by these countries are used to construct facilities that 
directly support Air Force missions, as well as facilities that support 
quality of life for service members and their families stationed 
overseas. For example, the NATO contribution helps offset construction 
supporting the Air Force's roles in the NATO mission. The Japan 
Facilities Improvement Program (JFIP) supports ``defensive'' 
warfighting capabilities, such as aircraft shelters, and may be used to 
replace ``offensive'' capability facilities that predate 1979. The 
Korean Combined Defense Improvement Program (CDlP) funds combined 
Republic of Korea-United States warfighting requirements; while the 
Republic of Korea Funded Construction (ROKFC) Program funds mission 
support and quality-of-life requirements.
    In addition, under the Rhein Main transfer program, Germany is 
helping to pay for facility construction at Ramstein and Spangdahlem 
Air Bases necessary to relocate the missions currently at Rhein Main 
Air Base. In total, Germany is investing nearly $400 million to help 
pay for construction associated with this relocation. The majority of 
this construction will occur in 2004 and 2005.

    61. Senator Akaka. Secretary White, Secretary Johnson, and 
Secretary Roche, what is the status of each of these programs and how 
do we currently benefit from these partnerships?
    Secretary White. The various host nation funded construction 
programs continue to be an active and important program for our forces 
overseas by providing quality-of-life and operational facilities at 
little or no cost to the U.S. taxpayer.
    Secretary Johnson. All of these programs are active and help share 
the financial burden of a forward deployed posture. In fiscal year 
2002, we received $199 million in support from the Japanese Facilities 
Improvement Program (JFIP) to include $80 million for improvements to 
the Yokosuka carrier pier, and $4.5 million from the Republic of Korea 
Construction Fund (ROKCF) to include a $3.8 million medical clinic in 
Chinhae. In Europe, we use every available funding source, including 
the NATO Security Investment Program (NSIP) for those eligible 
projects, residual value and payment-in-kind in partnership with the 
host nations.
    Secretary Roche. The Air Force receives support, in the form of 
host-nation funded construction, from NATO, Japan, and Korea. In recent 
years, that support has averaged roughly $300 million per year. The 
funds provided by these countries are used to construct facilities that 
directly support Air Force missions, as well as facilities that support 
quality-of-life for service members and their families stationed 
overseas.
    For example, the NATO contribution helps offset construction 
supporting the Air Force's roles in the NATO mission. The Japan 
Facilities Improvement Program (JFIP) supports ``defensive'' 
warfighting capabilities, such as aircraft shelters, and may be used to 
replace ``offensive'' capability facilities that predate 1979. The 
Korean Combined Defense Improvement Program (CDIP) funds combined 
Republic of Korea-United States warfighting requirements, while the 
Republic of Korea Funded Construction (ROKFC) Program funds mission 
support and quality-of-life requirements.
    In addition, under the Rhein Main transfer program, Germany is 
helping to pay for facility construction at Ramstein and Spangdahlem 
Air Bases necessary to relocate the missions currently at Rhein Main 
Air Base. In total, Germany is investing nearly $400 million to help 
pay for construction associated with this relocation. The majority of 
this construction will occur in 2004 and 2005.

    62. Senator Akaka. Secretary White, Secretary Johnson, and 
Secretary Roche, could each of you please describe your Services' 
efforts to consolidate forces overseas with programs such as the Land 
Partnership Plan in Korea and Efficient Basing East in Germany?
    Secretary White. Efficient Basing-East will consolidate the 
activities of 13 installations in Germany onto one, allowing the 
majority of those installations to be closed. Efficient Basing-East 
will enhance unit readiness and effectiveness by improving command and 
control, enhancing force protection, and improving training. Soldier 
quality-of-life will also be improved because new housing and renovated 
or new mission facilities will be provided.
    Land Partnership Plan in Korea will consolidate 41 U.S. Forces, 
Korea (USFK) installations onto 23 enduring installations. Of these 41 
installations, 32 are Army installations which will be consolidated 
onto 14 enduring installations. The plan returns approximately 32,000 
acres to the Republic of Korea (RoK). USFK will receive new facilities 
to replace currently occupied poor facilities with more joint use of 
RoK ranges and training areas to improve training and combat readiness. 
Command and control, force protection, and soldier quality-of-life will 
also improve.
    Secretary Johnson. The Navy has successfully consolidated our 
presence overseas in a number of core locations. In Naples, Italy, 
where we operate multiple sites, we are nearly complete with a major 
effort to consolidate facilities at two sites. A major recapitalization 
at Sigonella, Sicily is underway and a consolidation of facilities at 
La Maddalena will soon begin.
    Secretary Roche. Air Force overseas force structure is inherently 
consolidated since our operations primarily revolve around an airfield. 
For this reason, the Land Partnership Plan and Efficient Basing East 
models are difficult to apply directly to Air Force overseas basing, 
basing that has changed significantly since 1990.
    For example, United States Air Forces in Europe (USAFE) had 805 
aircraft and 72,000 personnel at 51 locations in 1990. Today USAFE has 
220 aircraft and 32,000 personnel at 28 locations--a 45-percent 
reduction in operating locations. This consolidation of locations 
overseas was based in part in the transformation of the Air Force from 
an overseas garrison force to a predominately stateside expeditionary 
force.

                            QUALITY-OF-LIFE

    63. Senator Akaka. Secretary White, Secretary Johnson, and 
Secretary Roche, funding for a number of budget areas that directly 
affect quality-of-life for our service men and women has seriously 
decreased in this year's request. Some examples include a $1.5 billion 
drop in overall MILCON funding, a $200 million cut to family housing, 
and a reduction that brings Army restoration and modernization, or R&M, 
down to a level that is 10 percent of the fiscal year 2002 level. What 
impact will these types of reductions have on the quality-of-life of 
our service men and women and their families?
    Secretary White. Quality-of-life continues to be an Army priority, 
and available funding is focused on restoring or building new 
facilities that improve the living and working conditions for soldiers 
and their families. For example, our budget request supports the 
elimination of inadequate family housing by 2007, compared with 2010 2 
years ago. For single soldiers, we have budgeted over $700 million for 
new and renovated barracks in this year's budget request. While budgets 
fluctuate from year to year, the Army's commitment to barracks and 
family housing improvements has not wavered.
    Secretary Johnson. The Department of the Navy's fiscal year 2004 
budget request represents a balance between funds needed to operate, 
recapitalize and transform our fleet assets with funds needed to do the 
same for our shore installations. We believe our quality-of-life 
programs will continue to provide the kinds and levels of support 
needed by Navy and Marine Corps families.
    We do not anticipate an adverse impact on quality-of-life as a 
result of reductions to MILCON funds for housing. The Department of the 
Navy will eliminate its inadequate military family housing by fiscal 
year 2007. This is possible through increased reliance on the use of 
military housing privatization authorities. These authorities allow us 
to leverage Government resources with private sector capital to 
renovate or replace our inadequate housing and construct additional 
housing as needed. More importantly, the continuing commitment to buy-
down out-of-pocket housing expenses, through increases to the Basic 
Allowance for Housing, will allow our sailors and marines to be better 
able to find suitable, affordable housing in the private sector.
    Secretary Roche. With the fiscal year 2004 budget request, the Air 
Force is continuing to focus on quality-of-life for our people. The 
quality of our facilities, infrastructure, and communities sends a 
direct signal to our men and women regarding the value we place on 
their service.
    Our military construction request is up $150 million from last 
year's request--a 20 percent increase. Included in that request is more 
than $250 million to construct new dormitories, fitness centers, and 
family support/child development facilities.
    Our housing request is up slightly from last year's request and up 
nearly 30 percent from the fiscal year 2002 request. This year we will 
construct or renovate more than 3,600 houses, and with the exception of 
4 northern-tier locations, we will eliminate our inadequate housing 
units in the United States by 2007.
    Finally, our facility sustainment, restoration, and modernization 
(O&M) request is as high as it has been in a decade--nearly $2 billion. 
This level of funding allows us to properly invest in facility 
sustainment (to keep our good facilities good) and invest some O&M 
funding in much-needed restoration and modernization.
    Recent surveys indicate that members perceive no significant 
problems with Air Force quality-of-life. In our newest survey, 90 
percent of respondents agreed that the Air Force is a good place to 
work. Housing ranked fifth and sixth in order of importance of quality-
of-life issues while pay and compensation ranked as the top two. As you 
can see from the preceding paragraphs, we have a get-well plan for 
MILCON. With the help of Congress in these few appropriation cycles, we 
have made significant progress in the area of pay and compensation. We 
have seen dramatic changes in the number of individuals who feel that 
total compensation is fair. We thank you for that much needed support 
and appreciate your question concerning the overall quality-of-life for 
 our members and their families.

                            ORDNANCE CLEANUP

    64. Senator Akaka. Secretary Johnson, you indicated that the Navy 
was planning on treating the island of Kaho'olawe as a formally used 
defense site (FUDS). Given the fact that the FUDS program is severely 
underfunded and that priority is given to unexploded ordnance (UXO) 
clearance in areas with civilian populations, I am concerned about this 
revelation. Please provide me with more detail about the Navy's 
intentions regarding this issue including, but not limited to, how this 
would affect the Navy's responsibilities regarding the clearance of 
newly discovered previously undetected ordnance on Kaho'olawe after 
November 11, 2003.
    Secretary Johnson. The Navy does not plan on treating Kaho'olawe as 
a FUDS after control of the island is returned to Hawaii in November 
2003. The Navy executed a quitclaim deed in 1994 that transferred title 
to Kaho'olawe to the State. DOD policy makes cleanup/clearance of any 
property transferred from DOD control after October 17, 1986 ineligible 
for FUDS funding.
    With respect to the discovery of previously undetected ordnance on 
Kaho'olawe Island after November 11, 2003, the Navy and the State of 
Hawaii have been working on a Memorandum of Agreement concerning the 
means for regular interval clean-ups and removal of newly discovered 
previously undetected ordnance by the Navy, as required by Section 
1002(a)(2) of PL 103139. Representatives from the Navy and the State 
continue to discuss the framework for the agreement. The Navy is 
planning on reserving funds in the Kaho'olawe Island Trust Fund for 
clearance associated with the above discoveries.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                                MANPOWER

    65. Senator Bill Nelson. Secretary White, last week all four 
Service Chiefs testified that their forces were under significant 
``strain'' due to the high operational tempo required by the global war 
on terrorism, peace support operations (Bosnia/Kosovo), and forward 
presence missions (South Korea). In particular, the Army is feeling 
significant strains to its 480,000-soldier force, which is the same 
size as was authorized in the late 1990s despite a substantial increase 
in deployments and combat operations since September 11. A potential 
peace support operation in Iraq requiring thousands of Army troops will 
add to this burden. The Bush administration continues to insist that 
more troops are not required. Instead, they claim that the existing 
force must be used more efficiently. Is the active duty Army big enough 
to accomplish the tasks it has been given?
    Secretary White. Nothing has changed since my last testimony--the 
Army is too small for its mission profile. The reality is that our 
operations tempo (OPTEMPO), already challenging before September 11, 
has increased dramatically in the post September 11 environment. Over 
the past 18 months, mobilizations have maintained a steady state of 
approximately 30,000 Reserve component soldiers, effectively increasing 
our active duty strength to approximately 510,000. We recognize the 
necessity to ensure we look internally to obtain all possible 
efficiencies before making any determinations on potential end strength 
increases.
    A study is currently underway to review Army non-core 
competencies--the Third Wave--with the expectation that some personnel 
savings will be generated for use in mitigating ``force stress.'' 
Additionally, we are fully cognizant of the stress that this steady 
state mobilization is placing on our Reserve components. Studies are 
underway to determine the correct balance of Active and Reserve Forces, 
including an analysis exploring options for mitigating the current 
stress to the Reserve components by ensuring that the correct type 
units are resourced within the active component. The results of these 
studies, coupled with corresponding supportability analyses, are 
expected to provide valuable insight into the end strength question.

    66. Senator Bill Nelson. Secretary White, is it possible to realign 
the existing active force of 480,000 troops to relieve this pressure 
without ``breaking'' the force in terms of training and logistics 
support needs?
    Secretary White. Efforts are currently underway to examine the 
existing active and Reserve component mix. This analysis will include a 
review of those high-demand/low-density organizations, primarily 
located in the Reserve component, that are experiencing extended or 
repeat mobilizations in support of operations worldwide. Any attempt to 
assess impacts to training and logistics support needs would be 
premature until all analysis is complete.

                              SHIPBUILDING

    67. Senator Bill Nelson. Secretary Johnson, the size of the Navy's 
fleet is expected to decline to as few as 292 ships in the coming 
years, yet Admiral Clark has repeatedly testified that he needs a 
minimum of 375 ships to accomplish all the missions he has at a 
reasonable operational pace. Why is there such a large difference 
between what the Navy says it needs and the fleet supported by the 
President's budget?
    Secretary Johnson. To build a force of about 375 ships needed to 
meet the requirements of the new defense strategy will require a major 
commitment of resources over an extended period of time. The fiscal 
year 2004 President's budget includes a significant funding increase 
from fiscal year 2003 to fiscal year 2004 for Navy shipbuilding 
programs. Funding for Navy shipbuilding programs is projected to 
increase across the Future Years Defense Program. In the near term, 
some older, less capable ships will be decommissioned. The operational 
cost savings from retiring these higher manning, maintenance intensive 
ships will be used to help finance the transition to a larger, more 
capable force. This will result in a smaller force in the near term, 
but savings generated by those retirements will facilitate the 
transition to the numbers, type, and mix of ships required to execute 
the range of missions anticipated in the 21st century.

    68. Senator Bill Nelson. Secretary Johnson, can you estimate the 
additional cost involved to bring the size of the fleet anywhere near 
the Chief of Naval Operation's target size?
    Secretary Johnson. To achieve approximately 375 ships in the first 
quarter of this century requires an average of $14 billion per year in 
new construction (TY03 dollars) and procurement of an average of .12 
ships per year. This requires a long-term commitment to fund 
construction at significantly higher levels than recent years. 
Additionally, to sustain this force will require an average of $2 
billion per year (TY03 dollars) for nuclear refueling overhauls, 
conversions, landing craft, and service craft replacement.

                           MANPOWER REDUCTION

    69. Senator Bill Nelson. Secretary Johnson, how do you justify the 
10,000-sailor reduction in the President's budget when the future shape 
and size of the Navy has yet to be determined?
    Secretary Johnson. In conjunction with the execution of our overall 
investment strategy, we continue to conduct extensive reviews focused 
on balancing current and future force operational requirements and 
capabilities, while operating within established fiscal constraints. In 
proposing the budget submission for fiscal year 2004, we determined 
that reducing the number of less capable, manpower intensive platforms 
would free valuable resources essential to future plans for enhancing 
transformational capabilities. The manpower associated with these force 
structure changes results in a smaller requirement.
    Additionally, Navy has various efforts underway that are helping 
improve manpower efficiency and reduce future manpower requirements:

        <bullet> Task Force Excel is exploring innovative techniques to 
        improve how we train sailors.
        <bullet> Sea Swap and Optimal Manning are finding ways to keep 
        battle forces at sea longer while exploring potential areas to 
        restructure crew manning.
        <bullet> FORCENET is aimed at improving manpower efficiency by 
        integrating warriors, sensors, networks, command and control, 
        platforms, and weapons into a networked distributed combat 
        system.
        <bullet> Sea Enterprise maintains core capabilities, optimizes 
        investments, and applies selected business reforms to our 
        organizations and processes.
        <bullet> Sea Warrior is the enhanced assessment, assignment, 
        training, and education of personnel.

    We believe these initiatives, when completed, will yield increased 
capabilities, while permitting us to man our forces in the most 
efficient and economical manner possible.

                            RESERVE MOVEMENT

    70. Senator Bill Nelson. Secretary White, Secretary Johnson, and 
Secretary Roche, current and future operations in the global war on 
terrorism are increasingly requiring mobilization of large numbers of 
Reserve component forces. Mobilization of these patriotic citizen-
soldiers is, of course, a burden on thousands of families and 
communities nationwide. Looking into the future, what do you think the 
long-term impact of extended and frequent Reserve mobilizations will be 
on the strength and vitality of the Reserve Forces?
    Secretary White. Soldiers from the Army National Guard and Reserve 
have been in a continuous state of mobilization since December 1995. 
Rotations in Bosnia, Kosovo, Kuwait, and mobilizations and deployments 
as part of Operation Noble Eagle and the global war on terrorism have 
all become part of what it means to serve in the Army National Guard 
and Reserve today. These recurring deployments have given our units a 
great deal of experience in being able to mobilize quickly and 
effectively.
    We are sensitive to the stresses of frequent mobilizations and the 
impacts on retention and recruiting of quality soldiers. Soldiers are 
committed to their duty, and we do not anticipate any long-term impacts 
on the readiness of the force resulting from the ongoing mobilizations. 
The concerns of most soldiers, families, and employers are that the 
mobilizations are as predictable as possible and the duty is directly 
related to the defense mission of the Nation. We anticipate a higher 
attrition rate after the stop-loss policy is lifted. However, a part of 
this attrition will be a result of impeding normal loss over time. 
Additionally, we are looking at building a rotational base in the force 
that is applicable to the Reserve component (RC). This concept is based 
on a plan for a 180-day unit rotation, which falls within the 270-day 
Presidential Selective Reserve Call-up authority, no more than once 
every 5 years. Among other things, it will provide these units with 
operational experience, provide OPTEMPO relief for the active Army, 
impart a sense of predictability for the RC soldiers, and distribute 
the workload across the force. Consequently, we expect that this 
concept will mitigate any potential negative effects caused by 
increased small-scale contingency mobilizations.
    Secretary Johnson. It is difficult to accurately predict the long-
term impact of extended and frequent Reserve mobilizations on the 
Reserve Forces. While there has been considerable discussion about 
mobilizing large numbers of reservists and involuntarily extending some 
for 2 years, the Naval Reserve has called up approximately 25 percent 
of its force since September 11. Preliminary trends do not show an 
increased attrition rate from the Naval Reserve as a response to a 
concern about being mobilized. In fact, since June of last year we have 
seen the Naval Reserve's focused enlisted attrition rate rise only 
slightly greater than 2 percent to a rate of 19.1 percent. Our Naval 
Reserve Career Decision Survey results show that financial and medical 
compensation are the key reasons for mobilized reservists to stay in 
the Naval Reserve. On the other hand, the effects of mobilization on 
our reservists' spouses and children are the main reasons some of them 
choose to leave.
    One often-overlooked impact that mobilization has on the Naval 
Reserve is within recruiting. In the last few years the Naval Reserve 
has seen a downward trend in the number of NAVETS entering the Naval 
Reserve. Although this may be a factor of higher retention rates in the 
active component, it may also reflect a propensity of NAVETS not to 
join the Naval Reserve upon release from active duty for fear that they 
may be mobilized after joining the Naval Reserve.
    The net impact the global war on terrorism will have on the Naval 
Reserve is still uncertain. However, the key to maintaining a strong 
Naval Reserve Force during periods of mobilization is to maintain 
training opportunities, mobilize SELRES to fill meaningful requirements 
(i.e., those for which they were trained), and ensure personnel 
policies (such as duration of mobilization and healthcare for the 
member's family) are consistent, fair, and seamlessly accessible.
    Secretary Roche. The long-term effect of extended deployments for 
our reservists is in the data-gathering process. Presently, there is no 
correlation, but this number and length of deployments is 
unprecedented. Reserve components continue to face many challenges, to 
include recruiting and retention. Since 1992 when the number of active 
duty separations was 50,000, to the current 13,000, they have relied 
more and more upon Non-Prior Service (NPS) accessions and accessions 
from other Services to fill that recruiting pool gap. Recruiting more 
NPS also means more time and money, and a higher attrition rate than 
with prior service recruits.
    In addition to considerations of a smaller pool of potential prior 
service personnel, recruiting from active duty becomes more difficult 
during high operations tempo periods because those leaving active duty, 
when faced with transitioning to a civilian job, will choose not to 
participate in the Reserve or National Guard. This is particularly 
prevalent in the high-stress, high-demand, low-density career fields. 
Likewise, this becomes true for those who participate and are faced 
with whether to continue to do so at the risk of their civilian job or 
their families.
    Anticipating these difficult decisions, and evaluating what effect 
the high operations tempo has had and will have on members of the 
Reserve components, we have worked hard through the recent past to 
provide adequate pay and benefits and increase bonuses for these high 
stress career fields.
    Our citizen airmen are highly trained and motivated and will 
continue to be a vital force if we manage several factors: continue to 
provide adequate pay and benefits, communicate openly and often with 
their families, civilian employers, and civic leaders, assign PERSTEMPO 
across the force as evenly as possible, and provide predictability to 
the extent possible in the number and length of mobilizations and 
deployments.

    71. Senator Bill Nelson. Secretary White, Secretary Johnson, and 
Secretary Roche, in addition, is the current mobilization causing you 
to rethink both the size and structure of the Reserve Forces?
    Secretary White. Much of the force found in the RC today is a 
result of decisions made to support the Total Force Policy and previous 
defense strategy. With the draw-down during the 1990s, the Army could 
not maintain all of its warfighting capability in the Active Force and 
decided to place many highly specialized capabilities in the RC. The 
Reserve components were configured and resourced to provide many 
specialized capabilities anticipated to be needed only in a protracted 
major theater war. Given the requirements of the new defense strategy 
and the high level of RC use, these force structure decisions are under 
review to determine the proper Active and Reserve Force mix.
    We are also aware that the mobilization process is in need of 
overhaul to get ready units to the fight, with less notice, in less 
time, with reduced sacrifice and stress on the part of the mobilizing 
soldiers and their families. We are analyzing this process in order to 
institute these improvements. Additionally, we are further exploring 
the impact of active component (AC) and Reserve component 
transformation initiatives on mobilization and readiness before we make 
a final determination as to the proper AC/RC force mix.
    Among the RC transformation initiatives is an endeavor to eliminate 
unready units by bringing structure levels down to better match end 
strength. This will dramatically increase readiness by focusing 
resources on high-demand, high-OPTEMPO forces and creating rotational 
depth in capabilities such as civil affairs, psychological operations, 
biological detection, military intelligence, and military police units.
    Secretary Johnson. With the exception of NCW mentioned previously, 
I think in fiscal year 2004, the size and structure of the Naval 
Reserve Forces is just about right. In the case of NCW, we are working 
to provide an active duty capability that will compliment the 
capabilities we already have in the Naval Reserve.
    Secretary Roche. The Air Reserve component (ARC), both Reserve and 
Guard, have performed magnificently in our ongoing successes in 
Operations Enduring Freedom and Noble Eagle. It is no secret that we 
rely heavily on the capabilities that reside in the ARC. They have 
stepped up to the challenges just as our active component has. Though 
the Active and Reserve components have both been stressed in these 
endeavors, our risk management has spread those stresses fairly 
equitably. However, the entire Department of Defense is currently 
looking at all the emerging requirements of the new National Military 
Strategy which have been given such great impetus by the events of 
September 11. In the Air Force, we have made and will continue to make 
changes to our force mix (the ratio of a mission in the active and 
Reserve components) and force structure (how those forces are based and 
organized) as new needs are emerging to support that strategy.
    We do have some mission areas in which we are making adjustments to 
mitigate some of those stresses and meet those emerging requirements. 
For example, the Air Force Reserve is transferring 15 combat search and 
rescue aircraft, a low-density-high-demand asset, to the active 
component. In turn, the Reserve unit will convert to KC-135 R-model 
tankers, a mission that has proven very successful in the Reserve 
component. The ARC will also be transferring 14 C-130 H2-models to our 
Air Force Special Operations Command to meet the post September 11 
requirements. These adjustments will allow the active and Reserve 
components to maintain the new steady-state requirements without 
overusing our invaluable Reserve component. In short, we will 
continually rethink the entire air and space force as we lead our 
Defense's transformation efforts to meet the challenges of the 21st 
century.

    72. Senator Bill Nelson. Secretary White, Secretary Johnson, and 
Secretary Roche, are the kinds of units that are in the various Reserve 
components the right ones? (For example, the USAF has ``borrowed'' 
thousands of Reserve Army troops to provide protection for air bases 
and other Air Force facilities due to the insufficient size of USAF 
security personnel units.)
    Secretary White. The Army's active and Reserve component force mix 
is the result of deliberate actions to balance risks and priorities in 
light of operational requirements as well as resource constraints. The 
Army continues to adjust its force structure based on the ``1-4-2-1'' 
force-sizing construct. The Army's force mix is designed to support the 
geographic combatant commander's requirements and is determined using 
the Total Army Analysis process. To stay within constant end strength 
levels, adding capabilities to the active force will require the 
transfer of some mission capabilities between the Active and Reserve 
Force. A number of options exist to reduce risk including the 
conversion of lower demand structure inside the active force; 
converting key capabilities held in the Reserve components, but needed 
intermittently; and changes in Reserve personnel management to increase 
access by enhancing volunteerism and diminishing involuntary 
mobilization.
    Additionally, for the Program Objective Memorandum 2004-2009, over 
19,500 spaces were programmed for change within the Active, Guard, and 
Reserve Force structure. Since fiscal year 2001, the Army has activated 
or has programmed to activate through fiscal year 2009, a total of 68 
active, 102 National Guard, and 85 Reserve units that fall into these 
high-demand categories: aviation, chemical, civil affairs/psychological 
operations, and military police. The enhanced force capabilities 
address the most urgent needs.
    Currently, the Office of the Secretary of Defense in conjunction 
with the Joint Staff have undertaken a study to improve operational 
availability of all military forces. As part of this study, the AC/RC 
mix is being studied in the context of short-notice, short-duration 
major combat operations. This study is incomplete, but will be 
continued as part of defense planning for fiscal year 2005 to determine 
any recommended force structure changes.
    Secretary Johnson. Neither the Navy nor the Naval Reserve have been 
required to borrow units from the other Services to complete Navy 
missions. Therefore, the Naval Reserve does not require force structure 
adjustments in fiscal year 2004.
    Secretary Roche. The events of September 11 and the subsequent 
global war on terrorism have changed the scope of many requirements. 
One of the most dramatic changes is the requirement for force 
protection particularly within the borders of the United States. The 
use of the Army National Guard to provide installation force protection 
is a short term fix while the Air Force pursues a number of initiatives 
to both increase the number of security forces personnel as well as 
invest in transformational technologies to meet the new increased 
requirements. We must remember that U.S. soil has now become a new area 
of responsibility for the new combatant commander of NORTHCOM and the 
permanent adjustments to support homeland defense including our active, 
Air Force Reserve, and Air National Guard facilities are in the works.
    In more general terms of the mission mix of active and Reserve 
components in the Air Force, we have made and will continue to make 
changes to our force mix (the ratio of a mission in the active and 
Reserve components) and force structure (how those forces are based and 
organized) as the new needs emerge to support the National Military 
Strategy that puts homeland security at the pinnacle of 
responsibilities. The Air Reserve component, both Reserve and Guard, 
have made huge contributions to our successes in Operations Enduring 
Freedom and Noble Eagle. They have stepped up to the challenges just as 
has our active component. Though the active and Reserve components have 
both been stressed in these endeavors, our risk management has spread 
that stress fairly equitably. We think we have the mix just about right 
although, in a few areas like force protection, we are currently making 
significant changes to the entire force--active, Reserve, and Guard.

                           AIR FORCE ACADEMY

    73. Senator Bill Nelson. Secretary Roche, one woman who was raped 
at the Air Force Academy while she was a freshman there has contacted 
me. She learned the same man--a fellow cadet--had raped another woman 2 
weeks earlier. They reported the crimes to the Office of Special 
Investigations, but he was never charged. One of the women left the 
Academy--the other still is a cadet. I also received a complaint from a 
woman at West Point who was assaulted in her dorm room by another 
cadet. She was urged not to make an issue of the attack, and eventually 
she was separated from the Academy. If, after a thorough investigation 
of the facts and you determine that crimes were committed, will you now 
pursue criminal charges against the perpetrators?
    Secretary Roche. I have from the beginning made it clear that 
sexual assault is a crime and that those who commit sexual assaults are 
criminals who will be punished to the fullest extent of the law and for 
whom there is no place at the Academy or in the Air Force. It would be 
improper, though, for me to prejudge the disposition of any specific 
case. In general, our comprehensive review of sexual assault issues at 
the Air Force Academy includes examination of the investigation and 
disposition of sexual assault allegations. While our review is not 
complete, the information available so far indicates that with very few 
exceptions--perhaps no more than one--allegations reported to the Air 
Force Office of Special Investigations were properly investigated. 
However, if facts are developed in any case that were not appropriately 
considered in the original disposition decision, and if the Air Force 
still has jurisdiction over the alleged offender, prosecution under the 
UCMJ would be one of the options available to the cognizant chain of 
command.

    74. Senator Bill Nelson. Secretary Roche, will you also provide the 
victims who left school before graduation an opportunity to again serve 
in the military?
    Secretary Roche. Cadets who reported sexual assaults have 
subsequently left the Academy for a wide variety of reasons; in some 
cases those reasons were not related to the alleged sexual assault. I 
therefore cannot provide a ``one size fits all'' answer to this 
question. The Academy, and other Air Force accession sources, will 
consider requests for reentry on a case-by-case basis.

    75. Senator Bill Nelson. Secretary Roche, who is responsible for 
allowing the allegations of rape to go unanswered and for failing to 
provide the women cadets the care and attention they needed after such 
a traumatic event?
    Secretary Roche. With several reviews and investigations of the 
Academy situation incomplete, we cannot yet be sure we know all the 
facts, and we must not rush to judgment as to the personal 
responsibility of any individual. I intend to take another look at this 
issue when all the relevant information is in. As you are aware, I have 
replaced the leadership team at the Academy. I did so because I believe 
new leadership can most effectively implement the changes General 
Jumper and I have directed at the Academy in our Agenda for Change, 
announced on March 26, 2003, and any future changes we may find 
appropriate after receiving the reports of the Working Group, the Air 
Force and DOD Inspectors General, and the review group recently 
mandated by Congress. My focus has been, and remains, on fixing the 
problem.

                CANCELLATION OF JOINT SIMULATION SYSTEM

    76. Senator Bill Nelson. Secretary White, Secretary Johnson, and 
Secretary Roche, I have been made aware of a DOD Program Decision 
Memorandum (PDM) directing the cancellation of the Joint Simulation 
System (JSIMS) program in fiscal year 2004 and through the FYDP. I and 
other members on the Armed Services Committee who care deeply about the 
pace and scope of efforts to increase joint experimentation, joint 
training, creation of a standing joint operational headquarters, and 
joint requirements and acquisition validation, are troubled by this 
development. The program is intended to provide a joint simulation 
capability to ``integrate'' Service simulations allowing for joint 
training and experimentation at strategic, operational, and tactical 
levels. This kind of tool is essential to any effort to move the 
military establishment to greater joint training, doctrine, and 
experimentation. What is your position on the cancellation of this 
program and your related Service simulation programs?
    Secretary White. I do not believe the cancellation of the program 
will have an impact on joint training. The fiscal year 2003 funding was 
retained so that the program manager could deliver the Block I software 
to the Joint Warfighting Training Center (JWFC) for their use to 
conduct Joint Task Force component level training. The Army also 
reprogrammed $9.9 million this year to support the Block I effort. The 
Block I software should enable the JWFC to maintain the software to 
support joint training, doctrine, and experimentation. Moreover, the 
PDM directed an analysis of alternatives to identify a cost-effective 
method of meeting future joint and service training requirements. That 
will either be JSIMS Block II and III, or a different model. The impact 
on the Army simulation is greater, however, because the Block I 
software provides little utility for service use. To this end, we 
believe it is better for the Army to pursue its own Title X solution 
with the clear intent of linking to the future joint simulation once 
that simulation has been determined and matured.
    Secretary Johnson. Navy supports the decision to cancel the JSIMS 
for service use. While an excellent concept, JSIMS experienced cost 
overruns and delays, it would not meet all of the requirements in the 
Operational Requirements Document, nor would it provide for joint 
experimentation.
    In order to continue support of wargaming requirements at the 
Battle Group and Amphibious Ready Group staff level, Navy will 
reprogram existing funds to upgrade the existing Enhanced Naval 
Wargaming System (ENWGS), which creates a track database in Global 
Command and Control System-Navy.
    Navy has also demonstrated the ability to link Joint Semi-Automated 
Forces (JSAF) to the Battle Force Tactical Trainer (BFTT) system and 
stimulate ship's combat systems in a Battle Group sized modeling and 
simulation (M&S) training event. Navy will build on this positive 
experience in an effort to standardize and improve in-port and underway 
virtual exercises as JSAF allows federation with M&S training and 
experimentation systems of the other Services.
    Secretary Roche. The Air Force accepts the fiscal trade-offs that 
led to the Office of the Secretary of Defense PDM decision on the JSIMS 
program. Impacts to related Air Force simulation programs will require 
funding adjustments to maintain and improve legacy systems in current 
use for service and joint training, doctrine, and experimentation.

    77. Senator Bill Nelson. Secretary White, Secretary Johnson, and 
Secretary Roche, are you satisfied that cancellation of the JSIMS 
program is necessary to accelerate establishment of a Joint National 
Training Capability or does it complicate achieving such an objective?
    Secretary White. Cancellation of the JSIMS program should not 
complicate achieving a Joint National Training Center capability. 
Constructive simulations are only one piece of the Joint National 
Training Center (JNTC) effort and current simulations will support 
near-term JNTC requirements until a joint solution is built to meet 
that requirement.
    Secretary Johnson. No. A JNTC does not require the JSIMS. 
Alternatively funded programs exist, and they have the capability JSIMS 
intended to provide a JNTC. Also, the maritime capability of the 
initial version of JSIMS does not equal the capability of the program 
it is intended to replace, thus forcing the continued funding of the 
legacy program.
    Secretary Roche. The OSD Program Decision Memorandum in question 
covered a range of resource decisions, including the cancellation of 
JSIMS and the establishment of JNTC. I would defer to OSD to comment on 
whether the two decisions were related.
    The JSIMS decisions does include provisions for an Analysis of 
Alternatives to determine a way ahead for joint simulation, so it is 
clear that joint simulation remains a departmental goal.

    78. Senator Bill Nelson. Secretary White, Secretary Johnson, and 
Secretary Roche, from your perspective, what are the priority 
requirements for a true joint national training capability and the 
simulation systems necessary to make it possible?
    Secretary White. Joint training must be capabilities-based and 
responsive to the mission requirements of the combatant commanders. It 
must be adaptable to meet both joint and service mission planning and 
rehearsals requirements across the full spectrum of military, 
multinational, interagency, and intergovernmental operations. To this 
end, it should have live, virtual, and constructive components that can 
be integrated to optimize the training for all audiences.
    Secretary Johnson. The following elements are required to provide 
true joint training:

        <bullet> Access to joint command and control training 
        environments for commanders and their staffs at all levels;
        <bullet> The ability to train joint tactical interoperability 
        during the Inter-Deployment Training Cycle (IDTC) accomplished 
        via participation by other Service personnel and units in 
        exercises;
        <bullet> Modeling and simulation assets operated in accordance 
        with Service specific or joint tactics, techniques, and 
        procedures; and
        <bullet> Investment in connectivity infrastructure and software 
        interfaces between service systems in order to replicate the 
        joint environment in live, modeling, and simulation 
        environments. Services must agree on architectures and 
        databases.
    Secretary Roche. We envision Joint National Training Capability 
(JNTC) requirements to focus on the three following areas: First, 
development of a network of high-fidelity simulators and training 
devices connected across a long-haul network, that enable warfighters 
to train together as they would fight even though separated 
geographically by great distances. Second, JNTC must enhance existing 
service interoperability training by synchronizing events at major 
training centers (e.g. Red Flag, Virtual Flag, Air Warrior, Blue Flag), 
with an end-state of fully integrated and standardized joint 
interoperability training. Third, JNTC must develop mechanisms to 
measure joint training effectiveness. These mechanisms include range 
instrumentation, certifiable joint standards, ``ground truth'' through 
data availability, and after action review incorporated into air Force 
and joint lessons learned. Ultimately, the intent is to train ``the way 
we intend to fight'' with JNTC enhancing execution of air power in 
support of the Joint Force Commander.
    Live, virtual, and constructive simulations, at the tactical and 
operational levels of war integrated within distributed systems 
architecture, will be the integral elements of the JNTC. The Air Force 
continues to work closely with the other Services, unified commands, 
and the Office of the Secretary of Defense to identify requirements and 
cost-effective solutions to implement this initiative.
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh

                         EXPLOSIVE SAFETY ARCS

    79. Senator Bayh. Secretary Johnson, many of our military 
installations' missions are being encumbered by community encroachment. 
This has been highlighted by flight restrictions at certain military 
installations and, in the extreme, by the controversy of the Navy 
training at Vieques. Encroachment at ordnance facilities can take a 
less visible, but extremely dangerous form. Those installations that 
store large quantities of ordnance items may have explosive safety arcs 
that extend past their boundaries into the surrounding community. In 
this era of heightened security, total containment of explosive arcs 
within military installation boundaries is even more critical.
    When all of the explosive storage magazines are fully loaded at our 
ordnance facilities, do the explosive safety arcs extend beyond the 
installation's boundaries?
    Secretary Johnson. The encumbrance of off-installation properties 
by naval ordnance storage facilities is not permitted, except under 
strictly controlled circumstances in support of operational missions, 
and only in accordance with the explosives safety criteria detailed in 
Department of Defense Ammunition and Explosives Safety Standards (DOD 
6055.9-STD) and Naval Sea Systems Command (NAVSEA) OP 5, ``Ammunition 
and Explosives Safety Ashore Regulations for Handling, Storing, 
Production, Renovation, and Shipping''. An example of those 
circumstances is unsuitable terrain for development (i.e., wetlands, 
topography, etc.) or restricted access such as Government-owned land 
that is not open to the public.

    80. Senator Bayh. Secretary Johnson, as communities have built up 
closer to our ordnance activities, have they entered the explosive 
safety arc areas?
    Secretary Johnson. As a general rule, off-installation areas are 
not permitted to be encumbered by Explosive Safety Quantity Distance 
(ESQD) arcs from naval ordnance storage facilities. Under the 
Department of Defense Ammunition and Explosives Safety Standards (DOD 
6055.9-STD) the Navy can present a case for a waiver wherein explosive 
arcs can extend beyond station boundaries if a risk analysis 
demonstrates low risk to those exposed. If a waiver is granted there is 
a requirement that the risk be closely monitored and explosive arcs 
reduced if the risk increases. Occasionally, temporary event waivers 
are granted for specific evolutions, but these are closely monitored 
and duration is limited to the absolute minimum.

    81. Senator Bayh. Secretary Johnson, have the ordnance activities 
had to download from full capacity to bring in the explosive safety 
arcs?
    Secretary Johnson. There have been cases in the past where changes 
external to the naval ordnance storage facility have caused an 
encumbrance of off-installation areas. Examples include off-
installation zoning changes or where updates to explosives safety 
criteria (outlined in Department of Defense Ammunition and Explosives 
Safety Standards (DOD 6055.9-STD) and Naval Sea Systems Command 
(NAVSEA) OP 5, ``Ammunition and Explosives Safety Ashore Regulations 
for Handling, Storing, Production, Renovation, and Shipping'') caused 
an encumbrance of off-installation areas. In these cases MILCON 
projects have reapportioned the explosives storage capability on 
station or explosives limits for ordnance facilities were reduced so 
that Explosive Safety Quantity Distance (ESQD) arcs would no longer 
encumber off-installation areas.

    82. Senator Bayh. Secretary Johnson, is this ``ordnance 
encroachment'' going to be a factor in the BRAC criteria?
    Secretary Johnson. The BRAC 2005 selection criteria are currently 
in development. The BRAC 2005 law requires that the Secretary of 
Defense must publish for comment, and transmit to Congress, the 
proposed criteria no later than December 31, 2003. The final criteria 
must be published and transmitted to Congress no later than February 
16, 2004.

    [Whereupon, at 12:34 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

                              ----------                              


                        THURSDAY, MARCH 13, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

    UNIFIED AND REGIONAL COMMANDERS ON THEIR MILITARY STRATEGY AND 
                        OPERATIONAL REQUIREMENTS

    The committee met, pursuant to notice, at 10:20 a.m., in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Inhofe, 
Roberts, Collins, Levin, Reed, Akaka, Ben Nelson, Dayton, Bayh, 
and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Brian R. Green, professional staff 
member; William C. Greenwalt, professional staff member; Mary 
Alice Hayward, professional staff member; Gregory T. Kiley, 
professional staff member; Patricia L. Lewis, professional 
staff member; Lucian L. Niemeyer, professional staff member; 
Lynn F. Rusten, professional staff member; Joseph T. Sixeas, 
professional staff member; Scott W. Stucky, general counsel; 
and Richard F. Walsh, counsel.
    Minority staff members present: Evelyn N. Farkas, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; and Christina D. Still, professional staff 
member.
    Staff assistants present: Leah C. Brewer, Andrew W. 
Florell, and Nicholas W. West.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; James Beauchamp, assistant to 
Senator Roberts; James P. Dohoney, Jr., assistant to Senator 
Collins; D'Arcy Grisier, assistant to Senator Ensign; Mieke Y. 
Eoyang, assistant to Senator Kennedy; Christina Evans, 
assistant to Senator Byrd; Elizabeth King and Neil D. Campbell, 
assistants to Senator Reed; Richard Kessler, assistant to 
Senator Akaka; William K. Sutey and Douglas Bush, assistants to 
Senator Bill Nelson; Eric Pierce, assistant to Senator Ben 
Nelson; William Todd Houchins, assistant to Senator Dayton; 
Todd Rosenblum, assistant to Senator Bayh; Andrew Shapiro, 
assistant to Senator Clinton; and Andy York, assistant to 
Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning. The committee will come to 
order. We tender our apologies to our distinguished panel of 
witnesses and others who have gathered here this morning for 
this very important hearing. It was a historic moment in the 
Senate chamber this morning when our very much beloved and 
distinguished chaplain since 1995 retired such that he could go 
back to his home and care for his family, and that was followed 
by two votes. Of course we get paid by the vote, and therefore 
we have a way of being there for those votes.
    The committee meets today to receive testimony from Admiral 
Thomas Fargo, Commander, U.S. Pacific Command; General Leon 
LaPorte, Commander, U.S. Forces Korea; and General James Hill, 
Commander, U.S. Southern Command, with regard to their area of 
responsibilities (AOR) and particularly their military strategy 
and operational requirements. Also, whether Congress, in their 
judgment, has fulfilled our obligation to give them the support 
that they require. This is the first in a series of hearings 
that this committee conducts annually to receive the testimony 
from our Nation's combatant commanders.
    Gentlemen, you are our warfighters. With great distinction 
and humility, you have carried out your missions thus far and 
will continue to do so. We welcome your insight on developments 
in your areas of responsibility as well as your assessment of 
the fiscal year 2004 defense budget requests.
    Each of our witnesses has assumed his current assignment 
within the past year. We welcome you on your first posture 
hearing before this committee. Each of you has a long and 
distinguished record of service to our country and I thank you 
and I thank your families on behalf of Congress. We ask you to 
convey to the fine men and women under your commands the 
gratitude of the committee and indeed the entire Nation for 
their professionalism and dedication to service.
    Gentlemen, the committee values your unique contributions 
and perspectives on the important issues we are addressing this 
morning. Your insight provides us with the important 
information we need to make the decisions regarding policies 
and programs that affect each of your areas of responsibility. 
This is of particular significance this year due to the ongoing 
global war on terrorism, a potential all-out war with Iraq, and 
this Nation's other global responsibilities, of course the 
Korean Peninsula being foremost, General LaPorte, among the 
priorities.
    I will put the balance of my statement in the record to 
achieve some efficiency of time. I thank you.
    Senator Levin.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    The committee meets today to receive testimony from Admiral Thomas 
Fargo, Commander of U.S. Pacific Command; General Leon LaPorte, 
Commander of U.S. Forces Korea; and General James Hill, Commander of 
U.S. Southern Command, on their military strategy and operational 
requirements.
    This is the first in a series of hearings this committee will 
conduct over the next few weeks to receive testimony from our Nation's 
combatant commanders. Gentlemen, you are our warfighters. We welcome 
your insight on developments in your areas of responsibility (AOR), as 
well as your assessment of the fiscal year 2004 defense budget request.
    Each of our witnesses has assumed his current assignment within the 
past year. We welcome you on your first posture hearing before this 
committee. Each of you has a long and distinguished record of service 
to our country. I want to thank you on behalf of the committee and the 
Nation for your leadership, dedication, and service.
    We ask you to convey to the fine men and women under your commands 
the gratitude of the committee and our entire Nation for their 
professionalism, their dedication, their service and the sacrifices 
that they and their families are making on behalf of the American 
people.
    Gentlemen, the committee values your unique contributions and 
perspectives on the important issues we are addressing this morning. 
Your insight provides us with important information we need to make 
decisions regarding policies and programs that affect each of your 
areas of responsibility. This is of particular significance this year 
due to the ongoing global war on terrorism, a potential all-out war 
with Iraq, and this Nation's other global responsibilities in which 
each of you play a critical role.
    In a development of utmost concern to all of us, tensions have 
risen on the Korean peninsula over the past few months, following the 
admission by North Korea in October 2002 that it is operating a secret 
nuclear program based on uranium enrichment, and its subsequent 
decision to withdraw from the Agreed Framework and the Nuclear Non-
Proliferation Treaty (NPT).
    North Korea has now restarted its reactor at Yongbyon and could 
soon begin reprocessing operations to extract weapons-grade plutonium. 
Resumption of North Korea's nuclear weapons program poses a grave 
threat to regional and international stability. Some have accused the 
administration of being ``resigned'' to a nuclear North Korea. I 
respectfully disagree. Secretary of State Colin Powell stated just last 
week: ``The position of the United States is we don't want to see 
nuclear weapons in the Korean peninsula. It is also the position of 
China. It is also the position of Japan and South Korea.'' The United 
States, in conjunction with its friends and allies in the region, is 
working responsibly to resolve this situation through diplomatic means.
    I look forward to hearing Admiral Fargo's and General LaPorte's 
assessment of the situation on the Korean Peninsula. I am particularly 
interested in any changes in North Korea's military posture, as well as 
your assessment of North Korea's nuclear program, ballistic missile and 
proliferation activities, and the readiness of our forces to respond to 
any possible developments on the peninsula both now or in the future.
    In the Asia-Pacific region, the global war on terrorism is being 
waged in the Philippines, with U.S. troops deployed to that nation to 
help the Philippine Government in its fight against terrorist groups. 
Recently, our two governments have been discussing a new mission in the 
Philippines that would increase the role of U.S. forces, to include a 
possible combat role. I look forward to hearing an update on the status 
of discussions with the Philippine Government regarding this potential 
new mission.
    Last, but certainly not least, we look forward to General Hill's 
assessment of the state of affairs in Latin America. Of particular 
concern is the situation in Colombia, where the U.S. is providing 
substantial amounts of aid to helping that nation eradicate illicit 
drug cultivation. Our military is involved in this effort. We look 
forward to General Hill's assessment of the mission.
    We welcome our witnesses this morning and look forward to their 
testimony.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, I will do the same thing. I 
will just join you in welcoming our witnesses and, thank them 
for their tremendous service to our Nation. The 
responsibilities are awesome and growing in each of their 
areas. We have new challenges and I think growing challenges.
    I would just ask that my statement be made part of the 
record.
    [The prepared statement of Senator Levin follows:]

                Prepared Statement by Senator Carl Levin

    We meet today to discuss military strategy and operational 
requirements in two critical parts of the world--Asia and Latin 
America. In Asia, we are faced with a full-blown political-military 
crisis on the Korean peninsula. The North Koreans admitted that they 
have a secret uranium-based nuclear program, in contravention of four 
existing agreements to keep a nuclear-weapons-free Korean peninsula. In 
an attempt to force the United States to meet with them, the North 
Koreans have taken a series of escalatory steps, bringing us to a 
stalemate fraught with the danger of miscalculation.
    The North Koreans expelled the International Atomic Energy Agency 
(IAEA) inspectors who were monitoring the plutonium-based program that 
had been successfully frozen by the Agreed Framework. They removed the 
seals and monitoring cameras from the plutonium facilities, announced 
their withdrawal from the Nonproliferation Treaty, and a few weeks ago 
they restarted the nuclear reactor at the Yongbyon complex. We remain 
highly concerned that their next step might be starting up their 
plutonium reprocessing facilities, which could yield five to six 
nuclear weapons in a matter of months.
    The administration continues to refuse to speak directly with the 
North Koreans, thereby denying us the benefit of communicating to the 
North Korean government what actions are unacceptable, and of 
obtaining, at least, some more information about their objectives. I 
believe that we ought to talk to them. Talking is not appeasement. It 
is the only feasible avenue right now for preventing them from 
developing more nuclear weapons and possibly exporting them to the 
highest bidder. If we are serious about working with our allies on this 
matter, we would do so, because our allies are urging us to talk to 
North Korea.
    Also related to Korea, the Washington Post carried a story on page 
1 of its March 4th edition concerning the incident in which four North 
Korean jets intercepted a U.S. reconnaissance aircraft in international 
airspace over the Sea of Japan on Sunday, March 2. According to the 
story, defense officials stated that ``At least one of the North Korean 
planes directed its radar to identify the U.S. aircraft as a target and 
may have `locked on,' a step short of shooting a missile.'' 
Additionally, on March 8, the New York Times carried a page 1 story 
that said the North Korean jets ``were trying to force the (U.S.) 
aircraft to land in North Korea and seize its crew'' according to a 
senior defense official. I hope that our witnesses can clarify the 
following: 1) Did the North Korean aircraft ``lock on'' to the U.S. 
planes; 2) Did the North Koreans attempt to force down the U.S. 
aircraft; and 3) Did the North Koreans take any action that could be 
construed as preparatory to shooting down the U.S. aircraft?
    At the same time that we are faced with the threat from North 
Korea, the administration's response to it has greatly stressed our 
already evolving relationship with South Korea. So, I look forward to 
hearing from General LaPorte about our latest efforts with the South 
Koreans to examine the military alliance and to address the respective 
roles and missions of our militaries, as well as U.S. force structure 
and basing in South Korea.
    I am also interested in hearing about our work to help train the 
Philippine army to more effectively fight terrorists and insurgents. 
How successful have we been in achieving a key objective--helping them 
develop an ability to eliminate the kidnap-for-ransom Abu Sayyaf Group?
    Were we were planning to change our role in the Philippines--as has 
been reported--in a manner that would have contravened the Philippine 
constitution? If so, Congress should have been consulted, as Secretary 
Wolfowitz said we would, in advance of any change in our mission. I 
certainly expect that we will be consulted if there are any changes in 
the future.
    Last month fighting broke out again between the Philippine 
government and one of the other groups operating in the southern 
Philippines, the Moro Islamic Liberation Front (MILF). In the past this 
25,000-strong group has indicated that they would take military action 
if U.S. troops encroached on their territory. I am concerned about the 
possibility that our activities in the Philippines might put our troops 
at risk from other groups like the MILF.
    So, I look forward to hearing about our future training plans from 
Admiral Fargo.
    In Latin America, one of the greatest political-military challenges 
we face is the effort to fight drug production and trafficking. 
Colombian President Uribe says he is committed to confronting the 
Revolutionary Armed Forces of Colombia--the FARC--as well as the 
National Liberation Army--the ELN--and the paramilitaries, head-on. He 
has taken some important steps toward developing the strategy and 
resources to wage an enduring campaign against the FARC, ELN, and 
paramilitaries. I look forward to hearing from General Hill how our 
training efforts are complementing and leveraging his strategy, and if 
the existing personnel and other limitations on U.S. participation 
should be maintained. I am also interested to hear about what we are 
doing throughout the Andean region to address the potential of 
spillover of coca and heroin production and trafficking to neighboring 
countries.
    I look forward to testimony from our witnesses on these issues and 
other topics of concern to them.

    Chairman Warner. Thank you very much, Senator Levin. Both 
of our statements in their entirety will go in the record, and 
each of the written statements submitted to the committee by 
the witnesses in their entirety will go into the record. We 
will just proceed to Admiral Fargo. Why don't you lead off.

  STATEMENT OF ADM. THOMAS B. FARGO, USN, COMMANDER IN CHIEF, 
                 UNITED STATES PACIFIC COMMAND

    Admiral Fargo. I thank you, Mr. Chairman, Senator Levin, 
and members of the committee. It is great to be with you again.
    The men and women of the U.S. Pacific Command (PACOM) are 
providing superior service to the Nation in the Asian Pacific 
region and around the world, and the high readiness of our 
forces today can be directly attributed to the generous support 
of this esteemed body and of the American people as a whole.
    Dramatic events of the past year have brought into focus 
new national security demands for the 21st century, and we have 
outlined five near-term priorities for the Pacific Command to 
meet those demands. I would like to briefly highlight these 
priorities for you.
    The first is the global war on terrorism and we are 
building momentum in the war on terrorism in the Pacific 
theater. In addition to providing forces to the Central Command 
for Operation Enduring Freedom, we are focused on two primary 
terror threats related to al Qaeda, the Abu Sayyaf Group (ASG) 
in the Philippines, and the Jemaah Islamiyah, an al Qaeda 
surrogate spread throughout Southeast Asia.
    Last year we responded to the request of the Philippines to 
provide training, advice, and assistance to the Armed Forces of 
the Philippines in southern Mindanao, including Basilan Island, 
then an Abu Sayyaf stronghold. This 6-month effort provided a 
template to help the Republic of the Philippines develop a 
lasting counterterrorist capability. As a result, we have seen 
the beginning of stability on Basilan, the terrorists have been 
separated from the people, and normal activity, like children 
going back to school, has returned.
    There is clearly more to be done. The ASG is 
reconstituting, have been active in bombing campaigns, and are 
looking for outside support, and we have an active exercise and 
a security assistance program in place to contribute to build 
the counterterrorist capability that the Armed Forces of the 
Philippines needs.
    The Jemaah Islamiyah, or JI, has had cells in Singapore, 
Malaysia, and Indonesia, has attacked American and other 
interests throughout the region. This group was also 
responsible for the tragic Bali bombing which killed some 200 
people, many of them Australian. We are focused on the JI and 
are pleased with the cooperation of our friends in the region, 
including the investigations by the Government of Indonesia to 
apprehend and bring these terrorists to justice. Over 130 JI 
members have been arrested or detained to date.
    Our Service components are enjoying the highest readiness 
that I can recall in my 32 years of service. For example, in 
January, all six Pacific Command aircraft carriers were 
underway simultaneously, five with full air wings embarked. I 
can provide similar examples for all the Services in the 
Pacific componency.
    Our warfighting readiness will benefit from future 
developments of missile defenses, increased stocks of 
precision-guided munitions, improved anti-submarine warfare 
capabilities, increased intelligence, surveillance, and 
reconnaissance assets, and improved air and sealift to speed 
our forces to future conflicts.
    Our quality-of-service concept in the Pacific includes the 
traditional quality-of-life initiatives plus the facilities, 
the spare parts, and the information technology necessary for 
satisfaction and efficiency on the job. You should know that I 
am a big fan of this new and present generation. They are 
smart, engaging, and unafraid of hard work, and they well 
represent our Nation and its values around the globe.
    Morale and retention are high and we appreciate your 
support of the defense budget, including the improved readiness 
funding and the pay raises that demonstrate part of your 
continuing commitment to our people.
    Our longstanding bilateral alliances in the Pacific, our 
solid friendships, and the presence of our forward-deployed 
combat forces are the constants that ensure the region's peace 
and stability. Northeast Asia is a center of gravity for our 
Asian Pacific security and our alliance with Japan is 
fundamental to that security. Japan has been aggressive and a 
strong partner in the global war on terrorism. In my judgment 
our relationship with Japan has never been stronger.
    Our alliance with South Korea is also solid. It has been 
the basis for peace and prosperity in South Korea for 50 years 
and will continue to serve our mutual security interests even 
after the lessening of tensions on the Peninsula. North Korea's 
provocative actions over the past 6 months have not changed 
that fundamental truth.
    Australia is our special partner and friend in the Pacific. 
The Australians have demonstrated courage and leadership in 
regional efforts from Afghanistan to Bali to East Timor and we 
continue to work to eliminate barriers to interoperability 
between our forces.
    Our relationships with Thailand and the Philippines, as I 
have already described, also demonstrate cooperation and 
partnership in regional and global security initiatives. The 
contributions by good friends in the region are really 
numerous. Singapore, Malaysia, New Zealand, and more recently 
India have all participated in the global war on terrorism, 
with contributions ranging from intelligence sharing to over-
flight access to combat forces.
    Our final priority is to promote change and improve our 
Asian-Pacific defense posture for the future. Pacific Command 
is synchronizing transformational efforts to produce rule 
improvements in six key areas, which include: first, updating 
our plans to meet current and emerging threats within our new 
force planning construct.
    Second is strengthening command and control relationships, 
including maturing the standing joint force headquarters 
concept.
    Third is improving our force posture and our footprint in 
ways that improve our ability to respond to threats more 
rapidly while minimizing adverse impact on our allies and 
friends.
    Fourth, we need to increase capabilities for immediate 
employment, and here I am talking about once again missile 
defense, global strike capabilities, the nuclear-powered cruise 
missile attack submarine (SSGN), and improvements in 
intelligence assets to increase our warning of potential 
threats.
    Fifth, we need to harness those capabilities in new 
operating patterns and concepts, such as the Navy's 
expeditionary strike group, the Army's Stryker Brigade Combat 
Team, and high-speed vessels.
    Finally, increasing opportunities for diversified access 
and in or out logistics to reassure allies, build reliable 
options for contingency planning, and improve training 
alternatives to relieve the pressure on overstressed locations.
    These six areas encompass the primary focus of our 
transformational efforts in the Pacific. On behalf of the men 
and women of the Pacific Command, let me offer my sincere 
appreciation for your support and for the opportunity to report 
on the posture of the United States Pacific Command. I 
certainly look forward to your questions. Thank you.
    [The prepared statement of Admiral Fargo follows:]

            Prepared Statement by Adm. Thomas B. Fargo, USN

                              INTRODUCTION

    Mr. Chairman and members of the committee: On behalf of the men and 
women of the United States Pacific Command, I thank you for this 
opportunity to testify on security in the Asia-Pacific region.
    Having served as Commander, United States Pacific Command 
(CDRUSPACOM) over the past year, and previously serving as Commander, 
United States Pacific Fleet for 30 months, has fortified my belief that 
a secure, peaceful, and prosperous Asia-Pacific region is of paramount 
importance to our country and the world. In contrast, an Asia that is 
uncertain presents grave dangers to our Nation and the security of our 
friends and allies in the region.
    We have a number of security concerns, and they are addressed 
clearly in our National military strategy and supporting guidance:

        <bullet> Conflict on the Korean Peninsula
        <bullet> Miscalculation over the Taiwan Strait or in Kashmir
        <bullet> Transnational threats like terrorism, the 
        proliferation of weapons of mass destruction (WMD), and illegal 
        drug trade
        <bullet> Instability associated with a failing nation-state or 
        humanitarian crisis, and
        <bullet> Ensuring the readiness of our forward deployed forces 
        in the region.

    We are not facing these concerns alone. Since the terrorist attacks 
of 11 September and over the past year, we have had unprecedented 
cooperation in combating and supporting the global war on terrorism and 
backing from concerned neighbors to stop the proliferation of weapons 
of mass destruction. We have continued to build on the longstanding 
bilateral alliances and friendships necessary to deter regional 
aggression and coercion, dissuade military competition, and assure our 
allies and friends of our commitment to them and the region. We've 
accomplished this by our forward presence in the theater and by the 
actions of our forces as they execute tasks and operations in support 
of our Nation's security. In short, we have begun a journey to 
``operationalize'' the strategic guidance we have received. Our 
destination is a peaceful, stable, and prosperous Asia-Pacific region.
    Last year during my confirmation hearing, I provided five broad 
priorities for Pacific Command. Since then, I've used the priorities as 
a roadmap for focusing the command, directing operational initiatives 
and assessing progress. Today, my intent is to provide you an update on 
these priorities as they pertain to the defense posture of the U.S. 
Pacific Command (USPACOM).
Sustaining and Supporting the Global War on Terrorism (GWOT)
    Our highest USPACOM priority is sustaining and supporting the GWOT. 
This includes not only operations in the Pacific, but also as a force 
provider to Operation Enduring Freedom-Afghanistan (OEF-A), or wherever 
international terrorism might threaten our interests worldwide. 
Although we don't have any Government-supported sanctuaries for 
terrorists in the Pacific, terrorist cells and organizations that 
operate in the region provide unique challenges to USPACOM and to the 
countries in which they proliferate.
    GWOT Update. Regional and local terrorist groups with ties to al 
Qaeda pose the most dangerous threat to U.S., allied, and friendly 
interests in the USPACOM Area of Responsibility (AOR). Bolstered by 
financial and technical support from al Qaeda, the Jemaah Islamiyah 
(JI) network and the Abu Sayyaf Group (ASG) in the southern Philippines 
have demonstrated their capability to attack U.S. and Western 
interests. Our task, in coordination with other agencies, is to ensure 
these terrorists do not destabilize established governments in the 
region or threaten Americans or our friends. Regional alliances and 
partnerships are critical to achieving both our short-term goal of 
eradicating regional terrorist groups and our long-term goal of 
establishing a security environment throughout the Asia-Pacific region 
that rejects terrorism and addresses the factors that breed terrorists.
    Southeast Asia witnessed a number of terrorist acts in 2002, 
including the bombings of tourist nightclubs on the Indonesian island 
of Bali on 12 October that killed nearly 200 civilians, including seven 
Americans, and a series of bombings across the Philippines also in 
October. We believe the ASG was responsible for the attacks in the 
Philippines that killed at least 22 people--including a U.S. 
serviceman--and wounded over 200 others. Coincident investigations and 
arrests in Malaysia, Singapore, Indonesia, Thailand, the Philippines, 
and Australia have revealed an extensive, sophisticated network, 
centered on the Jemaah Islamiyah, that continues to plan attacks 
against U.S. and Western diplomatic interests and less defensible 
commercial or tourist venues across the region. We have credible 
information that al Qaeda has long sought to expand its movement in 
Southeast Asia. By leveraging its connections with sympathetic groups 
and individuals, some previously trained in Afghanistan, al Qaeda seeks 
to expand its network and obtain the support of local proponents in 
establishing a regional pan-Islamic state supportive of radical Islamic 
ideology.
    To meet this challenge, USPACOM and regional governments have 
strengthened counterterrorism cooperation over the past year. Regional 
governments have made progress achieving counterterrorism goals through 
legislation that combats terrorism and its resource methods, by 
capturing and detaining terrorists, and through interagency 
coordination and intelligence sharing. To date, over 100 terrorist 
suspects have been arrested or detained, primarily in Malaysia, 
Singapore, Philippines, and Indonesia. The U.S. Government has 
designated JI, the ASG, and the Communist Party of the Philippines/New 
People's Army as Foreign Terrorist Organizations. This action enables 
us to identify and freeze the financial assets of these groups and sets 
the conditions for their isolation. Governments in the region are also 
increasing their cooperation with regional counterparts--forming 
bilateral and multilateral alliances to combat terrorist activity. 
ASEAN's plan to establish a regional Counterterrorism Center in Kuala 
Lumpur, Malaysia is a noteworthy example. USPACOM continues to support 
the efforts of these nations to strengthen the rule of law, improve the 
effectiveness of regional armed forces, and promote democratic ideals 
of pluralism and religious tolerance. Our long-term effort is to use 
international, regional, and local relationships to defeat terrorism 
through coordinated diplomacy, education, information operations, and 
the use of force when necessary. This is our challenge--and we will 
meet it.
    We've learned a great deal about terrorism in Southeast Asia over 
the past year: how these entities organize, how they operate, and what 
they seek to achieve. We realize we have much more to learn and to 
accomplish. I am convinced that our best approach is to disrupt 
terrorist activities where we can while helping build our regional 
partners' capabilities to do the same. It is a team effort.
    To better synchronize our efforts in combating terrorism in the 
Pacific, we have assumed the offensive while putting in place an 
``active defense.'' Offensively, we established a full time Joint 
Interagency Coordination Group for Counter Terrorism (JIACG-CT) at 
USPACOM Headquarters. Defensively, we designated our Army component, 
U.S. Army Pacific (USARPAC), as our Joint Rear Area Coordinator (JRAC) 
for Hawaii; Commander, Pacific Representative--Guam (COMPAC- REPGUAM) 
as our JRAC for Guam; and Commander, Alaska Command (ALCOM) as Joint 
Task Force--Alaska. These command and control constructs are 
successfully prosecuting the war on terror while protecting our forces 
and critical infrastructure.
    JIACG-CT. We have established a Joint Interagency Coordination 
Group for Counter Terrorism (JIACG/CT) to coordinate DOD and other 
Government agency (OGA) activities in USPACOM AOR, develop targets for 
future military or OGA operations, plan USPACOM regional and country 
counterterrorism (CT) campaigns, and enhance U.S. and partner nation CT 
capabilities in support of national objectives in the GWOT. It is an 
all-encompassing and focused effort, where we are now integrating our 
Theater Country Teams to assess host-nation concerns and necessary 
conditions to proceed with our CT campaign. This team endeavor has been 
extremely successful as demonstrated by the actions of regional 
countries that are supporting U.S.-led efforts in Afghanistan and 
regional operations, like those in the Philippines, while conducting CT 
operations in their own countries--all in the past year.
    Forward and Deployed Forces. Within the last year, the U.S.S. Kitty 
Hawk, John C. Stennis, Carl Vinson, Constellation, and Abraham Lincoln 
battlegroups; maritime patrol aircraft; U.S.S. Peleliu, Bonhomme-
Richard, Belleau Wood, and Tarawa Amphibious Ready Groups with the 
11th, 13th and 15th Marine Expeditionary Units; 5th, 11th, and 13th Air 
Forces; and the 509th Bomber and 40th Air Expeditionary Wings have 
deployed in support of major roles in OEF-A and operations in the 
Persian Gulf. Further, many USPACOM countries continue to provide 
tangible support to OEF-A within their means. Australia, India, Japan, 
Korea, Malaysia, New Zealand, Philippines, Singapore, and Thailand have 
all contributed support ranging from overflight, access and basing to 
escort, logistics, and troops on the ground. We appreciate their many 
contributions and valuable cooperation.
    Regional Counterterrorism. Information sharing between countries in 
the Pacific has provided unprecedented insights into the Jemaah 
Islamiyah (JI) and al Qaeda networks in the Asia-Pacific region. As a 
result, Singapore and Malaysia have arrested dozens of members of JI, 
the primary transnational terrorist organization in the Pacific with 
links to al Qaeda. Indonesia has arrested suspected terrorist leaders 
and bombing suspects since the October bombings in Bali. However, 
Indonesia has a difficult problem and has factions that do not want to 
aggressively investigate groups within Indonesia sympathetic to al 
Qaeda. We need to cooperate more effectively at all levels with 
Indonesia on terrorism. An International Military Education and 
Training (IMET) program for Indonesia is key to our engagement effort.
    The Government of the Republic of the Philippines (GRP) continues 
to attack terrorist infrastructure and capabilities in the Philippines 
and throughout the region. President Gloria Macapagal-Arroyo is firmly 
on our side in the GWOT--strongly supporting the effort. Our advice and 
assistance, including our maintenance and training packages provided 
under security assistance authorities, are improving the Armed Forces 
of the Philippines (AFP) CT capabilities. Operation Enduring Freedom-
Philippines (OEF-P) serves as the ideal vehicle for U.S. forces to 
advise and assist the AFP in the development of skills necessary to 
fight terrorists. Additionally, the infrastructure improvements to 
roads, hospitals, and schools and the construction of water wells on 
Basilan Island under DOD's humanitarian and civic assistance program 
provide positive impacts on local communities--highlighting America's 
positive role while assisting the Philippines in dealing with the 
socio-economic causes that entice disenfranchised Filipinos to support 
terrorist activities. As a result of this well integrated operation, 
the ASG is on the run on Basilan and its influence with the local 
populace there has been dampened.
    USPACOM's Antiterrorism Program is proactive and dynamic in its 
approach to protect our people and resources throughout the Pacific. It 
is an ``active defense'' because it has offensive qualities. Since 11 
September, we have come a long way in better protecting DOD personnel 
and critical infrastructure in the Asia-Pacific region.
    Joint Rear Area Coordinators (JRACs) in Alaska, Guam, Hawaii, 
Japan, and Korea are the focal points for force protection, 
coordinating security measures and intelligence fusion among the 
different services in their AORs. JRACs provide the command and control 
construct to synchronize our DOD anti-terrorism/force protection (AT/
FP) efforts for military installations and property with Federal, 
State, and local agencies and with the host nations in the cases of 
Japan and Korea. USPACOM's JRACs are models for interagency 
coordination, combined scenario-based training events, and 
unprecedented cooperation and information sharing. We are working 
continuously with U.S. Northern Command to standardize and synchronize 
our efforts and procedures.
    USPACOM has an aggressive vulnerability assessment program that 
covers DOD bases, ports, airfields, and training areas in the AOR that 
are not under U.S. control. We use assessment teams from the Defense 
Threat Reduction Agency (DTRA), the services, and our components to 
ensure our facilities have current assessments and proactive 
antiterrorism plans. USPACOM personnel work closely with their 
Department of State counterparts to ensure host-nation support is 
adequate to protect our deployed forces and that all are employing the 
latest AT/FP procedures.
    Force protection is ``operationalized'' in USPACOM. Our staff 
continually monitors threat information and the environment in which 
our forces are based. Theater and country specific Force Protection 
Conditions (FPCONs) are continually reviewed and upgraded as necessary. 
Random Antiterrorism Measures are employed to complicate terrorist 
planning. USPACOM also has a travel restriction program, providing a 
tool to declare entire countries or portions thereof ``off-limits'' to 
DOD members, thus keeping them out of harm's way. In addition, Force 
protection plans are required for all travel in our AOR, from major 
unit deployments to individuals on leave. The resource drain from 
increased FPCONs is a formidable challenge to both manpower limitations 
and Force Protection Technology initiatives. Your continued support is 
necessary to sustain the progress we are making in this area.
    Critical Infrastructure Protection (CIP) program and Homeland 
Security. Currently, we support Homeland Security and Forward Base 
security efforts primarily through Information Analysis, 
Infrastructure/Personnel Protection, and Quick Reaction Forces. The 
Critical Infrastructure Program is our operational initiative to 
improve security in the AOR. The program is on track in developing 
processes and methodologies. The first CIP Appendix to one of our 
theater Operational Plans (OPLAN) will go to the Joint Staff on 30 
April 2003. Additionally, a comprehensive USPACOM CIP Operation Order 
(OPORD), our Theater Infrastructure Assurance Plan, is in final 
staffing. Notably, the program has resulted in a partnership with the 
Joint Program Office for Special Technology Countermeasures to develop 
and field a prototype Combatant Command CIP Database in May 2003.
    Homeland Defense and Civil Support (HLD/CS). With the recent 
direction to consolidate the security, defense, and support for the 
homeland, we are working to integrate existing functions as well as 
expanded mission requirements to enhance our protection of the USPACOM 
Homeland AOR that includes the State of Hawaii, the Territories of Guam 
and American Samoa, and the Commonwealth of the Northern Mariana 
Islands. Programs such as the JRAC, CIP, Homeland Air Security (HAS), 
Consequence Management for Chemical, Biological, Radiological, Nuclear, 
and high yield Explosive (CBRNE), and Domestic Support Operations are 
but a few of those being combined into one plan to maximize our 
capabilities and still refine the use of our resources. USPACOM's HAS 
mission deters, prevents or interdicts aerial threats and aggression 
directed toward Hawaii, Alaska, Guam, and U.S. territories within 
USPACOM's AOR. The HAS air threat spectrum ranges from ballistic 
missiles and aircraft to future low-altitude cruise missiles and radio 
controlled sub-scale aircraft. The potential for a terrorist to gain 
this capability is rising. USPACOM has addressed this challenge with 
close integration, cooperation, coordination, and collaboration among 
international, Federal, State, local agencies, and governments. This 
fusion of individual agency capabilities, including our military, into 
an integrated, multi-layered response is key to our collective success.
    USPACOM also supports other non-Homeland Security functions. Civil 
Support operations will be an enhancement of our existing Domestic 
Support Operations to the Homeland. Although not directly related to 
securing the homeland against terrorism, this support affects the 
impact of terrorist action. With Secretary of Defense direction, we 
quickly support the Department of Homeland in mitigation and recovery 
efforts relating to natural disasters. Typhoon Pongsona in Guam is a 
good example. The USPACOM HLD/CS program has taken on a renewed effort 
with great scope and responsibilities. Our Contingency Plan (CONPLAN) 
will build on our processes for intelligence sharing, AT/FP, CIP, 
CBRNE, and natural disasters as well as other requested support to the 
civilian sector, providing a comprehensive program for Hawaii, Guam, 
and all our territories in the AOR.
    Information fusion. USPACOM's Counterintelligence Program remains 
the key link between DOD and Law Enforcement Agency efforts in the 
Pacific Theater. We are committed to furthering the integration efforts 
of the Joint Inter-Agency Coordination Group--Counter-Terrorism (JIACG-
CT) and counterintelligence missions with the FBI's Joint Terrorism 
Task Forces and with allied international agencies. Along these lines, 
we are pioneering efforts to promulgate all-source intelligence fusion 
to connect local, state, national, and DOD intelligence, 
counterintelligence, and law enforcement agencies. These efforts, 
coupled with a joint international training regimen encompassing 
asymmetric warfare and analysis from multiple perspectives, hold great 
promise in developing an ``actionable intelligence'' capability.
    Manpower Requirements. Legislation mandates reductions in Higher 
Headquarters (HHQ) staffs by 15 percent. USPACOM and our sub-unified 
commands are executing these reductions in ways that will minimize the 
impact on our missions. The need for intelligence gathering, analysis, 
production, coordination, dissemination, campaign planning, and 
capabilities testing in exercises and coalition building is greater 
than ever. Adequate manpower resources are essential to mission 
planning to counter emerging asymmetric threats. Achieving synergy of 
forces launched from around the globe during conflicts while providing 
effective reach-back for those forces creates high mission demand on 
our combatant headquarters (HQ) staff.
    The GWOT has created additional manpower requirements. Increased 
security patrols, both shore-based and waterside, in response to 
enhanced FPCONs; non-U.S. controlled port and airfield assessment 
teams; 24/7 coverage for JRACs and Crisis Action Teams; and the already 
expanding Homeland Defense, Civil Support and CT missions are a few 
examples of manpower generating tasks. Additional AT/FP billets are 
needed to address the full range of force protection, antiterrorism, 
and CT missions throughout USPACOM. As we continue to develop the 
Homeland Defense and Civil Support plan, we already see the need for 
enhanced information analysis capabilities and consequence management 
resources for CBRNE events.
    Integrating reservists. Throughout the 1990s, we increasingly 
relied on our Reserve and Guard members to help accomplish our mission. 
These outstanding service members/citizens contributed not only hard 
work, but also unique talents and perspectives. It is not an 
understatement to say that they have helped in every facet of the 
USPACOM mission. After 11 September, with the sharply increasing 
demands of the GWOT, we needed their support. Throughout USPACOM, we 
only mobilized about 5,000 reservists--about 10 percent of the 
immediate 11 September mobilized force capability. They helped with 
force protection, logistics flow, and increased shifts in a myriad of 
areas. As we continue to tap into our reservists and National Guardsmen 
to support operations, we need to ensure they receive benefits 
comparable to our active duty service members. America can be proud of 
how our Reserve and Guard Forces have responded.
    Combating Terrorism Readiness Initiatives Fund (CbT RIF). USPACOM 
received $3.98 million in CbT RIF funding in fiscal year 2002. The 
fiscal year 2003 worldwide allocation stands at $47 million. This 
initiative provides the Geographic and Functional Commanders additional 
avenues for resourcing against emergent and emergency terrorist 
threats. USPACOM received $4.14 million (10 projects) of the $32.4 
million available in the first allocation of fiscal year 2003 funding, 
not including $2.56 million (14 projects) for U.S. Forces Korea (USFK). 
USPACOM funded CbT RIF projects include emergency Explosive Ordnance 
Disposal responder gear for USARPAC; a perimeter wall for the new 
USPACOM Headquarters; vehicle gates and barriers for Tripler Army 
Hospital; mass notification system for Misawa Air Base (AB), Japan; 
closed circuit television for Fort Buckner; gates for Yokota AB, Japan 
flight line; barrier gates for Fort Shafter; crash barriers for Camp 
Zama, Japan; and a standoff initiative with HQs security upgrades for 
Yokota AB.
    Special Operation Forces (SOF). USPACOM, through Special Operations 
Command, Pacific and JTF-510, maintains the ability to deploy SOF under 
the command of a general officer to any location to combat terrorism. 
We have used this capability in Operation Enduring Freedom--Philippines 
and continue to refine it to support the GWOT. This capability, 
however, depends on building and maintaining relations with supporting 
allies and friendly nations. We build and maintain these relationships 
through our Joint Combined Exchange Training (JCET) and other Theater 
Security Cooperation (TSC) programs. We look forward to working with 
the Congress to ensure these activities continue to receive future 
resource consideration.
Improving Readiness and Joint Warfighting Capability
    Improving the readiness and joint warfighting capability of USPACOM 
Forces is critical to assuring our friends and allies, dissuading 
future military competition, deterring threats and coercion against 
U.S. interests, and defeating an adversary if deterrence fails. It 
includes the force levels, spares, operating dollars, and training 
needed to maintain ready forces. It also means innovating, 
transforming, and improving our capabilities and developing operating 
concepts and technologies needed to keep our forces ready for a wide 
range of alternative futures.
    Intelligence, Surveillance, and Reconnaissance (ISR). The GWOT and 
traditional regional military threats demand ever-increasing agility 
and innovation in military intelligence. In the Asia-Pacific region, 
Signal Intelligence (SIGINT) remains our best means to provide timely 
information on threat developments and intentions. It is key to 
tracking terrorist activities in Indonesia and the Philippines, as well 
as maintaining warning indicators and situational awareness on areas 
such as Korea, tensions between India and Pakistan, and China's 
continuing military modernization and relations with Taiwan.
    The ability to integrate National Security Agency (NSA) and service 
SIGINT is vital in peacetime and in crisis. Rapid advances in 
telecommunications technologies, and their use by adversaries, present 
a daunting SIGINT challenge. I strongly support NSA's transformation 
efforts to defeat any perspective gains the digital technology 
revolution may present to our enemies.
    I strongly advocate the accelerated development and fielding of 
joint, interoperable, modular, rapidly reconfigurable tactical SIGINT 
equipment for land, sea, and air platforms. These improvements should 
be balanced by collaborative intelligence processing systems at 
national, theater, and tactical levels to make the best use of the 
increased data obtained.
    Without concurrent improvements in NSA's capabilities and in 
service cryptologic systems it will be increasingly difficult to 
predict, find, and target the most serious threats in our region.
    Substantial improvements are needed to enhance Human Intelligence 
(HUMINT) collection capability against key USPACOM Indications and 
Warning requirements, to include hard and deeply buried underground 
facilities supporting the adversary's command, control, and 
communications and WMD infrastructure. Focused and coordinated source 
development is critical. Sustained resources for both CIA and DOD 
(Defense HUMINT Services) will yield the progress we need. Our military 
commands must have insight into enemy plans and intentions that only 
good HUMINT can provide.
    Cryptolinguists remain a long-standing shortfall with Operation 
Enduring Freedom proving the value of personnel fluent in languages and 
dialects. We are partially meeting the current challenges by training 
cryptolinguists to become familiar with low-density dialects and using 
speakers fluent in these dialects to augment our force. Ensuring the 
Defense Manpower Data Center's Automated Language Finder database 
tracks all USPACOM languages and dialects would significantly improve 
our ability to find speakers of languages/dialects required for future 
operations. Additionally, it is essential the Defense Language 
Institute develop tests for languages/dialects that accurately assess 
language skills of service personnel.
    To support future contingencies, crises or OPLANs, we require a 
full-up and exercised joint ISR architecture with adequate ISR assets. 
One positive development sponsored by the U.S. Air Force is the multi-
intelligence tasking, processing, exploitation, and dissemination 
(TPED) environment with the Distributed Common Ground System (DCGS) at 
Hickam Air Force Base (AFB). This system will distribute data from 
theater, commercial, and tactical ISR sensors to multiple users--
national, joint, and combined--involved in a crisis. To fully benefit 
from the DCGS, additional funding is needed to ensure USPACOM service 
components have a sustained airborne ISR infrastructure, to include 
unmanned aerial vehicles (UAVs) and extended tether U-2 high-altitude 
surveillance and reconnaissance aircraft.
    Command, Control, Communications, and Computers (C\4\). Over the 
past 3 years, improving the C\4\ posture in the Pacific has been a top 
USPACOM priority and still is one of the most critical challenges we 
face today. The C\4\ infrastructure must be continually sustained and 
protected. We've invested heavily in command and control systems and 
equipment, communication devices, and computers across the command. We 
do this because our current and future requirements demand that we do. 
For example, the Air Force recently declared initial operating 
capability for a new Air Operations Center at Hickam AFB in Hawaii. 
This function can deploy in part or as a whole to operate through the 
full spectrum of contingency operations, reaching back for support from 
the rest of the Air Operations Center at Hickam. Every planning action, 
training event, operation, and weapon system in existence today relies 
heavily on the ability to communicate. Providing our fighting men and 
women with the weapons they need comes with a large price tag, but it's 
worth it. To do otherwise would be tantamount to denying them 
ammunition in the heat of battle.
    C-4 Challenges. The GWOT demands effective communication systems 
and equipment to link national authorities and local first responders 
with real-time information. We have made great strides in improving C4 
capabilities in the Pacific Theater, but we must continue improvements 
at a rapid pace to keep up with expanding requirements for 
connectivity, capacity and security. C4 ties all technology together 
and is the underpinning for Transformation, both directly and 
indirectly. We must enhance our information infrastructure to be more 
robust, able to rapidly capitalize on improving technology, and more 
cost efficient.
    To achieve information superiority we need to move large volumes of 
information to and from the warfighter to maintain vivid and complete 
situational awareness and achieve understanding at a glance. Many folks 
envision large volumes of information as pages and pages of text 
messages, which can overwhelm users and result in ``information 
overload.'' Instead, we are talking about maximum use of multi-media 
such as video, shared applications through collaboration software, and 
high-resolution imagery. Through these types of tools, our operators 
can digest more information and we can collectively move towards a more 
knowledge-based environment.
    This type of capability requires large network capacity. Our 
warfighting requirements for remote and austere locations require that 
this network capacity be robust and resilient. Enhanced satellite 
capability is one of USPACOM's most critical needs. Today we do not 
have enough bandwidth in any of the military satellite bands, Ultra, 
Super, or Extra High Frequency, to fully support our operational plans. 
Commercial SATCOM capacity can support much of this shortfall, however, 
commercial SATCOM availability is subject to market pressures and is 
not fully dependable. For example, an important commercial SATCOM 
service to the Navy was preempted by media coverage of the 2000 
Olympics in Sydney, Australia.
    Additionally, USPACOM principally relies on geo-stationary weather 
satellites to track destructive typhoons over the vast expanse of 
USPACOM's ocean areas. Our current geo-stationary satellite weather 
information comes from foreign-owned and operated satellites that are 
reaching their designed service lives.
    Consequently, it is absolutely crucial to fully fund and keep on 
track satellite upgrades, launches of new communications and weather 
satellites, and new satellite programs. The Transformational 
Communication System (TCS) system being proposed by the Assistant 
Secretary of Defense for C3I looks promising for meeting our SATCOM 
needs.
    Our terrestrial communication infrastructure also needs attention. 
Most of our bases, posts, camps and stations are supported by mid 20th 
century cable and wire technology. The Global Information Grid (GIG) 
Bandwidth Expansion Project promises to replace this legacy 
infrastructure with the fiber optic connectivity needed for our in-
garrison forces, command centers and training facilities.
    Radio communications that connect us with Federal, state and local 
government agencies are also important for force protection, homeland 
security and disaster response. We appreciate the congressional support 
for the Pacific Mobile Emergency Radio System (PACMERS), which will 
help us meet National Telecommunications and Information Administration 
(NTIA) mandate for frequency consolidation and allow for excellent 
interoperability with non-military partners.
    Information Assurance and Information Sharing. Communication 
connectivity and capacity are only part of the solution for network 
centric warfare. Communication and information security must be 
maintained while simultaneously sharing information and collaborating 
with bilateral and multilateral coalitions. Our ability to share 
information with coalition partners is inhibited by our need to 
restrict information within enclaves that are not accessible to 
coalition partners. To be network centric, we need the network to be 
agile and allow for the dynamic interconnection of nodes that support 
several communities of interest. Typically, we can have several 
simultaneous operations involving different coalition partners 
occurring in the Pacific at any given time. Being able to support these 
concurrently, with sufficient network capacity, is an information 
technology challenge.
    Our Combined Operations Wide Area Network (COWAN) initiative is 
helping us achieve this goal by developing an information system that 
is interoperable with U.S. and coalition forces and is agile enough to 
allow us to selectively collaborate in multiple joint/multi-national 
environments simultaneously. We have formed a strong partnership with 
CENTCOM to roll our COWAN solution into the Combined Enterprise 
Information Exchange System, CENTRIXS, which may become the single 
network environment for all joint forces to support coalition 
operations and intelligence networking requirements. This single, 
highly meshed environment would be much more responsive and financially 
efficient than the multiple networks required today to support each 
individual coalition community.
    Communication and information security measures are both part of 
our comprehensive Information Assurance strategy. As the Internet 
expands and becomes more pervasive, our adversaries are continuously 
finding ways of using computer vulnerabilities and network weaknesses 
to deny access to our information resources or exploit our information 
content. There are many programs focused on information assurance 
involving encryption, intrusion detection and network emergency 
response. Coordination of these programs and computer network defense 
activities requires a highly trained team of network professionals 
working around the clock with and a strong relationship with the Joint 
Task Force for Computer Network Operations (JTF CNO). I cannot cite any 
single program that is more important than any other in the Information 
Assurance area; however, emphasis in this area is a must if we expect 
to rely on network centric operations.
    With regard to information sharing, we have made great strides in 
gathering and taking advantage of ``open source'' information and 
providing it to our coalition and inter-agency partners to build trust 
and improve understanding. The vast amount of this information 
necessitates focused collection and analytical efforts to identify 
accurate and relevant information to enhance security cooperation. Open 
source products provided by the Virtual Information Center (VIC) and 
the regional information exchanges conducted via the Asia-Pacific Area 
Network (APAN) have increased our situational awareness of events and 
developments in the Asia-Pacific region that affect all of our 
operations. More importantly, these web-based activities have enabled 
us to expand our information base and share the results instantly with 
our foreign counterparts and potential coalition partners.
    Anti-Submarine Warfare (ASW). The Pacific undersea warfare 
challenge is growing at a significant rate. In recent years, the 
USPACOM AOR has seen the greatest increase in submarine order of battle 
in the world. A robust and integrated ASW architecture and more capable 
force structure are essential to counter the growing submarine threat. 
The premier ASW asset remains submarines. To ensure sufficient 
submarines are available to track and kill enemy forces, we must 
continue to support the refueling of 688-class submarines and follow 
through in reaching a Virginia-class submarine build rate at two per 
year in fiscal year 2007. I also strongly support the rapid transition 
to acquiring Automatic Periscope Detection technology for surface ships 
and Navy Maritime Patrol Aircraft employed in littoral regions. 
Congressional efforts last year resulted in funding for a welcomed and 
much needed 688-class submarine refueling overhaul program and funding 
that enabled the transition from a science and technology program to an 
acquisition program for airborne Automatic Periscope Detection 
technology. I appreciate your support as we make necessary improvements 
in our ASW war fighting capabilities.
    Missile Defense (MD). Short- and medium-range ballistic missiles 
pose the most pervasive and challenging missile threat for USPACOM MD. 
Effectively defending against this threat requires a layered, 
complementary mix of sea and ground based lower tier and upper tier 
terminal phase defense systems. Until a robust upper tier system is 
fielded, lower tier systems remain paramount to successful execution of 
theater OPLANs. A mix of forward deployed ground systems and sea-based 
lower tier systems offers the lowest risk and earliest deployment 
options. Accordingly, I support delivery of a sea-based terminal system 
as soon as technologically feasible and a moderate increase in Patriot 
PAC-3/GEM+ missile production/conversion to meet current OPLAN and 
contingency plan (CONPLAN) warfighting requirements. From a homeland 
defense perspective, continued development and fielding of a Ballistic 
Missile Defense System (BMDS) capable of intercepting missiles in all 
phases of flight (i.e. boost, midcourse, and terminal) against all 
known threats remains a top priority. Key capabilities that support 
these requirements, now and in the future (Missile Defense Agency's 
Block 2004-2006 BMDS capabilities), for USPACOM include PATRIOT PAC-3, 
Sea Based Midcourse Defense Segment, Theater High Altitude Air Defense, 
and Airborne Laser \1/2\ power. Congressional support of the BMDS 
programs remains vigilant, and I applaud your continued support of 
Ballistic Missile Defense initiatives.
    Mobility and Operations. During 2002, we made great strides 
partnering with U.S. Transportation Command (USTRANSCOM) to modernize 
our strategic air and sealift infrastructure to meet potential 
operational needs ranging from disaster relief to the GWOT and all the 
way to a major war. The USPACOM En Route Infrastructure Steering 
Committee has identified, validated, and championed over $500 million 
in hydrant, ramp, and runway projects throughout the AOR to support the 
National Military Strategy as mandated by the Defense Planning Guidance 
and by the Mobility Requirements Study 2005. Our current en route 
airlift system includes Elmendorf AFB Alaska, Hickam AFB Hawaii, 
Andersen AFB Guam, and Iwakuni Marine Corps Air Station, Kadena AB, 
Misawa AB, and Yokota AB Japan. Additionally, we have developed an AOR-
wide prioritized list of air and seaports to visit and assess their 
capability as potential en route locations.
    The heavy use of Naval Supply Facility in Diego Garcia, a British 
Island in the Indian Ocean, in support of OEF, has led to its near-term 
consideration as an en route port supporting both USPACOM and USCENTCOM 
operations. We have identified over $38.7 million in infrastructure 
improvement projects to expand the facility's current operational 
throughput capability. Projects nearing completion include improvements 
in temporary containerized munitions handling pads and storage areas, 
wharf lightning protection, and transient berthing projects. Similarly 
at Wake Island, we have identified significant infrastructure 
improvement projects to ensure continued access to this critical 
location supporting our Pacific Tanker Air Bridge. The fiscal year 2002 
MILCON $9.7 million Repair Island Access Facilities is currently 
restoring the wharf and marine bulkhead in preparation for major 
airfield pavement replacement starting with the fiscal year 2003 MILCON 
$24.9 million, which replaces the entire deteriorated runway pavement. 
Following that, four more phases in fiscal year 2004 and beyond will 
complete replacement of the airfield taxiways and aprons and upgrade of 
the water supply, electrical power and sanitary sewage systems, for an 
additional $74 million. These investments and others like them 
throughout the Pacific will ensure we have the necessary infrastructure 
readiness when we need them.
    As early deployers, air-refueling tankers are critical to executing 
theater war plans for establishing the Pacific Tanker Air Bridge. 
Ongoing OEF and Noble Eagle have demonstrated the operational impact 
that air-refueling capability has in support of the GWOT. The KC-135 
aircraft comprises 90 percent of the tanker fleet and their usage 
increased 45 percent over what was programmed following 11 September 
2001.
    The High Speed Vessel (HSV) provides a flexible alternative for 
intra-theater movement in USPACOM, including its use to augment 
airlift. Since October 2001, III Marine Expeditionary Force (MEF) has 
been testing and evaluating deployments using a leased HSV with great 
success and cost savings for exercise deployments and redeployments, as 
well as operational employment. Joint Venture HSV X1, the Joint Army/
Navy HSV that participated in Millennium Challenge 2002 and other 
exercises, was scheduled to support U.S. Army training in the USPACOM 
Theater from March to April 2003, but was diverted to support U.S. 
Central Command (CENTCOM). USPACOM fully supports the pursuit of high 
speed sealift technology as an Advanced Concept Technology 
Demonstration (ACTD) and a future force projection transportation 
platform.
    USPACOM supports USAF and USTRANSCOM efforts to procure C-17 
aircraft to meet strategic airlift needs in our AOR. Our number one 
strategic lift shortfall is airlift due largely to the retirement of 
aging C-141 and C-130 airframes and substandard C-5 aircraft 
performance. Additionally, to better meet operational response in the 
AOR, we fully support the initiative to forward base eight C-17s each 
at Hickam AFB, and Elmendorf AFB starting in fiscal year 2006 and 
fiscal year 2007 respectively. To have facilities available on arrival 
of these aircraft, Hickam's C-17 beddown military construction (MILCON) 
will start in fiscal year 2004 with six projects totaling $64 million. 
Elmendorf's C-17 beddown MILCON will start in fiscal year 2005 and the 
MILCON funding stream for these facilities will total about $105 
million each over the fiscal year 2004 to fiscal year 2009 MILCON FYDP 
to provide the needed facilities for these assets to have full mission 
capability. These strategic mobility aircraft will bring a much-needed 
aerial delivery capacity to the Pacific Theater and prevent any lapse 
in capability during the reduction of C-130s in the AOR. We also 
support USAF efforts to procure F/A-22 Raptors. The F/A-22 will provide 
a unique, rapid response to swiftly defeat enemy threats in the USPACOM 
AOR.
    A V-22 Osprey tiltrotor capability is truly transformational--
exhibiting leap-ahead technology. If the current test program proves 
successful, this capability will extend our operational reach and 
access in the AOR. The Osprey's projected design, performance, and 
reduced vulnerability and susceptibility will provide USPACOM with a 
highly survivable and flexible capability. The aircraft's enhanced lift 
abilities provide significant migration for the medium-lift 
requirement.
    The Pacific region needs three of the six planned Stryker Brigade 
Combat Teams (SBCTs) to fully support theater warfighting capabilities 
and region transformation efforts. The primary military force of our 
friends and allies in the Asia-Pacific region is their Army. SBCT 
participation in regional events reinforces our commitment to support 
allied transformation efforts and coalition building by continuing 
Army-to-Army high technology training and exercise events. 
Additionally, the SBCTs show great promise in providing joint 
commanders the means to better integrate Army force capabilities as 
part of a joint or coalition task force.
    Training Areas. We are tasked to perform an increasing number of 
missions, from peace operations to strikes and raids to noncombatant 
evacuation to humanitarian assistance. Each mission requires 
preparation. The only way to prepare and ensure readiness is through 
tough, oriented, and realistic training. Dropping dummy bombs and 
firing inert ordnance cannot replace ``live-fire'' practice. The first 
exposure to ``live fire'' our forces face must be in a controlled 
training environment where they learn from their experience at less 
risk than in hostile combat.
    However, we routinely receive encroachment pressure on our training 
ranges throughout the AOR. Restrictions on space, hours, ordnance, and 
radio frequencies impact our ability to exercise our equipment and 
train to standard. Last spring, a suit pertaining to the Migratory Bird 
Treaty Act (MBTA) temporarily closed our primary aircraft live-fire 
range, Farrallon de Medinilla, near Guam, until the D.C. Circuit Court 
of Appeals granted an emergency stay. Fortunately, timely congressional 
action amended the MBTA to exempt DOD military readiness activities, 
and a subsequent appellate court order dismissed the case as moot. 
Likewise, Makua Range on Oahu is in use but severe limits in the number 
and type of ground force training cycles have forced us to accomplish 
most small unit training in Hawaii through expensive deployments to the 
Pohakuloa range on the Big Island. Range and training limitations in 
Japan and Korea cause units to deploy away from their home station for 
routine training. Moreover, although aircraft, artillery, and pistols 
are noisy instruments of war, they are basic parts of our business. 
Developments now demand noise restrictions that force important low-
altitude maneuvers to unrealistically high altitudes and limit the use 
of ranges.
    We are good stewards of our environment. Success stories are 
numerous, but often the stories aren't well known. We have set aside 
space for protected species, altered or deferred some units' training 
to avoid interference in nesting areas, and developed specific programs 
to increase the populations of protected or endangered species.
    The military's answer to encroachment challenges has been to work 
around the problems while seeking to minimize the impact on the quality 
and quantity of training. But, maneuver space is less, training lanes 
have become narrow and artificially tunneled, and our individual 
maneuvers have become too predictable or repetitive. The work-arounds 
may still accomplish the training, but usually require additional 
costs--in terms of money, time, and impact to the well-being of our 
service members. Readiness and training experiences decline; we cannot 
let this continue.
    Many of our environmental laws, while well intentioned, are vague. 
For example, the Marine Mammal Protection Act (MMPA) prohibits 
harassment of protected species without prior authorization from the 
respective regulatory agency. The current definition of ``harassment'' 
of marine mammals can be mere ``annoyance'' or ``potential to disturb'' 
without biologically significant effects. Any Navy test or training 
activity that harasses a protected species must be approved by the 
applicable regulatory agencies--often after delays, or subject to 
restrictions, that degrade the quality of the training. Sometimes 
inflexibilities in the statue preclude our regulators from approving 
even activities that many believe have insignificant impacts. 
Additionally, litigants using the Endangered Species Act are seeking to 
force the Fish and Wildlife Service to lock up thousands of acres of 
military ranges as ``critical habitat'', even though our own 
congressionally-mandated Installation Natural Resource Management Plans 
afford habitat protection. In fact, litigants are seeking to force the 
U.S. Fish and Wildlife Service to designate such critical habitat on 
significant areas of DOD training ranges for endangered species that 
are not even present on such lands. As these examples show, such loose 
language and broad definitions can and do impede essential air, land, 
and sea activities near marine mammals or endangered species locations. 
Clear definitions and consideration of national security requirements 
should be important points in all environmental legislation.
    In April 2002, the administration sent a legislative package to 
Congress recommending clarifications to certain environmental statutes 
as part of the Readiness and Range Preservation Initiative (RRPI). The 
proposed package was prepared to help DOD maintain its ability to train 
forces and continue to protect the environment in which we train. Last 
year, Congress enacted three elements of our proposal but did not act 
on the remaining five. This year, the President has resubmitted the 
remaining RRPI proposals, with some modifications based on both 
discussion with Congress and other environmental stakeholders and a 
significant decision last year concerning the MMPA in the SurTASS 
lawsuit. We thank Congress for support of the RRPI and ask for your 
support on future encroachment issues that impact our readiness.
    Logistics. An aging aircraft inventory and some parts shortages 
continue to drive reduced Mission Capable and reduced fill rates for 
our ``go to war'' Readiness Spares Packages and high cannibalization 
rates. The result is lower than expected readiness at increased costs. 
Although funding for spare parts has improved over the last 2 years, 
some shortages continue. For example, only three of eight Pacific Air 
Force (PACAF) A-10, F-15, and F-16 wings maintained minimum Mission 
Capable standards during fourth quarter fiscal year 2002. PACAF 
requires excess cannibalization to meet wartime mission planning sortie 
generation rates. PACAF cannibalization rates are higher than 8 percent 
for the F-16, F-15C/D, F-15E, and A-10. Likewise, the U.S, Army uses 
controlled substitution to achieve peacetime mission-capable Aviation 
Fleet goals. Delays in stock availability due to 12-18 month spares 
delivery lead-times are a root cause of controlled substitution and 
create difficulty in matching funding lines with projected 
capabilities. Increased spares at the Army wholesale level are required 
to meet the increased flying hours necessary to surge to wartime 
Operational Tempo.
    We have made progress but need your continued support in fully 
funding materiel and personnel requirements for organizational, 
intermediate, and depot maintenance levels. Additionally, we need 
support for each Service's Life Cycle Support program to extend the 
life of our aging aircraft fleets.
    Chemical, Biological, Radiological, Nuclear, and high yield 
Explosive (CBRNE) defense is a significant concern in the Pacific 
theater, and a potential showstopper for U.S. military operations, 
causing significant operational risk to Major War OPLAN execution. 
CBRNE is a critical operating condition and potentially the greatest 
theater threat I face, affecting everyone, everywhere, including our 
allies and the homeland. Aircraft exposure on the Korean Peninsula or 
an attack on a few strategic choke points, including Guam and key 
Japanese air and seaports, could stop U.S. force flows and other 
critical support operations. Significant differences exist between what 
we would like to achieve against CBRNE threats and our actual 
capabilities. Specific shortages include Individual Protective 
Equipment, Chemical/Biological Point and Standoff detection, inadequate 
decontamination standards, and significant shortcomings in detailed and 
actionable intelligence on adversary WMD processes and facilities.
    We are active in the Joint Service Installation Protection Program 
and with other ongoing studies and demonstrations. For example, we are 
sponsoring a Restoration Operations (RESTOPS) Advanced Concept 
Technology Demonstration (ACTD) to examine the actions necessary to 
protect against and immediately react to the consequences of a chemical 
or biological attack at a fixed site. Through this venue, we are 
investigating new tactics, techniques and procedures, as well as 
exploring new detection, decontamination, early warning networks, and 
medical technologies. The RESTOPS ACTD will have its final 
demonstration at Osan Air Base, Korea, in February 2003. Another effort 
we are sponsoring is a DOD-wide biological warfare (BW) seminar. The 
DOD WMD community collectively assessed the shortfalls within DOD for 
responding to enemy BW and gave us a way-ahead to resolve these issues. 
We are working to integrate procedures and technologies that allow us 
to mitigate the impact of such an attack. We cannot do this alone. 
USPACOM needs support from the entire joint community to improve our 
abilities to protect our forces and to operate in this difficult 
environment should the need arise. Your continued support is critical 
to CBRNE defense readiness.
Quality of Service for our Men and Women
    While winning the war on terrorism and transforming our forces to 
ensure a qualitative military edge, we must improve on the Quality of 
Service (QOS) for our soldiers, sailors, airmen, and marines. QOS means 
providing the high quality operating facilities, the tools, and the 
information technology necessary for our service men and women to 
achieve their goals and execute their missions with efficiency and a 
minimum of frustration. My travels throughout the Asia-Pacific region--
first as Commander, Pacific Fleet, and now as Commander, Pacific 
Command--confirm my belief you have done a great service to our 
military members and their families in the area of personnel 
entitlements.
    The QOS initiatives included in the Fiscal Year 2003 National 
Defense Authorization Act show service members that military and 
congressional leaders are taking actions to meet the needs of our 
service men and women and their families. Thank you for your support on 
recent initiatives, including the 4.1 percent pay raise, assignment 
incentive pay, and the ability to grant emergency leave of absence. 
These QOS initiatives will assist in retaining highly skilled troops 
and their families. Many USPACOM personnel will benefit from the 
ability to defer their Consecutive Overseas Tours travel entitlement, 
from recent increases in Basic Housing Allowance, and from the 
additional Basic Allowance for Subsistence provisions in areas with 
inadequate messing facilities. Deployed personnel will be more at ease 
knowing that additional family assistance has been provided in the form 
of childcare, education, and youth services for our men and women who 
are in harm's way, supporting contingency operations and the GWOT.
    Military Family Housing remains a top priority. All services have 
devised plans to eliminate inadequate housing by 2007 with a 
combination of traditional military construction (MILCON) and 
privatization (Public Private Venture or Residential Communities 
Initiative). Congressional support has provided immediate benefits to 
our men and women who serve. Continued funding is essential, however, 
to enable further progress in reducing the number of inadequate 
quarters and in limiting out of pocket expenses to our service members 
and their families while maintaining a high standard of construction 
and quality. While we have made progress, we still have considerable 
work remaining. We appreciate your continued attention on this 
important issue.
    Dorms and Barracks for our single service members is another area 
where we have seen significant improvement. Our service components are 
now pursuing well thought out plans to meet the fiscal year 2008 goal 
of eliminating open bay berthing and central latrine-style barracks. We 
must retain our current operational funding stream, however, to 
maintain existing facilities as renovation proceeds. Again, 
congressional support has had a direct and beneficial impact on our 
young service members.
    Our base infrastructure is still below standards. Sustainment, 
Restoration, and Modernization (SRM) of facilities and infrastructure 
throughout the USPACOM AOR continues to be an important concern. Fiscal 
Year 2001 Installations Readiness Report rated about 80 percent of 
USPACOM facilities at C-3 (having serious deficiencies) or C-4 (not 
supporting mission requirements). In many areas, USPACOM facilities are 
1940s vintage and not mission conducive. For example, modern weapons no 
longer fit into WWII vintage magazines and require improved piers for 
safe, proper handling. The DOD goal directs components to achieve a 67-
year recapitalization rate by fiscal year 2007 and restore readiness of 
existing facilities to C-2 (minimum acceptable performance) status on 
average, by the end of fiscal year 2010. Current funding puts achieving 
this directive at risk. In addition to maintaining our facilities, we 
have equally important infrastructure requirements above SRM needs that 
require attention. These include new mission bed-downs and essential 
environmental requirements. Our facilities and infrastructure provide a 
foundation for optimum readiness and quality of service critical to 
mission success. We appreciate Congress' past funding efforts and call 
upon your continued assistance to ensure adequate facilities and proper 
maintenance for the long term.
    By far the most important weapons systems in our inventory are our 
soldiers, sailors, airmen, and marines. These individuals require life-
cycle support and maintenance just like other systems. Force Health 
Protection is that maintenance program. Ensuring the health of our 
forces directly relates to our ability to implement effective disease 
countermeasures that include vaccines, antibiotic stockpiles, and 
automated disease surveillance systems. I ask you to continue your 
support for ongoing research and development efforts that will improve 
our disease detection capabilities.
    The upkeep and replacement of military medical facilities remains 
one of our top QOS priorities. We are working to replace or renovate 
our substandard facilities, particularly for Naval Hospital, Guam, 
further degraded by Typhoon Pongsona in December. We must continue to 
ensure our military medical infrastructure is safe, modern, and secure.
    We appreciate the MILCON appropriations to the USPACOM AOR. These 
funds are vital to maintain our ability to work and fight together with 
our allies and to help transform and modernize our forces. In fiscal 
year 2003, $1.1 billion was allotted toward mission and mission support 
requirements and $300 million toward family housing needs. In fiscal 
year 2004, we need continued MILCON support for vital readiness and QOS 
issues. For example, we require MILCON for new mission bed-downs, such 
as the Stryker Brigade Combat Teams and the C-17 aircraft. Our backlog 
of major infrastructure repairs is reflected in the need for complete 
or major repair of airfield pavements at all U.S. Pacific Air Force 
bases, as well as the major repairs needed on critical infrastructure 
at bases and long-range radar detection in defense of the homeland. In 
the wake of destruction from Typhoon Pongsona in November 2002, it is 
clear we require supplemental MILCON support for a ``typhoon-proof'' 
concrete aircraft hangar as well as several other projects at Andersen 
Air Force Base, Guam. The hangar will provide reliable support for 
critically important current and future Air Expeditionary Force and 
OPLAN requirements. Also, we require MILCON for consistent 
environmental stewardship and essential dorm and family housing 
deficits and renovations. I thank Congress for using MILCON where 
enhanced force protection is necessary.
    The New USPACOM Headquarters is under construction and designed to 
provide advanced information management, decision support and 
visualization technologies for our people to efficiently accomplish 
their mission.
    Department of Defense Education Activity (DODEA) MILCON for two 
schools on Guam is my top family QOS priority. One is an elementary 
school that is currently not in the DODEA MILCON program due to lack of 
funds. The second is a replacement high school programmed in the 
DODEA's fiscal year 2006 MILCON program. Current facilities are 1997 
building conversions in poor, substandard condition that received 
significant damage from two typhoons in 2002. Further, numerous seismic 
events over the past few years have significantly weakened the 
elementary/middle school. Our military family dependents need safe, 
soundly built schools conducive to a good learning environment. We need 
your near-term support for these two DODEA school MILCON projects in 
Guam especially in light of our increased force posture on the island.
    Pacific Warfighting Center (PWC). Increasing operational and 
exercise activity, training complexities, and C\4\I modernization have 
rendered obsolete USPACOM's exercise simulation infrastructure and 
support capabilities. This deficiency significantly reduces the ability 
to train USPACOM and Joint Task Force commanders in crisis action 
readiness procedures; limits their ability to rehearse key operational 
orders; degrades the ability to improve combined interoperability with 
friends in the region; and contributes to increased OPTEMPO, training 
time, and associated costs for USPACOM forces before responding to 
contingencies. The current facility does not support future 
technologies or meet force protection requirements. The planned, state-
of-the-art operations and simulation center will improve total force 
readiness and achieve OSD's goal for transforming training by 
exploiting emerging technologies to create a robust, networked, live, 
virtual, and constructive training and mission rehearsal environment 
for joint and combined force commanders and their staffs.
    PWC will be a key node on the Joint National Training Center's 
global grid of operational warfighting centers. Specifically, it will 
fully integrate with, and extend the capability of, the Joint Forces 
Command's Joint Training Analysis and Simulation Center and U.S. 
European Command's Warrior Preparation Center. Accordingly, the PWC 
will provide an effective venue for decision support, OPLAN mission 
rehearsal, and combat analysis for headquarters and deploying forces. 
The planned simulation center will transform USPACOM through the use of 
emerging information technologies to support advanced warfighting 
concepts and joint experimentation. The PWC promises to save exercise 
funds and enhance regional security cooperation using Internet-based 
information exchange opportunities via the Asia-Pacific Area Network. 
This MILCON project will provide a secure facility in Hawaii for 
assembling military, civil-military and interagency representatives 
from throughout the Asia-Pacific region for interoperability exercises, 
collaborative research, and seminars. The facility will also support 
component conference requirements in a secure and protected setting.
    Again, much has been accomplished in QOS improvements, but we still 
have more to do. Thank you again for the support you have provided and 
I thank you in advance for your continued future support.
Reinforcing the ``Constants'' in the Pacific Region
    Our long-standing bilateral alliances in the Asia-Pacific region, 
our friendships and the presence of our forward-deployed combat forces 
continue to be the foundation of the region's peace and stability. One 
of my goals is to build on these relationships while nurturing 
multinational efforts that support the region's mutual interests. Our 
forward posture is fundamental and our combat capability essential to 
deter regional threats. We look for initiatives that help shape our 
overseas posture.
    Theater Security Cooperation (TSC). Dramatic events of the past 2 
years have brought into focus new and challenging national security 
demands for the 21st century. A mix of traditional and non-traditional 
threats jeopardizes the unprecedented levels of Asia-Pacific security 
and prosperity of the last 50 years. These threats are reminders that 
evolving challenges require more prompt and effective responses to 
ensure peace and prosperity in the Asia-Pacific region. At USPACOM, we 
``operationalize,'' national and defense security strategy with 
regional emphasis. Attaining national security and defense objectives 
in the Asia-Pacific region requires a broad understanding of threat 
capabilities, a frank assessment of political-military realities, and a 
well-charted course supported by meaningful and mutually beneficial 
security cooperation.
    Our acute theater security concerns include conflict on the Korean 
Peninsula (where the stakes are high); miscalculation between regional 
strategic rivals (such as China-Taiwan or India-Pakistan); and 
transnational threats such as terrorism, proliferation, drug-associated 
violence, and instability from failed nation-states. Although we 
anticipate peaceful resolution of longstanding security concerns in 
places like the Korean Peninsula, Taiwan Strait, and Kashmir, the 
strategic situation in these potential flashpoints and elsewhere 
mandates vigilance and preparedness. We are strengthening our current 
security relationships and military capabilities while developing new 
relationships and capabilities to deter conflict and dissuade would-be 
regional competitors.
    The USPACOM Theater Security Cooperation (TSC) Plan supports the 
overall mission by enhancing U.S. influence, expanding U.S. operational 
access to train (and deploy) forward-deployed and forward-based combat 
forces, and increasing interoperability with our coalition partners to 
support potential efforts across the spectrum of military operations. 
Every TSC activity we undertake enhances our joint/combined 
capabilities and communicates our intent to assure friends, or 
dissuade, deter, or defeat potential enemies. Security Cooperation is 
an engine of change that, along with our Joint Training and 
Experimentation Plans and our operational focus, solidifies the link 
between national strategy and focused, enduring regional security.
    The dividends of a relevant, adaptive TSC plan are clear--our 
treaty allies and friends have provided incomparable support to OEF and 
the GWOT. Every day, our TSC planners, exercise planners, security 
assistance personnel, and forward-deployed forces coordinate, plan, and 
execute meaningful security cooperation activities that strengthen 
military-to-military cooperation and prepare U.S. forces and their 
prospective Coalition partners for the next challenge.
    Japan. The U.S.-Japan alliance has never been stronger. From the 
outstanding rapport at the highest levels of our governments to the 
action officers, our two countries are moving forward in strengthening 
ties and resolving problems. Nearly 38,000 U.S. armed forces personnel 
are stationed in Japan, which also serves as a forward-deployed site 
for about 14,000 U.S. naval personnel. Japan provides over $4.5 billion 
in host-nation support, the most generous of any U.S. ally. Without 
these forward-stationed and forward-deployed forces, it would be much 
more difficult for the U.S. to meet commitments and defend American 
interests throughout the Asia-Pacific region. The U.S.-Japan alliance 
is fundamental to security and peaceful development in the region.
    Since becoming Prime Minister (PM) nearly 2 years ago, PM Koizumi 
has stressed the importance of the alliance and has sought to move 
Japan's security policies forward. He exerted exceptional leadership in 
response to the 11 September terrorist attacks, pushing support for the 
GWOT. After 11 September, the Government of Japan (GOJ) rapidly passed 
legislation and obtained Cabinet approval of a Basic Plan that provides 
the framework for significant Japan Self-Defense Force contributions to 
the war on terrorism. The speed with which Japan reacted is 
unprecedented in the 50-year history of the Japan-U.S. security 
relationship. GOJ contributions to the GWOT include the provision of 
over 70 million gallons of fuel oil to coalition ships by the Japan 
Maritime Self-Defense Force. The Japan Air Self-Defense Force has 
provided over 1,700 flight hours moving tons of important cargo and 
passengers throughout the theater. We take every opportunity to express 
our appreciation to the GOJ for its support following 11 September.
    The significant progress in building national support against 
terrorism does not eliminate concerns, however, about U.S. military 
activities in Japan. Although Japanese public support for the alliance 
remains high, about 70 percent, a majority of Japanese citizens would 
like to see a reduction in the burden of our presence. The normal range 
of base-related issues, including constraints on training and concerns 
about crime and the environment require continued careful management.
    Efforts continue to implement the Special Action Committee on 
Okinawa (SACO) Final Report. While 15 of 27 SACO initiatives have been 
completed, 12 (2 of 5 noise reduction and 10 of 11 land release 
initiatives) are still in progress. The cornerstone of the Japan-U.S. 
SACO Final Report is the Futenma Replacement Facility (FRF). GOJ 
approval of a Basic Plan for the off-shore portion of the FRF 
highlights the progress in the SACO process. However, we continue to 
emphasize to the GOJ that our requirements have not changed, and a 
complete replacement facility is required before returning Futenma.
    The U.S.-Japan alliance requires our proper attention. At the same 
time, significant growth opportunities exist for advancing U.S. 
interests. U.S. forces' presence here, from the country team 
perspective, is secure, and careful management of the issues will 
ensure it remains so. My hope for the coming year is that our security 
dialogue with Japan will advance beyond the discussion of current 
issues related to bases and training to address our longer-term 
interests in sustaining our vital alliance. We also look to expand and 
improve U.S.-Japan coordination with other countries within the region 
to address regional security issues.
    Republic of Korea (ROK). The ROK remains one of our strongest 
allies. The new Korean Government is committed to the alliance. 
Unfortunate incidents marred the relationship this past year--the most 
tragic was the death of two young Korean girls in an accident involving 
a U.S. Forces Korea vehicle. In this regard, the U.S. has at every 
level offered our profound sympathy and apologies.
    The late fall protests indicate the depth of emotion the Korean 
people feel on issues related to perceived inequalities in the ROK-U.S. 
relationship. However, they are not indicative of the solution sought 
by most Koreans or the Korean Government. The Korean people in general 
recognize the great contributions made by the United States to their 
nation's security and believe the relationship is in their interest, as 
it is in ours. In coordination with the Office of the Secretary of 
Defense and United States Forces Korea, we continue to review our force 
presence in the ROK and North East Asia.
    As a partner, the ROK has been steadily increasing its regional 
security role. USPACOM is working with the ROK Joint Staff to ensure 
our regional security cooperation efforts are in consonance with one 
another and integrated where appropriate. In particular, the ROK 
supports USPACOM exercises and seminars aimed at increasing regional 
cooperation and interoperability among U.S. friends and allies. Korea's 
contributions to regional peace and stability were clearly demonstrated 
this past year in Timor-Leste, where ROK Army troops participated in UN 
peacekeeping efforts to support the region's newest nation. This 
growing regional role for Korea contributes to the security of the 
region while not detracting from its peninsular defense 
responsibilities.
    The ROK continues steadfast support to anti-terrorism efforts. The 
Korean Armed Forces are with us in the GWOT, from Guam to Central Asia 
and on the ground in Afghanistan, supporting our efforts with 
transportation and medical support. In the USPACOM area, the ROK Air 
Force has flown over 2,000 hours moving tons of important cargo and 
passengers throughout the AOR. Similarly, the ROK Navy has provided 
important sealift to bolster our efforts in South Asia, moving 3,500 
tons of material. In the aftermath of Typhoon Cha'taan, the ROK landing 
ship tanks (LSTs) provided emergency sealift of over 350 tons of 
bottled water and other disaster relief supplies and materials to Guam. 
The ROK Army deployed a Mobile Surgical Hospital initially to Manas, 
Kyrgyzstan, and subsequently to Bagram, Afghanistan. A civil 
engineering battalion will soon join these forces to assist in 
rebuilding the infrastructure of that emerging nation. These 
contributions have been, and will continue to be, important to the 
success of OEF, and we thank the Korean people for their support.
    The events of 2002 remind us of the dangers posed by the Kim Jong 
Il regime and the threat our ROK-U.S. combined team faces on the 
peninsula. The conventional threat from the Democratic People's 
Republic of Korea (DPRK) remains unabated, illustrated by the 
unprovoked naval attack in July on an ROK Navy vessel that resulted in 
the loss of four young ROK sailors. The DPRK maintains more than 60 
percent of its forces within 100 kilometers of the Demilitarized Zone 
(DMZ), and the Kim regime persists in its ``military first'' policy, 
providing sufficient resources to keep its large force fed, equipped, 
and exercised, while its citizens face deprivation and starvation. 
While the DPRK has so far not broken its promise to suspend ballistic 
missile test flights, it continues development efforts including static 
engine tests. Additionally, the DPRK exports missiles and missile 
technology, posing a grave counter-proliferation concern. Finally, the 
Kim regime continues to engage in nuclear brinkmanship, with the 
disclosure of its Highly Enriched Uranium program and progressive steps 
to restart its plutonium production and reprocessing program. These 
actions are in violation of the Agreed Framework, DPRK pledges to the 
IAEA, and the 1992 North-South Basic Agreement calling for 
denuclearization of the Peninsula. The DPRK is not above precipitating 
a crisis to strengthen its bargaining position. Now more than ever it 
is critical our ROK-U.S. partnership stand firm.
    The ROK is a strong ally that is increasingly contributing to 
regional peace and stability. Together we face a common threat on the 
Peninsula. However, the Korean people are looking for ways to foster 
reconciliation with the DPRK. We recognize the importance of these 
efforts to the Korean people and their government. Moreover, we agree 
on the crucial role of the Armistice Agreement in maintaining peace on 
the Korean Peninsula, and we are committed to ensuring that efforts at 
reconciliation do not increase risk for the security of the ROK or the 
United States.
    In sum, through continuing support to the coalition to combat 
global terrorism and efforts to participate fully in regional security, 
the ROK plays a very positive role in the region. U.S. and ROK forces 
remain prepared, and we are looking for ways to strengthen the alliance 
to deal with current and future challenges.
    Australia. Our strong ally and partner, Australia has demonstrated 
steadfast commitment and bold leadership in the GWOT and in essentially 
every other security endeavor in the region. Its military contributions 
to the coalition against terror are substantial and include Combat Air 
Patrols (CAP), tankers, Special Air Service (SAS) troops, guided 
missile frigates and, most recently, support for Sea Swap, our USN 
initiative to exchange crews of select vessels forward in theater. 
Additionally, Australia has become a regional leader in pursuing 
multilateral counter-terrorism initiatives in Southeast Asia by signing 
counter-terrorism MOUs with Indonesia, Malaysia, and Thailand while 
pursuing others. USPACOM remains focused on maintaining strong levels 
of interoperability with the Australian Defence Forces across the full 
spectrum of contingency operations including counter-terrorism. 
Australia continues to lead international support for the struggling 
nations of the Oceania region, providing humanitarian assistance and 
training. Australia is the southern anchor of our security architecture 
in the region, and we will maintain the vibrancy of this strategic 
relationship.
    Republic of the Philippines. Our relationship with the Government 
and Armed Forces of the Philippines (AFP) developed and matured 
throughout 2002. Through comprehensive security assistance packages and 
focused security cooperation, the AFP has improved its ability to fight 
terrorism on its homeland as demonstrated by the AFP Southern Command's 
effective neutralizing of the Abu Sayyaf Group (ASG) on Basilan Island 
and the continuing fight in Jolo. This has not come without cost. Both 
American citizens and service members have been wounded, or lost their 
lives to the terrorists in the Southern Philippines.
    Despite these losses, Operation Enduring Freedom-Philippines (OEF-
P) has produced tremendous successes. The Joint Task Force advised and 
assisted AFP forces in their mission to rid ASG terrorists from Basilan 
Island. As a result, the ASG threat declined significantly on Basilan 
Island. Although the road that circled Basilan was repaired to support 
AFP/U.S. tactical mobility, it will also help the people of Basilan in 
their economic livelihood as will the new water wells, repairs to 
school buildings, critical hospitals, and other medical treatment areas 
throughout the island. These humanitarian and civic assistance program 
successes acted as force multipliers for U.S. and AFP operations 
because the programs separated the citizens of Basilan from supporting 
the terrorist threat. To ensure the AFP can successfully respond to the 
terrorist threat, the U.S developed a Security Assistance (SA) Program 
that will provide the AFP with additional counter-terrorism training 
and equipment. This program is just starting and will consist of light 
infantry battalion, light reaction company, night-vision, intelligence 
fusion, Non-commissioned Officer, and Civil Military Operations 
training. The SA modules will occur at various locations in the 
Philippines to benefit the AFP beyond its Southern Command units. 
Additionally, USPACOM is implementing a Foreign Military Financing 
(FMF) Maintenance Assistance Plan that will sustain AFP critical 
tactical mobility platforms, including UH-1H helicopters, C-130 
transport aircraft, two-half ton trucks, and 78-foot patrol craft. We 
seek your assistance in ensuring funding for this program through the 
next 3 years. This will give the AFP an opportunity to address current 
equipment maintenance shortfalls.
    Action has not been limited to the southern Philippines. We have 
completed various large-scale exercises in Luzon and continue to plan 
for security cooperation events in 2003. On 21 November 2002, the AFP 
signed a Mutual Logistics Support Agreement with USPACOM--a positive 
sign of reciprocity and an improving relationship. We have already used 
the agreement by leasing body armor to the AFP. This small gesture will 
improve the AFP force protection posture and support Philippine efforts 
to combat terrorism.
    The Philippines plays a strategic role in the USPACOM AOR. As 
training areas for U.S. forces dwindle, excellent training facilities 
in the Philippines remain available, though repairs are required. Last 
year, the U.S. provided $25 million in fiscal year 2002 supplemental 
funding for the SA modules currently underway in the Philippines.
    We have accomplished a lot in the GWOT and in securing our 
strategic objectives with the unwavering support of the Philippine 
Government. The security situation in the Philippines needs continued 
improvement to attract investments and promote economic stability. 
Continued U.S. support through comprehensive, focused and timely SA 
funding is one way we can influence the situation in the Philippines. 
Supporting the GRP in their fight against the ASG is another way. A 
sustained GRP counterterrorism capability is the goal.
    Thailand. The Kingdom of Thailand is a treaty ally that continues 
to have an outstanding military-to-military relationship with the U.S. 
Exercise Cobra Gold (CG) is a centerpiece of this relationship. CG-2003 
will be our 22nd joint/combined bilateral exercise with Thailand, and 
the 4th of the expanded observer program--making it USPACOM's premier 
multilateral event. By adding this multinational exercise dimension in 
an environment that trains for transnational issues, Thailand is 
assuming an active role in promoting South East Asia security.
    Military-to-military policy with Thailand is managed through annual 
Thai-American Consultations. Benefits to Thailand include U.S. 
counterdrug/border security support, demining training, peace 
operations training and support, and an extensive security assistance 
program with a robust International Military Education and Training 
(IMET) component. Thailand's contributions as a regional leader include 
a peacekeeping troop presence in Timor-Leste, a commitment to providing 
engineering support in Afghanistan to support the GWOT, and an intent 
to contribute to the peace process in Aceh, Indonesia.
    As a result of our strong relationship with Thailand, we have 
received access to facilities, ports, and airfields, and the granting 
of overflight clearances in support of operational emergencies. Our 
ongoing security cooperation program, including exercises such as Cobra 
Gold, helps to address the security interests of both our countries and 
serves as a catalyst for enhancing our regional security posture.
    Singapore. Our relationship with Singapore is one of the strongest 
in the region. Following the 11 September terrorist attacks, Singapore 
provided access to airfields and naval facilities to U.S. forces, 
detained 31 suspected terrorists, froze terrorist financial assets, 
increased protection to shipping in the Strait of Malacca, and 
implemented the U.S. Container Security Initiative. Singapore's 
recently published White Paper on the Jemaah Islamiyah terrorists and 
announcement to launch a terrorist research center in 2003/2004 
testifies to its comprehensive strategy for combating terrorism in 
Southeast Asia. Our efforts with Singapore focus on reinforcing our 
already strong foundation through improved interoperability and 
cooperation.
    Malaysia. Some of the most aggressive action against terrorism in 
Southeast Asia has occurred in Malaysia. To date, Malaysian security 
forces have arrested more than 70 suspected terrorists and have taken 
the lead in several initiatives aimed at increasing cooperation in 
combating terrorism and other areas of mutual interest. The proposed 
Regional Counter Terrorism Training Center in Kuala Lumpur is one such 
initiative and represents an important opportunity to enhance regional 
efforts at combating terrorism. By providing expertise, information, 
and funding when appropriate, we can assist Malaysia and other nations 
of Southeast Asia in developing the skills necessary to defeat 
terrorism. As a moderate Muslim nation with a secular democratic 
government, Malaysia's influence extends beyond the region. Its January 
announcement to discontinue funding for private religious schools is an 
example of a government taking action against the root causes of 
terrorism by not supporting deviant extremist teachings that breed 
hatred. Currently, Malaysia holds the chairmanship of the Organization 
of Islamic Conference and remains influential in the Non-Aligned 
Movement. Together, we remain committed to cooperating in areas of 
mutual interest and improving our ability to operate in combined 
regional efforts.
    India. Based on the policy direction provided by the Indo-U.S. 
Defense Policy Group, USPACOM embarked on an aggressive security 
cooperation program with India over the past year. To date, our forces 
have conducted a number of successful exercises--ranging from airborne 
operations to surface warfare naval exercises--that have improved the 
combat effectiveness of U.S. forces. Over the past 10 months, USPACOM 
and its components have met with their Indian counterparts and 
established a long-range plan outlining mutually beneficial activities. 
These programs will increase our interoperability with, and access to, 
Indian forces. Our growing military cooperation supports the 
transformation of our relationship with India and serves to further 
this strategic partnership. This partnership was evident in India's 
strong support for the GWOT, most notably its naval escorts of U.S. 
ships transiting the Strait of Malacca last summer. As my recent trip 
to the troubled state of Kashmir confirmed, terrorists also menace 
India. Our improved relationships with India and Pakistan were 
invaluable as we helped these rivals step back last year from the brink 
of war.
    Indonesia. The government of Indonesia responded admirably to the 
terrorist bombings in Bali on 12 October 2002, arresting many key 
operatives and developing information on the domestic and regional 
terrorist threat. Globally, radical Islam continues to destabilize 
Muslim countries and threaten the interests of tolerant, democratic 
nations. Indonesia is a key battleground in the struggle against 
terrorism and radicalism. In the face of economic turmoil, separatist 
and communal violence, and political transition, the world's most 
populous Muslim nation is struggling to maintain its secular, 
democratic character, and to cooperate with the international community 
in eliminating transnational security threats. The Indonesian military 
(TNI) is also going through a difficult transition from protector of an 
autocratic regime to defender of a popularly elected government. This 
is a significant cultural and institutional transition that will not 
happen by itself.
    Accountability, essential to democratic civil-military relations, 
must improve. Critical to the success of this effort is Professional 
Military Education that exposes TNI officers to democratic norms and 
modern defense management techniques while building personal bonds of 
trust and goodwill. Particularly important is influencing the younger 
generation of officers to support the struggle against terrorism. 
International Military Education and Training (IMET) is another 
important tool as is FMF support for equipment, such as patrol boats 
for monitoring Indonesia's porous borders, to improve TNI's ability to 
counter transnational threats.
    East Timor. This past May, Timor-Leste became the world's newest 
democracy following 20 plus years of occupation and over 200,000 
deaths. Though the greatest credit for this achievement goes to the 
Timorese people, the U.S. military provided significant assistance in 
Timor-Leste's transition to a democratic state. Our U.S. Support Group 
East Timor (USGET) played a vital role in providing a stabilizing 
military presence during Timor-Leste's transition to independence. We 
conducted monthly ship visits, built schools and roads, repaired water 
and electrical systems, and provided medical and dental treatment for 
thousands of Timorese. We are proud of USGET and our military forces 
that contributed to Timor-Leste independence.
    Although USGET deactivated on 17 December 2002, USPACOM continues 
to play a positive role in Timor-Leste's development as a democratic 
state. Through IMET and Foreign Military Sales (FMS) we are funding 
English language training, helping develop the Timor-Leste Defense 
Force (ETDF) logistics system, purchasing basic equipment, and 
designing training programs to help develop Timor's Defense Secretariat 
and the ETDF. My key goals are to support the development of a civil/
military defense establishment subordinate to civilian authority and 
the rule of law and help develop the ETDF as a credible self-defense 
force.
    China. We have a modest but constructive military-to-military 
relationship with China. Our relationship is guided by PL 106-65 (NDAA 
2000), which limits us to the areas of Humanitarian Assistance/Disaster 
Relief (HA/DR) and other non-warfighting venues. Our activities are 
part of ongoing DOD efforts to place such contacts with China on a new 
footing since the April 2001 aircraft collision incident. The U.S.S. 
Paul Foster port visit to Qingdao in November 2002 and my visit to 
China from 13-17 December 2002 were the first USPACOM bilateral 
military-to-military contacts with China since March 2001. One 
objective of these exchanges is to demonstrate the quality of our 
forces and our values by developing personnel exchanges between the 
younger generation of China's People's Liberation Army (PLA) and U.S. 
military personnel.
    Taiwan. For Taiwan, our actions are guided by the Taiwan Relations 
Act. We have worked this past year to support self defense improvements 
that can best meet Taiwan's identified defense needs. We want Taiwan to 
remain stable, democratic, and economically prosperous while it 
develops a professional, civilian-controlled defense establishment with 
a modernized, joint operations-oriented military.
    Asia-Pacific Center for Security Studies (APCSS) brings together 
current and future military and civilian leaders to discuss regional 
security concerns. The Center provides a unique platform to discuss 
security issues while promoting USPACOM and OSD regional cooperation 
policies. Now more than ever, we realize each country must contribute 
to regional security to assure its continued political, economic, and 
social stability. Through executive courses and conferences, the APCSS 
gives Asia-Pacific leaders a regional forum to recognize security 
challenges, not only from a U.S. viewpoint but also from the 
perspective 45 participating nations, including Russia, Chile, Canada, 
and Pakistan.
    Center of Excellence (COE). COE's peace operations seminars have 
improved peace support capabilities in countries such as Thailand, 
Malaysia, Nepal, Bangladesh, and the Philippines. This improvement is 
evident in Thai and Filipino participation in peace stability 
operations in Aceh, Indonesia. These and other COE activities 
demonstrate our long-term commitment to relationships across the civil-
military spectrum in the Asia-Pacific region. The Center's 
contributions complement other efforts to eliminate immediate terrorist 
threats. COE continues to prepare our forces to perform effectively in 
more complex environments with new actors and less predictable 
behaviors toward civilian victims of conflict. The Center's unique 
position as a civil-military humanitarian organization allows it to 
engage authorities from diverse countries in non-intrusive ways that 
help USPACOM reach out to new and otherwise reluctant partners. Your 
support for the COE in Disaster Management and Humanitarian Assistance 
provides valuable assistance in executing USPACOM priorities.
    Chiefs of Defense (CHOD) Conference. One of our premier theater 
security activities, USPACOM annually hosts this regional conference, 
bringing together Asia-Pacific CHODs (CJCS equivalents) for a series of 
discussions on regional defense issues. The November 2002 conference, 
which was held in Singapore and was co-hosted by the Singapore Armed 
Forces and Chief of Defense Lieutenant General Lim Chuan Poh, gathered 
senior military leaders from 21 nations, including the Vice Chairman of 
the U.S. Joint Chiefs of Staff, General Pace. The conference's theme, 
``Meeting Security Challenges in the 21st Century,'' provided a forum 
for candid dialogue among senior leaders. The October 2002 Bali 
bombings heavily influenced discussions and underscored the ability of 
terrorists to cut across borders and present a common regional and 
global threat. The CHOD's conference continues to provide an excellent 
opportunity to foster understanding, build confidence among 
participants, strengthen relationships, and promote stability.
    Foreign Military Financing (FMF) provides vital support to 
developing countries involved in the GWOT. Funds provided in the 
Foreign Operations, Export Financing and Related Appropriations Act, 
2002 and the emergency FMF Supplemental directly supported Security 
Cooperation priorities in the East Asian Littoral and other regions in 
USPACOM. FMF delivers the military articles, services, and training 
required to support the efforts of our friends and allies that promote 
U.S. security interests. We appreciate your support of SA programs and 
our efforts to improve their effectiveness and responsiveness.
    International Military Education and Training (IMET) is an 
effective, low-cost component of the SA effort. The program provides 
U.S. access to foreign governments and influences those governments far 
out of proportion to its modest cost. Furthermore, it exposes future 
leaders to U.S. values and commitment to the rule of law and the role 
of a professional military in a democratic society, and it promotes 
military professionalism. Recent restoration of full IMET to Indonesia 
is a welcome development. Having a core group of well-trained, 
professional leaders with first hand knowledge of our values and 
democratic institutions will make a difference in achieving our 
strategic security goals in Indonesia and throughout the theater.
    Acquisition Cross-Servicing Agreements (ACSA) or Mutual Logistic 
Support Agreements (MLSA) have enhanced interoperability and readiness 
and provided a cost effective mechanism for mutual logistics support 
for U.S. and Allied Forces. USPACOM forces that participated in the 
fiscal year 2002 multinational exercise Cobra Gold greatly reduced 
their logistics footprint by using an ACSA. Three countries within 
USPACOM's AOR have deployed forces outside our AOR under ACSA 
provisions in support of the GWOT--Australia, New Zealand, and the 
Republic of Korea. Thus far, these countries have benefited from 
approximately $350,000 worth of logistics support, supplies, and 
services via reimbursable ACSA transactions. Primary logistics support 
provided includes food, medical services, dental support, force 
protection, transportation/material handling equipment, billeting, 
vehicle/equipment maintenance, and fuel. Thailand is preparing to 
deploy forces to the USCENTCOM AOR soon in support of the GWOT, and the 
ACSA has been instrumental in providing Thai forces with cold weather 
and NBC gear on a reimbursable basis. USPACOM has 10 ACSAs in place 
(Philippines, Australia, Korea, Japan, Singapore, Malaysia, Thailand, 
New Zealand, Fiji, and Tonga) with eight other countries within our AOR 
in DOD's ACSA--Eligible status (India, Indonesia, Bangladesh, Nepal, 
Brunei, Maldives, Madagascar, and Sri Lanka). We will continue to 
negotiate with ACSA-Eligible countries to expand the options we have to 
integrate coalition capabilities.
    Forward stationed or deployed military presence provides the 
leading edge of U.S. combat power and forms the cornerstone of 
deterrence. Within the Asia-Pacific region this equates to roughly 
100,000 forward-deployed personnel located primarily in the Republic of 
Korea and Japan. These forces deter conflict, dissuade competition, 
respond to crisis, man the infrastructure to receive follow-on forces, 
and fight if necessary. USPACOM is committed to developing the most 
effective regional command and control constructs to maximize the 
employment of our forward-deployed forces. In conjunction with ongoing 
DOD restructuring initiatives, we are reviewing these command and 
control structures and our force posture to ensure they are consistent 
with today's operational requirements and geo-political realities. The 
goal is to consolidate and transform our headquarters in Japan, the 
Republic of Korea, and throughout the region to provide an immediately 
employable force capable of decisive operational effects. Of course, 
these improvements will be undertaken in close consultation with our 
allies. Prototype command and control constructs such as the Joint 
Mission Force or Standing Joint Force Headquarters leverage both 
enhanced joint warfighting equities and transformation dividends. Along 
with our efforts to improve our command structure, we will continue to 
develop diversified access throughout the region. We foresee ongoing 
requirements to consolidate and improve our facilities in Korea, Japan, 
and other locations in the region. We also expect to enhance our access 
to facilities in Southeast Asia (SEA) and the South Asia Indian Ocean 
(SAIO) area to meet regional and global requirements and support the 
GWOT and other operational or contingency demands.
Promoting ``Change'' and Improving the Asia-Pacific Defense Posture
    Our country is undergoing the most fundamental transformation of 
its defense strategy and Armed Forces since the Second World War. 
Guidance for this transformation is clear and starts with the National 
Security Strategy. At USPACOM, we are putting that guidance into 
action, operationalizing it with Asia-Pacific emphasis. Our efforts 
include strengthening command and control constructs, updating plans, 
improving force posture, diversifying access and enroute logistics, 
improving capabilities for immediate employment, and developing new 
operating patterns and concepts.
    Our progress toward successful transformation of our force is the 
result of a deliberate, iterative process of innovation and 
experimentation. This process necessitates that we collaborate and stay 
in close touch with service initiatives--ensuring they are synchronized 
into the joint team. Likewise, we continue to build a collaborative 
bridge between our experimental efforts and the experimentation 
underway in USJFCOM, the lead command for joint experimentation.
    Consistent with Secretary Rumsfeld's Transformation Planning 
Guidance, USPACOM has a multifaceted program covering a broad range of 
technological, organizational, and conceptual initiatives. It is a 
focused effort to explore and integrate innovative concepts and mature 
technologies to address our toughest challenges to effective joint 
operations.
    Our transformation and experimentation efforts are necessary steps 
in advancing improvements to the speed of action and effectiveness of 
joint operations across strategic, operational, and tactical force 
levels. To date, our new standing operating procedures and enhancements 
to collaboration have yielded as much as 2 weeks' reduction in time to 
stand up and deploy a Joint Task Force (JTF) in response to a 
contingency. By experimenting with and fielding mature technologies and 
prototype decision tools--placing them in the hands of operators well 
within the traditional acquisition cycle time--we have established 
information superiority and enhanced efficiency for theater command and 
control. With continued support, we can zero-in on even greater 
improvements to JTF effectiveness, such as integration and 
synchronization of operational fire and maneuver, surpassing 
information superiority with decision superiority, and expediting the 
fielding of mature technologies and concept prototypes to forward-
deployed JTF Commanders.
    Within USPACOM, our Joint Mission Force (JMF) initiative provides 
the coherent framework for experimentation and transformation to 
enhance JTF operations across the spectrum of missions from forcible 
entry through humanitarian assistance. This mature initiative has 
allowed us to focus our transformational efforts toward a specific end-
objective: seamless joint operations. The JMF concept will serve as 
USPACOM's segue to implementing the Standing Joint Force Headquarters 
as directed in the Defense Planning Guidance.
    Each year during exercises such as Cobra Gold, our multilateral 
exercise co-hosted with Thailand, and Tandem Thrust, our theater-wide 
biennial joint exercise with Australia, we experiment with JMF 
initiatives that address our ``Top Ten Challenges'' to enhancing JTF 
speed of action and effectiveness. By experimenting while we exercise, 
we can accurately assess the military utility of new technologies and 
procedures. As a direct result of success during exercises, JMF has 
fielded several key technologies within USPACOM's designated JTFs. Over 
the past year, Bandwidth Monitoring and Control devices have given our 
JTFs dynamic control of limited bandwidth for critical communications. 
The Automated Deep Operations Coordination System (ADOCS) now provides 
USPACOM Headquarters Joint Operations Center and our JTFs an 
interoperable tool for sharing a common operational picture for dynamic 
tracking and targeting and for conducting personnel recovery 
operations. JMF has provided our designated JTFs with a suite of 
collaborative tools and the training required for planning, executing, 
and assessing joint operations. Our design and implementation of a 
standard JMF web tool provides an internet ``one-stop shop'' for JTF 
real-time information sharing, planning, and execution.
    Additionally, JMF has operationalized other important command-wide 
capabilities such as our Combined Operations Wide Area Network (COWAN) 
for secure operations with our coalition partners, the Asia-Pacific 
Area Network (APAN) for civil-military and non-government organization 
operations with coalition forces, telemedicine for joint medical 
operations (JMO-T), and language translation capability such as DARPA's 
``Phraselators.''
    To bridge the gap between our major joint exercises, hone 
readiness, and provide periodic spiral development opportunities, 
USPACOM conducts routine command and control exercises (C2X). These 
short duration, vignette-driven exercises not only test our JTF command 
and control procedures, they also provide an important venue for spiral 
technology and procedural development and fielding. This JMF initiative 
has proven effective in USPACOM as a readiness-enhancer.
    Over the next 2 years, with your support, USPACOM's Joint Mission 
Force will integrate emerging technologies into information operations 
and intelligence, surveillance, and reconnaissance management. Our 
transformation and experimentation initiatives include our coalition 
partners.
    In Korea, we have worked Integrated Total Asset Visibility and 
language translators during exercise Ulchi Focus Lens. USFK has the 
lead for the Theater Precision Strike Operations ACTD and this year is 
sponsoring the Theater Effects-Based Operations ACTD.
    We have installed our JMF Web tool on the Japan Self-Defense Force 
bilateral secure wide-area network. We also have an information sharing 
agreement with Japan, and Japan has used Coalition Rear Area Security 
Command and Control in exercises such as Keen Edge and Yama Sakura.
    As Cobra Gold 2002 participants, Singapore Armed Forces and Royal 
Supreme Thai Command members were directly involved with our 
initiatives for collaboration tools, virtual Civil Military Operations 
Center, and Cowan. Additionally, Singapore is participating in the 
Spartan ACTD and is pursuing involvement in other ACTDs, such as 
RESTOPS and JTF WARNET (Wide Area Relay Network).
    The JTF WARNET initiative approved by the Joint Requirements 
Oversight Council (JROC) on 25 April 2002 provides organic, wireless 
secure Internet Protocol-based connectivity among tactical components 
of a JTF. WARNET applications, interfaces, and procedures enhance JTF 
command and control by sharing tactical situational awareness data 
among service command and control systems, enabling joint fires and 
collaborative planning and execution. JTF WARNET provided tactical-
level force integration during Millennium Challenge 2002. We will 
conduct WARNET regional tests and a pre-deployment exercise in Hawaii 
and Japan in fiscal year 2003 before WARNET becomes a JTF operational 
capability in fiscal year 2004, culminating in Cobra Gold 2004.
    USPACOM served as the host Combatant Command for the Joint Warrior 
Interoperability Demonstration (JWID) 2002 and will host JWID 2003. For 
the first time, Japan, Korea, and Singapore have been invited to sit on 
the Coalition Task Force (CTF) staff. Their inclusion in the 
traditional mix of U.S., NATO, U.K., Canada, Australia, and New Zealand 
participants is pushing the envelope on coalition interoperability as 
it demonstrates the true nature of our interoperability challenges.
    The Regional Defense Counter-Terrorism Fellowship Program 
complements the IMET program. DOD funding has sent foreign military 
officers to U.S. military institutions and selected regional centers 
for non-lethal education. This program has provided regional combatant 
commands with additional flexibility in executing our security 
cooperation strategies and has had an immediate and positive impact in 
encouraging reform, professionalism, and regional cooperation in 
addressing counter-terrorism and other transnational threats.
    The fellowship focus for USPACOM has been toward educational 
programs that encourage these advancements among Asia-Pacific nations 
addressing transnational threats with a focus on counter-terrorism. 
Specific courses have assisted in minimizing terrorist threats in the 
Asia-Pacific region, severing links between indigenous terrorist groups 
and global terrorist networks, allowing the establishment of a more 
professional military, developing stronger mutual security 
partnerships, and enhancing theater security cooperation. We are using 
the program to provide non-lethal training to Indonesian, Malaysian, 
and Philippine military officers at U.S. military educational 
institutions. U.S. military courses provide the basics for success in 
any military operation. A secondary benefit is the exposure students 
receive to the higher standards of ethics and behavior associated with 
a professional military that is under competent civilian control. Your 
continued support in providing this flexible funding alternative is 
appreciated.
    C2 for Coalitions. The Multinational Planning Augmentation Team 
(MPAT) Program involves a group of military planners from the U.S. and 
many nations in USPACOM's Area of Interest. The purpose of MPAT is to 
increase operational interoperability among participating countries' 
interoperable planners who can rapidly augment a multinational force 
headquarters in response to a regional crisis. Using multinational, but 
standardized skills and procedures, MPAT planners would plan and 
execute coalition operations to support a multinational and interagency 
response to a small-scale contingency. Through a series of workshops 
and information exchange events, including four major crisis action 
planning exercises, MPAT members have developed a knowledge base of the 
various national crisis action planning procedures in the Asia-Pacific 
region. They have also developed a strong working relationship with 
each other. Military planners from over 25 countries and 
representatives from the UN and various non-governmental and 
international organizations have attended these workshops.
    As part of the MPAT initiative, we and other nations in the region 
are developing a multinational force Standing Operating Procedures (MNF 
SOP) that any nation leading a coalition crisis response relief effort 
can use. This MNF SOP has coalition/combined task force activation, 
forming, and planning procedures focused on military operations other 
than war (MOOTW), from humanitarian assistance through peace 
operations, and includes counter-terrorism aspects. Planners from 30 
nations practice and validate the MNF SOP during MPAT and other 
multinational exercises each year.
    Since the Asia-Pacific region does not have a regional NATO-like 
organization, the MPAT and MNF SOP efforts represent the major regional 
program aimed at developing multinational procedures and maintaining a 
cadre of multinational military planners using common planning and 
operating procedures for coalition operations. USPACOM's Internet-based 
Asia Pacific Area Network (APAN) enables the working-level 
communications required to develop these procedures. APAN's easily 
accessible collaborative capability enables us to extend regional 
dialogues begun in functional forums such as CHOD conferences into 
exercises and operations that improve our regional response to the 
growing range of military missions we face today. The ability to place 
instructional material on APAN for mutual benefit of the U.S. and Asia-
Pacific partners would enhance the USPACOM Theater Security Cooperation 
program and U.S. national security interests. The provision of 
internet-based training and education should include such programs as 
Advanced Distributed Learning and similar internet tools. USPACOM could 
thereby more effectively use focused military education programs to 
develop regional skills required to accomplish cooperative security 
missions, improve civil-military relations, increase respect for human 
rights, and strengthen democratic principles.
    I would like to express our appreciation for past congressional 
support of the Asia-Pacific Regional Initiative (APRI) appropriations--
support that has ensured a robust beginning for these programs. As we 
continue with the MPAT and MNF SOP development, we will improve the 
capabilities and interoperability of countries in the region to support 
operations that we may lead while enhancing the ability of other 
countries to lead coalition operations as well.
    Joint Task Force Full Accounting (JTF-FA). Achieving the fullest 
possible accounting of Americans is a high USPACOM priority, and we 
will continue to devote the necessary personnel and resources to obtain 
the answers the POW/MIA families so richly deserve. During fiscal year 
2002, JTF-FA conducted 10 joint field activities (JFAs)--4 in Vietnam, 
5 in Laos, and 1 in Cambodia. The JTF-FA field teams investigated 211 
cases and excavated 50 sites. In total, they recovered and repatriated 
remains believed to be those of Americans unaccounted-for from the war 
in Southeast Asia from 27 sites (9 in Vietnam, 12 in Laos, and 6 in 
Cambodia). Furthermore, 31 individuals from recovery operations were 
identified and returned to their loved ones during this period. JTF-FA 
will maintain its pace of operations in fiscal year 2003, with 10 JFAs 
scheduled--4 in Vietnam, 5 in Laos, and 1 in Cambodia. JTF-FA will also 
conduct an underwater survey in China.
    Following Deputy Secretary Wolfowitz's direction to determine the 
feasibility of merging JTF-FA and the Army's Central Identification 
Laboratories, Hawaii, we have put in place a comprehensive plan of 
action and milestones to ensure a smooth merger and standup date of 1 
October 2003. Merging of the two units under a single command is 
operationally sound and will clearly demonstrate our government's 
commitment to our unaccounted for citizens. Three critical items 
remain. First, realignment of the Department of the Army's Central 
Identification Laboratory Hawaii (CILHI) funding to the Department of 
the Navy as Executive Agent for USPACOM and the merged organization. 
Second, transfer of Department of the Army civilian positions and 
functions to the Department of the Navy. Third, determining the 
permanent location of this new organization with the attended 
adjustment and advancement to the CILHI approved FY-08 MILCON 
headquarters building project.
    Land Partnership Plan (LPP). The Commander of U.S. Forces Korea 
(USFK) has reached agreement with the ROK Government on an LPP that 
will consolidate U.S. force presence. The plan will reduce the number 
of major U.S. bases in Korea from 41 to 23 while significantly 
enhancing training and combined warfighting capability--better 
supporting our long-term regional strategy. The LPP will also have a 
significant positive affect on the quality of life of our servicemen 
and women and their families assigned to our forces on the peninsula. 
Our partner is committed--the LPP has received the full backing of the 
Korean Government and its National Assembly, and will be a model for 
future discussions.
    Advanced Concept Technology Demonstrations (ACTDs). USPACOM 
continues to lead in innovating tactics, techniques, procedures, and 
concepts of operations that make the Nation's investment in science and 
technology productive for our soldiers, sailors, marines, and airmen in 
the field. We do so through a continual cycle of experimentation, 
demonstration, and special projects aimed at our early understanding of 
emerging technologies and their impact on military operations in the 
Asia-Pacific region.
    Transformation depends heavily on ACTDs. Today we are involved in 
19 ACTD projects, more than any other regional command. We have 
distributed the Transformation workload across the whole theater--
almost all service component and Sub-Unified Commanders and most of my 
Staff Directors have responsibility for executing one or more ACTD.
    Our new fiscal year 2003 ACTD will provide us with new tactical 
capabilities. The Overwatch ACTD will give us a capability to detect 
and pinpoint sniper fire in an urban environment, enhancing security 
and situational awareness for our troops in the field. In addition to 
our new ACTDs, we have pioneered co-development of technology with 
Singapore with the SPARTAN Unmanned Surface Vessel ACTD. This ACTD 
provides technological developments to improve capabilities for multi-
mission packages in Mine Warfare, force protection, precision strike, 
and intelligence, surveillance, and reconnaissance. Additionally, it 
will enhance battlespace awareness and increase force protection for 
surface and subsurface operations through the unmanned surface vessel 
with modular sensor packages.
    The ACTD program is clear proof that when system developers and 
operators come together we can get useful military products into the 
hands of the user faster than with standard acquisition. However, this 
is only true if the technology successfully transitions into a program 
of record. I am proud to report that we will successfully transition 
all five of our ACTDs completed this year. Soon all combatant 
commanders will reap benefits in the areas of Joint Fire Control, 
personnel recovery, small unit logistics, telemedicine, and decision-
support tools from our completed projects.
    Our Joint Experimentation program focuses on Joint Task Force (JTF) 
operations. It is fully coordinated with the U.S. Joint Forces 
Command's Joint Experimentation Program and includes technology 
insertion experiments during our regular exercises to advance our state 
of practice of JTF operations, both in the U.S. only venue and in 
coalition venues. This year, we executed the first two major 
experiments. The first occurred as part of our C2X exercise series 
where we train to establish command and control of a deployed JTF. The 
experiment augmented our normal C\4\I surveillance and reconnaissance 
equipment suites with new capabilities to manage and control 
information flow on the JTF networks and provide enhanced fires 
management capabilities across the joint force. Our second experiment 
occurred in a coalition environment during the Cobra Gold exercise with 
Thailand, Australia, Singapore, and Malaysia. We also added new 
technology from Defense Advanced Research Projects Agency (DARPA) to 
improve network security and the commander's understanding of the war 
plan. We are finding that by experimenting as we exercise, we can 
provide a continuous series of warfighting improvements that are field 
tested in joint and combined operations before we make key procurement 
decisions.
    I've highlighted just a few of the experimentation and 
modernization initiatives in USPACOM. Our initiatives, like those of 
other Regional Combatant Commanders and the Services, in concert with 
USJFCOM, promise to modernize the force and enhance mission capability. 
We are working hard with USJFCOM to synchronize and bring coherence, 
prioritization, and continuity to the transformation of our forces.

                           SUMMARY STATEMENT

    America's Armed Forces in the Pacific continue to promote security, 
peace, and prosperity in the Asia-Pacific region. Through the 
professional efforts of our dedicated men and women, we continue to 
assure our allies, dissuade our adversaries and deter aggression. We 
are relentlessly pursuing terrorists, improving our force protection 
posture and maintaining our readiness so that if called upon, we will 
decisively defeat any adversary. U.S. Pacific Command's priorities for 
the near term remain unchanged: sustaining and supporting the global 
war on terrorism; improving our Readiness and Joint Warfighting 
Capability; improving the Quality of Service for our soldiers, sailors, 
airmen, and marines; reinforcing the Constants in the Pacific Region; 
and promoting change and improving our Asia-Pacific Defense Posture for 
the Future.
    The men and women of the U.S. Pacific Command welcome this 
opportunity to tell their story. The support of Congress and the 
American people is greatly appreciated. Thank you.

    Chairman Warner. General.

  STATEMENT OF GEN. LEON J. LaPORTE, USA, COMMANDER IN CHIEF, 
  UNITED NATIONS COMMAND, U.S. FORCES KOREA, COMBINED FORCES 
                         COMMAND KOREA

    General LaPorte. Chairman Warner, Senator Levin, and 
distinguished committee members, I am honored to appear before 
the committee to update you on the current situation in the 
Republic of Korea (ROK). First, I want to extend the thanks of 
all the soldiers, sailors, airmen, and marines, and the 
Department of Defense civilians that serve in Korea. Your 
consistent support enables us to maintain readiness and for us 
to be able to accomplish our mission on the Korean Peninsula.
    The past year was extraordinary for those who served in 
Korea. We have deterred North Korean aggression while 
maintaining a high state of readiness. In May when I took 
command, I established five priorities: first was to ensure 
peace and stability on the Peninsula and in the northeast 
region. Second was to ensure that our forces were trained and 
ready for their deterrence mission and, if needed, to conduct 
combat. Third was to strengthen the very strong Republic of 
Korea-United States Alliance. Fourth was to transform the 
command into a 21st century capability. Finally, it was to make 
Korea an assignment of choice for all U.S. service members.
    2002 marked the fourth democratic transfer of power in the 
Republic of Korea, renewed South Korean efforts toward inter-
Korean reconciliation and the first World Cup hosted in Asia. 
In contrast, there were some discouraging incidents as well: 
North Korea's unprovoked attack, which resulted in the sinking 
of a Republic of Korea naval patrol boat in the West Sea and 
increased regional tensions; and the revelation, too, of the 
North Korean nuclear weapons development program; and also a 
cyclic rise in anti-United States Forces Korea sentiment.
    The Republic of Korea-United States Alliance weathered the 
challenges of 2002 and continues to be the foundation of peace 
and security throughout Northeast Asia. In 2002, the United 
Nations Command has made significant contributions to inter-
Korean initiatives by the South Korean Government while 
maintaining the effectiveness of the armistice agreement, most 
notably to reduce tensions following the 20 June North Korean 
attack on the Republic of Korea naval ship, and also in the 
development and operation of the transportation corridors.
    Combined Forces Command, the backbone of the ROK-U.S. 
Alliance, continued to modernize capabilities and work together 
to deter the North Korean threat. United States Forces Korea 
established the groundwork for its transformation to a 
capabilities-based force for the 21st century. This 
transformation, as determined by the ROK-U.S. Future of the 
Alliance policy initiative, will ultimately result in a better 
and more capable disposition of forces throughout the region.
    Our alliance, forged in blood of 415,000 South Koreans and 
33,000 Americans who gave their lives during the Korean War, 
remains strong and committed to the tenets of the mutual 
defense treaty. The challenges of 2002 have firmly reinforced 
three points.
    First, the events in Korea affect the entire world, North 
Korea remains a serious threat to regional and global 
stability; continued United States presence in northeast Asia 
is critical to regional stability; and the Republic of Korea-
United States Alliance is essential to continue regional 
security.
    2003 will be a pivotal year for the Republic of Korea. As 
the international community works to resolve the North Korean 
nuclear weapons issue, security and stability will remain a 
common denominator of our alliance. As the first 50 years of 
our mutual defense and security relationship comes to a close, 
we will achieve closely to the principles of the 1953 mutual 
defense treaty as we prepare for the next 50 years.
    I thank you for the opportunity to appear before this 
committee and look forward to your questions.
    [The prepared statement of General LaPorte follows:]

            Prepared Statement by Gen. Leon J. LaPorte, USA

                              INTRODUCTION

    Mr. Chairman and distinguished members of the committee, I am 
honored to appear before you as Commander, United Nations Command; 
Commander, Republic of Korea-United States Combined Forces Command; and 
Commander, United States Forces Korea. On behalf of the more than 
37,000 soldiers, sailors, airmen, marines, and 5,700 civilians serving 
in Korea, I thank you for your unwavering support which enables us to 
maintain readiness and accomplish our deterrence mission on the Korean 
peninsula. I appreciate this opportunity to present an assessment of 
the command's status.
    This has been an extraordinary year in Korea. 2002 marked the 4th 
democratic transfer of power in the Republic of Korea, renewed South 
Korean efforts toward inter-Korean reconciliation, and the first World 
Cup hosted in Asia. In contrast, there were some discouraging incidents 
as well: North Korea's calculated armistice violation in the West Sea, 
exposure of the North Korean nuclear weapons programs, a tragic 
training accident in June, and cyclic rise of anti-United States Forces 
Korea sentiment. With consistency and determination, North Korea 
attempts to split the Republic of Korea-United States Alliance by 
exploiting these events. Our Alliance weathered these incidents and 
continues to be the foundation of peace and security throughout the 
Northeast Asia region. These incidents have firmly reinforced three 
points: the consequences of events in Korea affect the entire world; 
continued United States presence in Northeast Asia is critical to 
regional stability; and the Republic of Korea-United States Alliance is 
essential to regional security.
    Today, I will address current and future requirements by looking 
at: the Northeast Asia security environment; the North Korean challenge 
to regional and global security; the Republic of Korea-United States 
Alliance; and my command priorities--Ensure peace and stability on the 
Korean peninsula, Readiness and Training, Strengthen the Republic of 
Korea-United States Alliance, Transform the Command, and Make Korea an 
Assignment of Choice.

                THE NORTHEAST ASIA SECURITY ENVIRONMENT

    Northeast Asia is a nexus of economic might, competing interests, 
converging threats, cultures, and historical animosities. Over 17 
percent of the world's trade value is with countries in Northeast Asia, 
and United States trade with the region is second only to our trade 
with the North American Free Trade Association.\1\ Many of the nations 
in the region--China, Japan, Russia, and the Republic of Korea--are 
contending for economic and political influence. Enduring cultural and 
historical animosities remain a dynamic political force. This region 
marks the convergence of five of the world's six largest militaries, 
and three of the five declared nuclear powers. Today, the current 
military demarcation line between North and South Korea is the most 
heavily armed in the world and remains an arena for confrontation. 
North Korea's pursuit of nuclear weapons and proliferation of missile 
technology threatens regional and global stability. United States 
presence in Korea demonstrates our firm commitment to defend democratic 
values and prevent our enemies from threatening us--and our partners--
including with weapons of mass destruction. Our forces in Korea send 
the clear message that we will stand with our allies and friends to 
provide the stability that promotes prosperity and democratic values.
---------------------------------------------------------------------------
    \1\ Derived from U.S. Census data. For the first 11 months of 2002, 
total trade with Northeast Asia ($U.S. billion) are: Japan $172.92, 
China $148.13, Republic of Korea $58.13, Taiwan $50.60. Trade with 
NAFTA during the same period was $557.39 (Canada $342.55 and Mexico 
$214.73), (http://www.census.gov/foreign-trade/top/dst/2002/11/
balance.html) accessed 19 February 2003.
---------------------------------------------------------------------------
The Republic of Korea Today
    The Republic of Korea is fast becoming a global economic 
competitor. In 2002 the Republic of Korea's economy grew 6 percent 
while boasting the world's 11th largest Gross Domestic Product and 
third largest cash reserves.\2\ The South Korean people are justifiably 
proud of these achievements and the Republic of Korea's increasing 
international prominence. The Republic of Korea's vision of the future 
is to diversify its economy by becoming the ``transportation, 
financial, and information technology hub of Northeast Asia.'' \3\ This 
vision seeks to route Northeast Asia, Europe, and the Americas trade 
through the Republic of Korea using an inter-Korean transportation 
system. To achieve this goal the Republic of Korea must significantly 
increase cooperation with North Korea. Inter-Korean initiatives begun 
by former President Kim Dae-Jung and continued by President Roh Moo-
Hyun pursue reconciliation for cultural, economic, and humanitarian 
reasons. The Republic of Korea's engagement policies toward North Korea 
profoundly affect how South Koreans view their relations with the 
United States and North Korea.
---------------------------------------------------------------------------
    \2\ United States Department of State, Country Commercial Guide 
Korea, Fiscal Year 2003.
    \3\ President Roh, Moo-hyun announced his intent to position the 
Republic of Korea as the ``economic powerhouse of Northeast Asia''. In 
public appearances, he amplified this vision stating that he sought to 
make South Korea the transportation, financial, and information 
technology hub of Northeast Asia. For President Roh's national 
priorities, see Korea Herald articles at http://kn.koreaherald.co.kr/
SITE/data/html--dir/2003/01/11/200301110003.asp, http://kn.korea- 
herald.co.kr/SITE/data/html--dir/2002/12/28/200212280010.asp.
---------------------------------------------------------------------------
    Many South Koreans under age 45, a generation that has lived in an 
era of peace and prosperity, have little or no understanding of the 
North Korean threat. These South Koreans perceive North Korea not as a 
threat but rather as a Korean neighbor, potential trading partner and a 
country that provides access to expanded Eurasian markets. This 
perception of North Korea contrasts with America's view that North 
Korea is a threat to regional and global stability. This divergent view 
of North Korea, coupled with strong national pride, has been a cause of 
periodic tension in the Republic of Korea-United States Alliance.
    There have always been groups in the Republic of Korea that are 
critical of United States policy and claim that the United States 
hinders inter-Korean reconciliation. Demonstrations against American 
policy and military presence increased sharply during this year's 
Republic of Korea presidential election. Political interest groups made 
claims of inequity in the Republic of Korea-United States alliance a 
central issue during the presidential campaign. Opposition groups 
exploited a United States military court's acquittal of two American 
soldiers charged with negligent homicide in the tragic training 
accident that claimed the lives of two South Korean schoolgirls last 
June. Non-governmental organizations asserted that the Status of Forces 
Agreement (SOFA) was unjust and that the acquitted soldiers should have 
been tried in a Republic of Korea court rather than by a United States 
military court. During the presidential election campaign, these groups 
used biased and inaccurate media reporting to inflame anti-United 
States Forces Korea sentiments and mobilize demonstrations, a 
traditional tool of political protest in the Republic of Korea. 
Regrettably, several of these protests turned violent.
    Since the December 2002 Republic of Korea presidential election, 
anti-United States Forces Korea demonstrations have virtually 
disappeared, due in large part to positive steps taken by United States 
Forces Korea, the United States Embassy, and the Republic of Korea 
government. Through our Republic of Korea-United States Status of 
Forces Joint Committee process, we identified ways to improve 
implementation of the 2001 Status of Forces Agreement. Convening a 
Republic of Korea-United States Status of Forces Agreement Special 
Joint Task Force, we incorporated recommendations in vehicular safety, 
convoy operations, and joint investigation procedures. This Special 
Joint Task Force assisted United States Forces Korea and the Republic 
of Korea's government in explaining the provisions of the Status of 
Forces Agreement to the Korean people.
    The prompt and comprehensive actions of the Status of Forces 
Agreement Joint Committee addressed the concerns of many South Koreans. 
Shortly after his election, President Roh, Moo Hyun voiced support for 
a strong Republic of Korea-United States alliance and continued United 
States military presence in Korea even after reconciliation. 
Acknowledging the rationale for the Alliance, he expressed a desire to 
re-examine the relationship based on the principles of equal 
partnership and greater emphasis on shared interests. Since the 
presidential election, pro-American groups, some as large as 100,000 
people, in the Republic of Korea have conducted demonstrations 
supporting the continued stationing of United States Forces in the 
Republic of Korea. In this the 50th anniversary of the Alliance, we 
have an opportunity to revitalize the Alliance in constructive ways 
that enhance this mutually beneficial partnership while ensuring 
peninsula and regional security.
    We can improve the Republic of Korea-United States Alliance by 
closely examining the roles, missions, capabilities, force structure, 
and stationing of our respective forces. This includes the Republic of 
Korea assuming the predominant role in its defense and increasing both 
Republic of Korea and United States involvement in regional security 
cooperation. These efforts will enhance our partnership while fully 
acknowledging the Republic of Korea's contributions to burdensharing, 
support to the war on terror, and their modernization program for 
defense of the Republic of Korea.
    Republic of Korea Defense Burdensharing
    Defense burdensharing is an important part of maintaining the 
readiness of United States Forces Korea. The Republic of Korea 
burdensharing contribution in 2002 was $490 million, 41 percent of 
total United States Forces Korea non-personnel stationing costs, behind 
Japan and Germany in Allied burdensharing. In 2003, the Republic of 
Korea's contributions will increase to $539.5 million. The Republic of 
Korea's annual burdensharing contributions have increased significantly 
since the Asian financial crisis, rising over $206 million (62 percent) 
since 1997.
    The Republic of Korea's support for the war on terror
    The Republic of Korea has continued its steadfast support to the 
global war on terror. The Republic of Korea's National Assembly 
extended its mandate through 2003 and increased its commitment of 
support forces to Operation Enduring Freedom. Today Republic of Korea 
liaison officers are planning and coordinating with their United States 
counterparts at both Central Command and Pacific Command headquarters. 
The Republic of Korea's military is supporting the war on terror from 
Tampa, Florida, throughout the Pacific, and in Kyrgyztan and 
Afghanistan. The Republic of Korea has provided several contingents of 
support troops to include a navy transport ship moving essential 
airfield material to Diego Garcia, four C-130 cargo aircraft to support 
the United States Pacific Command's operations, and a hospital unit in 
Bagram. In February 2003, a Republic of Korea engineering unit began 
deployment to Bagram Air Base, Afghanistan. In addition, the government 
of the Republic of Korea has provided $12 million of their $45 million 
pledge to fund humanitarian and rebuilding efforts in Afghanistan.
    Republic of Korea's military modernization
    The Republic of Korea's Ministry of National Defense has made a 
long-term commitment to acquire the necessary capabilities to secure 
the Republic of Korea against current and emerging threats. The 
Republic of Korea's military modernization program involves significant 
purchases of United States equipment to improve interoperability. Over 
the last decade, 82 percent of the Republic of Korea's equipment 
purchases have been United States equipment. Last year direct Foreign 
Military Sales of United States military equipment to the Republic of 
Korea exceeded $1.8 billion and commercial agreements were reached to 
deliver over $4 billion of additional military equipment over the next 
few years. Boeing was awarded the contract to deliver 40 F-15K aircraft 
between 2005 and 2008. This year, the Republic of Korea is taking 
delivery of 20 additional KF-16 aircraft, procuring its second 
battalion of Multiple Launch Rocket Systems, and extended range 
munitions. The Republic of Korea's Navy is building three new 
destroyers, equipped with the AEGIS system.
    The Republic of Korea's military has made strides in improving its 
capabilities; however, its small budget, as a fraction of Gross 
Domestic Product, restrains modernization efforts. In 2003, the 
Republic of Korea's defense budget increased 6.5 percent to $14.2 
billion but fell from 2.8 percent to 2.7 percent of Gross Domestic 
Product. This has left some key programs unfunded or delayed, 
continuing a 10 year trend. The Republic of Korea has delayed purchase 
of critical equipment in the required quantities--theater air and 
missile defense systems, early warning and control aircraft, and 
upgraded equipment for their Special Operations units. Acquiring these 
systems provides critical capabilities to ensure the Republic of 
Korea's security against threats posed by North Korea.
        north korean challenges to regional and global security
    North Korea is a dangerous dictatorship that continues to threaten 
peace, security, and stability in Northeast Asia. The Kim Jong Il 
Regime uses illicit activities to fund the extravagant lifestyles of 
the inner circle and is using its military capabilities to extort 
resources from the international community. North Korea poses several 
threats to global stability: an economy on the brink of collapse; an 
active nuclear weapons development program; growing proliferation of 
missiles, chemical, and biological weapons technologies; and large 
conventional forces and special operations forces that directly 
threaten our allies. North Korean brinksmanship ensures that the Korean 
Peninsula remains a place of palpable danger, illustrated by North 
Korea's unprovoked attack on a Republic of Korea patrol boat in the 
West Sea on 29 June 2002 and North Korean efforts to develop highly 
enriched uranium nuclear weapons. North Korea continues to flagrantly 
violate its international agreements resulting in increased regional 
tensions. The Republic of Korea and United States Forces continue to 
face the possibility of a high intensity war involving large 
conventional forces and significant weapons of mass destruction.
North Korean Political Environment
    Kim Jong Il is firmly in control. He is the ultimate decision maker 
who controls the state security apparatus and occupies all key party, 
military, and government leadership positions. Kim relies on a core 
group of elites to maintain power. This inner circle, not the formal 
hierarchy of the party and government, run all the major North Korean 
institutions. Kim provides the ruling elite with a relatively luxurious 
lifestyle, while the masses live in poverty. Kim's overriding goal is 
regime survival. His intent remains to dominate the Republic of Korea 
and to reunify the peninsula under North Korean leadership.
North Korean Economic Environment
    The most pressing problem facing North Korea is its failing 
economy. Economic output has shrunk by nearly one-half since 1993. The 
country suffers from obsolete production facilities and severe 
shortages of capital, energy and raw materials. Industrial facilities, 
other than those devoted to defense industries, are nearly beyond 
repair as a result of more than a decade of under-investment and 
critical spare parts shortages. Most factories operate at less than 25 
percent capacity.
    Despite severe economic problems and acute deprivation among the 
general populace, the Kim Regime chooses to maintain a large, capable, 
and forward deployed conventional military force. North Korea's 
``Military First'' policy ensures the military receives top priority in 
all resources, at the expense of the North Korean people. The military 
consumes about one third of the North Korean budget. The military 
operates a parallel economy producing conventional weapons, missiles, 
and illegal drugs for sale on the open market as well as large-scale 
smuggling and currency counterfeiting. Most of the profits from these 
activities accrue directly to the military, with the remainder going to 
Kim and the elite. Kim Jong Il continues to buy the loyalty of his 
elite by providing luxury cars, housing, food, and special medical 
care.
    To prop up the progressively deteriorating North Korean economy, 
Kim Jong Il has implemented a number of initiatives. He has invigorated 
ideological campaigns that demand loyalty and perseverance--encouraging 
the North Korean people to endure hardships for the good of the nation. 
To complement the ideological campaign, the Kim Regime has tightened 
security and increasingly militarized North Korean society to preclude 
broad internal dissent. North Korea has turned to foreign aid, 
primarily from the United States, the Republic of Korea, Japan, and 
China to meet its food and fuel needs. The Kim Regime has implemented 
limited economic reforms, including unprecedented wage and price 
increases, designed to jump-start the economy; however these efforts 
have not revitalized the North Korean economy. Unless North Korea 
embraces a more open market economy--a prospect that Kim Jong Il fears 
will threaten his control--we expect no significant economic 
improvement in the foreseeable future.
North Korean Nuclear Issues
    North Korea's nuclear weapons program poses a very serious threat 
to the United States and our allies, risks regional stability, and 
challenges the international non-proliferation regime. During a meeting 
with Assistant Secretary of State James Kelly in early October 2002, 
North Korea acknowledged its pursuit of a covert program to enrich 
uranium for nuclear weapons. In a 16 October statement, North Korea 
admitted a series of actions that violate the Nuclear Nonproliferation 
Treaty, the International Atomic Energy Agency Safeguards Agreement, 
the 1992 Joint North-South Declaration on the Denuclearization of the 
Korean Peninsula and the 1994 Agreed Framework. We assess that the Kim 
Regime believes possession of nuclear weapons will guarantee survival.
    The North Koreans have again resorted to brinksmanship using the 
nuclear issue in an effort to gain economic and political concessions 
through negotiations. On 10 January 2003, they expressed their 
intention to withdraw from the Nuclear Non-Proliferation Treaty. 
Restarting the Yongbyon nuclear reactor near Pyongyang has prompted 
fears that it intends to produce nuclear weapons in the near future. If 
North Korea begins reprocessing existing fuel rods at the Yongbyon 
facility, it could produce enough material for five to eight nuclear 
weapons within a year. North Korea's history of selling missiles and 
missile-related technologies to any state or group with hard currency 
raises serious concerns about the potential for nuclear weapons 
technology or scientific know-how to find their way from North Korea to 
the hands of terrorists.
North Korean Ballistic Missile Sales
    North Korea's ballistic missiles, capable of delivering weapons of 
mass destruction, are a threat to the region and a destabilizing 
influence in the world. North Korea remains one of the few countries 
willing to sell to anyone with cash complete missile systems, 
production facilities, and technological assistance. These sales in 
turn contribute to instability in regions such as the Middle East and 
South Asia. Although Kim Jong Il told President Putin and Prime 
Minister Koizumi last year that the current ballistic missile flight-
testing moratorium will remain in place beyond 2003, North Korea has 
repeatedly threatened to restart missile test launches.
Role of the North Korean Military
    The Korean People's Army ensures regime survival by controlling the 
internal situation and deterring external threats. It is the one 
instrument of national power that enables North Korea to extract aid 
from its neighbors in the region. The military also plays a major role 
in the economy. Although a decade of resource shortages has left the 
North Korean military ill-prepared to fight and win a war to reunify 
the Peninsula, there are no indications that the Kim Regime has 
abandoned the forced reunification option.
    Conventional Forces: With 1.17 million personnel, the Korean 
People's Army is the fifth largest active duty military force in the 
world. The North Korean air force has over 1,700 aircraft and the navy 
has more than 800 ships, including a large submarine fleet. The ground 
force is the world's third largest, with almost one million soldiers, 
and an estimated 6 million Reserves. About 70 percent of the North 
Korean Army is deployed south of Pyongyang, where they are capable of 
attacking with very little tactical warning. The preponderance of the 
North Korean long-range artillery force can strike Seoul from its 
current locations.
    Asymmetric Threat: The North's asymmetric forces are dangerous, 
well trained, and well funded by the North Korean military budget. They 
continue to make methodical improvements in weapons of mass 
destruction, ballistic missiles, and special operations forces.
    North Korea is openly pursuing weapons of mass destruction. Their 
program to develop both plutonium and uranium based nuclear weapons has 
been well documented. North Korea maintains a substantial chemical 
weapons stockpile and production capability that threatens both our 
military forces and the civilian population centers in the Republic of 
Korea and Japan. Additionally, North Korea has the capability to 
develop, produce, and potentially weaponize biological warfare agents. 
The principal risk attendant to the North Korean weapons of mass 
destruction is proliferation--the sale of fissile materials, completed 
nuclear weapons, and the technology to produce chemical or biological 
agents to other nations or terrorist organizations.
    Their ballistic missile inventory includes over 500 SCUD missile 
variants that can threaten the entire peninsula. They continue to 
produce and deploy medium-range No Dong missiles capable of striking 
cities and United States bases in Japan. According to estimates by the 
Central Intelligence Agency and the Defense Intelligence Agency, North 
Korea has an untested ballistic missile capable of delivering a payload 
the size of a nuclear weapon to parts of the continental United States. 
Continued research on a three-stage variant of these missiles will 
provide North Korea the capability to target all of North America. As 
with weapons of mass destruction, North Korean missile proliferation 
poses a threat far beyond the Korean peninsula.
    North Korea's 122,000-man special operations forces are the world's 
largest and pose a significant asymmetric threat. We consider them a 
tough, dedicated, and profoundly loyal force. They undergo year-round 
training to develop and maintain their skills. During wartime, these 
forces would attack to disrupt command facilities of the Republic of 
Korea-United States Combined Forces Command and seek to destroy our 
force generation capability. The North will concentrate their special 
operations forces against our critical war fighting nodes while seeking 
to deny reinforcement from the continental United States.
    Force Improvements: The North Korean military is adaptive. They 
have studied our military actions, most recently in the Balkans and 
Afghanistan, and adapted their tactics to offset our technological 
advantages. They concentrate their efforts against the combined 
surveillance, precision attack, and force generation capability of the 
Republic of Korea and the United States. North Korea continues to 
improve their command, control, communications, and intelligence 
systems, harden and bury their facilities, improve lines of 
communication, disperse forces, and improve camouflage, concealment, 
and deception measures. These efforts increase the survivability of 
North Korean combat power, and complicate our attack warning 
capability.
    Assessment: North Korea poses a dangerous and complex threat to 
peace and security on the peninsula and throughout the region. Their 
growing missile and weapons of mass destruction programs, including a 
re-vitalized nuclear weapons program, constitute a substantial threat 
to the world. Moreover, they have shown willingness to sell anything to 
anybody for hard currency. They will continue to support the military 
at the expense of the general population and extort aid to prop up 
their failing economy. We see no indications that the Kim Regime will 
change the policies of military first, brinkmanship, and missile 
proliferation throughout the world.

  UNITED NATIONS COMMAND, COMBINED FORCES COMMAND, AND UNITED STATES 
                              FORCES KOREA

    Since I took command in May 2002, I have had several opportunities 
to assess the capabilities and readiness of United Nations Command, 
Combined Forces Command, and United States Forces Korea. Key events 
included response to the West Sea Armistice Violation by North Korea, 
security for development of the inter-Korean transportation corridors 
through the Demilitarized Zone, and security support for the 2002 World 
Cup and Asian Games.
United Nations Command
    Under the mandate of Security Council Resolutions 82, 83, and 84, 
the United Nations Command in Seoul provides a standing coalition with 
15 member nations to address trans-national interests in regional 
stability. United Nations Command led the international response to the 
29 June 2002 West Sea Armistice violation by the North Koreans. This 
egregious, unprovoked North Korean attack in the West Sea sank the 
Republic of Korea patrol boat SOSAN; killing 6 and wounding 19 Republic 
of Korea sailors. The United Nations Command member nations promptly 
issued strong statements denouncing the North Korean aggression. Facing 
this international censure, North Korea reluctantly expressed regret 
over the incident and agreed to the first United Nations Command--
Korean Peoples Army General Officer talks in almost 2 years. At the 
General Officer talks, North Korea guaranteed not to interfere with a 
United Nations Command-led salvage operation. Under the United Nations 
flag, the Republic of Korea's navy successfully salvaged the sunken 
boat. United Nations Command observers ensured neutrality and 
transparency of the salvage operation. The strength of the Republic of 
Korea-United States Alliance, backed by the United Nations Command 
member nations, led to a successful West Sea recovery operation and 
reinforced the legitimate authority of United Nations Command to 
enforce the Armistice. United Nations Command again provided a 
stabilizing force and prevented a dangerous situation from escalating 
into open hostilities.
    Following the West Sea salvage operation, the Republic of Korea and 
North Korea held the Seventh Inter-Korean Ministerial talks, during 
which they re-invigorated efforts to establish inter-Korean 
transportation corridors. These corridors allow reconnection of rail 
lines and roadways through two designated points in the Demilitarized 
Zone to facilitate inter-Korean humanitarian visits and commerce. To 
support this Republic of Korea reconciliation initiative, United 
Nations Command worked closely with the Republic of Korea's Ministry of 
National Defense to establish special coordination measures between the 
Republic of Korea's Ministry of National Defense and the North Korean 
People's Army to speed construction and operation of the transportation 
corridors while ensuring compliance with the Armistice Agreement and 
security of the Demilitarized Zone. The first group of passengers 
crossed the Military Demarcation Line through the eastern corridor on 
14 February 2003. This was the first time in 50 years that citizens of 
the Republic of Korea crossed directly into North Korea and is a clear 
demonstration of successful cooperation between the Republic of Korea 
and United Nations Command. The figure below illustrates the location 
of the east and west inter-Korean transportation corridors through the 
Demilitarized Zone.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Combined Forces Command
    Combined Forces Command ensures the security of the people of the 
Republic of Korea. Combined Forces Command provides the military force 
that deters external aggression and stands ready to defeat any external 
provocation against the Republic of Korea. Combined Forces Command, 
composed of air, ground, naval, marine, and special operations 
components, conducts combined training exercises and readiness 
inspections to maintain the warfighting readiness that is essential to 
deterrence. Combined Forces Command headquarters is a fully integrated 
staff, manned by Republic of Korea and United States military officers. 
This thoroughly integrated headquarters coordinates the operations that 
deter external aggression. In 2002, Combined Forces Command assisted 
with the successful United Nations Command salvage operation in the 
West Sea and with military security support to the World Cup and Asian 
Games.
    Leveraging Combined Forces Command wartime operational procedures, 
United States Forces Korea and Republic of Korea forces shared 
information and conducted combined exercises to deter terrorist 
infiltrators seeking to disrupt the games. Combined Forces Command 
operated a Crisis Action Response Team to quickly respond to any type 
of incident. United States Forces Korea provided unique biological and 
radiological defense assets to augment the Republic of Korea's military 
capabilities. Our close cooperation ensured a secure 2002 World Cup and 
demonstrated the agility of Combined Forces Command to conduct a wide 
range of operations.
United States Forces Korea
    United States Forces in Korea are the tangible demonstration of 
United States commitment to peace and stability in Korea and throughout 
Northeast Asia. United States Forces Korea brings the robust 
technological superiority, information dominance, and warfighting 
prowess that complement and buttress the Republic of Korea's military 
capabilities. Our forward presence deters North Korean aggression and 
convinces North Korea not to start a devastating war that would only 
have tragic consequences throughout the region. To maintain the 
dominance that ensures deterrence, we must maintain state-of-the-art 
capabilities in Korea. My top priorities for force modernization are: 
increasing C\4\ISR functionality and interoperability, increasing the 
pre-positioned stocks of preferred munitions, improving counter fire 
capabilities, missile defense, force protection, and logistics. These 
capabilities support peninsular defense and regional security 
operations.
    C\4\ISR functionality and interoperability
    United States Forces Korea continues to work hard to achieve the 
decision superiority needed to execute effects-based operations. We 
have made significant improvements in the combined Command, Control, 
Computers, Communications, and Intelligence architecture in Korea. Over 
the last year we have created a combined Common Operational Picture 
that integrates Republic of Korea Unmanned Aerial Vehicles, Tactical 
Data Links from both Republic of Korea and United States air and naval 
vessels and live video feeds from throughout the theater. We seek to 
expand these capabilities by adding logistics and engineering Common 
Operational Picture currently under development at Joint Forces 
Command. We thank you for your support, which has allowed us to 
progress this far. However, this common operational picture is built on 
an aging communications infrastructure that is increasingly expensive 
to maintain. We need to continue improving Command, Control, Computers, 
Communications, and Intelligence functionality and interoperability.
    The strategy for improving our Command, Control, Computers, 
Communications, and Intelligence requires improved secure digital 
networks, collaborative planning tools, and enhanced interoperability. 
Our secure digital networks need significant technology upgrades to 
improve the efficiency of information exchange. High-speed internet 
encryption will enable us to prioritize and rapidly transmit secure 
data throughout the theater. We also need to increase our secure long-
haul communications networks to effectively collaborate with United 
States Pacific Command and the Joint Chiefs of Staff. Improving these 
networks provides the infrastructure required to upgrade our 
collaborative planning tools and interactive displays to provide real-
time decision support.
    Improving interoperability of Republic of Korea and United States 
Forces Korea communications systems is paramount. The Program Budget 
Decision 725 has helped us to address our Command, Control, Computers, 
Communications, and Intelligence shortfalls. Some examples of key 
interoperability programs that need your continued support are 
integration of Republic of Korea Command Post Automation System and 
United States Global Command and Control System-Korea; integrating 
tactical Mobile Subscriber Equipment; and expanding Automated Deep 
Operations Coordination System. I urge your continued endorsement of 
Program Budget Decision 725 to maintain this funding across the Future 
Years Defense Plan.
    Preferred Munitions
    The complexity of Korean terrain and weather require the all 
weather capability provided by precision munitions. Our operational 
planning leverages ``preferred munitions'' to conduct precision strike 
against essential military targets. While we can conduct a successful 
campaign without precision munitions, it would be longer and more 
costly in terms of infrastructure damage and human suffering. Korea's 
weather often impacts our munitions choices, but Global Positioning 
Satellite-guided Joint Direct Attack Munition and inertial-guided Wind 
Corrected Munitions Dispenser give us the capability to sustain our 
operations when the weather precludes the use of other munitions. Some 
key requirements for this theater are: Joint Direct Attack Munition, 
Wind Corrected Munitions Dispenser, Conventional Air Launched Cruise 
Missile upgrades, Guided Multiple Launch Rocket System rockets, Javelin 
and Hellfire anti-tank weapons. We must maintain adequate stocks of 
these munitions on the peninsula. Critically important are early 
development and fielding of munitions to defeat the hard and deeply 
buried targets prevalent throughout North Korea. Toward that end, 
United States Forces Korea is sponsoring two promising Advanced Concept 
Technology Demonstrations--thermobaric weapons and tactical missile 
system penetrator munitions, which will carry the fight to the enemy 
wherever they seek to hide. I ask that you continue to support 
development and production of the advanced precision munitions required 
to support all contingency plans.
Counter-fire Capabilities
    In the event of a conflict, the ability to rapidly destroy North 
Korean long-range artillery is essential to deterrence. An aggressive 
counter-fire battle achieves early destruction of one of North Korea's 
essential military capabilities, while minimizing casualties and 
protecting Seoul--the Republic of Korea's seat of government and hub of 
economic power. My vision for the counter-fire fight is two-fold: a 
proactive capability to destroy North Korean artillery systems before 
they fire; and an overwhelming response to any North Korean fires into 
the Republic of Korea. A fully resourced and integrated ground, sea, 
and air counter-fire capability is essential to achieving this decisive 
overmatch. Key components of the theater counter-fire system are: 
state-of-the-art counter-battery radars, precision munitions, 
operational-level and strategic-level Unmanned Aerial Vehicles, and 
state-of-the-art Intelligence, Surveillance, and Reconnaissance 
capabilities. Your support of these programs provides the capabilities 
needed to destroy the North Korean artillery at the time and place of 
our choosing while simultaneously protecting Seoul.
    Missile Defense
    North Korea's theater ballistic missiles can range deeply into the 
Republic of Korea, and deliver both conventional and chemical weapons 
on the civilian population and military targets. To defeat the North 
Korean missile threat, I need to increase the number of advanced 
PATRIOT missiles in the Republic of Korea. Increasing the density of 
these advanced air defense weapons on the peninsula ensures the needed 
protection for critical nodes.
    Force Protection
    Protecting the force remains essential to operational readiness--I 
will not compromise the safety of our service members and their 
families. We remain vigilant and have taken critical steps to improve 
our security posture--most notably increasing perimeter security 
forces, installation of closed circuit television monitors at key 
access points, fielding Portal Shield chemical and biological detection 
systems, and conducting intensive anti-terrorism and force protection 
training exercises.
    Although we continue to assess the terrorist threat as low, we have 
implemented additional force protection measures and increased our 
physical security presence to ensure the safety of our people. In 
addition to our normal security forces, the Korean National Police are 
integrated into our installation security plans. Their sustained 
presence adds depth and effectiveness to the security of our key 
facilities. We have worked closely with the Republic of Korea Ministry 
of National Defense to increase military security cooperation during 
times of heightened force protection posture. These prudent measures 
ensure the Republic of Korea--United States Alliance is prepared to 
meet any terrorist threat to our installations.
    Over the past year, we completed a detailed vulnerability 
assessment of our installations. This assessment identified over 130 
major tasks required to comply with anti-terrorism and force protection 
requirements, many of which require changes to our infrastructure. Key 
requirements to improve force protection focus on establishing adequate 
standoff protection around our key facilities and installations and 
upgrading structural integrity on mission essential and vulnerable 
buildings. We have taken prudent measures to mitigate these shortfalls 
with the available resources. I encourage you to support all force 
protection related projects.
    Logistics and Sustainment
    Adequate logistical sustainment is essential to our campaign plans. 
In Korea, our operations are sustained by a combination of pre-
positioned equipment stocks and replenishment from the continental 
United States. In addition to the precision munitions requirements I've 
presented, I need your support to correct shortfalls in Army Pre-
positioned Set-4 equipment, supplies, and maintenance facilities. These 
war reserve sustainment stocks are essential to execute operational 
plans. To ensure timely arrival of additional forces and sustainment 
supplies, I fully support initiatives to field robust strategic 
transportation systems like the High Speed Vessel and C-17. Equally 
important to the Korean Theater is the continued improvement of Joint 
Logistics Over The Shore equipment, which provides the flexibility to 
sustain the force against an enemy's anti-access strategies. Improved 
strategic mobility and robust pre-positioned equipment and supplies 
ensure sustainment of forward deployed forces and rapid reinforcement 
from the continental United States.

                           COMMAND PRIORITIES

    As the commander of United Nations Command, Combined Forces 
Command, and United States Forces Korea, my command priorities are: 
Ensure Peace and Stability on the Korean Peninsula, Readiness and 
Training, Strengthen the Republic of Korea-United States Alliance, 
Transformation of the Command, and Make Korea an Assignment of Choice. 
I want to elaborate on each of these, identify the key programs and the 
resources needed to make them a reality.
Ensure Peace and Stability on the Korean Peninsula
    Maintaining the Armistice and deterring aggression are the most 
important missions I have as Commander, United Nations Command, 
Combined Forces Command, and United States Forces Korea. Readiness to 
fight and win decisively is critical to these missions. We must also 
foster broader regional security cooperation to enhance solidarity 
among our allies and friends. It is essential that the two key elements 
that deter conflict on the peninsula, the United Nations Command member 
nations and the Republic of Korea-United States Alliance, continue 
cooperation to actively promote peace and stability. Our common 
purpose, steadfast resolve and advanced capabilities are essential to 
continued stability in Korea.
Readiness and Training
    Readiness is my number one priority. Readiness is our ability to 
deter, and if required, defeat aggression on the Korean peninsula. The 
proximity of the threat, the complexity of combat in this theater, and 
high personnel turnover demand intensive, combined training at all 
levels. Our year-round combined exercise program, which leverages the 
results of Joint Forces Command experimentation, provides a great venue 
to maintain our warfighting proficiency and implement new operational 
concepts that support transformation.
    Combined Forces Command uses the combined exercise program to 
maintain readiness that is essential to defeat a limited warning attack 
by North Korea. Our robust annual training program consists of three 
major exercises: Ulchi-Focus Lens; Reception, Staging, Onward Movement 
and Integration; and Foal Eagle. Collectively, these exercises train 
over 400,000 personnel and ensure that the Combined Forces Command Team 
of active and Reserve component units remains proficient in all 
warfighting tasks. In Ulchi-Focus Lens 2002, our capstone training 
exercise, we improved our Common Operational Picture with interactive 
command and control displays. We used the Common Operational Picture at 
all command levels to achieve common situational awareness. We also 
implemented a new collaborative planning and execution system to 
coordinate theater-level operations. Ulchi-Focus Lens 2002 provided an 
opportunity to test Integrated Total Asset Visibility and automated 
language translators.
    Our 2003 exercise program focuses on implementing effects based 
operations. To enhance the exercise program, we are continuing the 
development of the emerging Northeast Asia Regional Simulation Center 
to provide simulation support to joint, combined, and bi-lateral 
exercises. This effort is becoming the preferred venue to resolve 
difficult coalition integration and doctrinal issues. As this center 
moves toward its objective state in 2008, it has the potential to 
support multilateral exercises and simulation with other regional 
partners and allies. Our 2003 exercise program is essential to 
maintaining warfighting proficiency and implementing new doctrinal 
concepts that improve operational effectiveness.
    Training Area Encroachment
    In addition to simulation training, we must conduct regular live 
force-on-force training to practice combat tasks and maintain maneuver 
proficiency. Korea's increasing urbanization encroaches on training 
areas, restricting our ability to train in Korea. For example, armored 
and mechanized units cannot maneuver outside of small and discrete 
pockets of land located in a corridor North of Seoul. Artillery live 
fire training is limited to two small training areas, which prohibit 
effective integration of fire and maneuver techniques. We have the same 
problem with our Air-to-Ground ranges and must continually work to 
ensure we have the proper separation for adequate aircrew training 
while maintaining safety for the people who live near the ranges. The 
Land Partnership Plan provides the mechanism for us to improve our 
training areas and reduce the effects of encroachment. By 2008 we 
expect to have the land necessary to create a consolidated Korean 
Maneuver Training Center. I ask you to fully support this initiative.
Strengthen the Republic of Korea-United States Alliance
    For 50 years the Republic of Korea-United States Alliance has been 
a standard by which all others are judged. To strengthen the Alliance, 
we need to improve public understanding of United States contributions. 
It is also essential that we review and re-affirm the military 
relationship of the Republic of Korea and United States Forces Korea. 
These complementary efforts will ensure that the Alliance endures well 
into the future.
    To improve the public understanding and appreciation of United 
Nations Command, Combined Forces Command, and United States Forces 
Korea, I have implemented a ``Good Neighbor'' program that encourages 
closer interaction between our units and the people of the Republic of 
Korea. This program uses local unit outreach programs such as tutoring 
English language students in area schools, Arbor Day activities, and 
sponsoring charitable contributions for orphanages. One of our largest 
volunteer efforts occurred in the aftermath of Typhoon Rusa in 
September 2002. United States Forces Korea volunteers assisted with 
clean-up operations and delivery of humanitarian assistance supplies. 
These efforts reduced suffering and sped recovery in the affected 
communities. Community outreach programs develop personal relationships 
that increase understanding and appreciation for United States Forces 
Korea.
    In addition to these one-on-one programs, I've established new 
channels of communication with South Korean community leaders, 
nongovernmental organizations, media representatives and concerned 
citizens. The Commander's Korea Advisory Council provides a venue for 
military and community leaders to help with our efforts to positively 
influence the Alliance. Unit commanders have established hot lines to 
receive and address issues of concern to the South Korean people. We 
are also educating local civic leaders about provisions of Status of 
Forces Agreement, improved safety programs, and Land Partnership Plan 
implementation. We are now developing a Korean language web site to 
provide command information to the South Korean public.
    Because of our high annual personnel turnover, Eighth United States 
Army has instituted a cultural awareness program called ``New Horizons 
Day.'' New Horizons Day teaches our service members and civilian 
employees about Korean culture, safety, risk mitigation, and command 
policies on appropriate off-duty behavior. New Horizons Day reinforces 
our efforts to improve understanding of the close ties that are the 
foundation of the Alliance.
    We have begun the process of re-defining the Republic of Korea-
United States Alliance. In December 2002, Secretary of Defense Rumsfeld 
and Minister of Defense Lee, Joon agreed to conduct a Future of the 
Alliance Policy Initiative to guide Alliance transformation. The Future 
of the Alliance Policy Initiative--jointly led by the United States 
Office of the Secretary of Defense and Republic of Korea's Ministry of 
National Defense--will focus on future roles, missions, functions, 
structure, and stationing in the Alliance; combined transformation and 
modernization; and the role for the Alliance after reconciliation. 
These policy discussions will ensure the Alliance has the right balance 
for the future.
    The defense ministers also directed the Republic of Korea-United 
States Military Committee develop new operational concepts for combined 
operations. These operational concepts take advantage of new military 
technologies and lessons from other theaters to implement an effects-
based warfighting structure. Using the lessons of Millennium Challenge 
02 we will implement the systems needed to make these concepts a 
reality. We are rapidly revising our contingency plans to achieve rapid 
decisive maneuver and simultaneous engagement throughout the 
battlespace. These initiatives increase our ability to defeat the North 
Korean threat and to transform the command.
Transformation of the Command
    We must prepare today to shape the uncertain future in Northeast 
Asia. My transformation vision is the core of an enhanced Alliance and 
ensures our ability to provide security throughout the region. As we 
conduct the Future of the Alliance Policy Initiative with the United 
States Office of the Secretary of Defense and Republic of Korea's 
Ministry of National Defense, we will closely examine how to make the 
command structure more efficient, modernize our capabilities, and 
develop a future regionally capable combined force that can protect 
Korea and conduct regional security missions. This vision is achievable 
in the near to mid-term and we're on the right path to making it 
reality.
    The Land Partnership Program, ratified by the Republic of Korea's 
National Assembly in November 2002, is a great foundation for 
transformation. LPP is a plan that returns 50 percent of United States 
Forces Korea installations to the Republic of Korea government and 
consolidates United States Forces Korea into 23 centralized 
installations. What's most important about Land Partnership Plan is its 
flexibility to accommodate future changes in force structure, command 
arrangements, and basing. In addition to the Land Partnership Program, 
we are conducting a combined Republic of Korea-United States Initial 
Master Plan to reduce United States presence in Seoul. This study will 
identify the needed facilities and a less intrusive location for our 
units currently stationed in Seoul.
Make Korea ``The Assignment of Choice''
    Today, Korea remains the least desirable assignment for all 
services, largely because of family separation, poor living and working 
conditions, and financial hardship. Improving housing conditions, re-
capitalizing the infrastructure, and correcting the pay disparity will 
create an ``irreversible momentum'' in making Korea an assignment of 
choice.
    To reduce family separation in Korea, I want to provide command-
sponsored housing for at least 25 percent of our married military 
members and their families by 2010. We currently provide government 
owned and leased housing for less than 10 percent of our married 
service members, far less than the 70 percent in Europe and Japan. I 
plan to station the vast majority of our families south of the greater 
Seoul metropolitan area. To accomplish these goals, we must increase 
our housing and support leasing authorities to 15 years. This will make 
the programs attractive to South Korean construction companies and 
create a ``build-to-lease'' market in the Republic of Korea. With 
stable Military Construction funding levels, increased leasing 
authority, and Host Nation Funded Construction under the Land 
Partnership Program, we can afford this initiative to improve living 
and working conditions in the Republic of Korea.
    With your support, we are continuing to improve accompanied housing 
with phased renovation of family housing units. In fiscal year 2004, we 
will start the second phase of a three-phased housing project that will 
add housing for 111 more families at Osan air base. We began these 
efforts 2 years ago and we continue to make progress on this important 
initiative.
    Even with your great support to housing last year ($185.3 million), 
over 40 percent of our unaccompanied service members live in inadequate 
quarters; many in buildings erected shortly after the end of the Korean 
War. Because of overcrowding and sub-standard facilities, many 
unaccompanied personnel must live in dense urban areas outside our 
installations, creating force protection concerns and requiring our 
service men and women to pay high out-of-pocket living expenses. We 
have a plan to provide unaccompanied enlisted service members with 
quality housing by 2008, as mandated by the Department of Defense. The 
Air Force Dormitory Master Plan and Army Barracks Upgrade and Buyout 
Plan allow us to use funds where they are most needed for renovation 
and new construction. The Fiscal Year 2004 Military Construction 
program requests three Army dormitory complexes and another Air Force 
dormitory that will significantly reduce housing deficiencies. Your 
continued commitment to stable Military Construction will have a major 
impact on correcting the housing shortage our service men and women 
endure in Korea.
    Deteriorating work facilities impair readiness, reduce the 
efficiency of uniformed and civilian workers, and lower retention rates 
of highly qualified and otherwise motivated people. Our facilities and 
infrastructure are old--over one third of all buildings in the command 
are between 25 and 50 years old, and one third are classified as 
temporary buildings. We are working hard to maintain existing permanent 
facilities through an aggressive Sustainment, Restoration, and 
Maintenance program funded with Operations and Maintenance accounts.
    Environmental stewardship is important to me personally and to the 
command. Our most immediate environmental concern is the command's 
aging fuel tanks. We are continuing to work through challenges with 
environmental protection and mitigation programs. Although there have 
been improvements in the last 2 years, more needs to be done with 
environmental project funding in 2004. Environmental requirements have 
been integrated into military construction and Sustainment, 
Restoration, and Maintenance funding. These resources will be wisely 
invested in our enduring installations under the Land Partnership Plan.
    The final element of making Korea an assignment of choice lies in 
correcting the pay disparity between serving in Korea and equally harsh 
shorter tours in southwest Asia and the Balkans. Our service members 
are motivated by more than money; however, financial hardship and low 
morale are clearly linked. An Army Sergeant serving a 6-month tour in 
Bosnia receives $500 more per month than one of his or her peers 
serving a 12-month unaccompanied tour in Korea. Additionally, our men 
and women pay significant out of pocket costs to maintain a second 
household in Korea, where cost of living expenses exceed those in San 
Francisco and Frankfurt, without the benefit of a cost of living 
allowance. We are participating in a Department of Defense study to 
explore possible solutions such as separate rations, additional 
hardship duty pay, a cost of living allowance, and distributed 
incentive pay. We are also exploring other initiatives to reduce 
financial inequities, such as expanding the Overseas Tour Extension 
Incentive Plan, implementing Assignment Pay Initiative, and 
implementing partial Basic Allowance for Housing to compensate for sub 
standard housing, but we need your support to make these initiatives a 
reality for our service men and women.
In conclusion, I'd like to leave you with these thoughts:
    Northeast Asia is a key region for the United States and our 
partners. We must maintain our presence in the region to demonstrate 
our commitment to ensure peace and security in the region. 
Congressional support is vital to our future in Korea and Northeast 
Asia. We thank you for all that you've done.
    Events in Korea affect the entire world. North Korea's aggressive 
posture and continued pursuit of weapons of mass destruction pose 
serious danger to the peace, security, and prosperity of the peninsula 
and the region. It has substantial military capability and is selling 
high technology missiles to the highest bidder. North Korea continues 
to violate its agreements and extort aid from the international 
community. North Korea's renewed efforts to develop nuclear weapons 
pose a formidable threat to the world. North Korea is a threat to 
Northeast Asia and all peace-loving nations. It is a threat that 
requires a strong Republic of Korea Alliance, a robust forward United 
States military presence, and an active international domestic effort.
    The Republic of Korea-United States Alliance has weathered 
challenges for over 50 years, and this partnership will continue to 
endure. Now is the time to transform this alliance to meet the changing 
conditions in the region. We need your support to implement our 
transformation vision.
    You can be justifiably proud of all the soldiers, sailors, airmen, 
marines, and civilians in Korea that serve the American people. Their 
daily dedication and performance reflect the trust and support that 
you've placed in them.

    Chairman Warner. Thank you very much, General.
    General Hill.

   STATEMENT OF GEN. JAMES T. HILL, USA, COMMANDER IN CHIEF, 
                 UNITED STATES SOUTHERN COMMAND

    General Hill. Mr. Chairman, Senator Levin, distinguished 
members of the committee: I am honored for this opportunity to 
appear before you today. I greatly appreciate the support of 
the committee for the United States Southern Command and the 
soldiers, sailors, airmen, marines, coast guardsmen, and 
civilian personnel who I am so privileged to command.
    These men and women are performing in an absolutely 
outstanding manner. I have seen Special Forces trainers in the 
remote regions of Colombia, Reserve medics exercising their 
skills by bringing medical attention for the first time to 
villages in Belize, airmen conducting detection and monitoring 
missions over the source zone in the Andean region, and sailors 
and coast guardsmen conducting interdiction operations in the 
Caribbean.
    I am grateful and continually inspired by their selfless 
dedication and unwavering pride in serving our great country. I 
have also been inspired by the dedication of Colombian soldiers 
in their daily fight to defend Colombian democracy against 
vicious narcoterrorists and in their efforts to rescue three 
American citizens. The Colombian military has sustained deaths 
in their continued attempt to rescue these Americans.
    Since taking command 7 months ago, I have traveled 
extensively throughout the region, to include nine visits to 
Colombia. These visits have provided me important insights to 
the region, its leaders, the challenges, and, equally 
important, opportunities that lie before us in Latin America 
and the Caribbean.
    The expectations derived from democratic and free market 
reforms, seemingly so available at the close of the last 
century, are not being realized at the dawn of this one. This, 
along with economic stagnation and endemic corruption, are 
significantly challenging many of the hemisphere's fledgling 
democracies.
    Latin America and the Caribbean is an increasingly 
important region to the United States. We have strong and 
growing economic, strategic, security, and cultural ties to the 
region. On the negative side, nearly all of the cocaine and 
much of the heroin consumed in our country comes from this 
region, significantly contributing to the 19,000 deaths caused 
by drugs last year.
    The threats to security and to stability in the region do 
not come from warring or antagonistic countries or neighbors. 
Overall, the countries in Latin America and the Caribbean 
generally have friendly relations. In fact, it is the least 
militarized region of the world. The threats instead come from 
destabilizing and corrupting influences of international 
terrorism, narcoterrorism, illegal drugs, arms trafficking, and 
rampant crime.
    Although nowhere are these transnational threats more 
graphically and brutally active than in Colombia, they have 
pervasively and corrosively spread throughout all regions of 
Latin America and the Caribbean. We therefore cannot focus our 
efforts exclusively on Colombia, and we in Southern Command are 
not. Fortunately, there is a growing recognition among the 
region's leaders that the problems emanating from, but not 
restricted to, Colombia are regional and require a regional 
solution.
    In fact, just yesterday the Andean Ridge countries' foreign 
ministers and ministers of defense, meeting in Colombia, signed 
an understanding to increase regional cooperation and 
information-sharing to coordinate their efforts along their 
borders to combat narcoterrorists and the flow of drugs. This 
move toward regional cooperation is a very important one and 
one that we have been pursuing vigorously.
    As I mentioned in my written statement for the record, I am 
proud to say that the men and women of the United States 
Southern Command do a great deal to further our Nation's 
interests in this hemisphere with very few resources and a 
modest presence. We are, however, at a critical point where the 
progress in eliminating conflict, reducing tension, and 
establishing democracy throughout the region could be at risk 
if we are not steadfast in our efforts. The continued progress 
as a region of democracy and prosperity is of paramount 
importance, I believe, to our national security.
    I thank you again for this opportunity and I look forward 
to your questions.
    [The prepared statement of General Hill follows:]

             Prepared Statement by Gen. James T. Hill, USA

    Mr. Chairman, Senator Levin, members of the committee, it is a 
pleasure to appear before you today to present the United States 
Southern Command's current posture statement. I am honored to have the 
opportunity to highlight the important contributions the men and women 
of our command are making to the war on terrorism. These soldiers, 
sailors, airmen, marines, members of the Coast Guard, and our civilians 
are working in virtually every nation in the region to promote U.S. 
national security interests. Their work has done much to preserve 
stability and strengthen relationships with our allies.
    Since taking command 7 months ago, I have traveled extensively 
throughout the region and have witnessed the mounting challenges facing 
regional leaders and their people. The expectations derived from 
popular elections and free market reforms, seemingly so achievable at 
the close of the last century, are not being realized at the dawn of 
this one. Economic stagnation, endemic corruption, and unprecedented 
challenges to sovereignty by international terrorists, narcoterrorists, 
and drugs, arms, and human trafficking organizations threaten many of 
the hemisphere's fledgling democracies. Without sustained international 
support, some of these democracies could collapse, signaling the return 
of authoritarian regimes that respect neither human rights nor 
democratic principles. Today, I will outline the United States Southern 
Command's priorities in the hemisphere and the impact of what we do, or 
fail to do, on our own national security. The strategic importance of 
the hemisphere, the war on terrorism, and our interests in Colombia 
remain central.

                        IMPORTANCE OF THE REGION

    The nations of our hemisphere are largely at peace with each other 
and have foresworn the development of weapons of mass destruction. 
Indeed, the regional nuclear non-proliferation Treaty of Tlatlelolco, 
is one of the most successful in history. Military spending on a per 
capita basis is lower in Latin America than anywhere else in the world. 
There are many cultural, economic, and political reasons to suggest 
that U.S.-Latin relationships should be increasingly important, yet 
world events keep U.S. security policy focused appropriately in other 
directions.
    The region is the number one source of new Americans as more than 
34 million residents in the U.S. are of Latin origin. Latin Americans 
are the largest and fastest growing minority group in the country and 
by 2050 are projected to comprise one quarter of the U.S. population. 
Their growing numbers are having a profound influence on our society 
and culture.
    Our economic and strategic ties to Latin America and the Caribbean 
have never been stronger. The region provides over 31 percent of our 
imported oil, more than all Middle Eastern countries combined. The 
volatility of the Middle East makes the availability of oil supplies 
from Latin America and the Caribbean all the more critical. The U.S. 
conducts more than $360 billion of annual trade with Latin America and 
the Caribbean, nearly as much as with the entire European Community. By 
the year 2010, trade with Latin America is expected to exceed that with 
the European Economic Community and Japan combined. This exchange 
translates into millions of American jobs and businesses linked to this 
region. As our recently negotiated Free Trade Agreement with Chile 
shows, these links will only grow as we progress toward the president's 
vision of a Free Trade Agreement of the Americas. Latin America is also 
critical to the global environment as the Amazon Basin produces 20 
percent of the world's freshwater runoff and 25 percent of the world's 
oxygen. Also, 25 percent of United States pharmaceuticals are derived 
from sources in this same area.
    During the past 25 years, Latin American and Caribbean nations have 
emerged from limited democracies and dictatorial regimes to democracies 
governed by elected civilian leaders that have increased respect human 
rights and control their military forces. This transformation is in no 
small measure a result of Southern Command's ongoing engagement and 
security cooperation activities. Such activities now include military 
operations in support of the war on terrorism; counterdrug operations; 
military training and exercises; and professionalization of the 
region's militaries emphasizing the role of the military in a 
democratic society, respect for human rights, and the protection of 
civil liberties.
    The true test of a nation's democracy and military professionalism, 
however, is how well that nation endures crisis. Many Latin American 
and Caribbean nations are currently experiencing political, economic, 
and social crises, and never before have their militaries demonstrated 
such restraint and support for their elected civilian leadership.
    While much is going right in the region, there still is much that 
is discouraging. Millions of Latin Americans remain mired in poverty, 
living in urban slums or neglected rural areas with crumbling 
infrastructure, inadequate sanitation, little access to proper health 
care, and perhaps most tragically, minimal educational opportunities 
for their children. Some telling statistics illustrate the magnitude of 
the economic crisis now facing the region. According to the United 
Nations Economic Commission on Latin America and Caribbean (ECLAC), 214 
million people in the region, 44 percent of the population, live below 
the poverty level. Seven million people were added to the ranks of the 
poor in 2002, and 20 percent of the region's population is unable to 
provide for even their most basic food needs. Developmental assistance 
and international investment are inhibited by the lack of security in 
the region. These figures illustrate in very real terms the enormous 
challenges faced by our democratic allies in the region.
    In recent years, economic desperation and volatile social 
environments in the hemisphere have set the conditions for the 
proliferation of international terrorism, narcoterrorism, illegal 
drugs, and arms trafficking. This is the crux of my concern and my 
responsibility. Unless and until Latin American and Caribbean 
governments can provide both security and stability and a reasonable 
opportunity for positive change in the lives of their citizens, these 
activities will continue to fester and grow and the foundations of 
democracy could crumble under the weight of these transnational 
threats.

                                THREATS

Terrorism in the Region
    The war on terrorism is our number one priority. The events of 
September 11, 2001, provided a cruel and graphic illustration of the 
evils of terrorists and their ability to attack at a time and place of 
their choosing. The recent El Nogal nightclub bombing in Bogota, 
Colombia, in which at least 35 people were killed and 173 wounded is 
just one example of the incessant terrorist attacks in that country. 
Last year's bombing outside the U.S. Embassy in Peru by the Shining 
Path is an indication that terrorist groups in the region are 
deliberately targeting U.S. citizens and interests. Economic 
deprivation, political instability, rampant corruption, drug 
trafficking, and paralyzed judicial systems are breeding grounds for 
terrorists and coupled with Latin America's proximity to the U.S., 
increase our vulnerability to attack from the southern approaches to 
our homeland.
    To complement Homeland Security efforts and seal the seams through 
which terrorists infiltrate, we must take comprehensive measures in our 
region to combat international terrorism. To effectively prosecute the 
war on terrorism, we must have the authority to use our assets and 
subordinate commands to assist partner nations interdict those illicit 
activities that support terrorists throughout our area of 
responsibility. To strengthen capabilities, build coalitions, and 
ensure our allies can effectively defeat terrorist activities within 
their borders, we must continue to provide partner nation security 
forces with equipment and continue to train with them in bilateral and 
multilateral exercises. Promoting security and effective border defense 
in every nation of our area of responsibility denies terrorists 
operating locations, support structures, freedom of movement, and the 
financial underpinnings from drug trafficking for their destructive 
activities.
    International terrorists and narcoterrorists, fueled by drug and 
arms traffickers, menace our region. While the primary front in the war 
on terrorism currently lies elsewhere, Southern Command plays an 
important supporting role. Radical Islamic groups operating out of the 
region use the profits from drug, human, and arms trafficking, false 
documentation, and other illicit activities in our hemisphere to fund 
their worldwide operations. The narcoterrorist organizations operating 
primarily out of Colombia are spreading their reach throughout the 
region, wreaking havoc, and destabilizing legitimate governments. It is 
these organizational networks that remain our focus.
    Middle Eastern based terrorist groups to include Hamas, Hizballah 
and Islamiyya al Gammat have networks and support structures throughout 
the region. These cells, extending from South America through Central 
America and the Caribbean, consist not only of logistics and support 
personnel, but also of terrorists who have participated in attacks in 
the Middle East. Radical Islamic supporters have long gathered in areas 
such as the Tri-border region between Paraguay, Brazil, and Argentina, 
known for its deep links to a full range of transnational criminal 
activities. Similarly, we continue to be concerned by possible 
activities of radical Islamic groups on Margarita Island in Venezuela 
and Maicao, Colombia. Precise estimates of the amount of money diverted 
from the region to radical Islamic groups are difficult to determine 
due to the illicit nature of the activity, however, the figures are 
likely in the hundreds of millions of dollars annually.
    In the Tri-border area, a raid in the fall of 2001, on the business 
of a local Hizballah leader revealed terrorist training videos and 
audiotapes extolling the virtues of Jihad. He admitted having ties to 
businesses in Miami, New York, Chile, Brazil, and Paraguay--leaving 
open the question of his involvement in terrorist efforts to penetrate 
the United States or pass money to terrorist groups.
    Last year, Paraguay arrested and tried several important Islamic 
radicals. Hizballah financial chief, Sohbi Fayad, was convicted on 
charges of tax evasion and local extremist, Ali Dahrough, is awaiting 
trial. Paraguay awaits the extradition of Hizballah Tri-border chief, 
Assad Barakat, from Brazil to face similar charges. These actions 
against convicted and alleged terrorists, and those who support them, 
produce important disruptions of terrorists' networks.
    Similar efforts are needed throughout the region to neutralize the 
Islamic radical structure while upholding the rights of law-abiding 
Muslims. Building coalitions, training, equipping forces, and improving 
capabilities will enable allies to significantly reduce their 
ungoverned spaces and gain greater control of their borders. These 
efforts produce skills, which are tested in U.S. sponsored multilateral 
exercises that promote security, improve effective border control, deny 
terrorists safe havens, and restrict their ability to operate.
    Narcoterrorism is most pervasive in Colombia where citizens suffer 
daily from murder, bombings, kidnappings, and lawlessness. However, 
narcoterrorism is spreading increasingly throughout the region. 
Narcoterrorist groups are involved in kidnappings in Panama, Venezuela, 
Ecuador and Paraguay. They smuggle weapons and drugs in Brazil, 
Suriname, Guyana, Mexico, and Peru, are making inroads in Bolivia, and 
use the same routes and infrastructure for drugs, arms, illegal aliens 
and other illicit activities. The narcoterrorists are very well 
financed by their involvement in every aspect of drug cultivation and 
production, kidnapping, and extortion. These drug-fueled terrorist 
groups with their ideologically appealing names--the Revolutionary 
Armed Forces of Colombia or FARC, the National Liberation Army or ELN, 
and the United Defense Forces or AUC--directly attack the legitimate 
authority of the Colombian government. Ideology is no longer the moving 
force it once was for these organizations. Today, they are motivated by 
money, and power, and protecting, and sustaining themselves through 
drug trafficking and terror. The arrest last year in Houston, Texas of 
an AUC operative arranging an exchange of $25 million worth of drugs 
for arms is a clear indication of the symbiotic relationship among 
terrorists, drugs, and arms traffickers. The re-emergence of the 
Shining Path in Peru is being fueled by their involvement in the drug 
trade.
    Narcoterrorism also negatively impacts the environment. Over 4 
million hectares of rain forest have been destroyed in order to plant 
coca. Forty eight thousand metric tons of precursor chemicals used in 
coca production per year, are dumped into the environment. Terrorist 
pipeline attacks have spilled 3 million gallons of oil, the equivalent 
of 12 Exxon Valdez's.
Drug Trafficking
    Underlying all of this is the illegal drug industry--a scourge that 
constantly threatens the sovereignty, stability, and rule of law in 
Latin America and the Caribbean. Drug traffickers generate violence, 
foster crime, fuel gangs, and corrupt public institutions. The Drug 
Enforcement Administration believes that a substantial number of 
foreign terrorist organizations are trafficking in large amounts of 
narcotics--six of these organizations are operating in this hemisphere. 
In addition to all three of the Colombian terrorist groups, the Shining 
Path, Jama'at Al Musilmeen, and Hizballah generate revenues through the 
drug trafficking business.
    According to the Office of the National Drug Control Policy 
(ONDCP), over 19,000 Americans die annually from drug-induced causes. 
This constitutes, in my mind, a weapon of mass destruction. If we 
define national security as the safety and well being of our citizenry, 
illegal drugs must be considered a major national security concern.
    Narcotrafficking not only threatens the security of the United 
States, but also the survival of democratic allies in the region 
through unabated violence, terror, and corruption, while forcing these 
countries to devote precious resources to address these problems. 
Additionally, as traffickers exchange drugs for arms and services in 
the transit countries, transit nations become drug consumers as well. 
Brazil provides an illustration of how such an evolution can occur; it 
is now the second largest consumer of cocaine in the world behind the 
United States. While partner nations are willing to work with us to 
develop regional approaches to counter the production and trafficking 
of illegal drugs, effective and sustainable counterdrug operations 
severely test the capabilities of their thinly stretched security 
forces.
Arms Trafficking
    A nearly unchecked flow of illegal arms throughout the region poses 
another serious threat to the security of several nations and 
exacerbates terrorist violence throughout the region. Many of these 
arms are leftover from the region's civil wars, while others are from 
former Soviet bloc countries or even purchased legally in the United 
States. They are then shipped through the region's porous borders 
destined to the terrorist organizations in Colombia or gangs elsewhere, 
often in exchange for drugs. Arms traffickers use a variety of land, 
maritime, and air routes that often mirror drug and human trafficking 
routes.

                          REGIONAL ASSESSMENTS

Andean Region
    Colombians suffer daily from a level of violence and terror 
practically unimaginable to us. In this war-torn country, a decades-old 
conflict waged by narcoterrorists and fueled by illicit drug money 
continues unabated, claiming thousands of lives. More than 1.5 million 
Colombians have been displaced from their homes by war, terror, and 
violence. Last year there were more terrorist attacks in Colombia--an 
average of four per day--than in all other nations of the world 
combined. Colombia has the highest homicide rate in the world. Last 
year more than 28,000 Colombians were murdered--13 times the U.S. 
rate--making homicide the most likely cause of death. More than 2,900 
Colombians were kidnapped, also the highest rate in the world. Violence 
has become so endemic that a Colombian company now specializes in 
bulletproof vests for children.
    Many familiar with Colombia's conflict romantically describe the 
illegal groups as ``revolutionaries,'' ``guerrillas,'' or ``rebels.'' 
These terms are inaccurate and out of date. The FARC, ELN, and AUC, 
directly challenge the legitimate authority of the Colombian 
Government, yet offer no alternative form of government. Simply put, 
these are narcoterrorists who profit at the expense of Colombia and its 
people.
    All three of these groups target elected government officials and 
the civilian population with their brutal attacks. International human 
rights groups have publicly denounced the massacres, assassinations, 
political kidnappings, forced displacements, and forced recruitment of 
minors by all three groups. Human rights groups have also denounced the 
FARC's use of illegal weapons to attack protected sites and civilian 
institutions such as the May 2002 battle between the FARC and AUC, in 
which a FARC mortar fell attack on a church in Bojaya, killing more 
than 100 people, many of them children. The FARC's latest innovation of 
forcing kidnapped individuals to drive bomb-laden cars on suicide 
missions represents yet another step in the downward spiral toward the 
terrorists' total disregard for the sanctity of human life. Attempting 
to protect Colombians from this lawlessness is a paralyzed judicial 
system in which 97 percent of crimes go unpunished and three million 
cases remain backlogged.
    In the face of these enormous challenges, President Alvaro Uribe is 
vigorously proceeding with changes to reform the nation's political and 
legal systems, promote socio-economic development, protect human 
rights, provide help to displaced persons, enlarge and professionalize 
the security forces, and combat narcoterrorism. I have traveled to 
Colombia nine times and am impressed by President Uribe and his strong 
and principled team's determination to defeat the forces that are 
ripping his country apart.
    President Uribe's initiatives are solidly supported by internal 
control and legislative measures designed to hold military members 
responsible for their own actions. Education and training initiatives, 
including human rights training implemented by the Colombian Ministry 
of Defense, have produced some of the best-trained and most 
professional military personnel in Colombia's history. Allegations of 
human rights violations by the military have dropped to less than 2 
percent of all allegations, and today the Colombian military is one of 
the most respected organizations in the nation.
    Colombia remains the world's leading producer of cocaine and 
accounts for 90 percent of the U.S. supply. Furthermore, we are seeing 
a surge in poppy cultivation and heroin production in Colombia. While 
Colombia's heroin production is a modest eight metric tons per year, 
virtually all of it is smuggled into the U.S.
    Although it has the political will to fight drug traffickers, 
Ecuador remains a significant transshipment country for illicit drugs 
and is the country most vulnerable to spillover from Colombia. Economic 
limitations and security concerns hamper Ecuador's ability to 
strengthen border control operations. Ecuador is host to one of the 
Southern Command's Forward Operating Locations (FOL) in Manta. The FOL 
has proven to be an effective launch site and critical element in our 
source zone counterdrug operations. This FOL provides coverage in the 
eastern Pacific where we have seen the greatest increase in drug 
smuggling activity. Runway improvement, construction of living 
quarters, and maintenance facility projects were completed in 2002. 
Continued infrastructure improvement will ensure the airfield meets 
U.S. operations and safety standards. Manta's substantial contributions 
to counterdrug efforts will become even more valuable with the 
resumption of the Air Bridge Denial Program in Colombia. The 
effectiveness of the Air Bridge Denial Program is unquestionable. The 
incorporation of additional safety measures will facilitate the 
resumption of this program, which will improve our ability to assist 
Colombia in its efforts to interdict the flow of illegal drugs.
    Venezuela continues to deteriorate with its declining per capita 
income, financial crisis, increased instability, violence, and crime. 
Despite this political and societal crisis, the U.S.-Venezuelan 
military contacts continue with Venezuelan military students attending 
U.S. schools. We have a longstanding institutional relationship with 
the Venezuelan military and will continue to pursue common security 
concerns, as long as the military remains within its constitutional 
authority.
Caribbean
    In the Caribbean the primary challenge comes from narcotrafficking 
and the corruption that accompanies it. With the exception of Haiti, 
democratic institutions remain relatively stable but the police and 
security forces are often overwhelmed or outgunned by the resources of 
drug traffickers and others engaging in illicit activity. The 
significant economic slowdown in the Caribbean provides a fertile 
environment for the corruption of government and security personnel as 
well as the proliferation of drug trafficking and other illicit 
activities. To meet these challenges regional governments are 
attempting to focus on cooperative efforts such as the Regional 
Security System (RSS) and CARICOM. There is a growing understanding 
among Caribbean leaders that leveraging each other's limited resources 
is the only way to deal with the threats they face. Our efforts are 
focused on supporting these cooperative approaches.
    Haiti stands out in the area of responsibility for its total 
political and economic paralysis. The government has refused to 
implement both the economic and political reforms essential for 
garnering vital support from the international community. Without 
fundamental changes in both the political and economic sphere, Haiti 
will continue to stagnate.
    A key element of our efforts in the Caribbean is the uniquely 
focused Tradewinds exercise. Conducted annually, Tradewinds exercise 
objectives focus on combating transnational threats, counter drug 
operations, and disaster preparedness. This year's exercise will 
consist of two phases hosted respectively by Jamaica and Barbados.
Central America
    We are at a unique point in time in Central America, with most of 
the region's political and military leaders dedicated to overcoming 
historical border differences and tensions in order to pursue regional 
economic and military integration. Southern Command has a long history 
of providing security cooperation to Central American nations with a 
regional focus on disaster response, humanitarian and civic assistance, 
demining, peacekeeping, and counterdrug operations. Arms trafficking, 
originating with arms left over from the civil wars of the 1980s not 
only threaten this region but flow southward to Colombia. This region 
is also a primary avenue for illegal migrants and drugs entering the 
United States. Especially troublesome is the situation in Guatemala. 
The administration has proven to be an unreliable partner in countering 
drug trafficking and according to the Inter-American Commission on 
Human Rights, there were more than 100 attacks against human rights 
workers in Guatemala last year.
    Central America is therefore key to our counterdrug and counter 
terrorist efforts, which include regional operations to strengthen 
capabilities and foster cooperation within nations of the region. We 
are working more closely with the Organization of Central American 
Armed Forces (CFAC) to promote military integration and cooperation in 
maintaining regional security. El Salvador provides Southern Command 
the use of Comalapa Airport as a Forward Operating Location for 
counterdrug coverage throughout Central America, the eastern Pacific, 
and the western Caribbean. Joint Task Force Bravo in Honduras continues 
to provide a logistical support base to the critical humanitarian 
missions of the region, as well as counterdrug operations through 
support of Central Skies exercises.
Southern Cone
    Military-to-military engagement in the Southern Cone remains 
strong. Argentina remains in the grip of economic crisis. Recent 
estimates indicate that 19 million, or 53 percent of Argentines are 
living below the poverty line. In the midst of this crisis, the 
Argentine military remains a strong partner for the U.S. in the region 
and has carved out a useful role in U.N. peacekeeping operations and 
support for the war on terrorism. Argentine military leaders strongly 
support democracy and the constitution and serve as a voice of 
restraint and respect for the democratic process. Southern Command 
continues its military-to-military contact program with the Argentinean 
Armed Forces and expects this sustained cooperation will continue in 
the future.
    Crime in Brazil, especially urban gang violence, remains a serious 
problem, and President ``Lula'' da Silva faces challenges from illicit 
drug and arms traffickers. Thus far, cooperation with the new Brazilian 
administration and the Brazilian military continues seamlessly.
    Despite regional economic difficulties, Chile's economy remains on 
firm footing and offers appreciated stability in the Southern Cone. 
Transparency International rates Chile as one of the least corrupt 
nations in the world. The United States has recognized this by 
concluding a Free Trade Agreement with Chile, the first nation in the 
region after Mexico. We look forward to a growing and cooperative 
relationship with Chile and its armed forces.

                            WAR ON TERRORISM

    As mentioned earlier, terrorists throughout the region bomb, 
murder, kidnap, traffic drugs, and smuggle arms among other illicit 
activities. Southern Command trains, equips and builds allied nation 
capabilities to confront terrorists, control borders, deny safe havens, 
and prevent terrorists from operating with impunity. Interagency 
cooperation, improving Colombian military capabilities, conducting 
detention operations, the use of expanded authority, and security 
cooperation are among the tools we employ. With the inextricable link 
between terrorists, drugs, and arms trafficking, counterdrug and arms 
interdiction operations are critical to our efforts. Joint Interagency 
Task Force-East (JIATF-E) is integral to our operations.
Inter Agency Cooperation
    JIATF-East began as an interagency coordinator of maritime 
counterdrug operations in the transit zone. Today, after merging with 
JIATF-S, collocating in Key West, Florida, assuming responsibility for 
the source zone, and adding international members to their staff, 
JIATF-East provides planning assistance for counterdrug operations in 
response to U.S. country teams throughout the region. Transit zone 
operations may or may not involve U.S. forces, but our forces do 
participate in planning operations supported by the U.S.
    Responding to Secretary Rumsfeld's guidance to participate in a 
Joint Interagency Coordination Group, Southern Command meets monthly to 
focus on the war on terrorism with representatives from the Department 
of Treasury, Drug Enforcement Agency, Department of State, Department 
of Homeland Security, and Department of Defense. The Joint Interagency 
Coordination Group is also a venue for sharing intelligence and 
effectively coordinating our regional counterterrorism efforts.
Andean Counterdrug Initiative
    The Andean Counterdrug Initiative, a complement to Plan Colombia, 
concentrates on the region rather than on Colombia alone. Success in 
Colombia could produce a spillover into neighboring countries that may 
not be prepared to deal with the consequences. These countries remain 
transshipment points for arms, drugs, and precursor chemicals entering 
and exiting Colombia. While success in Colombia is essential, we cannot 
risk winning the battle in Colombia and losing the war in the region. 
The Andean Counterdrug Initiative is intended to contain the effects of 
spillover and, to a lesser degree, sustain the success of Plan 
Colombia.
Improving Colombia's Military Capabilities
    Southern Command assistance programs are intended to help Colombia 
develop the capabilities to solve their security problems and diminish 
the U.S. in-theatre role. Military training of Colombian units that are 
vetted for human rights abuses is key to realizing success on the 
battlefield. The training of the Counter Narcotics Brigade and the 
establishment and training of a Commando Battalion to pursue enemy 
leadership have already produced results.
    U.S. Special Forces have also been training Colombian Armed Forces 
in Arauca as part of an infrastructure security strategy to protect a 
portion of the 772-kilometer pipeline and other critical infrastructure 
points, that have been frequent targets of terrorist attacks. This 
training will enable Colombia to protect remote narcoterrorist 
influenced areas of the countryside where the pipeline is located. The 
oil carried by the pipeline represents annual revenues of about $500 
million for the Colombian Government. The loss of this revenue 
seriously undermines Colombia's fiscal health and the attacks create 
considerable environmental and ecological damage.
Detention Operations
    In addition to its work in Central and South America, Southern 
Command has directly and actively supported the war on terrorism by 
establishing a terrorist detention and intelligence operations facility 
at Guantanamo Bay, Cuba, in January 2002. Intelligence operations at 
Guantanamo have provided critical information regarding terrorist 
organizations' leadership, planned attacks, potential attacks, and 
other specific information that has already thwarted terrorist 
activities. As Guantanamo operations continue, we will improve 
intelligence exploitation, collection and dissemination, and establish 
more permanent facilities to provide servicemembers a better quality of 
life.
    We combined Joint Task Force 160 and 170 to form Joint Task Force 
Guantanamo, achieving unity of command and ensuring improved 
coordination between the intelligence collection mission and camp 
operations. Detainees continue to receive medical care, three meals 
daily that meet Muslim dietary laws, clothing, permanent shelter, 
showers, and humane treatment consistent with the provisions of the 
Geneva Convention.
Expanded Authority
    The Supplemental Appropriations Act of 2002 and the Fiscal Year 
2003 Defense Appropriations Act included provisions to use counterdrug 
assets for non-counterdrug missions within these respective years. The 
granting of expanded authority for operations was an important 
recognition that it is impossible to separate the drug threat from the 
threat to security and stability raised by terrorist organizations such 
as the FARC, ELN, and AUC. Operations are more efficient and effective 
because the same assets are used to confront terrorists as well as drug 
traffickers. We can now share more intelligence with Colombia, and they 
can use counterdrug-funded assets in the combined campaign against 
terrorists and drug production and trafficking. A great example of 
success as a result of expanded authority is the killing of the FARC's 
15th Front Commander by the Colombian military utilizing U.S. provided 
UH-1 helicopters flown by Colombian pilots.
Security Cooperation
    Southern Command's security cooperation activities expand United 
States influence, assure friends, and dissuade potential adversaries. 
The overarching goals are to promote regional security and stability 
through training, equipping, and developing allied security force 
capabilities that improve competence and professionalism while 
underscoring respect for human rights.
    Command programs are also intended to strengthen respect for the 
rule of law, civilian control of the military, and support for 
democratic ideals. We do this not only because it is in tune with the 
highest values of the American people, but also because it is a 
strategic, operational, and tactical necessity. Security forces must 
enjoy the trust and confidence of their people before they can be 
effective. Only by respecting the law and the dignity of all the 
citizens they are sworn to defend, can security forces hope to gain the 
respect of those they protect.
    We annually coordinate and direct more than 30 legal engagement 
activities among military counterparts, regional governments, and non-
government organizations. Specific accomplishments include the creation 
of a legal corps, reform of military justice codes and procedures, 
human rights and law of war education, and the inclusion of military 
lawyers in the planning and execution of military operations. Nowhere 
are the positive results of these efforts more apparent than in 
Colombia where the people now hold their military in high esteem.
    Complementing this training are disaster relief programs that teach 
militaries how to respond to their civilian authorities when disasters 
occur. Fuerzas Aliadas is the cornerstone of this program and will be 
hosted by Nicaragua this year. More than 20 nations will participate, 
including our regional partners, Canada, the United Kingdom, the 
Netherlands, and France.
    Beyond disaster relief, New Horizons exercises provide unique and 
rigorous training opportunities to engineer, medical, and civil affairs 
units. These activities hone U.S. forces' engineering and medical 
skills in a challenging environment, under conditions nearly impossible 
to replicate in the U.S.
    Last year the New Horizon exercises completed 33 engineer projects 
consisting of schools, medical clinics, wells, and rudimentary road 
construction and repair. The 59 humanitarian medical deployments 
treated more than 680,000 patients. During these deployments, our 
veterinary teams treated approximately 67,000 animals in varying 
livestock categories, which contributed significantly to sustaining 
local economic health. Bolivia, Panama, Belize, Dominican Republic, 
Grenada, and St. Kitts will host New Horizons exercises this year.
    The annual naval exercise, UNITAS, is conducted throughout the 
region with significant participation by several countries. This year, 
Ecuador will host the UNITAS Pacific Phase. Argentina is scheduled to 
host UNITAS Cruise 2004 Atlantic Phase in October. An amphibious 
bilateral exercise between the U.S. and Argentina is scheduled for 
September. Colombia, Ecuador, and Peru will each conduct a bi-lateral 
amphibious exercise with participating U.S. forces.
    This year the Central American nations will host several exercises 
to include Peacekeeping Operation (PKO) North that will focus on 
enhancing the peacekeeping skills and capabilities of the 22 
participating nations. All the Central American countries and the 
majority of Caribbean nations will participate. We will also conduct 
PKO SOUTH and Cabanas to strengthen the peacekeeping skills, 
cooperation, and capabilities of the rest of the region's military 
forces.

                              REQUIREMENTS

    As the war on terrorism progresses we will increasingly pursue 
operations of mutual interest with goals that increase interoperability 
with our allies. We will pool our resources to the extent possible, but 
we foresee additional threats to U.S. security interests that may 
require additional resources or the reprioritization of programmed 
funds, if circumstances warrant. We anticipate Guantanamo's operating 
tempo to increase, additional stress on our theater communications 
architecture, an escalation of detection and monitoring activities, and 
a greater need for interoperability of allied nations that will require 
Foreign Military Financing programs and a renewal of the expanded 
authorities.
Joint Task Force--Guantanamo
    Long-term operational requirements for JTF-Guantanamo detainee 
operations are necessary to enhance our effectiveness in the war on 
terrorism, but as we continue to improve our mission capabilities there 
will be a cost associated with the progress. Since January 2002, 
Guantanamo has provided, and continues to provide, critical 
intelligence information on worldwide terrorist organizations' 
leadership, planned attacks, potential targets, and other critical 
information that can thwart subversive activities. We anticipate the 
arrival of additional detainees to be secured, screened, held, managed, 
and interrogated for both counterterrorist planning and law enforcement 
purposes. Manpower requirements will also increase to ensure a safe and 
secure facility.
Command, Control, Communications, and Computers (C\4\)
    My next priority deals with enhancing our C\4\ architecture for 
fixed and mobile operations throughout the region as outlined in 
previous testimonies. The current C\4\ infrastructure lacks the 
flexibility to execute the assigned mission due to over reliance on 
inadequate commercial communications systems, limited communications 
bandwidth, and fragmented operations and maintenance support. 
Consequently, Southern Command is unable to effectively and efficiently 
support a counterdrug mission simultaneously with another contingency 
operation such as anti-terrorism, noncombatant evacuation, migrant 
operations, disaster relief, or defense of the Panama Canal.
    Since existing military systems alone are insufficient, it is my 
intention to transform, expand, and maintain a cost-effective, 
efficient, centrally managed, and robust infrastructure that supports 
the Theater Security Cooperation Strategy. This strategy includes 
counter-terrorism operations, regional engagement, crisis response, and 
counterdrug missions. We are partnering with the Defense Information 
Systems Agency and the Department of State's Diplomatic 
Telecommunications Service Program Office to explore commercial 
alternatives such as fiber optic communication links. This effort shows 
promise for improving C\4\ effectiveness throughout the region.
Detection and Monitoring
    We conduct varied and diverse detection and monitoring (D&M) 
operations that require a high state of readiness and a joint effort to 
link multi-intelligence collectors targeted against strategic, 
operational, and tactical requirements. This melding of organic and 
national collection resources will improve operations and fulfill the 
Quarterly Defense Review Transformation requirement for continuous and 
persistent Intelligence, Surveillance and Reconnaissance (ISR).
    Southern Command's role in Operation Enduring Freedom includes the 
employment of national, airborne, ground, and maritime ISR assets that 
are targeted against regional terrorist groups and transnational 
support cells. Their combined products create a common operating 
picture of regional activity that can be shared with our allies as 
appropriate. Successful D&M operations contribute to allied nations' 
defenses against terrorism and promote regional security cooperation.
    Detection and monitoring has eight major programs that are vital to 
our counterdrug campaign plan. These programs include Relocatable Over 
the Horizon Radar (ROTHR), Fleet Support Operations, Maritime Patrol 
Aircraft (MPA), FOLs, JIATF-East, Joint Surveillance and Reconnaissance 
Operations Center (JSSROC), Hemispheric Radar System (HRS), and South 
Air Force Support. These programs, when sufficiently funded, will 
provide a formidable capability to detect and monitor illicit 
trafficking of arms, drugs and other illegal activities that fuel 
terrorist groups. Overall, this capability further provides critical 
information used by the U.S. and host nations to effectively counter 
the expansion of narcoterrorism.
Foreign Military Financing (FMF)
    Foreign Military Financing fosters cooperative security 
arrangements, and regional initiatives rely on partner nation 
participation. Many nations rely, in turn, on FMF to sustain the kind 
of readiness that effective partnering requires. Latin American and 
Caribbean militaries still have legitimate defense sustainment and 
modernization requirements. As we request more partner nation 
assistance in fighting terrorism and transnational threats, FMF will be 
an important source of their equipping and training efforts. Regional 
militaries require force modernization to be interoperable. Without FMF 
support and adequate national funding, training, and maintenance, 
equipment in Latin American forces continues to deteriorate, which 
degrades allied military readiness, increases the cost of U.S. 
participation, reduces the capability of our hemispheric partners in 
the war on terrorism, and makes military responses to natural disasters 
and humanitarian relief more difficult.
Expanded Authority
    As previously mentioned, operations today are more efficient and 
effective because the same assets are used to confront both drug 
traffickers and terrorists, thanks to the expanded authority. The 
authority also permits greater intelligence sharing and allows allied 
nations to use U.S. counterdrug funded equipment for non-counterdrug 
missions. Expanded authority is essential to the command's ability to 
deal with both narcotraffickers and terrorists. The authorities granted 
in fiscal year 2002 and fiscal year 2003 were 1-year programs confined 
to Colombia. Because of the successes we have experienced in both 
intelligence sharing and improving operations, we are requesting 
expanded authority for the entire area of responsibility in fiscal year 
2004.

                               CONCLUSION

    Without question, democracy has gained a foothold in Latin America. 
The question is how long will it prevail? Until ordinary citizens 
benefit from free market reforms and reduced corruption and until 
terrorists can no longer operate with relative impunity, that question 
will linger. For most nations in our area of responsibility, the 
threats come from within. It will be up to those nations to demonstrate 
their ability to govern; to provide law and order, implement judicial 
reform, and develop a profound respect for human rights. These 
fundamentals provide the stable and secure environment necessary for 
economic growth--growth that will improve the quality of life for 
ordinary citizens. Southern Command will play a crucial role in 
developing the kinds of security forces that help provide the ability 
to govern throughout the region, and particularly in Colombia.
    We are at a critical time in Colombia's history. The elected 
government of President Uribe enjoys unparalleled approval ratings of 
about 70 percent. Under his leadership, the Army is helping to regain 
control of urban neighborhoods long since held by narcoterrorists. 
Colombia's citizens are taking a more active role in their nation's 
defense, providing actionable intelligence to the Colombian Armed 
Forces. President Uribe has raised taxes to provide greater resources 
to his nation's security forces. There is a renewed sense of momentum, 
commitment, and hope as the Colombian people struggle to save their 
country, but there is also a small window of opportunity beyond which 
public opinion and support will wane without significant progress.
    I would like to close by leaving the committee with this thought. I 
am proud to say we do a great deal to further our Nation's interests in 
this hemisphere with very few resources and a modest presence. Beyond 
Colombia, we are at a critical point where the progress in eliminating 
conflict, reducing tension, and establishing democracy throughout the 
region could be at risk if we are not steadfast in our efforts. While 
our attention is drawn to another region of the world, we must keep in 
mind that we live in this hemisphere, and its continued progress as a 
region of democracy and prosperity is of paramount importance to our 
national security.
    I would like to thank the Chairman and the members of the committee 
for this great opportunity and for the tremendous support you have 
provided this command. I can assure you that the men and women of the 
United States Southern Command appreciate all that you do for them as 
they perform their noble work for our great country.

    Chairman Warner. Thank you very much.
    The committee will proceed with a 6-minute round of 
questions. I will lead off, followed by Senator Levin.
    The press reports this morning that the United States has 
announced spy flights over North Korea will resume amid 
warnings that Pyongyang's nuclear program is much more advanced 
than previously thought. Assistant Secretary of State James 
Kelly said North Korea could have enough weapons-grade material 
within months, not years, to produce nuclear weapons.
    Let us talk about that, and I think that responsibility is 
shared by two of our distinguished witnesses this morning. Let 
us first address the resumption of the flights, and also it is 
my understanding they will not be accompanied by such 
protective aircraft initially as could be available. Admiral 
Fargo, that would be in your jurisdiction, shared with General 
LaPorte. Why don't you lead off, Admiral.
    Admiral Fargo. Yes, sir, Mr. Chairman, that is in my 
jurisdiction and those press accounts this morning were 
accurate. I cannot go into the exact form and substance of 
those flights, but of course we retain our right to fly these 
unarmed surveillance and reconnaissance flights in 
international air space, as we do throughout the world.
    So those flights have recommenced. I do not think I can add 
much more to that without getting into classified material on 
the tactics of that.
    Chairman Warner. We can understand that. But I presume the 
most prudent and reasonable precautions are on hand to protect 
that plane if necessary; is that correct?
    Admiral Fargo. Mr. Chairman, obviously we took a very close 
look at this and did a full assessment and a complete analysis, 
and we have put in place what I consider to be the prudent 
measures to ensure that these planes are properly----
    Chairman Warner. That is all we need to know for the 
moment.
    Now, your own professional assessment with regard to the 
nuclear program that has been initiated once again by North 
Korea and the dangers it poses to this country?
    Admiral Fargo. Yes, sir. I think this nuclear program has 
dangers on any number of levels. Obviously we are very 
concerned and all of our regional allies are very concerned 
about nuclearizing the Korean Peninsula. Certainly there are a 
couple ways they can do that, through the highly enriched 
uranium program or through reprocessing spent fuel rods. The 
concerns are both in the neighborhood of the ability of North 
Korea to have an arsenal of nuclear weapons and an equal, maybe 
even a greater, concern is that they could take this weapons-
grade material and proliferate it and proliferate it to----
    Chairman Warner. Ship it to other areas of the world.
    Admiral Fargo. Ship it to other areas of the world and to 
terrorist organizations, and of course that is a very serious 
situation that is international in its context.
    Chairman Warner. Well, given the seriousness of that, I am 
going to pick up on your phrase, of concern to the regional 
allies. That would be Russia, China, Japan, South Korea. Thus 
far, our efforts diplomatically--and I commend the President 
and others for conducting this diplomacy--to try and bring 
about a resolution of this problem. But thus far our allies 
have not expressed the willingness that I feel measures up to 
your observation that they are concerned, to participate in 
multilateral talks prior to any bilaterals that may eventually 
be decided upon between the United States and North Korea. Your 
views on that?
    Admiral Fargo. Well, I think, Mr. Chairman, on a military-
to-military level, which is really my lane here, we are 
conducting very close cooperation with the Japanese and the 
Republic of Korea on this issue. I have had exchanges, very 
candid discussions with Admiral Ishikawa in Japan. I am sure 
General LaPorte has had similar discussions with his 
counterpart, and we are working very closely on this issue 
together.
    Chairman Warner. Well, let us hope it works out 
diplomatically, and I think the President is quite right to try 
and approach this from a multilateral standpoint, because 
Russia, Japan, China, and South Korea all have very severe 
interests in this thing being resolved so that that is not a 
nuclear peninsula.
    General LaPorte, your professional views on this?
    General LaPorte. In terms of the reconnaissance flights, I 
support Admiral Fargo in providing him some assets to enable 
him to accomplish that mission. So we are fully in agreement on 
the execution of these missions and the manner in which he has 
designed them.
    In terms of the nuclear issue, Mr. Chairman, I want to 
underscore the significant threat North Korea presents in terms 
of proliferation. North Korea's economy is a failed economy and 
they gain hard currency in order to keep their regime in power 
by engaging in activities such as proliferation of military 
hardware, and missiles that we all know about.
    They are also very much involved in the narcotics business, 
methamphetamines especially. In Japan alone, it is estimated 
that it is a $9 billion-a-year business. They are also involved 
in counterfeiting and also dealing in endangered species. So 
that should underscore the fact that if they had weapons-grade 
plutonium they would be willing to sell that also for the right 
price. That is very important.
    In terms of my contact in Korea, I will tell you that the 
military is very concerned about the nuclear issue. I meet 
periodically with the Republic of Korea Chairman of the Joint 
Chiefs of Staff, General Lee, and he joins us in our concern 
and our desires.
    Chairman Warner. Let me ask specifically, are each of our 
commanders before us this morning satisfied that you have the 
forces you need to support the range of contingencies that 
could arise in connection with this developing situation? 
Primarily those forces are there for deterrence, but should 
some measure of engagement be required, Admiral, do you have 
sufficient forces?
    Admiral Fargo. Mr. Chairman, I am better postured today in 
the western Pacific than I was a year ago. We are fortunate at 
this point in time that we have an annual exercise that takes 
place on the Korean Peninsula, Foal Eagle, or Reception, 
Staging, Onward Movement and Integration (RSO&I), that brings 
additional troops and aircraft to the Peninsula. This has been 
on the books for a year. We do it every year, so it is not 
provocative.
    Chairman Warner. Your answer is yes and, even though our 
country is heavily engaged, as it should be, in supporting 
diplomacy in the Iraq situation and that diplomacy is supported 
directly as a consequence of the forces that we forward-deploy 
in that region, you are confident that there has been no 
deterioration in your deterrent capability and reaction 
capability?
    Admiral Fargo. Yes, sir, I am confident.
    Chairman Warner. General?
    General LaPorte. Senator, I am also confident that I have 
the ability to deter and have contingencies if required. We 
have increased our intelligence, surveillance, and 
reconnaissance capabilities so that we have good indications of 
warning of any North Korean activity.
    Chairman Warner. That capability extends to chemical and 
biological protection for our troops? I ask both commanders, 
you have adequate protection should that weapon be utilized?
    General LaPorte. Yes, sir, we do.
    Chairman Warner. Admiral?
    Admiral Fargo. Yes, sir.
    Chairman Warner. Fine. Thank you.
    My time is up. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Admiral Fargo and General LaPorte, back to this 
reconnaissance plane incident. The Washington Post carried a 
story on it in its March 4 edition, which said that ``Defense 
officials stated that `at least one of the North Korean planes 
directed its radars to identify the U.S. aircraft as a target 
and may have locked on, a step short of shooting a missile.' ''
    That is the quote that I want to ask you about from the 
Post. There is a quote from the New York Times on March 8 that 
said that North Korean jets `` `were trying to force the U.S. 
aircraft to land in North Korea and seize its crew,' according 
to a senior Defense official.''
    Admiral, would you first comment on those two quotes?
    Admiral Fargo. Yes, sir. Senator, as you would imagine, we 
have gone back and done a pretty thorough analysis of the 
intercept, including the tapes and debriefing the pilots. It is 
clear that the North Korean acquisition radar has a couple of 
different modes. I would not characterize this as lock-on. The 
radar was in its acquisition mode, but had not shifted to its 
fire control mode. So I think that is the answer to the first 
question.
    The second question: We do not know exactly what the North 
Koreans were trying to do. I have looked at the videotapes 
myself. They may very well have been signaling for the plane to 
go down.
    Chairman Warner. Excuse me. Those were hand signals vice 
electronic?
    Admiral Fargo. Those were hand signals, and there were no 
voice coms with the plane.
    Chairman Warner. I think that should be made clear.
    Admiral Fargo. Yes, sir.
    Senator Levin. In your judgment did the North Korean jet or 
jets try to force the aircraft to land in North Korea?
    Admiral Fargo. In my judgment, this was a provocation on 
their part. I cannot come to a conclusion that they were trying 
to force the aircraft down. They may have been trying to 
indicate to them to leave their air space or they could have 
been trying to signal the aircraft to follow and go down. But I 
do not think you can make a judgment based on what I have seen.
    Senator Levin. Now, the word that was used apparently 
yesterday in terms of resumption of our flights, which I very 
much support, is that they would be ``resumed with 
circumspection.'' Can you give us a little more detail about 
that? Or would you want to just leave it where you have 
testified this morning?
    Admiral Fargo. I think the comments that I made to the 
chairman's question about taking prudent measures here is 
consistent with the term ``circumspection.''
    Senator Levin. ``Prudent measures,'' does that imply to 
protect our plane if necessary?
    Admiral Fargo. That implies the full range of things that 
we can do in terms of making sure we have the right 
intelligence, situational awareness, warning, and procedures in 
place to ensure that the plane can fly this mission safely.
    Senator Levin. There has been some discussion about how we 
proceed with North Korea in terms of whether there should be 
direct discussions at a high level between us and the North 
Koreans. What has been stated frequently is that we prefer to 
proceed multilaterally with the other nations in the region, 
which obviously makes sense. We want to consult with them and 
to work with them in terms of how to respond to what is 
obviously a crisis. Now, some people do not want to describe 
this as a crisis, but, listening to your testimony and an awful 
lot of testimony and reports prior to your testimony, it is 
obvious we have a crisis on the Korean Peninsula.
    But putting that aside just for a minute, this is my 
question. What the regional nations are telling us, every one, 
after we consult with them multilaterally, is that we ought to 
have direct talks with North Korea. That is one of the things 
that they are advising us to do, talk to North Korea directly. 
Is there any military reason that we should not have direct 
talks with North Korea? First, Admiral?
    Admiral Fargo. Well, I think that the clear views that I 
get from talking to our regional partners here is they want to 
be part of any process with respect to North Korea. Certainly 
that is true of the Japanese and the Republic of Korea, and 
they want to be consulted and involved and their voice needs to 
be heard in this because they have huge equity here.
    So I think that is the way that we have to proceed.
    Senator Levin. Is there any military reason from our 
perspective, if our friends and other nations in the area are 
urging us to have these direct talks, is there any military 
reason from our perspective that we should not do so?
    Admiral Fargo. Senator, I do not know how to answer that 
question.
    Senator Levin. Have you been consulted on this question?
    Admiral Fargo. I have been. What I am trying to do, with 
respect to my responsibilities, is to do the kinds of things 
with the Japanese and Koreans that build their confidence in a 
solution to the problem, to make sure that we have the right 
deterrent posture in place and the right warning for any future 
event. That is fundamentally my responsibility here in this 
issue.
    Senator Levin. Do you want to add anything, General?
    General LaPorte. Senator, I would just reinforce what 
Admiral Fargo said. This is an issue that has international 
implications, international concerns, violations of an 
international treaty. I could not best advise on the best way 
of going about these negotiations. I think I would have to 
leave it to the experts, leave it to the Secretary of State to 
make those determinations.
    Senator Levin. Thank you, Mr. Chairman.
    Chairman Warner. If the committee would indulge the chair, 
this incident brings us to the question of the historic 
problems that we as a Nation have encountered, 25, 30 years ago 
with the Soviet Union. We had very close calls in the air and 
on the sea, and we entered into the Incidents at Sea Executive 
Agreement.
    Senator Levin. Which, if I can interrupt our chairman, our 
chairman was the person who represented our Nation at the 
signing of that treaty.
    Chairman Warner. I thank my colleague, yes. It has worked, 
if I may say with a sense of humility. It has worked very well.
    So it comes to mind that, while we may not want to try a 
framework with North Korea at this time, at least we ought to 
try and take the precaution to establish, either directly or 
through intermediaries, a system of communication between 
aircraft such as to avoid an unintended consequence. So I leave 
it at that.
    My understanding, there is a channel that that North Korean 
plane could have come up on to communicate with our aircraft; 
is that correct?
    Admiral Fargo. Mr. Chairman, I will have to take that for 
the record and get back to you, because I do not have it. I do 
not know the answer to that question.
    [The information referred to follows:]

    There is no installed capability that enables direct communication 
with the DPRK aircraft other than UHF/UHF Guard. Electronic voice 
communications were not established between aircraft.

    Chairman Warner. Well, I would suggest that we look into 
that, because relations between these two nations are very 
strained at the moment and a precipitate act by a military 
officer, intentionally or unintended, could exacerbate these 
situations. Thank you for the indulgence.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    The plane that made the intercept was a MiG-29, is that 
correct?
    Admiral Fargo. That is correct, sir.
    Senator Inhofe. The MiG-29 is a very advanced aircraft, in 
some ways better than our aging F-15s and F-16s. I know that 
you folks are not Air Force, but I also know that is in your 
command.
    I was very proud, about 5 years ago in the previous 
administration, when General Jumper in a different position 
made the statement of his concern over such aircraft as the 
MiG-29, the Su-27, the Su-30, some of the Russian vehicles, 
that are better than our aircraft in some ways. There is no 
sense in getting into which ways they are, but they are.
    We all know that our pilots are better, our troops are 
better, but we do have these deficiencies. As far as that is 
concerned, I would just like to hear a comment on the 
capabilities of the North Korean Air Force and our assets, how 
they compare with each other, not the pilots but the equipment.
    General LaPorte. Senator, I could give you a very detailed 
answer in a closed session.
    Senator Inhofe. Okay.
    Chairman Warner. It is the intention of the chair to 
provide a closed session following this open session.
    Senator Inhofe. Well, that is fine. Something that does not 
require a closed session is a recognition of some of those 
problems. The Army, as you well know, also has some 
deficiencies. One of the problems we had in Operation Anaconda 
is we did not have the capability of really having a 
sophisticated artillery response. Close air support is good for 
the ground troops when it is working and when you do not have 
weather problems or you are able to get up there.
    I have been concerned for quite some time that in the case 
of artillery there are some four countries, including South 
Africa, that make a better artillery unit than we have.
    Admiral Fargo, I have not heard of anything that would be 
comparable to that in the Navy. Is there a deficiency in the 
Navy where our modernization programs have not really kept up 
with some of the potential adversaries that we have?
    Admiral Fargo. Well, as I mentioned in my opening 
statement, I think the thing I am most concerned about in my 
area of responsibility is missile defense. I am concerned about 
the proliferation of short-range ballistic missiles and medium-
range ballistic missiles and our ability to deal with that 
right now. We have programs that are coming along, but we have 
not fielded those yet and they are certainly key in my judgment 
to being able to protect our military forces both ashore and at 
sea.
    Senator Inhofe. I only bring this up because I just think 
in all these hearings we need to recognize that we do have 
deficiencies. We need to get on with the F-22, we need to get 
on with a non-line-of-sight (NLOS) cannon that can be fielded 
and can be competitive with potential adversaries.
    General LaPorte, today in the New York Times you said that 
there are no signs that North Korea was preparing for war, but 
you also said, ``They have studied our military actions most 
recently in the Balkans and Afghanistan and have adapted their 
tactics to offset our technological advances.''
    Could you elaborate a little bit on that comment?
    General LaPorte. I am not certain I made that quote, but I 
will answer your question.
    Senator Inhofe. Oh, then you were misquoted. I am not 
saying this critically, by the way. I was very much concerned 
when I saw that.
    General LaPorte. North Korea has for the past 10-12 years 
adapted based on what they perceive as the strengths of the 
United States military. They have adapted in several ways. 
First, in terms of communications, they have developed an 
indigenous frequency-hopping radio that allows them to 
communicate in a secure mode. They have gone to a great deal of 
fiber optics in terms of their communications between fixed 
facilities.
    In an attempt to protect their forces from our surveillance 
and air capabilities, they have gone to a tremendous number of 
underground facilities throughout North Korea to protect 
leadership and critical forces. Those are examples of the way 
North Korea is adapting to what they perceive as the 
capabilities of the United States.
    Senator Inhofe. Thank you very much.
    Finally, let me ask Admiral Fargo this question. There was 
a severe case of righteous indignation that set into the North 
Korean press when the U.S.S. Carl Vinson was holding its 
exercise. They were talking about, that the exercise at its 
height made the situation so tense that a nuclear war may break 
out at any moment.
    Isn't this exercise that they refer to by the U.S.S. Carl 
Vinson the same exercise that we do on a regular basis 
virtually every year?
    Admiral Fargo. Yes, Senator, that is exactly right. We do 
an annual exercise on the Peninsula and in the surrounding 
waters and we try to commit a carrier battle group to that 
exercise every year.
    General LaPorte. I would add to that, Senator Warner, this 
exercise had been planned for over 5 years. We plan them 5 
years in advance. It was planned for this time. It is a 
nonprovocative exercise. It is focused on the reception of 
forces into the Peninsula and integrating them in. So I think 
their claims are really not accurate.
    Senator Inhofe. I appreciate that. My time has expired, but 
I think we needed to say that, because a lot of people read 
that and think that this is a provocative act, which it is not.
    Thank you very much, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to welcome our panel this morning and commend you 
and all of our troops. I want to tell you that we are very 
proud of what you are doing.
    General LaPorte, your statement discusses periodic tension 
in the Republic of Korea and the United States alliance. You 
refer to the generation of South Koreans who have lived in an 
era of peace and prosperity, who have little or no 
understanding of the North Korean threat. From your vantage 
point, do you believe there has been a diminishment of support 
for American troops in the South?
    General LaPorte. Senator, I have been asked quite often 
recently, do we have a crisis in South Korea? My response has 
been adamantly no, we do not. We would have a crisis if South 
Korea was unable to hold democratic elections like they just 
did. We would have a crisis if the civilian authorities did not 
control the military. We would have a crisis if people were not 
allowed to gather and to speak their mind. We would have a 
crisis if people were unable to worship freely.
    That is not the case in South Korea. We have a maturing 
democracy and what we have is a democracy that is dealing with 
the challenges of a democratic society.
    I will tell you that most of the Korean people truly 
support the United States Forces Korea. Last weekend there was 
a rally. Over 70,000 Koreans came out waving American flags. 
They unfurled a massive flag, a massive Korean flag, a massive 
United Nations flag.
    Senator Inhofe. Where was that, General?
    General LaPorte. In South Korea, in the capital, in Seoul. 
They were demonstrating their support.
    But the fact still remains, due to the combined efforts of 
the Republic of Korea military and the United States military, 
we have been very successful in our deterrent mission for 50 
years and we have provided a peaceful environment that has 
allowed great prosperity. So many of the younger generation, 45 
years and younger, have lived in that prosperity in the era of 
peace. So they do not have a true, full appreciation of the 
threat that the North Korean military presents. We need to work 
on that and we will.
    Senator Akaka. Thank you for that response.
    General, Senator Warner mentioned Assistant Secretary of 
State James Kelly's testimony before the Senate Foreign 
Relations Committee yesterday that North Korea could produce 
significant plutonium within 6 months, but that the HEU, highly 
enriched uranium, alternate capability is not so far behind. 
Mr. Kelly also followed up saying that the HEU program, 
``contrary to conventional wisdom, is not a problem for down 
the road, but a real threat in a matter of months.''
    I would like to have a clarifying assessment of this.
    General LaPorte. Well, I agree with Secretary Kelly in 
terms of the plutonium. If the North Koreans were to open the 
reprocessing plant in Yongbyon and start reprocessing the spent 
fuel rods, it would be a short period of time in which they 
would be able to leach out the weapons-grade plutonium and have 
enough to produce nuclear weapons.
    In terms of the highly enriched uranium source, I would 
like to address that in a closed session for you.
    Senator Akaka. General, according to an unclassified 
summary released in November 2002 by the CIA, the CIA said, 
``We recently learned that the North is constructing a plant 
that could produce enough weapons-grade uranium for two or more 
nuclear weapons per year when fully operational, which could be 
as soon as mid-decade.''
    Do you see the HEU program becoming in a matter of months a 
serious threat?
    General LaPorte. I think the HEU program is a serious 
threat. In terms of the timing and when they would be to a 
point where they could process the uranium, it is still in 
question. We know for certain that they have been involved in 
gathering the technologies and the equipment necessary to use 
this method of producing highly enriched uranium, and we can 
talk in a closed session in terms of the timing of it.
    Senator Akaka. Admiral Fargo, I have been very concerned, 
and we have spoken about this, about the homeland security of 
the State of Hawaii and the territories of the Pacific. I have 
continuously asked about the coordination not only between the 
Department of Defense and the Department of Homeland Security, 
but also between Northern Command and Pacific Command. What 
kind of coordination is occurring to ensure that Hawaii's 
homeland security needs are not forgotten as Federal policies 
develop involving the other 49 States?
    Admiral Fargo. Senator, I think the coordination between 
Northern Command and Pacific Command is excellent. In fact, 
General Eberhart was at my headquarters within the last 7 days. 
We have talked through these issues with his command. We are 
also proceeding on planning that is very closely aligned. In 
Hawaii and the other areas within the Pacific we built the 
Joint Rear Area Coordination Group that was designed 
specifically to provide the kind of intelligence and crisis 
response and help to first responders that was necessary to 
ensure that we had a strong partnership with the State and the 
local government.
    We are going to transition that to what I will call Joint 
Task Force (JTF) Pacific, which will provide once again a 
capability to ensure that the coordination is absolutely 
strong. This is essentially the same procedure that is being 
done in NORTHCOM. But our relationships with organizations like 
the Joint Terrorist Task Force in Hawaii are very strong. Our 
relationships with the Governor and the Mayor's offices to make 
sure that they have this information readily are also solid.
    So I am very comfortable that we have the procedures in 
place now and have a good plan for the future to support our 
homeland defense responsibilities and our homeland security 
responsibilities.
    Senator Akaka. Thank you very much, Admiral.
    Mr. Chairman, my time has expired. Thank you.
    Chairman Warner. Thank you, Senator.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman. I have a prepared 
statement I would like to insert in the record at this point.
    Chairman Warner. Without objection.
    [The prepared statement of Senator Roberts follows:]
               Prepared Statement by Senator Pat Roberts
    Thank you Mr. Chairman. I am glad to have Pacific Command, Southern 
Command, and U.S. Forces Korea represented here today. Gentlemen, I 
commend you and the men and women who serve under your command.
    Undoubtably, this hearing will touch on various aspects of the 
current worldwide threat situation and the appropriate U.S. response. 
Along those lines, I want to express for the record what I see as 
President Bush's national security strategy and where the current 
government of Saddam Hussein fits in.
    I realize Central Command is not appearing today but we keep going 
around and around on this subject here in Congress, sometimes losing 
sight of what we do here in Washington is all about.
President's Strategy
    The President's national security strategy is simple: prevent a 
nuclear, chemical, or biological weapon from ever being detonated in 
the United States. That's it. It's not about oil, old scores, or even 
fostering political revolution as certain "intellectuals" believe. It's 
about preventing hundreds of thousands of Americans from dying in an 
instant.
    Toward that end, this administration has, quite logically, sought 
to prevent the acquisition of weapons of mass destruction (WMD) 
capability--be it large scale passenger-carrying aircraft, nerve 
agents, anthrax, highly enriched uranium, etc.--by the new apocalyptic 
terror groups we all saw in action on the morning of September 11, 
2001.
    We know in such groups ``the will'' is there so it's largely a 
question, at least in the short term, of preventing the means, ``the 
way,'' for suicide terrorists to destroy our cities and kill our 
people. A good start, naturally, is to take a hard look at regimes 
that, for whatever reason, support terrorism in general, hate the 
United States, and possess--or seek to possess--WMD.
    That's what the axis of evil is all about: Iran, Iraq, and, yes, 
North Korea. In particular, we have no choice but to deal right now 
with those axis of evil regimes with links to the new apocalyptic 
terror groups.
    Which government fits the bill at this moment? The government of 
Saddam Hussein. With which terror groups is he associated? Those lead 
by Mr. Poison Center himself, Abu Masab al-Zarqawi.
    This is not debatable. Understanding this situation is not a matter 
of political persuasion. It's established fact and since no member of 
the United Nations, except perhaps Great Britain, faces the specific 
threat the U.S. faces, we should not be surprised the Security Council 
does not support the destruction of Saddam's regime. Why should they?
    None of their cities and landmarks are on the top of al Qaeda's hit 
list. They didn't lose 3,100 people and their two tallest buildings in 
90 minutes. They do not face the same threat. They do not experience 
the same fear. Of course, invite them along, but, if they refuse to 
join the effort, then move on for goodness sake. In this day and age, 
on these issues, with the emerging nexus between suicide terror groups 
and weapons of mass destruction, it is the height of irresponsibility 
to make fundamental policy decisions based on what Paris, Bonn, Moscow, 
or Brussels thinks.
    That is taking multilateralism to an absurd extreme. It is leaving 
the safety of our people to governments who have no responsibility nor 
incentive for protecting them.
Prioritizing Threats
    I hope we do not spend too much time today arguing again about who 
constitutes the greatest threat to us right this second. Is it Saddam 
Hussein, Kim Jong Il, Supreme Leader Ali Khamenei in Iran, or Osama bin 
Laden? They are all major threats, challenges to U.S. security here at 
home that get worse with time if not acted upon.
    They all represent unique geopolitical circumstances demanding 
tailored solutions. Indeed, they all demand action now but different 
kinds of action. Just because the military instrument of power is the 
choice for responding to bin Laden and may become the choice for 
responding to Iraq, it by no means suggests force is appropriate right 
now for North Korea or ever in the case of Iran.
    It's not that simple and we ought not to mistake complexities in 
the threat picture for contradictions in policy. For example, North 
Korea, as dangerous and unstable as it is, has not invaded its neighbor 
to the south since 1953. 
    We cannot say the same for Saddam who invaded Kuwait in 1990 with 
what looked at the time like intentions for Saudi Arabia as well. Not 
to mention the fact that, as I noted earlier, to my knowledge North 
Korea is not currently harboring senior members of a terror network 
lead by a close associate of Osama bin Laden.
Iraq's Last Chance
    But this is really beside the point. In passing H.J. Res. 114, 
Congress specifically authorized the President to ``use the Armed 
Forces of the United States in order to--(1) defend the national 
security of the United States against the continuing threat posed by 
Iraq; and (2) enforce all relevant United Nations Security Council 
resolutions regarding Iraq.'' Colleagues, that resolution passed the 
Senate 77 to 23 on October 11, 2002.
    This action was, of course, in addition to the Iraq Liberation Act, 
which Congress passed and President Clinton signed into law October 31, 
1998. That Act clearly states the U.S. should foster regime change in 
Iraq.
    Lastly, on November 8, 2002, the U.N. Security Council passed 
Resolution 1441 which gave Iraq one last opportunity to comply with its 
disarmament obligations.
    Now, months later, the Director of Central Intelligence (DCI) has 
told us unequivocally that ``Iraq has in place an active effort to 
deceive the U.N. inspectors and deny them access. This effort is 
directed by the highest levels of the Iraqi regime. Baghdad has given 
clear directions to its operational forces to hide banned materials in 
their possession.''
    Further, the DCI stated ``Iraq's biological weapons program 
includes mobile research and production facilities that will be 
difficult, it not impossible, for the inspectors to find. Baghdad began 
this program in the mid-1990s--during a time when inspectors were in 
the country.''
    Even the latest U.N. assessments directed by Dr. Blix indicate 
Saddam Hussein is still not complying. Colleagues, let us be candid. No 
amount of U-2 surveillance flights nor increase in the number of 
inspectors will solve this problem, at the very least with respect to 
biological weapons. Let's be honest. The U.S. Government has bent over 
backwards to manage the threat from Saddam Hussein without further 
military action.

    Senator Roberts. I want to go back to the suggestion that 
some have made in regards to direct negotiations with North 
Korea and Kim Jong Il. It is my understanding--in the 
Intelligence Committee we have had numerous briefings. 
Basically, the Director of Central Intelligence (DCI) has 
indicated that Kim Jong Il's attempts this past year, ``to 
parlay the North's nuclear weapons program into a political 
leverage suggests he is trying to negotiate a fundamentally 
different relationship with Washington, one that implicitly 
tolerates the nuclear weapons program.''
    I guess my question is, why take the bait? It seems to me 
that they have stated their basic purpose of any direct 
negotiations would be a nonaggression pact. To enter into those 
negotiations at this point without our neighbors in that same 
neighborhood seems to me to be pointless. They continue to 
provoke and proliferate. I think the estimate in 5 years is 
that they could have numbers in double digits in regards to 
missiles and warheads that they would sell, maybe worth a 
billion and a half or 2 billion dollars, they would have to 
proliferate to receive any income; and that country is a basket 
case.
    Their behavior in regards to what General LaPorte has 
already indicated in regards to crime, drugs, and kidnappings, 
etc., is deplorable. They are a theocracy. I have been to 
Pyongyang. I was part of the first official delegation allowed 
in, not really to negotiate, but at least to have some 
dialogue. That was 4 years ago. So we tried some direct 
dialogue, not negotiations, and we were trying to arrange a 
third-party grain sale to address the famine, which was even 
more severe say 4 or 5 years ago. What we got back was rhetoric 
and a very surreal experience.
    Let me give you a plausible intelligence scenario, both for 
Admiral Fargo and General LaPorte, in regards to Kim Jong Il 
and what he has in his mind in terms of the future. I think my 
suggestion would be or my surmising of the intelligence that is 
provided is that he views the countries of the world in two 
categories, (1) those that have capability in regards to 
nuclear weaponry, and (2) those that do not; and then he 
separates again where the United States and the international 
community will permit that, i.e., India, Pakistan, and other 
countries, and he wants to be the Musharraf, if I could use 
that as a very poor I guess analogy, and to basically have the 
U.S. accept his position in regards to being a producer of 
nuclear weaponry. That basically is his goal and he is going to 
continue the production and he is going to continue testing and 
he is going to continue launching until he gets into that 
category. It seems to me that is what his goal is.
    If that is the case, why on earth would we want to take the 
bait and go into direct negotiations when in fact this is a big 
international challenge? Would you have any comment other than 
to say yes, you agree with me?
    General LaPorte. Senator, there is no question in my mind 
that Kim Jong Il is in charge and he is making the decisions, 
and his main goal is regime survival. His most pressing concern 
is his failed economy. North Korean provocations and nuclear 
brinkmanship are aimed at gaining security guarantees and 
economic assistance to ensure that that regime remains in 
place.
    Senator Roberts. Admiral Fargo?
    Admiral Fargo. Senator, the only thing I would add to that 
is it is pretty clear that he is not complying with his current 
agreements.
    Senator Roberts. Let me ask something that occurred to me 
when I was there again on a second Congressional Delegation 
(CODEL). 116,000 Americans in regards to South Korea, 37,000 
members of the Warrior Division, 20 minutes from what I would 
describe as possible Armageddon with the capability that North 
Korea has. Why keep our families there with the current 
situation? I have never understood why that has to be? I know 
the quality of life means a great deal, but 37,000 of the 
Warrior Division have certain circumstances, others who are 
stationed there, and a great many more Americans. I do not 
think we want to signal that we want to withdraw by any means 
in terms of weakness or send any signals like that down the 
road in regard to our resolve. But it has always bothered me 
from that standpoint.
    Would you address that, General LaPorte?
    General LaPorte. Yes, Senator, I will. We have 
approximately 5,000 family members on the Peninsula. We have 
37,000 service members on the Peninsula. Let me address it from 
the standpoint of desires to serve in Korea from a service 
member's perspective. There are three aspects of service in 
Korea that we work very hard. First is and foremost is the 
family separation. 67 percent of U.S. service members are 
married, and they are put under a lot of stress and strain in 
terms of family separation. Right now if you serve in overseas 
positions you are not guaranteed you are going to remain there. 
You may be deployed so you are away from home many times.
    Only 7 percent of my 37,000 have family members 
accompanying them. It is an important aspect of having an 
accompanied tour in Korea. Up north where the Second Infantry 
Division is, there are almost no family members. There are 
some, but very few.
    We need to look at a balanced approach in terms of our 
positioning of the U.S. forces in Korea and having a reasonable 
rate of accompanied families associated with it. We have 
procedures in terms of notification of what we call 
noncombatants and we have procedures if the need arises to move 
them and evacuate them. But that is a big issue for service 
members in terms of being with their families, something that 
is a very difficult challenge where there is a real threat.
    We had a similar threat in Europe for a period of time, and 
I think we have to put some thoughtful work into it.
    Senator Roberts. If he pulls the trigger you have about 20 
minutes. I do not know what evacuation plan is going to be 
successful under those circumstances. I am not trying to pick 
an argument with you. It is just something that I have been 
concerned about for several years and I know you are as well.
    Thank you, Mr. Chairman. My time has expired.
    Chairman Warner. Thank you, Senator Roberts.
    I think at this point in the record you ought to expand on 
this important inquiry by our colleague, because in the private 
consultations that you and I have had you alluded to your 
thinking something should be done, but you are doing it right 
now, together with the Secretary of Defense, looking at the 
entire force structure, the disposition of that force structure 
on the Peninsula, and the numbers involved. Am I correct in 
that?
    General LaPorte. That is correct, Mr. Chairman. In December 
we had a security consultative meeting in Washington. The 
Minister of National Defense from Korea and the Secretary of 
Defense agreed to conducting a Future of the Alliance study 
initiative with the new South Korean administration once it 
came into office.
    On the 26th of February, Department of Defense policy 
personnel came and we initiated discussions with the South 
Korean Government associated with roles, missions, force 
structure, and basing of forces. We think this is a very 
healthy process to do. October is the 50th anniversary, so why 
not reexamine and reaffirm our commitment to the alliance, but 
it may not have to look exactly as it has looked like for 50 
years.
    Chairman Warner. Thank you, General. Thank you, Senator 
Roberts, for raising it.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    Gentlemen, let me begin by thanking you for your service to 
our country. We are all very grateful to you. I hope you will 
express that gratitude to the men and women who serve under 
your commands.
    General Hill, I am going to try to get to you eventually, 
but I do have a couple of questions about Korea first. I do not 
want you to be insulted feeling like you have been left out of 
everything today.
    General Hill. That is all right, sir.
    Senator Bayh. I am interested in a couple of the issues 
that you deal with.
    But first a couple of things about Korea. To Admiral Fargo 
and General LaPorte. This situation, the nuclear tensions in 
the Korean Peninsula, may not be resolvable through a dialogue, 
but they are certainly not resolvable peacefully if we do not 
try under some set of circumstances. Having said that, I think 
we need to keep all the options on the table in case whatever 
dialogue develops fails, either because the North Koreans have 
made a strategic decision they are just going to go down the 
road of increasing their nuclear capabilities or because there 
is nothing that we can offer them that will convince them to 
desist in that path or, even if there is something we can offer 
them, perhaps we conclude that we cannot verify that they will 
abide by any agreement we might reach.
    For whatever set of circumstances might exist, the 
President needs to have all the options available to him, as do 
we. If we chose to try and remove the reprocessing facility and 
the small reactor that they have, the launch sites for the 
longer missiles that they have developed, do we have the 
capability of doing that?
    Admiral Fargo. Senator, we have a wide range of 
capabilities and great capability in terms of precision-guided 
munitions. I am not going to go into the specifics of any 
particular potential targets or the hypothetical. I am 
obviously very confident with the capability that we have at 
hand today.
    Senator Bayh. I appreciate the need for some vagueness in 
your answer, Admiral. I will not press you further on that.
    The reason I ask the question is if you do not have that 
capability then obviously that takes one option off the table 
and forces you in a different direction, even if you do not 
have great confidence at the end of the day it is going to 
achieve the security of the country that you are trying to 
achieve.
    If we were to pursue such an option, what do you 
anticipate? Obviously, we have to try and game these things 
out. What is the likely response that the North Koreans would 
present us with?
    Admiral Fargo. Senator, these are things that we have given 
a lot of thought to and I would really like to deal with these 
in a classified session if we could, please.
    Senator Bayh. I will respect that, Admiral. Perhaps you 
will feel the same way about my next question. It is along the 
same lines. The North Koreans obviously have missiles that are 
capable of hitting Japan. We suspect that they may have one or 
two nuclear warheads. Do we know that they can fit those 
warheads to those missiles? Would Japan be at risk of a nuclear 
strike if hostilities were to break out?
    Admiral Fargo. Senator, I am not trying to duck these, but 
these all have great intelligence-related components to the 
answers. So if I could, we could deal with it in another 
session.
    Senator Bayh. My curiosity unfortunately leads me into 
areas that we cannot discuss in this forum.
    Maybe a couple of things we can discuss. I would like to 
follow up on Senator Roberts' questions and the chairman's 
questions. I do hope that we are giving serious thought to 
repositioning our forces on the demilitarized zone (DMZ). It 
seems to me one of their likely responses--if they are 
interested in continuing to drive a wedge between us and our 
South Korean allies, they would launch a large barrage on 
Seoul. That would perhaps backfire in terms of public 
relations. They are more likely to try and attack our troops 
along the DMZ. It seems to me that the troops are really 
sitting ducks there. I hope we give some serious consideration 
to at least repositioning them somewhere out of artillery 
range. I will just make that comment. I think the General 
already indicated that we are giving serious thought to that.
    Maybe you can answer this on the record. If the North 
Koreans were to declare themselves a nuclear power or at some 
point in the next year or so were actually to test a nuclear 
device, what do you think the reaction of the South Korean 
military authorities would be to that? You have discussed, both 
of you, the change in public opinion in the South. What effect 
would that have on public opinion in the South, if any? Or if 
you cannot discuss public opinion, at least the South Korean 
military authorities?
    General LaPorte. I am confident, working with the South 
Korean military on a day-to-day basis, that the South Korean 
military would follow explicitly the guidance given to them by 
the civilian leaders.
    Senator Bayh. They seem to be--I do not want to say denial, 
but they are certainly downplaying the potential threat from 
the North. I was wondering if this might convince them to take 
the threat a little more seriously at this point.
    General, let me ask about Colombia, hopefully with a little 
more luck here.
    General Hill. Yes, sir.
    Senator Bayh. The violence seems to be escalating. The 
Revolutionary Armed Forces of Colombia (FARC) has obviously 
gotten some assistance from others in urban warfare techniques 
and so forth. I am told by at least some informed individuals 
that there really are not demands that the FARC has put on the 
table today that might give one much hope in terms of a 
negotiated settlement of this conflict any time soon.
    In your opinion is there a military solution to this 
problem?
    General Hill. Senator, I believe that I look at Colombia 
pre- and post-7 August, which is when the Uribe Government took 
over. They have energized both militarily and in all the other 
facets of governance--judicial, economic, and political 
reform--they have energized the Colombians to levels they have 
never reached before. I believe that they have in fact on the 
military side gained the momentum on the FARC and the National 
Liberation Army (ELN) and the United Self-Defense Forces of 
Colombia (AUC). I believe that they can maintain that momentum 
if they continue to see it through and I believe they will, and 
that we continue to support them in that effort.
    They will never in my opinion totally eradicate those 
organizations. They will not eradicate them because they have 
morphed from purely ideological entities into narcoterrorists 
and they are now in the business of making drugs and in the 
drug trade. They will not want to give up their businesses.
    In my opinion, as they continue movement in all areas, not 
only military but the other areas of governance, the Government 
of Colombia can reclaim portions of Colombia that they have not 
been in in years, and they are in the process of doing that. 
They can stop the FARC, the ELN, and the AUC from operating 
with impunity throughout the countryside, and then they can 
maintain and restore the greater part of their democracy.
    Senator Bayh. Mr. Chairman, could I make two brief 
comments? My time has expired. They are very brief.
    Chairman Warner. I tell you what. We are going to have 
another round in which you can participate.
    Senator Bayh. General, I appreciate it. I take your answer 
to be that they are making progress, therefore making our 
support worthwhile, even though there is no final resolution to 
this process through military means only.
    General Hill. There will never be a pure military solution 
to the problem that is Colombia. They recognize that and we 
recognize that. But I remain cautiously optimistic.
    Chairman Warner. That is an important line of questions 
that you have proposed and I intend to do a follow-up.
    Now we have Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    My first question relates to Korea. As I understand it, we 
have somewhere between 30,000 and 40,000 troops stationed there 
right now. The South Korean military is maybe around a million 
or so. Those are round figures, I know. This is more of a 
philosophical question, and that is, in your estimation, what 
is the deterrence consideration that we provide in South Korea?
    It seems to me that we would be quite a deterrent to any 
aggression by North Korea and that it is important that we 
maintain a presence there, if nothing else, just for the 
deterrence factor there. Could I hear a response on that?
    General LaPorte. Senator, I think you are exactly right. We 
have been a tremendous deterrent for the past 50 years, but it 
has been a result of a combined forces deterrence, not a U.S. 
unilateral deterrence.
    I would just like to highlight, the South Korean military 
is a very capable military, over 640,000 strong on active duty. 
They are well-equipped, they are well-trained, and they are 
extremely well-led. They are motivated. They are good 
warfighters. We train with them on a daily basis. They have a 
very good army that has modern equipment. They have an air 
force with very talented and very well-trained pilots and good 
equipment. They are purchasing the F-15. Their navy is a very 
good navy and getting stronger every day. They have one of the 
finest marine corps in the world.
    So I have great confidence in the South Korean military and 
they play a predominant role and it will be an increasing, 
significantly more viable role in their national security 
posture.
    Senator Pryor. This is a follow-up to Senator Roberts' 
question a moment ago. I know that he was not implying this or 
would not even ever say this because he does not believe this, 
but I have heard some say that we should just withdraw from the 
South Korean Peninsula altogether and always be ready to 
respond, but not have any presence there. I personally think 
that is a mistake, and I would like to hear your thoughts on 
that.
    General LaPorte. I began in my conversation saying that 
what happens in Korea has an impact throughout the world and I 
truly believe that. Thirty percent of the gross domestic 
product of the world is produced in the Northeast Asia region. 
You have four of the largest six militaries in the world there. 
For the reasons of stability and peace, I think it is very 
important that the United States has presence on the Peninsula 
and that that presence is linked with forces in other regional 
neighbors and allies throughout the Pacific.
    Senator Pryor. If I can change gears and go to Colombia 
here for just a few moments. I will be glad to sit down and 
meet with you in private about this. I do not want to say I 
have a concern, but I want to make sure that you and your 
forces are receiving the right kind of training, right kind of 
equipment, and the right kind of people there to fulfill your 
mission.
    I know it is very difficult, under very difficult 
circumstances. It is a different kind of mission. It is a very 
unique mission in a lot of ways. I just want you to know that I 
would be glad to sit down any time and talk about what you 
think your special needs may be to accomplish the goal there.
    General Hill. I appreciate that, Senator, and I will set up 
a time to come in and do that.
    Senator Pryor. Thank you.
    General Hill. Thank you, sir.
    Senator Pryor. That is all, Mr. Chairman.
    Chairman Warner. Thank you very much.
    General Hill, I would like to follow on that line of 
questions by our colleague. We now have caps on the number of 
persons and so forth. I presume you are in consultation with 
the Secretary of Defense and others on that issue. Do you have 
a view, your professional view, that you would like to share 
with the committee regarding those caps and your ability to 
carry out the mission to which you have been assigned?
    General Hill. Yes, sir. I believe at the present time, 
given the mission that we are doing, we can operate within that 
cap. I would not say that down the road you might want to 
relook that issue, but at the present time I stay within the 
cap and we can accomplish our mission within the cap.
    As you are aware, we have gone slightly over the 400 number 
in personnel during the last 30 days in our search for the 
Americans. But the law allowed for that and we made the proper 
notifications.
    Chairman Warner. I would hope that the adversaries would 
not misinterpret the intention of this country to be supportive 
to stamp that out by virtue of this cap situation. Do you find 
that they can utilize that cap to their advantage by telling 
those who support them, you see that the United States is not 
serious about this?
    General Hill. No, sir. I think that they understand that 
the United States is serious about this.
    Chairman Warner. All right, you have answered the question.
    General Hill. May I add one other point to that?
    Chairman Warner. Sure.
    General Hill. Going back to Senator Bayh's earlier 
question, as you look at the escalating violence--his term--I 
believe that what is going on in the last couple of months in 
Colombia is an indicator that the Colombian efforts supported 
by the United States is working, is a successful program, and 
that is why you are seeing this change in the way that 
especially the FARC are operating.
    Chairman Warner. Well, let us just go right from that 
observation, which is a very important one you have made. Do 
those perpetrators of harm and deceit and production of drugs 
and dissemination of same now figure that the intensity of our 
effort in Colombia requires them to go to other countries and 
begin to establish a stronger base of operation there? What 
should we do to address that?
    General Hill. Yes, sir. The FARC and the ELN, all three of 
the narcoterrorist groups that operate in Colombia, operate in 
varying degrees on the other side of the borders of the 
neighboring countries, in all of them. As I have traveled 
through the region and from the very beginning of my first 
trip, I have talked to both the political and the military 
leadership and said: ``As we continue to win the battle in 
Colombia, you are going to have to work your side of the 
border, and you need to, with greater coordination with the 
Colombians, do that.'' I have offered up SOUTHCOM facilitating 
apparatuses to assist them.
    I believe that this is coming to fruition. Just yesterday 
the Colombians held a meeting in Bogota with government 
representatives from Panama, Venezuela, Brazil, Ecuador, and 
Peru. They met for a day and all agreed that they needed to 
establish greater cooperation along those borders. This is an 
important step and one we should not overlook.
    Chairman Warner. I think it is important that our record 
reflect that the committee is concerned about Venezuela and 
also your status report on Panama and particularly the 
functioning of the canal to serve the interests of the world.
    General Hill. Yes, sir. First on Panama, I was in Panama 2 
weeks ago. I toured the canal and I met with President Moscoso, 
the chief of the Panamanian police, the commissioner of the 
canal, and other important people inside Panama. We have worked 
with them and are continuing to work with them over the 
security of the canal. I believe the Panamanians are capable of 
defending the canal and supporting their role in it, and that 
the canal is operating very efficiently. I have heard of this 
both professionally and anecdotally from many people.
    Chairman Warner. Let us shift to Venezuela.
    General Hill. Yes, sir. Venezuela--during the first part of 
the major strike, I believe that what you saw in Venezuela was, 
for lack of a better term, democracy in action: people in the 
street with opposing views to the elected president. Following 
the strike, it seems to me that his actions might portend a 
move toward greater authoritarianism. In my mind that bears 
watching very carefully. I have directed my people to do that. 
I have not been in Venezuela. I have not been in contact with 
any senior level military of Venezuela, although we continue to 
have military-to-military relationships with Venezuela.
    I think it is also important to note that the work we have 
done, not only in Venezuela but throughout the region, has paid 
off in the professionalization of the militaries. The 
Venezuelan military did not go out into the street and kill its 
citizens, nor did they conduct a coup. I think that is an 
important aspect of what is going on there. But we are watching 
Venezuela carefully, sir.
    Chairman Warner. Thank you very much.
    Admiral Fargo, I think it is very important that you bring 
the committee up to date with respect to China and particularly 
our military-to-military relationships. They appear to be 
strengthening. Am I correct in that?
    Admiral Fargo. Mr. Chairman, I would agree. I just visited 
China in December, visited five cities in 5 days in three of 
the military regions, and had a very, I would term it, 
constructive and useful dialogue with primarily the military 
leadership, but to some degree some of the political leadership 
also.
    We have also started an exchange of port calls. Admiral 
Gaffney, who heads our National Defense University, is 
conducting educational exchanges with China. Of course they are 
a regular participant at the Asian Pacific Center for Security 
Studies.
    Chairman Warner. This is on a positive trend?
    Admiral Fargo. I think it is a positive vector, is the way 
I like to put it.
    Chairman Warner. I would like to shift to Taiwan, a very 
valuable relationship between our nations, that is the United 
States and the current government there. Bring us up to date on 
that. The tensions appear to be somewhat lessened at the 
moment.
    Admiral Fargo. I think that is a fair characterization. 
Certainly our relationship with Taiwan is governed very clearly 
by the Taiwan Relations Act. There is a great deal of economic 
connectivity right now between Taiwan and the People's Republic 
of China (PRC), and certainly I would term the level of tension 
right now in the Strait is relatively low.
    Chairman Warner. We have a government-to-government 
relationship and I think it is important. Thank you very much.
    Let us conclude my questions on India. India is in our AOR, 
but of course we would have to address the relationships with 
Pakistan, which is in CENTCOM. But you can address that status 
there.
    Admiral Fargo. Mr. Chairman, I certainly can. I used to 
command our naval forces in the Central Command and so I am 
very familiar with Pakistan. I have been there a number of 
times.
    Right now we are building a relationship with both India 
and Pakistan. We recognize this is not a zero sum game. We 
ought to be able to have a productive and constructive 
relationship with both countries. India, specifically, is 
helping in the global war on terrorism. They contributed a ship 
to conduct the Straits of Malacca patrol as part of the global 
war on terrorism. I have also been there recently and talked to 
their leadership. We think India is a natural partner, the 
largest democratic country in the world, and we are improving 
our relationship and expanding our military-to-military 
cooperation with India.
    Chairman Warner. I thank you.
    Senator Levin, I see two colleagues have joined us. Senator 
Ben Nelson, to then be followed by Senator Reed.
    Senator Ben Nelson. Thank you, Mr. Chairman. I apologize 
for being in and out. It is difficult to do several things at 
once around here, but sometimes you are required to do that.
    First of all, I want to thank all of you for being here. 
General Hill, it is good to have you back and this time 
testifying for Southern Command. I appreciate that very much. 
My first trip as a Senator was with two of my colleagues here 
to visit Colombia. I have followed as closely as possible what 
has been going on in the Andean region. I hope you will forgive 
me if I focus most of my time on Admiral Fargo and General 
LaPorte.
    Both of you lead commands that the entire world is watching 
right now and, although Iraq tends to garner greater attention 
at the moment, I truly believe that in many respects North 
Korea presents the more immediate and maybe in some respects 
the greater threat at the moment. Our military buildup in Iraq 
is required to keep that nation from becoming the next North 
Korea.
    But in our effort to deal with that one threat, it seems to 
me that we are missing an opportunity to address the other. I 
am speaking, of course, of the decision to engage North Korea 
only in multilateral talks. Unfortunately, our allies in the 
region do not seem to share that same enthusiasm for 
multilateral talks. China and Russia have also suggested that 
this is an issue for the United States. North Korea states that 
they will only meet us on a one-on-one basis.
    I would prefer multilateral talks, but I do not think we 
can wait for partners who do not seem to be coming to join us 
at the moment and who do not seem to be welcome at the table 
with respect to the North Korean position. I understand the 
argument that the administration has made that they do not want 
to reward bad behavior. Neither do I. But waiting to talk until 
North Korea has a larger nuclear--or has a nuclear arsenal and 
continues to be the greatest proliferator and the one-stop shop 
for rogue nations as well as potentially for every possible 
terrorist is not a very attractive alternative.
    I think we can act as though we have options, but I think 
our options are really basically two: We negotiate or we wait 
until there is a nuclear arsenal and then we are worried more 
about what is the military reaction to this if we are even able 
to have a diplomacy opportunity.
    I believe the best course of action--and I have offered 
this as a construct for negotiation--is to use what I have 
referred to as the simultaneous model of engagement, in which 
North Korea would agree to freeze its nuclear program in both 
cases and allow inspectors to confirm those actions, while the 
United States agrees to hold off any military action, not 
necessarily a nonaggression pact, but an agreement to withhold 
any military actions before and during negotiations, talks, and 
not to impose any kind of economic sanctions in that process as 
well.
    I appreciate so much a little over 2 weeks ago the fact 
that General LaPorte and other colleagues there, including the 
ambassador, gave us a fairly substantial briefing on the nature 
of the challenges that are there on the Peninsula. I do believe 
that a simultaneous model of negotiation can work, but it 
requires that we will agree to do it on a bilateral basis.
    I have followed the first steps toward bilateral 
discussions or at least that suggestion. Secretary Powell then 
said that his statement about that was the equivalent of 
leaning too far forward on his skis; apparently he was perhaps 
just a little bit ahead of himself. Secretary Armitage also had 
some reference to bilateral talks. I can understand that there 
can be differences of opinion in the administration.
    But my concern is, if we do not address the threat soon I 
fear we are going to come to regret it. In 50 years it will not 
be about whether we had bilateral or multilateral talks, but 
about whether we were able to work together to stop the nuclear 
threat at this point in our history.
    Admiral Fargo, the administration has really made it clear 
that they want multilateral talks. Obviously, North Korea said, 
no, they want it one-on-one. Fifty years from now, what do you 
believe will matter most, whether we have bilateral talks or 
that we were able to work together, hopefully, to resolve the 
nuclear issue?
    Admiral Fargo. Well, Senator, fundamentally I believe this 
is a multilateral issue. It is certainly a regional issue and 
all of our partners in the region have said that a nuclear-
capable North Korea is unacceptable to them. It is not only a 
regional issue; it is an international issue, and that is 
certainly why the International Atomic Energy Agency (IAEA) has 
taken this to the UN and the Security Council. That is my 
belief and I think that is the proper way to approach it.
    Senator Ben Nelson. Well, I understand. Now, the President 
in his news conference said it was regional. He did not say it 
was global. I am not going to suggest to you, in baseball 
parlance, that saying it is regional and global is trying to 
steal second and keep your foot on first. I am not going to 
suggest that.
    It is difficult to distinguish or to draw a line on what 
the distinction is. To go ahead and say it is regional, I do 
understand that. But it does have these global implications and 
I can understand the interest that some have in saying, let us 
get together with the North Koreans and let us start the talks. 
If we can expand them into multilateral discussions and 
multilateral solutions, we will deal with the regional issue 
very effectively. But we also will begin to deal with the 
global aspect of it because of the missile capacity of North 
Korea to potentially reach the west coast of the United States 
and other locations of a considerable distance.
    Maybe it sets you up for a question that is very difficult 
to answer, but it does seem to me that we have to pursue this 
aggressively now.
    My time is expired. I appreciate it. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Reed.
    Senator Reed. Mr. Chairman, I understand we are prepared to 
go into closed session now?
    Chairman Warner. My colleague has his second round 
opportunity. If you would like to take a brief one, we have 
time for yours and Senator Levin, then go to closed.
    Senator Roberts. Mr. Chairman----
    Chairman Warner. Senator Roberts also.
    Senator Roberts. I wanted to ask General Hill some 
questions.
    Chairman Warner. I think we will proceed then to complete 
our second round.
    Senator Reed. Mr. Chairman, at this time let me just say 
publicly how much respect and esteem I have for the gentlemen 
here and the job they are doing for the country, and then 
reserve my questions for the closed round.
    Chairman Warner. Well, you are a running mate of most of 
these generals, are you not, out of West Point?
    Senator Reed. Well, General LaPorte is from Rhode Island 
and I do not want to suggest that everyone from Rhode Island is 
5\1/2\ feet tall, but we are very proud of his contribution to 
the national defense.
    General LaPorte. Thank you very much.
    Senator Reed. Admiral Fargo apparently made a critical 
mistake in his youth and went to Annapolis, and General Hill is 
just a general. You have been a great general. So I have a 
great deal of respect and affection for----
    Chairman Warner. Your time has expired. [Laughter.]
    Senator Reed. Thank you.
    Chairman Warner. Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    In view of the Senator from Arkansas' remarks in regards to 
my position on a possible withdrawal from Korea, nothing could 
be farther from the truth. I would point out that in terms of 
war planning, on the first day of war we have one division, the 
Warrior Division, the South Koreans would have 28. The fourth 
day of war their Reserves would come on and they would have 44 
divisions, as I understand it.
    We also provide 50 percent of the air force capability, 80 
percent of the naval capability, and 100 percent of the command 
and control, and it is an integrated force. So there is no way 
that we should be even thinking about any kind of withdrawal 
for these combatants.
    Ten thousand members of the 37,000 who are combatants, of 
the Second Infantry Division, 10,000 in regards to the Air 
Force personnel, 15,000 in terms of headquarters and support, 
mostly in Seoul. But it is the 116,000 noncombatants that I am 
concerned about. I am concerned about combatants as well. Five 
thousand military dependents, and that was the key that I was 
really referring to; 5,000 to 10,000 other U.S. Government 
agencies and dependents; 100,000 businessmen, contractors, 
etc., mostly non-defense-related.
    Obviously, there is a long-range studying effort that you 
are going to do on this particular problem, but I wanted to 
make it very clear that I am not suggesting in any way any kind 
of withdrawal.
    General Hill, I was a fan of General Wilhelm when he was 
the Southern Command CINC and he pointed out to me at that 
particular time we had 31 nations involved with your command, 
30 of them were democracies. We have made so much progress 
since 1980, 360 million people, average age 14. In terms of the 
following issues: one, immigration, big-time issue for the 
United States; two, drugs; three, energy, more especially with 
Venezuela and the strike--we get 17 percent of our energy 
supply from Venezuela; where my wife is complaining that we are 
paying $2 a gallon in regards to gasoline--terrorism and 
trade--these issues affect our daily lives and pocketbooks.
    Yet, during the Balkans crisis we took away a lot of 
infrastructure from you, not from you personally but from the 
command, and have not put it back. Now we have the surge in 
regards to Iraq. My question to you is: Do you have the 
necessary funding and the infrastructure to do the job, with 
the thousands and thousands and thousands of miles in an area 
which we tend to ignore--not ignore; maybe benign, maybe not so 
benign, neglect. I am concerned about this because of the 
issues that I raise that directly affect the daily lives and 
pocketbooks of the American people.
    General Hill. Your points are well taken in terms of the 
importance of the region to the United States and I completely 
concur with that. If I needed one thing, I need greater 
intelligence support. But if I go back to the Joint Staff, all 
of us need greater intelligence support. That comes forward in 
my integrated priority list to the Department, and I understand 
priorities. They are sitting to my right at this point.
    Senator Roberts. Well, General, let me interrupt you, and I 
apologize for doing that. But I can introduce you to the 
chairman of the Intelligence Committee. I can promise you that 
you can get a full hearing from him, and if you want to come 
and visit the chairman of the Intelligence Committee we will be 
happy to take a hard look at that in your behalf, in 
conjunction, of course, with the chairman of the Armed Services 
Committee, who also serves on the Intelligence Committee.
    General Hill. Sir, it really comes down to a matter of 
prioritization. I have enough assets within my theater to do 
the missions that I have been allocated to do. I could always 
use more, as General LaPorte could use more and Admiral Fargo.
    Senator Roberts. I understand. I understand that.
    General Hill. That is the point I was making.
    Senator Roberts. Let me ask you a question in regards to 
Comandante Castro. Senator Akaka is no longer here, but he was 
with me in a trip to Cuba about, oh, a year and a half ago. The 
Comandante is 77 years old. I am concerned about post-Castro 
Cuba and I am concerned about trying to establish some tie of 
entrepreneurship, some tie so that democracy--I am not trying 
to get into the Cuban-American situation at all.
    It worries me that, with tourism down there and the growing 
drug problem there, that we could possibly make some progress 
if we entered into some kind of a joint understanding on 
narcotics control. That has been proposed before. It gets into 
the State Department and some ideological questions. I know it 
is controversial. Do you have any feeling about this?
    General Hill. Sir, Cuba along with many other countries in 
this region play in the drug trade. There is no doubt about 
that. If we could work out something where we could begin to 
get a handle on their part of the drug trade, it would be very 
useful.
    Senator Roberts. Let me point out, not that I do not have 
any illusions about Castro, but what his number one concern 
was, as I determined it to be during those meetings, those 
infamous 12- to 14-hour meetings where you do a lot more 
listening than talking, that he really was very much interested 
in that, because he is worried about his country and a drug 
cartel having undue influence in a post-Castro period.
    I would like to visit with you about that and perhaps we 
can bring that up in the closed session.
    General Hill. Yes, sir.
    Senator Roberts. I yield back my time, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    First, General LaPorte, there have been a lot of press 
reports that North Korea has restarted its Yongbyon reactor. I 
do not know that anybody has officially told us that. Is that 
in fact correct?
    General LaPorte. The reactor to the best of my knowledge 
has been restarted. As far as the reprocessing plant, we do not 
have any indication that that has been restarted.
    Senator Levin. As far as moving the fuel rods from the 
storage facility to the reprocessing facility, has that been 
confirmed?
    General LaPorte. Could I address that in a closed session 
with you?
    Senator Levin. Sure.
    But you just indicated that as far as we know they have not 
yet resumed operation of the reprocessing facility?
    General LaPorte. Correct.
    Senator Levin. You've been asked about the testimony of the 
Assistant Secretary of State, James Kelly, yesterday about the 
enriched uranium program of North Korea not being far behind 
the plutonium program. I think both Admiral Fargo and General 
LaPorte were asked about this. General LaPorte, you indicated 
you preferred to comment on that in closed session. The problem 
with that is that Assistant Secretary Kelly talked in open 
session. It is difficult, it seems to me, to argue that that is 
still a classified issue when the Assistant Secretary of State 
has made a statement on the record publicly about that issue.
    I do not know quite how to go about that, Mr. Chairman. 
This would be your call on this. It is troubling to me that we 
do not get your testimony on that subject at a public hearing. 
Maybe you are being more circumspect, which is totally 
appropriate if he talked about classified information. But how 
is it still classified if the Assistant Secretary of State has 
commented publicly on the issue?
    Chairman Warner. Would you not think, Senator, that he 
could share his views in closed session and then you and I 
jointly could undertake to get such declassification as we felt 
appropriate?
    Senator Levin. All right. If that is more comfortable for 
you, that is fine with me. But I do think we have to resolve 
that disconnect there. That would be fine, Mr. Chairman.
    Now, Admiral Fargo, have we proposed allowing U.S. troops 
in the Philippines to participate in patrols?
    Admiral Fargo. In patrols?
    Senator Levin. Have we proposed to the Philippines that we 
participate in patrols with their army?
    Admiral Fargo. We are talking to the Government of the 
Philippines right now about what kind of additional help we can 
provide. Last year we conducted Balikatan 02-1, which was an 
exercise that allowed us to train, advise, and assist. 
Certainly any exercise that we conduct would have to be in a 
non-hostile environment. So to answer your question 
specifically, we have not worked out an arrangement past the 
current effort that is underway, which is the security 
assistance we are providing to train these five modules, the 
light reaction companies, the battalions, provide night vision 
capability, and infuse intelligence and planning into their 
system, plus the other exercises, the large array of exercises 
that we have.
    Senator Levin. So are you saying that if we make a proposal 
along this line it would be for patrols in a non-hostile 
environment? Is that what you are saying?
    Admiral Fargo. If it is an exercise, and that is what we 
agree with the Government of the Philippines that we would like 
to go forward with, then an exercise would have to be in a non-
hostile environment.
    Chairman Warner. That is a training exercise.
    Admiral Fargo. A training exercise.
    Chairman Warner. For training.
    Senator Levin. Admiral Fargo, in your written testimony you 
indicated that al Qaeda has given financial aid to a number of 
terrorist groups in the southern Philippines. Could you 
elaborate on any recent financial or technical support from al 
Qaeda to the Abu Sayyaf Group or to any other terrorist group 
in the Philippines?
    Admiral Fargo. We believe that al Qaeda has had both a 
training and a financial relationship with the Abu Sayyaf 
Group.
    Senator Levin. Would that be within the last few years?
    Admiral Fargo. Within the last few years, yes, sir. I can 
give you more specifics in closed session.
    Senator Levin. That would be fine.
    Are we getting cooperation, Admiral, from Indonesia in 
terms of the war on terrorism and in terms of the investigation 
of the killing of two Americans last August?
    Admiral Fargo. Senator, we are certainly getting 
cooperation on the war on terrorism. The cooperation with the 
Bali investigation has been excellent. It has led to the arrest 
of a number of Jemaah Islamiyah leaders, including the number 
three leader Samudra, and has certainly painted a much clearer 
picture for us of the operations of this group in Southeast 
Asia.
    We are not happy with the cooperation we have received on 
the Papua investigation, the Freeport Mining investigation, and 
we are continuing to talk to the Indonesian Government about 
how they can improve that investigation.
    Senator Levin. Thank you.
    General Hill, just one question for you--my time, should I 
just finish with one question?
    Chairman Warner. Sure, go right ahead.
    Senator Levin. At the time Hutchison Whampoa was the low 
bidder on a contract on port operation at the Panama Canal, 
there was a lot of concerns raised here by some members of the 
Senate about their connection with the Chinese Government. Has 
there been any threat to our security, any problem with 
Hutchison Whampoa operating those facilities?
    General Hill. No, sir, there has not.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Reed, any follow-up that you might have?
    Senator Reed. No, Mr. Chairman, thank you.
    Chairman Warner. Fine. Thank you. The committee will now 
commence its work in closed session in Hart 219. Thank you very 
much.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Wayne Allard

                   INDONESIAN MILITARY INVESTIGATION

    1. Senator Allard. Admiral Fargo, on August 31, 2001, a number of 
American teachers in Papua, Indonesia, were attacked as they were 
returning from a picnic outing. Two Americans died, and several others 
were wounded. The attack occurred during the middle of the day, less 
than a half mile away from an Indonesian military position, and lasted 
for approximately 45 minutes. The Indonesian police immediately 
launched an investigation into the attack and later issued a report 
concluding that there was a strong possibility that the attack had been 
carried out by members of the Indonesian military (TNI).
    After substantial U.S. diplomatic pressure, Indonesia's government 
ordered a new joint police/military investigation and agreed to allow 
the participation of the Federal Bureau of Investigation. The FBI 
investigators recently returned to the United States from Indonesia and 
reported that they had received marginal cooperation from the 
Indonesian government. For example, the team was only allowed to 
interview military personnel from the region in the presence of a 
senior Indonesian military officer and was not given complete access to 
the evidence from the attack.
    I remain concerned about the lack of progress in the Indonesian 
investigation into this attack. The Government of Indonesia proved in 
the Bali investigation that it is capable of developing information on 
suspects and conducting a thorough investigation. However, in the 
August 31 attack on innocent Americans, it seems that the Indonesian 
government is not doing what it can to bring those responsible to 
justice. What is your assessment of the Indonesian government's 
determination to investigate this case and bring those responsible to 
justice?
    Admiral Fargo. Thank you, Senator, for the opportunity to comment 
on this extremely important matter.
    In short, I feel that the Government of Indonesia simply has not 
yet done enough to develop the evidence in this case, and to follow it 
wherever it leads.
    In my meeting with Indonesia's Ambassador to the United States, 
Ambassador Soemadi, on 26 November 2002, I made clear the seriousness 
with which the United States Government regards this case. I informed 
him that it could affect our entire relationship. The initial evidence 
suggesting possible TNI involvement was especially disturbing. Since 
then I have continued to be fully supportive of the embassy's efforts 
with the Government of Indonesia to pursue justice in this case.
    Unfortunately, Indonesia's government is still undergoing a very 
challenging transition to democracy after 32 years of authoritarian 
rule under former President Suharto. This transition has been made even 
more difficult by the lingering economic crisis, various incidents of 
regional violence, and more recently, challenges to the nascent 
democratic government from terrorism and extremist Islamic groups. I am 
hopeful from the recent prosecution and conviction of the TNI members 
who murdered Papuan independence leader Theys Eluay (even though the 
severity of the sentences was disappointing) that the government will 
continue to investigate this case and punish those found guilty.
    I can assure you that we will not abandon our efforts to pursue 
accountability for this tragedy; we feel that the further development 
of democratic government and the safety of United States and other 
foreign citizens in Indonesia are inextricably tied to bringing this 
incident to a satisfactory resolution.

    2. Senator Allard. Admiral Fargo, are you satisfied with the 
Indonesian military's cooperation with and participation in this 
investigation?
    Admiral Fargo. No, Senator, I am not. Our constant position has 
been that the Indonesian military must fully support the government's 
efforts to investigate this case, and to follow the evidence wherever 
it leads. This includes sharing of evidence with investigators and 
providing uninhibited access to witnesses. We will continue to insist 
upon these and any other necessary conditions until the case is 
satisfactorily resolved.

    3. Senator Allard. Admiral Fargo, in your prepared testimony, you 
expressed support for the International Military Education Training 
(IMET) funding provided by Congress last year for Indonesia. I agree 
that the IMET program is an important tool exposing Tentara Nasional 
Indonesia (TNI--Indonesia National Military) officers to democratic 
values and civilian leadership. Yet, I am troubled by allegations that 
personnel from the TNI were involved in the August 31 attack. Wouldn't 
you agree that the United States should withhold IMET funding until the 
Indonesian investigation has been completed and the TNI has been 
exonerated?
    Admiral Fargo. Thank you, Senator, for your positive opinion of the 
ability of the IMET program to favorably influence the development of 
democratic values within TNI. Respectfully, however, I feel that 
withholding IMET is not only unlikely to result in a satisfactory 
conclusion to this investigation, but that it will also hinder 
Indonesia's democratic development as well.
    Although TNI has already instituted significant reforms since the 
end of the New Order in May 1998 (reduction in the number of seats in 
the Legislature, divestment of the National Police, successive civilian 
Defense Ministers, a non-Army Supreme Commander, repudiation of their 
socio-political doctrine of ``Dwifungsi'' and the practice of inserting 
active duty officers in civilian government positions, and consistent 
support of the civilian government during three transitions of 
Presidential power), it still retains enough influence and access to 
resources to maintain its institutional integrity indefinitely, 
regardless of whether IMET is offered or withheld.
    I believe that IMET should be considered an enabler, rather than a 
reward, that will give TNI the tools and relationships to develop their 
organization into a modern, professionally managed force that is 
capable of working with their civilian leaders and other nations in 
addressing some of the serious problems that confront our community of 
democracies today, such as terrorism, sectarian violence, international 
peacekeeping requirements, piracy and other transnational issues. It is 
important that Indonesia develop the capacity to play this role because 
of the potential influence it can wield as the largest country in the 
Association of Southeast Asian Nations (ASEAN) and the most populous 
Muslim-majority (and democratic) nation in the world. Because of this 
potential benefit, I believe it is as much in our interest to provide 
IMET as it is in Indonesia's to benefit from it. My experience has been 
that withholding educational opportunities from developing countries 
tends to perpetuate many of the dysfunctional, debilitating patterns of 
behavior that prevent them from advancing.
    I agree that it is important to send a clear message that in spite 
of significant reform, there is still a need for improvements in TNI's 
accountability and contribution to Indonesia's developing democracy. 
Besides personally discussing key issues with senior TNI officers at 
bilateral and regional meetings, and offering capacity-building 
activities through Pacific Command's Theater Security Cooperation 
Program (TSCP), we also endorse such restrictive measures as: 1) 
vetting candidates for U.S. education and training for a history of 
human rights violations or other illegal activities, 2) forgoing 
combat-related training activities, and instead focusing on reform, 
humanitarian assistance, disaster relief, and peacekeeping, and 3) 
withholding full FMS (with exceptions only for areas supporting U.S. 
interests, such as counter-terrorism).
    In summary, I feel that the best approach to achieving 
accountability, furthering democratic reform, and supporting U.S. 
interests with TNI is a ``Balanced Approach'' that both enables 
advancement and discourages recidivism.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

               NORTH KOREA--URANIUM-BASED NUCLEAR PROGRAM

    4. Senator Levin. Admiral Fargo and General LaPorte, on March 12, 
2003, Assistant Secretary James Kelly testified before the Senate 
Foreign Relations Committee that, ``the enriched uranium issue, which 
some have assumed is somewhere off in the fog of the distant future, is 
not.'' He added, ``It is only probably a matter of months, not years 
behind the plutonium program.'' Do you agree with this assessment?
    Admiral Fargo. [Deleted.]
    General LaPorte. [Deleted.]

              PHILIPPINES--AL QAIDA-ABU SAYYAF GROUP LINK

    5. Senator Levin. Admiral Fargo, in your written testimony you 
state, ``bolstered by financial and technical support from al Qaeda, 
the Jemaah Islamiyah (JI) and the Abu Sayyaf Group (ASG) in the 
southern Philippines have demonstrated their capability to attack U.S. 
and Western interests.'' Can you elaborate on recent financial and 
technical support from al Qaeda to the ASG?
    Admiral Fargo. [Deleted.]

    6. Senator Levin. Admiral Fargo, do we have fresh intelligence 
linking the ASG to al Qaeda or Jemaah Islamiyah?
    Admiral Fargo. [Deleted.]

                  COLOMBIA--WORLDWIDE TERRORIST GROUPS

    7. Senator Levin. General Hill, the Department has requested 
authority to support use of counterdrug funding in Colombia and 
throughout the region to support a unified campaign against illicit 
narcotics-trafficking, to support a unified campaign against activities 
by organizations in the Americas hemisphere actively engaged in, or 
designated as, terrorist organizations.
    In your written statement you assert, to complement homeland 
security efforts and seal the seams through which terrorists 
infiltrate, we must take comprehensive measures in our region to combat 
international terrorism. You also state that Middle Eastern terrorist 
groups to include Hamas, Hizballah, and Islamiyya al Gammat have 
networks and support structures throughout the region. If you were 
granted this authority, would you use the counterdrug funding to fight 
the Middle Eastern groups you listed?
    General Hill. Terrorist organizations and drug trafficking 
organizations are frequently one and the same. Because it is difficult 
to meaningfully separate their activities it makes sense to deal with 
them holistically, using all available resources without the necessity 
for case-by-case analysis of a group's specific activities. National 
Security Policy Directive-18 and the statutory authorities in the 
Fiscal Year 2003 Defense Appropriations Bill allow us, in Colombia, to 
use counterdrug funds to support the Colombian Government's efforts 
against U.S.-designated terrorist organizations. These same authorities 
outside of Colombia against the activities of other U.S.-designated 
terrorist organizations would be beneficial.

    8. Senator Levin. General Hill, what other international terrorist 
groups fall under the definition of ``actively engaged in . . . 
terrorist organizations''--the Irish Republican Army, the Basque 
separatists?
    General Hill. [Deleted.]

    9. Senator Levin. General Hill, do you believe that the priority 
for using counterdrug assets should be fighting the narcoterrorists 
indigenous to Colombia and the other countries we are assisting?
    General Hill. I believe the priority of use for counterdrug 
resources should be counterdrug missions. However, we recognize that 
the activities of terrorist organizations cannot be meaningfully 
separated from the activities of narco-trafficking organizations. 
Therefore, if the organizations are one and the same, there are 
efficiencies to be gained by conducting both counterdrug and 
counterterrorism missions with the same resources.

    10. Senator Levin. General Hill, if so, how would you ensure that 
counterdrug funding was used primarily to fight drugs, and the 
insurgents who have the greatest role in producing and exporting those 
drugs?
    General Hill. Counterdrug authorities 1004 and 1033 mandate end-use 
monitoring and reporting. Under these counterdrug authorities, we track 
the DOD funding and the intended use of equipment, training, and other 
USG activities that support Colombian and other participating nation 
counternarcotics units responsible for fighting narco-terrorism. 
USSOUTHCOM employs rigid monitoring and reporting to ensure counterdrug 
funding is applied properly and against those insurgents who produce, 
export, and traffic drugs.

                         COLOMBIA--ERADICATION

    11. Senator Levin. General Hill, the White House reported 2 weeks 
ago that coca cultivation in Colombia has decreased by 15 percent, the 
first time since we began the current eradication program 3 years ago. 
A February 28 Washington Post account states that the drop in 
cultivation occurred in southern Colombia where most of the herbicide 
spraying is focused and that cultivation has increased in the east. In 
addition, cultivation has increased slightly in Peru and Bolivia. In 
Bolivia, President Sanchez de Lozada is under pressure to allow an 
increase in legal coca cultivation. Do you agree with the White House 
and Washington Post assessments?
    General Hill. Yes. According to the Interagency Assessment of 
Cocaine Movement eradication in four of Colombia's key coca growing 
areas reduced the coca crop 15 percent at the end of 2002, the first 
decline observed in Colombia's crop in a decade. The Government of 
Colombia with support from the Department of State's Narcotics Affairs 
Section (NAS) reportedly sprayed over 38 percent more area in 2002 than 
in 2001, resulting in reductions in coca production in the Putumayo, 
Narino, Norte de Santander, and Caqueta growing areas. The crops 
shifted back toward Guaviare to include Meta and Vichada with 
substantial new cultivation. Reportedly, 54 percent of the Colombian 
coca crop is being cultivated in this region; up from 33 percent in 
2001. In 2002, Peru had its first increase since 1995 with 4,100 
hectares of new cultivation. Bolivia's eradication teams were also 
unable to keep pace with new plantings in the Chapare resulting in a 
cultivation rise of 23 percent in 2002. The pressure on Bolivian 
President Sanchez de Lozada to increase the legal coca cultivation 
limit is coming from the Leftist Movement Towards Socialism (MAS) party 
being led by Evo Morales, who is supported by the cocaleros. An 
agreement to increase legal cultivation (presently restricted to the 
Central Chapare region) for each small farmer is under debate.

    12. Senator Levin. General Hill, what are we doing to prevent 
cultivation from popping up in places where we are not eradicating?
    General Hill. From a military perspective, we have encouraged the 
Colombian military to mass their military operations, sequentially and 
within their capability, to secure ungoverned areas. This will allow 
the Colombian government to establish governance, enforce the rule of 
law, foster alternative development and bring other institutions and 
services to those areas. We are also training the Colombian military to 
create civil affairs and information operations capabilities that can 
persuade and assist the applicable Colombian population not to 
participate in coca cultivation, processing, and trafficking 
activities.

    13. Senator Levin. General Hill, will we be able to maintain 
success in southern Colombia over the long term?
    General Hill. Long-term success will require an improved, 
coordinated, and enduring interagency and regional effort sufficient to 
overcome 40 years of violence, criminal activities, and social 
inequities. Additionally, increased personal security for inhabitants, 
a functioning judiciary, visible government presence, and viable legal 
economic opportunities will help to ensure success in southern 
Colombia.

    14. Senator Levin. General Hill, how are we addressing possible 
displacement to Bolivia and other neighboring countries?
    General Hill. To support the reduction of illicit activities, 
SOUTHCOM has a permanent Military Information Support Team (MIST) 
assigned to Bolivia. The MIST team supports the objectives of the 
Bolivian U.S. country team and SOUTHCOM to prevent illicit trafficking. 
To improve Bolivia's capabilities to counter illicit trafficking, there 
have been six Special Operation Force deployments in the past 12 months 
and five Security Assistance Teams in the past 7 months to Bolivia. 
USSOUTHCOM works closely with the Andean Ridge countries to support 
their drug reduction efforts to contain the problem. To assist in 
containment, USSOUTHCOM supports the regional alternative development 
efforts of the State Department's Bureau for International Narcotics 
and Law Enforcement Affairs and the U.S. Agency for International 
Development.

                        COUNTERNARCOTICS BRIGADE

    15. Senator Levin. General Hill, in your written testimony you 
state that the training of the Counter-Narcotics Brigade and the 
establishment and training of a Commando Battalion to pursue enemy 
leadership have already produced results. You are also conducting 
training in the Arauca Province to help the Colombian military protect 
valuable infrastructure, including the Cano Limon oil pipeline. What 
concrete results have the Colombians achieved to date as a result of 
this training, and what are the measures of effectiveness that you are 
using to determine military success?
    General Hill. The immediate results of the mission may be observed 
in recent operations conducted by the Colombian military. Since the 
initiation of expanded authorities for Colombia in October 2002, the 
Colombian military has completed the following significant military 
operations:
    [Deleted.]
    All of these actions reflect progress in several of the training 
objectives for USSOUTHCOM's mission in Colombia. In addition, training 
of the Commando Battalion continues on track, with an expected 
operational capability in April 2003.
    As for the overall measurements of effectiveness, in the initial 
phases of the expanded mission in Colombia (commenced in January 2003), 
measuring success will be based on the completion of USSOUTHCOM-
sponsored training, equipping, and support of specified Colombian 
military units, combined with measuring the demonstrated capabilities 
of these supported units.

                      SPECIAL OPERATIONS TRAINING

    16. Senator Levin. Admiral Fargo, in your written testimony you 
state that through the Special Operations Command Pacific and Joint 
Task Force-510, your command has the ability to deploy special 
operators anywhere to combat terrorism. You add that ``This capability, 
however, depends on building and maintaining relations with supporting 
allies and friendly nations. We build and maintain these relations 
through our Joint Combined Exchange Training (JCET) and other Theater 
Security Cooperation Programs (TSCP).'' How important are the SOF 
training missions in the various countries within your area of 
operations in terms of: 1) maintaining readiness; 2) deploying troops 
into familiar and unhostile environments; and 3) gaining participation 
of other countries in operations or exercises that are important to 
you?
    Admiral Fargo. SOF training deployments foster combat-ready forces, 
regional knowledge, cross-cultural understanding, and national 
alliances.
    To support theater contingency and operation plans, U.S. SOF must 
be capable of conducting sustained combat operations in rugged 
environments, diverse terrain, and dense urban areas. Maintaining 
requisite skills is a never-ending challenge, requiring U.S. SOF to 
refine theater-specific tactics, techniques, and procedures during in-
theater deployments.
    Unlike training in the Continental United States, in-theater 
deployments offer first-hand knowledge of theater-specific operational 
conditions. During these deployments, SOF work hand-in-hand with 
foreign nation counterparts, building interoperability, sharpening 
language skills, and exchanging solutions to operational challenges. 
They accomplish these mission-essential activities ``in-country,'' 
demonstrating America's moral character, military power, democratic 
principles, and economic might.
    In addition to enhancing combat skills, in-theater deployments hone 
SOF command and control functions, support relationships, and 
collateral mission activities. SOF planners, logisticians, intelligence 
analysts, civil affairs and psychological operations specialists, 
communicators, and medical personnel routinely participate in SOF 
deployments. While doing so, SOF subject matter experts work with host 
nation counterparts and civilians, enhancing regional expertise. Such 
interaction is invaluable when coordinating forward staging bases or 
executing short-notice deployments.
    Regional access and alliances are two additional SOF deployment by-
products. SOF events have created inroads with previous belligerents, 
strengthened relationships with burgeoning friends, and nurtured 
historic partners. SOF deploy to Laos, Vietnam, and Cambodia, training 
local agencies to disarm land mines and interdict drug smugglers. SOF 
are training in India, generating relationships with future allies. 
Pending appropriate authorization, U.S. SOF are poised to re-initiate 
training with select Indonesian and Burmese military units. Given 
rising international terrorism and pressing requirements to obtain 
counter-terrorism intelligence, SOF training deployments and related 
host nation interactions will soon become even more valuable.

                           LANGUAGE TRAINING

    17. Senator Levin. Admiral Fargo, in your written testimony on 
intelligence assets you state, ``it is essential that the Defense 
Language Institute develop tests for languages/dialects that accurately 
assess language skills of service personnel.'' Have you encountered 
problems with assessing language skills, identifying who has them, and 
retaining personnel and proficiencies?
    Admiral Fargo. Yes, we continue to have problems assessing language 
skills and also have problems identifying speakers of Operation 
Enduring Freedom (OEF) languages and dialects. The Defense Manpower 
Data Center's (DMDC) Automated Language Finder (ALF) database currently 
does not track speakers of six languages and dialects required for OEF 
namely: Cebuano, Chavacanno, Maranoan, Maguindanoan, Tausug and Yakan. 
Further, no language proficiency tests currently exist for 18 PACOM OEF 
languages/dialects: Achenese, Balinese, Bengali, Cebuano, Chavacanno, 
Ilocano, Javanese, Malay, Maranoan, Maguindanoan, Pushtu, Punjabi, 
Singhala, Sudanese, Tamil, Tausug, Urdu and Yakan. It is not cost-
effective to maintain cryptolinguist communities for all languages and 
dialects required for OEF. However, it is essential that speakers of 
OEF languages and dialects be identified and tested so that short 
notice requirements can be filled by speakers with known proficiencies. 
Retention of linguists is directly related to use of their language 
skills. Retention of linguists who use their language skills in support 
of operations and planning equals or exceeds the retention of non-
linguists. Turnover and loss of linguists who do not use their language 
skills is significant.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

               ADVANCED CONCEPT TECHNOLOGY DEMONSTRATIONS

    18. Senator Reed. Admiral Fargo, General LaPorte, and General Hill, 
the Department of Defense has established a set of programs called ACTD 
which are designed to help accelerate the adoption of new technologies 
by operators. This largely successful program brings together 
developers and warfighters and has successfully transitioned some 
systems, including unmanned aerial vehicles (UAV), into current 
operations. How are you working with the Office of the Secretary of 
Defense's Advanced Concept Technology Demonstration program to test and 
evaluate new technologies and the new operational concepts that they 
enable?
    Admiral Fargo. The United States Pacific Command continues to lead 
the way among regional combatant commanders using Advanced Concept 
Technology Demonstrations to operationalize science and technology for 
the warfighter. Today we are involved in 18 active ACTD projects, more 
than any other theater command. We have distributed the transformation 
workload across the whole theater--almost every Service Component, 
Joint Task Force and Sub-Unified Commander, as well as each of my Staff 
Directors, is responsible for executing one or more ACTD.
    Investing our time in ACTDs provides an ideal way for my forward-
deployed forces to confront emerging technologies early and influence 
the way they will be introduced into the joint force. ACTDs are 
organized as projects, and so benefit from having crisp objectives, 
schedules, budgets and deliverables. They demand partnerships between 
technical project managers, transition managers, and my operational 
project managers, each with a clear role in the project's ultimate 
successful demonstration and transition. These projects encourage my 
joint force to create new tactics, techniques, procedures and concepts 
of operations, a useful military product with value often exceeding 
that of the new technology. By applying project management discipline 
to ACTDs my forces are able to assess the military utility of these 
technologies and concepts within a fixed time.
    In addition, U.S. Pacific Command integrates its Joint 
Experimentation and Transformation initiatives with the Office of the 
Secretary of Defense's Advanced Concept Technology Demonstration 
program. Adhering to the philosophy of ``experiment while we 
exercise'', Pacific Command actively engages in experimentation during 
all its joint training exercises, such as Cobra Gold and Tandem Thrust 
with our coalition partners, and Terminal Fury with our own joint 
forces. In conjunction with our special focus Command and Control 
Exercises (C2Xs) Pacific Command's joint exercise program provides the 
operational venue for hosting and applying advanced concept technology 
demonstrations, other technology initiatives, and advanced procedures 
to quickly add new capabilities to our joint forces. Pacific Command 
also hosts the Joint Warrior Interoperability Demonstration for its 
second year, providing another international opportunity to apply 
Advanced Concept Technology Demonstrations to an operational scenario 
for experimentation and test. Timing of all our exercises allows 
experimentation and spiral development, characterized by hands-on 
feedback from the operators and valuable leave-behinds for the joint 
warfighters after assessment. This rapid spiral transformation over the 
past 3 years, currently, and in the coming years, puts capability in 
user's hands years ahead of traditional acquisition timelines.
    Through funding support from the Office of the Secretary of Defense 
for Advanced Concepts Technology Demonstrations, Pacific Command has 
integrated a joint fires capability into the headquarters and each of 
its primary Joint Task Forces for addressing time-sensitive and time-
critical targets with an initiative called the Automated Deep 
Operations Coordination System. We've extended hospital diagnosis, 
treatment, and surgery to the front lines with an initiative called 
Joint Medical Operations-Telemedicine. We're simplifying logistics 
tracking and host nation support with a multinational equipment and 
supplies tracker called Coalition Theater Logistics.
    Joint Task Force Wide Area Relay Network (JTF WARNET) is a 
Transformation Initiative of the Office of the Secretary of Defense 
(OSD) Advanced Systems and Concepts (AS&C) and Commander U.S. Pacific 
Command (USPACOM) resulting from the Extending the Littoral Battlespace 
(ELB) ACTD. The ELB ACTD demonstration phase completed in fiscal year 
2001 with its major system demonstration exercise Kernel Blitz 
(Experimentation) (KBX). As a result of the advanced warfighting 
concepts and capabilities demonstrated, PACOM and OSD AS&C restructured 
the ELB ACTD fiscal year 2002 and 2003 transition phase as the JTF 
WARNET initiative to enable joint tactical level digital connectivity 
and command and control interoperability. In April 2002 the Joint 
Requirements Oversight Council approved JTF WARNET to build, test, and 
develop Concepts of Operations (CONOPs) and Tactics, Techniques and 
Procedures (TTPs) to deploy the first prototype to PACOM operational 
forces. All services, Special Operational Command, OSD, PACOM and Joint 
Forces Command are partnered in the JTF WARNET initiative.
    In fiscal year 2002 and 2003, PACOM Component forces have assisted 
in setting requirements and developing CONOPs and TTPs for employing 
the JTF WARNET prototype. In June through September of 2003 PACOM 
Component forces will assist in testing and evaluating JTF WARNET in a 
series of field exercises. In fiscal year 2004 JTF WARNET capabilities 
will be deployed in Western Pacific and will participate in exercise 
Cobra Gold 04.
    The Joint Tactical Radio System Joint Program Office has been named 
as the JTF WARNET Transition Manager for fiscal years 2004 and 2005. 
PACOM has been instrumental in developing the JTF WARNET Transition 
Plan that is completing final staffing for approval. JTF WARNET 
products will transition into 23 programs of record. The JTF WARNET 
fielding and transition efforts are fully funded.
    Additionally, we're taking control of the limited frequency 
bandwidth available for joint operations and dynamically controlling 
which applications and operational priorities are allocated that 
bandwidth. This initiative is expected to become the Information Flow 
Analysis and Control Advanced Concept Technology Demonstration 
beginning in fiscal year 2004, as a result of its experimental 
application and force enhancement throughout Pacific Command units. To 
help Pacific Command achieve more accurate planning with specific 
desired results, we're working closely to bring Theater Effects Based 
Operations and Joint Networked Fires and Effects to the range of 
Advanced Concepts Technology Demonstrations that have modernized our 
force capabilities so rapidly within the past 3 years.
    The U.S. Pacific Command continues to work closely with the Office 
of the Secretary of Defense for Advanced Concepts Technology 
Demonstrations to provide a true operational environment--not a battle 
lab--for mature and promising technologies and procedures. That 
office's support of Pacific Command initiatives is a sound investment 
in rapid spiral transformation of our joint and combined operational 
forces.
    General LaPorte. Since the inception of the ACTD and to this day 
USFK works directly with the Principal Assistant to the Deputy Under 
Secretary of Defense for Advanced Systems and Concepts (DUSD-AS&C), Dr. 
Charles Perkins. Dr. Perkins and USFK communicate directly and 
regularly via email and telephone. These communications are 
supplemented with frequent face-to-face meetings in Korea.
    General Hill. We are working very closely with the Deputy Under 
Secretary of Defense for Advanced Systems and Concepts in the planning 
and execution of Advanced Concept Technology Demonstration programs. At 
this time, we are the operational sponsor for three major technology 
demonstrations in our geographical area of responsibility. One program 
is developing the capability to find targets of interest such as narco-
terrorist camps, supporting infrastructure, and associated lines of 
communications hidden under the dense foliage of the Andean Ridge. This 
technology will enable key operational capability in the Command's most 
critical region and other similar operational environments in the 
world. Another technology demonstration is designed to rapidly collect 
high-resolution terrain mapping from unmanned aerial vehicles. This 
program will allow us to explore high-definition elevation data to 
improve the effectiveness and survivability of forces entering 
unfamiliar or hostile environments. Also, we are teaming with the U.S. 
European Command to undertake a technological demonstration that will 
provide protection of key infrastructure and personnel against human-
carried bombs. This teaming arrangement will ensure a broad set of 
fixed and mobile requirements applicable to military and civilian 
agencies. In the future, we expect to continue our support of these 
Advanced Concept Technology Demonstrations. The Deputy Under Secretary 
of Defense for Advanced Systems and Concepts provides tremendous 
support through technology demonstrations to meet my near, mid and long 
term operational needs. Advanced Concept Technology Demonstrations are 
absolutely necessary to develop operational capability in a methodical, 
cost-effective and expeditious manner.

                          SCIENTIFIC ADVISORS

    19. Senator Reed. Admiral Fargo, General LaPorte, and General Hill, 
you are constantly being faced with new technological threats (such as 
cyberattack, adaptation of cheap commercial technologies for military 
purpose, chemical and biological attack, etc.) as well as opportunities 
to apply new revolutionary technologies to address operational 
requirements. How are you provided with scientific and technical advice 
to support your missions and operations?
    Admiral Fargo. We receive advice about both threats and 
opportunities arising from emerging science and technology from many 
sources. At the first level, I have my staff of senior professional 
military officers who represent all the services, and branches of the 
services. These men and women are subject matter experts in the various 
areas of modern warfare, and as professionals they maintain their 
connections and currency in the fields where they are subject matter 
experts. Embedded in my staff at PACOM I have representatives from the 
Office of Naval Research, Defense Intelligence Agency, Central 
Intelligence Agency, Defense Threat Reduction Agency, the Defense 
Information Systems Agency, and others. I also have a Chief Information 
Officer to keep me apprised of the latest threats and opportunities in 
Command, Control, Communications, Computers, and Intelligence (C\4\I). 
I have an office of Defense Cooperation in Armaments to monitor science 
and technology in the Asian-Pacific region. Finally, I have a Science 
and Technology Advisor (STA) whose purpose is to exchange information, 
and to coordinate projects and policy with the national, international, 
and Department of Defense science and technology community.
    The STA maintains close working contact with each of the offices 
listed above, and with the science advisors for each of my service 
components and sub-unified commands within the region. This close 
relationship encourages a free flow of scientific and technical 
information between and among the commands, and in particular 
encourages the development of limited objective experiments and 
demonstration projects that can quickly assess the military utility of 
emerging technologies. By confronting new technologies early in a 
forward military setting, we are able to take the lessons away rapidly 
in terms we can use, namely improved concepts of operations, tactics, 
techniques, and procedures. When these lessons help influence 
acquisition, so much the better.
    My STA stays current in many of the issues concerning Department of 
Defense science and technology issues, coordinating with the OSD, and 
the Service science and technology organizations and laboratories. He 
also acts as conduit for international cooperation for various ongoing 
and planned projects. For instance, the STA brokered the first 
international agreement for cooperative development of an ACTD with 
Singapore on the SPARTAN unmanned surface vehicle. This improves our 
theater security by providing unmanned vessels interoperable by either 
navy to support escort of our vessels in the straits of Malacca. The 
Science and Technology Advisor, along with my Logistics Directorate, 
also developed an international cooperative development arrangement 
with Australia for the Coalition Theater Logistics ACTD. Since then we 
have begun to explore developing similar cooperative projects with 
Japan, Korea, India, and Malaysia.
    PACOM is also taking the initiative to develop responses to 
chemical and biological attacks. In addition to the ongoing Restoration 
of Operations ACTD, my Plans Directorate has developed a roadmap and is 
pursuing technology and projects that can reduce the effects of 
chemical/biological warfare attacks.
    PACOM's focus on operationalizing science and technology has given 
me the ability to build an incomparable team of advisors from all the 
services to address science and technology challenges in the region.
    General LaPorte. USFK receives scientific and technical advice 
through a number of sources: The Army Materiel Command provides a 
Science Advisor through Army Materiel Command-Field Assistance in 
Science and Technology (AMC-FAST); the Defense Threat Reduction Agency 
(DTRA) has an Liaison Officer (LNO) within the command; the Defense 
Information Systems Agency (DISA) has an office in theater; and the 
Program Executive Office for Command Control and Computers Tactical 
(PEOC3T) also maintains a presence in Korea. USFK also receives 
assistance from the USPACOM Science and Technology Advisor (STA). In 
the area of modeling and simulations, USFK receives effective technical 
support from throughout the DOD. The Defense Modeling and Simulation 
Office (DMSO) maintains a full time liaison officer at the Korea Battle 
Simulation Center (KBSC). Additionally USJFCOM, USSTRATCOM, and the 
modeling and simulation agencies of all four services provide the 
latest in simulations and associated links to joint and service C\4\ISR 
systems.
    General Hill. I receive scientific and technical advice to meet my 
missions and operations through the Office of the Command's Science and 
Technology Advisor. My pool of science and technology personnel 
provides me with extensive Air Force, Army, Navy, and industrial 
experience. In fact, the U.S. Army Materiel Command--Field Assistance 
in Science and Technology, the U.S. Navy Office of Naval Research, and 
the Deputy Under Secretary of Defense for Advanced Systems and Concepts 
assist with scientific and developmental engineering manpower to the 
Command. The advisors identify, analyze, consolidate and coordinate 
technical solutions to operational requirements. In addition, they 
actively seek new technologies to improve our operational capability. 
Their goal is to achieve a balance between the aggressive pull of 
operational requirements and the push of technical innovations to 
include transformational activities. My advisors maintain close 
liaisons with the scientific and technical community at large from the 
Office of the Secretary of Defense, national agencies, Services, 
industry, academia and our participating nations. Examples of support 
include the application of an innovative foliage penetrating radar to 
current operations; initiatives to improve wide area maritime 
surveillance, detection and monitoring for tactical riverine 
operations, and bio-terrorism; and, the development of a red team 
program in U.S. Southern Command.

    20. Senator Reed. Admiral Fargo, General LaPorte, and General Hill, 
how are you connected to the various Service technology development 
organizations in order to address quick response technology needs and 
questions?
    Admiral Fargo. Pacific Command is connected with the various 
Service technology development organizations, and other organizations 
that collectively make up the national research enterprise, through 
many layers of staff interaction. My staff, which is organized by 
operational discipline, is made up of professional military officers 
who have deep experience within both their Services and their military 
specialties. They often maintain contact with Service science and 
technology organizations and laboratories to develop quick-response 
solutions to current needs. My staff is augmented with liaison officers 
from many Service and Department of Defense agencies who assure that 
their products and expertise is known to Pacific Command, and that 
Pacific Command's emerging challenges are known to their home 
laboratories. My staff includes a Chief Information Officer (CIO) who 
is a national leader in the current discussions about the future 
architecture of world-wide command information infrastructure. Finally, 
my staff also includes an office of the Science and Technology Advisor 
who coordinates a broad program of technology projects, and maintains a 
network of connections to address quick response technology needs and 
questions.
    Each of my theater Service components has a Science and Technology 
Advisor (STA) who maintains close ties with their Service technology 
development centers. The STA's and CIO's offices maintain close working 
relationships with the theater Service component STAs as well as 
maintaining their own ties within the Navy and Air Force technology 
communities. This group collaborates on theater projects employing new 
technology from various Service laboratories or technology centers. 
Three such recent projects have explored the use of written and spoken 
language machine translators for operational use, developing and 
testing a system that manages the limited bandwidth available to our 
Joint Task Forces at sea, and developing a counter-sniper weapons 
system. It is important to emphasize that technology employed without a 
developed concept of operations (CONOPs) or tactics, techniques and 
procedures (TTPs) provide nothing the operator in the field can use. 
These Limited Objective Experiments provide the operators the 
opportunity to develop the CONOPs and TTPs while determining the 
military utility of the technology. They then can provide improvement 
feedback for the project. In the case of the language translation 
devices, and the bandwidth management, the real world operations 
resulted in significant upgrades to improve the system. If the project 
is successful then these experiments will lead to the formulation of an 
ACTD.
    In addition to the ties to the Service technology developers, the 
STA staffs are tied into the national technology agencies, such as the 
Defense Threat Reduction Agency, the Defense Information Systems 
Agency, and the Defense Advanced Research Projects Agency, as well as 
the Office of the Deputy Under Secretary of Defense for Science and 
Technology and the Assistant Secretary of Defense for Command, Control, 
Communications, and Intelligence.
    General LaPorte. Army Materiel Command-Field Assistance in Science 
and Technology (AMC-FAST) has a formal staff of ``Quick Reaction 
Specialists'' that receive requests from the field and respond back 
with solutions. United States Forces Korea (USFK) is intimately tied in 
with this staff and is currently receiving support through two separate 
programs within AMC-FAST. USFK also maintains close liaison with Air 
Force Operational Test and Experimentation Command, the Air Armaments 
Center, and the National Assessment Group. USFK and USJFCOM have also 
established a strong program of interaction on developing projects.
    General Hill. I am connected to the various Service technology 
development organizations through the working interfaces between my 
science advisors and agencies within the U.S. Army Research Laboratory 
and U.S. Army Communications-Electronic Command. My advisors also 
interact with the U.S. Navy technology development offices such as the 
Office of Naval Research and Naval Sea Systems Command. In addition, 
the Deputy Under Secretary of Defense for Advanced Systems and Concepts 
provides U.S. Southern Command with links to other technology 
organizations such as the Defense Advanced Research Projects Agency and 
the Defense Threat Reduction Agency. This connectivity provides forums 
to address my operational shortfalls through special joint initiatives, 
Service programs, and Advanced Concept Technology Demonstrations.

    21. Senator Reed. Admiral Fargo, General LaPorte, and General Hill, 
how can that connectivity be improved?
    Admiral Fargo. The Nation's research enterprise is a vast and 
dynamic endeavor that involves universities, industry, national and 
service laboratories, and Department of Defense funding and policy 
agencies. This enterprise represents a tremendous reservoir of talent 
that can reasonably be applied to the issues we face in U.S. Pacific 
Command, when we are effective at attracting and focusing their 
attention. We do a good job of this by using multiple channels to 
communicate with OSD. We make our needs known through my Integrated 
Priority List and through persistent contact with the national research 
enterprise at all levels.
    Overall, I am satisfied and our process is working well. Improved 
connectivity with the Nation's research enterprise would mean more 
effective joint technologies for U.S. Pacific Command. This effort 
would aid in bridging the technological gap between the Services and 
between us and our coalition partners. We continually strive to broaden 
our scope of involvement with the national research enterprise. This 
year alone we have hosted the Deputy Undersecretary of Defense for 
Science and Technology, and leadership from the Defense Advanced 
Research Projects Agency and the Defense Threat Reduction Agency. U.S. 
Pacific Command maintains a partnership with both of these agencies 
including experimentation in unmanned vehicles, and a new U.S. Pacific 
Command focal role addressing chemical and biological weapon 
mitigation.
    General LaPorte. The Army Materiel Command-Field Assistance in 
Science and Technology (AMC-FAST) Science Advisor position in Korea has 
been vacant since October 2002. Filling this position would be a 
significant improvement. Also, AMC-FAST is an Army organization; 
providing USFK a Navy and Air Force equivalent would be of significant 
value to take advantage of synergistic efforts within all of Department 
of Defense.
    General Hill. I am satisfied we are on-track in the way we work 
with developmental commands within the Department of Defense, with 
Services and, with the other Regional Combatant Commands (RCC) to 
address operational and technology challenges. I have directed my 
science and technology staff to routinely coordinate with, and leverage 
the technical accomplishments of other commands and agencies. In order 
to improve connectivity, we are increasing information exchanges and 
interaction at every level of DOD, Service, RCC and non-defense 
agencies to ensure USSOUTHCOM's unique mission needs are considered 
during planning, resource allocation and execution phases. I have also 
directed that the staff be more proactive in identifying both potential 
and mature technical solutions to solving the command's requirements. 
Through active interface, in an increasingly collaborative environment, 
we are seeking to leverage the success other RCCs are having in any 
given area. Finally, I have recently been able to increase my science 
and technology staff, having them report directly to a general officer 
whose responsibilities include seeking new and transformational methods 
wherever they exist for routine and operational missions.

    [Whereupon, at 12:04 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

                              ----------                              


                        TUESDAY, MARCH 18, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                       BALLISTIC MISSILE DEFENSE

    The committee met, pursuant to notice, at 9:35 a.m., in 
room SD-106, Dirksen Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, Allard, 
Sessions, Levin, Reed, Akaka, Bill Nelson, E. Benjamin Nelson, 
Bayh, Clinton, and Pryor.
    Committee staff member present: Judith A. Ansley, staff 
director.
    Majority staff members present: Brian R. Green, 
professional staff member; William C. Greenwalt, professional 
staff member; Ambrose R. Hock, professional staff member; and 
Thomas L. MacKenzie, professional staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Kenneth M. Crosswait, professional 
staff member; Richard W. Fieldhouse, professional staff member; 
and Peter K. Levine, minority counsel.
    Staff assistants present: Michael N. Berger, Andrew W. 
Florell, and Jennifer Key.
    Committee members' assistants present: John A. Bonsell, 
assistant to Senator Inhofe; Jayson Roehl, assistant to Senator 
Allard; Arch Galloway, II, assistant to Senator Sessions; James 
P. Dohoney, Jr., assistant to Senator Collins; Elizabeth King, 
assistant to Senator Reed; Davelyn Noelani Kalipi and Richard 
Kessler, assistants to Senator Akaka; William K. Sutey, 
assistant to Senator Bill Nelson; Eric Pierce, assistant to 
Senator E. Benjamin Nelson; Todd Rosenblum, assistant to 
Senator Bayh; Andrew Shapiro, assistant to Senator Clinton; and 
Terri Glaze and Andy York, assistants to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Given the historic moment, I think that 
each Senator should consider using a minute or two for an 
opening statement, if he or she so desires, before we get to 
the particulars of this very important hearing.
    I would like to say I was very privileged last night to be 
in attendance with my colleague, Senator Levin, and other 
leadership from the Senate and House as the President spoke 
with us in the Oval Office--that is, the Cabinet room, prior to 
his addressing the Nation at 8 o'clock. I have unhesitatingly 
given my support to this courageous President throughout this 
controversy for many months.
    His address to the Nation last night was very clear, to the 
point, and entirely consistent with his views as Commander in 
Chief and the responsibility he has under our Constitution. It 
is my judgment that he is acting consistent with a series of 
U.N. resolutions, most particularly 1441. He has put together a 
coalition of nations. While not as large as that in 1991, in my 
judgment, it is equally significant.
    There were statements to the effect that we are going 
without the support of Muslim nations. That is incorrect. A 
number of those nations are providing us with port facilities, 
air bases, overflight rights. It is clear that the 
preponderance of the nations in that region of the world are in 
support of the actions that we, Great Britain, and Australia, 
with our troops, are undertaking to eliminate the weapons of 
mass destruction.
    I find certainly in my State and across the Nation a 
growing support among our people for the actions taken by the 
President. That is as it should be. It is my hope and 
expectation that those of us here on Capitol Hill, who have 
expressed a diversity of opinions, will now close ranks behind 
the men and women of the Armed Forces, and indeed the Commander 
in Chief, as he undertakes to carry forward this mission in the 
cause of freedom.
    Senator Levin, do you care to say a few words?
    Senator Levin. I was not planning on doing so, Mr. 
Chairman, but since you have invited us to do so, let me just 
add a word perhaps similar to what I expressed yesterday on the 
floor of the Senate at great length.
    The President has now decided to end the diplomatic effort. 
Those of us who have questioned the administration's approach, 
including this Senator, will now be rallying behind the men and 
women of our Armed Forces to give them the full support that 
they deserve, because it seems certain that we will soon be at 
war.
    The question of the approach was based on a number of 
factors, including the fact that we have invoked the 
resolutions of the Security Council, including 1441, as the 
basis for proceeding, and yet now ignore the apparent 
unwillingness of the Security Council to support military 
action at this time. It is obvious that nine members of the 
Security Council were not able to be aligned by the 
administration to support a second resolution, even though the 
President said there would be a vote just a few days ago.
    But that is water over the dam. Last October, a majority of 
both houses of Congress voted to authorize the President to use 
military force with or without the express authority of the 
United Nations. I disagreed with that decision. I offered an 
alternative. But the overriding fact is that this democracy 
functions through debate and through decision. The decision to 
give the President wide authority was democratically arrived 
at.
    So now we have courageous men and women in harm's way, who 
are not just carrying out an order of the Commander in Chief 
with bravery and the highest form of professionalism, they are 
also implementing the outcome of that democratic debate in 
Congress. This Nation honors and protects democratic debate and 
the resolution of that debate.
    So I am sure that all of us feel, regardless of what 
position we took on whether or not to go with or without the 
express authority of the United Nations, as the President said 
he would request, those men and women should and, I believe, do 
know--that they have the full support and the fervent prayers 
of all the American people as they carry out their missions.
    Chairman Warner. Thank you.
    We will just go back and forth.
    Senator Allard.
    Senator Allard. Mr. Chairman, thank you. First of all, I 
would join you in your comments. I do appreciate Senator 
Levin's comments that now we join together after we have had a 
fervent debate on the need to and how we deal with the Iraqis 
and Saddam Hussein. We have historically, in this country, had 
our debate and then joined together to support the men and 
women overseas who are putting their lives on the line for 
freedom and the security of America.
    Many of us in policy decisionmaking really do appreciate 
their commitment. I have a lot of confidence in their 
leadership and a lot of confidence in their equipment and 
getting them supplied and prepared over there to meet the 
coming challenges, I think, in the next few days.
    As chairman of the Strategic Forces Subcommittee, Mr. 
Chairman, I plan to closely follow the development of our vital 
defenses. I think they are important to the future mission of 
all branches of the military. I have been saying for years that 
the missile threat to this Nation is here and we must be 
prepared. I think this was confirmed by the Director of Central 
Intelligence, George Tenet, during our hearing on September 12. 
He was asked if North Korea had a missile capable of hitting 
the West Coast of the United States. Director Tenet stated, 
very unambiguously at the time, that the declassified answer is 
yes, they can do that.
    North Korea is not the only country of concern that is 
developing long-range ballistic missiles. This threat is 
growing and we remain extremely vulnerable to the missile 
attack. That is why the December announcement by the President 
to deploy a missile defense system is so important. The 
national security of this Nation is at risk and we must be 
ready.
    I also want to thank all the witnesses for being here. I 
know you have a lot on your plate at this time and I thank you 
for taking the time to share with us your thoughts on this 
important issue.
    Chairman Warner. Senator, I thank you for suggesting, as 
did Senator Levin, that we have a full committee hearing. In 
due course, I will turn the chair over to you as the 
subcommittee chairman.
    Senator Allard. Thank you.
    Chairman Warner. Are there other colleagues who would like 
to make a brief opening statement relative to the matter other 
than what is before the committee?
    Yes. Go ahead, Senator Reed.
    Senator Reed. Just briefly, Mr. Chairman.
    Like of all of us, we are expecting the commitment of 
military forces. I have every confidence that they will 
prevail. That confidence is borne out by having associated with 
many of the commanders as classmates and friends for 30 years. 
They are extraordinary Americans and they will do a great job 
for our country.
    Their job is to carry out the orders of the Commander in 
Chief. Our job is to continue to probe and ask questions, so 
that the policy is the right policy for the country. That is 
the process of debate and deliberation in our system of 
government, a system that we would like to see in Iraq.
    When it comes to the issues before this committee, we 
continue to raise serious questions, because these are 
complicated and serious issues. That is why I think this 
hearing is very important.
    Over the last few years, particularly the last two, as I 
chaired the Strategic Subcommittee, we have tried to focus on 
deploying equipment after it has been thoroughly tested, not 
without testing. We wanted to fund activities that could be 
executed, not simply to provide funds that would not lead to 
executable programs. Third, to avoid excessive funding for just 
nonspecific activities. Those questions still remain and we 
will keep raising those questions, because that is our 
responsibility and our job. We are committed to do it.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator. We all recognize your 
deep interest in the command structure for this particular 
conflict since a number of them were class mates, 
contemporaneous at West Point with you and in your own 
distinguished military career.
    If you wish to have a leave of absence to join them, the 
Chair so grants it. [Laughter.]
    Senator Reed. I do not know what I could add, other than 
enthusiasm.
    Chairman Warner. Senator Akaka.
    Senator Akaka. Mr. Chairman, the die has been cast. I want 
our troops to know that we are proud of them. The reports we 
have of them is that their training is at the optimum, and they 
are ready for anything. I want our troops to know that we are 
proud they are out there, and we want them to know that we are 
here in Congress to support them in every way. I want to be one 
of those here as a Senator to do that. Of course, we want to 
wish them well in everything that they do.
    Chairman Warner. I thank you, Senator. You were a trooper 
yourself at one time in an early period of our history.
    Senator Nelson.
    Senator Bill Nelson. Mr. Chairman, I enjoyed watching you 
and Senator Levin last night.
    Chairman Warner. I enjoyed watching you earlier this 
morning. [Laughter.]
    Senator Levin. I enjoyed watching Senator Warner last 
night. [Laughter.]
    Chairman Warner. That is part of our responsibilities.
    Senator Bill Nelson. I have the privilege of being the 
ranking member of the Strategic Forces Subcommittee. I am 
looking forward to getting into the specifics. I have a lot of 
questions. I do not know all of you personally, but I do know 
Secretary Aldridge personally, and he is one of the best 
appointments in this administration. I have lots of questions 
for you, Pete. So I am looking forward to it.
    Chairman Warner. Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. We live and 
work in an environment where debate and differences of opinion 
are crucial to the democracy and the freedoms that we enjoy and 
we protect. But there are times when we need to recognize the 
debate may be over, decisions have been made, and it is time to 
put the differences behind us, to join together. This is one of 
those times where we need now to support the men and women in 
uniform and support their efforts throughout the world.
    We hope and pray for their safety and their speedy return. 
We hope that things will turn out as they are planned.
    It is important that we join together as a Nation today and 
in the days ahead, because there will be differences of 
opinion. But it is important that we put those aside for the 
common good of our men and women in uniform and come together 
and support their efforts.
    I thank you very much for the opportunity.
    Chairman Warner. I thank the Senator.
    Senator Bayh.
    Senator Bayh. I thank you, Mr. Chairman. I will just 
reiterate the feelings of my colleagues in terms of rallying 
around the troops at this time, regardless of the differences 
of opinion that may have existed previously. We all keep them 
in our thoughts and our prayers at this important hour.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator, the record reflects that you are 
one of the original drafters of the resolution that passed the 
Senate by 77 votes. I was privileged to be associated with you 
as one of the four drafters myself.
    Senator Bayh. The privilege is mine, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. I do not have 
anything to add other than it is a very serious moment in 
American history and for all Americans, and really for all the 
world. It is just a time, I think, that calls for prayer. We 
need to pray for the leadership of this country, including the 
President and our military leaders and planners, and certainly 
the troops out there on the ground. I just appreciate the 
opportunity you have given us this morning.
    Chairman Warner. I thank the Senator.
    Senator Levin and I now will give our opening statements 
relative to the matter at hand.
    The definition of homeland defense is ever-expanding. But 
before us today is a panel of individuals who are entrusted 
with one of the most critical chapters of homeland defense, a 
chapter that many of us, including this Senator, have advocated 
for years and years, since I have been in this United States 
Senate.
    You, as the Four Horsemen, are bringing into fruition the 
hopes and dreams that so many of us have had, beginning with 
our former president, Ronald Reagan, when he initiated the 
boldest steps in this direction, followed then by George 
Herbert Walker Bush.
    I thank Senator Levin and Senator Allard for suggesting we 
have this at a full committee hearing this morning.
    I welcome the witnesses. We have the Under Secretary of 
Defense for Acquisition, Mr. Aldridge; the Director of 
Operational Test and Evaluation, Mr. Christie; the Director of 
the Missile Defense Agency, General Kadish; and Assistant 
Secretary of Defense for International Security, Dr. J.D. 
Crouch.
    Thank you all, gentlemen.
    Events in the world today underscore the importance of this 
hearing. As our troops prepare for possible conflict with Iraq, 
U.S. missile defense assets are now at this moment being 
deployed throughout the Middle East in the Persian Gulf region. 
Turkey, Israel, and a number of nations in the Gulf are, today, 
defended by U.S. Patriot batteries against the missile threats 
posed by Iraq.
    In addition, with U.S. assistance, Israel has developed and 
deployed its own national defense system centered around the 
important Arrow Program. Our Nation was a major contributor in 
many ways to the development of that program. These deployments 
are a key component of President Bush's vision of a layered 
missile defense system capable of defending the United States, 
its allies, friends, and deployed military forces against the 
increasing threat posed by ballistic missiles and weapons of 
mass destruction.
    This is not a future hypothetical threat we are discussing. 
It is here and now, as Senator Allard pointed out. According to 
the Director of Central Intelligence, George Tenet, in his 
testimony before this committee, and I quote him, ``The United 
States faces a near-term ICBM threat from North Korea. Over the 
next several years, we could face a similar threat from Iran 
and possibly Iraq.''
    September 11 was a vivid reminder that the United States is 
vulnerable to attack in ways we never imagined. It is our duty 
to protect the American people against the full range of 
threats as we can best envision them. President Bush has given 
that leadership from the moment he took office. He has been 
committed to developing and fielding missile defenses to 
protect the United States, our troops deployed overseas, our 
allies, and friends from a limited missile attack.
    The President has substantially increased funding for 
missile defense and has focused our efforts on deploying an 
effective missile defense system. For fiscal year 2004, the 
President has requested $9.1 billion for missile defense, an 
18-percent real increase over the 2003 level. He has removed 
the constraints imposed by the ABM Treaty. With this budget 
before us, he has taken an important first step in actually 
fielding a missile defense capability.
    On December 17, 2002, President Bush announced his decision 
to field an initial missile defense capability, consisting 
primarily of ground- and sea-based interceptors to protect the 
United States, our friends, and our allies: ``These initial 
capabilities emerge from our research and development program 
and build on the test bed that we have been constructing. While 
modest, these capabilities will add to America's security and 
serve as a starting point for improved and expanded 
capabilities later, as further progress is made in researching 
and developing missile technologies.''
    A clear statement by the President and recognition of the 
fact that the program under optimum circumstances would have 
remained intact. But I think the President is exactly right in 
using the limited capabilities that we have thus far put in 
place. I strongly support this President's decision. It is a 
prudent, responsible step. It will ensure the United States 
has, at least, a modest capability.
    Today we will receive your individual assessments as to the 
degree it helps. But he points out, it is a modest capability 
for the near future to protect our people against a limited--
not a massive--but a limited attack.
    It is important to point out the use of a development 
system by our military forces for operational purposes is not 
unique. There are many examples from the recent past, driven by 
an urgent need and the fact that the developmental system could 
provide at least limited operational capability of such systems 
for our military forces.
    Some of these examples are well known. Two Joint 
Surveillance and Target Attack Radar System aircraft, or 
JSTARS, flew hundreds of hours of combat missions during the 
1991 Persian Gulf War and provided warning to our forces on the 
ground when the Iraqi army was on the move. What was the status 
of the JSTARS aircraft at that time? A question. They were pre-
production aircraft that had not even started operational test 
and evaluation.
    Indeed, in the wake of the outstanding performance of 
JSTARS during the 1991 conflict, our committee increased the 
administration's request for JSTARS aircraft long prior to 
completion of operational test and evaluation. More recently, 
the Predator and Global Hawk unmanned aerial vehicles have 
proven to be valuable assets to our forces during the global 
war on terrorism. Our military put these assets in the field in 
Afghanistan, even though the Predator failed its operational 
evaluation, and Global Hawk has yet to start its operational 
evaluation.
    The witnesses today will testify as to how successful these 
systems have been in contributing to our military effort. The 
record is clear, when faced with an imminent threat and an 
urgent need for a military capability, we have often fielded 
systems that have not fully completed their operational 
testing. This does not mean that we are fielding systems with 
no military value.
    To the contrary, this practice has enabled us to provide 
our military with critical capabilities during times of crisis 
and conflict. Clearly the testing of the BMD system is not 
complete. The Secretary of Defense has already testified, and I 
expect our witnesses today will confirm, that testing on the 
BMD system will continue unabated, will be vigorous, will grow 
more complex and difficult, and that the system capabilities 
will hopefully improve over time.
    The capability that this initial fielding will provide is, 
by the Department of Defense's own assessment, limited. The 
alternative is to leave the Nation with no defenses at all 
against long-range missile attack. I repeat, we have absolutely 
nothing in place in this Nation to interdict the rogue state 
from firing at us, terrorists firing at us, or other means of a 
limited attack. That is unacceptable. I think the steps taken 
by our President, and supported by the witnesses before us, are 
very prudent and the correct steps.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you very much, Mr. Chairman, for 
calling this very important hearing today.
    This committee has historically been committed to ensure 
that the men and women of our military service receive the best 
equipment, the best training, and the best support that we can 
provide. That is why 20 years ago, this Congress passed one of 
the most important laws to ensure the quality of the military's 
equipment.
    The law established the Director of Operational Test and 
Evaluation (DOT&E). It was passed in 1983. It states that no 
weapons system may be deployed without undergoing rigorous 
realistic operational testing, or a plan for that testing at a 
minimum, and approved by the director.
    To keep the director as independent as possible, he is 
appointed by the President, not by the Secretary of Defense. He 
is confirmed by the Senate. We are pleased to have the current 
director, Tom Christie, with us today. Mr. Christie and his 
predecessors have been able to maintain an independent, 
unbiased watch over the development of the Pentagon's weapon 
systems.
    Unlike the military services that developed the systems, 
the director has no stake in the systems that he tests, except 
to see that they perform as they should under realistic combat-
like conditions. If they do not, his job is to inform the 
Secretary of Defense and Congress. This powerful system of 
checks and balances has served the military well. It has been a 
long time since we deployed a system that does not work, or at 
least that we deployed a system that does not have a plan for 
operational testing to make sure that it does work.
    Prior to the existence of the 1983 law that established the 
Operational Test and Evaluation Director, such multi-billion 
dollar mistakes were all too common. The Bradley Fighting 
Vehicle, the B-1 bomber, and the Sergeant York gun, were all 
part of a major defense build-up of the early 1980s. There were 
examples of systems that were rushed to deployment without 
realistic testing or a plan for realistic testing. The first 
two systems had such serious problems that they would have 
posed life-threatening dangers to their own crews, had they 
ever been used in combat. The taxpayer was forced to pay tens 
of billions of dollars in extra costs to retrofit fixes for the 
most egregious problems. The Sergeant York gun was actually 
canceled outright after taxpayers spent $2 billion to develop 
and purchase more than 100 of the faulty guns.
    So we enacted a law in 1983 to establish the Director of 
Operational Test and Evaluation, require that all major weapon 
systems have independent operational testing either before they 
are deployed or to have a plan for such operational testing in 
the field, and that they not be exempt from operational 
testing. The Patriot PAC-3 missile system is one of such 
systems and is being deployed now, following a rigorous set of 
operational tests.
    The decision to develop and deploy a national missile 
defense against strategic missiles has been made. That is not 
the issue anymore. There was debate over that decision, as to 
whether it was wise to do that, and what it would precipitate 
in terms of other countries' responses, but that debate is 
over. The decision to deploy a national missile defense is 
over.
    The question now is whether or not we are going to deploy a 
system, which we take steps to assure will work. That is the 
issue, and that is where operational testing comes in. I want 
to first off agree with my chairman relative to the history of 
JSTARS and Predator.
    JSTARS and Predator were fielded before operational testing 
was completed and should have been. They were tested in the 
field. We learned a lot about JSTARS and Predator in the field. 
What we did not do relative to JSTARS and Predator, and what we 
should not do here, is exempt them from operational testing at 
some point.
    There was no language relative to JSTARS and to the 
Predator such as is in this year's budget request, which 
provides that a system which is being fielded is going to be 
considered a system which is in development and demonstration. 
Because the effect of saying, as this budget request does, that 
the 2004 system, which is going to be deployed or fielded in 
Alaska, is going to be considered, in the words of the budget 
request, a system development and demonstration for purposes of 
any law governing the development and production of a major 
defense acquisition program. That language effectively exempts 
this system from operational development. That is the problem 
that I see.
    I have problems with fielding a system before it is 
operationally tested, because part of the system can never be 
operationally tested. The radar that is going to be deployed 
cannot be operationally tested for 2 years. I have problems 
with that. That is one problem. We can agree or we can disagree 
over that one.
    But it seems to me, doubling the problem is this exemption 
from operational testing for the parts of the system that can 
be tested after they are fielded. Parts of the system can be 
tested. I would hope we could unite on that issue. We never 
adopted language such has been requested here for JSTARS and 
for Predator. There is no reason to adopt that language. It 
sets a horrible precedent for us to exempt a system from 
operational testing at some point, even after it is fielded.
    Predator and JSTARS prove my point, that you do not need 
language like is being proposed in order to field a system. So 
we can debate whether or not this system should be fielded at 
this point. We can debate that issue; it is a debate and people 
will differ on that one. But it is obviously going to be 
fielded. I do not think we should have any debate over whether 
or not we ought to include language which exempts a system that 
has been fielded without operational testing from being 
operationally tested, to the extent it can be, after it is 
fielded. That is what seems to me to be an issue where we ought 
to be able to rally around. We are rallying our troops, and 
rightly so, even though there was difference over the issue as 
to whether or not the decision to move to war without the full 
support of the United Nations with a resolution, which the 
President said he would seek a vote on. We debated that and 
that debate is over. Now we are rallying around our troops.
    We debated the deployment of a system, a national missile 
defense system. That debate is over. The decision to develop 
and deploy it has been made. But now, it seems to me that we 
ought to rally around operationally testing that system to the 
extent we can. That is a safety mechanism for our troops and 
for our people. That 1983 law should not be waived. We should 
not exempt systems from being operationally tested at some 
point, either before they are fielded, hopefully.
    In most cases, they can be. But in exceptional cases, and 
the chairman has mentioned those cases, Predator, JSTARS, they 
had a useful purpose to be served after they were fielded. By 
fielding them, there was a useful purpose. They gave us some 
capability we otherwise did not have. It was not the full 
capability. But we sure learned a lot after they were fielded 
by testing them in the field.
    Again, I emphasize we did not adopt this kind of language 
that is being proposed here by the administration; that no one 
seems to know how it got in the budget, by the way. We did not 
adopt this kind of language for JSTARS and Predator, as far as 
I know, at least.
    So that is my opening statement, Mr. Chairman. Again, I 
thank you for calling the hearing.
    Chairman Warner. Thank you, Senator. I guess we agree, 
then, on the question of fielding it. It is the old doctrine, 
use it or we could lose it. We could suffer an attack, which 
would substantially damage life and limb and property here in 
this country. To think that we would not put everything 
possible against that potential attack is not a wise decision.
    Now as to the laws, that specific question that you framed 
is before the secretary and this panel this morning. So, Mr. 
Secretary, we will admit all statements in their entirety for 
the record. You gentleman may proceed, as you wish.
    Secretary Aldridge.

   STATEMENT OF HON. EDWARD C. ``PETE'' ALDRIDGE, JR., UNDER 
 SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY AND LOGISTICS

    Secretary Aldridge. Good morning, Mr. Chairman, Mr. Levin, 
and members of the committee. Thank you for the opportunity to 
appear before you today to discuss the fiscal year 2004 
Department of Defense missile defense program and budget 
submission. I am pleased to provide you this update on the 
progress of the missile defense development program.
    In the year that has transpired since I last addressed the 
committee, we have made some good progress in missile defense. 
The new management structure, established by Secretary Rumsfeld 
in his memorandum of January 2, has been stood up. An effective 
and vigorous oversight structure, aided by the Missile Defense 
Support Group, is in place and providing valuable advice to me 
and the Director of the Missile Defense Agency for the conduct 
of the program. Processes within the Department have been 
modified to support the accelerated development and fielding of 
these new revolutionary capabilities.
    A national team of the best and brightest of government and 
industry has been formed and is tackling the complex technical 
challenges of ballistic missile defense. We have achieved a 
number of successes in the missile defense test program, which 
have added momentum to the development effort and bolstered our 
confidence that we will be able to meet the challenges that lie 
ahead.
    In addition, our overtures to allies and friends have 
generated an expanded desire for international participation in 
the ballistic missile defense program. The focus of my 
testimony in March of last year was the management and 
oversight of the missile defense program. The committee was 
rightly concerned that the new management structure should 
provide for the proper oversight of the program by the 
Department and that Congress would have full insight into 
program activities.
    I informed you of the formation of a Missile Defense 
Support Group, consisting of key officials plus two advisors 
from 13 selected offices within the Department, including the 
military services, for a total of 39 individuals who support 
the decisionmaking by the Senior Executive Council and to 
advise me and the Director of the Missile Defense Agency on the 
full range of issues associated with the missile defense 
program, including policy, operations, acquisition, and 
resources.
    In the span of one year, we have had 25 meetings of the 
Missile Defense Support Group, an average of two meetings each 
month of a group of some of the most knowledgeable and 
experienced individuals in the Department. No program in the 
Department receives more scrutiny, either in level of rigor or 
frequency of study, than the missile defense program.
    The Missile Defense Support Group has provided me and 
General Kadish strong support in numerous key areas of the 
missile defense program. The Missile Defense Support Group has 
helped develop the strategies for the deployment of an initial 
capability, and the follow-on deployment of expanded 
capabilities, in block configurations. It has also been 
valuable for the transition of developed capabilities to the 
Services for fielding and operation.
    In October of last year, I decided that the time was right 
to transfer the Patriot PAC-3 system to the Army. The advice of 
the Missile Defense Support Group for making the hand-over to 
the Army supported the Defense Acquisition Board process and 
aided my decision to make the transfer.
    The Missile Defense Support Group has also helped the 
missile defense development program by speeding a number of 
routine Department processes, including review of the annual 
budget and continuing evaluation of each part of the missile 
defense program against its cost and schedule goals. I can 
confidently assure Congress that oversight has actually 
improved under the new management structure with the continual 
engagement of this support group.
    As you are aware, in December 2002, President Bush made a 
decision to deploy limited missile defense capability beginning 
in 2004. The nature of the expanding ballistic missile defense 
threat, and the declared hostile intent of our adversaries, 
compels us to put capabilities in the hands of our fighting men 
and women as soon as they become available, even if the state 
of development is less than we would ultimately hope to 
deliver.
    Putting an effective capability into the hands of our 
fighting force is a dramatically safer move for our troops, our 
Nation, our lives, and our friends, than delaying their 
fielding for 5 years or more as we strive for the final 
objective level of performance. This is the strategy directed 
by Secretary Rumsfeld in his January 2, 2002, memorandum on the 
missile defense program and the philosophy by which our efforts 
are being guided.
    Concerns have been raised by some that this might result in 
the fielding of systems that are unproven and unsuitable for 
battlefield conditions, or that the Department is seeking a 
waiver of statutory requirements governing operational testing. 
No such waiver of testing requirements has been requested; and 
I will repeat that. No such waiver of testing requirements has 
been requested.
    Quite the contrary, the revolutionary nature of missile 
defense and the threat posed by ballistic missiles have 
prompted us to take steps to ensure that deployed systems meet 
effectiveness and suitable goals through rigorous testing 
throughout the development. The Department involves the 
operational test community well in advance of a deployment 
decision, so that we can gain a better understanding of these 
issues as capabilities are being developed. The Director of 
Operational Test and Evaluation is directly involved in the 
review and assessment of all missile defense testing 
activities. He will provide his operational assessment report 
to Congress each year and provide the Department an operational 
assessment of the suitability and effectiveness of the 
ballistic missile defense system at each block decision point.
    DOT&E also participates as a member of the Missile Defense 
Support Group, which has examined the development test program 
on several occasions during its first year of work. The 
Department is committed to ensuring that fielded missile 
defense capabilities are sufficient for defending against the 
threat. I am confident that the level of oversight being 
provided to test activities will accomplish this goal.
    An important element of our missile defense program is the 
planned ability to extend ballistic missile defenses to include 
our friends and allies. Recent revelations about North Korea's 
ability to reach the United States, compounded by that nation's 
recent behavior, have validated the concerns of Japan and other 
Western Pacific nations regarding the threat of ballistic 
missile attack.
    These concerns are rightly shared by Europe, as well. The 
ongoing proliferation of weapons and missile technology to 
nations such as Iran pose an immediate threat to the European 
continent and to North America. This has sparked a growing 
desire among several of our allies to participate in the 
missile defense program. We have recently conducted discussions 
with the United Kingdom, Japan, and Denmark toward expanded 
missile defense participation, with some positive outcomes 
already agreed to.
    We are also continuing dialogue with other allies. The 
effectiveness of any global ballistic missile defense system 
will be enhanced by international participation.
    Since this is my first opportunity to testify before the 
Senate Armed Services Committee since the passage of the 
National Defense Authorization Act for Fiscal Year 2003, I 
would like to take this opportunity to thank its members for 
their invaluable contribution to such elements of this 
legislation as Buy-to-Budget. This provision will help us 
optimize the use of taxpayer funds as we seek to provide the 
best possible equipment and weaponry to the warfighter. We are 
also grateful for the removal of certain superfluous and 
resource-consuming reporting requirements.
    The continued cooperation between the Department of Defense 
and Congress will only grow in importance as we execute our 
mission to provide for the national security of the United 
States. I look forward to continuing that cooperation.
    Thank you, Mr. Chairman, for the opportunity to testify.
    Chairman Warner. Thank you, Secretary Aldridge.
    [The prepared statement of Mr. Aldridge follows:]

      Prepared Statement by Hon. Edward C. ``Pete'' Aldridge, Jr.

    Good morning, Mr. Chairman, ranking member, and members of the 
committee. Thank you for the opportunity to appear before you today to 
discuss the fiscal year 2004 Department of Defense missile defense 
program and budget submission. I am pleased to provide you this update 
on the progress of the missile defense development program.
    In the year that has transpired since I last addressed the 
committee, we have made good progress in missile defense. The new 
management structure established by Secretary Rumsfeld in his 
memorandum of January 2, 2002, has been stood up. An effective and 
rigorous oversight structure, aided by the Missile Defense Support 
Group, is in place and providing valuable advice to me and to the 
Director of the Missile Defense Agency for the conduct of the program. 
Processes within the Department have been modified to support the 
accelerated development and fielding of these new revolutionary 
capabilities. A national team of the best and brightest of the 
government and industry has been formed and is tackling the complex 
technical challenges of ballistic missile defense. We have achieved a 
number of successes in the missile defense test program, which have 
added momentum to the development effort and bolstered our confidence 
that we will be able to meet the challenges that lie ahead. In 
addition, our overtures to allies and friends have generated an 
expanded desire for international participation in the Ballistic 
Missile Defense Program.
    The focus of my testimony in March of last year was the management 
and oversight of the missile defense program. The committee was rightly 
concerned that the new management structure should provide for the 
proper oversight of the program by the Department and that Congress 
should have full insight into program activities. I informed you of the 
formation of a Missile Defense Support Group (MDSG) consisting of key 
officials plus 2 advisors from 13 selected offices within the 
Department (including the military services) for a total of 39 
individuals who support decisionmaking by the Senior Executive Council 
(SEC) and to advise me and the Director of the Missile Defense Agency 
on the full range of issues associated with the missile defense program 
including policy, operations, acquisition, and resources. In the span 
of 1 year we have had 25 meetings of the MDSG, an average of 2 meetings 
each month of a group of some of the most knowledgeable and experienced 
individuals in the Department. No program in the Department receives 
more scrutiny--either in level of rigor or frequency of study--than the 
missile defense program. The MDSG has provided me and General Kadish 
strong support in numerous key areas of the missile defense program. 
The MDSG has helped develop the strategies for the deployment of an 
initial emergency capability and the follow-on deployment of expanded 
capabilities in block configurations. It has also been valuable for the 
transition of developed capabilities to the Services for fielding and 
operation. In October of last year I decided that the time was right to 
transfer the Patriot (PAC-3) system to the Army. The advice of the MDSG 
for making the handover to the Army supported the Defense Acquisition 
Board process and aided my decision to make the transfer. The MDSG has 
also helped the missile defense development program by speeding a 
number of routine Department processes including review of the annual 
budget and the continuing evaluation of each part of the missile 
defense program against its cost and schedule goals. I can confidently 
assure Congress that oversight has actually improved under the new 
management structure with the continual engagement by the MDSG.
    As you are aware, on December 19, 2002, President Bush made the 
decision to deploy a limited missile defense capability beginning in 
2004. The nature of the expanding ballistic missile threat and the 
declared hostile intent of our adversaries compel us to put 
capabilities in the hands of our fighting men and women as soon as they 
become available, even if the state of development is less than what we 
ultimately hope to deliver. Putting an effective capability into the 
hands of our fighting force is a dramatically safer move for our 
troops, our Nation, our allies, and our friends than delaying their 
fielding for 5 years or more as we strive for a final, objective level 
of performance. This is the strategy directed by Secretary Rumsfeld in 
his January 2, 2002 memorandum on the missile defense program and the 
philosophy by which our efforts are being guided. Concerns have been 
raised by some that this might result in the fielding of systems that 
are unproven and unsuitable for battlefield conditions or that the 
Department is seeking a waiver of statutory requirements governing 
operational testing. No such waiver of testing requirements has been 
requested. Quite the contrary, the revolutionary nature of missile 
defense and the threat posed by ballistic missiles have prompted us to 
take steps to ensure that deployed systems meet effectiveness and 
suitability goals through rigorous testing throughout development. The 
Department involves the operational test community well in advance of a 
deployment decision so that we can gain a better understanding of these 
issues as capabilities are being developed. The Director of Operational 
Test and Evaluation (DOT&E) is directly involved in the review and 
assessment of all missile defense testing activities. He will provide 
his operational assessment report to Congress each year and provide the 
Department an operational assessment of the suitability and 
effectiveness of the ballistic missile defense system at each block 
decision point. DOT&E also participates as a member of the Missile 
Defense Support Group, which has examined the developmental test 
program on several occasions during its first year of work. The 
Department is committed to ensuring that fielded missile defense 
capabilities are sufficient for defending against the threat. I am 
confident that the level of oversight being provided to test activities 
will accomplish this goal.
    An important element of our missile defense program is the planned 
ability to extend ballistic missile defenses to include our friends and 
allies. Recent revelations about North Korea's ability to reach the 
United States, compounded by that nation's recent behavior, have 
validated the concerns of Japan and other Western Pacific nations 
regarding the threat of ballistic missile attack. These concerns are 
rightly shared by Europe, as well. The ongoing proliferation of weapons 
and missile technology to nations such as Iran poses a more immediate 
threat to the European continent than to North America. This has 
sparked a growing desire among several of our allies to participate in 
the missile defense program. We have recently conducted discussions 
with the United Kingdom, Japan, and Denmark toward expanded missile 
defense participation, with some positive outcomes already agreed to. 
We are also in continuing dialogue with other allies. The effectiveness 
of any global ballistic missile defense system will be enhanced by 
international participation.
    Since this is my first opportunity to testify before the Senate 
Armed Services Committee since the passage of the National Defense 
Authorization Act for Fiscal Year 2003, I would like to take this 
opportunity to thank its members for their invaluable contributions to 
such elements of this legislation as ``Buy-to-Budget.'' This provision 
will help us optimize the use of taxpayer funds as we seek to provide 
the best possible equipment and weaponry to the warfighter. We are also 
grateful for the removal of certain superfluous and resource-consuming 
reporting requirements. The continued cooperation between the 
Department of Defense and Congress will only grow in importance as we 
execute our mission to provide for the national security of the United 
States. I look forward to continuing that cooperation.
    Thank you, Mr. Chairman, for the opportunity to testify before the 
committee. I would be happy to answer any questions you might have.

    Chairman Warner. Mr. Christie, in your opening statement 
here, I hope you would address Senator Levin's important 
observation and express your concurrence, I presume, with the 
very clear statement about waiver given by Secretary Aldridge.

 STATEMENT OF HON. THOMAS P. CHRISTIE, DIRECTOR OF OPERATIONAL 
           TEST AND EVALUATION, DEPARTMENT OF DEFENSE

    Mr. Christie. Mr. Chairman, Senator Levin, and 
distinguished members of the committee, I also appreciate this 
opportunity to appear and discuss operational test issues 
involved with building this missile defense test bed that may 
also have some inherent defense capability. Let me emphasize up 
front that I strongly support building this test bed as a means 
of conducting more realistic ballistic missile defense testing.
    It will provide us with an excellent capability to test the 
integrated ballistic missile defense system against more 
challenging targets and under more realistic flight conditions. 
Designed to accomplish this testing mission, this test bed may 
have some capability to defend against an actual threat and a 
real attack. It depends, of course, on certain assumptions 
about intelligence of an imminent attack and the positioning of 
sensors to acquire, track, and target the threat.
    Regardless of what this initial collection of equipment, 
communications, and personnel is called, the fact remains that 
we must build this test capability and put it in the field 
before we can test the system. It is also prudent to develop 
operational concepts and to train personnel in concert with 
test bed development, so that whatever inherent capability 
exists in this testing infrastructure could be employed to 
defend the United States in an event of a ballistic missile 
attack.
    I understand and share the concerns raised by some members 
of Congress, with the precedent of fielding operational systems 
without adequate operational testing. Some had suggested that 
the Department is requesting a waiver from operational testing 
for the ballistic missile defense system. Mr. Aldridge has said 
that the Department has not requested such a waiver.
    Now, let me take just a moment here to discuss my overall 
assessment of the situation. The Missile Defense Agency is 
proceeding with the design and development strategy that is 
very proactive when it comes to testing. General Kadish has 
adopted a mission assurance philosophy that treats test 
instrumentation as mission-critical equipment. My staff and I 
are involved on a daily basis with the Missile Defense Agency 
and the program managers for the ballistic missile defense 
elements. We review test plans, participate in planning 
meetings, witness tests, and provide coordinated advice to the 
director and respond in written reports to Congress on the 
adequacy of the testing programs.
    I have access to all the information I need to fulfill 
these responsibilities. I have completed my assessment of the 
PAC-3 initial operational test and evaluation, which is 
documented in a classified beyond low-rate initial production 
report that was provided to Congress last November.
    I have also completed, and submitted to the appropriate 
committees of Congress, my annual assessment of the MDA testing 
programs, as required by House Report 107-333. In that report I 
conclude that the ground-based mid-course defense (GMD) element 
of the BMDS, in essence, has not yet demonstrated operational 
capability.
    This conclusion, which I believe General Kadish agrees 
with, is based on the fact that many essential components of 
GMD have yet to be built. We can't test the system without 
these critical components. We cannot test the GMD system 
realistically without this test bed.
    This was illustrated recently when the exo-atmospheric kill 
vehicle failed to separate from the booster in integrated 
flight test ten. MDA subsequently restructured the flight test 
program, eliminating further testing with this old booster 
system. This decision considered the poor performance of the 
surrogate booster system and the risks of diverting booster 
developers from the objective booster design effort, compared 
with the advantages of gathering additional data from those 
flight tests.
    Beginning later this fiscal year and continuing to the 2004 
decision, testing will resume with a test flight for each of 
the candidate booster motors and a risk-reduction flight for a 
target launch from Kodiak. Intercept testing will continue in 
IFTs-14 and -15, flown with the new boosters. This is followed 
by integrated ground testing of the test bed and a system test 
readiness review just prior to the 2004 deployment decision.
    Current plans also call for three more intercept flights 
for the Aegis ballistic missile defense prior to the end of 
fiscal year 2004. Additional flight testing beyond this point 
is still being planned. The purpose of the test bed is to 
establish a baseline capability, to realistically integrate and 
test the components of the BMDS, and to enhance capability 
incrementally through block development.
    The real challenge here is to develop an operational 
concept for using the test bed that will integrate components 
of the BMDS as they become available, in order to evaluate the 
operational capability of the system and defend against a 
ballistic missile attack, if so needed. If we do not develop an 
operational concept and an attack does come, then we will have 
failed in a most serious way.
    On the other hand, if an effort to refine an operational 
concept for an interim system significantly distracts us from 
building the objective system in expeditious fashion, then we 
risk similar failure. Defense from the test bed is a serious 
matter that will demand the focus and attention of the 
developers, the testers, and the users. We will need to work 
together with a common understanding of what we are building to 
achieve this goal.
    While the test bed is a research and development system, 
this does preclude us from addressing operational test and 
evaluation issues with it. In fact, it is common for systems in 
development to combine developmental and operational test 
objectives. The test bed, including missiles, will provide an 
early opportunity to acquire valuable ground test data on 
intra- and inter-operability between the command and control 
center and the silo/missile complex; on the system and missile 
health, or built-in testing capability; and on system safety, 
reliability, maintainability, and logistics.
    It will also permit us to get an early start on collecting 
data on the aging effects on the missile. Availability of this 
data will permit lessons learned from the test bed to be 
considered in improving the objective ground-based mid-course 
defense system.
    Every major GMD ground and flight test, both prior to and 
after the 2004 test bed is available, formally addresses both 
development testing and operational testing, objectives 
consistent with the maturity level of the system. The Service 
operational test agencies have approximately 35 personnel at 
this point, dedicated to planning the details of the 
operational test portions of the ground and flight tests and 
for analyzing and reporting relevant operational test data.
    My staff is working with the operational test agencies to 
define independent evaluation plans for those operational test 
activities. I will review and approve these operational test 
and evaluation plans and their associated data requirements. I 
will review and comment on plans for development tests, 
exercises, simulations, and experiments that will produce the 
data to feed the evaluation process. I will use both 
developmental and operational test data as the basis for my 
operational assessments, for advising General Kadish and the 
Secretary, and as the basis for my annual assessment, which 
will be provided to Congress.
    Let me wrap up my remarks by briefly covering the Patriot 
PAC-3 system, which was talked about earlier. This is the first 
BMDS element to go through a procurement milestone under the 
new capability-based acquisition philosophy. I concluded in my 
beyond-low-rate production report, submitted last November to 
Congress, that the PAC-3 missile shows significantly improved 
performance against some tactical ballistic missile threats.
    The Defense Acquisition Board approved a limited purchase 
of PAC-3 missiles consistent with programmatic objectives, such 
as developing production capacity, unit cost considerations, 
and urgent military needs. This puts an improved, proven 
capability in the field, well ahead of when a completely 
demonstrated objective capability will be available.
    The Missile Defense Agency originally planned for future 
blocks of the PAC-3 system to stay in research and development, 
transitioning to the Army only after each block went through 
further developmental and operational testing. However, MDA 
took advice from me and other Missile Defense Support Group 
members, as Mr. Aldridge has discussed earlier, to keep the 
development and testing activities in a combined DT/OT mode. 
The entire PAC-3 program is being transitioned to the Army. 
This decision avoids conflicting development objectives between 
missile defense and air defense mission needs. The program 
office has developed a robust follow-on test program to address 
other ballistic missile targets, counter-measures, and other 
air defense targets.
    Mr. Chairman, ladies and gentlemen, my staff has worked and 
will continue to work diligently with General Kadish's staff to 
build what I feel is a very effective relationship. I will 
continue to work closely with General Kadish to ensure that the 
mission of the test bed, as a test bed, is kept in perspective. 
He and I have discussed taking advantage of the data gathering 
opportunities that this test bed will provide.
    I am working with the Service operational test agencies to 
identify data requirements for an operational test evaluation 
plan that I will review and approve. I will continue to monitor 
planning and testing activities to ensure that we test as 
realistically and as thoroughly as we can, advise the Director 
of MDA of operational testing concerns, and report my 
assessments of progress to both the Secretary and to you.
    Thank you.
    Chairman Warner. Thank you, Mr. Christie.
    [The prepared statement of Mr. Christie follows:]

             Prepared Statement by Hon. Thomas P. Christie

    Mr. Chairman, members of the committee, I appreciate the 
opportunity to appear before you today and discuss the operational 
testing issues involved with building a missile defense test bed that 
may also have some inherent defensive capability. I strongly support 
building this test bed as a means of conducting more realistic 
ballistic missile defense testing. It will provide us with an excellent 
capability to test the integrated Ballistic Missile Defense System 
against more challenging targets under more realistic flight 
conditions. Designed to accomplish this testing mission, this test bed 
may have some capability to defend against an actual threat in a real 
attack, depending, of course on certain assumptions about intelligence 
of an imminent attack and the positioning of sensors to acquire, track 
and target the threat. Regardless of what this initial collection of 
equipment, communications, and personnel is called, the fact remains 
that we must build the test capability and put it in the field before 
we can test the system. It is also prudent to develop operational 
concepts, and train personnel in concert with the test bed's 
development, so that whatever inherent capability exists in the testing 
infrastructure could be employed to defend the United States in the 
event of a ballistic missile attack.
    I understand and share the concerns raised by Members of Congress 
with the precedent of fielding operational systems without adequate 
operational testing. Some have suggested that the department is 
requesting a waiver from operational testing for the BMDS system. Let 
me take a moment here to discuss my assessment of this situation.
    The Missile Defense Agency is proceeding with a design and 
development strategy that is very proactive when it comes to testing. 
General Kadish has adopted a mission assurance philosophy that treats 
test instrumentation as mission critical equipment. My staff and I are 
involved on a daily basis with the Missile Defense Agency and the 
program managers for the Ballistic Missile Defense System elements, 
reviewing test plans, participating in planning meetings, witnessing 
tests, providing coordinated advice to the director, and responding in 
written reports to Congress on the adequacy of the testing programs. I 
have access to all the information I need to fulfill these 
responsibilities.
    I have completed my assessment of the PAC-3 Initial Operational 
Test and Evaluation test results, which is documented in a classified 
Beyond Low Rate Initial Production report, provided last November to 
Congress. I have also completed and submitted to the appropriate 
committees of Congress, my annual assessment of the MDA testing 
programs, required by House report 107-333. In that report, I conclude 
that the Ground-based Midcourse Defense element of the BMDS has 
essentially not yet demonstrated operational capability. This 
conclusion, which I believe MDA agrees with, is based on the fact that 
many essential components of GMD have not yet been built. We cannot 
test the system without these critical components, and we cannot test 
it realistically without the test bed.
    This was illustrated recently, when the exoatmospheric kill vehicle 
failed to separate from the booster in IFT-10. MDA subsequently 
restructured the flight test program, eliminating further testing with 
the old booster system. This decision considered the poor performance 
of the legacy booster system and the risks of diverting booster 
developers from the objective booster design effort, compared with the 
advantages of gathering additional data from those flight tests.
    Beginning later this fiscal year and prior to the 2004 decision, 
testing will resume with a test flight for each of the candidate 
boosters and a risk reduction flight for a target launched from Kodiak. 
Intercept testing will continue in IFTs-14 and 15, flown with the new 
boosters. MDA is currently considering plans to optimize the sequence 
of these tests, and to include additional risk reduction flights. This 
is followed by integration ground testing of the test bed and a system 
test readiness review. Current plans also call for three more intercept 
flights for the Aegis Ballistic Missile Defense prior to the end of 
fiscal year 2004, with the last flight conducted against a separating 
threat. Additional flight testing beyond this point is still being 
planned. The purpose of the test bed is to establish a baseline 
capability, to realistically integrate and test the components of the 
BMDS, and to enhance capability incrementally, through block 
development.
    The real challenge is to develop an operational concept for using 
the test bed that integrates components of the BMDS as they become 
available, in order to evaluate the operational capability of the 
system and defend against a ballistic missile attack in an emergency. 
If we don't develop an operational concept and an attack does come, 
then we will have failed in a most serious way. On the other hand, if 
an effort to refine an operational concept for an interim system 
significantly distracts us from building the objective system in an 
expeditious fashion, then we risk similar failure against more 
sophisticated threats down the road. Defense from the test bed is a 
serious matter that will demand the focused attention of the 
developers, the testers and the users. We will need to work together 
with a common understanding of what we are building to achieve this 
goal.
    While the test bed is a research and development system, this does 
not preclude us from addressing operational test and evaluation issues. 
In fact, it is common for systems in development to combine 
developmental and operational test objectives. The test bed, including 
missiles, will provide an early opportunity to acquire valuable ground 
test data on intra- and interoperability between the command and 
control center and the silo/missile complex; on the system and missile 
health and status or built in testing capability; and on system safety, 
reliability, maintainability and logistics supportability. It will also 
permit us to get an early start on collecting data on aging effects on 
the missile. Availability of this data will permit lessons learned from 
the test bed to be considered in improving the objective Ground-based 
Mid-course Defense system.
    Every major GMD ground and flight test, both prior to and after the 
2004 test bed availability, formally addresses both DT and OT 
objectives consistent with the maturity level of the system. This 
includes testing planned both prior to 2004 test bed capability and 
after. The Service Operational Test Agencies have approximately 35 
personnel dedicated to planning the details of the operational test 
portion of the ground and flight tests, and for analyzing and reporting 
relevant operational test data. My staff is working with the 
Operational Test Agencies to define independent evaluation plans for 
the operational test activities. I will review and approve these 
Operational Test and Evaluation plans and their associated data 
requirements. I will review and comment on plans for developmental 
tests, exercises, simulations, and experiments that will produce the 
data to feed the evaluation process. I will use both developmental and 
operational test data as the basis for my operational assessment, for 
advising General Kadish, and as the basis for my annual assessment.
    Let me wrap up my remarks with an update on the PAC-3 program. This 
is the first BMDS element to go through a procurement milestone under 
the new capability based acquisition philosophy. I concluded in my 
Beyond Low Rate Production report submitted last October that the 
missile shows significantly improved performance against some tactical 
ballistic missile threats. The Defense Acquisition Board approved a 
limited purchase of PAC-3 missiles, consistent with programmatic 
objectives, such as developing production capacity and unit cost 
considerations, and urgent military needs. This puts an improved, 
proven capability in the field well ahead of when a completely 
demonstrated objective capability will be available. MDA originally 
planned for future blocks of the PAC-3 system to stay in research and 
development, transitioning to the Army only after each block went 
through further developmental and operational testing. However, MDA 
took the advice of myself and other missile defense support group 
members, to keep the development and testing activities in a combined 
DT/OT mode. The entire PAC-3 program is being transitioned to the Army. 
This decision avoids conflicting development objectives between missile 
defense and air defense mission needs. The program office has developed 
a comprehensive follow-on test program to address maneuvering ballistic 
missile targets, countermeasures, and air defense targets.
    Mr. Chairman, ladies and gentlemen, my staff has worked diligently 
with General Kadish's staff to build what I feel is a very effective 
relationship. I will continue to work closely with General Kadish to 
make sure that the mission of the test bed, as a test bed, is kept in 
perspective. General Kadish and I have discussed taking advantage of 
the data gathering opportunities that the test bed will provide. I am 
working with the Service operational test agencies to identify data 
requirements for an operational evaluation plan that I will review and 
approve. I will continue to monitor planning and testing activities to 
ensure that we test as realistically and thoroughly as we can, advise 
the Director, MDA of operational testing concerns, and report my 
assessments of progress to the Secretary and to you.
    This concludes my opening remarks and I welcome your questions.

    Chairman Warner. Secretary Crouch.

STATEMENT OF J.D. CROUCH II, ASSISTANT SECRETARY OF DEFENSE FOR 
                 INTERNATIONAL SECURITY POLICY

    Secretary Crouch. Thank you, Mr. Chairman, Senator Levin, 
members of the committee. It is an honor to come before your 
committee today to provide details about the missile defense 
policy and direction of our missile defense program in light of 
the President's recent decision to begin initial fielding of 
missile defense capabilities in 2004. This committee has played 
a crucial role in bringing our missile defense program to this 
point.
    Mr. Chairman, we and our allies face serious and 
unpredictable threats to our homeland and military forces from 
the proliferation of ballistic missiles armed with weapons of 
mass destruction. Ballistic missiles have proliferated on a 
global basis and are in the hands of over two dozen states, 
many of which have either chemical, biological, or nuclear 
weapons programs under way.
    North Korea, for example, has had an active ballistic 
missile program for years and has developed a wide range of 
offensive missiles. It has deployed and exported missiles that 
can threaten our allies, friends, and forces abroad. North 
Korea also has the Taepo Dong II long-range missile, which is 
capable of reaching parts of the United States and could be 
flight tested at any time.
    Iran and other countries are also working on space launch 
vehicles and intercontinental range ballistic missiles that 
could be ready for testing in the next few years.
    We are moving forward with missile defense to help protect 
American territory and forces abroad, our allies, and friends 
against the use of missiles and weapons of mass destruction by 
unpredictable and, in some cases, irresponsible states.
    In addition, some countries seek missiles and weapons of 
mass destruction to coerce us simply by threatening their use. 
Missile defenses can help to reduce our potential vulnerability 
to such coercive threats.
    Finally, missile defense can help to reduce the 
proliferation of offensive missiles by reducing their value, 
thereby reducing the demand for them. In this way, we see 
defenses as a way to provide a useful complement to our non-
proliferation efforts. In light of this new security 
environment and the considerable progress made to date in 
missile defense technology, the President directed the 
Department of Defense to proceed with initial fielding of 
modest missile defense capabilities in 2004 and 2005.
    As the President has noted, because ballistic missile 
threats also endanger our friends and allies around the world, 
it is essential that we work together cooperatively to defend 
against them. To do so, the Department of Defense is developing 
and deploying missile defenses capable of protecting not only 
the United States and our deployed forces, but also our friends 
and allies. We have structured our missile defense program in a 
manner that encourages participation by other nations.
    The Department has been pursuing a broad-based research 
development and testing program to examine the full range of 
capabilities to intercept ballistic missiles of all ranges and 
in all phases of flight. As we field the missile defenses 
called for by the President, our development and testing 
program will continue to improve our defensive systems over 
time.
    Under this evolutionary approach, we do not envision a 
final or fixed missile defense architecture. Rather, the 
composition of missile defenses, including the type, number, 
and location of components, will change over time to meet the 
changing threat and take advantage of technological 
developments. This approach facilitates the timely delivery of 
an initially modest, but still useful, defensive capability 
that can then be improved with the benefit of technical 
advancement and operational experience.
    The capabilities called for by the President for 2004/2005 
include 20 ground-based interceptors against an 
intercontinental range ballistic missile threat, 16 located at 
Fort Greeley, Alaska, and four located at Vandenberg Air Force 
Base in California. The GBIs, or ground-based interceptors, 
will be available on a continuous basis to intercept long-range 
missiles during their mid-course phase of flight.
    The ballistic missile defense system supporting the GBIs 
will include an initial set of integrated sensors, based on 
land and at sea, and cued by early warning sensors in space. We 
have also made requests to the United Kingdom and the Kingdom 
of Denmark to upgrade early warning radars on their territory 
to track ballistic missile threats that might emanate from the 
Middle East. The United Kingdom has already granted the United 
States permission. We look forward to hearing from Denmark 
sometime later this year.
    To address the medium-range threat, we plan to equip three 
existing Aegis-class naval ships with up to 20 standard missile 
SM-3 interceptors. This will provide a highly mobile missile 
defense capability to help protect U.S. forces and allies and 
provide, again, some modest limited protection for the U.S. 
homeland against shorter range missiles that might be launched 
from ships off of our coast.
    Finally, with respect to the short-range threat, we will 
continue to field additional air transportable and mobile 
Patriot PAC-3 units with up to 346 PAC-3 missiles and 42 PAC-3 
radars. These initial capabilities may be improved later in the 
decade through additional measures that will ultimately lead, 
we hope, to a multilayered missile defense capability.
    Fielding a layered missile defense system poses new 
operational command and control challenges. A key presidential 
document used to organize U.S. forces, the Unified Command Plan 
UCP 2002, assigns the U.S. Strategic Command responsibility for 
planning, integrating, coordinating, and developing the desired 
characteristics for sea-, land-, air-, and space-based missile 
defense operations.
    UCP 2002 addresses the missile defense command and control 
issue through the use of centralized planning with 
decentralized execution. Therefore, while STRATCOM will be 
given responsibility for planning, integrating, and 
coordinating global missile defense operations, NORTHCOM and 
other regional combatant commands retain responsibility for 
defending their geographic areas of responsibility. It also 
includes command and control over systems providing defense 
against ballistic missile attacks.
    Mr. Chairman, as the President has stated, it is essential 
that we work together with allies and friends to defend against 
ballistic missile threats. Accordingly, the Department of 
Defense is developing and deploying missile defenses capable of 
protecting our friends and allies, as well. There are a number 
of examples of U.S. missile defense in cooperation with allies 
around the world. The United States, as this committee well 
knows, has been working with Israel since the late 1980s to 
develop the Arrow Missile Defense System.
    We are also working cooperatively with the United Kingdom, 
Japan, Italy, and Germany, and have an ongoing dialogue with 
India on missile defense issues. The United States continues 
actively to engage the Russian Federation in the area of 
missile defense cooperation. The joint declaration, signed by 
Presidents Bush and Putin last May, called for missile defense 
cooperation and reflects the new relationship between our 
countries.
    To fulfill our commitment to strengthen confidence, 
increase transparency, and study areas for missile defense 
cooperation, a U.S./Russian missile defense working group has 
been established under the auspices of a ministerial-level 
group on strategic security. In this venue, the United States 
has proposed to begin voluntary and reciprocal information 
exchanges and visits, has made proposals for potential areas of 
new cooperation, and has also encouraged the Russian 
interaction with U.S. companies working on missile defense.
    In conclusion, Mr. Chairman, missile defenses are an 
essential element of our overall national security policy to 
transfer U.S. defense capabilities to meet the requirements of 
a dynamic international security environment. As we move 
forward to field the missile defenses called for by the 
President, we will do so in cooperation with our friends and 
allies.
    Our initial missile capabilities will be modest but the 
evolutionary approach we are pursuing will support continued 
research, development, and testing to improve our capabilities, 
as budgets and technologies allow and as developments of the 
threat necessitate.
    Thank you very much, Mr. Chairman.
    Chairman Warner. Thank you, Secretary Crouch.
    [The prepared statement of Secretary Crouch follows:]

               Prepared Statement by Hon. J.D. Crouch II

    Mr. Chairman, it is an honor to come before your committee to 
provide details about our missile defense policy and the direction of 
our missile defense program, especially in light of the President's 
recent decision to begin initial fielding missile defense capabilities 
in 2004.
    I would like first to identify the basic reasons for moving forward 
with the fielding of missile defense. We and our allies face serious 
and unpredictable threats to our homelands, populations, and interests, 
particularly including the proliferation of ballistic missiles armed 
with weapons of mass destruction. One of the reasons potential 
adversaries seek ballistic missiles is because we have no defenses 
against long-range missiles, and limited defenses against shorter-range 
missiles. Potential adversaries see these weapons as a means for 
exploiting an obvious U.S. and allied vulnerability.
    Ballistic missiles have proliferated on a global basis and are in 
the hands of over two dozen states, many of which have chemical, 
biological, or nuclear weapons programs underway.
    North Korea, for example, has had an active ballistic missile 
program for years, and has developed a wide-range of offensive 
missiles. It has deployed and exported missiles that can threaten our 
allies, friends, and forces abroad.
    North Korea caught us by surprise when it launched its three-stage 
Taepo-Dong I space-launch vehicle/ballistic missile in August 1998. We 
knew North Korea was developing longer-range missiles, but we were 
surprised at the presence of a third stage on the missile. We have been 
surprised many times in the past by foreign ballistic missile 
developments. We likely will be surprised again in the future. The 
existing and emerging missile threats of which we are aware are 
significant; those we can see now only in part almost certainly will be 
more severe.
    For example, North Korea has the Taepo Dong II long-range missile 
capable of reaching parts of the United States with a nuclear weapon-
sized payload, and it could be flight-tested at any time. According to 
the National Air Intelligence Center, the Taepo Dong II missile may be 
exported to other countries in the future. Iran and other countries 
also are working on space-launch vehicles and intercontinental-range 
ballistic missiles that could be ready for testing in the next few 
years.
    We are moving forward with missile defense to help protect American 
territory and forces abroad, and our allies and friends against the use 
of missiles and weapons of mass destruction by unpredictable, and in 
some cases, irresponsible states.
    In addition, some countries seek missiles and weapons of mass 
destruction to coerce us simply by threatening their use. Missile 
defenses will help to reduce our potential vulnerability to such 
coercive threats.
    Finally, by reducing the value of ballistic missiles for coercion 
or use, our missile defense capability will help to dissuade countries 
from investing in ballistic missiles at the outset. Missile defense can 
help to reduce the proliferation of offensive missiles by reducing 
their value, and thereby reducing the demand for them. In this way 
defenses will provide a useful complement to our other non-
proliferation efforts.
    In light of this new security environment and the considerable 
progress made to date in missile defense technology, the President 
directed the Department of Defense to proceed with fielding initial 
missile defense capabilities in 2004 and 2005. We will build on the 
missile defense test range (known as the ``test bed'') that we have 
been constructing. As a result of our withdrawal from the ABM Treaty, 
the fielding of these initial capabilities no longer is prohibited. The 
initial missile defenses called for by the President will serve as a 
starting point for improving our defensive capabilities as budgets and 
technological progress allow, and as developments in the threat 
necessitate.
    Finally, as the President has noted, because ballistic missile 
threats also endanger our friends and allies around the world, it is 
essential that we work together cooperatively to defend against them. 
To do so, the Department of Defense is developing and deploying missile 
defenses capable of protecting not only the United States and our 
deployed forces, but also our friends and allies; and we have 
structured our missile defense program in a manner that encourages 
participation by other nations.
    With these general points in mind, allow me to elaborate on our 
approach to missile defense development and deployment, and how we are 
pursuing cooperative efforts with allies and friends.

           U.S. DEFENSE GOALS AND CAPABILITIES-BASED PLANNING

    From the start of this administration, our approach to developing 
and fielding missile defenses has been consistent with the Department's 
goal of transforming U.S. military forces and adopting a capabilities-
based approach to planning. We begin with the recognition that we face 
a security environment where threats and potential adversaries are less 
predictable and more diverse than during the Cold War. Therefore, 
rather than organizing our defense planning around a fixed and largely 
static set of enemies, we now focus on how potential adversaries might 
fight and with what means.
    The Nuclear Posture Review concluded that a mix of capabilities--
offensive and defensive--is required to address the emerging missile 
threat, and to help meet the four broad defense goals outlined in the 
Nuclear Posture Review: to assure, dissuade, deter, and if necessary, 
defend and defeat. Missile defenses will help to:
    Assure allies and friends that ballistic missiles threats will not 
coerce the U.S. from fulfilling its security commitments, or allow 
aggressors the means to undermine the cohesiveness and political 
stability of a coalition or alliance;
    Dissuade potential adversaries from investing in or developing 
ballistic missiles and their associated nuclear, chemical, and 
biological warheads by reducing the value of such weapons;
    Deter ballistic missile attacks and threats by reducing an 
adversary's confidence in the possible success of its missile attack, 
and by denying the political-coercive or military benefits associated 
with threatening an attack;
    Defeat missile attacks and defend the population of the United 
States, its forces, allies, and friends should deterrence fail.

         THE EVOLUTIONARY APPROACH TO FIELDING MISSILE DEFENSES

    In applying capabilities-based planning to missile defense, we 
concluded that an evolutionary approach to acquiring and fielding 
missile defense was the best way to address ballistic missile threats 
in a dynamic and unpredictable security environment.
    The Department has been pursuing a broad-based research, 
development, and testing program to examine the full range of 
capabilities to intercept ballistic missiles of all ranges and in all 
phases of flight. On December 17, 2002, the President announced his 
decision to field in 2004 and 2005 initial defensive capabilities 
against long-range missiles, and additional capabilities against 
shorter-range missiles. As we field these capabilities, our development 
and testing program will continue to improve our defensive systems over 
time.
    Under this evolutionary approach, we do not envisage a final or 
fixed missile defense architecture. Rather, the composition of missile 
defenses, including the number, type, and location of components, will 
change over time to meet the changing threat and take advantage of 
technological developments. The evolutionary approach to the 
acquisition and fielding of missile defenses is the best means for 
providing advanced capabilities to the warfighter, while continuously 
pursuing follow-on improvements in capability. This approach 
facilitates the timely delivery of a modest, but still useful defensive 
capability that can then be improved with the benefit of technical 
advancements and operational experience.
    The severity of existing and emerging missile threats, and the 
potential for surprises, call for this approach to acquisition that 
permits the fielding of appropriate defensive capabilities as soon as 
technically practicable.
    Fielding modest capabilities in the near-term will provide not only 
timely defensive coverage, it also will allow operational input from 
combatant commanders. This is especially important for the missile 
defense mission wherein there is little previous operational experience 
to serve as a guide.
    Two good examples where we have taken a similar approach to the 
timely fielding of limited capabilities still in development are the 
Predator Unmanned Aerial Vehicle (UAV) and the Joint Surveillance and 
Target Attack System (JSTARS). Predator was begun as an Advanced 
Concept Technology Demonstration project in 1994, conducted its first 
flight test in 1995 and was first deployed in Bosnia in 1996. Since 
then, commanders in the field have provided valuable inputs on ways to 
improve the system and have continued to request this capability in 
other operational scenarios, including Kosovo, Iraq, and Afghanistan.
    JSTARS aircraft were deployed in 1991 to participate in Operation 
Desert Storm even though they were still in development. The 
developmental aircraft flew on 49 combat sorties and accurately tracked 
mobile Iraqi forces. JSTARS developmental aircraft also flew 95 
operational sorties in support of NATO peacekeeping mission Operation 
Joint Endeavor in December 1995, monitoring ground movements to confirm 
compliance with the Dayton Agreements.
    In each case, the timely and limited deployment of a system still 
in development provided useful capabilities, and facilitated subsequent 
improvements in the systems.
    Our evolutionary approach to missile defense similarly points to 
the initial fielding, in limited numbers, of those missile defense 
capabilities that have been demonstrated to work, and the subsequent 
improvement of these capabilities through incremental improvements, for 
example, by inserting new technologies when available.
    We are moving forward with missile defense on the basis of a highly 
successful test program over the past 2 years. For example, since the 
beginning of 2001, we have had four successful tests out of five for 
the long-range, ground-based interceptor, three successful tests out of 
three for the short- to medium-range sea-based interceptor, and five 
successful tests out of seven for the short-range, ground-based 
interceptor. Where tests have failed, we understand what went wrong and 
have taken measures to correct the problem. In the next 2 years, we 
plan to conduct over 120 flight and ground tests.
    Some test failures are to be expected with advanced technology 
development programs. Indeed many of our most successful programs have 
had significant test failures. For example, the Corona satellite 
program, which produced the first overhead reconnaissance satellites, 
suffered 11 straight test failures. The Vanguard program failed 11 of 
its first 14 tries. The Polaris sea-launched ballistic missile failed 
in 66 out of 123 flights.
    Nevertheless, in each case, these programs continued in 
development, were successfully deployed, and made significant 
contributions to our national security. We have learned from our 
missile defense test successes and failures, and look forward to 
additional successful tests as we deploy the initial missile defense 
capabilities and work continuously to improve those capabilities.

                    INITIAL CAPABILITIES (2004-2005)

    In December 2002 the President directed the Department of Defense 
to build on the missile defense test bed and begin deployment of 
missile defense capabilities in 2004 and 2005. These capabilities will 
serve as the starting point for the evolutionary improvement of our 
missile defense capabilities.
    The capabilities planned for 2004-2005 include 20 ground-based 
interceptors (GBIs) against the intercontinental-range ballistic 
missile threat; 16 located at Fort Greely, Alaska and 4 GBIs at 
Vandenberg Air Force Base. The GBIs will be available on a continuous 
basis to intercept long-range missiles during their midcourse phase of 
flight, while the incoming enemy warheads are outside the atmosphere.
    The Ballistic Missile Defense System supporting the GBIs will 
include an initial set of integrated sensors based on land and at sea, 
and cued by early warning sensors in space. We also have made requests 
to the United Kingdom and the Kingdom of Denmark to upgrade early 
warning radars on their territory to track ballistic missile threats 
from the Middle East. The UK has granted permission and we look forward 
to hearing from Denmark by this summer.
    To address the medium-range threat, we plan to equip 3 existing 
Aegis-class ships with up to 20 Standard-Missile (SM-3) interceptors. 
This will provide a highly mobile missile defense capability to help 
protect U.S. forces and allies and provide some limited protection for 
the U.S. homeland against shorter-range missiles launched from ships 
off our coasts. We also plan to modify other sensors on 15 existing 
Aegis ships to support the overall ballistic missile defense system.
    Finally, with respect to the short-range threat, we will continue 
to field additional air-transportable and mobile Patriot PAC-3 units 
with up to 346 PAC-3 missiles and 42 PAC-3 radars. The PAC-3 missile is 
the first upgrade of the Patriot system to feature a hit-to-kill 
missile that can help defeat chemical and biological threats, and is 
designed to protect U.S. and coalition forces in the field as well as 
limited geographic areas.
    These initial capabilities may be improved later in the decade 
through additional measures that will lead, ultimately, to a multi-
layered missile defense system. These include additional ground- and 
sea-based interceptors and PAC-3 units; introduction of the Theater 
High Altitude Area Defense system to intercept medium-range missiles at 
high altitude and the Airborne Laser that will use directed energy to 
destroy a ballistic missile in the boost phase; enhanced radars and 
other sensor capabilities; development of a common booster for boost 
and midcourse defense; and initial development and testing of space-
based hit-to-kill interceptors.
    The budget request for the Missile Defense Agency for fiscal year 
2004 and fiscal year 2005 is $7.7 billion and $8.7 billion 
respectively. Included in this funding request is an additional $1.5 
billion total for fiscal year 2004 and 2005 to provide those initial 
capabilities directed by the President for 2004 and 2005. Funding 
requests for our missile defense programs will remain relatively 
constant at roughly $8+ billion per year from fiscal year 2004 to 
fiscal year 2009. This represents less than 3 percent of the total 
defense budget over these years.

                           OPERATIONAL ISSUES

    Fielding a layered missile defense system poses new operational 
command and control challenges. A key Presidential document used to 
organize U.S. forces, Unified Command Plan (UCP) 2002, assigns the U.S. 
Strategic Command (STRATCOM) responsibility for planning, integrating, 
coordinating, and developing the desired characteristics for sea, land, 
air, and space-based global missile defense operations. UCP 2002 
addresses the missile defense command and control issue through the use 
of centralized planning with decentralized execution. Therefore, while 
STRATCOM will be given responsibility for planning, integrating, and 
coordinating global missile defense operations, NORTHCOM and other 
regional combatant commands will retain responsibility for defending 
their geographic areas of responsibility--including command and control 
over systems providing defense against ballistic missile attacks.

                  COOPERATION WITH ALLIES AND FRIENDS

    As the President stated, it is essential that we work together with 
allies and friends to defend against ballistic missile threats. 
Accordingly, the Department of Defense is developing and deploying 
missile defenses capable of protecting not only the United States and 
our deployed forces, but also our friends and allies. For example, two 
of the capabilities we plan to operate in 2004 and 2005--sea-based 
missile defense and Patriot PAC-3--could provide some protection for 
allies against short- and medium-range ballistic missiles, depending on 
where they are located.
    The United States also will structure its missile defense program 
in a manner that encourages industrial participation by other nations, 
consistent with U.S. national security. Countries will be encouraged to 
participate at whatever level they deem appropriate up to and including 
co-development and production of various systems. They might also 
provide in-kind contributions such as territory and facilities upon 
which to build components of our missile defense system.
    There are a number of examples of U.S. missile defense cooperation 
with allies and friends around the world. For example, the U.S. has 
been working with Israel since the late 1980s to design and develop 
missile defense systems. U.S. and Israeli cooperative programs, such as 
the Arrow defense system, along with the sharing of U.S. missile launch 
warning information, will continue to assist Israel in the development 
of a ballistic missile defense capability to deter and, if necessary, 
defend against current and emerging ballistic threats. We are also 
helping Israel to address the threat via a co-production arrangement of 
Arrow components in the U.S.
    Turning to Asia, the U.S. and Japan have engaged in missile defense 
research cooperation since the 1990s. These efforts have focused on 
sea-based missile defense efforts (Japan has acquired several AEGIS 
ship platforms), including components developed by Japan that could 
become part of an evolutionary development upgrade to the U.S. Navy's 
Standard Missile III (SM-3). The U.S. and Japan are scheduled to 
conduct joint flight tests of the SM-3 in fiscal year 2005/2006. We are 
exploring additional avenues to enhance missile defense cooperation 
with Japan.
    Elsewhere in the Asia-Pacific area, we are working closely with 
South Korea as they proceed with their new air defense frigate 
development with the aim of including missile defense capabilities. We 
have an ongoing dialogue with India on missile defense issues and 
recently this dialogue expanded to include discussion of India's 
efforts to determine its own specific missile defense requirements. 
Likewise, we have met with officials from Taiwan in an effort to answer 
their questions regarding missile defense.
    Turning to Europe, there is consensus in NATO on the need to 
develop and deploy missile defenses capable of protecting deployed 
forces against short- to medium-range ballistic missiles. The Alliance 
is undertaking a Theater Ballistic Missile Defense Feasibility study to 
examine options for protecting allied forces from ballistic missile 
threats of up to 3,000-km.
    Because Europe increasingly is threatened by missiles of all 
ranges, we have encouraged the Alliance to expand its consensus on 
missile defense to include missile defenses capable of protecting all 
Alliance territory against the full range of missile threats. As a 
first step, the Alliance agreed at the November 2002 Prague Summit to 
initiate a new missile defense feasibility study to examine options for 
protecting Alliance territory, forces and population centers against 
the full range of missile threats.
    The United States has had a long relationship with the United 
Kingdom in the area of missile defense research. Recently, British 
Secretary of State for Defense Geoffrey Hoon stated that ``developing 
the capacity to defend against the threat of ballistic missile attack 
is in the interest of the UK and its people.'' We are in the process of 
deepening this relationship between our two nations to facilitate 
greater missile defense cooperation. The United States has requested 
and received permission by the United Kingdom to upgrade the early 
warning radar located at Fylingdales.
    The governments of Germany, Italy, and the United States have been 
pursuing a multilateral research and development program to field a new 
mobile air and missile defense system capable of providing protection 
for forces on the move, the Medium Extended Air Defense System (MEADS). 
MEADS is expected to replace the U.S. Army's Patriot system in the next 
decade and has the potential to become the core short-range missile 
defense capability for the Alliance. Both Germany and Italy support 
MEADS and have programmed funding for the next phase of activities.
    The United States continues to engage the Russian Federation 
actively in the area of missile defense cooperation. The Joint 
Declaration signed by Presidents Bush and Putin last May called for 
missile defense cooperation and reflects the new relationship between 
our countries. Our relationship no longer is focused on managing 
hostility, but instead, on building cooperation.
    To fulfill our commitment to strengthen confidence, increase 
transparency and study areas for missile defense cooperation, a U.S.-
Russian Missile Defense Working Group has been established under the 
auspices of the Ministerial-level Consultative Group on Strategic 
Security. In this venue the U.S. has proposed to begin voluntary and 
reciprocal information exchanges and visits, made proposals for 
potential new cooperation and also encouraged Russian interaction with 
U.S. corporations working on missile defense.
    We already have some ongoing programs of missile defense 
cooperation. For example, we have conducted three successful Theater 
Missile Defense Exercises with the Russian Federation. A fourth 
exercise is planned in Moscow in the spring of 2005. These 
unclassified, computer-based exercises are designed to establish 
procedures for independent but coordinated operations in the event that 
our forces are deployed together against a common adversary.
    We also are seeking to resolve issues that impede implementation of 
agreed cooperation programs. Negotiations continue on the Russian-
American Observation Satellite (RAMOS) program. We also continue to 
discuss the Joint Data Exchange Center, which is held up by a 
disagreement over tax and liability provisions.

                               CONCLUSION

    Missile defenses are an essential element of our overall national 
security policy to transform U.S. defense capabilities to meet the 
requirements of a dynamic international security environment. As we 
move forward in 2004 and 2005 to field the missile defenses called for 
by the President, we will do so in cooperation with our allies and 
friends. Our initial missile defense capabilities will be modest; but 
the evolutionary approach we are pursuing will support continued 
research, development, and testing to improve our capabilities as 
budgets and technology allow, and as developments in the threat 
necessitate.

    Chairman Warner. General Kadish.

STATEMENT OF LT. GEN. RONALD T. KADISH, USAF, DIRECTOR, MISSILE 
                         DEFENSE AGENCY

    General Kadish. Good morning, Mr. Chairman and members of 
the committee. I would like to take just a few minutes to 
highlight for you some key points about the missile defense 
program and underscore the progress we have made.
    In early 2001, we started structuring the missile defense 
program to develop capabilities to defend the United States, 
our allies, our friends, and deployed forces against all ranges 
of missiles in all phases of flight. With the support of 
Congress, and in particular this committee, we have made 
considerable progress in demonstrating key missile defense 
technologies and system integration.
    Our testing and analysis gives us confidence that the 
``hit-to-kill'' technology works and that we can take the 
initial steps we are proposing to provide modest initial 
defensive capability where none exists today. Altogether we 
have made great progress in our missile defense program. Our 
testing has been aggressive and productive.
    Over the past 2 years, we have achieved four for five 
successful ground-based intercepts against long-range targets. 
We are three-for-three in our sea-based intercepts against 
medium-range targets. We were five-for-seven with the Patriot 
Advanced Capability-3, or PAC-3, against short-range targets. 
We are making steady progress with the airborne laser to 
develop the revolutionary speed-of-light technologies involved.
    We have had failures and in all probability we will 
continue to have some failures. But this score card has 
increased our confidence in our basic technical approach. Last 
December, the President directed the Department of Defense to 
field an initial set of missile defense capabilities because of 
our technical progress and our total lack of missile defenses 
against intermediate and long-range missiles. Given our 
fielding approach, using the test bed we have been working on, 
and given our testing successes to date, and our analysis of 
them, I believe we are ready for this.
    With the President's decision, we now have a basic near-
term architecture for a limited system to address a range of 
missile threats. I want to stress that we have no fixed long-
term architecture. We will evolve and improve the capability of 
the Block 2004 system over time, so that when we propose to 
field initially in 2004 and 2005, it may evolve to look very 
different a decade later.
    The number and type of missile defense assets and their 
locations and basing arrangements may be expected to change to 
make the system more integrated and even more capable. This is 
consistent with the approach I have described in previous 
hearings. We are building and fielding limited militarily 
useful capabilities as soon as they can be made available. We 
have said all along that when we do field, we will not field a 
system that will fully meet our missile defense needs. We will 
have limitations and gaps. Let there be no illusions there.
    The system we will be fielding initially will be limited 
operationally. But we went down this road knowing that there 
would be limitations. We have a process that specifically is 
designed to make up for those limitations as soon as 
practicable. With an evolutionary capability acquisition 
approach, we put capability in the field, we test it, we use 
it, we get comfortable with it, we learn what works well and 
what does not work well, and we improve it as soon as we can.
    Before the President's decision, the fiscal year 2004 
President's budget would have reflected the development of a 
set of test bed capabilities that could have been made 
operational. Today we are asking Congress to authorize funds 
that would allow us to add to this test bed capability and make 
it operational in the 2004 and 2005 time frame. In other words, 
instead of building a test bed that might be used 
operationally, we are fielding an initial defensive capability 
we will continue to test.
    Because of this relationship between initial defense 
capability and testing, we are asking that all funding 
associated with both efforts be under the defense-wide 
appropriation RDT&E.
    Now with respect to the issue of operational testing before 
deployment, I would argue that what we are faced with today is 
a timing issue. This is a unique, unprecedented technology in 
its early stages of maturity. We have to strike a balance 
between our desire for perfection in missile defense as we 
deploy and our desire to have, as soon as possible, a defensive 
capability where none exists today; or can we do both? Can we 
continue to test the elements of the components of the system 
we might also use to defend ourselves? I believe we can.
    Now, why do I believe that? Because we have shown the nuts 
and bolts of the missile defense capabilities we are planning 
to field and Block 2004 can work. Over the past 2 years, we 
have conducted a total of 55 flight tests and 60 ground tests; 
17 of these tests were intercept tests. Each test builds our 
confidence. Now we know ``hit-to-kill'' works. We have had a 
significant degree of repeatability represented in the tests 
conducted to date. We are well along in our goal of 
demonstrating reliability.
    Mr. Christie has clearly stated the relationship we are 
building and our objectives concerning operational tests. We 
will continue to work with Mr. Christie and his people to make 
the best decisions we can about missile defense.
    Regardless of the names we apply to our testing, we must 
have assets and infrastructure in the field if we are going to 
begin to test the system under operationally realistic 
conditions. If we do not have the weapons and sensors fielded 
at operationally useful locations, we cannot really do a good 
job of hooking it all up to make sure it works. This program 
and this budget proposes to do just that.
    Our intentions are to test the complete system as soon as 
possible. Over the next 2 years, we are planning another 68 
flight tests, 58 ground tests, and about the same number of 
intercept tests as before. We have done the testing to have 
confidence to proceed. We want to continue to strike the right 
balance. The elements of the test bed will also have some 
inherent defense capability. We can do operational testing 
while having the system on alert. We should take advantage of 
that.
    I believe, Mr. Chairman, that we are ready to take the next 
step in missile defense for another reason. Our test bed 
evolutionary approach to initial defensive capability is 
rational from a cost standpoint as well. We do not now have an 
adequate understanding to submit a budget for many tens of 
billions of dollars for a huge, fixed, long-term architecture. 
We do not need to.
    We are able, however, to purchase some field capabilities 
in small numbers. This approach will allow us to control costs. 
With an increase of $1.5 billion over 2 years, we could provide 
this country with a modest missile defense capability where 
none exists today.
    Mr. Chairman, America's missile defense program is on 
track. The Missile Defense Agency is doing what we told 
Congress it would do. Your support has been important to the 
progress we have made. We have listened to your concerns and 
have sought to address them in a responsible manner. Our tests 
and our analysis gives us confidence that we can take the first 
step toward initial defensive operations, while we continue to 
prove our new technologies and demonstrate missile defense 
combat utility through realistic testing.
    I believe there is a tremendous benefit in putting this 
unprecedented technology into the field in manageable 
increments to provide some defense, to learn more about it, 
gain experience with it, and improve it over time.
    Thank you, Mr. Chairman. I look forward to your questions.
    Chairman Warner. Thank you very much.
    [The prepared statement of General Kadish follows:]

         Prepared Statement by Lt. Gen. Ronald T. Kadish, USAF

    Good morning, Mr. Chairman, members of the committee. It is an 
honor to appear before you to present the Department of Defense's 
Fiscal Year 2004 missile defense program and budget.
    In early 2001 we restructured the missile defense program to 
develop the capability to defend the United States, our allies and 
friends, and deployed forces against all ranges of missiles in all 
phases of flight. With the support of Congress, we have made 
considerable progress in demonstrating key ballistic missile defense 
(BMD) technologies and system integration. Our testing and analysis 
give us confidence that hit-to-kill technology works and that we can 
take the initial steps we are proposing to bolster defenses against 
short- and medium-range ballistic missiles and introduce a modest 
defensive capability to defeat a limited long-range threat. Today I 
will review our progress, discuss why we are confident in our approach, 
and outline our plans and challenges ahead.
    Over the past 2 years we have conducted several successful 
intercept tests. We achieved four for five successful long-range, 
Ground-based Midcourse Defense (GMD) intercept flight tests, 
demonstrating the hit-to-kill technologies of the Exo-atmospheric Kill 
Vehicle, critical sensor technologies, and the integration of many 
geographically dispersed missile defense assets. The failure of the 
most recent such test (Integrated Flight Test-10) last December 
resulted from the non-separation of the interceptor and the surrogate 
booster rocket. This was not a failure of new missile defense 
technology, but a failure of our quality control processes. We are 
increasing our already focused quality control efforts. We are taking 
steps to ensure this separation problem is not repeated. Furthermore, 
future GMD tests will no longer use the surrogate booster and instead 
will use one or both of the boosters currently under development.
    We are three for three in our ship-based exo-atmospheric intercept 
tests. Last year Aegis BMD successfully completed its Aegis Lightweight 
Exo-Atmospheric Projectile (LEAP) Intercept (ALI) project. Based on 
these results we accelerated the insertion of the follow-on Aegis BMD 
capability into the test bed. Our third intercept in November 2002 was 
the first ever intercept of a ballistic missile in the ascent phase of 
flight.
    Patriot Advanced Capability 3 (PAC-3) has made significant strides. 
Since January 2001, we have had five for seven successful intercepts of 
ballistic missile targets and have begun fielding the first PAC-3 
missiles. We also executed more than a dozen successful test flights of 
the Airborne Laser (ABL) aircraft, completed significant aircraft 
modifications, and accomplished successful subsystem testing and full-
up ground-tests of the first laser module. While we are in the 
difficult phase of integrating the components into the ABL, our 
progress to date has increased our confidence that ABL can eventually 
be integrated into the BMD system (BMDS).
    Mr. Chairman, America's missile defense program is on track. The 
Missile Defense Agency is doing what we told Congress it would do. We 
listened to your concerns and have sought to address them in a 
responsible manner. We have faced significant technical and management 
challenges, but through aggressive testing we have proven that hit-to-
kill technology works. We have demonstrated system integration through 
complex system testing. These tests, combined with analysis of 
simulations and exercises, give us confidence that the system can take 
the first steps toward initial defensive operations while performing as 
a test bed for further realistic testing and continued spiral 
development.
    The President's fiscal year 2004 budget will allow us to continue 
this significant progress and is structured to incorporate the 
recommendations of the Defense Science Board summer study of 2002.

                EVOLUTIONARY APPROACH TO MISSILE DEFENSE

    The BMD system involves many sensors and interceptors that are 
integrated and layered to enable engagements against hostile missiles 
in the boost, midcourse, and terminal phases of flight. Layered 
defenses can allow multiple shot opportunities across all of the 
engagement segments and potentially within each one of those segments, 
greatly enhancing our ability to handle countermeasures and destroy in-
flight missiles and their payloads.
    As I have explained in past hearings, we are building the missile 
defense system using an evolutionary acquisition approach, so that the 
system's capability can be enhanced over time. Our plan continues to be 
one of incrementally providing the decision makers the ability to field 
militarily useful capabilities based on their technological readiness, 
suitability for operational use and threat developments.
    Last December the President directed the Department to field an 
initial set of missile defense capabilities in order to reduce the 
vulnerabilities of the United States, our troops, and our allies and 
friends. Given our fielding approach, and given the successful testing 
we have accomplished to date, I believe we are ready for this. The 
proposed budget for fiscal year 2004 and across the 2004-2009 Future 
Years Defense Program (FYDP) supports Research, Development, Test, and 
Evaluation (RDT&E) activities to accomplish that goal. We plan to begin 
operating modest land and sea defense capabilities in 2004 to provide 
limited protection of our country as well as our troops and critical 
assets overseas.
    In missile defense, we deal routinely with revolutionary 
technologies and unprecedented engineering requirements. The program we 
are currently executing recognizes the unique challenges we face and 
sets out a disciplined course to develop the BMD system in an 
evolutionary way. Having spent the last couple of years looking at 
different missile defense options, we are now narrowing our program 
activities and focusing on development and fielding of the most 
promising elements.
    Consistent with the approach I have described in previous hearings, 
we are building and fielding limited, militarily useful capabilities as 
soon as they can be made available. This approach takes into account 
known and projected threats and the present state of technology. With a 
capability-based acquisition approach we put capability into the field, 
test it, use it, get comfortable with it, and learn what works well and 
what does not. We have structured test bed fielding opportunities to 
occur in ``blocks'' every 2 years to improve what we have fielded as 
needed. Block 2004 (initial defense capabilities) represents 2004-2005, 
Block 2006 represents 2006-2007, and so on. These blocks will deliver 
elements and components that are ready for continued rigorous testing 
and full integration into the system.
    With the President's decision, we now have a basic near-term 
architecture for a limited system to address a range of missile 
threats. I want to stress that we have no fixed, long-term 
architecture. We will evolve and improve the capability of the Block 
2004 system over time, so that what we propose to field initially in 
2004 and 2005 may evolve to look very different a decade later. The 
number and type of missile defense assets and their locations and 
basing arrangements may be expected to change to make the system more 
integrated and capable.
    We have adopted this evolutionary approach because a single 
acquisition cycle is not responsive to rapid changes in threat and 
technology and is not structured to deal with surprise. We want to 
avoid prematurely constraining system design by using the traditional 
requirements process and waiting up to 20 years or more for a defensive 
capability that would result from using traditional acquisition rules. 
In a world marked by increasing ballistic missile activity, our Nation, 
forces, and allies cannot afford to wait that long.
    In using this evolutionary approach, we still have the ability to 
incorporate the discipline and intent of the traditional acquisition 
process. For example, the warfighting community has been heavily 
involved from the beginning in the development of system elements and 
components. We are successfully using a spiral development process to 
put new technologies into play more quickly than if we were to use the 
traditional approach. Spiral development requires regular dialogue and 
active participation between user and developer for delivering a 
militarily useful set of capabilities. Once we field the initial 
capability, uniformed personnel will operate the system.
    Despite the many uncertainties we face, this approach allows us to 
be good stewards of the taxpayers' money. The President's recent 
announcement stands as a good example of this. We are not making an 
early commitment to large-volume serial production and very large-scale 
investments. Our fielding commitment will be scaled over time and rise 
with our confidence that we are on the right development path for this 
complex, multifaceted system.

         AGGRESSIVE RESEARCH, DEVELOPMENT, AND TEST ACTIVITIES

    As we prepare to implement the President's directive, we plan to 
continue the program's intensive testing activities up to and beyond 
the 2004-2005 timeframe. We have a single, robust RDT&E program 
dedicated to the development and demonstration of missile defense 
technologies and integration concepts. In fact, consistent with our 
investments over the past 2 years, the lion's share of the fiscal year 
2004 budget request of $7.7 billion for the Missile Defense Agency, 
roughly $6 billion, will support RDT&E activities that are not directly 
tied to system fielding. Significant development efforts in fiscal year 
2004 include continued work on Theater High Altitude Area Defense 
(THAAD), ABL, and kinetic energy boost-phase interceptors in the post-
Anti-Ballistic Missile (ABM) Treaty environment.
    These aggressive RDT&E activities are the basis for proceeding as 
the President has directed and for continuing development work to build 
a multi-layered BMD system. We will continue our practice of assessing 
these activities on a regular basis to see if they can be accelerated 
or whether they must be truncated or modified in some manner. RDT&E 
activities occurring in fiscal year 2004 will contribute to Blocks 
2004, 2006, 2008, and 2010.
    We are still evaluating the impact of our withdrawal from the ABM 
Treaty. The treaty successfully did what it was intended to do. It 
severely restricted missile defense development and fielding options. 
The President's action has made it possible to begin to develop and 
test aggressively the full range of missile defense technologies and 
pursue capabilities that make the most sense from the standpoints of 
technology, operations, and cost.
    For example, as a result of the treaty withdrawal, Aegis BMD, the 
sea-based defense element, began its successful participation in GMD 
integrated flight tests conducted last October and December. While 
initially only collecting boost and ascent phase radar data, Aegis BMD 
has begun engineering efforts to become a full participant in future 
tests and will eventually provide fire control data to the BMD system.
    Our intercept tests against long-range ballistic missiles are very 
complex, yet since October 1999 we were forced to restrict ourselves to 
the same intercept flight geometries because of artificial constraints 
in our current test bed and our obligation to remain compliant with the 
ABM Treaty. Today, in order to test our GMD interceptors, we must 
launch targets from Vandenberg, AFB in California and interceptors from 
Kwajalein Atoll in the Pacific Ocean. We are changing that. The test 
bed we are building will introduce flexibility into our test approach 
and help overcome some basic geographic and geometric limitations by 
allowing us to test weapons and sensors against ballistic missiles of 
all ranges along different azimuths and using different trajectories. 
For test purposes we will introduce variable target launch and impact 
points and engagement areas.
    Robust, realistic testing is absolutely critical to developing an 
effective missile defense system. Over the past 2 years we conducted a 
total of 55 flight tests and 60 ground tests. Seventeen of these tests 
were flight-intercept tests. Each test builds our confidence in the BMD 
system. From our flight-testing, we know that the hit-to-kill approach 
works. We know our sensors can successfully detect and track the target 
and that our software algorithms can discriminate between reentry 
vehicles and basic decoys and debris. We know our battle management 
system can generate orders that put a kill vehicle in a position to 
achieve intercept. We will continue to refine and improve the system's 
performance in all areas. Our test program continues to add to our 
confidence that the basic technologies are sound and that they will 
work together to provide the Nation an effective BMD system.
    Our program and budget will continue to maintain a high tempo of 
increasingly complex ground- and flight-testing. Over the next 2 years 
we are planning another 68 flight tests, 58 ground tests, and 
maintaining the same pace of intercept tests as before. We do system 
testing to give us confidence that we have the ability to integrate 
geographically dispersed missile defense elements and components into 
an effective system. This does not include the many experiments we 
conduct routinely, the modeling and simulation activity, and the 
wargame exercises. Our computer predictions are very valuable in this 
process and give us a great deal of confidence that we are on the right 
paths.
    We remain committed to our aggressive testing approach, where we 
mature midcourse, boost, and terminal missile defense components and 
elements through rigorous testing under increasingly realistic and 
challenging conditions. When we have adequately demonstrated 
technologies, decisions can then be made concerning their integration 
into blocks for fielding. Testing activities remain central to what we 
do and are well supported within our funding request.

                      INITIAL DEFENSE CAPABILITIES

    Congress has already funded plans to put five midcourse 
interceptors into the test bed in silos at Fort Greely in Alaska, 
develop Aegis BMD, and test the SM-3 interceptor at the Pacific Missile 
Range Facility in Hawaii. Other activities are currently underway to 
improve the missile defense test bed by upgrading or developing launch 
sites (including Vandenberg, AFB), radar sensors, battle management and 
command and control components, communications terminals and networks, 
and associated test infrastructure in the United States and the 
Marshall Islands (including airborne, sea-based, and ground-based data 
collection assets).
    Today we are asking Congress to authorize funds that will allow us 
to add to this test bed and make it operational by 2004. These initial 
defense capabilities, fielded over a 2-year period, will include 
ground-based interceptors to counter long-range threats, sea-based 
interceptors to defeat short- and medium-range threats, additional PAC-
3 units, and early warning and tracking sensors based on land, at sea, 
in the air, and in space.
    Before the President's decision, the fiscal year 2004 President's 
budget would have reflected the development of a set of test bed 
capabilities that could have been made operational. Instead of building 
a test bed that might be used operationally, we are fielding an initial 
defensive capability that we will continue to test. All RDT&E 
activities will support the initial defense capability, and the system 
elements and components we field will continue to support RDT&E. 
Because of the relationship between initial defense capabilities and 
testing, we are asking that all funding associated with both efforts be 
under Defense-wide appropriations RDT&E. With the December announcement 
we have quickened the pace at which we are moving forward, but we have 
not changed the direction in which we are moving.
    We are proposing to do in fiscal year 2004 what we said we were 
going to do in previous hearings, that is, field tested missile 
defenses a little at a time using a step approach. The missile defense 
operations we are proposing are unprecedented, and there still is much 
to learn. I believe there is tremendous benefit in putting this 
unprecedented technology into the field, in manageable increments, to 
provide some defense, to learn more about it, gain experience with it, 
and improve it over time.
    The Israeli Arrow program stands out as an example of how fielding 
militarily useful capability in block increments and in a timely manner 
can work and how successful it can be. With only four successful 
intercept flight tests, Israeli officials declared their first Arrow 
battery operational on October 17, 2000 and fielded that country's 
first capability to defeat incoming ballistic missiles launched from 
nearby states. The Israeli system has been operational for more than 2 
years now, and during that time it has conducted additional intercept 
and flight tests to enhance the system's performance. Plans are moving 
forward to augment it even further. Surrounded by states having an 
active interest in ballistic missiles, Israel found a way to field a 
limited defensive capability on an accelerated timeline and at a time 
when it could not afford to wait for system testing to be completed.
    We in the United States, of course, are not strangers to fielding 
an unprecedented military capability on an accelerated schedule. Our 
leadership struggled in the early stages of deploying the first 
reconnaissance satellites and land- and sea-based ballistic missiles. 
Urgent national security requirements pressed us to deploy capability 
soon, and through trial and error we did. Despite test failures, the 
country persevered and made militarily useful capabilities operational. 
Since that time, we have dramatically improved the capabilities of 
those first-generation systems. The parallels between these pioneering 
programs and the missile defense program are clear.
    I believe, Mr. Chairman, that we are ready to take this next step 
in missile defense. Our fielding approach will not only help 
rationalize the force structure we deploy from the technological and 
threat standpoints, but also from the standpoint of cost. We do not now 
have adequate understanding to submit a bill of many tens of billions 
of dollars for a huge, long-term fixed architecture. We are able, 
however, to purchase, produce, and field capabilities in small numbers. 
This approach will allow us to control costs. With a modest investment 
and increase by the Department of a total of $1.5 billion spread over 
the fiscal year 2004 and 2005 budgets, we will provide this country 
with militarily useful capabilities where none exists today.
    In short, this $1.5 billion primarily will add a small number of 
ground-based interceptors as well as more SM-3 interceptors to the test 
bed capability we are already building. Future fielding decisions, as 
we have said all along, will be made in the outlying years based on the 
progress of technology and the evolution of the threat, subject to the 
annual congressional appropriations process.

               CONFIDENCE IN INITIAL DEFENSIVE OPERATIONS

    In assessing our level of confidence with the planned initial 
missile defense capabilities, we have to strike a balance between our 
desire for perfection in the missile defenses we deploy and our desire 
to have as soon as possible a defensive capability where none exists 
today.
    Adequate testing is the key to achieving that balance. While this 
testing may not fit the mold of classical operational testing that 
would traditionally take place prior to full-rate production, we do 
follow a testing discipline that I believe can give us the confidence 
to say that what we deploy will work as we have said it would under 
threat circumstances that we believe we might have to face.
    I believe that to strike the right balance we must go through an 
intense period of testing to demonstrate that the technologies on which 
we are relying can work consistently under conditions that are 
increasingly stressful and realistic. We have spent the past 2 years 
demonstrating the technologies we propose to employ in the Block 2004 
Test Bed. We have said all along that when we do field we will not 
field a system that will fully meet our missile defense needs. We will 
face limitations and have gaps, let there be no illusions there. The 
system we are initially fielding will be limited operationally. But we 
went down this road knowing that there would be gaps and with a process 
that is specifically designed to fill those gaps and make up for 
performance limitations as soon as practicable.
    Among the limitations that should be included here is that of 
operational experience. We need to build operational experience over 
time with the system that will be guarding our Nation and our troops. 
There is no better way to do that than to put basic elements out into 
the field and to begin working with those assets to develop the 
doctrine and concepts of operation we will need and to train the 
military personnel who will operate it.
    We have spent significant amounts of money on testing the GMD and 
Aegis BMD elements of system. All of the tests to date have been what 
we have called ``developmental tests.'' Regardless of the names we 
apply to our testing, we must have assets and infrastructure in the 
field if we are going to begin to test that system under operationally 
realistic conditions. If we do not have the weapons and sensors fielded 
at operationally useful locations, we cannot really do a good job of 
hooking it all up to make sure it works.
    The President's decision allows us to put this materiel out in the 
field for testing, in locations that make sense from an operational 
point of view. Given the recent events in the international security 
environment, the President's decision reflects an urgent need to make 
that test bed as operational as we possibly can. That decision also 
recognizes that we will not be fielding the perfect system at the 
outset.
    What we are faced with today is a timing issue. Must we do what has 
been traditionally called ``operational testing'' before we can say 
that we have a capability we can use in an extreme security situation, 
or can we do both? Can we continue to test the elements and components 
of a system we also could use to defend ourselves if needed? I believe 
we can.
    Why do I believe that? Because we have shown that the nuts and 
bolts of the missile defense capabilities we are planning to field in 
Block 2004 can work. We have had a significant degree of repeatability 
represented in the tests we have conducted to date, and we are well 
along in our goal of conducting these tests reliably. We are now to the 
point where we need to assemble selected missile defense elements into 
a test bed that will permit operationally realistic testing using 
different azimuths and trajectories, different launch and target 
points, and different arrangements in our sensors and weapons. That 
test bed will allow us to test in different ways so that we can refine 
our all-too-important battle management and command and control 
infrastructure. The elements of the test bed also will have some 
inherent defense capability. We can do operational development testing 
while having the system on alert. We should take advantage of that.
    Our intentions are to test the complete system and to be ready to 
respond to ballistic missile threats against the United States, our 
deployed forces, and our friends and allies. We have conducted the 
rigorous testing needed to give us the confidence that we are far 
enough along to do operationally realistic testing in an integrated 
way. Testing will always be an important part of this system--always. 
We will always be improving what we have in the field. The budget we 
have submitted will support the testing required to ensure that the 
elements of the Block 2004 system we would like to field will 
adequately serve the defense needs of this Nation.
    Our RDT&E activities are extensive and are important part of our 
acquisition approach. Below are three areas of special interest.
BMD System Radar Activity
    The MDA's Family of Radar concept is continuous and flexible global 
detection, tracking, discrimination, and hit assessment. Ideally, we 
want to be able to watch missile payloads deploy and accomplish prompt 
and early battle assessment. We are currently pursuing multiple sensor 
technologies and identifying and developing sensors to give the BMD 
system the ``eyes'' it will need. In order to identify the most 
promising technologies and reduce risk, we are investigating, in 
parallel, sensor alternatives on land-, sea-, air- and space-based 
platforms to add robustness to the BMD system and improve opportunities 
to collect multiple phenomenology on the threat missile or target 
complex. Evaluations of different sensor and weapon combinations and 
alternatives will help us assess their overall benefit to an 
integrated, layered BMD system. An important element in this effort is 
the mobile Sea-Based X-Band radar (SBX), which we plan to build by 
September 2005 to greatly improve both testing and our initial defense 
capability.
    The BMDS Radar project, a new activity, is funded in the fiscal 
year 2004 budget to expand the engagement battle space and assess 
missile defense concepts of operation that we were not allowed to 
consider under the ABM Treaty. We will validate the concept of forward-
basing and sensor layering and evaluate advanced algorithms using both 
MDA- and non-MDA-owned sensors. Current plans call for the BMDS radar 
to be available for integration into the test bed in late 2006. We will 
support continuous sensor research to improve capabilities and develop 
advanced algorithms for Block 2008 and beyond.
BMD System Infrared Sensor Activities
    The Department restructured the Space Based Infrared System-Low 
(SBIRS-Low) element in fiscal year 2002, renaming it the Space Tracking 
and Surveillance System (STSS). We will explore new technologies to 
enhance missile detection, improve reporting on ballistic missile 
launches regardless of range, azimuth, or launch point, and provide 
critical midcourse tracking and discrimination data.
    The Russian-American Observation Satellites (RAMOS) project is a 
cooperative effort between the United States and the Russian Federation 
to improve early warning technologies. RAMOS represents an innovative 
space-based sensor R&D initiative. We are proceeding towards a joint 
Preliminary Design Review this summer and expect to conclude the design 
and development phase in early fiscal year 2005. The United States is 
actively striving to reach a bi-lateral agreement to conduct activities 
beyond the design and development phase. If we are able to move forward 
with this project, we would launch two satellites in late fiscal year 
2008.
BMD System Interceptor Activity
    Our longer-term goal is to develop low-cost enhanced interceptors 
for integration with different platforms to defend against missiles in 
the boost, midcourse, and exo-atmospheric terminal phases of flight. We 
are consolidating all next-generation kinetic energy interceptor 
(booster and kill vehicle) development efforts and placing them under 
our BMDS Interceptor activity. Relying heavily on existing hardware and 
proven technology, we will develop a hit-to-kill boost phase capability 
by Block 2008 and deliver capability enhancements for Block 2010 and 
beyond.
    In fiscal year 2004 we will begin developing a space-based kinetic 
energy interceptor test bed to explore the technological feasibility 
and operational advantages of engagements from space. This plan is 
consistent with the Defense Science Board's recommendation, released 
last August, to establish a comprehensive development program for a 
space-based kinetic system. Following up on last year's successful 
experiments to understand key sensor technologies, we will conduct in 
2004 a Near Field Infra-Red Experiment to observe from space a boosting 
rocket. This data will assist in the selection of seeker and sensor 
technologies for a ground-based boost interceptor and development of 
interceptor guidance and homing algorithms.

                      BLOCK ACTIVITIES AND BUDGET

    We are working within the MDA and with the Department's operational 
community to meet the President's objective to establish an initial 
defense capability in 2004, which begins with Block 2004. The following 
describes by block our planned fielding opportunities across the FYDP.
Block 2004
    This block continues development and integration of elements, 
components, and facilities in the test bed. Block 2004 RDT&E funding 
will deliver capabilities directed by the President for operational use 
in fiscal year 2004-2005. We plan to add different capabilities to 
point-defense capabilities already provided by PAC-3 units. This 
initial fielding will grow the RDT&E program and expand the physical 
infrastructure of the test bed.
    Funds in this block will enable us to conduct major target and 
countermeasure development and capability demonstrations, integration 
tests, and experiments. We are investing in a substantive system test 
program to test system command, control, and battle management (C\2\BM) 
and communications across the elements. The Block 2004 Master Test Plan 
lays out the strategy for conducting a comprehensive set of integrated 
and distributed ground- and flight-tests to verify performance and 
characterize the capability of the system. This test program will form 
the basis of operational and military utility assessments of the Block 
2004 initial defense capability.
    We will have three major system integration flight tests, the first 
of which is a large-scale integration event that tests C\2\BM and 
communications during multiple element intercept tests. We plan to 
demonstrate C\2\ capabilities and communications among C\2\ and battle 
management nodes, weapons, and sensors and to continue work with the 
Services, Combatant Commands, and the Office of the Secretary of 
Defense to ensure BMD system interoperability with legacy and planned 
Department systems and standards.
    We are requesting $3.2 billion in fiscal year 2004 to support RDT&E 
for fielding Block 2004. Our estimated expenditure for Block 2004 
activities across the FYDP is $6.2 billion (see Table 1).

                                                    TABLE 1: BLOCK 2004 FUNDING FISCAL YEAR 2002-2009
                                                                   ($M Then-Year) \1\
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                              Fiscal Year                              FYDP      Totals
                                                                   ----------------------------------------------------------------   Fiscal     Fiscal
                              Project                                                                                               Year 2004- Year 2002-
                                                                     2002    2003    2004    2005    2006    2007    2008    2009      2009       2009
--------------------------------------------------------------------------------------------------------------------------------------------------------
C\2\BMC Block 2004................................................      21      80     114      79       0       0       0       0        194        295
Hercules Block 2004...............................................       0       0      18      27       0       0       0       0         46         46
Joint Warfighter Support Block 2004...............................       0       0      24      13       0       0       0       0         37         37
Test & Evaluation Block 2004......................................      47      57      37      33       0       0       0       0         70        174
Targets & CM Block 2004...........................................      75     104     197     170       0       0       0       0        367        547
THAAD Block 2004..................................................     808     888     622     635      65       0       0       0      1,322      3,018
GMD Test Bed Block 2004...........................................     636     452   1,205     868       0       0       0       0      2,073      3,161
Aegis BMD Test Bed Block 2004.....................................     413     440     648     894      98       0       0       0      1,640      2,492
ABL Block 2004....................................................     454     348     345     150       0       0       0       0        494      1,296
                                                                   -------------------------------------------------------------------------------------
  Totals..........................................................   2,454   2,369   3,212   2,868     163       0       0       0      6,242    11,065
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Numbers may not add exactly due to rounding.

    Boost Elements. We are developing directed energy and kinetic 
energy boost phase intercept capabilities to create a defense layer 
near the hostile missile's launch point. We require quick reaction 
times, high confidence decision-making, and redundant engagement 
capabilities to counter ballistic missiles in this phase.
    ABL is currently under development to acquire, track, and kill 
ballistic missiles in boost phase using speed-of-light technology. ABL 
integrates three major subsystems (Laser; Beam Control; and Battle 
Management, Command, Control, Communications, Computers, and 
Intelligence (BM/C\4\I)) into a modified commercial Boeing 747-400F 
aircraft. We will continue major subsystem integration and testing 
activities. Block 2004 activities involve completion of ground-testing, 
to include first light on the test bed aircraft, first flight of the 
complete weapons system, and the successful track and high-energy laser 
engagement of a missile-shaped target board dropped from high-altitude. 
In fiscal year 2005, we will deliver one aircraft for BMD system 
integration and testing and demonstrate a missile shoot-down against a 
boosting threat-representative target.
    Midcourse Elements. Midcourse defense elements engage ballistic 
missiles in space after booster burnout and before the warhead re-
enters the atmosphere. The GMD element defends against long-range 
ballistic missile attacks, and Aegis BMD will counter from the sea 
medium- and short-range ballistic missiles.
    The Department's plans are to add by the end of fiscal year 2004 1 
more Ground-Based Interceptor (GBI) at Fort Greely in Alaska for a 
total of 6 GBIs at that site, and 4 interceptors at Vandenberg, Air 
Force Base, for a total of up to 10 interceptors at both sites. The 
decision to develop two interceptor sites is consistent with our 
layered approach and operational concept and will allow us to work 
through critical integration, battle management, and command and 
control issues early on.
    There are a number of other activities we need to undertake in 
fiscal year 2005. We are asking for appropriations to produce up to 10 
additional GBIs for fielding at the Fort Greely site, for a total of 16 
interceptors in Alaska and 4 in California. We also plan to produce by 
the end of 2005 between 10 and 20 SM-3 missiles for deployment on 3 
Aegis ships converted to the missile defense mission. Because we are 
starting from a base of zero, each interceptor we field between now and 
2005, up to the full complement of 20 ground-based and 20 sea-based 
interceptors, will increase significantly our overall capability to 
defend this country, our troops, and friendly countries against long- 
and medium-range threats.
    Included in the test bed and as part of the initial missile defense 
architecture are plans for integrating Early Warning Radars (EWR) at 
Eareckson AS (the Cobra Dane radar at Shemya, Alaska) and Beale AFB 
(Upgraded EWR). We will add to this infrastructure multiple fire 
control nodes and improved lines of communications connecting sites in 
Alaska and the continental United States using fiber optics and 
satellites. The administration is working to secure allied approval to 
upgrade and integrate into the BMD system early warning radars 
currently located in the United Kingdom and Thule, Greenland to view 
threat missiles launched out of the Middle East. The United Kingdom 
already has approved the use of the Fylingdales radar. We also plan to 
build by September 30, 2005 a Sea-Based X-Band Radar (SBX) to improve 
the testing regime and enhance initial missile defense system 
performance.
    We have made dramatic progress in recent months with the GMD 
element, including in the areas of silo construction, development of a 
nationwide communications network, and integrated flight-testing. We 
have excavated six silos at Fort Greely, 7 weeks ahead of schedule, and 
we are in the process of constructing and establishing appropriate 
security for multiple test bed facilities at Fort Greely and Eareckson.
    By the end of 2005, we will upgrade SPY-1 radars on 15 Aegis 
warships for enhanced surveillance and track capability. Three 
prototype surveillance and track Aegis destroyers will be available 
starting in 2003; we will modernize additional destroyers for 
surveillance and track and BMD engagement capability. Two Aegis 
cruisers in addition to the U.S.S. Lake Erie, our test cruiser, will 
receive BMD engagement modifications.
    The next SM-3 flight test, scheduled for later this year, will use 
a reengineered Monolithic Divert and Attitude Control System (MDACS) 
for the first time in the interceptor's kinetic warhead. MDACS has 
proved to be more reliable than the previous model, faster to build, 
and less expensive. Five at-sea flight tests and numerous tracking 
exercises, including participation in GMD integrated flight-tests, are 
planned through 2005. Our cooperative research with Japan will continue 
to enhance the capabilities of the SM-3 interceptor. The focus of that 
research is on four components: sensor, advanced kinetic warhead, 
second stage propulsion, and lightweight nosecone.
    Terminal Elements. THAAD is designed to be rapidly deployable and 
protect forward-deployed U.S. and friendly troops, broadly dispersed 
assets, population centers, and sites in the United States by engaging 
short- to medium-range ballistic missiles or their payloads at endo- 
and exo-atmospheric altitudes. THAAD could have more than one intercept 
opportunity against a target, a layering potential that makes it more 
difficult for an adversary to employ countermeasures effectively. This 
terminal defense capability will help mitigate the effects of a WMD 
payload.
    This year we will complete missile and launcher designs, initiate 
manufacturing of missile and launcher ground test units, and begin 
testing the first completed radar antenna. We will continue fabrication 
of the second radar and building the battle manager and launcher test 
beds. A total of four exo-atmospheric flight tests at the White Sands 
Missile Range, New Mexico are planned for fiscal year 2004-2005.
    PAC-3 provides terminal missile defense capability against short- 
and medium-range ballistic missiles, anti-radiation missiles, and 
aircraft with a low radar cross-section employing advanced 
countermeasures. PAC-3 successfully completed initial operational 
testing last year, intercepting ballistic missiles, aircraft, and 
cruise missiles. The tests uncovered problems that we have since 
corrected in collaboration with the Army. We have completed development 
of the PAC-3 missile and made C\2\BM modifications to enable PAC-3's 
integration into the BMD system. We will continue to conduct PAC-3 
tests this year. Later in Block 2004 we will demonstrate PAC-3's 
integration with other BMD system elements.
    With the support of Congress, the Department already has 
accelerated PAC-3 missile production and currently has a plan to 
increase that production rate to 20 missiles per month in 2005. Given 
current production plans, by the end of 2005 the PAC-3 inventory will 
stand at 332 missiles.
    The Department is transferring this month PAC-3 procurement and 
RDT&E funding to the Army, which is reflected in the Army's fiscal year 
2004 budget request. The MDA will retain responsibility for defining 
and testing BMD system interoperability and continue to work with the 
Army on PAC-3 engineering, development, and testing. The Department is 
currently preparing to transfer later this year RDT&E funding for the 
Medium Extended Air Defense System (MEADS) from the MDA to the Army.
    The Arrow Weapon System, developed jointly by the United States and 
Israel to counter short- to medium-range ballistic missiles, is 
operational at two sites in Israel and interoperable with U.S. missile 
defense elements. We worked with Israel to deploy its first two Arrow 
batteries, and are currently assisting that country to procure a third 
battery.
    The Arrow System Improvement Program, a spiral development upgrade 
of the current operational system, includes technical cooperation to 
improve the performance of the Arrow system and test it at a U.S. test 
range. The first flight test was conducted successfully on January 5, 
2003. We continue to support additional Arrow flight-testing to assess 
technology developments and overall system performance and to collect 
data and conduct annual hardware-in-the-loop exercises with Israel to 
enhance interoperability.
Block 2006
    Block 2006 work continues to improve existing capabilities and 
provide new sensors and interceptors for integration with fielded 
elements. Our focus will be on evolving and integrating the capability 
to achieve a more synergistic and layered BMD system. We will continue 
rigorous system and element flight-test demonstration and validation 
efforts and use wargames to help develop concepts of operation and 
operational procedures.
    We are requesting $2.2 billion in fiscal year 2004 to support RDT&E 
for Block 2006. Our estimated expenditure for Block 2006 activities 
across the FYDP is $11.3 billion (see Table 2).

                                                    TABLE 2: BLOCK 2006 FUNDING FISCAL YEAR 2002-2009
                                                                   ($M Then-Year) \1\
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                              Fiscal Year                              FYDP      Totals
                                                                   ----------------------------------------------------------------   Fiscal     Fiscal
                              Project                                                                                               Year 2004- Year 2002-
                                                                     2002    2003    2004    2005    2006    2007    2008    2009      2009       2009
--------------------------------------------------------------------------------------------------------------------------------------------------------
C\2\BMC Block 2006................................................       4      27      53     104     116       0       0       0        273        304
Hercules Block 2006...............................................       0       0      19      18      45      45       0       0        127        127
Joint Warfighter Support Block 2006...............................       0       0       0      12      24      12       0       0         48         48
Test & Evaluation Block 2006......................................       1       1       2       9      41      39       0       0         92         93
Targets & CM Block 2006...........................................       1       4      32     110     213     172       0       0        526        530
THAAD Block 2006..................................................       0       0     109     208     598     498     113       0      1,525      1,525
GMD Block 2006....................................................   2,460   2,109   1,605   1,774   1,354   1,235       0       0      5,969     10,538
Aegis BMD Block 2006..............................................       0       0      24      73     377     299       0       0        773        773
ABL Block 2006....................................................       0       0      10      86     150      79      81      55        461        461
BMDS Radars Block 2006............................................       0       0     101     145     134       0       0       0        380        380
STSS Block 2006...................................................      55     232     276     285     285     204      75      35      1,160      1,447
                                                                   -------------------------------------------------------------------------------------
  Total...........................................................   2,520   2,372   2,232   2,823   3,335   2,583     270      90     11,333    16,225
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Numbers may not add exactly due to rounding.

    Boost Elements. We will enhance and test the integration of the ABL 
aircraft into the BMD system. Candidate enhancements include 
improvements in BMC\4\I, interoperability, pointing and tracking, and 
target engagement. We will continue evaluation of the ABL test aircraft 
capability against a range of threats. This aircraft will be available 
to provide an emergency operational capability except for a maximum of 
6 months during fiscal year 2007 when it may undergo modifications and 
enhancements.
    Midcourse Elements. We plan to enhance defensive capability and 
further develop the test bed by maturing hardware and software of all 
GMD interceptor, sensor, and C\2\BM components. We will continue our 
ground- and flight-testing to demonstrate improved weapon and 
discrimination performance and critical interfaces with external 
sensors. We also plan to complete the upgrade of the Thule EWR should 
we get approval from Denmark.
    Aegis BMD flight missions will incorporate remote engagements of 
targets as well as demonstrations against intermediate-range ballistic 
missile (IRBM) targets. We will continue development of Aegis BMD 
sensor discrimination capability. Prototype BMD signal processors will 
be tested aboard Aegis ships with SPY-1 radar modifications. SM-3 
missile deliveries will begin in 2004. Our plans are to build an 
inventory of up to 35 SM-3 interceptors by the end of 2006. Also, if 
directed, we would prepare to field up to 20 additional SM-3 
interceptors in 2007. We will proceed with our cooperative BMD research 
with Japan to enhance the SM-3. We have two joint flight tests of the 
advanced nosecone planned in the fiscal year 2005-2006 timeframe, and 
we will continue to look at possibilities for co-development.
    Terminal Elements. The THAAD interceptor begins in the third 
quarter fiscal year 2006 a series of five flight tests that are 
scheduled to conclude in first quarter fiscal year 2008. We will 
improve THAAD's exo-atmospheric and endo-atmospheric endgame 
discrimination capability against increasingly complex targets.
    Sensors. Current plans call for a new forward-based radar in late 
2006 for positioning close to the threat at sea or on land. Enhanced 
forward-based sensor capabilities and improved sensor netting will 
enable the BMD system to handle threats posing a more difficult 
discrimination challenge and provide a launch-on-remote capability. A 
midcourse radar will be added as part of our layered approach. 
Additional radar configurations will be procured as necessary to 
satisfy Block 2006 objectives.
    Current plans are to launch two low-earth orbit satellites in 
fiscal year 2007 to validate space-based sensor concepts for target 
acquisition, tracking, and discrimination and to provide a space node 
for the test bed. STSS will improve in subsequent blocks to provide 
data fusion, radar/sensor cueing over-the-horizon, and interceptor 
handover and fire control. Production alternatives will be evaluated at 
least annually based upon element performance and integrated BMD system 
performance.
Block 2008
    Block 2008 represents a major step in BMD system evolution. We plan 
to complete multiple layers of weapons and sensors, based on fixed and 
mobile platforms, to counter a range of ballistic missiles. This block 
will include C\2\BM components that enable integrated control of all 
system assets throughout the battlespace. Primary development projects 
include adding boost phase weapons to the test bed, integrating space 
sensor platforms, and fusing multi-sensor discrimination products. We 
will integrate capability-based targets and payload suites (to include 
new and more complex countermeasures) into our system testing to 
demonstrate effectiveness against evolving threats.
    We are requesting $572 million in fiscal year 2004 to support RDT&E 
for Block 2008. Our estimated expenditure for Block 2008 activities 
across the FYDP is $16.3 billion (see Table 3).

                                                    TABLE 3: BLOCK 2008 FUNDING FISCAL YEAR 2002-2009
                                                                   ($M Then-Year) \1\
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                              Fiscal Year                              FYDP      Totals
                                                                   ----------------------------------------------------------------   Fiscal     Fiscal
                              Project                                                                                               Year 2004- Year 2002-
                                                                     2002    2003    2004    2005    2006    2007    2008    2009      2009       2009
--------------------------------------------------------------------------------------------------------------------------------------------------------
C\2\BMC Block 2008................................................       0       0       1      12      27     144     145     147        476        476
Hercules Block 2008...............................................       0       0      19      17      17      17      62      60        192        192
Joint Warfighter Support Block 2008...............................       0       0       0       0       0      12      29      31         71         71
Test & Evaluation Block 2008......................................       0       0       1       1       4      13      85      87        190        190
Targets & CM Block 2008...........................................       0       0       0      57      77      68     239     253        694        694
THAAD Block 2008..................................................       0       0       0       0     237     227     369     300      1,134      1,134
GMD Block 2008....................................................       0       0       0       0       0       0     878     877      1,756      1,756
AEGIS BMD Block 2008..............................................       0       0       0     116     186     322     470     386      1,481      1,481
ABL Block 2008....................................................      11     237     256     402     582     561     366     267      2,435      2,683
BMDS Radars Block 2008............................................       0       0       0       0       0     136     102      22        261        261
STSS Block 2008...................................................       0       0       0       0       0      82     177      89        348        348
BMDS Interceptor Block 2008.......................................      54     100     296     529   1,013   1,562   1,939   1,890      7,229      7,383
                                                                   -------------------------------------------------------------------------------------
  Total...........................................................      65     337     572   1,134   2,145   3,146   4,862   4,409     16,268    16,669
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Numbers may not add exactly due to rounding.

    Boost Elements. ABL will integrate new technologies to improve 
performance and lethality and enhance operational suitability. We will 
continue development of promising technologies for insertion into Block 
2008 and beyond and design and develop a system-level ground-test 
facility for ABL. We plan to test a second ABL aircraft in the test bed 
during Block 2008.
    Plans also are to develop and integrate a mobile ground-based boost 
phase hit-to-kill capability into the test bed for flight-test 
demonstration. We will initiate a space-based test bed development to 
determine the feasibility of intercepting missiles from space. Initial 
on-orbit testing would commence with three to five satellites in Block 
2008.
    Midcourse Elements. We will conduct up to three GMD flight-tests 
annually to demonstrate advanced engineering and pre-planned equipment 
improvements for the boosters, interceptors, early warning and fire 
control radars, and C\2\BM and communications software builds. We plan 
to enhance the Aegis Weapons System AN/SPY-1 radar to improve 
discrimination for engaging both unitary and separating targets. We 
will assess GMD integration with the BMDS Interceptor and also test the 
interceptor on board an Aegis warship.
    Terminal Elements. We will complete the development and testing of 
the THAAD weapon system. We are planning up to eight developmental and 
operational-type flight tests to stress interceptor, radar, and C\2\BM 
performance in realistic scenarios that include advanced 
countermeasures.
    Sensors. Our work will build on the initial BMDS Radar 
configuration and conduct sensor research to improve capabilities and 
develop advanced algorithms. We will improve Family of Radar coverage, 
performance, and flexibility and address vulnerability within the 
context of the overall BMD system global sensor network. STSS 
operations will continue to be integrated with other BMD elements in 
the test bed and support enhanced C\2\BM development initiatives. STSS 
will demonstrate the ability to acquire, track, and discriminate 
midcourse objects with space-based infrared sensors.
Block 2010
    Work in this block will continue spiral development projects for 
weapon and sensor improvements and platform integration. C\2\BM and 
communications improvements will enable highly resolved sensor data to 
be exchanged with all BMD system elements.
    We are requesting $24 million in fiscal year 2004 to support RDT&E 
for Block 2010. Our estimated expenditure for Block 2010 activities 
across the FYDP is $4.7 billion (see Table 4).

                                                    TABLE 4: BLOCK 2010 FUNDING FISCAL YEAR 2002-2009
                                                                   ($M Then-Year) \1\
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                              Fiscal Year                              FYDP      Totals
                                                                   ----------------------------------------------------------------   Fiscal     Fiscal
                              Project                                                                                               Year 2004- Year 2002-
                                                                     2002    2003    2004    2005    2006    2007    2008    2009      2009       2009
--------------------------------------------------------------------------------------------------------------------------------------------------------
AEGIS BMD Block 2010..............................................       0       0       0       0       0       8     104     145        257        257
STSS Block 2010/2012..............................................     179      55      24      44     232     565     750   1,065      2,680      2,914
BMDS Interceptor Block 2010.......................................       0       0       0       0      97     146     585     974      1,803      1,803
                                                                   -------------------------------------------------------------------------------------
  Total...........................................................     179      55      24      44     329     719   1,439   2,184      4,740     4,974
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Numbers may not add exactly due to rounding.

    Boost Elements. Block 2010 activities will improve exo-atmospheric 
BMDS Interceptor performance and enable greater basing mode 
flexibility, to include possible adaptation to sea-based platforms. We 
will develop and test an advanced space-based test bed to augment or 
replace the Block 2008 space-based test bed.
    Midcourse Elements. We will continue flight-testing improved weapon 
and sensor components and work toward the integration of an advanced 
BMDS Interceptor. Aegis BMD will incorporate prior block developments 
into the Navy-developed next-generation, open architecture Combat 
System.
    Terminal Elements. THAAD will integrate proven technologies to 
enhance its capability against longer range and faster ballistic 
missiles without sacrificing existing mobility and performance. 
Fielding and survivability upgrades also are planned to demonstrate a 
capability against both IRBM and ICBM threats.
    Sensors. New technologies will be inserted into subsequent STSS 
blocks to provide precise threat tracking and improved discrimination. 
We will develop and launch a satellite with improved sensors integrated 
into the first common satellite bus, and develop and integrate advanced 
ground station equipment and software. The Block 2010 STSS will deliver 
a space-based capability to acquire, track and discriminate ballistic 
missiles based on larger aperture track sensors, increased vehicle 
lifetime, and increased, near-real-time on-board data processing. The 
funding also includes launch services for Block 2010 satellites. C\2\BM 
funding focuses on integrating STSS data into the sensor net.

                        MISSION AREA INVESTMENTS

    Our Mission Area Investments are investments common to the entire 
BMD system that enable us to implement over time our block fielding 
approach. Mission Area Investments maintain core development and 
testing infrastructure and facilitate the integration of future block 
capabilities. The President's budget requests $1.69 billion in fiscal 
year 2004 for these investments. This program activity accounts for 
about $11.3 billion, or just over 20 percent of the total funding 
estimate across the FYDP. Table 5 provides a detailed breakdown of 
funding for each investment activity.

                                             TABLE 5: MISSION AREA INVESTMENTS FUNDING FISCAL YEAR 2002-2009
                                                                   ($M Then-year) \1\
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                              Fiscal Year                              FYDP      Totals
                                                                   ----------------------------------------------------------------   Fiscal     Fiscal
                        Investment Activity                                                                                         Year 2004- Year 2002-
                                                                     2002    2003    2004    2005    2006    2007    2008    2009      2009       2009
--------------------------------------------------------------------------------------------------------------------------------------------------------
System Engineering................................................     236     397     436     474     501     510     580     578      3,079      3,713
C\2\, BM & Communications.........................................      16      16     119     125     178     201     204     218      1,045      1,076
Test & Targets....................................................     359     332     338     332     328     352     316     333      1,998      2,688
International Programs............................................     211     205     148     215     129     100      89      89        769      1,185
Advanced Concepts.................................................     347     176     388     418     363     437     524     534      2,664      3,187
Program Operations................................................     232     170     264     252     283     306     317     333      1,754      2,156
                                                                   -------------------------------------------------------------------------------------
  Total...........................................................   1,400   1,296   1,692   1,817   1,783   1,904   2,029   2,083     11,309    14,005
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Numbers may not add exactly due to rounding.

    The significant Mission Area Investments are as follows:
System Engineering
    The System Engineering activity defines, manages, and integrates 
the layered BMD system. Capability-based acquisition requires continual 
assessment of technical and operational alternatives at the component, 
element, and system levels. Our system engineering process assesses and 
determines system design and element contributions and the impact of 
introducing new technologies and operational concepts to ensure 
properly synthesized system blocks. These activities provide the 
technical expertise, tools, and facilities to develop the BMD system 
and maintain an intelligence and research capability to ensure that the 
system evolves in a way that is responsive to known and anticipated 
threats.
    We are increasing our focus on risks related to producibility, 
manufacturing, quality, cost, and schedule of the BMD system elements. 
We dedicate resources to examine the applicability of technology to 
system needs and transition readiness. Industrial and manufacturing 
investment strategies for achieving system affordability and 
facilitating insertion of successive new capabilities are increasingly 
vital to the program.
Command and Control, Battle Management & Communications (C\2\BMC)
    Our activities related to C\2\BMC create interoperability among a 
wide variety of legacy systems and emerging elements over joint and 
coalition networks. The C\2\BMC activity will continue development and 
integration of the C\2\BM and communications functions for the BMD 
system. By fielding software development spirals that improve system 
synergism, integration capability, and interoperability with external 
systems, this activity expands the inherent C\2\BM capabilities of 
fielded terminal, midcourse, and boost defenses. Communications funding 
will develop and improve BMD system-wide communication links and sensor 
netting functions to enable enhanced early warning and quicker 
interceptor response times. The Joint National Integration Center 
(JNIC) provides a common environment for the BMD elements to conduct 
experiments, demonstrations, and exercises and is a key-operating 
C\2\BM component of the test bed.
BMD Tests & Targets
    The missile defense program includes significant test and 
evaluation infrastructure, test execution capabilities, and analytical 
tools for program-wide use. The Agency conducts risk reduction, 
developmental, and operational element and component testing as well as 
tests to collect critical measurements, such as plume signatures. We 
also have a rigorous measurements test program to collect data in 
support of design, development, and engineering activities. 
Measurements from dedicated test events and targets of opportunity 
enable us to design components, characterize potential countermeasures, 
test algorithms, undertake lethality and kill assessment, and validate 
our critical models and simulations.
    Investments providing ballistic missile targets, countermeasures, 
and other payloads support our test objectives. Presentation of the 
targets and payloads for flight test events involves designing, 
prototyping, developing, procuring, certifying, and qualifying for 
testing. In fiscal year 2003 we will establish a single prime 
contractor to further enhance system level management of targets and 
countermeasures activities.
    In fiscal year 2004 we will continue to resource critical test 
facilities, launch capabilities, instrumentation, telemetry, 
communications, and safety systems underpinning our testing regime. 
With the enhanced realism of the test bed, the increasing complexity of 
our tests, and the escalating tempo of test activity, our investments 
in this area will emphasize flexibility, standardization, and mobility.
International Programs
    The President has underscored the importance of working with other 
countries to develop missile defenses and provide protection against 
ballistic missile threats. We are building defensive layers that could 
potentially involve a variety of locations around the globe and 
probably involve many other countries. Last summer interagency teams 
briefed key allies on the international participation framework. Today 
we are well along in our discussions with several governments regarding 
their possible participation in the missile defense program and 
improvements in our industrial relationships.
Advanced Concepts
    We have several science and technology (S&T) initiatives to 
increase BMD system firepower and sensor capability and extend the 
engagement battle space of terminal elements. In fiscal year 2004, we 
will continue to focus on the miniature kill vehicle project, which 
could lead to a flight-test in fiscal year 2005. Fiscal year 2004 
funding will support investigating early detection and tracking 
technology, Laser/LADAR technologies for improved tracking, weapon 
guidance, and imaging, and technologies for a space-based, high-power 
laser. While our S&T activities are not on a critical path for 
insertion into the BMD system, each one of them is being considered for 
their block enhancement value.
Program Operations
    Our Program Operations expenses are primarily for government 
personnel performing management support activities, contractors that 
assist in performing these activities, and O&M-like costs associated 
with operations and maintenance at numerous facilities around the 
country, supplies and equipment, communications and printing, travel 
and training, and information technology management.

                        MANAGEMENT AND OVERSIGHT

    The missile defense program uses an acquisition approach tailored 
to the unprecedented nature of the technology involved in missile 
defense. We will continue to work very hard to ensure that the program 
has adequate management and congressional oversight. There is an 
improved process in place within the Department that preserves 
management, technical, and financial oversight by cognizant authorities 
on the Senior Executive Council and the Missile Defense Support Group. 
Senior warfighters, including the Joint Requirements Oversight Council, 
have reviewed missile defense objectives and will continue to do so 
several times a year. Internally we have in place configuration 
management procedures, and we produce on a regular basis the necessary 
threat, system, and configuration control documentation to ensure that 
our activities continue to support our development and fielding 
objectives. As directed in the 2002 and 2003 Defense Authorization 
Acts, we have identified cost, schedule, testing, and performance goals 
and developmental baselines in the President's fiscal year 2004 budget 
justification materials and shown clear linkages between the Agency's 
budget and key performance measures.

                                CLOSING

    Mr. Chairman, we are on track with our missile defense program. We 
know that the technology fundamental to the current generation of 
missile defenses works. We have demonstrated many times over the past 2 
years that we can collide with a warhead and destroy it. We have the 
confidence to proceed with plans for an initial defense capability. A 
few years ago, I could not have said this to the American people. Today 
I can. We will build confidence in the system over time as we invest in 
the program.
    We also recognize that we have much more work to do to improve the 
BMD system. The architecture we have in 2004 and 2005 will probably be 
very different a decade later, depending on how our RDT&E efforts 
proceed. Our objective continues to be one of improving missile defense 
capability over time. We have made considerable progress in missile 
defense over the past 3 years. With the President's direction, and with 
your approval of our budget request, we will take another important 
step on that long road before us.
    Thank you, Mr. Chairman.

    Chairman Warner. Before we proceed to a 6-minute round of 
questions, the distinguished Senator from New York has joined 
us now. Each of us have had an opportunity, given the unusual 
events of the day and particularly the last 24 hours, to 
address the committee and others.
    Senator Clinton.
    Senator Clinton. I thank you, Mr. Chairman. I would just 
add my words to those of my colleagues, that certainly last 
evening was a solemn occasion for every American, when the 
President addressed our Nation about the possibility of 
military action, giving Saddam Hussein one last chance to avoid 
war. Obviously we all hope, although it is a hope against 
evidence, that Saddam Hussein will finally hear this ultimatum 
and understand the severity of those words and the 
consequences.
    While I, along with many others, wish there were more 
international support for this effort to disarm Saddam Hussein, 
at this critical juncture it is important for all of us to come 
together in support of our troops and pray that, if war does 
occur, this mission is accomplished swiftly and decisively with 
minimum loss of life and civilian casualties.
    On Friday, Mr. Chairman, I was at Fort Drum, where we held 
a memorial service for 11 young soldiers who died in a training 
accident on a Black Hawk mission. I met with the wives of those 
young men, two of whom were pregnant, their mothers, their 
fathers, their grandparents, their sisters, their brothers, 
their cousins. I looked into the eyes of each person and told 
them how sorry I was and how I hoped that they shared our pride 
in the extraordinary courage of these young men, as they were 
training to defend us.
    Clearly, all of us hope that this mission will be 
accomplished with minimum loss of life. We know that our 
military, thanks in large measure to the people who serve on 
this committee, are the best trained, equipped, and motivated 
in the world. We support them fully and we are very grateful 
for their service in these difficult times. I know that all of 
us will be praying for them and sending our strongest, most 
heartfelt best wishes; not only to the men and women who are 
poised on the edge of combat, but to their families, who in a 
very real sense in today's world are also serving our country.
    Chairman Warner. I thank you, Senator. Throughout your 
service on this committee, you have emphasized your personal 
concern for the family structure that is such a vital part of 
the overall infrastructure to support our men and women in the 
Armed Forces. I thank you.
    I will open with questions. Then I will pass the gavel to 
the subcommittee chairman, Senator Allard, to conclude the 
question period in the hearing.
    Secretary Aldridge, let us go back to the very important 
issue raised by my colleague, Senator Levin, and fully explore 
the issues that he raises. It would be helpful. Let us cut 
through some of the legal situation here and just get down to 
it. What was the intent of the administration asking for this 
provision? What is it that you feel the provision, if adopted 
by Congress, enabled you to do that you can't do now?
    Secretary Aldridge. Yes, Mr. Chairman. I wish I had a 
record of how the language got added to this bill. We do not 
know exactly other than perhaps protecting some interests of 
the Department. I think the bottom line, however, is that it 
was never our intent to try to get a waiver for operational 
testing. As a matter of fact, the reason we have the test bed 
and we are developing the test bed is to enable operational 
testing.
    I think we can work with the committee and the staff to 
find language that clearly, unambiguously states where the 
Department is. That is, we do not request a waiver. I think we 
can find language that will ensure that Senator Levin's 
concerns are being addressed. I believe we can do that.
    Chairman Warner. That is helpful but I think it is a frank 
admission that, at this juncture, you are not certain as to how 
it originated. To the extent you can determine that, well and 
good. Because I judge from your remarks now that this committee 
and Congress can anticipate a revision forthcoming in the 
course of our deliberations before any bill is drawn up. Am I 
correct in that?
    Secretary Aldridge. Yes, sir.
    Chairman Warner. That will be very helpful.
    Now, General Kadish, I listened very carefully to your 
excellent statement. You used the word ``limited'' in several 
different contexts. I want to clarify for the record the 
obvious, but some people following this hearing, I think, might 
not fully appreciate that the ultimate objective is for us to 
devise a system to protect us against a limited number of 
missiles, were they to be directed at the continental limits of 
the United States and/or our allies and so forth.
    Am I not correct in that?
    General Kadish. Yes, Senator. Eventually, evolutionary 
improvements to the system may go beyond that. Certainly in the 
2004 time.
    Chairman Warner. Do not say beyond that. It enables the 
system, then, to interdict a greater number.
    General Kadish. Greater number, correct.
    Chairman Warner. All right. That is the use of the word 
``limited'' which I think you want to go back and look at your 
testimony. Then you referred to ``limited'' in the context that 
if we proceed as now anticipated, we will get a limited benefit 
from the system.
    General Kadish. Yes, sir.
    Chairman Warner. In other words, limited in its capability 
just to knock down one missile, much less a dozen or so.
    General Kadish. Right.
    Chairman Warner. Do you follow me on the use of the word 
``limited''?
    General Kadish. I think so.
    Chairman Warner. If you go back and look over your 
statement, you might wish to clarify that.
    General Kadish. I will look at it again.
    Chairman Warner. But let me go directly to a broader issue 
here. Some are concerned that the President's decision to field 
missile defense capabilities during 2004 and 2005 means that we 
are deploying a capability that has not been tested. In 
addition, there is some concern that making the missile defense 
test bed an operational asset will somehow reduce or truncate 
tests or will disrupt the testing you already have planned.
    Let us clarify those. Give us your assessment, based on 
test results of the maturity of the ground-based mid-course 
system and the Navy missile defense system, which the President 
opted to field.
    General Kadish. Senator, our tests to date, I guess I would 
characterize as that we have proven the basic functionality of 
each of the elements and to some degree their ability to 
integrate to perform their mission. That certainly has given us 
a lot of confidence in proceeding.
    Now what we have to do, specifically in the ground-based 
missile defense case, is to actually put them in the locations 
that they could be realistically tested. Let me just give you 
an example. Right now today, as complex as our testing is from 
Vandenberg to Kwajalein, we have a radar that is out of place 
in terms of its operationally realistic configuration. The X-
Band radar is at Kwajalein itself. It should be farther 
forward. The early warning radar is in California, and it 
should also be farther forward in looking at the trajectory.
    When we build a test bed, we hope to fix that and to 
provide us with more capability to operationally, realistically 
look at different azimuths of intercept, different 
trajectories, and provide a much more robust look at the data 
gathering that supports our models and simulations. That, in 
turn, would give us greater confidence that we could handle 
unusual situations.
    In regard to the concern of whether or not we would reduce 
our testing because we have the test bed in an operational 
configuration, I think there is a risk that we may not be able 
to time it exactly right. Basically we are working very hard 
today and, in fact, have started a battery of meetings with the 
using community starting with Strategic Command and NORTHCOM, 
to look at different approaches to how we would actually keep 
operationally alert status on the system or part of the system 
while we are doing other types of tests. That is going to 
require us a little bit more time to define in detail the 
meaning of every test we want to do.
    But what I see today is basically the capability of doing 
both tasks in concert with the using community to make sure we 
can accomplish both our objectives. I am confident we will be 
able to work that out.
    Chairman Warner. Thank you very much.
    Secretary Crouch, the President made his decision last 
December to proceed with the limited fielding of ground-based 
mid-course capabilities and the Navy mid-course system. Can you 
elaborate on the background which prompted this very important 
decision? Was the decision promulgated by any specific threat 
development? Or was it more directed at the general trend 
toward widespread deployment and the need to do so for missile 
defense?
    Secretary Crouch. Senator, you know that we have taken, in 
the Department as a whole, a capabilities-based approach to 
dealing with emerging and extant threats. We see missile 
defense capabilities as being one of the essential tools in the 
tool kit that the Department will need in the future to defend 
the United States, to defend our allies, and to defend deployed 
forces abroad.
    Clearly, we think from just looking at existing threats and 
the development of things, for example, in North Korea our 
concerns about long-range systems coming out of the Middle East 
and the like, we think that threat was an important part of 
this decision. But I would also underscore the fact that we 
have been surprised in the past by things. We have been 
surprised by new systems, by new capabilities. So I would not 
want to say that it was keyed specifically to an individual 
threat, but more broadly to the need for a capability for the 
United States that we do not have.
    Against that back drop is also the point that we do not 
have any capability today in this area. It is not as though we 
are building on an existing system, like aircraft carriers, 
where we have a particular system deployed, and we are now 
arguing about the next version or the next modification to that 
system.
    We thought it was important to get some capability out 
there. We think that that will not only give us that limited, 
very modest capability, but also will improve our operational 
testing and give the warfighter some experience in using these 
systems. We also think it has an impact in the way it might be 
able to dissuade others from investing in long-range ballistic 
missile capabilities.
    So, it was really for all those reasons that I think the 
President made the decision he did.
    Chairman Warner. Thank you very much.
    Senator Levin.
    Senator Levin. Thank you very much, Mr. Chairman.
    Mr. Christie, the planned 2004 national missile defense 
deployment is going to use an old 1970s vintage long-range 
radar that was never designed for missile defense. This radar 
is called the Cobra Dane radar, as I understand it. First, in 
your recent report on missile defense, which was released in 
February, you said that ``the absence of a long-range target 
that will be able to exercise the Cobra Dane radar will 
preclude a system-level flight test of the 2004 national 
missile defense system.''
    Is that correct?
    Mr. Christie. Yes, the Cobra Dane radar will not be able to 
track a test target because of the way it is pointed, except in 
a simulated operational exercise. We will not be able to use it 
in testing.
    Senator Clinton. Mr. Chairman, could the witness speak up? 
We cannot hear.
    Mr. Christie. Okay. I am sorry.
    Senator Clinton. Thank you.
    Mr. Christie. We will not be able to use the Cobra Dane 
radar in testing because we would have to launch the target 
from west of the radar into its envelope.
    Senator Levin. So, there is not a long-range target 
suitable to be used for that test; is that correct?
    Mr. Christie. Yes. We would have to use an air launch 
target which we do not have at the present time for testing.
    Senator Levin. Right. So there is no plan to test that 
radar against a long-range target?
    Mr. Christie. That radar will be tested and exercised at 
some length with the command and control system that will be 
set up at Fort Greeley. But it will not be tested against an 
actual target.
    Senator Levin. All right. So therefore, the 2004 system 
can't be tested as a complete system with a realistic long-
range target. Is that correct?
    Mr. Christie. We will test the entire system in simulated 
operational exercises.
    Senator Levin. Do we have a long-range target, a realistic 
one, to test it against?
    Mr. Christie. We will not be able to launch a target from 
Japan so it would fly into that radar's field of view.
    Senator Levin. Right. That is all I am saying.
    Mr. Christie. Okay.
    Senator Levin. All right. So in that sense, we are not 
going to be able to test the 2004 system that is being fielded 
as a complete system with a realistic, actual long-range 
target. Is that correct? I am just trying to summarize.
    Mr. Christie. No. We are not going to be able to test with 
a realistic launch from that direction.
    Senator Levin. Okay. That is fine.
    Mr. Christie. From that specific direction, no.
    Senator Levin. We are not going to be able to do that. 
Would you like to be able to do that?
    Mr. Christie. If we had an air launch target that we could 
launch to test that particular radar, we would be able to do 
that.
    Senator Levin. Let me get to this language that apparently 
Secretary Aldridge does not know how it got into the 
legislative proposal. I am glad to hear that it did not come 
from you, Secretary Aldridge. Do you know how this language got 
here that effectively waives operational testing by designating 
the 2004 system as a development system? That is, what is the 
effect of designating, as a development system does, to 
effectively exempt it from operational testing, since it is a 
development system under this language.
    Mr. Christie, do you know how that language got into this 
legislative proposal that came from the administration?
    Mr. Christie. No, I do not. But I would also add that just 
because it is a development system does not mean that some 
operational testing cannot take place.
    Senator Levin. Of course. That is our point. We did that 
with other systems.
    Mr. Christie. Operational testing will take place.
    Senator Levin. It will take place and should take place.
    Mr. Christie. It will.
    Senator Levin. So then, you do not know what the point, 
then, is of designating----
    Mr. Christie. No, I cannot speak to that.
    Senator Levin. You were not consulted?
    Mr. Christie. No, I was not.
    Senator Levin. Were you consulted, Secretary Aldridge, 
before this language was put into this proposal of the 
administration?
    Secretary Aldridge. No, sir, I was not. But I am not 
consulted on thousands of other pages of language. I think, in 
reading the language, if the intent was never to ask for the 
waiver, you read the language in a very innocent way; because 
that was not our intent to interpret that language in a way 
that would request a waiver.
    Senator Levin. But you did not have an intent. As I 
understand.
    Secretary Aldridge. Oh, it is not an intent.
    Senator Levin. You do not know where this language came 
from?
    Secretary Aldridge. I was not participating in adding the 
language to the bill.
    Senator Levin. Do you know what its intent is? Have you 
asked the people who put the language in here what its intent 
is?
    Secretary Aldridge. No, sir, I have not.
    Senator Levin. Thank you.
    Secretary Crouch, were you involved in getting this 
language here?
    Secretary Crouch. No, sir.
    Senator Levin. Do you know what its intent is?
    Secretary Crouch. No, sir.
    Senator Levin. General Kadish were you involved in getting 
this language in here?
    General Kadish. Senator, I was involved in trying to get 
the intent of the language into the budget documentation. The 
basic intent of that paragraph in the budget documentation is a 
very detailed description, was to get the authority that was 
granted this year and previous years to use the RDT&E money 
exclusively for all our efforts, as opposed to dividing up the 
restrictions between military construction-type money and 
procurement money. That was the intent at the budget-
documentation level.
    Senator Levin. That is the intent of this language?
    General Kadish. As I understand it, yes.
    Senator Levin. Were you consulted or did you draft this 
language?
    General Kadish. I did not draft the language but I saw the 
language, as we were putting our budget language together.
    Senator Levin. All right. Do any of you have any objection 
to this language being revised so that it makes it clear that 
this system is subject to operational testing? Do you have any 
problem with that?
    General Kadish. There was never an intent to exempt us in 
that language. It could be read that way; obviously, you have. 
So I have no problem changing it. But the intent was a funding 
issue, not a testing issue.
    Senator Levin. All right. I am glad to hear that.
    Will you all answer my question this way: Do you have any 
problem with that language being changed?
    Secretary Aldridge. We have no problem with changing that 
language.
    Senator Levin. So that it is not limited to development 
testing, so that operational testing will take place on this 
2004 system? Do you have any problem with that, Secretary 
Aldridge?
    Secretary Aldridge. No, sir, I do not. I just want to 
hesitate and say one thing: But so long as we get the other 
reason for the language, to include the RDT&E funding to permit 
the deployment.
    Senator Levin. Do you have any problem, Mr. Christie?
    Mr. Christie. No, sir.
    Senator Levin. Do you have any problem, Secretary Crouch?
    Secretary Crouch. Absolutely not.
    Senator Levin. Thank you.
    My time is up. Thank you.
    Senator Allard. It is my time to ask some questions. 
General Kadish, you were trying to respond to some questioning 
to Mr. Christie or Senator Levin. Do you have a comment that 
you want to elaborate on, on that question?
    General Kadish. I would just point out, in regard to the 
Cobra Dane radar, that this is another example of how difficult 
it is to put a system together that depends on geography for 
its function. The Cobra Dane radar is in a very good position 
to do a lot of what we need to do for an early warning radar.
    In regard to testing it operationally, there are two 
methods that we will probably offer. They are not worked out in 
detail yet. One is we have a long-range target air launched 
under development that we will put into the program when we can 
get it ready. It will not be ready in the 2004 time frame or 
possibly in the early 2005 timeframe. But the schedules are 
such that as soon as we can, we will be testing it 
operationally using that type of a target, if it works out.
    Senator Allard. So, your goal is to get a complete analysis 
of the system?
    General Kadish. Right. Now, there are other data elements 
tracking different types of items that look like ballistic 
missiles that would also help us in our evaluation of that 
system.
    Senator Allard. Thank you.
    General Kadish. I would point out that the Cobra Dane radar 
is certainly 1970s-type of technology. But what we intend to do 
is upgrade it with the very latest computer processing 
capabilities, as well as software, to make sure it can do its 
intended function.
    Senator Allard. Thank you.
    Mr. Christie, in your most recent report to Congress, you 
stated that the BMDS elements have made progress this year in 
one or more of four areas: flight test, system ground test, 
component ground test, and system definition. Again to quote, 
``MDA's program represents a sound engineering approach for 
maturing both the system design and test infrastructure.''
    Would you tell us what factors provide you with confidence 
that progress is being made and that the MDA's approach is a 
sound one?
    Mr. Christie. The R&D program that is laid out for the 
various elements is done in a very systematic way, with robust 
testing for each of the elements. We have, I think, as General 
Kadish earlier discussed, demonstrated the hit-to-kill 
capability, which was a big question mark. We are now ready to 
move on to ``missionizing'' that capability. We are now ready 
to move on to a ground-based interceptor that will be using the 
new booster motors, because the old booster motors have been a 
problem.
    For the test bed that is being planned, it will eventually 
remove the dependence on the radar in Hawaii that provides mid-
course tracking when the sea-based X-band radar is operational. 
So when I look at the total program, I think it is moving in 
the right direction. The right tests are planned, both in terms 
of individual elements, as well as the total system.
    Does that answer your question, Senator?
    Senator Allard. I think that is what we are wanting. Thank 
you. But let me follow up with it just a little bit. Your 
report also notes that the recent successful Aegis test flights 
took place from functional, fully-manned, operational ships. 
Consequently, the system could be employed in an emergency with 
limited expectation of success.
    Now, the Aegis tests were clearly not operational tests. 
But an operational asset conducted them and led to a decision 
to field that initial capability. Would you assess, in a 
general way, the utility of conducting tests with system under 
development with operational assets?
    Mr. Christie. In the Aegis case, we actually fired off 
operational ships using operational crews. We had three 
intercepts that proved the capability of the missile system 
that is in development. That testing supports buying a limited 
number of missiles, up to 20, that will give us some limited 
capability against medium-range threats.
    I support the concept of doing operational testing or 
getting an operational evaluation out of a development program, 
and particularly when we are using operational troops or 
operators on an actual operational ship, which is what the case 
was here.
    Senator Allard. A follow-up question I have in response to 
your answer, since it was positive in nature: would your 
confidence in the operational utility of the ground-based, mid-
course system be enhanced if one or more of these flight tests 
took place using an operational asset and the soldiers who man 
it on a regular basis?
    Mr. Christie. Obviously it would be. But I do not think, at 
this point in time in the development program, that we are 
going to be able to turn over the ground-based system to 
operators. We will be training operators once we get the test 
bed fielded, but I am not sure that the testing will use 
military operators. I would have to refer to General Kadish. I 
do not remember.
    Senator Allard. Do you want to elaborate on that?
    Mr. Christie. It would give me more confidence if we were 
using actual soldiers in an operational system. But I do not 
think we are planning to use soldier operators for some time.
    Senator Allard. General Kadish.
    General Kadish. Senator, if I could answer that question a 
little bit more in detail. The current testing, certainly on 
the ground-based side, is not done with soldiers at the 
consoles, although we simulate the types of decisions they 
would make. Our intent, although the plans are not finalized 
right now and they are just beginning to become part of our 
discussions with the using community, is to--as we approach the 
2004 fielding, is to actually put the user/soldiers at the 
consoles for flight test, if at all possible, to replicate what 
we have done with Aegis.
    Now, we are not there yet. These are plans that need to be 
put together and make sure we have all the safety and the 
training up and operating. But that would be clearly our 
intent, because as Mr. Christie pointed out, the best test we 
could get is when real soldiers, sailors, and airmen operate 
the equipment. That is the best test that we could use.
    However, they would not be given the design of the GMD 
system, the quantity of people involved is not very large at 
all, because of the nature of that system.
    Senator Allard. Thank you.
    Senator Reed, my time has expired. You are next.
    Senator Reed. Thank you, Mr. Chairman.
    Mr. Christie, I think one of the critical points in your 
testimony, which was very good testimony, is this phrase with 
respect to the mid-course, ground-based program. This 
conclusion, which I believe MDA agrees with, is based on the 
fact that many essential components of GMD have not yet been 
built. We cannot test the system without these critical 
components. We cannot test it realistically without the test 
bed.
    Will all of these critical systems be built prior to 2004?
    Mr. Christie. They will be built as part of the Block 2004 
test bed. I do not think they will all be in place by September 
2004. The sea-based X-band radar is a necessary component. We 
will have new boosters. We will be testing the new boosters 
with a ground-based interceptor.
    Those are two components that are not there now.
    Senator Reed. So based on your testimony and your response, 
this is a question of not just deploying a system without 
testing, this is deploying a system that has not yet been fully 
built; is that accurate?
    Mr. Christie. No, we have not built the sea-based X-band 
radar yet that is needed for mid-course guidance.
    Senator Reed. But we are deploying a system that has not 
yet been built, the whole system?
    Mr. Christie. We have to build it to put it in the field to 
support testing.
    Senator Reed. My point is, I understand we have to build 
it. But maybe I am missing something, but usually we deploy 
systems that are at least built, not fully tested, but at least 
built. This seems to be a departure from the--my assumption 
that we will build a system and then we will test it. Again, I 
think your comments suggest that we are doing something that is 
somewhat unusual in deploying a system that has not yet been 
fully been built.
    Mr. Christie. We will not deploy it until we have built it.
    Senator Reed. We are deploying it in 2004; is that correct? 
Am I wrong?
    Mr. Christie. Yes.
    Senator Reed. You have just indicated that we will not have 
a significant part of the system even built by 2004?
    Mr. Christie. We may not have it deployed in 2004. It may 
not be built and in place in 2004.
    It will be built as part of the 2004 test bed.
    Senator Reed. Secretary Aldridge, I assume that the 
President of the United States has declared that this system 
will be deployed in September 2004; is that correct?
    Secretary Aldridge. He set a goal to have it deployed and 
we have used the term 2004 to 2005. We are constructing the 
components that will make that happen, some of which already 
exist, some of which do not.
    Senator Reed. So there is a possibility that in September 
2004, this system will not be deployed?
    Secretary Aldridge. I do not--the terminology ``deployed'' 
bothers me. That is the reason I am hesitating.
    Senator Reed. It bothers me, too. That is why I am trying 
to figure out what you intend to do.
    Secretary Aldridge. We are talking about the construction 
of a test bed, the construction of a test bed, which will be 
augmented with some limited operational capability. The word 
``deployed'' has a connotation that goes far beyond the 
construction of a test bed.
    Senator Reed. Mr. Secretary, I could not agree with you 
more. But that is the choice, the term, the President of the 
United States used. He did not get up and make a speech about a 
test bed and limited capabilities, which I think is very 
accurate, which suggests to me that, from the test planning 
standpoint, what you are saying makes a great deal of sense. 
But there is a political connotation to ``deployment,'' which I 
think has gotten in, perhaps.
    Let me turn to General Kadish. First, let me say that you 
have a very difficult job, technically demanding and also 
rhetorically demanding at times.
    General Kadish. I will not disagree with that, Senator.
    Senator Reed. I know. We agree. So far, all of the tests 
that you have conducted, and some have been successes and some 
recognizably have not succeeded, require that you input into 
your kill vehicle your booster target data; is that correct?
    General Kadish. That is correct.
    Senator Reed. At what point will you not be putting target 
data into your test shots? At what time frame?
    General Kadish. Let me try to be a little bit more precise, 
because the implication of the question is that there is target 
data that should not be there.
    Senator Reed. No, no, no. At what point will you fire a 
missile without target data?
    General Kadish. We do not ever expect to fire a missile 
without target data. The way the missile defense systems 
operate, by their very nature, is that you have to have a 
sensor in the right place at the right time to detect the 
missile launch. Once that missile launch is detected, the whole 
system starts tracking it, deciding when to shoot at it, how 
many times to shoot at it, whether we kill it or not, whether 
we want to shoot at it again. In a layered missile defense 
system, we will always be injecting target data into the 
system.
    Senator Reed. At this point, you inject the days before the 
event the pre-loaded data.
    General Kadish. These tests are very scripted today.
    Senator Reed. When will you stop doing very scripted tests? 
What year?
    General Kadish. We will get less and less scripted the more 
we get the test bed into the operational mode.
    Senator Reed. By September 2004, will you be firing 
missiles that have limited or no data pre-loaded?
    General Kadish. No. But the operational system will also 
have pre-loaded data.
    Senator Reed. That is true. But by 2004, essentially you 
will be firing a missile, the kill vehicle and its booster, 
which has significantly been loaded days before with target 
data?
    General Kadish. But that is the way the operational system 
will work. What we will not do is predict the time of launch of 
a threatening missile. The system, if we do it right, and this 
is part of the testing that we have to do, is to make sure that 
it is always up and operating; so when those sensors detect a 
launch, we can shoot at it.
    It will have intelligence data loaded up. It will have the 
time of day loaded up, because that is the way the system 
operates. So it will have that type of data. But the 
operational system will use data of that nature.
    Senator Reed. My time has expired. Thank you, General.
    Senator Allard. Before I call on Senator Sessions, I have 
just a comment. Obviously, the Aegis or the X-band radar has 
been already tested and deployed. With this system, you have 
confidence in it?
    General Kadish. The sea-based X-band radar?
    Senator Allard. Have we built, tested, and operated X-band 
radars in the past?
    General Kadish. I think so, Senator, yes. Oh, yes.
    Senator Allard. All right. It seems like we are getting 
into sort of a terminology issue here about ``operational'' and 
``fielded.'' I wonder if perhaps maybe a ``fielded'' 
terminology would not be a little more accurate and actually 
what is going on, because I think ``operational'' tends to 
signify that certain events are going to occur. When we have 
spiral development, it seems to me like we have a little 
different terminology that has to be developed, as far as 
missile defense systems are concerned.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I want to express my appreciation to the entire Department 
of Defense for the superb way you have responded to the threat 
of Iraq. You are placed in a position to be successful; Lord 
willing, we will be successful, if that war does occur.
    I think what you have done in transforming the military, in 
applying the highest and best science, the best technology, and 
then training our troops to utilize that technology, breaking 
down old barriers so that Air Force and sergeants and airplanes 
can communicate in a way that places incredible stress on the 
enemy in the event of a conflict, is just an extraordinary 
achievement. I am just exceedingly proud of that.
    It allows our President, and the United States of America, 
and the people of this country to stand strong for our values, 
to be courageous, and know that if we do not knuckle under to 
evil forces around the world, we can in fact make this a better 
world and improve our own personal security. We can do it with, 
hopefully, a minimal loss of life, even to our enemies. So it 
is an extraordinary time. I really want to salute you for that.
    There has been some debate and concern since I have been in 
the Senate about national missile defense. There are those who 
said the window that the commission found, setting forth the 
date that we needed to be able to deploy, was not accurate, 
that we did not need a missile defense program, that we ought 
not to develop one, and we ought to slow down the development 
programs that we had.
    We have had a considerable number of debates since 1997, 
when I came here, on that issue. Each time that we have debated 
it, those who have felt that we need to move forward with a 
missile defense have prevailed in the debate. We still have a 
good, tough questioning, which I think can only be constructive 
to our program. Some, I know, have not supported the program to 
begin with. But there is nothing wrong in this democracy. We 
are having to be challenged and be able to face those 
challenges.
    But with the emergence of evidence that Saddam Hussein has 
missiles that could extend their range, that Iran is desiring 
to enhance its missile capability, and with the testimony we 
have had from CIA Director Tenet that North Korea may even able 
to reach the United States with a missile today, I believe that 
this has validated the commitment this country has made toward 
that.
    General Kadish, I know you have handled that for so many 
years. You have testified many times. The program has had some 
progress. I am sure there is a lot of difficulties and 
challenges that you have faced. But we have continued to move 
along. If I am not asking you to repeat it too much, would you 
tell us where you think we are in terms of your personal view 
of how much progress we have made and how close we are to our 
goal of making this country safe against a missile attack?
    General Kadish. Senator, as you will find in my formal 
testimony, I believe we are ready to take the next steps. Two 
years ago or more, I could not have told you with confidence 
that the hit-to-kill technology would be workable enough to put 
into an operational system. We believed it to be so, but we had 
a lot of testing to prove it. We have accomplished that 
testing. We are confident now that the basic technologies and 
the approach we are using is a sound one.
    We have many other efforts to improve on that in our RDT&E 
program. Based on the fact that our current analysis and 
testing provides us confidence in the hit-to-kill technology, I 
think we are ready to take the next step, in actually making it 
operational, use it, get comfortable with it, improve it as 
best we can, and then make the decisions in the future of what 
best to add to that system to make it even better than it is at 
any given time.
    So right now, I believe we have made a lot of progress. We 
have a lot of work to do. We have a lot of challenges to face, 
some of which are more management than technical. But I think 
we are up to it. We are going to work hard to make it work.
    Senator Sessions. I do not have any doubt that Kim Jong Il 
would like to have the American leadership and the American 
people think that he has the capability of hitting this country 
with a missile. Once he has that capability, he may think that 
he can blackmail, or push the United States around. He thinks 
he can deter us from doing things that are in our national 
interest and the interest of the world.
    So, I think having that capability as soon as we can is 
important. I believe events have validated the steady program 
of progress toward this goal that we have invested in.
    General Kadish and Secretary Aldridge, this year MDA will 
transfer to the Army the PAC-3 and MEADS program. Procurement 
and transition criteria seem to be in place. Please tell me 
what R&D support the Missile Defense Agency will provide to 
these programs in the out-years. Also, is there any sort of 
strategy in place or being discussed which combines the various 
programs into a seamless strategy? What is that strategy?
    Secretary Aldridge. Yes, sir. Let me start off. We did take 
a look at the PAC-3 program and MEADS. I had three criteria 
that I established for myself to determine when such a program 
should transition. That has been part of the missile defense 
plan altogether. When we make a decision to take a system that 
we believe is now ready for operational deployment, we would 
remove it out of the Missile Defense Agency, focus the Missile 
Defense Agency exclusively on the research and development, and 
then give the operational system to the appropriate Service. 
That is what we did with PAC-3.
    We had technical maturity, we had--with the availability of 
production facilities. We had the full support of the Secretary 
of the Army to do so. Those were the basic criteria that I used 
to make that decision to transfer.
    The Army will have the exclusive responsibility for the 
development and the operational deployment of PAC-3. However, 
the integration of the PAC-3 into the ballistic missile defense 
activities will continue to reside within the Missile Defense 
Agency, because those activities have to be integrated. But 
essentially the full deployment and the future development, 
which would be primarily air defense capabilities, will exist 
within the Army to do that.
    Senator Sessions. General Kadish, do you want to further 
comment?
    General Kadish. I fully support that approach. Its linkage 
with missile defense, as well as air defense, is properly 
placed in the Army at this point in its cycle; and we will 
continue involvement.
    Senator Sessions. It is important that we make sure that 
funding is maintained adequately. The Army is picking up now 
something they had not had before. We need to make sure that 
the funding follows it, else they will not be able to deploy.
    Comment on that, Secretary Aldridge.
    Secretary Aldridge. Absolutely. That was the third 
criteria, that the Secretary of the Army fully supports this 
and will properly fund it. He assured me that was going to 
happen.
    Senator Sessions. Secretary Aldridge, the President has 
once again presented a robust missile defense budget. In the 
aftermath of this treaty, are you satisfied that we have 
sufficient funding to look at all phases of the architecture, 
boost, mid-course, and terminal? Are you satisfied generally 
with the budget?
    Secretary Aldridge. Yes, sir. I have gone through the 
program in detail. We have activities dealing with boost phase, 
mid-course, and terminal phase. We have capabilities dealing 
with short-range, medium-range, and long-range rockets. We have 
a robust technology program in place, some of which may work 
and some of which may not. So we have a program that, I 
believe, will get us where we want to go in this evolutionary 
spiral development approach. We will make decisions as we go. 
As some things turn out to prove themselves to be effective and 
some things prove themselves not to be effective, we will stop 
some things, which we have already done in one case.
    The Navy Area Program was getting in deep financial trouble 
and we decided to terminate that program and use our funds for 
other things. Yes, I am very confident that we have a well 
laid-out program that will get us where we need to go.
    Senator Sessions. Thank you. I do believe that is the 
correct approach. I believe you should be free to make changes. 
We should not straight-jacket you now with a program that we 
are not absolutely certain is going to be the way it will end 
up. I do salute the President for understanding early on that 
the ABM treaty was not a basis of a relationship between us and 
Russia, that it was complicating our ability to rationally 
develop a missile defense system. You are now free of that. We 
are able to develop a system that makes sense.
    Senator Allard. Thank you, Senator Sessions. The Senator's 
time has expired.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    I have heard a lot of discussion today about the PAC-3 
missile. I wonder if you could just tell me in general terms--
and this is really for anybody who is best qualified to 
answer--what the PAC-3's capabilities are?
    Secretary Aldridge. I think General Kadish can probably do 
it better than any of us.
    General Kadish. The Patriot-3, I can describe the 
capabilities with a few characteristics. It is what we call a 
point-defense system, where it protects a certain radius area 
rather than a large region. It has a characteristic of being a 
terminal system. So it intercepts after the warhead reenters 
the atmosphere. It protects against short-range missiles and 
medium-range missiles. So it has those kinds of characteristics 
in terms of capability.
    So when you look at it, it protects a point defense in the 
terminal phase against short- and medium-range missiles.
    Senator Pryor. How mobile is it?
    General Kadish. It is what I would call transportable in 
that it could be placed in a place where it needs to defend and 
then can be moved. But it does not--if the term ``mobile'' 
includes, ``Can it shoot while it is moving?'' The answer is 
no. It is transportable. In fact, the latest deployments prove 
that out. We are able to move it, transport it, set it up. Then 
if we need to move it again, move it again.
    Senator Pryor. I understand if you cannot answer this next 
question, but do we have PAC-3s in the Iraqi theater right now? 
Again, we are not in a closed session. So if you cannot answer, 
I understand.
    General Kadish. We have every missile defense capability 
that will contribute to this problem in play.
    Senator Pryor. How many PAC-3s do we currently have in our 
arsenal, if you can answer that?
    General Kadish. I think it changes from day to day. Because 
every time we get a delivery off the production line, we send 
it into its intended use. I think the number is somewhere in 
the mid-50s.
    Senator Pryor. Okay. You have more requested in the 
upcoming fiscal years that is included in the budget?
    General Kadish. Yes. If I recall exactly, and I would have 
checked these numbers, is that this program requests, and we 
would have up to 332 by the end of 2005.
    Senator Pryor. That was a question, too, I had. Are we 
trying to get to a level and stay there, that we should always 
have a set amount in our arsenal?
    General Kadish. The inventory, what we call the inventory 
objective, for Patriot-3 right now is not necessarily a 
relevant factor, because we have so few of them. We are trying 
to build as many as we can, as quick as we can.
    Senator Pryor. Right.
    General Kadish. The ultimate number will be subject to the 
best judgment of the Army, and the Department, and the money 
available.
    Secretary Aldridge. The fiscal year 2003 omnibus bill just 
provided $104 million for us to accelerate the production rate 
to get up to a level rate, which I would prefer not to answer 
in an open hearing.
    Senator Pryor. I understand.
    I do not want to put words in your mouth, but it sounds as 
if you all are pretty satisfied with the PAC-3. Is that fair?
    General Kadish. From my perspective, I am never satisfied 
with where we are with these systems. I would like to do more 
with every dollar we can afford to spend.
    Senator Pryor. Right.
    General Kadish. But it has a very good capability for what 
it is used for.
    Senator Pryor. I understand there are more upgrades and 
additional capabilities that are being worked on right now?
    General Kadish. That is correct. In fact, if you look back 
in history, Patriot-2, which we have also in the inventory, was 
an upgrade to Patriot basic, and now this is Patriot-3.
    Senator Pryor. Right.
    Secretary Aldridge. The follow-on program is a program 
called MEADS, Medium Extended Air Defense System, which is an 
international program with the U.S., Italy, and Germany. That 
is a program that is being developed now that would make it far 
more mobile in the sense of being air transportable on a C-141, 
as opposed to C-17s, and would give it a much improved 
capability for cruise missile, as well as tactical missile 
defense.
    Senator Pryor. Okay. If possible, and I know you do not 
have these facts and figures before you, but I would like you 
to get me what you anticipate may be required in funding the 
upgrades and extending the capability of the PAC-3 system, if 
that is possible.
    Secretary Aldridge. Yes, sir.
    [The information referred to follows:]

    I have directed the Army to combine management, development, and 
fielding of the Patriot and MEADS programs. The Army plans to spend 
$1.051 billion in fiscal year 2005, $986 million in fiscal year 2006, 
$994 million in fiscal year 2007, $1.197 billion in fiscal year 2008, 
and $1.209 billion in fiscal year 2009 on the Patriot/MEADS program. Of 
these, $360.4 million are RDT&E in fiscal year 2005, $306.7 in fiscal 
year 2006, $315.7 in fiscal year 2007, $345 million in fiscal year 
2008, and $312.3 million in fiscal year 2009. The total budget will 
fund the continued development of Patriot/MEADS, the procurement of 
PAC-3 missiles and related ground support equipment, the upgrade of 
additional Patriot units to PAC-3 capability and the continued support 
of Patriot units deployed worldwide. Specifically, the Army will do an 
incremental insertion of MEADS capability into the existing Patriot 
forces starting in fiscal year 2009-2010, develop and field the MEADS 
objective missile (PAC-3 Missile Segment Enhanced) by fiscal year 2011, 
and develop and field Operation Iraqi Freedom fixes to the PAC-3 system 
starting in fiscal year 2004.

    Senator Pryor. The last question I have, and I just want to 
make sure I am very clear on this, this is really a follow-up 
to Senator Levin's earlier questions, is, as I understand it, 
the PAC-3 system did go through operational testing before 
being deployed. Am I correct in that?
    Mr. Christie. That is correct.
    Senator Pryor. That is all I have, Mr. Chairman. Thank you.
    Senator Allard. Next we have Senator Akaka.
    Senator Akaka. Thank you. Thank you very much, Mr. 
Chairman.
    General Kadish, I understand you plan to use radars of 
Aegis ships floating off the coast of North Korea to augment 
the 2004 national missile defense deployment. I also understand 
those ships are required to defend Hawaii from a North Korean 
missile attack. A senior Missile Defense Agency official was 
recently quoted as saying, and I quote, ``These ships will 
carry two computer programs, both of which will use Aegis radar 
data. The programs will not run concurrently. Operators will 
have to choose to operate the standard air defense program or 
the ballistic missile defense program. While the ballistic 
missile defense program is installed, it will not also, at the 
same time, have a program that can do the other full air 
defense missions.''
    Does this mean that a crew of a ship off the coast of North 
Korea will have the choice between defending themselves for the 
type of anti-ship cruise missile launched by the North Koreans 
last month or defending Hawaii from a missile attack? If so, is 
this not a terrible choice they have to make?
    General Kadish. Let me take that. The answer is no. Now let 
me explain why I said no, that they would not have to make a 
choice. It gets a little bit complicated. We still have some 
things to work out with what the United States Navy will 
actually have, as a concept of ops, for those ships and what 
they are going to do. Let me start by saying that the Aegis 
ships in this configuration have two functions.
    One is to act as a surveillance platform for protecting 
Hawaii, as well as giving cues for the whole United States. The 
second function they would have would be to actually defend 
against shorter range missiles. To the best of my knowledge, 
the surveillance function can occur while the ship is actually 
engaged in the full operation of its defensive capability.
    When we move to the missile defense against shorter range 
missiles, because those ships may have dual tasks defending 
against shorter range missiles, as well as surveillance for 
Hawaii and other purposes, they would have the choice between 
the full fleet defense missile air defense capability and 
operating the only missile defense, standard missile three 
capability.
    That is the choice they would have to make. They have full 
self-defense capability on the ship for their own purposes. But 
they would not have the fleet-air-and-missile defense that is 
inherent in the Aegis platform. We are working through some of 
the operational concepts that make sure that our sailors are 
protected to the maximum extent possible during this mission. 
That is underway by the Navy senior leadership right now.
    So the choices are very compatible and commensurate with 
the risks that we are running, is the best way I could put it. 
If it is there to help us protect Hawaii and give cues to other 
radar systems, then that is what it will do.
    Senator Akaka. Thank you for your response.
    The national missile defense architecture envisioned by 
President Clinton included a large permanent X-band radar, 
located on the Island Shemya at the end of the Aleutian chain. 
As I understand it, this radar was required to enable the 
discrimination of the target warhead from a variety of other 
potential objects and was located to be able to defend all 50 
States from a missile attack from North Korea.
    General Kadish, you have previously testified that this 
radar was, and I quote, ``the long pole in the tent for a 
national missile defense.'' The current plans for the 2004 
missile defense deployment do not include any permanent X-band 
radar for operational use. Although a floating sea-based X-band 
radar is eventually planned for testing purposes, it will not 
always be in a position to defend against a real threat 
missile.
    Furthermore, a recent report from the Missile Defense 
Agency stresses that the sea-based radar is not a substitute 
for the Shemya X-band radar. Rather, it is a test asset. The 
sea-based radar may be operable in port, where it would 
probably spend much of its time, because of interference issues 
with aircraft, cars, and other devices.
    General Kadish, why do you not plan to build a permanent 
operational X-band radar to support the deployment of a 
national missile defense against a North Korean threat?
    General Kadish. I would not say we do not plan to build 
those types of sensors. I think we have more evaluation to do. 
As we evolve the program, I would expect those decisions to be 
up for consideration.
    If I might, let me take you back to the X-band radar at 
Shemya and give you a chronology of why the decisions have been 
made the way they have been made in regard to the X-band.
    When the national missile defense program that required the 
X-band at Shemya was put together, that radar was put there for 
basically a couple of reasons. One is that we had no sensor 
that we could really, at the time, do everything that we wanted 
to do, and it was not in the Shemya arrangement. Cobra Dane was 
evaluated. But we would like to have had more capability than 
that, under the requirements-based approach that we were under 
at the time, because it had a very high-performance standard.
    So we decided that we needed a radar there. An X-band was a 
good one. We wanted to put it at Shemya because it met a lot of 
the criteria for that system. Once we looked at not having a 
treaty in effect and looked at the basic capability of the 
system we had, we could delay that radar and look at other 
opportunities. That is where we came up with this sea-based 
platform, to serve two purposes.
    One is to move this very large radar around the Pacific so 
it could have different viewing angles and not be tied to one 
ground-based location. The second thing is that we could move 
it into an operational capability to add to our overall 
defensive posture when it became available and was not needed 
for testing. That is on track to be done.
    I guess the final reason, and the reason why it was a long 
pole in the tent at the time we were talking about the Shemya 
radar, was that it takes a long time to build anything in 
Shemya in Alaska. It is at the end of the Aleutian chain, and 
construction seasons are very short, and the weather to get the 
material there is generally very bad.
    So that is why we had to start so early. It became the 
focal point of that debate. Now we are freer to look at other 
locations. We will do that.
    Senator Akaka. Thank you very much, General, for your 
response.
    Mr. Chairman, thank you.
    Senator Allard. Thank you.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    Thank you, gentleman, for your testimony today.
    Secretary Crouch, I would like to start with you, if I 
might. Then, Secretary Aldridge, I would like to turn to you.
    I would like to focus first on the North Korea threat, 
specifically how imminent and how serious it is. You have 
testified, I believe, Secretary Crouch, that the North Koreans 
have a missile capable of hitting the United States but it has 
not been tested yet; is that correct?
    Secretary Crouch. That is correct.
    Senator Bayh. So they have deployed a system without 
testing. I think it is interesting we are proposing to follow 
the North Korean model, perhaps the only area in which we would 
mimic the North Koreans. Can a warhead be fitted to that 
missile? Do we know that they have the capability of doing that 
and still hitting the continental United States? We know they 
have a missile that we believe is capable of hitting the 
continental United States, although not tested.
    Secretary Crouch. I would say that we have seen two things. 
One, we have seen an earlier test, a flight test, of a missile 
that had three stages, that we think was attempting to put a 
payload in orbit, which would have demonstrated some inherent 
intercontinental capability. So we did see a flight test of 
that.
    The specific missile I was referring to that we have not 
yet seen a flight test of, but which I believe we assess they 
could flight test at any time, is something we call the Taepo 
Dong II.
    Senator Bayh. Right.
    Secretary Crouch. We believe that that missile is capable 
of carrying a reentry vehicle-sized payload to intercontinental 
range.
    Senator Bayh. I am going to digress for one second. You 
mentioned Iran testing missiles. The missiles that they 
currently are developing, they are not capable of hitting the 
continental United States; is that correct?
    Secretary Crouch. We see a flight test program going on 
there. They have moved from short-range to now looking at 
medium-range type systems.
    Senator Bayh. Can those systems hit the United States?
    Secretary Crouch. No. Those particular systems could not 
hit the United States. They would be capable of threatening a 
number of our allies and potentially deployed U.S. forces 
overseas.
    Senator Bayh. Correct.
    Secretary Crouch. But our assessment is that by mid-decade 
or around mid-decade they could flight-test a capability, based 
upon the advancements of their program, that could strike the 
United States.
    Senator Bayh. They could.
    Mr. Aldridge, I would like to turn to you.
    The point I wanted to make, Secretary Crouch, at least for 
the next few years, it seems to be largely a North Korea-
related problem. Is that a fair analysis?
    Secretary Aldridge. That is to you.
    Secretary Crouch. Oh, I am sorry. I thought----
    Senator Bayh. Largely a North Korea-related problem.
    Secretary Crouch. I thought he was directing Mr. Aldridge.
    Secretary Aldridge. No.
    Secretary Crouch. I would say----
    Senator Bayh. Let me withdraw the question and move on. I 
think you see where I was heading.
    Let me ask you, Secretary Aldridge, about the effectiveness 
of the system that is to be deployed in 2004 and 2005 in 
protecting against this developing North Korean threat. The 10 
land-based missiles proposed for the end of fiscal year 2004, 
how effective would they be against the North Korean missile, 
if it were in fact launched against our country?
    Secretary Aldridge. We think it would be effective. We 
probably should not go into a lot of details.
    Senator Bayh. How do you define effective? 90 percent 
success rate? 75? 50?
    Secretary Aldridge. Yes, sir. The way you could achieve 
these rates is you do not have to fire just one interceptor per 
target. You could fire two, as we do in PAC-3.
    Senator Bayh. Of course.
    Secretary Aldridge. The effectiveness is in the 90-percent 
range. Of course, we want the effectiveness to be high enough 
that we never have to use these things. I mean, that is the 
ultimate effectiveness, that they never be used.
    Senator Bayh. There are 10 going on line in 2004, 10 in 
2005?
    Secretary Aldridge. Right.
    Senator Bayh. The radar is not going to be available. When 
will that go into place, 2006?
    Secretary Aldridge. Let me see. General Kadish probably has 
the specific dates for all of those.
    General Kadish. We will have radars on line to handle the 
early warning and usefulness of the system in 2004, when we put 
the missiles on alert, if everything works out all right. We 
will add the sea-based X-band, if it proves out, the following 
year. It is currently scheduled by September 2005.
    Senator Bayh. So, Secretary Aldridge, your testimony is 
that with the 10 interceptors going in at the end of fiscal 
year 2004 and the radar that will be on line at that time, we 
would have a 90 percent effectiveness in shooting down the 
Taepo Dong II?
    Secretary Aldridge. A lot depends on the continuation of 
the test and the effectiveness, its precise effectiveness, 
numbers. But I would put, as of today, the projected 
effectiveness in the 90-percent range.
    Senator Bayh. The reason I ask this is, there is a great 
deal of tension between our country and North Korea today. The 
effectiveness of this system is going to affect our diplomacy, 
other possible military actions, and so forth. If you are 
advising Congress or the President of the United States about 
possible North Korean reactions to our different actions, it is 
going to have a pretty profound impact.
    You perhaps take one course of action, if you think there 
is a minimal chance of them hitting one of our cities with a 
missile, and you take a different course of action if you think 
it is somewhat more significant.
    Secretary Aldridge. Exactly. Of course, that is the 
rationale that went into the decision by the President to 
proceed. I think he clearly has many more options available, if 
he has a limited operational defense, is the way he described 
it. The activities that exist, the thought processes that 
exist, in North Korea or anywhere else, goes through a 
different----
    Senator Bayh. Just so I understand, and this will end my 
questioning here, I would be interested in Senator Levin's 
reaction to this, if he has a moment to think about it. If you 
are advising the President of the United States that there is 
the possibility of the North Koreans hitting Los Angeles or San 
Francisco with a nuclear warhead, you are advising him that we 
would have a 90-percent chance of taking that down before it 
could get there as early as the end of the fiscal year of 2004. 
I mean, if millions of lives depend on it, that is your answer?
    Secretary Aldridge. Yes, sir.
    Senator Allard. Senator Levin.
    Senator Levin. Could I intervene here?
    Senator Allard. I assume Senator Bayh is yielding his time.
    Senator Bayh. I would gladly yield my time. My time has 
expired. But my reaction to this is I am pleased to hear, I 
will say I am pleased but more than a little surprised to hear 
your answer. I would be interested in the Senator's thoughts on 
that.
    Senator Allard. We are getting close to wrapping up. I 
think you only have 3 minutes anyhow. But let us go ahead and 
we will proceed here.
    Senator Levin. Number one, I am surprised that you even 
answered this in an unclassified setting. But number two, I am 
surprised at your answer, because I know the classified number. 
I will leave it at that.
    Secretary Aldridge. Well, I am projecting----
    Senator Levin. I just think you had better go back and 
check the classified numbers to the probability of success of 
this 2004 system. I think you will want to correct the record 
after you read the classified numbers. But I think I had better 
leave it at that, because it is a classified number. But I was 
surprised, number one, that you did answer it.
    Secretary Aldridge. I am surprised there is a classified 
number existing, because we do not know yet until we get into 
the testing process.
    Senator Levin. There is a range.
    Secretary Aldridge. The range probably depends on whether 
it is one missile or two missiles or a lot of other 
assumptions.
    Senator Levin. I am just going to leave it at that. I think 
I have to leave it at that. I have no choice.
    Senator Allard. Okay. We will move on ahead then.
    Thank you, Senator Bayh.
    I just have been conferring here with my colleague, Senator 
Levin. He says that he has about 3 minutes that he wants to use 
on follow-up questions. I have one question I would like to 
follow up on. Unless Senator Bayh has any other questions or 
anything, we will probably draw the hearing to a close at that 
particular point.
    My question is this: Secretary Aldridge, capabilities-based 
spiral development means to me that we will put something in 
the field when we believe it has military utility. Then we will 
improve upon it over time. That, in turn, means to me that the 
system meets a recognized threat and that it has sufficient 
maturity that we think it has a good chance of working. Even 
after it is in the field, we will continue to work on it and 
improve it.
    What concerns me is that some of my colleagues and some 
people in the Pentagon continue to focus on deployment as a key 
event in spiral programs. No doubt that it will be true for 
some of the programs. But it seems to me that we almost need a 
new vocabulary to help us better describe how we test and how 
we put these capabilities-based spiral-development programs in 
the field.
    Would you care to comment on that, please?
    Secretary Aldridge. I agree with you. The terminology is 
very ambiguous. I think the whole concept of spiral development 
has to go along with the spiral requirements process, as well 
as the spiral testing process. I think the terminology is, 
again, somewhat ambiguous. It could probably use some more 
rigor in exactly how we define it.
    But the concept itself is very strong. I think it clearly 
gives the direction of putting systems into the field as 
quickly as possible so the cycle times of this acquisition 
process could be shortened. The risk can be reduced because we 
are going with more mature technology earlier. We can get rid 
of older equipment sooner, because it goes to the field. But 
the spiral development capability must also have a technology 
program that clearly can enter new technologies as it matures 
into the program to create the blocks of improvement. So that 
is a very key part of it.
    Let me just make one other point of all this. Spiral 
development also goes with a thing which I call properly 
pricing the programs. Because even though you have a spiral 
development, if the program manager runs out of resources at 
the end of the year, the first thing he does, he slips the 
program, and you have just defeated the purpose of spiral 
development.
    So you will hear a lot of talk within the Department about 
spiral development and properly pricing the programs up front. 
Those are two key elements that must go hand in hand.
    Senator Allard. Then Senator Kadish.
    Senator Levin. You just demoted him. [Laughter.]
    Senator Allard. I am sorry. General Kadish.
    General Kadish. That is an honor, Senator. [Laughter.]
    Senator Allard. General Kadish, would you just review for 
some of us the management tools you have in place now, such as 
your integrated master plan, integrated master schedule, and 
earned value management system, and the progress you have made 
in implementing these tools. Then maybe elaborate a little bit 
on have they been effective in providing you with the 
information you need to manage your programs in a disciplined 
way?
    General Kadish. We have been working very hard to put 
management discipline in all phases of our activities. This has 
been a goal of mine for several years, to be as efficient at 
this as we possibly can. We have come up with the concepts. We 
looked at GAO recommendations, internal recommendations, 
consulted recommendations. We have come up with a system of 
management tools that we are, in fact, working on, as we speak, 
to manage this very complex program. It includes integrated 
master schedules and plans. It includes earned value 
management. It even includes weekly, and even daily, 
interaction with our executing program managers.
    I guess if I were to give us a report card right now on how 
well we are implementing that, we have the right vision. I 
would give us an A-plus on that.
    The implementation has been difficult, as you would expect, 
for something like this. I expect by the end of the year this 
will be full up and operating to my full expectations. But 
right now, we are probably halfway there on implementing some 
of these things.
    We get pretty good cost visibility out of the earned value 
system. That is one of my major concerns, to make sure we know 
where we are from a cost and schedule standpoint.
    So the tools we are putting in place, I think, are going to 
be effective. They already have been, to a large degree. They 
are absolutely necessary for a complex program like this.
    Senator Allard. Thank you.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    General Kadish, do you happen to have Section 8061, which 
is the section that was written by somebody, relative to 
exempting this test bed from operational testing?
    General Kadish. No, I do not.
    Senator Levin. Let me get you a copy of it here. I want to 
go through this with you. ``Section 8061, the funds available 
to the Department of Defense under the heading Research, 
Development, Test and Evaluation Defense-wide may be used to 
develop and field an initial set of missile defense 
capabilities.'' That is defined in the next sentence.
    So far, if you stop right there, that accomplishes what you 
were interested in accomplishing in terms of the budget. Would 
you say that is correct?
    General Kadish. After the word ``capabilities''?
    Senator Levin. Yes.
    General Kadish. I believe so, yes, Senator.
    Senator Levin. If it stopped right there, that would 
achieve what you were trying to achieve when you said that you 
would like the R&D funds to be used for this 2003 and 2004 test 
bed?
    General Kadish. I am not a lawyer, Senator. So I would 
have----
    Senator Levin. Well, but is that----
    General Kadish. That is the intent. I mean, that is clearly 
the intent.
    Senator Levin. That is the intent of that language. I 
understand. That is the intent of that language?
    General Kadish. Right.
    Senator Levin. If you had put a period right there, that is 
what you intended to accomplish; is that correct?
    General Kadish. Right.
    Senator Levin. Now, it is the second half of that sentence 
which is the mystery that nobody seems to know how it got into 
the application here or in the proposal that came from the 
administration. It is this language that I want to read to you: 
``Such fielding shall be considered to be system development 
and demonstration for purposes of any law governing the 
development and production of a major defense acquisition 
program.''
    That is the language which I am talking about here this 
morning. You did not suggest that part of that sentence; did 
you?
    General Kadish. I do not recall doing that. But in the 
development of these types of paragraphs, I think you can 
appreciate the fact that when the staff agencies and the legal 
community look at this, they may not have every law covered 
that may affect the funding issues. So my opinion would be that 
these types of clauses are in general used to make sure that we 
did not miss something in the process.
    Senator Levin. These types of clauses, as far as we know, 
have never been used for any fielded system in history. Do any 
of you know of any fielded system that has been designated by 
law as a developmental system? Do you know of any, anybody here 
at this panel? [No response.]
    We have searched. We can't find--you say this is the sort 
of language which is used. General, do you know of any fielded 
system that has been designated by law as a developmental 
system?
    General Kadish. I do not. I have not thought about it, 
Senator, but I do not think so.
    Senator Levin. Okay. Does anybody on the panel know of any?
    Mr. Christie, do you know of any?
    Mr. Christie. No, I do not.
    Senator Levin. Secretary Aldridge? Secretary Crouch?
    Secretary Crouch. Outside my----
    Senator Levin. Okay. Well, we do not either. So since your 
goal would have been accomplished, as you just testified, by 
putting a period after the word ``defense capability,'' since 
that is what you wanted to do, use R&D money to develop and 
field this initial set of missile defense capabilities, and you 
do not know, no one knows, where this second half of the 
sentence came from, we are going to find out.
    Secretary Aldridge. I am going to go search. But I think 
the point is, I think we agree that it is not our intent to 
waive operational testing.
    Senator Levin. Yes. Well, I am glad----
    Secretary Aldridge. We can come to agreement on what the 
words say to make that happen.
    Senator Levin. That is good. That is very reassuring, and I 
hope our chairman and our full committee chairman will help us 
to accomplish that, strip out that language. We have to find 
out where that language came from, because the effect of that 
language. It keeps something in development which is now 
fielded, the effect of it is to exempt that system from 
operational testing of a development system.
    Secretary Aldridge. That was not the intent. I think the 
intent was, as General Kadish has said, a system that is in 
SDD, system development and demonstration phase, is an R&D 
program and uses R&D research. Maybe it was just an expansion 
of the first phrase for clarification. But whatever it is, I 
think we are in full agreement as to how to proceed. We can 
find acceptable language to make it work.
    Senator Levin. Now, if you would help us find out how it 
happened, because it is troubling to me. It is obvious that the 
administration is trying to put a label of a deployed national 
missile defense system on what is really a test bed. That is 
troubling to many of us. That is exaggerating what is being 
fielded here for many of us. I think Senator Reed went through 
that with you.
    But if at the same time there is an effort somewhere, 
somehow, by somebody unknown to the four of you who run these 
programs, language gets into a request to us that would exempt, 
effectively, this system from operational testing, should 
somebody try to exempt it, that is doubly troubling. I am glad 
to hear that none of you are trying to exempt it from 
operational testing.
    Somebody here put that language in there for some purpose. 
It is troubling enough and a puzzlement enough to many of us 
but I am not speaking here for more than myself. I think some 
others who have expressed themselves on this are troubled by 
the exaggerated description of this as a deployed national 
missile defense system with your exaggerated capability as to 
the likelihood of success, Mr. Secretary, when it is really a 
test bed. If in fact, the motivation of this language is to 
immunize this from operational testing at the same time, it is 
doubly troublesome.
    I will leave the ifs there, because you are going to clear 
up the mystery, Secretary.
    Senator Allard. Senator Nelson, you are up, if you have 
questions.
    Senator Bill Nelson. Mr. Chairman, I have plenty of 
questions. But I just looked at the clock. Is that a vote in 
progress?
    Senator Allard. I think we are scheduled for a vote right 
at 12:00. Senator Levin had 3 minutes. He has wrapped up. I am 
wrapped up. If you would like to run a question or two then you 
can submit the rest in writing, if you would like.
    Senator Bill Nelson. I am going to try to ask them all. 
Have they called the vote yet?
    Senator Allard. No, not that I am aware of.
    Senator Levin. If that is one light, they have called the 
vote.
    Could someone check, please, as to whether a vote is on?
    Mr. Chairman, we received a letter from Phil Coyle, who is 
the former occupant of the office that Mr. Christie now holds. 
I would ask that this letter on operational testing history be 
made part of the record.
    Senator Allard. Without objection, so ordered.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Allard. I will find out how much time is left.
    Senator Bill Nelson. Thank you.
    Mr. Christie, in your February assessment of the ground-
based national missile defense program, you stated that ``only 
a very limited range of engagement parameters have been 
explored so far,'' that ``overall only limited potential 
functionality has been demonstrated in testing.''
    Can you explain?
    Mr. Christie. Up to the point that we wrote that report 
last fall, the hit-to-kill capability had been demonstrated. We 
had discovered problems with the booster. The last flight test 
was a problem because of a failure of the kill vehicle to 
separate from the booster. We had non-operationally realistic 
geometries out of necessity, launching the targets from 
Vandenberg to Kwajalein. We had a simulated mid-course tracking 
system located on Hawaii that would not be applicable in an 
operational sense.
    So we had demonstrated quite a bit. But we had also found 
that there are things that we should be doing in the very near 
future to make testing more operationally realistic. That is 
exactly what the test bed is designed to do, to correct many of 
those shortfalls in realistic operational testing capability.
    Senator Bill Nelson. So, since your statement in February, 
there has been such sufficient confidence in the system and the 
testing that you feel like that it is not going to affect the 
effectiveness in order to deploy this in 2004?
    Mr. Christie. I was reporting at that point in time on the 
testing that had been done up to that point and my assessment 
of the plans that are on the table. I do not believe I made 
those kind of statements about the test plans that are 
presently on the table, and particularly with respect to the 
test bed that we have been discussing.
    Senator Allard. Senator, just for your information, we have 
about 10 minutes left.
    Senator Bill Nelson. Okay.
    You stated, in your recent operational assessment, that the 
current national missile defense system had no current 
operational capability?
    Mr. Christie. That is correct.
    Senator Bill Nelson. Yet you have had some interceptor 
successes?
    Mr. Christie. That is right.
    Senator Bill Nelson. Why, then, is there no current 
capability against a real threat?
    Mr. Christie. A real threat, as we have talked about 
earlier today, comes from North Korea. We have not tested that 
geometry. We do not have a capability at this time to defend 
against that kind of a threat. So at this time, we do not have 
an operational capability.
    Senator Bill Nelson. All right.
    General Kadish, your budget documents show that you are 
going down parallel paths to acquire the ground-based boost 
phase and a space-based phase. Now, it is my understanding that 
the space-based test bed that you plan will not actually be 
used to shoot down a test missile, whereas the ground-based 
will be used.
    So is it true, the assumption that I am making, that you do 
not plan to actually shoot down a test missile with a space-
based? If not, why not?
    General Kadish. We do have the parallel paths, as you point 
out. The nearer path is the terrestrial-based, whether it is 
ground or sea eventually, we intend to move out very 
aggressively on, and hopefully reduce the risk, to space-basing 
those types of interceptors.
    At the same time, we have a path that we are pursuing a 
little bit later in time to put the space test bed up, as you 
suggest. It is our intent, as far as at least my internal 
discussions, that test bed that we would space-base would serve 
two functions. One is to demonstrate intercepts from 
interceptors that would be on orbit, so to actually do an 
intercept, and to work out all the difficulties involved with 
having a constellation of that size potentially on orbit.
    But it would be a test bed. It would actually try to do 
those types of things that I described, but only in a test 
mode.
    Senator Bill Nelson. Mr. Chairman, what is our pleasure? I 
came here at 9:30. I have a bunch of questions. We are going to 
have to go vote. I would like to go vote and come back and 
continue my questions.
    Senator Allard. Everybody here on the committee has had one 
round of questions. Then we had a shortened second round, 
Senator Levin and myself. We are in the second round with you. 
If you have some questions, you may want to submit those in 
written form. If the member wants to come back and ask some 
more questions, I will be glad to come back and chair the 
committee for you.
    Senator Bill Nelson. I think you need my vote on this 
particular vote.
    Senator Allard. We are voting on Estrada. So that is the 
vote up on the floor.
    Senator Bill Nelson. That is why you need my vote.
    Senator Allard. Okay. Then let us go ahead and I will 
recess the committee, and we will go ahead and vote, and we 
will be back. If my information is correct, we have about 6 
minutes or so, the vote will end. So that will give us time to 
get down there. We will get back probably about 25 after, I 
would guess, and we will give you an opportunity to ask some 
more questions.
    Senator Bill Nelson. If we are going to completely throw 
off the schedule of these folks, I do not want to do that.
    Senator Allard. That is a good point. What are your 
schedules? Do your schedules permit you to be here for a while 
longer? Does anybody have a problem? [No response.]
    Okay. Let us go ahead, and we will come back.
    [Recess.]
    Senator Allard. We will go ahead and call the committee 
back to order. We will go ahead and ask Senator Nelson to 
resume his questioning.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    All right. General, we were right in the middle of a 
questioning about the parallel tracks on the space-based and 
the ground-based. You had just started your answer.
    General Kadish. Let me repeat and then try to answer the 
question completely. We do have parallel paths for boost phase. 
The reason why we do have them is because it is a very risky 
proposition with the time lines and the phenomenology involved. 
So we set up this parallel path approach that has terrestrial, 
which includes sea-based and land-based approach, as well as a 
space-test-bed approach that comes later in time.
    Our primary path is the terrestrial approach, in order to 
prove out the concepts, get the phenomenology and to provide 
potentially as early a capability as we can, given the 
constraints of geography surrounding the boost phase. We intend 
to pursue a space interceptor test bed, as is described in our 
budget documents. That test bed will have two fundamental 
purposes being space-based. One is to see and test intercepts 
from space in very limited test bed context, as well as to 
prove out the difficulties and work out the difficulties of 
having a constellation of that nature on orbit, very limited 
number of potential satellites.
    That is the concept. We have a lot of work to do on both 
those efforts. But we have a primary path and a later path, 
using the space-based test bed.
    Senator Bill Nelson. When would you estimate that you would 
do a test of the space-based?
    General Kadish. We have--of the space-based test bed, it 
could be--we are working out some of the details of that 
strategy right now. My best guess, at this point in time, would 
be sometime in the--well, I will give you a wide range--Block 
2008 to 2012.
    Senator Bill Nelson. You would consider that you would have 
to have a test of that to determine if it was going to be 
effective; would you not?
    General Kadish. Yes, sir. I mean, that is the fundamental 
pillar of all our activities under missile defenses, to test 
them as best we know how, given their complex nature, to see 
that they work properly.
    Senator Bill Nelson. 2008 to 2012, is that right?
    General Kadish. Right.
    Senator Bill Nelson. Are you still going to be around?
    General Kadish. Senator, I hope not. [Laughter.]
    I intend to be around, but maybe not in this position.
    Senator Bill Nelson. Let me ask a policy question to the 
secretary over there. That would be the first time that we 
would be weaponizing space. There has been a policy up to this 
point that we are not going to weaponize space. Tell me about 
your thinking with regard to the change of that policy.
    Secretary Aldridge. I should quickly kick this ball to J.D. 
Crouch, who is the policy guy. But let me just respond in the 
sense that we are heading down the path for missile defense 
that is looking at all elements: boost phase, mid-course, and 
terminal. It is a logical step for an effective missile defense 
system to have a very effective boost phase intercept system, 
because you avoid a lot of problems. You basically can cover 
the world. You can avoid any issue of discrimination.
    Now once you have accomplished that, then you look at 
various ways to do boost phase. We are looking at airborne 
lasers. We are looking at ground-based interceptors. We are 
looking at space-based. Any one of those might work and many of 
them may not work.
    So from the point of view of laying out a program plan of 
development, we are looking at all those parallel phases. Now, 
whether or not we actually go and do one of these to build a 
test and do an intercept will depend on obviously getting the 
money in the budget and getting congressional approval to spend 
the money in that direction. So I think the policy issue will 
have to be addressed. But right now, we are laying a plan that 
has that as one of the options in it.
    Senator Bill Nelson. Do you not have a lot of promise on 
your boost phase right now with the Aegis system?
    Secretary Aldridge. That is correct. I would say probably 
the most effective boost phase would be the airborne laser. It 
is the one that probably has more effectiveness because of its 
essentially worldwide coverage and zero time of flight system.
    Senator Bill Nelson. How far along are we in the testing of 
the airborne laser?
    Secretary Aldridge. General Kadish can probably address 
that specifically.
    General Kadish. Yes, sir. If I may, Senator. We are at what 
I call the hardware phase of the airborne laser. We are 
probably within 18 months to 2 years of demonstrating that this 
laser system could actually shoot down a missile. That is quite 
remarkable.
    Senator Bill Nelson. Within how long?
    General Kadish. Eighteen months to 2 years, depending on 
how successful we are building it all on the airplane over the 
next couple years. It is very risky, I would assess. But the 
technology appears to be there.
    So where we stand today is we have an airplane, a 747, that 
is configured to accept the laser as its cargo to carry around. 
We got that integrated. It is flown. We have gotten the test 
program under way of that part of the program. We are 
assembling, as we speak, at Edwards Air Force Base, the laser 
component on the ground in a 747 carcass to make sure it fits. 
This summer we plan to have first light out of that laser setup 
in the carcass of the 747. If all goes well over the next 18 
months to 2 years, we will integrate that in the airplane and 
fly it to attempt to shoot down a boosting missile.
    So we have made remarkable progress; not without its 
problems and difficulties, but that is heading in the right 
direction at this point in time.
    Senator Bill Nelson. That is pretty dramatic.
    General Kadish. Yes, sir.
    Senator Bill Nelson. If you can shoot down a rocket in its 
boost phase with a laser from a big airplane, you can shoot 
down anything.
    General Kadish. I would not go that far, Senator, but we 
can do a lot of damage.
    Senator Allard. Senator, I have always advocated and I have 
always liked the concept of going after the boost phase, 
because you drop the warhead or weapon of mass destruction 
right back into the lap of those who started it. I think that 
works better than any peace treaty out there, frankly.
    Senator Bill Nelson. Although presumably the warhead would 
not be armed. Unless they do not have the arming techniques.
    Senator Allard. You would hope not anyway.
    Senator Bill Nelson. That is something. So, you are that 
optimistic on the testing on the laser?
    General Kadish. I am cautiously optimistic. In fact, I 
would invite members of the committee to go out there and see 
the hardware, if you have a chance, at Edwards Air Force Base. 
But when you go out there and you see the hardware, talk to the 
people working on this. They are worried about their next 
crisis in front of them to meet schedule and cost effort. But I 
think there is a very quiet confidence they will be able to do 
this. It is a matter of when and what problems will come up.
    There are a lot of skeptics on this. I think that is a 
healthy attitude to take right now. But as Secretary Aldridge 
points out, some things will work, some things will not. But 
this is on track right now.
    Senator Bill Nelson. If you perfect the technology on laser 
from a platform of a sub-sonic airplane, can you use that 
technology? There is no reason why you could not use that on a 
space-based platform, is there?
    General Kadish. There are different challenges in space. 
The size of the mirrors require the optics, which in and of 
itself is a major accomplishment of ABL, to be put on orbit and 
then having, basically, a chemical plant that you have in the 
back of that airplane on orbit, are significant challenges. The 
fundamentals are the same. It would give us a lot better 
confidence, I think, of going to space. Of course, space solves 
your geography problem, in a sense, because you can use those 
weapons more effectively from the high ground of space.
    But there will be very difficult challenges to move that to 
space. I would not characterize it as a trivial matter at all.
    Secretary Aldridge. Plus the fact that we do not have a 
launch vehicle to do it, because it takes several hundreds of 
thousands of pounds for a space-based laser. There is just no 
way to get it there at this point.
    Senator Bill Nelson. With some of the rockets that we are 
going to go to Mars with, we can do it with that. [Laughter.]
    Secretary Aldridge. We hope.
    Senator Bill Nelson. All right. Let us talk about decoys. 
Let me ask you, Mr. Christie, do you have a high confidence 
that we will have the capability to discriminate from the 
decoys when we deploy this thing in 2004?
    Mr. Christie. High confidence with certain decoys, yes. We 
have tested with some decoys already and demonstrated a 
discrimination capability. We will be carrying out even more 
difficult tests of counter-measures. But without getting into 
classified information, I cannot speak to what we will 
demonstrate with specific decoys between now and then. We can 
provide that answer to you for the record.
    Senator Bill Nelson. Okay. I would like to follow up on 
that.
    Senator Allard. Go ahead.
    Senator Bill Nelson. No, no. I mean in an appropriate 
setting, in a classified setting at some point.
    Senator Allard. Like many of the gentlemen on the 
committee, for example, if you want a classified briefing on 
either subject, usually just contact them. They can set aside a 
room there. It is in S-407, I believe it is. That classified 
briefing can be provided for you.
    Senator Bill Nelson. Secretary Aldridge, what are we doing 
to ensure that, as we try to orbit a constellation of space-
based radar satellites, and they are not being designed for 
missile defense, but might be able to provide a global missile 
defense tracking capability as a side benefit. What do you 
think about the potential side benefit of this kind of system?
    Secretary Aldridge. That is very difficult. The space-based 
radar that is being considered by the Department is a radar 
that looks to the ground. It is a radar that is trying to 
detect targets moving and to provide some imaging capability. 
So it is not designed to be tracking missiles in space. It is 
really looking downward. The concept is in a fairly low earth 
orbit. Yet we are looking at other concepts that could be--
maybe you would put it at a higher orbit.
    I believe, really, the direction that we would like to move 
was what used to be called the SBIRS-Low program, now called 
Space Tracking and Surveillance System. It is a space-based 
system designed exactly to do what you would like to do. Only 
now it looks up into the orbits that would be for missiles, 
rather than looking down on the ground. That program has been 
restructured. As you may recall, there were some difficulties 
with that, that we had last year. We restructured the program. 
We are going to launch two satellites in the 2006/2007 period 
that will be prototypes that would lead on to other systems 
later on.
    That is carried as part of the missile defense program. It 
is carried under General Kadish's activity. It is fully 
integrated with the work we have underway for missile defense. 
That is perhaps the right way to go, as opposed to trying to 
make a third mission of a space-based radar.
    Senator Bill Nelson. General, with regard to the boost 
phase systems, the boost phase interceptor has to be very fast 
or it has to get very close in order to be effective. So what 
are the general design goals of the boost phase system? What 
are the regions that you might want to have covered by such a 
system? Where would that system have to be placed, other than 
what you have already told us about in Alaska and down at 
Vandenberg?
    General Kadish. The general characteristic of a boost phase 
defensive system is such that you have to be closer to your 
intended target than you would in the mid-course phase or in 
the terminal phase, obviously. It is rather up close and 
personal for terrestrial-type of activities. But if you look at 
the geometries, if you have a boosting missile and you have the 
kinetic fly out of another missile to catch up to it, you want 
to be in the general vicinity of that boosting missile, 
measured in hundreds of kilometers.
    Space-basing gives you a bigger advantage because you could 
be closer to any point on the ground from space than you could 
be if you were deployed specifically on the ground. So one of 
the major constraints to a boost-phase activity is that you 
have to be close to the borders of the offending country that 
you are trying to defend against.
    There are a lot of advantages if you could make that work. 
That is why we have the parallel paths of having boosters with 
the proper velocities. When you have boosters doing kinetic 
energy, you have time-line problems because the time lines are 
very short. When you have the speed of light of a laser, you 
have the speed of light, so you do not have the fly-out times 
of a kinetic booster. That is why we are proceeding on all 
those parallel paths.
    So I guess the primary constraint, if you want to call it a 
constraint, or characteristic of boost-phase defensive systems 
is that they have to be close to the boosting missile to defend 
against it, relatively speaking, in regard to the mid-course or 
terminal phases.
    Senator Bill Nelson. If you went to a space-based system, 
how many satellites would you have to have giving you tracking 
coverage in order to get 24-hour coverage of your potential 
enemy launch regions?
    General Kadish. That is a difficult question to answer. But 
let me give you some ranges. It is difficult because you have 
to decide what type of capability you want. In a layered, 
multifaceted system that we are building, a space-based 
interceptor boost phase system would not be the only system we 
would depend on. So you would have a different constellation, 
if it was the only system, than you would if you have other 
layers in the process.
    On the most likely side, we have done calculations, and I 
have seen analyses that say we can do it with as little as 
potentially 60 or 70 interceptors to as many as 300 or more. It 
goes geometrical from there, depending on how robust we wanted 
to be in the things we are talking about.
    So I think affordability here, if we ever go down that 
route, is a major issue. The complexity of those constellations 
is one of the major technical risks associated with it. But it 
is very attractive, as I pointed out, from a geography 
standpoint.
    Senator Bill Nelson. If you get to the time period of 2008 
to 2012 that you talked about and start to deploy space-based 
assets, if we were to ever have a policy decision that you 
wanted to have them removed from space so that space would not 
be weaponized, is that being put into your thought process?
    General Kadish. Senator, I am not the right person to 
address the policy issues of this. We will certainly comply 
with the policy of the Department and Congress through the 
appropriate process. I think that is better left to Secretary 
Crouch.
    Senator Bill Nelson. Secretary Aldridge, Mr. Christie, 
Secretary Crouch?
    Secretary Crouch. Sure. I think your question was, ``Would 
the system be capable of being extracted?'' Again, I think we 
are in the very early stages here. So, whether or not it would 
have that kind of a capability obviously for something on 
orbit, you would have the options of trying to physically take 
it out of space, which I think would probably be very difficult 
and very expensive. You might also have the options of de-
orbiting the system.
    But I think that those would be technical capabilities that 
you would have to build in to the system, if you wanted to have 
the option of being able to do that.
    Senator Bill Nelson. That is correct. But the technical 
capability has to follow a policy decision. That is why I 
raised the issue for you to start thinking about.
    Secretary Aldridge. I think it is probably a chicken-or-egg 
issue, because if it does not make any technical sense, then 
why do we ask for the policy change? We do have to understand 
what is the technical difficulty of making this happen and the 
cost. It may be just prohibitive. But I think in terms of what 
we are doing now is we are just studying this issue and trying 
to get some technical assessment of does this make any sense 
long before we ask for--even address the policy.
    Senator Bill Nelson. Okay. Back on January 31, a senior 
defense official was quoted as saying, ``It is not clear how 
the national missile defense system to be deployed by 2004 will 
be manned 24 hours a day.'' That was the quote. Then a 
spokesperson for the Missile Defense Agency was quoted as 
saying, ``The Missile Defense Agency is an R&D agency that has 
no operational control over the system it develops.'' The quote 
continued, ``The systems are turned over to the military 
services for operational use.'' That is the end of the quote.
    So, how can your agency continue to improve and test if the 
system is going to be turned over to something like the Army 
for operational use?
    General Kadish. Senator, I think I alluded to this earlier 
in our discussions with the members. But let me put it in this 
context: We have a unified command plan change now that puts 
STRATCOM as a primary interface with missile defense. Then we 
have to deal with NORTHCOM as well. In the process of putting 
this system together and putting it, what I would call, on 
alert, we are actively discussing now just that very question 
of how do you do both at the same time.
    I am very confident that we will be able to work out an 
arrangement that does such a thing. It would be a very 
practical approach to the problem. We have some experience with 
that, even today in our strategic systems of how you test and 
operate at the same time.
    Those details, however, have not been worked out. We are 
working on those issues as we speak. I would expect that over 
the coming months, and over the next year especially, those 
issues will be addressed. In fact, I think without having the 
test bed and the imperative to make it operational, we would 
have a very hard time of getting any operational concepts put 
together to operate such a system in the short run.
    So I think that is a major benefit. As difficult as that 
will be to work out, it will be a major benefit of us going 
down this path, to get the warfighting using communities on all 
our systems more familiar with how we ought to operate them, 
and then we can respond to what they think ought to be done in 
the future.
    Senator Bill Nelson. If you are going to have 16 more 
tests, and this thing is operational in 2004, you are really 
going to have a challenge of how do you pull it off of 
operational to get all those tests done.
    General Kadish. I think it will be a challenge but a 
welcome one.
    Senator Bill Nelson. Since the President's decision to 
deploy the ground-based mid-course missile defense by 2004, the 
flight test schedule does not seem to have kept up. Three 
intercept flight tests have been canceled. Now, why did you not 
request enough funding to complete the flight test program with 
the current interceptor design on schedule, while also 
developing the new boosters? When will the objectives of the 
three canceled flight tests be completed?
    General Kadish. I think that, after the last flight test, 
the best way I can answer that is we took a look at what we had 
to do and what we have already done and tried to be good 
stewards of the taxpayers' money and said: If we did the flight 
test program that we had planned to do, using surrogate 
booster, while at the same time putting new boosters into play, 
two things would happen.
    One, is we would repeat basically what we already knew in 
the flight tests that we would do using the surrogate booster. 
We would not be able to change the configuration. So we would 
be doing tests confirming what we already knew about the 
system. But we would probably have increased our confidence on 
the reliability.
    Traded with that would be the second thing, and that is 
that there is only a finite amount of people involved in this 
program at this point. We wanted to focus their attention on 
what really needed to be done.
    So the conclusion we collectively came to, and I think is 
validated by Mr. Christie, is that it was prudent to focus our 
attention on booster flight tests. We want to start up the 
intercept tests in the proper configuration that we really want 
to test, and suspend the other types of tests. The marginal 
confidence and increase in knowledge would not necessarily be 
worth the expense of those tests.
    So we balanced the program. That is the effort we are 
trying to execute right now. I think it is a prudent and wise 
decision at this point.
    Senator Bill Nelson. You want that system in Alaska by the 
end of 2004. You have that X-band radar. It is not going to be 
ready by then. So Mr. Secretary Crouch, will the President's 
planned deployment of the national missile defense system in 
Alaska still go ahead by the end of 2004, regardless of the 
readiness of the radar?
    Secretary Crouch. Yes, sir. My understanding is that the 
modest capabilities that are planned for that system do not 
require the sea-based X-band radar that you are speaking of. 
But obviously, that sea-based X-band radar will, when it does 
come on line beyond 2004, will provide some additional 
capability to that system. But its primary purpose will be to 
engage in testing for the system.
    Senator Bill Nelson. Where is Shemya?
    Secretary Crouch. Shemya is at the end of the Aleutian 
chain in Alaska.
    Senator Bill Nelson. Okay. So, that is a little island, you 
have it there or the floating platform. Your answer would be 
applicable to both?
    Secretary Crouch. At this point, there is nothing in the 
budget that would put the X-band radar in Shemya. That was part 
of the old national missile defense system.
    Senator Bill Nelson. General, you have had five successes 
in 4 years. You have had, tell me if this is right, eight 
flight interceptor tests and three of those have failed. Do you 
have the confidence now that you are getting your hands around 
the problems as you have developed, so that we are not going to 
have that kind of success rate in the future, on your future 
tests?
    General Kadish. I am very confident in the approach we are 
taking to the testing program. It is not only flight tests; it 
is ground tests, it is simulations, it is a whole series of 
different things that build our confidence.
    In regard to the intercept tests, you are correct. There 
were five successes in 4 years. But four of those successes 
occurred in, I think, about a 13-month or 14-month time period; 
and three out of the eight failed. Of the three failures that 
we have had, one of my main frustrations is that they occurred 
because we made a mistake in building the system, effectively a 
quality control mistake. When you are dealing with prototype 
hardware of this nature, unfortunately this occurs all too 
frequently.
    So one of the main focuses that I had in the program for 
almost a couple years now, and it is coming to fruition with a 
vengeance right now, is something called mission assurance. I 
think you might be familiar with it. That has become the number 
one criteria, even in our source selections, to make sure that 
even our prototype hardware, our first hardware that we built, 
now that we know the fundamental technology works, needs to be 
built properly. These are very complex systems. We are going to 
pay a lot of attention to that effort.
    So my confidence stems from the fact that we have a basic 
knowledge of the technology now. We know how to integrate it. 
We will get experienced with it, with this test bed that we 
will make operational. With the proper focus on mission 
assurance and quality control, we could build it the way we 
need to build it.
    Senator Allard. Senator, we need to wrap it up. This panel 
has been here for 3\1/2\ to 4 hours.
    Senator Bill Nelson. So have I, Mr. Chairman; and I have 
just completed my questions.
    Senator Allard. Okay. Thank you.
    Again, I would like to thank the panel for their time and 
willingness to answer the questions from the members of this 
panel. I want to thank you very much for your dedication and 
your good work. Thank you. We are adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                   BALLISTIC MISSILE DEFENSE PROGRAMS

    1. Senator Levin. Secretary Aldridge, many of the ballistic missile 
defense programs currently being funded have no established performance 
goals, architectures, or cost estimates. When will such goals be 
established, how much money do you plan to spend on these programs 
prior to establishing such goals, and which other major defense 
programs do you plan to develop with no concrete performance and cost 
goals or overall architectures?
    Secretary Aldridge. The Secretary of Defense was definite about 
goals and priorities for missile defense in his memorandum of January 
2, 2002, which established ballistic missile defense as a single 
program of work. The Missile Defense Agency (MDA) immediately 
established technical objectives and goals for a single program to 
develop layered, integrated, ballistic missile defenses in depth for 
our homeland, deployed forces, and friends and allies. The current 
Statement of Goals provides even more detailed goals as they relate to 
development for Block 04 of the Ballistic Missile Defense System 
(BMDS). In keeping with these goals, MDA developed cost estimates and 
technical proposals to provide missile defenses as soon as practical. 
This work created the budgets for fiscal year 2003 and fiscal year 
2004. As development and fielding progresses, MDA will adjust goals and 
plan for technical development to keep pace with the ballistic missile 
threat while providing affordable missile defenses. Consequently, while 
there is a Block 04 architecture and cost estimate for limited fielded 
defense, new technical capabilities responsive to emerging threats 
drive an evolving architecture that may change significantly as the 
BMDS becomes more effective in future blocks.

                   TESTING PAC-3 AGAINST SCUD TARGETS

    2. Senator Levin. General Kadish, when do you plan to test the PAC-
3 system against actual SCUD targets and what is preventing you from 
doing so now?
    General Kadish. Testing of the PAC-3 missile became an Army 
responsibility upon transfer of the program to the Army on March 31, 
2003. MDA is still responsible as a ballistic missile target provider, 
however, and stands ready to support the future PAC-3 test program. As 
a part of the development and initial operational testing of the PAC-3, 
we did not have actual SCUD targets available in appropriate quantities 
and sufficient lead time to incorporate them into our test program. 
There are a number of risks associated with the SCUD missile, such as 
its accuracy, that make it impractical at many test ranges. The 
resulting restrictions, including reliability, safety, environmental 
and repeatability concerns, made SCUD-representative targets more 
appropriate for early testing. Additionally, our testing philosophy is 
to test against targets that represent a variety of threat solutions so 
that we have a robust system capable of defending against a wide, 
variable range of threats. This approach has reaped benefits in the 
current conflict in Iraq.

               DEPLOYING NATIONAL MISSILE DEFENSE SYSTEM

    3. Senator Levin. Mr. Christie, did you advise the President or 
anyone else to deploy a national missile defense system in 2004?
    Mr. Christie. I did not. However, I fully support building the test 
bed to support more realistic testing and developing a concept of 
operation. Also, the test bed may have some inherent capability that 
could be employed in the event of a ballistic missile attack on the 
United States.

               APPROVING BLOCK 04 MISSILE DEFENSE SYSTEM

    4. Senator Levin. Mr. Christie, are you going to approve and 
implement operational test plans for the Block 04 missile defense 
systems prior to September 2004, so that we will know what the 
demonstrated capabilities of the fielded systems are by the time they 
are fielded?
    Mr. Christie. I will review and approve the operational test plans 
for the Block 2004 test bed. Each ground and flight test event will 
address both developmental and operational test objectives. I will 
review and comment on the developmental plans and approve the 
operational plans. This process applies both prior to and after the 
2004 deployment.

            OPERATIONAL TESTING FOR MISSILE DEFENSE SYSTEMS

    5. Senator Levin. General Kadish, when will operational testing in 
accordance with current law for the ground-based national missile 
defense and the sea-based missile defense systems be conducted?
    General Kadish. Current testing of the Ground-Based Midcourse 
Defense (GMD) element developmental prototype is structured as combined 
Developmental Testing/Operational Testing (DT/OT), occurring in a 
Consolidated Test Force (CTF) environment. A CTF environment brings 
together developmental and operational testers from both the prime 
contractor team and the government in a common forum to plan and 
execute all testing in accordance with combined DT and OT objectives to 
the maximum extent practicable. Because GMD is an evolutionary 
development, at designated intervals this process culminates in BMD 
elements characterization, performed by the Operational Test Agencies 
(OTAs), i.e., Army Test and Evaluation Command (ATEC), Air Force 
Operational Test and Evaluation Center (AFOTEC), and Joint Test 
Interoperability Command (JTIC). At the time of each ``production off-
ramp,'' i.e., the transition of the developmental configuration into 
production at some plateau in its evolution, an assessment of the OT 
shortfall for that specific system configuration will be made. Based 
upon this assessment, OT of the specific configuration will be 
conducted, as required, to eliminate the shortfall.
    The Aegis Ballistic Missile Defense Program has a Memorandum of 
Agreement with the Commander, Operational Test and Evaluation Force 
(COMOPTEVFOR), the Navy's OTA, to participate in the planning and 
observe all Aegis BMD Block 2004 testing. Within 60 days following the 
conclusion of each test, COMOPTEVFOR provides a ``Letter of 
Observation'' which provides formal OTA feedback regarding system 
performance to the Program Director, Aegis BMD. COMOPTEVFOR's 
recommendations are then considered and, if possible, implemented in 
subsequent testing. Flight Mission 9, which is currently the last test 
of the Aegis BMD Block 2004 activity, is currently being planned as a 
combined DT/OT. COMOPTEVFOR will conduct a formal Operational 
Assessment of this system element.

                              AEGIS SHIPS

    6. Senator Levin. General Kadish, the 2004 national missile defense 
system to be deployed in 2004 relies on Aegis ships off the coast of 
North Korea to protect Hawaii from missile attack. How many ships are 
required to provide protection for Hawaii on a 24-hour, 7-day a week 
basis (as well as to provide adequate self-protection for the ships) 
and does the Navy have ``extra'' ships that it has agreed to provide 
for this role? Has the Navy agreed to provide these ships on a 24/7 
basis?
    General Kadish. This issue is being actively worked directly with 
the Chief of Naval Operations and his staff. This joint effort includes 
a coordinated analysis of operational task force, and is considering 
stationing one or two ships in the vicinity of the Sea of Japan to 
provide Surveillance and Track Data to the BMD system. The Navy will 
then determine how best to protect the ship(s).

    7. Senator Levin. General Kadish, do the Aegis ships to be deployed 
off the coast of North Korea as part of the Block 2004 system have the 
demonstrated capability to track an ICBM targeting Hawaii from North 
Korea with enough accuracy to prosecute an intercept using a ground-
based missile defense (GMD) interceptor? If so, how was this capability 
demonstrated? Please provide a detailed answer at the classified level, 
including the expected and demonstrated Aegis track accuracies as a 
function of time compared to the handover requirements of the GMD 
interceptor.
    General Kadish. In the brief time since the withdrawal from the 
Anti Ballistic Missile (ABM) treaty, we have demonstrated the 
capability of Aegis ships to track ICBMs with its Spy-1 radar in 
Integrated Flight Tests 9 and 10. We cannot as yet say we can provide 
data accurate enough to prosecute an intercept using a GMD interceptor. 
However, our results are encouraging and support further analysis, 
system modification, and testing of the extent of the capability to 
provide not only cueing, but also, on certain trajectories, direct 
support to the interceptor.

    8. Senator Levin. General Kadish, can the Aegis ships planned to be 
deployed off the coast of North Korea as part of the Block 2004 GMD 
system defend themselves from anti-ship cruise missiles while 
simultaneously tracking an ICBM which has targeted Hawaii, and will the 
ICBM track from the ship have sufficient accuracy to prosecute an 
intercept using a GMD interceptor?
    General Kadish. Although the Aegis ship will not be able to conduct 
other missions using the SPY-1 radar while conducting the BMD mission, 
the ship still retains some self-defense capability through use of its 
Close-In-Weapons-Systems (CIWS). Defense may also be provided by 
another ship. The Navy is addressing how it will defend the 
Surveillance and Track BMD ships. Continued improvements through Block 
2004 will restore much of the self-defense capability of the Aegis BMD 
ships. With regard to track inaccuracy, we cannot as yet say we can 
provide data accurate enough to prosecute an intercept using a GMD 
interceptor. However, our results are encouraging and support further 
analysis, system modification, and testing of the capability to 
determine whether it can provide cueing and, on certain trajectories, 
direct support to the interceptor.

                  EFFECTIVENESS OF BLOCK 04 GMD SYSTEM

    9. Senator Levin. Secretary Aldridge, you stated at the hearing 
that the Block 04 GMD system would have effectiveness ``in the 90 
percent range.'' What is the basis for this estimate, and why does it 
differ substantially from the classified probability of engagement 
success values provided to the General Accounting Office by the Missile 
Defense Agency earlier this year in the document titled, ``BMDS 
Statement of Goals; Block 04 System Architecture''?
    Secretary Aldridge. The BMDS Statement of Goals for the Block 04 
System Architecture established system effectiveness values against a 
range of targets and multiple trajectories. Higher effectiveness values 
can be expected when multiple defense resources engage a single 
adversary reentry. Actual effectiveness probabilities of engagement 
success depend on various environmental factors, the number and types 
of incoming missiles, defense capabilities available and deployable, 
and ballistic missile command and control capabilities.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                        ANOMALY PROBLEM WITH EKV

    10. Senator Reed. General Kadish, you discovered the track gate 
anomaly problem with the EKV during IFT-6 in July 2001. Why is it not 
yet fixed, and when do you plan to fix it?
    General Kadish. We first saw the track gate anomaly during IFT-6 
and it recurred in all subsequent flight tests. We were able to 
duplicate the anomaly during ground testing and found that it is likely 
caused by introduction of electromagnetic interference (EMI) into the 
EKV through some flight test-unique cabling. These cables are not part 
of the EKV's operational hardware. Once we determined the probable 
cause, the offending cables were eliminated and additional shielding 
added to mitigate the EMI. We were unable to validate the fix on IFT-10 
however, because of an unrelated hardware failure involving separation 
of the EKV from the booster. Our next opportunity will be during IFT-14 
in 1Q fiscal year 2004.
    We have designed and built a very robust and capable system. It is 
important to note that we had four consecutive successful intercepts in 
which the EKV struck and killed the target vehicle despite experiencing 
track gate anomalies. We have a high confidence that we solved the 
track gate anomaly problem and look forward to demonstrating the fix on 
IFT-14.

                   BUILDING A PERMANENT X-BAND RADAR

    11. Senator Reed. General Kadish, when do you plan to build a 
permanent, operational X-band radar to support the deployment of a 
national missile defense against a North Korean threat?
    General Kadish. Because the overall ballistic missile threat is 
greater than North Korea alone, the BMDS is better served by the 
positional flexibility afforded by a Sea Based X-Band Radar (SBX). 
Additionally, the SBX can support both operational needs and integrated 
flight tests. For example, while both radars can provide operational 
coverage of a specific region, the SBX also will support nearly all of 
the remaining planned flight tests, while a fixed radar could support 
only one. For these reasons, there currently are no plans to construct 
a permanent operational XBR.

                 ICBM ATTACK AGAINST THE UNITED STATES

    12. Senator Reed. Mr. Christie, in your February assessment of 
missile defense programs, you stated that the 2004 national missile 
defense deployment ``may have some intrinsic capability to acquire, 
track, and intercept an inbound ICBM, under the right circumstances.'' 
Could you tell me whether you believe an actual ICBM attack against the 
United States is likely to conform to the ``right circumstances'' you 
allude to, and provide a general description of what the ``right 
circumstances'' are?
    Mr. Christie. The test bed elements are being built using 
technology specifically designed to conduct ballistic missile defense 
missions. It is being integrated by government organizations and 
industry teams familiar with the mission and the technical challenges. 
However, it will not be possible to demonstrate defensive capability 
through testing that fully replicates the threat by the time the 
fielding decision is made. The test bed will have some intrinsic, yet 
unknown capabilities to defend against a limited attack. The right 
circumstances that I refer to in my report are those situations where 
we would expect the test bed capabilities to be most effective. While 
the specific circumstances are classified, they generally relate to 
timing, intelligence data, direction of attack, and the threat missile 
and associated countermeasures.

                             FIXING THE GMD

    13. Senator Reed. Mr. Christie, your most recent report to Congress 
stated that ``the GMD [national missile defense] element has yet to 
demonstrate significant operational capability'' because ``the GMD test 
program in fiscal year 2002 has suffered from . . . test infrastructure 
limitations'' such as ``lack of a realistically placed mid-course 
sensor'' and a ``fixed intercept point.'' Which of these problems will 
be fixed by September 2004, which is the deployment date the 
administration has set for national missile defense? Is it safe to say 
that until those problems are fixed, it will be impossible to 
demonstrate ``significant operational capability?''
    Mr. Christie. If the test bed construction proceeds as scheduled, 
the constraint of a fixed intercept point will be corrected by 
September 2004. A realistically placed mid-course sensor for testing 
will require the completion of the sea-based X-band radar, currently 
scheduled for the end of calendar year 2005. It should be noted that 
the Cobra Dane radar at Shemya is a realistically placed mid-course 
sensor for a defensive mission, but is not easily included in testing 
due to its fixed orientation. We will not have performed sophisticated 
discrimination testing, so EKV and radar discrimination capability will 
be unknown. The only way to test the full system in a variety of 
operationally realistic configurations is to build the test bed. Until 
the test bed is complete, operational capability will have to be 
assessed based on the performance of the system and its elements in 
more constrained encounters.

               COST ESTIMATE FOR MISSILE DEFENSE PROGRAMS

    14. Senator Reed. Secretary Aldridge, the Fiscal Year 2002 National 
Defense Authorization Act required any missile defense program in the 
``engineering and manufacturing development'' phase to provide the 
estimated costs for the life of the program. This law defined 
``engineering and manufacturing development'' as that phase which:

  1. Translates the most promising design approach into a producible 
        design;
  2. Validates the manufacturing process; and
  3. Demonstrates system capabilities through testing.

    The administration has decided to deploy ground-based national 
missile defense and sea-based theater missile defense systems just 18 
months from now. This surely places these systems well beyond the 
``engineering and manufacturing development'' phase right now. When do 
you intend to provide Congress with life cycle cost estimates for these 
programs?
    Secretary Aldridge. Ballistic Missile Defense System (BMDS) is not 
a program in engineering and manufacturing development. The President's 
decision to field an initial capability in 2004 has not changed the 
status of BMDS. The BMDS capabilities planned for Block 04 will use 
developmental test articles designed to work together for an initial 
layered missile defense capability.

            EFFECTIVENESS OF CURRENT MISSILE DEFENSE SYSTEM

    15. Senator Reed. Mr. Christie, do you believe the missile defense 
systems the administration has decided to field in 2004 have been 
proven to be operationally suitable, effective, reliable, and 
supportable in the field?
    Mr. Christie. The two systems that may be fielded in 2004 are the 
Aegis BMD system and the Block 2004 test bed, which consists of 
elements of the GMD system. Both the Aegis and GMD program have 
demonstrated some limited capability consistent with the mission of 
defending against a limited ballistic missile attack. Operational 
suitability and effectiveness are typically assessed based on a systems 
performance in operational testing. Prior to September 2004 neither 
system will have undergone sufficient testing to determine their 
suitability and effectiveness. As I testified, the test bed will 
provide the opportunity to acquire significant information on battle 
management, command, control, communications, safety, reliability, 
maintainability, and logistics supportability of the missile/silo/
command center complex. It can also be used for operator training and 
for developing tactics, techniques, and procedures for employing the 
test bed. Once the test bed is deployed, it will be used to execute the 
flight tests.

                              GMD TESTING

    16. Senator Reed. General Kadish, when do you plan to test the GMD 
system against simple, realistic decoys that mimic the RV? When will 
the system be tested against tumbling RVs together with simple, 
tumbling RV-shaped balloons (please provide a classified answer, if 
required)?
    General Kadish. [Deleted.]
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                           OPERATIONAL SYSTEM

    17. Senator Bill Nelson. General Kadish, the Missile Defense Agency 
plans some 16 more major flight tests of the GMD system, and many more 
major ground tests. Once the system is fielded in 2004, do you plan to 
take the operational system off-line for this testing?
    General Kadish. It will be possible to test the system while it is 
on alert providing an initial defensive operations capability. It will 
be critical to correctly time the testing, and MDA has already begun 
discussions with STRATCOM and NORTHCOM in order to address this issue.

                   MID-COURSE MISSILE DEFENSE SYSTEM

    18. Senator Bill Nelson. General Kadish, since the President's 
decision to deploy the ground-based mid-course missile defense system 
in Alaska by the end of fiscal year 2004, three intercept flight tests 
have been canceled. During the hearing, you stated that one reason why 
they were canceled is that the tests would ``repeat basically what we 
already knew.'' Does this mean that the three flight tests would have 
been no more complex than the previous four flight tests, all of which 
have been very similar?
    General Kadish. MDA will continuously re-evaluate its test program 
and adjust to meet evolving verifications needs. The decision to remove 
1FT-11, -12, and -16 from the flight test plan was made prior to the 
President's announcement to proceed with fielding initial defensive 
operations (IDO) capabilities. Its important to note that since that 
time, MDA renamed Radar Characterization Flight (RCF)-2 to IFT-16A.
    MDA has long said that it will adjust its programs and schedules 
based on successes and failures. It would be fiscally irresponsible--
while adding little to the current pool of data--to conduct another 
flight test with similar testing configuration and component versions 
that have been utilized and tested in five consecutive GMD flight tests 
(during which we conducted four successful targets engagements). 
Therefore, MDA decided to reprioritize the tests and concentrate on the 
most immature component of the GMD element--the booster--and conduct 
five critical booster test flights in fiscal year 2003, while 
continuing to develop and construct the initial GMD parts of the BMDS 
test bed and achieve initial operations capability by 2004.
    With regard to IFT-16A: RCF-2 has been redesignated as IFT-16A and 
rescoped as a system-level test involving a simulated intercept. IFT-
16A will specifically exercise the GMD element, especially the newly 
upgraded Beale Upgraded Early Warning Radar (UEWR). IFT-16A, currently 
scheduled for 4Q fiscal year 2004, is accelerated to support GMD system 
assessment prior to fielding initial defensive capabilities.

    19. Senator Bill Nelson. General Kadish, when do you plan to 
increase test complexity to include targets with signatures, 
countermeasures, and flight dynamics more closely matching the threat?
    General Kadish. GMD flight test complexity continuously increases 
as additional functionalities are added. Target signatures, 
countermeasures, and flight dynamics are in concert with the current 
threat estimates and the Adversary Capability Document.

                                 IFT-10

    20. Senator Bill Nelson. General Kadish, under the previous 
administration's plan for NMD, IFT-10 would have included a relatively 
realistic target suite. Could you please compare the original plan for 
flight tests with the current plan, and explain the reason for any 
differences?
    General Kadish. IFT-10 was originally planned under a different set 
of assumptions than the current BMDS program. The original purpose of 
IFT-10 was to assess the capability of the NMD system against a 
relatively realistic re-entry vehicle (RV) and target suite. There are 
two primary differences between the planned and the completed IFT-10 
mission: (1) Two additional objects were added to the target suite, and 
(2) the mission was conducted at night. The two additional objects were 
added to the target suite to increase the complexity of the intercept. 
The mission was conducted at night to assess the systems performance in 
a new flight test environment.

                        GMD INTERCEPTOR TESTING

    21. Senator Bill Nelson. General Kadish, the GMD interceptor is 
supposed to get in-flight targeting update messages to steer it towards 
the target. I understand that you have not yet conducted a test where 
in-flight target updates were actually used to change the course of the 
interceptor. When is this type of test planned?
    General Kadish. In IFT-15 we plan to commit the interceptor using 
sensor track data external to GMD. This will require an In-Flight 
Target Update (IFTU) based on GMD sensor data to further refine the 
intercept point.

    22. Senator Bill Nelson. General Kadish, should we proceed with 
deployment of the GMD system if we have not yet completed a successful 
test that includes aiming the interceptor with in-flight target 
updates?
    General Kadish. We have exercised the IFTU process during previous 
successful IFTs, and plan to stress this process even more so during 
IFT-15.

                            BLOCK 04 SYSTEM

    23. Senator Bill Nelson. General Kadish, during the hearing, you 
stated that the operational, fielded GMD system would require targeting 
data to be loaded into the interceptor in advance of the intercept, 
just as in the previously completed flight tests. For the Block 04 
operational system, how long before launch does such target data need 
to be loaded and what information needs to be included in the data load 
(please provide technical details). Can we expect we will have that 
information in real time in the event of a hostile missile launch 
against the United States?
    General Kadish. Targeting data can be loaded into the interceptor 
immediately prior to launching the interceptor.
    The interceptor requires the following targeting data to be loaded:

        <bullet> The predicted time and location in space where the 
        intercept will occur.
        <bullet> The range at which the interceptor can expect to `see' 
        the target.
        <bullet> Infrared and visual characteristics of the target that 
        will enable the interceptor to discriminate the target from 
        other nearby objects, e.g., decoys.

    In addition to the above targeting data, the interceptor also loads 
before launch:

        <bullet> Celestial coordinates of the stars that the 
        interceptor will use for navigation.
        <bullet> The times that communications events are scheduled to 
        occur to/from the ground.

    The Block 2004 operational system will have hostile missile launch 
early warning and cueing from space-based infrared satellites. The 
predicted time and location in space where the intercept will occur is 
calculated in real-time from data provided by tracking radars (i.e., 
Cobra Dane, Upgraded Early Warning Radars, the Navy's Aegis cruisers 
and destroyers, and the Sea-Based X-band radar). Based on this real-
time information, targeting data is selected from a database and 
uploaded to the interceptor prior to launch.

        deployment of national missile defense system in alaska
    24. Senator Bill Nelson. Secretary Crouch, will the President's 
planned deployment of the national missile defense system in Alaska go 
ahead by the end of fiscal year 2004 regardless of the actual readiness 
of the system or could that time line be adjusted to accommodate 
additional necessary tests and preparations to achieve a working 
system?
    Secretary Crouch. In December 2002 the President directed the 
Department of Defense to build on the missile defense test bed and 
begin deployment of an initial set of missile defense capabilities in 
2004 and 2005. These capabilities will serve as the starting point for 
the evolutionary improvement of our missile defense capabilities, which 
will evolve as technology and the threat develop. Additionally, over 
the last 2 years we have conducted a successful flight testing program 
which has given DOD the confidence to proceed with the deployment of 
this initial set of capabilities. These capabilities will of course 
continue to evolve and improve over time based on technical progress 
and our continued testing program.

                          SPACE-BASED WEAPONS

    25. Senator Bill Nelson. Secretary Crouch, if the administration 
launches space-based weapons such as the space-based boost phase 
interceptor test satellites, is it administration policy that such 
satellites should be capable of being removed from space after they are 
launched?
    Secretary Crouch. The U.S. has made no decision to deploy space-
based weapons. Therefore, statements on operational issues associated 
with deployment of such weapons would be premature at this time.

                           RADARS IN THE U.K.

    26. Senator Bill Nelson. Secretary Crouch, when does the U.S. plan 
to upgrade the radars in the U.K. and Greenland for missile defense, 
and how much funding will be required to protect the upgraded radars 
and the local inhabitants from potential terrorist strikes on those 
radars?
    Secretary Crouch. The United Kingdom gave the U.S. permission to 
proceed with the upgrade of the Fylingdales radar in February 2003. The 
upgrade is currently scheduled to be completed by late-2005. Denmark is 
willing to provide us permission to upgrade the Thule radar but also 
wants to update the 1951 Defense of Greenland Agreement at the same 
time. If we are eventually allowed to upgrade the radar, the plan is to 
have the upgrade completed by mid-2006. We don't anticipate any 
additional funding will be required to augment force protection 
capabilities to protect these radars.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

                            LAYERED DEFENSE

    27. Senator Clinton. General Kadish, as I understand it, the 
missile defense program is designed to develop a ``layered defense'' 
capable of engaging all classes and ranges of ballistic missile 
threats. It is designed to attack missiles in all phases of flight 
including the boost phase (the part of the missile's flight from launch 
until it stops accelerating under its own power), the mid-course phase 
(where the missile has stopped thrusting but is gliding under its own 
power), and the terminal phase (where the missile falls back into the 
atmosphere). As you have noted, the initial deployment of a ballistic 
defense system is slated to take place in 2004 in Fort Greeley, Alaska. 
In your prepared testimony, you state that the President's decision to 
deploy the system ``recognizes that we will not be fielding the perfect 
system at the outset.'' Will the system put in place by 2004 be able to 
target missiles in each phase of launch?
    General Kadish. The system in place by 2004 will be able to target 
missiles in certain midcourse and terminal phases. Capabilities to 
target missiles in the boost phase will be developed in Block 2006 with 
kinetic intercept of boost phase included in the 2008 development 
block. Boost phase fielding decisions have not yet been made.

                MISSILE TESTING AGAINST COUNTERMEASURES

    28. Senator Clinton. General Kadish and Mr. Christie, Missile 
Defense Agency documents acknowledge that during the mid-course phase, 
there is a greater opportunity to deploy countermeasures against a 
defensive system. These countermeasures include readily available 
technology such as separating reentry vehicles, radar absorbing 
material, booster fragmentation, low power jammers, chaff, and even 
simple balloon decoys. Has there been any testing of the ability of the 
missile defense system to respond to these countermeasures? What has 
been the result?
    General Kadish. Countermeasures exercised to date in the GMD 
program have consisted of balloon decoys. Incremental changes in 
complexity have been achieved by varying the type and number. In all 
tests to date, the system has been able to identify and intercept the 
reentry vehicle (RV) in the presence of countermeasures. In the near 
term, future tests will be characterized by a transition to more 
complex penetration aids (penaids) later in the test program. The 
details of these future penaids and tests are classified.
    Aegis BMD program has collected data while participating in flight 
tests where countermeasures were present.
    Mr. Christie. Yes, there has been both ground and flight testing 
against countermeasures. MDA has a classified program that is 
investigating the feasibility and effectiveness of various types of 
countermeasures in laboratory environments and using modeling and 
simulation. The data from these activities are used to predict expected 
GMD system performance. System performance against some of the 
postulated countermeasures can be adequately evaluated using hardware-
in-the-loop simulation; others will require flight-testing. To date, 
flight-testing has included balloon decoys. As the test bed matures, 
flight tests plans are to include more sophisticated countermeasures.

         MISSILE DEFENSE SYSTEM AND NORTH KOREA'S CAPABILITIES

    29. Senator Clinton. General Kadish and Mr. Christie, ostensibly, 
the decision to deploy a missile defense system by 2004 is to defend 
the U.S. against a possible missile attack by North Korea. Will the 
system in place by 2004 be able to defend against North Korean missiles 
if they are equipped with countermeasures?
    General Kadish. [Deleted.]
    Mr. Christie. The test bed may have some inherent capability 
against ballistic missiles, even with simple countermeasures, but it 
will not be demonstrated in 2004. The test bed elements are being built 
using technology specifically designed to conduct ballistic missile 
defense missions. It is being integrated by government organizations 
and industry teams familiar with the mission and the technical 
challenges. However, it will not be possible to demonstrate defensive 
capability through testing that fully replicates the threat by the time 
the fielding decision is made.

    30. Senator Clinton. General Kadish and Mr. Christie, do we know if 
the North Koreans are researching countermeasures technology for their 
missile program?
    General Kadish. As an acquisition agency, MDA depends upon DOD 
intelligence agencies to assess specific adversary current and future 
capabilities and research efforts. However, MDA's research and 
capability based development approach allows for exploration of the 
full range of known countermeasures and counter-countermeasures without 
requiring precise intelligence information related to each adversary.
    Mr. Christie. I think it is safe to assume that North Korea does 
have some type of a countermeasures research program. We do not know 
what North Korea is doing with countermeasures, but it is possible that 
the Missile Defense Agency or the Defense Intelligence Agency could 
provide some insight into North Korea's countermeasure research 
activities.

                          BOOST PHASE MISSILE

    31. Senator Clinton. General Kadish and Secretary Crouch, the boost 
phase missile defense approach is the one that seems the least affected 
by possible countermeasures. Given that the location of North Korea and 
Iran--the most likely threats of a ballistic missile threat--are such 
that a boost-phase intercept system is technically feasible, how are 
boost phase interceptors incorporated into your missile defense plan?
    General Kadish. The boost-phase interceptors are incorporated into 
the layered BMDS by first providing a terrestrial kinetic energy 
interceptor capability against boost/ascent targets with a ground 
mobile launcher in Block 2008. In Block 2010 plans are to sea-base this 
capability to provide additional geographic flexibility. We plan 
further evolution of this capability in Block 2012 by expanding the 
interceptor capability to counter targets in mid-course. MDA also plans 
to initiate a parallel space-based boost interceptor development 
activity starting in fiscal year 2004.
    Secretary Crouch. Development and testing of boost-phase 
interceptors is an important element of the Ballistic Missile Defense 
System. We are developing directed energy and kinetic energy boost 
phase intercept capabilities to create a defense layer near the hostile 
missile's launch point. We require quick reaction times, high 
confidence decisionmaking, and redundant engagement capabilities to 
counter ballistic missiles in this phase. The most mature of the boost 
phase systems is the Airborne Laser (ABL). The ABL is currently under 
development and is being designed to acquire, track, and kill ballistic 
missiles in the boost phase using speed-of-light technology. The first 
shoot down test of ABL is scheduled for fiscal year 2005. We are also 
developing a terrestrial kinetic energy boost interceptor, and have 
requested from Congress funds for a test program to determine the 
feasibility of intercepting missiles during the boost and ascent phase 
from space.

    [Whereupon, at 12:55 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

                              ----------                              


                        THURSDAY, MARCH 20, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

      ATOMIC ENERGY DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY

    The committee met, pursuant to notice, at 9:45 a.m., in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Allard, Sessions, Chambliss, Graham, Cornyn, Levin, Akaka, and 
Pryor.
    Committee staff member present: Judith A. Ansley, staff 
director.
    Majority staff members present: L. David Cherington, 
counsel; Brian R. Green, professional staff member; Mary Alice 
A. Hayward, professional staff member; and Ambrose R. Hock, 
professional staff member.
    Minority staff members present: Madelyn R. Creedon, 
minority counsel; and Richard W. Fieldhouse, professional staff 
member.
    Staff assistants present: Andrew W. Florell, Jennifer Key, 
and Sara R. Mareno.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; James Beauchamp, assistant to 
Senator Roberts; Douglas Flanders, assistant to Senator Allard; 
Arch Galloway II, assistant to Senator Sessions; D'Arcy 
Grisier, assistant to Senator Ensign; Clyde A. Taylor IV, 
assistant to Senator Chambliss; Aleix Jarvis, assistant to 
Senator Graham; Russell J. Thomasson, assistant to Senator 
Cornyn; Mieke Y. Eoyang, assistant to Senator Kennedy; 
Elizabeth King, assistant to Senator Reed; Davelyn Noelani 
Kalipi and Richard Kessler, assistants to Senator Akaka; 
William K. Sutey and Peter A. Contostavlos, assistants to 
Senator Bill Nelson; Andrew Shapiro, assistant to Senator 
Clinton; and Terri Glaze, assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets this morning to 
receive testimony from Secretary of Energy Abraham, a very dear 
and valued colleague of this institution. He will present the 
posture of the defense-related activities of the Department of 
Energy, as well as the President's defense budget request for 
fiscal year 2004 and the future years defense program. We 
welcome our witness this morning.
    This is an important annual posture hearing for this 
committee. This committee has jurisdiction over approximately 
two-thirds of the Department of Energy's budget, the parts of 
the budget related to defense or former defense missions.
    The fiscal year 2004 budget request for the defense related 
missions of the Department of Energy (DOE) is $16.6 billion, a 
4-percent real increase over the 2003 appropriated level.
    The budget request also contains a number of initiatives 
which focus on the future of our nuclear deterrent, including 
the repeal of the ban on low-yield nuclear weapons research, a 
transition to an 18-month underground nuclear test readiness 
posture, and a new initiative to reconstitute an advanced 
concept program which would promote concept and feasibility 
studies at the national nuclear weapons laboratories.
    I will waive further reading so we can proceed with this. 
All of us have a full agenda, as does the Secretary.
    I would like to submit the rest of my statement for the 
record.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    The committee meets this morning to receive testimony from 
Secretary of Energy Abraham, on the posture of the defense-related 
activities of the Department of Energy, as well as on the President's 
defense budget request for fiscal year 2004 and the future years 
defense program. I welcome our distinguished witness and former 
colleague back before the committee.
    This is an important, annual posture hearing for this committee. 
This committee has jurisdiction over approximately two-thirds of the 
Department of Energy's budget--the parts of the budget related to 
defense or former defense missions.
    The fiscal year 2004 budget request for the defense-related 
missions of DOE is $16.6 billion, a 4-percent real increase over the 
fiscal year 2003 appropriated level. The budget request also contains a 
number of initiatives which focus on the future of our nuclear 
deterrent, including a repeal of the ban on low-yield nuclear weapons 
research, a transition to an 18-month underground nuclear test 
readiness posture, and a new initiative to reconstitute an ``advance 
concepts'' program, which would promote concept and feasibility studies 
at the national nuclear weapons laboratories where upon scientific 
discovery can thrive.
    The U.S. nuclear weapons stockpile was designed and manufactured to 
deter and defeat targets in the former Soviet Union. As such, it worked 
very effectively as a deterrent for over 50 years. While the United 
States needs to continue to maintain its deterrent capability, we must 
also address the new threats posed by rogue nations and transnational 
groups intent on acquiring and using weapons of mass destruction.
    The Nuclear Posture Review (NPR), released in December 2001, 
established a new defense strategy--a strategy which included a plan to 
reduce our reliance on nuclear weapons. The NPR provided the vision for 
realigning our Nation's strategic defenses within a new triad, which 
includes offensive strike systems, both nuclear and non-nuclear; 
defenses, both active and passive; and a revitalized defense 
infrastructure to provide new capabilities in a timely fashion to meet 
emerging threats. The ``advanced concepts'' initiative is part of this 
triad.
    Ensuring that our scientists and engineers are challenged and are 
free to think, research, discover, innovate, and create is imperative. 
That was the type of environment in which the nuclear weapons program 
was born with the Manhattan Project. We must make sure such freedom to 
research and develop is present in our national weapons laboratories if 
we are to deter and, if necessary, counter 21st century threats.
    I have long been concerned about the congressionally-mandated 
prohibition on research on precision low-yield nuclear weapons. The 
budget request specifically requests a repeal of this ban on low-yield 
nuclear weapons research. In their budget request, the administration 
found the ``legislation has negatively affected U.S. Government efforts 
to support the national strategy to counter WMD and undercuts efforts 
that could strengthen our ability to deter, or respond to, new or 
emerging threats.''
    While there may not be a current military requirement for a low-
yield nuclear weapon, that does not mean the research is not important 
or valid, or that there will not be a future military requirement for 
such a weapon. In fact, the research could greatly benefit our 
scientists and their understanding of nuclear weapons, to include a 
better understanding of what our potential adversaries may be able to 
produce. Additionally, such research would provide valuable experience 
for new scientists and engineers, especially as test-experienced 
scientists continue to reach retirement age.
    I have also been concerned in recent years with our test readiness 
posture. The science-based Stockpile Stewardship Program is focused on 
maintaining the existing nuclear weapons stockpile in such a manner 
that it can be certified as safe, secure, and reliable, without the 
need for underground nuclear testing. This is quite a challenge, 
particularly as the average age of weapons in the stockpile has grown 
beyond 20 years.
    While the science-based Stockpile Stewardship Program seems to have 
been successful thus far in enabling DOE to annually certify the 
safety, security, and reliability of the stockpile, if the Stockpile 
Stewardship Program reveals a problem across a weapon-type in the 
stockpile, actual underground nuclear testing may be the only way to 
resolve the problem. Today, if such a problem were discovered, it would 
take 3 years for DOE to be ready to conduct an actual test to help 
resolve the problem. This timeline must be changed. Ensuring that we 
have an enhanced test readiness posture is vital. The 18-month 
readiness posture proposed by the administration does not mean that we 
will conduct a test, but instead that we will be ready to do so should 
circumstances arise which require testing.
    The President of the United States should have the broadest range 
of capabilities available to respond to adversaries who threaten the 
safety and security of the United States. We should not place 
artificial limits on the intellectual capabilities of our gifted 
scientists. As threats emerge which cannot be deterred or destroyed 
with conventional weapons, our President must have other options 
available to protect the citizens of the United States, our interests 
and our allies. This has been the policy of the United States for 
almost 60 years. The President should not be limited by our 20th 
century nuclear weapons which were designed to deter or defeat 20th 
century threats. The President should have a wide array of conventional 
and nuclear weapons to deter or, if necessary, defeat 21st century 
targets which continue to emerge.
    Secretary Abraham, thank you for your service to our Nation. We 
look forward to your testimony.

    Senator Levin?
    Senator Levin. Thank you, Mr. Chairman. I think I will also 
follow that course of action, given the events that take up so 
much of everybody's time here and simply put my statement in 
the record.
    [The prepared statement of Senator Levin follows:]

                Prepared Statement by Senator Carl Levin

    Good morning, Mr. Secretary. I join Senator Warner in welcoming you 
to the committee this morning to discuss the Department of Energy's 
budget request for fiscal year 2004.
    The Department of Energy's total budget request for fiscal year 
2004 is $23.4 billion, of which $16.6 billion, or about two-thirds of 
the overall DOE budget, is for defense-funded activities and, thus, 
under the jurisdiction of this committee. These defense-funded 
activities include the environmental cleanup program, the nuclear 
nonproliferation programs, the nuclear weapons activities, and the 
naval reactors development program. The National Nuclear Security 
Administration is responsible for the nonproliferation programs, the 
nuclear weapons program, and the naval reactors program.

                       NONPROLIFERATION PROGRAMS

    Earlier this month, the Department of Energy, Russia, and the 
International Atomic Energy Agency (IAEA) co-sponsored an international 
conference on the protection of radiological devices and other nuclear 
and radiological materials that could possibly be used in a 
radiological dispersal device--a so-called ``dirty bomb.'' I understand 
that this conference was well attended and successfully highlighted the 
need to provide greater security for much of this material. Secretary 
Abraham, I am interested in your views on this subject and what 
additional actions the DOE and other U.S. Government agencies are 
taking to provide the necessary additional security for these and other 
materials.
    After several years of delays the DOE nonproliferation programs 
appear to be back on track. While DOE, the Department of Defense, and 
the State Department have improved the security of significant 
quantities of weapons grade fissile materials and nuclear weapons, in 
the 10 years of the Nunn-Lugar program, much remains to be done. About 
37 percent of the short-term upgrades are in place, but only about 17 
percent of the comprehensive security-measures are in place.
    Earlier this month, the Nuclear Threat Initiative and the John F. 
Kennedy School of Government released a new report, ``Controlling 
Nuclear Warheads and Materials, A Report Card and Action Plan.'' In a 
forward to this report, Senator Lugar and former Senator Sam Nunn 
wrote: ``Preventing terrorism with weapons of mass destruction must 
become the central organizing security principle of the 21st century. 
It is the only threat whose danger is dire and diffuse enough to unify 
all nations, and it will take the unity of all nations to meet that 
threat.'' They remain concerned that one of ``the biggest obstacles to 
action is overcoming the denial that such an attack could occur and the 
paralysis that comes from believing the job is too massive and too 
overwhelming to be done. . . We must finally face the truth about the 
scale of the threat and build a partnership of nations with the methods 
and means to respond.''
    The report itself makes several key findings with respect to the 
threat and the actions that need to be taken to address the threat. 
Significant emphasis is placed on the importance of securing materials 
at the source. ``The most effective approach to reducing the risk is a 
multi-layered defense to block each step on the terrorist pathway to 
the bomb. But securing nuclear weapons and materials at their source is 
the single most critical layer of this defense, where actions that can 
be taken now will do the most to reduce the risk of terrorists 
acquiring nuclear weapons and material, at the least cost.'' While we 
have put in place short-term upgrades for 37 percent of the material, 
that means that 63 percent of the material has had no security 
upgrades. Secretary Abraham, I know that you share the concerns about 
the security of the materials, and I look forward to working with you 
to address promptly this threat.

                            NUCLEAR WEAPONS

    Protecting and securing nuclear weapons and materials is just one 
aspect of a successful nonproliferation program. Coordinating nuclear 
weapons policy and nonproliferation policy is also essential.
    Over the course of the past 2 years, the administration has taken 
several actions that would indicate more emphasis and importance is 
being placed on nuclear weapons. Nuclear proliferation and the nuclear 
weapons policies and actions of the United States are inextricably 
connected, and we must be conscious of that interaction. I look forward 
to discussing this issue with you as well.

                         ENVIRONMENTAL CLEANUP

    The Department has been making good progress on the cleanup of the 
nuclear weapons complex. As I understand it, you are moving to 
accelerate the cleanup effort even more. Further acceleration will 
require close cooperation with the communities, the States and the 
Environmental Protection Agency, as well as some additional funding. 
This is certainly a significant challenge. I look forward to hearing 
your plans for accelerated cleanup and how Congress could be of help. 
It is a pleasure to have you back before the committee.
    Thank you, Senator Warner.

    Chairman Warner. Thank you very much, Senator.
    Senator McCain, do you have any opening comment?
    Senator McCain. No, thank you.
    Chairman Warner. Fine. I would also like to submit for the 
record the statement of Senator Roberts.
    [The prepared statement of Senator Roberts follows:]

               Prepared Statement by Senator Pat Roberts

    Thank you Mr. Chairman. I, too, want to offer my welcome to our 
distinguished witness today.
    First, I want to commend you, Secretary Abraham, and the 
administration, for presenting Congress with a fiscal year 2004 budget 
request for the DOE nonproliferation programs that is the highest ever 
in the history of these programs. This shows the importance the 
President has placed on these nonproliferation programs. Moreover, this 
budget is 30 percent more than what was requested last year. This 
increase alone is unprecedented.
    As Chairman of the Subcommittee on Emerging Threats and 
Capabilities with oversight responsibilities for both the DOE and DOD 
nonproliferation programs, I am pleased that these programs are 
receiving Presidential level support and cooperation.
    The proliferation of weapons of mass destruction is getting worse, 
not better. Despite years of nonproliferation treaties and regimes 
designed to curb and control such proliferation, today's reality is 
that more nations and non-state actors have these capabilities, despite 
these multilateral efforts. We must recognize this fact and protect 
against it to the best of our abilities. The emerging threats that this 
committee identified in past years are the threats of today.
    For this reason, it is incumbent upon Congress to ensure that these 
nonproliferation programs succeed. We must be certain that these 
programs' goals are being met by ensuring that Congress has a way of 
measuring program progress and achievements. By providing the resources 
and the necessary oversight, Congress must remain vigilant and deliver 
what is promised to the American people.
    I applaud your diligent efforts in moving these nonproliferation 
programs forward to meet the threats posed by proliferating weapons of 
mass destruction around the world. Thank you for your remarks today and 
for your contributions to U.S. national security.

    Chairman Warner. Mr. Secretary?

     STATEMENT OF HON. SPENCER ABRAHAM, SECRETARY OF ENERGY

    Secretary Abraham. Mr. Chairman, thank you. I thank the 
ranking member and my former colleague from Michigan, Senator 
McCain, and others on the committee. Obviously, we meet as many 
international events are taking place in the world today that 
bring us here under unique circumstances, ones I know we all 
join in our support of the combat teams in the field.
    Our Department obviously plays a part in the support of our 
national security. Literally all of the Department's 
activities, from our defense programs to the many programs we 
have to promote energy security and scientific leadership, 
address national security concerns, but today I just will make 
a brief opening statement and submit for the record a longer 
statement that outlines our Department's budget.
    Just a few top-line points. Of our $23.4 billion request 
for the fiscal year 2004 budget, 70 percent, or $16.6 billion, 
is for national security programs. Of that amount, $8.8 billion 
will support the activities of the National Nuclear Security 
Administration (NNSA), and $7.2 billion will fund our 
environmental cleanup programs, with the remaining $600 million 
devoted to other defense activities.
    NNSA has a huge responsibility for maintaining our Nation's 
nuclear stockpile, rebuilding the capabilities of our defense 
complex, preventing the spread of nuclear weapons and 
materials, and continuing our strong naval reactors program.
    Because of our successful efforts in these areas over the 
past 2 years, the Department has been entrusted with added 
responsibilities and the means to execute them more 
effectively. Our 2004 budget submission of $8.8 billion for 
defense programs and NNSA includes a $925 million increase over 
last year to carry out the defense program responsibilities and 
our nonproliferation programs.
    Our nuclear capability continues to be a key strategic 
component of our Nation's security posture, and certifying to 
the President the safety and the reliability of our stockpile 
is among the highest, if not the highest, responsibilities I 
have as the Secretary of Energy.
    Our challenge today is large. It is complex. We must 
maintain the safety, security, and reliability, as well as the 
effectiveness of our aging nuclear weapons stockpile without 
resort to underground testing. Our budget proposes $6.4 billion 
in spending for stockpile stewardship and the rebuilding of our 
defense complex, a $532 million increase over the fiscal year 
2003 budget proposal.
    We will use our increased funding to continue advancing the 
scientific and the manufacturing capabilities we need over the 
long term. Last fall we awarded a contract to build the two 
largest supercomputers in the world to help us ensure our long-
term ability to certify the safety, reliability, and the 
effectiveness of the weapons in our stockpile.
    The Department will also continue to refurbish aging 
weapons under our stockpile life extension program to ensure 
that they remain safe and effective. We will continue to 
dismantle warheads and bombs which are retired from the 
stockpile, and we will continue to make progress toward 
restoring the capability to manufacture and certify war-reserve 
plutonium pits for the stockpile.
    Finally, in order to carry out all these activities, the 
budget funds programs that will allow our Department to 
continue to restore, rebuild, and revitalize the physical 
infrastructure of the weapons complex. While we work to keep 
our stockpile ready, safe, and secure, we must at the same time 
expand our already productive efforts to prevent the spread of 
nuclear weapons and materials. During the past 2 years, our 
Department has significantly improved control of Russian 
nuclear materials. We put the plutonium disposition program on 
a sound footing, revitalized the program to shut down Russian 
plutonium-producing reactors, and accelerated the program to 
protect Russian nuclear materials and Russian Navy nuclear 
weapons. We have enhanced our ability to detect weapons of mass 
destruction, including nuclear, chemical, and biological 
systems and other terrorist threats, and we have reduced the 
risks of accidents in nuclear fuel cycle facilities worldwide.
    As a result of the unprecedented levels of cooperation 
reached by President Bush and President Putin to control the 
proliferation of nuclear materials, Russia and the United 
States have agreed to complete the work of protecting some 600 
tons of Russian fissile material by 2008, a full 2 years 
earlier than expected.
    In addition, the United States, Russia, and the 
International Atomic Energy Agency (IAEA) this year will 
intensify international cooperation to keep radioactive 
materials, the kind that could be used in the construction of 
so-called dirty bombs, out of the hands of terrorists. That 
work took a large step forward in Vienna last week when we co-
chaired an international conference on ways nations can work 
individually and collectively to account for and secure 
radioactive sources. Representatives from over 120 countries 
attended the conference, which we co-chaired with Russia and 
the IAEA.
    To carry out our complex nonproliferation work, we have 
increased our total nonproliferation budget to more than $1.3 
billion, a 30-percent increase over last year. That budget will 
make it possible for the Department to increase our 
international monitoring visits to sensitive nuclear sites by 
one-third, to boost our contributions to international 
safeguards work carried out through the IAEA and other 
cooperative programs by 17 percent over 2003 funding.
    We will also continue to move ahead with work related to 
plutonium disposition facilities in both the United States and 
Russia to eliminate excess weapons plutonium and accelerate our 
program for the elimination of Russian highly enriched uranium.
    Our longstanding naval reactors program is responsible for 
the safe operation of the reactor plants that power 40 percent 
of our Navy's combatant ships, as well as for new nuclear 
propulsion plants. Our budget request of $768 million for naval 
reactors, an increase over the fiscal year 2003 appropriation, 
will allow for the development and deployment later in this 
decade of a new design reactor core to meet the requirements of 
longer, harder ship deployments.
    As we carry out our national defense duties, our 
responsibilities also extend to cleaning up the legacy of a 
half of a century of nuclear defense work here at home. Our 
budget submission of $7.2 billion for environmental management 
is the highest amount ever requested for these programs. These 
funds will allow us to continue with our reformed accelerated 
cleanup effort which will increase or accelerate completion of 
environmental cleanup programs by 35 years, reduce risk to the 
public and the environment, and save taxpayers more than $50 
billion in program costs.
    Mr. Chairman, I could obviously go on at great length, but 
in the interest of the events of today and the committee's 
desire, I know, to complete its work swiftly today, I will 
submit the rest of my statement for the record and obviously 
look forward to answering the committee's questions. Thank you 
for having me.
    [The prepared statement of Secretary Abraham follows:]

               Prepared Statement by Hon. Spencer Abraham

                              INTRODUCTION

    Good morning Mr. Chairman and members of the committee. It is a 
pleasure to be here today to discuss the President's fiscal year 2004 
budget request for the Department of Energy (DOE). In doing so, I want 
to stress the ways this budget is going to help us accomplish our 
various missions related to defense and the environment.
    The President's fiscal year 2004 budget of $23.4 billion for the 
DOE continues the administration's commitment to ensure national 
defense and safeguard the Nation's energy security through advances in 
science and technology, as well as fulfill our obligation as 
environmental stewards to surrounding communities. While DOE's national 
policy objectives have not changed, this budget reflects a new approach 
toward conducting business at the Department of Energy. Reengineering 
efforts that we began in fiscal year 2002 have taken shape: 
programmatic activities are better focused to achieve primary mission 
objectives; budget priorities are set with improved measurable 
performance criteria; and corporate management initiatives reflect 
aggressive implementation of the President's Management Agenda.
    Of the total fiscal year 2004 budget request of $23.4 billion, 
approximately 71 percent of the total Department of Energy budget, or 
$16.6 billion, is for the Department's defense programs within the 
jurisdiction of this committee. Within the $16.6 billion budget, $8.8 
billion is to support activities in the National Nuclear Security 
Administration, $6.8 billion to fund the environmental cleanup 
activities, $430 million to fund the Defense Nuclear Waste Fund, and 
$522.7 million to fund Other Defense Activities.
    This budget request reflects and addresses the critical challenges 
we face today and will continue to face in the coming decades. I have 
charted a course for the Department that emphasizes DOE's critical 
contributions to our Nation's national security and provides forward-
reaching solutions to America's energy problems. These priorities as 
they relate to this committee's jurisdiction are to:

        <bullet> meet our responsibilities to maintain the nuclear 
        stockpile;
        <bullet> expand and make more comprehensive our non-
        proliferation activities;
        <bullet> accelerate the environmental cleanup program; and
        <bullet> build and maintain a stable and effective national 
        defense program to respond to the guidance in the Nuclear 
        Posture Review with special emphasis on revitalizing laboratory 
        and production plant infrastructure.

    The fiscal year 2004 budget is focused to deliver on these 
priorities.
    As part of the Department's Strategic Planning process these 
priorities translate into six overlapping departmental goals that form 
our core mission of national security. All of the Department's planning 
and budgeting for fiscal year 2004 drives toward these six goals:

        <bullet> maintain a safe, secure and reliable nuclear 
        deterrent;
        <bullet> control nuclear proliferation;
        <bullet> reduce dependence on energy imports;
        <bullet> achieve a cleaner, healthier environment;
        <bullet> improve our energy infrastructure to ensure the 
        reliable delivery of energy; and
        <bullet> maintain a world class scientific research capability.

    Formulation of this year's budget reflects significant management 
changes occurring within the Department. Guided by the President's 
Management Agenda and the management reforms I started in fiscal year 
2001, and incorporated more fully into the budgeting process in 2002, 
this budget implements integrated, long-term program planning and 
performance accountability. The Department is implementing a 5-year 
programmatic and planning framework to provide an unprecedented 
opportunity to consider future impacts in determining current year 
funding priorities. This budget was formulated to deliver measurable 
results to reach the Department's strategic goals. This achievement is 
a significant step toward reaching our key goal to focus DOE activities 
to adhere to the primary mission of national security. By streamlining 
program activities and management structures, the Department of Energy 
will more effectively and efficiently manage and produce the results 
expected by American taxpayers.

                     PRESIDENT'S MANAGEMENT AGENDA

    Rising to the challenge of the President's Management Agenda, the 
Department is beginning to improve how it manages, budgets, and plans 
for all programs, projects and activities. By improving management, 
performance, and accountability, the Department is striving for a level 
of performance that keeps DOE programs safe, on track, and on budget. A 
system of scorecards is being used to evaluate the effectiveness of 
various programs and allocate resources to achieve this end. 
Performance measures are improving to ensure that they are specific, 
quantifiable, concise, comprehensive, and relevant to the American 
taxpayer. Also, in accordance with the President's commitment to an 
expanded and effective electronic government, DOE is centrally managing 
information technology investments and other capital assets to reduce 
waste, increase productivity and provide increased services at lower 
cost.
Research and Development Investment Criteria
    The President's Management Agenda calls for consistent and 
sufficient evaluation of future research and development (R&D) 
investments and past performance. In response, the Department developed 
internal guidance for programs to score their R&D activities against 
the administration's applied R&D investment criteria. This approach 
focuses R&D dollars on long-term, potentially high-payoff activities 
that require Federal involvement to be both successful and achieve 
public benefit. The Department will continue to work to develop 
consistent scoring and benefits estimation methods, to permit 
comparison of applied R&D programs across the Department. The applied 
R&D scorecard process is an important way the Department is integrating 
performance into the budget. The scorecard process is in its second 
year of development. The goal is to develop high analytical 
justifications for applied research portfolios in future budgets. This 
will require the development and application of a uniform cost and 
benefit evaluation methodology across programs to allow meaningful 
program comparisons.
Program Assessment Rating Tool
    In addition to the use of R&D investment criteria, the Department 
implemented a new tool to evaluate the management effectiveness of 
selected programs. The Program Assessment Rating Tool (PART) was 
developed by the Office of Management and Budget (OMB) to provide a 
standardized way to assess the effectiveness of the Federal 
Government's portfolio of programs. While OMB's objective for fiscal 
year 2004 was to evaluate 20 percent of each government agency, the 
Department of Energy reviewed nearly 60 percent of its activities 
through the PART process. The departmental elements that participated 
were: Environmental Management; Science; Fossil Energy; Nuclear Energy; 
Energy Efficiency and Renewable Energy; the Power Marketing 
Administrations; and the National Nuclear Security Administration.The 
structured framework of the PART provides a means through which 
programs can assess their activities differently than through 
traditional reviews. While some of the programs received less than 
favorable scores, the information exchange between the Department and 
OMB proved quite valuable. The current focus is to establish outcome- 
and output-oriented goals, the successful completion of which will lead 
to benefits to the public, such as increased national security and 
energy security, and improved environmental conditions. The Department 
will incorporate feedback from OMB into the fiscal year 2005 budget and 
planning process, and will take the necessary steps to continue to 
improve performance. The results of the reviews are reflected in the 
Department's fiscal year 2004 budget.

                NATIONAL NUCLEAR SECURITY ADMINISTRATION

    The Department of Energy, through the National Nuclear Security 
Administration, preserves U.S. national security by ensuring the 
safety, security, and reliability of our Nation's nuclear deterrent, 
working to reduce the global danger from the proliferation of nuclear 
materials and other weapons of mass destruction, and providing 
technical expertise in advancing Homeland Security. The fiscal year 
2004 budget request for NNSA is $8.8 billion, a $925 million increase 
above the fiscal year 2003 budget request, and includes:

        <bullet> Weapons Activities ($6.4 billion)
        <bullet> Defense Nuclear Nonproliferation ($1.3 billion)
        <bullet> Naval Reactors ($768 million)
        <bullet> Office of the NNSA Administrator ($348 million)

    The administration's Nuclear Posture Review (NPR) set the current 
national nuclear weapons policy reflected in the Department's fiscal 
year 2004 budget request for the National Nuclear Security 
Administration (NNSA). The NPR calls for the NNSA to maintain the 
viability of the Nation's nuclear weapons capability without the use of 
underground testing; develop a stockpile surveillance and engineering 
base; refurbish and extend the lives of selected warheads; and maintain 
a science and technology base, including responsive facilities and 
infrastructure, needed to ensure the safety and reliability of the 
Nation's nuclear weapon stockpile.
    The Department's NNSA has recently implemented a major 
reorganization that follows the principles of the President's 
Management Agenda, to improve government through performance and 
results. The new organizational structure eliminates a layer of 
management, consolidates offices and administrative functions, and sets 
NNSA on a course to achieve an almost 20-percent reduction in Federal 
personnel by the end of fiscal year 2004.
Weapons Activities
    One of my most important responsibility as Secretary of Energy is 
to certify to the President the safety and reliability of our nuclear 
stockpile. Our nuclear weapons capability protected the Nation and 
helped us to win the 50-year Cold War. Today it continues to be a key 
strategic component of our Nation's security posture. Our challenge 
today is large and complex: we must maintain the safety; security; 
reliability; and effectiveness of our aging nuclear weapons stockpile 
without resort to underground testing. We must also provide a 
manufacturing base for the production of a replacement weapon if the 
need should arise.
    Our fiscal year 2004 budget proposes $6.4 billion for the Weapons 
Activities program, which also includes funding for safeguards and 
security for NNSA sites and for rebuilding our national security 
infrastructure. For the last 7 years, the Stockpile Stewardship Program 
has allowed the Secretaries of Energy and Defense to certify to the 
President that (1) the Nation's nuclear weapons stockpile is safe, 
secure and reliable and (2) that there is no need to resume underground 
testing.
    To ensure that the existing stockpile continues to meet its 
military requirements, the NNSA also has a comprehensive refurbishment 
program known as stockpile life extension. It is presently working on 
four warhead types in the enduring stockpile--the W87, W76, B61, and 
the W80. This program designs, builds, tests, and installs new 
subsystems and components thereby extending the operational service 
life for these warheads for some 30 years.
    NNSA is also restoring the full suite of manufacturing capabilities 
needed to respond to any stockpile contingency.
    NNSA is installing an interim pit production capability at Los 
Alamos. Later this year Los Alamos will deliver a W88 pit that will 
meet all quality manufacturing requirements for use in the stockpile. 
This will be the first pit made by the United States since the shutdown 
of Rocky Flats in 1989. NNSA has begun work on design and siting for a 
modern pit facility that will be capable of manufacturing all pit types 
for the current stockpile and any new requirements, should they arise. 
To complete the materials supply story, NNSA will begin producing new 
tritium for the stockpile by irradiation of tritium producing rods in a 
TVA reactor this fall.
    We are also investing in the leading edge scientific and 
engineering tools required to support the stockpile now and into the 
future. Three areas deserve special mention. First, with the advanced 
scientific computing initiative (ASCI), NNSA is working with U.S 
computer manufacturers to acquire the world's fastest and most capable 
computers to address nuclear weapons performance issues that several 
years ago were impossible to solve. Second, the Dual Axis Radiographic 
Hydrotest Facility at Los Alamos is providing ``cat-scan-like'' images 
of weapons implosion processes. This test bed provides critical data to 
validate the ASCI codes. Third, later this year, the world's most 
powerful laser, the National Ignition Facility, will begin to carry out 
experiments at the Lawrence Livermore National Laboratory in support of 
the nuclear weapons stockpile.
    As the Nuclear Posture Review highlighted, the threats we face 
today are dramatically different from those we faced a few years ago. 
To ensure that future American Presidents have deterrence options to 
deal with these threats, we have a modest Advanced Concepts program 
($21 million) underway. The Robust Nuclear Earth Penetrator (RNEP) will 
be allocated $15 million. This program will examine whether or not two 
existing warheads in the stockpile--the B61 and the B83--can be 
sufficiently hardened through case modifications and other work to 
allow the weapons to survive penetration into various geologies, with 
high reliability, before detonating. The remaining funds will be 
divided between the weapons laboratories for studies of other advanced 
concepts work.
    DOE supports about $1 billion annually for ongoing operation of 
NNSA facilities at the government-owned, contractor-operated, national 
laboratories, production plants, and test site. In addition, $273 
million is requested in fiscal year 2004 for 8 new construction starts 
and 12 ongoing construction projects. The Facilities and Infrastructure 
Recapitalization Program ($265 million) is responsive to the Nuclear 
Posture Review infrastructure guidance, and is in its third year to 
restore, rebuild and revitalize the physical infrastructure of the 
nuclear weapons complex that has deteriorated and is in immediate need 
of attention. This program is tightly structured to address highest 
priority needs, to eliminate deferred maintenance requirements, and 
eliminate excess space in all nuclear weapons complex facilities. Our 
responsibilities also encompass security for the nuclear weapons 
complex. In the past year, we have placed the highest priority on 
addressing urgent, emergent concerns about the safeguards and security 
posture of our Nation-wide complex of facilities and transportation 
systems following the events of September 11, 2001. In addition to 
increasing our protective forces, enhancing training, and upgrading 
equipment, we will begin a modest R&D effort to try to improve the 
effectiveness of technologies for physical and cyber security. We also 
upgraded our emergency response assets, which are available to be 
deployed in emergencies around the world.
Defense Nuclear Nonproliferation
    America's safety must be our paramount concern. Presidents Bush and 
Putin have agreed to an unprecedented level of bilateral cooperation to 
control the proliferation of nuclear materials. The President's fiscal 
year 2004 budget request of $1.3 billion for Defense Nuclear 
Nonproliferation reflects the administration's full commitment to 
reducing the global nuclear danger and participating in the Global 
Partnership to sustain nuclear nonproliferation initiatives in the 
former Soviet Union. This request supports departmental programs to: 
(1) enhance U.S. capability to detect nuclear weapons proliferation, 
(2) prevent and reverse proliferation of weapons of mass destruction 
(WMD), (3) protect or eliminate weapons and weapons-usable nuclear 
material and/or infrastructure, and redirect excess foreign weapons 
expertise to civilian enterprises, and (4) reduce the risk of accidents 
in nuclear fuel cycle facilities worldwide.
    The fiscal year 2004 funding level for Defense Nuclear 
Nonproliferation reflects a 30-percent increase over the fiscal year 
2003 request of $1 billion. The increase provides for the start of 
construction of a mixed oxide (MOX) fuel fabrication facility in the 
U.S. and U.S. efforts to assist Russia with the start of construction 
of an industrial scale MOX fuel fabrication facility. In addition to 
MOX construction activities, the request of $657 million for Fissile 
Material Disposition supports completion of design activities for the 
pit disassembly and conversion facility and continuation of the U.S. 
``off-spec'' HEU blend-down project.
    Additionally, the request includes $30 million to implement a new 
program to accelerate nuclear materials disposition efforts in support 
of the 2002 G8 Summit initiatives to purchase Russian highly enriched 
uranium (HEU) above the amounts in the 1993 U.S./Russia HEU Purchase 
Agreement. The United States is currently in the process of drafting 
agreements with Russia for the purchase of highly enriched uranium from 
Russia to supply selected U.S. research and test reactors and for the 
purchase of downblended Russian HEU for a low-enriched uranium (LEU) 
stockpile in Russia.
    The fiscal year 2004 request also provides $40 million for the 
Russian Transition Initiative (RTI) to reduce the migration risk of 
nuclear and WMD expertise in the former Soviet Union. The RTI partners 
former Soviet weapons scientists with U.S. industry partners on 
projects selected for their commercial potential, while also assisting 
the Russians in downsizing their nuclear weapons complex and opening 
the closed nuclear cities to commercial ventures. RTI has garnered over 
$125 million in matching resources from U.S. industry partners, which 
amounts to $3 in private sector funds for every $2 in U.S. Government 
funding. In addition, private investment funding has contributed over 
$90 million to further augment its technology commercialization 
efforts.
    The fiscal year 2004 request also includes $50 million to assist 
the Russian Federation to cease its production of weapons-grade 
plutonium by providing replacement power production capacity. In fiscal 
year 2003, responsibility for the program was transferred from the 
Department of Defense to the Department of Energy. Agreements were 
recently signed with the Russian Federation, allowing work to be 
initialized on this program.
    The request includes $204 million to support the research, 
development, testing, and evaluation of nuclear proliferation detection 
technologies for agencies responsible for monitoring proliferation and 
combating terrorism.
    A request of $226 million for the International Nuclear Materials 
Protection, Control, and Accounting (MPC&A) Program will continue to 
improve the security of weapons-usable nuclear material and weapons in 
Russia, and secure materials that could be used in radiological 
dispersion devices (dirty bombs). Specifically, the Department is 
working to secure approximately 600 metric tons of fissile materials 
and thousands of warheads. The program provides for security of trucks 
and railcars transporting nuclear weapons-usable materials and 
consolidates nuclear material at fewer locations in order to reduce 
vulnerability from theft and sabotage. In fiscal year 2004, cooperation 
will expand to include Russian strategic rocket forces.
    Additionally, the MPC&A request supports efforts to install 
radiation detection equipment at borders of Russia and the former 
Soviet Union in order to prevent nuclear smuggling and illicit 
trafficking.
    The Nonproliferation and International Security request of $102 
million supports U.S. efforts to control exports of items and 
technology that aid in the development of WMD, implement international 
safeguards in conjunction with the International Atomic Energy Agency, 
and explore and implement innovative approaches to improve regional 
security.
    In addition, the fiscal year 2004 request includes an increase for 
development and delivery of tools to meet requirements to detect, 
understand, and verify dismantlement of clandestine nuclear programs.
Naval Reactors
    The Naval Reactors program is responsible for the safe operation of 
reactor plants in operating nuclear-powered submarines and aircraft 
carriers constituting 40 percent of the Navy's combatants. It also 
fulfills the Navy's requirements for new nuclear propulsion plants that 
meet current and future national defense requirements. The program is 
beginning development and will deploy, later this decade, a new design 
reactor core to meet the demands of longer, harder ship deployments. 
The fiscal year 2004 budget request totals $768 million, an increase of 
$612 million over the fiscal year 2003 appropriations, and allows Naval 
Reactors to fund this transitional technology.

                ACHIEVE A CLEANER, HEALTHIER ENVIRONMENT

    Protecting the environment is compatible with increasing the supply 
of dependable, domestically produced energy. As President Bush has 
said, ``Sustained economic growth is the solution, not the problem, 
because a nation that grows its economy is a nation that can afford 
investments and new technologies.'' By harnessing the power of American 
science and technology, we can achieve both energy independence and a 
cleaner, healthier environment. The fiscal year 2004 budget embodies a 
commitment to current and future generations of Americans to accelerate 
risk reduction and cleanup of environmental damage resulting from Cold 
War nuclear programs, reduce the polluting effects of energy sources, 
and develop secure energy technology options for the future.
Environmental Management
    The total fiscal year 2004 budget request for Environmental 
Management (EM) activities totals $7.2 billion, approximately 5 percent 
above the comparable fiscal year 2003 request, to accelerate risk 
reduction and closure. This is the highest amount ever requested for 
the EM program. Within this committee's oversight, the Department is 
requesting $6.8 billion for the EM program, of which $5.8 million is 
for Defense Site Acceleration Completion and $995 million is for 
Defense Environmental Services.
    The Environmental Management program was created in 1989 to safely 
manage the cleanup of the environmental legacy from 50 years of nuclear 
weapons production and nuclear energy research at 114 sites around the 
country. The scope of the program includes stabilization and 
disposition of some of the most hazardous materials known. In February 
2002, the EM program released a Top-to-Bottom Review, which revealed 
that process rather than cleanup results had been the basis for 
performance and cleanup approaches.
    Following this review, the EM program committed to devote the next 
18 months to developing and implementing several key management reforms 
that would drive accelerated risk reduction and project completion. We 
are ahead of schedule. In one year, we have begun developing and 
implementing four management reforms, which serve as the basis for the 
EM program's accelerated risk reduction cleanup initiatives. These 
reforms are:
    Acquisition Strategy. We are implementing a strategy that will both 
increase competition by enlarging the pool of potential contractors 
competing for our work and increasing the accountability of our 
contractors to deliver real, meaningful cleanup.
    Configuration Control. EM has begun implementing a strict 
configuration management system that baselines a number of key, 
critical program elements, such as Performance Management Plans, EM 
corporate performance measures, and life-cycle costs. Strict 
configuration control and monitoring of these key elements will 
facilitate a high confidence level that the goals and direction of the 
accelerated cleanup initiatives are being met.
    Human Capital. This reform strongly supports the President's 
Management Agenda. EM is building a more robust organizational and 
performance accountability system that holds each manager and employee 
accountable for actions and results. Individual performance management 
is being fully integrated into EM organizational goals. We have 
completed two phases of senior executive reassignments between both the 
Field and Headquarters.
    New Budget Structure. We have developed and begun implementing a 
new budget structure, which complements other management reform 
initiatives by focusing on completion and endpoints, and communicating 
EM's goals and objectives. The new budget structure clearly identifies 
scope and resources that directly support the accelerated cleanup and 
risk reduction mission.
    Since the release of the Top-to-Bottom Review, significant progress 
has been made with respect to these management reforms. In addition, EM 
has made efforts to identify and implement changes in 10 areas 
emphasized in the Top-to-Bottom Review that are critical to the success 
of the program. EM has focused these activities into special projects, 
each with a complex-wide perspective. Successful execution of these 
projects is crucial to improving the performance of the program and 
eliminating many of the barriers that have hindered previous 
initiatives to accelerate cleanup and reduce life-cycle cost.
    In fiscal year 2004, the EM program will continue making progress 
in implementing management reforms and making changes in the areas 
emphasized in the Top-to-Bottom Review. The EM fiscal year 2004 budget 
request has been tailored to meet our mission of accelerated risk 
reduction and completion. The most impressive aspect of this budget is 
that it fully reflects each site's new accelerated risk reduction and 
cleanup strategies. The strategic groundwork has been laid and the EM 
program is moving forward. Through the implementation of accelerated 
cleanup strategies, the EM program anticipates that cleanup will be 
completed no later than 2035, at least 35 years earlier than originally 
anticipated and life-cycle savings of greater than $50 billion will be 
achieved.
    Fiscal year 2004 will be a banner year, where significant risk 
reduction will be achieved. During fiscal year 2004, the EM program 
will:

        <bullet> Eliminate 1.3 million gallons of radioactive waste 
        from underground tanks, and permanently close nine underground 
        radioactive waste tanks (two at Savannah River, one at INEEL, 
        and six at Richland).
        <bullet> Complete stabilization of all remaining plutonium 
        metals, oxides, and residues in EM inventory (at Richland and 
        Savannah River).
        <bullet> Package 633 metric tons of spent nuclear fuel for safe 
        storage and disposal (cumulative 88 percent of EM's inventory 
        packaged).
        <bullet> Accelerate transuranic waste shipments to the Waste 
        Isolation Pilot Plant. EM will ship more than 12,000 m\3\ of 
        transuranic waste to the Waste Isolation Pilot Plant.
        <bullet> Complete remediation of 180 formerly contaminated 
        sites (surpassing 50 percent of these sites in the EM 
        inventory).

    The fiscal year 2004 budget will allow the EM program to remain 
focused on the core mission of accelerated risk reduction and project 
completion.
Legacy Management
    The fiscal year 2004 budget realigns program activities that will 
better support the Department's long-term mission by creating the 
Office of Legacy Management to manage post-cleanup activities. The 
Department is requesting $47.5 million in fiscal year 2004 for the 
Office of Legacy Management to monitor and maintain the integrity of 
cleanup remedies and administer the Department's post-closure 
obligations at closed sites. Legacy Management will be the steward of 
sites cleaned up and closed by DOE and the Army Corps of Engineers, 
administer activities for post-retirement benefits for former 
contractor employees and manage long-term contractor liabilities. This 
restructuring supports the Department's efforts to focus the 
Environmental Management program, which used to carry these 
responsibilities, to achieve more cleanup and risk reduction for the 
American taxpayer. I cannot stress strongly enough that even with the 
completed remediation and closure of EM sites, the Department will 
never abandon its responsibilities to the communities. Establishing an 
Office of Legacy Management will ensure that those concerns and 
responsibilities are represented by a dedicated office, measured only 
by their success in meeting the defined needs of those communities and 
their constituents.
Civilian Radioactive Waste Management
    The President's February 2002 recommendation and Congress' July 
2002 approval of Yucca Mountain, Nevada, as the Nation's high level 
nuclear waste repository was a seminal step in advancing the 
Department's goal to ensure the safe and secure disposition of 
dangerous nuclear materials away from the hands of terrorists. The 
budget requests $591 million for the Department's repository program. 
This request coupled with the fiscal year 2003 requested amount would 
support the completion of work needed for the submission of a license 
application to the Nuclear Regulatory Commission in 2004 and the 
development of transportation capabilities needed to initiate 
repository operations by 2010. However, the $131 million reduction from 
the President's fiscal year 2003 budget request together with the 4 
month-long continuing resolution, has introduced a high risk in our 
ability to meet a December 2004 license application date, but we are 
making every effort to meet this objective.

                           HOMELAND SECURITY

Safeguards and Security
    Safeguarding and securing DOE's nuclear facilities, materials and 
information, and protection of our employees remains one of the 
administration's top priorities. As such, the Department's total 
safeguards and security funding in the fiscal year 2004 request is $1.2 
billion, an increase of $179 million over the fiscal year 2003 request. 
Within the amount requested, $586 million will support activities to 
safeguard DOE's NNSA nuclear weapon facilities, $357 million will 
support activities that protect the Cold War nuclear waste material 
being cleaned up at our environmental cleanup sites, $238 million will 
fund the security of the Department complex-wide, and $48.1 million 
will support the continued safeguards and security activities at our 
scientific laboratories and facilities. A portion of these expenses 
will be recovered through charges to non-DOE customers performing work 
at DOE laboratories. I will continue to work closely with the President 
to ensure our homeland security and fulfill our obligation to protect 
the American people. With the administration's strong will and 
commitment to national security, the funding request for safeguards and 
security will translate into measurable results.
Counterintelligence
    The Department's world leadership position in nuclear weapons 
knowledge as well as its extraordinary research and development of many 
leading edge technologies makes it a priority target of foreign 
intelligence collection. To offset this threat, the Department is 
requesting $46 million to support counterintelligence activities across 
the entire complex. These activities are focused on protecting our 
nuclear weapons secrets, but also emphasize a high priority on 
protecting our other sensitive scientific endeavors, and on combining 
with other departmental elements in our efforts to defeat terrorism.
Independent Oversight
    I rely upon my independent oversight organization to provide me 
with a current and accurate assessment of the Department, including the 
NNSA, in the areas of safeguards and security, cyber security, 
emergency management, and environment, safety and health. This office 
conducts comprehensive evaluations to verify that the Department's 
critical assets are protected, that the Department can effectively 
respond to any emergency, and that site workers, the public, and the 
environment are protected from hazardous operations and materials. 
Independent oversight activities are conducted with a focus on 
independence and objectivity, using a systematic oversight process, 
with an extensive emphasis on performance and performance testing. For 
fiscal year 2004, our budget proposes $22.6 million for an independent 
oversight program that promotes excellence and continuous improvement 
for the protection of departmental critical assets.
Energy Assurance
    Failure to meet increasing energy demand with increased energy 
supplies and vulnerability to disruptions from natural or malevolent 
causes could threaten our Nation's economic prosperity, alter the way 
we live our lives, and threaten our national security.
    DOE will continue to assist in meeting this homeland security 
challenge. To that end, the fiscal year 2004 budget proposal maintains 
an analytical capability to support the Department's energy security 
responsibilities. Included in the budget is $4.3 million for Energy 
Assurance activities to continue to conduct energy security activities 
in coordination with the Department of Homeland Security. This is a key 
concern underlying the President's NEP recommendations.

                               CONCLUSION

    Mr. Chairman and members of this committee that concludes my 
prepared statement. I will be glad to answer any questions you may have 
at this time.

    Chairman Warner. Thank you, Mr. Secretary. We are both 
quite familiar with the subjects at hand, and we commend you 
for your stewardship to date. You have some challenges for the 
future.
    I will defer to Senator McCain. He has another engagement, 
and then I will resume after Senator Levin.
    Senator McCain. Secretary Abraham, thank you for being here 
and thank you for your excellent stewardship of this very 
important branch of Government.
    Mr. Secretary, I would just like to ask you about a very 
important issue that has arisen this morning. It is very 
important in the State of Arizona and the country, and I do not 
know if you had a chance to see the piece that was carried in 
The Washington Times article by Bill Gertz and Jerry Seper. It 
is titled ``Nation's Biggest Nuclear Power Plant a Terrorist 
Target.'' ``Terrorists have targeted the United States' largest 
nuclear power plant near Phoenix, and security officials are 
looking for Iraqi government `sleeper cells' that might carry 
out the attack, The Washington Times has learned.
    ``The threat to the Palo Verde nuclear plant, located in 
the Sonora desert 50 miles west of Phoenix, prompted the 
deployment of National Guard troops to the facility. . . .
    `` `We understand the sensitivity.' ''
    Then it goes on to say, ``One official said the report on 
the Palo Verde threat was contained in classified intelligence 
reports distributed to law-enforcement and security officials.
    ``A second U.S. official confirmed the report and said it 
was `uncorroborated threat information' that was sent to 
appropriate U.S. security authorities.''
    [The information referred to follows:]
        NATION'S BIGGEST NUCLEAR POWER PLANT A TERRORIST TARGET

         [By Bill Gertz and Jerry Seper--The Washington Times]

March 20, 2003
    Terrorists have targeted the United States' largest nuclear power 
plant near Phoenix, and security officials are looking for Iraqi 
government ``sleeper cells'' that might carry out the attack, The 
Washington Times has learned.
    The threat to the Palo Verde nuclear plant, located in the Sonora 
desert 50 miles west of Phoenix, prompted the deployment of National 
Guard troops to the facility, according to U.S. officials.
    ``We understand the sensitivity of this time, and we are very, very 
committed to protecting the safe operation of Palo Verde,'' Jim 
McDonald, a spokesman for the Arizona Public Service Co., which owns 
the reactor complex, said in an interview.
    Mr. McDonald declined to comment on specific intelligence 
indicating a threat to Palo Verde but noted that the troops were added 
Tuesday by order of Arizona Gov. Janet Napolitano.
    One official said the report on the Palo Verde threat was contained 
in classified intelligence reports distributed to law-enforcement and 
security officials.
    A second U.S. official confirmed the report and said it was 
``uncorroborated threat information'' that was sent to appropriate U.S. 
security authorities.
    Palo Verde is the largest nuclear power facility in the United 
States with three reactors that produced 30 billion kilowatt hours of 
electricity last year, Mr. McDonald said.
    The threat to attack the facility came from sensitive information 
indicating that the plant was targeted by Middle Eastern terrorists who 
were not further identified.
    The threat to Palo Verde comes as other intelligence reports 
indicate that Iraq has set up clandestine cells of operatives inside 
the United States or abroad that could be called on to conduct attacks 
or sabotage on behalf of Baghdad.
    For example, recent intelligence reports indicated that Iraqi 
diplomats in Cairo had conducted surveillance of the U.S. Embassy 
there, U.S. officials said.
    Officials did not say how many Iraqi cells are in the country. 
Baghdad has nearly 250 officials posted to the United States, most of 
them at its U.N. mission in New York.
    A Bush administration official said the State Department has 
decided to expel the three Iraqi diplomats posted to Baghdad's interest 
section in Washington. The expulsion order is expected as early as 
today.
    Only Iraqi officials engaged in improper intelligence or terrorism-
related activity can be expelled from the U.N. mission.
    Meanwhile, the FBI warned law-enforcement officials yesterday to 
watch for suspicious activity by people driving Iraqi diplomatic 
license plates.
    ``Suspicious activity involving vehicles bearing Iraqi diplomatic 
license plates should be reported immediately to the nearest Joint 
Terrorism Task Force,'' the FBI stated in a weekly intelligence 
bulletin.
    Codes used by cars driven by Iraqi diplomats in Washington bear the 
``TF,'' and Iraqi U.N. diplomatic vehicles in New York have the ``TS'' 
code.
    Intelligence officials said the administration has urged 
governments around the world to expel Iraqi diplomats, and several have 
complied.
    Iraqi diplomats have been expelled in recent days from Czech 
Republic, Hungary, Romania, Germany, Sweden, Finland, Thailand, and 
Australia.
    Two Iraqis also were expelled from the United States on March 5 
after they were identified as intelligence officers, U.S. officials 
said.
    Justice Department officials yesterday confirmed that the  FBI is 
looking to interview as many as 50,000 Iraqis now in the United States 
for information that could help U.S. forces. They said a war with Iraq 
is expected to dramatically increase the chances of terrorist attacks 
against U.S. targets in this country and abroad.
    One senior department official said that while most Iraqis in this 
country are not believed to be terrorists or associated with terrorist 
organizations, Muslim extremists within the Iraqi community who are 
affiliated with al Qaeda could use a war as the reason for an attack.
    Among the Iraqis being sought for questioning are 3,000 illegal 
immigrants said to be missing, amid U.S. concerns that some could be 
connected with groups or agents of the Iraqi regime.
    Earlier this week, Mexican authorities detained six Iraqi citizens 
as they sought to cross into the United States from Tijuana. The six, 
including one woman, claimed to be German citizens on their arrival at 
the Tijuana airport Tuesday night on a flight from Mexico City. They 
have been returned to Mexico City for questioning.
    It could not be learned if the detained Iraqis were connected to 
the plot to attack Palo Verde.
    Border Patrol authorities also confirmed that a diary written in 
Arabic was found last week in a backpack discovered on a southern 
Arizona trail frequently used by illegal aliens. The diary, according 
to the sources, contained names and telephone numbers of at least two 
persons in Canada and Iran.
    The FBI has since taken custody of the diary, but refused comment 
on it yesterday.

    Palo Verde is the largest nuclear power facility in 
America, and I wonder if you could shed any more light on these 
reports. As you can imagine, it has caused significant concern 
back in the State of Arizona, as well as around the country.
    Secretary Abraham. Senator, obviously, I will not comment 
on the specific intelligence reports that are referenced in the 
article. I would just say that I am aware of the issue and I 
know that actions are being taken on a broad basis to both 
explore any of the intelligence information that has come to 
light, as well as to take adequate security procedures to make 
certain that any threat that might be posed can be effectively 
dealt with. I think that all actions that can be taken are and 
will be taken by the appropriate authorities to try to minimize 
any possible risks involved.
    Senator McCain. You are working with other agencies to make 
sure that the threat of this attack or a possible attack is 
minimized?
    Secretary Abraham. Well, we are playing the role that our 
Department has. Obviously, nuclear reactors, private 
facilities, are under the jurisdiction of the Nuclear 
Regulatory Commission who has the lead responsibility here. We 
provide support services, as do other Federal agencies to that 
oversight. I am informed that actions are being taken by all 
the appropriate agencies, at the direction of NRC and others, 
to address the concerns that have been raised.
    Senator McCain. I thank you. I thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator, very much.
    Senator McCain. Thank you very much.
    Chairman Warner. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    One element of the Department of Energy's nonproliferation 
program is the effort to ensure that Russian nuclear scientists 
are not tempted to work for proliferants. The Initiatives for 
Proliferation Prevention, or IPP, program provides work for 
scientists in conjunction with U.S. business interests, as you 
well know, and it seems to be working well.
    Another program, however, is not working so well, and that 
is the effort to redevelop some of the Russian nuclear cities 
and facilities. Apparently the Russians are trying to address 
that issue. I am wondering whether or not the DOE is rethinking 
the approach to the whole Russian nuclear cities issue.
    Secretary Abraham. I would not say that we are rethinking 
the whole approach. I think we are trying to find ways to make 
all of these programs as effective as possible. I think there 
has been definitely some progress forward in terms of engaging 
more U.S. businesses to partner and engage in activities that 
will employ technicians and scientists. I know that our 
Ambassador to Russia, Ambassador Vershbow, recently visited one 
of these cities with my counterpart, the head of the Ministry 
of Atomic Energy, to explore other new promising opportunities.
    But there has been, I think, some particularly positive 
progress in terms of the engagement of, at least initially, 
American companies, and now I understand also Russian companies 
in not only engaging in more activities both in the nuclear 
cities themselves, but also employing Russian scientists and 
technicians.
    We are pleased about that progress. We hope we can see it 
continue to expand. But in terms of changing the program, that 
is not under contemplation at this point.
    Senator Levin. Would you take a look at the Senate bill 6, 
which was introduced by Senator Daschle and others at the 
beginning of Congress? There are some ideas in that bill on how 
to revitalize this Russian nuclear cities program. If you and 
your staff could take a look at it and get back to us with your 
comments on the nuclear cities provisions in that bill, it 
would be appreciated.
    [The information referred to follows:]

    The Department of Energy has been quite successful in its efforts 
to reduce the threat of WMD without the significant changes proposed in 
S.6. The National Security Council has reviewed our programs, and we 
are meeting and adhering to their guidelines. We closely coordinate 
with the Department of State and the rest of the interagency on our 
nonproliferation programs through the National Security Council's 
Policy Coordination Committees (PCC).
    First, S.6 would introduce what we feel are unnecessary 
coordination processes and procedures that would divert key resources 
from the implementation of on-the-ground activities. For example, we 
believe that there is little need to create a joint U.S.-Russian 
commission to advise on the shutdown of Russian nuclear weapons 
assembly and disassembly facilities (Section 9006(c)). We already 
cooperate closely with the Russians in this area to determine relevant 
areas of work. We believe that such an effort would generate more 
reporting and other requirements. Furthermore, we have multiple 
checkpoints within the U.S. interagency for approval of projects. 
Creating a commission would lead to duplication of activities and 
efforts.
    Section 9006(e) calls for Russia to bear only 15 percent of the 
cost of downsizing, and this could be construed as committing the U.S. 
to pay the remaining 85 percent. Russia should continue to bear the 
largest financial burden of downsizing its own nuclear weapons complex. 
Therefore, we recommend that the lowest fixed participation, at 15 
percent in this bill, be stricken.
    In Section 9008 (a) and (b), the proposed $25 million authorization 
for IPP is problematic whether it is mandatory or additional 
(discretionary) funds. If the funds are discretionary, they should be 
appropriated to the integrated Russian Transition Initiatives (RTI) 
program [which includes both IPP and the Nuclear Cities Initiative 
(NCI)], and not specifically to IPP, since downsizing is not IPP's 
mission. If the funds are mandatory, it will force IPP to spend more 
than its entire budget to work at a few facilities designated for 
shutdown in a limited number of closed cities in Russia. In fact, IPP 
is presently working at dozens of locations in Russia and other former 
Soviet states where nuclear, biological and chemical weapons scientists 
are being engaged on non-weapons enterprises. This work would be 
eliminated and many targeted scientists with very sensitive expertise 
would be vulnerable for recruitment by government and terrorist groups. 
If the efforts at downsizing are a priority for acceleration, then it 
is advisable to increase funding to RTI, which is already working on 
downsizing efforts.
    We appreciate the continued congressional attention to threats 
posed by weapons, materials, and expertise. We in the administration 
are always willing to work with Congress to address and overcome 
threats to U.S. national security.

    Senator Levin. The DOE budget request for fiscal year 2003 
included $15.5 million for a Robust Nuclear Earth Penetrator. 
The fiscal year 2004 budget request includes $15 million for 
that penetrator, $6 million for advanced nuclear weapons 
concepts, and $17 million for enhanced test readiness to reduce 
the time needed to conduct a nuclear test.
    In addition, the Defense Department has sought a repeal of 
the 1993 prohibition on research and development that could 
lead to the production of a low-yield nuclear weapon. Is the 
Department of Energy working on new nuclear weapons designs?
    Secretary Abraham. Not on a new weapon design, no. I think 
that at this point, as I understand the provisions of the 
legislation, the work which relates to the Robust Nuclear Earth 
Penetrator only can take place after the Department of Defense 
submits a report to Congress, and then 30 days after that. I do 
not believe that report has been submitted as of yet, and so 
the funds, the $15 million for that effort, are not yet 
available to us to work on. But once they are, then we would 
initiate conceptual work. But that is not directed toward a new 
weapon.
    I think what we have been given as an assignment, as part 
of a broader study of the need for this capability, is the 
responsibility to look at whether or not that capability can be 
in some way provided by a modification of an existing weapon.
    Senator Levin. The Defense Department, as I indicated, 
sought the repeal of the 1993 prohibition on that research and 
development effort that could lead to the production of a low-
yield nuclear weapon. Were you involved in the decision to seek 
the repeal of that language? Or did you--and I am referring 
either to you or the DOE as an agency--request the Department 
of Defense to seek the repeal of the 1993 language?
    Secretary Abraham. I would have to check to determine the 
exact role that people from our agency played in the 
development of the policy, and I would be glad to submit that 
for the record.
    [The information referred to follows:]

    Both the Departments of Energy and Defense support a repeal of 
section 3136 of the Fiscal Year 1994 National Defense Authorization 
Act. We must recognize that the national security challenges that 
confront the Nation today are dramatically different than when the law 
was passed almost a decade ago. We believe it is only prudent to allow 
the laboratories to undertake research into technical options that 
could strengthen our ability to deter, dissuade, and respond to the 
national security challenges of the 21st century.
    Its also important to understand that the Department of Energy has 
no requirements from the Department of Defense for any new nuclear 
weapons nor does repeal of section 3136 usurp Congress' right to 
authorize and appropriate the considerable sums that would be required 
to build or deploy new or modified nuclear weapons consistent with 
section 3143 of the Fiscal Year 2003 National Defense Authorization 
Act.

    But I would just say to the committee, as you indicated, 
when you read the definition, the restriction does not simply 
prohibit research on new low-yield warheads but also prohibits 
any activities which could potentially lead to the production 
by the United States of such a warhead.
    What we believe is that such a broad restriction has a real 
impact, a chilling effect of sorts, on the work scientists and 
engineers are doing and it really impedes efforts to explore 
technical options to respond to threats. So we support the 
position because we think that it has had a chilling impact on 
the work that can be done because it is such a broad 
definition. Any activities which could potentially lead to 
production encompasses a lot of the work that could conceivably 
be done in our weapons labs.
    Senator Levin. The number one threat that we all face is 
the proliferation of nuclear weapons and other weapons of mass 
destruction. We are trying to persuade other countries to not 
put greater emphasis on nuclear weapons, not to test. We are 
highly critical of India and Pakistan for testing. We are 
highly critical, appropriately so, of North Korea when they 
pull out of the Nonproliferation Treaty.
    If you want to talk about chilling effect on our 
scientists, the chilling effect on our whole position and point 
of view in the world is that we have to reduce the number of 
nuclear weapons in this world and the reliance on nuclear 
weapons in this world. If we start to move down the road of we 
want modifications to improve capabilities, we want an earth 
penetrator, we want millions of dollars to get readier to 
resume testing, that sends the opposite message to the world 
that we are saying, on the one hand, do not pull out of the 
Nonproliferation Treaty, do not test weapons, do not rely on 
nukes. Then when these budget requests come out to us showing 
greater reliance, greater capability, greater willingness to 
consider resumption of testing, it undermines or chills the 
argument that we are making to the rest of the world. So I hope 
when you look at the chilling reference and the chilling 
language, that you also look at what the chilling effect is in 
terms of our argument on the other side of this equation, which 
is the nonproliferation side of the equation.
    Secretary Abraham. Obviously, because our Department has 
the responsibilities both, on one hand, for the work we do in 
our complex and for much of the nonproliferation work we do, 
that is something that we are always mindful of. I would say 
that at a time when we have not been testing, when we have 
terminated the plutonium pit production capabilities of the 
country, when we have not been developing new weapons, when we 
have passed the plywood restrictions, and so on, we have, 
nonetheless, seen the message. That message has not, it seems 
to me, resulted in others refraining from the development of or 
the seeking of these weapons.
    What we are trying to do here is maintain capabilities that 
allow us to respond to threats of the new century, as outlined 
in the Nuclear Posture Review or as might come forward in the 
future. We will try to always take both of those considerations 
into account.
    But our work at least in the Department is not at this 
stage that of developing new weapons but maintaining the 
capacity, the capability, and the skills even of some of the 
people so that we are at least able, when called upon, to 
perform the job we are asked to do, which is the sort of 
engineering work, as well as the responsibility to be able to 
certify to you and the country and the President, obviously, 
the capability of our stockpile, its readiness, as well as its 
reliability.
    Senator Levin. Thank you. My time is up.
    Chairman Warner. Mr. Secretary, I would say in rebuttal to 
my distinguished colleague's observation that there are some 
very important collateral advantages to repeal of the ban on 
low-yield nuclear weapons research. You pointed out the 
importance of the maintaining of a cadre of individuals trained 
should this administration or a future administration feel that 
it is essential for our own security interests and primarily 
for deterrent interests to move in the direction of a low-yield 
nuclear weapon.
    But are there not many collateral benefits derivative from 
lifting the ban to the science-based Stockpile Stewardship 
Program if the scientists are allowed to conduct some low-yield 
weapon research?
    Secretary Abraham. As I indicated, I think we view this 
whole area as one in terms of maintaining capabilities. We are 
concerned about the fact that an effective Stockpile 
Stewardship Program requires not only tremendous investment, 
which this committee has supported in new technologies from the 
National Ignition Facility to the computer programs, but also 
the human skills and technical expertise that has to be 
maintained not only in retaining talent but also in recruiting 
talent and keeping skills well developed. We see it in the area 
of test readiness, for instance, where we find ourselves with a 
work force not necessarily prepared to, if called upon, conduct 
tests.
    We think that both in the area of advance concept research 
and in terms of just the general sort of technical research 
that might be conducted in the labs, that if every time 
scientists seek to engage in some type of research, they feel 
they have to go to the general counsel to determine whether or 
not the standard, which is a pretty broad definition standard, 
is in jeopardy of being violated, we feel that that has had an 
impact on the work force and on the kind of work that they can 
do. So, yes, it does have collateral impact on the 
effectiveness of the Stockpile Stewardship Program.
    Chairman Warner. That is the key acknowledgement that I was 
hoping to elicit from you. This Senator has followed this 
Stockpile Stewardship Program since its inception. I think it 
is important that you give us a little update on this program 
because originally, in 1993 and 1995, it was thought that we 
would take about 10 years to set up a comprehensive science-
based Stockpile Stewardship Program, which would begin to 
validate the safety, security, and reliability of the aging 
nuclear weapons stockpile. We are now reaching the end of that 
decade, and I would like to have your views as to what is the 
progress we are making.
    For those following this hearing who might not recall this 
history, when the decision made was to stop actual testing, we 
then determined the reliability and safety. I underline safety 
because many of our American citizens have volunteered to care 
for this inventory and, indeed, the areas in which they live. 
It is important that that safety be without any doubt or 
question.
    Now, what is the status of the Stockpile Stewardship 
Program in view of the original estimates of a decade from the 
1993-1995 time frame to have it full up operational?
    Secretary Abraham. Many of the programs, many of the tools 
are in the process of either being developed or will be 
developed in the next few years. I am certainly not capable of 
telling the committee today that all of them will be on line 
and fully operational in the time frame of 2003 to 2005. They 
simply will not be. We are still in the process of building the 
National Ignition Facility. It is now largely completed, but 
there is obviously considerable more work to do there.
    I mentioned already that our new advanced supercomputing 
initiative is launching the effort to build the two literally 
largest computers in the world, but that is going to take 
several years to complete. When they are finished, they will 
form part of the capability.
    The DARHT program is on track.
    We are not, however, in a position where, within the next 
year or 2, we will have a fully operational alternative and 
effective alternative to use as an alternative for testing the 
reliability of the stockpile. We believe these tools ultimately 
will be able to help us make those determinations, but we are 
not in the position of saying----
    Chairman Warner. So let us face facts. You inherited a 
program, and I am not suggesting your predecessors in any way 
were other than doing their very best to put it together within 
the original time frame of, as you said, 2003-2005. You 
acknowledge it is not going to make it. What is your best 
estimate of when this system will be full up?
    Secretary Abraham. I do not feel today that I can give you 
that estimate, Senator, because I think that each of these 
tools interacts with one another in the process of trying to 
replicate or trying to assess the capability of a weapon. At 
least in my appearances here, I do not think I have ever 
indicated that we know with absolute certainty. We believe that 
the combination of these tools will serve to allow us to 
determine the reliability of the stockpile, but they are not 
operational yet. At that point, we will hopefully be successful 
as we intend to be.
    Chairman Warner. Now, the program, though, does in its 
current status yield a considerable amount of data that 
contributes to your annual certification. Am I not correct?
    Secretary Abraham. Yes, that is right.
    Chairman Warner. Even though it is not full up. I do not 
know if you can say where on the curve between zero and full up 
it is at the moment, but it is providing very valuable 
information which contributes to your annual certification. Am 
I correct on that?
    Secretary Abraham. That is right.
    Chairman Warner. Fine. My time has expired.
    I see Senator Akaka has joined us.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to add my welcome to Secretary Abraham. It is always 
good to see you on the Hill.
    Mr. Chairman, I would ask that my statement be included in 
the record.
    Chairman Warner. Without objection.
    [The prepared statement of Senator Akaka follows:]

             Prepared Statement by Senator Daniel K. Akaka

    Thank you, Mr. Chairman, for holding this hearing. I welcome the 
opportunity to have Secretary Abraham testify before us today. The 
issue I want to focus on is the administration's approach to nuclear 
non-proliferation.
    Stopping the spread of nuclear weapons has been an American 
national security goal since the end of World War II. In 1946, at the 
inaugural session of the newly created U.N. Atomic Energy Commission, 
the U.S. Representative Bernard Baruch declared, ``We are here to make 
a choice between the quick and the dead.'' He underscored the necessity 
of limiting nuclear weapons to avoid a nuclear disaster and to meet the 
world's demands for peace and security.
    Out of these early efforts grew the Nuclear Non-Proliferation 
Treaty, which was completed in 1968 with over 180 countries as 
signatories today. It is the cornerstone of the international nuclear 
non-proliferation regime. The treaty contains a special bargain: the 
so-called non-nuclear states would forswear acquiring nuclear weapons, 
and, in exchange, the nuclear states--the United States, Russia, 
France, England and China--have committed to achieving their own 
nuclear disarmament. This commitment is contained in Article 6 of the 
treaty.
    The U.S. remains committed to strengthening the Non-Proliferation 
Treaty. Secretary of State Powell said so in his testimony in support 
of the recently approved Moscow strategic nuclear arms treaty. Yet, the 
administration's current policies make me wonder if this is truly the 
case.
    Rather than fulfilling our commitments to reduce the number and 
limit the role of our nuclear weapons, we seem to be holding their 
numbers steady and expanding their missions.
    For example, the Moscow Treaty has a worthwhile goal, the further 
reduction of strategic nuclear arsenals. Yet, in practice, the U.S. 
nuclear stockpile may not be much smaller in 2012, when the treaty is 
over, than it is today. As many have noted, the Moscow Treaty does not 
call for the dismantlement of any nuclear warheads or launchers under 
any timetable whatsoever. The majority of U.S. or Russian nuclear 
weapons could be removed from launchers and placed into storage. From 
storage, they could easily be returned to active duty.
    I hope Secretary Abraham today can provide more details about the 
administration's announced plans to dismantle some of the weapons 
removed from launchers. I would like to know how many are involved, or, 
at least, what percentage will be dismantled. But more importantly, I 
would like to know why all of the warheads removed cannot be 
dismantled. Russia would eliminate more nuclear weapons if the U.S. did 
the same. What is the justification for keeping such a large number of 
warheads?
    The administration also wants to embark on at least two new nuclear 
weapons programs. The administration said that a robust earth 
penetrating nuclear weapon (RNEP), or bunker buster, is needed to 
destroy a growing number of hard and deeply buried targets. It may have 
a yield in the range of 100s of kilotons. In contrast, the bombs 
dropped on Hiroshima and Nagasaki had yields of less than 20 kilotons.
    In addition, the administration is seeking to repeal the 
congressional prohibition on so-called low-yield nuclear weapons, those 
with less than five kilotons of explosive power. Low-yield, or mini-
nukes, are often described by the administration as potentially useful 
in destroying buried weapon caches or weapons of mass destruction 
facilities in urban areas because of the view--I call it a myth--that 
these weapons would minimize civilian losses.
    I do not think these new nuclear weapons are necessary. In the 
1990s, we deployed the B6-11 bomb that has a large yield and is for 
attacking buried targets. We also have several nuclear warheads types 
that have small yields. Finally, we have an array of conventional 
weapons that can accomplish difficult missions.
    Moreover, seeking to develop new nuclear weapons and expand their 
role to attacking other than the nuclear forces of other nations is a 
dangerous development. It sends the wrong signal to the rest of the 
world about the U.S. commitment to the Nuclear Non-Proliferation 
Treaty. We should be thinking how we, along with the rest of the 
countries possessing nuclear arsenals, can reduce our reliance on 
nuclear weapons and reduce our nuclear stockpiles.
    Mr. Chairman, I have a number of other concerns about the 
administration's nuclear policies. The administration's effort to 
increase the readiness of our nuclear weapons test site is quite 
worrisome. Again it sends the wrong signal to the rest of the world 
about our commitment to stopping the spread of nuclear weapons. We must 
keep the weapons we have safe and secure, but we can accomplish this 
without a new round of nuclear tests.
    I hope the administration will clarify these questions in today's 
hearing. Our limited defense dollars will be constrained by the growing 
Federal deficit and a war on Iraq. The burden of proof is on the 
administration to show why we need to maintain such a large nuclear 
arsenal and continue to develop unneeded costly new nuclear weapons 
systems, when we have many other pressing defense and domestic 
priorities.

    Senator Akaka. Mr. Secretary, many are concerned about the 
Moscow Treaty. The treaty does not have a timetable for 
reductions or an agreement for the dismantlement of any nuclear 
warheads. Could you please provide us with more details now or 
for the record about the administration's plans to dismantle 
warheads and also, in round numbers, how many or what 
percentage of the warheads removed will be dismantled?
    Secretary Abraham. Let me provide, if I could, a more 
detailed response to that for the record. Let me, though, just 
put a little bit of context in your evaluation.
    When we talk about the capabilities for dismantlement, it 
is important to always remember that the same facilities and, 
to some extent, the same personnel who would work on 
dismantlement are also responsible for weapons refurbishment 
and our life extension program for weapons. We really have, in 
terms of the process, to balance the need to keep the existing 
stockpile in a state of effective readiness, and the life 
extension programs are very extensive. We do dismantlement even 
on an ongoing basis. Part of it would be included in the budget 
we have requested. But we fit that work in as we also conduct 
other work in our Pantex facility as opportunity provides 
itself.
    If we wish to do more dismantlement in relationship to the 
Moscow Treaty or any other decisions that were made, it either 
means we have to expand the complex to be able to do that or, 
literally, reduce work that is done on the maintaining of the 
reliability of existing weapons or the life extension program.
    Those are the factors, and I would be happy to provide for 
the record a more specific answer as to the sort of timetable 
envisioned.
    [The information referred to follows:]

    The following is the current plan for warhead dismantlements:
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    While the Moscow Treaty does not specifically call for 
dismantlement of warheads, the Department of Energy is working with the 
Department of Defense to identify warheads that are excess to 
requirements and plan for their dismantlement. With implementation of 
the Nuclear Posture Review, DOE is expecting additional retirements and 
is currently examining the possibility of new dismantlements in the 
fiscal year 2004-2007 timeframe. [Deleted.] A moderate amount of 
increased dismantlements could be accommodated within the current and 
planned nuclear weapons complex capacity before the three Life 
Extension Programs get fully underway and utilize most of the available 
capacity later this decade.

    Senator Akaka. Thank you for your response.
    Mr. Secretary, Senator Levin raised the issue of the 
administration's plans to develop a robust earth penetrating 
nuclear weapon. He also mentioned the administration's desire 
to repeal the congressional prohibition on low-yield nuclear 
weapons, those with less than 5 kilotons of explosive power. 
Low-yield and many nukes are often described by the 
administration as potentially useful in destroying buried 
weapons of mass destruction facilities in urban areas. 
Theoretically these weapons would minimize civilian losses.
    Yet, in the 1990s we deployed the B6-11 bomb that has a 
large yield and is for attacking buried targets. We also have 
several nuclear warhead types that have small yields. Finally, 
we have an array of conventional weapons that can accomplish 
difficult missions.
    My question to you is, do you think it will be possible to 
use an earth-penetrating nuclear weapon in an urban area 
without causing collateral damage?
    Secretary Abraham. I think that one of the reasons the 
project which we are being asked to study is going on is 
because of the concern, among other things, that, first of all, 
hardened and deeply buried targets provide a serious challenge 
as a matter of current and projected future military and 
national security challenges, that we needed a capability to 
deal with that, that existing capabilities for a variety of 
reasons, part of which I think included the belief that they 
might be more destructive than necessary. I am not sure if that 
would be only in an urban setting, but just in a broader sense. 
I think the conclusion that was reached, as a result of the 
Nuclear Posture Review, was that we needed to explore a wide 
array of possible responses to deal with that threat.
    Only one of those is in our area. That is the idea of the 
so-called RNEP, the Robust Nuclear Earth Penetrator, research--
to determine whether or not we might be able to modify an 
existing nuclear capability to be able to address this. But it 
is also my understanding that non-nuclear studies are also 
being conducted by the Defense Department to see if there are 
other ways that might be more effective. I think part of that 
decision making would, obviously, deal with the question of 
collateral damage and what is the most efficient and effective 
way of addressing this threat.
    Senator Akaka. Thank you very much for your responses.
    Mr. Chairman, my time has expired.
    Senator Allard [presiding]. Thank you, Senator Akaka.
    Without objection, I would like to make my opening 
statement a part of the record.
    [The prepared statement of Senator Allard follows:]

               Prepared Statement by Senator Wayne Allard

    Mr. Chairman and Senator Levin, thank you very much for holding 
this very important hearing on the Department of Energy's national 
security programs. As always, it is good to see Secretary Abraham.
    The Strategic Forces Subcommittee, which I have the privilege of 
being the Chairman, is responsible for authorizing over two-thirds of 
the Department of Energy's budget. A large share of the programs we 
oversee are in the National Nuclear Security Administration (NNSA). 
These programs are vital to our Nation and our allies.
    The ability to ensure that our nuclear stockpile is safe, secure, 
and reliable, is the most important job at DOE and is THE mission of 
NNSA. However, I believe DOE can enhance this mission. For the last 10 
years, this mission has been focused on the past--meaning life 
extensions on our aging, Cold War nuclear stockpile. However, while 
this is their most critical mission, I believe that we have to begin to 
look to the future and at what our next threat or threats will look 
like. This means that DOE and NNSA scientists must be given the freedom 
to think and explore. They must be allowed to be scientists. I realize 
this is controversial, but unless we recognize that the world is 
different and that we must adept to this changing threat structure, we 
could find ourselves with the wrong deterrent for the future threats.
    A matter of tremendous importance and a priority for me with 
defense nuclear sites is our Environmental Management program. The 
problems of the last half century will take a coherent policy of 
innovation, integration, and funding to overcome. Luckily for you and 
the Nation there are good and dedicated people in these programs. The 
scientists at our national labs are the best in the world and the 
engineers and craftsmen at our cleanup and Naval Reactors sites 
continue to meet the ever-increasing demands we place on them.
    I would like to end with a statement that I have said many times: 
No site is an island. That is why is it so important for all States 
with DOE sites, whether they have an ongoing mission or are slated for 
closure, must keep the national objectives and needs at the forefront. 
We all care deeply about our individual sites and situations, but we 
must work together to make the DOE complex work for all of us.
    Again, thank you for holding this hearing, and I look forward to 
hearing Secretary Abraham's testimony.

    Senator Allard. Senator Abraham, I would like to welcome 
you personally.
    I feel that we should not put science at a standstill. I do 
hope and would encourage you to move forward with this idea of 
nuclear concepts. I think that there is some advantage to 
continuing to think from even a scientific basis all the 
parameters of nuclear.
    Before we get into a lot of that discussion any further, I 
would just like to thank you and compliment you on your 
commitment to cleaning up nuclear sites here in this country. 
You have worked hard at it. You have visited a number of those 
sites, I know.
    In 1996, when I was first elected to the United States 
Senate, the project I first got involved in was out at Rocky 
Flats. At that point in time, about 1997, they were talking 
about a cleanup date of 2060 to 2065. It was determined at that 
time that if we put more money into the program, we could 
advance cleanup and meet a deadline of 2006. It appears as 
though we are going to meet that 2006. If you have any doubts 
in that regard, I might ask you to mention that because that is 
very important. I think, if nothing else, we have set a 
standard for other cleanup of other sites. I am real proud from 
that perspective.
    Other sites were cooperative. There were three of them 
originally. We talked about Rocky Flats, Mound, and then 
Fernald. It seems as though some of the other sites that were 
agreeing to this advance appropriations to clean up Rocky Flats 
and the other two agreed with the understanding that there 
would be money available once Rocky Flats got cleared up to 
help advance their cleanup.
    My question to you is, once the first three closure sites 
are cleaned up and closed, does DOE plan to use the annual 
savings realized from the completion of the 2006 closure sites 
to accelerate the cleanup and closure of the remaining 
environmental management sites?
    Secretary Abraham. I think there has been somewhat of an 
adjustment across the entire complex in the way we look at 
cleanup, and I think, frankly, the Rocky Flats experience was 
the model that has helped us to move to a new approach. Our 
Under Secretary of the Department for Energy, Science, and 
Environment, Secretary Card, was the CEO of the operation at 
Rocky Flats, and our Assistant Secretary for Environmental 
Management, Jessie Roberson, was the Department site official 
that helped bring about the expedited cleanup.
    When they came into their jobs, I asked them to conduct a 
Top-to-Bottom Review of the entire complex to see what we could 
do to accelerate cleanup complex-wide. That is what we have 
done. We thought that the approach taken at Rocky, at Fernald, 
and at Mound was not appropriate for everybody. We thought that 
you should not have to just live at one of those sites to be 
able to see your site cleaned up in a short time frame. What we 
were confronted with in the other sites, much as was the case 
at Rocky Flats, was a 70-year game plan for cleanup.
    At each site in the last year-and-a-half, we have developed 
an accelerated program. In virtually every case, the site 
letters of intent with the State and, slowly but surely, with 
the regulators, whether that is the local regulators or the 
EPA, are being developed to expedite all the sites.
    Consequently, instead of having a budget in which scarce 
resources are going to be fought for by all the sites with 
inadequate amounts of money available to expedite all the 
cleanup, the budget we are submitting this year is consistent 
with moving all the sites ahead at an accelerated rate. 
Obviously, when we passed the point where Rocky Flats is 
finished in 2007, we would have a very substantial fall-off in 
terms of expenses for that site. Whether we will need all of 
that money to keep the other sites on their fast cleanup 
remains to be seen.
    But our goal is to front-end funding for cleanup across the 
spectrum of the complex. That is why we are asking for the 
largest Environmental Management budget the Department has ever 
requested. The budget we have asked for is consistent with this 
very accelerated program. We believe we can clean up the entire 
set of facilities that were in the Environmental Management 
mission not in 2070, but at least as early as 2035 and perhaps 
sooner. We do not even want to wait, I guess I am saying, until 
Rocky Flats is finished to start injecting more funds into the 
other sites.
    Senator Allard. I appreciate your commitment to 
environmental cleanup.
    What is the Department of Energy's policy with regards to 
facilities which are managed by Environmental Management but 
still have a long-term national security or science mission?
    Secretary Abraham. We recognize that we have sites where 
there are ongoing activities but where there is also a 
substantial cleanup responsibility. One of the challenges that 
we have is determining whether the ongoing missions are ones 
that should place the site really under the leadership of the 
part of our Department that will be taking the responsibility 
for that future mission.
    That is one of the things we have done up at the site in 
Idaho where we have concluded that the long-term mission of 
Idaho is a mission it has had for some time, but now is a 
mission with, I think, a more focused effort, which is in the 
area of nuclear energy research. Our Nuclear Energy Division 
now has principal oversight for the site. That does not mean 
the Environmental Management programs will be slowed down. In 
fact, they will be sped up. That is now being looked at not as 
primarily an EM program, but rather as a nuclear energy 
program.
    Senator Allard. You are saying that the landlord then would 
assume that main responsibility at that site.
    Secretary Abraham. Right. We are moving, in that case, to a 
different division. Essentially our two under secretaries, 
Under Secretary Card and the Acting Administrator for our NNSA 
division, Ambassador Brooks, are right now in the process of 
looking down the road to figuring out where responsibilities in 
the future ought to be allocated. Part of that discussion also 
goes to where legacy responsibilities down the road should be 
allocated as to whether they will remain simply in an 
Environmental Management division or whether the new landlord, 
as you put it, the new lead agency or lead part of our 
Department, should now take on that responsibility. We are 
still working on what makes the most sense for the future.
    Senator Allard. Again, thank you for your effort on 
environmental management and cleanup.
    I still have some time left, so I want to follow up on 
NNSA. If they receive a new military requirement for a low-
yield weapon, what steps need to take place to allow the 
national weapons labs and plants to begin production of a new 
weapon?
    Secretary Abraham. That is a fairly complicated series of 
steps. I think I may have somewhere in my materials here the 
multiple step process of weapons production, but I guess I 
cannot find it right now, Senator. Maybe I could provide that 
process, that legal process, to you.
    At this stage, though, I just would reiterate. We are not 
proceeding ahead even with the research on the RNEP because we 
still await the Defense Department's submission of its report 
to Congress.
    Senator Allard. Just one brief question. This is probably 
the most important question in this regard. Can NNSA begin 
manufacturing new low-yield nuclear weapons without getting a 
new approval from Congress?
    Secretary Abraham. If the question you are asking is 
whether or not we can proceed on the study that we are engaging 
in to modify an existing warhead, that would be a different 
status than the development of a new weapon because that 
distinction is fairly significant. But I am not sure on the 
precise legal status.
    Senator Allard. If you could get a response back to us, I 
think the committee would appreciate that.
    Secretary Abraham. Yes. We would be happy to do that.
    Senator Allard. If we get a written response back, it would 
be fine.
    [The information referred to follows:]

    No, the Department of Energy cannot begin the research and 
development, let alone the manufacture of new, low yield nuclear 
weapons without obtaining relief from Section 3136 of P.L. 103-160, the 
Fiscal Year 1994 National Defense Authorization Act. This provision 
prohibits the department ``. . . from conducting the research and 
development that could lead to the production by the United States of a 
low yield nuclear weapon which, as of the date of enactment of this 
Act, has not entered production.'' The law also defines low yield as a 
``nuclear weapon that has a yield of less than 5 kilotons.''
    Section 3143 of Public Law 107-314, the Fiscal Year 2003 National 
Defense Authorization Act, requires the Department of Energy to request 
funds in the President's  budget  for  the  development  or  production 
 of  a  new  nuclear  weapon. The budget entry is specified as a single 
dedicated line item for each such activity that is in phase 3 or higher 
for new nuclear weapons, or phase 6.3 or higher for weapons 
refurbishment. The Department currently has no requirement from the 
Department of Defense for the development or production of any new 
nuclear weapons.

    My time is expired.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Levin. Senator Pryor, would you yield for 30 
seconds?
    Senator Pryor. Absolutely.
    Senator Levin. I would appreciate it. I must leave.
    Secretary Abraham, you have now sent us a letter, relative 
to the documents that we have asked for relative to the 
Strategic Petroleum Reserve, stating that you are not going to 
be furnishing us certain documents. You are asserting a 
deliberative process privilege, which means then we would have 
to seek a subpoena in order to determine if there is going to 
be an executive privilege asserted over those documents.
    I am not going to ask a question. I do not want to do that. 
But would you take a look at the other part of our request, 
which is that you tell us how many documents are you asserting 
a privilege over and just the subject of the documents, but at 
a minimum, how many documents are you asserting a privilege 
over. If you could let us know in a supplementary letter to 
that so that we can decide with, obviously, Senator Coleman, 
who is the chairman of the Permanent Subcommittee on 
Investigations, whether or not a subpoena would then be issued 
for those documents, which then sets up the executive 
privilege.
    Secretary Abraham. I would be happy to do that. I do not 
know the answer, so I will be glad to.
    [The information referred to follows:]

    By letter dated December 9, 2002, the Senate Permanent Subcommittee 
on Investigations requested that DOE supply certain documents related 
to the Strategic Petroleum Reserve. On January 10, 2003, by letter from 
Mike Smith, DOE's Assistant Secretary for Fossil Energy, we provided to 
the subcommittee a number of documents in response to its request. On 
March 19, 2003, and again by letter from Assistant Secretary Smith, we 
provided additional documents that were still under review when the 
January 10 letter was sent. In both of the letters, DOE noted that many 
of the documents being provided to the subcommittee were subject to the 
deliberative process privilege or contained information that may be 
protected from public disclosure by the Trade Secrets Act.
    The March 19 letter stated that certain documents were not being 
provided to the subcommittee because they constitute or reflect 
confidential White House communications, and that for the same reason, 
the documents would not be provided in response to your own March 4, 
2003, letter. After receiving that response, your staff reiterated the 
request in your March 4 letter that DOE provide a list of documents not 
being provided to the subcommittee, the subject of each, and the 
reasons for withholding it. In response, on March 25 our Office of 
Congressional and Intergovernmental Affairs explained that the March 19 
letter already had set forth why DOE has withheld certain documents--
they constitute or reflect confidential White House communications. We 
also explained that the request for a list of those documents 
originated with the March 4 letter, and, therefore, is a request by you 
in your capacity as an individual Senator, rather than one from the 
subcommittee. DOE does not have a list of the type you requested, and 
creation of logs of withheld documents is not required in 
administration by agencies of the Freedom of Information Act. 
Therefore, and again as DOE already has explained to your staff, DOE is 
not in a position to prepare and submit to you a list of the sort 
requested in your March 4 letter. For all of these same reasons, we are 
not in a position to supply to you the information you requested at the 
March 20, 2003, hearing. 

    Senator Levin. Thank you very much, Senator Pryor.
    Senator Allard. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Secretary Abraham, I am looking at a press release from the 
NNSA from late last year that talks about the reorganization 
that is going on there. As I understand it, you are in the 
process of, mostly through attrition, reducing the staff there 
by about 20 percent. Is that right?
    Secretary Abraham. Yes.
    Senator Pryor. About 20 percent according to the press 
release.
    I have a general concern about that. By the way, I am not 
opposed to that concept of streamlining and becoming more 
efficient. I am always for that. But I have a general question 
in the context of the heightened security we live in right now 
considering this war on terrorism and all of the possible, 
potential threats against which you all manage and maintain. 
How is that going right now, and are you seeing any adverse 
effects in terms of morale or any gaps or transitional issues 
that are causing you problems?
    Secretary Abraham. Senator, not at this point. I am not 
saying there are not people who will always be unhappy with 
changes in the status quo. What we have tried to do in this 
proposal, I know, is to be very careful about how we would make 
this transition occur. I can assure you and the committee that 
no actions will be taken in a hasty fashion or in a fashion 
inconsistent with the actual security of either the complex or 
the capabilities of the complex.
    One of the challenges which basically confronted me when I 
became Secretary was the fact that shortly before my arrival, 
in fact, based on actions I had voted for when I was in the 
Senate, we had developed the NNSA as a quasi-independent part 
of the Department. One of its first responsibilities--and that 
is primarily one for the administrator and now the acting 
administrator--to develop was a game plan for trying to set 
this new agency, if you would, or quasi-independent agency, up 
in a way that minimized the duplication of functions.
    One of the frustrations Congress had that led in part to 
the development of NNSA I think was that there was a sense 
there were too many layers of decision making, too many 
management layers. What Ambassador Brooks and before him 
General Gordon have tried to do is to wrestle with that issue. 
I can tell you that most of the hearings I had initially were 
hearings in which people were arguing or asking really for us 
to do this work quickly because it has been expected by the 
appropriators as one of the first responsibilities in this 
area.
    We have tried in this reorganization to address it. We have 
certainly heard from many Members who have had one particular 
concern or another because of some of the rearrangements. I 
know there are certainly going to be people in the system who 
may prefer the old approaches that we had. But we think this 
represents what Congress asked us to do, which was to do a good 
faith evaluation of the bureaucracy and try to recommend ways 
to make it more efficient and streamlined.
    Senator Pryor. Again, I agree completely with those goals. 
I am 100 percent on board with that. The committee, I think, 
would like to hear just an assurance that while we are doing 
this and going through this transition, we are taking care of 
our business, we are taking care of our mission, and there are 
no gaps or missed steps that could cause a security problem.
    Secretary Abraham. I think we will be able to do the 
mission better. Our goal really was to try to eliminate some of 
the bureaucracy that was, in fact, perceived by upper 
management of NNSA to be hard to work through, too many layers 
in the chain of command. One of the frustrations that I have 
and anybody who has served, I think, because I know most of the 
previous Energy Secretaries, is that there sometimes are 
problems within the complex, and people say why did that 
happen. Part of it is because it took such a long time for 
decisions to move up and down the chain.
    But I can assure you, and look forward to working with the 
committee as we effectuate these changes, that we are not going 
to do anything that undermines the quality or the timeliness of 
the work of the Defense Programs or Nonproliferation. I think 
we are pleased with the progress, in almost every respect, that 
we have been making on some of the priority items, but it will 
not be lost on us that, as we make these changes, there is 
always a threat that we could lose effectiveness. We will do 
our best and keep you well informed of how we are addressing 
those.
    Senator Pryor. Thank you.
    Mr. Chairman, that is all I have.
    Senator Allard. Thank you, Senator.
    Senator Cornyn.
    Senator Cornyn. Secretary Abraham, good to see you this 
morning. I want to thank you for appearing before the committee 
today and tell you that I look forward to working with you to 
ensure that our nuclear weapons facilities receive the proper 
funding and resources they need in order to carry out their 
important mission.
    I am especially glad to see that we are moving forward with 
the modern pit facility. I think most Americans would be 
surprised, as I was when I learned, that we currently do not 
have a certified capability to produce such an important part 
of our nuclear arsenal. Indeed, it is supremely ironic that at 
a time when we are justifiably concerned about the ability of 
North Korea to produce nuclear weapons, that America cannot.
    On that point, the point of the modern pit facility, I want 
to ask you about the length of time it takes to complete that 
facility. I am informed that the best estimate is 15 to 17 
years. I wanted to ask you why does it take so long and is 
there anything that we in Congress can do to speed up the 
process.
    Secretary Abraham. Senator, you raise an important point. 
The duration of time between this point and when we feel we can 
have a fully operational modern pit facility is a long one 
because obviously there are inordinate numbers of both safety 
standards, environmental standards, and others that have to be 
met along that pathway.
    I should, however, note that we believe that this year we 
will be actually able to produce a pit which can be certified 
at the work that is being done at Los Alamos. It is a small 
operation by comparison to what we would envision a modern pit 
facility to be. We are not going to be without any capability 
because we will have that, but that is obviously a very small 
production capability.
    As to the specific impediments, I would have to, if I 
could, respond for the record on that.
    Senator Cornyn. That would be very helpful.
    Secretary Abraham. I will give you maybe some of the 
technical explanations that I do not have with me here today.
    [The information referred to follows:]

    Based on current planning, construction of a Modern Pit 
Facility (MPF) will start in 2011 and be completed in 2017. 
Initial production in 2018 will enable the manufacture of 
plutonium pits for the nuclear weapon stockpile by 2020. This 
schedule will ensure that the NNSA is able to develop essential 
pit manufacturing capabilities that are both technologically 
``modern'' and capable of meeting long-term needs of the 
Nation's nuclear stockpile.
    It is also essential that the MPF comply with all 
environmental standards and evolving security requirements. 
With an expected cost of some $2 billion to design and 
construct a MPF, the DOE must provide high confidence that a 
MPF can meet production goals and also meet all safety, 
security, and environmental compliance requirements.
    The current MPF schedule exercises prudent risk management 
based on current understanding of pit lifetimes, future 
stockpile requirements, and other priorities within NNSA. The 
current schedule for design and construction could be shortened 
by several years if the MPF project were provided additional 
resources; however, NNSA will live within its FYNSP and feels 
that the current schedule is reasonable.
    While many regulatory and administrative actions will be 
required to develop and operate a MPF, there are no specific 
issues that Congress must address at present to speed up the 
process.

    The other issue here is that there has been some concern 
about whether or not we should move ahead on some of these 
projects. The time frame that you have just outlined is a good 
example of some of the challenges we have in terms of 
maintaining capability, which has been our priority of trying 
to establish the capability to do the work that we may or may 
not in the future be called on to undertake.
    Senator Cornyn. Certainly I think we all understand if 
there are safety or scientific reasons for such a huge length 
of time. If there are, however, bureaucratic rules or other 
things that do not make sense that we can address here in 
Congress, I hope you will let me and the committee know.
    Will the modern pit facility that we are talking about have 
the flexibility such that it will be able to produce a range of 
pits, possibly even for weapons that currently are not in 
America's nuclear inventory?
    Secretary Abraham. Yes. It is, I think, the objective to 
have a facility that will have flexibility. We are always in 
the process of not only thinking about being capable of doing 
things today but being able to address challenges of the 
future. I think the concept behind the facility is to have a 
design that allows for that flexibility.
    Senator Cornyn. Let me jump to another subject in my 
remaining time--maintenance backlogs at our Nuclear Weapons 
Complex. Of course, I guess we would all agree that it is 
critical that we maintain upkeep of our facilities. The 
Facilities and Infrastructure Recapitalization Program (FIRP) 
appears to have been successful in halting the growth of the 
approximately $1 billion maintenance backlog at our nuclear 
weapons facilities. Unfortunately, the backlog will remain the 
same or grow if the Readiness in Technical Base and Facilities 
(RTBF) program, which continues current and future maintenance, 
continues to decline. In fact, the nuclear weapons may be in 
the same poor shape in the future when the FIRP ends.
    Do you believe maintenance activities are adequately funded 
at the plants and laboratories in order to eliminate 
maintenance backlogs in the next 8 years when FIRP ends?
    Secretary Abraham. We definitely place a high priority on 
eliminating that backlog. Two of the challenges which we have 
tried to address in the more robust budgets, which this 
administration has been submitting, are the deterioration in 
the infrastructure generally and the maintenance backlogs that 
Congress has also identified as a problem. We believe that the 
funding that we are providing puts us right on the course 
towards addressing that backlog. It is going to take some time. 
We recognize that.
    It may be at the end of that, as we move down that road, 
that we conclude that not only do we have to have an ongoing 
maintenance program that is effective, but that we also find 
additional challenges that fall into a category of perhaps 
being defined as backlog by that point.
    I would just say that the FIRP does enjoy very substantial 
amount of support in this budget, and we certainly intend to 
apply that effectively to the infrastructure problems we have 
encountered.
    Senator Cornyn. Thank you.
    Thank you, Mr. Chairman.
    Senator Allard. Senator Sessions.
    Senator Sessions. Thank you, Senator Allard.
    Secretary Abraham, delighted to have you back in the 
Senate, if not as a Member, at least as a witness. We 
appreciate your leadership at the Department of Energy.
    To follow up on Senator Cornyn's good line of questioning, 
let me just drive home that point. Since we closed Rocky Flats 
in 1989, the United States has not had production capability 
for the primaries or the pits that are essential for making 
weapons. I know we will be doing something in Los Alamos for 
the W88 warhead, but that will only be dealing with a small 
number of the warhead types.
    Let me ask you a few brief questions. Does Russia have the 
capability to produce these right now? Do they have a 
production capability in Russia?
    Secretary Abraham. Yes. The answer is that they do.
    Senator Sessions. What about China?
    Secretary Abraham. I believe they do, yes.
    Senator Sessions. North Korea?
    Secretary Abraham. We believe that they may have that 
capability.
    Senator Sessions. As I understand it, we are the only 
nuclear power in the world at this point that does not have 
production capability.
    Secretary Abraham. Senator, that is the reason why we 
strongly support the investments in the development of this 
facility. We do not do it, however, because of a desire to 
restart an arms race. I think your point is an important one. 
Also, however, we just view our current capabilities as being 
inadequate to meet any future national security challenges we 
might have, and we feel that restoring capability is the first 
challenge that we have to undertake. That is why we have worked 
on the infrastructure programs that were mentioned, and that is 
why we support the development of pit manufacturing capability.
    Senator Sessions. It would be hard to say, would it not, 
Mr. Secretary, that we are somehow destabilizing the world if 
we are moving up, simply reestablishing the level that every 
other nuclear power in the world has?
    Secretary Abraham. The point I made earlier, which I would 
just repeat, is that even as we have placed a moratorium on 
testing, even as we closed Rocky Flats and have not had the 
capability of developing a pit, and even as we have placed 
restrictions on the sort of research that can be conducted, it 
has not dissuaded others from acting.
    Obviously, we always take into account the implications of 
investments we make or the development of capabilities that we 
might undertake. We take into account its impact on others, but 
it seems that others are acting in their own best interests and 
we feel that there is at least a need for us to now really 
focus on the restoration of our capabilities here.
    Senator Sessions. What you are then basically saying is we 
have not been doing that. We have not had that capability, but 
it has not deterred others from achieving that capability and 
going forward. In fact, it has no impact whatsoever, if you 
really think about it. I do not know why it would.
    As a matter of fact, it might be an encouragement. It 
strikes me that if we develop a nuclear policy that freezes our 
capabilities against any future change or improvement, we have 
simply set a floor, a goal that any nation that wants to be a 
peer competitor to the United States should seek and try to 
achieve, and, at that point, they would have parity with the 
United States. Psychologically, I do not think we need to do 
that.
    Would you comment on that?
    Secretary Abraham. I would just say this: With the end of 
the Cold War, decisions about reducing the investments in these 
kinds of capabilities were made and carried forward. I think 
there is no tangible evidence that those decisions have led 
others to necessarily follow that model, which I think is your 
point. But notwithstanding that, what others might do is a 
consideration.
    But I think the first consideration we have is what is in 
the interest of our national security. That is the first 
consideration, and the first answer is we believe it is in our 
interest, as a matter of national security, to restore these 
capabilities. We see no behavior that suggests that doing that 
would have an impact on the rest of the world that was so 
undesirable as to offset whatever national security advantages 
are gained from us moving ahead here.
    But in the first instance, all of these decisions begin 
with the question of what does the United States need in the 
future to be able to maintain its capability, and we think that 
has to be addressed in the fashion we are talking about.
    Senator Sessions. I agree. We want to reduce nuclear 
weapons. That should be our goal. But I do not think in the 
long run the world will be safer and other nations will reduce 
their power if we reduce our power substantially and freeze 
ourselves at that level. I think it is a dangerous policy, and 
I support your view.
    Secretary Abraham. The Treaty of Moscow attempts to reduce 
the number of nuclear weapons. What we recognize is that the 
challenges of the Cold War of the latter half of the 20th 
century may not be the challenges of the 21st century. We have 
already seen evidence of that, and our belief is that there is 
a pathway forward here that is important to proceed on. It is 
not a pathway of immediately developing new weapons or 
enhancing every weapon, nor is it the pathway of essentially a 
nuclear freeze. It is a pathway of developing capability to 
address challenges as they might emerge, and having no 
capability, at least in our judgment, is not the proper 
approach. Obviously, the pit facility is an important part of 
that capability being reestablished.
    Senator Sessions. I notice my time is up, Mr. Chairman. 
Will we have a chance to have a short second round?
    Senator Allard. Yes, I believe so. We have to be sure to 
get the Secretary out of here by 11:30, but I believe we will 
have an opportunity to allow you to ask a question or two more.
    Senator Graham, you are next. I just want to welcome you 
here personally to the committee. I know our States have worked 
closely on issues of environmental management and other issues, 
and I look forward to continuing to work with you.
    Senator Graham. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. I will continue some of the things 
that Senator Sessions was talking about.
    First, though, I want to congratulate you and thank you for 
appointing Jeff Allison as the site manager at Savannah River. 
I think we are all going to be very pleased with that, and I 
appreciate that. Jeff has done a good job and will continue to.
    I will change the subject just a little bit. We will get 
back to pits in a moment. The MOX program is a big deal to the 
country and certainly to the Savannah River Site, and I 
appreciate the budget allocation this year.
    One of the concerns that I have is the Russian program. Can 
you give us a little update about exactly where the Russians 
are with their MOX facility and what is the outlook there?
    Secretary Abraham. We feel very positive about recent 
developments on the Russian side of the plutonium disposition 
agreement. We have reached an agreement. The Russians have 
reached a positive decision with respect to the design of their 
facility. That had been one of the impediments, if you would, 
or one of the project lines that had not been moving quickly. 
That has now been achieved.
    The success the President had last year with the 
development of the Global Partnership initiative to recruit and 
encourage other members of the G8 to join a partnership to 
provide $20 billion over the next decade for nonproliferation 
programs in Russia has changed some of the funding dynamics in 
a favorable way so that the funding for the Russian program, I 
think, is on the right track, and we are confident it will be 
achieved.
    Senator Graham. So you feel confident.
    Secretary Abraham. Yes. Obviously, a reflection of our 
confidence is in the budget submission we have made where we 
have now made a major commitment in this proposal for the 
beginning of construction in Savannah River.
    Senator Graham. You think the Russians are going to keep 
pace with us, generally speaking.
    Secretary Abraham. I believe the Russian program is on its 
track now in a much more confident direction. It will not be 
exactly parallel to ours, but now it is moving ahead in a way 
that is, I think, much improved over where we were a year ago.
    Senator Graham. Along the lines of the questions by Senator 
Sessions, what I am trying to say and I think what we are all 
trying to say here is that a new pit production facility makes 
sense to us. I applaud you for going down this road. The 
sooner, the better for, I think, most of us.
    Even though we are trying to appropriately reduce the 
amount of nuclear weapons available to the former Soviet Union 
and ourselves in a responsible way, lessening the dangers, I 
think there is a feeling here among most of us--and I believe 
the administration too--that you always have to maintain 
currency and viability. So a pit production facility that can 
make sure that we have the state-of-the-art, new generation 
technology to marry up with delivery systems would be something 
most of us would be supportive of.
    I do not think they are contrary goals at all. Trying to 
modernize your ability to produce and maintain a viable nuclear 
deterrent force in the future is not contrary to trying to 
lessen the danger. I applaud you for what you have done and 
encourage you to continue and hope you bring it to the Savannah 
River Site. [Laughter.]
    Now, Senator Chambliss, my colleague from Georgia, has been 
very supportive of the site. One thing I think we have had 
going for us at the Savannah River Site is South Carolina and 
North Carolina delegations and, recently, good leadership of 
the Governor's office. I think that now you will have somebody 
you can work with in Governor Sanford.
    I know he is very concerned about hydrogen research and 
Savannah River has a very rich tradition of hydrogen research. 
We developed a hydrogen bus several years ago in the Savannah 
River Technology Center.
    Do you have any plans for that center in terms of hydrogen 
research, and could you give us a little overview of where we 
are going with hydrogen from the Department's point of view?
    Secretary Abraham. Yes. Let me say that we are definitely, 
as you well know, expanding our hydrogen fuel cell programs. We 
have not made decisions as to where and when research will be 
conducted, but the President has committed a $1.7 billion 
program over the next 5 years. The design of that program will 
be focusing on research on hydrogen production, hydrogen 
storage, and on our capability of effectively reducing the cost 
of hydrogen fuel cell generation. A variety of programs will 
now be launched.
    The goal is to really, in these next 5 years, jump start 
the high risk research that needs to be conducted in order for 
us to really make this transition that we envision to a 
hydrogen economy, one that would see motor vehicles powered by 
the fuel cells. We have not made decisions yet as to where all 
that research will be conducted, but it will obviously be a 
very robust program.
    Senator Graham. I think Savannah River could help you 
there, and we are definitely interested.
    The last thing is the Savannah River Technology Center. We 
would like to see that expanded. There is a real user-friendly 
environment in South Carolina and Georgia for such projects, 
and we are definitely working on a next generation nuclear 
reactor. That is one area of our energy economy that I think 
has been neglected. I applaud you for having a friendlier 
attitude toward nuclear power. It is a non-emitting, safe form 
of energy, and I think our country has been neglectful in the 
past to let the technology become stagnant. I would certainly 
encourage you to look at a research site, Savannah River being 
one of them, obviously, for the next generation nuclear 
reactors.
    With that, I will appreciate what you are doing for our 
country.
    Secretary Abraham. Thank you, Senator.
    Senator Allard. Senator Chambliss. I would also like to 
welcome you to the committee and look forward to working with 
you too.
    Senator Chambliss. Thank you, Mr. Chairman, and likewise.
    Mr. Secretary, I want to associate myself with the remarks 
of my colleague from South Carolina, Mr. Graham. We have worked 
very closely together on any number of issues at the Savannah 
River Site, a keen interest. I have expressed it to members of 
your staff over the last couple of years.
    The primary concern that I have about SRS is from a 
security standpoint. I know we read the threats that exist out 
there with respect to potential attacks of terrorism occurring 
at our nuclear power plants. We have two in our State, Plant 
Vogel and Plant Hatch. Plant Hatch is in my old congressional 
district, and I have spent an awful lot of time there. I have 
also spent time at Plant Vogel.
    Very honestly, while we are always vulnerable at any site 
in America, I think that Southern Company and the other owners 
of those two nuclear power plants have done a good job with 
respect to securing the facility. With the guidelines coming 
from Washington regarding construction of those plants, I feel 
very good about the security of the plant in the event the 
perimeter lines were breached.
    But, from a nuclear waste storage standpoint, I am 
concerned about security at facilities such as the Savannah 
River Site. I would like for you to comment to us about what 
you have done there, what is in this budget, and what do we 
expect to need to do at sites like the Savannah River Site 
regarding nuclear storage.
    Secretary Abraham. Our cross-cutting, if you would, 
security proposal in the budget calls for about a $1.2 billion 
complex-wide security allocation. To use Savannah River as an 
example, among the sorts of things which we have done to try to 
enhance security, particularly in the wake of September 11, is 
to increase access controls, to create an inner-site perimeter, 
to add armed guards, to extend the buffer zone at the site, and 
to initiate patrols along the river and guards at the tank 
farm. Similar kinds of things are going on at other parts of 
the complex.
    As I always tried to make clear when we have these 
hearings, we have tried to also increase our monitoring and our 
flexibility to make changes where they are called for. We 
really believe that the security posture has to be reviewed on 
a very frequent basis. Our security teams are doing that. We 
are in the process of basically reexamining our design basis 
threat on an ongoing basis to make adjustments where called 
for. If we feel that there is a change that is needed, 
obviously, we will place that kind of funding priority at the 
top of any requests we make to Congress, or, if we have to, 
within the site itself, we will make those adjustments to 
reprogram money to make sure that any newly emerging concerns 
can be quickly dealt with.
    Senator Chambliss. I appreciate that very much, and folks 
in our area will be glad to hear that too.
    I want to echo also what Lindsey said with respect to Jeff 
Allison. Bringing him on as site manager has been a good fit, 
and we look forward to continuing to work with you to bring all 
the assets we can to the Savannah River Site. Thank you, Mr. 
Secretary.
    Secretary Abraham. Thank you, Senator.
    Senator Allard. Let us see. Now I am trying to figure out 
just where we stand as far as committee questions are 
concerned. I have one question I want to cover. Senator Pryor, 
do you have any questions?
    Senator Pryor. No.
    Senator Allard. I know that Senator Sessions has a couple 
of questions, and then we will wrap it up.
    I got cut short on time here, Mr. Secretary, and I want to 
clarify my question to you.
    Secretary Abraham. Please.
    Senator Allard. I want to give you an opportunity to 
respond to this question, and then I will explain why I think 
this is an important question.
    Just to clarify the record, does NNSA need an authorization 
from Congress to proceed with the production of a new nuclear 
weapon?
    Secretary Abraham. A new weapon. I believe I answered in 
the context of the research on the Robust Nuclear Earth 
Penetrator, but if it were a new weapon, yes, congressional 
approval to proceed with production or design of a new nuclear 
weapon would be required.
    Senator Allard. I am glad you clarified that because I 
think that is important for those who have concerns about 
whether we are moving ahead with concepts on what we do with 
nuclear weapons. It is an idea of looking at the scientific 
aspects of a nuclear weapon. When you get right down to it, 
Congress is going to have to approve production of a new 
weapon. I think that is an important thing for people who may 
have concerns about just the idea of concept, further 
scientific investigation of a nuclear weapon, to keep that in 
mind.
    Let me go ahead and move to Senator Sessions. Did you have 
any more, Senator Chambliss?
    Senator Chambliss. No.
    Senator Allard. Senator Sessions.
    Senator Sessions. Secretary Abraham, since I have been in 
the Senate, through various different events, I have had 
insights into the Department of Energy laboratories--Los 
Alamos, Livermore, and Sandia. I have been shocked and 
disturbed by the security breaches, by the mismanagement, and 
by the problems that have existed there. Some of them have been 
made quite public. There has been a pattern of misconduct that 
I think is quite significant over a very long period of time.
    I know you have taken it as your responsibility to clean 
that up, and there are some good steps that have been taken. 
Frankly, I have serious doubts about whether we ought to 
maintain these contracts, whether other universities or other 
entities ought to be given a chance to participate in this $2 
billion a year that we routinely give out to Los Alamos 
Laboratory, for example.
    This is a published report. I have this Associated Press 
article from CNN.com. The headline says this, ``Former Los 
Alamos Official Says Lab Does Not Have `Criminal Culture'.'' 
Well, that is good to have the person say that.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    He said that the investigators, Glenn Walp and Steve Doran, 
were fired because they had provided incomplete and inaccurate 
information. These two investigators had pressed investigations 
into suspected mismanagement of lab money, prompting the House 
Energy Committee to hold hearings on it.
    Salgado, who has now been removed or quit, acknowledged a 
lab culture where money was at times treated as ``monopoly 
money.'' This is a head man, the deputy director or principal 
deputy director of the lab, who said they were treating money 
as monopoly money. He said, ``It is not a criminal culture, but 
it is a culture that has to be addressed.'' I would agree.
    Seventeen employees have now been fired or removed from 
management positions by the University of California which 
manages this. Salgado himself, who was making those statements, 
was fired in January. Top officials that hindered several 
investigations into the misuse of hundreds of thousands of 
dollars in lab funds were identified.
    The investigator Walp said lab managers knew fraud at the 
lab had been ``greening the valley'' around Los Alamos for 
years but looked the other way.
    They just listed a lot of different problems of individual 
fraud by employees, and financial mismanagement and problems 
involving espionage have been known for some time there.
    Frankly, it strikes me that the University of California 
cannot get it through its head that it is not some sort of 
ordained entity here. Their security situation is difficult for 
any university, but it particularly appears to me that the 
University of California has difficulty understanding the 
security requirements.
    Are you looking at that? Will the Department of Energy 
consider giving the opportunity to other universities who will 
commit to run the program with integrity and with proper 
security procedures? Why should some other university not be 
given the chance?
    Secretary Abraham. First of all, when some of the 
revelations of late were brought to my attention, frankly in 
the period right before or approximately the same time they 
became part of the media, we began a very intense series of 
discussions and meetings with the leadership, the president of 
the university and others in his leadership team, to try to 
convey, once and for all, our belief that when we hire somebody 
as a contractor to run these labs, that they actually have all 
of the responsibility that goes with that title. We made it 
very clear to the university that they had to take action 
quickly to address not just the specific issues that had 
emerged, but the broader issues, the broader undercurrent, that 
made it possible for these advantages to be taken and for this 
conduct to occur.
    They have done a number of things beginning, as I think we 
made it clear to them, with some changes in personnel. You 
alluded to that. That had not taken place when, just 2 years 
before, another set of events took place at Los Alamos. There 
had not been a change or changes in the security division and 
other key leadership positions, even though there had been 
quite obviously problems.
    We also have tried, in studying the Los Alamos issues, to 
share what we are learning about the problems there with all of 
our labs because a lessons-learned approach, in my judgment, 
has to be taken from this so that we do not have repetition of 
these problems in the future elsewhere.
    We have also made it clear to the university that unless 
they meet what I consider to be the responsibilities that they 
have been paid for, then we will find someone else to do it. To 
that end, I have asked the Deputy Secretary of our Department, 
Kyle McSlarrow, and the acting head of the NNSA, Linton Brooks, 
to complete and provide for me by April 30 an evaluation of the 
University of California's performance in the wake of our 
directives, as well as any further recommendations as to the 
ongoing or future role that the university should have, and I 
look forward to getting the report.
    I think also one of the issues you have touched on is an 
important one, and that is the question of the nature by which 
these sorts of contracts are provided. Ours is the only 
Department, I think, which has Federal research facility 
contracts that are ever made available for competition. I do 
not think that happens with other Departments. We do have the 
flexibility for that competition. Even as we are examining the 
specific case of Los Alamos, I have appointed a blue ribbon 
team of outside experts to provide us with a better 
understanding of and some criteria for future competition, 
which I think will inevitably be beneficial to the complex.
    Senator Sessions. I would thank you for that. I would say 
that from my experience, both at secure briefings and public 
briefings, that serious security breaches have occurred that 
have adversely impacted the United States. It is quite clear 
that we should not be paying to green the valley with Federal 
taxpayers' dollars, and frankly I see no reason whatsoever that 
you ought not to give other universities who may be prepared to 
carry on this program effectively with security and efficiency 
a chance to bid on this. They do not have a right to have this 
program forever. I think their behavior has been very poor, and 
I hope that you will not just talk about it. I hope you will 
take bids from other universities and see what kinds of 
proposals they would make before you decide to continue this 
one.
    Secretary Abraham. The other point I would also make is 
this, that as we examine the situation, we do not intend to 
have the taxpayers responsible for mismanagement problems. We 
believe that if there has been mismanagement, that the cost of 
that has to be borne where appropriate by the contractor as 
well.
    Senator Sessions. It is just part of the university 
culture, Mr. Chairman. They do not like restrictions. They do 
not like security. These universities just do not think that 
way, and if there is not very strong leadership, it tends to be 
operated like a college campus rather than a highly secure and 
important defense laboratory.
    Senator Allard. I think you made some very good comments. 
Senator Sessions, thank you for your questions.
    We have run out of members and questions, Mr. Secretary. I 
just want to say that I considered it an honor and pleasure to 
serve with you in the Senate, and I feel like you do a good job 
here with the Department of Energy. You have had a lot of huge 
challenges. You have done a great job with them, and I wish you 
well.
    After we adjourn here, I would just like to speak with you 
a moment, if we might.
    Secretary Abraham. Thank you, Mr. Chairman.
    Senator Sessions. I agree, Mr. Chairman.
    Senator Allard. I declare the committee adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Pat Roberts

  PROLIFERATION CHALLENGES AND DEPARTMENT OF ENERGY NONPROLIFERATION 
                               ASSISTANCE

    1. Senator Roberts. Secretary Abraham, with certain countries 
moving towards indigenous nuclear programs and possessing weapons of 
mass destruction expertise and technologies, do you believe the 
Department of Energy (DOE) may require additional authority to permit 
DOE nonproliferation programs and assistance to be spent in countries 
beyond the former Soviet Union (FSU)?
    Secretary Abraham. NNSA's nonproliferation activities are central 
to the Bush administration's December 2002 National Strategy to Combat 
Weapons of Mass Destruction, which lists ``Strengthened 
Nonproliferation'' as a pillar of its approach to reducing 
proliferation threats. The Department is fully committed to this 
critical mission; this is reflected in the diversity of our programs to 
address nonproliferation concerns in Russia, other states of the FSU, 
and, increasingly, throughout the world.
    NNSA's nonproliferation mission and responsibilities set forth in 
the National Nuclear Security Administration Act are broad enough to 
encompass our conduct of nuclear nonproliferation activities outside of 
Russia and the FSU. However, we are seeking in the National Defense 
Authorization Act for Fiscal Year 2004 to clarify that NNSA has the 
requisite authority to conduct its international Materials Protection, 
Control, and Accounting (MPC&A) program not only in the FSU but in 
other countries where the risks of nonproliferation of weapons of mass 
destruction, materials and technology also threaten the security of the 
United States.

    2. Senator Roberts. Secretary Abraham, specifically, what other 
countries do you believe would be interested in DOE cooperative 
nonproliferation programs, and, in particular, which programs do you 
see participating and why?
    Secretary Abraham.

        <bullet> We are currently pursuing a dialogue on MPC&A 
        cooperation with countries we believe are of particular 
        concern, but we feel it is premature to discuss specifics in 
        detail.
        <bullet> Many countries outside the FSU are interested in our 
        border detection and Radiological Dispersal Device (RDD) 
        programs--and we hope to expand these programs to those 
        countries where significant proliferation risks exist. Eastern 
        and Central Europe, Southeast Asia, and Africa are regions 
        where we may initiate work. We will target resources to 
        countries where nuclear and radiological material security is 
        most vulnerable, including areas associated with terrorist 
        organizations or activities.
        <bullet> In addition, DOE/NNSA's export control assistance 
        program has grown from 3 partner countries--Russia, Ukraine, 
        and Kazakhstan--to nearly 20--including the Baltics, the 
        Caucasus, Uzbekistan, Kyrgyzstan, Turkey, Cyprus, India, 
        Pakistan, Israel, Jordan, the United Arab Emirates, Egypt, 
        Malaysia, Thailand, Taiwan, China and Hong Kong. Cooperation is 
        in its infancy in many of these countries. DOE/NNSA's broader 
        geographical focus is consistent with the U.S. Government's 
        interest in strengthening international export controls and 
        securing key transshipment routes that proliferators are known 
        to take advantage of in acquiring the items and technologies 
        needed for their WMD programs.

        FISCAL YEAR 2004 NONPROLIFERATION PROGRAM BUDGET REQUEST

    3. Senator Roberts. Secretary Abraham, the budget request for the 
DOE nonproliferation programs represents a 30-percent increase above 
last year's request. This is the first time in the history of these 
programs that the increase has been so substantial. This increase will 
primarily be spent on constructing a mixed-oxide facility (MOX) in 
South Carolina to dispose of U.S. plutonium under the U.S.-Russia 
Disposition Agreement and the President's new initiative to accelerate 
nuclear materials disposition in Russia. Would you please tell me why 
the DOE decided to focus the increase on these two programs this year 
and what impact these programs will have on U.S. national security?
    Secretary Abraham. The MOX facility is an important element of a 
long-term agreement with Russia under which each country will dispose 
of 34 metric tons of weapon-grade plutonium by 2025. The increase in 
funding in fiscal year 2004 is needed to complete the detailed design 
and begin construction of the MOX facility, contingent on parallel 
progress in the Russian program. In addition, the President's new 
initiative to accelerate nuclear materials disposition in Russia will 
permanently eliminate 1.5 MT per year of highly enriched uranium (HEU). 
Both of these programs help to prevent the threat of theft or diversion 
by terrorists or rogue nations of surplus plutonium/HEU in Russia and 
strongly support the administration's nonproliferation objectives.

        <bullet> We did not increase our budget request for the 
        International MPC&A Program (which protects materials) because 
        we took that step 2 years ago. The pace of the program is now 
        governed by Russia's ability to absorb assistance, not by U.S. 
        funding. Within the $226 million for MPC&A we have new 
        initiatives to secure radiological materials and to provide 
        security of Russian Strategic Rocket Force warhead sites.
        <bullet> The Elimination of Weapons-Grade Plutonium Production 
        Program, recently transferred from the Department of Defense, 
        needs no increase now because $74 million in prior year funds 
        are being transferred to us.
        <bullet> The Russian Transition Initiatives Program has 
        sufficient funds at the $40 million level to work to redirect 
        Russian nuclear weapons expertise to peaceful civilian 
        activities. Increases are not required because we have a number 
        of pending projects.
        <bullet> Our bottom line: We are proud of what we have done. 
        Our budget request makes clear the administration's strong 
        support for nonproliferation.

        RADIOLOGICAL DISPERSAL DEVICES AND THE TERRORIST THREAT

    4. Senator Roberts. Secretary Abraham, there has been a great deal 
of discussion about the threats posed by a ``dirty bomb'' or RDD and 
the need to secure and account for radiological sources both at home 
and worldwide. Would you tell me what the DOE position is regarding the 
threat posed by an RDD versus a device using weapons-grade nuclear 
materials, e.g. highly-enriched uranium or plutonium?
    Secretary Abraham. DOE's priority, in program focus and budget, is 
on securing weapons grade nuclear materials, which could be used in a 
nuclear explosion. These materials pose the highest risk to U.S. 
national security. Still, the threat posed by an RDD is a major concern 
and increasing resources have been dedicated to reducing this threat as 
well.
    An RDD is often termed a weapon of mass ``disruption'' rather than 
a weapon of mass destruction. An RDD attack can produce general panic, 
health consequences including immediate fatalities, and long-term 
increases in cancer incidence, long-term denial of property use, and 
massive economic impact arising from property and facility 
decontamination needs, disruption of services, and other associated 
factors. Recent reports have estimated that it would cost almost $20 
billion, not including decontamination and other cleanup costs, to 
recover from an RDD attack in a densely populated urban setting with a 
strontium-90 source commonly used in Soviet-fabricated radioisotope 
thermoelectric generators--Radioisotope Thermoelectric Generators 
(RTGs). In comparison, the economic costs of natural disasters such as 
the 1993 floods and Hurricane Andrew range from $5.5 billion to $20.5 
billion, respectively. 
    In contrast, an attack using fissile material in an actual nuclear 
device could result in damage that is many orders of magnitude greater 
than that posed by an RDD attack, both in terms of loss of life, 
infrastructure devastation, and recovery costs.
    DOE/NNSA programs aim to address the broad spectrum of threats to 
United States national security. This includes the priority mission of 
securing fissile material and reducing the threat from high-risk 
radioactive sources that could be used in an RDD.

    5. Senator Roberts. Secretary Abraham, since there are so many 
radiological sources being used by industry, the medical community, and 
others, how is DOE prioritizing the threat posed by these sources from 
an RDD perspective?
    Secretary Abraham. Many different organizations are involved in 
determining what high-risk sources are. DOE and the U.S. national labs, 
the Nuclear Regulatory Commission, and others have all contributed to 
the body of work on this topic. We are working with our national 
laboratories and the NRC to categorize priority sources and to evaluate 
actions to protect sources of greatest concern. There are many 
variables to consider, but there is general convergence on which 
sources present the greatest potential threat, should they be used for 
malicious purposes.

    6. Senator Roberts. Secretary Abraham, what sources do you believe 
should be secured and accounted first and what is DOE doing to address 
this threat?
    Secretary Abraham. DOE will focus efforts on areas where the 
greatest risk reduction can be achieved at the least cost.

        <bullet> This past March, at the International Conference on 
        the Security of Radioactive Sources, I announced a $3 million 
        contribution to the International Atomic Energy Agency (IAEA) 
        to assist developing countries in securing their radioactive 
        sources. DOE can provide critical support in the form of 
        technical and financial assistance to enable countries of 
        interest to properly account for radiological material.
        <bullet> Our initial focus is on seven major isotopes of 
        concern: cobalt-60, cesium-137, radium-226, americium-241, 
        plutonium-238, iridium-192, and strontium-90. Although we are 
        initially focusing our efforts on these seven isotopes, we will 
        retain flexibility to include other isotopes on a case-by-case 
        basis.
        <bullet> Another aspect of the DOE's approach will focus 
        efforts on countries that are most at risk of having their 
        radiological materials stolen due to social/economic 
        conditions, lax regulatory infrastructure, and/or lack of 
        technical and financial means to correct problems on their own. 
        Working with the Department of State, DOE will continue to 
        analyze risks within the radioisotope lifecycle (production, 
        distribution, use, and disposition), risks within countries, 
        and potential smuggling/transit routes.

                 RUSSIAN TRANSITION INITIATIVE PROGRAM

    7. Senator Roberts. Secretary Abraham, the Russian Transition 
Initiative (RTI) program is designed to address the ``brain drain'' 
concern in the FSU by providing commercial partnerships between FSU 
scientists and U.S. industry and by assisting Russia with the 
downsizing of its nuclear weapons complex.
    I was pleased to learn in your testimony that RTI has obtained over 
$125 million in matching resources from U.S. industry for 
commercialization endeavors, or $3 in private sector funds for every $2 
in U.S. Government seed funding. Can you explain how and why RTI has 
been able to attract this kind of private sector investment and how RTI 
could attract even more private sector dollars?
    Secretary Abraham. First, credit for progress in this area should 
go to the new leadership of the Russian Transition Initiative as well 
as to the leadership of the U.S. Industry Coalition (USIC).

        <bullet> Specifically, under this leadership RTI has been able 
        to attract significant resources through its requirement that 
        USG funding be matched at least dollar-for-dollar with cash or 
        in-kind contributions by companies.
        <bullet> Once invested, many partners are anxious to see their 
        initial effort succeed, so they actually invest more than 
        required in time, capital or equipment. This translates into 
        greater leveraging.
        <bullet> Recently RTI attracted $96 million in outside funds 
        through five industry partners.
        <bullet> The support of RTI's investment in upgrades to 
        business and physical infrastructure encourages private 
        commercial support in the form of contracting, distributorships 
        and joint ventures between U.S. and Russian firms, especially 
        in the Russian closed cities. These successes encourage other 
        industry partners to invest. Recently, Russian companies have 
        begun to invest in businesses in the closed cities.
        <bullet> RTI plans to continue to expand its outreach to U.S. 
        industry partners and is already cooperating with other USG 
        organizations such as the Overseas Private Investment 
        Corporation (OPIC) to help attract private investment.
        <bullet> Recently a Russian counterpart to the private USIC, 
        the National Industry Coalition, has been formed and will work 
        to expand Russian investment in these cooperative commercial 
        efforts.

    8. Senator Roberts. Secretary Abraham, how many FSU scientists are 
involved full time with RTI commercial projects?
    Secretary Abraham. Currently, 7,200 scientists, engineers, and 
technicians in Russia, Ukraine, and Kazakhstan are at work.
    Background: Russian Transition Initiatives includes Initiatives for 
Proliferation Prevention (IPP), which draws its numbers from work in 
Russia, Ukraine and Kazakhstan. Nuclear Cities Initiative (NCI) only 
works in Russia. IPP employs about 6,700 scientists and NCI employs 500 
scientists and technicians in commercial work, which totals 7,200.

      NATIONAL NUCLEAR SECURITY ADMINISTRATION/DOE SUPPORT IN IRAQ

    9. Senator Roberts. Secretary Abraham, in December 2002, the NNSA 
redirected $6 million of fiscal year 2003 DOE funds to provide 
technical support to the IAEA and the United Nations Monitoring, 
Verification and Inspection Commission (UNMOVIC) for weapons of mass 
destruction (WMD) inspections in Iraq. To date how much of the $6 
million has been spent and what kind of assistance have these funds 
provided?
    Secretary Abraham. In December 2002, $6 million was redirected by 
NNSA to support WMD inspections being conducted by the IAEA's Iraq 
Nuclear Verification Office (INVO) and the UNMOVIC, as mandated under 
U.N. Security Council Resolution 1441.
    As of March 1, 2003, approximately $780,000 had been expended to 
support inspections. These funds have been used to cover costs for 
technical, proliferation assessments by our national laboratories and 
for specialized equipment, software, and related technology for use by 
INVO and UNMOVIC. At this time, it is undetermined what the funding 
requirements will be in a post-war Iraq.

    10. Senator Roberts. Secretary Abraham, with the war in Iraq 
underway and the inspections suspended, what role do you anticipate 
NNSA will play now or in post-conflict Iraq?
    Secretary Abraham. It is well known that the Department of Energy 
is resident to hundreds of nuclear and other WMD specialists. We fully 
anticipate that the Department of Defense will call on our experts to 
assist with the identification and elimination of Iraq's WMD 
capabilities. Looking further down the road, we anticipate supporting 
any U.S. Government activities to provide long-term monitoring of Iraqi 
dual-use facilities and imports and exports. At this time, it is 
undetermined what the actual role will be in a post-war Iraq.

                        IRANIAN NUCLEAR PROGRAM

    11. Senator Roberts. Secretary Abraham, there has been a lot of 
attention recently on the status of the Iranian nuclear program, which 
appears to be permitted under the Nuclear Nonproliferation Treaty. In 
your opinion, based on what you know of the Iranian program, how much 
of a threat does this program pose compared to other nuclear programs 
in ``axis of evil'' countries?
    Secretary Abraham. Iran is actively developing a nuclear program 
and related facilities for, we believe, nuclear weapons purposes. These 
facilities were undeclared until recently and were declared only under 
intense international pressure. This program raises very serious 
questions about Iran's compliance with its Nuclear Non-Proliferation 
Treaty obligations. It poses serious dangers, and we will work with our 
partners in the International Atomic Energy Agency to ensure that Iran 
remains free of nuclear weapons.
    By comparison, it is a long-standing intelligence community 
assessment that North Korea has already produced one, possibly two, 
nuclear weapons. If it were to reprocess the currently stored spent 
fuel, North Korea could have enough plutonium for several more nuclear 
weapons. A North Korea with nuclear weapons is equally alarming 
especially since North Korea's program is further along in its 
development. North Korea has acknowledged having nuclear weapons and 
has threatened their export. The intent of the U.S. Government is to 
pursue a multilateral process that leads to the complete, verifiable 
and irreversible elimination of North Korean nuclear weapons 
capabilities.
    With regard to Iraq, we do not believe that Saddam Hussein ever 
abandoned his nuclear weapons ambitions. On the contrary, we believe 
that there are strong indications that right up to the end of the 
regime, Saddam remained determined to acquire nuclear weapons. In fact, 
DOE joined most agencies of the Intelligence Community in the 2002 
National Intelligence Estimate in the assessment that Iraq had 
reconstituted its nuclear weapons program.

         DOE NONPROLIFERATION BUDGET AND NON-MONETARY OBSTACLES

    12. Senator Roberts. Secretary Abraham, during my time on the 
Subcommittee on Emerging Threats and Capabilities, I have noted that 
U.S. nonproliferation programs require greater cooperation from Russia 
and other FSU partners to accelerate program goals. With this fiscal 
year 2004 budget, I believe the real challenge ahead will be non-
monetary obstacles, such as access and greater cooperation.
    This perspective is echoed in the March 2003 report, Controlling 
Nuclear Warheads and Materials, A Report Card and Action Plan, just 
completed by Harvard and the Nuclear Threat Initiative:

        the available budgets are now large enough, and the non-
        monetary obstacles substantial enough, that simply adding money 
        to existing programs, while making no other changes, would in 
        most cases do little to strengthen or accelerate these efforts.

    What is your view of this assessment, and how is the DOE addressing 
the challenges posed by ``non-monetary obstacles'' for the 
nonproliferation programs within DOE?
    Secretary Abraham. I agree with the assessment that non-monetary 
obstacles such as access and cooperation now limit our nonproliferation 
activities. Still, despite these obstacles, we continue to make solid 
progress in a number of areas.
    DOE's senior management meets frequently with Russian counterparts 
in the Russian Ministry of Atomic Energy (MinAtom) to review progress 
in overcoming obstacles. We have developed a ``scorecard'' for 
maintaining the visibility of all NNSA/MinAtom cooperation to ensure 
that it stays on track. The senior management of both agencies reviews 
it periodically. Also, as Secretary of Energy, I periodically have 
direct discussions with Russian Minister of Atomic Energy Rumyantsev to 
resolve issues such as access that thwart progress of nonproliferation 
programs.
    For example, in the area of MPC&A, we have made significant 
progress with MinAtom on access issues, especially at ``civilian'' 
facilities with less stringent access restrictions imposed by MinAtom. 
In fact, we are finishing work at the first large MinAtom fuel 
processing facility, the Luch facility, this spring. Luch was the site 
of the attempted theft of highly enriched uranium by a facility insider 
several years ago. We expect to complete at least two additional large 
MinAtom facilities next year (Novisibirsk and IPPE in Obninsk). 
Consequently, this part of our program is in the process of 
transitioning to the sustainability phase as upgrades are completed.
    Another area in our work that periodically confronts access 
difficulties is the Russian Transition Initiatives program. Since 
September 2002, the Nuclear Cities Initiative has enjoyed access to all 
three of the closed cities with which it works, without any problems. 
Under the Implementing Arrangements on Access, negotiated in 2002, work 
continues to proceed and access is being granted. One trip to Sarov 
took place recently, and trips appear to be approved as requested. That 
said, access is not unlimited. NCI and MinAtom do negotiate specific 
numbers of visits to the cities per year, and NCI agrees to operate 
under that ceiling. Requests for amending the number of visits to a 
city can be made by an exchange of letters every 6 months.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard

                      CONGRESSIONAL AUTHORIZATION

    13. Senator Allard. Secretary Abraham, to help clarify the record, 
is further congressional authorization required before the DOE-NNSA can 
begin design or production of a new nuclear weapon?
    Secretary Abraham. Neither full scale development nor production of 
new nuclear weapons could proceed unless Congress authorizes and 
appropriates the necessary funds. Further, section 3143 of Public Law 
107-314, the Fiscal Year 2003 Defense Authorization Act, requires the 
Department of Energy to request funds in the President's budget for the 
development or production of a new nuclear weapon. The budget entry is 
specified as a single dedicated line item for each such activity that 
is in phase 3 or higher for new nuclear weapons, or phase 6.3 or higher 
for weapons refurbishment. These phases correspond to final design work 
phases and onward.

    14. Senator Allard. Secretary Abraham, is further congressional 
authorization required before DOE-NNSA can begin design or production 
of a precision low yield nuclear weapon?
    Secretary Abraham. Yes. Congress would have to repeal the 
prohibition against research and development of new low yield weapons, 
Section 3136 of Public Law 103-160, as the administration has 
requested. Additionally, design or production of a precision low yield 
nuclear weapon would be subject to the requirements of Section 3143 of 
Public Law 107-314, that apply to development and production of new 
nuclear weapons and to weapon modifications, if such modifications are 
in order to meet new military requirements.

    15. Senator Allard. Secretary Abraham, is further congressional 
authorization required before DOE-NNSA can begin production of the 
Robust Nuclear Earth Penetrator?
    Secretary Abraham. Neither full scale development nor production of 
the Robust Nuclear Earth Penetrator could begin unless Congress 
authorizes and appropriates the necessary funding.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

               STRATEGIC PETROLEUM RESERVE FILL SCHEDULE

    16. Senator Levin. Secretary Abraham, in the spring of 2002, the 
DOE determined to no longer permit deferrals of scheduled deliveries of 
oil to the Strategic Petroleum Reserve (SPR). This decision, which was 
publicly announced by the Secretary of Energy on April 9, 2002, was a 
reversal of the practice employed during 2000 and 2001, which allowed 
deferrals of SPR deliveries when oil prices were rising or oil supplies 
were tightening, in exchange for deliveries of additional amounts of 
oil at a later time.
    On March 5, 2003, I released a report prepared by my staff on the 
Permanent Subcommittee on Investigations (PSI) of the U.S. Senate 
Committee on Governmental Affairs, showing how this new policy to fill 
the SPR, regardless of the price of oil, helped to increase oil prices 
without increasing overall U.S. oil supplies.
    Documents provided by DOE indicate that, during the spring and 
summer of 2002, DOE's SPR office repeatedly urged the Department to 
return to the previous fill policy. For example, in a document dated 
June 11, 2002, the SPR office advocated restoring the previous policy 
of allowing deferrals of SPR deliveries as follows:

        Since the prior business model for oil acquisition is 
        financially superior to the current model, works counter to 
        economic cycles, is familiar to contractors, is favored for 
        logistics reasons, is in tune with legislative mandates, and 
        allows the government to take positive action when consumers 
        are distressed by oil prices, the SPR office recommends 
        reconsideration of the decision not to renegotiate delivery 
        dates of SPR oil.

    The document also states: ``Champions of the current policy are 
unknown and there is no known record laying out arguments in support of 
a rigid fill schedule.''
    Please identify the ``champions'' who advocated adoption of the new 
SPR fill policy.
    Secretary Abraham. It is my responsibility to determine SPR oil 
acquisition policy and approve implementation strategies. I seek the 
advice of DOE staff and other members of the administration as 
circumstances dictate.

    17. Senator Levin. Secretary Abraham, please provide the arguments 
made in the spring of 2002 in support of a ``rigid fill schedule.''
    Secretary Abraham. In the spring of 2002, I determined to take 
deliveries as contractually scheduled in order to fill the SPR at a 
reasonable rate for the purpose of increasing our energy security. Our 
policy towards SPR fill is not rigid. Had circumstances been different, 
we had and have the flexibility to defer or otherwise modify fill 
schedules.

    18. Senator Levin. Secretary Abraham, please explain why the 
identity of the proponents of the new SPR fill policy and the arguments 
they used to advocate this new policy were not disclosed to the career 
staff of DOE's SPR office.
    Secretary Abraham. In large organizations, decisionmakers are 
supported by numerous experts and advisors. Ideally, information flows 
in both directions during the course of resolving issues. As a 
practical matter, given time pressures and other factors, this does not 
always occur.

    19. Senator Levin. Secretary Abraham, please confirm whether you 
were the individual who made the final decision, publicly announced on 
April 9, 2002, not to permit any more deferrals of deliveries of oil 
into the SPR.
    Secretary Abraham. I did make the decision to take deliveries as 
contractually scheduled, as I announced on April 9, 2002.

                      SPR OIL DEPOSITS/OIL PRICES

    20. Senator Levin. Secretary Abraham, in response to the PSI 
minority staff report, the Deputy Secretary of Energy issued a 
statement noting that the average daily deposit of oil into the SPR in 
2002 represented only 0.14 percent global daily supply, and a DOE 
spokesman was quoted as saying the amount of oil put into the SPR is 
``a drop in the bucket.''
    In contrast, however, career staff in DOE's SPR office have written 
that the SPR daily fill rate can have a significant impact upon the 
price of oil. One memorandum prepared by the SPR office in the spring 
of 2002, for example, explicitly refutes claims that SPR deposits 
involve ``inconsequential volumes'' of oil:

        [I]f the SPR inventory grows and OPEC does not accommodate that 
        growth by exporting more oil, the increase comes at the expense 
        of commercial inventories. Most analysts agree that oil prices 
        are directly correlated with inventories, and a drop of 20 
        million barrels over a 6-month period can substantially 
        increase prices. (Memorandum titled, ``Options for Filling the 
        Strategic Petroleum Reserve,'' reprinted in PSI minority staff 
        report, Appendix 3, page 246.)

    What are your views regarding whether the SPR oil deposits in 2002 
and 2003 affected U.S. oil prices?
    Secretary Abraham. It is administration policy to use the SPR only 
in emergency supply situations or for national security reasons, not to 
influence market prices. However, price is determined by the interplay 
of supply and demand. On the demand side, the acquisition of oil for 
the SPR is one of many demand variables. The SPR acquisition rates 
during all of 2002 were modest, especially when compared to marginal 
demand associated with weather extremes or the decline of demand from 
the airline industry in the wake of the September 11, 2001, disaster.
    Demand fluctuations overall during 2002, however, were small 
compared with volatility of supply. Delays in renewing the Iraqi oil-
for-food program would periodically reduce supply by 2 million barrels 
per day. Hurricanes in the Gulf of Mexico caused production platforms 
to be evacuated in the fall of 2002, and a strike in Venezuela starting 
on December 1, 2002, stopped over 3 million barrels per day of 
production. Most importantly, the Organization of Petroleum Exporting 
Countries (OPEC) maintained excess production capacity of 4-5 million 
barrels per day through most of 2002. To the extent prices were 
volatile during 2002, that characteristic of the market was driven by 
fluctuations in supply and adherence to production quotas by member 
countries of OPEC, not by SPR oil acquisition.
    High prices during the first quarter of 2003 were associated with 
the Venezuelan strike and concern for war in Iraq. However, the 
decision by OPEC to increase its quota in 2002 and the fulfilled 
promise of extra production by Saudi Arabia in 2003 reduced prices 
substantially. SPR oil acquisition in 2002 has been minimal and has had 
no influence on prices.

    21. Senator Levin. Secretary Abraham, if SPR oil deposits are too 
inconsequential to affect oil prices, please explain why DOE decided to 
defer scheduled deliveries of oil to the SPR for the past several 
months.
    Secretary Abraham. Starting on December 1, 2003, Venezuelan oil 
production was curtailed due to a general strike. Venezuela is one of 
the largest sources of U.S. petroleum imports, and due to its location 
the shipping time for Venezuelan oil to reach the United States is only 
a few days. Virtually all of the world's excess production capacity is 
in the Persian Gulf, replacement oil for the lost Venezuelan oil was 40 
days away from the United States. Once it became apparent that the 
Venezuelan strike would be prolonged, more oil was produced and shipped 
from the Persian Gulf region for the U.S. Gulf Coast. Nevertheless, due 
to the lengthy transit time, it was prudent to temporarily reduce SPR 
demand for oil in the Gulf Coast in order not to aggravate what was a 
transient regional problem.

                 SPR FILL RATE AND THE U.S. OIL SUPPLY

    22. Senator Levin. Secretary Abraham, the attached chart shows, 
using DOE/Electronics Industry Association (EIA) data, that U.S. crude 
oil supply and demand are closely balanced. It shows that, since 1986, 
the average daily change in U.S. commercial inventories has been only 
about 50,000 barrels per day, and the largest daily change occurred in 
1999, when U.S. commercial inventories lost an average of 110,000 
barrels per day over the course of the year.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    In light of these 17 years of data, what are your views regarding 
the extent to which an SPR daily fill rate, which, over the course of 
2002, took an average of 135,000 barrels per day of crude oil out of 
the U.S. commercial marketplace, affected available commercial oil 
supplies and U.S. commercial oil inventory levels?
    Secretary Abraham. In general, it is in the interest of the world's 
exporting countries with excess production capacity to match production 
to demand in a price range that allows sustained economic growth. 
Exporting countries are indifferent to the sources of demand, whether 
for industry, transportation or strategic stockpiling. Consequently, as 
long as SPR fill is moderate and consistent it probably has no more 
than transient impacts on commercial inventories.

    23. Senator Levin. Secretary Abraham, would you agree that an SPR 
fill rate that may be insignificant if it lasts for a short period of 
time, such as a few days, may become significant if continued over a 
longer period of time, such as an entire year, if overall oil supplies 
do not increase during that period?
    Secretary Abraham. If supply were inflexible and other sources of 
demand for oil were inflexible, then by definition any marginal demand 
increase must come out of inventory. Whether a change in commercial 
inventory is significant or not will depend upon whether industry can 
meet commercial demand. During 2002-2003, despite SPR fill, the 
Venezuelan strike, an extremely long winter, the disruption of Nigerian 
exports, and the war in Iraq, industry has been able to satisfy all 
demand for refined products.

                 IMPACT OF AN OIL RELEASE FROM THE SPR

    24. Senator Levin. Secretary Abraham, in an interview broadcast on 
National Public Radio on March 7, 2003, Dr. Philip Verleger, a leading 
oil economist, was asked why U.S. oil supplies were so low. Dr. 
Verleger replied:

        Venezuela is one reason, but as a U.S. Senate Committee pointed 
        out Wednesday, the U.S. Government was filling the Strategic 
        Petroleum Reserve last year as prices were rising. By my 
        estimate, had the U.S. Government not filled the U.S. Strategic 
        Petroleum Reserve or returned the 20 million barrels they'd put 
        in back to the market, prices right now would be around $28 a 
        barrel instead of $38 a barrel and gasoline prices might be 25 
        to 35 cents lower.

    Dr. Verleger has just released an analysis with similar findings. 
This analysis, which is attached, finds that modest releases of oil 
from the SPR last December and January to compensate for the loss of 
oil from Venezuela would have increased U.S. commercial inventories 
enough to have kept crude oil prices as much as $9 per barrel lower, 
and gasoline and heating oil prices almost 30 cents lower. What is 
DOE's reaction to Dr. Verleger's analysis?
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Secretary Abraham. There is no question that there is enough 
inventory in the Strategic Petroleum Reserve that the Government could 
influence short-term oil prices dramatically if it chose to do so. 
However, in the long run, allowing regular Government market 
interventions would have a detrimental impact on market discipline; 
marginal production would fail to materialize; consumers would not 
constrain their energy use; and Government competition would discourage 
private sector inventory accumulation. It is the policy of this 
administration that a free market best allocates resources, and that 
the SPR will only be used in the event of a severe energy supply 
interruption of an emergency nature.

                          SPR DEFERRAL POLICY

    25. Senator Levin. Secretary Abraham, in light of its decisions 
over the past few months to defer scheduled deliveries of oil to the 
SPR, please describe DOE's current SPR deferral policy, including 
whether it has abandoned the no-deferral policy announced in the spring 
of 2002; whether it has restored the prior policy of allowing SPR 
deferrals when oil prices are rising or oil supplies are tightening, in 
exchange for deliveries of additional oil at a later time; or whether 
it has developed new criteria to determine when to grant a request to 
defer a scheduled SPR delivery.
    Secretary Abraham. The policy of the administration is to fill the 
SPR deliberately and cost-effectively, principally through royalty-in-
kind transfers, to its capacity of 700 million barrels by the end of 
2005. The Department of Energy will consider all of the objectives 
contained in the Energy Policy and Conservation Act for consideration 
during the acquisition process. Specifically, the Department will seek 
to minimize cost, minimize the Nation's vulnerability to a severe 
energy supply interruption, minimize impacts on supply levels and 
market forces, and encourage competition in the petroleum industry. It 
will be our policy to transfer approximately 130,000 barrels of crude 
oil per day from the Department of the Interior to the Department of 
Energy until Reserve capacity is filled. If continuing SPR fill 
impinges on these statutory objectives, we will consider deferring 
deliveries.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy

   BERYLLIUM-EXPOSED WORKERS EMPLOYED BY DEPARTMENT OF ENERGY VENDORS

    26. Senator Kennedy. Secretary Abraham, the Fiscal Year 2003 
Consolidated Appropriations Act required the Department of Energy to 
start an outreach and medical screening program for beryllium-exposed 
workers employed by Department of Energy vendors in the Worcester, 
Massachusetts, area through an existing medical screening program. When 
do you plan to commence this screening and outreach program?
    Secretary Abraham. Planning has started for the new beryllium 
screening and outreach project for beryllium vendor employees in the 
Worchester, Massachusetts, area. The project will be implemented 
through one of DOE's existing Former Worker Program project teams 
located in Boston. Existing facility records at DOE Headquarters have 
been located and provided to the project team to assist it in preparing 
a proposed plan and budget. It is anticipated that outreach will 
commence this summer and medical screening for beryllium exposures will 
be initiated before the end of the fiscal year.

    27. Senator Kennedy. Secretary Abraham, will you use an existing 
former worker medical screening program in order to expedite the 
implementation of this program?
    Secretary Abraham. Yes, an existing Former Worker Program project 
team led by Boston University will implement the new beryllium outreach 
and medical screening program.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

   NUCLEAR POSTURE REVIEW, U.S. STOCKPILE, AND WARHEAD DISMANTLEMENT

    28. Senator Akaka. Secretary Abraham, you indicated during your 
testimony that you would provide additional information regarding the 
administration's plans to dismantle warheads. Please also provide, in 
round numbers, what percentage or how many of the warheads will be 
dismantled that will be removed from strategic launchers by virtue of 
the Moscow Treaty or the decision of the administration to have only 
3,800 ``operationally deployed'' strategic warheads by 2008.
    Secretary Abraham. Some warheads are likely to be retired and 
dismantled as a result of the administration's plans to reduce the 
number of operationally deployed strategic warheads to no more that 
3,800 by the end of 2007 and between 1,700 and 2,200 by the end of 
2012, but that determination has not yet been made beyond reaffirming 
the earlier decision to retire the W62 warhead by 2009. [Deleted]. The 
Department of Energy will work with the Department of Defense to set 
appropriate dismantlement rates once warheads excess to national 
security requirements are identified.

    29. Senator Akaka. Secretary Abraham, you indicated during your 
testimony that there is a trade-off between the work involved for 
dismantling weapons and the work involved in maintaining or 
refurbishing weapons. The Department's fiscal year 2004 budget includes 
a $12.9 million increase over the fiscal year 2003 budget for 
dismantlement work. Could you please list the nuclear weapons 
disassembly history from fiscal year 1996 to fiscal year 2002 at the 
Pantex Plant. Please include for each fiscal year: a) the total number 
of weapons disassembled for disposal; b) total weapons disassembled for 
evaluation and then disposed of; c) the total number of weapons 
disassembled and then reassembled; and d) the total number 
disassembled.
    Secretary Abraham.

----------------------------------------------------------------------------------------------------------------
                                                                           Fiscal Year
                                               -----------------------------------------------------------------
                                                  1996     1997     1998     1999     2000      2001      2002
----------------------------------------------------------------------------------------------------------------
Disassembled for disposal.....................      992      445    1,003      165  Deleted   Deleted   Deleted
Disassembled for evaluation and then disposed        72       53       59       42  Deleted   Deleted   Deleted
 of...........................................
Disassembled and then reassembled \1\.........       86      114       84       23  Deleted   Deleted   Deleted
Total disassembled............................    1,150      612    1,146      230  Deleted   Deleted   Deleted
----------------------------------------------------------------------------------------------------------------
\1\ Some warheads are disassembled in 1 year and then reassembled in a future year. ``Disassembled and then
  reassembled'' numbers are those reported as ``rebuild'' for the appropriate year.


    30. Senator Akaka. Secretary Abraham, please list all projected 
disposal efforts by weapons program and projected start and end dates.
    Secretary Abraham.

        <bullet> W-79 (Artillery-Fired Atomic Projectile)
          Disassembly began in fiscal year 1998 and was completed in 
        January 2003.
        <bullet> W56 (Minuteman II warhead)
          Disassembly began in fiscal year 2000 and will be complete in 
        fiscal year 2005.
        <bullet> B61-3/4 (Non-strategic bomb)
          Disassembly of a small number of excess units planned for 
        fiscal year 2004-2005. 
        <bullet> B53 (Strategic bomb)
          Disassembly planned for fiscal year 2006-2007.

    Additional warheads are likely to be retired and dismantled as a 
result of the Nuclear Posture Review, but that determination has not 
yet been made beyond reaffirming the earlier decision to retire the W62 
warhead by 2009. The Department of Energy will work with the Department 
of Defense to set appropriate dismantlement rates once warheads excess 
to national security requirements are identified.

    31. Senator Akaka. Secretary Abraham, please list projected 
refurbishments by warhead type and projected start and end dates.
    Secretary Abraham. The DOE is presently working on four major Life 
Extension Programs (LEPs)--the B61, W76, W80, and W87. This will 
design, build, test, and install new subsystems and components, thereby 
extending the operational service for these warheads for some 30 years.

        W87 Intercontinental Ballistic Missile Warhead: The LEP is 
        enhancing structural integrity of the warhead. To date more 
        than 3/4 of the warheads have gone through the process.
        Start: First Production Unit in second quarter fiscal year 1999
        End: fourth quarter fiscal year 2004

        B61-7/11 Strategic Bomb: The LEP is refurbishing the canned 
        subassembly.
        Start: Phase 6.3 (Development Engineering) authorized first 
        quarter fiscal year 2003
        End: First Production Unit in third quarter fiscal year 2006 (4 
        year production program that is currently scheduled to end 
        fourth quarter fiscal year 2010)

        W76 Submarine-Launched Ballistic Missile Warhead: The LEP is a 
        comprehensive overhaul of the warhead.
        Start: Phase 6.3 (Development Engineering) authorized second 
        quarter fiscal year 2000
        End: First Production Unit in fourth quarter fiscal year 2007 
        (production of a Block 1 quantity to be completed by fourth 
        quarter fiscal year 2012)

        W80 Air Launched Cruise Missile and Advanced Cruise Missile 
        Warhead: The LEP will replace various warhead components and 
        incorporate surety upgrades.
        Start: Phase 6.3 (Development Engineering) in first quarter 
        fiscal year 2001
        End: Program being rebaselined from a second quarter fiscal 
        year 2006 First Production Unit to a new start date that could 
        occur as early as third quarter fiscal year 2007 for the W80-3 
        warhead (the production of a Block 1 quantity of warheads would 
        continue for 5 years)

    In addition to these major efforts, DOE is carrying out a number of 
smaller-scale alterations to the B61, B83, W78, and W87 warheads.

    32. Senator Akaka. Secretary Abraham, in 1991 Presidents Bush and 
Gorbachev announced they would take unilateral but reciprocal steps to 
consolidate and eliminate, in some cases, their tactical nuclear 
weapons. In the administration briefings on President Bush's decisions, 
officials stated that 850 Lance missile and 1,300 nuclear artillery 
warheads would be eliminated. In addition, 900 B-57 depth bombs would 
be eliminated. Please provide an unclassified list of the warhead types 
covered by President Bush's 1991 pledge, the date dismantlement began 
for each warhead type, the date dismantlement was or will be completed, 
and the number of warheads dismantled.
    Secretary Abraham. President George H.W. Bush, in his September 27, 
1991, Address to the Nation on Reducing United States and Soviet 
Nuclear Weapons, stated: ``I am therefore directing that the United 
States eliminate its entire worldwide inventory of ground-launched 
short-range, that is, theater nuclear weapons. We will bring home and 
destroy all of our nuclear artillery shells and short-range ballistic 
missile warheads.''
    Warhead types covered by President Bush's pledge:

------------------------------------------------------------------------
                                               Dismantlement
                Warhead Type                    Dates (FY)     Quantity
                                                   1992
------------------------------------------------------------------------
W33 (Artillery-Fired Atomic Projectile).....            1992         554
W48 (Artillery-Fired Atomic Projectile).....       1992-1996         737
W70 (Lance Missile Warhead).................       1992-1997       1,138
W79 (Artillery-Fired Atomic Projectile).....       1998-2003        \1\
------------------------------------------------------------------------
\1\ Dismantlements in fiscal year 2000 and beyond are classified
  Confidential Formerly Restricted Data. The W79 data will be provided
  separately.

    While not explicitly pledged to be destroyed as part of President 
Bush's 1991 announcement, the Department of Energy dismantled in excess 
of 900 B57 bombs (all were able to be configured as depth bombs) in 
fiscal year 1992-1996.

    33. Senator Akaka. Secretary Abraham, please provide a list of 
warhead concepts currently being worked on at DOE and the national 
labs.
    Secretary Abraham. RNEP is the only warhead concept currently 
planned for work at the national labs in fiscal year 2003-2004.

         ROBUST NUCLEAR EARTH PENETRATOR AND LOW-YIELD WEAPONS

    34. Senator Akaka. Secretary Abraham, what kinds of assurance can 
you provide that either a Robust Nuclear Earth Penetrator (RNEP) or 
low-yield weapon could be used in an urban area to attack a buried 
hardened target without causing substantial collateral damage?
    Secretary Abraham. The use of nuclear weapons is a Department of 
Defense matter. It would be inappropriate for me to comment on this 
issue. 

    35. Senator Akaka. Secretary Abraham, low-yield nuclear warheads 
are commonly defined as those warheads with an explosive power of less 
than five kilotons. Does the U.S. currently have operational nuclear 
weapons that can have yields of five kilotons or less?
    Secretary Abraham. The U.S. has two existing nuclear weapons that 
have certified yields of less than five kilotons.

    36. Senator Akaka. Secretary Abraham, will either a RNEP weapon, 
new low-yield weapon, or a modified low-yield nuclear weapon require 
nuclear testing?
    Secretary Abraham. As currently conceived, RNEP will not require 
any nuclear testing. We are confident that with simulation and use of 
our past test data, we could design and certify a variety of new or 
modified low yield weapons without requiring nuclear testing.

    37. Senator Akaka. Secretary Abraham, Dr. Everet Beckner of the 
NNSA testified last year that the RNEP concept resulted from a Joint 
Requirements Oversight Council (JROC) validated requirement. Please 
list all JROC validated requirements post 1996 for advanced concepts 
involving nuclear weapons by date with a brief description.
    Secretary Abraham. The JROC is a Department of Defense 
organization. We receive such requirements through the Nuclear Weapons 
Council. The only such requirement since 1996 has been RNEP.

    38. Senator Akaka. Secretary Abraham, on a related note, are there 
any validated requirements from the Nuclear Weapons Council for a new 
or modified weapon that would produce a yield of five kilotons or less?
    Secretary Abraham. There are currently no validated requirements 
for a new or modified nuclear warhead with a yield of five kilotons or 
less, and the 1994 prohibition on research and development of low yield 
warheads prevents DOD from developing requirements for low yield 
nuclear warheads.

                  U.S. AND FOREIGN PRODUCTION CAPACITY

    39. Senator Akaka. Secretary Abraham, can the Los Alamos facility 
be adapted to fabricate all the pit types for the current stockpile?
    Secretary Abraham. An upgraded facility could be adapted to 
manufacture most, but not all, pit types in the current stockpile. 
However, an upgraded LANL facility would not have the production 
capacity required or agility to simultaneously manufacture multiple pit 
types. Both capacity and agility in pit manufacturing are required to 
meet long-term national security needs.

    40. Senator Akaka. Secretary Abraham, what is the validated 
military requirement for annual pit production?
    Secretary Abraham. The DOD does not establish a validated military 
requirement for annual pit production, but does determine the number/
types of stockpiled nuclear weapons required. Based on these DOD 
requirements, the DOE then determines the annual pit production 
necessary to ensure that stockpiled nuclear weapons meet national 
security needs. Today, there is a need for additional pits for W88 to 
replace those used for destructive surveillance.

    41. Senator Akaka. Secretary Abraham, you testified today that 
several countries have the ability to produce plutonium pits for a 
nuclear warhead, a capability the U.S. has lacked since 1989. Which 
other countries have this capability, and, if so, are they utilizing 
it?
    Secretary Abraham. Russia, China, India, Pakistan, and North Korea 
have the capability to produce plutonium [deleted] nuclear warheads. 
All are assessed to be utilizing or [deleted] their plutonium pit 
production capabilities.

        <bullet> Russia is likely remanufacturing pits today for its 
        existing nuclear weapons stockpile using previously produced 
        plutonium.
        <bullet> Likewise, China is likely producing pits from 
        previously produced plutonium in its development of next-
        generation nuclear weapons.
        <bullet> Although [deleted] compared with Russia's and China's, 
        India and Pakistan [deleted] plutonium for their nuclear 
        weapons and [deleted].
        <bullet> [Deleted], North Korea is likely preparing to recover 
        existing plutonium [deleted] and, once in hand, [deleted] 
        manufacture pits for [deleted] nuclear weapons.

    42. Senator Akaka. Secretary Abraham, you answered in the 
affirmative today to a question about whether North Korea has an 
ability to produce plutonium primaries. Is it the position of the DOE 
that North Korea has a facility for the serial production of plutonium 
primaries? Does the CIA agree with the DOE position?
    Secretary Abraham. Since this question pertains to intelligence 
sources and methods, I am unable to answer it in an unclassified 
context.

    43. Senator Akaka. Secretary Abraham, is it the position of the DOE 
that North Korea has produced one or more plutonium primaries? Does the 
CIA agree with the DOE position?
    Secretary Abraham. Since this question pertains to intelligence 
sources and methods, I am unable to answer it in an unclassified 
context.

                                 RUSSIA

    44. Senator Akaka. Secretary Abraham, some people have proposed 
importing spent nuclear fuel from around the world into Russia. They 
have argued that the proceeds from this would allow Russia to pay for 
needed security and environmental improvements. Before this project can 
be implemented, however, the U.S. needs to sign an agreement on the 
Peaceful Uses of Atomic Energy with Russia. Please tell us about the 
status of negotiations with Russia on signing such an agreement.
    Secretary Abraham. According to the Atomic Energy Act of 1954, the 
United States must enter into an agreement for cooperation before it 
may engage in significant nuclear cooperation with another nation. The 
transfer of U.S. obligated spent fuel to Russia constitutes significant 
nuclear cooperation and would thus require an agreement for cooperation 
between the United States and Russian Federation. The Department of 
State negotiates such agreements with the technical assistance and 
concurrence of the Department of Energy. However, there are no ongoing 
negotiations between the United States and Russian Federation to 
conclude an agreement for cooperation. The administration has made 
clear that we will not negotiate a nuclear cooperation agreement with 
Russia under the Atomic Energy Act until our concerns about Russian WMD 
and missile proliferation are resolved.

    45. Senator Akaka. Secretary Abraham, at the Non-Proliferation 
Treaty Preparatory Committee (NPT PrepCom) in 2002, Russian officials 
said the implementation of the Russian commitments under the 1991 Bush-
Gorbachev Presidential Nuclear Initiatives could be completed soon if 
there were adequate funding. If so, this would be significant as it 
would mean that Russia would dismantle all of its ground forces 
weapons--smaller nuclear artillery shells, nuclear mines, and short-
range missile warheads--which are the types of nuclear weapons of the 
highest concern from a security standpoint. Since the NPT PrepCom, has 
the administration had formal or informal discussions with Russian 
officials about how much funding would be needed to assist Russia with 
finishing the implementation of its 1991 pledges? If so, what level of 
funding would be needed?
    Secretary Abraham. I share your concern about fully implementing 
the 1991-1992 Presidential Nuclear Initiatives. Using Nunn-Lugar 
funding and other funding, the National Nuclear Security Administration 
is extensively involved in cooperation with Russia to enhance the 
security of Russian nuclear warheads, however the funding is not used 
to enhance the operational capabilities of Russian nuclear forces.
    At the May 2002 Moscow Summit, Presidents Bush and Putin 
established the Consultative Group for Strategic Security (CGSS) in 
addition to signing the Moscow Treaty. The CGSS is chaired by the 
Foreign and Defense Ministers of the United States and Russia, as the 
principal mechanism through which the sides strengthen mutual 
confidence, expand transparency, share information and plans and 
discuss a broad range of strategic issues of mutual interest. The 
initial meeting of the CGSS took place in September 2002, and resulted 
in the creation of three working groups: Working Group One on Offensive 
Nuclear Transparency, Working Group Two on Missile Defense Cooperation, 
and Working Group Three on Nonproliferation.
    Working Group One has met twice this year in Geneva. The U.S. focus 
has been to build confidence in a spirit of cooperation by presenting a 
positive long-term vision and emphasizing near-term transparency. As 
Secretaries Powell and Rumsfeld mentioned during their testimony on the 
Moscow Treaty and to their Russian counterparts in the CGSS, the United 
States has a strong interest in transparency related to tactical 
nuclear weapons, and in reducing uncertainties about their safety and 
security and implementation of the Presidential Nuclear Initiatives. 
The issue of transparency of tactical nuclear weapons has been under 
discussion during the Working Group One meetings this year.

    46. Senator Akaka. Secretary Abraham, a significant non-
proliferation problem is to guarantee Russian nuclear scientists remain 
safely employed in Russia. One avenue to do this is to involve them in 
commercial projects. Do you believe, however, there is non-commercial 
work these scientists could be involved in, such as energy and 
environmental research?
    Secretary Abraham. We believe that finding employment for Russian 
weapons scientists in Russia benefits from multiple approaches. 
Although supporting commercial projects is an important component of 
our effort, there are non-commercial opportunities as well. For 
example, DOE's Russian Transition Initiatives is participating in a 
multilateral effort coordinated by the International Science and 
Technology Center in Moscow to engage Russian nuclear scientists in 
fuel cell research, an important component of the administration's 
energy agenda. In addition to energy and environmental projects, there 
are non-commercial opportunities in nonproliferation research and in 
securing and eliminating weapons grade materials.

    47. Senator Akaka. Secretary Abraham, do you believe the Nuclear 
Cities Initiative (NCI) component of the Russian Transition Initiatives 
(RTI) program should move beyond the three Russian nuclear cities where 
it is currently focused?
    Secretary Abraham. Yes. The Nuclear Cities Initiative should build 
on its success in closing the weapons assembly facility at Avangard and 
begin assisting the Russian Government in shutting down a second 
weapons assembly facility in Zarechny (Penza-19). NCI should also 
expand its efforts to Seversk (Tomsk-7) to complement the efforts of 
the Elimination of Weapons Grade Plutonium Production project. Finding 
alternative civilian employment for the downsized workforce has been 
identified as a critical factor in that project's ultimate success. I 
believe that with additional funding, NCI can achieve accelerated 
results in both these cities because it can readily adapt the 
successful models developed in Sarov, Snezhinsk, and Zheleznogorsk.

    48. Senator Akaka. Secretary Abraham, do you think NCI and the 
Initiatives for Proliferation Prevention (IPP) should devote more 
attention and resources to downsizing and scientist/worker re-direction 
at the closed cities of Zarechny (Penza-19; especially the warhead 
assembly/disassembly plant) and Ozersk (Mayak)?
    Secretary Abraham. Zarechnyy is the second weapons assembly 
facility the Russians have indicated a desire to close, although we 
have not yet reached agreement with them on NCI work in that city. I 
believe that it is important for NCI, which is the downsizing component 
of our Russian Transition Initiative, to devote attention and resources 
to Zarechnyy, now that Avangard is no longer doing nuclear weapons 
work. With the closure of Zarechnyy, the Russians will have only two 
weapons assembly plants, a more appropriate level for the post-Cold War 
environment and one which reduces the surge capacity of the Russian 
nuclear complex. Because considerable U.S. funding is being provided to 
Ozersk by other nonproliferation programs, that city is not a priority 
for either NCI or IPP.

    49. Senator Akaka. Secretary Abraham, do you support a global 
``clean-out'' of highly-enriched uranium (HEU) stocks at facilities 
that pose security risks--in particular, do you support creating a 
single, focused program at the Department of Energy consolidating the 
U.S. Government's resources, authority, and expertise to remove HEU 
from the world's most vulnerable sites as rapidly as possible?
    Secretary Abraham. The Harvard-NTI Report recommended a new 
initiative along these lines to secure HEU worldwide as rapidly as 
possible. We have carefully considered this recommendation and 
concluded such an initiative is not necessary.
    Under the 1993 HEU Purchase Agreement with Russia, we have already 
eliminated over 170 metric tons (MT) of the 500 MT expected to be 
eliminated under this program. Other programs, such as the Accelerated 
Materials Disposition (AMD) and the Reduced Enrichment Research Test 
Reactor and Russian Research Reactor Fuel Return Program, will secure 
more HEU in the years ahead. We are working with the IAEA and Russia to 
secure HEU supplied to Russian and Soviet-supplied reactors. We have 
made special efforts, such as that directed at the Vinca reactor in 
Yugoslavia, to remove the HEU of greatest concern.
    In our view, the administration's current plans to prioritize 
reducing and eliminating stockpiles based on where they pose the 
greatest threat is the most cost-effective and efficient approach to 
lowering the threat of weapons of mass destruction to the United 
States.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

                      PROTECTION OF SEALED SOURCES

    50. Senator Clinton. Secretary Abraham, unfortunately, radioactive 
materials that can be used to make a ``dirty bomb''--known as ``sealed 
sources''--are currently also used in a wide array of beneficial 
applications in the U.S., including in hospitals, research 
laboratories, food irradiation plants, oil drilling facilities, and 
airport runway lighting.
    In the heightened state of alert that we now find ourselves, we 
need to ensure that these sealed sources are adequately protected 
against theft and nefarious activity. Senator Gregg and I have 
introduced the Dirty Bomb Prevention Act, legislation that would help 
provide such protections and do more to track sealed sources, recover 
any sources that are lost, and ensure that sealed sources are handled 
in a safe and secure manner so that they do not fall into the wrong 
hands--either at home or overseas.
    I know the U.S. recently co-sponsored and you participated in an 
IAEA Conference on the Security of Radioactive Sources. At the 
conference, you stated, ``It is our critically important job to deny 
terrorists the radioactive sources they need to construct such weapons. 
. . . Radioactive sources can be found all over the world, and 
terrorists are seeking to acquire them. The threat they represent to 
people of every nation is very real.'' Do you agree that the Federal 
Government should be doing more domestically to ensure that these types 
of radioactive material--these sealed sources--are adequately protected 
against theft and possible nefarious activity?
    Secretary Abraham. While terrorist use of radioactive materials or 
sealed sources does not threaten the massive destruction of a nuclear 
explosion, it does pose a potentially serious threat to public health 
and safety. I believe that the U.S. should pursue a vigorous effort to 
protect radioactive materials and sealed sources against theft or 
misuse. In fact, both the Department and the NRC have been using our 
existing authority to pursue such an effort.
    Shortly after the events of September 11, 2001, the Chairman of the 
Nuclear Regulatory Commission and I formed an interagency working group 
to address this issue. The Department and the Nuclear Regulatory 
Commission released a comprehensive report on Radiological Dispersal 
Devices on May 14, 2003. That report identified several areas where we 
can accelerate our efforts, including:

        <bullet> Identification of the radiological sources of greatest 
        concern and the development of a national threat policy to 
        guide government actions to prevent terrorist use of 
        radioactive materials.
        <bullet> Consideration of a national tracking system for sealed 
        sources, with more extensive use of existing databases as an 
        interim measure. 
        <bullet> An integrated approach to the recovery and disposition 
        of unneeded sealed sources.

    The NRC oversees the disposal of the majority of sealed sources 
used domestically, most of which can be safely disposed at commercial 
sites. The Department of Energy is responsible for the disposal of a 
relatively small amount of radioactive material, which exceeds the 
upper limit for commercial disposal. The Department is working closely 
with the Nuclear Regulatory Commission to aggressively recover and 
store unneeded sources from licensees where commercial disposal is not 
available.

    51. Senator Clinton. Secretary Abraham, there are institutions in 
New York State--and throughout the country--that are waiting for the 
DOE to accept these used, sealed sources for appropriate storage under 
the Department's Off-Site Source Recovery Program. In response to an 
inquiry, your Department sent me a letter in August 2001 stating, 
``Limited safeguards and security issues continue to impact our ability 
to accept Plutonium 239 sources. There are several hundred such sources 
around the county that could be stored under the Off-Site Source 
Recovery Program. We expect to be able to resolve these remaining 
issues and accept the sources . . . prior to September 2002.'' Yet as 
of February of this year, facilities in New York are still waiting for 
a ship date for these sources. Can you please tell me when DOE will be 
able to accept these Plutonium 239 sources for storage under the 
Department's Off-Site Source Recovery Program?
    Secretary Abraham. The Off-Site Source Recovery Program has 
recovered approximately 7,000 sealed sources since 1997. The program 
was provided $10 million in fiscal year 2002 emergency supplemental 
appropriations with a goal of recovering 5,000 sources in 18 months. 
The program has recovered over 2,500 sources under this appropriation 
so far, and DOE expects to exceed the goal of 5,000 sources by April 
2004, which is the end of the 18-month period.
    The Department also has been working to initiate the recovery of 
plutonium-239 sources. Due to the enhanced safeguards and security 
requirements which are required when working with large numbers of 
these sources, this process has been more difficult than with other 
types of sources. The Department has identified a storage location and 
is finalizing the safety and operating procedures at this time. The 
Off-Site Source Recovery Program expects to begin receiving plutonium-
239 sources before the end of fiscal year 2003. Currently, source 
program staff are visiting a limited number of high priority sites that 
have plutonium-239 sources and packaging those sources for shipment. 
When the storage facility is ready to begin receiving shipments, there 
will be a number of sites already packaged and ready to ship. The Off-
Site Source Recovery Program is contacting licensees who have excess 
plutonium-239 sources and making plans and arrangements to recover all 
of these sources in an efficient, cost effective manner. It will take 
approximately 1 year to recover all of the known, excess plutonium-239 
sources.

                              WEST VALLEY

    52. Senator Clinton. Secretary Abraham, I am concerned that 
negotiations between New York State and the Department of Energy 
regarding the West Valley demonstration project in Western New York are 
at an impasse. West Valley has been engaged in the cleanup of nuclear 
waste, but New York State and DOE are at an impasse over who should 
have stewardship of the site. As the cleanup of West Valley proceeds 
each day, it is imperative that we reach an agreement on the long-term 
stewardship of the site. Do you have an update on the status of the 
negotiations? If not, can you have a member of your staff follow up 
with my staff?
    Secretary Abraham. On January 29, 2003, the New York State Energy 
Research and Development Authority issued a press release announcing 
that the negotiations are at an impasse. No formal negotiations have 
taken place since that time.
    We would be pleased, as well, to follow up with your staff.

    [Whereupon, at 11:10 a.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

                              ----------                              


                         TUESDAY, APRIL 8, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                            HOMELAND DEFENSE

    The committee met, pursuant to notice, at 10:17 a.m. in 
room SR-325, Russell Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Allard, Collins, Chambliss, Dole, Cornyn, Levin, Kennedy, Reed, 
E. Benjamin Nelson, and Pryor.
    Committee staff member present: Judith A. Ansley, staff 
director.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Carolyn M. Hanna, professional staff 
member; Patricia L. Lewis, professional staff member; Ann M. 
Mittermeyer, counsel; Paula J. Philbin, professional staff 
member; and Scott W. Stucky, general counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Madelyn R. Creedon, minority 
counsel; Evelyn N. Farkas, professional staff member; and 
Richard W. Fieldhouse, professional staff member.
    Staff assistants present: Michael N. Berger, Andrew W. 
Florell, and Nicholas W. West.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; James Beauchamp, assistant to 
Senator Roberts; Jayson Roehl, assistant to Senator Allard; 
James P. Dohoney, Jr., assistant to Senator Collins; D'Arcy 
Grisier, assistant to Senator Ensign; Clyde A. Taylor IV, 
assistant to Senator Chambliss; Christine O. Hill, assistant to 
Senator Dole; Russell J. Thomasson, assistant to Senator 
Cornyn; Mieke Y. Eoyang, assistant to Senator Kennedy; 
Elizabeth King, assistant to Senator Reed; William K. Sutey, 
assistant to Senator Bill Nelson; Eric Pierce, assistant to 
Senator E. Benjamin Nelson; Andrew Shapiro, assistant to 
Senator Clinton; and Terri Glaze and Andy York, assistants to 
Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets today to receive 
testimony on the Department of Defense's role in the defense of 
our homeland. I am pleased to welcome today's witnesses: the 
Honorable Paul McHale, the first Assistant Secretary of Defense 
for Homeland Defense; General Ralph Eberhart, the first 
Commander of the United States Northern Command (NORTHCOM); and 
Admiral James Ellis, the first Commander of the restructured 
United States Strategic Command (STRATCOM). Thank you all and 
your assistants for traveling long distances in some instances 
to get here.
    I emphasize the fact that you gentlemen are the first for 
an important reason. You are part of a transformation of our 
military that is broader and deeper than just an examination of 
weapons systems or military hardware. This transformation, a 
refocusing of organizations and missions, was accelerated by 
the tragic events of September 11.
    As we begin our hearing this morning, our thoughts and 
prayers are with our brave men and women in Iraq and 
Afghanistan, as well as other parts of the world. We must be 
ever mindful of the fact that they and their families, their 
efforts are our first line of defense in the overall security 
of our homeland. Homeland defense begins on these outposts of 
the world. For every terrorist stopped on a distant 
battlefield, that is one less who will bring danger to our 
shores.
    As we saw on September 11 and also in recent natural 
disasters, the Department of Defense (DOD) has unique 
capabilities to contribute to the overall security of our 
homeland. You gentlemen represent the leadership that will 
bring these capabilities to bear. Through your testimony, we 
hope to more clearly learn the Department's role in homeland 
security and how each of you envision the interaction between 
your respective organizations to achieve an integrated 
Department of Defense effort and, in tradition with this 
committee, your personal views on what additions should be 
made.
    With the establishment of the new Department of Homeland 
Security (DHS), we are reminded that homeland security is an 
enormously complex task that must be carefully coordinated 
throughout the government. It is essential that we understand 
how you will coordinate your efforts with this new department 
and what additional capabilities, resources, and authorities 
you will require to ensure the success of this challenging 
effort that is so vital to our national security.
    The Armed Forces of the United States must in every way 
legally possible support our Nation's homeland security effort. 
This fundamental imperative is one that President Bush 
identified to the American people while he was still Candidate 
Bush. In a speech at The Citadel in September 1999, then-
Governor Bush stated that, ``The protection of America itself 
will assume a high priority in a new century. Once a strategic 
afterthought, homeland defense has now become an urgent duty.'' 
We are indeed fortunate that our President had the foresight to 
begin to prepare our Nation for the challenges we are 
confronting today.
    Gentlemen, you truly are a part of transformational change 
occurring within our Armed Forces. As a part of that, let me 
once again raise a controversial issue, the issue of posse 
comitatus. I have recommended to the administration ever since 
September 11 the reevaluation of the contribution that DOD can 
make to homeland defense and do it within the parameters of 
that tried and effective statute, put on the books for good 
intentions way back when, but I think it needs to be re-
examined today and I believe the Department is undertaking to 
do that.
    Simply put, this law prohibits members of the Armed Forces 
from engaging in law enforcement activities, a very sensible 
and rational and time-tested, proven doctrine. But things have 
changed and emergencies occur, and in that instance we should 
re-examine whether or not the current law and its regulations 
and interpretations need to be changed in any way and what role 
Congress might have or not have.
    This law was adopted in the aftermath of the Civil War, and 
the rest of the history you know.
    Thank you very much for this opportunity to have all three 
of you here today, as a matter of fact.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman, and I want to join 
you in welcoming our three witnesses this morning to discuss 
the very important subject of homeland defense.
    As the chairman said, you are part of a first and making 
history. It is appropriate that this hearing this morning is 
taking place in the Senate Caucus Room, which has been a part 
of so much history.
    Admiral Ellis, I guess you made a little history this 
morning, or at least your daughter-in-law did. I understand you 
are a new grandfather. I do not know if that is for the first 
time, but I know you have a new grandson this morning. 
Congratulations on behalf of all of us. I know your son, who is 
the father of your new grandson, is in Afghanistan. We wish the 
new baby, his mother, and his father the best of all wishes 
possible.
    Admiral Ellis. Thank you very much, Senator. We are very 
proud.
    Senator Levin. It is typical of your family that the father 
is in Afghanistan. You will be seeing the new boy before the 
father will. But that is the way he chose to dedicate his life, 
and we are very proud of him and you.
    Admiral Ellis. Thank you for your kind words.
    Senator Levin. I do not know if either of the other 
witnesses has family either in Iraq or in the area or in 
Afghanistan. If you do, I do not mean to leave you out in any 
way.
    Each of you has a new role to fulfill in meeting the 
challenge of defending the United States, and in General 
Eberhart's case North America. As part of the Unified Command 
Plan Change 2, which was effective last October, the Strategic 
Command and the Northern Command have new missions. The 
Northern Command mission is to provide command and control of 
Defense Department homeland defense efforts and to coordinate 
support to civil authorities. Strategic Command assumes the 
missions of U.S. Space Command as well as four new missions, 
including oversight of command, control, communications, 
computers, intelligence, surveillance, and reconnaissance in 
support of global and strategic operations and global missile 
defense integration.
    The North American Air Defense Command retains its previous 
mission, but now aligns with Northern Command rather than Space 
Command. The Office of the Assistant Secretary of Defense for 
Homeland Security, also recently established, will provide the 
policy guidance to support the homeland defense mission, as 
well as coordinate with the Department of Homeland Security and 
other Federal agencies involved in homeland defense.
    In the short time that each of you has been in your new 
position, you have made considerable progress, including 
establishing a binational U.S.-Canadian commission, working 
with the Southern Command (SOUTHCOM) and Pacific Command 
(PACOM) to develop recommendations regarding future roles and 
organization of the joint inter-agency task forces, drafting a 
plan for establishing a Weapons of Mass Destruction Civil 
Support Team (WMD-CST) in every American State and territory, 
and working to develop the right mix of forces that would be 
assigned to the Northern Command under the Joint Task Force-
Civil Support (JTF-CS) to help civilian authorities when 
directed by the Secretary of Defense.
    Much remains to be done, including the establishment of 
operational requirements for missile defense and implementing 
the computer network defense and attack missions. In addition, 
there remain many challenges, including coordinating between 
Northern Command and Pacific Command to work out the modalities 
of protecting Alaska and Hawaii, coordinating intelligence, 
surveillance, and reconnaissance missions for the DOD, and, 
perhaps most importantly, for ensuring usable intelligence is 
provided to all commands in a timely fashion.
    So we thank each of you for your work and your service and 
for launching this new effort. We look forward to hearing from 
each of our witnesses.
    Chairman Warner. Thank you, Senator Levin.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here today and I 
apologize for not being able to remain during the entire 
hearing. However, I do want to raise one subject with the 
Secretary, General Eberhart, and Admiral Ellis. There is a 
dirty little secret about homeland security that I believe 
needs to be examined and remedied as soon as possible, and that 
is the fact that our borders are not secure.
    We have an increasing flow of illegal immigrants, drugs, 
and possibly--I emphasize, possibly--terrorists through our 
southern border and perhaps our northern border. I am not as 
familiar with the northern border as I am with the southern 
border. We have had park rangers killed. We have had gunfights. 
We have had organizations paint vehicles exactly like Border 
Patrol vehicles and come across our border. We have intercepted 
individuals from Middle Eastern countries. We have found a 
backpack with documents printed in Arabic.
    We have no control over our southern border. 30,000 illegal 
immigrants are coming across the Arizona border every month. I 
think it argues for a high priority. It argues for complying 
with a fundamental of the United States of America's security, 
and that is if our borders are porous and people can move back 
and forth across our borders at will and with impunity, it 
poses a threat. I do not know how we can assure the security of 
our homeland when we have insecure borders.
    In my home State of Arizona, we now have vigilante groups 
who are forming and because of their frustration with the lack 
of enforcement of our border, are now taking the law into their 
own hands. That has some very dangerous consequences, but their 
frustration is somewhat understandable. When you meet ranchers 
who have had 11 times in one week sport utility vehicles 
bursting through the seven-strand barbed wire fence that is the 
barrier between our two countries, invading their land, it is 
serious. When you have the National Park Service personnel who 
are in charge of the wildlife refuges on the border saying the 
wildlife refuges are being destroyed, we have a very serious 
problem.
    It is going to take, among other things, the use of some 
high technology. I do not see how you can put individuals all 
the way across our border between the United States and Mexico. 
I would urge you to look at the use of the Predator, and other 
high tech equipment which we have developed and could easily 
use along our border.
    This issue is serious. It has human consequences. Last 
year, 134 people died in the desert trying to cross over from 
Mexico into the United States of America. It has security 
consequences and it has economic consequences for our health 
care organizations and other providers of assistance to our 
citizens and now are providing it to illegal immigrants.
    So I hope that in your testimony or in the question and 
answer session you will discuss this issue, because again I do 
not see how you can possibly tell Americans that their homeland 
is secure if their border is not secure, and the degree of 
insecurity of those borders I think is not appreciated by most 
Americans today.
    I thank you, Mr. Chairman. I thank the witnesses for being 
here and I thank them for the outstanding work that they are 
doing.
    Chairman Warner. Thank you, Senator McCain. That is a very 
important dimension to our oversight responsibilities. It is 
probably shared by other committees, but we have jurisdiction 
over a portion of that.
    Senator Levin. Before Senator McCain leaves, if I could 
just ask Senator Kennedy to yield for a minute. I want to 
concur in what he said about our borders. The northern border 
which he made reference to is indeed a huge risk for us in 
terms of our security. We have gone into this at great length, 
but the point that he made about our southern border is indeed 
too true for our northern border as well. I want to thank him 
for raising the issue this morning.
    Senator McCain. Could I mention--Mr. Chairman, I do not 
want to take the time of the committee.
    Chairman Warner. Go right ahead.
    Senator McCain. We do not want the military on the border. 
That is not appropriate. It is not constitutional. They are not 
trained for it. There are too many strings on it. I believe 
that a lot of the equipment that the military has can have 
great application to border security, and that is where I hope 
that the members of this panel can be involved and helpful to 
us.
    Thank you.
    Chairman Warner. Thank you again.
    Senator Kennedy.
    Senator Kennedy. Just very briefly, welcome, gentlemen. I 
had an opportunity over the weekend to go down to Otis Air 
Force Base, home of the 102nd National Guard Fighter Wing. You 
have elements of it over in Iraq. The 101st, which is one of 
the wings, has been awarded as the top Air National Guard Wing, 
and it obviously has--they take great sense of pride in meeting 
their responsibilities in terms of air security over the 
Northeast. They are very, as you well know, highly skilled, 
highly dedicated and committed, and it is always reassuring.
    Second, on the issues of immigration as well, we passed a 
Border Security Act a little over a year ago and it is 
gradually being implemented. That has implications on both the 
southern border as well as the issues on all the borders 
surrounding us.
    One of the important things that had not been happening is 
the Central Intelligence Agency (CIA) had not been cooperating 
with the Immigration and Naturalization Service (INS) and 
therefore the INS had one hand behind its back. For instance, 
two of the hijackers that came from Saudi Arabia were on the 
watch list and the CIA had not notified them, and they were 
able to get visas to come on in here. So this cooperation is 
something that is beginning to take place, but it is something 
that is going to be enormously important in terms of helping.
    Just a final point. I want to commend the Defense 
Department for its immunization of smallpox. They have done a 
very effective job, immunizing I think 230,000 troops; I do not 
know for sure. They have done it extremely effectively. They 
have had small numbers of adverse reactions. They have taken 
good care of the people with those and I believe, at least what 
I had heard previously, virtually all of them had returned to 
duty.
    But it has been a very good screening program with follow-
up programs, and it really is the way to do it. As we are 
moving on into these issues on smallpox, the DOD has really 
given a wonderful example of how to do it. Constantly we have 
these other issues and there was a hearing on Severe Accute 
Respiratory Syndrome (SARS) yesterday. There is no reason to 
believe that it is a bioterrorist weapon, but it could have 
been. The way the World Health Organization (WHO) responded on 
that along with the Centers for Disease Control (CDC) and the 
National Institutes of Health (NIH) is enormously reassuring in 
terms of almost a test case on this.
    I bring that to your attention as one of the things that 
appears to be working. Several things that I have mentioned 
here are working very well.
    Chairman Warner. Thank you, Senator Kennedy.
    Senator Inhofe, any other members wish to make an opening 
statement, please signify.
    Senator Inhofe. I will just make it very brief, Mr. 
Chairman. My concern is with operation tempo (OPTEMPO) right 
now. I know that, Secretary McHale, you are very interested in 
this and we talked about this before. In fact, all of us have. 
I do not think there has been a time in our history that we 
have had to call up so much of the Reserve component, and it is 
becoming a real hardship and we are losing some critical 
Military Occupational Specialties (MOS). The fact is 
exacerbated by the fact that you also have a lot of your first 
responders in the Guard and in the Reserves. You are going to 
have to be handling that.
    So my major concern is the capacity. What are we going to 
be able to do? How much can you spare from the military side 
for homeland security, because from where I sit in Oklahoma and 
I watch those that are being called up, I do not see that we 
have the capacity to give anything there. So it is a critical 
thing that I know you are having a difficult time dealing with, 
but we certainly have to be answering this in our own minds as 
we develop future budgets because, as the chairman said in his 
opening remarks, things have changed in our relationship with 
the use of the Guard and Reserves.
    Thank you, Mr. Chairman.
    Chairman Warner. Are there others? Senator Reed, do you 
wish to make a statement?
    Senator Reed. No, Mr. Chairman.
    Chairman Warner. Fine, thank you.
    Senator Allard.
    Senator Allard. Mr. Chairman, I would briefly welcome the 
panel. I think this is the first time we have had a hearing 
since about this time last year when we discussed the 
reorganization, and I want to congratulate you, Mr. Chairman, 
on a timely hearing. I think it is important. They have been 
stood up since around early this fall--I think it was the 1st 
of October--and then it has been a year now and I am looking 
forward to hearing their comments.
    We did some unique things. We set up Northern Command. We 
also combined U.S. Space Command and U.S. Strategic Command. I 
want to know how that is progressing along.
    On immigration, when I listen to the comments here of my 
colleagues and on the floor, I agree, here on the table, that 
we do have a problem with the borders, but we cannot do it 
alone. It seems to me we have to solicit help from our 
neighbors, Canada and Mexico. We have to get them, and I hope 
that some effort is being done diplomaticly to bring them in. 
They need to be partners in dealing with this. I do not know 
exactly how we do it, but I think that is vital to our success 
on the borders.
    Thank you, Mr. Chairman. I have a full statement I would 
like to make a part of the record.
    [The prepared statement of Senator Allard follows:]

               Prepared Statement by Senator Wayne Allard

    Thank you, Mr. Chairman. Last year, at this time, the Department of 
Defense announced several changes in the unified command plan. This is 
really the first time that this committee has had the opportunity to 
examine these changes. I thank you, Mr. Chairman, for calling this 
hearing. It is important that we remain engaged on these issues.
    Never before has homeland defense and homeland security received so 
much attention. The administration responded to September 11 with a 
number of proposals, including the creation of the Department of 
Homeland Security and the development of a homeland security strategy. 
To better respond to threats to the homeland, the Department of Defense 
recommended several changes to its command structure, which the 
President approved, that greatly improved the Department's ability to 
defend the homeland and support lead civilian crisis and consequence 
management agencies.
    The creation of U.S. Northern Command was one of these changes. 
This new organization will be responsible for protecting our homeland 
from external threats and for supporting Federal, State, and local 
agencies inside the homeland. I look forward to hearing from General 
Eberhart about the progress his command has made over the last year.
    The changes in the unified command plan also included the folding 
of U.S. Space Command into U.S. Strategic Command. I understand that 
Admiral Ellis and U.S. Strategic Command has done a great job in 
supporting our troops in Iraq and in the global war against terrorism. 
But, while I recognize the importance of this effort, I want to make 
sure that other areas, such as Space, also remain a top priority for 
Strategic Command.
    I thank the Assistant Secretary of Defense for Homeland Defense for 
being here today. I understand this is his first appearance before this 
committee since his nomination hearing. I look forward to your 
testimony about the Department's efforts to better protect our 
homeland.
    Our country remains vulnerable to attack; but the administration 
and the Department of Defense recognize these vulnerabilities and are 
taking measures to secure our homeland. This is a long-term process and 
we should not expect quick results. We must be deliberate and certain 
that the measures we take better secure our homeland and protect us 
from potential attacks.
    I appreciate the willingness of our witnesses to testify before 
this committee during this difficult time and look forward to their 
testimony.
    This concludes my opening remarks. Thank you, Mr. Chairman.

    Chairman Warner. Without objection, it is so admitted.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    First of all, I want to welcome you all. There are so many 
concerns today about homeland security, but I have boiled it 
down to hometown security. If you do not feel secure in your 
hometown, it is pretty hard to feel secure in your homeland.
    In the process of calling up reservists and guardsmen, as 
we always have, we are today faced with trading off what we 
have to support us on the front lines versus what we have on 
the home front. So many of our reservists and guardsmen are 
also first responders, firefighters, police officers, and 
emergency workers, that it makes it very difficult. I hope that 
we are able to find a way to protect ourselves and secure the 
people here at home as well as to try to take care of our 
interests abroad.
    So I thank you very much and look forward to your comments.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Collins, as Chairman of the Governmental Affairs 
Committee, you have jurisdiction over some of the aspects of 
homeland defense.
    Senator Collins. Thank you very much, Mr. Chairman. As 
Chairman of the Committee on Governmental Affairs, which has 
jurisdiction over the new Department of Homeland Security, I am 
particularly interested in hearing from our witnesses today 
about the extent of cooperation between DOD and the new 
Department of Homeland Security. This is an issue that I 
discussed with Secretary McHale when we met and I look forward 
to hearing the comments of our witnesses in this regard.
    Thank you.
    Chairman Warner. Thank you very much. Does anyone else have 
an opening statement?
    Senator Cornyn. I will withhold any comments until 
questions.
    Chairman Warner. We will hear from our first witness, 
Assistant Secretary of Defense for Homeland Defense, Paul 
McHale, a former member of the United States House of 
Representatives and a marine with considerable experience and 
some personal knowledge on what it is like to be called up from 
the Reserves. Welcome.

 STATEMENT OF HON. PAUL McHALE, ASSISTANT SECRETARY OF DEFENSE 
                      FOR HOMELAND DEFENSE

    Secretary McHale. Good morning, sir. Senator Warner, 
Senator Levin, members of the committee: Good morning.
    I will be submitting a formal statement for the record. It 
is currently under review by the Office of Management and 
Budget (OMB). But, Mr. Chairman, with your consent I would like 
to provide a few brief remarks at the opening of the hearing.
    Chairman Warner. Without objection.
    Secretary McHale. Mr. Chairman, President Bush has said 
that, ``The world changed on September 11, 2001. We learned 
that a threat that gathers on the other side of the Earth can 
strike our own cities and kill our own citizens. It is an 
important lesson, one we must never forget. Oceans no longer 
protect America from the dangers of this world. We are 
protected by daily vigilance at home and we will be protected 
by resolute and decisive action against threats abroad.''
    At the outset, Mr. Chairman, we should recognize that 
America's first line of domestic defense really begins overseas 
and results from the capabilities of our forward deployed 
forces, many of whom are engaged in combat as we meet this 
morning. In that sense, Secretary Rumsfeld has correctly noted 
that the annual homeland defense budget of the Department of 
Defense is $380 billion.
    Recognizing, however, in the wake of the attacks on 
September 11, that it was now essential to establish a new 
combatant command with specific geographic responsibility for 
the United States, NORTHCOM was created. On 1 October, NORTHCOM 
assumed initial operational capability (IOC). The mission of 
NORTHCOM, as paraphrased by Senator Levin a few minutes ago, is 
as follows: ``United States Northern Command conducts 
operations to deter, prevent, and defeat threats and aggression 
aimed at the United States, its territories and interests, 
within assigned areas of responsibility, as directed by the 
President or the Secretary of Defense provides military 
assistance to civil authorities, including consequence 
management operations.''
    NORTHCOM's responsibilities fall essentially into two 
categories: the warfighting defense of the area of 
responsibility (AOR) and civil support to civil authorities 
under circumstances where we in the Department may have a 
unique capability not possessed by the civilian community or, 
as was the case after September 11, under those circumstances 
where it is determined that civilian authorities are 
overwhelmed by the immediate challenge at hand.
    NORTHCOM's force structure is unusual when compared to 
other geographic combatant commands. There are very few forces 
which are permanently assigned, although appropriate units have 
been identified for possible assignment as needed. NORTHCOM's 
commander is my friend Ed Eberhart, a superb general who joins 
me this morning. His headquarters is located at Peterson Air 
Force Base and, as I noted a few moments ago, his command 
assumed initial operational capability just a few months ago.
    I was nominated by the President to become the first 
Assistant Secretary of Defense for Homeland Defense in January. 
That was to fill a new position created by the National Defense 
Authorization Act of 2003. You were kind enough to confirm me 
to that position approximately 2 months ago.
    During the past 2 months since I appeared before you during 
my confirmation hearing, we have been busy. I have visited 
virtually every major homeland defense command in the United 
States. In the case of Hawaii--a distant responsibility--
pursuant to the commitment that I gave to Senator Akaka, 
although I could not physically visit Hawaii during that period 
of time, I had a secure videoteleconference with the operations 
officer for PACOM and discussed with him the same kinds of 
issues that I had covered in person with all of the other 
commands.
    Chairman Warner. There are a number of those commands and 
would you provide for the record a listing.
    Secretary McHale. The ones that I visited, sir?
    Chairman Warner. I want to know all of them. Whether you 
visited them or not, we would like to have the entire structure 
as a part of the record.
    [The information referred to follows:]

    [Deleted.]

    Secretary McHale. Yes, sir, we will happily submit that.
    Just to give you a brief summary, NORTHCOM and North 
American Aerospace Defense Command (NORAD), are collocated out 
of Peterson Air Force Base. Beneath NORTHCOM in terms of 
command and control we have Joint Task Force-Civil Support, 
which is located in Norfolk; Joint Forces Headquarters, 
Homeland Security, also in Norfolk. We have a series of six 
Quick Reaction Forces (QRFs), rapid reaction forces at the 
battalion level, that are geographically dispersed throughout 
the United States. We have JTF-6, which is located in El Paso.
    I have visited nearly all of those. There are two QRFs that 
I have not yet been able to visit, one at Fort Drum and one in 
Alaska, but hopefully those visits will be scheduled in the 
very near term.
    That gives you essentially an overview of the wire diagram 
that falls under the command of General Eberhart. If I have 
missed any major components, he can certainly add to the list 
that I presented to you during his testimony. We will give you 
a formal list of all of those units for the record, sir.
    Chairman Warner. If you have a wiring diagram, that would 
be helpful also.
    Secretary McHale. We do, sir. As you look at that----
    Chairman Warner. Does anyone have a copy of it with him?
    Secretary McHale. Pardon me, sir?
    Chairman Warner. Does any witness have a copy of that 
wiring----
    General Eberhart. Let me check, sir. I may.
    Chairman Warner. If so, I would like to have the diagram 
duplicated and distributed to the members in attendance.
    Secretary McHale. Yes, sir.
    Senator Collins a couple of moments ago emphasized her 
interest in the relationship between the Office of the 
Assistant Secretary of Defense for Homeland Defense and the new 
Cabinet agency for which her committee has primary oversight 
responsibility, the Department of Homeland Security. Senator, 
let me assure you that in the interim since we last spoke we in 
the Department of Defense have worked very hard to establish a 
close working partnership with the Department of Homeland 
Security.
    We have a full-time Department of Defense representative in 
their operation center. We are in daily communication with the 
Department of Homeland Security. We have complete sharing of 
intelligence information between the two departments. Routinely 
each day we provide to them intelligence that we in the 
Department of Defense believe may be helpful to them in the 
execution of their mission, and they similarly do not hesitate 
to contact us on matters that are of mutual concern.
    In addition, Pete Verga, who has now been appointed my 
principal deputy and is seated behind me, has as one of his 
major responsibilities the day-to-day management of that 
relationship between the Department of Homeland Security and 
the Department of Defense.
    Mr. Chairman, I had a number of other comments, but in the 
interest of time I will bring my opening statement to a close. 
I certainly would welcome any questions that you might have and 
I will do my very best to answer them. I would simply say in 
conclusion that I can assure you today, as always, America's 
men and women in uniform stand ready to defend our Nation 
against any threat at home or abroad. I welcome your questions.
    [The prepared statement of Secretary McHale follows:]

                 Prepared Statement by Hon. Paul McHale

                              INTRODUCTION

    Chairman Warner, Senator Levin, and members of the committee: I 
appreciate the opportunity to meet with you on the critical subject of 
our Nation's security.
    As stated in the 2001 Quadrennial Defense Review, the highest 
priority for the U.S. military is the defense of the U.S. homeland. At 
home and abroad, the Department of Defense is a significant contributor 
in this national effort to secure our Nation and its people.
    The President understands that terrorists can attack at any time, 
in any location, using every conceivable technique. He also understands 
that it is physically not possible to defend against every conceivable 
threat, in every place, at every time. To successfully defend against 
terrorism, and other 21st century threats, requires that we take the 
war to the enemy. Our task is to put pressure on the terrorists 
wherever they are, in Afghanistan and across the globe, to ensure that 
they have no safe haven, no sanctuary, anywhere in the world.
    That is why the President has marshalled all of the Nation's 
capabilities--political, economic, financial, law enforcement, military 
and intelligence--to deter, attack, and destroy terrorist 
organizations, and those who harbor them. These organizations typically 
threaten the United States, our interests, or our allies from terrorist 
locations overseas.
    That is why defense of the homeland actually starts abroad, where 
our soldiers, sailors, airmen, and marines are putting their lives on 
the line every day to make it more difficult for terrorists to plan or 
execute their attacks before they ever near our borders.

                 HOMELAND DEFENSE AND HOMELAND SECURITY

    As described by the President in the National Strategy for Homeland 
Security, homeland security is defined as a concerted national effort 
to prevent terrorist attacks within the United States, reduce the 
vulnerability of the United States to terrorism, and minimize the 
damage and assist in the recovery from terrorist attacks.
    In addition, the Defense Department defines homeland defense as the 
military protection of United States territory, domestic population, 
and critical defense infrastructure against external threats and 
aggression. It also includes routine, steady state activities designed 
to deter aggressors and to prepare U.S. military forces for action if 
deterrence fails.
    With respect to homeland security, the Defense Department will 
usually operate in support of a lead Federal agency. While in homeland 
defense activities, the Defense Department will take the lead and be 
supported by other Federal agencies. In fact, Section 876 of Public Law 
107-296, the Homeland Security Act of 2002, recognizes the Department 
of Defense's lead role in the conduct of traditional military missions 
by providing that ``[n]othing in this act shall confer upon the 
Secretary [of Homeland Security] any authority to engage in 
warfighting, the military defense of the United States, or other 
military activities, nor shall anything in this act limit the existing 
authority of the Department of Defense or the Armed Forces to engage in 
warfighting, the military defense of the United States, or other 
military activities.'' This section clearly delineates the difference 
between homeland defense activities and homeland security activities.

     THE DEPARTMENT OF DEFENSE'S ROLE IN THE SECURITY OF THE NATION

    In his testimony before Congress in May of last year, the Secretary 
of Defense described three distinct circumstances in which the 
Department of Defense would be involved in activities within the United 
States:
    The first case was extraordinary circumstances, which require the 
Department to execute its traditional military missions. For example, 
combat air patrols and maritime defense operations. In these cases the 
Department plays the lead role and is supported by other Federal 
agencies. For instance, combat air patrols where the Federal Aviation 
Administration (FAA) provides data to assist the efforts of Air Force 
fighter pilots in identifying and, if necessary, intercepting 
suspicious or hostile aircraft. Also included in the category of 
extraordinary circumstances are cases in which the President, 
exercising his Constitutional authority as Commander in Chief, 
authorizes military action.
    The second case was emergency circumstances of a catastrophic 
nature--for example: responding to an attack or assisting in response 
to forest fires, floods, hurricanes, tornadoes, and so forth, during 
which the Department may be asked to act quickly to provide 
capabilities that other civilian agencies do not have.
    Finally, the Secretary noted temporary circumstances, where the 
Department is given missions or assignments that are limited in 
duration or scope and other agencies have the lead from the outset. An 
example of this would be security at a special event like the Olympics. 
Another example is assisting other Federal agencies in developing 
capabilities to detect chemical/biological threats.
    Subsequent to the Secretary's testimony, three significant changes 
to the Department of Defense have fostered an evolving perspective of 
our role at home in the security of our Nation.
    First, the Secretary of Defense, with the approval of the 
President, changed the Unified Command Plan and stood up, on October 1, 
2002, the U.S. Northern Command. U.S. Northern Command's mission is to:

        <bullet> Conduct operations to deter, prevent, and defeat 
        threats and aggression aimed at the United States, its 
        territories, and interests within the assigned area of 
        responsibility; and
        <bullet> As directed by the President or Secretary of Defense, 
        provide military assistance to civil authorities including 
        incident management operations.

    General Ed Eberhart, Commander of U.S. Northern Command, also 
commands the North American Aerospace Defense Command (NORAD), which is 
collocated with U.S. Northern Command at Peterson Air Force Base, 
Colorado Springs, Colorado. U.S. Northern Command is a U.S. only 
command and NORAD is a U.S.-Canada bilateral command. NORAD is 
responsible for the aerospace defense of North America. U.S. Northern 
Command is responsible for the land, maritime and U.S.-only air 
capabilities of homeland defense. The two commands work closely 
together on a daily basis to provide aerospace defense to the Nation. 
The U.S. Northern Command and NORAD staffs are integrated with the 
dual-hatting of many staff officers.
    U.S. Northern Command's area of responsibility includes air, land 
and sea approaches and encompasses the continental United States, 
Alaska, Canada, Mexico, and the surrounding water out to approximately 
500 nautical miles. It also includes the Gulf of Mexico, Puerto Rico 
and the U.S. Virgin Islands. The defense of Hawaii and our territories 
and possessions in the Pacific remain the responsibility of U.S. 
Pacific Command. U.S. Northern Command will additionally be responsible 
for security cooperation and coordination with Canada and Mexico.
    In addition to defending the Nation, U.S. Northern Command will 
provide military assistance to civil authorities in accordance with 
U.S. laws and as directed by the President or Secretary of Defense. 
Military assistance is almost always in support of a lead Federal 
agency, such as the Department of Homeland Security.
    Military civil support includes domestic disaster relief operations 
that occur during fires, hurricanes, floods, and earthquakes. Support 
also includes counter-drug operations and consequence management 
assistance, such as would occur after a terrorist event employing a 
weapon of mass destruction.
    Second, the Fiscal Year 2003 National Defense Authorization Act 
directed the establishment of an ``Assistant Secretary of Defense for 
Homeland Defense.'' I am honored to serve as the first Assistant 
Secretary of Defense for Homeland Defense.
    In accordance with Section 902 of Public Law 107-314, the Bob Stump 
National Defense Authorization Act of 2003, my principal duty is ``the 
overall supervision of the homeland defense activities of the 
Department of Defense'' to be exercised subject to the Secretary's 
authority, direction and control (10 U.S.C. 113(b)) and without 
interfering with the chain of command over the Armed Forces (10 U.S.C. 
162(b)). My charge, as given to me by law, by the Secretary of Defense, 
and by the President is to lead and focus the Department's activities 
in homeland defense and homeland security, ensure internal coordination 
of DOD policy direction, provide guidance consistent with the law to 
Northern Command for its homeland defense mission and its military 
activities in support of homeland security, to include support to civil 
authorities, and to coordinate with the Homeland Security Council 
(HSC), the National Security Council (NSC), the Department of Homeland 
Security (DHS), and other government agencies. In other words, I am 
responsible for recommending to the Secretary the roadmap for the 
Defense Department's role in securing our Nation at home.
    Third, the Fiscal Year 2003 National Defense Authorization Act also 
directed the establishment of an ``Under Secretary of Defense for 
Intelligence.''
    The Under Secretary of Defense for Intelligence will have the 
primary responsibilities to assure that the senior leadership of the 
Department and Combatant Commanders receive the warning, actionable 
intelligence and counter-intelligence support needed to pursue the 
objectives of our new defense strategy.
    The Under Secretary will also enhance Defense Department 
intelligence-related activities, provide a single point of contact for 
coordination of national and military intelligence activities with the 
Community Management Staff and strengthen the relationship between the 
Secretary of Defense and the Director of Central Intelligence. So, in 
terms of this forum, the new Under Secretary will define and provide 
oversight for the Defense Department's participation in national 
Indications and Warning.

                    DOD ACTIONS TO DEFEND THE NATION

    As the President said, on the eve of the standup of the new 
Department of Homeland Security, ``We're tracking down terrorists who 
hate America, one by one. We're on the hunt. We [have] them on the run. 
It's a matter of time before they learn the meaning of American 
justice. We're opposing terror regimes that are arming with weapons of 
mass destruction to threaten the peace and freedom of this world. We're 
taking unprecedented measures to defend the homeland with the largest 
reorganization of our government in more than a half a century.''
    On October 7, 2001, we took the fight to the enemy when we, along 
with our allies, launched attacks against al Qaeda and the Taliban in 
Afghanistan. This operation, Operation Enduring Freedom, successfully 
liberated Afghanistan from the Taliban, destroyed al Qaeda training 
bases, disrupted al Qaeda communications and impaired al Qaeda 
organizational efforts.
    The Department continues to prosecute the war on terrorism abroad. 
Today, the brave men and women waging the war against terrorism around 
the world are America's first and most important line of defense 
against homeland attack. By going directly to the source and rooting 
out terrorists and their networks, they deter and defeat terrorist 
attacks before they occur.
    Protecting our Nation requires an unprecedented level of 
cooperation throughout all levels of government, with private industry 
and institutions, and with the American people. The Federal Government 
has the crucial task of fostering a collaborative environment, and 
enabling all of these entities to work together to provide the security 
our Nation requires. The new Department of Homeland Security is tasked 
with the responsibility of leading this national effort to protect our 
Nation against terrorist attacks. The Secretary of Defense has made a 
public commitment to work closely with the new Department of Homeland 
Security in order to coordinate our respective responsibilities.
    The U.S. military actually took its first step in response to 
September 11, 2001 when two F-15 Eagle jets arrived at the World Trade 
Center, just minutes after United Airlines Flight 175 sliced into the 
second tower. While they were unable to alter the course of history on 
that morning, they stood guard with renewed vigilance. They were the 
first, but they were not the last.
    The direct defense of the American homeland, Operation Noble Eagle, 
commenced immediately after the September 11 attacks and includes 
combat air patrols over key domestic locations, expanded air 
operations, and command and control of active component forces, 
including U.S. Navy ships with anti-aircraft systems to enhance the 
security of U.S. domestic airspace. Since September 11, 2001, DOD has 
been flying daily combat air patrols over U.S. cities. Since that date, 
DOD has flown over 28,000 sorties and responded to more than 1,000 
requests from the FAA to intercept potential air threats. Operation 
Noble Eagle also entails Coast Guard inspections of cargo vessels and 
patrols--supported by Navy Patrol Coastals--in defense of major 
seaports.
    The Department of Defense is supporting the Department of Homeland 
Security as the lead Federal agency for homeland security. Military 
planners assisted the Department of Homeland Security in the 
development of the Liberty Shield plan. DOD's continuing homeland 
security commitments as part of Operation Noble Eagle complement 
Liberty Shield's national effort to protect our citizens and 
infrastructure.

        THE NATIONAL GUARD'S ROLE IN THE SECURITY OF THE NATION

    One of the critical elements in DOD's contribution to the security 
of our Nation is the National Guard. Since the terrorist attacks of 
September 11, the Defense Department has depended daily upon the 
personnel and resources of the National Guard. In fact, the two F-15 
Eagle jets that responded to the attacks on the World Trade Center on 
September 11, 2001, were from the 102nd Fighter Wing, Massachusetts Air 
National Guard at Otis Air National Guard Base (ANGB).
    When we were attacked on September 11, more than 100,000 reservists 
and National Guard members sprang into action--Army, Navy, Air Force, 
Marines, Coast Guard. Since then, they have helped defend our homeland, 
drive the Taliban from power, shut down the terrorist training camps in 
Afghanistan, and liberate the Afghan people.
    These contributions have been vital to our success thus far in the 
global war on terrorism.
    The National Guard is particularly well-suited to perform selected 
homeland defense missions, such as the Air National Guard's important 
role in continental air defense. However, the National Guard is combat 
ready to conduct overseas military operations and is relied upon by 
combatant commanders as part of our Nation's strategic Reserve.
    In the past, the National Guard was dual-tasked. In wartime, the 
Nation has expected the Guard to fulfill its mission overseas; in 
peacetime, the Nation has expected the Guard to be available for 
domestic emergencies. The terrorist attacks of September 11 have now 
taught us that the National Guard may be called upon to do both at the 
same time, not by accident but because our Nation's enemies may attack 
us in both places at once.
    Consequently, as DOD reviews how best to deal with the challenge of 
the new security environment, it is mindful of the need to properly 
balance the application of the total force to: defend the homeland, 
contribute to the global war on terrorism, meet military commitments 
abroad, and, if necessary, participate in a major theater war.
    The National Guard can support homeland security in several ways. 
First, the Guard can operate in State service under the direction of 
the governors. For example, on September 11, the National Guard of New 
York, New Jersey and Connecticut responded to the attacks on the World 
Trade Center.
    Second, in State service but performing duties of Federal interest, 
in Title 32 status. This status involves State command and control, but 
Federal payment of costs.
    Third, in Federal Title 10 status, when the National Guard is 
mobilized to serve under the direction of the President or the 
Secretary of Defense. Significantly, the Commander of Northern Command 
will have command authority over the Guard only when it is serving in 
Title 10 status. In all other cases, command authority over the Guard's 
activities remains with State governors.
    These arrangements have worked well in the past. The challenge 
today is to translate them into our new security environment. There are 
many proposals for doing so, and we'll work with the NSC, HSC, DHS, 
Congress, and the governors to make certain that we have an approach 
that meets the Nation's needs.

 THE DEPARTMENT OF DEFENSE-DEPARTMENT OF HOMELAND SECURITY RELATIONSHIP

    March the 1st marked an historic day for the Federal Government. 
Over 170,000 employees from more than 20 different agencies officially 
became part of the Department of Homeland Security, creating a more 
effective, organized and united defense of our homeland. The Department 
of Homeland Security is a vital and important step in reorganizing our 
government to meet the threats of a new era as we continue the work of 
securing our Nation.
    As noted earlier, the Secretary of Defense has made a public 
commitment to work closely with the new Department of Homeland Security 
in order to coordinate the respective responsibilities. DOD and DHS 
have complementary missions and capabilities. In general, the 
Department of Defense is responsible for homeland defense missions--to 
defend the land, maritime, and aerospace approaches from external 
threats--while the Department of Homeland Security will be responsible 
for major elements of domestic security and civil preparedness. DOD 
will also provide military assistance to U.S. civil authorities in 
accordance with U.S. law, as directed by the President and the 
Secretary of Defense. For example, such assistance could include 
support for incidence management operations led by the Department of 
Homeland Security when authorized by the President or the Secretary of 
Defense. There will be an ongoing requirement for U.S. Northern Command 
to coordinate plans, exercises, and training with the operating 
components of DHS.
    As the Assistant Secretary of Defense for Homeland Defense, I will 
supervise all DOD homeland defense activities, including combatant 
command capabilities, consistent with the Secretary's direction and 
without interfering with the chain of command, and will coordinate all 
requests for assistance and cooperative ventures between the Department 
of Defense and the Department of Homeland Security.


             THE DEPARTMENT OF DEFENSE AND FIRST RESPONDERS

    DOD is eager to continue a long tradition of providing specialized 
capabilities, technology, and training to first responders. In 
addition, in situations where civilian authority capabilities to deal 
with emergencies is overwhelmed, DOD can provide unique assistance 
support of first responders. Some of these capabilities include those 
provided by the U.S. Northern Command's Joint Task Force Civil Support, 
the National Guard Weapons of Mass Destruction Civil Support Teams 
(WMD-CST), the Chemical-Biological Incident Response Force (CBIRF), the 
Chemical/Biological-Rapid Response Team (CBRRT), explosives detection, 
technical escort, and medical services.
    DOD participates in many interagency efforts to transfer applicable 
technologies to first responders. For example, DOD invests around $100 
million annually in the Technical Support Working Group (TSWG). The 
TSWG is a broad, interagency group that brings together nearly 20 
Federal agencies to develop, test, and field technology that would 
protect U.S. forces from terrorist attacks. These technologies also 
typically are applicable to first responders and other homeland 
security missions.
    DOD, through the Assistant to the Secretary of Defense for Chemical 
and Biological Defense, funds and participates in the InterAgency Board 
for Equipment Interoperability and Standardization (IAB). The IAB is a 
user-working group supported by voluntary participation from various 
local, State emergency responders, Federal Government, and private 
organizations. It is designed to help achieve standardization, 
interoperability, and responder safety and to better prepare emergency 
responders to respond to, mitigate, and recover from any incident by 
identifying and advocating requirements for Chemical, Biological, 
Radiological, Nuclear or Explosives (CBRNE) incident response 
equipment. The IAB publishes annually the Standardized Equipment List 
(SEL) that is utilized by National Institute of Justice in their grant 
process to guide State and locals on procurement of equipment for WMD 
preparedness.
    Section 1401 of the Fiscal Year 2003 Bob Stump National Defense 
Authorization Act directed the Secretary of Defense to appoint a senior 
individual to ensure transfer of technology and equipment to emergency 
responders and the civilian sector.
    DOD also provides first responder training at a variety of 
installations around the country. These programs--at facilities like 
the Chemical School, Maneuver Support Center, and the Chemical Defense 
Training Facility at Fort Leonard Wood, Missouri, and the Defense 
Nuclear Weapons School operated by the Defense Threat Reduction Agency 
at Kirtland Air Force Base, New Mexico--train DOD, State, and local 
responders to recognize and react to weapons of mass destruction and 
disaster situations.
    From local to national level, the Defense Department is an active 
participant in military/civilian training exercises. In fact, this 
year, elements of the Defense Department are scheduled to participate 
in exercises with Federal entities such as the Department of Homeland 
Security, the Environmental Protection Agency (EPA), the Nuclear 
Regulatory Commission, States such as Iowa, Utah, and Texas, and in 
cities such as Colorado Springs, Colorado, Seattle, Washington, and 
Winterburg, Arizona. Whether we are talking about a TOPOFF tabletop 
exercise in Washington, D.C. to examine the national response to a 
weapon of mass destruction attack or a Regional Readiness Workshop in 
Anchorage, Alaska to examine how the Federal, State, and local 
authorities cooperate to deal with the aftermath of an earthquake, such 
exercises forge realistic expectations, foster a firm understanding of 
roles and responsibilities, identify best practices, and highlight 
shortfalls that must be overcome.
    Some in Congress have expressed concerns that many first responders 
are also members of the military's Reserve component and that they may 
be called from their important local roles to fulfill their military 
missions. The Defense Department shares this concern. This is why, 
since 1979, the Defense Department has managed a screening program to 
ensure that civilian employers can identify critical positions that 
cannot be filled with personnel who are subject to mobilization. This 
program is intended to minimize conflicts between employees' military 
service obligations and their civilian employment requirements during 
times of war or national emergency.
    Due to the unique nature of the current emergency, which requires 
not only mobilization of the Ready Reserve but also the careful 
protection of public health and safety, the Defense Department has 
established a special process to accommodate individual requests from 
Federal and non-Federal agencies to submit mobilization exemption or 
delay for their employees who are Ready reservists, based on the 
critical nature of their civilian employment. DOD considers these 
requests on a case-by-case basis. Ready reservists who are granted 
exemption from mobilization are transferred to the Standby Ready 
Reserve or the Retired Reserve, or discharged, as appropriate.
    DOD is also in the process of establishing a mandatory Civilian 
Employment Information program. This new program will require the 
collection of both employee and employer related information. The 
Department's intent is to permit the military to fulfill mobilization 
requirements, while avoiding the dilemma outlined by some Members of 
Congress.

                               CONCLUSION

    In conclusion, the department and agencies--Federal, State, and 
local--charged with protecting American people and property share a 
common goal: to assure the security of American citizens, territory, 
and sovereignty. The Defense Department plays a proud role in the 
security of our Nation and will continue to work closely with others 
that share this responsibility. America's men and women in uniform 
stand ready to defend the Nation both at home and abroad.
    Thank you, Mr. Chairman.

    Chairman Warner. Thank you very much, Mr. Secretary.
    General Eberhart.

 STATEMENT OF GEN. RALPH E. EBERHART, USAF, COMMANDER, UNITED 
                    STATES NORTHERN COMMAND

    General Eberhart. Mr. Chairman, Senator Levin, 
distinguished members of the committee: I thank you for this 
opportunity to appear before you once again. I also thank you 
for your continued support of and commitment to a strong 
national defense, and especially the way you support those men 
and women who serve this great Nation and their families, 
especially those in harm's way.
    Chairman Warner. Would you bring the microphone up closer.
    General Eberhart. I am sorry, sir.
    Chairman Warner. You are not carrying your voice well.
    General Eberhart. Is this better?
    Chairman Warner. It is better.
    General Eberhart. Excuse me.
    It is also a pleasure to serve with the two gentlemen with 
me today. As Secretary McHale has said, we are not only 
professional colleagues, but we are also close personal 
friends. I can tell you in the 2 months that he has been on 
board he has certainly made a difference in focusing the 
Department on homeland defense and homeland security.
    To my left, Admiral Jim Ellis. As has been said, we have 
worked hard over the last year to establish our two new unified 
commands. There is a very special relationship between 
Strategic Command and NORAD and Northern Command when you look 
at aerospace warning, aerospace control, and in the future as 
you look toward missile defense.
    Although I have been asked this morning to appear as 
Commander of Northern Command, I would like to speak briefly 
about NORAD, a very special binational relationship that has 
served Canada and the United States exceedingly well since 
1958. The professional actions of those men and women in the 
aftermath of September 11 mentioned by Senator Kennedy, those 
at Otis among them, I am convinced have served to protect our 
population centers and our key infrastructure from air attack 
to this day. They have flown over 29,000 sorties collectively 
without an incident or an accident, which attests to their 
skill and expertise.
    Now let us turn to Northern Command. Northern Command is 
first and foremost a U.S. unified command, a construct that we 
adopted with the National Security Act of 1947. In fact, 
December of that year European Command, Pacific Command, and 
Southern Command were established. We decided at that time, 
because we were protected by two wide oceans and two friendly 
nations, that we did not need that command structure in North 
America.
    Then in 1958, because of the threat of Soviet long-range 
aviation and intercontinental ballistic missiles (ICBM), we 
established NORAD, but their responsibility was for air and 
space, not for land and sea.
    In the aftermath of September 11, it became apparent to the 
Secretary of Defense and the President that we were violating a 
principle of military command and control, that we did not have 
centralized command and control, decentralized execution. The 
President and the Secretary had to go to several different 
commanders that day to craft our reaction to those tragic 
events of September 11.
    So they decided and, with your support, they established 
Northern Command in October of this last year. Again, this is 
first and foremost a U.S. unified command; job number one, 
national security, homeland defense, defense against foreign 
aggression. However, this command is in fact different, as 
Secretary McHale has alluded to, in that our homeland is in our 
area of responsibility. So we have the secondary mission, which 
will be our prominent mission in the near future in my view, 
and that is providing support to civil authority, one-stop 
shopping, if you will, for Federal forces to be used however 
the President and the Secretary of Defense decide is the right 
way to use it to protect the men and women of this great 
Nation.
    I believe that, as you look at where we were a year ago or 
6 months ago or 3 months ago, we have come a long way. Mr. 
Chairman, you and I discussed during the confirmation hearing 
initial operational capability and full operational capability 
(FOC), and you cautioned me not to wait, to press ahead as fast 
as we possibly can, and we have done just that. In fact, I 
believe that we are farther along than I would have dreamed 
possible last year at this time or even 1 October, right around 
the time that we discussed it.
    But we still have a long way to go. In fact, I would offer 
to you that we should never be satisfied with our status in 
terms of homeland defense and homeland security. We need to 
continue to advance the ball. We need to continue to get 
better, because I guarantee you the bad guy out there, those 
who wish us harm, are figuring out ways as we speak today to 
attack us and what is near and dear to us.
    As the Secretary of Defense has said, this is important 
business. This is mission number one, to protect the men and 
women of this great Nation where they live and work.
    I look forward to your questions.
    [The prepared statement of General Eberhart follows:]

           Prepared Statement by Gen. Ralph E. Eberhart, USAF

    Chairman Warner, Senator Levin, and members of the committee:
    It is an honor to appear before this committee again, and to 
represent the outstanding men and women of North American Aerospace 
Defense Command and United States Northern Command. The soldiers, 
sailors, airmen, marines, coast guardsmen, national guardsmen, 
reservists, and civilians serving in our Commands are truly the ``best 
of the best,'' and give our two great nations--the United States and 
Canada--every reason to be proud.
                                 norad
    Our number one priority is to strengthen aerospace warning and 
control of United States and Canadian airspace. Prior to 11 September 
2001, we focused on threats originating from outside North America. As 
a result of these terrorist attacks, we now also look for threats from 
within our borders.
    Thanks in large part to the timely passage of the Fiscal Year 2002 
Defense Emergency Response Fund, today we have connectivity with 70 FAA 
long-range interior en route radars, better ground-to-air 
communications, and a robust coordination capability to provide 
comprehensive coverage of our airspace.
    Throughout this integration effort, the FAA has been very 
responsive to our requests for technical assistance. This strong 
partnership of dedicated people is committed to further improving our 
ability to protect the Nation's airspace.
    Operation Noble Eagle. NORAD defends North America from domestic 
air threats through Operation Noble Eagle. Across the United States and 
Canada, armed fighters are on alert and flying irregular combat air 
patrols to identify and intercept suspect aircraft. Since 11 September 
2001, we have flown over 28,000 sorties to deter, prevent and defend 
against potential terrorist attacks, without a single mishap. This 
tremendous accomplishment is a tribute to the professionalism and 
perseverance of the men and women executing these missions.
    In addition, we are supporting homeland defense operations with a 
layered air defense of the National Capital Region. We have developed 
new relationships across the DOD and with interagency partners to 
establish a comprehensive shield to guard our Nation's capital.
    To maintain our warfighting edge, we routinely exercise and 
evaluate our ability to defend against the full spectrum of air 
threats. United States' and Canadian civil agencies continue to make 
air travel safer through increased airport and aircraft security 
measures. However, if called, we stand ready as the last line of 
defense against threats within our airspace.
    North American Air Surveillance Plan. In our efforts to provide the 
best possible coverage of North America, we have teamed with the FAA 
and North American Air Surveillance Council to further enhance our 
wide-area surveillance capabilities. There has been an outstanding 
level of interagency cooperation to develop a comprehensive North 
American Air Surveillance Plan that addresses our requirements to 
detect, identify and classify all aircraft within North American 
airspace. We look forward to fielding expanded capabilities that track 
even smaller, low-altitude threats.

                         NORAD'S RELATIONSHIPS

    USNORTHCOM. NORAD and USNORTHCOM are two separate commands. Neither 
command is subordinate to the other or a part of the other, but we work 
very closely together. Members of the two commands work side-by-side 
within the Cheyenne Mountain Operations Center and, in many cases, 
United States military members are dual-hatted in positions on both 
staffs.
    Bi-National Planning Group. The Departments of Defense and State 
have been working with their counterparts in Canada to develop 
additional areas of cooperation to better protect our citizens. One 
promising outcome of this collaboration is an agreement to establish a 
Bi-National Planning Group for a 2-year term.
    This group will identify additional ways to protect our citizens 
and strengthen air, land and maritime defense of North America, while 
respecting the national interests and sovereignty of each nation. 
Members have already begun arriving and will be appended to NORAD.

                               USNORTHCOM

    On 1 October 2002, the President established USNORTHCOM as a 
regional combatant command to provide ``unity of command'' for United 
States military actions that counter threats to our homeland from the 
air, land, or sea domain. We are just like the other regional combatant 
commands, with one important difference--the United States homeland is 
in our area of responsibility.
    We conduct operations to deter, prevent, and defeat threats and 
aggression aimed at the United States, its territories and interests. 
We also provide military assistance to civil authorities, when directed 
by the President or the Secretary of Defense. When we work with civil 
authorities, we will most likely be in a support role to a lead Federal 
agency, providing ``one-stop shopping'' for Federal military 
assistance. The President's decision to establish USNORTHCOM has 
enhanced the DOD's ability to provide quick, responsive support, when 
and where needed.
    Organization. USNORTHCOM has few permanently assigned forces. 
Whenever mission requirements dictate, we will request additional 
forces from the Secretary of Defense, and if approved, receive them 
from our force provider, United States Joint Forces Command. Our day-
to-day operations are conducted by three subordinate commands:

        <bullet> The Joint Force Headquarters--Homeland Security 
        supports land and maritime defense planning for the continental 
        United States, and provides military assistance to civil 
        authorities.
        <bullet> The Joint Task Force--Civil Support provides command 
        and control of consequence management forces that respond to 
        chemical, biological, radiological, nuclear, and high-yield 
        explosive events.
        <bullet> The Joint Task Force--6 provides support to Federal, 
        State, and local counterdrug law enforcement agencies.

    Exercises. Over the past several months, we have trained and 
exercised with 55 Federal, State, and local agencies across a broad 
spectrum of scenarios. During Unified Defense 02-2 in September 2002, 
we validated our initial capability to command and control forces in 
response to future attacks. Most recently, in February 2003, we 
completed a second major exercise, Unified Defense 03-01, to strengthen 
the trusted relationships we need with interagency partners to defend 
our Nation's homeland.
    Current Operations. We have demonstrated our ability to conduct 
operations in a number of emergency situations. During the Washington, 
DC, sniper attacks, we coordinated aerial surveillance for the Federal 
Bureau of Investigation's (FBI) efforts. Most recently, we supported 
military operations in the aftermath of the Space Shuttle Columbia 
tragedy. As directed by the Secretary of Defense, we established a 
response task force to provide command and control for DOD resources 
and units, in support of the Federal Emergency Management Agency 
(FEMA).
    We have also been called upon to conduct operations in support of 
pre-planned events. In October 2002, using forces provided by United 
States Pacific Command, we supported the President's attendance at the 
Asia Pacific Economic Cooperation Conference in Los Cabos, Mexico. In 
January 2003, we provided command and control of all military support 
to the State of the Union Address, to include security, emergency 
medical, and chemical and biological response forces.
    Emergency Preparedness and Response. We have the capability to 
assist local responders and lead Federal agencies in their response to 
a bioterrorism incident. Although biohazard investigative expertise 
exists in most local and State health departments and in the Federal 
Centers for Disease Control and Prevention, these resources may become 
overwhelmed in emergency circumstances. When directed by the President 
or Secretary of Defense, we will provide bioterrorism experts to a lead 
Federal agency to help prevent or contain a situation. Likewise, we are 
ready to provide field medical units, as well as logistics, 
transportation and security capabilities to assist Federal, State, and 
local agencies, as required.

                        USNORTHCOM'S CHALLENGES

    Intelligence. Homeland defense relies on the sharing of actionable 
intelligence among the appropriate Federal, State, and local agencies. 
Our Combined Intelligence and Fusion Center collates and analyzes data 
from the United States Intelligence Community and nearly 50 different 
government agencies. One of our greatest challenges lies in sifting 
through the volumes of intelligence and operational data from these 
sources. Our goal is to help connect the dots to create a clear threat 
picture, playing our appropriate military role as part of the 
interagency team. Another shared challenge is to overcome cultural and 
procedural differences among the DOD and other departments for 
information that is collected, categorized, classified, analyzed and 
disseminated.
    Homeland Command, Control, and Communications. We need to be able 
to command and control forces and to coordinate planning and operations 
with agencies at the Federal, State, and local levels. Interoperable 
communication architectures and trusted information exchange 
environments provide the framework for coordinated operations. We have 
ongoing efforts with our homeland defense and civil support partners to 
upgrade existing architectures and to better integrate our information 
collection and exchange capabilities.
    Ballistic Missile Defense. We are working with the Missile Defense 
Agency, United States Strategic Command and other combatant commands to 
develop the Concept of Operations that will ensure the United States 
has an effective missile defense capability by the fall of 2004.
    Posse Comitatus. We will remain vigilant in ensuring that 
USNORTHCOM is used in accordance with the laws of our great Nation--
respecting the rights and liberties of every American. We understand 
the Posse Comitatus Act and related laws and the clear limits placed on 
military support to civil law enforcement. We believe the act, as 
amended, provides the authority we need to do our job, and no 
modification is needed at this time.

                       USNORTHCOM'S RELATIONSHIPS

    Our command is built upon a total force and total national team 
concept that includes members from all five Services, the National 
Guard, the Reserves, DOD civilians and numerous Federal, State, and 
local agencies. We believe we are redefining ``jointness'' by forming 
new partnerships within the DOD and with numerous civilian agencies, as 
well as strengthening existing ones. Developing these strong 
relationships is key to our success.
    Department of Homeland Security. The Secretary of Defense will 
coordinate with the Secretary of Homeland Security on policy and 
resource issues. In accordance with decisions by the Secretary of 
Defense, we will work with various sectors of the Department of 
Homeland Security on operational planning, training and execution.
    Assistant Secretary of Defense for Homeland Defense (ASD(HD)). We 
have frequent interaction with Paul McHale on a broad range of issues. 
As ASD(HD), his principal duty is the overall supervision of the 
homeland defense activities of the DOD.
    Other Combatant Commands. We have established a conceptual 
framework with Admiral Jim Ellis, Commander, United States Strategic 
Command; Admiral Ed Giambastiani, Commander, United States Joint Forces 
Command; and General Charlie Holland, Commander, United States Special 
Operations Command to secure the homeland. We are also working closely 
with the regional combatant commanders to eliminate threats to our 
homeland from afar. Our focus is to address gaps in coverage and any 
overlapping responsibilities to ensure that we provide an integrated 
defense for our citizens at home and abroad.
    National Guard. We have a close relationship with the National 
Guard Bureau, which is enhanced even more by having Major General Steve 
Blum, an Army National Guardsman, as our Chief of Staff. We believe 
that no force is better suited to help deter, prevent, and defeat many 
of the threats we face than today's National Guard. Through the 
National Guard Bureau, USNORTHCOM coordinates with State headquarters 
for planning purposes and maintains situational awareness of National 
Guard actions and commitments.
    To support our missions of homeland defense and military assistance 
to civil authorities, we are looking at the feasibility of evolving the 
current mobilization process into something closer to the current air 
defense model used by the Air National Guard in support of NORAD's 
mission. Specifically, Air National Guard fighter units of 1st Air 
Force have been successfully employing instantaneous Title 10 USC 
orders for several years. These orders allow an individual to 
volunteer, with consent of the Governor, to be federalized for specific 
missions prior to execution. We believe we can achieve a higher level 
of readiness if we apply the air defense mobilization model to the 
existing National Guard response forces, when needed in a Federal 
capacity.
    Coast Guard Maritime defense missions involve traditional military 
activities such as combat air patrols and naval operations within our 
area of responsibility. In these cases, we would take the lead and the 
Coast Guard would likely be called upon for support. It is important to 
note that the Coast Guard does not report to USNORTHCOM, although we do 
have several Coast Guardsmen on our staff, including Rear Admiral Jim 
Van Sice, who serves as our Deputy Director of Operations. The Coast 
Guard is in the Department of Homeland Security, and any requests for 
Coast Guard assistance to DOD would come from the Secretary of Defense 
to the Secretary of Homeland Security.
    By contrast, the Coast Guard would be the lead Federal agency for 
maritime homeland security. When directed, we would support Coast Guard 
homeland security missions through our naval component commander. This 
support might include maritime air surveillance, the use of naval 
surface combatants with Coast Guard Law Enforcement Detachments 
onboard, or the use of specialized DOD capabilities.
    Interagency. We are leveraging the unique capabilities and 
expertise of Federal, State, and local agencies to protect our 
homeland. Our Joint Interagency Coordination Group is working to help 
synchronize interagency plans, exercises and operations. In addition, 
we have a growing number of liaison officers in our headquarters staff 
at Peterson Air Force Base, to include the FBI, Central Intelligence 
Agency, FEMA, and the National Imagery and Mapping Administration.
  potential future capabilities and missions for norad and usnorthcom
    We continue to address critical command and control challenges 
highlighted by the terrorist attacks on our homeland. We are committed 
to improving our situational awareness by developing a common operating 
picture for the air, land and maritime domains.
    Combatant Commanders' Integrated Command and Control System. We are 
pursuing ways to leverage the Combatant Commanders' Integrated Command 
and Control System to modernize our aging 60's era air and missile 
warning systems and infrastructure. This will allow us to migrate to 
our next-generation Battle Control System and provide the foundation 
for a fully integrated NORAD-USNORTHCOM command and control capability.
    Battle Control System. The upgraded Battle Control System will 
provide connectivity with a wide array of radars and sensors across 
North America, thereby giving our homeland a more integrated air 
defense capability. As future increments are fielded, we will be able 
to process air defense data faster, as well as improve our battlespace 
awareness.
    High Altitude Airship (HAA) Advanced Concept Technology 
Demonstration. The Office of the Secretary of Defense, the Missile 
Defense Agency, the United States Army and NORAD are spearheading the 
effort to demonstrate the technical feasibility of an unmanned, 
untethered, long-duration HAA. The prototype airship will stay airborne 
for 1 month and carry a 4,000-pound payload. We expect the objective 
HAA to have the capability to stay airborne for up to a year and carry 
a payload greater than 4,000 pounds. A robust HAA capability would give 
warfighters persistent wide-area surveillance of the battlespace 
against a full spectrum of air, land and sea threats.
    Homeland Security Command and Control Advanced Concept Technology 
Demonstration. USNORTHCOM is sponsoring this Advanced Concept 
Technology Demonstration to provide the DOD homeland security community 
with operationally relevant command and control capabilities. This 
initiative will help us rapidly insert mission-enhancing technologies 
and promote information sharing, collaboration and decision-making in a 
trusted information exchange environment.

                               CONCLUSION

    We are grateful for everything the members of this committee have 
done to ensure our ability to defend our homeland. The National Defense 
Authorization Act for Fiscal Year 2003 reflects your commitment to our 
mission, as well as to our servicemen and women, and we appreciate your 
continued support. With your help, our Nation will be safer tomorrow 
than it is today. I am honored to appear before you, and look forward 
to your questions.

    Chairman Warner. Thank you very much, General.
    Admiral Ellis.

 STATEMENT OF ADM. JAMES O. ELLIS, JR., USN, COMMANDER, UNITED 
                    STATES STRATEGIC COMMAND

    Admiral Ellis. Thank you, Mr. Chairman, Senator Levin, 
distinguished members of the committee. I, too, have a prepared 
statement that I would like to submit for the record.
    Chairman Warner. Without objection, all statements in their 
entirety will be made a part of the record.
    Admiral Ellis. Thank you, sir.
    It is an honor to appear before you all once again 
representing, as always, the outstanding members of the United 
States STRATCOM, men, women, military, civilian, Active and 
Reserve alike. I am pleased again to share the panel with 
Secretary McHale and General Ed Eberhart. As Ed noted, during 
the last several months he and I have worked closely together 
through the creation of our two new unified commands, and the 
United States Strategic Command looks forward to developing a 
similarly productive relationship with Secretary McHale and his 
staff in the months ahead.
    As you have already noted, Mr. Chairman, ours is a new 
United States Strategic Command. It is a reflection of the new 
international security environment we must all work to 
effectively address together. It is a reflection of the 
recommendations of the Space Commission, the Quadrennial 
Defense Review (QDR), and the Nuclear Posture Review (NPR). 
Finally, it is a reflection of the clear guidance the President 
gave to the Department to challenge the status quo and envision 
a new architecture of American defense.
    The new United States Strategic Command was created first 
and foremost to provide responsive, integrated, and 
synchronized combat capability and support across geographic 
boundaries. As has already been noted, in a global sense, every 
combatant command is employed in defending our homeland and 
this Nation's interests. The United States Strategic Command is 
responsible for the integration of intelligence, information 
operations, and the national strategic arsenal in their 
support.
    I am convinced that the alignment of responsibility for our 
Nation's on-orbit capabilities under the same unified command 
that now has global responsibilities in four previously 
unassigned mission areas has created new opportunities to shape 
our future. I am committed to working with our strong and 
growing team of partners to address each one of these new 
capabilities. We are crafting not just a vision, but a clear 
and detailed course of action in every mission area.
    Since the United States Strategic Command was established 
last fall on the 1st of October, we have provided significant 
support to the Nation and the regional combatant commanders. 
Examples include: deploying intelligence, planning, space, and 
information operations experts to theaters of interest around 
the globe, including United States Central Command (CENTCOM); 
optimizing communications, bandwidth, and global positioning 
system performance for ongoing combat operations; and providing 
24 hours a day, 7 days a week missile warning to our forces in 
the field and to General Ed Eberhart for his AOR, our homeland.
    We have led the intelligence community effort to find and 
characterize underground facilities in Afghanistan and other 
countries. We have used our on-orbit systems for battle damage 
assessments, targeting, as well as for providing data to the 
ongoing analysis being conducted by Admiral Gehman and the 
Space Shuttle Columbia mishap investigation team.
    We remain committed to the Nation's deterrent capability 
resident in our stockpile and the delivery systems and to 
retaining and advancing the United States' position as the 
preeminent space-faring nation.
    One of our new missions, integrating missile defense across 
all areas of responsibilities, will be very important to 
enhanced homeland security. Strategic Command's role in missile 
defense is to develop a global concept of operations for a 
multi-capability system with an integrated command and control 
architecture to work seamlessly across all of the regional 
combatant commands, a demanding task.
    Response time to defend against an enemy missile attack 
will be short. Therefore, streamlined organizational structures 
and precise guidance must be drafted and wargamed in advance of 
the initial defensive operations goal of fiscal year 2004.
    This is a very exciting time for the professionals at 
United States Strategic Command. We have tremendous 
opportunities ahead of us and are engaged in charting the 
course for meeting our future warfighting needs. To pursue 
these needs, we will advocate for advanced conventional 
capabilities, support the sustainment and modernization of our 
nuclear deterrent force, sustain and further operationalize the 
tremendous capability our on-orbit assets bring to the Nation, 
and develop and maintain a cadre of highly trained strategic, 
space, and information operations professionals.
    Never before has such a broad array of missions been 
combined under one combatant command. We are aggressively 
building the right teams, the right structure, and the right 
plans to move confidently from concept of operation to tangible 
combat capability. We are leveraging our historic strategic 
planning expertise and our space and information operations and 
regional support heritage to become a more globally focused 
operational headquarters, one that is better equipped to 
provide the combat capabilities required by our national 
leaders and support the warfighters in the defense of this 
great Nation.
    Thank you and I look forward to your questions, Mr. 
Chairman.
    [The prepared statement of Admiral Ellis follows:]

             Prepared Statement by Adm. James O. Ellis, USN

    Mr. Chairman, Senator Nelson, and distinguished members of the 
committee, it is an honor to again appear before you, representing the 
outstanding men and women of United States Strategic Command, to 
address the strategic issues that remain so vital to the Nation. As you 
recall, during our last hearing we discussed space operations, allowing 
us to focus today on strategic deterrence and the actions underway to 
shape a dramatically different strategic future.
    U.S. Strategic Command, our components, and our task forces are 
crafting an entirely new command, instrumental in fighting the war on 
terrorism, deterring a wider array of potential adversaries, and 
focused on recasting the Nation's global military capabilities for the 
demands of the 21st century.
    We are drawing on the best elements of both U.S. Space Command and 
U.S. Strategic Command in order to eliminate seams, broaden oversight 
and streamline responsibilities. Significant reductions in the level of 
operationally deployed strategic nuclear weapons have begun in 
compliance with Presidential direction, the NPR and the Moscow Treaty 
while continuing to meet our obligations under the Strategic Arms 
Reduction Treaty (START). Associated deactivation or modification of 
strategic delivery platforms is also well underway.
    STRATCOM continues to deploy or provide intelligence, planning, 
targeting, space, and information operations expertise to operations in 
U.S. Central Command and around the world. We have reshaped and 
streamlined the command's component and organizational structure to 
enable an integrated and trans-regional approach to matching global 
capabilities to global challenges. Importantly, we also completed a 
comprehensive update to our deterrent force plans to reflect the needs 
of the new international security environment.
    While these efforts are critical, they represent only the first 
steps toward a much broader vision of our strategic future. On January 
10, 2003, the President signed Change Two to the Unified Command Plan 
(UCP) and tasked us specifically with four previously unassigned 
responsibilities. These are: global strike, missile defense 
integration, Department of Defense information operations, and command, 
control, communications, computers, intelligence, surveillance, and 
reconnaissance (C\4\ISR). This unique combination of roles, 
capabilities, and authorities under a single unified command will bring 
new opportunities in the strategic arena, in addition to further 
refining the global opportunities to support the regional combatant 
commanders.
    We are quickly integrating the efforts of our strong and growing 
team of service, agency, national laboratory, and intelligence 
community partners to define specific goals, identify milestones and 
quantify the progress of our collective efforts. Today, the new U.S. 
Strategic Command is improving our Nation's joint combat effectiveness 
by modernizing systems, streamlining processes, and providing a broader 
range of fully integrated mission capabilities to the warfighter and to 
our Nation's leaders.

               THE FUTURE OF OUR NUCLEAR FORCE STRUCTURE

    I am proud to again report that our Nation's nuclear deterrent 
forces remain fully ready. They are manned by a cadre of true 
professionals who, around the world and around the clock, effectively 
support the nuclear pillar of our national security strategy. For more 
than 56 years, Strategic Air Command and the former U.S. Strategic 
Command stood at the ready, supporting deterrence through rigorous and 
disciplined planning, effective training, and robust command and 
control of our Nation's strategic nuclear forces. The professionals of 
the new U.S. Strategic Command still willingly shoulder that enormous 
responsibility. We remain fully confident that STRATCOM's readiness, 
and that of our service components, is the most effective guarantee 
that the use of these weapons will never be required. As we reshape our 
organization and assume broader responsibilities, we remain committed 
to rigorously ensuring the continued safety and surety of our nuclear 
arsenal and delivery systems. Zero defects remain our standard.
    We are making prudent and measurable progress in achieving the 
President's goal, codified in the Moscow Treaty, of between 1,700 to 
2,200 operationally deployed strategic nuclear warheads by the year 
2012. Air Force Space Command, our Air Force component, began 
deactivation of Peacekeeper ICBMs on 1 October 2002. This effort 
remains on schedule and will be complete by 2005. The Navy removed two 
Trident submarines, U.S.S. Ohio and U.S.S. Florida, from strategic 
service in fiscal year 2003, to be followed in fiscal year 2004 by 
U.S.S. Michigan and U.S.S. Georgia. All four of these capable vessels 
will be modified into Tomahawk cruise missile carriers, designated 
SSGN, by the end of 2007. They will also provide a tremendous increase 
in the size and sustainability of support to our special operations 
forces. With the 1996 re-role of the B-1 to a non-nuclear role, we are 
moving to retire several hundred gravity weapons in fiscal year 2003, 
and are finalizing plans to remove many of the oldest ICBM warheads 
from the Nation's active nuclear stockpile.

                     SUSTAINMENT AND MODERNIZATION

    With no new nuclear systems under development, the important task 
of sustaining and modernizing our Nation's aging weapons and delivery 
platforms must be carefully managed and appropriately resourced. These 
forces must remain a ready, reliable, and credible element of our 
Nation's security posture. Other than the Navy's submarine launched D-5 
missile, still in low-rate production, we are no longer building any of 
the weapons or platforms that comprise our strategic forces. We 
appreciate your continued strong support, through service and agency 
programs, of our key weapon, delivery platform, and communications life 
extension and upgrade programs. These include:

        <bullet> Minuteman III Guidance Replacement Program (GRP), 
        replaces aging electronic components and updates software to 
        preserve reliability, maintain accuracy, and ensure 
        supportability through 2020. The GRP is the foundation of MMIII 
        modernization and is being completed at the rate of 80 per 
        year, with 140 deployed to date.
        <bullet> Minuteman III Propulsion Replacement Program (PRP), 
        corrects age-related degrades by repouring the propellant in 
        stages I and II, and remanufactures stage III. PRP requires GRP 
        software for fielding, and must be sequenced appropriately. It 
        is programmed at the rate of 96 per year, with 49 boosters 
        deployed to date.
        <bullet> B-52 Avionics Mid-life Improvement, one of STRATCOM's 
        highest priorities, and AEHF upgrade, to ensure mission 
        capability and assured connectivity as this aircraft continues 
        to establish new benchmarks in service longevity.
        <bullet> D5 SLBM Life Extension and Backfit Programs, will 
        provide a standardized fleet of 14 SSBNs for the full hull life 
        of the Trident II. Two of four SSBNs have completed backfit 
        with the remaining two scheduled for completion in fiscal year 
        2006 and fiscal year 2007. D5 life extension requires 
        replacement of guidance and missile electronics on fielded D5 
        missiles, and procurement of 115 additional missiles to meet 
        reliability testing needs over the 14-year life extension of 
        the hull. The D5 Life Extension Program is adequately funded 
        and on schedule for initial operational capability in fiscal 
        year 2013.
        <bullet> B-2 communications upgrade, which may require 
        acceleration in future years to ensure secure and survivable 
        connectivity as AEHF replaces MILSTAR.
        <bullet> Strategic War Planning System (SWPS), which recently 
        completed an initial upgrade and is now entering a new phase. 
        This new modernization effort will incorporate the flexibility 
        and responsiveness envisioned by the Nuclear Posture Review and 
        broadened to support our newly assigned non-nuclear strategic 
        and regional support missions.
        <bullet> Combatant Commanders Integrated Command and Control 
        System (C2IC2S), which will replace aging and unsustainable 
        NORAD/U.S. Strategic Command mission-unique battle management 
        systems with a single, open architecture. C2IC2S is on track to 
        incrementally deliver warfighting C2 capability for NORAD in 
        late fiscal year 2004, strategic missile warning in early 
        fiscal year 2006, with space surveillance and control 
        capabilities being delivered from fiscal year 2003 through 
        fiscal year 2008.

    In addition to our vital life extension and modernization programs, 
we are working closely with our partners in the Departments of Defense 
and Energy, and Congress to ensure our nuclear stockpile remains safe, 
reliable, and credible. As the Nation's nuclear stockpile continues to 
age, we must carefully monitor its condition. Through the National 
Nuclear Security Administration's (NNSA) science-based Stockpile 
Stewardship Program, we continue to improve our surveillance, modeling, 
simulation tools and processes in order to provide the critical data on 
aging effects, component reliability and physics phenomena we require 
in the absence of nuclear weapon testing. Past drawdowns in nuclear 
weapon infrastructure require that the essential warhead life extension 
programs be carefully sequenced with scheduled warhead dismantlement so 
as to provide just-in-time delivery to meet operational deterrent force 
requirements. We are working closely with the NNSA, the national labs 
and plants to shape their support to our future stockpile. With the 
production complex operating near its peak capacity, we will need to 
optimize the balance between essential life extension programs and 
dismantlement work.
    Annually, at the direction of the President, I provide a nuclear 
weapon stockpile assessment to the Secretary of Defense. In my last 
assessment, based on the information provided by my staff and 
independent advice from our expert Strategic Advisory Group, I outlined 
my confidence in the safety and reliability of the stockpile. This is 
the first time since the program began in 1996 that a STRATCOM 
assessment did not indicate a decline in confidence in the reliability 
of the stockpile. I attribute this directly to the continued 
improvements in and funding for the Stockpile Stewardship Program, to 
the steps taken by NNSA and the Services to diligently address 
previously reported technical issues, and to the progress of the 
ongoing life extension programs. I agree with the rigorous technical 
analysis conducted, and confirmed to the Secretary there is currently 
no need to consider resumption of nuclear testing. I appreciate your 
strong support for funding of the NNSA, enabling continuation of their 
important work.
    As we continue to sustain and modernize our forces, we are also 
working closely with the Services and the Department of Energy to 
address the critical anti-terrorism and force protection requirements 
associated with safeguarding the Nation's nuclear systems. The ongoing 
Mighty Guardian exercise series and the Nuclear Command and Control 
System Federal Advisory Committee End-to-End Review have helped the 
Services and the Department of Energy better focus their security 
efforts. While the changing character of the postulated threats 
requires continuous evaluation, I believe the Services are making 
concrete improvements in physical security, though much remains to be 
done. We will continue to encourage this effort through the STRATCOM 
Integrated Priority List and will remain an active participant in the 
creation of implementation guidance that will flow from completed 
Office of the Secretary of Defense policy studies such as the NPR and 
the End-to-End Review.

                      FUTURE ENHANCED CAPABILITIES

    It is well known that much of our current military capability was 
designed or procured for a dramatically different international 
security environment. This is especially true of our Nation's deterrent 
forces. Though sustainment and modernization of these systems remains 
essential, equally important is the examination of future concepts and 
the contribution they could make to our deterrent posture. A 
fundamental assumption of the Nuclear Posture Review is that a mix of 
advanced capabilities, some yet to be designed, that include 
conventional, non-kinetic, special operations and nuclear, is needed in 
order to offer the broadest range of options to our Nation's leaders. 
Such a spectrum of capabilities will both enable the planned NPR draw 
down in operationally deployed strategic nuclear weapons and form part 
of a New Triad of deterrence in support of the President's goal of 
reduced reliance on nuclear weapons. While there are certainly 
significant policy issues associated with this transformational effort, 
it is also true that much laboratory research and development, detailed 
analytical study and advanced simulation efforts are an essential 
underpinning to such a fact-based dialogue. A number of organizations, 
including the Department of Defense and the Defense Science Board have 
nascent reviews underway. As the Secretary of Defense has noted, these 
studies are intended to consider and weigh alternatives and in no way 
pre-suppose decisions as to detailed design, production or deployment.
Advanced Conventional Capabilities and Global Strike
    U.S. Strategic Command's newly assigned global strike mission 
extends our long-standing and globally focused deterrent capabilities 
to the broader spectrum of conflict. We will incorporate conventional, 
non-kinetic, and special operations capabilities into a full-spectrum 
contingency arsenal and into the Nation's strategic war plan to further 
reduce our reliance on nuclear weapons. This innovative approach will 
enable the command to deliberately and adaptively plan and rapidly 
deliver limited-duration, non-nuclear combat power anywhere in the 
world. Our intent is to provide a wide range of advanced options to the 
President in responding to time-critical, high-threat, global 
challenges and, thereby, raise even higher the nuclear threshold.
    As envisioned, global strike could be decisively conducted at the 
direction of our most senior civilian leaders. It also represents a 
powerful tool in support of the regional combatant commander, 
essentially increasing the forces and options he has available to deter 
and engage an adversary. In either case, global strike will provide the 
Nation the ability to engage priority targets by moving rapidly from 
actionable intelligence, through adaptive planning, to senior-level 
decision-making and the delivery of kinetic or non-kinetic effects 
across thousands of miles. It can provide what may be the most critical 
element early in the fight--time. As a regional combatant commander 
assembles and moves forces into position or needs to strike into 
temporarily denied areas, U.S. Strategic Command can provide early 
planning and tangible, long-range combat capability. We are initially 
building this capability around the bomber force, and are bringing the 
B-1 back into our force structure in its purely conventional role. This 
committee's continued support of advanced conventional weapons 
initiatives such as the SSGN will assist in our immediate efforts to 
improve joint warfighting effectiveness. We continue to study concepts 
such as conventional ballistic missiles, Common Aerospace Vehicles, 
hypersonic aircraft, and unmanned combat aerial vehicles that could 
play a significant role in improving our global strike capabilities in 
the mid- to long-term.
Information Operations (IO)
    Delivering on the promise of information operations is one of U.S. 
Strategic Command's top priorities. Incorporating computer network 
attack and defense, electronic warfare, psychological operations, 
strategic deception and operational security, this nascent mission area 
promises to dramatically improve our offensive and defensive 
capabilities, and may play a large role in shaping the size and 
character of future force structures. Quite simply, I believe that 
integrated IO comprise the next revolution in warfighting, and our new 
role as the integrator of DOD information operations will bring a joint 
perspective to improvements in capabilities, ensure ready access to IO 
planning, reduce stovepipes, test and validate new capabilities, and 
provide a responsive command and control system to the Nation's 
civilian leaders and combatant commanders.
    Our current vision has U.S. Strategic Command serving as the 
central IO armory. While we need not own service and agency IO 
programs, or execute all IO missions, we must have full insight and 
access to all DOD IO capabilities as well as execution capability for 
strategic efforts. We will capitalize on our proven expertise in 
detailed intelligence collection, rigorous nuclear planning and 
consequence analysis to bring a fully integrated, deliberate planning 
process to the IO realm. We envision providing weapons or capabilities 
with documented system reliability and analytically based estimates of 
consequences and effectiveness, just as we have done for decades with 
the Nation's nuclear forces. We will support an expeditious national-
level approval process for conducting IO, and we will work to ensure 
national leaders and warfighters have what they need at their disposal, 
not only during crisis but also during the critical planning, training, 
exercise, and deployment phases. In this vein, we have conducted a 
number of advanced information operations exercises, spanning the 
entire planning, approval, execution, and battle damage assessment 
phases, and have identified valuable lessons for inclusion in our 
future planning and development processes.
Missile Defense
    The danger posed by weapons of mass destruction and their delivery 
systems is clearly one of our Nation's top concerns. As we discussed 
during my last appearance, the Missile Defense Agency (MDA) is actively 
developing an array of land, air, and sea-based missile defense systems 
to provide an additional level of protection for our homeland, our 
allies, and our forces in the field. Although still in the early stages 
of development, global missile defense will become an important third 
leg of the Nation's New Triad beginning next year.
    While the MDA develops and acquires our missile defense systems, 
U.S. Strategic Command is charged with efficiently integrating and 
operationalizing global missile defense, enabling an initial defensive 
operations capability in less than 18 months from today. As General 
Myers noted recently before this committee, missile defense is 
inherently a multi-command and multi-regional task, and we are 
developing the global concept of operations and command and control 
architecture to provide the full support needed by the regional 
combatant commanders to defend their theaters, including the ballistic 
missile defense of the continental United States by U.S. Northern 
Command. With the unique combination of missions now assigned to our 
command, we are also working to integrate the emerging defensive 
capabilities with our full-spectrum of offensive capabilities, to 
support rapid and fully informed decision-making at the appropriate 
tactical level. This effort will be aided by the long-existing 
relationships we have crafted as the historic provider of ballistic 
missile integrated threat warning.
Command, Control, Communications, and Computers (C\4\)
    In the fast-paced and complex national security environment of the 
21st century, U.S. decision-makers and warfighters must have seamless 
access to superior information to conduct decisive operations. Under 
the Unified Command Plan, STRATCOM now is assigned the role of tasking 
and coordinating C\4\ in support of strategic force employment. Our 
objective is to provide a more capable and flexible means to integrate, 
synchronize, coordinate, and convey information at any level from the 
President to the front-line combatant. We will partner closely with 
U.S. Joint Forces Command and the Defense Information Systems Agency in 
this critical effort.
    The events of September 11, 2001, illustrate the need to improve 
our national command and control architecture, and we are working with 
the Assistant Secretary of Defense for Command, Control, and 
Communications (ASD/C\3\) and a host of others to craft a new national-
level C\4\ system. This system must allow increased access to a broader 
array of Federal agencies, provide improved information flow, enable 
rapid decision-making, and support the requirements of our network-
centric forces in the Information Age. While this is important for the 
Nation and all of the Department's missions, it is imperative for the 
strategic deterrent, integrated missile defense, and global strike 
missions, where data collection, analysis, decision-making, and 
execution must occur within dramatically compressed timelines. We will 
leverage our experience with nuclear command and control to create a 
robust, hardened component to the national C\4\ system to preserve and 
strengthen the deterrent effect that assured communications, rapid 
decision-making and certain action provide. We appreciate your 
continuing support of the innovative communications initiatives such as 
the Transformational Communications Architecture and the important 
delivery platform connectivity upgrades vital to robust command and 
control.
Intelligence, Surveillance, and Reconnaissance (ISR)
    U.S. Strategic Command is also tasked under the Unified Command 
Plan to plan, coordinate, and integrate ISR for the Department of 
Defense in support of global and strategic operations. While ISR has 
always provided intelligence insight and targeting data, recent world 
events have demonstrated the critical role comprehensive ISR operations 
can play in senior-level decision-making, tactical planning and even 
deterrence.
    We will work closely with Department of Defense and Intelligence 
Community partners to develop and institutionalize the processes and 
systems necessary to maximize the capabilities of existing systems and 
assess intelligence collection priorities. New concepts such as 
intrusive ISR, incorporating space-based, air-breathing, terrestrial 
and maritime elements, could take us beyond passive collection 
benefits, especially when integrated with critical human intelligence 
and technical data. Our objective is to not only better provide 
persistent, actionable, predictive intelligence, but also to deter the 
threatening actions that a robust, global, persistent ISR capability 
could bring into full view. Systems such as the Space Based Infrared 
System (SBIRS), Future Imagery Architecture (FIA) and Space Based Radar 
(SBR) represent the high end of a spectrum that must also bring 
advanced air-breathing, terrestrial and maritime elements into a global 
architecture. Our ISR needs and regional focus in time of crisis are 
well known. In the future, global challenges will require an ISR 
capability that is broad and deep enough to simultaneously meet all 
national and regional needs across the continuum of peace, crisis, and 
conflict.

                      OPTIMIZING THE ORGANIZATION

    As you recall from my previous statements, U.S. Strategic Command 
is realigning our overall headquarters organizational structure in 
order to effectively and efficiently address a wider range of 
responsibilities. We will organize along functional and operational 
lines, rather than administrative in an effort to focus on our primary 
mission areas. As we move to our new organizational alignment this 
month, we will expand the use of enhanced planning and analysis tools 
into our newly assigned mission areas. While we will draw heavily on 
their tools and skills, we will retain the core nuclear planning staff 
as a distinct element in our headquarters, organizationally aligned and 
consolidated to ensure focused and dedicated nuclear planning and 
expertise continues in the future as it has for more than half a 
century.
    As we design concepts of operations for the new command, we are 
pursuing innovative new service relationships that will enable the 
command to efficiently tap into the unique skills and expertise 
resident in an array of other organizations, without requiring full-
time STRATCOM ownership of their forces. We are strengthening our 
partnerships with the national agencies in order to collaboratively 
approach our new mission areas, particularly in the highly technical 
and focused realm of intelligence, information operations, and 
communications. We have forged new relationships with the National 
Security Agency, the National Reconnaissance Office, and the Defense 
Information Systems Agency. Each has incredibly talented professionals 
and dedicated systems, processes, and procedures that are important to 
our shared success but which need not be duplicated in our 
headquarters. We are also excited about the opportunity to leverage our 
strong relationships with the national laboratories as we expand and 
develop new capabilities applicable to our recently assigned missions.
    As we discussed previously, success in any of our missions depends 
on our number one asset--our people. Creating a culture of excellence 
in a broader and deeper range of missions while sustaining the 
standards still reflected in our nuclear and space communities will 
depend on recruiting, training, and retaining the best and the 
brightest, in our military, in public service, in industry, and at the 
national labs. We will fully support and participate in efforts to 
create and sustain cadres of space, nuclear, and information operations 
professionals in both the Department of Defense and the Department of 
Energy. They are absolutely essential to our future.

                      CHALLENGES AND OPPORTUNITIES

    As we work to achieve the goals, carry out the responsibilities and 
deliver the capabilities needed for the global challenges of the 21st 
century, we will encounter many difficulties and find many more 
opportunities. It will not be quick or easy; few truly important 
efforts are. We will need to keep in mind our broader objectives, even 
as we wrestle with the daily technical, operational or policy details. 
Though the list will doubtless change over time, our specific strategic 
goals are:

        <bullet> Fully implement the guidance of the Nuclear Posture 
        Review, to include advocating the development of advanced 
        offensive and integration of defensive capabilities in order to 
        meet the President's goal of reducing our reliance on 
        operationally deployed strategic nuclear weapons.
        <bullet> Delivering on the promise of information operations to 
        the warfighter.
        <bullet> Integrating global missile defenses across regional 
        boundaries, combining land, air, and sea-based systems with 
        capable offensive forces to better protect the Nation and our 
        forces in the field.
        <bullet>  Providing adequate bandwidth and a robust 
        communications architecture for rapid decision-making and 
        global combat operations at the strategic and operational 
        level.
        <bullet> Supporting technical and process enhancements in 
        intelligence, surveillance and reconnaissance so as to provide 
        comprehensive, persistent, predictive, and actionable strategic 
        capabilities.
        <bullet> Redefining the STRATCOM organizational structure and 
        crafting new relationships with the Services and national 
        agencies to effectively and efficiently support our broadened 
        responsibilities.
        <bullet> Supporting the Services' and the Department of 
        Energy's efforts to enhance anti-terrorism and force protection 
        measures for our critical space and nuclear facilities.
        <bullet> Addressing concepts of deterrence and the associated 
        force structure appropriate for the new international security 
        environment of this decade and beyond.

    Each of these challenges will require a team effort, inside and 
outside the command. As we move forward, we look forward to working 
with you and the many others who are privileged to share the humbling 
responsibilities for our Nation's defense.

                               CONCLUSION

    It is a time of great enthusiasm, excitement, and opportunity at 
U.S. Strategic Command. While 2002 was a year of new concepts, 2003 and 
2004 must clearly be years of execution. Driven by new tasking and new 
responsibilities, in a real sense we at STRATCOM have reclaimed the 
classic definition of strategic, as articulated by Sun Tzu, Clauswitz, 
Washington, or Webster. We no longer live in a world where strategic is 
synonymous with nuclear, and we are integrating and interlinking the 
command's broad portfolio of missions to better and more flexibly meet 
the deterrent needs of the Nation. We have taken the first important 
steps in the evolution of our full-spectrum ``new'' strategic 
capabilities, even as we have taken the historic first steps in drawing 
down our Nation's deployed nuclear arsenal.
    I appreciate your continued support of the men and women of 
STRATCOM and the unique and essential contributions they continue to 
make to our Nation's security. I look forward to reporting our 
continuing progress to you in the future, as we take the next important 
steps in building the new United States Strategic Command.
    Thank you, and I welcome your questions.

    Chairman Warner. Thank you, Admiral.
    We will have our usual 6-minute round. Our colleagues, 
Senators McCain and Levin, have very carefully laid out 
important questions with regard to the borders. I would like to 
raise a similar question related to the coastlines bordered by 
our oceans. How serious is the threat there? What role do each 
of you play in protecting any possible incursions across our 
coastline, the most probable being a terrorist missile attack 
of some type from some type of vessel? Who budgets for 
technologies and programs that might address this threat?
    Yesterday, General Eberhart, you and I had an opportunity 
to visit privately and you said that your area of 
responsibility as designated extends 500 miles to sea. I was 
quite reassured by the command and control you have over 
vessels coming in and surveillance. Then, Secretary McHale, I 
expect you are more or less coordinating all the efforts on 
this. Admiral, I am not sure what portion you have.
    But let us start with General Eberhart.
    General Eberhart. Sir, as we look at maritime threats we 
focus initially on what we would consider threats that the 
Department of Defense would have the lead on. The example that 
you used, a cruise missile, whether it was from a foreign 
nation's navy or a terrorist cruise missile, we would certainly 
have the lead for that type of activity.
    Ideally, as we talked earlier and you alluded to during 
your statement, we want to stop that missile, that crew, before 
it reaches the 500-mile limit of our area of responsibility.
    Chairman Warner. Board the vessel if necessary?
    General Eberhart. Board the vessel, and if that does not 
work then do whatever is appropriate in terms of international 
law and law of the sea to make sure that that does not pose a 
threat to this Nation. Ideally, we like to work with the flag 
carrier, whatever nation whose flag that ship is flying, and we 
have found that they are very cooperative. If they believe that 
they have a flagged vessel that in fact is carrying contraband 
or doing something that poses a threat to us, we would like for 
one of our allies to take care of this problem before it poses 
a threat to us.
    You could argue that we are the supported command for this 
exercise, kind of a moot point. But in fact, if European 
Command (EUCOM) or Pacific Command can take down that threat, 
that is great. Let us defend as far forward as possible.
    Then if it is necessary and we do not detect it, we are not 
aware of it until it is inside our area of responsibility. 
Every day we look at where all of the ships are in the Atlantic 
and in the Pacific. We work with both the Navy and the Coast 
Guard to ensure we know what ships are closest to this threat, 
what ships would have the capability to deal with the threat, 
whatever the threat might be, and then we respond.
    Now, what we do not have right now and what we need in the 
future is wide area surveillance.
    Chairman Warner. What is the last word?
    General Eberhart. Wide area surveillance, sir. We get some 
surveillance, obviously, from our overhead, but that is 
cyclical, if you will. It is not 100 percent of the time. If we 
know the general area to look in we can send out aircraft for 
surveillance. Sometimes we can do it with other ships' radar, 
et cetera. But over time we are going to have to harness the 
technology so that we have a picture on the sea much like we 
have a picture in the air today, so that we can sort the good 
guys from the bad.
    Chairman Warner. How soon do you anticipate that that will 
be a part of your----
    General Eberhart. Sir, right now we are doing what we call 
an advanced concept technology demonstration, which is 
supported by the Department of Defense. It is supported by 
Congress and is funded. This is essentially a high altitude 
unmanned aerial vehicle (UAV) that will be up 60,000 to 70,000 
feet. We think one day it will have the capability to be up for 
a year or more and provide us this wide area surveillance.
    Chairman Warner. What about the UAVs we currently have in 
inventory and coming on line with further production?
    General Eberhart. We can use those, too, sir. But obviously 
they are somewhat limited in terms of duration time and in 
terms of legs and in terms of their capacity to carry sensors. 
But all of those things we have to harness.
    Chairman Warner. Please include in the record such 
additional information you may have.
    [The information referred to follows:]

    Lessons learned from employment of UAV systems such as the Predator 
and Global Hawk have provided valuable insight into the potential for 
unmanned systems to support homeland defense. Prospective UAV 
applications include emergency response communications capability, 
long-endurance surveillance and detection for border and maritime 
security, and sensors to support law enforcement and civil response 
agencies. In addition, ground and maritime unmanned vehicles are 
promising technologies that could provide homeland defense 
capabilities.

    Chairman Warner. Now I want to get in a question for 
Secretary McHale related to port security. It is one thing to 
interdict the vessel beyond our shores, but there are instances 
where that vessel will be portside, and also the ports 
facilities could well be a target of those that have not come 
by sea but come by land, that is the terrorists.
    Secretary McHale. Yes, sir. Mr. Chairman, one of the things 
that I have tried to do during the brief period of time that I 
have been in office has been a conscious focus on pushing 
outward the boundaries of our defense. A great deal of emphasis 
has been appropriately applied to port security and I certainly 
do not denigrate that. But I come out of a Marine Corps 
background and I believe in locating and defeating the enemy as 
far from my position as possible.
    So I want to reach out well into the blue water to defeat 
the enemy threat, particularly if it is a weapon of mass 
destruction. I also want to locate that threat if it comes into 
port, but that is frankly when the enemy has made it into the 
wire and that is a late stage in the process.
    It was noted earlier that the NORTHCOM area of 
responsibility includes approximately 500 nautical miles of 
blue water. While that is true, it is somewhat of a 
generalization. It is basically 500 nautical miles on the west 
coast, but if you look at the Unified Command Plan and see how 
the lines are actually drawn it is probably three times that 
distance, approximately 1,500 nautical miles, along the east 
coast because of the way the line is drawn in a straight line 
and our coast is curved.
    We have a substantial amount of blue water on either side 
of the Nation in which to detect, interdict, and destroy an 
enemy attack.
    Chairman Warner. That includes the States of Alaska and 
Hawaii, I presume?
    Secretary McHale. Yes, sir, it does. We have the 
responsibility for all of the homeland defense activities, 
whether they are in General Eberhart's AOR or, as is the case 
for instance of Hawaii, within the PACOM AOR. So our charter is 
a little bit broader, significantly broader in the sense of 
protecting American citizens and property and freedoms beyond 
the AOR that have been assigned to General Eberhart.
    We have a very large amount of blue water. We need to take 
advantage of that entire space for an integrated maritime 
defense of our coastline. That begins with better intelligence, 
intelligence that in terms of area of interest is worldwide for 
General Eberhart. We need to bring to that intelligence a 
homeland defense perspective that has not always been the case 
in the past.
    Chairman Warner. How long is it going to take you to 
achieve that? You are saying that in the future we are going to 
do this. I want to know what that time line is, and are there 
sufficient assets in the pipeline, perhaps in this most recent 
supplemental, perhaps in the President's budget, to implement 
what you foresee now as being the needed requirements for 
equipment, training, personnel to carry out that mission.
    Secretary McHale. Mr. Chairman, we have gotten a lot better 
in the last few months in terms of bringing a homeland defense 
perspective to raw intelligence. That intelligence has 
historically been oriented toward the forward edge of the 
overseas battlefield and relatively few analysts have looked at 
that information in order to make a connection to a domestic 
threat.
    We have gotten better. My hope and expectation is that the 
President's proposal for the Terrorist Threat Integration 
Center (TTIC) that he announced in his State of the Union 
address will allow us to fuse overseas intelligence collection 
capabilities for analysis and review by those who in the United 
States look at that information, to determine its relevance to 
a threat that might materialize here, so that we connect the 
dots before an event occurs.
    Mr. Chairman, I also think that we can in the future take 
advantage of our GPS tracking system in order to have real-time 
location information with regard to a naval platform that may 
ultimately pose a threat to the United States, and that that 
tracking can go on for an extended period of time so long as we 
believe that that ship is still on the seas and that it might 
at some point be a threat to our Nation.
    Chairman Warner. My time is expiring. Admiral Ellis, do you 
have a contribution to this question?
    Admiral Ellis. Yes, sir. Very briefly, Mr. Chairman, our 
job is to provide to General Eberhart and all the regional 
combatant commanders everything we have and to act as the 
spokesman on behalf of the combatant commanders for the very 
real capabilities that we need to develop. That includes robust 
communications architecture, the persistent intelligence, 
surveillance, and reconnaissance that Ed was speaking to, the 
fused multi-system ballistic missile defense capability, and a 
viable information operations capability.
    So we are being asked to centralize that, to assess what we 
have, and to look, more importantly, at what the architecture 
and requirements need to be for the future across the full 
spectrum of the threats that confront the Nation.
    Chairman Warner. I thank the witnesses.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    I would like to pick up with Secretary McHale and with 
General Eberhart, particularly on the intelligence questions 
which you just discussed. Secretary McHale, what is your 
connection and what is the new command's connection to the 
Counterterrorist Center (CTC) at the CIA? How are you linked to 
that center, which analyzes the information relative to foreign 
terrorists which threaten our interests here in the United 
States?
    Secretary McHale. Senator, I think Ed will probably want to 
comment on this as well. But there are a number of ways in 
which we are linked. I have daily communication with the CIA in 
order to have access to the information generated by the CIA 
related to domestic threats. I begin each day with a DIA brief 
and then follow that by attending the briefing that is received 
by the Secretary of Defense on these very issues.
    Senator Levin. Let me interrupt you there. Are you 
represented at the CTC the way the FBI is and the way the 
Department of Homeland Security is?
    Secretary McHale. Our office is not, but I do believe that 
the DIA is represented, and we have daily contact with the DIA. 
In addition, we have recently created, pursuant to the 
statutory authority provided by Congress, the Under Secretary's 
position for Intelligence, and I know he intends to work very 
closely with both that agency and the Terrorist Threat 
Integration Center.
    Senator Levin. So that your connection to that place which 
produces the analyses which you need, presumably, and General 
Eberhart needs, is through the DIA?
    Secretary McHale. Yes, sir. In addition, General Eberhart 
has on his staff full-time a representative of the CIA. That 
person is located with General Eberhart out in Colorado 
Springs. That person serves along with a DIA representative as 
a conduit back to the CIA in terms of their counterterrorism 
analysis and information.
    Senator Levin. General, that person, however, does not sit 
at the CTC and is not part of the analysis process; is that 
correct?
    General Eberhart. That is correct, sir. That person is not.
    Senator Levin. So it is a one-way conduit from you to the 
CTC, but not from the CTC to you; is that fair or is that too 
simplistic?
    General Eberhart. Sir, I really think that does not 
appropriately capture it, because there are about five 
different conduits from the CTC to me. There are regular 
reports that they send out that we get copies of, and we get 
those directly. In some cases we get them from other 
organizations, but in some cases we get them directly.
    Senator Levin. You get all the analyses of the CTC that 
affect homeland security?
    General Eberhart. Sir, I am convinced that we do. Again, we 
have some checks and balances here. We have the head of the 
DIA, and if he sees a report he picks up the phone and calls 
our J-2, our intelligence, and says: ``Have you seen this 
report?'' I am happy to report to this day we have.
    We have this DIA liaison officer right there in the CTC who 
is checking and doublechecking to make sure we get the 
information we need. Then we have this flag level CIA 
representative, so that if we have a question about a report we 
can go back verbally and get an answer very quickly, as opposed 
to going back through a bureaucracy, if you will.
    Senator Levin. The lack of coordination of intelligence 
information between the various agencies was a huge failure 
prior to September 11. There are a number of efforts being made 
by this committee and the Governmental Affairs Committee, by a 
lot of committees, to make sure that that does not happen 
again. You state in your testimony, General Eberhart, that one 
of the greatest challenges lies in sifting through the volumes 
of intelligence and operational data, and that another shared 
challenge is to overcome cultural and procedural differences 
among the DOD and other departments for information that is 
collected, categorized, classified, analyzed, and disseminated.
    I happen to agree, by the way, that those challenges exist. 
But would you expand on that? If those challenges exist, it 
suggests that they have not yet been overcome. Give us a little 
more detail about those challenges.
    General Eberhart. Sir, my view is that the challenges 
exist. Sadly, they will probably always exist to some degree. 
However, we have come a long way since September 11 in being 
able to overcome those challenges and to make them manageable, 
if you will. There is, to a large degree, an approach now that 
we have termed ``need to share'' as opposed to ``need to 
know.'' I think we are seeing that type of attitude out there, 
whether it is a law enforcement organization, whether it is the 
intelligence community, or if it is information from open 
sources that we think we need to put together to integrate, to 
ideally fuse, as the Secretary has said, so we can connect the 
dots and have something that is actionable.
    As we do these scenarios--as we do this real-time sharing 
of information day in and day out--those cultural barriers come 
down. I am seeing better cooperation than I have ever seen 
before, much like during the 1990s when we brought down a lot 
of those cultural barriers in the intelligence community to 
share information, and Jim Ellis and others were part of that 
effort.
    We have done things like what we call a tear line, where we 
might have very sensitive information that talks about the 
source and a lot of other things, but the source and those 
kinds of things are not important out at the tactical level. So 
we take that, we sanitize it to the point where the tactical 
user gets the information he or she needs and it is not as 
highly classified as it was before, where we said we cannot 
share this information.
    So we have taken, I believe, some significant steps. That 
does not mean we have this right yet. We have to continue to 
work it.
    Senator Levin. Thank you.
    One of the issues that I have been very concerned about is 
the ability to detect explosives from a distance. Ever since 
the bombing of the U.S.S. Cole, that has been very high up on 
our radar as a technological challenge. Are we making any 
progress, Secretary McHale, on the ability to develop standoff 
detection capability for explosives, as well as for chemical, 
biological, and nuclear weapons material?
    Secretary McHale. Senator, I think we are. I was encouraged 
by the briefings that I received when I came on board to find 
out that our remote sensing capabilities are more advanced than 
I would have anticipated. That for me was very encouraging 
information.
    A couple weeks ago I was with Senator Reed at a homeland 
defense symposium in Newport, Rhode Island. Congressman Kennedy 
attended that as well, and I had an opportunity to speak to a 
number of significant contractors in the private sector who are 
bringing advanced and robust technology to this area.
    With regard to explosives, the challenge is significant. 
With regard to weapons of mass destruction, it is even greater. 
Just to give you a quick example, a few years ago Tom Clancy 
wrote a novel that focused on the transport of an improvised 
nuclear device across the Atlantic Ocean into one of our 
unprotected ports. That novel's plot went on to describe the 
consequences following the detonation of that improvised 
nuclear device.
    It is my belief that if an enemy is to acquire weapons of 
mass destruction, that will likely take place overseas, and it 
is likely that the material for that weapon would be brought 
into our country by a maritime platform. There are sensors now 
in use. They are in the early stages of development, but there 
are sensors that I think hold out great promise for creating 
what I have called WMD choke points, engagement areas, where we 
would have the opportunity to screen passing vessels, to 
determine whether or not a weapon of mass destruction was 
aboard the ship. The science to support that effort is not too 
far down the road in terms of its understanding and operational 
employment.
    So one of the most encouraging areas of information that I 
have had brought to my attention since taking this office is 
the very real prospect that in the not too distant future we 
will be able to operationally employ in an effective way remote 
sensing capabilities for explosives and particularly for high-
end weapons of mass destruction.
    Senator Levin. My time is up. Thank you.
    Senator Inhofe [presiding]. Thank you, Senator Levin.
    Senator Allard.
    Senator Allard. General Eberhart, we have talked a lot in 
general terms about local, State, and Federal cooperation. I am 
curious to know what kind of mechanisms perhaps you are putting 
in place now to encourage that cooperation to occur. I think in 
my own mind of things like war games, for example. I mean, 
there might be an opportunity there to create some kind of 
scenario where you could have local--or what are you doing, for 
example, to maybe have an input on training programs for law 
enforcement? I wondered if you would share with us some of your 
thoughts.
    General Eberhart. Senator Allard, I think the best way to 
answer this is to say there are both formal programs and 
informal programs. First to the formal programs. I think the 
best example of that is the civil support teams that Congress 
has authorized. These soon will be in all 54 States and 
territories. My view is that these teams are a wonderful bridge 
from those first responders to the State militia and then to 
Federal forces if and when those Federal forces are required.
    Because those teams are federally-funded and equipped, we 
have been able to ensure standardization among those teams. 
They have the same equipage, they have the same training, they 
use the same terminology. They are certified by the United 
States Army to conduct this mission, and then the Secretary of 
Defense is the final certification official.
    So therefore we have this standardization and soon we will 
have this standardization in all of our States and territories 
that I think will help us standardize all the way from the 
first responders of the fire departments and the police 
departments again to State agencies to Federal agencies. That 
is a formal program, if you will, and I think those types of 
programs pay big dividends.
    The informal programs are what you alluded to. Those are 
voluntary in nature, but we certainly do not have trouble 
getting people to volunteer. These are where we do war games 
scenarios. In most cases they are in Colorado Springs when we 
do these, or when we participate in other places, there will be 
upward of 50 different government agencies, to include State 
and local responders and State agencies, sitting at the table 
working our way through a scenario, whether that is a weapon of 
mass destruction, whether that is some sort of epidemic, or 
whatever the case may be, crisis management or consequence 
management.
    I think these interactions are very important in terms of 
standardization, in terms of interoperability, in terms of 
building friendship and confidence that will really be the key 
to our success.
    Then finally, back to the formal programs, we have formal 
exercises. This summer, TOPOFF 2 has been chartered by Congress 
for us to conduct. TOPOFF 2 will include three or four 
different States in this exercise program where we will reach 
down all the way to the first responders and we will exercise 
the entire system from first responders to Federal forces when 
and where needed.
    So I think we are making good progress there. It takes 
time. Sometimes it is slower than we would like. We cannot 
mandate this, but I think everybody realizes this is the right 
way to go.
    Senator Allard. Thank you, General.
    Admiral Ellis, I am curious to know what you are doing in 
your newly created command to make sure that space remains a 
core mission.
    Admiral Ellis. Senator, as you and I have discussed many 
times, space is the fundamental underpinning of everything we 
do in today's military, not just with the new missions that 
have been assigned to us at the United States Strategic 
Command. Clearly that takes on a number of levels. First off, 
we need to assess candidly the requirements and the programs 
that are being put in place by each of the Services. From a 
joint warfighter perspective that is our role, to assess the 
level of funding, the priorities, and the like from each of the 
Services--Army, Navy, and Air Force--that contribute to that 
through robust componency relationships with me.
    I have also taken it upon myself to make sure that I visit 
all of the facilities that are so important to our space 
effort. That is, the launch complexes on both coasts, 
obviously, and the major industry contributors to the assured 
access and the tremendous on-orbit capabilities that we have 
enjoyed and absolutely must preserve and enhance in the years 
ahead.
    Finally, we are very much a part of the gaming and the 
simulation capabilities that are an important part of 
reemphasizing for each of our warfighters the importance of the 
role that space plays in their ability to execute their 
missions. We just completed, as you are undoubtedly aware, 
Schriever II, which was the second of our national war games, 
if you will, in space. That involved representatives from all 
agencies, all Services, as well as the private sector, so that 
we take the lessons that we learn from a vision of what 
challenges will confront us in the future as a Nation to better 
optimize the progress that we want to continue towards 
enhancing our use of space.
    Senator Allard. Secretary McHale, the National Guard 
continues to be a critical part of our military mission. At the 
same time, it is essential for homeland defense. Has the 
Department of Defense determined how to best utilize the Guard 
in your view?
    Secretary McHale. I think we have a direction, but not an 
end state that has been defined. While maintaining the Guard as 
a balanced force that will continue to serve as an important 
part of our Nation's Strategic Reserve, with overseas 
warfighting requirements and training, we anticipate that the 
National Guard will play a more active and focused role, a more 
robust role, in homeland defense.
    We have eight National Guard divisions that are oriented 
now primarily toward the overseas war fight, at least in terms 
of their Title 10 mission requirement. I anticipate, as General 
Eberhart described a bit earlier, that the Guard will play an 
even more significant role in terms of future CSTs. The 
National Defense Authorization Act has now required that we 
establish 55 such teams. We currently have 32 that are 
certified. So clearly the National Guard is going to play a 
bigger role in that area.
    The National Guard plays an important role in terms of 
individuals and units that have been assigned to JTF-Civil 
Support for consequence management, including consequence 
management following a successful enemy attack involving a 
weapon of mass destruction. So in the future what I anticipate 
is that, while the Guard will remain committed to the training 
and equipment for an overseas war fight, substantial portions 
of the National Guard will, in addition to overseas warfighting 
missions, be assigned new homeland defense requirements.
    Senator Allard. A lot of these individuals are part-time. 
They have jobs other than the Guard. If we put on too much 
responsibility, then it no longer becomes a part-time position. 
Are we able to maintain our personnel in the National Guard? 
Are they pretty happy with the current situation?
    Secretary McHale. I think they are.
    Senator Allard. Even with the increased demands?
    Secretary McHale. Even with the increased demand. The Guard 
is now playing an important role with regard to our overseas 
war fight, particularly in combat support and combat service 
support capabilities that the Guard brings to our overall 
military capability. To the best of my knowledge, there are no 
ground combat units, no maneuver elements from the Guard that 
are currently engaged in Iraq.
    We have a significant number of Guard personnel who can, 
either in Federal status, Title 10 status, or more likely in 
State status, play a significant role in terms of the 
protection of domestic critical infrastructure. We have Guard 
personnel deployed right now at various locations around the 
country protecting in State status critical facilities that the 
governor of the individual State believes needs to be protected 
under circumstances where civilian law enforcement may not be 
prepared to take on that challenge.
    So in the years ahead--and I would emphasize this--I think 
there will be a much more important role for the Guard, but not 
just in Title 10 Federal status. I think, as was the case with 
Operation Liberty Shield when Secretary Ridge announced that we 
were going to a heightened state of alert during the period of 
conflict in Iraq, at his suggestion a number of governors in 
State status took their Guard forces, put them on alert, 
brought them to active duty and, again in State status, 
deployed them to protect critical sites.
    That mission of critical infrastructure protection I think 
is one that with increasing likelihood will be assigned to the 
Guard.
    Senator Allard. Mr. Chairman, my time has expired.
    Senator Inhofe. Thank you, Senator Allard.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    General Eberhart, I have a few questions for you. During 
the Space Shuttle Columbia tragedy, how did NORTHCOM, NORAD, 
and STRATCOM respond and how did they work together?
    General Eberhart. Sir, as soon as we knew that in fact it 
looked as if we had lost the Space Shuttle Columbia, there was 
a problem with Space Shuttle Columbia, we initiated with the 
National Military Command Center what we call a domestic event 
conference. That domestic event conference is something that 
grew out of the tragedy of September 11, where we get all the 
players, if you will, on a teleconference so that we know what 
the problem is and what type of solution sets might be 
available and to try to sort out those very important questions 
such as who will be in the lead, who will have the lead for 
this effort. It has proved to be a wonderful vehicle that has 
served us well as we have worked our way through many different 
problem sets.
    On that day, representatives from STRATCOM, NORAD, and 
NORTHCOM were all up. I was personally up, and through that 
conference and through then subsequent conversations offline it 
was established that initially the National Aeronautics and 
Space Administration (NASA) was the lead Federal agency.
    Then we switched the lead Federal agency from NASA to the 
Federal Emergency Management Agency (FEMA) because it was 
obvious that it was now a consequence management problem, but 
that NASA would still be supported, because we had to in fact 
secure this wreckage and make sure it did not constitute a 
threat to the citizens of this great Nation, and also so we 
could try to put together the accident investigation.
    So, in fact, what you had was Strategic Command in the lead 
for the accident investigation, supporting the accident 
investigation, and Northern Command in the lead in supporting 
FEMA in terms of recovering the debris and safeguarding our 
citizens. That is the way it has progressed to this day, 
obviously with policy guidance from the Office of the Secretary 
of Defense, specifically the Office of the Assistant Secretary 
of Defense for Homeland Defense. We had teleconferences every 
day for about a week there as we sorted our way through these 
problems.
    So I think that the mechanism of the domestic event 
conference, the close friendship and working relationship 
between commands and the Office of the Secretary of Defense, 
served us well in the aftermath of that tragedy.
    Senator Pryor. It sounds like you work pretty well 
together. Are there lessons learned? In other words, can we do 
it better next time? Did we learn some lessons this time?
    General Eberhart. Sir, I am a believer that if you win 70 
to nothing tomorrow, you can still do something better the next 
time you get on the field, because whoever you are playing is 
going to be better. So there is no doubt in my mind that there 
are things that we can do better, and we in fact have an after-
action report that we are working our way through now. It is 
the initial after-action report. It is very detailed.
    But I think in terms of how we provide capabilities to 
these agencies there is a long list of things that we in fact 
can do better and we are working to do those better in the 
future.
    Senator Pryor. Let me ask a follow-up to Senator Allard's 
questions a minute ago about the National Guard, and maybe you 
answered this. But what role do you see the National Guard 
having in homeland security and, more specifically, in 
NORTHCOM?
    General Eberhart. Sir, I would like to say that there are 
two great teachers, if you will, in terms of homeland defense 
and homeland security. One goes back to the 1630s and that is 
our militia, that is our National Guard. The second is our 
Coast Guard, dating back to 1790. They have been doing this 
since their inception and we have a lot to learn from both of 
these great institutions.
    So when I think of homeland defense and homeland security, 
first and foremost I default to those organizations because I 
know they know how to do it. Of course, the dilemma is, as the 
Secretary has said, do you take the National Guard and relegate 
it--probably not the right verb--to only homeland defense and 
homeland security missions or do you keep a broader view, but 
look for ways to focus them better. I do not mean better in 
terms of they are not doing it well enough, but so that we can 
in fact leverage them better for homeland security and homeland 
defense. I think the latter is what we should do, as the 
Assistant Secretary has mentioned.
    I believe that we have a construct right now in that our 
air defense missions, as you well know, are predominantly, 
almost exclusively conducted by our National Guard. I think 
that construct can serve us well for sure on the land, too, as 
we look at our quick reaction forces and our rapid reaction 
forces in the future. Obviously, if we do that we have to have 
them so that they are able to react quickly and promptly. 96 
hours or a week does not get it. They have to be ready to go in 
12 or 24 hours.
    I think we can make those kinds of things work, but I am 
open to any and all ideas here. I am convinced we can do it 
better.
    Senator Pryor. I would love to visit with you some time 
about what resources you think the National Guard needs to 
augment and to assist in the mission and be able to achieve the 
mission that it is intended to do.
    Secretary McHale, we talked a little bit here about 
NORTHCOM and working very closely with Canada. What about 
Mexico? Is there a reason why Mexico is not in this? Does that 
mean that we do not perceive any threats coming from the south?
    Secretary McHale. Senator, if I may, could I comment 
briefly on the previous question and move to Mexico very 
expeditiously?
    Senator Pryor. Sure.
    Secretary McHale. Among the lessons learned with regard to 
the Space Shuttle Columbia tragedy was initially some 
uncertainty as to the lead Federal agency. Immediately 
following the tragedy there was an expectation that the 
Department of Defense might be the lead Federal agency. Quickly 
there was a recognition that that is not the way to approach 
these issues. Under the Federal response plan, FEMA assumed 
very effectively its lead. We provided support to FEMA. But 
there was uncertainty in the first few hours.
    The military response during Space Shuttle Columbia 
reflected the fact that Title 10 involvement is likely to be 
modest in terms of domestic engagement. Most of the military 
support for the recovery effort was led by the National Guard 
in State status. About 1,000 guardsmen were deployed from the 
various States that were affected and they did a superb job, 
but they were under State command and control, at State 
expense. We in fact used about a half dozen CSTs in Title 32 
status as part of the cleanup.
    Now, forgive me, I will move very quickly to your question.
    Senator Pryor. That is okay.
    Secretary McHale. We are pursuing a close cooperative 
relationship with the Mexican military where that effort is 
governed by profound respect for Mexican sensitivities with 
regard to their national sovereignty. NORAD has provided a 
bilateral relationship with Canada that goes back many decades. 
It is a mature military relationship and the comfort level of 
that relationship reflects the friendship and professional 
military cooperation that has existed throughout NORAD's 
existence.
    We hope to achieve an even closer relationship than the one 
we have had with Mexico in the past, but the pace of pursuing 
that relationship must be dependent upon the sensitivities on 
both sides of the relationship. There are appropriate 
sensitivities in Mexico with regard to the protection of 
Mexican sovereignty. We are pursuing cooperative military 
efforts with Mexico, but only at a pace that meets the 
requirements Mexico brings to the table.
    So it is our hope that, with regard to the NORTHCOM AOR, in 
the years ahead we will have a close cooperation between 
neighbors both on our northern and southern borders, and we are 
in fact pursuing that, but with a sensitivity toward the 
historic concerns that are manifested by the Mexican government 
and the Mexican people.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Allard [presiding]. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Secretary McHale, let me begin by commending you for the 
work that you have already undertaken to ensure a strong 
relationship between your office and the new Department of 
Homeland Security. I was very pleased to hear the update that 
you provided in your opening statement. I want to follow up on 
concerns that have been raised by my colleagues about the 
National Guard.
    As of April 2, I believe that there are nearly 220,000 
members of the National Guard and Reserves now on active duty. 
In Maine many of the members of the National Guard's regular 
jobs are in our police and fire departments. They tend to be 
the backbone of the first responders in many Maine communities. 
Similarly, we had a situation in Maine where a Coast Guard 
cutter which was working hard on port security in southern 
Maine has now been deployed to the Gulf.
    Is there a concern that as we rely more on the Guard in a 
conflict such as the one in Iraq and as we deploy and redeploy 
Coast Guard assets, there is a danger that we could end up 
actually weakening our homeland security? When you look at the 
members of the Guard who are first responders in communities 
all across this Nation, and the first responders are the 
backbone of homeland security in many ways, and if you look at 
the Coast Guard, which has been so involved in port security, 
if we are starting to redeploy those assets are we risking our 
homeland security in times of war?
    Secretary McHale. Senator, we obviously have to approach 
those kinds of issues very carefully. The first thing we need 
to do is get the facts. When I had my confirmation hearing, 
Senator Clinton asked me about this issue and I indicated to 
her that we would provide information related to the number of 
first responders who were also reservists in various 
capacities.
    I discovered when I got back to the Pentagon--we have since 
communicated this to Senator Clinton--that we do not know that 
information, because when I gave the answer it was my belief 
that we could locate those individuals within the Reserve and 
the Guard who are also first responders. I discovered that, 
since the majority of our first responders in the United States 
are in fact volunteers, although we have data at the Department 
of Defense with regard to employment of our reservists, we do 
not have data with regard to their volunteer activities that 
might relate to first responder requirements.
    In fact, I think there are something like a million, 
perhaps slightly more than that firefighters in the United 
States. Three-quarters of them are volunteers.
    So as a direct result of the question before this 
committee, the Department of Defense has now undertaken a 
comprehensive survey in order to determine not only the 
occupations of those who serve in the Reserves, but also their 
volunteer activities insofar as they relate to first responder 
status.
    In addition, the Department of Defense does have a program 
for delaying the activation of individuals if in fact an 
exemption is appropriate based on the public safety 
requirements of an individual community. That request can be 
made. Some requests have been made in the past, and we have 
attempted to the very best of our ability within a reasonably 
brief time frame to accommodate mobilization issues so that 
communities are not left without their first responder support.
    Lastly, with regard to the Coast Guard, that involves 
coordination between an entity that in peacetime is under the 
Department of Homeland Security and the Department of Defense 
that may require Coast Guard capabilities in an overseas 
warfighting role. I can assure you that very careful attention 
is paid to a balancing of overseas requirements and domestic 
needs whenever those kinds of capabilities are deployed to an 
overseas war fight.
    That is not a decision that is lightly made, and included 
in the analysis is a careful focus on what the domestic 
implications are arising out of an overseas deployment of a 
Coast Guard unit. We in the Department of Defense do not seek 
that support from the Coast Guard unless it can be determined 
that the risk is reasonable and prudent in terms of the 
deployment, and frequently what it means is an identification 
of other Coast Guard units that are capable of taking on that 
mission should the first unit be deployed.
    Senator Collins. Thank you for that response and I look 
forward to seeing the results of the surveys that you are 
undertaking. I am also pleased to know about the exemption 
process, because in some small towns in Maine when the Guard 
member is called up and he or she is the only support for the 
police chief it has been an issue.
    I want to turn to the issue of port security and learn more 
about the Department's role in that regard, and I would like 
all three of you to comment. I held a hearing recently in the 
Governmental Affairs Committee to evaluate the security of our 
ports, looking particularly at containers. We have literally 
millions of individual containers coming into the United States 
each and every year. We used to look at container ships as 
marvels of international trade. Now we look at them and we 
worry that they may harbor terrorists or the makings of a dirty 
bomb or biological or chemical weapon.
    Indeed, the testimony at the hearing was chilling in that 
regard. The experts who testified before us felt that our ports 
were our single greatest vulnerability. They also told us that 
for years containers have been used to smuggle in illegal 
aliens, drugs, other contraband. So there already is an 
infrastructure, if you will, that could be used by a terrorist 
group.
    There is also an al Qaeda manual that advises the 
recruitment of smuggling rings as possible members of terrorist 
units. So the combination of an infrastructure that has been 
used illegally for many years and the relative ease with which 
it could be penetrated by a terrorist group was cause for great 
concern among the committee members.
    The Coast Guard and the U.S. Customs and Border Protection 
are obviously the lead on this. They are doing a lot of 
screening and working with ports in other nations to station 
customs officials. They have developed new technology that is 
going to be of use. But it seems to me that the Department of 
Defense has an intelligence role to play in perhaps identifying 
cargo ships at particular risk, because the whole idea is we 
have to stop them before they get to our shores.
    So starting with Admiral Ellis, I would like each of you to 
comment on the Department's role in port security.
    Admiral Ellis. Thank you, Senator Collins. That is a great 
question. Clearly it highlights the long-acknowledged 
relationship between criminal smuggling elements and 
terrorists, both in terms of the processes you describe, as 
well as the funding streams that support terrorism in many 
ways.
    My role in the United States Strategic Command is to 
oversee, as I mentioned, one of the elements of our DOD 
capabilities, and that is C\4\ISR, a very awkward acronym, but 
it really does talk to some of the issues you are addressing, 
specifically in the intelligence, surveillance, and 
reconnaissance piece.
    As we look to requirements to better optimize the use of 
current systems and to design capabilities for the future, 
clearly the technology transfer opportunities that you address 
into other agencies that are charged with the surveillance that 
is essential in preventing that flow of terrorist capabilities 
to our Nation has to be a strong piece of that, and it will be.
    We have had some success in the past. As you know well, the 
United States Customs and Border Protection, for example, flies 
P-3 aircraft with Navy E-2 surveillance radars on them. So 
there is some history of finding systems that have great 
military applications and transferring them to areas that have 
application more broadly in ensuring the Nation's security. The 
same thing is also true of the technology that the Secretary 
was alluding to earlier in the ability to detect chemical, 
biological, and nuclear weapons, weapons of mass destruction, 
if you will.
    So from our standpoint as we articulate the requirements 
for the military, I think it is also important that we 
understand the applicability that these capabilities may have 
in other areas, and we are committed to that.
    Senator Collins. Thank you.
    General?
    General Eberhart. First of all, I would like to applaud 
some of the procedures that have been initiated by Customs and 
Border Protection and the Coast Guard to work this problem. The 
96-hour notice, the manifest, working with customs agents there 
at the ports of departure, I think are starting to really pay 
dividends. They have put teeth in this and it is not unusual 
for the captain of the port, if someone tries to approach the 
port and has not given this 96-hour notice, to make them mark 
time out there before they will let them into the port to make 
sure that we follow these procedures.
    Second, this relationship between the United States Navy in 
particular and the Coast Guard goes way back, and it is a 
relationship that has matured over time, that there is no doubt 
when you talk to our leadership off of all of our coasts how 
they work together. In fact, we put what we call law 
enforcement detachments, which are Coast Guard men and women, 
on Navy ships to work this problem. So at the tactical level 
they are working this day in and day out.
    But the final resolution in my view will be through 
technology. We cannot inspect every container. If we can 
require people to file these manifests 96 hours ahead of time, 
we can have limited surveillance. But until we have wide area 
surveillance and until we have the remote sensing capability to 
know that there is something on that ship that could pose a 
hazard to our citizens, we are never really going to be able to 
solve this problem like we would like to solve it.
    So we have to harness technology for both surveillance and 
sensing and then, as we come back to the front end of the 
problem, share intelligence. So if we think there is something 
suspicious happening, that we share that with all the people 
who need to know this so that we can protect this Nation.
    Senator Collins. Mr. Chairman, I know my time has expired. 
Could Secretary McHale just respond very quickly?
    Chairman Warner. Yes, of course.
    Senator Collins. Thank you.
    Secretary McHale. Senator, in my judgment, we need to 
develop a maritime defensive strategy in depth for the 21st 
century. The purpose of that strategy should be the decisive 
defeat of terrorists in possession of weapons of mass 
destruction. The Navy needs to maintain its blue water 
capability to protect our country against hostile nation 
states, but we need to take the current capabilities of the 
Navy, supplement them with evolving technological capabilities, 
and find an equally effective defense against terrorism and 
weapons of mass destruction.
    We need to bring a homeland defense perspective to 
worldwide intelligence so that we understand how that 
intelligence affects a potential domestic threat. We need to 
track hostile vessels real-time so that we know where they are 
all the time in terms of the implications for domestic 
security. We need to advance remote sensing capabilities for 
weapons of mass destruction, so that when a hostile vessel 
approaches our shores we know it and we can screen it to 
guarantee that a weapon of mass destruction will not be brought 
into an American port.
    Then lastly, we in the Department of Defense need to 
strongly support the efforts of the lead Federal agencies in 
this regard, the Coast Guard and law enforcement agencies, 
including Customs and Border Protection and the FBI. We will 
support them with emerging technologies that are being 
developed within the Department of Defense and we will support 
them, when appropriate, with unique capabilities, for instance 
when the Navy may have a capability that is not possessed by 
the Coast Guard but which would be of advantage to the Coast 
Guard in carrying out its mission of port security.
    We receive those kinds of requests from the Coast Guard and 
we routinely cooperate with the Coast Guard in providing that 
support.
    Senator Collins. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Dole.
    Senator Dole. General Eberhart, you have stated that over 
29,000 sorties have been flown since September 11, and in 
addition to that NORAD has supported a continuous layered air 
defense of the National Capital Region. The professionalism of 
all of the men and women who have accomplished these missions 
without a single mishap is truly exceptional.
    Now, in carrying out your responsibilities for contingency 
planning, how are you addressing the various readiness issues 
that surface for some of the high density, low demand forces 
that have been through repeated deployments? Do you foresee any 
future morale issues, morale problems with regard to these 
forces and their families?
    General Eberhart. Senator, as you well know, we are 
concerned about operations tempo and personnel tempo. We are 
concerned about the wear and tear on our equipment, but more so 
on our people, whether they are guardsmen or reservists or 
active duty.
    Right now, as we work our way around the low density, high 
demand capabilities for NORAD and NORTHCOM, we are careful to 
ask for capabilities and not platforms. For example, if we need 
air surveillance, we do not specifically ask for an Airborne 
Warning and Control System (AWACS) airplane. What we will ask 
for is the capability. In some cases, as Admiral Ellis has 
said, we will get that capability from Customs or the Coast 
Guard or from the United States Navy, as opposed to the E-3s 
that are stationed at Tinker Air Force Base in Oklahoma.
    But that really does not work the problem in the longer 
term. The Secretary of Defense has alluded that low density, 
high demand is a nomenclature we put on things that we have not 
bought enough of. Over time, we need to buy more of those kinds 
of things so that they are no longer low density, high demand 
and we have the force structure we need in those areas to work 
our problem.
    Second, as the Secretary of Defense has said, in the longer 
term we have to look at how we use Guard and Reserve and 
Active-Duty Forces. Do we have the right mix of those forces? 
If we are continually having to use the Guard and Reserve, 
maybe we have the wrong force structure in terms of our Guard 
and Reserve Force structure and our Active-Duty Force 
structure.
    So that is how we work the problem in the longer term. In 
the near-term, we look for work-arounds in terms of these low 
density, high demand forces.
    Senator Dole. Secretary McHale, you supervise all homeland 
defense activities, including combatant command capabilities. 
How do you envision that the Special Operations Command (SOCOM) 
and its component units might be used in a homeland defense 
role?
    Secretary McHale. There are a number of ways in which they 
could be utilized. The most likely employment of Special 
Operations Forces would be upon assignment to a combatant 
commander who requested those forces in order to execute a 
homeland defense mission where that combatant commander thought 
that the use of those forces would enable him to achieve the 
mission.
    That is another way of saying that homeland defense 
missions would be treated the same as all other missions with 
regard to the transfer of forces to the combatant commander for 
the execution of the mission. Now, in a purely domestic setting 
the distinction between the responsibilities of the Office of 
the Assistant Secretary of Defense for Special Operations and 
Low Intensity Conflict (SOLIC) in the Department of Defense and 
the new Office of the Assistant Secretary of Defense for 
Homeland Defense would be a boundary drawn generally at the 
U.S. border. Counterterrorism activities, including Special 
Operations Forces, external to the United States would remain a 
SOCOM-SOLIC function. The use of Special Operations Forces 
within the United States would be the responsibility of the 
combatant commander in whose AOR they would be operating. That 
would be General Eberhart and the command would be Northern 
Command.
    Once counterterrorism activity begins to take place 
internal to the United States, that counterterrorism activity 
would be conducted in support of a lead Federal law enforcement 
agency. At the low end of that DOD support, we would typically 
be talking about the use of DOD equipment by civilian law 
enforcement agencies. We would temporarily loan to a law 
enforcement agency equipment that we possessed that they might 
want to use.
    As you move up the scale of response, it is conceivable 
that at the high end of WMD capabilities and our ability to 
defeat an enemy threat that under appropriate circumstances, 
particularly in the chem-bio arena, that Special Operations 
Forces could, based on the mission, be employed by General 
Eberhart as the supported commander.
    At the very high end, we get into a classified area of 
response capability that we would have to discuss in a closed 
session, where Special Operations Forces have had traditional, 
but again, highly classified missions.
    Senator Dole. The Special Operations community has been 
able to transition technology into capability at a much faster 
rate than other DOD agencies, primarily due to their unique 
acquisitions process. General Eberhart, you mentioned the high 
altitude airship advance concept technology demonstration 
(ACTD). Beyond the ACTD, what else is being done to accelerate 
the transition of a promising technology into a homeland 
defense capability?
    General Eberhart. There are several other projects we have. 
We have one in terms of information-sharing and command and 
control. It is another advanced concept technology 
demonstration for homeland defense. We also have been supported 
by the Department of Defense from several others that, as 
Secretary McHale has said, may not be uniquely demonstrated for 
homeland defense and homeland security, but have applications 
in terms of our security and our defense of the homeland.
    So therefore, we believe right now that we are making good 
progress in terms of harnessing technology. I say that a little 
bit tongue in cheek because we are never satisfied with how 
fast we are going, because again this is an important mission, 
this is important business. I would like to put the throttle 
all the way to the stops here.
    I think we are making good progress. There are promising 
technologies out there. There are technologies that will be 
appropriate for homeland defense that will also have 
application in terms of homeland security. In fact, we have 
entered into a strategic relationship with the Sandia 
Laboratory and also with the Defense Threat Reduction Agency 
(DTRA) in terms of sorting our way through technologies that 
exist today and how those can be applied to homeland defense 
and homeland security.
    Senator Dole. Thank you very much.
    Chairman Warner. In your direct testimony you talk about 
this system. For those following this hearing, I think that 
this system is envisioned to be not unlike the old blimp, which 
is a part of my generation. But this one presumably will be 
unmanned, is that correct?
    General Eberhart. That is correct, sir.
    Chairman Warner. It would have the duration of perhaps up 
to a year without servicing and the like?
    General Eberhart. It would be theoretically above the 
weather, Senator, 60,000 to 70,000 feet. So we do not have to 
deal with thunderstorms and those types of phenomena.
    Chairman Warner. What is that altitude again?
    General Eberhart. 60,000 to 70,000 feet, sir.
    Chairman Warner. That is up there.
    I am glad you asked that question, Senator Dole, and we are 
looking into it. It is in our markup right now and perhaps the 
Senator would want to follow it in the markup, because it may 
well be that we have to augment your funding profile to make 
certain that the estimated dates can be met. So thank you, 
Senator, very much.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman. That blimp 
generation was a pretty good generation. You all did all right. 
[Laughter.]
    Chairman Warner. There are a few of us still surviving. I 
remember, if I can say as an aside, when I was Secretary of the 
Navy there was a move afoot out in California to tear down the 
old blimp--what did we call them, Admiral? They were hangars.
    Admiral Ellis. Hangars, blimp hangars.
    General Eberhart. Dirigibles, too. We called them 
dirigibles.
    Chairman Warner. Dirigibles. But they were magnificently 
constructed, wooden. I said, no way we are going to tear them 
down; there might be a future use for them. So there they are. 
They are still there, are they not, Admiral?
    General Eberhart. Yes, sir, at Navy Moffett.
    Senator Chambliss. Gentlemen, all three of you have a great 
challenge in your respective newly created positions and I 
commend you on getting off the ground and getting going like 
each of you have.
    General Eberhart, you and I, because of my close ties to 
the Air Force, have had many opportunities to work together 
over the last 8\1/2\ years. I have always been impressed with 
your dedication, your hard work, and your capability. I could 
not have been more pleased when I saw who the President's 
choice for the newly created NORTHCOM commander was. So I again 
congratulate you and commend you for the good job you are 
doing.
    Mr. Secretary, again you and I go back to our days on the 
House Armed Services Committee and we have both come a long way 
since then. Our mutual friends say you have taken a step up and 
I have taken a step down. I do not know what my House buddies 
mean by that. [Laughter.]
    An issue that has been very important to me over the last 
couple of years, particularly since September 11, has been the 
issue of information-sharing between all of our intelligence-
gathering agencies, as well as all of our law enforcement 
agencies at the Federal level all the way down to the State and 
local level. Each of you have your own respective intelligence 
piece, but I think most significantly information coming to you 
from our intelligence gatherers is critically important to 
winning this battle of protecting our homeland and winning the 
war on terrorism.
    I would just like to hear from each of you as to how that 
integration and cooperation and dialogue between our 
intelligence gatherers is working as far as coming to you and 
as far as information that you gather going back to them with 
respect to not just the war on terrorism, but any other issues 
that may be important to us.
    Admiral Ellis, if you would start off, please.
    Admiral Ellis. Thank you, Senator. I appreciate the 
opportunity. You rightly point out the critical element that 
intelligence provides to whatever we do, whatever our shared 
responsibilities are in defense of the Nation. It is not enough 
just to talk sensors. It is not enough to talk about the 
technology we have and what we need to collect. But it is very 
important how we process it, how we evaluate it, and how we 
distribute and disseminate it to the people that need to have 
it.
    So those processes are under stringent review. We have 
identified new organizational elements that can fuse 
intelligence more quickly. Some of those have already been 
mentioned in the course of this hearing. We are exploring other 
concepts to bring agency representatives more into active 
participation rather than just liaison officer roles within our 
organizations. For the first time, I think, we are beginning to 
look at the entire intelligence, surveillance, and 
reconnaissance issue as a process, not just as a sensor or, as 
Ed noted, a platform issue.
    So I am pleased that we have made great progress. We are 
going to try it out. We are making quick changes if we see 
better ways to do it, and I promise you that it is getting 
better everyday. It is not yet as good as the Nation must have 
for the future, but we are working at it.
    General Eberhart. Sir, from our perspective we work this 
problem in several different ways. First of all, hopefully when 
you visit our command you will see that when we have an 
intelligence briefing or when we have a staff meeting we are 
redefining ``joint,'' we are redefining the intelligence 
community, if you will, because not only will there be military 
intelligence experts there, but there are experts there 
representing the entire intelligence community: NSA, CIA, 
obviously representatives from DIA.
    Also, there is an FBI representative there. There are Coast 
Guard representatives. There are other representatives there, 
so that we can, in fact, ensure that we are receiving the 
intelligence and information those agencies have and then, it 
is a two-way street, make sure that we get back to them any 
information we have that might be of interest to them.
    A perfect example is when we thought we perceived a threat 
in the State of Arizona recently, our FBI representative was 
the one who brought that to the intelligence community, and 
then we immediately, through that FBI representative, ensured 
that that information was getting played back into the State of 
Arizona, that their FBI representative there knew, that the 
local authorities, the State authorities who needed to know, 
had that information.
    So in many cases we find ourselves as the facilitator to 
make sure that this information is in fact flowing to the right 
people, knowing that we do not have the lead at this time. 
Someone else by our Constitution has the lead, but that does 
not mean that we do not work hard to make sure they have the 
information that they in fact need.
    As we talk about the word ``transformation,'' we also try 
to think of those types of things we have that we normally 
think of in terms of a homeland defense, fighting our Nation's 
war type of perspective, and how we could possibly harness the 
types of capabilities that Jim Ellis has in terms of 
reconnaissance, imagery, communications, et cetera, for the 
homeland security mission, obviously in accordance with the 
laws of the land. There are ways to use those capabilities 
whether we are fighting fires, whether we are in the aftermath 
of the tragic Space Shuttle Columbia accident, or whatever it 
might be. There are ways to harness those capabilities that we 
normally think of in other terms to work homeland security 
problems.
    Secretary McHale. Senator, I think it was clear in the 
immediate aftermath of September 11 that there was an immediate 
need for the sharing of information across parochial boundaries 
among those that had a genuine need to know. I can tell you 
from first-hand observation that the sharing of that 
information today does indeed take place. It took a very 
painful experience to teach us that lesson, but the information 
is now being passed without resistance across boundaries that 
in the past were major impediments to the passing of 
information.
    As a result of that, what I have observed is that the need 
now is to bring a sense of analysis and prioritization to huge 
volumes of information in order to identify within that mass of 
information what is truly relevant and important with regard to 
homeland defense. Most of the information in the intelligence 
world that I see relates to the historic commitment to be 
prepared to prosecute, if necessary, an overseas war fight. 
That information is not routinely analyzed in order to bring a 
homeland defense perspective to the work product.
    Now, in order to achieve that result Congress created the 
new position of Under Secretary of Defense for Intelligence. 
Secretary Cambone was recently confirmed for that position. We 
do have robust ties through DIA and through the Joint 
Intelligence Task Force--Combatting Terrorism (JITF-CT) with 
other agencies, such as the CIA and the FBI. In fact, I can 
tell you the sharing of information between the Department of 
Defense and the Department of Homeland Security is robust and 
conducted on a daily basis. We in fact send to their operations 
center those daily updates that are relevant to the mission 
they have to accomplish.
    Now what we have to do is change not only the process of 
sharing information, but modify the culture related to its 
analysis. We need to create an unprecedented capability to 
analyze and understand the homeland defense implications that 
arise out of huge quantities of data and information that have 
been compiled for purposes other than homeland defense. We are 
bringing a sense of urgency to that new homeland defense 
prioritization.
    Senator Chambliss. I agree with you, the analytical part of 
it is just as critical.
    Now, you say that you are sharing with them. Are you 
getting that same information they gather back?
    Secretary McHale. Yes. We tap into many of the same sources 
in terms of collection capabilities, but we have a very robust 
daily flow of information back and forth. As I mentioned 
earlier, we have a permanent representative in the operations 
center. I have been on the phone in the last couple of weeks 
with Secretary Ridge on a number of occasions where he had a 
matter that he wanted to bring to our attention in the 
Department of Defense.
    I, Pete Verga, who is seated behind me, and others have 
routinely--and by that I mean daily--communicated with folks 
within the Department of Homeland Security with regard to those 
matters that we need to bring to their attention.
    The real challenge now is bringing comprehension and 
meaningful analysis to enormous quantities of threat-based 
information where separating the wheat from the chaff is really 
the difficulty. We have an enormous amount of information. 
Determining what is significant is much more difficult.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Warner. That is an important question you raise, 
Senator. I would just probe it a little bit.
    We have this new concept that the President has established 
to synthesize in some person. Could not that be the area in 
which you can get some distillation? I am concerned that if 
every government agency has this enormous overhead and 
infrastructure necessary to do their own evaluation, synthesis, 
distillation, whatever it is--we all recognize the ever-
increasing massive amounts of this information--that we have a 
wide range of redundancy across the government.
    Are you familiar with this new setup?
    Secretary McHale. Yes, sir, I am. I am not directly 
involved in it, but I certainly have a strong interest as a 
potential customer in terms of the work product that they will 
generate. It is the Terrorist Threat Integration Center.
    Chairman Warner. Yes.
    Secretary McHale. The President proposed it in his State of 
the Union Address. Secretary Cambone, who was, as I said, just 
recently confirmed by the Senate, will take over, has taken 
over, as the Under Secretary of Defense for Intelligence. He 
and I have spoken at some length on this issue and he will be 
the representative of the Department of Defense with regard to 
our integration, our participation in the Terrorist Threat 
Integration Center, and he understands in some detail the 
interest that I have in obtaining through him----
    Chairman Warner. I have pointed this out.
    Secretary McHale. Yes, sir.
    Chairman Warner. I have urged that you all take a look at 
it.
    Secretary McHale. The potential benefit is enormous in 
terms of bringing together into a single stream diverse sources 
of information.
    Chairman Warner. Now, this committee will be addressing its 
annual authorization bill. We are midway at doing that now. I 
recognize that, with the best of intentions, the administration 
put in place legislation under which you are now operating. But 
I urge you to bring to the attention of the next level echelon 
the need you feel for any additional legislation, because now 
is the time to incorporate it in our bill, assuming it is in 
the oversight range of this committee.
    So that is an open invitation to discuss that with your 
Secretary of Defense. It would cover all three of you. So take 
a look at that.
    Next is the assets that you have within your respective 
responsibilities: Are those assets sufficient? As you well 
know, this committee looks at the President's budget, does its 
own work, and then we take into consideration late entries by 
the administration. It is referred to in some vernacular as a 
wish list.
    But that often is the case because the President's budget 
is formulated almost a year ahead of time and here we are about 
a year later. We try and do as much real-time adjustment as 
necessary. So in terms of assets, if there is something that 
would meet, in the vernacular, the wish list, I would hope you 
would bring it to the attention of the committee.
    Now, the question of posse comitatus has been of great 
interest to a number of us here on the committee. I know my 
colleagues, Senator Levin, and I have discussed this. Is there 
some ongoing examination, Secretary McHale, of that statute 
framework to determine whether or not any amendment is 
necessary?
    Secretary McHale. Senator, I think the analysis, at least 
from the Department of Defense's perspective, has been largely 
completed. I am hesitant to say that it is entirely complete, 
because I cannot be sure that there is not a lawyer somewhere 
taking a look at it. But let me tell you where we stand.
    First of all, the Department is aware of your concern with 
regard to the issue and we obviously are aware that you have 
considered in the past and may still be considering hearings 
into a possible revision of the posse comitatus statute. Should 
you choose to move forward with those hearings, you will have 
the complete cooperation of the Department of Defense in that 
effort.
    Chairman Warner. It is not necessary to have hearings if 
the Secretary of Defense has made a decision that he does not 
think any changes are necessary.
    Secretary McHale. Sir, I think he has made that decision.
    Chairman Warner. If that is the case, for the record I wish 
you would give me a supplemental communication on the status of 
that so that we can take it into consideration of the hearing.
    Secretary McHale. Yes, sir.
    [The information referred to follows:]

    The Secretary of Defense stated last year that the current act 
strikes a proper balance regarding use of the military for law 
enforcement purposes within the United States. However, he also 
indicated that he remained open to further review of the issue. Late in 
2002, he directed a departmental working group to look into this issue. 
That working group included representation from U.S. Northern Command. 
The working group concluded that the President has sufficient authority 
to order the military to provide military support to civilian law 
enforcement authorities, when necessary, including in the aftermath of 
a catastrophic weapons of mass destruction incident, and that no change 
to the act is required.
    A number of significant exceptions to the act have been enacted 
over the years to allow for the appropriate use of U.S. military forces 
to assist in enforcing the laws of the U.S. at the request of civil 
authorities. These exceptions are reflected in current DOD policy. 
Examples include:

        <bullet> Insurrection/rebellion (chapter 15 of title 10, United 
        States Code)
        <bullet> Chemical/biological weapon of mass destruction 
        incident (section 382 of title 10, United States Code)
        <bullet> Nuclear material incident (section 831 of title 18, 
        United States Code)
        <bullet> Terrorist incident (Public Law 107-40)

    Regarding the potential need for rapid DOD response in domestic 
emergencies, the Department recognizes that imminently serious 
conditions resulting from any civil emergency or attack may require 
immediate action by military commanders, or by other responsible 
officials of DOD agencies, to save lives, prevent human suffering, or 
mitigate great property damage. Under such exigencies, when time does 
not permit prior approval from higher headquarters, local military 
commanders and other responsible DOD officials are authorized to take 
necessary action to respond to the immediate requests of civil 
authorities. Should a larger response be required, U.S. Northern 
Command would be prepared to react, as directed by the President and 
the Secretary of Defense.
    DOD is prepared to respond to catastrophic events, as directed. We 
do not believe that the act would in any way impede the nature or 
timeliness of that response.

    Chairman Warner. My concern is that if another catastrophe 
of the magnitude we experienced on September 11 took place, say 
in another part of the United States which is somewhat remote 
from the assets that were available to the New York scene, we 
would have to call upon everybody to pitch in and help, and it 
could well be that, from the standpoint of local security and 
the like, the military could step up.
    Secretary McHale. Yes, sir.
    Chairman Warner. Now, we just do not want, if that 
misfortune struck the United States, everybody running around 
on the telephone with the military commander saying, ``I would 
like to help, but I have posse comitatus.''
    Secretary McHale. Sir, let me give you a reassurance on 
that. We do plan in some detail for those kinds of 
contingencies and we do have forces prepared to respond in the 
event that we were to experience that kind of attack and the 
Department of Defense would be directed by the President or the 
Secretary of Defense to respond.
    However, with regard to posse comitatus, we do not believe 
that the statute in its current form would in any way impede 
that response. There are a number of significant exceptions to 
posse comitatus that have been adopted statutorily over the 
years, and in terms of our ability to respond, for instance, to 
a weapon of mass destruction attack, there is an entire command 
subordinate to General Eberhart that is prepared to launch such 
a response and we do not believe in the Department that an 
emergency response involving military capabilities would be 
impeded in any way by posse comitatus.
    Chairman Warner. Fine. That is your understanding, General 
Eberhart?
    General Eberhart. Yes, sir, it is.
    Chairman Warner. You are satisfied with this. General 
Ellis, you are satisfied to the extent that somehow you might 
be affected?
    Admiral Ellis. Yes, sir.
    Chairman Warner. Well then, it may well be that this issue 
is cared for, but I would appreciate a letter which should 
contain just the testimony that you have just given as a 
conclusion on it.
    Secretary McHale. Yes, sir.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Warner. Now, on the unmanned systems, as I think I 
shared with you yesterday, General, not to get too personal 
about this, but when I was a young man in the late 1930s and 
1940s all of my generation was consumed in making model 
airplanes. I am sure that there is a successive generation just 
as active as my generation was many years ago, a half century 
ago.
    But that presents a platform that can deliver some 
meaningful harm to communities if it fell into the wrong hands. 
Now, as long as people are aware of that potential--I hope it 
is being addressed and steps being taken to monitor certain 
aspects of it to try and follow what is taking place in the 
open marketplace and by telephone order or catalogue order or 
whatever the case may be.
    Secretary McHale. Yes, sir.
    Chairman Warner. I assume that issue has been addressed and 
people are looking into it. Is that correct, Mr. Secretary?
    Secretary McHale. People are looking at it, sir, that is 
correct.
    Chairman Warner. General?
    General Eberhart. Yes, sir.
    Chairman Warner. That is all we need for the record, that 
it is being examined.
    Secretary McHale. Sir, I would point out, because of your 
comment I can guarantee you as soon as we get back I will make 
sure that even more attention is paid to that issue.
    Chairman Warner. That is just good common sense.
    Secretary McHale. Yes, sir.
    Chairman Warner. Computer network defense. Admiral Ellis, 
could you give us an assessment of the threats to our defense 
information infrastructure and measures you are implementing to 
protect it?
    Admiral Ellis. I would be delighted, Senator. I have an 
element under my command, initially established by General Ed 
Eberhart when it was under the United States Space Command, 
called the Joint Task Force for Computer Network Operations 
(JTF-CNO). My responsibility is specific to the task of 
ensuring Department of Defense network security and it is in 
that context that I would like to couch my comments.
    The JTF-CNO is headquartered here in Washington. It is 
embedded with the Defense Information Systems Agency because of 
their role in overseeing the Department's entire communications 
networks. It has a phenomenal record of success in tracking 
network intrusions and responding appropriately. They are 
empowered to establish protective policies, to actually unplug 
elements of the network should they be placed at risk by 
attacks, and their entire focus is to ensure the rigor and the 
integrity of the networks on which the Department is 
increasingly reliant.
    It is also fair to say that we are a part of the growing 
concern on the Federal Government and national side with regard 
to the vulnerabilities that are potentially resident in massive 
computer network attacks, and indeed as a Nation we have become 
much more reliant on them. A number of initiatives that have 
begun under this administration, under the former leadership of 
Richard Clark, specifically, have brought together inter-agency 
and interdepartmental efforts to oversee this, including the 
cyber warning information network and agencies and mechanisms 
to rapidly disseminate the awareness and understanding and 
sensitivity of what is going on with regard to the health of 
the network are well under way, and the JTF-CNO commander, a 
two-star general, is our representative to those agencies.
    So we do believe and continue to assess the importance of 
networks to our future. We are committed to establishing 
firewalls that prevent intrusion. We also acknowledge that 
intrusion, even on a small scale, can be particularly 
devastating and we are pursuing aggressively capabilities to 
deliver to respond appropriately to intrusions when they occur. 
So it is not enough to have a perfect defense. One would argue, 
and I think persuasively, that it is never going to be perfect. 
The issue is how do you deal with it when it occurs, and we are 
pursuing those options aggressively, sir.
    Chairman Warner. Thank you very much, Admiral.
    The role of unmanned missions. We have a number of off-the-
shelf, it could well be in due course. What policy and 
operational concerns do you have about the use of unmanned 
systems in homeland security? General?
    General Eberhart. Sir, as we discussed yesterday, I am 
concerned about those technologies should they in fact be used 
against us by terrorists. That is one issue you have already 
addressed that concerns me greatly.
    Second, I believe that those UAVs can be used very 
effectively for surveillance, whether it is maritime 
surveillance, whether it is border surveillance, just as we 
have used them in downtown Baghdad and other places in 
surveillance to ensure that in fact we can defeat the bad guy, 
those who wish us ill.
    Obviously, the concerns always are in terms of the safety 
of those vehicles, in terms of deconflicting those vehicles 
with other traffic, to make sure that they are properly 
certified, properly operated, that they do not in fact--that 
the unintended consequences are not that they present more of a 
risk than they do an advantage to us as we work our way through 
those, the use of that technology.
    I believe all those things can in fact be overcome and that 
we will see that these UAVs will become more and more prevalent 
in the future. But we have to do this correctly and I know that 
is your concern.
    Chairman Warner. Yesterday I wrote a letter on this subject 
to the President, since I and other members of this committee 
are quite interested in it, pointing out the rights of privacy 
of individuals. We have to be cautious about that issue. I will 
make that letter a part of the record here. It is a public 
document.
    [The information referred to follows:]

President George W. Bush,
The White House,
Washington, DC.
    Dear Mr. President: I have long supported the expanded use of 
unmanned aerial vehicles (UAV) by the United States military, and have 
been heartened by reports from soldiers in the field of the usefulness 
of UAVs as ``eyes in the skies'' in the global war on terrorism, 
particularly in Afghanistan. As you may recall, under my leadership, 
the National Defense Authorization Act for Fiscal Year 2001 contained 
legislation (Section 217) and additional funding ($200 million) to 
accelerate the use of UAVs by our military. I believe that the 
potential applications for this technology in the area of homeland 
defense are quite compelling.
    I am writing to request that you explore the option of using UAVs 
for the critical homeland defense mission.
    First, I believe that UAVs could prove most valuable in helping to 
monitor remote stretches of our northern and southern borders. These 
areas are historically difficult to police, given the great distances 
involved, and frequently are patrolled just once in a 24-hour period. 
Given the fact that al Qaeda operatives, among others, have made it 
clear that they will seek to gain entry to our country by any means, we 
cannot afford to leave any route unmanned.
    Second, long-endurance, land-based UAVs could support Coast Guard 
vessels, enabling one ship to monitor longer distances. This could be 
of great advantage to the Coast Guard, as it seeks to provide homeland 
security coverage for our 95,000 miles of waterways while not 
neglecting its traditional maritime responsibilities. In addition, it 
would be another weapon in their arsenal as they seek to interdict drug 
smugglers.
    Third, UAVs could be used to monitor the safety and integrity of 
our Nation's major oil and gas pipelines, and critical infrastructures 
such as dams, hydroelectric power plants, drinking water conduits and 
long-distance power transmission lines. They could also be used to 
monitor the transportation of hazardous cargo, especially industrial 
chemicals that could be used as a weapon against us.
    As with the introduction of any new technology, UAVs have not been 
problem free. I am aware that, to date, military UAVs have suffered 
higher than desirable accident rates that will require that their 
systems be engineered with greater redundancy for use by civilian 
agencies. In addition, they do not have the ability to detect, and 
automatically avoid, nearby aircraft. These are important safety issues 
that would have to be addressed before employing UAVs over populated 
areas, and in flight paths utilized by both commercial and private 
aircraft, including helicopters.
    Additionally, it is essential that any examination of this concept 
address the real concerns we all share about the possible loss of 
privacy. I know that you are as committed as I to ensuring that we meet 
our national security needs without unduly sacrificing the privacy 
rights of our citizens. There may be many detractors to the idea of 
using UAVs for other than military purposes based solely on the 
concerns regarding privacy.
    Lastly, I confess that, as a young man in the late 1930s and early 
1940s--before I began my military service in the Navy--I was fascinated 
with aviation, and built many a model airplane. I draw your attention 
to all the work being done within your administration to recognize that 
someone desiring to bring harm to our Nation could utilize this 
wonderful hobby by utilizing model airplanes to spread chemical and 
biological agents. The administration might find it necessary to have 
some congressional recognition of this important and rapidly expanding 
technology to further insulate and protect our people from possible 
harm.
    There is broad agreement in this country that we must be proactive 
in ensuring that terrorists never again strike our shores. You have 
championed the idea of transforming our military services from being a 
force designed to fight the former Soviet Union to one tailored to 21st 
century adversaries, especially those utilizing terrorism as a weapon. 
I believe that considering the use of UAV technology in homeland 
defense echoes that spirit of transformation.
    Mr. President, I hope that you will receive this idea in the 
constructive spirit in which it is offered.
    With kind regards, I am
                                                    John W. Warner.

    Chairman Warner. Do you have anything further to add about 
the UAVs, Secretary McHale?
    Secretary McHale. Yes, sir, I do. My personal experience 
with them goes back to the Gulf War. We used them in the Gulf 
when I was there the last time around as a marine, so I am 
familiar not only with the policy issues, but the actual 
operational employment of UAVs.
    The use falls into two categories. I think there is a 
tremendous potential benefit from the effective offshore use of 
UAVs as part of an integrated surveillance plan that in turn 
might be coordinated with a sea-based array of WMD sensors. We 
establish various platforms in the air to observe threats as 
they approach our shores and then array a maritime sensor 
system that might well detect a weapon of mass destruction 
while still out in the blue water. So I think whether you are 
talking about an airship or a UAV, we have to push out as far 
as we can the surveillance and other capabilities of a maritime 
defense in depth.
    Second, coming ashore, we can make certain capabilities 
available to lead Federal law enforcement agencies for their 
primary use with regard to domestic activity. We would make 
equipment available at the direction of the President and the 
Secretary of Defense and subject to whatever privacy 
constraints Congress might want to impose upon that lead 
Federal law enforcement agency.
    So I think UAVs play a significant potential role both in 
traditional defensive missions, where we would take the lead, 
and in law enforcement missions, where we would simply provide 
support to a properly constrained domestic law enforcement 
agency.
    Chairman Warner. If these vehicles become somewhat more 
prolific in the private sector--I mean, some of these companies 
might well offer them to the private sector--then you have an 
air space situation that has to be hopefully monitored within 
the structure that you are in.
    Secretary McHale. Yes, sir.
    Chairman Warner. Admiral Ellis, any point you would like to 
make on UAVs?
    Admiral Ellis. Sir, I think you have teed it up very well. 
This is yet another issue that builds on several others that, 
as we look at the tremendously changed national security 
environment, we have to balance appropriately between the need 
for that intelligence essential to our defense and the rights 
to privacy and personal security that are an important part of 
being an American.
    This is the same challenge we face in the computer network 
operations area, in the intelligence issues that you are well 
familiar with, sir, as we look to better fuse that together. 
This adds to that and just highlights the direction in which we 
are going as we, as a Nation, address those trades between 
needing more actionable information, and the rights of the 
individual citizens that have to be held in appropriate regard.
    Chairman Warner. Thank you.
    Senator Levin.
    Senator Levin. Admiral, you made reference to the computer 
network defense mission in response to the chairman's question 
and then made an allusion as to the offensive possibilities of 
computer network operations. In that regard, have you had a 
chance to study the various legal implications of an offensive 
mission?
    Admiral Ellis. Yes, sir. The issues that you describe 
within computer network operations writ large, including both 
defense and attack, are an important part of any policy 
consideration as we look to the future. The Department of 
Justice and others have undertaken reviews and it is an 
important part of what we do as we look for policy guidance on 
the way ahead, even as we examine technological alternatives.
    The computer network operations piece is particularly 
challenging because it is possible to employ the global 
information grid in manners that disguise, if not hide, the 
origin of certain elements. So there is an increasing challenge 
in knowing where the potential threats to our own systems 
originate. They can be laundered, if you will, through various 
routes and mechanisms, and so there are legalities associated 
with that as we address the issues that I was discussing with 
the chairman: how do we deal with the rights of American 
citizens and still deal with the security element.
    The obverse of that, of course, is on the computer network 
attack side as we examine potential capabilities for the 
future.
    Senator Levin. What are some of the legal issues that you 
are grappling with in that area in terms of attack?
    Admiral Ellis. I would be happy to provide a more detailed 
discussion for the record.
    Senator Levin. Would you do that, thank you.
    [The information referred to follows:]

    The legal issues related to computer network attack are generally 
the same as employment of any class of weapon in time of conflict. 
First, a test-bed needs to be developed so we can accurately predict 
the effects of network attack. The results of the tests will allow a 
fact-based evaluation of the discrimination and proportionality 
judgments that form the basis of all Law of Armed Conflict. In other 
words, we must strive to accomplish military objectives without causing 
unnecessary damage to civilian infrastructure, and determine the best 
methods to achieve dominance over an adversary using the least amount 
of force.
    Additionally, in all military actions we seek to limit the negative 
effects of operations on those who are not combatants. On the attack 
side of network operations, we must consider the effects a potential 
course of action will have, not only on the physical well-being of non-
combatants, but also their personal privacy along with other human 
rights concerns. We are committed to decreasing the humanitarian cost 
of conflict wherever possible.

    Senator Levin. Secretary McHale, I want to go back to the 
intelligence coordination issue, which is something that I have 
been deeply concerned about for a long time. We went through a 
number of hearings on this subject and the conclusion of the 
new Department of Homeland Security, and I think everybody 
else, was that the CTC is the primary location to analyze 
foreign intelligence. The new TTIC would then take those 
analyses, supplement it in any way they wanted, refer it back 
to the CIA and CTC for additional analyses, and then integrate 
those analyses on foreign intelligence, intelligence about 
foreign terrorist threats, integrate that with any domestic 
threats----
    Secretary McHale. Yes, sir.
    Senator Levin.--and then link all of that to infrastructure 
vulnerabilities. But that is all done between the CTC and the 
Department of Homeland Security.
    How does the Department of Defense link up to the TTIC? 
Could you go through that again with us?
    Secretary McHale. It will be on two levels. On the tactical 
level, DIA has a JITF-CT and the JITF-CT is the principal 
portal between tactical intelligence external to the Department 
of Defense and the internal needs of the Department of Defense 
to be aware of that information.
    On a policy level, the new Under Secretary of Defense for 
Intelligence will take the lead in terms of coordination with 
the Terrorist Threat Integration Center. So as a practical 
matter, on a daily basis I would anticipate that the JITF-CT 
would remain the principal day-to-day contact with the 
international and domestic intelligence community, subject to 
the supervision of the newly created position of the Under 
Secretary of Defense for Intelligence.
    As a practical matter, what that means is every day I start 
with a DIA briefing. Most of the information they bring to my 
attention has been given to them from their JITF-CT and so I 
have daily and I think open access to that information which is 
deemed to be of domestic significance, whether it is gathered 
internationally or domestically.
    Senator, it is also significant that, as I said, I start 
the day with that DIA briefing, but minutes later, at the 
direction of the Secretary of Defense, I attend with him each 
day his briefing on these issues, at least during a wartime 
environment. So I first get the briefing from the DIA and then 
I am able to attend and hear the same information covering 
those and perhaps some additional topics that might be 
presented to the Secretary of Defense.
    I think that really highlights the importance the Secretary 
has placed, not on me, but on the office that I am privileged 
to hold.
    Senator Levin. Thank you.
    General Eberhart, your prepared statement mentions that the 
JTF-CS provides command and control of consequence management 
forces that would be responding to a chemical, biological, 
radiological, nuclear, or high-yield explosive event. How would 
that JTF-CS and these forces be coordinated with efforts of the 
Department of Homeland Security, as well as with State and 
local emergency response forces?
    General Eberhart. Sir, there is a variety of ways that this 
would happen. First of all, an incident occurs and a 
determination is made at that time that in fact the local 
responders or the State agencies or other Federal agencies do 
not have the wherewithal to deal with this problem. At that 
time a lead Federal agency would in fact be established and 
they would request what they thought was appropriate military 
support.
    If in fact we thought the military support was best 
provided by the JTF-CS, that is where we would go for those 
capabilities.
    I do not want to lead you to believe that we are just 
sitting there waiting, doing nothing, in case somebody might 
call. Hopefully, we would have some intelligence up front that 
this might happen. Second, as soon as it occurs we will know 
that it has occurred. So that, in football terminology, we are 
dressing out for the game. We are getting ready, so if they 
call us we can shorten the amount of time it takes us to 
respond with qualified people to help alleviate the situation.
    Then we will in fact respond to this area, initially with a 
planning force, then with follow-on forces to help. We have 
everything from transportation to ambulance capabilities to 
medical capabilities to abilities to help establish a cordon or 
whatever we think is appropriate.
    In almost every case, Senator, we would be in support of 
another lead Federal agency, probably FEMA. It could be someone 
else if they had established that another agency is best suited 
to be the lead Federal agency. We take our instructions from 
that agency, but we would in fact command and control those 
forces.
    Most likely that commander would report directly to me. 
Depending on the situation, we may have him report to another 
one of our subordinate commanders if we thought that was 
appropriate. But those people work daily and they study 
response plans from various counties, our large cities. The 
counterterrorist organization from the city of New York will 
soon visit down there.
    So we are trying to in fact oil this mechanism so that 
people know each other, we share plans, and we are prepared to 
respond if and when needed.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Gentlemen, we have had an excellent 
hearing, well-attended by a large number of this committee. It 
is going to be extremely helpful to us as a committee and 
indeed the Senate as a whole to recognize with the detail you 
have given us the very significant participation by the 
Department of Defense in the overall responsibility for 
homeland defense.
    We shall continue to follow this as one of the highest 
priorities of this committee. We thank you and I once again 
encourage you to access this committee for such assistance as 
you need with regard to legislation and to such priority of 
asset flow as authorized and eventually appropriated here in 
Congress. So we are off to a good start.
    Thank you for traveling long distances, Admiral Ellis and 
General Eberhart, and it is always a pleasure to have a former 
member of the United States Congress facing us. We know full 
well that you are prepared for all of our questions.
    Secretary McHale. Thank you, sir.
    Senator Levin. Particularly one who wears glasses just as 
wonderful as your's. [Laughter.]
    Secretary McHale. I think we bought them at the same 
drugstore. [Laughter.]
    Senator Levin. Mr. Chairman, thank you for convening the 
hearing. Thanks to our witnesses for very useful testimony.
    Chairman Warner. Thank you. We are adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Cornyn
  transfer of intelligence information to state and local authorities
    1. Senator Cornyn. Secretary McHale, it is important that State and 
local law enforcement officials have the most accurate information as 
possible about any potential threats to our communities. At the same 
time, we need to safeguard sources and methods when it comes to 
intelligence reporting. However, we must strike the appropriate balance 
between protecting sources and methods and getting this information to 
the people who need it. Could you explain how you will work within the 
Department of Defense (DOD) and with the Department of Homeland 
Security (DHS) to ensure that the appropriate intelligence information 
gets to the right people at the State and local level so we can better 
protect our communities?
    Secretary McHale. Within the DOD, as the principal staff assistant 
and advisor on all homeland defense matters, I will work closely with 
the Under Secretary of Defense for Intelligence, Dr. Stephen Cambone, 
who serves as the Secretary of Defense's Principal Staff Assistant and 
advisor on all intelligence, counterintelligence and security, and 
intelligence-related matters, to ensure that DOD provides appropriate 
intelligence information to the DHS. The DHS then, in accordance with 
Public Law 107-296 (the Homeland Security Act of 2002) Sections 102 and 
201, is responsible for ``distributing or, as appropriate, coordinating 
the distribution of, warnings and information to State and local 
government personnel, agencies, and authorities and to the public.''

               FORCE PROTECTION AT MILITARY INSTALLATIONS

    2. Senator Cornyn. Secretary McHale, I am privileged to have 17 
major military installations in my State. As such, I am particularly 
concerned that DOD has adequate and standardized force protection 
measures in place at our military bases not only in Texas but across 
the country. Last year, Congress directed DOD to develop a 
comprehensive plan for improving the preparedness of military 
installations for preventing and responding to a terrorist attack. 
Could you provide me an update on the plan's progress and discuss your 
role in ensuring that we have the proper force protection measures in 
place at our Nation's bases?
    Secretary McHale. Section 1402 of the Fiscal Year 2003 National 
Defense Authorization Act directs DOD to develop a comprehensive plan 
for improving the preparedness of military installations for preventing 
and responding to terrorist attacks, including attacks involving the 
use or threat of weapons of mass destruction. DOD is presently staffing 
the plan and will submit it to Congress later this year. The report 
defines elements of installation preparedness to include prevention, 
detection, protection, and emergency response functions. The plan also 
addresses a variety of initiatives the DOD is presently undertaking to 
determine those ``best practices'' needed to enhance installation 
preparedness through an integration of technology and human capital. In 
my role as the Assistant Secretary of Defense for Homeland Defense, my 
office is responsible for a variety of issues, including force 
protection concerns as related to installation preparedness. As base 
force protection conditions change due to the evolving threat, 
corresponding flexible protective measures are activated. Flexible 
employment of such measures allows a timely, focused response.

    INTELLIGENCE SHARING BETWEEN NORTHCOM AND THE TERRORIST THREAT 
                           INTEGRATION CENTER

    3. Senator Cornyn. General Eberhart, in your opening statement you 
note that ``homeland defense relies on the sharing of actionable 
intelligence among the appropriate Federal, State, and local 
agencies,'' and that NORTHCOM's ``Combined Intelligence and Fusion 
Center collates and analyzes data from the United States Intelligence 
Community and nearly 50 different government agencies.'' Could you 
elaborate on the relationship between NORTHCOM's Combined Intelligence 
and Fusion Center (CIFC) and the Terrorist Threat Integration Center 
(TTIC)?
    General Eberhart. We are laying the groundwork for partnerships 
with the TTIC and other key intelligence organizations. We plan to 
embed command intelligence officers in the TTIC to ensure continual 
collaboration and information exchange.

     TRANSFER OF DOD TECHNOLOGY TO OTHER FEDERAL, STATE, AND LOCAL 
                          GOVERNMENT ENTITIES

    4. Senator Cornyn. Secretary McHale, last year's Defense 
Authorization Bill directed the Secretary of Defense to designate a 
senior official to facilitate the transfer of DOD technology to State 
and local first responders and other Federal entities. Could you tell 
me your views on what DOD technologies you believe have the greatest 
potential homeland security application, particularly in the area of 
border surveillance, and how you plan to facilitate the transfer of 
such technologies to other government entities?
    Secretary McHale. DOD participates in many interagency efforts to 
transfer applicable technologies to first responders. For example, DOD 
invests around $100 million annually in the Technical Support Working 
Group (TSWG), the U.S. national forum that brings together over 85 
Federal agencies to identify, prioritize, and coordinate interagency 
and international research and development (R&D) requirements for 
combating terrorism. The TSWG rapidly develops technologies and 
equipment to meet the high-priority needs of the combating terrorism 
community, and addresses joint international operational requirements 
through cooperative R&D with major allies.
    Most, if not all, of the technologies considered by TSWG have 
homeland security applications--especially in the areas of prevention 
and response. Examples of technologies that may be of interest in the 
area of border surveillance include: technologies to detect explosives, 
weapons, chemical and radiological material, and other contraband on or 
in personnel, vehicles, vessels, cargo, and mail; advanced technologies 
for invisibly marking moving or stationary targets that may be imaged 
remotely, day or night; improved body armor and standards to provide 
greater effectiveness against current and emerging threats; and 
advanced optical systems to provide improved imaging in night and 
obscured viewing environments.
    Section 1401 of Public Law 107-314, the Bob Stump National Defense 
Authorization Act of Fiscal Year 2003, directed that ``the Secretary of 
Defense shall submit to the congressional defense committees a report 
on the actions taken to carry out this section,'' to include ``[a] 
summary of the actions taken or planned to be taken to implement'' the 
responsibilities of the designated senior official and ``an initial 
list of technology items and equipment identified'' pursuant to the 
execution of these responsibilities. In coordination with the Office of 
the Under Secretary of Defense for Acquisition, Technology, and 
Logistics, my office is developing the report that will outline the 
process we will utilize to match DOD technology and equipment with 
first responder requirements.
                                 ______
                                 

            Questions Submitted by Senator Edward M. Kennedy

         SYSTEMS FOR FORCE PROTECTION AT MILITARY INSTALLATIONS

    5. Senator Kennedy. Secretary McHale, I would like to ask you a few 
questions about the protection of U.S. forces and installations, and 
how well the Department of Defense utilizes commercially available 
technology to achieve these missions. As homeland defense encompasses 
the protection of critical defense infrastructure against external 
threats, this issue appears to fall squarely within your purview.
    It is my understanding that whereas every U.S. embassy and every 
airport is protected with explosive trace detection systems, metal 
detectors, and x-ray scanners, there are very few of these systems 
deployed at military installations around the Nation and abroad. I 
played a role after the attack on the U.S.S. Cole in supporting the 
Navy in its effort to outfit all ships in the fleet with explosive 
trace detectors, to help prevent a recurrence of such a horrible event. 
But I fear that the Defense Department has not adopted widespread use 
of these systems and is failing to provide adequate force protection as 
a result.
    What is the current level of use of these types of detection 
systems at Defense Department facilities?
    Secretary McHale. Explosive trace detection systems, metal 
detectors, and x-ray scanners are presently employed at numerous DOD 
facilities worldwide. However, these capabilities are not universal. 
Concerted efforts are underway in each of the Services to increase the 
availability of equipment and systems to protect our installations and 
facilities. For example, the Army is executing a program to provide 
equipment packages to security forces at Army installations worldwide. 
The package includes large mobile vehicle inspection systems, explosive 
trace detection systems, x-ray inspection systems for cargo containers, 
portable and fixed barriers, closed circuit television cameras, 
portable light sets, and under-vehicle inspection capability. The Air 
Force, Navy, and Army have employed large vehicle imaging systems at 
some locations. The Navy is working to procure metal detectors and 
baggage scanning equipment (x-ray imaging) for larger ships. The Air 
Force has purchased baggage-scanning equipment (x-ray imaging) for 
their passenger terminals and mailrooms. Additionally, the Marine Corps 
has plans to purchase trace detectors in support of their Explosive 
Ordnance Detection (EOD) mission and the Navy has employed these 
systems in their shipboard operations. Furthermore, DOD is investing in 
a research, development, test, and evaluation (RDT&E) effort to field a 
neutron electric generator-based scanning system to automate threat 
recognition for large vehicles/containers.

    6. Senator Kennedy. Secretary McHale, who in the Department sets 
requirements for the acquisition and deployment of such systems?
    Secretary McHale. The individual Services set requirements for 
acquisition and deployment.

    7. Senator Kennedy. Secretary McHale, which office sets standards 
for the testing and evaluation of these systems?
    Secretary McHale. Within the Physical Security Equipment Advisory 
Group (PSEAG) and in accordance with DOD Directive 3224.3, the Navy 
oversees the RDT&E of explosive detection equipment (EDE). A CAPSTONE 
Requirements Document for EDE has been drafted and forwarded to the 
Joint Requirements Working Group of the PSEAG. Specific key performance 
parameters were included in this overarching document. The Naval 
Explosive Ordnance Disposal Technology Division, Indian Head, MD has 
been assigned as the Navy's Technical Development Agent (TDA) for EDE.

    8. Senator Kennedy. Secretary McHale, my understanding is that 
other agencies in the Federal Government have conducted extensive tests 
on these types of detection systems, such as the DHS--including the 
Transportation Security Administration, the Customs and Border 
Protection, and the Coast Guard--the Department of State, and the 
Department of Transportation. Does the Department of Defense plan to 
reinvent the wheel in evaluating these systems for its own use, or will 
it cooperate with these other agencies and take advantage of the 
analyses already conducted?
    Secretary McHale. To ensure the timely acquisition of the most 
effective force protection capability available, the Department 
continually evaluates test data from all sources of force protection 
technology. As an example, the test and evaluation efforts of the FAA 
in the area of trace detection have been leveraged extensively. DOD 
also uses State Department and U.S. Customs test data when deciding 
which commercial barrier systems and x-ray systems best meet the needs 
of the Services. Additional test and evaluation may be conducted when 
the efforts of other agencies do not fully address our requirements. As 
an example, additional evaluations may be conducted when the leveraged 
results have not considered unique safety or climatic conditions. The 
explosive detection equipment RDT&E program conducted on behalf of the 
DOD PSEAG has coordinated much of their work with other government 
agencies, academia, and the private sector. Over the past 3 years, the 
Navy has conducted comparative studies of trace explosive detectors, 
mailroom screening systems, and large vehicle imaging systems. Test 
results are shared with these agencies and all branches of the 
military.

    9. Senator Kennedy. Secretary McHale, I understand that this may be 
out of your direct purview, but it certainly relates to your 
responsibilities for protecting facilities and people. Do you know 
whether these types of systems are being planned for deployment in Iraq 
to protect our troops and the personnel helping to rebuild Iraq from 
terrorist bombs?
    Secretary McHale. This is not a matter in my direct purview; 
however, I am given to understand that forward operating bases in Iraq 
are protected by guarded perimeters with controlled access points 
patrolled by personnel with specialized equipment capable of detecting 
explosives and weapons.

                            FIRST RESPONDERS

    10. Senator Kennedy. Secretary McHale, I understand that part of 
the mission for your office is to assist the State and local public 
safety agencies to utilize DOD dual-use technology to enhance their 
response to acts of terrorism and other critical incidents. What 
process do you anticipate using to match the needs and requirements of 
first responders?
    Secretary McHale. Section 1401 of Public Law 107-314, the Bob Stump 
National Defense Authorization Act of Fiscal Year 2003, directed that 
``[t]he Secretary of Defense shall designate a senior official of the 
Department of Defense to coordinate all Department of Defense efforts 
to identify, evaluate, deploy, and transfer to Federal, State, and 
local first responders technology items and equipment in support of 
homeland security.'' I anticipate that I will be designated this senior 
official.
    Section 1401 also directed that ``the Secretary of Defense shall 
submit to the congressional defense committees a report on the actions 
taken to carry out this section,'' to include ``[a] summary of the 
actions taken or planned to be taken to implement'' the 
responsibilities of the designated senior official and ``an initial 
list of technology items and equipment identified'' pursuant to the 
execution of these responsibilities. In coordination with the Office of 
the Under Secretary of Defense for Acquisition, Technology, and 
Logistics, my office is developing the report that will outline the 
process we will utilize to match DOD technology and equipment with 
first responder requirements.

    11. Senator Kennedy. Secretary McHale, how can DOD create a 
permanent interface with this community?
    Secretary McHale. While the report on technology and equipment 
transfer to civil responders required by Section 1401 of Public Law 
107-314 (the Bob Stump National Defense Authorization Act of Fiscal 
Year 2003) and, therefore, a more complete answer to your question, 
remains in development, two stratagems for maintaining a permanent 
interface are:
    First, we can continue to leverage existing forums that have 
successfully engaged with first responder needs, such as the TSWG and 
the InterAgency Board on Standardization and Equipment. These two 
groups have had considerable success in properly interfacing with the 
first responder community.
    Second, we can work with the DHS; and more specifically, the Office 
of State and Local Coordination. Working cooperatively with DHS allows 
both DOD and the first responder community to have a single Federal 
clearinghouse rather than multiple, potentially confusing and competing 
Federal clearinghouses.

    12. Senator Kennedy. Secretary McHale, what benefits do you 
anticipate from this connection for both DOD and the first responder 
communities?
    Secretary McHale. I anticipate mutual benefits for DOD and the 
first responder community. As demonstrated by DOD's successful 
participation in such interagency efforts as the InterAgency Board on 
Standardization and Equipment and the TSWG, DOD can be a valuable 
source of useful technologies to first responders.
    DOD benefits materially and procedurally. For example, when the 
first responder community purchases a technology also used by DOD, the 
cost-per-unit may decrease as the number of units purchased increases. 
Additionally, the first responder community can be a rich source of 
lessons learned on the use of these technologies in urban and 
humanitarian operations.

                            CIVIL LIBERTIES

    13. Senator Kennedy. Secretary McHale, the military's ability to 
act on U.S. soil is limited by the Posse Comitatus Act and other 
legislative provisions, which prevent the military from traditional law 
enforcement activities, such as engaging in search and seizures. How do 
we balance these limitations against the increased role of the military 
in homeland security?
    Secretary McHale. Under the Constitution, the President, as 
Commander-in-Chief, may order the military to perform specific domestic 
missions under extraordinary circumstances. In addition to the 
President's constitutional authority, Congress has specifically vested 
the President with certain statutory authority to employ members of the 
Armed Forces. The insurrection statutes at 10 U.S.C. Sec. 331, et. 
seq., and Public Law 107-40, which grants the President authority to 
respond to terrorist incidents, are two examples of this type of legal 
authority. Other statutes authorize use of the Armed Forces and its 
unique capabilities in providing support to other agencies during 
domestic missions, operations, and activities. These include the 
Stafford Act, the Economy Act, and Chapter 18 of Title 10, United 
States Code, regarding military support to civilian law enforcement 
agencies.
    Immediate emergency response authority permits commanders to take 
prompt action to respond to requests from civil authorities to save 
lives, prevent human suffering, or mitigate great damage to property as 
a result of civil disturbances, disasters, or calamities seriously 
endangering life and property. Immediate emergency response is 
authorized only when time does not permit local commanders to seek and 
receive appropriate approval from the chain of command.
    The potential applicability of the Posse Comitatus Act is evaluated 
and resolved before military personnel undertake any mission, 
operation, or activity on U.S. territory, especially when providing 
support to civil law enforcement authorities. Since the President has 
constitutional and statutory authority to use the military to provide 
support to civil authorities, the Department does not believe that the 
act would impede the nature or timeliness of DOD support when directed 
to provide support by the President.

    14. Senator Kennedy. Secretary McHale, given the increased role of 
the National Guard in homeland security, those individuals are blurring 
the line between law enforcement and military operations. The Fourth 
Amendment is a very complex body of law. Are National Guardsmen 
receiving training in Fourth Amendment search and seizure law?
    Secretary McHale. While in State Active Duty (State-controlled/
State-funded) or Title 32 status (State-controlled/Federally-funded), 
National Guard Forces are not under the command and control authority 
of the Secretary of Defense or the President. Also, while in State 
Active Duty or Title 32 status, National Guard Forces are not subject 
to the provisions of the Posse Comitatus Act.
    The only training of a Fourth Amendment nature is MACDIS (Military 
Assistance for Civil Disturbances) training. National Guard units of 
select States are required to conduct annual sustainment training in 
this area. This training covers apprehension and detention operations, 
which includes searches of an individual in order to protect the safety 
of an apprehending soldier. In practice, apprehensions in a MACDIS 
situation are generally done by civil law enforcement officers or by 
guardsmen under their supervision. Further, National Guard Forces in 
State Active Duty or Title 32 status normally operate under State laws 
and each State grants their National Guard Forces different levels of 
law enforcement powers.

    15. Senator Kennedy. Secretary McHale, are they aware of the 
applicable doctrines and exceptions?
    Secretary McHale. While in State Active Duty or Title 32 status, 
National Guard Forces are not under the command and control authority 
of the Secretary of Defense or the President. Also, while in State 
Active Duty or Title 32 status, National Guard Forces are not subject 
to the provisions of the Posse Comitatus Act.
    While in State Active Duty or Title 32 status, National Guard 
Forces operate under State laws and each State grants their National 
Guard Forces different law enforcement powers. Some of the States' 
Rules for the Use of Force (RUF), employed by National Guard Forces 
when operating in their State, include minimal authority for searches 
and seizures, primarily used to apprehend and to protect the National 
Guard member from individuals being apprehended. In other States, RUF 
status allows somewhat broader search and seizure authority, such as 
searches of private vehicles for weapons. Examples of these States are 
Vermont, Texas, Illinois, and Nevada.
    Federalizing National Guard Forces to perform domestic law 
enforcement functions is the least effective and efficient method of 
employing our National Guard and the DOD method of last resort. The 
most appropriate status for them to perform such functions is in State 
Active Duty status. In the extremely rare occasion that National Guard 
Forces are federalized to perform law enforcement functions, members 
will receive appropriate training in Fourth Amendment search and 
seizure law.

    16. Senator Kennedy. Secretary McHale, have they received training 
in ethnic and racial profiling?
    Secretary McHale. While in State Active Duty or Title 32 status, 
National Guard Forces are not under the command and control authority 
of the Secretary of Defense or the President.
    Each State's judicial authorities establish the applicable legal 
authorities under which their respective National Guard members will 
operate when under State control. Since National Guard members are not 
granted full State law enforcement powers, ethnic and racial profiling 
is not seen as applicable to the National Guard.
    Federalizing National Guard Forces to perform domestic law 
enforcement functions is the least effective and efficient method of 
employing our National Guard and the DOD method of last resort. The 
most appropriate status for them to perform such functions is in State 
Active Duty status.

    [Whereupon, at 12:33 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
